<html>
<title> - Department of Defense Appropriations, 2011</title>
<body><pre>[Senate Hearing 111-688, Part 2]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-688

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________
 
                                                  Department of Defense

                                                         Appropriations

                                                            Fiscal Year
                                                                   2011

111th CONGRESS, SECOND SESSION 

                                                                S. 3800


PART 2  (Pages 1-650)

DEPARTMENT OF DEFENSE

NONDEPARTMENTAL WITNESSES

          Department of Defense Appropriations, 2011 (S. 3800)


















                                                        S. Hrg. 111-688

       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3800

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF DEFENSE FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2011, AND FOR OTHER PURPOSES

                               __________

                                PART 2

                          Department of Defense
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations

       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

54-962 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                        Subcommittee on Defense

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
RICHARD J. DURBIN, Illinois          JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         KAY BAILEY HUTCHISON, Texas
BARBARA A. MIKULSKI, Maryland        ROBERT F. BENNETT, Utah
HERB KOHL, Wisconsin                 SAM BROWNBACK, Kansas
PATTY MURRAY, Washington
ARLEN SPECTER, Pennsylvania

                           Professional Staff

                            Charles J. Houy
                            Nicole Di Resta
                            Kate Fitzpatrick
                               Katy Hagan
                              Kate Kaufer
                            Ellen Maldonado
                               Erik Raven
                               Gary Reese
                              Betsy Schmid
                             Bridget Zarate
                       Stewart Holmes (Minority)
                       Alycia Farrell (Minority)
                         Brian Potts (Minority)
                        Brian Wilson (Minority)

                         Administrative Support

                              Rachel Meyer
























                            C O N T E N T S

                              ----------                              

                        Wednesday, March 3, 2010

                                                                   Page

Department of Defense: Department of the Army: Office of the 
  Secretary......................................................     1

                       Wednesday, March 10, 2010

Department of Defense: Medical Health Programs...................    65

                       Wednesday, March 17, 2010

Department of Defense: Department of the Navy: Office of the 
  Secretary......................................................   173

                       Wednesday, March 24, 2010

Department of Defense:
    National Guard...............................................   235
    Reserves.....................................................   291

                       Wednesday, April 21, 2010

Department of Defense: Missile Defense Agency....................   337

                        Wednesday, May 12, 2010

Department of Defense: Department of the Air Force: Office of the 
  Secretary......................................................   365

                        Wednesday, June 16, 2010

Department of Defense: Office of the Secretary...................   409

                        Wednesday, June 23, 2010

Nondepartmental Witnesses........................................   473


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Shelby, and Brownback.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENTS OF:
        HON. JOHN M. McHUGH, SECRETARY
        GENERAL GEORGE W. CASEY, CHIEF OF STAFF


             opening statement of chairman daniel k. inouye


    Chairman Inouye. The hearing will come to order.
    This morning, we welcome the Honorable John McHugh, 
Secretary of the Army, along with General George Casey, the 
Chief of Staff of the United States Army.
    Gentlemen, we thank you for being here with us today as we 
review the Army's budget request for fiscal year 2011.
    Before proceeding, I'd like to announce that, because of 
illness, the vice chairman will not be with us this morning. In 
his place, we have the gentleman from Alabama.
    The Department of the Army's fiscal year 2011 budget 
request is $143.4 billion, an increase of $2.5 billion over 
last year's enacted budget, excluding funding appropriated to 
the Army in the fiscal year 2010 supplemental.
    The Army also has requested $20 billion for overseas 
contingency operations for the remainder of this fiscal year, 
primarily to fund surge operations in Afghanistan. In April of 
last year, President Obama and Secretary Gates announced 
substantial initiatives within the Department of Defense to 
strengthen our All-Volunteer Force, change how and what the 
Department buys, and rebalance military capabilities.
    After an overhaul of the Army's modernization effort last 
year, fiscal year 2011 budget request includes $3.2 billion for 
the Army's revamped Brigade Combat Team Modernization Program 
and provides $6 billion for Army aviation. The fiscal year 2011 
budget request builds upon the reform agenda set by Secretary 
Gates last year and supports the final year of a 5-year plan to 
restore balance to an Army that has experienced the cumulative 
effects of years upon years of conflict.
    The subcommittee is looking forward to hearing not only 
about these efforts, but also about the Department's vision to 
rebalance and reshape, as directed in the Quadrennial Defense 
Review (QDR) completed this past January. One of the central 
themes of the 2010 Quadrennial Defense Review is balance. The 
Department needs to find balance between providing capabilities 
to prevail in today's wars, while building the capabilities 
needed to counter future threats. The Army is shouldering a 
very heavy burden, since it has been conducting combat 
operations in two theaters while transforming and modernizing 
at the same time. However, budget pressures to support current 
operations have made it very difficult to allow for the 
investment in modernization.
    Not only is balance included and needed between meeting the 
demands of today and the threats of the future, it is also 
needed within each of the military services, and the Army has 
continued to answer the Nation's call, but it has been at the 
expense of maintaining a well-balanced force.
    We are aware of the demands created by more than 8 years of 
continuous war. Repeated and lengthy deployments have stressed 
our soldiers, their families, and our support systems and 
equipment. Currently the Department is managing a shift in 
focus in our overseas contingency operations. While the 
withdrawal of U.S. forces from Iraq has begun, an additional 
30,000 troops have been committed to supporting operations in 
Afghanistan.
    Since the Army is the service most heavily engaged in these 
operations, the Secretary of Defense has permitted the Army to 
retain 22,000 soldiers, temporarily, above the authorized end 
strength of 547,000. This decision was made to acknowledge the 
fact that future readiness is dependent upon restoring balance 
and lessening the strain upon the force.
    Finally, there is one other type of balance that this 
subcommittee will be looking for during the budget review, the 
balance between risk and resources. The Quadrennial Defense 
Review has set the agenda and defined requirements, and 
presumably the Department has budgeted for those priorities. 
However, there will never be enough resources to eliminate all 
risk. It is our hope that today's hearing will help illuminate 
how the Army's fiscal year 2011 budget request addresses the 
recommendations of the Quadrennial Defense Review while 
maintaining balance among a number of valued, yet equally 
important, priorities.
    Gentlemen, we sincerely appreciate your service to our 
Nation and your dedication and sacrifices made daily by the men 
and women in our Army. We could not be more grateful for what 
those who wear our Nation's uniform do for our country each and 
every day.
    Gentlemen, your full statements will be made a part of the 
record.
    And I would now wish to turn to the Senator from Alabama.


                 statement of senator richard c. shelby


    Senator Shelby. Thank you, Mr. Chairman. I'll be brief. I 
just want to join you in welcoming Secretary McHugh and General 
Casey to this subcommittee. They're no strangers here.
    Thank you.
    Chairman Inouye. I thank you very much.
    Now, with that, Secretary, we are depending on you, sir.


                 summary statement of hon. john mc hugh


    Mr. McHugh. Thank you very much, Mr. Chairman.
    As you noted, we'll enter, with your permission, our full 
statements into the record. And I know time is of some concern 
here this morning, so I just would like to summarize a few of 
those points.
    First of all, I want to, at the risk of stating the 
obvious, say what an honor it is to be here today. I had the 
distinct honor of serving for 17 years on the House Armed 
Services Committee, and in that time I gained a great 
appreciation for the great work this subcommittee does, for the 
enormous support that it has, historically, and certainly under 
the leadership of you, the vice chairman, and the current 
members, have continued in support of not just our Army, but 
all of our services. I certainly want to take this opportunity 
to express my personal appreciation and thanks for all that you 
do, and all that you will continue to do.
    If I may, Mr. Chairman, just a few comments on my now 5 
months as the 21st Secretary of the Army. And while it's been a 
crash course of learning, I think some things are obvious. And 
I would add, Mr. Chairman, in listening to your opening 
comments, I think you've encapsulated very well the key 
questions, the key challenges that lie before us.
    As you've said, Mr. Chairman, and as I have seen from the 
first day I walked into that hallowed building on the other 
side of the Potomac, this is an Army that clearly is fatigued, 
is stressed by nearly 9 years of combat. But, it is still an 
Army that is amazingly resilient, that is amazingly effective. 
Today, as you know, this is an Army that has more expertise, 
more education, it has more capability and lethality than any 
Army in our Nation's history. That is, in no small measure, 
because of the great support and leadership that has come out 
of this great subcommittee.
    Those are significant gains, but, in spite of those gains, 
this is, quite simply, an Army that is, and remains, out of 
balance. The Chief of Staff--General Casey--and my predecessor, 
Pete Geren, the Army leadership, along in partnership with the 
Congress have made great progress in bringing that balance 
back. I think, one of the key assets and key attributes of the 
President's proposed budget is that it allows us to continue 
the regaining of balance, and, in fact, should allow us to 
finish it. But, this is a very delicate balance, and we need to 
stay focused on that objective.
    You noted, Mr. Chairman, the variety of appropriations that 
take us toward that goal, the $1.7 billion in requests to 
continue to fund our vital family programs in support of those 
amazing families, and other initiatives. I won't continue to 
repeat those, but a couple of other points, I think, do bear 
noting.
    We remain extraordinarily committed to our wounded 
warriors. Tomorrow, I will have the opportunity to pay my 
regular visit to Walter Reed, and I know what I will see. I 
will see a cadre of individuals who have stepped forward, who 
have given more in their time on the battlefield than most 
Americans could possibly imagine, and who will ask one simple 
question, ``What can I do to serve more?'' We recognize the 
obligation we have to provide world-class transition, world-
class healthcare services to those heroes. This budget provides 
us with that opportunity and allows us to go forward in that 
solemn obligation.
    It also allows us to do something very important, in terms 
of recapitalizing, rebalancing, and modernizing our equipment 
systems that require those kinds of adjustments. And, as you 
noted, Mr. Chairman, that's a significant challenge under the 
best of circumstances, but clearly, at time of war, becomes 
even more problematic. But, with your support, we will continue 
to do that. The funding is there--$3.1--$31.7 billion in 
research and development, brigade combat team modernization 
funds, et cetera, et cetera.
    The other thing--and it's something that this Congress 
recognized last year--that we need help in is acquisition 
reform. I think it's necessary to give our acquisition people, 
who have also been at war for nearly 9 years, their due. Over 
the last 10 years, they've had a 15-percent cut in personnel 
and a 500-percent increase in their dollars to bring under 
contract. And in spite of that, in that time, 1,000 protests 
brought against the decisions that they made, and only 8 of 
those 1,000 protests upheld. Still, they would be the first to 
recognize they need help. We need to continue to redevelop the 
acquisition rules and regulations to allow us to be more 
effective in support of the warfighter, and, equally important, 
more efficient in support of our taxpayer dollars. We look 
forward in engaging with this Congress, with this great 
subcommittee, in bringing that about.


                           prepared statement


    In the end, I would tell you, we have an Army that is 
strong in spirit, it is strong in ability and in results. But, 
as I said in my opening comments, and as you noted, Mr. 
Chairman, it is an Army that is greatly stressed. We can do 
better by them. We feel that's our obligation and what this 
budget brings to the table and allows us the opportunity to do. 
And, in partnership with you, we look forward to pursuing that 
very worthy goal.
    With that, Mr. Chairman, I'd yield back.
    Chairman Inouye. I thank you very much, Mr. Secretary.
    [The statement follows:]
 Prepared Statement of John M. McHugh and General George W. Casey, Jr.
                              introduction
    America's Army continues to answer the Nation's call, as it has 
since it was established nearly 235 years ago. Today our Army is 
fighting two wars, assisting other nations as they build their own 
security capacity, supporting civil authorities at home, helping the 
people of Haiti rebuild after a devastating earthquake, and preparing 
to deter and defeat new threats. The Army's Soldiers, Civilians, and 
Families faithfully shoulder the load that our Nation asks of them. 
With the support of the Congress, we are on track with our 4-year plan 
to put the Army back in balance.
    Though their sacrifices can never be fully repaid, the Nation 
continues to recognize and honor our Soldiers and their Families by 
supporting them before, during, and following deployments. Our Soldiers 
rely upon the best training and equipment that our Nation can provide 
to accomplish their mission. Yet even with this continued support, the 
demands of 8 years of war weigh heavily on our Army. The strain of 
multiple deployments is evident on Soldiers and their Families. 
Equipment is used at a pace that seriously challenges our maintenance 
and replacement capabilities and resources. The stress is present in 
our institutions as we change 20th century systems and processes to 
meet the demands of the 21st century.
    Our Nation faces the difficult challenge of balancing when, where, 
and how to engage in a dynamic and uncertain world while meeting 
important priorities at home. However, when the security of our 
citizens or allies is threatened, the Nation can depend on America's 
Army--the Strength of the Nation.
                           strategic context
    The United States faces a complex strategic landscape with an array 
of diverse security challenges. We are fighting wars in Iraq and 
Afghanistan while preparing for future challenges to our national 
security. For the foreseeable future, violent extremist movements such 
as Al Qaeda and other terrorist organizations comprise the most 
immediate threats. Current global economic conditions, changes in 
demographics, cultural pressures associated with globalization, and 
competition for scarce resources exacerbate the uncertainty and 
volatility of the strategic environment. Within this setting, the 
American Soldier stands as our Nation's most visible and enduring 
symbol of commitment in an era of persistent conflict.
                          persistent conflict
    For the near future, persistent conflict--protracted confrontation 
among state, non-state, and individual actors that are increasingly 
willing to use violence to achieve their political and ideological 
ends--will characterize the global security environment. Security 
crises will arise unpredictably, vary in intensity and scope, and last 
for uncertain durations. These challenges will take place in all 
domains: land, sea, air, space, and cyberspace. Natural disasters and 
humanitarian emergencies will continue to be frequent and unpredictable 
missions, requiring the commitment of Soldiers and resources. In this 
dynamic environment, the Army will conduct operations that span the 
spectrum of conflict from humanitarian and civil support to 
counterinsurgency to general war, often simultaneously.
                             global trends
    Several global trends will continue to shape the international 
security environment and the conflicts confronting our Nation. 
Globalization may increase prosperity, but it can also spread 
destabilizing influences. The unequal distribution of benefits creates 
societies with divisions between ``haves'' and ``have nots''--divisions 
that can be exploited by extremist ideologies and lead to conflict. 
Fault lines reflecting protracted competition and friction can erupt 
unpredictably as societies struggle to adjust to the move toward 
modernity and greater interdependence. Meanwhile, increasingly 
available and affordable technology provides our adversaries 
sophisticated tools to enable a networked approach to recruiting the 
disenfranchised and exporting terror.
    Shifting demographics and rapid population growth that is 
increasingly urbanized can continue to break down traditional, 
localized norms of governance, behavior, and identity, and further 
strain already stressed governments. This is especially true where a 
lack of economic opportunity increases the potential for instability 
and extremism. Those who are disaffected may rebel against perceived 
Western interference, challenges to traditional values, and ineffective 
governments. Increased resource demand, in particular energy, water, 
and food, is a consequence of growing prosperity and populations. The 
growing global competition for resources will continue to produce 
friction and increase opportunities for conflict. In this environment, 
climate change and natural disasters will compound already difficult 
conditions in developing countries by igniting humanitarian crises, 
causing destabilizing population migrations, and raising the potential 
for epidemic diseases.
    The two trends of greatest concern are the proliferation of weapons 
of mass destruction (WMD) and failed or failing states. A catastrophic 
attack utilizing WMD has the potential to be globally destabilizing. 
Failed or failing states, lacking the will or capacity to maintain 
effective territorial control, contribute to regional instability and 
provide ideal environments for terrorist groups to plan and export 
operations. The merging of these two trends constitutes a significant 
and compelling threat. Together, these trends make conflict in the 
decades ahead more likely.
               character of conflict in the 21st century
    Global trends and recent conflicts--such as those in Lebanon and 
Georgia--and our own recent combat experience indicate the evolving 
character of conflict in the 21st century.
    Conflicts will be waged among diverse actors--state and non-state--
with the latter employing capabilities that, during the last century, 
remained largely the purview of nation-states. Motives, objectives, and 
often the identities of these actors will be difficult to discern, and 
are likely to shift as some act covertly and others use proxies. The 
battle to gain influence over, and support from, populations will be 
central to our success. Therefore, conflict will be unavoidably waged 
among the people.
    The initiation, location, duration, and intensity of conflicts are 
increasingly unpredictable. In an interdependent world, conflicts are 
more susceptible to the potential for spillover, creating regionally, 
and potentially globally, destabilizing effects. All of this will occur 
under the unblinking scrutiny of the 24-hour global media cycle and the 
Internet. Details of conflict as well as misinformation will flow 
equally across social, communications, and cyber networks. Our 
adversaries will exploit these media and communication sources locally 
and globally.
    We are more likely to face hybrid threats--diverse and dynamic 
combinations of conventional, irregular, terrorist, and criminal 
capabilities employed asymmetrically to counter our advantages. Hybrid 
threats require hybrid solutions--adaptive military forces that can 
function in a variety of situations with a diverse set of national, 
allied, and indigenous partners. Given the strategic environment, 
enduring global trends, and the character of 21st century conflict, the 
Army will operate as part of a Joint, interagency, inter-governmental, 
and multi-national team to fulfill its global commitments.
                          roles of land forces
    More than one million of our men and women have served in the 
ongoing campaigns in Iraq and Afghanistan. Over 3,900 American Soldiers 
have given their lives, and more than 25,000 others have been wounded 
during this longest period of sustained conflict ever fought by an all-
volunteer force. Today, America's Army has over 255,000 Soldiers and 
more than 18,500 Army Civilians serving in nearly 80 countries around 
the world--with the remainder stationed within the United States 
supporting domestic missions, resetting from recent deployments, or 
preparing for an upcoming deployment.
    Our Soldiers are performing magnificently around the world every 
day, and the roles for land forces in this environment are becoming 
increasingly clear.
    First, the Army must prevail in protracted counter-insurgency 
(COIN) operations. Not only must we prevail in our current missions in 
Iraq, Afghanistan, and the Philippines, we must be prepared to prevail 
in any future COIN operation.
    Second, the Army must engage to help other nations build capacity 
and to assure our friends and allies. Through security force 
assistance, we can increase the capacity of other nations' military and 
police to uphold the rule of law, ensure domestic order, and deny 
sanctuary to terrorists--thereby helping avoid future conflicts that 
might otherwise develop. American Soldiers are currently deployed to 
Central America and the Balkans, building the capacity of indigenous 
security forces. Additionally, the Army has established an Army Service 
Component Command for U.S. Africa Command to assist partner nations and 
humanitarian organizations in Africa.
    A third role that the Army fulfills is to provide support to civil 
authorities at home and abroad. In the past year alone, American 
Soldiers have fought fires in the west, conducted search and rescue 
operations in the Rockies and Alaska, and assisted with tsunami relief 
in American Samoa, in support of civil authorities. The Army has also 
provided a sizeable force to support the relief efforts in Haiti 
following the catastrophic earthquake that destroyed its capital. Army 
units from both the active and reserve components remain prepared to 
react to a variety of crises as consequence management and response 
forces. The U.S. Army Corps of Engineers is a lead organization in 
providing DOD support to civil authorities for disaster relief at home 
and engineering support to USAID overseas. Abroad, the Army has also 
supported civil authorities in many ways, such as sending Agribusiness 
Development Teams from the Army National Guard to Afghanistan.
    Finally, the Army must deter and defeat hybrid threats and hostile 
state actors. As an Army, we recognize that we must remain prepared to 
meet and defeat hostile state actors that threaten our national 
security. But we recognize that the probability of facing a nation that 
will challenge America's military head-on is lower than it was during 
the Cold War and other periods in our history. Our readiness and 
capability to confront near-peer competitors also deters war by raising 
the stakes for nation-state and hybrid actors who would threaten our 
security interests.
    To meet these threats, Army units continue to participate in Joint 
and international training exercises around the world, ensuring that 
military skills and cooperative partnerships remain strong. The Army 
continues to position forces in Korea and at various missile defense 
sites in order to discourage actors who seek to disrupt regional 
stability and security.
                        two critical challenges
    The Army has operated at a demanding pace for the last 8 years, and 
while it has met each challenge, the strain has placed the Army out of 
balance. Demand for Army forces continues to exceed the sustainable 
supply. Against that backdrop, the Army continues to meet the wartime 
requirements of our Nation while it addresses the two major challenges 
facing our force--restoring balance and setting conditions for the 
future. In 2007, we established a 4-year plan to restore balance to an 
Army that had experienced the cumulative effects of years of conflict. 
The fiscal year 2011 budget supports the final year in that plan. As we 
continue to restore balance to the force, we are also setting the 
conditions for the Army of the 21st century--an Army that fulfills our 
strategic role as an integral part of our Joint Force.
             restoring balance: the army's four imperatives
    With the help of Congress, we have made significant progress over 
the past 3 years in our plan to restore balance--a plan founded on four 
imperatives. Yet today the Army remains out of balance. We've improved 
our ability to sustain the Army's Soldiers, Families, and Civilians; 
prepare forces for success in the current conflict; reset returning 
units to rebuild the readiness consumed in operations and to prepare 
for future deployments and contingencies; and transform to meet the 
demands of the 21st century. As a result of this progress we now are in 
a better position to achieve balance than we were 2 years ago. Critical 
to this was the growth in the size of the Army.
    The security agreement with Iraq that transferred security in urban 
areas to Iraqis was a momentous and welcomed accomplishment. The hard 
work and sacrifice of our Soldiers with the support of Congress helped 
make this achievement possible and set the conditions for our 
responsible drawdown of combat forces in Iraq this year. Coupled with 
our growth, the drawdown in Iraq allowed for our increased commitment 
of forces to Afghanistan to stem the rising violence, and disrupt, 
dismantle, and defeat al-Qaeda while reversing the momentum of the 
Taliban insurgency. However, the campaigns in Iraq and Afghanistan 
continue to create demands that have our Army operating beyond 
sustainable capacity. In fact, in 2009 more Soldiers were deployed in 
Iraq and Afghanistan combined than during the height of the Iraq surge.
    Presently, and for the short term, we lack sufficient strategic 
flexibility, and we continue to accumulate risk. We continue to stress 
our Soldiers, Families, Civilians, equipment, and institutional 
systems, so our efforts to restore balance must not waiver.
Sustain
    Sustaining our all-volunteer force is our first imperative. Nowhere 
is the stress on our force more profound than in the toll it takes on 
our people, as is tragically evident in the rising number of suicides 
and increasing need for counseling among our Soldiers and Families. We 
are aggressively addressing the causes of stress on individuals 
resulting from the cumulative effects of multiple deployments, and 
seeking to build resilience in Soldiers, Families and Civilians. The 
Army is committed to ensuring that the quality of life of those who 
serve the Nation is commensurate with the quality of their service.
            Goals
    To sustain the force, the Army continues to pursue four major 
goals. Our first goal is to Recruit and Retain quality Soldiers and 
Civilians dedicated to service to the Nation. Next, we are committed to 
furnishing the best Care, Support, and Services for Soldiers, Families, 
and Civilians by improving quality of life through meaningful 
initiatives such as the Army Family Action Plan, the Army Family 
Covenant, Army Community Covenants, and the Comprehensive Soldier 
Fitness Program. It is our solemn obligation to provide world-class 
Warrior Care and Transition to our wounded, ill, and injured Warriors 
through properly led and resourced Warrior Transition Units. Finally, 
by Supporting the Families of our Fallen Comrades we honor their 
service and sacrifice.
            Progress and Accomplishments
    The Army met 104 percent of its recruiting goals for 2009, and 
achieved both numeric goals and quality benchmarks for new recruits.
    All components exceeded 105 percent of their reenlistment goals.
    We reduced off-duty fatalities by 20 percent, to include a 15 
percent reduction in overall privately-owned-vehicle fatalities and 37 
percent reduction in motorcycle fatalities.
    In collaboration with the National Institute of Mental Health, the 
Army began a seminal study into suicide prevention that will inform the 
Army Suicide Prevention Program and society's approach to suicide.
    We began instituting Comprehensive Soldier Fitness--an all-
inclusive approach to emotional, social, spiritual, family, and 
physical fitness--as the foundation to building resiliency within the 
Army.
    We initiated an unprecedented series of construction projects at 
five major hospitals as part of our commitment to modernize our 
healthcare system.
    The Army established the Warrior Transition Command and reorganized 
Warrior Transition Brigades to provide centralized support, 
rehabilitation, and individualized transition planning to our 
recovering Warriors.
    We expanded Survivor Outreach Services to over 26,000 Family 
members, providing unified support and advocacy, and enhancing survivor 
benefits for the Families of our Soldiers who have made the ultimate 
sacrifice.
    We implemented the Post 9/11 GI Bill, significantly increasing 
educational benefits for active duty Soldiers, Veterans, and Family 
members.
    The Army Reserve established Army Strong Community Centers to 
support geographically-dispersed Soldiers and Families. Together with 
Army National Guard Family Assistance Centers and Soldier and Family 
Assistance Centers on active duty installations, these centers provide 
help to Soldiers' Families near their hometowns.
            Fiscal Year 2011 Budget Highlights
    Provides $1.7 billion to standardize and fund vital Family programs 
and services to include welfare and recreation; youth services and 
child care; Survivor Outreach Services; and expanded education and 
employment opportunities for Family members.
    Provides a 1.4 percent military basic pay raise and Civilian pay 
raise, a 3.9 percent basic allowance for housing increase, and a 3.4 
percent basic allowance for subsistence increase.
    Warrior Transition Units for our wounded Soldiers will continue to 
receive strong support in fiscal year 2011 with $18 million in Military 
Construction funds allocated to resource construction of barracks 
spaces.
    Supports Residential Communities Initiatives program, which 
provides quality, sustainable residential communities for Soldiers and 
their Families living on-post, and continues to offset out-of-pocket 
housing expenses for those residing off-post.
Prepare
    Our Soldiers face determined enemies--so preparing the force for 
our current conflict is complex and time-consuming, but essential for 
success. Our units must have the people, training, and equipment they 
need to prevail. Meanwhile, our institutions and systems must adapt to 
provide those critical capabilities in a timely manner and in 
sufficient quantities.
            Goals
    To prepare the force, we have four key goals. First, we accelerated 
the pace at which we needed to Grow the Army to our end strength and to 
grow our modular brigades to 73 Brigade Combat Teams (BCTs) and nearly 
230 Support Brigades. Second, the Army is committed to improving 
individual and collective Training to better prepare Soldiers and 
leaders for a complex and challenging operational environment. Next, we 
continuously work to provide our formations with effective Equipment in 
a timely manner that maintains our technological edge and protects our 
most critical resource--the Soldier. Finally, we must transform the 
Army to a rotational model--Army Force Generation (ARFORGEN)--the core 
process for generating trained, ready, and cohesive units on a 
sustained and rotational basis--to meet current and future strategic 
demands.
            Progress and Accomplishments
    We began the phase-out of stop-loss, starting with the Reserve 
Component in August 2009 and the Army National Guard in September 2009, 
and followed by the Active Army in January 2010. Today, no mobilizing 
or deploying units have stop-loss Soldiers in their ranks.
    The force achieved its ``Grow the Army'' end strength goal of 1.1 
million in 2009. The active component continues to grow toward its 
additional authorized Temporary End Strength in order to improve unit 
manning within the already existing Army structure as we eliminate 
stop-loss.
    Fifteen month tours effectively ended in November 2009, when the 
last Soldiers on those extended deployments returned.
    We completed fielding nearly 12,000 Mine Resistant Ambush Protected 
(MRAP) vehicles in Iraq and Afghanistan and delivered the first MRAP 
All-Terrain Vehicles (M-ATVs) to Afghanistan--just 15 months after 
identifying the need for that capability. As of the beginning of 
February, we have provided nearly 800 M-ATVs to Afghanistan.
    This year, we successfully manned, trained, equipped, and deployed 
67 brigade equivalents.
    The Army exceeded fleet readiness of 90 percent for ground 
equipment, to include MRAPs, and 75 percent for aviation.
    We established Army Training Network (ATN)--a 21st Century Approach 
to Army Training. This revolution in training knowledge access is now 
providing a one-stop portal to share training best practices, 
solutions, and products across the Army.
    The Army increased its employment of biometric technologies 
enabling the Army to better identify the enemy among the populace.
Fiscal Year 2011 Budget Highlights
    Funds permanent, active component end strength at 547,400; Army 
Reserve at 205,000; and National Guard at 358,200 in the base budget 
and supports a 22,000 temporary increase in the active component 
through the Overseas Contingency Operations (OCO) request.
    Procures and upgrades the Army's UH-60 Black Hawk, CH-47 Chinook, 
and AH-64 Apache helicopters, which are vital to operations in 
Afghanistan and Iraq.
    Provides over $1 billion for flight crew training in all components 
to fund flying hours, maintenance, fuel, airfield operations, and 
specialized skill training.
Reset
    With the pace of continuous combat operations in two wars for the 
past 8 years, we are consuming our readiness as fast as we can build 
it. Reset restores returning units--their Soldiers, Families, and 
equipment--to a level of readiness necessary for future missions.
            Goals
    Our Reset plans include four goals. Our efforts to Revitalize 
Soldiers and Families seek to reestablish and strengthen relationships 
following deployments. The Army's comprehensive efforts to Repair, 
Replace, and Recapitalize Equipment affected by the harsh environments 
of the war are essential to resetting units. In particular, achieving 
responsible drawdown in Iraq while increasing our commitment of forces 
and equipment to Afghanistan will require an unprecedented reset 
effort. The Army must Retrain Soldiers, Leaders, and Units to build 
critical skills necessary to operate across the spectrum of conflict in 
the current security environment. Lastly, we are identifying and 
applying the lessons learned from the Reset Pilot Program that was 
designed to improve the efficiency and effectiveness of the Reset 
process. Army Reset is a necessary process that must continue not only 
as long as we have forces deployed, but an additional two to three 
years after major deployments end.
            Progress and Accomplishments
    The Army completed the reset of 29 brigades' worth of equipment in 
fiscal year 2009 and continued the reset of 13 more. In total, we have 
reset more than 98,000 pieces of equipment as depot production has 
doubled since September 11, 2001.
    We began executing a responsible drawdown in Iraq which will 
redistribute, transfer, or dispose of 3.4 million pieces of equipment; 
redeploy 143,000 military and Civilian personnel, and 147,000 
contractors; close 22 supply support activities; and consume or dispose 
of over 21,000 short tons of supplies.
    In 2009, more than 160,000 Soldiers and Family members participated 
in over 2,600 Strong Bonds events designed to strengthen Army Families.
    The Army continues to revise its approach to training by 
emphasizing doing fewer tasks better, making judicious use of field 
time, and maximizing the use of mobile training teams and distributed 
learning.
    We completed our Reset Pilot Program and will begin instituting the 
full Reset model across the Army in 2010.
    The Army fostered partnerships by executing more than $24 billion 
in new foreign military sales.
            Fiscal Year 2011 Budget Highlights
    Provides $10.8 billion to reset Army equipment through the Overseas 
Contingency Operations (OCO) request.
    Supports training and sustainment of Army forces to include 
individual skills and leader training; combined arms training toward 
full spectrum operations; and adaptable, phased training based on the 
ARFORGEN process.
Transform
    Since 2004, the Army has been transforming our force to provide the 
combatant commanders tailored, strategically responsive forces that can 
dominate across the spectrum of conflict. Transformation is a 
continuous process that sets the conditions for success against both 
near-term and future enemies.
            Goals
    Our goals for transformation include continued Modular 
Reorganization to standardize our formations to create a more 
deployable, adaptable, and versatile force. We will accelerate fielding 
of Advanced Technologies to ensure our Soldiers retain their 
technological edge. The Army will Operationalize the Reserve Components 
by systematically building and sustaining readiness while increasing 
predictability for these Soldiers, Families, employers, and 
communities.
    Completing the requirements of the Base Realignment and Closure 
(BRAC) statutes is central to Restationing Forces. Soldier and Leader 
Development will ensure that we produce the next generation of agile 
and adaptive military and Civilian leaders who are supremely competent 
in their core proficiencies and sufficiently broad enough to operate 
effectively in the Joint, interagency, intergovernmental, and multi-
national environments.
            Progress and Accomplishments
    The Army is 88 percent complete on the modular conversion of its 
brigades. The fiscal year 2011 budget will support the near completion 
of this process.
    The Army consolidated existing aviation force structure to create a 
12th active component combat aviation brigade (CAB) forming an 
additional deployable CAB without adding force structure.
    The Army activated the 162nd Infantry Brigade at Fort Polk, 
Louisiana, providing a dedicated and enduring capability to prepare 
combat advisors to train and build capacity in foreign security forces. 
Trainers from the brigade are now deployed to Afghanistan to assist 
with the training and development of the Afghan Security Forces.
    The Army developed a new incremental capability package approach to 
modernization which will allow technologically mature, Soldier-tested, 
proven technologies to be prioritized, bundled in time, and fielded to 
the force more quickly than ever before.
    We provided combatant commanders with dedicated, regionally based 
network operations support, and integrated cyber security capability in 
the form of Theater Network Operations and Security Centers, unique 
within the Department of Defense.
    This past year, the Army closed three active installations and five 
U.S. Army Reserve Centers and is on course to complete BRAC in fiscal 
year 2011. To date, we have awarded 265 major military construction 
projects, of which 59 are complete.
    The Army built a Leader Development Strategy that balances 
experience, greater opportunities for professional education, and 
training in full spectrum operations.
            Fiscal Year 2011 Budget Highlights
    Invests nearly $3.2 billion in BCT modernization programs that 
include procurement of the first incremental changes packages for 
Infantry BCTs and additional research, development, testing, and 
evaluation funding for subsequent change packages as well as initial 
development of the Ground Combat Vehicle (GCV).
    Provides funds to begin equipping a 13th Combat Aviation Brigade.
    Supports the increase in ISR platforms to include the Extended 
Range/Multi-Purpose, Raven, Shadow unmanned aerial vehicles (UAVs) and 
the Extended Medium Altitude Reconnaissance and Surveillance System.
                   setting conditions for the future
21st Century Army
    The second critical challenge facing the Army is setting the 
conditions for the future through a continuous process of 
transformation. We must ensure that our Nation has the capability and 
range of military options to meet the evolving challenges we face in 
the 21st century. We need an Army that is a versatile mix of tailorable 
and networked organizations, operating on a rotational cycle, to 
provide a sustained flow of trained and ready forces for full spectrum 
operations and to hedge against unexpected contingencies--at a tempo 
that is predictable and sustainable for our all-volunteer force.
    Versatility is the central organizing principle of a balanced Army. 
It enables our forces and institutions to effectively execute 
operations across the spectrum of conflict. Our modular heavy, Stryker, 
and light brigades provide a versatile mix of forces that can be 
combined to provide multi-purpose capabilities, and sufficient capacity 
to accomplish a broad range of tasks from peacetime engagement to major 
combat operations.
    Our modular units are designed to be tailorable. Brigades now have 
capabilities previously found at division level and higher. These 
brigades can be tailored for specific missions and combined with 
support units and key enablers such as ISR, communications, civil 
affairs, psychological operations, public affairs capabilities, and 
expanded logistics support, to accomplish a wide variety of missions 
and increase the land options available to combatant commanders.
    The network is essential to a 21st century Army. Networked 
organizations improve the situational awareness and understanding 
leaders need to act decisively at all points along the spectrum of 
conflict, while providing connectivity down to the individual Soldier. 
The network allows dispersed Army organizations to plan and operate 
together, and provides connectivity to Joint, combined, and interagency 
assets. To support this objective, the Army will use the Global Network 
Enterprise Construct (GNEC) as our strategy to transform LandWarNet to 
a centralized, more secure, operationalized, and sustainable network 
capable of supporting an expeditionary Army.
    To provide a sustained flow of trained and ready forces at a tempo 
sustainable for our all-volunteer force, we will put the whole Army 
under a rotational model--ARFORGEN.
    The ARFORGEN process includes three force pools--Reset, Train-
Ready, and Available. Each of the three force pools contains a 
versatile force package, available at varying time intervals based on 
its readiness level. Each force pool consists of an operational 
headquarters (a corps), five division headquarters (of which one or two 
are National Guard), twenty brigade combat teams (three or four are 
National Guard), and 90,000 enablers (about half of those are Guard and 
Reserve). Each will be capable of full spectrum operations once we 
reach a steady-state, ratio of time deployed (known as ``boots on the 
ground'' or BOG) to time at home (dwell) of 1:2 (BOG:dwell) for active 
component forces and 1:4 for reserve component forces. This versatile 
mix of land forces could sustain operations in Iraq and Afghanistan. At 
lower demand levels, a sustainable BOG:dwell ratio of 1:3 for active 
component forces and 1:5 for reserve component forces provides ready, 
global reaction forces and regionally-oriented forces for engagement in 
support of Theater Security Cooperation Programs. This process also 
allows strategic flexibility to surge in response to unexpected 
contingencies across the spectrum of conflict, and provides operational 
depth with more forces available for longer commitment times.
    The increased demands of our combatant commanders, coupled with the 
size of our active component (AC) force, require that we continue to 
integrate reserve component (RC) forces as part of our operational 
force. Continued and routine access to our RC forces is essential to 
sustaining current operations, and is improving the overall operational 
experience and quality of our RC forces. Additionally, sufficient Army 
National Guard (ARNG) forces must be ready and immediately available to 
their state and territorial authorities to respond to domestic crises. 
We are building an integrated Army in which our RC forces are included 
in the rotational cycle, but at a deployment rate of about half that of 
their AC counterparts.
    The ARFORGEN process increases predictability for Soldiers, 
Families, employers, and communities, and enables our RC to remain an 
integral element of the operational force while providing the Nation 
with the strategic depth (i.e. those non-deployed units which are 2 to 
3 years from commitment) and operational flexibility to meet unexpected 
contingencies.
    The Army has undergone significant changes in recent years, and we 
must continue to change in order to keep pace with an environment of 
uncertainty and complexity in this era of persistent conflict. The same 
requirements that drive the imperative to change also drive our 
modernization efforts and need for institutional adaptation.
Realizing Change
    To become the Army the Nation needs in the second decade of the 
21st century, we are transforming the Army and prioritizing programs 
and efforts that show the most promise for today and tomorrow. 
Similarly, we are transforming business processes across the Army, 
including how we identify requirements, acquire, and provide materiel 
capabilities to our Soldiers, and how we adapt our institutions to 
align with the ARFORGEN process.
    On April 6, 2009, Secretary Gates announced his adjustments to the 
defense program as part of the President's budget proposal for fiscal 
year 2010. The Secretary's decisions had an immediate and major impact 
on our FCS-centric Army modernization effort. He terminated the MGV 
portion of FCS, directing that we ``reevaluate the requirements, 
technology, and approach--and then re-launch the Army's vehicle 
modernization program. . . .'' He further directed the Army to 
``accelerate the initial increment of the program to spin out 
technology enhancements to all combat brigades,'' and retain and 
deliver software and network development program in increments, and 
incorporate MRAP into our force structure. Secretary Gates' intent for 
these bold adjustments was clear--to better reflect the lessons that we 
were learning from ongoing operations and better posture Army forces 
for a broader range of future challenges.
    To fully implement the Secretary of Defense's direction, the Army 
has developed a comprehensive plan. We refer to this new program as the 
Army's ``Brigade Combat Team Modernization Plan,'' which is a subset of 
our overall Army Modernization Strategy.
            BCT Modernization Plan
    We will leverage the lessons learned from the last 8 years to 
provide effective and affordable equipment now, while reducing the time 
it takes to develop and field new and updated materiel solutions. BCT 
Modernization includes four elements: modernizing the network over time 
to take advantage of technology upgrades, while simultaneously 
expanding it to cover ever increasing portions of the force; 
incorporating MRAPs into our force; rapidly developing and fielding a 
new Ground Combat Vehicle that meets the requirements of the 21st 
century Army; and incrementally fielding Capability Packages that best 
meet the needs of Soldiers and units as they train and then deploy.
    Army Network.--Central to the Army's modernization efforts is an 
enhanced and interoperable communication network that gives the Army a 
decisive advantage across the spectrum of conflict. The network 
supports leaders in making timely, informed decisions, and supports 
organizational agility, lethality, and sustainability. It allows our 
Soldiers to know where the enemy is, where other friendly forces and 
civilian populations are, and what weapon systems are available for 
them at any given time. The network links Soldiers on the battlefield 
with space-based and aerial sensors, robots, and command posts--
providing unprecedented situational awareness and control and enabling 
the application of precise lethal fires on the modern battlefield.
    Maintaining our technological advantage is a constant challenge. 
The Army's battle command network must be continuously upgraded to 
ensure security and provide improved capability, capacity, connectivity 
and operational effectiveness. The Warfighter Information Network 
(Tactical) (WIN-T) is designed to extend the network ultimately to the 
company level for BCTs and provide real-time information, such as high 
definition imagery, from surveillance sources. The Joint Tactical Radio 
System (JTRS) was born Joint with the specific requirement to resolve 
radio interoperability among the services. It will provide Soldiers at 
the tactical level with connectivity at extended ranges, including 
voice, data, and video, enabling them to move information from platoon 
to higher-level command posts in complex terrain (including urban and 
mountainous areas).
    MRAP Strategy.--In response to deadly IEDs in Iraq and Afghanistan, 
the Nation made a tremendous investment in fielding MRAPs that have 
saved lives by providing significantly improved protection for our 
Soldiers. The Army is incorporating these vehicles throughout its unit 
formations. Additionally, we used the basic design of the MRAP as the 
foundation for the M-ATV, modifying it for the mountainous terrain in 
Afghanistan and in other regions around the world. The MRAP family of 
vehicles provides the versatility our forces need to rapidly move 
around the battlefield, particularly in an IED environment, with the 
best protection we can provide.
    Ground Combat Vehicle.--Combining the lessons learned from the 
survivability of the MRAP, the tactical mobility of the Bradley 
Fighting Vehicle, and the operational mobility of the Stryker, the Army 
is developing a Ground Combat Vehicle (GCV) that possesses all of these 
qualities. Providing Soldiers protected mobility is our top design 
criteria. The first combat vehicle designed from the ground up to 
operate in an IED environment, the GCV will have enhanced mobility that 
will allow it to operate effectively in both urban and off-road 
environments. It will be designed to host the Army's network. And 
perhaps most importantly, it will have the capacity available to accept 
future upgrades incrementally as technologies mature and threats 
change.
    The GCV will be versatile enough to support our expeditionary 
requirements and be capable of carrying an infantry squad. It will 
combine sustainability features that match the availability rates of 
the Stryker while consuming less fuel than current vehicles of similar 
weight and power. The pace of change and the operational environment 
demand an expedited acquisition timeline, so the Army is pursuing a GCV 
program timeline that provides the first production vehicles in seven 
years.
    Capability Packages.--Capability packages provide the Army a 
regular, timely process to enable our deployable units with the latest 
materiel and non-materiel solutions based on the evolving challenges of 
the operating environment. The best available capabilities will go to 
the Soldiers who need them most, based on the threats they are likely 
to face. These bundles of capabilities will include materiel, doctrine, 
organization, and training to fill the highest priority requirements 
and mitigate risk for Soldiers. This incremental packaging approach 
will enable leaders to make timely, resource-informed decisions, and 
will help ensure that we provide the best available technologies to 
fulfill urgent needs to Soldiers in the fight--all driven by the cyclic 
readiness produced by ARFORGEN. These capability packages will upgrade 
our units as they prepare to deploy by providing them improved 
capabilities such as precision fires and advanced Intelligence, 
Surveillance and Reconnaissance (ISR).
            The Army Modernization Strategy
    The Army's Brigade Combat Team Modernization Plan is a key element 
of our overall Army Modernization Strategy. The Army Modernization 
Strategy reflects our overarching vision of how we will achieve our 
ends, which is to:
  --Develop and field an affordable and interoperable mix of the best 
        equipment available to allow Soldiers and units to succeed in 
        both today's and tomorrow's full spectrum military operations.
    The Army Modernization Strategy relies on three interrelated lines 
of effort:
  --Develop and field new capabilities to meet identified capability 
        ``gaps'' through traditional or rapid acquisition processes. In 
        support of this Line of Effort in fiscal year 2011 we have 
        requested $934 million to develop the Army's new Ground Combat 
        Vehicle (GCV), which will overcome critical capability gaps in 
        both current and future operations. It is envisioned to have 
        the tactical mobility of a Bradley, the operational mobility of 
        a Stryker, and the protection of an MRAP. We are also 
        requesting $459 million to procure the Extended Range Multi-
        Purpose Unmanned Aerial Vehicle. This extraordinarily capable 
        platform, which is already making a difference in Operation 
        Enduring Freedom, gives commanders longer dwell ISR 
        capabilities across a joint area of operations.
  --Continuously modernize equipment to meet current and future 
        capability needs through upgrade, replacement, 
        recapitalization, refurbishment, and technology insertions. 
        Army efforts in this Line of Effort include our request for 
        $887 million for the procurement of 16 Block III AH-64 Apache 
        Helicopters, as well as the upgrade of 13 AH-64 Helicopters to 
        Block II. Block III Apache is part of a long-term effort to 
        improve situational awareness, performance, reliability, and 
        sustainment of the Apache. Block II upgrades continue our 
        commitment to modernize the Army National Guard Aviation Fleet. 
        Additionally, in this line of effort, we have requested $505 
        million to upgrade Shadow RQ-7 UAVs. This key upgrade will 
        increase the payload capacity and enhance the performance of 
        this key ISR asset for our BCT Commanders.
  --Meet continuously evolving force requirements in the current 
        operational environment by fielding and distributing 
        capabilities in accordance with the Army Resource Priorities 
        List (ARPL) and Army Force Generation (ARFORGEN) Model. Meeting 
        the constantly evolving needs of theater commanders and the 
        demands of persistent conflict will require unprecedented 
        agility in our equipping and modernization programs. One 
        example of this agility can be found in our Kiowa Warrior 
        fleet. We are currently maneuvering our fleet of OH-58D Kiowa 
        Warrior Light Helicopters to meet Army and COCOM requirements 
        based on the ARFORGEN model. As Air Cavalry Squadrons return 
        from conflict, their OH-58D helicopters are placed into Reset. 
        Units in Reset have very few aircraft, if any. Because the 
        Kiowa Warrior fleet is short 35 aircraft overall, when the 
        squadrons transition into the Train/Ready Phase of ARFORGEN, 
        they are provided a number of helicopters sufficient to conduct 
        training (25), but less than what they are fully authorized 
        (30). When the units move into the Available phase, they are 
        provided their full complement of aircraft. It is this agility 
        that has allowed Army forces to meet the needs of theater 
        commanders for over eight years of sustained combat.
    What do we need? Congress has been very supportive of Army 
Modernization needs in the past. Their tremendous support has ensured 
that the Army Soldier is the best equipped and most respected combatant 
in the world. In order to execute Army Modernization and ensure the 
continued success of Soldiers and units, we depend on a variety of 
resources, not the least of which is predictable funding. For fiscal 
year 2011, we have requested $31.7 billion for procurement and 
Research, Development, Test and Evaluation (RDT&E) efforts.
            Adapting the Institution and Transforming Business 
                    Practices
    In addition to modernizing our operating force, we are transforming 
our institutional Army. As required by Section 904 of the 2008 National 
Defense Authorization Act (NDAA), the appointment of the Under 
Secretary of the Army as the Army's Chief Management Officer (CMO) has 
allowed the Army to develop a series of initiatives to adapt the 
institutional Army and transform our business practices. In accordance 
with Section 908 of the 2009 NDAA, these efforts will result in the 
development and implementation of a comprehensive program that 
establishes a series of measurable performance goals and objectives. 
Specifically, the comprehensive program will address the following:
 --Developing and implementing a business transformation plan focused 
        on running the Army as effectively and efficiently as possible.
 --Continuing the Army's business process reengineering activities, led 
        by OSD's Business Transformation Agency.
 --Developing an integrated business systems architecture that 
        emphasizes transparency and seamless access to data, and 
        provides timely and accurate information to decision makers.
 --Preparing Army leaders to take a greater role in inculcating the 
        Army with a cost-conscious culture.
    While the Army transformed its operating force--building versatile, 
agile units capable of adapting to changing environments--the 
institutional Army continued to use processes and procedures that were 
designed to support a pre-9/11 Army based on tiered levels of 
readiness. To support this new operating force, the Army must have an 
updated institutional Army--our generating force.
    Once the mission is defined, our institutions must seamlessly and 
continuously adapt--tailoring force packages and quickly adjusting 
training, manning, and equipping--to ensure units have all of the 
physical and mental tools necessary to succeed.
    Institutional agility allows us to adapt to the realities that 
present themselves. To that end, the CMO and Office of Business 
Transformation will build upon progress that has already been made 
toward the Army's institutional adaptation, specifically:
 --Improvement of the ARFORGEN process--aligning the generating force 
        and its processes to better support Soldiers, Families, and 
        units within the operating force.
 --Adoption of an Enterprise Approach--developing civilian and military 
        leaders who take a collaborative, holistic view of Army 
        objectives and resources to make better decisions for the Army.
 --Reformation of the requirements and resource processes--delivering 
        timely and necessary capabilities at best value.
    This transformational approach will overlay everything that the 
institutional Army does, with the unwavering goal of effectively and 
efficiently providing trained and ready forces to meet combatant 
commander requirements.
                       stewardship and innovation
    The Army remains devoted to the best possible stewardship of the 
resources it is provided by the American people through Congress. The 
establishment of the CMO and initiatives related to the transformation 
of Army business practices represent the Army's effort to act as a 
responsible steward. Several other initiatives serve to conserve 
resources and to reduce waste and inefficiencies wherever possible.
    The Army achieved full operating capability of the new Army 
Contracting Command, Expeditionary Contracting Command, and Mission and 
Installation Contracting Command in 2009. These organizations are 
dedicated to ensuring professional, ethical, efficient, and responsive 
contracting.
    Civilians are assuming increased responsibilities within the Army. 
The Army is recouping intellectual capital by in-sourcing former 
contracted positions that were associated with inherently governmental 
functions. In fiscal year 2009, the Army saved significant resources by 
in-sourcing more than 900 core governmental functions to Army 
Civilians. We plan to in-source 7,162 positions in fiscal year 2010, 
and are programmed to in-source 11,084 positions during fiscal year 
2011-2015, of which 3,988 are acquisition positions. These positions 
were identified in the Army's ongoing contractor inventory review 
process.
    In the Employer Partnership program, the Army Reserve works with 
public agencies and private employers to leverage their shared 
interests in recruiting, training, and credentialing highly skilled 
Citizen-Soldiers. The Army Reserve has signed more than 800 partnership 
agreements with corporations, state agencies, and local police 
departments.
    Energy security is a key component of Army installations, weapons 
systems, and operations. The Army has developed a comprehensive energy 
security strategy, and is acting now to implement initiatives to make 
us less dependent on foreign sources of fuel and better stewards of our 
nation's energy resources. In support of these goals, we fielded the 
largest hybrid vehicle fleet within the Department of Defense. Energy 
will continue to be a key consideration in all Army activities in order 
to reduce demand, increase efficiency, seek alternative sources, and 
create a culture of energy accountability, while sustaining or 
enhancing operational capabilities.
    The Army is committed to environmental stewardship. Through 
cooperative partner agreements and the Army Compatible Use Buffer 
Program, the Army protected more than 28,000 acres of land at 14 
locations in fiscal year 2009. Through creative solutions, the Army 
continues to conduct realistic training on its installations while 
protecting threatened and endangered species on Army lands.
               america's army--the strength of the nation
    The professionalism, dedicated service, and sacrifice of our all-
volunteer force are hallmarks of the Army--the Strength of our Nation.
    Our Soldiers and their Families quietly bear the burdens of a 
Nation at war. Our Civilians stand with them, dedicated to the Nation 
and the Army that serves it. Despite the toll that 8 years of combat 
has taken, these great Americans continue to step forward to answer our 
Nation's call. In an environment in which we must make hard choices, 
they deserve the very best we can offer, commensurate with their 
dedication and sacrifice.
    To continue to fulfill our vital role for the Nation, the Army must 
sustain its efforts to restore balance and set conditions for the 
future. We have made significant progress this year, but challenges 
remain. The continued support of Congress will ensure that the Army 
remains manned, trained, and equipped to protect our national security 
interests at home and abroad, now and in the future. America's Army--
the Strength of the Nation.
          addendum a--the fiscal year 2011 president's budget
    The fiscal year 2011 President's budget asks for $245.6 billion for 
the Army. This budget, which includes $143.4 billion for the Base and 
$102.2 billion for the Overseas Contingency Operations (OCO) request, 
is necessary to: support current operations, increase forces in 
Afghanistan, responsibly drawdown in Iraq, sustain the all-volunteer 
force, and prepare for future threats.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Amounts requested by major appropriation category in the fiscal 
year 2011 President's budget include:
Military Personnel
    The fiscal year 2011 budget requests $71.0 billion, a $300 million 
increase over fiscal year 2010. Military Personnel funds support Army 
end-strength requirements for a Nation at war. This includes $1.2 
billion for the temporary wartime increase in personnel, an increase of 
$684 million over fiscal year 2010.
    This amount funds pay, benefits, and associated personnel costs for 
1,110,600 Soldiers: 547,400 Active, 358,200 Army National Guard, 
205,000 Army Reserve and funds an active component temporary end 
strength increase of 22,000.
    The OCO request will fund special pays, incentives, and the 
mobilization of reserve component Soldiers.
            Compelling Needs
    Support the Army's base endstrength and the temporary end strength 
increase in fiscal year 2011 to reduce strain on the force.
    Sustain authorities and funding of programs in support of wounded, 
ill, and injured Warriors and their Families as they transition back to 
duty or to civilian life.
    Provide recruiting and retention incentives and benefits to sustain 
the quality of our all-volunteer force, allow the Army to meet end-
strength objectives, and achieve Army standards for recruit quality.
    Enable the transition of the reserve component to an operational 
force by systematically building and sustaining readiness across the 
force and fund mobilization of RC units to support growing demand.
Operation and Maintenance
    The fiscal year 2011 budget requests $107.3 billion--a $7 billion 
increase from fiscal year 2010. Operation and maintenance funds Soldier 
and unit training; ground and air vehicle operating costs; depot 
maintenance; base operations, sustainment, restoration, and 
modernization; and a 1.4 percent Civilian pay raise.
    The OCO portion of the request includes $628 million for the 
training and sustainment of the temporary wartime increase in 
personnel--an increase of $242 million from fiscal year 2010.
    The budget request works to restore balance to the force by 
recognizing $587 million of enduring requirements for training and 
depot maintenance in the base rather than in OCO. The base funds home 
station training for 59 brigade combat teams, 24 rotations through the 
Army's combined arms training centers, and an increased investment of 
$154 million in scholarships, language and individual training. It 
improves network security; operationalizes the LandWarNet; supports 
continued development and fielding of administrative systems; and 
provides funding for improvements in financial audit readiness (as 
required in NDAA 2009) by requesting an additional $578 million above 
the fiscal year 2010 levels for these activities. The base budget also 
increases funding for facilities sustainment restoration and 
modernization by $320 million and includes one-time requests to support 
BRAC and the transition out of NSPS.
    The OCO request will fund the day-to-day cost of the wars, training 
to prepare units for deployment, force protection, in-theater 
maintenance and repair, drawdown of equipment from Iraq, and reset of 
Army Prepositioned Stocks and equipment returning from deployment.
            Compelling Needs
    Sustain readiness through Soldier and unit training, including 
realistic, full spectrum training at the Army's three combat training 
centers.
    Fund the reset of 30 brigades, other enabling units, and equipment.
    Resource installation services worldwide and support the Army 
Family Covenant to provide Soldiers and their Families the quality of 
life they deserve and to enhance the health of the force.
Procurement
    The fiscal year 2011 budget requests $30.3 billion--a $200 million 
decrease from fiscal year 2010. Procurement funds the Army's future 
force equipment requirements; sustains modernization and 
recapitalization; and fills equipment shortages. The OCO request will 
fund procurement of weapon systems to replace battle losses, 
replacement of equipment taken for current operations from the reserve 
components, and to fill urgent operational needs for deployed forces.
            Compelling Needs
    Fund the fielding of the first Capability Packages to two more Army 
brigades.
    Enhance Army command and control by providing an initial on-the-
move networking capability resident in the Warfighter Information 
Network--Tactical (WIN-T), Increment 2.
    Increase the Army's tactical agility through an aviation 
modernization strategy that highlights the increasing importance of 
unmanned aerial systems (ERMP, Shadow and Raven) and rotary wing 
aviation (AH-64D Block III Apache, UH-60M Black Hawk and CH-47F 
Chinook).
    Improve lethality and precision fires by modernizing the Patriot 
PAC-3 missile, the Guided Multiple Launch Rocket System, the High 
Mobility Artillery Rocket System, and the Paladin howitzer.
    Sustain access to training and war reserve ammunition by restoring 
stocks and the selective repair, upgrade and replacement of key 
ammunition production base equipment and facilities.
Research, Development, Test and Evaluation
    The fiscal year 2011 budget requests $10.5 billion, approximately 
the same amount requested last year.
            Compelling Needs
    Fund Brigade Combat Team modernization including initial Ground 
Combat Vehicle development and further development of the second set of 
Capability Packages.
    Support Network modernization including continued development of 
WIN-T increment 2 and increment 3.
    Continues the international partnership to develop the Patriot 
Medium Extended Air Defense systems (MEADS)
Construction, Base Realignment and Closure (BRAC), and Army Housing
    Fiscal year 2011 is a critical year for BRAC since this will be the 
final budget executed to meet the statutory deadline for many of the 
BRAC actions. fiscal year 2011 will be a particularly challenging year 
for BRAC as four of our major command headquarters and many of our 
military schools will be moving to new locations. The fiscal year 2011 
budget requests $7.9 billion--a $2.5 billion decrease from fiscal year 
2010. This funding supports the construction of facilities to support 
the growth and re-stationing of Army forces. The OCO request will fund 
construction in Afghanistan.
            Compelling Needs
    Fund BRAC requirements to meet fiscal year 2011 statutory 
timelines.
    Support construction of new family housing and improvements to 
existing housing.
    Support construction of permanent party and training barracks.
Other Accounts
    The Army is the executive agent for a variety of critical functions 
within the Department of Defense, to include the Chemical Agents and 
Munitions Destruction Program. Funding for this account is $1.6 billion 
in fiscal year 2011--a decrease of $100 million from fiscal year 2010. 
The Army also has responsibility for the Iraq Security Forces Fund 
(ISFF), Afghanistan Security Forces Fund (ASFF), and Joint Improvised 
Explosive Device Defeat Organization (JIEDDO) appropriations. The Army 
budgets for recurring sustainment costs of JIEDDO with fiscal year 2011 
funds at $200 million--an increase of $100 million from fiscal year 
2010. The OCO Request will fund JIEDDO initiatives. The ISFF and ASFF 
are funded entirely through the OCO request.
            Compelling Needs
    Fund the Afghan Security Forces Fund and the Iraq Security Forces 
Fund to enable building essential security capacity.
    Support JIEDDO appropriations and initiatives to combat the most 
dangerous threat to U.S. forces.
    Continue the safe destruction of chemical agents and munitions and 
the closure activities at selected chemical demilitarization sites.
Restoring Fiscal Balance
    Timely and full funding of the Army's fiscal year 2011 request of 
$245.6 billion will help ensure the Army is ready to meet the needs of 
the Nation and continue the process of restoring balance while setting 
the conditions for the future. Over the last 8 years, the Army has 
received significant portions of its funding for combat readiness 
through OCO appropriations. This recurring reliance on OCO funds and an 
overlap between base and OCO sustainment programs means that the Army's 
base budget does not fully cover the cost of both current and future 
readiness requirements. Because of this reliance, a precipitous drop or 
delay in OCO funding does not fully fund the readiness of our Army for 
the current conflict. Army continues the orderly restoration of the 
balance between base and OCO requirements in its fiscal year 2011 base 
budget request. This request fully funds Army authorized end strength 
and brings $965 million in O&M expenses back into the base rather than 
finance those requirements in OCO.
                addendum b--reserve component readiness
    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) 1994 require the information in this addendum be reported. 
Section 517 requires a report relating to implementation of the pilot 
Program for Active Component Support of the Reserves under Section 414 
of the NDAA 1992 and 1993. Section 521 requires a detailed presentation 
concerning the Army National Guard (ARNG), including information 
relating to implementation of the ARNG Combat Readiness Reform Act of 
1992 (Title XI of Public Law 102-484, referred to in this addendum as 
ANGCRRA). Section 521 reporting was later amended by Section 704 of 
NDAA 1996. U.S. Army Reserve information is also presented using 
Section 521 report criteria.
    Section 517(b)(2)(A).--The promotion rate for officers considered 
for promotion from within the promotion zone who are serving as active 
component advisors to units of the Selected Reserve of the Ready 
Reserve (in accordance with that program) compared with the promotion 
rate for other officers considered for promotion from within the 
promotion zone in the same pay grade and the same competitive category, 
shown for all officers of the Army.

----------------------------------------------------------------------------------------------------------------
                                                  Fiscal year 2008                     Fiscal year 2009
                                       -------------------------------------------------------------------------
              In the Zone                AC in RC              Army Average              AC in RC   Army Average
                                           \1\      Percent   (percent) \2\   Percent      \1\     (percent) \2\
----------------------------------------------------------------------------------------------------------------
Major.................................     0 of 1  .........         92.8     56 of 63       88.9         94.1
Lieutenant Colonel....................     1 of 1        100         89.1     16 of 20       80.0         87.9
----------------------------------------------------------------------------------------------------------------
\1\ Active component officers serving in reserve component assignments at time of consideration.
\2\ Active component officers not serving in reserve component assignments at the time of consideration.

    Section 517(b)(2)(B).--The promotion rate for officers considered 
for promotion from below the promotion zone who are serving as active 
component advisors to units of the Selected Reserve of the Ready 
Reserve (in accordance with that program) compared in the same manner 
as specified in subparagraph (A) (the paragraph above).

----------------------------------------------------------------------------------------------------------------
                                                  Fiscal year 2008                     Fiscal year 2009
                                       -------------------------------------------------------------------------
            Below the Zone               AC in RC              Army Average              AC in RC   Army Average
                                           \1\      Percent   (percent) \2\   Percent      \1\     (percent) \2\
----------------------------------------------------------------------------------------------------------------
Major.................................     0 of 4  .........          4.9       2 of 4       50.0          6.0
Lieutenant Colonel....................     0 of 0  .........         13.5       0 of 1  .........          7.2
----------------------------------------------------------------------------------------------------------------
\1\ Below the zone active component officers serving in reserve component assignments at time of consideration.
\2\ Below-the-zone active component officers not serving in reserve component assignments at time of
  consideration.

Section 521(b)
    1. The number and percentage of officers with at least 2 years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units.
    ARNG officers: 14,760 or 36.3 percent
    Army Reserve officers: 19,573 or 59 percent
    2. The number and percentage of enlisted personnel with at least 2 
years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units.
    ARNG enlisted: 85,255 or 26.8 percent
    Army Reserve enlisted: 63,311 or 41.6 percent
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
  --The number who are serving the remaining period of their active-
        duty service obligation as a member of the Selected Reserve 
        pursuant to section 1112(a)(1) of ANGCRRA:
    --In fiscal year 2009, 10 graduates from Service Academies were 
            serving in the Army National Guard to complete their 
            service obligation.
    --In fiscal year 2009, 0 graduates from Service Academies were 
            serving in the Army Reserve to complete their service 
            obligation.
  --The number for whom waivers were granted by the Secretary of the 
        Army under section 1112(a)(2) of ANGCRRA, together with the 
        reason for each waiver:
    --In fiscal year 2009, no waivers were granted by the Secretary of 
            the Army.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
  --The number who are serving the remaining period of their active-
        duty service obligation as a member of the Selected Reserve 
        pursuant to section 1112(a)(1) of ANGCRRA:
    --In fiscal year 2009, no distinguished Reserve Officers' Training 
            Corps (ROTC) graduate was released before completing their 
            active-duty service obligation.
  --The number for whom waivers were granted by the Secretary of the 
        Army under section 1112(a)(2) of ANGCRRA, together with the 
        reason for each waiver:
    --In fiscal year 2009, no waivers were granted by the Secretary of 
            the Army.
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (a) 2 years of active duty, and (b) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
  --In fiscal year 2009, one ROTC graduate was released early from 
        their active-duty obligation. The officer is serving the 
        remainder of his/her obligation in the ARNG
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
  --There are no longer active and reserve component associations due 
        to operational mission requirements and deployment tempo. 
        Active component officers no longer concur or non-concur with 
        unit vacancy promotion recommendations for officers in 
        associated units according to section 1113(a). However, unit 
        vacancy promotion boards have active component representation.
  --In fiscal year 2009, 2,223 ARNG officers from units were 
        recommended for position-vacancy promotion and promoted. This 
        number consists of 319 U.S. Army Medical Department, 1,864 Army 
        Promotion List and 40 Chaplains.
  --In fiscal year 2009 the estimated percentage of Unit Vacancy 
        Promotions CPT through COL in which an active component 
        representation was on the state unit vacancy promotion board is 
        as follows:

------------------------------------------------------------------------
                                                                Percent
------------------------------------------------------------------------
AMEDD........................................................         12
APL..........................................................         10
Chaplain.....................................................         13
------------------------------------------------------------------------

  --In fiscal year 2009, 59 Army Reserve officers from units were 
        recommended for position-vacancy promotion and promoted. This 
        number consists of 9 U.S. Army Medical Department, 47 Army 
        Promotion List, and 3 Chaplains.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for non-commissioned 
officers and the reason for each such waiver.
  --In fiscal year 2009, the ARNG had a total of 201 Noncommissioned 
        Officers receive a military education waiver. As of September 
        30, 2009 all those waiver recipients were eligible for 
        promotion to the next rank, but none have obtained the military 
        education requirement that was previously waived.
  --In fiscal year 2009, the Army Reserve had a total of 331 Soldiers 
        receive a military education waiver. Of these, 124 were SGTs in 
        need of a waiver for Warrior Leader Course (WLC) as a result of 
        being deployed or assigned to Warrior Transition Units (WTU) 
        (Medical Hold or Medical Hold-Over Units) whose medical 
        condition was incurred in direct support of Overseas 
        Contingency Operations and who were otherwise eligible for 
        promotion, if recommended. Furthermore, eligible Soldiers 
        lacking the prerequisite level of military education due to 
        operational deployment conflicts or the inability of the Army 
        to schedule the course, were granted waivers. This included 173 
        Soldiers who were granted waivers for the Basic NCO Course (Now 
        Advanced Leader Course) and 34 Soldiers who were granted 
        waivers for the Advanced NCO Course (now Senior Leader Course).
  --The Secretary of the Army has delegated the authority for the 
        waivers referred to in section 1114(a) of ANGCRRA to the 
        Director, ARNG and to the Commander, U.S. Army Reserve Command. 
        A majority of these waivers were approved due to the Soldiers 
        being deployed and/or performing operational missions. Each 
        reserve component maintains details for each waiver.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (A narrative summary of information pertaining to the Army 
Reserve is also provided.)
  --In fiscal year 2009, the ARNG had 61,812 Soldiers considered non-
        deployable for reasons outlined in Army Regulation 220-1, Unit 
        Status Reporting (e.g., pending administrative/legal discharge 
        or separation, medical non-availability, incomplete initial 
        entry training, officer transition, unsatisfactory 
        participation, or restrictions on the use or possession of 
        weapons and ammunition under the Lautenberg Amendment).
  --In fiscal year 2009, the Army Reserve had 49,330 Soldiers 
        considered non-deployable for reasons outlined in Army 
        Regulation 220-1, Unit Status Reporting (e.g., pending 
        administrative/legal discharge or separation, medical non-
        availability, incomplete initial entry training, officer 
        transition, unsatisfactory participation, or restrictions on 
        the use or possession of weapons and ammunition under the 
        Lautenberg Amendment).
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard. (Army Reserve data also reported.)
  --The number of ARNG Soldiers discharged during fiscal year 2009 
        pursuant to section 1115(c)(1) of ANGCRRA for not completing 
        the minimum training required for deployment within 24 months 
        after entering the Army National Guard is 141 officers and 
        15,105 enlisted Soldiers from all U.S. states and territories. 
        The breakdown by each state is maintained by the NGB.
  --The number of Army Reserve Soldiers discharged during fiscal year 
        2009 for not completing the minimum training required for 
        deployment within 24 months after entering the Army Reserve is 
        63 officers and 2,910 enlisted Soldiers. Soldiers who have not 
        completed the required initial entry training within the first 
        24 months are discharged from the Army Reserve under AR 135-
        178, Separation of Enlisted Personnel. Officers who have not 
        completed a basic branch course within 36 months after 
        commissioning are separated under AR 135-175, Separation of 
        Officers.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver.
  --In fiscal year 2009, no waivers were granted by the Secretary of 
        the Army for the Army National Guard or the U.S. Army Reserve.
    11. The number of Army National Guard members, shown for each 
State, (and the number of AR members), who were screened during the 
preceding fiscal year to determine whether they meet minimum physical 
profile standards required for deployment and, of those members: (a) 
the number and percentage that did not meet minimum physical profile 
standards for deployment; and (b) the number and percentage who were 
transferred pursuant to section 1116 of ANGCRRA to the personnel 
accounting category described in paragraph (8).
  --The number and percentage who did not meet minimum physical profile 
        standards required for deployment:
    --In fiscal year 2009, 242,777 ARNG Soldiers underwent a Periodic 
            Health Assessment (PHA) physical. Of these personnel 18,830 
            or 7.7 percent were identified for review due to a possible 
            deployment limiting condition or failure to meet retention 
            standards.
    --In fiscal year 2009, 115,133 Army Reserve Soldiers underwent a 
            PHA physical. Of these personnel 21,505, or 18.68 percent 
            were identified for review due to a possible deployment 
            limiting condition or failure to meet retention standards. 
            The fiscal year 2008-2009 increase is most attributable to 
            PHA physicals now being required annually.
  --The number and percentage that were transferred pursuant to section 
        1116 of ANGCRRA to the personnel accounting category described 
        in paragraph (8).
    --In fiscal year 2009, 18,830 ARNG Soldiers were transferred from 
            deployable to nondeployable status for failing to meet 
            medical deployability standards. This number includes 
            Soldiers returning from a mobilization with a new medical 
            condition and reflects an increase in the accuracy of 
            electronic databases.
    --In fiscal year 2009, 21,505 Army Reserve Soldiers were considered 
            non-available for deployment for failing to meet medical 
            deployability standards. The new PHA physicals being 
            required annually may account for the increase in those 
            being found to be non-deployable.
    12. The number of members and the percentage total membership of 
the Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
  --Repealed. Public Law 104-106 (NDAA 1996), Div. A, Title VII, 
        Section 704(b), February 10, 1996, repealed Section 1117 of 
        ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA.
  --Repealed. Public Law 104-106 (NDAA 1996), Div. A, Title VII, 
        Section 704(b), February 10, 1996, repealed Section 1117 of 
        ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA.
  --Repealed. Public Law 104-106 (NDAA 1996), Div. A, Title VII, 
        Section 704(b), February 10, 1996, repealed Section 1117 of 
        ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization, and of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA.
  --Repealed. Public Law 104-106 (NDAA 1996), Div. A, Title VII, 
        Section 704(b), February 10, 1996, repealed Section 1118 of 
        ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and AR units) 
in a post-mobilization period for purposes of section 1119 of ANGCRRA.
  --Per January 2007 direction from the Secretary of Defense (SECDEF) 
        reserve component unit mobilizations are limited to 400-day 
        periods, including a 30-day post-mobilization leave and all 
        post-mobilization training.
  --The most significant impact of this policy change is that many 
        training tasks previously conducted during the first 3 to 6 
        months of mobilization have been identified for premobilization 
        training, and units are training to standard on as many of 
        these tasks as resources permit. Information on the type of 
        training required by units during postmobilization is 
        maintained by First Army. The data are not captured by state.
  --ARNG units strive to train in accordance with the Army Force 
        Generation (ARFORGEN) process in order to prepare for 
        operational missions and reduce post-mobilization training 
        time. The ARFORGEN process requires increased resources for 
        company-level training proficiency prior to mobilization. This 
        training generally consists of individual warrior training 
        tasks, weapons qualification and gunnery, battle staff 
        training, and maneuver training. This is followed by theater-
        specific tasks and higher level collective training to complete 
        the predeployment requirements for the unit's specific mission. 
        The goal for post-mobilization training time for a brigade-size 
        organization is approximately 60 days.
  --Post-mobilization training time is contingent upon the amount of 
        certified pre-mobilization training conducted, the type of 
        unit, and its assigned mission. In order to reduce post-
        mobilization training time, the ARNG has developed programs and 
        products such as the ARNG Battle Command Training Capability, 
        the eXportable Combat Training Capability (XCTC), training 
        devices, and range complexes for our units.
  --The combination of programs and products, provide units with the 
        capability to accomplish more during pre-mobilization training 
        and therefore reduce post-mobilization training time.
  --The Army Reserve developed the Regional Training Center (RTC) 
        concept in response to the SECDEF decision to restrict RC 
        mobilizations to 1 year. These centers provide the capability 
        for Army Reserve units to conduct training on Theater Specific 
        Required Training (TSRT) to theater standards and conditions. 
        The majority of training is on individual tasks but some 
        collective training is also conducted. Because of certification 
        by unit commanders, most of the training is not repeated in 
        post-mobilization status. Exceptions are for tasks incorporated 
        into other required training events and for convoy operations 
        training.
  --The TSRT training is for units that will deploy to theater, 
        including non-rotational forces (MTOE and TDA). Units 
        mobilizing for CONUS based missions do not require this 
        training.
  --Each RTC conducts standard rotations throughout the year although 
        each has the capability to adjust training for selected large 
        unit participation. Initially the Army Reserve provided a staff 
        projection to DA that the training would require 17 days, but 
        in actual implementation the training has required 21 days.
  --Army goals for post-mobilization training for Army Reserve 
        headquarters and combat support/combat service support units 
        range from 30 to 60 days. Post-mobilization training conducted 
        by First Army typically consists of counterinsurgency 
        operations, counter-improvised-explosive-device training, 
        convoy live-fire exercises, theater orientation, rules of 
        engagement/escalation-of-force training, and completion of any 
        theater-specified training not completed during the pre-
        mobilization period.
    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve).
  --During fiscal year 2009, the ARNG continued to synchronize the use 
        of existing and ongoing live, virtual, and constructive 
        training aids, devices, simulations and simulators (TADSS) 
        programs with the training requirements of the ARFORGEN 
        training model. By synchronizing the use of TADSS with 
        ARFORGEN, the ARNG continues to improve unit training 
        proficiency prior to mobilization.
  --To support the training requirements of M1A1 Abrams and M2A2 
        Bradley-equipped Brigade Combat Teams (BCT's), the ARNG 
        continued the fielding of the Advanced Bradley Full-Crew 
        Interactive Simulation Trainer, which provides full crew-
        simulations training for M2A2 units, Tabletop Full-fidelity 
        Trainers for the M2A2, and the Conduct of Fire Trainer XXI for 
        M1A1 and M2A2. When fully fielded, these devices, in addition 
        to the Abrams Full-Crew Interactive Simulation Trainer XXI, 
        will be the primary simulations trainers to meet the virtual 
        gunnery requirements of M1A1 and M2A2 crews.
  --In order to meet the virtual-maneuver training requirements in the 
        ARFORGEN process, M1A1 and M2A2 units use the Close-Combat 
        Tactical Trainer (CCTT) and the Rehosted Simulations Network 
        (SIMNET) XXI, in addition to the Rehosted SIMNET CCTT Core. The 
        CCTT, SIMNET XXI, and SIMNET CCTT provide a mobile training 
        capability to our dispersed units.
  --In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations, the ARNG is fielding 
        the Virtual Convoy Operations Trainer (VCOT). The VCOT, through 
        the use of geo-specific databases, provides commanders with a 
        unique and critical mission rehearsal tool. Currently, 32 VCOT 
        systems are positioned in the ARNG force to train units on the 
        fundamentals of convoy operations.
  --In order to meet basic and advanced rifle marksmanship 
        requirements, the ARNG is fielding the Engagement Skills 
        Trainer (EST 2000). This system is the Army's approved 
        marksmanship-training device. The ARNG is also continuing use 
        of its previously procured Fire Arms Training System (FATS) 
        until EST 2000 fielding is complete. The EST 2000 and FATS are 
        also used to provide unit collective tactical training for 
        dismounted Infantry, Special Operations Forces, Scouts, 
        Engineer, and Military Police squads, as well as combat support 
        and combat service support elements. These systems also support 
        units conducting vital homeland defense missions.
  --The ARNG supplements its marksmanship-training strategy with the 
        Laser Marksmanship Training System (LMTS). The ARNG currently 
        has over 900 systems fielded down to the company level. The 
        LMTS is a laser-based training device that replicates the 
        firing of the Soldier's weapon without live ammunition. It is 
        utilized for developing and sustaining marksmanship skills, 
        diagnosing and correcting marksmanship problems, and assessing 
        basic and advanced skills.
  --The ARNG has further developed its battle command training 
        capability through the three designated Battle Command Training 
        Centers (BCTCs) at Fort Leavenworth, Camp Dodge, and Fort 
        Indiantown Gap, and the Distributed Battle Simulation Program 
        (DBSP). BCTCs provide the backbone of the program as collective 
        hubs in the battle command training strategy. The DBSP provides 
        Commanders assistance from Commander's Operational Training 
        Assistants, TADSS facilitators, and Technical Support Teams. 
        BCTCs and the DBSP collectively help units in the planning, 
        preparation, and execution of simulations-based battle staff 
        training that augments the Department of the Army-directed 
        Warfighter Exercises and greatly enhances battle staff and unit 
        proficiency.
  --In order to provide the critical culminating training event of 
        ARFORGEN, the ARNG has implemented the XCTC. The XCTC program 
        provides the method to certify that ARNG combat units have 
        achieved company-level maneuver proficiency prior to 
        mobilization. The XCTC incorporates the use of advanced live, 
        virtual, and constructive training technologies to replicate 
        the training experience until now only found at one of the 
        Army's Combat Training Centers. The centerpiece of the XCTC is 
        the Deployable Force-on-Force Instrumented Range System 
        (DFIRST). DFIRST utilizes training technologies that allow for 
        full instrumentation of the training area from major combat 
        systems down to the individual Soldier, role player, and 
        Civilian on the battlefield.
  --The most important part of every training exercise is the After-
        Action Review (AAR). By full instrumentation of the units, 
        Soldiers, and training areas, units receive an AAR complete 
        with two-dimensional, three-dimensional, and video playback of 
        the actual training exercise. This allows Commanders and 
        Soldiers to see what occurred during the training exercise from 
        a different perspective, further enhancing the training 
        experience.
  --The Army Reserve continues to leverage--to the extent resources 
        permit--TADSS into its training program. Implementation of Army 
        Campaign Plan Decision Point 72 continues with establishment of 
        the 75th Battle Command Training Division (BCTD) (Provisional). 
        This division, with five battle command training brigades, 
        employs legacy constructive simulations to provide battle 
        command and staff training to Army Reserve and Army National 
        Guard battalion and brigade commanders and staffs during pre-
        mobilization and post-mobilization. The concept plan as well as 
        requirements for supporting Army battle command systems and 
        simulations drivers for the 75th BCTD is pending Headquarters 
        Department of the Army (HQDA) approval.
  --The Army Reserve continues to partner with the Program Executive 
        Office, Simulations, Training and Instrumentation; Training and 
        Doctrine Command agencies; and HQDA to define TADSS 
        requirements for combat support and combat service support 
        units. The 75th BCTD is on the Entity-level Resolution 
        Federation (ERF) fielding plan. The ERF provides a high-
        resolution (e.g., individual Soldier-level fidelity aggregated 
        to unit resolutions) joint constructive battle staff training 
        simulation.
  --The LMTS and EST 2000 remain essential elements of Army Reserve 
        marksmanship training. LMTS procurement continues, and 
        distribution throughout the Army Reserve force continues to 
        increase. The LMTS has also been adapted to support convoy 
        operations training. In either individual pre-marksmanship 
        training or convoy modes, the system allows the Soldier to use 
        an assigned weapon, as well as crew-served weapons, in a 
        simulation/training mode. EST 2000 systems have been fielded to 
        many Army Reserve Engineer and Military Police organizations to 
        enable full use of its training capabilities by units with high 
        densities of crew-served weapons their at home stations.
  --The Army Reserve also has a number of low-density simulators it 
        employs to reduce expensive ``live'' time for unique combat 
        service support equipment. For example, Army Reserve watercraft 
        units train on the Maritime Integrated Training System (MITS), 
        a bridge simulator that not only trains vessel captains but the 
        entire crew of Army watercraft. In 2007 the Army Reserve 
        invested in communications infrastructure so that the MITS at 
        Mare Island, California can communicate and interact with 
        another Army MITS at Fort Eustis, Virginia. This provides the 
        capability to conduct distributed multi-boat collective 
        training among all the simulators. Of note, the MITS is also 
        used by U.S. Navy, U.S. Coast Guard, and harbor management 
        agencies. Other simulators include locomotive simulators used 
        by Army Reserve railroad units and a barge derrick simulator 
        for floating watercraft maintenance units. Other simulator 
        requirements are being identified in requirements documents.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
  --Explanations of the information: Readiness tables are classified. 
        This information is maintained by the Department of the Army, 
        G-3.
  --Based on the information shown in the tables, the Secretary's 
        overall assessment of the deployability of units of the ARNG 
        (and Army Reserve), including a discussion of personnel 
        deficiencies and equipment shortfalls in accordance with 
        section 1121:
    --Summary tables and overall assessments are classified. This 
            information is maintained by the Department of the Army, G-
            3.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of Section 105 of Title 32, together 
with explanations of the information shown in the tables, and including 
display of:
  --The number of such inspections;
  --Identification of the entity conducting each inspection;
  --The number of units inspected; and
  --The overall results of such inspections, including the inspector's 
        determination for each inspected unit of whether the unit met 
        deployability standards and, for those units not meeting 
        deployability standards, the reasons for such failure and the 
        status of corrective actions.
    --During fiscal year 2009, Inspectors General and other 
            commissioned officers of the Regular Army conducted 947 
            inspections of the ARNG, inspecting 1,403 ARNG units. The 
            bulk of these inspections, 711, were executed by Regular 
            Army officers assigned to the respective States and 
            Territories as Inspectors General. First Army and the 
            Department of the Army Inspectors General conducted 96 of 
            the inspections, and the remaining 140 by the U.S. Army 
            Forces Command (FORSCOM); Training and Doctrine Command 
            (TRADOC); Communications-Electronics Command (CECOM); and 
            the U.S. Army Audit Agency. Because the inspections 
            conducted by Inspectors General focused on findings and 
            recommendations, the units involved in these inspections 
            were not provided with a pass/fail rating. Results of such 
            inspections may be requested for release through The 
            Inspector General of the Army.
    --Operational Readiness Evaluation data for the Force Support 
            Package and expanded separate brigades are unavailable, as 
            inspections thereof were eliminated as requirements in 
            1997. Data available under the Training Assessment Model 
            (TAM) relates to readiness levels and is generally not 
            available in an unclassified format. TAM data are 
            maintained at the state level and are available upon 
            request from state level-training readiness officials.
    --In accordance with AR 1-201, Army Inspection Policy, the U.S. 
            Army Reserve Command (USARC) conducts inspections of 
            regional readiness commands and direct support units within 
            requirements of the USARC Organizational Inspection Program 
            (OIP). Per the Army Regulation, OIPs at division levels and 
            above mainly comprise staff inspections, staff assistance 
            visits, and Inspectors General. Staff inspections are only 
            one aspect by which Commanding Generals can evaluate the 
            readiness of their commands. The Inspector General conducts 
            inspections and special assessments based on systemic 
            issues and trends analysis with emphasis on issues that 
            could impede the readiness of the Army Reserve.
    --The Chief, Army Reserve, directed the Inspector General to 
            conduct special assessments in fiscal year 2009 prompted by 
            concerns over systemic issues. One was the Special 
            Assessment of Training Management. Its objective was to 
            determine if units in the Army Reserve were in compliance 
            with Command Training Guidance for Training Years 2008-
            2010, with emphasis on the execution of weapons training, 
            remedial training, qualification, and ammunition 
            availability. This assessment also encompassed an annual 
            regulatory review of compliance with and effectiveness of 
            the Army Voting Assistance Program, a program of special 
            interest to the Department of the Army. Another was the 
            Special Assessment of the Impact of Army Reserve Equipment 
            Shortages (Funding/Availability/Modernization) and Training 
            with the U.S. Army Reserve Command (USARC), which evaluated 
            training issues due to equipment shortages and the affect 
            it had on our Soldiers' morale.
    --The Army Reserve is meeting regulatory requirements through a 
            combination of Battle-Focused Readiness Reviews (BFRRs) and 
            staff assistance visits, with the assistance visits 
            conforming to regulatory requirements of AR 1-201. The BFRR 
            is the tool used by major subordinate Commanders to provide 
            the Army Reserve Commanding General a status on resources 
            and readiness of their commands, and resolve systemic 
            issues/trends in order to achieve continuous improvements 
            in readiness. The Army Reserve conducted 19 BFRRs in fiscal 
            year 2009, while inspecting 65 units. The staff assistance 
            visits were more oriented to a particular topic in the 
            staff proponent's area.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active duty forces in accordance with section 1131(b)(4) of 
ANGCRRA.
  --There are no longer ground combat active or reserve component 
        associations due to operational mission requirements and 
        deployment tempo.
  --As FORSCOM's executive agent, First Army and U.S. Army Pacific 
        (USARPAC) for Pacific based Reserve Component units, execute 
        active duty associate unit responsibilities through both their 
        pre-mobilization and post-mobilization efforts with reserve 
        component units. When reserve component units are mobilized, 
        they are thoroughly assessed in terms of manpower, equipment, 
        and training by the appropriate chain of command, and that 
        assessment is approved by First Army or USARPAC as part of the 
        validation for unit deployment.
  --Validation of the compatibility of the Reserve Component units with 
        the active duty forces occurs primarily during training and 
        readiness activities at mobilization stations, with direct 
        oversight by First Army, USARPAC, and FORSCOM.
    21. A specification of the active-duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for Fiscal Years 1992 and 1993 (10 U.S.C. 261 
note), shown (a) by State for the Army National Guard (and for the U.S. 
Army Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment.

               TITLE XI (FISCAL YEAR 2009) AUTHORIZATIONS
------------------------------------------------------------------------
                                 OFF        ENL         WO       TOTAL
------------------------------------------------------------------------
U.S. Army Reserve...........         97        110          8        215
TRADOC......................         50          3          0         53
FORSCOM.....................        979      2,165        101      3,245
USARPAC.....................         30         49          1         80
                             -------------------------------------------
      TOTAL.................      1,156      2,327        102      3,593
------------------------------------------------------------------------


                  TITLE XI (FISCAL YEAR 2009) ASSIGNED
------------------------------------------------------------------------
                                 OFF        ENL         WO       TOTAL
------------------------------------------------------------------------
U.S. Army Reserve...........         28         77          7        112
TRADOC......................          5          5          0         10
FORSCOM.....................        659      2,119         85      2,863
USARPAC.....................         28         53          1         82
                             -------------------------------------------
      TOTAL.................        720      2,254         93      3,067
------------------------------------------------------------------------

  --As of September 30, 2009, the Army had 3,067 active component 
        Soldiers assigned to Title XI positions. In fiscal year 2006, 
        the Army began reducing authorizations in accordance with the 
        National Defense Authorization Act 2005 (NDAA 2005, Public Laws 
        108-767, Section 515). Army G-1 and U.S. Army Human Resources 
        Command (HRC) carefully manage the authorizations and fill of 
        Title XI positions. The data is captured at the command level. 
        The actual duty location for each position is not captured down 
        to the state level of detail.

    Chairman Inouye. And, may I now call upon General Casey.

              SUMMARY STATEMENT OF GENERAL GEORGE W. CASEY

    General Casey. Thank you, Mr. Chairman, Senators. I'll give 
you my whole statement for the record, and just try to 
summarize here for you, because of time.
    What I'd like to do, Mr. Chairman, is give you a short 
update on where we are on restoring balance, and then talk 
briefly about three areas that are priorities for the Army and, 
I would hope, for this committee, and that's sustaining our 
soldiers and families, reset, and our modernization efforts.
    Now, if I might, just to give you a quick update on 
balance, I've been saying, since 2007, that we were out of 
balance, that we were so weighed down by our current 
commitments that we couldn't do the things we knew we needed to 
do to sustain this force for the long haul, this All-Volunteer 
Force, and to prepare ourselves to do other things. And, with 
you, we have been working steadily at this since 2007.
    I will tell you, this budget, this 2011 budget, plus the 
drawdown in Iraq, gives us the resources and the time to 
complete the efforts that we began in 2007 to get ourselves 
back in balance.
    Let me just give you an update on some key parameters:
    First of all, growth. We completed the personnel growth 
that President Bush directed in January 2007, late last summer. 
And that is a huge boost for us. But, even as we completed that 
growth, it was clear that, for a number of reasons, we needed 
to continue to grow. And, as you mentioned in your opening 
statement, Mr. Chairman, the Secretary of Defense did authorize 
us to grow by another 22,000, and we can talk a little bit more 
about that in the questions and answers.
    The second element of balance is probably the most 
important, and that's ``dwell,'' the amount of time the 
soldiers spend at home. We have intuitively known that it takes 
about 2 or 3 years to recover from a 12-month combat 
deployment, yet we have been returning soldiers to combat in 
about 12 months, because we've been too small. Well, we've now 
documented that with a scientific study that we finished last 
year that shows it takes 2 to 3 years to recover from a 12-
month combat deployment. And so it is critically important that 
we continue to make progress to our dwell goals of 1 year out, 
2 years back, for the Active force; 1 year out, 4 years back, 
for the Guard and Reserve.
    Because of our growth and the drawdown in Iraq, even with 
the plus-up in Afghanistan--and our portion of that plus-up is 
about 20,000--we will get 70 percent of the Army to our goal 
of--Active Army to our goal of 1 to 2 by 2011; and 80 percent 
of the Guard and Reserve to 1 to 4 by 2011. The rest will get 
there in 2012. So that's critically important for us.

                        MODULARITY AND REBALANCE

    Third element I'd update you on is modularity. And you'll 
remember, back in 2004, we came to the subcommittee and said we 
were a cold war Army. We weren't organized into formations that 
could be organized to deal with the threat that presented 
itself. We were designed to face a Warsaw Pact threat. And we 
have been progressing ever since. Well, we are 90 percent of 
the way through converting all 300 brigades in the Army to 
modular designs, and we will largely finish that by 2011, which 
was our goal.
    The other element of organizational change is rebalancing. 
We had a lot of skills that were needed in the cold war, but 
were not necessarily as needed today. And we've converted over 
200 tank companies, artillery batteries, air defense batteries, 
into civil affairs, psychological operations, special forces 
companies. So that change has been going on.
    So together, modularity and rebalancing--largest 
organizational change of the Army since World War II, and done 
while we've been deploying 150,000 soldiers over and back to 
Iraq and Afghanistan every year.
    Next element of balance, we feel we can get more out of our 
force if we organize it on a rotational model, much like the 
Navy and Marine Corps have been on for years. And we're moving 
toward that, and it'll pay great benefits.
    And last, restationing. With the base realignment and 
closure and the growth, we're moving 380,000 soldiers, 
civilians, and family members all around the world, here, over 
the next few years, to complete that. But, the end result will 
be much better facilities for our soldiers and families.
    So, that's an update on rebalancing. With your support, we 
expect to largely complete what we set out to do in 2007, and 
be in a much different position by the end of 2011. And this 
budget is what gets us there. Still got stresses and strains, 
as the Secretary said, and not out of the woods yet.
    Now, if I could, just three quick priorities:
    Sustaining soldiers and families. They're the heart and 
soul of this force. Two years ago, we doubled the amount of 
money we were putting toward soldiers and family programs. 
We've sustained that, and this budget continues that effort.
    Second, reset. This budget contains almost $11 billion to 
reset about 30 brigades worth of equipment. That's, one, 
absolutely critical to sustaining the operational ready rates 
in the field in Iraq and Afghanistan, and to the long-term 
health of the force. And as we come down--draw down in Iraq, 
all that equipment has to go through the depots and get 
reconditioned before it's put back in the force. And I worry 
that people will say, ``Yes, okay, we're out of Iraq, we don't 
need money for reset anymore.'' That's not the case.

                              MODERNIZING

    And then, last, modernization. As you mentioned in your 
statement, the FCS--future combat systems--program was 
terminated. And we have, in this budget, the beginning of a 
brigade combat team modernization strategy that we believe is 
both affordable and achievable. And that's based on four 
elements:
    First of all, incrementally modernizing our network. And we 
do that incrementally so that we can take advantage of 
continuing growth in information technology.
    Second is incrementally fielding capability packages. In 
the future combat systems, we talked about spinouts, about 
capabilities that we could put into the force, ahead of the 
full system. We've refined that concept into capability 
packages, where we will incrementally put ready capabilities 
into the force as they're ready, rather than wait for the whole 
system to be developed.
    Third, we've incorporated the MRAP, the mine resistant 
ambush protected, vehicles into our forces. There's a 
significant investment in those vehicles, and we've 
incorporated them into the force. And then, last, this budget 
includes just under $1 billion of research and development 
effort for a new ground combat vehicle. And this vehicle will--
is designed as a replacement for the Bradley. It is an infantry 
fighting vehicle, and it is the first infantry fighting vehicle 
designed, from the ground up, to operate in an improvised 
explosive device (IED) environment. And it will become a very 
important element for us.
    I'll close with saying that I share your pride in what the 
men and women of this Army are doing around the world every 
day. I couldn't be prouder of them.
    And so I'd look forward to taking your questions.
    Thanks very much.
    Chairman Inouye. Thank you.
    Senator Brownback.
    Senator Brownback. No, Mr. Chairman, I don't have a 
statement to make. I would like to put one into the record.
    And I certainly thank our two presenters here today. And I 
look forward to making a couple of questions when my turn 
comes.
    Chairman Inouye. Without objection, your statement will be 
made part of the record.
    [The statement follows:]
              Prepared Statement of Senator Sam Brownback
    Mr. Chairman, I thank you and am pleased to attend my first Senate 
Appropriations Subcommittee on Defense hearing. I welcome Secretary 
McHugh and General Casey and look forward to your testimonies. On 
behalf of my state, I would like to thank the Secretary and General 
Casey for their commitment to the military men and women in Kansas, 
particularly at Fort Riley and Fort Leavenworth.
    The Army faces a number of major challenges covered in the prepared 
statements of today's witnesses. In particular, however, I would like 
to focus on the subject of warrior care and our commitment to soldiers 
and families.
    First, I applaud the Army's new Comprehensive Soldier Fitness 
program, an all-inclusive approach to emotional, social, spiritual, 
family, and physical fitness, to build resiliency within the Army. 
Recently the Army began a brain mapping program and I encourage these 
types of efforts to more fully understand the effect that trauma and 
injury can have on the functionality of the brain. These efforts could 
be a huge step in the right direction in suicide prevention and drug 
and alcohol abuse prevention. I also want to commend the Army for their 
collaboration with the National Institute of Mental Health on suicide 
prevention and I look forward to the benefits we as a society can gain 
from the research and programs the Army implements.
    Next, I would note that the budget provides $1.7 billion to family 
programs and services and I commend the Army for making these programs 
an important part of its budget. The Army is built on the backs of the 
families of its soldiers. I am pleased with the commitment the Army has 
made to the military family and I encourage the continued investment in 
support services to these families. The implementation of the Army 
Strong Community Centers is a needed service for those family members 
of the Army Reserve who so often do not have a physical base to call 
home.
    In particular, I want to highlight a couple of items worth of 
additional attention from the Army. First, following the example in 
Illinois and other facilities, I encourage the Army to look at joint 
VA/DOD hospitals to streamline care and provide the best medical 
services to military members, their families, and military retirees. A 
related issue involves transitioning our active duty soldiers into the 
VA system. There are several pilot programs that attempt to seamlessly 
transition active duty soldiers into the VA system but they have had 
limited success. Obviously, the new electronic medical records will be 
a huge step in help transition a soldier from DOD to the VA. However, 
the disability rating system is still too slow and behind the times. I 
ask that you work closely with the VA to ensure these soldiers are 
getting the proper care and benefits they are entitled to.
    I also want to highlight an emerging problem at Fort Riley, in my 
state, as well as other Army posts: school overcrowding. Fort Riley is 
again the home of the headquarters of the First Infantry Division and 
the combination of that move with other BRAC and Grow the Force 
decisions has led to a dramatic expansion of this post. I am very proud 
that the surrounding communities stepped up to the plate to prepare for 
the thousands of soldiers and family members arriving in the area. But 
after exhausting their bonding capacity to provide classroom space off-
post (which has already been filled), the local communities lack the 
ability to handle a much larger than anticipated on-post student 
population. I know that the Army and the Department of Defense are not 
usually in the business of school construction, but I also know that 
Fort Riley is not the only installation facing this problem. Other 
posts are now or will soon face similar issues, and we have to find a 
way to make sure these children have a place to go to school.
    It is a huge concern in the Fort Riley school district, a top 
priority of Major General Brooks, who commands the First Infantry 
Division, and something that I intend to prioritize during the upcoming 
appropriations process. I hope to learn more from the Army about what 
can be done to address this concern.
    Again, I thank the panel for their time and look forward to hearing 
how the Army plans to use this budget to meet the needs of our nation's 
military.

    Chairman Inouye. Gentlemen, I have a few questions. I'd 
like to submit the rest because of the technological nature of 
the questions. They refer to the Stryker, the cargo ship, and 
your program on balance.

                          STRESS ON THE FORCE

    But, at this stage, may I ask--as noted by all the 
witnesses and everyone that has gone to Iraq and Afghanistan, 
if they would say that the troops are under great stress? And, 
as such, we have noted suicide rates rising, alcohol abuse, and 
divorce rates. And you have provided additional mental health 
providers and launched a suicide prevention education program. 
Can you give us an update, Mr. Secretary?
    Mr. McHugh. I can, Mr. Chairman, and I appreciate your 
starting with this question, because obviously it goes to the 
core of the stress and the pressure under which these brave 
soldiers have been for the last 8 years, but it also shows, I 
think, the extent to which it reaches beyond the soldier into 
the family structure. I think it is one of the most important 
things we've done--I want to start by giving a tip of the hat 
to the Chief, and to my predecessor Pete Geren--who helped 
establish the program called comprehensive soldier fitness.
    This is a program that was started to try to provide 
resiliency training--to provide resiliency trainers to go out, 
throughout the force. And perhaps the Chief would like to 
comment further. But it allows people the opportunity, on an 
anonymous basis, through computer technology, but in a very 
real way, to find particularly tailored programs to help them 
cope. And that's a great start.

                           BEHAVIORAL HEALTH

    But we have to get down on the ground on a one-to-one 
basis. And, as you noted, Mr. Chairman, we're working very hard 
to try to expand the wide range of programs, including a 
dramatic plus-up in behavioral health specialists. In fact, now 
we see, in forward-deployed positions, the availability of 
behavioral health specialists, which is rated, generally, the 
ideal of one to every 700 troops. We're actually below that 
level now, but we're continuing to grow to that. Like what 
happens in the private sector, of course, growing that cadre of 
specialists has been a challenge, but I think we're making good 
progress.
    With respect to suicide, the Vice Chief of Staff, General 
Pete Chiarelli, has taken that under his wing and, I think, has 
done a terrific job in establishing a way forward to try to 
provide stress release, to try to keep a better assessment, the 
pre- and during and post-assessment surveys that are required 
now, as mandated by this Congress, for each soldier, so we can, 
hopefully, identify problems that--as they emerge, to engaging 
in a pretty revolutionary 5-year longitudinal study, for the 
cost of $55 million, with suicide specialists and the National 
Academy of--National Institute of Mental Health, rather, to try 
to understand the causes of suicide. The specialists tell us 
that the exciting thing about this is, they feel it will have 
application to the factors behind those who find themselves in 
a position of choosing suicide in the civilian sector, as well.
    We will receive reports, on a quarterly basis, to try to 
make sure that we're implementing hopeful and developing 
procedures to try to do a better job.
    So, whether it's alcohol abuse programs, with more money, 
more counselors, more availability; mental health; military 
life; family consultants; people to talk to; people to go to, 
to try to receive more help--we've taken a very holistic 
approach to this. We're doing a better job, but, as you noted, 
Mr. Chairman, the stresses continue, and those stressor 
indicators, across the board, continue to be troubling to us.
    Chairman Inouye. General, would you care to add to that?

                                SUICIDE

    General Casey. If I could, Chairman Inouye. Frankly, I'm 
personally frustrated with the effort that we have put on this 
over the last 3 years, and then particularly over the last 
year, that we haven't stemmed the tide. And we've increased by 
about 18 suicides a year since 2004. In this past year, with 
all the effort we made, we increased by about 20. And as I 
looked at this over the past years, it was clear that we were 
shooting behind the target with a lot of these programs. And 
that's why we instituted the Comprehensive Soldier Fitness 
Program, to give the soldiers and family members and civilians 
the skills they need on the front end to be more resilient and 
to stay away from suicide to begin with. It's a long-term 
program, but I think that is the only way that we are 
ultimately going to begin to reduce this.
    And the last thing I'd say is this is not just an Army 
problem. There was an op-ed in The Washington Post this morning 
talking about the impact of suicide in society; we all have to 
go at this together. I think this National Institute of Mental 
Health study that we've done is going to help everybody.
    Thank you.
    Mr. McHugh. Mr. Chairman, can I add just one point? We 
know, both intuitively and, as the chief mentioned in his 
comments, by the findings of the mental health advisory teams 
that we employ, that the operations and personal tempo--OPS and 
PERSTEMPO--and the boots on the ground (BOG)/dwell inadequacies 
are critical, across the board, to all of those stressor 
indicators, and suicide is primary amongst them. So, as we 
continue to do a better job on keeping people back home between 
deployments, we're hopeful that'll have a positive effect on 
the suicide rates, as well.
    Chairman Inouye. I thank you very much.

                                STRYKER

    General, I'd like to ask a few questions on the Stryker. 
We've been watching media reports from Afghanistan that suggest 
that these Strykers are quite vulnerable to the explosive 
devices; and also they suggest that the Strykers' weight may be 
a bit too heavy to give it the necessary mobility it needs in 
this Afghanistan theater. What are your thoughts on this?
    General Casey. Well, as you can imagine, Mr. Chairman, 
we've been watching this very carefully for some time. And, the 
Stryker Unit that went into southern Afghanistan ran into some 
pretty heavy IEDs--I mean, hundreds of pounds of explosive 
weight--and, it did suffer some significant casualties. We've 
been working very hard on this, over time, to increase the 
survivability of the Stryker. I will tell you, it is more 
survivable than the up-armored Humvee and less survivable than 
the mine resistant ambush protected (MRAP), and we knew that, 
going in there.
    Before we sent it in, we implemented a number of 
survivability enhancements to the vehicle, and we are in the 
process of evaluating whether those are enough to operate in an 
IED environment. We are actually in the process of exploring a 
V-shaped hull kit, much like we were developing for the manned 
ground vehicle with the Future Combat Systems Program, that 
could enhance the survivability of the Stryker against 
underbelly improvised explosive devices. But, again, we've 
implemented a range of different options to enhance the 
survivability.
    I'm less concerned about the weight and the decrease in 
mobility. The Strykers have been remissioned, actually, to a 
mission of road security that actually takes advantage of the 
mobility that they provide.
    Last thing I'll say is, they served for me in Iraq in an 
IED environment, and we were not nearly as challenged in that 
environment as we were in Afghanistan. So, it's still a very 
important vehicle in an element of our force mix.
    Mr. McHugh. Well, the only thing I would add is that, as 
we're finding in these theaters, not all equipment fits in all 
circumstances. The Stryker, something that I was a big 
supporter of when I was on the Armed Services Committee, has 
proven to be enormously effective. It's had 11 successful 
deployments in these two theaters, and we expect more. In terms 
of the feedback from the commanders forward-deployed, they view 
it as a very valuable resource. Can we make it better, more 
survivable? As the Chief mentioned, we're doing that on a 
variety of R&D programs. And the V hull--double V hull is 
preeminent amongst them. But, we think this is a very important 
program, and we have a great deal of confidence in it.

                              RECRUITMENT

    Chairman Inouye. Mr. Secretary, we'd like to congratulate 
you on your recruiting program. You have recruited all the 
numbers you need, and the quality of personnel. My question 
would be, can you maintain this trend? And are you funded 
sufficiently?
    Mr. McHugh. The answer to the first question, sir, is, we 
hope so, and we're working to try to make sure that happens. 
General Ben Freakley, who's the head of our Accessions Command, 
I think has done an amazing job. But, the most effective thing 
he's done is to try to recognize that we, in our recruiting and 
retention efforts, are, to a very significant degree, the 
beneficiaries of this economy. As Americans, we hope the 
economy turns around quickly, but that will change the 
environment in which we send out these recruiters and bring 
people--young people into the force. And we're trying to 
prepare and revamp and refigure our efforts and our programs to 
be prepared for that.
    The money, for the moment, is significant. One of the major 
complaints I had, when I was chairman of the Personnel 
Subcommittee in the other body, was that we had an up-and-down 
on recruiting resourcing. And you have to maintain, in my 
humble judgment, a certain level of consistency to make sure 
you're not eroding away your base, not eating your seed corn. 
Now, it's totally appropriate, in this environment, that we cut 
back on some of the inducements, some of the bonuses we're 
paying. They're not necessary in this environment. But, we have 
to maintain that. I'm hopeful we're going to do that, I think 
we're poised to do it, but we'll have to keep a very close eye 
on it in the future.
    Chairman Inouye. I thank you, sir.
    General Casey. If--Mr. Chairman, if I could.
    Chairman Inouye. Yeah.
    General Casey. To your point about stress on the force we 
measure a lot of things to tell us about whether the force is 
under stress. And it is. But, also to alert us that we may 
break the force. Last year, over 260,000 men and women enlisted 
or reenlisted in the Army, the Army Guard, or the Reserve. 
That's a very positive indicator of their commitment and their 
willingness to continue to serve.
    Chairman Inouye. Mr. Secretary and General, I'll be 
submitting for your consideration questions on the brigade 
combat team modernization, on the future role of the MRAP, the 
Aerial Scout helicopter; the question on SDS, and the question 
on joint cargo aircraft.
    As you know, we are attending the memorial services for our 
great friend, and a great patriot, the Congressman from 
Pennsylvania.
    So, if I may, at this stage, call upon Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                                STRYKER

    I'd like to pick up on the area dealing with the Strykers, 
and so forth, that the chairman was getting into. It's been my 
understanding, from serving on this subcommittee many, many 
years, and the Armed Services Committee, before this, when they 
were developing, you know, the Stryker.
    The Stryker has been very good in a lot of areas, as the 
Secretary alluded to. The question, I guess, now, General 
Casey, is, How long would it take, if we do go a double V-, or 
something like that, -shaped hull on the Stryker, to give them 
the MRAP-like protection, give them more protection? Because 
our troops need that in Afghanistan. And where are you in that 
regard?
    General Casey. I can't tell you exactly how long it's going 
to take----
    Senator Shelby. Okay.
    General Casey [continuing]. Because we're in the early 
design stages of it. But, we are moving rapidly to get it 
built, tested, and into the hands of the forces as quickly as 
we can.
    Senator Shelby. But, from an engineering standpoint, it 
looks to me, from what I've been briefed on, that that could be 
a probability, more than a possibility, to do this stuff. In 
other words, to reequip and make the Stryker more safe.
    General Casey. Absolutely. In fact, as I said, we developed 
a V-shaped hull kit for the manned ground vehicle, the future 
combat systems vehicle. So, the technology is out there, and 
it's available. And, I think it has great promise.
    Senator Shelby. Thank you.
    Do you agree with that Mr. Secretary? I know you--you've 
been a supporter of the Stryker----
    Mr. McHugh. Yeah----
    Senator Shelby [continuing]. As I have.
    Mr. McHugh [continuing]. I have, and--although the 
environment has changed dramatically. That's not a step----
    Senator Shelby. You have to----
    Mr. McHugh [continuing]. Back----
    Senator Shelby [continuing]. Change with it----
    Mr. McHugh [continuing]. From----
    Senator Shelby [continuing]. Though, don't you?
    Mr. McHugh. Yes, you--absolutely, sir.
    I think it's worth noting that the manufacturer stepped out 
and recognized this early on, and has been working--not 
extrajudiciously, but been working on this and studying it for 
some time. And, that's a great compliment to them, to recognize 
they want to keep this platform as relevant and as safe as 
possible.
    I'm optimistic, at this time, that we can field this. We've 
done it with the MRAP as a start-from-the-ground-up system, we 
have the Stryker out in the field. I'd like to think, and have 
enough faith in our engineering capability, that we can pull 
this off, and do it in a timely fashion.
    Senator Shelby. If we can do that, though--the Stryker has 
a lot of utility that some of the other vehicles don't have, 
right?
    Mr. McHugh. The commanders have told us, time and time 
again--and I just got back from my 15th visit to Iraq and 4th 
to Afghanistan--that they like and value this platform.
    Senator Shelby. Yeah. We all do.
    General Casey. If I--sorry. Could I just add----
    Senator Shelby. Yes, sir, General.
    General Casey [continuing]. Something to this, because I 
think it's important. I mentioned that the ground combat 
vehicle that we're putting in this budget is the first vehicle 
designed from the ground up to operate in an IED environment.
    Senator Shelby. That would take----
    General Casey. Each----
    Senator Shelby. That would take the place of the----
    General Casey. The Bradley.
    Senator Shelby. That would succeed the Bradley.
    General Casey. That's correct. But the issues that we're 
having with the Humvee and the Stryker are all because they 
were developed not necessarily to operate in IED environments. 
So, we're adapting as we go.

                        UNMANNED AERIAL VEHICLES

    Senator Shelby. Mr. Secretary, I'd like to get in the area 
of the unmanned aerial vehicles (UAVs), if I could, which is 
very important to the Army and to our soldiers. One issue that 
continues to be of concern is the Army's ability to continue 
utilizing unmanned systems when and where our soldiers want to 
control them. I continue to hear, from our commanders on the 
ground, about the importance of the Army--of our commanders--
retaining control of tactical UAVs. We've been through this 
before. I know that a great deal of our success in the theater 
hinges upon this capability, command and control. And I'm 
pleased that the Army has not lost many of these systems, due, 
in part, to the fact that the unmanned systems can land 
themselves.
    What I'm concerned about, Mr. Secretary--and I'll bet 
you've been through this--you and General Casey--is enemies 
being able to back into these systems, like we saw with the Air 
Force Predator system last year. Could you describe what the 
Army is doing to mitigate this threat, if you can talk about it 
here, and also talk a little about the cyber initiatives that 
the Army's pursuing in this area? Without getting into 
classified.
    Mr. McHugh. I appreciate your sensitivity there----
    Senator Shelby. Yeah.
    Mr. McHugh [continuing]. Senator. I think I can say, 
generically--first of all, the Army greatly values, and, as you 
noted, sir, correctly, the commanders feel very strongly about 
the Army's need to have these capabilities, particularly at a 
strategic level. The Army's----
    Senator Shelby. And control, too, isn't it?
    Mr. McHugh. Yes, sir. The Army is going forward with an 
unmanned systems program that starts with the extended range 
multi-purpose (ERMP), which is provided for in this budget, 
future development, right down to the Raven, which provides 
command-and-control opportunities for us, as well.
    As to what we read about in the press, I think I can say 
that all the services recognized that potential vulnerability 
early on, and have reacted very aggressively to it. And, for 
the moment, we feel comfortable as to the security systems in 
place. I'd be happy to go into closed session----
    Senator Shelby. Sure.
    Mr. McHugh [continuing]. And provide you----
    Senator Shelby. Whenever the chairman wants to get into 
that, sure.

                            MI-17 HELICOPTER

    One last question, Mr. Secretary. The Mi-17 helicopters. 
The Department of Defense, as you well know, has spent about $1 
billion of funding to noncompetitively purchase nearly 50 
Russian Mi-17 helicopters for Iraq, Afghanistan, and Pakistan. 
I've expressed to the Secretary of Defense, not to you yet, as 
well as this subcommittee, my grave concerns regarding the use 
of U.S. taxpayer dollars for Mi-17s, based on what we believe 
are false assumptions, a total lack of requirements and no 
analysis of alternatives.
    The Army has been very involved with the procurement of 
these helicopters. And until I raised this concern, last fall, 
it appeared that the Army was completely fine with funneling 
millions of dollars to the Russians to equip the Iraqis and 
Afghans, based on nothing more, as we understand it, than the 
fact that these militaries had once seen an Mi-17 in the area.
    I'd like to point out that the Mi-17s have an exceptionally 
high, as you well know, maintenance requirement, parts and 
services, and they're not ready available for in theater. And 
the U.S. trade sanctions, I believe, were violated in the 
initial procurement.
    Finally, it's also my understanding that this platform 
specifically violates the U.S. Army airworthiness requirements, 
document AR 70-62. The question--I'm getting to it, Mr. 
Secretary, slowly--now, that the Army has been designated as 
the lead service for the Mi-17 procurement and has established 
a nonstandard rotary-wing program management office, why are 
there still no requirements or analysis of alternatives to 
this?
    And, if I could, Mr. Secretary, I'd like to just remind the 
subcommittee--our subcommittee, here--that the 2010 Defense 
appropriation bill requires a report detailing the current and 
anticipated demand for Mi-17s for Iraq, Afghanistan, and 
Pakistan; the anticipated availability or shortage of 
additional airframes; the sustainability of the airframe slated 
for use; an analysis of alternative airframes; and the future 
cost and funding sources available for procuring Mi-17--C-17s 
within 60 days of the enactment of the bill. That was 74 days 
ago, Mr. Secretary. Where are we, here?
    Mr. McHugh. After 5 months----
    Senator Shelby. That was a----
    Mr. McHugh [continuing]. In the----
    Senator Shelby [continuing]. Long statement----
    Mr. McHugh [continuing]. Building, I've had a----
    Senator Shelby [continuing]. I know that.
    Mr. McHugh [continuing]. Great time to analyze what your 
question suggests is a very complex problem, Senator. And, I 
would answer in this way.
    First, I would beseech you for the opportunity to sit down 
with you and to go into----
    Senator Shelby. Absolutely.
    Mr. McHugh [continuing]. Greater detail.
    Second of all, as I--as you stated correctly, and as I 
think it needs to be further expanded upon, this is a DOD-
directed program. The Army has been--as you again correctly 
noted, been designated the lead agent and administrator on 
this, but that is to implement DOD policy. The procurement 
program is intended, and has been explained to me, to meet 
current and near-term needs on the battlefield. And both the 
Iraqis and Afghanistans have seen the Mi-17s. It's been 
explained to me----
    Senator Shelby. Probably flying around.
    Go ahead.
    Mr. McHugh. It's been explained to me that those pilots--
and I know you understand the development of the personnel and 
the specialists to serve in both the Iraqi and the Afghan 
security forces, to actually pilot and to do other specialty 
military occupational specialists (MOSs), in their ranks, is 
somewhat strained. But, in the near term, those who have seen 
it have also flown it and are prepared to operate in those 
particular platforms.
    You're correct, as well, their maintenance scheduled needs 
are somewhat of high operations tempo, but in complexity they 
are somewhat simple, in that--and I'm probably the last person 
in the world to be talking about this, but--in that the 
mechanics and the opportunities for repair and maintenance are 
relatively routine.
    Having said that, and as a Buy American kind of individual, 
I think it's totally appropriate, as we go forward, that we 
continue to assess the program. And at such time as it's 
appropriate, when perhaps the theater needs growth, we 
reexamine exactly which way should--we should go in future 
platforms. But----
    Senator Shelby. Well, that would include alternatives as 
you analyze the needs, right?
    Mr. McHugh. As directed by the Department of Defense. And 
as everybody in theater, including the Iraqis and Afghanistans, 
get more sophisticated across the board, I assume their needs 
and their capabilities will expand.
    Senator Shelby. Well, I'd like to meet with you sometime, 
and we'll expand this a little bit further.
    Mr. McHugh. I'd be honored to.
    Senator Shelby. Mr. Chairman, thank you.
    Chairman Inouye. Thank you.
    Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman.
    Secretary, General, good to see you.
    Let me start off just thanking you for your work you're 
doing on the--both the suicide and post traumatic stress 
disorder (PTSD)--traumatic brain injury (TBI)--work. I think 
it's--one of the startling things to me, when I came in as 
Congressman, was the number of veterans that we were having in 
our office and coming by that were having a lot of long-term 
difficulties from the Vietnam war and era.
    And I think one of the things we didn't get on top of was 
what was happening to them mentally after they came back from 
combat. And I--boy, I see that thing playing out again, if we 
don't get on top of it. And, it seems like the military's 
recognizing that and saying, ``No, something's going on here, 
and we need to get on top of this.'' Because, otherwise, you're 
going to get a lot of long-term problems, difficulties. And 
it's like almost anything, the sooner you get on top of it, the 
more likely you are to be successful with your options, and the 
more options you generally have available. So, I really applaud 
that.
    And I also applaud that I think we can find things out, 
here, that could be helpful to the broader society. Suicide 
rates in our young people is the third highest cause of death 
in teenagers. And you're going, ``You know, why on Earth is 
that?'' You know, when you live in a great country like this, 
and opportunities that are here. But, you know, people really 
develop a thought that there's just no hope. And when they get 
to that point in time, then options for doing very drastic, 
dramatic, self-harmful things grows, and the more likelihood 
there is that it happens.
    You're doing some work on brain mapping studies, that I'm a 
big fan of, because I think that may teach us what's going on 
mentally, inside of a person. And the brain is the final 
frontier for us as a--as an organ. I mean, it's just 
phenomenal, and it's complex, and we don't understand it very 
well. But, you guys' work on this could really help us 
understand a lot of those complex inputs, and how they're 
processed, and what happens. So, I really want to urge you, and 
support that effort.
    A final thought in this area, my own personal experience 
and view has been that the resources are available, but it's 
that there are plenty of resources that are there, but 
generally when a person gets into this stage, they've blown 
through most of their relationships. They've blown through, 
maybe, a spousal relationship, family relationship, friends, 
and they're on their own now. They're alone in it.

                           SUICIDE PREVENTION

    And that's when you get in trouble, in that if there's a 
way that we can look at encouraging those, or spotting the 
people when they start moving to a loner status, I'd--that's, 
to me, the whole key of it. And that's very hard to do. I think 
it's on a front-end basis, where we try to encourage the 
building of more relationships, and be very systematic about 
it. You know, you've got a buddy program in the military, 
you're always watching for the guy next to you. If there's a 
way we expand that, get the volunteer community around these 
bases, around Fort Riley and places like that to do it; faith 
communities, very happy to step in and work in a relationship-
building setting because I think that, at the core, is where we 
lose it. It's not technology, it's old fashioned ``I care for 
you.'' And having somebody there that actually cares for them, 
and through thick and thin, and when--this is generally when 
it's getting really thin, and people self-treating places and 
ways, and I've seen plenty of it. And that's at the core, but 
what you've got to get at is that relationship building.
    So, I really want to support that effort, because I think 
you can help us out in the broader society, and we need to 
address it as a military.
    I've got two narrow Kansas issues I want to push out to 
you. And this is, by virtue of the things you've identified 
here today, this is very small potatoes. So, you can look at it 
as such. They're important to us. We've got two major Army 
installations, a number of Guard installations in the State. 
Fort Leavenworth, Fort Riley, we're very proud of in our State, 
and we love them. And we really are very appreciative of those 
installations, those units.

                        NEW MILITARY/VA HOSPITAL

    At Fort Leavenworth, there's not a military hospital there. 
And I know we've looked at the numbers on this and said, 
``Well, it's not a size, yet.'' We do have the disciplinary 
barracks that's there, we do have a small Veterans 
Administration (VA) that's there. And I think it may be one, if 
you look into your future plans, that you may look at and 
decide a combined military/VA hospital might be the way to go 
with this, because it's got a large military community, a large 
military retiree community. I understand, in Chicago, you've 
done a combined Army/VA center. And in our future, I think 
we've just got to be less stovepipe and a lot more 
interconnected. And I think this may be a classic one where it 
actually could work pretty well and also fit the disciplinary 
barracks that's there, too.
    [The information follows:]

    Recapitalization of the Munson Army Health Center, Fort 
Leavenworth, Kansas, is in the very early phases of planning. 
The next planning visit is scheduled for March 22-26, 2010 to 
clarify requirements and determine full replacement costs or 
program amount. The replacement project will compete in the 
Department of Defense's Capital Investment Decision Making 
(CIDM) process for likely programming in the fiscal year 2012-
17 Defense Health Program Future Years Defense Plan. While the 
Army Medical Command and Department of Veterans Affairs (VA) 
have opened dialogue at the local level, the currently 
developed project that will be presented in this year's CIDM is 
a modern 175,000 gross square foot replacement Army Health 
Center. Collaborative efforts between the Army and the VA 
concerning this project are not ready for consideration in this 
year's CIDM process.

    Senator Brownback. A second issue--and this, again, is a 
narrow one--at Fort Riley, with bringing the Big Red One back, 
which we are delighted to have--the community, the area, is 
just delighted their headquarters is back from Germany. We're 
busting at the seams on our grade school, middle schools, with 
the numbers coming back in. And if you can look at if there's 
any way to help out with that, because we want to make sure we 
provide a good family experience for these young men and women 
in uniform, and their families. And we're having difficulty 
meeting that.
    So, as I say, those are small potatoes, relative to the 
other things.
    And overall, I want to commend you for what you're doing in 
Iraq and Afghanistan. I think this military has performed very, 
very well. It has been tough circumstance, difficult to do, but 
I'm really proud of what you're doing. I'm proud of how the 
military is operating.
    Thank you, Chairman.
    [The information follows:]

    The Army has no specific authority to fund public school 
construction.

    Chairman Inouye. Thank you very much, Senator.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Secretary and General, thank you for being here.
    Let me ask a couple of questions. First, the issue of the 
Sky Warriors. I know that my colleague is very interested in 
that issue, and has been for some while. I have wondered aloud 
and questioned why we have almost identical programs run by 
both the Army and the Air Force: Sky Warriors, the Warriors, 
and the Predators.

                         DUPLICATION OF SYSTEM

    And when I came to Congress, several decades ago, I joined 
a group then, with Senator Gary Hart, talking about trying to 
change the procurement process and try to stop the duplication. 
Because every level of service wants to do everything that 
everybody else does, and they're pretty successful in making 
that happen. And as I watched the growth of the Predator and 
the Warrior program, it looked to me like you've got two 
branches of the service that have done exactly the same thing. 
And I've been enormously frustrated by that.
    So, the question is, How will the Army Sky Warrior's UAVs 
integrate with the 50 Air Force UAV caps that are planned for 
2011? I mean, are you working with the Air Force trying to--
tell--try to----
    Mr. McHugh. We are, Senator. In fact, we have been for some 
time. In fact, I started working with ``Buzz'' Moseley on UAV 
employment a couple years ago. It's not only the procurement 
side of it, it's the employment side of it. And as we sat down, 
we realized that we were talking past each other a bit. If you 
look at the levels of war, it was pretty clear to us that the 
Air Force had the strategic UAV requirement. That was their 
baby, nothing for the Army in there.
    At the tactical level, that was really the Army's purview, 
because we need to maintain pretty tight control so we can 
shift them around based on changing tactical situations.
    At the theater level, the operational level is where we 
were bumping up against each other. We worked with the Air 
Force to build a--we call it a CONOP, concept of operations--
that gave the Air Force the higher--not altitude, but the 
higher-level requirements for the theater commander; and the 
Army had the lower-level operational requirements for the core 
commanders. I think we've done a good job of differentiating 
that. Probably not as much progress on the procurement side, in 
differentiating that.
    Now, we--these ERMP, that are basically enhanced Predators, 
that are in this budget, 26 of them, are somewhat different 
than the Predator. But, I ask myself the same question you do, 
Is it so much different that it ought to be a different 
program? And could we not gain efficiencies working with one 
program? And I have not cracked that one with the Air Force 
yet.
    Senator Dorgan. I hope you will, because I have thought 
there should be an executive agency for UAVs in the Pentagon so 
that we don't have different levels of service doing the same 
thing, and duplicating the research, duplicating the management 
of the program, and so on. I--it is frustrating to see. And I 
understand that most services want to do everything, and even 
some things another service is doing. It's been a battle we've 
fought for 30 years; mostly unsuccessfully, I'm afraid. But, 
thank you for that answer.
    I want to just mention to you that I'm going to ask the 
chairman, at some point--I've not had a chance to visit with 
him--but, in this appropriations bill, to include an amendment 
that will take a new and completely fresh look at whether 
deciding in LOGCAP to, essentially, contract everything out 
instead of doing it in the service, whether that has been an 
effective thing for the country--whether it's producing food 
for troops, you know, under a contract, or buying towels for 
troops, or moving water to base. I happen to think that the 
LOGCAP, and the contracts under LOGCAP, have produced the 
greatest waste, fraud, and abuse, perhaps in the history of our 
country. I've done 20 hearings in the policy committee on this. 
Let me just go through a couple of them quickly.
    The contract to provide water to the military bases in 
Iraq, that contract resulted in nonpotable water at a number of 
the military bases being more contaminated than raw water from 
the Euphrates River. And I had the internal documents of KBR 
that said this was a near miss, could have caused mass sickness 
or death. Both KBR said it didn't happen and the Army said it 
didn't happen. And yet, I got an e-mail from a commander, a 
woman, a physician with the U.S. Army in Iraq, saying, ``No. 
No. I read these things. It did happen. I'm here. I'm treating 
patients as a result of that nonpotable water that is 
contaminated.'' And I got the Government Accountability Office 
(GAO) to do--or the inspector general, rather, to do an 
investigation. He said, ``Yes. In fact, it did happen.''

                             BAD CONTRACTS

    And it kind of bothers me that--it bothered me then, and 
does now, that the contractor said it didn't happen, the Army 
says it didn't happen, and, in fact, when you investigate, it 
did happen. The sodium dichromate. We now have the Indiana 
National Guard and several others testing troops. Again, we had 
the person who worked for KBR on the site, who was a safety 
inspector, said he warned the contractor. Contractor denies all 
these issues.
    Electrocutions, you're well familiar with. The contractors 
work on providing electricity. And wiring had to be redone, and 
we found massive mistakes. Soldiers have died. Mr. Maseth died, 
taking a shower, because of incompetence, hiring third-country 
nationals, that could barely speak English, to do the work.
    A man showed up, who worked in Saudi Arabia, who was doing 
part of what the Army used to do, he was ordering the supplies. 
He was ordering towels. And he held up a towel, he said, ``Here 
is a towel I was going to order. My boss said no, that towel is 
not the one to order, I want you order this towel. It has our 
company logo on it.'' He said, ``Well, that'll cost three to 
four times more.'' His boss said, ``Doesn't matter. I mean, 
this is a cost-plus contract. We're going to make more money.'' 
So, he ordered the towel with the logo.
    And the list goes on and on. I mean, 22-year-old Mr. 
Diveroli gets $300 million in contracts. He's a 22-year-old 
president of his dad's shell company, and he hires a 26-year-
old masseuse as a vice president, and gets $300 million in 
contracts.
    I had the head of your Army Sustainment Command in my 
office, and we had quite a talk. He said, ``You know what? I'd 
do the same thing today, knowing what I knew then.'' I said, 
``Well, then you wouldn't--if I were running the Army, you 
wouldn't remain in my Army.''
    But, all of those things suggest to me that there's been 
something fundamentally broken in the procurement process, in 
the contracting process. In some cases, we even have contracted 
out contractors to supervise other contractors. I know some of 
that's now going to change.
    I'm going to ask that we include an amendment, in this 
year's bill, to take a fresh look at all that's been done and 
evaluate if there is a better way to have done that, perhaps 
bringing some of those functions back into the Army? But, give 
me your assessment of all that, General Casey, and perhaps 
Secretary McHugh.

                       RESPONSE TO BAD CONTRACTS

    General Casey. Well, first of all, I think your efforts 
have shined the light on some things that needed a light shined 
on them. And all those things that you said, happened. But, I 
think we have learned from them, in advance. I mean, we're not 
where we were 3 years ago, with contracts today. We actually--
Pete Geren, in 2007, had an independent assessment of our 
contracting capability, and it was striking how much work we 
had to do. And since we've set up an Army Contracting Command 
with an Expeditionary Command and a Mission and Installations 
Command, and we have more than doubled the number of trained 
contractor representatives that are out there to supervise 
these contractors. And we're actively training soldiers in 
units before they deploy to give them the skills they need to 
do some of the oversight that was clearly missing in the cases 
that you saw.
    My sense is, your call to re-look this is timely. And it--
I'm not sure how much of this is folklore, but when I talk to 
folks about this, what they tell me is, when we took the Army 
down, back in the late 1980s early 1990s, from 780,000 to 
480,000, some--the mitigation for that was to be able to go to 
contractors to the logistical support. And way back then, they 
did--I'm sure they did cost-benefit analysis and costed the 
cost of a logistics soldier out over the lifecycle of the 
soldier, and they figured it was going to be cheaper to do 
contract for some of those logistical tasks. I think it's high 
time that we go back and see if those assumptions are still 
valid.

                         CONTRACTING CAPABILITY

    Mr. McHugh. Let me echo the Chief's comments to you, 
Senator. And having served a number of years, and watching your 
efforts while I was in Congress, and a big fan of the military 
and the Army, I deeply appreciate it. And I think I can speak 
with some validity in saying that so do the men and women in 
uniform and their families.
    I agree with the Chief. We have taken steps to try to do 
the best we can within the framework that is provided. As you 
know, we're transitioning to a LOGCAP IV that is different. I 
don't want to suggest, at this early date, it is perfect, but 
it does do away with the sole-source and range of potential 
abusive practices that LOGCAP III did, but it may not be the 
perfect answer. And I assure you, the Army will administer and 
implement, to the best of its ability, whatever oversight 
structure that this Congress, in its wisdom, decides to place 
before us.
    I agree. Your final comment was about insourcing. We went 
far--too far, in my humble judgment. And I was part of the 
Armed Services Committee that supported those outsourcing 
initiatives that, perhaps well-intended, I think had difficult 
results. We've already re-brought into house, insourced, some 
900 core capabilities that have provided the Army and the 
taxpayers $41 million in savings and, I would argue, better 
oversight. And we have an objective that is, in large measure, 
supported in this budget, to, by the end of 2015, insource to 
the Army another nearly 4,000.
    Chief mentioned our efforts at the brigade and battalion 
level to provide well-trained and more sufficient numbers of 
CORs, contract oversight officers, and we're going to continue 
to do that.
    But, my experience has been, there's always a better way; 
the challenge is to find that. And to the extent we can be 
supportive in that search, we want to do that.
    Senator Dorgan. I know that the chairman wants to end the 
hearing; I think we have another engagement. But, I--let me 
just make one final point.
    First of all, thank you for your answers. I described some 
negatives; there are many, many positives. And I finished 
reading a book recently, and I think the title was ``A 
Soldier's Life,'' and it is an extraordinary book about what 
soldiers do every day, and what our military does every day. 
And while I talked today about my concerns of some things, let 
me add what I'm sure you've heard from my colleagues, we are 
enormously grateful for the work both of you do on behalf of a 
lot of people today who got up this morning to face danger on 
our behalf. So, General Casey, thanks for your long service. 
Secretary McHugh, I'm glad you're where you are.
    And thank you very much.
    Chairman Inouye. I thank you very much, Secretary McHugh 
and General Casey, for your testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    I have two questions here, submitted by Senator Cochran, 
who cannot be with us, so I will submit them for your 
consideration.
    We look forward to working with you in the coming months. 
And I can assure you that we will do our utmost to make certain 
that the men and women in uniform are given whatever is needed 
to make certain that their service to our country is not only 
one that our Nation would appreciate, but it will be good for 
them. And I commend you for the effort being made now to look 
into matters, such as stress, which is very important.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. John M. McHugh
            Questions Submitted by Chairman Daniel K. Inouye
                brigade combat team (bct) modernization
    Question. Secretary McHugh, the Army's Future Combat Systems 
program, FCS, has been terminated and replaced with a program to 
incrementally field many of the technologies that were developed under 
the FCS program. However, a recent Limited User Test showed that 
despite an investment of almost $21 billion in the last 7 years, many 
of these technologies are unreliable and do not work as intended. This 
raises serious questions about the acquisition strategy pursued by the 
Army for FCS. What lessons has the Army learned from its FCS program 
acquisition strategy and how will you incorporate them into future Army 
acquisition programs?
    Answer. After cancellation of the FCS program, the Army conducted 
an analysis of requirements based on the lessons learned from the last 
8 years of war. We retained the family of systems knowledge base 
acquired during the FCS program as well as technologies related to the 
network, and unmanned/ground vehicles developed during the program. 
This analysis will now support the BCT Modernization Strategy.
    We found that modeling, simulations and scenarios depicting FCS 
capabilities and operations became increasingly complex over time, 
which resulted in fewer scenarios that limited our ability to analyze 
across a wide range of relevant operating conditions. A key lesson 
learned from this experience was that the Lead Systems Integrator (LSI) 
was contracted to produce analytical deliverables that were duplicative 
of what the Army was doing and that were more advocacy than analysis. 
These products were therefore of questionable value. Additionally, 
during critical early program stages, the unique technical expertise 
and capabilities resident within the Army were not leveraged by the 
Program Manager/LSI team, especially for platform survivability and the 
network. The Army has moved away from the LSI model and restructured 
the contract, establishing a Prime Contractor to deliver Increment 1 
capabilities to our Brigade Combat Teams.
    While retaining the effort to integrate, develop and field 
capabilities as a system, the Army is also fully embracing competition 
and Department of Defense Instruction 5000.2 to support our BCT 
Modernization strategy. For example, the Ground Combat Vehicle program 
will be competitive beginning at a Milestone A and using best 
practices, including competitive prototyping through its acquisition 
process.
    Further, FCS did not adequately revalidate operational concepts at 
regular intervals to address lessons learned or reassess technology 
development. The BCT Modernization Plan will focus on technologically 
feasible and affordable solutions, address lessons learned, allow for 
incremental technological development, and have appropriate mitigation 
plans in place. For example, the Army will field Increment 1 
capabilities only when they are mature and will structure the program 
to allow for technological upgrades and refinements even during the 
fielding process.
    Early in development, the Army decided to let Soldiers test and 
evaluate the systems through the Army Evaluation Task Force. As a 
result, Soldier feedback has played a key role in optimizing designs 
throughout the development phase--ultimately leading to a better end 
product. Increment 1 capabilities are now in their third year of the 4 
year test cycle.
                      future role of mrap vehicles
    Question. Secretary McHugh, a success story from the wars has been 
the rapid development and fielding of Mine Resistant Ambush Protected 
Vehicles, ``MRAPS''. The Army has taken receipt of 12,000 MRAPs and has 
a requirement for about 5,800 light-weight MRAPs. But despite the 
MRAP's unquestioned success, I get the feeling that these vehicles are 
treated like the ``ugly step-child''. The Army has no funded plan to 
integrate them into its force structure, and you are developing another 
tactical vehicle that won't deliver for several years.
    Mr. Secretary, given the difficult fiscal times and Secretary 
Gates' guidance to focus on the 80 percent solution that can be 
provided immediately instead of developing gold-plated exquisite 
systems that don't show up for years to come, what is the future role 
of MRAPs in the Army?
    Answer. The Army has developed an allocation plan for MRAPs as they 
return from theater. This plan, and associated courses of action, was 
briefed to the Under Secretary of the Army (USA) and the Vice Chief of 
Staff of the Army (VCSA) on December 22, 2009. The plan included 
placing MRAPs in task organized sets, select units, and the training 
base. The USA and VCSA directed the proponents to conduct a detailed 
cost benefit analysis on two courses of action for task organized set 
placement. The results of this cost benefit analysis will be presented 
to the USA and VCSA on March 25, 2010.
                     armed aerial scout helicopter
    Question. The fiscal year 2011 budget continues to modernize Army 
aviation units at a rapid pace. However, one key program, the 
replacement of the aging Kiowa Warrior helicopter, has been set back by 
the failures of the Comanche and the Armed Reconnaissance Helicopter.
    The Army is conducting new studies on how to replace the Kiowa 
Warrior and the studies are reportedly examining new concepts of 
``teaming'' helicopters with Unmanned Aerial Vehicles (UAVs). However, 
it is not currently known how many years it will be before a prototype 
Armed Aerial Scout helicopter will fly.
    Secretary McHugh, the Secretary of Defense has warned about the 
dangers of pursuing exotic and costly weapons systems, while ignoring 
the 80 percent solution. Do you feel the Army is taking the right 
approach to the Armed Aerial Scout helicopter?
    Answer. In July 2009, the Defense Acquisition Executive directed 
the Army to conduct an Analysis of Alternatives (AoA) to meet Armed 
Aerial Scout capabilities and to determine a replacement for the OH-58D 
Kiowa Warrior. This AoA will determine the appropriate materiel 
solution(s) to address any capability gaps and meet Army requirements. 
The base for analysis is the current Kiowa Warrior, but the review will 
also include ongoing improvements to the Kiowa Warrior as an option. 
The AoA will be conducted in two non-sequential phases with the 
preliminary results completed in December 2010 and final results 
published in April 2011.
    On April 14, 2009, the Secretary of the Army approved a strategy to 
reinvest in the Kiowa Warrior helicopter to address obsolescence and 
sustainment issues until a viable replacement is ready. The strategy 
includes a funded ACAT II program called the Cockpit and Sensor Upgrade 
Program (CASUP). The CASUP addresses obsolescence, safety and weight 
reduction so the aircraft performs better in the current combat 
environment. The Army expects to sustain the Kiowa Warrior until 2025.
               army funds running out in fiscal year 2010
    Question. In fiscal year 2010, the Department of the Army was 
appropriated $141 billion in baseline funds and an additional $78 
billion for an entire year of Overseas Contingency Operations. When the 
budget request was submitted last month, it included a fiscal year 2010 
supplemental to send an additional 30,000 troops to Afghanistan. Much 
of those expenses are for Army operating costs and in total, the Army's 
request to support the new policy is $20 billion. Secretary McHugh, 
with the current resources available to the Army in fiscal year 2010, 
how far do you think you can make it into the fiscal year before 
running out of funding?
    Answer. A critical portion of the fiscal year 2010 supplemental 
request is the Operation and Maintenance, Army (OMA) funding for 
increased operations in Afghanistan. Because OMA comprises the majority 
of the Army's funding, this account becomes the measure by which we 
project a run-out date at the end of June, beginning of July. Passage 
of the supplemental prior to Memorial Day would make funds available in 
June, and would minimize the risk of impact on theater operations, base 
operations support, readiness and family programs. It would enable the 
Army to maintain required execution flexibility across all 
appropriations.
                          joint cargo aircraft
    Question. Secretary McHugh, I have a couple of questions on the C-
27 Joint Cargo Aircraft--the plane that will replace the Army's fleet 
of C-23 Sherpas. Last March, the Congress was told that the Army needed 
54 of the 78 aircraft planned for procurement. In May, the Department 
announced that it would procure just 38 aircraft, less than half the 
number in the original plan, and transferred management to the Air 
Force. Has your staff reviewed the analyses which produced the lower 
requirement and are you satisfied that the Army's lift needs will be 
satisfied with the planned buy of 38 aircraft?
    Answer. The Army has a validated requirement for 75 cargo aircraft, 
per the Joint Cargo Aircraft Analysis of Alternatives (AoA) and 
addendum. Office of the Secretary of Defense Program Analysis and 
Evaluation (OSD PA&E) completed a sufficiency review validating the 
Army's acquisition objective of up to 75 aircraft. The Army's initial 
procurement was for 54 Joint Cargo Aircraft (C27J). However, in April 
2009, the SECDEF directed the Joint Cargo Aircraft (C27J) program be 
transferred from a joint Army led program to a single service Air Force 
program. He further reduced the initial joint procurement from 78 
aircraft (54 for Army and 24 for Air Force) to 38 aircraft. The SECDEF 
has directed that the lift requirements be met by the Air Force, 
leveraging their entire fleet mix.
                            tactical radios
    Question. Secretary McHugh, the Army successfully incorporated 
commercial radio technology into the Joint Network Node system in the 
last decade. Is the Army planning to leverage other commercial 
technologies as part of the Joint Tactical Radio System? In particular, 
has Army looked at commercial technologies to meet the wide band 
networking requirements?
    Answer. The Army has leveraged commercial technologies to fill 
urgent operational capability gaps; however, there are no commercial 
alternatives to the JTRS programs that meet all the Joint Service 
requirements. Commercial off-the-shelf alternatives may offer an 
attractive up-front price over the JTRS programs; however, they only 
provide limited solutions and potentially make it more difficult for 
the DOD to achieve interoperability of our joint secure communications.
    Question. Secretary McHugh, what is the Army's position on fielding 
additional AN/PRC-117G radios to meet contingency needs?
    Answer. In certain situations and missions, forces in contingency 
operations have expressed urgent operational requirements for a 
wideband networking radio capability. The Army Staff is currently 
analyzing each request carefully to determine the proper materiel 
solution for validated requirements. In some cases, the AN/PRC-117G is 
the best solution available to satisfy these needs. The Army has 
sufficient stocks of AN/PRC-117G on hand to meet all known contingency 
operations requests, and plans to resource/field any approved requests 
from these stocks only. The Army is not currently planning to purchase 
additional AN/PRC-117G to meet contingency needs. The preferred 
approach is to accelerate Joint Tactical Radio System (JTRS) 
capabilities, wherever possible, to satisfy wideband networking radio 
requirements.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                    army guard and reserve equipment
    Question. How much funding is included in the President's fiscal 
year 2011 for Army Guard and Reserve Equipment? How does this compare 
to the relative size of the Army Guard and Reserve compared to the 
active duty Army? Does the Army support a separate budget line item 
that annotates equipment procurement for the Guard and Reserves? 
Wouldn't this provide greater transparency?
    Answer. Funding requested for equipment procurement is as follows: 
$15 billion (76 percent) for the Active Component (AC); $3.6 billion 
(18 percent) for the Army National Guard (ARNG); and $1.1 billion (6 
percent) for the U.S. Army Reserve (USAR). There are some deviations of 
funding versus size (based on requirements). However, a more telling 
comparison is requirements versus equipment on hand, which shows that 
we are funding to increase readiness in all components equally.
    The Army does not support a separate budget line item, as it would 
limit the Army's fiscal flexibility, which is required in a constantly 
changing world.
    The Department of Defense (DOD) has provided the Services with 
implementation instructions on how to attain transparency. The 
instructions direct the Services to provide component-level funding 
data for the AC, ARNG, and USAR on annual budget exhibits. The Army has 
complied with this by providing the data on the P-40 (Budget Item 
Justification) and the P-21 (Production) budget exhibits for both the 
fiscal year 2010 and fiscal year 2011 budget requests.
    The DOD instructions also direct the Services to provide quarterly 
reports that track the execution of Reserve Component funding and 
procurement. The DOD intends to provide those reports to Congress on a 
semiannual basis. The Army fully supports and is in compliance with the 
DOD implementation instructions and has provided the required reports 
for fiscal year 2009 and 1st Quarter fiscal year 2010.
                       director of the army guard
    Question. In what stage of the nomination process are we for the 
position of the Director of the Army Guard? When can the Senate 
anticipate receiving a new nominee for this position?
    Answer. Currently, the Army and the National Guard are in the 
selection phase of the nomination process. The Senate can anticipate 
receiving a nominee as soon as the selection phase is complete, which 
is estimated to be within a few weeks.
                        homeland response force
    Question. How will the Department of Defense organize Emergency 
Management Assistance Compacts between the state that owns a Homeland 
Response Force and the other states in the region that share it? Under 
what emergency circumstances would you envision Federalizing the 
Homeland Response Force and taking command and control away from the 
Governor in favor of U.S. Northern Command? Was the decision to 
establish the Homeland Response Forces made jointly by DOD and DHS?
    Answer. Emergency Management Assistance Compacts (EMACs) are 
arranged and entered into by the states and territories in order to 
provide mutual assistance and support of one another. They are not 
compacts with the Department of Defense.
    The Department is drawing on existing National Guard forces to 
build a Homeland Response Force (HRF) in each of the ten Federal 
Emergency Management Agency (FEMA) regions. Creation of HRFs within the 
existing National Guard force structure recognizes the need for 
increased Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosives (CBRNE) response capabilities and capacity in the event of 
catastrophic CBRNE incidents. It also takes into account the 
operational experience states and territories have in supporting each 
other using National Guard forces in either State Active Duty (SAD) or 
Title 32 statuses.
    As is the case for the states that currently maintain National 
Guard CBRNE Enhance Response Force Packages (CERFPs), the Adjutant 
General of the state or territory that gets an HRF agrees in writing 
that the HRF is a national response capability, which can be employed 
outside of the state to provide support within the FEMA region or in 
other FEMA regions, as necessary. The 17 existing CERFPs are employed 
in state, out of state, regionally and nationally to respond to CBRNE 
incidents regardless of the unit's location.
    The HRF will have the same early, life-saving capabilities of the 
CERFPs (e.g., Search and Extraction, Decontamination, Emergency 
Medical, and Command and Control (C\2\)), as well as security and 
Brigade level C\2\ for synchronizing multiple CBRNE units. Each HRF 
will have approximately 566 personnel.
    States generally have jurisdiction over the welfare of their 
citizens. However, in many circumstances the President, by law, has 
preeminent jurisdiction to handle certain incidents (e.g., terrorism, 
most nuclear or radiological events and/or environmental impacts). He 
or she also may have the political/moral obligation to assist 
regardless of the nature/size of incident. Accordingly, it is essential 
to facilitate a unity of effort as Federal forces integrate with 
ongoing State responses.
    The HRF is designed to be employed in SAD or Title 32 statuses. 
Only in an extreme situation, such as a state's incapacitation to 
govern and/or control the emergency situation (continuity of 
government/continuity of operations), is it possible that the President 
would Federalize the HRF and place it under the command and control of 
the Commander, U.S. Northern Command (USNORTHCOM).
    Historically, over 90 percent of all incidents are handled at the 
local level; approximately 6 to 8 percent involve state level 
engagement, and an even smaller percentages have a Federal response. As 
such, the Department does not envision the likelihood of placing the 
HRF into a Title 10 status under the command and control of USNORTHCOM. 
However, USNORTHCOM will command the follow-on CBRNE Consequence 
Management Response Forces (CCMRF) when requested to augment the 
consequence management efforts of State and local first responders, 
National Guard forces and Federal agencies by providing complementary 
and unique capabilities when the effects of a CBRNE event exceed their 
capabilities.
    The Department of Homeland Security participated in both the 
initial consequence management study and observed the Quadrennial 
Defense Review. FEMA provided information about Federal, state, and 
local consequence management capabilities for inclusion in the 
consequence management study. State involvement, in the form of the 
Adjutants Generals, was facilitated by the National Guard Bureau.
                           title 32 line item
    Question. In each of the past several years, the Department of 
Defense has paid for Title 32 funding requests for domestic disaster 
relief missions as requested by State Governors and approved by the 
Secretary of Defense. Naturally, paying for these much needed 
operations out of regular Army Operations and Maintenance accounts 
shortchanges other programs. Does the Army have plans to create a Title 
32 line item in its Operations and Maintenance accounts? If not, why 
not? If such a line item already exists, please provide the 
identification numbers used in the Army budget justification documents.
    Answer. Under the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act, Public Law 106-390, October 30, 2000, DOD may be 
required to provide assistance to Federal agencies and state and local 
governments in response to major disasters or states of emergency 
declared by the President.
    In fiscal year 1990, Congress established the Defense Emergency 
Response Fund (DERF) to reimburse DOD for providing disaster or 
emergency assistance to other Federal agencies and to state and local 
governments in anticipation of reimbursable requests. The Treasury 
index symbol for the DERF is 97X4965 and was initially funded at $100 
million. The purpose of DERF is to allow DOD to provide disaster and 
emergency relief assistance in response to natural or manmade disasters 
without depleting the funds it needs to accomplish its mission. DOD 
Financial Management Regulation (DODFMR), Volume 12, Chapter 6 provides 
for the policy and procedures governing the Defense Emergency Response 
Fund.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                      national guard and reserves
    Question. Secretary McHugh and General Casey, the National Guard 
and Reserves have been called upon to support the efforts in Iraq and 
Afghanistan. Despite their dedicated service they often come home to 
hardships, especially in the current economy. In the state of 
Washington, National Guard unemployment is over 14 percent vice the 9.5 
percent unemployment rate statewide. In the last year there have been 
seven suicides with 70 percent of those tied to the Guardsman's 
financial situation. 2,100 Washington National Guardsmen live at or 
below the poverty line as a result of their employment situation. I am 
concerned for these soldiers mental and emotional well-being as they 
are returning from serving their country to possible unemployment and 
financial instability instead of a happy family reunion. What is the 
Army doing across the nation to help these National Guard and Reserve 
soldiers and their families when they return from deployment to 
financial hardship?
    Answer. The Army Reserve Yellow Ribbon Reintegration Program (YRRP) 
provides information, services, referral, financial planning and 
assistance, and other proactive outreach programs to Soldiers of the 
Army Reserve and their Families through all phases of the deployment 
cycle.
    The goal of the Yellow Ribbon Reintegration Program is to prepare 
soldiers and families for mobilization, sustain families during 
mobilization, and reintegrate soldiers with their families, 
communities, and employers upon redeployment.
    When a soldier or family member contacts the Army Reserve Family 
Programs Office for financial counseling or assistance, the staff will 
support the soldier or family member by providing the appropriate 
assistance and/or connect them to community resources based on 
individual needs. Local Army Reserve Family Programs personnel also 
provide referrals to professional financial counseling services for 
deploying soldiers and their family members.
    In-person financial counseling is now available in most locations 
through Military OneSource in partnership with National Foundation for 
Credit Counseling (NFCC). NFCC provides financial education and 
counseling services at hundreds of local offices nationwide. Military 
OneSource arranges for soldiers and family members to meet face-to-face 
with a financial consultant in their community. This program is 
specially designed to provide short-term, solution-focused financial 
counseling for service members and families, who may be experiencing a 
financial setback. Up to 12 counseling sessions per issue, per calendar 
year are allowed for each National Guard or Reserve soldier (regardless 
of activation status) and families located in the continental United 
States. For those unable to attend in-person counseling or who are in 
locations where in-person counseling is not available, Military 
OneSource will provide telephone consultations.
    Additional assistance for returning Reserve Component soldiers is 
available through the Employer Partnership Office portal. The U.S. Army 
Reserve created the Employer Partnership Office (EPO) of the Armed 
Forces with the goal of assisting soldiers and family members with 
access to employment when they return from deployment. Launched in 
2007, the program expanded in 2009 to include the Army National Guard.
    EPO regularly participates in Yellow Ribbon Reintegration events, 
job fairs, Wounded Warrior events and visits to units to advise 
soldiers and family members of the hundreds of thousands of jobs 
available to them. Through EPO, service members have access to more 
than 500,000 jobs listed by nearly 1,000 employers who have partnered 
with EPO. Additional assistance includes personal contact with EPO's 
Program Support Managers who serve as caseworkers, advising service 
members not only about employment listed on the EPO portal, but about 
in-kind services offered by many of our partners and military service 
organizations. Services include mentoring and career development, job 
counseling, resume writing assistance, how to negotiate salaries, how 
to dress for success, tips on how to succeed in positions which are 
competitive and how to find jobs that compliment their military 
service.
    Question. How has this affected the readiness of our National Guard 
and Army Reserves?
    Answer. Financial hardships, caused by possible unemployment for 
redeploying Reserve Component (RC) Soldiers, have not had a measureable 
impact on readiness. During the beginning OIF and OEF, RC readiness did 
decline. With the implementation of the ARFORGEN model and the 
additional resources provided by Congress for RC units, however, 
overall readiness has been steadily improving since early 2009.
    Question. How is the Army assisting these soldiers to improve their 
job skills to make them relevant and competitive in the current job 
market?
    Answer. In addition to the highly valued skills Soldiers learn in 
the military, the Army has a number of programs to assist Soldiers as 
they transition into the civilian workforce. One of the newest, and 
most innovative programs is the Employer Partnership Office (EPO) 
launched in 2007 by Lt. Gen. Jack C. Stultz, Chief, Army Reserve. The 
program was designed as a collaborative effort between employers and 
the Army Reserve to provide a continuum of career for our service 
members. In July 2009, the Army National Guard joined the EPO. 
Currently nearly 1,000 companies have signed non-legally binding 
memorandums of agreement with the EPO. Many of our partners are Fortune 
500 and Fortune 1000 companies; others are nonprofit organizations who 
contribute in-kind support to our service members as they transition 
into or back to the civilian job market.
    Through EPO, service members have access to program support 
managers and business partners who can assist with resume writing in 
order to capture the skills and talent these men and women earn while 
they're serving in the military. Other services include interviewing 
skills and how to dress for success. EPO program support managers can 
identify partners who offer internships and apprenticeships or offer 
assistance with relocation or continuing education. EPO also regularly 
briefs Soldiers and families at events such as Yellow Ribbon 
reintegration events, Veterans events, Wounded Warrior events, job 
fairs and briefings to individual units. Many of the skills that reside 
in the Reserve Components are shared skills Soldiers use in their 
civilian employment such as the medical field, transportation, city 
planning, management and military police. Due to these shared skills, 
through the EPO, we are currently developing pilot programs that would 
provide cross-training opportunities. One such program to be unveiled 
in the coming months represents a partnership between a major American 
automotive manufacturer and EPO to offer RC Soldiers an opportunity to 
train on the manufactures' fleet training package. In the second phase 
of this pilot, the partnership will embed Soldiers in industry to train 
as mechanics on hybrid vehicles before hybrid vehicles are used on the 
battlefield. Additionally, we are reviewing ways in which a Soldier can 
earn credit towards a Commercial Drivers License (CDL) while learning 
to be a truck driver.
                                families
    Question. Secretary McHugh and General Casey, I applaud your 
efforts in making the families of our soldiers a top priority. Family 
readiness and support is crucial for the health of the Army. The 
health, mental health and welfare of Army families, especially the 
children has been a concern of mine for many years. This also includes 
education, living conditions, and available healthcare. How are you 
meeting the increased demand of healthcare and mental health 
professionals to support the families? If not, where are the 
shortfalls?
    Answer. The Army listens to Family members who want easier access 
to care. Attempts to improve access to care include two new Army 
programs associated with the new Child, Adolescent and Family 
Behavioral Health Proponency (CAF-BHP). The CAF-BHP focuses on two new 
innovative clinical programs to bridge the access gap: School 
Behavioral Health and Child and Family Assistance Centers (CAFAC). 
Breaking tradition, the School Behavioral Health program proactively 
brings care to the children rather than requiring them to travel to the 
clinic in the military treatment facility. Similarly, the Military and 
Family Life Consultant program provides care closer to where Soldiers 
work and Families live. Clinicians provide short-term, situational, and 
problem-solving consultation services outside the walls of the clinic, 
which breaks down some of the traditional barriers to care. The CAFAC 
is a model designed to be established at the installation level. The 
CAFAC brings together under one ``roof'' all the services on an 
installation providing for Army Families who are experiencing the 
stress of multiple deployments. This model creates a single point of 
entry for family members seeking help, thus allowing for more effective 
triage and efficient allocation of behavioral health resources while 
increasing access to care and reducing the associated stigma.
    However, due to the national shortage in Child Psychiatry, 
shortfalls remain and we are having difficulty filling the numerous 
Child Psychiatry provider vacancies throughout the Army. As a result of 
these shortages, some locations experience an inadequate number of 
therapists to help Families during the deployment cycle. The Army is 
continuously working to improve both military and civilian provider 
recruitment and retention. Recent incentives, including bonuses and 
relocation allowances, aid in these efforts.
    Question. What improvements have been made with respect to the 
children of soldiers and meeting their special requirements? What 
programs have you implemented to assist the children of servicemembers 
with coping with frequent deployments, re-integration, and other 
stresses of military families?
    Answer. The health and welfare of our children is tremendously 
important to the Army, and we recognize the difficulties frequent 
deployments cause. As a result, the Army has taken great strides by 
creating and bolstering numerous Child, Youth, and School Services 
infrastructures, programs and services to help our children cope with 
the full spectrum of the deployment cycle.
    Army Families receive reductions in child care fees during the 
deployment cycle and Child Development Centers have extended operating 
hours. They offer many options to support Family Readiness Groups and 
the Chaplains' Strong Bonds program. No-cost respite child care has 
increased from 5 to 16 hours per child, per month.
    Operation Boots On and Operation Boots Off help children understand 
and prepare for their parents' deployment and redeployment. Child 
Behavioral Health Consultants are embedded in our programs to provide 
social, emotional, and behavioral support for both children and staff. 
Military Family Life Consultants provide non-medical, short term, 
situational, problem-solving counseling services in schools with high 
military-connected populations. Army School Liaison Officers serve as 
advocates for military-connected students and assist them through 
school transitions and with school-related issues. Academic support 
services help students compensate for parental absences with on-post 
homework centers, and 24/7 online tutoring support for students 
regardless of where they live.
    Army-sponsored Community Child Care Programs such as Operation 
Military Child Care and Military Child Care in Your Neighborhood 
provide fee assistance to geographically dispersed Families to reduce 
out-of-pocket child care expenses. Operation Military Kids coordinates 
networks of citizens and organizations in every state to support 
military children impacted by deployment.
    Detailed information about these programs is available at the Army 
OneSource website, www.myarmyonesource.com.
    Question. Jobs have also been a concern of military spouses of 
deployed soldiers or who transition because of a Permanent Change of 
Station (PCS). Especially in the current job market, what is the Army 
doing to assist family members seeking employment after a PCS? What 
about spouses who must quit their job or reduce the number of hours 
worked caused by a deployment and the demands of the family?
    Answer. Families are important to the Army, a priority to soldiers, 
and a vital factor in the Army's overall readiness. A prepared family 
is better able to manage deployment, long-term separations and Army 
life in general. The Army has a myriad of employment support programs 
that are geared towards our spouses, both Active and Reserve Component.
    The Employment Readiness Program provides assistance to family 
members in acquiring skills, networks and resources that will allow 
them to participate in the workforce and to develop a career plan. 
Employment services are available to all Army Components, regardless of 
location. Services include: career counseling and coaching; employment 
training classes; job fairs; Army Spouse Career Assessment Tool; job 
listings and information and assistance on the Military Spouse Career 
Advancement Account.
    The Army Spouse Employment Partnership (ASEP) is an expanding 
partnership that is mutually beneficial to the Army and corporate 
America. ASEP consists of a small group of committed partners from the 
private sector, military and Federal government that have pledged their 
best efforts to increase employment and career opportunities for 
military spouses. The partnership provides spouses the opportunity to 
attain financial security and achieve employment goals through career 
mobility and enhanced employment options.
    The Dependents' Educational Assistance (DEA) Program provides 
education and training opportunities to eligible dependents of deceased 
and/or permanently disabled veterans. DEA reduces tuition by offering 
up to 45 months of education benefits.
    The Stateside Spouse Education Assistance Program (SSEAP) is a 
need-based education assistance program designed to provide spouses of 
active duty and retired Army Soldiers, and widows(ers) of Army Soldiers 
who died either on active duty or in a retired status, and residing in 
the United States, with financial assistance in pursuing educational 
goals. The program assists spouses/widows(ers) in gaining the education 
required to allow them to qualify for increased occupational 
opportunities. SEAP provides for up to $2,500 maximum per academic year 
for fees, supplies, or books.
    In addition to these Army programs, many communities partner with 
their local installations through the Army Community Covenant and host 
job fairs and job centers to help spouses with employment searches, 
resume writing, interviewing techniques and other services to help them 
find meaningful employment.
    More detailed information on all of these programs may be found at 
the Army OneSource website, the Army's online resource for information 
on programs, services and support available to soldiers and their 
families.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                        resiliency of the force
    Question. Secretary McHugh, I have been informed that a third of 
the suicides this year have occurred at Fort Hood and Fort Carson. What 
measures are being taken alongside the Army Campaign Plan for Health 
Promotion, Risk Reduction and Suicide Prevention to address additional 
stressors at these two forts?
    Answer. As of March 2010, Fort Carson and Fort Hood each had 4 
suicide deaths. These two posts account for 24 percent of Active Duty 
suicide deaths this year (33). At this point last year, the Army had 53 
suicide deaths. The Army's senior leadership is committed to sustaining 
our current emphasis on this problem.
    The Army conducts an extensive review of every suicide death to 
improve our understanding of why Soldiers choose to take their lives. 
The Army's Suicide Prevention Task Force has created a standardized 37 
line report that units use to analyze the factors surrounding each 
Soldier's suicide. Within 30 days after a Soldiers death, this report 
is sent to Headquarters Department of the Army for review, and a 
General Officer must ``back brief'' the Vice Chief of Staff of the Army 
during a monthly senior review board meeting. This back brief is done 
via a world-wide video teleconference, so that leaders across the Army 
can share lessons learned and improve early recognition of at-risk 
Soldiers.
    Additionally, the Army Public Health Command (Provisional) has 
created the Army Behavioral Health Integrated Data Environment (ABHIDE) 
database. This database provides a standardized, enterprise-wide 
capability designed to integrate information from legal, medical and 
personnel databases into a comprehensive health surveillance system to 
support mental, behavioral, social and public health activities.
    By increasing Soldiers' access to behavioral health (BH) care and 
the reducing stigma associated with seeking such care, the Army hopes 
to positively impact the delivery of BH services in garrison. At Fort 
Carson, Mobile Behavior Health Teams (MBHT) were created to meet this 
need. Each MBHT, which provides Soldiers with expedited BH evaluations 
and community-level treatment, can support a full Brigade Combat Team 
(BCT) (3,000-5,000 Soldiers) and has a licensed BH provider assigned 
exclusively to each battalion (500-600 Soldiers) (BCT). This system 
provides a single point of entry into BH care for Soldiers and a single 
point of contact for leaders with questions. The U.S. Army Public 
Health Command (Provisional) has evaluated similar BH outreach 
initiatives at other Army installations, such as Fort Sill's Outreach 
Program in Oklahoma, and is currently conducting a full program 
evaluation of MBHT.
    Preliminary results suggest a downward trend in off-post referrals, 
wait times for Senate Appropriations Committee appointment and key 
suicide indicators. Efforts to measure the impact of MBHT on BH 
accessibility, provider trust, stigma and mission readiness are 
ongoing. A final report is expected in January 2011.
    Fort Hood's Resiliency Campus focuses on wellness for its soldiers, 
families, and retirees. The campus is dedicated to integrating the 
body, mind, and spirit by aiding visitors in reaching individualized 
and measurable wellness goals through education and comprehensive 
programs. The Resiliency Campus is based on the idea of helping the 
soldier and the family before the crisis begins. Through a network of 
support services, the campus hopes to train and empower all soldiers 
and their families to be resilient, to continue fighting in spite of 
life's challenges.
    Question. Secretary McHugh, are resources available to Guardsmen 
and Reservists after they come off of active duty to help build 
resiliency? Is there outreach for their families when these soldiers 
return to a traditional Reservist role?
    Answer. The Army, Army Reserve and Army National Guard (ARNG) are 
working diligently to increase the range and quality of services 
provided to soldiers throughout the deployment cycle and beyond. 
Currently, there are limited resources available through the Yellow 
Ribbon Reintegration Program and the Comprehensive Soldier Fitness 
(CSF) Program. The Yellow Ribbon Reintegration Program contains 
outreach activities to help soldiers and their families with 
transitioning to a traditional role. In CSF, Master Resilience Trainers 
are being trained to teach resiliency to these soldiers. Soldiers and 
families can also use the ARNG's Family Assistance Centers to help with 
reintegration. The ARNG is looking to increase its capability to train 
Master Resilience Trainers.
                         armed scout helicopter
    Question. Secretary McHugh, Secretary Gates has been critical of 
recent modernization efforts and has stated that too often we seek a 99 
percent solution over a period of years rather the 75 percent solution 
over a period of months that's required for stability and 
counterinsurgency missions. I don't know what program or programs 
Secretary Gates had in mind when he expressed that view, but the last 
two Army efforts to replace the Kiowa Warrior helicopter fleet--the 
Comanche and the Armed Reconnaissance Helicopter programs--resulted in 
program terminations due to requirements growth, cost overruns and 
schedule delays. In response to these program replacement missteps, 
this Committee recommended the Army consider upgrades to existing in-
service rotorcraft as a low-risk path to a Kiowa replacement.
    Mr. Secretary, I know you have been in your job for less than 6 
months, so you may not have had time to consider the Committee's 
recommendation. If you have had the time to consider the merits of 
upgrading existing in-service rotorcraft, would you share with the 
Committee your thoughts, and if you have not had time to consider this 
approach, would you personally look at this and get back to us with 
your thoughts?
    Answer. Considering the rapidly changing battlefield and new 
developments in Tactics, Techniques, and Procedures, existing in-
service rotorcraft are receiving extensive modifications. 
Unfortunately, modifications often add weight, which has a negative 
effect on overall aircraft performance. An example is the aging OH-58D 
Kiowa Warrior fleet. Although the Kiowa Warrior has performed 
outstandingly in theater, there are materiel limitations. There are 
technology improvements, however, which are available to help address 
capability gaps on a new platform.
    On April 14, 2009, my predecessor approved a strategy to reinvest 
in the Kiowa Warrior until a viable replacement is procured. The 
strategy involves executing upgrades to the fielded fleet, weight 
reduction efforts and the Cockpit and Sensor Upgrade Program. This 
funded ACAT II program will address obsolescence, safety, weight issues 
in order to improve the aircraft's performance in the current combat 
environment. We expect to sustain the Kiowa Warrior until 2025.
    The Army is also exploring all options to leverage existing and 
potential developmental solutions. In July 2009, the Defense 
Acquisition Executive directed the Army to conduct an Analysis of 
Alternatives to meet the Army's aerial reconnaissance mission and 
determine a replacement for the Kiowa Warrior. The AoA will be 
conducted in two non-sequential phases with the preliminary results 
completed in December 2010 and final results published in April 2011.
                brigade combat team (bct) modernization
    Question. Secretary McHugh, what are the lessons learned from the 
terminated Future Combat System program, and what steps are being taken 
to ensure they are incorporated in other Army modernization efforts?
    Answer. After cancellation of the FCS program, the Army conducted 
an analysis of requirements based on the lessons learned from the last 
8 years of war. We retained the family of systems knowledge base 
acquired during the FCS program, as well as technologies related to the 
network and unmanned/ground vehicles. This analysis will now support 
the BCT Modernization Strategy.
    We found that modeling, simulations, and scenarios depicting FCS 
capabilities and operations became increasingly complex over time. This 
resulted in fewer scenarios that limited our ability to analyze across 
a wide range of relevant operating conditions. A key lesson learned 
from this experience was that the Lead Systems Integrator (LSI) was 
contracted to produce analytical deliverables that were duplicative of 
what the Army was doing and that were more advocacy than analysis. 
These products were therefore of questionable value. Additionally, 
during critical early program stages, the unique technical expertise 
and capabilities resident within the Army were not leveraged by the 
Program Manager/LSI team, especially for platform survivability and the 
network. The Army has moved away from the LSI model and restructured 
the contract, establishing a Prime Contractor to deliver Increment 1 
capabilities to our Brigade Combat Teams.
    While retaining the effort to integrate, develop, and field 
capabilities as a system, the Army is also fully embracing competition 
and Department of Defense Instruction 5000.2 to support our BCT 
Modernization strategy. For example, the Ground Combat Vehicle program 
will be competitive beginning at Milestone A and using best practices, 
including competitive prototyping through its acquisition process.
    Further, FCS did not adequately revalidate operational concepts at 
regular intervals to address lessons learned or reassess technology 
development. The BCT Modernization Plan will focus on technologically 
feasible and affordable solutions, address lessons learned, allow for 
incremental technological development, and have appropriate mitigation 
plans in place. For example, the Army will field Increment 1 
capabilities only when they are mature; but they will be part of an 
incremental process that will allow for technological upgrades and 
refinements even during the fielding process.
    Early in development, the Army decided to let soldiers test and 
evaluate the systems through the Army Evaluation Task Force. As a 
result, soldier feedback has played a key role in optimizing designs 
throughout the development phase--ultimately leading to a better end 
product. Increment 1 capabilities are now in their third year of the 4 
year test cycle.
            mine resistant ambush protected (mrap) vehicles
    Question. Secretary McHugh, considering Mine Resistant Ambush-
Protected vehicles are being incorporated into unit formations and the 
Army may maintain a presence in Afghanistan for a very long time, do 
you foresee an increasing production requirement for MRAP vehicles, and 
do you plan to look at maintaining a production capability instead of 
cycling production and the workforce between full production and idle 
production lines?
    Answer. Current MRAP production will end in December 2010, and no 
follow-on production is planned at this time. This will satisfy every 
known MRAP requirement received to date. However, given the evolving 
nature of the MRAP warfighting requirements, the Department is 
confident in the industrial base's capacity and ability to respond to 
any future requirements. As of December 2010, 25,700 MRAP vehicles will 
have been produced to meet Joint Requirements Oversight Council (JROC)-
validated requirements from all Services (19,368 for the Army). This 
includes 8,104 MRAP All-Terrain Vehicles (M-ATV), the latest MRAP 
variant designed specifically for the OEF environment. Of the 8,104 M-
ATVs to be produced, 5,776 will be for the Army.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                                suicides
    Question. Congress has established a national suicide hotline for 
returning troops, as well as increased funding for mental health 
programs for active duty military personnel. However, there remain a 
high number of soldier suicides. For example, at least 11 suicides 
occurred last year at Fort Campbell. What preventative measures are the 
Department of Defense taking to address this problem? What, if any, 
legislative action would the Department need Congress to take to expand 
suicide awareness and education on posts?
    Answer. The Army has taken unprecedented steps to reduce suicidal 
behavior in both the Active and Reserve Components. Every day, the 
Army's senior leaders address the issue of suicide prevention. For 
example, we conducted an Army-wide Suicide Prevention Stand-Down and 
Chain Teach (March thru July 2009), released an interactive and 
awareness training video and partnered with the National Institute of 
Mental Health to begin a 5-year study into risk and resilience factors. 
In 2010, we are continuing this effort by expanding the training for 
``peer to peer support'' using the Ask-Care-Escort and other 
nationally-recognized suicide intervention models, developing new 
interactive and awareness training videos and increasing access to 
behavioral healthcare thru telemedicine initiatives.
    The Army fully supports the requirement set forth in the 2010 NDAA, 
which requires ``person to person'' behavioral health assessments for 
every Service Member upon their redeployment from an overseas 
operation. Finally, the Army is fully engaged with the Congressionally 
directed ``DOD Task Force for the Prevention of Suicide by Members of 
the Armed Forces,'' which is required to submit a report to Congress 
this summer providing recommended legislative recommendations to 
improve suicide prevention and awareness training and education.
    Army actions in 2009 to combat increasing suicide rates included 
the following:
  --Produced the interactive ``Beyond the Front'' training video.
  --Produced the ``Shoulder to Shoulder: No Soldier Stands Alone'' 
        training video.
  --Updated AR 600-63 (Army Health Promotion) and DA Pam 600-24 (Health 
        Promotion, Risk Reduction and Suicide Prevention).
  --Published Suicide Awareness Pocket Guide for all Soldiers.
  --Increased access to behavioral health and substance abuse 
        counseling.
  --National Institute of Mental Health (NIMH) grant for the Army Study 
        to Assess Risk and Resilience in Service Members (STARRS), $50 
        million/5 year study--quarterly updates to VCSA to accelerate 
        lessons learned.
  --Tele-Behavioral Health screening pilot project with 25th ID, 100 
        percent screening thru face to face, VTC, or Computer Skype-
        like counseling.
  --Approved nationally-recognized best-practice suicide intervention 
        skills training for Army use to assist in early recognition of 
        at-risk individuals
    Army actions for 2010 include the following:
  --Developing interactive ``Home Front'' training video.
  --Developing sequel to ``Shoulder to Shoulder'' training video.
  --Developing an Additional Skill Identifier for certified suicide 
        intervention skills trainers.
  --Expanding Tele-Behavioral Health pilot project, evaluate 
        effectiveness, and determine feasibility for using Army wide.
  --Developing program effectiveness measures.
  --Utilizing the Suicide Specialized Augmentation Response Team/Staff 
        Assistance Team to support commanders by assessing programs, 
        policies, and resources, and identify gaps to improve local 
        suicide prevention programs.
                          counseling services
    Question. With the current deployment schedule, a heavy toll is 
being placed upon the spouses and children of servicemembers. How 
accessible are counseling services for deployed servicemembers' spouses 
and children? Are these services available on all major military 
installations? What programs are available for those living away from 
major military installations?
    Answer. Counseling services are available for deployed service 
members' spouses and children on all major military installations. 
Spouses and children may access Military and Family Life Consultants 
through the Army Community Service by self referral, without having to 
provide a reason for seeking these services, or via Military OneSource.
    Military and Family Life Consultants are Licensed Clinical Social 
Workers, Professional Counselors, Marriage and Family Therapists, and 
Psychologists. They provide six free informal and confidential 
counseling sessions. No records are kept and flexible appointment times 
and locations are offered. Military and Family Life Consultants are 
also available to assist soldiers who are experiencing difficulty 
coping with daily life concerns and issues.
    For those family members who do not live near a military 
installation, the Department of Defense developed Military OneSource. 
Military OneSource is a free information center and website where 
family members can seek assistance 24 hours a day, 7 days a week. 
Counseling is provided by phone or in person by Masters-level 
consultants on issues such as family support, emotional support, debt 
management and legal problems for up to 12 sessions at no cost to the 
soldier. Military OneSource can also assist with the identification of 
a consultant in the family's local area. Military OneSource does not 
release information about users of the services, with the exception of 
issues of child abuse, elder abuse, spousal abuse and/or risk of harm 
to self or others. Military OneSource can be accessed at 
www.militaryonesource.com or 1-800-342-9647.
    Family Members may complete a free, voluntary online behavioral 
health self-assessment, and obtain referrals at 
www.MilitaryMentalHealth.org. This is an approach to assist soldiers 
and family members with identifying symptoms and getting assistance. It 
provides confidential and immediate feedback, as well as referrals to 
TRICARE, Veterans Administration Centers, and Military OneSource.
    In addition to the behavioral healthcare services offered at our 
military treatment facilities, the Army Medical Command recently 
established the Child, Adolescent and Family Behavioral Health 
Proponency (CAF-BHP). CAF-BHP, located at Joint Base Lewis McChord 
(JBLM), addresses Army-wide family behavioral health needs. Its mission 
is to support and sustain a comprehensive, integrated, behavioral 
health system of care for military children and their families. The 
CAF-BHP collaborates with national subject matter experts and 
professional organizations to develop and promote evidence-based 
behavioral health treatments for military children and their families. 
The CAF-BHP is developing media-driven information campaigns to address 
military culture and the stigma associated with seeking behavioral 
healthcare.
                                hospital
    Question. Ireland Army Community Hospital at Fort Knox is one of 
the oldest hospitals in the Army. With the new Brigade Combat Team 
stationed at the post, I am concerned over the state of the current 
hospital and its ability to meet the increased demands placed upon it. 
What is the status of the Army's decision on whether and when to build 
a replacement?
    Answer. The Army ranks the Fort Knox Hospital replacement as our 
second highest priority, behind a significant addition/alteration 
project at Tripler Army Medical Center, Fort Shafter, Hawaii. However, 
the final decision to replace the 52-year old facility will be made by 
the Department of Defense (DOD). DOD Health Affairs uses a Capital 
Investment Decision Model (CIDM) process to rank order the consolidated 
military medical construction priorities for all three Services. The 
CIDM determines the Services' priority projects according to weighted 
and scaled criteria, and by assigning scores by a 12 member Tri-service 
Capital Investment Review Board. The results of the most recent CIDM 
for the fiscal year 2012-17 POM are expected in mid to late May, and 
will determine if and when Ireland Army Community Hospital is 
programmed for replacement.
                                ptsd/tbi
    Question. What are the typical steps taken to identify soldiers who 
may have post-traumatic stress disorder (PTSD) and traumatic brain 
injuries (TBI) to ensure they get the proper care? Are there any 
further legislative steps that Congress could take to improve screening 
and the delivery of care to soldiers with PTSD and TBI?
    Answer. Screening Army Soldiers for PTSD and TBI is intensive. The 
Army recently implemented new guidelines for identification and 
treatment of TBI in Theater. Upon return from deployment, there is 100 
percent screening for PTSD and TBI exposure using the Post-Deployment 
Health Assessment (PDHA). The PDHA is mandatory within 30 days 
following deployment. An enhanced version of the PDHA replaced the 
April 2003 version in January 2008. A panel of mental health experts 
constructed the PDHA questions, and periodically reviews it to ensure 
it meets the intent.
    Many soldiers experience an initial ``honeymoon'' period when 
returning from a combat tour, when symptoms do not manifest themselves 
immediately. Accordingly, we initiated the Post Deployment Health Re-
Assessment (PDHRA) in 2005. The PDHRA occurs between 90 and 180 days 
post-deployment. A review and enhancement process has been underway for 
the PDHRA, and the January 2008 edition replaced the original 2005 
version. In addition to the PDHA and PDHRA, the Army requires soldiers 
to complete a Periodic Health Assessment annually, which again screens 
for TBI and PTSD. Army Knowledge Online (AKO) now integrates all of 
these screening requirements with a readiness stoplight (i.e. red, 
green, amber) status, so both the soldier and his or her commander are 
aware when a screening is overdue. All primary care providers receive 
training in the identification of PTSD and TBI. As part of the Respect-
Mil Program (http://www.pdhealth.mil/respect-mil/index1.asp) all 
enrolled soldiers are screened for PTSD and depression.
    In summary, the typical soldier is assessed and reassessed for TBI 
and PTSD at several points throughout his or her first year back from 
combat, and periodically thereafter. The Army is fully engaged in 
screening, as well as research to improve early detection, care, and 
treatment. Additionally, we are working to further de-stigmatize help 
seeking behaviors and to protect Service Members from adverse career 
consequences. We do not request any legislative action.
                          brigade combat team
    Question. With the recent addition of the Brigade Combat Team at 
Fort Knox, what is the Army doing to ensure that the installation is 
capable of deploying the unit with dispatch?
    Answer. Fort Knox is currently designated as a power support 
platform (PSP) with the mission of strategically deploying individuals 
and units from all Services to include Department of Defense civilian 
employees and Reserve Components. Even with the addition of an Infantry 
Brigade Combat Team, Fort Knox has sufficient capacity to support all 
deploying units.
    The Army is working on several methods to maintain Fort Knox's 
ability to support deploying units, including Forces Command providing 
additional resources to support movement/deployment operations under 
Title 10 requirements. Additionally, future military construction 
projects will be programmed to improve Fort Knox's services, 
infrastructure and deployment readiness as part of the Army Power 
Projection Upgrade Program (AP3).
                            housing barracks
    Question. In light of heavy deployments, I am concerned that many 
installations, including Fort Campbell, are still housing soldiers in 
Korean War-era barracks. What is the Department of Defense doing to 
ensure housing is brought up to date to help increase morale for our 
already overly taxed troops?
    Answer. At Fort Campbell the Army presently has barrack 
construction projects underway and programmed for fiscal year 2011, 
2012 and 2013. Completion of these projects will eliminate the need to 
occupy Korean War-era barracks at the installation.
    In 2008, the Army completed the Permanent Party Barracks Upgrade 
Program (BUP) using Army Sustainment, Restoration, & Modernization 
funding. BUP eliminated many inadequate barracks through modernization 
of existing facilities where feasible.
    Additionally, the Permanent Party Barracks Modernization Program 
(BMP) is scheduled for completion in the fiscal year 2013 MILCON 
program. BMP Military Construction eliminates the Army's barracks 
shortfall and eliminates inadequate barracks where modernization with 
Restoration and Modernization funding was not feasible.
    However, neither BUP nor BMP specifically address buyout of certain 
types of buildings. Facility modernization not included in BUP or BMP, 
typically involves gutting the building to its structural slab and 
columns then reconfiguring it to a 1+1 standard and adds approximately 
30 years to the life of the facility.
    The Army continuously reviews its capital investment strategy to 
validate the plans for replacement and sustainment of barracks 
facilities, a major feature in the Army Campaign Plan. These plans 
address Korean-War era, Vietnam-War era and any other barracks built 
before 1980.
                         blue grass army depot
    Question. Why is the Blue Grass Army Depot chemical weapons 
stockpile in central Kentucky not being monitored around the clock?
    Answer. The Blue Grass Chemical Activity (BGCA), which is 
subordinate to the U.S. Army Chemical Materials Agency, is in charge of 
the safe storage of chemical weapons at Blue Grass Army Depot. The 
stockpile is stored in earth covered steel reinforced concrete bunkers. 
The bunkers are in a secured area with intrusion detection, and armed 
guards on roving patrols providing surveillance 24 hours a day.
    The BGCA relies on multiple safeguards to monitor the chemical 
munitions stockpile to ensure public and workforce safety. These 
safeguards include monitoring in accordance with our Kentucky 
Department of Environment Protection permit, visual inspections and 
application of munitions lot leaker data from both BGCA and other 
chemical agent storage sites. These safeguards, as well as an active 
Chemical Stockpile Emergency Response Program have been in place at 
BGCA and all Army chemical stockpile storage sites for decades. History 
has proven their effectiveness at protecting both the workforce and the 
public.
    Question. It is my understanding a directive, FRAGO 10-041, was 
recently promulgated mandating that several restaurant concepts at 
military bases in Afghanistan be closed. What is the policy 
justification for this action? Why were some concepts chosen but not 
others? Might this limitation on food options have a negative impact on 
morale among our warfighters?
    Answer. FRAGO 10-041 was issued on February 3, 2010 by the United 
States Forces--Afghanistan Commander to implement a 60-day closure plan 
for specific commercial activities available in Afghanistan. This 
included all commercial fast food restaurants brought in by the Army 
and Air Force Exchange Service. Afghanistan is a war zone, which has 
very limited ground routes into and within it. The Commander's intent 
is to eliminate all non-mission essential traffic, because of higher 
priority cargo needing to be transported over those routes.
    Our forces have access to various high quality meals in military 
dining facilities and therefore commercial fast food restaurants are 
considered as non-mission essential. Furthermore, those fast food 
restaurants were only available to our forces operating on the larger 
bases. This decision levels the unequal lifestyle between those forward 
deployed and those living on fixed bases. We do not expect a 
significant morale issue to result.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
                                schools
    Question. Secretary McHugh, I wrote to you in December to raise the 
issue of overcrowding in schools on Fort Riley. The Army's response to 
that question was that the issue is being studied, but in the meantime, 
the problem is getting worse.
    The community around Fort Riley has spent all of its available 
resources but can't keep pace with the influx of students. For that 
reason, General Brooks, the First Infantry Division Commander, 
requested help from the Army and from the Department of Defense to 
address the overcrowding problem.
    I also understand other installations that gained forces under the 
most recent round of BRAC, such as Fort Lewis in Washington, face 
similar problems.
    What is the Army's plan to handle this issue?
    Answer. The Army has no specific authority to fund public school 
construction. However, we recognize that some of the school districts 
serving our military children are experiencing school construction 
funding challenges, specifically, Fort Riley and Joint Base Lewis 
McChord (formerly named Fort Lewis), in Washington.
    To better understand the issues for all school districts serving 
our military Families, the Army recently completed a comprehensive 
condition and capacity inventory of all on-post schools in the United 
States. Results indicate that over 50 percent of the 122 on-post 
schools are in need of renovation or replacement. Our plan is to work 
with the Department of Defense, the Department of Education and the 
Congress to develop solutions for those districts that have exhausted 
local and state funding options. Please note that, although operated by 
the local school district, six of the seven schools at Joint Base Lewis 
McChord are owned by the Department of Education. Department of 
Education has the responsibility to fund necessary renovation or 
reconstruction for these schools, hence our need to work with them to 
develop solutions. Army owns the remaining school.
    Question. Does the Army require additional money to handle the 
issue of over-crowded schools at posts that gained forces through BRAC 
and Grow the Force? Was such funding included in the fiscal year 2011 
budget request, and if not, why not?
    Answer. Public school construction is normally a state and local 
responsibility. Because the Army has no specific authority to fund 
public school construction, we have not included such funding in the 
fiscal year 2011 budget request. Additional authorization and 
appropriation legislation would be needed for the Department of Defense 
to construct public schools.
    Question. Does the Army need any statutory changes to facilitate 
on-post school construction or modification?
    Answer. Yes, the Army would need a legislative change to assist 
local public school districts with school construction. One potential 
avenue would be through the use of American Recovery and Reinvestment 
Act funds specifically targeted to school districts that have been 
significantly impacted by Base Realignment and Closure or Grow the Army 
stationing decisions.
                                 ______
                                 
             Questions Submitted to General George W. Casey
            Question Submitted by Chairman Daniel K. Inouye
                          equipment in theater
    Question. General Casey, the Army has massive amounts of equipment 
in Iraq which, as U.S. forces withdraw, require evaluation and transfer 
for reset, use in Afghanistan or disposal. We hear that the drawdown is 
well underway and that over 300,000 containers are moving equipment out 
each month. General, what is the prospective timeline for retrograde 
and who is in charge of this effort?
    Answer. The Commanding General, USARCENT (the Army component of 
U.S. Central command), is in charge of orchestrating the retrograde of 
Army materiel from Iraq. He has considerable support from the Army 
Materiel Command, which has a substantial presence in both Kuwait and 
Iraq. As directed by the President, the timeline for the drawdown in 
Iraq is to reduce our military presence to 50,000 U.S. forces by August 
31, 2010 and to have all U.S. forces out of Iraq by the end of December 
2011. We have developed synchronized and coordinated plans for the 
drawdown of personnel and for the redistribution and disposition of the 
equipment and supplies in Iraq. As you noted, that process is well 
underway. In fact, we are ahead of schedule against the our established 
monthly targets in every measurable area (e.g., personnel drawdown, 
vehicles, supplies, base closure, etc.).
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
                            recapitalization
    Question. As the Army undertakes its recapitalization program, are 
there any differences in the rates of recapitalization for Army 
National Guard and Reserve units and the recapitalization of active 
duty Army units? Can you explain the rationale for the discrepancy if 
one exists?
    Answer. The Army recapitalizes equipment based on equipment type, 
not Army components. There is no difference in recapitalization of 
equipment between Reserve Components and Active Duty units.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
            comprehensive soldier fitness and mental health
    Question. General Casey, I received a brief on Comprehensive 
Soldier Fitness by General Cornum early last year (February 2009) year 
and you spoke about it earlier today. This program is a valuable tool 
for equipping and training our soldiers and family members to maximize 
their potential and face the physical and psychological challenges of 
sustained operations. What is the status of this program?
    Answer. Comprehensive Soldier Fitness (CSF) is a rapidly maturing 
program designed to develop psychological and physiological resilience 
across the entire Army community, including soldiers, family members 
and Department of the Army civilians. To date, over 420,000 soldiers 
have taken the Global Assessment Tool, which is a web-based strengths 
assessment. Eight web-based training modules that target resiliency 
skills are currently available to soldiers once they complete the 
Global Assessment Tool, and 20 modules will be available by the end of 
fiscal year 2010. Additionally, CSF has trained 829 Master Resilience 
Trainers at the University of Pennsylvania and satellite locations, 
with a goal of training at least 1,800 trainers by the end of fiscal 
year 2010. These Master Resilience Trainers lead resilience development 
training in their units and local communities. CSF is currently 
budgeted for $42 million annually over the next 5 years.
                             mental health
    Question. General Casey, your efforts to reduce the stigma of 
mental health has been worthwhile. I understand that the number of 
soldiers who feel there is a stigma has been reduced from 80 to 50 
percent. However, there is a difference between those who feel there is 
a stigma versus those who are actually coming forward to seek mental 
health treatment. Despite the reduced number of soldiers who feel there 
is a stigma, are more soldiers coming forward to seeking treatment?
    Answer. Yes, more soldiers are coming forward to seek treatment. 
Our behavioral health utilization data shows that active duty 
utilization of behavioral health services has nearly doubled from 2005 
to 2009.
    Question. What actions is the Army taking to continue to reduce the 
embarrassment around seeking mental help and encourage soldiers to seek 
treatment?
    Answer. The Army is aggressively working to address perceived 
stigma and/or fear of negative repercussions associated with seeking 
behavioral healthcare. We have developed programs not only to help 
decrease stigma, but to also provide an increased layer of privacy.
    The Re-Engineering Systems of Primary Care Treatment in the 
Military is a program designed to decrease stigma by placing these 
services within primary care facilities. Through this program, any 
visit a soldier makes to his/her primary care physician for any reason 
is an opportunity to screen the Soldier for symptoms associated with 
post-traumatic stress disorder (PTSD) and/or other behavioral health 
diagnoses. This program is also accessible via the web, where soldiers 
can self-refer. Services provided are confidential, with the exception 
of the determination that a Soldier is at risk of harm to self or 
others.
    The Soldier Evaluation for Life Fitness program incorporates 
behavioral health as a routine component of the health readiness 
process for all soldiers returning to their home stations following 
deployment. Since every soldier receives a consultation on-site, no one 
is stigmatized when seen by a behavioral healthcare practitioner. 
Through the Soldier Evaluation for Life Fitness program, soldiers first 
complete a computer-based self-assessment. On-site clinicians review 
the results of the assessments immediately, allowing them to tailor 
their consultations to meet each soldier's unique needs. Soldiers can 
then be evaluated for individual health risks that may range from PTSD 
and other behavioral health diagnoses to physical health conditions.
    Military OneSource is a free information center and website, where 
soldiers can seek assistance 24 hours/day, 7 days/week. Counseling is 
provided by phone or in person by Masters-level consultants on issues 
such as family support, emotional support, debt management, and legal 
issues at no cost to the soldier for up to 12 sessions. Military 
OneSource does not release information about users of the services, 
with the exception of issues of child abuse, elder abuse, spousal 
abuse, and/or risk of harm to self or others. Military OneSource can be 
accessed at www.militaryonesource.com or 1-800-342-9647.
    Soldiers may complete a free, voluntary online behavioral health 
self-assessment, and obtain referrals at www.MilitaryMentalHealth.org. 
This is an approach to assist soldiers and family members with 
identifying symptoms and getting assistance. It provides confidential 
and immediate feedback, as well as referrals to TRICARE, Veterans 
Administration Centers, and Military OneSource.
    Military and Family Life Consultants are also available to assist 
soldiers who are experiencing difficulty coping. Military and family 
life consultants are licensed clinical social workers, professional 
counselors, marriage and family therapists, and psychologists. They 
provide six free informal and confidential counseling sessions. No 
records are kept, and flexible appointment times and locations are 
offered. Soldiers may access military and family life consultants 
through the Army Community Services by self referral, without having to 
provide a reason for seeking these services, or via Military OneSource, 
which can assist Families with the identification of consultants in the 
local area.
    Question. Does your plan include the mental health of families, and 
if so what is that plan?
    Answer. The Army is committed to the Army Family Covenant, which 
recognizes the strong commitment and many sacrifices that families 
make. The Army also knows that the strength of soldiers is largely 
dependent upon the strength of their families. To address the 
behavioral health needs of families, the Army supports many deployment-
related programs. For example, two well-developed programs include the 
Exceptional Family Member Program, which focuses on assistance for 
families with special needs; and the Family Advocacy Program, which 
strengthens family relationships and provides assistance and referral 
to victims of domestic violence and sexual assault.
    The Army also supports the Military and Family Life Consultant 
Program (MFLC), which provides deployment-related problem-solving 
consultation services for families and children in schools on post and 
in the local community. The Army has instituted Soldier and Family 
Assistance Centers (SFAC) at all the Warrior Transition Units. The SFAC 
is a soldier and family-friendly environment that has become a popular 
location for Warriors in Transition and their Families. The Center 
provides individualized, integrated support services.
    To augment the Military Treatment Facility's behavioral healthcare 
services, the Army Medical Command recently established the Child, 
Adolescent and Family Behavioral Health Proponency (CAF-BHP) at Joint 
Base Lewis McChord, Tacoma, Washington. This new Proponency 
specifically addresses family behavioral health needs; its mission is 
to support and sustain a comprehensive, integrated, behavioral health 
system of care for military children and their families.
    The CAF-BHP collaborates with national subject matter experts and 
professional organizations, including the American Academy of 
Pediatrics, American Academy of Child and Adolescent Psychiatry, and 
American Psychological Association, to develop and promote evidence-
based behavioral health treatments for military children and their 
families. The CAF-BHP focuses on two new innovative clinical programs, 
the School Behavioral Health (SBH) and Child and Family Assistance 
Center (CAFAC). CAFACs are being developed and deployed to help 
mitigate traditional stove piping of behavioral health services. The 
CAFAC will provide adult and child family members with 24/7 telephone 
triage and to mental health services at a single location. Services 
include psychiatric, psychological, social services and community 
resourcing. This integrated, comprehensive behavioral healthcare 
delivery system promotes military readiness, wellness, and resilience 
in Army children and Families.
    Schofield Barracks has an established CAFAC and we are pursuing 
initiatives at JBLM and Fort Carson. In the next couple of years, we 
expect to establish the program at Fort Hood, Fort Bragg, Fort Bliss, 
Fort Campbell, Fort Sill, and Fort Drum. To promote evidence-based 
treatments and best practices, the CAF-BHP trains primary care 
providers and their staff in screening, diagnosing and treating common 
behavioral health concerns. The CAF-BHP also designs marketing 
strategies to decrease the stigma associated with seeking behavioral 
healthcare.
                            stryker v hulls
    Question. General Casey, as you well know, three Stryker brigades 
from Fort Lewis Washington are on deployment today. Two are in Iraq and 
another in Afghanistan. It is my understanding the Army has gone to 
great lengths to enhance the safety of these troops by adding armor 
kits to the vehicles to defeat various threats. It is also my 
understanding that a so-called double-V hull--something similar to the 
MRAP vehicle--has been developed for the Stryker to further increase 
the protection of our soldiers. Can you explain the utility of the 
double-V hull and if this is something we should be doing to protect 
those brave Stryker brigade soldiers?
    Answer. The Double V-hull enhancement shows great potential for 
increasing survivability and mitigating the blast effects of Improvised 
Explosive Devices. The Double V-hull is an accelerated portion of the 
current Army acquisition strategy for Stryker modernization. The 
Double-V shaped hull will potentially provide Mine Resistant Ambush 
Protected vehicle-like protection to a proven fighting vehicle in the 
Army's most highly demanded Brigade Combat Team.
    If testing proves successful, the Army anticipates fielding an 
initial capability of Double V-hulled Strykers in late fiscal year 
2011, with a complete brigade set (minus Mobile Gun System and Nuclear 
Biological Chemical Reconnaissance Vehicle) to Operation Enduring 
Freedom by late fiscal year 2012.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                         restoring balance/risk
    Question. General Casey, over the past few years, we have heard 
about efforts to restore balance to the Army. In your prepared 
testimony, restoring balance is discussed, and it is noted that the 
Army lacks sufficient strategic flexibility and continues to accumulate 
risk to meet the challenges you may face in the future. Can you expand 
on this statement and explain what it means, and over time, how much 
risk has accumulated and is now being accepted by the Army. Does the 
Army and our Armed Forces find themselves in the same situation as the 
proverbial frog in a pot of water--the frog is cozy as the water slowly 
heats-up and doesn't recognize the danger it is in?
    Answer. The Army's forces are committed to prevailing in the 
current fight by ramping up in Afghanistan as we responsibly draw down 
in Iraq. Thanks to the support of Congress and the American people, the 
Army is receiving the resources it needs to restore readiness, but the 
continuing pace of operations means we are consuming that readiness as 
fast as we produce it. The commitment of the Army to Iraq and 
Afghanistan limits the choices available to our national leadership if 
another crisis--whether humanitarian or armed conflict--arises. It also 
means the Army cannot train all units to standard on full spectrum 
operations, which is necessary to provide a trained and ready force for 
the variety of possible missions in a world of persistent conflict.
    We are making progress in restoring balance, reaching a sustainable 
and predictable force rotational cycle in 2012 of 2 years at home 
station for every year deployed for our Active Component, and 4 years 
at home station for every year mobilized for our Reserve Component. 
However, even after the end of major combat operations in Afghanistan, 
we expect a few challenging years of recapitalizing and repairing 
equipment, re-integrating with our families, and training forces for 
full spectrum operations, before we can provide true strategic 
flexibility to our leaders.
    With Congress' continued support, the Army will restore balance by 
achieving sustainable deploy-to-dwell ratios; adequately providing for 
soldiers, civilians, and families; and with reliable, timely, and 
consistent funding, resetting our equipment and pre-positioned stocks. 
These measures will restore readiness and the strategic flexibility 
necessary to provide trained and ready forces for full spectrum 
operations and future contingencies at a tempo that is predictable and 
sustainable for our All-Volunteer Force.
                     army unmanned aerial vehicles
    Question. General Casey, I am informed that the Army plans to 
modify the Shadow Unmanned Aerial Vehicle to meet requirements that the 
terminated Fire Scout program was expected to fulfill. The fiscal year 
2011 budget request includes over a half billion to begin this work. 
General Casey, can you share with the Committee the thought behind the 
Fire Scout termination, and will this $500 million investment in Shadow 
provide your soldiers with the full capability needed to conduct their 
missions?
    Answer. With the termination of Future Combat Systems, we 
determined that the Fire Scout did not fulfill a requirement in the 
modular Brigade Combat Teams (BCT). The improvements that we are making 
to our Shadow fleet will sufficiently address the most critical 
capability gaps in the BCTs. Some of these improvements include 
retrofit kits to increase endurance while adding reliability, laser 
designation capability and NSA Type I encryption. Our BCTs, Fires 
Brigades, Battlefield Surveillance Brigades and Special Forces 
formations will benefit from the additional capabilities funded in the 
fiscal year 2011 President's budget. This improvement effort will 
continue beyond fiscal year 2011 to provide full capability to our 
soldiers.
                        resiliency of the force
    Question. General Casey, does the fiscal year 2011 budget continue 
to fully support Army Resiliency initiatives? What other efforts are 
included in this year's budget which was not part of the fiscal year 
2010 program?
    Answer. Yes. Comprehensive Soldier Fitness is fully funded in 
fiscal year 2011 at $42.5 million. Future efforts include expanding the 
Master Resilience Trainers (MRT) program by establishing an MRT course 
at Fort Jackson, South Carolina; reaching out to family members through 
voluntary participation in the Global Assessment Tool; and increasing 
the online Comprehensive Resilience Modules.
                brigade combat team (bct) modernization
    Question. General Casey, over $20 billion has been invested in 
technologies developed under the terminated Future Combat System 
program. The Army now plans to field some of these technologies to Army 
brigades under the Brigade Combat Team Modernization program. What 
systems or technologies are going to be fielded under this effort, and 
how have they performed in recent testing?
    Answer. Increment 1 of Brigade Combat Team (BCT) Modernization 
contains systems from the FCS program. It provides enhanced war fighter 
capabilities to the Current Force in two primary areas. First, it 
provides enhanced situational awareness, force protection and lethality 
through the use of unattended and attended sensors and munitions. 
Second, it provides a communications network backbone for Infantry BCT 
and Battalion Command Networks. Increment 1 capabilities consist of the 
following systems: Unattended Urban and Tactical Ground Sensors, Small 
Unmanned Ground Vehicle, Class I Block 0 Unmanned Air Vehicle, Non Line 
of Sight-Launch System, and Network Integration Kit (for the HMMWV).
    During the 2009 Limited User Test, Increment 1 capabilities met or 
partially met 14 of 15 Army test criteria. The systems did not meet 
reliability criteria. User tests revealed issues with equipment and 
software reliability, availability and maintainability. The program 
office, in coordination with the U.S. Army Test and Evaluation command 
and U.S. Army Training and Doctrine Command, is taking steps to correct 
these issues. To date, more than 94 percent of the hardware issues have 
been corrected and the program is continuing to integrate software 
changes and increased capability in preparation for the 2010 test 
cycle.
            mine resistant ambush protected (mrap) vehicles
    Question. General Casey, when Secretary Gates announced his 
adjustments to Defense acquisition programs last year, he terminated 
the manned ground vehicle portion of the Future Combat System. One of 
reasons cited for the termination was that the Army's current vehicle 
program did not include a role for the Mine Resistant Ambush-Protected 
vehicles which has received more than $30 billion of investment. What 
is the Army plan for incorporating Mine Resistant Ambush-Protected 
vehicles across your unit formations?
    Answer. The Mine Resistant Ambush Protected (MRAP) family of 
vehicles has performed well in theater and provides critical protection 
to soldiers against mines and improvised explosive devices. The Army 
plans to place over 15,000 MRAPs and M-ATVs in the force structure. 
Vehicles will be allocated to task organized sets, and deployed when 
MRAP levels of protection are required; used by units to fill existing 
capability gaps; and used in a robust training fleet to assist soldiers 
in maintaining proficiency.
    We will place 9,284 vehicles in the following task organized sets: 
11 Infantry Brigade Combat Teams; 6 Heavy Brigade Combat Teams, 3 
Stryker Brigade Combat Teams and a Multifunctional Support Brigade. The 
Army is currently analyzing set positioning options.
    The Army will place 3,631 vehicles on Transportation, Explosive 
Ordnance Disposal and echelon above brigade Medical unit MTOEs. We will 
also place 1,755 vehicles in training sets around the world and 495 in 
Sustainment Stocks and War Reserve. TRADOC will determine allocation of 
the additional 1,460 MRAP All Terrain Vehicles and 1,300 MRAPs placed 
on contract in February 2010.
                        reset of army equipment
    Question. General Casey, resetting or recapitalization of Army 
equipment used in operations the past 8 years is requiring 
unprecedented funding levels. It's pointed out in the prepared 
testimony that resetting Army equipment will need to continue an 
additional 2 to 3 years after major deployments end. How does the Army 
plan to maintain equipment reset funding levels and complete this 
necessary process considering the 5 year budget plan projects only 1 
percent annual real growth and an annual Overseas Contingency 
Operations budget that is more than $100 billion less than it is today?
    Answer. The Army will continue to request reset funding levels to 
meet the incremental costs of war in our Overseas Contingency 
Operations (OCO) budget. Since 2001, Congress has fully funded the 
reset of Army equipment returning from contingency operations and the 
Army used these funds to reset units for full spectrum operations. 
Reset funding for fiscal year 2010 and fiscal year 2011 is adequate to 
complete the reset of 25 brigades this year, 31 brigades in fiscal year 
2011 and represents approximately $11 billion per year.
    Current funding ensures that equipment can be rapidly repaired or 
replaced to meet operational requirements. We will continue to use our 
Reset Cost Model to forecast future reset costs based on force 
structure and equipping scenarios. Enduring requirements that are no 
longer part of the OCO will transition to our base budgets. This 
approach, with corresponding budget request adjustments, will align 
with the 5-year budget plan projections and OCO budget.
    If OCO Reset needs are not resourced in the year required, it would 
cause either the deferral of requirements or impact other programs 
resulting in equipment not being reset (repaired or replaced). The net 
result would be less reliable equipment or equipment shortages that 
would impact readiness and potentially put soldiers at risk. Equipment 
Reset and the associated funding is essential to maintaining equipment 
readiness and restoring balance to the Army. In partnership with 
Congress, the Army will continue to identify equipping Reset 
requirements that are cost effective, timely, and ensure readiness for 
future operations.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
                          modernize the force
    Question. Tell me about the Army's plan to modernize the force and 
what this means for soldiers in the next 2-3 years, specifically 
regarding the ``spin-outs'' and the priority delivery plan for the Army 
Infantry Brigades and others. Were any specific ``spin-outs'' cut as a 
result of the changes to Future Combat Systems (FCS)?
    Answer. After cancellation of the Future Combat Systems (FCS) 
program, the Army transitioned to a Brigade Combat Team (BCT) 
Modernization Plan. The Army now refers to ``spin-outs'' as 
``capability packages.'' This plan is supported by comprehensive 
lessons learned from more than 8 years of war, focuses on the evolving 
needs of our warfighters in a rapidly changing security environment and 
exploits the knowledge and technologies developed under the FCS 
program.
    The BCT Modernization Plan aligns the fielding of capabilities with 
the Army Force Generation Model, so that soldiers will have the right 
capabilities at the right time to accomplish their mission. In the next 
3 years, the Army plans to field the first increment to three Infantry 
Brigade Combat Teams (IBCTs). We anticipate fielding the first brigade 
set of Increment 1 equipment in 2011 and two additional sets in 2012.
    Rather than making one modernization decision and applying it over 
two or more decades (as typically done in the past), the BCT 
Modernization Plan recognizes that modernization decisions must be made 
incrementally to stay ahead of the demands of the security environment 
and the needs of our warfighters.
    After the program's cancellation, we reevaluated FCS systems in 
light of our evolving needs. This led to the cancellation of the Class 
IV Unmanned Air System, the Multifunction Utility/Logistics and 
Equipment Transport (MULE-T) and the MULE-Countermine (MULE-CM) 
unmanned ground vehicles. Our analysis concluded that the Class IV UAS 
was no longer a cost-effective solution because current UAS, with some 
improvements, can sufficiently meet most requirements. Likewise, the 
two large robots (MULE-T and MULE-CM) did not meet rapidly changing 
threats or address critical future mission needs.
    Question. What is the Army's plan to integrate the Guard into its 
modernization efforts with respect to a proportional and concurrent 
delivery of the equipment needed to modernize?
    Answer. Because the Army has operationalized the Reserve Components 
to support Combatant Commanders, the Active Component (AC) is no longer 
a major factor in determining the order in which we field modernized 
systems. The goal of this strategy, which is based on the Army Force 
Generation Model, is to provide units with the equipment they need to 
perform their next mission. The Army's equipping strategy provides the 
most modern, capable equipment to deploying units without regard to 
whether they are AC, Army National Guard (ARNG), or Army Reserve. 
Additionally, we remain committed to ensuring ARNG units are equipped 
to at least 80 percent of their critical dual use items (despite 
significant overseas contingency operations and reset requirements) 
with a goal of reaching 100 percent. This is designed to ensure ARNG 
preparedness to support civil support missions.
    Between September 2008 and September 2010, ARNG equipment on hand 
percentages will increase by approximately 6 percent, and ARNG 
equipment modernization levels will increase by approximately 4 
percent. Both of these increases surpass the ACs improvements over the 
same time period.
    The Army is continuing to invest in ARNG modernization by procuring 
equipment that will complete ARNG modernization in several key areas 
over the next year or two. For example, the Army will soon complete the 
ARNG fielding of Force XXI Battle Command Brigade and Below and the 
M777 howitzer system. We will also complete 96 percent of the ARNG 
Warfighter Information Network-Tactical systems.
    For ARNG aircraft, the Army is working toward modernizing the 
fleet. The Light Utility Helicopter (LUH) is a key element of this 
strategy. The Army will field 88 of 210 LUHs by fiscal year 2011. The 
ARNG has the first two HH-60M equipped Medical Evacuation companies in 
the Army, as well as the second UH-60M equipped assault battalion. The 
ongoing modernization of the UH-60A series aircraft (A-A-L) will 
continue to reduce the number of non-modernized Blackhawks fleetwide in 
all components. We have already modernized four of the eight ARNG 
attack battalions with AH-64D model Apaches and plan to convert the 
remaining four battalions in fiscal year 2013-14. The ARNG is receiving 
three CH-47F models for its training base, and will begin receiving CH-
47Fs for their operational units in fiscal year 2011.
    Question. If the current rotary wing modernization plan for the 
Army Guard is any indication of how the effort is going, I am not 
hopeful. It is my understanding the President requested funding for 
only 2 upgraded Blackhawk ``M'' models for the Army Guard in fiscal 
year 2011? Is that enough?
    Answer. Yes, two aircraft are sufficient in fiscal year 2011. The 
two HH-60Ms MEDEVAC aircraft included for the Army Guard in the fiscal 
year 2011-base budget will be paired with 10 HH-60Ms procured in the 
fiscal year 2010 base. This will provide enough aircraft to equip one 
Army Guard 12-ship MEDEVAC Company. This MEDEVAC Company is to be 
fielded in fiscal year 2011-12 (1 year after the procurement funding), 
and will bring the ARNG total UH/HH-60Ms to 70 aircraft. The UH-60M is 
the standard configuration for the Assault and General Support units. 
The HH-60M is the Medical Evacuation configuration for the MEDEVAC 
units.
                         military construction
    Question. The fiscal year 2011 Army budget request for military 
construction increased by almost $300 million, so our Guard soldiers 
and their families thank you for that. I have voiced concern in the 
past that the military construction funding has not kept pace with the 
essential needs at Guard installations across the country for 
modernization and replacement of aging facilities. I applaud the 
increase in funding from $246 million to $374 million to replace the 
Guard's aging facilities. In your view, is this amount appropriate to 
support Army Guard training and readiness requirements?
    Funding spent on the renovation and creation of new armories across 
the country spurs economic growth and enhances the Guard's and the 
Reserves' ability to carry out their missions. The benefit of these 
construction projects are two-fold because they serve as both military 
readiness spaces and public locations for community gatherings. As you 
know, training, maintenance and readiness is hampered by inadequate, 
unsafe and unhealthy facilities. The high level of mission readiness 
required of Guard soldiers needs to be supported by functional 
facilities, so I thank you for your support.
    Answer. The fiscal year 2011 level of funding provides for 48 
projects nationwide. At this level of funding, the average age of an 
Army National Guard (ARNG) Readiness Center will increase from 41 to 49 
years over the next decade. The current level of funding provides for 
major renovation of ARNG facilities every 30 years. Accordingly, at 
this level of funding, the ARNG will continue to be challenged in 
meeting its readiness requirements.
       transients, trainees, holdees and students (tths) account
    Question. The Army National Guard is the only service component 
that doesn't have a Transients, Trainees, Holdees and Students (TTHS) 
Account. As such, units continue to witness taxing instances of 
personnel and equipment ``cross-leveling'' when they are mobilized. 
Would creating such an account decrease some of the pressure placed 
upon soldiers' dwell-time and help the force get ``back in balance?''
    Answer. Yes. In fact, the Army is creating an 8,000 slot TTHS 
account in the ARNG. Although this is a relatively small account, it is 
a significant step forward. It will allow the ARNG to place non-
deployable soldiers in the TTHS account, thereby freeing spaces in 
units for trained, deployable personnel. The Army Training and Doctrine 
Command has worked extensively with the ARNG to increase the number of 
training seats available to Guard soldiers when recruits are available 
for training. The result has been a much smaller number of untrained 
soldiers occupying deployable unit positions.
    Question. Can a TTHS account be implemented without increasing Army 
Guard end-strength?
    Answer. Yes. Because of certain force design updates, the Army 
National Guard (ARNG) Force Structure Allowance is approximately 
350,000. The Congressionally mandated end strength of 358,200 personnel 
provides a deviation of approximately 8,000 soldiers. The ARNG can 
manage a small 8,000 soldier Trainees, Transients, Holdees and Students 
account (TTHS) with this deviation. This will allow the ARNG to remove 
non-deployable soldiers from operational units, as well as to reduce 
the untrained recruit population in mobilizing formations. Reducing 
force structure allowance any further, however, would destabilize the 
readiness of formations, increase the rate of unit rotations overseas, 
reduce the ARNG's accessibility to the Active Component and reduce its 
ability to function as an operational force.
    Question. Do Army leaders believe the end-strength is adequate in 
the ARNG?
    Answer. Yes, the Army Senior Leaders believe the end strength of 
the ARNG is adequate.
    Question. Is the ARNG experiencing commensurate, or 
``proportionate'' troop growth as compared to the active-component?
    Answer. Since 2005, the Army National Guard (ARNG) has done a 
tremendous job of increasing its end strength within authorized levels. 
Over the past 3 years, the ARNG has met its accession mission 35 out of 
36 months (in September 2009 it achieved a 99.6 percent accession 
rate), and increased its total end strength by approximately 12,000 
(from an End Strength Mission of 346,165 in March 2007 to 358,200 in 
February 2010). During this period, the total ARNG End Strength 
remained between 100-103 percent of the End Strength Mission (only in 
August 2008, did the end strength reach 103.1 percent).
    In 2006, as part of the Grow the Army Initiative, the ARNG's end 
strength authorization grew by 8,200. The current temporary end 
strength increase in the Active Army will benefit the Army National 
Guard by allowing an increased dwell for all Army units.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will reconvene on 
Wednesday, March 10, at 10:30. And at that time, we will 
consider health programs of DOD.
    And, with that, the subcommittee stands in recess.
    [Whereupon, at 10:35 a.m., Wednesday, March 3, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 10.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:13 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Murray, and Cochran.

                         DEPARTMENT OF DEFENSE

                        Medical Health Programs

STATEMENT OF VICE ADMIRAL ADAM M. ROBINSON, JR., 
            SURGEON GENERAL, DEPARTMENT OF THE NAVY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. The hearing will come to order.
    This morning, we will review the Department of Defense's 
medical programs.
    And we'll have two panels. First, we'll hear from the 
Surgeon Generals of the services: General Schoomaker, Admiral 
Adam Robinson, Jr., and General Charles Green. Then we'll hear 
from the Chiefs of the Nurse's Corps, General Patricia Horoho, 
Admiral Karen Flaherty, and General Kimberly Siniscalchi.
    And I'd like to welcome all of you this morning, and I'd 
like to welcome back General Schoomaker, Admiral Robinson, and 
a special welcome to General Green, when he gets here.
    Welcome, sir.
    General Green. Thank you. My apologies.
    Chairman Inouye. This is your first hearing, and we look 
forward to working together.
    The subcommittee holds a special hearing each year for an 
opportunity to discuss the critically important issues related 
to healthcare, the well-being of our servicemembers and their 
families. As such, the Surgeons General and the Chiefs of the 
Nurse's Corps have been called upon to share their insight on 
areas that need improvement and areas that see continuing 
success and progress.
    Military medicine is a critical element in our defense 
strength and an essential component of the benefits provided to 
our servicemembers and their families. We must ensure that the 
most advanced treatment and technology is being used by 
expertly trained personnel, and, on the battlefield, at the 
same time, providing sufficient capacity to care for 
servicemembers and their families at home.
    Our ability to care for our wounded on the modern 
battlefields is a testament both to hard work and dedication of 
our men and women in uniform and to the application of new 
technology, which is a hallmark of the United States Armed 
Forces. It is also due to the dedicated men and women in our 
Medical Service Corps that are deploying with our soldiers, 
airmen, sailors, and marines.
    On average, over 50 percent of our current Active Duty 
Medical Service Corps have deployed at least once. Numerous 
specialties have had multiple deployments. This tempo is making 
it more challenging to recruit and to retain qualified medical 
personnel into the services, and is presenting new stress for 
our caregivers who move from treating injured servicemembers on 
the battlefield to treating them back at home.
    We are concerned about the number of deployments for all 
servicemembers, but today I'd like to take this opportunity to 
highlight the impact on our medical personnel.
    Our medical personnel rely on a small pool of resources for 
deployment. While the total medical workforce is over 255,000, 
many of these individuals are civilians or contractors, and do 
not deploy. Therefore, the total pool of deployable military 
medical personnel is only 177,000 plus. In 2009, 12,700 medical 
personnel were deployed, over 7 percent of the pool. These 
numbers present serious challenges to the men and women 
testifying before us. It falls on them to ensure a proper 
balance of care at home and treatment on the battlefield, all 
the while furthering our advances in training and technology, 
and providing care for our caregivers.
    To help meet these needs, our medical service personnel 
must be provided sufficient resources. The fiscal year 2011 
budget before us goes a long way in providing these resources. 
The Department has made substantial progress in moving programs 
into the base budget that were initially funded through 
supplementals.
    Determining that medical research and prevention for 
injuries such as traumatic brain injury (TBI), psychological 
health, prosthetic, eye injuries, and hearing loss, and so much 
more, our co-budget responsibility of the Department of Defense 
(DOD) is essential in addressing the numerous issues facing our 
families and members.
    In addition, we're aware that resources are required to 
achieve a world-class facility at the new Walter Reed National 
Military Medical Center. We also understand that more will be 
required as we continue to identify the long-term needs of both 
our wounded and our nonwounded servicemembers and their 
families.
    These are some of the issues we'll discuss this morning, 
and I look forward to your testimony and note that your full 
statements will be made part of the record.
    And may I call upon you, Admiral Robinson, for the opening 
statement.

        SUMMARY STATEMENT OF VICE ADMIRAL ADAM M. ROBINSON, JR.

    Admiral Robinson. Thank you very much, sir.
    Good morning, Chairman Inouye, Senator Cochran, Senator 
Murray, distinguished members of the subcommittee. I want to 
thank you for your unwavering support of Navy medicine--
particularly as we continue to care for those who go in harm's 
way--their families, and all beneficiaries. I am honored to be 
with you today to provide an update on the state of Navy 
medicine, including some of our accomplishments, our challenges 
and our strategic priorities.
    Navy medicine: world-class care anytime, anywhere. This 
poignant phrase is arguably the most telling description of 
Navy medicine's accomplishments in 2009 and continues to drive 
our operational tempo and priorities for the coming years and 
beyond.
    Throughout the last year, we saw challenges and 
opportunities and, moving forward, I anticipate the pace of 
operations and demands will continue to increase. We have been 
stretched in our ability to meet our increasing operational and 
humanitarian assistance requirements, as well as maintain our 
commitment to provide care to a growing number of 
beneficiaries. However, I am proud to say that we are 
responding to this demand with more flexibility and agility 
than ever before.
    The foundation of Navy medicine is force health protection; 
it's what we do and why we exist. Nowhere is our commitment 
more evident than in Iraq and Afghanistan. During my October 
2009 trip to theater, I again saw the outstanding work of our 
medical personnel. The Navy medicine team is working side by 
side with Army and Air Force medical personnel and coalition 
forces to deliver outstanding healthcare to our troops and 
civilians alike.
    As our wounded warriors return from combat and begin the 
healing process, they deserve a seamless and comprehensive 
approach to their recovery. We want them to mend in body, mind, 
and spirit.
    Our patient and family centered approach brings together 
medical treatment providers, social workers, case managers, 
behavioral health providers, and chaplains. We are working 
closely with our line counterparts with the Marine Corps 
Wounded Warrior regiments and Navy's Safe Harbor, to support 
the full-spectrum recovery process for sailors, marines, and 
their families.
    We must act with a sense of urgency to continue to help 
build resiliency among our sailors and marines, as well as the 
caregivers who support them. We are aggressively working to 
reduce the stigma surrounding psychological health and 
operational stress concerns which can be a significant barrier 
to seeking mental health services.
    Programs such as Navy operational stress control, Marine 
Corps combat operational stress control, FOCUS--that is, 
families over coming under stress--caregiver occupational 
stress control, and our suicide prevention programs are in 
place and maturing to provide support to personnel and their 
families.
    An important focus area for all of us continues to be 
caring for our warriors suffering with traumatic brain injury. 
We are expanding TBI training to healthcare providers 
throughout the fleet and the Marine Corps. We are also 
implementing a new in-theater TBI Surveillance Program and 
conducting important research. We are also employing a strategy 
that is both collaborative and integrative by actively 
partnering with the other services, the Defense Center of 
Excellence for Psychological Health and Traumatic Brain Injury, 
the Department of Veterans Affairs, and leading academic 
medical and research centers, to make the best care available 
to our warriors.
    We must continue to recognize the occupational stress on 
our caregivers. They are subject to the psychological demands 
of exposure to trauma, loss, fatigue, and inner conflict. This 
is why our caregiver occupational stress control programs are 
so important to building and sustaining the resiliency of our 
providers.
    Mental health specialists are being placed in operational 
environments and forward deployed to provide services where and 
when they are needed. The Marine Corps is sending more mental 
health teams to the front lines, with the goal of better 
treating an emotionally strained force.
    Operational stress control and readiness teams, known as 
OSCAR, will soon be expanded to include the battalion level. 
This will put mental health support services much closer to 
combat troops.
    A mobile care team of Navy medicine mental health 
professionals is currently deployed to Afghanistan, conducting 
mental health surveillance, commander leadership consultation, 
and coordination of mental healthcare for sailors throughout 
the area of responsibility (AOR).
    As you know, an integral part of Navy medicine, or Navy's 
maritime strategy is humanitarian assistance and disaster 
relief. In support of Operation Unified Response, Haiti, Navy 
medicine answered the call. We deployed Comfort from her home 
port in Baltimore, within 77 hours of the order, and ahead of 
schedule. She was on station in Port-au-Prince, 5 days later. 
And from the beginning, the operational tempo onboard Comfort 
was high, and our personnel have been challenged, both 
professionally and personally. For many, this will, indeed, be 
a career-defining experience. And I spoke to the crew as they 
were preparing to get underway, and related just how important 
this mission is and why it is a vital part of Navy's maritime 
strategy.
    I am encouraged with our recruiting efforts within Navy 
medicine, and we are starting to see the results of new 
incentive programs. But, while overall manning levels for both 
officer and enlisted personnel are relatively high, ensuring we 
have the proper specialty mix continues to be a challenge in 
both the Active and Reserve components.
    Several wartime critical specialties, as well as advanced 
practice nursing and physicians assistants, are undermanned. We 
are facing shortfalls for general dentists, oral maxillofacial 
surgeons, and many of our mental health specialists, including 
clinical psychologists and social workers. We continue to work 
hard to meet this demand, but fulfilling the requirements among 
these specialties is expected to present a continuing 
challenge.
    Research and development is critical to Navy medicine's 
success and our ability to remain agile to meet the evolving 
needs of our warfighter. It is where we find solutions to our 
most challenging problems and, at the same time, provide some 
of medicine's most significant innovations and discoveries.
    Research efforts targeted at wound management, including 
enhanced wound repair and reconstruction, as well as extremity 
and internal hemorrhage control and phantom limb pain in 
amputees, present definitive benefits. These efforts support 
our emerging expeditionary medical operations and aid in 
support to our wounded warriors.
    Clearly, one of the most important priorities for 
leadership of all the services is the successful transition to 
the Walter Reed National Military Medical Center on board the 
campus at the National Naval Medical Center. We are working 
diligently with the lead DOD organizations, the Joint Task 
Force National Capital Medical, to ensure that this significant 
and ambitious project is executed without any disruption to 
services to our sailors, marines, and their families, and all 
of our beneficiaries for whom we are privileged and honored to 
serve.
    In summary, I believe that we are at an important 
crossroads for military medicine. How we respond to the 
challenges facing us today will likely set the stage for 
decades to come. Commitment to our wounded warriors and their 
families must never waiver, and our programs of support and 
hope must be built and sustained for the long haul. And the 
long haul is the rest of this century, when the young wounded 
warriors of today mature into our aging heroes in the latter 
part of this century. They will need our care and support, as 
well as their families, for a lifetime.

                           PREPARED STATEMENT

    On behalf of the men and women of Navy medicine, I want to 
thank the subcommittee for their tremendous support, their 
confidence and their leadership. It has been my pleasure to 
testify today, and I look forward to your questions.
    Thank you very much.
    [The statement follows:]
        Prepared Statement of Vice Admiral Adam M. Robinson, Jr.
                              introduction
    Chairman Inouye, Senator Cochran, distinguished Members of the 
Subcommittee, I am honored to be with you today to provide an update on 
the state of Navy Medicine, including some of our accomplishments, 
challenges and strategic priorities. I want to thank the Committee 
Members for your unwavering support of Navy Medicine, particularly as 
we continue to care for those who go in harm's way, their families and 
all beneficiaries.
    Navy Medicine--World Class Care . . . Anytime, Anywhere. This 
poignant phrase is arguably the most telling description of Navy 
Medicine's accomplishments in 2009 and continues to drive our 
operational tempo and priorities for the coming year and beyond. 
Throughout the last year we saw challenges and opportunities; and 
moving forward, I anticipate the pace of operations and demands placed 
upon us will continue to increase. Make no mistake: We have been 
stretched in our ability to meet our increasing operational and 
humanitarian assistance requirements, as well as maintain our 
commitment to provide Patient and Family-Centered care to a growing 
number of beneficiaries. However, I am proud to say to that we are 
responding to this demand with more flexibility and agility than ever 
before. We are a vibrant, world-wide healthcare system fully engaged 
and integrated in carrying out the core capabilities of the Maritime 
Strategy around the globe. Regardless of the challenges ahead, I am 
confident that we are well-positioned for the future.
    Since becoming the Navy Surgeon General in 2007, I have invested 
heavily in our strategic planning process. How we accomplish our 
mission is rooted in sound planning, sharp execution and constructive 
self-assessment at all levels of our organization. I challenged our 
leadership to create momentum and establish a solid foundation of 
measurable progress. It's paying dividends. We are seeing improved and 
sustained performance in our strategic objectives. Just as importantly, 
our planning process supports alignment with the Department of Navy's 
Strategic Plan and Operations Guidance.
    Navy Medicine's commitment to Patient and Family-Centered Care is 
also reflected in our resourcing processes. An integral component of 
our Strategic Plan is providing performance incentives that promote 
quality and directly link back to workload and resources. We are 
evolving from a fiscal planning and execution process rooted in 
historical data, to a system which links requirements, resources and 
performance goals. This transformation properly aligns authority, 
accountability and financial responsibility with the delivery of 
quality, cost-effective healthcare.
    The President's budget for fiscal year 2011 adequately funds Navy 
Medicine to meet its medical mission for the Navy and Marine Corps. The 
budget also provides for the maintenance of our facilities. We are, 
however, closely assessing the resource impacts associated with 
Operation Unified Response, in Haiti. While seeking reimbursement as 
appropriate from U.S. Southern Command in accordance with DOD 
direction, we are working to mitigate any potential impacts--both in 
the short-term and long-term. We are cross-leveling personnel, meaning 
that we are assigning personnel within Navy Medicine to ensure 
effective use of existing resources, while leveraging support from the 
Navy Reserve, the other Services and our civilian network partners, as 
needed, and when conditions warrant.
                        force health protection
    The foundation of Navy Medicine is Force Health Protection. It's 
what we do and why we exist. In executing our Force Health Protection 
mission, the men and women of Navy Medicine are engaged in all aspects 
of expeditionary medical operations in support of our warfighters. The 
continuum of care we provide includes all dimensions of physical and 
psychological well-being. This is our center of gravity and we have and 
will continue to ensure our Sailors and Marines are medically and 
mentally prepared to meet their world-wide missions.
    Nowhere is our commitment to Force Health Protection more evident 
than in our active engagement in military operations in Iraq and 
Afghanistan. As these overseas contingency operations evolve, and in 
many respects become increasingly more dangerous, we are seeing 
burgeoning demand for expeditionary combat casualty care in support of 
joint operations. I recently returned from a trip to Afghanistan and I 
again saw the outstanding work of our medical personnel. The Navy 
Medicine team is working side-by-side with Army and Air Force medical 
personnel and coalition forces to deliver outstanding healthcare to our 
troops and civilians alike.
    We must continue to be innovative and responsive at the deckplates 
and on the battlefield. Since the start of Operation Enduring Freedom 
and Operation Iraqi Freedom, the Marine Corps has fielded new combat 
casualty care capabilities which include: updated individual first aid 
kits with combat gauze, advanced tourniquets, use of Tactical Combat 
Casualty Care principles, troop training in Combat Lifesaver, and the 
use of Factor VII--a blood clotting agent used in trauma settings. In 
addition, Navy Fleet Hospital transformation has redesigned 
expeditionary medical facilities that are lighter, modular, more 
mobile, and interoperable with other Services' facilities.
    Our progress is also evident in the innovative work undertaken by a 
Shock Trauma Platoon (STP) 2 years ago in Afghanistan. This team, 
comprised of two physicians, two nurses, a physician assistant and 14 
corpsmen, essentially created a mobile emergency room--a seven-ton 
truck with a Conex container and welded steel plates--that went into 
combat to administer more expedient and effective care in austere 
settings. This prototype led to the creation of the Mobile Trauma Bay 
(MTB), a capability that both Marine Corps and Navy Medicine leadership 
immediately recognized as vital to the warfighter and an unquestionable 
life-saver on the battlefield. MTB use has already been incorporated 
into our Afghanistan shock trauma platoon operations, and they are 
already positively impacting forward resuscitative and stabilization 
care. We understand that the Marine Corps has fully embraced the MTB 
concept and is planning to add additional units in future POM 
submissions.
             humanitarian assistance and disaster response
    An integral part of the Navy's Maritime Strategy is humanitarian 
assistance and disaster response. In the wake of the devastating 
earthquake in Haiti earlier this year, our Nation moved forward with 
one of the largest relief efforts in our history to save lives, deliver 
critically needed supplies and provide much-needed hope. The response 
was rapid, as Navy deployed ships and expeditionary forces, comprised 
of more than 10,000 personnel, to provide immediate relief and support 
for the Haitian people. In support of Operation Unified Response, Navy 
Medicine answered the call. We deployed USNS Comfort (T-AH 20) from her 
homeport in Baltimore within 77 hours and ahead of schedule--going from 
an industrial shipboard site to a ready afloat Naval hospital, fully 
staffed and equipped. She was on station in Port-au-Prince 5 days later 
and treating patients right away. From the beginning, the operational 
tempo onboard USNS Comfort has been high with a significant trauma and 
surgical caseload. Medical teams from the ship are also ashore to help 
in casualty evaluation, triage crush wounds, burn injuries and other 
health issues. Providing care around the clock, our personnel have been 
challenged both professionally and personally. For many, this will be a 
career-defining experience and certainly reflects the Navy's commitment 
as a ``Global Force for Good.'' I spoke to the crew as they were 
preparing to get underway, and personally related just how important 
this mission is and why it is a vital part of the Navy's Maritime 
Strategy.
    We train so we are mission ready and USNS Comfort was well-prepared 
for this challenging deployment as a result of her crew's participation 
in Continuing Promise (April-June 2009), a humanitarian and civic 
assistance mission, in partnership with nations of the Caribbean and 
Latin America, to provide medical, dental, veterinary, educational and 
engineering programs both ashore and afloat.
    We are continuing to respond to requirements from the Commander, 
U.S. Southern Command in order to put the proper supporting medical 
elements in the area of operations. Navy Medicine additional support 
includes the deployment of a Forward Deployed Preventive Medicine Unit 
(FDPMU) and augmented Casualty Receiving and Treatment Ship (CRTS) 
medical staff capabilities onboard U.S.S. Bataan (LHD 5). We also 
recognize the potential psychological health impact on our medical 
personnel involved in this humanitarian assistance mission and have 
ensured we have trained Caregiver Occupational Stress Control (CgOSC) 
staff onboard.
    Navy Medicine is inherently flexible and capable of meeting the 
call to support multiple missions. I am proud of the manner in which 
the men and women of Navy Medicine leaned forward in response to the 
call for help. In support of coordination efforts led by the Department 
of State and the U.S. Agency for International Development, and in 
collaboration with nongovernmental organizations, both domestic and 
international, our response demonstrated how the expeditionary 
character of our Naval and Marine forces is uniquely suited to provide 
assistance during interagency and multinational efforts.
                            concept of care
    Navy Medicine's Concept of Care is Patient and Family-Centered 
Care. It is at the epicenter of everything we do. This concept is 
elegant in its simplicity yet extraordinarily powerful. It identifies 
each patient as a participant in his or her own healthcare and 
recognizes the vital importance of the family, military culture and the 
military chain of command in supporting our patients. My goal is for 
this Concept of Care--this commitment to our patients and their 
families--to resonate throughout our system and guide all our actions. 
It is enabled by our primary mission to deliver force health protection 
and a fully ready force; mutually supported by the force multipliers of 
world class research and development, and medical education. It also 
leverages our emphasis on the health and wellness of our patients 
through an active focus on population health.
                         caring for our heroes
    When our Warriors go into harm's way, we in Navy Medicine go with 
them. At sea or on the ground, Sailors and Marines know that the men 
and women of Navy Medicine are by their side ready to care for them. 
There is a bond of trust that has been earned over years of service 
together, and make no mistake, today that bond is stronger than ever. 
Our mission is to care for our wounded, ill and injured, as well as 
their families. That's our job and it is our honor to have this 
opportunity.
    As our Wounded Warriors return from combat and begin the healing 
process, they deserve a seamless and comprehensive approach to their 
recovery. We want them to mend in body, mind and spirit. Our focus is 
multidisciplinary-based care, bringing together medical treatment 
providers, social workers, case managers, behavioral health providers 
and chaplains. We are working closely with our line counterparts with 
programs like the Marine Corps' Wounded Warrior Regiments and the 
Navy's Safe Harbor to support the full-spectrum recovery process for 
Sailors, Marines and their families.
    Based on the types of injuries that we see returning from war, Navy 
Medicine continues to adapt our capabilities to best treat these 
conditions. When we saw a need on the West Coast to provide expanded 
care for returning Wounded Warriors with amputations, we established 
the Comprehensive Combat and Complex Casualty Care (C\5\) Program at 
Naval Medical Center, San Diego, in 2007. C\5\ manages severely injured 
or ill patients from medical evacuation through inpatient care, 
outpatient rehabilitation, and their eventual return to active duty or 
transition from the military. We are now working to expand utilization 
of Project C.A.R.E--Comprehensive Aesthetic Recovery Effort. This 
initiative follows the C\5\ model by ensuring a multidisciplinary 
approach to care, yet focuses on providing state-of-the-art plastic and 
reconstructive surgery for our Wounded Warriors at both Naval Medical 
Center San Diego and Naval Medical Center Portsmouth, with potential 
future opportunities at other treatment facilities.
    We have also significantly refocused our efforts in the important 
area of clinical case management at our military treatment facilities 
and major clinics serving Wounded Warriors to ensure appropriate case 
management services are available to all who need them. The Clinical 
Case Management Program assists patients and families with clinical and 
non-clinical needs, facilitating communication between patient, family 
and multi-disciplinary care team. Our clinical case managers 
collaborate with Navy and Marine Corps Recovery Care Coordinators, 
Federal Recovery Coordinators, Non-Medical Care Managers and other 
stakeholders to address Sailor and Marine issues in developing Recovery 
Care Plans. As of January 2010, 192 Clinical Case Managers are assigned 
to Military Treatment Facilities and ambulatory care clinics caring for 
over 2,900 Sailors, Marines and Coast Guardsmen.
             psychological health and post-traumatic stress
    We must act with a sense of urgency to help build resiliency among 
our Sailors and Marines, as well as the caregivers who support them. We 
recognize that operational tempo, including the number and length of 
deployments, has the potential to impact the psychological health of 
service members and their family members. We are aggressively working 
to reduce the stigma surrounding psychological health and operational 
stress concerns which can be a significant barrier to seeking mental 
health services for both military personnel and civilians. Programs 
such as Navy Operational Stress Control, Marine Corps Combat 
Operational Stress Control, FOCUS (Families Overcoming Under Stress), 
Caregiver Occupational Stress Control (CgOSC), and our suicide 
prevention programs (A-C-T Ask-Treat-Care) are in place and maturing to 
provide support to personnel and their families.
    The Navy Operational Stress Control program and Marine Corps Combat 
Operational Stress Control program are the cornerstones of the 
Department of the Navy's approach to early detection of stress injuries 
in Sailors and Marines and are comprised of:
  --Line led programs which focus on leadership's role in monitoring 
        the health of their people.
  --Tools leaders may employ when Sailors and Marines are experiencing 
        mild to moderate symptoms.
  --Multidisciplinary expertise (medical, chaplains and other support 
        services) for more affected members.
    Decreasing the stigma associated with seeking psychological 
healthcare requires a culture change throughout the Navy and Marine 
Corps. Confronting an ingrained culture will take time and active 
leadership support. Stigma reducing interventions span three major 
fronts: (1) education and training for individual Sailors and Marines 
that normalizes mental healthcare; (2) leadership training to improve 
command climate support for seeking mental healthcare; and (3) 
encouragement of care outreach to individual Sailors, Marines, and 
their commands. This past year saw wide-spread dissemination of 
Operational Stress Control (OSC) doctrine as well as a Navy-wide 
education and training program that includes mandatory Navy Knowledge 
Online courses, instructor led and web-based training.
    Navy Medicine ensures a continuum of psychological healthcare is 
available to service members throughout the deployment cycle--pre-
deployment, during deployment, and post-deployment. We are working to 
improve screening and surveillance using instruments such as the 
Behavior Health Needs Assessment Survey (BHNAS) and Post-Deployment 
Health Assessment (PDHA) and Post-Deployment Health Reassessment 
(PDHRA).
    Our mental health specialists are being placed in operational 
environments and forward deployed to provide services where and when 
they are needed. The Marine Corps is sending more mental health teams 
to the front lines with the goal of better treating an emotionally 
strained force. Operational Stress Control and Readiness (OSCAR) teams 
will soon be expanded to include the battalion level, putting mental 
health support services much closer to combat troops. A Mobile Care 
Team (MCT) of Navy Medicine mental health professionals is currently 
deployed to Afghanistan to conduct mental health surveillance, command 
leadership consultation, and coordinate mental healthcare for Sailors 
throughout the AOR. In addition to collecting important near real-time 
surveillance data, the MCT is furthering our efforts to decrease stigma 
and build resilience.
    We are also making mental health services available to family 
members who may be affected by the psychological consequences of combat 
and deployment through our efforts with Project FOCUS, our military 
treatment facilities and our TRICARE network partners. Project FOCUS 
continues to be successful and we are encouraged that both the Army and 
Air Force are considering implementing this program. We also recognize 
the importance of the counseling and support services provided through 
the Fleet and Family Support Centers and Marine Corps Community 
Services.
    Beginning in 2007, Navy Medicine established Deployment Health 
Centers (DHCs) as non-stigmatizing portals of care for service members 
staffed with primary care and psychological health providers. We now 
have 17 DHCs operational. Our healthcare delivery model supports early 
recognition and treatment of deployment-related psychological health 
issues within the primary care setting. Psychological health services 
account for approximately 30 percent of all DHC encounters. We have 
also increased mental health training in primary care, and have 
actively partnered with Line leaders and the Chaplain Corps to develop 
combat and operational stress control training resources. Awareness and 
training are keys to our surveillance efforts. Over 4,000 Navy Medicine 
providers, mental health professionals, chaplains and support personnel 
have been trained to detect, screen and refer personnel who may be 
struggling with mental health issues.
    We must continue to recognize the occupational stress on our 
caregivers. They are subject to the psychological demands of exposure 
to trauma, loss, fatigue and inner conflict. This is why our Caregiver 
Occupational Stress Control programs are so important to building and 
sustaining the resiliency of our providers. We cannot overlook the 
impact on these professionals and I have directed Navy Medicine 
leadership to be particularly attuned to this issue within their 
commands.
                         traumatic brain injury
    While there are many significant injury patterns in theatre, an 
important focus area for all of us remains Traumatic Brain Injury 
(TBI). Blast is the signature injury of OEF and OIF--and from blast 
injury comes TBI. The majority of TBI injuries are categorized as mild, 
or in other words, a concussion. Yet, there is much we do not yet know 
about these injuries and their long-term impacts on the lives of our 
service members.
    The relative lack of knowledge about mild TBI amongst service 
members and healthcare personnel represents an important gap that Navy 
Medicine is seriously addressing. We are providing TBI training to 
healthcare providers from multiple disciplines throughout the fleet and 
the Marine Corps. This training is designed to educate personnel about 
TBI, introduce the Military Acute Concussion Exam (MACE) as a screening 
tool for mild TBI, inform providers about the Automated Neurocognitive 
Assessment Metric (ANAM) test, and identify a follow-up for assessment 
including use of a repeatable test battery for identification of 
cognitive status. We have recently established and are now expanding 
our TBI program office to manage the implementation of the ANAM as a 
pre-deployment test for service members in accordance with DOD policy. 
This office will further develop models of assessment and care as well 
as support research and evaluation programs.
    All the Services expect to begin implementation of a new in-theater 
TBI surveillance system which will be based upon incident event 
tracking. Promulgated guidelines will mandate medical evaluation for 
all service members exposed within a set radius of an explosive blast, 
with the goal to identify any service member with subtle cognitive 
deficits who may not be able to return to duty immediately.
    Navy Medicine has begun implementing the ANAM assessment at the 
DHCs and within deploying units as part of an Assistant Secretary of 
Defense (Health Affairs) mandate. We have also partnered with Line 
leadership, or operational commanders, to identify populations at risk 
for brain injury (e.g., front line units, SEAL units, and Navy 
Explosive Ordinance Disposal units). In addition, an in-theater 
clinical trial for the treatment of vestibular symptoms of blast-
exposure/TBI was completed at the USMC mTBI Center in Al Taqqadum, 
Iraq.
    Both our Naval Health Research Center and Navy-Marine Corps Public 
Health Center are engaged with tracking TBI data through ongoing 
epidemiology programs. Goals this year include the establishment of a 
restoration center in-theatre to allow injured Sailors and Marines a 
chance to recover near their units and return to the fight.
    Additionally, the National Naval Medical Center's Traumatic Stress 
and Brain Injury Program provides care to all blast-exposed or head-
injured casualties returning from theatre to include patients with an 
actual brain injury and traumatic stress. Navy Medicine currently has 
TBI clinics at San Diego, Portsmouth, Camp Pendleton and Camp Lejeune 
with plans for further expansion reflecting our commitment to the 
treatment of this increasingly prevalent injury.
    We are employing a strategy that is both collaborative and 
integrative by actively partnering with the other Services, Defense 
Center of Excellence for Psychological Health and Traumatic Brain 
Injury, the Veterans Administration, and leading academic medical and 
research centers to make the best care available to our Warriors 
afflicted with TBI.
              excellence in research and development (r&d)
    Research and development is critical to Navy Medicine's success and 
our ability to remain agile to meet the evolving needs of our 
warfighters. It is where we find solutions to our most challenging 
problems and, at the same time, provide some of medicine's most 
significant innovations and discoveries. Our R&D programs are truly 
force-multipliers and enable us to provide world-class healthcare to 
our beneficiaries.
    The approach at our research centers and laboratories around the 
world is straightforward: Conduct health and medical research, 
development, testing, evaluation and surveillance to enhance deployment 
readiness. Each year, we see more accomplishments which have a direct 
impact on improving force health protection. The contributions are many 
and varied, ranging from our confirmatory work in the early stages of 
the H1N1 pandemic, to the exciting progress in the development of a 
malaria vaccine. Research efforts targeted at wound management, 
including enhanced wound repair and reconstruction as well as extremity 
and internal hemorrhage control, and phantom limb pain in amputees, 
present definitive benefits. These efforts also support our emerging 
expeditionary medical operations and aid in support to our Wounded 
Warriors.
                         the navy medicine team
    Navy Medicine is comprised of compassionate and talented 
professionals who continue to make significant contributions and 
personal sacrifices to our global community. Our team includes our 
officers, enlisted personnel, government civilian employees, contract 
workers and volunteers working together in a vibrant healthcare 
community. All have a vital role in the success of our enterprise. Our 
priority is to maintain the right workforce to deliver the required 
medical capabilities across the enterprise, while using the appropriate 
mix of accession, retention, education and training incentives.
    Overall, I am encouraged with our recruiting efforts within Navy 
Medicine and we are starting to see the results of new incentive 
programs. But while overall manning levels for both officer and 
enlisted personnel are relatively high, ensuring we have the proper 
specialty mix continues to be a challenge. Several wartime critical 
specialties including psychiatry, family medicine, general surgery, 
emergency medicine, critical care and perioperative nursing, as well as 
advanced practice nursing and physician assistants, are undermanned. We 
are also facing shortfalls for general dentists, oral maxillofacial 
surgeons, and many of our mental health specialists including clinical 
psychologists and social workers. We have increasing requirements for 
mental health professionals as well as for Reserve Component Medical 
Corps, Dental Corps, Medical Service Corps and Nurse Corps officers. We 
continue to work hard to meet this demand, but fulfilling the 
requirements among these specialties is expected to present a 
continuing challenge.
    I want to also reemphasize the priority we place on diversity. We 
are setting the standard for building a diverse, robust, innovative 
healthcare workforce, but we can do more in this important area. Navy 
Medicine is stronger and more effective as a result of our diversity at 
all levels. Our people are our most important resource, and their 
dignity and worth are maintained through an atmosphere of service, 
professionalism, trust and respect.
                     partnerships and collaboration
    Navy Medicine continues to focus on improving interoperability with 
the Army, Air Force, Veterans Administration (VA), as well other 
Federal and civilian partners to bring operational efficiencies, 
optimal technology and training together in support of our patients and 
their families, our missions, and the national interests. Never has 
this collaborative approach been more important, particularly as we 
improve our approaches to ensuring seamless transitions for our 
veterans.
    We remain committed to resource sharing agreements with the VA and 
our joint efforts in support of improving the Disability Evaluation 
System (DES) through the ongoing pilot program at several MTFs. The 
goal of this pilot is to improve the disability evaluation process for 
service members and help simplify their transitions. Together with the 
VA and the other Services, we are examining opportunities to expand 
this pilot to additional military treatment facilities. Additionally, 
in partnership with the VA, we will be opening the James A. Lovell 
Federal Health Care Center in Great Lakes, Illinois--a uniquely 
integrated Navy/VA medical facility.
    We also look forward to leveraging our inter-service education and 
training capabilities with the opening of the Medical Education and 
Training Campus (METC) in San Antonio in 2010. This new tri-service 
command will oversee the largest consolidation of service training in 
DOD history. I am committed to an inter-service education and training 
system that optimizes the assets and capabilities of all DOD healthcare 
practitioners yet maintains the unique skills and capabilities that our 
hospital corpsmen bring to the Navy and Marine Corps--in hospitals, 
clinics at sea and on the battlefield.
    Clearly one of the most important priorities for the leadership of 
all the Services is the successful transition to the Walter Reed 
National Military Medical Center onboard the campus of the National 
Naval Medical Center, Bethesda. We are working diligently with the lead 
DOD organization, Joint Task Force--National Capital Region Medical, to 
ensure that this significant and ambitious project is executed properly 
and without any disruption of services to our Sailors, Marines, their 
families, and all our beneficiaries for whom we are privileged to 
serve.
                            the way forward
    I believe we are at an important crossroads for military medicine. 
How we respond to the challenges facing us today will likely set the 
stage for decades to come. Commitment to our Wounded Warriors and their 
families must never waver and our programs of support and hope must be 
built and sustained for the long-haul--and the long-haul is the rest of 
this century when the young Wounded Warriors of today mature into our 
aging heroes in the years to come. They will need our care and support 
as will their families for a lifetime. Likewise, our missions of 
cooperative engagement, through humanitarian assistance and disaster 
response, bring opportunities for us, our military and the Nation. It 
is indeed a critical time in which to demonstrate that the United 
States Navy is truly a ``Global Force for Good.''
    Navy Medicine is a vibrant, world-wide healthcare system comprised 
of compassionate and talented professionals who are willing to make 
contributions and personal sacrifices. This team--our team--including 
officer, enlisted, civilians, contractors, and volunteers work together 
as a dynamic healthcare family. We are all essential to success.
    Navy Medicine will continue to meet the challenges ahead and 
perform our missions with outstanding skill and commitment. On behalf 
of the men and women of Navy Medicine, I want to thank the Committee 
for your tremendous support, confidence and leadership. It has been my 
pleasure to testify before you today and I look forward to your 
questions.

    Chairman Inouye. I thank you very much, Admiral.
    Before we proceed, I must apologize to my vice chairman for 
overlooking his presence. May I call upon the vice chairman for 
his opening statement.
    Senator Cochran. Mr. Chairman, thank you very much.
    It's a pleasure to join you in welcoming the leaders of our 
doctors and nurses who serve in the military forces. We 
appreciate their sacrifice and their service and their 
leadership in helping ensure that, here at home and around the 
world, our servicemen and women get the best medical care 
available. We look forward to working with you in the 
appropriations process to identify priorities, to make sure 
that we have money where the needs are, and living up to the 
commitment that we all feel toward our servicemembers and their 
families who sacrifice so much for the security interests of 
our country.
    Thank you very much for your service and for your presence 
here today.
    Chairman Inouye. Senator Murray.
    Senator Murray. Mr. Chairman, I will pass on an opening 
statement.
    I just want to thank all of our witnesses today, and for 
having this important hearing.
    Chairman Inouye. Thank you. Thank you very much.
    And I'd like to now call upon the Surgeon General of the 
Army, General Schoomaker.
STATEMENT OF LIEUTENANT GENERAL ERIC B. SCHOOMAKER, 
            M.D., Ph.D., SURGEON GENERAL; AND 
            COMMANDER, U.S. ARMY MEDICAL COMMAND, 
            DEPARTMENT OF THE ARMY
    General Schoomaker. Chairman Inouye, Vice Chairman Cochran, 
Senator Murray, and other distinguished members of the Defense 
Subcommittee, thank you for inviting us here to discuss the 
Defense Health Program and our respective service medical 
programs.
    Now, in my third congressional hearing cycle as the Army 
Surgeon General and the Commanding General of the Army Medical 
Command, I can tell you that these hearings are valuable 
opportunities for me to talk about the accomplishments and 
challenges of Army medicine, and to hear--for all of us to hear 
your collective perspectives regarding military health 
promotion and healthcare.
    You and your staff members ask some difficult questions, 
but these questions help keep us focused on those whom we 
serve: our soldiers, sailors, airmen, marines, coast guardsmen, 
our family members, our retirees, and the American public at 
large.
    Sir, you earlier introduced her, but I wanted to take this 
opportunity to welcome and introduce my chief of the Army Nurse 
Corps, returning from a very successful command of the Western 
Regional Medical Command, headquartered at Fort Lewis, 
Washington, and covering the western third of the United 
States, including Alaska, Major General Patty Horoho. I'm 
pleased to say that she'll be joining me on my staff as our 
Deputy Surgeon General, as of the 1st of April, when David 
Rubenstein leaves a very successful tour to take command of the 
Army Medical Center and School in San Antonio, Texas.
    And so, Patty, welcome, and we're glad to have you on the 
staff.
    I'm pleased to tell you that the President's budget 
submission for fiscal year 2011 fully funds the Army Medical 
Department's needs. Your support of the President's proposed 
budget will be greatly appreciated.
    One particular area of special interest to this 
subcommittee is our comprehensive effort to improve warrior 
care from the point of injury through evacuation and inpatient 
treatment to rehabilitation and return to duty or to productive 
citizens' lives. We, in Army medicine, continue to focus our 
efforts on our ``warriors in transition,'' which is the term we 
apply to our wounded and injured soldiers. And I want to thank 
the Congress for its unwavering support of this effort.
    The support of this subcommittee has allowed us to hire 
additional providers to staff our warrior transition units, the 
units to which these warriors in transition are assigned, to 
conduct relevant medical research, and to build even healing 
campuses across the Army.
    I'm convinced the Army has made some lasting improvements 
there. The most important improvement may be the change of 
mindset from a focus on disability to an emphasis on ability 
and achievement. Each of these warriors has the opportunity and 
the resources to create their own future as soldiers or as 
productive private citizens. I should say, in this forum, sir, 
lessons which you, yourself, taught us following your own 
battle injuries in--in World War II, Mr. Chairman.
    In keeping with our focus on preventing injury and illness, 
Army leadership is currently engaged in an all-out effort to 
change the Department of Defense's culture regarding traumatic 
brain injury, or TBI, especially the milder form, which we call 
``concussion.'' Our goal is nothing less than a cultural change 
in the management of soldiers after potential concussive 
events. Every warrior requires appropriate treatment to 
minimize concussive injury and to maximize recovery. To achieve 
this goal, we are educating the force so as to have trained and 
prepared soldiers, leaders, and medical personnel to provide 
early recognition, treatment, and tracking of concussive 
injuries, ultimately designed to protect warrior health.
    Traumatic brain injury is a disruption of brain function 
that results from a blow or a jolt to the head or a penetrating 
head injury. These occur in combat, they occur on our highways, 
on our training posts, and on sports fields across the Nation. 
It's not a phantom condition that is exhibited by a weak 
servicemember who's trying to get out of a deployment. A 
servicemember who's behaving badly or irregularly may be 
struggling and needs help, and we feel very strongly that we 
need to do everything we can to take care of these warriors who 
need help. Leaders at all levels must ensure that individuals 
are aware of, and are willing to take advantage of, available 
treatments and counseling options.
    Our concern is--and this has been documented in a number of 
studies that we've conducted, including those in the 
battlefield--that our soldiers and other servicemembers are not 
coming forward for treatment after the time of an incident. 
This results in delay in identification, and it compliments the 
treatment course back here in the United States. We know that 
early detection leads to early treatment and improved outcomes. 
However, undiagnosed concussion leads to symptoms affecting 
operational readiness on the battlefield and the risk of 
recurrent concussion during the healing period, which can then 
lead to more long-term permanent brain impairment.
    An overview of the education program that we've worked on 
here is included in this packet, ``Brain Injury Awareness 
Toolkit,'' which we have available for you and your staffs 
after the hearing.
    The Army is issuing very direct standards and protocols to 
Commanders and healthcare providers in the field, similar to 
actions taken after aviation incidents. We have automatic 
grounding and medical assessments which are required for any 
soldiers that meets specified criteria.
    The end state of these efforts is that every servicemember 
sustaining a potential concussion will receive early detection, 
state-of-the-art treatment, and return-to-duty evaluation, with 
long-term digital healthcare record tracking of their 
management.
    Treatment of mild traumatic brain injury, or concussion, is 
an emerging science. We feel strongly that the Army is leading 
the way in implementing these new treatment protocols for the 
Department of Defense, and that the Department of Defense and 
the military health system (MHS) is leading the Nation in this 
regard. I truly believe that this evidence-based directive 
approach to concussive management is going to change the 
military culture regarding head injuries and significantly 
impact the well-being of the force.
    In closing, I'm very optimistic about the next 2 years. We 
have weathered some very serious challenges to the trust that 
you all have in Army medicine. Logic would not predict that we 
would be doing as well as we are, and attracting and retaining 
and career-developing such a talented team of uniformed and 
civilian medical professionals. However, we continue to do so, 
year after year, a tribute to all of our Officer Corps and the 
leadership of our Noncommissioned Officer Corps and our 
military and civilian workforce. Their continued leadership and 
dedication are essential for Army medicine to remain strong, 
for the Army to remain healthy and resilient, and for the 
Nation to endure.
    I personally feel very privileged to serve with these men 
and women in Army medicine, as soldiers, as Americans, and as 
global citizens.

                           PREPARED STATEMENT

    We thank you for holding this hearing and for your 
unwavering support of the military health system and of Army 
medicine, and I look forward to answering your questions.
    Thank you, sir.
    Chairman Inouye. I thank you very much, General.
    [The statement follows:]
      Prepared Statement of Lieutenant General Eric B. Schoomaker
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the Defense Subcommittee, thank you for inviting us to discuss the 
Defense Health Program and our respective Service medical programs. Now 
in my third Congressional hearing cycle as the Army Surgeon General and 
Commanding General, U.S. Army Medical Command (MEDCOM), I can tell you 
that these hearings are valuable opportunities for me to talk about the 
accomplishments and challenges of Army Medicine and to hear your 
collective perspectives regarding military healthcare. You and your 
staff members ask some difficult questions, but these questions help 
keep us focused on those we serve--the Soldiers, Sailors, Marines, 
Airmen, Coast Guardsmen, Family members, and Retirees as well as the 
American public. I hope you also find these hearings beneficial as you 
review the President's budget submission, which this year fully funds 
the Army Medical Department's needs, and determine priorities and 
funding levels for the next fiscal year.
    The U.S. Army Medical Department is a complex, globally-deployed, 
and world class team. My command element alone, the MEDCOM, is an $11 
billion international health improvement, health protection, emergency 
response and health services organization staffed by 70,000 dedicated 
Soldiers, civilians, and contractors. I am in awe at what these 
selfless servants have done over the past years--their accomplishments 
have been quietly, effectively, powerfully successful. While we have 
experienced our share of crises and even tragedies, despite 8 years of 
continuous armed conflict for which Army Medicine bears a heavy load, 
every day our Soldiers and their Families are kept from injuries, 
illnesses, and combat wounds through our health promotion and 
prevention efforts; are treated in cutting-edge fashion when prevention 
fails; and are supported by an extraordinarily talented medical force 
to include those who serve at the side of the Warrior on the 
battlefield. We mourn the loss of 26 teammates in the Fort Hood 
shootings--six dead and 20 wounded--but are inspired by the resolve 
shown by their units to continue their missions and the exemplary 
performance of the 467th and 1908th Medical Detachments serving in 
Afghanistan today.
    One particular area of special interest to this subcommittee is our 
comprehensive effort to improve warrior care from point of injury 
through evacuation and inpatient treatment to rehabilitation and return 
to duty. I am convinced the Army has made some lasting improvements, 
and I was recently heartened to read the comments of a transitioning 
Warrior that reinforced these perceptions. She commented:

    ``As I look back in the past I am able to see with a reflective eye 
. . . the people that have helped me fight this battle, mostly my chain 
of command, who have always stood beside me instead of in front of me. 
They have gone out of their way to do what was best for me and I cannot 
say I would be here still if I hadn't had such wonderful support . . . 
This is my story at the WTB and all in all, I just had to make aware to 
everyone that has helped that I am very grateful and I truly appreciate 
all of the work you have done for me.''

    There is nothing more gratifying than to care for these wounded, 
ill, and injured heroes. We in Army Medicine continue to focus our 
efforts on our Warriors in Transition and I want to thank Congress for 
your unwavering support. The support of this committee has allowed us 
to hire additional providers, staff our warrior transition units, 
conduct relevant medical research, and build healing campuses. In the 
remainder of my testimony today, I will discuss how we are providing 
optimal stewardship of the investment the American public and this 
Committee has made in Army Medicine.
    We lead and manage Army Medicine through the Kaplan & Norton 
Balanced Scorecard performance improvement framework that I introduced 
to you in last year's testimony. The Scorecard balances missions and 
resources across a broad array, while ensuring that near-term measures 
of success are aligned with longer-term, more strategic results. This 
balancing is depicted on the Scorecard's Strategy Map, which shows how 
we marshal our resources, train and develop our people, and focus our 
internal processes and efforts so as to balance competing goals. 
Ultimately our means, ways, and ends contribute toward accomplishing 
our mission and achieving our strategic vision. The five strategic 
themes that guide our daily efforts are: Maximize Value in Health 
Services, Provide Global Operational Forces, Build the Team, Balance 
Innovation with Standardization, and Optimize Communication and 
Knowledge Management. Although distinct themes, they inevitably overlap 
and weave themselves through everything we do in Army Medicine.
    The first strategic theme--Maximize Value in Health Services--is 
built on the belief that providing high quality, evidence-based 
services is not only the right for our Soldiers and Families; it 
results in the most efficient use of resources within the healthcare 
system, thus delivering value to not only our Patients, but indeed, the 
Nation. In fact, what we really want to do is move from a healthcare 
system to a system for health.
    We have resisted simply inventing a new process, inserting a new 
diagnostic test or therapeutic option in vacuo or adding more layers of 
bureaucracy but are truly adding value to the products we deliver, the 
care we provide, and the training of our people. This requires focusing 
on the clinical outcome for the patient and the community and 
maintaining or even reducing the overall resource expenditure needed to 
achieve this objective. It has occurred through adoption of evidence-
based practices and reducing unwarranted practice variation--even 
``unwarranted administrative practice variation'' for the transactional 
processes in our work. As one example of this, Army Medicine is 
expanding upon our Performance Based Budget model to link resources to 
clinical and quality outputs. The Healthcare Effectiveness and Data 
Information Set (HEDISR) is a tool used by more than 90 percent of 
America's health plans (>400 plans) to measure performance on important 
dimensions of care, namely, the prevention of disease and evidence-
based treatments for some of the most common and onerous chronic 
illnesses. The measures are very specifically defined, thus permitting 
comparison across health plans. Since 2007, we have been providing 
financial incentives to our hospitals, clinics and clinicians for 
superior compliance in key HEDIS measures. Currently, we track nine 
measures and compare our performance to national benchmarks. Our 
performance has improved on each measure, in one case by 63 percent. We 
have demonstrated that these incentives work to change organizational 
behavior to achieve desired outcomes in our health system. Put quite 
simply, our beneficiaries, patients and communities are receiving not 
only better access to care but better care--objectively measured.
    As the DOD budget and health-/healthcare-related costs come under 
increasing scrutiny, this element of our strategy will be even more 
critical for us. As the United States struggles to address improvements 
in health and healthcare outcomes while stabilizing or reducing costs 
of our national system of care, we in Army Medicine and the Military 
Health System will surely keep the goal of maximizing value in our 
cross-hairs . . . or we will find our budgets tightening without a way 
to measure the effects on our patients' and our communities' health and 
well-being.
    All of these remarkable achievements would be without meaning or 
importance to our Soldiers, their Families and our patients if we do 
not provide access and continuity of care, especially within the direct 
care system of our medical centers, community hospitals, health 
centers, and clinics. I am looking carefully at my commanders' 
leadership and success in ensuring that their medical and dental 
treatment facilities provide timely access and optimize continuity of 
care. We have undertaken major initiatives to improve both access and 
continuity--this is one of the Army Chief of Staff's and my top 
priorities. After conducting thorough business case analyses, Army 
Medicine is expanding product lines in some markets and expanding 
clinical space in others. At 14 locations, we are establishing 
Community Based Primary Care Clinics by leasing and operating clinics 
located in off-post communities that are close to where active duty 
Families live, work, and go to school. These clinics will provide a 
patient-centered medical home for Families and will provide a range of 
benefits:
  --Improve the readiness of our Army and our Army Family;
  --Improve access to and continuity of care;
  --Reduce emergency room visits;
  --Improve patient satisfaction;
  --Implement Best Practices and standardization of services;
  --Increase physical space available in military treatment facilities 
        (MTFs); and
  --Improve physical and psychological health promotion and prevention.
    Along with the rest of the Military Health System, Army Medicine is 
embracing the Patient-Centered Medical Home concept, which is a 
recommended practice of the National Committee for Quality Assurance 
and is endorsed by a number of medical associations, several large 
third-party payers, and many employers and health plans. The Patient-
Centered Medical Home improves patient satisfaction through its 
emphasis on appropriate access, continuity and quality, and effective 
communication. The goal is simple: consult with one consistent primary 
care provider-nurse team for all your medical needs. The seven core 
features of the Medical Home are:
  --Personal Primary Care Provider (primary care manager/team);
  --Primary Care Provider Directed Medical Practice (the primary care 
        manager is team leader);
  --Whole Person Orientation (patient centered, not disease or provider 
        centered);
  --Care is Coordinated and/or Integrated (across all levels of care);
  --Quality and Safety (evidenced-based, safe medical care);
  --Enhanced Access (meets access standards from the patient 
        perspective); and
  --Payment Reform (incentivizes the development and maintenance of the 
        medical home).
    I look for 2010 to be the year Army Medicine achieves what we set 
out to improve 2 years ago in access and continuity, key elements of 
our covenant with the Army Family, led by our Chief of Staff and 
Secretary of the Army.
    Unlike civilian healthcare systems that can focus all of their 
energy and resources on providing access and continuity of care, the 
Military Health System has the equally important mission to Provide 
Global Operational Forces.
    The partnership between and among the medical and line leadership 
of Operations Iraqi Freedom and Enduring Freedom, Central Command, Army 
Forces Command, U.S. Army Reserve Command, National Guard Bureau, Army 
Medical Department Center and School, Medical Research and Materiel 
Command, Army G3/5/7, and others has resulted in a dynamic 
reconfiguration of the medical formations and tactics, techniques, and 
procedures required to support the deployed Army, joint and coalition 
force. Army Medicine has never missed movement and we continue to 
achieve the highest survivability rate in the history of warfare. Army 
Medicine leaders have never lost sight of the need to first and 
foremost make a difference on the battlefield.
    This will not change--it will even intensify in 2010 as the 
complexity of the missions in Afghanistan increases. And this is 
occurring even while the need to sustain an Army and joint force which 
is responsibly withdrawing from Iraq puts more pressure on those medics 
continuing to provide force health protection and care in Operation 
Iraqi Freedom. This pressure on our All-Volunteer Army is 
unprecedented. Healthcare providers, in particular, are subject to 
unique strains and stressors while serving in garrison as well as in 
deployed settings. The MEDCOM has initiated a defined program to 
address provider fatigue with current efforts focused on sustaining the 
healthy force and identifying and supporting higher risk groups. MEDCOM 
has a healthy healthcare workforce as demonstrated by statistically 
significant lower provider fatigue and burnout than: The Professional 
Quality of Life Scale (ProQol) norming sample of 1,187 respondents; and 
Sprang, Clark and White-Woosley's study of 222 civilian behavioral 
health (BH) providers. But as our Chief of Staff of the Army has told 
us: this is not an area where we just want to be a little better than 
the other guy--we want the healthiest and most resilient healthcare 
provider workforce possible.
    The Provider Resiliency Training (PRT) Program was originally 
designed in 2006, based on Mental Health Advisory Team findings. The 
U.S. Army Medical Department Center and School (AMEDDC&S) developed a 
military-specific model identifying ``provider fatigue'' as the 
military equivalent of compassion fatigue. In June of 2008, MEDCOM 
implemented a mandated PRT program to educate and train all MTF 
personnel to include support staff on the prevention and treatment of 
signs and symptoms of provider fatigue. The stated goal of PRT is to 
mitigate the negative effects of exposure to combat, to deployment, to 
secondary trauma from caring for the casualties of war as well as the 
unremitting demand for healthcare services and from burnout. All will 
ultimately improve organizational effectiveness. The AMEDDC&S currently 
offers three courses in support of the MEDCOM PRT: the Train the 
Trainer Course; the Professional Resiliency Resident Course; and the 
PRT Mobile Training.
    None of our goals and themes would be achievable without the right 
mix of talented professionals within Army Medicine and working with 
Army Medicine; what our Balanced Scorecard refers to as Build The Team: 
a larger, more inclusive joint medical team; an adaptive and responsive 
interagency team (VA, DHS, DHHS/NIH/NIAID, CDC, USDA, etc.); an 
effective coalition team; and a military-civilian/academic-operational 
team. The teams we build must be aligned with the Army, Defense, and 
National Military Strategy and long-term goals, not based solely on 
personalities and the arcane interests of a few. My Deputy Surgeon 
General, subordinate leaders, and others have been increasingly more 
deliberate and disciplined in how we form and sustain these critical 
partnerships.
    Effective joint, interagency and coalition team-building has been a 
serious challenge for some time now. I see the emphasis on our ability 
to craft these teams grow in 2010. The arrival of September 15, 2011--
the deadline for the 2005 BRAC--will be one of the key milestones and 
tests of this skill. My regional commanding generals in San Antonio and 
Washington, DC have taken lead roles in this endeavor. Let there be no 
question among those who underestimate our collective commitment to 
working as a team and our shared vision to serve the Nation and protect 
and care for the Warriors and his or her Family--we are One Team!
    In addition to building external teams, we need to have the right 
mix and quality of personnel internal to Army Medicine. In fiscal year 
2010 and continuing into fiscal year 2011 the Army requested funding 
for programs to improve our ability to attract and retain the 
professional workforce necessary to care for our Army. Our use of 
civilian hiring incentives (Recruiting, Retention, and Relocation) 
increased in fiscal year 2010 by $90 million and should increase by an 
additional $30 million in fiscal year 2011. In fiscal year 2011, 
civilian hiring incentives will equate to 4.8 percent of total civilian 
pay. We have instituted and funded civilian recruiting programs at the 
MEDCOM, regional, and some local levels to seek qualified healthcare 
professionals. For our military workforce, we are continuing our 
successful special salary rates, civilian nurse loan repayment 
programs, and civilian education training programs. Additionally, our 
Health Professional Scholarship Program and loan repayments will 
increase in fiscal year 2010 by $26 million and continue into fiscal 
year 2011. This program supports 1,890 scholarships and 600 
participants in loan repayments--it is as healthy a program as it has 
ever been. Let me point out that our ability to educate and train from 
within the force--through physician, nursing, administrative, medic and 
other programs in professional education--is a vital capability which 
we cannot permit to be degraded or lost altogether. In addition to 
providing essential enculturation for a military healthcare provider, 
administrator and leader, these programs have proven to be critical for 
our retention of these professionals who are willing to remain in 
uniform, to deploy in harm's way and to assume many onerous duties and 
assignments in exchange for education in some of the Nation's best 
programs. Army and Military Graduate Medical, Dental, Nursing and other 
professional education has undoubtedly played a major role in our 
remaining a viable force this far into these difficult conflicts.
    The theme of evidence-based practice runs through everything we do 
in Army Medicine and is highlighted throughout our Balanced Scorecard. 
Evidence-based practices mean integrating individual clinical expertise 
with the best available external clinical evidence from systematic 
research. Typical examples of evidence-based practices include 
implementation of clinical practice guidelines and dissemination of 
best practices. I encourage my commanders and subordinate leaders to be 
innovative, but across Army Medicine we Balance Innovation with 
Standardization so that all of our patients are receiving the best care 
and treatment available. Standardization efforts include:
  --The MEDCOM AHLTA Provider Satisfaction (MAPS) initiative.
  --Care of combat casualties through the Joint Theater Trauma System 
        (JTTS), enabled by the use of a Joint Theater Trauma Registry 
        (JTTR)--both of which I will discuss further below--which 
        examines every casualty's care and outcome of that care, 
        including en route care during medical evacuation (MEDEVAC) 
        with an eye toward standardizing care around the best 
        practices.
  --The Virtual Behavioral Health Pilot (aka Comprehensive Behavioral 
        Health Integration) being conducted at Schofield Barracks and 
        Fort Richardson.
  --Our initiative to reduce Ventilator Associated Pneumonia events in 
        our ICUs by adopting not only industry best practices, but 
        sending out an expert team of MEDCOM professionals to evaluate 
        our own best practices and barriers to success.
  --Our standardized events-driven identification and management of 
        mild TBI/concussion on the battlefield coupled with early 
        diagnosis and treatment of Post-Traumatic Stress Reactions/
        Acute Stress Reactions as close in time and space to the events 
        which lead to these reactions.
    Programs which are in the process of maturing into best practices 
for more widespread dissemination are:
  --The Confidential Alcohol Treatment & Education Pilot (CATEP).
  --The standardized and now automated Comprehensive Transition Plan 
        for Warriors In Transition in our WTUs and CBWTUs.
  --A standardized program to ``build trust in Army Medicine'' through 
        hospitality and patient/client/customer service in our medical, 
        dental, and veterinary treatment facilities and throughout the 
        MEDCOM.
  --Standardized support of our Active, National Guard, and Reserve 
        forces engaged in the reiterative, cyclic process of the Army 
        Force Generation Model (ARFORGEN) including but not restricted 
        to preparation for combat medics and medical units, Soldier 
        Readiness Processing of deploying units, ensuring full medical 
        readiness of the force, restoration of dental and behavioral 
        health upon redeployment, support of the total Army Family 
        while Soldiers are deployed, and provision of healthcare for 
        mobilized and demobilizing Reserve Component Soldiers and their 
        Families.
    These and many other standardized efforts reflect a change in how 
we do the business of Army Medicine. We can no longer pride ourselves 
on engaging in a multiplicity of local ``science projects'' being 
conducted in a seemingly random manner by well-meaning and creative 
people but without a focus on added value, standard measures of 
improved outcomes, and sustainability of the product or process. Even 
the remarkably agile response to the behavioral health needs-assessment 
and ongoing requirements at Fort Hood following the tragic shooting 
were conducted in a very deliberate and effective fashion which 
emphasized unity of command and control, alignment of all efforts and 
marshalling of resources to meet a well-crafted and even exportable 
community behavioral health plan.
    The emphasis which Army Medicine leaders have placed on 
disciplining these innovative measures so as to harvest best practices, 
subject them to validation at other sites, and rapidly proliferate them 
across the MEDCOM and Army in a standard fashion has been remarkable. 
It is the essence of Optimizing Communication and Knowledge Management.
    Many of our goals, internal processes and enablers, and resource 
investments are focused on the knowledge hierarchy: collecting data; 
coalescing it into information over time and space; giving it context 
to transform it into knowledge; and applying that knowledge with 
careful outcome measures to achieve wisdom. This phenomenon of guiding 
clinical management by the emergence of new knowledge is perhaps best 
represented by Dr. Denis Cortese, former President and Chief Executive 
Officer of the Mayo Clinic. He laid out this schematic earlier this 
year after participating in a set of workshops which centered on 
healthcare reform. We participated to explore how the Federal system of 
care might contribute to these changes in health improvement and 
healthcare delivery.
    What Dr. Cortese depicted is a three-domain ideal representation of 
healthcare delivery and its drivers. We share this vision of how an 
ideal system should operate. His notion is that this system of care 
should focus on optimizing individual health and healthcare needs, 
leveraging the knowledge domain to drive optimal clinical practices. 
This transition from the knowledge domain to the care delivery domain 
now takes 17 years. The clinical practice domain then informs and 
drives the payer domain to remunerate for effective clinical outcomes. 
What occurs too often today is what I call ``widget-building'' or 
``turnstile'' medical care which chases remuneration for these 
encounters--too often independent of whether it is the best treatment 
aimed at the optimal outcome. To transform from a healthcare system to 
a system for health, we need to change the social contract. No longer 
should we be paid for building widgets (number of clinic visits or 
procedures), rather, we should be paid for preventing illness and 
promoting healthy lifestyles. And when bad things happen to good 
people--which severe illness and injury and war continuously challenge 
us with--we should care for these illnesses, injuries and wounds by the 
most advanced evidence-based practices available, reducing unwarranted 
variation in practice whenever possible.
    Our Military Health System is subtly different in that we have two 
practice domains--garrison and battlefield. Increasingly, we leverage 
the clinical domain to provide feedback into the knowledge domain--with 
the help of the electronic health record--AHLTA--and specialized 
databases. We do this in real time and all under the umbrella of the 
regulatory domain which sets and enforces standards.
    The reengineering of combat trauma care borne of rapid turnaround 
of new-found, data-driven knowledge to new materiel and doctrinal 
solutions is one of the premier examples of this concept. The simplest 
example is our continuous re-evaluation of materials and devices 
available to Soldiers, combat life savers, combat medics and the trauma 
team at the point of injury and in initial trauma management and the 
intellectual framework for their application to rapidly improve 
outcomes from combat-injured Warriors.
    After making the first major change in 40 years to the field 
medical kit--the Improved First Aid Kit (IFAK)--we have modified the 
contents of the kit at least three times since May 2005 based upon 
ongoing reviews of the effectiveness of the materials and head-to-head 
comparisons to competing devices or protocols. In like fashion, we have 
modified protocols for trauma management through active in-theater and 
total systemic analyses of the clinical outcomes deriving from the use 
of materials and protocols.
    The specialized system in this endeavor is a joint and inter-agency 
trauma system which creates the equivalent of a trauma network 
available for a major metropolitan area or geographic region in the 
United States but spread across three continents, 8000 miles end-to-
end--the Joint Theater Trauma System (JTTS). Staffed and led by members 
of the Army, Navy, Marine Corps and Air Force, it is truly a joint 
process. It is centered on the U.S. Army Institute of Surgical Research 
in San Antonio, Texas. The specialized database in this effort and an 
essential element of the JTTS is the Joint Theater Trauma Registry 
(JTTR)--a near-comprehensive standardized database which has been 
developed for each casualty as soon as possible in the treatment 
evacuation chain--usually at level II or III healthcare in theater. One 
of the most important critical applications of the JTTS and JTTR at 
present is the ongoing analysis of MEDEVAC times and the casualties 
being managed during evacuation. This is our effort to minimize the 
evacuation time for casualty in a highly dispersed force which is 
subjected in Afghanistan to the ``tyranny of terrain and weather.''
    The decisions about where and how many trauma teams should be 
placed around the theater of operation as well as where to place 
MEDEVAC crews and aircraft is a delicate balancing act--one which 
balances the risk of putting care providers and MEDEVAC crews and 
helicopters at risk to the enemy and the elements with the risk of loss 
of life and limb to Warriors whose evacuation may be excessively 
prolonged. The only way to fully understand these competing risks is to 
know the outcomes of care and evacuation by injury type across a wide 
range of MEDEVAC missions. This analysis will help us understand if we 
still require a ``Golden Hour'' for every casualty between initial 
management at the point of injury and arrival at a trauma treatment 
site (like an Army Forward Surgical Team, the Marine Forward 
Resuscitative Surgical System or a Combat Support Hospital) or whether 
we now have a ``Platinum 15 Minutes'' at the point of injury which 
extends the Golden Hour.
    This methodology and these casualty data are being applied to the 
next higher level of inquiry: how do we prevent injury and death of our 
combatants from wounds and accidents at the point of potential injury? 
Can we design improved helmets, goggles, body armor, vehicles and 
aircraft to prevent serious injuries? These questions are answered not 
only through the analysis of wound data, both survivable and non-
survivable, through the JTTS and data from the virtual autopsy program 
of the Office of the Armed Forces Medical Examiner, but also by 
integrating these data with information from the joint operational, 
intelligence, and materiel communities to enable the development of 
improved tactics, techniques, and procedures and materiel improvements 
to protective equipment worn by the Warriors or built into the vehicles 
or aircraft in which they were riding. This work is performed by the 
Joint Trauma Analysis and Prevention of Injury in Combat program, a 
component of the DOD Blast Injury Research Program directed by the 
National Defense Authorization Act for 2006. To date it has been an 
effective means of improving the protection of Warriors and preventing 
serious injury and death even as the enemy devises more lethal and 
adaptive weapons and battlefield tactics, techniques, and procedures.
    We in Army Medicine are applying these knowledge management tools 
and approaches to the improvement of health and the delivery of 
healthcare back home as well. We are coupling these knowledge 
management processes with a funding strategy which incentivizes our 
commanders and clinicians to balance productivity--providing episodes 
of care--with optimal outcome: the right kind of prevention and care.
    Among our greatest team achievements in 2009 was our effort to 
better understand how we communicate effectively with our internal and 
external stakeholders, patients, clients and customers. We adopted a 
formal plan to align our messages--ultimately all tied to Army goals 
and those on our Balanced Scorecard. Our creation of a Strategic 
Communications Directorate to ensure alignment of our key messages, to 
better understand and use social media, to expedite cross-talk and 
learning among such diverse groups as the Office of Congressional 
Liaison, Public Affairs, Protocol, Medical History, the Borden 
Institute, the AMEDD Regiment and others speaks directly to these 
efforts.
    While we are still in the ``advanced crawl/early walk'' phase of 
knowledge management, we know from examples such as the Joint Theater 
Trauma System and the Performance Based Budget Model that we can move 
best practices and newly found evidence-based approaches into common or 
widespread use if we aggressively coordinate and manage our efforts and 
promote transparency of data and information and the knowledge which 
derives from it. We have begun a formal process under the Strategy and 
Innovation Directorate to move the best ideas in both clinical and 
transactional processes into standard practices across the MEDCOM in a 
timely way. This will be achieved through a process to identify, 
validate, and transfer best practices. We endeavor to be more agile and 
adaptive in response to a rapidly changing terrain of U.S. and Federal 
healthcare and operational requirements for a Nation at war.
    In closing, I am very optimistic about the next 2 years. We have 
weathered some serious challenges to trust in Army Medicine. Logic 
would not predict that we would be doing as well as we are in 
attracting, retaining and career developing such a talented team of 
uniformed and civilian medical professionals. However, we continue to 
do so year after year--a tribute to all our Officer Corps, the 
leadership of our Non-Commissioned Officers, and our military and 
civilian workforce. The results of our latest Medical Corps Graduate 
Medical Education Selection Board and the Human Capital Distribution 
Plan show continued strength and even improvements over past years. The 
continued leadership and dedicated service of officers, non-
commissioned officers, and civilian employees are essential for Army 
Medicine to remain strong, for the Army to remain healthy and strong, 
and for the Nation to endure. I feel very privileged to serve with the 
men and women of Army Medicine during this historic period as Army 
Medics, as Soldiers, as Americans and as global citizens.
    Thank you for holding this hearing and your unwavering support of 
the Military Health System and Army Medicine. I look forward to working 
with you and your staff and addressing any of your concerns or 
questions.

    Chairman Inouye. And now may I call upon General Green.
STATEMENT OF LIEUTENANT GENERAL (DR.) CHARLES B. GREEN, 
            SURGEON GENERAL, DEPARTMENT OF THE AIR 
            FORCE
    General Green. Chairman Inouye, Vice Chairman Cochran--
    Thank you, sir. I'm new at this, and please forgive me.
    Chairman Inouye, Vice Chairman Cochran, and distinguished 
members of the subcommittee, it's an honor and a privilege to 
appear before you representing the Air Force Medical Service. I 
look forward to working with you, and pledge to do all in my 
power to support the men and women of our Armed Forces and this 
great country. Thank you for your immeasurable contributions to 
the success of our mission.
    ``Trusted Care Anywhere'' is our vision for 2010 mission 
and beyond. Our nearly 60,000 total force medics contribute 
world-class medical capabilities to Air Force, joint, and 
coalition teams. Over 1,600 Air Force medics are currently 
deployed to 40 locations in 20 countries, delivering state-of-
the-art preventive medicine, rapid lifesaving care, and 
critical-care air evacuation. At home, our healthcare teams 
assure patient-centered care to produce healthy and resilient 
airmen and provide families and retirees with full-spectrum 
healthcare.
    Our success on the battlefield underscores our ability to 
provide ``Trusted Care Anywhere.'' Since 2001, we have air-
evacuated more than 70,000 patients from Afghanistan and Iraq. 
We have lost only four patients, and one dog. Joint and 
coalition medical teams have achieved a less than 10 percent 
died of wounds rate, the best survival rate in the history of 
war.
    In July, a British soldier sustained multiple gunshot 
wounds in Afghanistan. He was stabilized by medical teams on 
the ground, who replaced his blood more than 10 times and 
removed an injured lung. It took two airplanes, three aircrews 
to get the medical team and equipment in place, and another 
aircraft to fly the patient to Germany. Every member of the 
joint casualty care and air evacuation team selflessly gave 
their all to ensure this soldier received the critical care and 
compassionate support required. This was the first known 
successful air evacuation of a patient with a traumatic lung 
removal. The patient is doing well in Birmingham, England, 
today.
    In January 2010, a U.S. marine sustained dislocation of 
both knees, with loss of blood flow to his lower legs following 
an improvised explosive device (IED) attack in the Helmand 
Province. Casualty evacuation delivered the marine to our 
British partners at Camp Bastion, where surgeons restored blood 
flow to both legs, using temporary shunt procedures that our 
surgeons had shared in surgical journals. The marine was 
further evacuated to Craig Joint Theater Hospital at Bagram, 
where Air Force surgeons performed definitive vascular 
reconstruction. The marine is now recovering at National Naval 
Medical Center and is expected to have fully functional limbs.
    These success stories are possible only because of the 
tireless efforts of Air Force, Army, Navy, and coalition medics 
to continuously improve our care.
    Air Force medics are responding globally in humanitarian 
missions as well as on the battlefield. Over the last 6 months, 
we contributed significant support in Indonesia, to the 
treatment and evacuation of Haiti earthquake victims, and now 
have another expeditionary medical system (EMEDS) that should 
be arriving in Chile today.
    The Air Force Special Operations Command had 47 medics on 
the ground within 12 hours following the Haiti disaster, 
performing site assessments, preventive public health measures, 
and delivering lifesaving care. And Air Force EMEDS continues 
to coordinate care in Haiti today.
    At home, we're improving our patient and provider 
satisfaction through our patient-centered medical home, 
building strong partnerships between patients and their 
healthcare teams. We are seeing improved performance in 
healthcare continuity, in quality, access, and patient 
satisfaction, based on our medical-home efforts. We recognize 
the high OPSTEMPO and have identified high-risk groups to 
target interventions and training, improving both airmen and 
family resilience. Collaborative care, in the form of mental 
health providers embedded in our family health clinics is 
present at the majority of Air Force treatment facilities 
today.
    To achieve our vision of ``Trusted Care Anywhere,'' we 
require highly trained, current, and qualified providers. We 
are extremely grateful to this subcommittee for your many 
efforts to strengthen our recruiting and retention programs. 
Your support, in particular, for the Health Profession 
Scholarship Program, the Uniformed Services University, and 
other retention initiatives is making a huge difference.
    We are also indebted to private sector and Federal 
partners, who help us maximize resources, leverage new 
capabilities, and sustain clinical currency. Our research 
partners, with universities and private industry, ensure U.S. 
forces benefit from the latest medical technologies and 
clinical advancements, and research and regenerative medicine, 
directed energy, improved diabetes prevention and treatment, 
and state-of-the-art medical informatics shapes the future and 
allows Air Force medics to implementation innovative solutions.
    Our Centers for the Sustainment of Trauma and Readiness 
Skills at St. Louis University, University of Maryland, 
Baltimore Shock Trauma, and University of Cincinnati College of 
Medicine are all superb examples of what we can achieve through 
partnerships.
    We also actively partner with the VA to meet beneficiary 
needs, and now have five joint ventures, including Keesler Air 
Force Base, Mississippi, and soon will open our sixth, with the 
standup at Buckley Air Force Base, Colorado.

                           PREPARED STATEMENT

    The Air Force Medical Service is committed to the health 
and wellness of all entrusted to our care. We are, as our Chief 
says, all in to meet our Nation's call, and we will achieve our 
vision through determined, continuous improvement. We could not 
achieve our goals of better readiness, better health, better 
care, and best value for our heroes and their families without 
your support.
    Thank you, sir.
    Chairman Inouye. I thank you very much.
    [The statement follows:]
       Prepared Statement of Lieutenant General Charles B. Green
    ``Trusted Care Anywhere'' is the Air Force Medical Service's vision 
for 2010 and beyond. In the domain of Air, Space and Cyberspace, our 
medics contribute to the Air Force, Joint, and coalition team with 
world class medical capabilities. Our 60,000 high performing Total 
Force medics around the globe are trained and ready for mission 
success. Over 1,600 Air Force medics are now deployed to 40 locations 
in 20 countries, building partnership capability and delivering state 
of the art preventive medicine, rapid life-saving care, and critical 
air evacuation. In all cases, these efforts are conducted with joint 
and coalition partners. At home, our healthcare teams assure patient-
centered care to produce healthy and resilient Airmen, and provide our 
families and retirees with full spectrum healthcare.
    Today's focus is on world-class healthcare delivery systems across 
the full spectrum of our operations. From theater hospitals in Balad 
and Bagram, to the efforts of humanitarian assistance response teams, 
to the care of our families at home, we put patients first. We are 
transforming deployable capabilities, building patient-centered care 
platforms, and investing in our people, the foundation of our success. 
We are expanding collaboration with joint and coalition partners to 
collectively strengthen rapid response capabilities. Globally, Air 
Force medics are diligently working to balance the complex demands of 
multiple missions in current and expanding areas of operations.
    We are committed to advancing capabilities through education and 
training, research, and infrastructure recapitalization. Recent efforts 
in these areas have paid huge dividends, establishing new standards in 
virtually every major category of full spectrum care including 
humanitarian assistance. The strategic investments assure a trained, 
current, and deployable medical force today and tomorrow. They 
reinforce a culture of learning to quickly adapt medical systems and 
implement agile organizations to produce healthier outcomes in diverse 
mission areas.
    While we've earned our Nation's trust with our unique capabilities 
and the expertise of our people, we constantly seek to do better! I 
would like to highlight our areas of strategic focus and share some 
captivating examples of Air Force medics in action.
    transforming expeditionary medicine and aeromedical evacuation 
                              capabilities
    Our success on the battlefield underscores our ability to provide 
``Trusted Care, Anywhere.'' The joint and coalition medical teams bring 
wounded warriors from the battlefield to an operating room within an 
unprecedented 20 to 40 minutes! This rapid transfer rate enables medics 
to achieve a less than 10 percent died-of-wounds rate, the best 
survival rate ever seen in war.
    In late July, a British soldier sustained multiple gunshot wounds 
in Afghanistan. After being stabilized by medical teams on the ground, 
who replaced his blood supply more than 10 times, doctors determined 
the patient had to be moved to higher levels of care in Germany. It 
took two airplanes to get the medical team and equipment in place, 
another aircraft to fly the patient to Germany, three aircrews and many 
more personnel coordinating on the ground to get this patient to the 
next level of care. Every member of the joint casualty care and 
aeromedical evacuation teams selflessly gave their all to ensure this 
soldier received the compassionate care he deserved. After landing 
safely at Ramstein Air Base in Germany, the soldier was flown to 
further medical care at a university hospital by helicopter. This case 
highlights the dedication and compassion our personnel deliver in the 
complex but seamless care continuum. This tremendous effort contributes 
to our unprecedented survival rate.
    As evidenced in this story, our aeromedical evacuation system (AE) 
and critical care air transport teams (CCATT) are world-class. We 
mobilize specially trained flight crews and medical teams on a moment's 
notice to transport the most critical patients across oceans. Since 
November 2001, we have transported more than 70,000 patients from 
Afghanistan and Iraq.
    We are proud of our accomplishments to date, but strive for further 
innovation. As a result of battlefield lessons learned, we have 
recently implemented a device to improve spinal immobilization for AE 
patients that maximizes patient comfort and reduces skin pressure. We 
are working toward an improved detection mechanism for compartment 
syndrome in trauma patients. The early detection and prevention of 
excess compartment pressure could eliminate irreversible tissue damage 
for patients. In February 2010, a joint Air Force and Army team will 
begin testing equipment packages designed to improve ventilation, 
oxygen, fluid resuscitation, physiological monitoring, hemodynamic 
monitoring and intervention in critical care air transport.
             information management/information technology
    Our Theater Medical Information Program Air Force (TMIP AF) is a 
software suite that automates and integrates clinical care 
documentation, medical supplies, equipment, and patient movement. It 
provides the unique capabilities for in-transit visibility and 
consolidated medical information to improve command and control and 
allow better preventive surveillance at all Air Force deployed 
locations. This is a historic first for the TMIP AF program.
    Critical information is gathered on every patient, then entered 
into the Air Force Medical Service (AFMS) deployed system. Within 24 
hours, records are moved and safely stored at secure consolidated 
databases in the United States. During the first part of 2010, TMIP AF 
will be utilized in Aeromedical Evacuation and Air Force Special 
Operations areas.
           expeditionary medicine and humanitarian assistance
    We have also creatively developed our Humanitarian Assistance Rapid 
Response Team (HARRT), a Pacific Command (PACOM) initiative, to 
integrate expeditionary medical systems and support functions. The 
HARRT provides the PACOM Commander with a rapid response package that 
can deploy in less than 24 hours, requires only two C-17s for transport 
and can be fully operational within hours of arrival at the disaster 
site. This unique capability augments host nation efforts during the 
initial stages of rescue/recovery, thus saving lives, reducing 
suffering, and preventing the spread of disease. So far, HARRT 
successfully deployed on two occasions in the Pacific. Efforts are 
underway to incorporate this humanitarian assistance and disaster 
relief response capability into all AFMS Expeditionary Medical System 
(EMEDS) assets.
    Air Force medics contribute significant support to the treatment 
and evacuation of Haiti earthquake victims. The Air Force Special 
Operations Command sent 47 medics to support AFSOC troops on the ground 
within 12 hours following the disaster to perform site assessments, 
establish preventive public health measures, and deliver life-saving 
trauma care to include surgical and critical care support. This team 
was also instrumental in working with Southern Command and 
Transportation Command to establish a patient movement bridge 
evacuating individuals from Haiti via air transport.
    As part of the U.S. Air Force's total force effort, we sent our 
EMEDS platform into Haiti and rapidly established a 10-bed hospital to 
link the hospital ship to ground operations. The new EMEDS includes 
capabilities for pediatrics, OB/GYN and mental health. Personnel from 
five Air Force medical treatment facilities (MTFs) are supporting 
Operation Unified Response, as well as volunteers from the Air Reserve 
Forces.
 build patient-centered care and focus on prevention to optimize health
    We are committed to achieving the same high level of trust with our 
patients at home through our medical home concept. Medical home 
includes initiatives to personalize care, and to improve health and 
resilience. We are also working hard to optimize our operations, reduce 
costs and improve patient access. We partner with our Federal and 
civilian colleagues to continuously improve care to all our 
beneficiaries.
Family Health Initiative
    To achieve better health outcomes for our patients, we implemented 
the Family Health Initiative (FHI). FHI mirrors the American Academy of 
Family Physicians' ``Patient Centered Medical Home'' concept and is 
built on the team-approach for effective care delivery. The partnership 
between our patients and their healthcare teams is critical to create 
better health and better care via improved continuity, and reduce per 
capita cost.
    Our providers are given full clinical oversight of their care teams 
and are expected to practice to the full scope of their training. We 
believe the results will be high quality care and improved professional 
satisfaction. Two of our pilot sites, Edwards AFB, CA, and Ellsworth 
AFB, SD, have dramatically improved their national standings in 
continuity, quality, access to care, and patient satisfaction. Eleven 
other bases are implementing Medical Home, with an additional 20 bases 
scheduled to come on-line in 2010.
    We are particularly encouraged by the results of our patient 
continuity data in Medical Home. Previous metrics showed our patients 
only saw their assigned provider approximately 50 percent of the time. 
At Edwards and Ellsworth AFBs, provider continuity is now in the 80-90 
percent range.
    We still have work to do, such as developing improved decision 
support tools, case management support, and improved training. 
Implementing change of this size and scope requires broad commitment. 
The Air Force Medical Service has the commitment and is confident that 
by focusing on patient-centered care through Medical Home, we will 
deliver exceptional care in the years ahead.
    The Military Health System's Quadruple Aim of medical readiness, 
population health, experience of care and per capita cost serves us 
well. Patient safety remains central to everything we do. By focusing 
on lessons learned and sharing information, we continually strive to 
enhance the safety and quality of our care. We share our clinical 
lessons learned with the Department of Defense (DOD) Patient Safety 
Center and sister Services. We integrate clinical scenarios and lessons 
learned into our simulation training. We securely share de-identified 
patient safety information across the Services through DOD's web-based 
Patient Safety Learning Center to continuously improve safety.
Improving Resilience and Safeguarding the Mental Health of Our Airmen
    Trusted care for our beneficiaries includes improving resilience 
and safeguarding their mental health and well-being. We are engaged in 
several initiatives to optimize mental health access and support.
    Air Force post-deployment health assessment (PDHA) and post-
deployment health re-assessment (PDHRA) data indicates a relatively low 
level of self-reported stress. However, about 20-30 percent of service 
members returning from OIF/OEF deployments report some form of 
psychological distress. The number of personnel referred for further 
evaluation or treatment has increased from 25 percent to 50 percent 
over the past 4 years, possibly reflecting success in reducing stigma 
of seeking mental health support. We have identified our high-risk 
groups and can now provide targeted intervention and training.
    We recently unveiled ``Defenders Edge,'' which is tailored to 
security forces Airmen who are deploying to the most hostile 
environments. This training is intended to improve Airmen mental 
resiliency to combat-related stressors. Unlike conventional techniques, 
which adopt a one-on-one approach focusing on emotional vulnerability, 
``DEFED'' brings the mental health professional into the group 
environment, assimilating them into the security forces culture as 
skills are taught.
    Airmen who are at higher risk for post traumatic stress are closely 
screened and monitored for psychological concerns post-deployment. If 
treatment is required, these individuals receive referrals to the 
appropriate providers. In addition to standard treatment protocols for 
post traumatic stress disorder (PTSD), Air Force mental health 
professionals are capitalizing on state-of-the-art treatment options 
using Virtual Reality. The use of a computer-generated virtual Iraq in 
combination with goggles, headphones, and a scent machine allow service 
members to receive enhanced prolonged exposure therapy in a safe 
setting. In January 2009, 32 Air Force Medical Service therapists 
received Tri-Service training in collaboration with the Defense Center 
of Excellence at Madigan Army Medical Center. The system was deployed 
to eight Air Force sites in February 2009 and is assisting service 
members in the treatment of PTSD.
    Future applications of technology employing avatars and virtual 
worlds may have multiple applications. Service member and family 
resiliency will be enhanced by providing pre- and post-deployment 
education; new parent support programs may offer virtual parent 
training; and family advocacy and addiction treatment programs may 
provide anger management, social skills training, and emotional and 
behavioral regulation.
Rebuilding Our Capabilities by Recapturing Care and Reducing Costs
    Our patients appropriately expect AFMS facilities and equipment 
will be state-of-the art and our medical teams clinically current. They 
trust we will give them the best care possible. We are upgrading our 
medical facilities and rebuilding our capabilities to give patients 
more choice and increase provider satisfaction with a more complex case 
load. In our larger facilities, we launched the Surgical Optimization 
Initiative, which includes process improvement evaluations to improve 
operating room efficiency, enhance surgical teamwork, and eliminate 
waste and redundancy. This initiative resulted in a 30 percent increase 
in operative cases at Elmendorf AFB, Alaska, and 118 percent increase 
in neurosurgery at Travis AFB, California.
    We are engaged in an extensive modernization of Wright-Patterson 
Air Force Base Medical Center in Ohio with particular focus on surgical 
care and mental health services. We are continuing investment in a 
state-of-the-art new medical campus for SAMMC at Lackland AFB, TX. Our 
ambulatory care center at Andrews AFB, MD, will provide a key 
capability for the delivery of world-class healthcare in the National 
Capital Region's multi-service market.
    By increasing volume, complexity and diversity of care provided in 
Air Force hospitals, we make more care available to our patients; and 
we provide our clinicians with a robust clinical practice to ensure 
they are prepared for deployed operations, humanitarian assistance, and 
disaster response.
Partnering With Our Private Sector and Federal Partners
    Now more than ever, collaboration and cooperation with our private 
sector and Federal partners is key to maximizing resources, leveraging 
capabilities and sustaining clinical currency. Initiatives to build 
strong academic partnerships with St. Louis University, Wright State 
University (Ohio); University of Maryland; University of Mississippi; 
University of Nebraska-Lincoln; University of California-Davis and 
University of Texas-San Antonio, among others, bolster research and 
training platforms and ultimately, ensures a pipeline of current, 
deployable medics to sustain Air Force medicine.
    Our long history of collaborating with the Veterans Administration 
(VA) also enhances clinical currency for our providers, saves valuable 
resources, and provides a more seamless transition for our Airmen as 
they move from active duty to veteran status. The Air Force currently 
has five joint ventures with the VA, including the most recent at 
Keesler AFB, MS. Additional efforts are underway for Buckley AFB, CO, 
to share space with the Denver VA Medical Center, which is now under 
construction.
    The new joint Department of Defense-Veterans Affairs disability 
evaluation system pilot started at Malcolm Grow Medical Center at 
Andrews AFB, MD in November 2007. It was expanded to include Elmendorf 
AFB, AK; Travis AFB, CA and Vance AFB, OK; and MacDill AFB, FL, in May 
2009. Lessons learned are streamlining and expediting disability 
recovery and processing, and creating improved treatment, evaluation 
and delivery of compensation and benefits. The introduction of a single 
comprehensive medical examination and single-sourced disability rating 
was instrumental to improving the process and increasing the 
transparency. Services now allow members to see proposed VA disability 
ratings before separation.
    We continue to work toward advances in the interoperability of the 
electronic health record. Recent updates allow near real-time data 
sharing between DOD and Veterans Affairs providers. Malcolm Grow 
Medical Center, Wright-Patterson Medical Center, and David Grant 
Medical Center are now using this technology, with 12 additional Air 
Force military treatment facilities slated to come online. New system 
updates will enhance capabilities to share images, assessment reports, 
and data. All updates are geared toward producing a virtual lifetime 
electronic record and a nationwide health information network.
                      year of the air force family
    This is the ``Year of the Air Force Family,'' and we are working 
hand in hand with Air Force personnel and force management to ensure 
our Exceptional Family Member Program (EFMP) beneficiaries receive the 
assistance they need.
    In September 2009, the Air Force sponsored an Autism Summit where 
educational, medical, and community support personnel discussed 
challenges and best practices. In December 2009, the Air Force Medical 
Service provided all Air Force treatment facilities with an autism tool 
kit. The kit provided educational information to providers on diagnosis 
and treatment. Also, Wright-Patterson AFB, OH is partnering with 
Children's Hospital of Ohio in a research project to develop a 
comprehensive registry for autism spectrum disorders, behavioral 
therapies, and gene mapping.
    The Air Force actively collaborates with sister Services and the 
Defense Center of Excellence for Psychological Health and Traumatic 
Brain injury (DCoE) to offer a variety of programs and services to meet 
the needs of children of wounded warriors. One recent initiative was 
the ``Family Connections'' website with ``Sesame Street''-themed 
resources to help children cope with deployments and injured parents. 
In addition, DOD-funded websites, such as afterdeployment.org, 
providing specific information and guidance for parents/caregivers to 
understand and help kids deal with issues related to deployment and its 
aftermath.
    Parents and caregivers also consult with their child's primary care 
manager, who can help identify issues and refer the child for care when 
necessary. Other resources available to families include counseling 
through Military OneSource, Airman and Family Readiness Centers, 
Chaplains, and Military Family Life Consultants--all of whom may refer 
the family to seek more formal mental health treatment through 
consultation with their primary care manager or by contacting a TRICARE 
mental health provider directly.
       investing in our people: education, training, and research
Increased Focus on Recruiting and Retention Initiatives
    To gain and hold the trust of our patients, we must have highly 
trained, current, and qualified providers. To attract those high 
quality providers in the future, we have numerous efforts underway to 
improve recruiting and retention.
    We've changed our marketing efforts to better target recruits, such 
as providing Corps-specific DVDs to recruiters. The Health Profession 
Scholarship Program remains vital to attracting doctors and dentists, 
accounting for 75 percent of these two Corps' accessions. The Air Force 
International Health Specialist program is another successful program, 
providing Air Force Medical Service personnel with opportunities to 
leverage their foreign language and cultural knowledge to effectively 
execute and lead global health engagements, each designed to build 
international partnerships and sustainable capacity.
    The Nursing Enlisted Commissioning Program (NECP) is a terrific 
opportunity for Airmen. Several Airmen have been accepted to the NECP, 
completed degrees, and have been commissioned as Second Lieutenant 
within a year. To quote a recent graduate, 2nd Lt. April C. Barr, ``The 
NECP was an excellent way for me to finish my degree and gave me an 
opportunity to fulfill a goal I set as a young Airman . . . to be 
commissioned as an Air Force nurse.''
    For our enlisted personnel, targeted Selective Reenlistment 
Bonuses, combined with continued emphasis on quality of life, generous 
benefits, and job satisfaction have positively impacted enlisted 
recruiting and retention efforts.
Increasing Synergy to Strengthen GME and Officer/Enlisted Training
    We foster excellence in clinical, operational, joint and coalition 
partner roles for all Air Force Medical Service personnel. We are 
increasing opportunities for advanced education in general dentistry 
and establishing more formalized, tiered approaches to Medical Corps 
faculty development. Senior officer and enlisted efforts in the 
National Capital Region and the San Antonio Military Medical Center are 
fostering Tri-Service collaboration, enlightening the Services to each 
others' capabilities and qualifications, and establishing opportunities 
to develop and hone readiness skills.
    The Medical Education and Training Campus (METC) at Fort Sam 
Houston, Texas, will have a monumental impact on the Department of 
Defense and all military services. We anticipate a smooth transition 
with our moves completed by summer 2011. METC will train future 
enlisted medics to take care of our service members and their families 
and will establish San Antonio as a medical training center of 
excellence.
    Our Centers for the Sustainment of Trauma and Readiness Skills at 
St. Louis University, University of Maryland-Baltimore Shock Trauma and 
University of Cincinnati College of Medicine remain important and 
evolving training platforms for our doctors, nurses and medical 
technicians preparing to deploy. We recently expanded our St. Louis 
University training program to include pediatric trauma. Tragically, 
this training became necessary, as our deployed medics treat hundreds 
of children due to war-related violence.
    Partnerships with the University Hospital Cincinnati and 
Scottsdale, AZ, trauma hospitals allow the Air Force's nurse transition 
programs to provide newly graduated registered nurses 11 weeks of 
rotations in emergency care, cardiovascular intensive care, burn unit, 
endoscopy, same-day surgery, and respiratory therapy. These advanced 
clinical and deployment readiness skills prepare them for success in 
Air Force hospitals and deployed medical facilities, vital to the care 
of our patients and joint warfighters.
Setting Clear Research Requirements and Integrating Technology
    Trusted care is not static. To sustain this trust, we must remain 
agile and adaptive, seeking innovative solutions to shape our future. 
Our ongoing research in procedures, technology, and equipment will 
ensure our patients and warfighters always benefit from the latest 
medical technologies and clinical advancements.
    Air Force Medical Service vascular surgeons, Lieutenant Colonels 
Todd Rasmussen and William ``Darrin'' Clouse, have completed 17 
research papers since 2005 and edited the vascular surgery handbook. On 
January 10, 2009 a U.S. Marine sustained bilateral posterior knee 
dislocations with subsequent loss of blood flow to his lower legs 
following an improvised explosive device attack in the Helmand 
Province. Casualty evacuation delivered the Marine to our British 
partners at Camp Bastion, a level II surgical unit within an hour. At 
Bastion, British surgeons applied knowledge gained from combat casualty 
care research and restored blood flow to both legs using temporary 
vascular shunts. Medical evacuation then delivered the casualty to the 
455th Expeditionary Medical Group at Bagram. Upon arrival, our surgeons 
at Bagram performed definitive vascular reconstruction and protected 
the fragile soft tissue with negative pressure wound therapy. The 
Marine is currently recovering at the National Military Medical Center 
in Bethesda and is expected to have functional limbs.
    In another example, a 21-year-old Airman underwent a rare 
pancreatic autotransplantation surgery at Walter Reed Army Medical 
Center (WRAMC) to salvage his body's ability to produce insulin. The 
airman was shot in the back three times by an insurgent at a remote 
outpost in Afghanistan. The patient underwent two procedures in 
Afghanistan to stop the bleeding, was flown to Germany, then to WRAMC. 
Army surgeons consulted with University of Miami's Miller School of 
Medicine researchers on transplantation experiments. The surgeons 
decided to attempt a rare autotransplantation surgery to save the 
remaining pancreas cells. WRAMC Surgeons removed his remaining pancreas 
cells and flew them over 1,000 miles to the University of Miami Miller 
School of Medicine. The University of Miami team worked through the 
night to isolate and preserve the islet cells. The cells were flown 
back to WRAMC the next day and successfully implanted in the patient. 
The surgery was a miraculous success, as the cells are producing 
insulin.
    These two cases best illustrate the outcome of our collaborations, 
culture of research, international teamwork, innovation, and 
excellence.
Shaping the Future Today Through Partnerships and Training
    Under a new partnership with the University of Illinois at Chicago, 
we are researching directed energy force protection, which focuses on 
detection, diagnosis and treatment of directed energy devices. We are 
exploring the discovery of biomarkers related to laser eye injuries, 
development of films for laser eye protection and the development of a 
``tricorder'' prototype capable of laser detection and biomarker 
assessment. Additional efforts focus on the use and safety of laser 
scalpels and the development of a hand-held battery operated laser tool 
to treat wounds on the battlefield.
    We continue our 7-year partnership with the University of 
Pittsburgh Medical Center to develop Type II diabetes prevention and 
treatment programs for rural and Air Force communities. Successful 
program efforts in the San Antonio area include the establishment of a 
Diabetes Center of Excellence, ``Diabetes Day'' outreach specialty 
care, and efforts to establish a National Diabetes Model for diabetic 
care.
    Another partnership, with the University of Maryland Medical Center 
and the Center for the Sustainment of Trauma and Readiness Skills (C-
STARS) in Baltimore is developing advanced training for Air Force 
trauma teams. The project goal is to develop a multi-patient trauma 
simulation capability using high fidelity trauma simulators to 
challenge trauma teams in rapid assessment, task management, and 
critical skills necessary for the survival of our wounded warriors. A 
debriefing model is being developed to assist with after action reviews 
for trauma team members.
    Radio frequency technology is contributing to medical process 
improvements at Keesler AFB, MS. Currently, Keesler AFB is analyzing 
the use of automatic identification and data capture (AIDC) in AFMS 
business processes. The AIDC evaluation focuses on four main areas: 
patient tracking, medication administration, specimen tracking, and 
asset management. Further system evaluation and data collection is 
ongoing in 2010 with an expansion of AIDC use in tracking automated 
data processing equipment.
                               conclusion
    As a unique health system, we are committed to success across the 
spectrum of military operations through rapid deployability and 
patient-centered care. We are partnering for better outcomes and 
increasing clinical capacity. We are strengthening our education and 
training platforms through partnerships and scanning the environment 
for new research and development opportunities to keep Air Force 
medicine on the cutting edge.
    We will enhance our facilities and the quality of healthcare to 
ensure health and wellness of all entrusted to our care. We do all this 
with a focus on patient safety and sound fiscal stewardship. We could 
not achieve our goals of better readiness, better health, better care 
and reduced cost without your support, and so again, I thank you.
    In closing, I share a quote from our Air Force Chief of Staff, Gen. 
Norton A. Schwartz, who said, ``I see evidence every day the Medical 
Service is `All In,' faithfully executing its mission in the heat of 
the fight, in direct support of the warfighter, and of families back 
home as well.'' I know you would agree that ``All in'' is the right 
place to be.

                   CRITICAL WARFIGHTING-SKILL BONUSES

    Chairman Inouye. I have many questions here. I'd like to 
submit most of them. But, I have a few.
    This morning, I received a call from a constituent, who 
said, ``I just saw an ad that provides a bonus of $350,000 to 
anyone volunteering to serve as a doctor.'' I have no idea what 
service or where the ad was, but, General, do you have any idea 
what this is all about?

                           RECRUITING BONUSES

    General Schoomaker. No, sir, but I'll be happy to look into 
it further. We have a variety of bonus programs to bring 
medical professionals of a variety of sources--physicians----
    Chairman Inouye. What is the bonus for, say, a surgeon?
    General Schoomaker. Sir, I'll have to look into the----
    Chairman Inouye. Oh.
    General Schoomaker [continuing]. Specifics of it. It's 
dependent upon whether we're looking at loan repayment from 
earlier training or multiyear signing bonuses by specialty. 
It's pretty much shared across the three services. Maybe--I'm 
sorry, I don't have the authority to do this--but maybe one of 
my colleagues would be able to answer.
    Admiral Robinson. Senator Inouye, Mr. Chairman, I think the 
critical warfighting-skill bonuses are in the, on the order of 
about $275,000 over a 4-year period. And I may not have all of 
the numbers right. And then, there are a variety of lesser 
bonuses that fit into place. So, there's variable incentive 
pay, there's board-certified pay. There is a list of them, and 
they're utilized in general surgery, orthopaedic surgery. And 
the things that are most critical that we are seeing now are 
mental health specialists, so psychiatrists will also benefit.
    There's another level of board--or of bonus pay for 
clinical psychologists, for social workers, and also for mental 
health nurse specialists. It's much less, but there are 
incentive bonuses that are being utilized. All three services 
are utilizing--we do it a little differently, but the amounts 
are approximately the same.
    So, I do not know anything about a $350,000 bonus. But, 
again, we can look into that.
    [The information follows:]

    No, there is not currently a $350,000 bonus for ``anyone 
volunteering to serve as a doctor.'' Navy currently offers a 
Critical Wartime Skills Accession Bonus (CWSAB) for specific 
physician and dental specialties. The accession bonus depends 
on the specialty being accessed. The bonuses range from 
$220,000 to $400,000. The Navy currently authorizes CWSAB to 
General Surgery, Orthopedic Surgery, Urology, Family Medicine, 
Emergency Medicine, Psychiatry, Pulmonology, Diagnostic 
Radiology, Anesthesiology, Preventive Medicine, Oral and 
Maxillofacial Surgeons, and Comprehensive Dentists.

    Chairman Inouye. I thank you very much.
    General----
    General Green. Senator, if I may add----
    Chairman Inouye. Yes.
    General Green. I'm sorry, sir.
    Under current authorities for the multiyear retention 
bonuses can go as high as $100,000 a year. Although I am not 
familiar with the ad that you bring to our attention; however, 
I will say that, as our personnel communities look at accession 
bonuses, one of the tools they have used is to build an 
accession bonus that basically gives a lump-sum payment, but 
then, they don't necessarily receive that particular multiyear 
retention pay. So, accession bonuses could go up, technically, 
by the authorities we have, as high as $400,000, but then they 
would not receive that same pay while they were on Active Duty. 
If that helps you, sir.
    Chairman Inouye. Oh, thank you.

                  REHABILITATION FOR WOUNDED WARRIORS

    General Schoomaker, on warriors in transition, is that a 
rehab program? Because I had the good fortune to be assigned to 
Percy Jones General Hospital during World War II, and there 
they had a 10-month program that included everything from how 
to use your prosthetic appliance, driving, carpentry, 
electrical work, plumbing, musical instruments, sports, sex, 
the whole works--dining. And I felt, when I left the hospital, 
prepared for the world. Do we have any sort of rehab program 
for our men and women?
    General Schoomaker. Yes, sir. I mean, the simple answer is, 
``absolutely.'' In fact, I think, in prior conversations you 
and I have had, you shared with me the experience that you had. 
And I'm--I, frankly, have taken that on the road, frequently, 
to talk about rediscovering lessons from prior wars, what we 
had in World War II through the convalescent hospital that you 
recovered in at Battle Creek, our Valley Forge Convalescent 
Hospital during the Vietnam era. These were lessons, quite 
frankly, that, in the late 1970s and 1980s and 1990s, we 
forgot. And as we move toward a more strict definition, much 
like the civilian sector, of inpatient and outpatient medicine, 
this war and the injuries, both in battle and not, and the 
illnesses associated with it, have taught us the need to 
rediscover and to redesign intermediate rehabilitation.
    And this transition process that we have, that--most 
recently, my deputy commander--excuse me--my Assistant Surgeon 
General for Warrior Care and Transition, and the Commander of 
our Warrior Transition Command, Brigadier General Gary Cheek, a 
career artilleryman, has worked on--in association and 
collaboration with our colleagues in the Navy, the Marine 
Corps, and the Air Force, has developed a comprehensive 
transition plan--it's automated now across our 29 warrior 
transition units--and nine State-based, community-based warrior 
transition units. And it includes all of the things that you 
describe, from initial healing to longer-term recovery and 
rehabilitation, and includes the family, and is tailored to the 
individual. It has vocational elements to it, educational 
elements, and always wraps in there the family and the 
soldier's interest in either returning to duty or going out 
into productive citizenship. On average, right now, about 50 
percent of our warriors in transition actually return to duty, 
which is, I think, a substantial reinvestment of our people 
back into uniform.
    You know, I think, sir, that we have returned to duty over 
140 amputees, as an example of this, and we've sent about 40 of 
them into combat, 3 or 4 of whom have gone back into combat as 
amputees, having lost their limb not in combat, but in training 
accidents or in motor vehicle accidents. And so, we see this as 
a terrific success and a rediscovery and a recharging of the 
whole effort to transition these soldiers successfully.
    Chairman Inouye. Is this a standard program for all men and 
women in transition, or is it up to the hospital?

              WALTER REED NATIONAL MILITARY MEDICAL CENTER

    General Schoomaker. No, sir. There are criteria to get them 
into the program. We currently have approximately 9,000 
soldiers in them across these units I described; about 7,000 of 
them are within our hospitals and on campuses in our 
installations; about 2,000 are out in nine different States in 
these community-based organizations. We have some fairly good 
criteria to get them into the program, but, once into the 
program, the emphasis is in transition. It's a--an aspirational 
model that focuses on building abilities and rechanneling or 
redirecting their efforts and their interests if their former 
service and their former roles cannot be re-realized again. And 
it's in very close association with the Veterans Administration 
and other civilian rehabilitation efforts.
    Chairman Inouye. Thank you.
    Admiral Robinson, I'd like to ask a few questions relating 
to Walter Reed National Military Medical Center. The 
subcommittee has just a vague idea of what the additional 
budget will look like. We have no idea precisely as to how much 
military construction will be involved, when will it commence, 
and how much operation/maintenance will cost, how much new 
equipment. Can you give us some idea?
    Admiral Robinson. Yes, sir. I can't give you the complete 
answer that you're looking for, but I can give you a Navy 
answer, of sorts.
    The complete answer has to be contained in the JTF CAPMED 
comprehensive master plan for the facility. And then, when that 
occurs, we can have, I think, an understanding of what 
requirements will be necessary for the facilities--whatever 
increased additional cost there will be for facilities at the 
Walter Reed National Military Medical Center.
    As I sit today, there is a very--I call, a nonrobust number 
of about, perhaps, $750 or $800 million that is being projected 
to be needed in order to finish that construction, but I think 
that we'll really need to wait, because that's not a very good 
requirements-based analysis, as I sit now.
    So, I think the first answer is the research--or, the 
comprehensive master plan.
    The second portion is, in terms of the building that is 
occurring now, the Base Realignment and Closure Commission 
(BRAC) has funded us completely for new construction, and 
that's been fine, and that's worked well. BRAC, as you know, 
did not fund any renovation. And the problems that have 
occurred have been that we're building a wonderful and state-
of-the-art facility, but we're attaching it to a 1982 
constructed building. It's a very good building, it's a very 
fine building; but it's 2010, so it's a building from another 
era. The renovation that is going to occur was not part of the 
BRAC funding, so Navy has taken that up, and we are working 
hard and will fund the renovation.
    Sequencing it and getting it all done is the major element 
now, because we don't think that we will be able to get all of 
the renovation done by the opening date of September 2011 at 
the Walter Reed National Military Medical Center. We do not 
feel that that will decrease the timeline on the opening of the 
new medical center, but we do think that there will be more 
work to be done on the renovation side of the building.
    And the third thing is, there are many definitions that are 
now running around regarding what makes the proper facilities 
commitment and what makes the proper ``world-class''--which is 
the word I'm getting to--there are many definitions of what 
that could be, and I'm not sure exactly what that means.
    In terms of quality of care, in terms of satisfaction with 
care, in terms of ability to give care comprehensively, we 
already feel that we are at a world-class level. If ``world-
class'' is defined from a facilities point of view, that means 
square footage of operating rooms or square footage of single-
family or single-patient rooms, then there will be more work 
that has to be done.
    I think that that definition of ``world-class'' needs to be 
placed in a very careful place, because ``world-class'' at the 
National Naval Medical Center or Walter Reed National Military 
Medical Center will automatically be translated to ``world-
class'' in the military health system for Army, for Air Force, 
for Navy, and that will be CONUS and OCONUS facilities. So, I 
think that how we define ``world-class'' can't be defined just 
for one facility, it's going to need to be defined for the MHS. 
Keeping that in mind as we do this, I think, is important.
    Chairman Inouye. In terms of dollars, how much is involved?
    Admiral Robinson. Sir, at this point, the buildings--and, 
forgive me, I don't do this on a daily basis, but I think we're 
at the $1.5 billion level, in terms of facilities, but I think 
that the addition that will be needed is truly unclear at this 
moment. The additional funding that we--that is being talked 
about by the JTF CAPMED is in the $800 million range, but I 
don't think that that is a number that--I don't think that is 
the end number, and I don't think--I don't know the analysis 
behind that number. So, unfortunately, I'm not able to give you 
a very good answer regarding that.
    Chairman Inouye. May I request that, for the record, a 
detailed response be made?
    Admiral Robinson. Yes, sir, we'll do that.
    Chairman Inouye. Thank you.
    Admiral Robinson. You're welcome.
    [The information follows:]

    To carry out the 2005 BRAC law, JTF CAPMED was established 
to oversee the realignment of Walter Reed Army Medical Center 
to the new Walter Reed National Military Medical Center in 
Bethesda and Fort Belvoir Community Hospital. JTF CAPMED 
reports to the Secretary of Defense through the Deputy 
Secretary of Defense. Due to the alignment of JTF CAPMED as an 
independent DOD entity, Navy Medicine does not direct JTF 
CAPMED on construction or other priorities, nor are we planning 
for future operation and maintenance requirements, since that 
by definition belongs to JTF CAPMED. These emerging priorities 
and requirements are driven by many things, all of which are 
outside Navy Medicine's budget process. As part of our mission 
to ensure that our Wounded Warriors receive the care they need 
and deserve, Navy Medicine is in regular communication with JTF 
CAPMED and continues to provide support as necessary. Because 
of this regular communication Navy Medicine is aware of the 
unique challenges facing JTF CAPMED, to include the projected 
increase of financial requirements. However, specific details 
of these challenges or the financial requirements cannot be 
defined or defended by Navy Medicine.

    Chairman Inouye. And now, General Green, on the matter of 
recruiting and retaining, we have noted that, for example, in 
medical schools today, about one-half of the graduates are 
women, but, on an average throughout the services--in the 
Medical Corps, I think it's 72 percent men and 28 percent 
women. And it's the same thing in the Dental Corps; it's about 
75-25. Is a special effort being made to recruit women, or is 
that part of culture?
    General Green. Sir, we have looked at many avenues to try 
and increase our attractiveness to women graduating from 
medical school. Many times, it comes up to, as they look at 
life choices and raising a family, concerns over time away from 
that family, et cetera, play into this. And so, one of the 
things that we've been looking at is whether we could do 
something with the Reserves, which would allow people to come 
on Active Duty, basically pay back a portion of their 
commitment, and, as some life-changing event occurred, could 
there be a way to let them go into a Reserve commitment for a 
period of time, and then come back to us on Active Duty? These 
things have many implications regarding how a career is managed 
and whether or not they can be competitive with others, to make 
certain that we do not limit them in any way in their career 
planning.
    And so, we have done some research, actually gone out and 
talked with medical schools, looked at reasons why we have not 
been attractive. And, for the most part, it is not that our 
scholarships are not attractive to these folks, it's not that 
we don't have very successful scholarship programs, it has to 
do with concerns over lifestyle and the ability to adjust to 
things like childbirth, marriage, and changes in their own 
personal situation.
    And so, we'll continue to very actively try and attract 
those folks. We realize that more than 50 percent of medical 
school graduates now are women, and we very much want to bring 
them in; we simply have not yet found a way to make ourselves 
attractive and change those percentages that you have quoted to 
us, sir.
    Chairman Inouye. How would you rate our retention and 
recruiting? Excellent? Good? Fair?
    General Green. We have taken a different approach in the 
Air Force. As you know, we did not have a great deal of success 
in bringing in fully qualified, and so, we decided to move 
dollars from our recruiting into scholarship programs, and have 
significantly increased the scholarships that we are offering.
    We have done very well. We have three areas that we are 
having troubles right now; in particular, it's with 
psychologists, oral surgeons, and pharmacists. And so, we are 
hoping to offer some more scholarships in those lines.
    When we go after people who are interested in pursuing 
education, we find that we have always been able to fill nearly 
100 percent. We had one year where we were at 98 percent. 
Whereas, when we went after fully qualified, we frequently were 
not able to get even one-half of what we were trying to 
achieve.
    With our nurses this year, with the changes we've made in 
recruiting, we have seen a decrease in our ability to bring 
nurses in. Whereas, the other two services, in their 
recruiting, have brought in, I believe, very close to 100 
percent of their nurses that they need, this year we were only 
able to bring in about 81 percent.
    Now, our nurse manning statistics are good. We're sitting 
at about 90 percent. And our efforts have shifted again to try 
and use the enlisted to nursing, and we're going to be bringing 
in about 50 enlisted members per year, which we think will fill 
the gap.
    I will let General Siniscalchi talk a little bit as to some 
of the things that we're also doing to establish relationships 
with the nursing schools to show the benefits of an Air Force 
career.
    I don't think that we're falling behind, in terms of our 
changes in how we approach recruiting, but some of the efforts, 
in terms of the scholarships and things, have long tails. As 
you know, to graduate a physician--I'll use a family 
physician--4 years of medical school and 3 years of residency. 
And so, from the time they take the scholarship to the time we 
see them coming out is about 7 years. And so, we are very 
interested in maintaining our ability to bring in fully 
qualified. We are leveraging the special pays and authorities 
that you have given us, to make certain that we can bring in 
people who are interested in an Air Force career.
    Chairman Inouye. Thank you.
    General Schoomaker and Admiral Robinson, for the record, 
will you submit a paper on recruiting and retention?
    Admiral Robinson. Yes, sir.
    General Schoomaker. Absolutely, sir.
    [The information follows:]

    The Army Medical Department is experiencing shortages in certain 
specialties and in certain locations. However, despite the persistent 
deployment tempo, the national shortage of many healthcare disciplines, 
and the compensation gap between military and civilian providers, the 
Army is doing well recruiting and retaining healthcare providers. 
Recruiting and retention authorities and bonuses are working, but we 
need to maintain constant vigilance.
    The most difficult skill sets to recruit and retain are fully 
qualified physicians with surgical or primary care specialties, 
dentists (general and specialty), behavioral health professionals, and 
nurse anesthetists. According to the U.S. Army Recruiting Command 
(USAREC), one of the greatest challenges in the recruitment of health 
professionals is simply a lack of awareness of military medicine in 
general and Army Medicine in particular. In an attempt to alleviate 
this challenge, USAREC is adopting a strategy of increased marketing of 
the benefits of Army Medicine.
    Mission success within the active force continues to rely on 
recruitment into our student programs. The world-class training 
programs offered by the Army Medical Department are critical to 
recruiting and retaining providers. Graduates of Army medical training 
programs enjoy a first-time board pass rate well above the national 
average.
    The Critical Skills Accession Bonus granted by Congress has been 
fundamental in turning around recruitment into the Health Professions 
Scholarship Program. In fiscal year 2009, we were able to recruit 103 
percent of mission for dental students, 103 percent of Veterinary Corps 
recruiting missions, and 93 percent for medical students. These are 
significant increases from previous fiscal years and will be the 
building blocks for the future force.
    The Active Duty Health Professions Loan Repayment program has been 
very successful with 256 officers participating and receiving up to 
$44,000 annually. The average continuation rate of healthcare personnel 
(the percentage of personnel who, at their first opportunity to leave 
service, choose to remain) has averaged 92.5 percent over the last 5 
years, peaking at 93.7 percent in 2009. Health Professions Special Pays 
are a key element in the retention of health professions. The new 
Consolidated Special Authority authorized by Congress provides 
increased flexibility for which we are grateful. We must continue to 
make full use of the recruiting and retention authorities and bonuses 
provided by Congress if we are to maintain strong recruiting and 
retention. Our experience over the last decade has proven that 
incentives, bonuses, and special pays work.
    Recruiting for Navy Medical Department active duty is good to very 
good. Navy Medicine recruiting efforts have been successful the past 
few years in making overall goal for all Corps in fiscal year 2008 and 
fiscal year 2009. Active Duty recruiting is projected to meet or exceed 
fiscal year 2010 goals with fiscal year 2010 recruiting performance 
outpacing the fiscal year 2009 effort. There continues to be difficulty 
in directly accessing wartime specialties and medical specialties that 
are highly compensated in the civilian sector.
    Retention for Navy Medical Department active duty is fair to good. 
Retention has stabilized over the past years due to increased retention 
bonuses. The overall loss rate for the officer corps was approximately 
9 percent. The following provides a short synopsis of each of the 
Corps' issues.
Medical Corps
    We continue to experience difficulty in recruiting mental health 
providers, possibly due to the increased demand in the civilian sector.
    Recruiting and retaining general surgeons, preventive medicine, 
occupational medicine, family medicine, and psychiatrists will remain a 
challenge over the next 5 years. Wartime demand, perceived inequities 
in pay comparability between military and civilian providers, and 
limited student pipelines are contributing factors.
Dental Corps
    Dental Corps has difficulty directly accessing and retaining oral 
surgeons and general dentists because of the pay gap between military 
and civilian compensation. A general dentist pay package offering 
significant compensation increases is currently routing through DOD. 
Additionally, the DOD Health Professions Incentive Working Group will 
be recommending a $20,000 per year increase in incentive special pay 
for oral surgeons in fiscal year 2011.
Medical Service Corps
    High operational commitments are affecting retention for physician 
assistants, clinical psychologists and social workers. The new 
accession and retention bonuses recently approved should have a 
positive impact on these specialties.
    Recruiting for clinical psychologists, podiatrists, and pharmacists 
is difficult because of the perceived inequities in pay comparability 
between military and civilian providers.
Nurse Corps
    High operational commitments are affecting retention in all of 
Navy's nurse practitioner specialties.
    Current initiatives in place to retain these critically manned/high 
OPTEMPO communities include RN Incentive Special Pay, Health 
Professional Loan Repayment Program, and a progressive Duty Under 
Instruction (DUINS) program for which officers are eligible after the 
first permanent duty station.
Hospital Corps
    The Hospital Corps has been very successful at both recruiting and 
retaining corpsman.

    General Schoomaker. If I could just make one comment----
    Chairman Inouye. Sure.
    General Schoomaker [continuing]. From the earlier 
discussion about the recruiting bonuses.

                     RECRUITING CIVILIAN PROVIDERS

    Army medicine is 60 percent civilian. I--for people who 
might be listening or reading this account, I'd very much like 
to encourage people who are looking for a career as a civilian 
in the medical services of the uniformed services, to come and 
look at us, to include women who might be looking at--we're 
experimenting and looking at the potential for job-sharing 
around a single position, split between, you know, multiple 
civilian physicians, psychologists, psychiatrists, and the 
like.
    Chairman Inouye. Thank you.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    General Green, I was noticing a newspaper report discussing 
a medical group at Keesler Air Force Base, in Biloxi, 
Mississippi, assembling to provide emergency medical service in 
Chile for the victims of the earthquake there. And the numbers 
of people who are being treated by this special unit that's 
flown from our State is in the neighborhood of 3,000 to 5,000 
people, and making available care from the Medical Support 
Squadron that was based in Biloxi, Mississippi.
    Have you had any recent report? This is a 2- or 3-day-old 
report from a newspaper at--the Biloxi Sun Herald in 
Mississippi.
    General Green. Sir, that team went to Wilford Hall. They 
aggregated with their equipment in San Antonio, and left, I 
believe, late yesterday, are expected to arrive in Chile today. 
They will be working very closely with the Chileans, in terms 
of trying to decompress healthcare issues that arise whenever 
the healthcare infrastructure has been damaged. We built our 
EMEDS-25, which is the unit that's gone down there, based on 
the number of patients that they can actually see. That 
particular unit that has gone to Chile is an EMEDS-25. I 
believe it's just over 65 medical folks, and another 20 to 30 
support people, that basically help with water and electricity 
and making sure the hospital has all of its needs met.
    The intent is for them to augment the Chilean system. We'll 
work hand-in-hand with the Chilean doctors. And they will 
probably, I would guess--before the end of their deployment, 
probably see in the neighborhood of between 3,000 and 10,000 
patients.
    We maintain a robust supply channel to get that to them. 
And you may wonder, How do you see so many patients with so 
few? And the answer is that, when you're working hand-in-hand 
with a host nation a lot is possible. As long as you have a 
good logistics chain and the ability to move patients back into 
the host-nation hospital, we find that we have tremendous 
capabilities. And these have been used both here in the States 
and overseas.
    Keesler did a superb job of mobilizing their people in less 
than 24 hours from the time they were notified. And a very 
excited group from Mississippi have gone to do this important 
work for our country.
    Senator Cochran. Well, we appreciate that. And it's very 
impressive to contemplate the amount of work and effort that 
went into this, mobilizing the people, getting everything 
organized and--it's not just a drive to the neighborhood; it's 
a long way to Chile. And it's really remarkable, I think. And 
you're to be congratulated, I think, as a service; and the Air 
Force personnel who are at Keesler, and those who are 
volunteering to make this trip, really deserve our highest 
praise and commendation.
    General Green. Thank you, sir, I'll pass that to Brigadier 
General Dan Wyman, our Commander down there.
    Senator Cochran. Well, thank you.
    I wonder, just as a general proposition, the extent to 
which our services are able to recruit and retain qualified 
medical personnel to provide healthcare services. When I was in 
the Navy, we had one medical doctor aboard our ship, a heavy 
cruiser. And I was impressed, though, by the corpsmen, who 
really make up the bulk of the people who do the work and 
provide healthcare services at sea like that, when you're a 
long way from anywhere. They really do a marvelous job, 
sometimes with emergencies. I have to admit, I wasn't in a 
military conflict when I was in the Navy. Some of the ports we 
visited might have thought we were in a military conflict, 
but----
    Anyway, what is your assessment right now of our ability to 
retain and train competent people to do these very important 
jobs?
    General Schoomaker. Is that directed to me, sir?
    Senator Cochran. Yes, sir.
    General Schoomaker. To the Army?
    Senator Cochran. Right.

                         VALUE OF COMBAT MEDICS

    General Schoomaker. First of all, let me just make a 
comment, that I'm really pleased that you recognize. A lot of 
people don't recognize the central role that our enlisted 
medics play in this. The second largest military occupational 
specialist--the only larger population is that of infantrymen, 
11 Bravos--is the combat medic, the 68 Whiskey. In fact, 
yesterday, we held a ceremony down in San Antonio, where my 
headquarters is, with--attended by five of my predecessors, 
Surgeons General, including now--former Secretary Jim Peake, 
who was the Surgeon General of the Army before that, and who 
conceived of the need to better train our medics.
    We now have the 68 Whiskey program--very highly trained 
medics. And, frankly, much of what my colleagues and I have 
talked about, in terms of success on the battlefield, is owed 
to our medics. Whether they're Navy corpsmen, who are serving 
with marines, or our Air Force medics, these kids are just 
amazing human beings who have--who are truly heroic.
    So, I appreciate that you recognized that, and the role 
that they play.

                   RECRUITING AND RETAINING OFFICERS

    As far as recruiting and retaining other officer-level 
specialties, we're doing quite well, sir. We had--especially in 
the Nurse Corps and the Medical Corps, the physicians and 
nurses--some difficult years in the past, but last year, 
physician recruitment, through our Health Profession 
Scholarship Program, which is one of the centerpieces of that 
program, of bringing in kids interested in going to medical 
schools under scholarships from the military, has been very 
successful. That program is absolutely essential to us. It's--
in the Army, it's well funded, both for the Active as well as 
the Reserve component of it. And we're seeing the products of 
it.
    Our graduate health education, and specifically physician 
graduate education programs, and our nurse graduate programs, I 
think are essential for retention of those high quality people. 
If we didn't have those programs, frankly, I don't think we 
would be doing as well as we do, because we recruit 
successfully through the scholarship programs or loan repayment 
programs, but we retain them through offering to them some of 
the very best training programs for physicians and nurses that 
exists anywhere in the country.
    Senator Cochran. Admiral Robinson, I didn't mean to 
overlook your opportunity of serving the Navy in the position 
you do. We appreciate your service. And I--what is your 
reaction to that same question?
    Admiral Robinson. Senator Cochran, thanks very much.
    First of all, the corpsmen are the backbone of Navy 
medicine. And you noted that--one doctor on your ship, but 
there were more--there were probably several corpsmen. Today, 
in our submarine force and surface force, independent-duty 
corpsmen very often are department heads for the medical 
departments. So, we actually count on these men and women to 
give first-rate medical care at sea to a large number of our 
forces. And they are qualified to do that, and they do a good 
job, and have been doing that for the last 50 years. So, it's 
not a new program; it's something that we've had in place, and 
we need to continue.
    The 8,404 corpsmen, who are corpsmen with the Marine Corps, 
do an outstanding job, both from integrating with the marines, 
but also from taking care of marines and people in harm's way. 
And, unfortunately, the largest number of casualties and 
mortalities that we have in Navy medicine over the course of 
the last many years actually is a result of the death of 8,404 
corpsmen, my corpsmen who are with the Marine Corps.
    So, the point is that the sacrifice and the bravery and the 
quality of the care that the men and women who are corpsmen and 
who are enlisted medics give is a testimony to the mortality/
morbidity rates coming out of theater, out of the battlefield, 
and also testimony to en route care, to the surgical care, to 
the care that's received at Landstuhl, and the care that's 
received here. So, it's a continuum of care that starts with 
that combat medic, with that corpsman on the battlefield, 
that's able to reach out and actually do an effective job.
    And recruitment and retention--Navy medicine, I think I 
almost will parallel completely what General Schoomaker said. 
We've had some poor years, but recently we have had good 
recruiting and retention numbers on the Active component side 
of our physicians. We are down in family practice, general 
surgery, in terms of critical specialties that we need more of, 
and also psychiatry, mental health, but we are doing a great 
job, and I feel very happy that the Health Profession 
Scholarship Program and several of our other programs are back 
up and are actually producing quite well.
    On the Reserve side, there are some challenges that we're 
having, and I think that the challenges--we've looked at this, 
and I think the challenges in the medical recruiting portion 
may be related to how we changed the recruiting several years; 
instead of having an Active component and a Reserve component 
recruiter, we put the recruiters together. And I think that, at 
that point, as soon as the Active component member was 
obtained, as it were, I don't know if the emphasis was put on 
the Reserve component. We separated that out again, and we're 
going to look at this very hard, but I think we're going to see 
an uptick in the Reserve component recruiting that's occurring.
    That's something that's on my radar screen, but right now, 
recruitment and retention in medical is all right--and I don't 
want to overplay this--we're looking hard, but it's okay, and 
it's better than it's been in the last several years.
    Senator Cochran. Great. Thank you very much.
    Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    This hearing really does come at a critical time. We're in 
the seventh year in Iraq, and are increasing our operations in 
Afghanistan. And the Department of Defense continues to see our 
returning members come home with both visible and invisible 
wounds of war.
    I know that you've all made a lot of progress, but we know 
our job's not finished. We need to make sure that all of our 
members and their families have access to healthcare at all 
times, and we can't forget to--our wounded warriors, our 
reservists, National Guard and Active Duty servicemembers, as 
they transition back to civilian life, and make sure that we're 
meeting all their needs.
    To that end, I wanted to ask you specifically about the 
National Guard and Reserves. They've been called on a number of 
times to support us, and they're coming home to some real 
hardships, with the economy that is very difficult for all of 
us, but particularly for them. Some of them come home to no 
jobs when they're released from Active Duty, and healthcare 
becomes an issue for them, as well.
    In some cases, the returning National Guard and Reserve 
soldiers have to live off limited savings or their drill pay to 
support their families. And, you know, that contributes to 
greater mental health stress for them. So, I'm very worried 
about how we're dealing with this right now.
    And I wanted to ask all of you what kind of efforts are 
currently underway to improve access to mental healthcare 
during the dwell period for our National Guard and Reserve.
    Open it up to any of you who'd like to comment.

                MENTAL HEALTHCARE FOR RESERVE COMPONENT

    General Schoomaker. First of all, ma'am, we share with you 
the concern about the strain on the Active--the Army National 
Guard and the Reserves. This period of transformation for the 
Army, as you know, has been a transition from the reliance on 
our Reserves as a strategic reserve poised to be mobilized in 
the event of a strategic threat to the Nation on a large scale, 
to one of an operational reserve, where they are very much 
involved in continuous operations and mobilization and 
deployment.
    Our first goal, across the board, in terms of health, 
dental, mental, and physical care, is at separation and 
demobilization, to fully explore what problems--and, in the 
case of dental health, to restore dental health; in the case of 
behavioral health problems, to comprehensively evaluate how the 
soldier is doing. And, I think, in the National Guard and 
Reserves, we still have a way to go with that.
    Our Vice Chief of Staff of the Army, General Chiarelli, 
last year, recognized that access to healthcare for the 
National Guard and Reserve, who tend to live in sites remote 
from our installations and in the heartland, often in rural 
areas, does not have the access to care, even under TRICARE, 
that we would like. And we have a--he chartered, through Army 
medicine, a task force, co-chaired by Major General Rich Stone, 
in the Army Reserves, and Major General Deborah Wheeling, in 
the National Guard, to bring together leaders in TRICARE, 
leaders in the managed-care support contracts across the 
country, and for all--from all the State's Guards and others, 
to identify our problems in getting access to care, and to 
improve that. And that's a work in progress, ma'am, but we 
share your concerns.
    Senator Murray. Well, particularly now. These Guard and 
Reserve members are coming home; many of them are living at or 
below the poverty line, including their drill pay, and they 
just--they don't have a job and they don't have health 
insurance. I know we take care of them prior to deployment. I 
think it's 6 months prior to deployment, they get healthcare. 
But, they come home, and they don't have anything during dwell 
time. You're going to call them up again, you know, in a year 
or two, and that becomes both a recruitment issue for you, but 
it's also a real hardship on their families. And what are we 
doing to look at that?
    General Schoomaker. I think the first thing that we've been 
working on with you all is an extended benefit through TRICARE 
Reserve Select and other forms of TRICARE coverage, to reduce 
the benefit--excuse me--reduce the premium load on National 
Guard and reservists----
    Senator Murray. During dwell time.
    General Schoomaker. Yes, ma'am--so that they can get access 
to care. There's no question that----
    Senator Murray. So, is it an issue of budget or is it an 
issue of policy? What is it that----
    General Schoomaker. I think it's a combination of things. 
It's focus from Commanders. We've got Reserve component 
National Guard and Reserve commanders now focusing more on 
their soldiers' comprehensive health benefits when they're in 
dwell, and putting emphasis on that. It's choices you've 
outlined, yourself, ma'am, that when a soldier has a limited 
budget, and part of that is even for a modest premium for a 
TRICARE benefit, they often choose not to do that. And, 
frankly, as you know, young people often kind of take risk that 
they're not going to run into health problems, and so, they 
forego health benefits, for that reason. And I think, more and 
more, we're emphasizing the importance and the need for them to 
retain their medical and dental readiness, even in dwell.

                      NATIONAL GUARD AND RESERVES

    Senator Murray. Well, I think it's a policy that we need to 
look at and really focus on. We're a long ways into the war in 
Iraq, and, with a lot of returning soldiers, we know that's 
going to go on for some time, particularly in Afghanistan, and 
I'm very concerned about that, so I hope we can explore that.
    Does anybody else have a comment on that issue?
    Admiral.
    Admiral Robinson. Senator Murray, I think that the TRICARE 
Reserve Select is part of the answer. And that benefit, if I'm 
not mistaken, has been extended to the Reserve forces, because, 
certainly, the beneficiary numbers in the TRICARE system have 
increased, and I think part of that increase is that.
    The second thing is that--and this is only for 180 days--
it's only for 6 months, but the Active Duty, Reserve members 
that are coming off of Active Duty can still be covered, and 
their families can be covered with TRICARE for that 180-day 
period.
    So, marrying those two with the Reserve Select program and 
the 180 days can be of some benefit, in terms of getting the 
care that they need.
    In terms of the mental health coverage, on the Navy side 
the psychological--the Reserve Psychological Outreach Program 
and the Reserve Psychological Outreach Teams, which consists of 
about 24 to 25 social workers, are doing a good job of going to 
the Navy Operational Reserve Centers--the NOSCs are what 
they're called--and they have actually been reaching out to 
just under about 20,000 to 25,000 people. They have seen 1,700 
people and referred people to mental health coverage. It's a 
small part, but it's the increased focus on getting out into 
the heartland areas, the areas away from the medical centers, 
and also taking care of----
    Senator Murray. Yup.
    Admiral Robinson [continuing]. Those people, who aren't 
seen regularly.
    Senator Murray. Right. But, we've been talking about this 
for a long time, so I'm frustrated that we're not doing better 
than we are today.
    Admiral Robinson. We are doing better, but we're not doing 
all that we need to do. I would frame it in, in that direction.
    Senator Murray. And I agree. I think that's fair. But, 
we're--we still have a big problem out there.
    Admiral Robinson. Yes, ma'am, we do.
    Senator Murray. General.
    General Green. I think all the services share in their 
medical continuation, in terms of any problems that are 
identified from their deployments. We also all have the same 
survey systems that are applied, regardless--Active Duty, 
Reserve, or Guard--with the post-deployment surveys and the 
PDHRAs at about 6 months. We're looking for any problems that 
may have developed in the interim.
    The medical continuation is one of those things where any 
problem that looks like it's associated with deployment, that 
they need to remain on Active Duty, we try and get that 
resolved by extending their orders and keeping them there. And 
the TRICARE Reserve Select is available to them for 6 months 
post.
    We also have programs that haven't been mentioned here such 
as the Yellow Ribbon Program----
    Senator Murray. Right.
    General Green [continuing]. That are designed to try and 
help people find services and to ensure that they're getting 
some assistance. We're looking--the Army, in--particularly, is 
looking at some telemental-health, in terms of how we can also 
be of assistance that way. And all the services are looking at 
these things because we see some of the gaps that you see, and 
are trying to close those gaps as best we can.
    Senator Murray. Okay. General Schoomaker, I wanted to ask 
you about the issue of suicides.
    In January of this year, the Army released information that 
there were 160 suicides of Active Duty soldiers in 2009, 140 in 
2008. For Reserve soldiers, you reported 78 suicides; 2009, 57. 
That increase in military suicides is really disturbing to me. 
And I think we need to be doing everything we can to make sure 
that we identify and mitigate the issues that are leading up to 
these unfortunate incidences. I wanted to ask you, What 
measures or programs has the Department of Defense instituted 
to mitigate future suicides? And what are we doing out there?

                           SUICIDE PREVENTION

    General Schoomaker. Ma'am, I think all the services, but 
certainly the Army, shares with you the concern that we've had 
about suicides. We've seen an increase, over the last 5 or 6 
years, from a suicide rate within the Army that roughly was 
one-half of the benchmark, you know, age- and gender-adjusted 
statistics in the civilian sector, to one that now has risen to 
be almost in parallel with. It's hard to tell, in the civilian 
sector, because the civilian-sector numbers that are released 
by the Centers for Disease Control are 2 years after the fact, 
so we won't see 2009 statistics until 2011. But, this is a--
this is an issue which the highest levels of the Army have 
taken responsibility for. The Vice Chief of Staff of the Army 
has chartered a task force. For the past year, they've looked 
very, very carefully at all factors across----
    Senator Murray. Is this the National Institutes of Health 
study?
    General Schoomaker. No, ma'am, that's actually an 
additional piece of this. The STARRS program--the acronym for 
which I just blocked--but, the STARRS program is a $50 million, 
5-year program that the Secretary of the Army chartered last 
year--with the National Institutes of Health, with University 
of Michigan, with Johns Hopkins--looking very carefully at all 
of the factors--what's been described as a Framingham Study 
that was done in Framingham, Massachusetts, beginning in the 
1940s, looking at the risk factors for heart disease, and has 
changed our whole approach, nationally, to public health 
measures around heart disease. The same methodology is now 
being applied to suicide and suicide prevention.
    But, within the Army itself, we're very actively looking at 
all of the factors that go into this rising suicide rate. There 
is no one single factor we can put our finger on. Roughly one-
third of our suicides occur in people who have never deployed 
at all. Roughly one-third occur in soldiers who are downrange 
and deployed. And one-third are in those that have deployed 
once or twice within the last several years.
    And the one transcendent factor that we seem to have, if 
there's any one that's associated with it, is fractured 
relationships of some sort, either a broken marriage, a 
girlfriend/boyfriend, even a relationship that might have been 
forged with the Army itself, as a very tight association a 
soldier made may develop, and then maybe does something that 
gets him administratively punished or, you know, nonjudicial 
punishment, and they go out and kill themselves. And so, we're 
looking at all of those related factors--alcohol and drug abuse 
that may be associated with it--because this is an impulsive 
act, frequently lubricated by alcohol or drugs, and we are, as 
an Army, very, very focused on how we can improve it.
    At the Department level, there's a task force that has been 
chartered by the Secretary. In fact, Major General Phil Volpe, 
one of my physicians, is a co-chair of that task force, right 
now is looking at DOD-wide programs and how we can, in a 
unified way, take efforts to prevent suicide and better 
understand it.
    Senator Murray. Okay. Well, I would like to work with all 
of you and, you know, have a--get as much information as 
possible. If we need to be doing more, in terms of support 
services, outreach, whatever, I think we really need to focus 
on that issue.

                        MENTAL HEALTH AWARENESS

    General Schoomaker. Yes, ma'am, we welcome it.
    Senator Murray. Air Force or Navy, either one of you want 
to comment on what your services are doing to promote mental 
health awareness or--are either of you doing studies, long 
term, on this?
    Admiral Robinson. Studies, I cannot answer. I can tell you 
that, in terms of the awareness and in terms of trying to do 
education and training, trying to make sure that we make this 
an imperative and a leadership imperative for all of our 
Commanders, making sure that we decrease the stigma of getting 
mental healthcare, which has been quite pervasive and is really 
a deterrent to people who need to get care, and also to the 
establishment in our operational stress programs, both in 
combat, but also--I'm talking--not in combat, now; I'm talking 
about operational stress--in noncombat situations, and also our 
caregivers' operational stress programs, because they often are 
under a great deal of stress--making sure that we have primary 
care members--and a great deal of the mental healthcare that is 
given to individuals, around the country, but certainly in the 
services, is given by family practitioners and primary health 
providers, and making sure that they have training and that 
they understand what is going on.
    The dependent--the Deployment Health Clinics, the 17 that 
we have in the Navy, about one-third of the people that are 
coming in are coming in for mental health issues. And the nice 
thing is, no one knows why you're going into that clinic, but 
we have embedded psychiatrists, psychologists, and primary care 
members in that clinic, so you can be referred immediately and 
talk to someone, and get the care that you need.
    I think, also, one additional thing, and that is the ACT 
Program, that we take to the deckplates, as we say; and that 
is, each man and woman, each person, each shipmate, can do the 
ACT. The ``Ask,'' ``Are you thinking about harming yourself?'' 
The ``C'' is the ``Care,'' the care to say, ``I think you need 
some help. I think you need to see a chaplain. I think you need 
to go someplace.'' And then, the ``T'' part is the ``Treat,'' 
and that is to actually make sure that people get to that 
level.
    The continuum of care that we try to give indicates that 
everyone--every person in the Navy, civilian and Active Duty, 
in war and out of war--is responsible for their shipmate and is 
responsible--we're responsible for one another.
    Senator Murray. General Green.
    General Green. The Air Force, since 1997, has had a very 
successful Suicide Prevention Program, basically focused on 11 
suicide prevention initiatives, most of that focused on very 
close focus by leadership, in terms of getting our wingman 
program out and making certain that everyone understands that 
this is not acceptable. With those 11 suicide prevention 
initiatives, we were actually able to decrease our rate below 
10, for probably 5 to 7 years--10 per 100,000. Over the last 3 
years, we have seen slight increases back to about our 1997 
rate. We are also trying to reinvigorate our program. Actually, 
we work very closely together across the services to do that.
    We do have one study that the Air Force has funded, 
different than the others, because we were very interested, in 
particular, with civilian suicides, because of some events that 
have been happening that have made the news out at Hill Air 
Force Base. And so, we had the RAND Corporation look at some of 
our initiatives out there to try and create a first-sergeant 
equivalent, people who could be there and be kind of initial 
capability to help civilians find assistance in an area that 
did not have all the mental health support that it needed. And 
then, we've also put, in our occupational clinics out there, a 
mental health social worker to try and assist with some of 
that.
    We did also identify that we have about three times the 
rate of the rest of the Air Force in two career fields, in 
security forces and in intel career fields. We are taking a 
very targeted approach with those career fields to try and do 
face-to-face interventions with much smaller groups, using some 
of our video vignettes, similar to that used in our computer-
based training. We are also mandating those front-line 
supervisors will receive specific suicide training.
    Because our program's been in place since 1997, it is in 
our PME schools, it is in our basic training schools. And so, I 
think we'll continue to have success. Our rates are probably 
about--not quite one-half of what the other services are. But, 
we believe our programs are still valid, and we're just 
emphasizing and trying to focus them where we see problems.
    Senator Murray. Okay. I really appreciate all of your focus 
and attention on this. I think it's extremely important.
    And I know I'm out of time, Mr. Chairman, and you've been 
generous.
    I do want to submit some questions for the record.
    One, in particular, that I want to hear back from all of 
you on is what we're doing for children of servicemembers 
today. We have a lot of families out there who have sacrificed 
a heck of a lot in a very tough economic climate, and I know 
who bears the brunt often is the kids of those families, and 
I'd like to hear back from each one of you what you are doing 
uniquely with our families and what we, as Congress, ought to 
be doing, or can be doing, to better support the children of 
the members of our services.

                    SUPPORTING FAMILIES AND CHILDREN

    General Schoomaker. Yes, ma'am. We would love the--to 
participate in that. As you know, one of the centers of this is 
in your State, at Madigan Army Medical Center. It's one of our 
centers for outreach for children.
    Ma'am, if I might, real quickly, append the record just to 
say, before I get hate mail from my colleagues at Uniformed 
Services University of the Health Sciences, one of the pivotal 
players in this landmark study on suicide, the 5-year, $50 
million study with the National Institutes of Mental Health is 
the Uniformed Services University of Health Sciences, Dr. Bob 
Ursano, who is really heading up this project.
    Senator Murray. Okay. Look forward to hearing much from 
that.
    Admiral.
    Admiral Robinson. Senator Murray, for your children--and 
this isn't a complete answer, but a short one, because it 
actually came from this hearing, 2 years ago, but the FOCUS 
Program--Families Over Coming Under Stress--which was 
originally started with Navy in very small groups of mainly 
Special Ops families who had had such an intense OPTEMPO. And 
we have now seen some really excellent results with that 
program, in terms of marriage, counseling. I can't say that all 
the marriages are successful, but there's been a reduced rate 
of divorce, there's been a reduced rate of children involved in 
drugs and in other acting-out behaviors. It's a program that's 
focused on spouse and children, and it's been very successful. 
And it's being incorporated, now, into not only Navy, but also 
Army and Air Force.
    Senator Murray. I'd like to get a briefing on that, if you 
could tell me what you're doing and how it's working----
    Admiral Robinson. Certainly.
    Senator Murray [continuing]. And what some of your 
statistics are. That would be great.
    Admiral Robinson. I'll be happy to do that.
    [The information follows:]
Project FOCUS (Families Over Coming Under Stress) Outcome Metrics
    FOCUS has demonstrated that a family-centered targeted prevention 
program is feasible and effective for military families. Utilizing 
national and local partnerships, community outreach, and flexible and 
family friendly skills-based approach, FOCUS has successfully initiated 
a resiliency training program in collaboration with the military 
community. FOCUS has demonstrated that a strength-based approach to 
building child and family resiliency skills is well received by service 
members and their family members reflected in high satisfaction 
ratings. Notably, program participation has resulted in significant 
increases in family and child positive coping and significant 
reductions in parent and child distress over time, suggesting longer-
term benefits for military family wellness. Standardization in program 
implementation provides the foundation for FOCUS program implementation 
and sustainability to support larger scale dissemination.
Current Service Metrics
    Total all FOCUS Services to date at all sites: 92,000.
  --Navy: 40,000 (services began March 2008).
  --Marine Corps: 50,000 (services began March 2008).
  --Army: 2,000 (services began November 2009).
  --Air Force: 600 (services began November 2009).
    Specific outcomes of program interventions as measured by validated 
and standard metrics used in psychological health surveys are:
  --Pre- and post-intervention levels of overall psychosocial 
        functioning of program participants (both adults and children), 
        suggest a significant improvement. The statistical level of 
        significance is p < .001 level.
  --Pre- and post-intervention levels of general emotional stress 
        suggest a significant reduction in depression, anxiety, and 
        somatic complaints on the part of adult care givers. The 
        statistical level of significance is p < .01.
  --Change scores on 6 dimensions of family functioning were found to 
        be highly significant at the p < .0001 level of statistical 
        significance. This suggests a marked level of improvement 
        across areas such as behavior control, problem solving, 
        communication, affective involvement and responsiveness, and 
        general level of family functioning.
    Project FOCUS surveyed both parents and child participants and 
found a high level of overall satisfaction with FOCUS services. The 
average of all respondents on levels of satisfaction is reported below. 
A rating of 7 was the highest possible rating: 6.54 for ``program was 
very helpful''; 6.59 for consumers being ``very satisfied''; and 6.73 
for consumers who would ``recommended the program to others''.
    In summary, since Project FOCUS has been in operation, ongoing and 
multiple assessments of program effectiveness have repeatedly shown 
that the program is worthy of being viewed as a model program for 
military families.

    Senator Murray. Very good.
    Admiral Robinson. Thank you.
    Senator Murray. Thank you very much.
    Thank you.
    Chairman Inouye. Thank you.
    General Schoomaker, Admiral Robinson, and General Green, I 
thank you very much.
    Chairman Inouye. And we'll now listen to the second panel, 
a very important one.
    I'd like to welcome back Major General Patricia Horoho, 
Chief of the U.S. Army Nurse's Corps; and Major General 
Kimberly Siniscalchi, Assistant Air Force Surgeon General for 
Nursing Services; and I'd also like to extend a special welcome 
and congratulations to the newly appointed Director of the Navy 
Nurse Corps, Rear Admiral Karen Flaherty.
    I'd like to also extend my congratulations to General 
Horoho for being selected to serve as U.S. Army Deputy Surgeon 
General and also as the Nurse Corps Chief.
    As all of you know, I did have the privilege of serving in 
the Army, and spent about 20 months in various hospitals. And 
at that time, I saw the doctor about once a week, and the 
nurses 24 hours, 7 days a week. And, as a result, I looked upon 
them as special angels, in my case. They helped prepare me to 
get back into life.
    Today, you have patients with problems that did not exist 
in World War II. For example, in my regiment, with all the 
casualties, there wasn't a single survivor of double 
amputation, no survivor of brain injuries. But, these are 
becoming commonplace now, because--for example, in my case, it 
took 9 hours to evacuate me by stretcher. Today, if it were in 
Afghanistan or Iraq, I'd be evacuated in about 30 minutes by 
helicopter. And so, the survival rate is extremely high.
    And added to this, you have cell phones, daily telephone 
calls between husbands and wives, and CNN telling you what's 
happening out there.
    And so, the stress is not only limited to soldiers, airmen, 
and marines, but also the family.
    Do you think that nurses are adequately prepared and 
trained to serve men and women with problems that didn't exist 
during my time?
    General Horoho.
    General Horoho. Thank you, Mr. Chairman.

                          PREPARED STATEMENTS

    Chairman Inouye. Your statements have been made part of the 
record, so----
    General Horoho. I'm sorry, sir?
    Chairman Inouye. Your full statements are part of the 
record now.
    General Horoho. Okay.
    [The statements follow:]
         Prepared Statement of Major General Patricia D. Horoho
    Mr. Chairman and distinguished members of the committee, it is an 
honor and a great privilege to speak before you today on behalf of the 
nearly 40,000 Active component, Reserve component and National Guard 
officers, non-commissioned officers, enlisted and civilians that 
represent Army Nursing. It has been your continued tremendous support 
that has enabled Army Nursing, in support of Army Medicine, to provide 
the highest quality care for those who are entrusted to our care.
    Last year I promised you an update on the Army Nurse Corps Campaign 
Plan that we began in October 2008. It became evident that our efforts 
to transform Army Nursing mirrored the desire of national nursing 
organizations and their leaders to improve nursing practice in support 
of the healthcare reform initiative. Today I will share with you some 
of Army Nursing's accomplishments that are leading national nursing 
initiatives as well as some of the challenges that we will face in the 
years ahead.
                  leader development: build our bench
    The first priority for Army Nursing is to develop full spectrum 
Army nurse leaders. Considering our Nation's continuous engagement in 
overseas contingency operations and the complex clinical challenges our 
nurse officers face both home and abroad, I challenged my senior 
leaders to develop training platforms that will prepare our nurses to 
succeed in any contingency-based operation around the world.
    Identifying the need for a clinical transition program for new 
graduate Army Nurses, the Army Medical Command (MEDCOM) formally 
fielded the BG (R) Anna Mae Hayes Clinical Transition Program (CTP), 
named in honor of our 13th Corps Chief, across nine medical centers 
beginning in October 2008. During fiscal year 2009, 364 new graduate 
Army Nurses completed this program. Throughout the year, the program 
was standardized to decrease the variance among the nine program sites. 
Thus far in fiscal year 2010, over 270 nurses have graduated from the 
program. Their enthusiastic endorsement of the program usually ends 
with the question ``when can I deploy?''
    Our nurses take great pride in wearing the cloth of our nation. 
After graduating from the Officer Basic Leader Course, the new nurse 
officer enters the Leader Academy via the CTP. This program is based on 
the Army leader development strategy that articulates the 
characteristics we desire in our Army leaders as they progress through 
their careers. The CTP is a 25.5 week program designed to bridge the 
baccalaureate education and professional practice of the New Graduate 
Army Nurse (NGAN). It consists of three formal phases (orientation, 
preceptorship, and clinical immersion) developed to foster critical 
thinking, communication, and deployment skills. Incorporated into the 
phases are a 5-hour monthly didactic seminar, journal club, and 
research review with a focus on leadership, professional role 
development, and improvement of patient outcomes. The CTP is congruent 
with the National College of State Boards of Nursing's intent to 
require residency programs for new nurses.
    Initial review of survey data collected during fiscal year 2009 
reveals NGAN positive responses to the following domains of new 
graduate nurse satisfaction: intent to stay, confidence levels in 
individual practice, and enthusiasm for the practice of nursing. The 
responses of the NGANs were similar to the published survey results 
from civilian clinical nurse transition programs. With the key elements 
of this program standardized, outcome variables related to risk 
management (such as medication errors, patient falls, and failure to 
rescue) can now be evaluated in fiscal year 2010.
    The first course that we realigned in support of the Campaign Plan 
was the Head Nurse Course. It has been renamed the Clinical OIC and 
NCOIC Clinical Leader Development Course. The renaming is a result of 
acknowledgement of the critical relationship that exists between the 
Clinical Nurse, OIC (Officer in Charge) and their clinical right arm--
the NCOIC (Non-Commissioned Officer in Charge). As an integrated 
training platform, this course has had very positive results. It 
provides our mid-level managers the opportunity to learn the critical 
skills needed for working as a team, and to master those skills in a 
simulated environment. This allows participants the opportunity to hone 
tactics and to learn techniques and procedures and decision-making 
skills that are used in the clinical environment. The training received 
in this course promotes cognitive competency and teamwork, and metrics 
are being developed to examine the program's impact on patient 
outcomes. Twelve clinical NCOICs from across Army Medicine attended the 
Head Nurse Leader Development Course as a pilot test October 2009. Due 
to the success of this pilot test, full attendance of Clinical NCOICs 
at this course is in the approval process. Both the CTP and the 
clinical leader development course are designed to prepare clinical 
leaders to be experts at navigating the complexities of care delivery 
in any environment.
    Through the past year we have leveraged the experience and 
expertise of our clinical Sergeants Major, as the senior enlisted 
advisors and subject matter experts on NCO and enlisted issues. They 
are our primary advisors on policies and regulatory guidance. Their 
voice and ideals have brought us a ``results-based leadership'' that 
has allowed us to excel in our imperatives and adopt a ``new 
paradigm,'' or view of the world. These NCOs could not accomplish their 
mission without the hard work and dedication of the men and women of 
the Army Medical Department (AMEDD) Enlisted Corps. It's through their 
unrelenting compassion to save and heal, despite hardships and dangers 
to life and limb that makes them ``angels on the battlefield.''
    We are committed to the growth and development of our NCOs and 
Soldiers. Therefore, starting in fiscal year 2011 we will fund two 
senior NCOs to obtain their Masters in Healthcare Administration which 
will ensure a continuous capability to meet the needs of the 21st 
Century. In addition, we are developing an Intensive Care Unit course 
for our Licensed Practical Nurses (LPN); this additional capability 
will allow commanders the flexibility to use LPNs for transport of 
critical patients, improve patient outcomes, and expand practice 
opportunities.
    Finally, the Leader Academy facilitates enhanced career-long 
development of adaptive full spectrum Army Nurse Corps leaders through 
the level of Regional Nurse Executive (RNE). We adopted the American 
Organization of Nurse Executive competencies that include skills such 
as healthcare economics, and healthcare policy management as well as 
abilities in outcomes measurement and change management in order to 
ensure the RNEs have the knowledge, skills and behaviors to help manage 
the regions system of health. We leveraged George Mason University's 
``Nursing Administrative Leadership Academy'' into our own leader 
academy as a training platform for our RNEs. We are sending three of 
our RNEs to the program this summer. We are also selectively using 
AMEDD courses such as the Interagency Federal Executive and the 
Executive Skills Course to hone and refine the RNE's abilities as 
influencers of the delivery of health. We believe the Army Nursing 
Leader Academy is setting the standard nationally for how nurse leaders 
are prepared to have an active and influential voice in healthcare, 
AMEDD, and national nursing policy.
                      warrior care: back to basics
    Our second strategic imperative is to standardize nursing care 
delivery systems in order to perfect nursing care at the bedside. We 
created a Patient and Family centered System of Nursing Care (SOC) that 
has as its cornerstone standardized nursing practice. This SOC will not 
only enable the Surgeon General's intent to improve and standardize 
care from the point of injury through evaluation and inpatient 
treatment and then return to duty, but will also enable, for the first 
time, comprehensive measurement and subsequent improvement of nurse-
sensitive patient outcomes.
    We piloted elements of this SOC at Blanchfield Army Community 
Hospital, Fort Campbell, Kentucky, in January 2009. After 6 months of 
monitoring we identified notable improvements in care such that nurse 
sensitive errors declined, while compliance with quality initiatives 
increased. During the 6 month pilot period, we found a 44 percent 
decrease in nursing medication errors and a 100 percent decrease in 
risk management events. Additionally, patient pain reassessment 
improved from 90 percent to 99 percent and reporting of critical 
laboratory values improved from 92 percent to 100 percent. We realized 
several ``quick wins'' such as the marked improvement in how nursing 
staff communicate with patients and physicians. Unexpectedly, we noted 
improvement in nurse retention metrics including a 24 percent increase 
in nurses' opinions that they are rewarded for a job well done, and a 
23 percent increase in nurses' opinions that nurses are seen as 
important leaders in their organizations. Overall, nurses reported that 
they believed that they were being heard, and their opinions valued. 
One nurse at Blanchfield said ``Now I feel like I have a voice in the 
organization.''
    Using the data from the Blanchfield pilot, we fully conceptualized 
the SOC as a three-sided pyramid with one side delineating clinical 
practice elements, another professional practice elements, and another 
business practice elements. The pyramid is anchored by the Army nursing 
triad; Army nurses, NCOs, and enlisted and civilians comprise its base. 
Next month, select elements of care are being implemented at three 
medical centers: Walter Reed Army Medical Center, Washington, DC; 
Brooke Army Medical Center, Fort Sam Houston, Texas; and Madigan Army 
Medical Center, Fort Lewis, Washington. For one element of the 
professional practice side of the pyramid, we are implementing an Army 
nursing creed--it is our nursing ethos and codifies who we are as 
nurses by articulating what we believe in and value as nurses; it is 
the heart of nursing practice. It includes Army values and the American 
Nurses Association Standards of Practice that allow us to define a 
standard level of nursing care common to all nurses and a standard 
level of behavior in the professional role.
    In April, at the same three hospitals, we are implementing nursing 
peer review that aligns a business strategy with clinical practice. 
Peer review is a best clinical business practice that enables us to 
retain the very best nurses who provide quality care as measured 
against our professional standards of practice. Peer review is a talent 
management tool that provides real time, constructive feedback to 
clinicians to assist with their professional growth which leads to good 
patient outcomes.
    In May, we will implement the Army Nurse Corps Practice Council 
along with unit-specific governance councils to support the clinical 
practice side of the pyramid. Governance councils will facilitate 
decentralized joint decisionmaking by nursing leaders and staff nurses 
at the frontline of care--the patient/nurse interface. These unit 
councils will collaborate with the Army Nurse Corps Practice Council to 
identify best practices relative to nursing tactics, techniques, and 
process, and then codify these practices for standard use across Army 
Nursing. Army Nursing identified two best practices that were 
incorporated into the SOC. At Tripler Army Medical Center (TAMC), 
nurses modified environmental and staff behavior factors to tailor 
inpatient care to provide ``Healing Hours.'' The restorative importance 
of sleep is well documented, but hospitalized patients report many 
factors including noise, pain anxiety, light, and interruptions by 
hospital staff as sleep disruptors. To validate the most common sleep 
disruptors, TAMC nurses requested input from 227 patients over a 6 week 
period and received 135 responses. 71 percent of patients reported 
averaging less than 4 hours of sleep a night during their 
hospitalization. 62 percent reported their sleep being interrupted by a 
nurse or provider. With the information gathered, TAMC initiated the 
Healing Hours concept. Healing Hours are individualized based on 
diagnosis and requirement for hands-on care. The overall purpose of 
Healing Hours is to promote rest through consolidation of patient care 
activities. Ancillary services aligned their services to support this 
initiative. Pharmacy adjusted routine medication times to coincide with 
established rest hours. Routine laboratory service rounds do not begin 
before 0600 hours. Signs are posted on each patient's door to remind 
all staff of requested Healing Hours. Patients are provided information 
during pre-admission activities to encourage them to bring comfort 
items from home; i.e. earplugs, earphones, and eye masks.
    At Walter Reed Army Medical Center, senior nursing leadership 
examined hourly nursing rounds as a measure to improve patient and 
staff outcomes. A total of 11 intensive, medical, surgical, and same 
day surgery units participated in the project, where we simultaneously 
measured outcomes such as patient satisfaction, staff satisfaction, 
falls, medication errors, and call light use. We compared pre and post 
intervention efficacy of hourly nursing rounds and found that within 4 
months of the implementation of hourly rounds, patient outcomes, such 
as the use of call lights and patient falls decreased while patient 
satisfaction increased.
    In order to ensure implementation of innovative ways to deliver 
care to the inpatient, outpatient, and deployed environment, we are 
also moving forward with implementing team nursing, comprised of RN, 
LPN, and medics. This aspect of the SOC aligns with The Surgeon 
General's (TSG) ``Come Home to Army Medicine'' campaign. This community 
based primary care will bring healthcare closer to home, standardize 
business practices, and develop the model for patient centered medical 
home.
    As we begin implementation of the SOC, our nurse researchers have 
begun the transformation of a geographically disparate one to three 
person research cells into the Offices of Nursing Science and Clinical 
Inquiry (NSCI). The NSCI will combine the resources of Research Ph.D. 
Scientists, Nurse Methods Analysts, Clinical Nurse Specialists, and the 
new DNP (Doctorate of Nursing Practice) with a robust mission that will 
provide decision support, evidence-based practice, and research. These 
NSCIs at each regional medical center will promote a shared vision 
across Army nursing using shared and capitalizing on shared resources 
and infrastructure. This change will shift emphasis in focus to 
capitalize on integration of evidence-based research into practice, 
improve warrior care, enable leader development and maximize human 
capital while addressing Army nursing priorities. This fundamental 
shift will transform Army nursing from an expert based practice to 
system based care and will provide the impetus to move toward a culture 
and workforce with the ability to develop research agendas and 
translate evidence into practice at the bedside. Currently the Army 
Nurse Corps has an inventory of 33 ANC Research Scientists and two 
civilian nurse scientists with doctoral degrees. Twenty-one of these 
are actively working in research assignments.
    In 2008, we initiated a comprehensive review of all Army nurse 
business and clinical processes and associated training and education. 
The gap analysis revealed a requirement for more advanced degree 
experienced nurses at patients' bedsides to influence nursing care; 
specifically, to direct nursing care within a systems-based care 
delivery model that decreased nursing care variance across the Army 
Medical Department in order to measure and improve patient outcomes. To 
that end, we expanded our review to examine the new Doctor of Nursing 
Practice (DNP) role as a modality for closing the gap. After this 
review was completed, we recognized the value of placing select DNP's 
within our NSCIs and the ANC is in the process of making this 
infrastructure change. This will provide clinical leadership, create a 
partnership with nurse Ph.D.'s and Nurse Method Analysts, and 
facilitate practical application of evidence-based research at the 
patient bedside to ensure evidence-based nursing care.
    According to the American Nursing Association (ANA), one of the 
most significant shifts in health policy is represented in a measure to 
expand the involvement and authority of advance practice nurses. Army 
Nursing is also working closely with national nursing organizations 
such as the American Academy of Colleges of Nursing (AACN) in leading 
national efforts to conceptualize a value-add role for DNPs as well as 
the new innovative clinical nurse leader role.
    The Army nursing SOC will require new capabilities while allowing 
us to better leverage current nursing capabilities. For example, 
nursing case management is increasingly being recognized as an 
essential component of healthcare delivery. Case managers provide added 
value to the multidisciplinary healthcare team. Case managers in 
Warrior Transition Units (WTUs) are providing care to over 9,000 
Soldiers and have facilitated the transfer of over 8,500 Soldiers back 
to duty or on to become productive Veterans. Warrior satisfaction with 
case management services has remained at or above 92 percent throughout 
the year.
    The Army Nurse Case Management Course was fielded in December 2008. 
This course was designed to better prepare case managers in their role, 
facilitate the successful completion of national certification, and 
standardize case management services across WTUs, to ensure case 
managers are effectively trained to perform their mission. Over 300 
nurse case managers participated in this web-based program that 
utilizes adult learning principles that enhance the Army NCM's 
understanding of case management theory. Students learn about best 
practices across military and civilian settings, thus gaining knowledge 
of principles and tools utilized in case management.
    Army nursing case management is improving care in primary care 
settings as well as in our WTUs. Nurses across the country espouse 
success stories where case management has had a positive impact on 
patient care. In Alaska, NCMs were working with a 28 year old infantry 
Soldier undergoing the Medical Evaluation Board process for moderate 
Post-Traumatic Stress Disorder (PTSD). During one of their sessions 
they talked about his mother who died at age 34 with colon cancer. 
Because the case managers had developed a good rapport with the 
Soldier, he felt comfortable mentioning that he had some rectal 
bleeding. He was immediately evaluated, determined to have metastatic 
colon cancer, and underwent a colectomy. The operation saved his life. 
Subsequently, he was able to medically retire as a healthy, productive 
veteran.
    The strategic end state of this SOC is optimized nursing care 
delivery systems that wrap capability around AMEDD goals and priorities 
to achieve the best patient outcomes possible. This capability and 
functional structure is designed to leverage proliferation of evidence-
based care and best practices to support TSG's strategic objectives.
             evidence-based practice: optimize performance
    Our third strategic imperative is to optimize Army Nursing 
performance using evidence-based management and evidence-based clinical 
practice. Evidence-based clinical practice aims to merge best practices 
from both clinical care and business practices to produce optimal 
outcomes. These goals are achieved through scientific analysis, data 
management, and system redesign to support the everyday performance of 
all our nurses. For example, the Workload Management System for Nursing 
(WMSN) is a tool that ANC has been using for accurately measuring 
patient acuity in order to establish manpower requirements in our 
inpatient care settings. This past year, we initiated the most dramatic 
update to our WMSN since 1985. Led by talented Army Nurses, the WMSN 
Refresh and Optimization project will enable us to upgrade our WMSN 
operating system, integrate and migrate all previously separate 
servers, update the clinical classification and acuity measures, and 
develop a software interface for real time reporting tools. This 
milestone business process improvement will afford our nursing 
leadership the necessary data to support current and future resourcing 
decisions.
    Another example is the Clinical Information System (CIS) that was 
developed with input from our clinical and nursing informatics experts 
that has played a major role in modernizing our electronic health 
record. This past year included tremendous expansion of the CIS 
inpatient health record throughout the MEDCOM. The CIS is designed to 
help nurses and other healthcare personnel collect, record, store and 
access patient data, as well as data from medical instrumentation and 
physiologic monitors from a centralized computer system. The impact of 
a standardized inpatient nursing documentation system cannot be 
minimized as it not only provides standardized documentation of the 
patient's history, but allows, through its requirement to enter data 
fields, standardization of how nurses practice.
    Another evidence-based initiative is our collaboration with the 
Veteran's Health Administration (VHA) on Clinical Terminology 
Standardization that has resulted in the development of over 2,236 
standardized clinical terms. The development of Systematized 
Nomenclature of Medicine--Clinical Terms and Logical Observation 
Identifiers Names and Codes will allow for intra-operable standardized 
clinical vocabulary to assist both the providers, and the clinical 
researchers. Future collaboration will allow for a seamless process to 
add, review, and map new terminology and integrate this into DOD 
inpatient documentation systems.
    Given the magnitude of investment and the substantial military 
healthcare renovation and construction projects in the National Capital 
Region (NCR), it is important to examine the relationship between 
environmental evidence-based design (EBD) features and patient and 
staff outcomes. COL Petra Goodman, an Army Nurse (AN), has collaborated 
with investigators from numerous agencies, to include our sister 
services, military treatment facilities in the NCR and the DOD Patient 
Safety Center, to develop research protocols in EBD principles and 
their specific outcomes, including falls, work-related injuries, and 
hospital acquired infections. There series of studies will provide 
critical baseline information for future research in EBD.
    Implementing 2005 BRAC Law, Army Nurses have been involved from 
``Day One'' in creating the new 1.23 million square foot Fort Belvoir 
Community Hospital ensuring that the project delivers on its mission to 
create a World Class Military Health Care facility. DeWitt Army 
Community Hospital (DACH) nurses, both uniformed and civilian, have 
provided critical input in the design, development, and implementation 
phases of this project which includes numerous EBD features such as 
single bed rooms with family zones, maximized use of natural light, 
healing gardens and positive distractions, increased HEPA filtration, 
ceiling mounted patient lifts, walled rather than cubicle spaces, and 
the use of reduced noise sources and sound absorbing materials. MAJ 
LaShanda Cobbs, AN, serving as Transition Director for the hospital 
project until July 2009, provided key leadership in coordinating design 
concept of operations workgroups, guiding utilization of EBD 
principles, and developing manning determinations for this state-of-
the-art inpatient and ambulatory care center. Looking to the future, 
DACH nurses will continue to play pivotal roles in implementing 
integrated bedside IT solutions, the Vocera hands-free nurse call 
system, creating patient controlled environments utilizing Smart Room 
Technology, and myriad other operational solutions to maximize EBD 
features to minimize hospital acquired infections and increase patient 
safety.
    Never before have we relied so heavily on nursing research to 
infuse nursing practice with evidence-based science. In February 2009, 
the Triservice Nursing Research Program (TSNRP) invited nurse 
scientists from all services to meet in order to determine new 
priorities for TSNRP. Not surprisingly, Force Health Protection was 
recognized as the number one priority. Deployment research is designed 
to ask critical questions that cannot be answered other than on the 
battlefield providing medical care for our service members. Army nurses 
have led the way with deployment research relative to their strong 
presence in field environments. There have been 34 nursing led 
protocols, 27 of those are from ANC researchers and one joint Army/Air 
Force protocol. A breakdown of these protocols includes a total of 20 
protocols on warrior care, including five on Soldier Health, three on 
Trauma care, and one on Behavioral Health and a total of 14 protocols 
to study the impact of compassion fatigue and stress on nursing and 
healthcare professionals. Post Traumatic Stress Disorder (PTSD) is a 
focal point for many of the studies. COL Kathy Gaylord at the Army's 
Institute of Surgical Research is conducting three studies to evaluate 
alternative therapies for treatment of PTSD or PTSD symptoms in burn 
patients. ``Gradual Virtual Reality exposure therapy and D-Cycloserine 
(a learning enhancer pill) treatment for combat-related PTSD'' is a 
pilot study to determine the effectiveness of virtual reality therapy 
for service members who have sustained a burn injury requiring multiple 
dressing changes as a distraction to reduce their pain during these 
dressing changes. ``Cranial Electrotherapy Stimulation (CES) on PTSD 
Symptoms in Burned Outpatients'' is a double-blind randomized control 
research study is to determine if CES given to service members who have 
sustained a burn injury and meet PTSD criteria will be effective to 
reduce their PTSD symptoms and other deployment-related symptoms. ANC 
research scientists also continue to collaborate with the other DOD 
agencies, the Department of Veterans Affairs, and universities in 
support of the congressionally funded studies for research. In the 
Pacific region, Army nurses established a clinical-academic research 
partnership between Pacific Regional Medical Command (PRMC) and the 
University of Hawaii. This first formal academic-clinical nursing 
research partnership between Tripler Army Medical Center and the 
University of Hawaii creates a joint vision for the future of nursing 
and healthcare. This partnership provides the resources and structure 
that will allow Pacific Regional Medical Command (PRMC)-based nurses 
and University of Hawaii (UH)-based nurses to ask and answer the 
clinically relevant military healthcare questions.
    Army Nurses, like MAJ Rebecca Terwilliger, are leading the way with 
an innovative best clinical practice pilot to improve nursing care. She 
won a $17,532 grant from the March of Dimes to establish a Centering 
Pregnancy Program for antepartum patients. Participants enroll into a 
stable group that begins meeting at 16 weeks followed by monthly 
meetings until 32 weeks, then every other week for the remainder of the 
pregnancy. The group meets for 2 hours each session and is led by a 
certified nurse midwife. Benefits of the program include the 
development of a socialization and support network system while 
providing 2 hours of education on topics related to pregnancy, 
childbirth and newborn care. Evidence has shown that the program 
increases patient satisfaction, increases continuity with a provider 
and decreases preterm birth rate; for those that deliver prematurely, 
delivery occurs in gestation and the newborn is at a higher birth 
weight.
    Research is also supporting evidence-based business practices. For 
example, we used data to evaluate our accession portals and make timely 
changes on how we recruit, retain, and incentivize nursing personnel to 
remain a part of our nursing team. The Army Nurse Corps was very 
successful in recruiting and retaining Army Nurses in 2009. Research, 
like that being done by LTC Breckenridge-Sproat, AN, titled ``Factors 
Associated with Retention of Army, Air Force, and Navy Nurses'' will 
survey Active Duty Army, Navy and Air Force nurses to explore factors 
influencing decisions to maintain their active duty status. In the 
history of military nursing research, there has never been a retention 
survey using a validated instrument conducted across all three 
services. Considering the changing market for registered nurses in the 
United States and the complex factors that influence decisions to 
remain on active duty, it is important to obtain data to support 
appropriate strategies to retain military nurses in the Army, Navy and 
Air Force. The results of this multi-service study will provide the 
Corps Chiefs from the Army, Navy, and Air Force with a better 
understanding of factors impacting nurses' intent to stay in the 
military. The findings should allow administrators to capitalize on 
specific factors that positively influence nurses to stay in the 
military and implement changes to ameliorate factors that are 
influencing nurses to leave the military.
    Research is also helping us develop new recruiting strategies, 
called precision recruiting, whereby we are recruiting experienced 
medical-surgical and specialty trained nurses. This strategy will 
provide us with a balanced force of new nurse graduates with more 
experienced clinical nurses. Leveraging data allowed us to determine 
the need for precision recruiting, i.e., targeted recruiting of 
critical low densities. As a result, we increased our recruitment of 
Nurse Anesthetists, Behavioral Health Nurse Practitioners, Family 
Health Nurse Practitioners, and critical skills such as Emergency Room 
and Critical Care trained nursing personnel. These skills are 
especially in high demand with our nation's continued involvement in 
overseas contingency operations. Working closely with Accessions 
Command, we are formulating a recruitment strategy that ensures a 
consistent pipeline of ROTC, Army Enlisted Commissioning Program 
(AECP), and Federal Nurse Commissioning Program graduates, balanced 
with direct accessions of experienced nursing personnel.
    Evidence-based processes also allow us to look at who, when, and 
where we have the greatest attrition and how attrition is impacting the 
care we provide for our beneficiaries. Incentives, such as Incentive 
Special Pay, critical skills bonuses, and hiring bonuses have not only 
allowed us to conduct precision hiring of civilian nurses, but also 
allowed us to compete with the recruitment market for experienced and 
well qualified nursing personnel. I want to thank the committee for 
supporting these initiatives in the past and look forward to your 
continuing support in the future. In addition we raised and then 
codified minimum standards for entry into the AECP based on the quality 
of the nurses this program produces. In the past we have had as high as 
14 percent non-completions in the AECP. Data analysis revealed an 
antiquated admission criteria resulting in candidates who were not 
adequately prepared to sustain the rigors of the Bachelor's of Science 
program. The change in admission standards has vastly improved the 
quality of candidates in the program and will ultimately impact the 
quality of care we will provide to our warriors and their families.
                   human capital: portfolio of talent
    People are our organizations' most valuable asset and remain one of 
my top priorities. Success toward our strategic initiatives has been 
possible only because of the commitment and extraordinary work by the 
triad of nursing; Active and Reserve component officers, non-
commissioned officers, and civilians. Our efforts over the past year in 
both recruitment and retention of active duty and civilian nurses have 
positively impacted Army Nursing. Investing in human capital requires a 
strategic approach to managing the recruited and retained talent so 
patient outcomes are optimized throughout the organization. 
Subsequently, our fourth imperative is optimizing human capital talent 
through talent management and succession management planning. One of 
the ways we are managing talent is by leveraging nursing capability in 
new ways. A great example of this is the ``curbside nursing'' concept 
that clinical nurse midwives implemented at Fort Campbell, KY. In 2009, 
it became strategically imperative that some type of new Soldiers' 
health initiative for women's gynecological intervention and engagement 
was needed to address the backlog of gynecologic appointments. Several 
Certified Nurse Midwives (CNM) services have actively engaged in 
leaving the confines of the hospitals and entered what normally has 
been recognized as a Soldier's clinic. This medical model approach to 
women's wellness has received laudatory comments noted in Army Provider 
Level Satisfaction Survey reports across several installations.
    To support TSG's strategic priority of implementing a comprehensive 
behavioral health system of care, BG Steve Jones, Commander, Pacific 
Regional Medical Command, and I worked together to implement a program 
to assess the effectiveness of connecting behavioral health resources 
with soldiers in a virtual encounter. Nursing resources were engaged in 
validation of the assessment tool as well as serving as a force 
multiplier through the integration of NCM and 68X, Mental Health 
Technicians, in the virtual program. Partnered with behavioral health 
(BH) providers, NCM screen for ``at risk'' Soldiers face-to-face and 
virtually with the intent to provide access to BH in remote or isolated 
locations. Many Soldiers returning from deployment do not need the 
complex services of the Warrior Transition Unit (WTU), but they do have 
significant concerns that could impact successful reintegration with 
families and non-combat environments. Coordinating care and support 
through the NCM, Soldiers and families are guided to financial, 
emotional, and physical care to support reintegration. The NCM effort 
in this Comprehensive Behavioral Health System, led by Amy Earle, RN, 
mitigates stressors to the Soldier and family by connecting them to 
services within the community.
    At Europe Regional Medical Command, the Maternal Child Nursing 
section uses a Perinatal Clinical Nurse Specialist to track high risk 
patients, which resulted in significantly increasing the number of 
infants that were immunized against Hepatitis-B at birth or prior to 
discharge as recommended by the Centers for Disease Control. In 2009, 
LTC Sherri Franklin, Chief of Nurse Midwifery, started a new midwifery 
program with 3 active duty CNMs at Fort Benning, Georgia. Due to the 
increased demand for low risk obstetrical care and the size of the post 
increasing, this planned service will be stabilized at Benning. Planned 
for 2011, an additional 6 new CNM graduates from accredited mastered 
prepared programs across the United States will be welcomed as new 
clinicians.
    This year, for the first time in our history, two of the deployed 
Combat Support Hospitals will be commanded by Army Nurse Corps 
officers. In 2009, 333 active duty Army Nurses were deployed in support 
of Operation Iraqi Freedom and Operation Enduring Freedom. This 
represented a total of 70,589 deployed man days. In 2009, the 6 month 
(180 days) PROFIS deployment policy was successfully implemented, 
considerably reducing the adverse affects of long deployments on our 
nursing personnel. Through the expert coordination of our nursing 
leaders, nursing staff were rotated at 6 month intervals with no 
adverse impacts in patient care. However, our low density nurse 
specialists, to include nurse anesthetists, nurse practitioners, 
critical care, perioperative and emergency nursing are still 
experiencing frequent deployments with some nurses completing their 
second and third deployments. We are conducting an in-depth force 
structure analysis to determine our objective force structure for the 
future years.
    Our Budgeted End Strength is projected to increase from 3,515 in 
fiscal year 2010 to 3,580 in fiscal year 2011. In addition, 80 Army 
Nurse Corps officer authorizations are projected as a part of the Grow 
the Army strategy. We are modeling for the optimal number of critical 
care nurses, emergency room nurses and behavioral health nurses needed 
to ensure sufficient staffing in our CONUS based medical treatment 
facilities and to continue the theater support that has supported the 
93 percent survival rate of our service members injured in our combat 
theaters. We recognized that many of our specialty nurses transition to 
advanced practice roles as nurse anesthetists or nurse practitioners 
but their ``loss'' from the specialty role was not included in our 
previous models. Using innovative analytical processes we have 
identified shortfalls in our training requirements that, when 
corrected, will increase the available strength of these critical low 
density nurse specialists. With increased numbers, the adverse impact 
of frequent repeat deployments will be mitigated. The Army Nurse Corps 
has always been committed to advanced education as an essential element 
of quality healthcare. As we face the continuing behavioral health 
challenges, we are increasing our number of nurses selected for 
behavioral health nurse practitioner programs. Of note, only the 
Psychiatrist and the Behavioral Health Nurse Practitioner has 
prescriptive authority as Behavioral Health providers. We have 
recognized that this level of Behavioral Health providers is critical 
in both garrison and deployed settings to facilitate optimal behavioral 
healthcare. This year, we will select 5 nurses for attendance in the 
Psychiatric/Mental health NP program at Uniformed Services University 
(USU) to start in 2011. In addition, as we transition our advanced 
practice nurse roles to the future DNP, we will be sending one nurse 
for a DNP program as a Psychiatric/Mental Health NP.
    We rely on the USU Graduate School of Nursing as the strongest 
educational platform to develop critical talent to provide nursing 
capability across Army Medicine. A good example of how USU is helping 
us build new nursing capabilities is the perioperative nursing program. 
COL (R) Wanzer and LCDR Conrardy, USU nursing faculty, developed a 
perioperative CNS program marketing brochure and designed a marketing 
poster for presentation at the 11th Annual Tri-Service Perioperative 
Symposium in Chicago in March 2009, and along with her fellow 
researchers Cole Hawker and D. Moultrie, were awarded the 2009 
Association of Perioperative Registered Nurses National Research 
Excellence Award for their research titled: ``Factors Associated with 
Multidrug Resistant (MDR) Acinetobacter Transmission Occurring in 
Traumatic War Injuries''. COL (R) Wanzer was also invited to address 
Congress during hearings on healthcare reform and presented ``The Role 
of Clinical Nurse Specialist in Health Care Delivery: Today and in the 
Future.'' The Psychiatric Mental Health-Nurse Practitioner (PMH-NP) 
Program was evaluated for its academic content, testing, and overall 
effectiveness. Changes have been made to the course structure in order 
to ensure students integrate and apply their knowledge in context of 
the goals of the program. In addition the Graduate School has signed 
eleven new memorandums of understandings with new clinical sites. In 
October 2008, USU chartered a task force to examine implementation of a 
DNP curriculum to be in line with the American Association of Colleges 
of Nursing decision to move the current level of preparation necessary 
for advanced practice nursing from the master's to doctoral level by 
the year 2015. The results of 8 months of study revealed that USU 
should take the steps necessary to implement a USU DNP program. This 
further expands USU's strength as an education platform for Army 
Nursing so that we can apply a practical application of evidence-based 
research at the patient bedside to ensure evidence-based nursing care.
    Over 60 percent of our organization is our civilian workforce, so 
our retention efforts continue to be focused on this group. We continue 
to have unprecedented success in our civilian nurse loan repayment 
program, with over 41 percent of total Army student loan repayments 
going to nurses. For fiscal year 2010, 314 applicants were selected to 
participate in the nurse loan repayment program, the largest number 
since the program started in 2006. We also recognize that our talented 
civilian healthcare professionals have unique issues and challenges. To 
provide support to our civilian nurse workforce, the Civilian Nurse 
Task Force was chartered in March 2009 to provide a forum for specific 
discussion on issues related to recruitment, retention, and career 
progression. This group's hard work resulted in the adoption of a 
civilian RN career pathway that remains in a working phase today. From 
this task force, a Nurse Consortium was established, in November 2009, 
and each medical treatment facility has a civilian nurse 
representative. This consortium works on key issues affecting 
satisfaction of the civilian nurse workforce. Current working issues 
include improving the relationship between civilian and military 
nurses, recruitment of civilian new graduate nurses, and civilian 
nurses in senior leadership positions in medical treatment facilities. 
Our first step to leverage civilian nurse talent at the senior 
executive level was the selection of Dr. Patricia Wilhem as a member of 
the Army Nurse Corps Executive Board of Directors. In addition, the 
``Civilian Connection'' link was established on our new, innovative ANC 
website and is used to post links and information pertaining to 
civilian nurses. It facilitates a sharing of information not only 
between civilian nurses but also between civilian and military nurses 
to enhance professional relationships.
    Finally we continue to leverage our retired ANC officers to serve 
as nurse role models, mentors and subject matter experts and 
ambassadors for the ANC. COL (R) Jeri Graham, president of the Army 
Nurse Corps Association (ANCA) in partnership with the ANC conducted 
the pilot Veteran's Resiliency Program in May 2009. There were sixteen 
participants with eleven active component combat veteran nurses and 
five Vietnam veteran nurses. The program was designed to address the 
issues that returning warrior nurses have after deployment that impact 
retention. The program was received favorably and with many positive 
comments to sustain the program in the future.
                               conclusion
    There has been great momentum since I introduced the Army Nurse 
Corps Campaign Plan to you last year. Our success has been the result 
of compassion, commitment, and dedication from all members of the triad 
of nursing. They have inspired me with their pride, enthusiasm, and 
openness to change. We continue to experience amazing progress in each 
of our strategic imperatives and we are ensuring that the ANC remains 
relevant and a force multiplier for Army Medicine.
    I continue to envision an Army Nurse Corps in 2012 that will leave 
its mark on military nursing and will be a leader of nursing practice 
reform at the national level. The implementation of the standardized 
Patient & Family Centered System of Care is revolutionizing nursing 
care in the ANC and ensures that we optimize patient outcomes at every 
point of care delivery, both home and abroad. It reminds us that our 
priorities remain the patients and their families. Our common purpose 
is to support and maintain a system of health. In order to achieve this 
common purpose, we will let nothing hinder those who wear the cloth of 
our Nation or those who took an oath to forever save, protect, care, 
and heal.
                                 ______
                                 
          Prepared Statement of Rear Admiral Karen A. Flaherty
                              introduction
    Good Morning. Chairman Inouye, Senator Cochran and distinguished 
members of the subcommittee, I am Rear Admiral Karen Flaherty, the 22nd 
Director of the Navy Nurse Corps. Thank you for the opportunity to 
speak to you today. I also want to express my sincere thanks and 
appreciation for the hard work and dedication of Rear Admiral Christine 
Bruzek-Kohler, the 21st Director of the Navy Nurse Corps during this 
past year.
    In his 2009-2010 Chairman, Joint Chiefs of Staff Guidance, Admiral 
Mullen declared the ``Health of the Force'' as one of his three 
strategic initiatives, stating, ``Our core responsibility is to win 
wars while caring for our people and their families. They are the heart 
and soul of our formations, our fleets, and our air expeditionary 
wings, and our incredible fighting spirit. As a Nation, we have a 
solemn obligation to fully support, across the spectrum of need, our 
service men and women, standing and fallen, and their families.''
    Today, I will highlight the accomplishments and opportunities 
facing the Navy Nurse Corps in 2010 as we care for the Health of the 
Force. The total Navy Nurse Corps, comprised of Active, Reserve and 
Federal Civilian nurses, number more than 5,500 strong. Working 
together, we are clinicians and advocates for our patients, we are 
mentors and leaders for our colleagues, and we are the face of caring 
and compassion to those affected by armed conflict and natural 
disasters. My strategy as Director has been focused in three areas: 
People, Practice and Leadership. It is within these three areas that I 
would like to highlight our successes and address our current and 
future efforts.
                               our people
Recruitment
    Today's Navy Nurse Corps Active Component (AC) is manned at 91.2 
percent with 2,837 nurses currently serving around the world. We have 
already achieved Navy Nursing's Active Component recruiting goal for 
2010, for the fourth consecutive year. Reserve Component (RC) 
recruiting is currently at 16.4 percent of the fiscal year 2010 mission 
and requires our continued focus. I attribute our recruiting successes 
to the continued funding support for our accession programs, the local 
recruiting activities of Navy Recruiters and Navy Nurses, and the 
continued positive public perception of Service to our Country.
    The top three direct accession programs that are favorably 
impacting our recruiting efforts include the Nurse Accession Bonus 
(NAB), the Health Professions Loan Repayment Program (HPLRP), and the 
Nurse Candidate Program (NCP). The NAB continues to offer a $20,000 
sign-on bonus for a 3-year commitment and $30,000 for a 4-year 
commitment; the HPLRP repays student loans up to $40,000 for a 2-year 
consecutive obligated service, and NCP, tailored for students who need 
financial assistance while attending school, provides a $10,000 sign-on 
bonus and $1,000 monthly stipend.
    In 2008, Navy Medicine created a recruiting team aimed at 
increasing the visibility and focus on Navy Nursing recruiting 
initiatives. This effort provides a Navy Nursing presence at local and 
national professional nursing conferences and collegiate recruiting 
events. In collaboration with the Navy Medicine Office of Diversity, 
our Nurse Corps Recruitment Liaison Officer coordinates with local 
Military Treatment Facilities (MTFs) to have diverse Navy personnel 
attend national conferences and recruiting, increasing Navy's 
visibility among minority populations. This has allowed us to broaden 
our reach, and participate in and recruit across a broad range of 
national nursing conferences. Further, recognizing that America's youth 
contemplate career choices at a young age, Navy Nurses travel to local 
community schools and serve as guest speakers and ambassadors for our 
Corps, the Navy and the nursing profession.
    Leveraging current technology, the Nurse Corps Recruitment Liaison 
Officer uses a combination of social networking media tools, including 
Facebook and Twitter, and online discussion forums (e.g., BLOGs), to 
reach students at colleges and high schools, encouraging them to 
consider a career in Navy nursing. Through these media tools, students 
ask candid questions and can obtain instant feedback in a mode of 
communication with which they are comfortable. Additionally, students 
provide feedback of what is and is not working in the recruiting 
process. Using this information, we have implemented process 
improvement strategies to correct any gaps in the recruiting process. 
One improvement we are implementing in 2010 is an early mentorship 
program for those entering the Navy Nurse Corps through one of our 
accession programs. Junior nurses will serve as mentors to guide new 
accessions from school to their first duty station, providing 
information on pay, travel, duty stations and transition to ``Navy 
Life.'' We know that the first impression of the Navy and the Navy 
Nurse Corps are an important part of subsequent career decisions.
    Today, the Reserve Component is 83.6 percent manned with 1,112 
nurses in inventory. Last year, the Navy Nurse Corps Reserve Component 
(RC) met 87 percent of their recruiting goal. Over 48 percent of the 
accessions were Navy Veterans (NAVETS--nurses coming to the RC from 
active duty) with the remainder joining the Navy Reserve as direct 
accessions. Success in recruiting NAVETS is related to the initiation 
of an affiliation bonus of $10,000 and a policy that guarantees these 
individuals a 2-year deferment from deployment. Additionally, the 
establishment of the Career Transition Office (CTO) at Navy Personnel 
Command has been very successful in identifying those members desiring 
to move from the active component to the reserve component. The CTO, 
working in concert with the Reserve Affairs Officer (RAO) and 
Centralized Credentialing and Privileging Department (CCPD), 
implemented practices that facilitate a smooth transition with regards 
to billet assignment, pay and establishment of credentials.
    Our reserve recruiting goal for fiscal year 2010 is 165 nurses. A 
recruiting initiative targeting direct accessions will offer entry 
grade credit for advanced education and work experience among the 
critical wartime specialties of Certified Registered Nurse Anesthetists 
(CRNAs), psychiatric/mental health, emergency room, and perioperative 
nursing. These initiatives will be expanded to include medical-surgical 
nurses and critical care nurses as well.
Retention
    Retaining Navy Nurses is one of my top priorities. We remain 
committed to providing a Total Force of Navy Nurses, balanced in terms 
of seniority, experience, and skills, to provide the very best care to 
Sailors, Marines and their families. Key efforts have positively 
impacted retention, including the Registered Nurse Incentive Specialty 
Pay, a targeted bonus program for undermanned clinical nursing 
specialties and highly deployed Nurse Practitioners. Our nurses are 
enriched by being able to practice in both deployed and garrison care 
settings.
    It is our responsibility as Nurse Corps leaders to fully understand 
all retention issues. We commissioned the Center for Naval Analyses 
(CNA) in 2009 to conduct a survey and hold focus groups to help us 
understand the factors that influence career satisfaction and 
dissatisfaction in the Nurse Corps. We have found that support for 
families, childcare availability, healthcare, and other benefits such 
as the Post 9/11 GI Bill play an important role in nurse retention.
    Navy Nurses told us they wanted a clinical career ladder. Junior 
nurses felt they had to leave clinical nursing in order to advance in 
their careers. They also told us that deployments were fulfilling and 
had a positive affect on retention. The factors affecting retention are 
described more as a ``pull'' away from the military versus a ``push'' 
out of the military.
    To increase promotion opportunities for senior level positions, we 
converted a portion of vacant Lieutenant billets to Captain and Ensign 
billets. These actions also improved the alignment of billets with the 
number of junior officers being accessed each year. This right-sizing 
is also occurring for the Reserve Component led by Rear Admiral Cindy 
Dullea, my Reserve Component Deputy Director. The RC is challenged with 
personnel gaps in the junior ranks and a larger senior officer force. 
These initiatives will ensure we maintain an appropriate balance of 
highly-skilled experienced nurses with promotion opportunities.
    My goal for this year is to increase retention by 50 percent in the 
AC for those with less than 10 years of service, and to retain the 
appropriate numbers in each officer rank in the RC. To achieve this 
goal, we are increasing communication and mentoring across all ranks, 
developing a clinical leadership model, and creating a user-friendly 
job-assignments process focused on clinical specialty development. Most 
importantly, I have asked each Nurse Corps officer to be part of this 
strategy; people stay in organizations because of the positive 
influence of their peers and immediate supervisors.
                              our practice
Clinical Excellence
    Clinical Excellence is one of the main tenets of the Nurse Corps 
Clinical Leadership Model. Our strategy prepares every nurse to 
practice safe, competent care in any clinical setting, whether in a 
hospital or clinic, onboard ship or in forward deployed settings. 
Clinical Excellence is an expectation of the patients we care for and 
is an integral part of the interdisciplinary healthcare team of Navy 
Medicine. In 2009, we developed and implemented standardized 
orientation and nursing competencies across all of our nursing 
specialties. This creates portability, efficiency and consistency of 
care across all environments. Our goal is to deploy an electronic 
standardized procedure manual in 2010 for all facilities to have real 
time access to state-of-the-art updates to clinical care.
    Over the past several years, the Nurse Corps identified eight 
critical wartime specialties, and developed our manning, training and 
bonus structures to incentivize nurses to practice within these 
specialties. Additionally, each Nursing Specialty has an assigned 
Specialty Leader, a Clinical Subject Matter Expert who understands the 
nursing practice within each community. These Specialty Leaders are key 
in the sourcing process for deployment missions, and have been 
empowered to implement improvement strategies for their specialty 
communities.
    Understanding deployments and the type of care needed by our 
patients is essential when developing our nurses. For example, the 
critical care patient in Afghanistan may be required to stay on the 
ground longer given the environmental challenges impacting medical 
airlift evacuation. Our staff needs to understand this and add to their 
portfolio of skills in both acute and chronic critical care nursing 
competencies. To accomplish this goal, our Specialty Leaders worked 
with Senior Nurse Leaders at MTFs to create partnerships with local 
civilian hospitals and military nurses cross-train in local Emergency 
Departments and Intensive Care Units (ICUs). All Navy Nurses deploying 
in a critical care role cross-train in an ICU and attend the Essentials 
of Critical Care Orientation Course, the industry standard for critical 
care orientation. We are also piloting a ``closed-loop'' detailing 
process where nurses who desire to practice in the critical care 
specialty for their careers, have the ability to be transferred to 
hospitals that provide critical care nursing. Our goal is to keep these 
highly-trained critical care nurses working in critical care.
    To support the behavioral health needs of our Warriors and their 
families, the Nurse Corps has increased its inventory of psychiatric/
mental health clinical nurse specialists and nurse practitioners. This 
growth will support the projected growth of the Marine Corps, Blue in 
Support of Green (BISOG) and the increase in the number of Operational 
Stress Control and Readiness (OSCAR) teams. We have successfully 
employed Psychiatric-Mental Health Clinical Nurse Specialists and 
Mental Health Nurse Practitioners to meet the operational demands of 
the Psychiatric-Mental health caseload. Looking ahead, we will align 
our core privileging with our civilian counterparts, deploy mental 
health nursing assets where needed, and increase the education pipeline 
to meet this requirement.
    Senior Nurses empower their staffs to innovate in hospital, clinic 
and operational settings, ensuring a culture of clinical excellence is 
infused at all levels. An example of these innovations is a job sharing 
initiative in USNH Guam, where two nurses can gain leadership 
experience, while continuing to excel as clinicians. A Family Nurse 
Practitioner in Okinawa, created efficiencies, eliminated patient visit 
backlogs, and increased family satisfaction while maintaining family-
centered care. He established a Fast-Track clinic that resulted in a 25 
percent decrease in non-urgent care provided by the Emergency 
Department. Through Clinical Excellence in Practice, our nurses gain 
the confidence and competencies to ensure that Navy Medicine remains a 
leader in healthcare.
Nursing Education
    I am a fervent supporter of graduate nursing education, research 
and professional growth of my officers, and am committed to the 
sustainment and growth of the Tri-Service Nursing Research Program 
(TSNRP). Each year, approximately 73 officers are selected for Duty 
Under Instruction, the Nurse Corps' graduate education program. 
Additionally, nurses are selected to participate in the Johnson and 
Johnson Wharton Fellow's Program in Management at the University of 
Pennsylvania, and several Navy-sponsored leadership courses. Clinical 
specialization matched with leadership experience is key to developing 
the clinical leader.
    The American Association of Colleges of Nursing made the decision 
to move the current level of preparation necessary for advanced nursing 
practice from the master's degree to the doctorate-level by 2015 based 
upon shifting patient demographics, health needs, and changing health 
system expectations. The Navy Nurse Corps supports a phased approach 
toward adopting the Doctorate of Nursing Practice (DNP) as the 
recommended terminal degree for Advanced Practice Nurses, and will 
utilize a combination of short- and long-term action steps to 
incorporate the DNP degree option as part of its education strategy. 
Using existing funding, three nurses will graduate with a DNP in 2012 
and the DNP degree will be incorporated into the Nurse Corps Training 
Plan. As we make the transition to a greater number of DNPs, we will 
conduct careful reviews of future education funding requirements.
    To expand this clinical leadership model to Federal Civilian 
Registered Nurses, we launched the Navy Graduate Program for Federal 
Civilian Registered Nurses, the first of its kind in the Uniformed 
Services, and funded five competitively selected Federal civilian 
registered nurses to pursue their Master of Science in Nursing degrees. 
These selected candidates agreed to work a compressed work schedule 
during the time they are in graduate school and incur a 2-year 
continued service agreement. This program has been fully funded in 
2010, and we are currently receiving applications to select our next 
class of candidates for Fall 2010. We expect that this new program will 
retain our current civilian nurses, incentivize new nurses to consider 
entry into Federal service, sustain Military Treatment Facilities with 
subject matter experts when military nurses are deployed, and offer new 
educational growth for our civilian colleagues.
    Every military nurse joins the Service with a Baccalaureate degree 
or higher, thus our Nurse Corps education strategy is focused on 
Graduate Nursing Education. I thank you for your support of this 
critical strategy.
Nursing Research
    Navy Nurse Researchers assigned to Medical Centers educate nurses, 
physician residents, faculty, and staff about research design, 
implementation and evaluation. They facilitate the research process 
though collaboration with the Nursing Research team, Clinical 
Investigations and local, national and international academic 
institutions. More than 15 formal studies are in progress to promote 
the health and wellness of our Warriors and their families. 
Additionally, several evidence-based practice projects underway 
synthesize research literature to create individual evidence-based 
nursing practice guidelines and ensure practice effectiveness. The 
``Back-to-Basics Bundle of Care Project'' at Naval Medical Center San 
Diego and the ``Electronic Ticket-to-Ride, a Standardized Hand-off 
Program'' at National Naval Medical Center are just two examples of 
research projects that will increase patient safety and satisfaction, 
increase efficiency, decrease healthcare costs, and promote positive 
health outcomes during inpatient stays.
    Navy Nurses are accomplished authors, presenters and leaders not 
only in the field of Nursing, but also in healthcare and medicine. Many 
have contributed to military, national and international forums as 
keynote speakers and subject matter experts. Captains Linnea Axman, NC, 
USN and Patricia Kelley, NC, USN were members of the planning committee 
for the 2009 Botswana Conference. This conference, co-sponsored by Navy 
Medicine and Uniformed Services University, identified opportunities 
for the development of collaborative international research proposals 
and advancement of the concepts of integrity in research. Commander 
Michele Kane, NC, USN was the first Nurse Corps officer to provide the 
keynote address at the 2009 World Congress on Military Medicine. The 
research conducted by these outstanding nurses is a testament to their 
expertise, scholarship and commitment to advancing scientific knowledge 
in the field of medicine.
    Among the many nationally recognized award winners for Navy Nurses, 
Lieutenant Colleen Mahon, NC, USN was recognized as the National 
Association of Women's Health Obstetric and Neonatal Nursing's Navy 
Nurse of the Year, and Commander John Maye, NC, USN was selected as the 
American Academy of Nurse Anesthetists' Researcher of the Year.
Outreach and Partnerships
    Navy Nurses, at our MTFs in the United States and abroad, 
passionately support the professional development of America's future 
nursing workforce by serving as preceptors, teachers and mentors for 
local colleges and universities, as well as entire health systems. 
During Continuing Promise 2009, Navy Nurse Corps officers from the USNS 
Comfort served as subject matter experts providing training in Advanced 
Cardiac Life Support, Basic Life Support, IV insertion, basic first 
aid, trauma care, EKG interpretation and basic nutrition to 35,000 host 
nation medical personnel. Although a U.S. Navy mission, Nurses worked 
with partners from the Active Component, Reserve Component, Army, Air 
Force, U.S. Public Health Service, and over 90 nurse volunteers from 
Project Hope, the Church of Latter Day Saints, and Operation Smile. 
Additionally, over 40 military nurses from Canada, El Salvador, 
Netherlands, and France worked side-by-side with us in providing care 
to over 100,000 patients. Today, the USNS Comfort is deployed staffed 
by caring colleagues providing humanitarian assistance to the people of 
Haiti.
    Navy Nurses deployed to Afghanistan in embedded training teams are 
teaching culturally and linguistically appropriate public health 
measures. In response to news of H1N1 outbreaks throughout the world, 
nurses prepared emergency response plans and training for the local 
Forward Operating Base (FOB) and Regional Hospital in eastern 
Afghanistan, well in advance of cases appearing in-theater, and 
deployed critical counterinsurgency tactics by performing village 
medical outreaches to the local community members in eastern 
Afghanistan. These missions improved relationships, increased trust and 
fostered cooperation with U.S. and coalition forces among the local 
population.
                             our leadership
    I believe that leadership at all organizational levels is 
responsible for ensuring the personnel under their charge are healthy 
and productive. This is echoed by Admiral Mullen, ``As leaders, we must 
ensure that all receive the care, counseling, training and financial 
support to become self-sufficient and lead productive and fulfilling 
lives'' (CJCS Guidance, December 2009). My nursing leaders have 
developed and are implementing an interactive career planning guide 
useful for mentoring seniors and subordinates at every stage of their 
careers. This mentoring tool asks pointed self-assessment questions to 
the officer and the nurse leader to assist both in making the best 
professional career decisions balanced with professional and personal 
goals. It guides the nurse leader in assessing the strengths and needs 
of the officer and balancing them with organizational goals. Blending 
our officers' clinical excellence, operational experience and 
leadership develops the highest caliber leaders for Navy Medicine today 
and in the future. Each nurse is a leader, whether caring for a 
population of patients, leading a Command, or being the Nursing voice 
for our Fleet or our Marines. Each day, we have an opportunity to 
impact the health and well-being of others.
    A key role of a leader is to know their people and help them 
develop the resiliency to be able to handle stressors and life events. 
Navy Medicine's Operational Stress Control and Care for the Caregiver 
programs have a direct impact on the health and well-being of the 
force, deployment readiness and retention. By developing and providing 
education and training opportunities throughout the service member's 
career, Operational Stress Control builds resilience and increases 
effective responses to stress and stress-related injuries and 
illnesses. We know that caring for service members and their families 
and experiencing the trauma and stress that they experience can impact 
our medical staff. Strengthening the resilience of our Navy Nurses will 
assure they are better equipped to meet the day-to-day challenges of 
both naval service and their profession.
                            closing remarks
    Thank you for providing me this opportunity to share with you the 
remarkable accomplishments of the Navy's Nurse Corps and our continuing 
efforts to meet Navy Medicine's mission. On behalf of the outstanding 
men and women of the Navy Nurse Corps, and their families who 
faithfully support them, I want to extent my sincere appreciation for 
your unwavering support.
                                 ______
                                 
      Prepared Statement of Major General Kimberly A. Siniscalchi
    The Total Nursing Force (TNF) is comprised of our officer and 
enlisted nursing personnel including the Active Duty (AD), Air National 
Guard (ANG), and Air Force Reserve Command (AFRC) components. It is a 
pleasure to lead and serve alongside my senior advisors, Brigadier 
General Catherine Lutz of the ANG and Colonel Anne Manly of the AFRC. 
Together, we command a total force team delivering evidence-based, 
patient-centered care and support to meet Global Operations. Our 
nursing service personnel confront the challenges of increasing 
commitments and deployments with distinction and professionalism. They 
support the top priorities of the Secretary and the Chief of Staff of 
the Air Force to: (1) Continue to Strengthen the Air Force Nuclear 
Enterprise, (2) Partner with the Joint and Coalition Team to Win 
Today's Fight, (3) Develop and Care for Airmen and their Families, (4) 
Modernize our Aging Air & Space Inventories, Organizations & Training, 
and (5) Recapture Acquisition Excellence. This testimony will reflect 
how Air Force Nurses, lead, partner, and care every time and 
everywhere.
                         expeditionary nursing
    Operational capability, the foundation and moral fiber of Air Force 
nursing, is instrumental in driving remarkable achievements. Air Force 
nurses and medical technicians at Craig Joint Theater Hospital (CJTH) 
at Bagram Airfield, Afghanistan provided outstanding nursing care for 
the highest number of casualties in OEF. CJTH is the only total U.S. 
staffed Level III military treatment facility in Afghanistan, and 
offers the most advanced medical capability in the country. CJTH nurses 
functioned as preceptors for nine Afghan nurses embedded as part of an 
Afghan Trauma Mentorship program. The Afghan nurses worked side-by-side 
with Air Force nurses and medical technicians, gaining valuable 
clinical experience, which they are excited to share with their co-
workers to create positive change for the Afghan healthcare system for 
years to come.
    The summer and fall of 2009 at CJTH is summarized through excerpts 
written by Dr. Zeriold, the ``trauma czar'', of his time in 
Afghanistan. ``A conflict that had become known as `The Forgotten War' 
was suddenly remembered as we entered the Afghan theater. We found a 
hospital and system in existence for several years that had seen a 
moderate number of patients. We brought only ourselves; it was a team 
from all over the United States from all branches of the military. No 
extra equipment, no new technology, no more medications, gear, or 
personnel. We were the standard deployment team for this theater. 
However, the pattern of this war changed. Over the next 6 months, we 
took care of more than 1,000 trauma admissions and countless medical 
admissions. The acuity was very high, and injuries were horrendous. A 
new pattern of war trauma had emerged for this hospital, a pattern that 
rivals and even surpasses a 500 bed, university based, Level I trauma 
center. We safely returned to the states 550 injured U.S. service 
members. We returned them to their families, children, and spouses. We 
changed the devastated lives of 450 Afghan nationals and won their 
hearts. I will never forget the bonds we formed with so many. And the 
kids--my God, I will never forget the kids; reaching out their little 
hands, with a smile, at the time of discharge as if to say thank you, 
`I'll be okay, and can I go home now?' As a result of your dedication 
and work, this hospital and this team set the theater standard, and 
broke theater records for caseload, admissions, transfers, and 
outcomes. We transformed this time, mid to late 2009, into an era never 
to be forgotten.''
    CJTH also functions as the primary theater Aeromedical Evacuation 
(AE) hub, for out of country casualty transport. The Contingency 
Aeromedical Staging Facility at Bagram facilitated an average of 500 
patient movements per month, starting July 2009. ``They are the `Angels 
of the Battlefield'--medics dedicated to transporting wounded U.S. and 
coalition service members, as well as locals, to the medical care they 
need. It's our job to take care of these wounded warriors,'' said Maj. 
Dawn Rice, an Air Force Reserve flight nurse and medical crew director 
assigned to the 451st Aeromedical Evacuation Squadron (AES). ``We take 
great pride in getting people the top-notch care they deserve. Our 
country and our military will do whatever it takes to get people to the 
appropriate medical facilities. We want people to know this,'' she 
added. ``Hopefully, it will give them some comfort when they are 
outside the wire fighting the enemy.''
    Air evacuation is a detailed process with the aircrew acting as the 
most visible link in the chain. The process typically begins at a local 
level. ``The primary mission at smaller field hospitals is simply 
stabilizing the patient,'' said Chief Master Sergeant John Trujillo, 
451st AES superintendent. ``Once the patient is stabilized and can be 
moved to another more capable hospital, then it's our job to get them 
there.''
    While caring for wounded service members is the crew's primary 
mission, they provide the same level of dedication to all. The squadron 
recently flew a 9 year-old Afghan girl and her 13 year-old brother from 
a major hospital at Bagram Airfield to a base in Southern Afghanistan. 
She had been at the hospital at Bagram for 2 months recovering from 
injuries received during a mortar attack on her village. Prior to the 
United States stepping in, her brother had been tasked with her care, 
replacing bandages on her legs and overseeing her well-being. As she 
was brought aboard the aircraft for her flight, nurses from Bagram said 
their tearful goodbyes while crewmembers gave the children gifts and 
treats, bringing out their smiles. Looking at the children, the Major 
spoke about this moment and how it transcended geographical borders and 
political differences. It was truly a moment of human compassion. The 
care being given was not just between Americans and Afghans, or adults 
and children, but between human beings taking care of each other. 
``This is why we do what we do,'' said Major Rice softly. ``These are 
the moments we live for,'' she added with a smile.
    Nursing Services are integral to the support of global and home 
base operations. Day after day, we take the best care of our Nation's 
heroes at home and abroad. AE continues to be one of the greatest 
successes in the war on terror, and is the vital link to saving lives. 
Another example of our AE teams' heroic efforts occurred when a skilled 
team of medical personnel worked tirelessly to keep a badly burned 23-
year old civilian alive. Having already died and been brought back to 
life by a shot of adrenalin and cardiopulmonary resuscitation, he was 
carried by litter onto a C-17 medical evacuation flight from Balad, 
Iraq to Germany. Lieutenant Colonel Belinda Warren tucked a blanket 
around the patient and inserted numerous tubes to provide vital fluids 
to his body. ``You have to make sure the burn victims don't get cold, 
replace all the fluids leaking from their burns, and make sure they 
don't go into hypothermia or get their blood clotting factors out of 
whack,'' she said. As an Air Force Reserve Critical Care Air Transport 
Team (CCATT) nurse, her goal was to make the patient as comfortable as 
possible. On a return flight to Germany later that month, she learned 
that he had about a 20 percent chance of survival, a higher rate than 
usual, and is doing better than expected, given the severity of his 
injuries.
    These critical missions sustain world-class care across the 
continuum, ensuring our warriors are able to return to the fight with 
continued healthcare and family support. Since overseas contingency 
operations began in 2001, over 70,000 patients have been aeromedically 
evacuated. Year 2009 proved to be a robust one for patient movement. We 
moved 21,500 patients globally including over 9,000 from the war fronts 
in Iraq and Afghanistan. Men and women of the 32 Total Force 
Aeromedical Evacuation (AE) Squadrons were augmented by CCATTs 
delivering hands-on care in the air. These units are currently staffed 
at approximately 90 percent, but as the troops in the Area of 
Responsibility (AOR) increase, additional crews will be needed and are 
being built to support them.
    One of our challenges in developing new AE crews is the training 
pipeline. It currently takes approximately 6 to 9 months to train each 
new crewmember. The initial phase of this training takes place at our 
School of Aerospace Medicine and is standardized for the Total Force. 
Once the didactic portion of AE is completed, flight nurses and 
technicians return to their units. The time required for nurses and 
technicians to be qualified on an aircraft can take an additional 2 to 
6 months. The Total Force is pursuing a single standardized Flight 
Training Unit (FTU) similar to that being used by our pilots. This FTU 
will standardize the upgrade training process across the Total Force by 
creating a single level of qualification and will, most importantly, 
shorten the pipeline to approximately four weeks, creating parity among 
all AE crews.
    Captain Jac Solghan and his Aeromedical Evacuation Liaison Team's 
(AELT) actions provide a great example of what individuals and teams 
bring to the fight when put to the test. Within 12 hours of landing at 
Bastion Joint Operating Base, an improvised explosive device (IED) 
explosion/multi-collision incident injured 5 Afghan National Army 
personnel and 12 local nationals. After their initial medical 
assessments and treatments, Capt. Solghan's AELT responded by providing 
Afghan patient movement requests for rotary wing airlift. Within 40 
minutes, the patients were ready for transport to Kandahar Air Base.
    Additionally, Capt. Solghan and his team successfully coordinated 
with the United Kingdom (UK) Aeromedical Evacuation Control Center 
(AECC) for the transport of a UK solider that suffered a blast injury 
that left him with only one functioning lung. Capitalizing on the 
capabilities of the USAF Lung Team stationed at Ramstein Air Base, 
Germany, and the technology of a Nova artificial lung, this UK service 
member was transported in the U.S. Aeromedical Evacuation System to 
Germany for critical treatment, and then finally to the Birmingham 
Military Hospital, UK, where he is now doing well. This success story 
demonstrated a multinational effort of over 1,000 aircrew, ground, and 
medical personnel.
    Capt. Solghan and his team significantly improved the Afghan 
patient movement system, integrating United States airlift capability 
with International Security Assistance Force and Afghan hospital 
networks. They executed the first-ever United States airlift transport 
of an Afghan patient to an Afghan hospital and enabled eight new 
casualty transport routes, increasing inpatient turnover by 70 percent 
and influencing new joint theater policy. They also initiated joint 
operations with the Afghan National Army Air Corps, enabling more than 
43 patient evacuations with indigenous air assets thus fostering 
national military airlift capability.
    Major Louis Gallo, another Air Force nurse, elevated the level of 
care delivered to our wounded warriors, by leading the first 
Contingency Aeromedical Staging Facility at Bagram Air Base, 
Afghanistan. His team set up tents to stage patients as they waited for 
flights to Germany. He coordinated the procurement of essential 
communication equipment and support services needed to sustain 
operations. Knowing that injured patients needed more than medical 
care, he contacted the United Service Organization, whose volunteers 
set up a morale tent within days with supportive and recreational 
services to aid those awaiting transportation.
                              humanitarian
    As a result of the devastating earthquake in Haiti on January 12, 
2010, the Special Operations Surgical Teams and Special Operations 
Critical Care Evacuation Teams, assigned to the 1st Special Operations 
Wing, Hurlburt Field, Florida, deployed with the initial response 
aircraft and were the first military medical teams on the ground. The 
intense training and combat experience gained in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) prepared the teams 
for extremely difficult conditions. They worked around the clock to 
provide emergency life-saving care to countless American citizens and 
Haitian Nationals. The teams established treatment areas at the Port-
au-Prince Airport and the American Embassy. The Critical Care Nurses 
provided casualty evacuation of patients both in and out of country as 
well as pre- and post-operative intensive care unit management. The 
Nurse Anesthetists assisted in lifesaving surgeries including several 
amputations, and augmented the ICU.
    Our Air Force Nurse Corps mission is ``we lead, we partner, we 
care.'' These words have never been more relevant as when the nurses 
and medical technicians of Joint Base McGuire-Dix-Lakehurst repatriated 
our fellow Americans who survived the horrific earthquake in Haiti. 
``Over a 4 day period, around the clock, plane after plane, those three 
words, `lead, partner, and care,' defined every aspect of the mission 
we found ourselves involved in,'' stated Major Robert Groves, Deputy 
Chief Nurse and Education and Training Flight Commander. He summarized 
his team's experiences using the Air Force Nurse Corps mission as a 
backdrop:
  --We lead.--Every shift had an assigned Nurse Corps officer and 
        Senior Non-Commissioned Officer, an Aerospace Medicine Services 
        Technician, to organize healthcare, mentor colleagues who had 
        never participated in such an operation, and, of course, to 
        provide care to earthquake survivors. Among the major tasks 
        were organizing the treatment areas in the evacuation 
        operations center, inventorying and obtaining supplies, meeting 
        planes, triaging patients, and assisting with patient transport 
        to higher echelons of care.
  --We partner.--When operational tasks did not involve direct care, 
        one could find nurses and technicians supporting the endeavors 
        of our other Air Force colleagues. We allowed survivors to 
        share their experiences, played soccer with children in the 
        fitness center gym, assisted them to find appropriate clothing 
        at the donation center, helped them pack new suitcases for 
        their trip to families, and provided the use of personal cell 
        phones to call loved ones to let them know they were okay. For 
        some, these were the first words heard from loved ones in the 
        four days following the earthquake.
  --We care.--Direct patient care came easily and naturally to our 
        nurses and aeromedical technicians. But, it was more than that. 
        From the beginning of operations it was decided that no 
        survivor would be alone while on the ground in our area. While 
        few evacuees required transfer to higher echelons of care, when 
        they did, there was a member of our team assigned to accompany 
        them throughout the process. Many evacuees had not navigated 
        the American healthcare system. To prevent them from being 
        overwhelmed and lost in an unfamiliar system, one of our team 
        remained with them until they boarded flights to their 
        families. Sometimes it involved overnight stays at local 
        hospitals so they had a familiar, encouraging face during their 
        treatment. In the end, we processed 579 evacuees, with 70 
        needing more extensive medical care and six requiring transport 
        to community medical partners. But, the knowledge, skills and 
        cooperation with each other and our Joint Base mission partners 
        will be a long-lasting experience and will carry fond memories 
        of our military service long into the future. These four days 
        are what our readiness training had adequately prepared us to 
        do. This is what our service is all about.
                        recruiting and retention
    A robust recruiting program is essential to keep the Nurse Corps 
healthy and ready to meet the complex challenges in healthcare and 
national security. While we have executed incentive programs to address 
the nursing shortage, shortfalls continue to be an enormous challenge. 
Today's nursing shortage is expected to deepen as nursing faculty ages. 
The capacity for nursing schools to educate sufficient numbers of 
registered nurses (RN) to meet the future demand is stressed, largely 
due to the limited number of nursing faculty. On July 2, 2009, the U.S. 
Bureau of Labor Statistics reported the healthcare sector of the 
economy is continuing to grow, despite the recession, with more nursing 
jobs expected to be created in the next decade than in any other single 
profession. RNs will be in high demand to fill the majority of these 
positions, as they are the largest component of the healthcare 
workforce. The BLS projects that nearly 600,000 new RN jobs will be 
created by 2018. Quality of life and career opportunities, coupled with 
bonuses, special pays, and other incentives, are critical recruiting 
tools for Air Force Nursing.
    Recruiting fully qualified nurses continues to be one of our 
largest challenges and our historical and present statistics tell us 
this will be an issue for years to come. In fiscal year 2009, we 
accessed 284 nurses against our total accession goal of 350 (81 
percent), down 12 percent from what I reported the previous year. 
National competition to access nurses will continue as many 
professional employment opportunities exist.
    Our Nurse Enlisted Commissioning Program continues to be a superb 
resource as we continue to grow our own from our valuable enlisted 
medics. In fiscal year 2009, of 69 applicants, 40 qualified candidates 
were selected. In fiscal year 2010, we will meet our steady state goal 
of 50 quotas per year. The graduates from this program are commissioned 
as Second Lieutenants and will continue to be valuable assets.
    As we strive to meet our recruiting goals, NC retention remains 
challenging. In fiscal year 2009, 267 (almost 10 percent) nurses 
separated or retired from the Air Force, with 73 percent having 20 
years or less time in service and 58 percent being Lieutenants and 
Captains. With an Incentive Special Pay (ISP) budget increase of $3.3 
million compared to last year, our NC ISP is currently in its second 
year of execution. Seventy-eight percent of our nurses exercised single 
or multi-year contracts. This year's focus was to increase retention by 
recognizing advanced academic preparation, certification and 
experience. In addition, we expanded the number of nurses eligible for 
ISP by adding additional Air Force Specialty Codes and clinical 
settings. While the ISP was not a retention bonus out right, we look 
forward to seeing a positive impact on retention as a result of this 
initiative.
    A number of societal, scientific, and professional developments 
have stimulated a major paradigm change in graduate nursing education. 
One major impetus for this change was the American Association of 
Colleges of Nursing's (AACN) decision in 2004 to endorse the Position 
Statement on the Doctorate in Nursing Practice (DNP). This decision 
moves the current level of preparation necessary for advanced nursing 
practice from the master's degree to the doctorate-level by the year 
2015. The U.S. Air Force Surgeon General fully supports AACN's 
decision, and in response, the Air Force Nurse Corps has researched 
current practice issues within the Nurse Corps and has developed an 
implementation proposal for achieving the AACN goals by 2015. 
Currently, all Air Force Nurse Practitioners are trained through a 
master's degree program. The Air Force NC recommends a phased 
implementation approach to meet the AACN intent. Starting in calendar 
year 2010, the Air Force Nurse Corps proposes a small pool of Nurse 
Corps candidates to be selected to attend Doctor of Nursing Practice 
(DNP) programs and by 2015, all students entering the nurse 
practitioner (NP) career path will graduate with a DNP. In addition, by 
2015, all new Air Force NP candidates accessed through the Health 
Professions Scholarship Program (HPSP) will be prepared at the 
doctorate level. Recruitment of fully qualified NPs has been a 
challenge and will likely become more difficult with the increased 
educational requirements. The Nurse Corps must pursue additional 
incentives to entice DNPs to enter the Air Force.
                          operational currency
    Education and training is the foundation of the Nurse Corps 
competencies and one of our priorities is to ensure currency platforms 
meet emerging clinical and operational requirements. The Nurse 
Transition Program (NTP) continues to be one of our many successes with 
10 military and two civilian locations. We graduated 158 NTP nurses in 
fiscal year 2009. Last year; I reported a civilian partnership with the 
Scottsdale Healthcare System, in Scottsdale, Arizona was on the 
horizon. I was honored to deliver the commencement address for the 
second class in December, where we graduated 15 students. We have 
partnered with an outstanding Magnet status organization and our new 
Air Force nurses are getting unprecedented clinical opportunities. At 
just 6 months, the Scottsdale program is already proving to be a 
cornerstone in the success of a strong military partnership between 
Scottsdale Healthcare and Luke Air Force Base, Arizona, located 35 
miles east of Scottsdale. From October to December, nurses trained on 
inpatient units at two Magnet-recognized facilities where they gained 
hands-on clinical experience and competence in direct patient care 
under the supervision of nurse preceptors. Their training was further 
enriched with rotations in peri-operative services, wound care, 
infusion services, laboratory, pediatrics and the Maricopa County burn 
unit. The privilege of training in Magnet-recognized facilities is an 
experience that will prepare our nurses to meet the demands in our 
stateside facilities as well as in deployed settings around the globe. 
I am proud of the exceptional work the course supervisors, Majors 
Deedra Zabokrtsky and Nancy Johnson, have achieved in such a short 
period of time. The Scottsdale program will begin a steady state of 20 
to 25 nurses per class in 2010, making it the largest nurse transition-
training site.
    The 882nd Training Group at Sheppard Air Force Base, Texas, is 
instrumental in establishing the largest joint armed services medical 
education and training center that the world has ever seen. To date, 
the 882 Training Group spent more than 11,000 hours working side by 
side with their Army and Navy counterparts to consolidate 15 military 
enlisted medical technical training courses. These collaborative 
efforts have allowed the three services to incorporate best practices 
and build state-of-the-art training platforms that will prepare the 
next generation of medics for the military's diverse missions. The 882 
Training Group began transitioning key and essential personnel in the 
fourth quarter of fiscal year 2009 and will continue staging instructor 
staff and equipment to the Medical Education and Training Campus (METC) 
at Fort Sam Houston in San Antonio through the last quarter of fiscal 
year 2011 when all courses are projected to be operational. The first 
METC Senior Enlisted Advisor is Chief Master Sergeant Kevin Lambing, an 
Air Force Senior Aerospace Medical Technician.
    Our enlisted medical technicians, led by Chief Master Sergeant 
Joseph Potts, are vital to the achievements of the TNF. One of many 
outstanding Airmen is Staff Sergeant Christopher Brown, a medical 
technician deployed from the 88th Medical Group for 192 days to Kabul, 
Afghanistan, where he was assigned to Joint Task Force Phoenix VII. 
SSgt. Brown received a Meritorious Service Medal in recognition of his 
superior performance as a medical technician while supporting 
humanitarian missions, conducting medical evacuations, training 
Afghanistan medics, participating in military convoys, and setting up 
an Afghanistan medical clinic. He was the sole medic for a 12-person 
police mentoring team traveling to various remote areas surrounding 
Kabul to train Afghan police. Assigned to the Afghan Evaluation 
Transition Team, he was given 14 Afghan medics to train and prepare to 
treat patients at a bare base. He participated in the longest convoy in 
OEF history to move the Afghan Kadack to the bare base in western 
Afghanistan. SSgt. Brown is a fine example of the many committed Airmen 
who continue to make our Air Force proud.
    In an effort to increase advanced life support capability at bases, 
we have trained several of our Aerospace Medical Service Technicians to 
the National Registry of Emergency Medical Technician-Paramedic level. 
The inaugural class launched last fall graduated 19 students. This 
initiative helps reduce the number of contract services in our 
emergency response platforms by growing our own paramedics from our 
enlisted force. This will also provide a marketable career path outside 
the military when these individuals retire. We are expecting an annual 
growth rate of 50 per year with the vision of providing relief for a 
stressed career field.
    Another force multiplier is our Independent Duty Medical 
Technicians (IDMT). We continue to see a steady increase in our IDMTs 
as we balance the end strength of our medical technicians. They play an 
integral role within our Air Force Medical Service as our physician 
extenders. They are designed to function in a small footprint providing 
patient care, as well as fourteen other ancillary support functions. 
The continued efforts to recruit IDMTs have garnered our highest 
``true'' volunteer candidates equaling 24 in the past 10 years. The 
remainder of our IDMT candidates are gained through the Noncommissioned 
Officer Retraining Program designed to right size undermanned career 
fields across the Air Force. Additionally, continuation of the 
selective reenlistment bonus has aided the recruitment and retention of 
these valuable assets. Information technology has further enhanced our 
IDMTs' capabilities. We supply each IDMT with a hand-held Hewlett-
Packard iPAQ that is fully loaded with reference materials, thereby 
increasing access to the most up-to-date medical information without 
adversely affecting space and weight limitations of their medical bags.
                           skills sustainment
    For nearly a decade, the Air Force Medical Service has partnered 
with high volume civilian trauma centers to prepare doctors, nurses, 
and technicians to care for combat casualties. Maintaining readiness to 
care for the complex traumatic injuries seen in war is challenging as 
most military treatment facilities care for lower acuity patients. To 
bridge this gap, three Centers for Sustainment of Trauma and Readiness 
Skills (C-STARS) platforms were established at the R Adams Cowley Shock 
Trauma Center in Baltimore, at University Hospital Cincinnati, and at 
Saint Louis University Hospital. C-STARS Baltimore has a surgical and 
emergency care focus. C-STARS Cincinnati is designed specifically for 
the clinical sustainment of Critical Care Air Transport Teams. C-STARS 
St. Louis serves a range of medical and surgical specialties. In 2009, 
817 doctors, nurses, and technicians completed vital training at one of 
these three centers. Since inception, these partnerships have enabled 
4,336 Total Force medical Airmen to maintain clinical currency. During 
their 2 to 3 week tours, participants complete 90 to 100 percent of 
required readiness skills through hands-on patient care, supplemented 
by didactics, cadaver labs, training with patient simulations, and 
field exercises.
    In addition to the immersion experience obtained at C-STARS, a 
complementary initiative was started in 2009 called STARS-P, the 
Sustainment of Trauma and Resuscitation Skills Program. Personnel 
assigned to designated STARS-P military treatment facilities at Wright-
Patterson AFB, Ohio; Luke AFB, Arizona; Nellis AFB, Nevada; Travis AFB, 
California; and Wilford Hall Medical Center, Texas, rotate through 
local civilian Level I trauma centers as part of their normal duty 
time. For example, medical personnel assigned to Luke AFB, routinely 
rotate to nearby Scottsdale Healthcare. As a new initiative, we 
continue to define processes that best match the needs of the military 
treatment facility and the host civilian institution; however, STARS-P 
holds great promise as another approach to honing war-readiness skills. 
These partnerships with civilian medical facilities have proven to be 
invaluable to maintaining a high state of readiness to deliver quality 
care to our Soldiers, Sailors, Airmen, Marines, their families and 
coalition partners.
    Another valuable skills sustainment program is the Critical Care/
Emergency Nursing (CC/EN) Fellowship. The three fellowship sites, 
Wilford Hall Medical Center, San Antonio, Texas, St. Louis Hospital, 
St. Louis, Missouri, and the National Naval Medical Center, Bethesda, 
Maryland, continue to produce superbly trained nurse clinicians. Many 
graduates have already employed their new skills at deployed locations 
in Afghanistan or Iraq, and several stationed at the 59th Medical Wing 
have returned to one or both AORs for more than one tour. Forty-three 
percent of the San Antonio Military Medical Center graduates have 
obtained advanced certification as Critical Care Registered Nurses. As 
of March 2009, 99 of 313 critical care nurses are Critical Care 
Registered Nurses. Graduates of these benchmark programs are phenomenal 
and often light years ahead of their peers. Nurse leaders repeatedly 
report from the deployed environment that our graduates are the best, 
``Put into any situation and they simply shine.'' They have developed 
critical thinking skills that often exceed those of more experienced 
critical care nurses.
    We received updates from two of our June 2009 graduates, Captain 
Matthew Howard and Captain Lindsay Erickson, both currently serving at 
Bagram Air Base, Afghanistan. Their comments clearly highlight their 
enhanced level of clinical and critical thinking skills. Capt Howard 
stated, ``I in-serviced the staff on ventriculostomies the very first 
shift I worked. We set a record last month for the most traumas since 
the war started here, and if we keep going, we will exceed it this 
month. More importantly, the survival rate is up 3 percent and at a 
record high.''
    Capt Erickson stated, ``By the end of my second week, a mass 
casualty situation arose. The unit was full with 16 patients. We moved 
three non-vented patients to the ward, and quickly acquired six new 
trauma/burn patients. I started the day with a three-patient assignment 
and ended up taking one of the new traumas on top of that. It was 
challenging but I felt very well prepared and took the assignment on 
without hesitation. No doubt my Critical Care fellowship training 
prepared me well. One of the burn patients required bladder pressure 
monitoring. Many of the nurses here aren't too familiar with this, so I 
volunteered to teach.''
    The CC/EN Fellowships have set the standard. Our graduates provide 
the highest quality care, both stateside and in the deployed 
environment, positively impacting lives on a daily basis. In the area 
of responsibility, the impact is palpable with a sustained 95 percent 
survival rate for OIF, and 96 percent survival rate for OEF.
                        organizational structure
    The Air Force Medical Operations Agency (AFMOA) in San Antonio, 
Texas is a single support agency that stood up in September 2008 under 
the command of Brigadier General Mark A. Ediger. Nearly 18 months 
later, AFMOA has progressed as a robust centralized reach-out, reach-
back clinical support hub, collaborating with the major commands to 
standardize business practices across the Air Force Medical Service in 
pursuit of ``Excellent Healthcare, Clinical Currency.'' To that end, 
the AFMOA Surgeon General Nursing Directorate, comprised of three 
divisions and led by Colonel Leslie Claravall, has concentrated efforts 
toward developing currency platforms to sustain clinical skills for 
deployed operations. For example, the Provision of Nursing Care 
Division, led by Colonel Doug Howard, participated in an ``Emergency 
Department Analysis and Process Improvement Project'' in November 2009 
and is partnering with emergency services leadership of nine military 
treatment facilities to employ efficient evidence-based processes. 
Ultimately, the goal is to increase throughput leading to enhanced 
patient safety and satisfaction, while providing more experience and 
opportunity for medics to sustain clinical currency. Other clinical 
arenas, to include inpatient care and specialty care clinics, will be 
targeted in the same manner.
    Additionally, AFMOA Surgeon General Nursing is contributing to 
efficient healthcare and clinical currency by building tools to enhance 
mentoring and information sharing. To illustrate, the Education and 
Training Division, led by Colonel Lilly Chrisman, was key in 
facilitating ``Mosby on line'' as an Air Force Medical Service 
enterprise-wide reference tool. Modernizing access to the most current 
edition of a sound clinical reference allows our medics to obtain 
guidance anytime from any computer, while saving countless dollars by 
averting the distribution of new hard copies to replace outdated ones 
across the Air Force Medical Service
    AFMOA Nursing Service Resourcing Division, led by Colonel Robert 
Hontz, was the last division to stand up this summer. This division 
analyzed nurse resources across the major commands making 
recommendations to support Air Force initiatives such as the Medical 
Home Model for patient-centered care, a new Special Needs Coordination 
Cell to improve continuity of care for special needs family members, 
and the plus up of mental health nurses to support increasing 
deployment demands on a stressed career field. The Mental Health Nurse 
(46P3) and the Mental Health Nurse Practitioner (46Y3P) Air Force 
Specialty Code (AFSC) is currently staffed at 77 percent for 46P3 and 
100 percent for the 46Y3P. The high mobility tempo of this specialty 
makes it difficult to retain these critically manned mental health 
nurses. Currently, there are 30 psychiatric nurses in deployment unit 
type codes increasing to 40 in fiscal year 2010 to meet the career 
field's rigorous mobility requirements. The entire Air Force Medical 
Service mental healthcareer field is in the Band ``D'' Battle Rhythm 
which requires a 1:2 deployment: dwell time. Seven to eight psychiatric 
nurses are deployed worldwide in support of OIF and OEF each cycle.
    The Air Force Medical Service is taking steps to alleviate the 
stressors on the mental health nursing career field, and plans are 
under way to build a formal training program at the David Grant Medical 
Center at Travis AFB, California. This course will train clinical 
nurses to become mental health nurses. Additionally, we are pursuing an 
increase in mental health nurse and mental health nurse practitioner 
authorizations. Our goal is to place 10 additional mental health nurses 
in our bedded military treatment facilities to augment the staff caring 
for our wounded warriors and other beneficiaries. The advanced clinical 
capability of our mental health nurse practitioners has been lauded by 
patients as well as other provider staff. The Air Force Medical Service 
has ``grown our own'' through the Air Force Institute of Technology 
program, with 14 of our 15 nurse practitioners having come from our 
mental health nurse career field.
                                research
    Air Force nurse researchers are integral to the joint research 
conducted in the U.S. Central Command area of responsibility. The Joint 
Combat Casualty Care Research Team (JC2RT) consists of six Army and 
three Air Force members with the mission of fostering and facilitating 
medical research, performance improvement, and evidence-based practice 
initiatives for the United States Central Command Joint Operations 
Area: Multi-National Corps--Iraq Theater, U.S. Forces Afghanistan, and 
Kuwait. In March 2009, the Department of Defense medical research 
program was initiated in Afghanistan under the direction of Colonel 
Elizabeth Bridges, an Air Force Reserve Ph.D. prepared nurse. 
Simultaneously, Lieutenant Colonel Teresa Ryan, also an Air Force 
Reserve Ph.D. prepared nurse from Keesler AFB, Mississippi was the 
senior Deployed Combat Casualty Research Team (DC2RT) researcher at 
Balad, Iraq.
    Colonel Bridges laid the groundwork for the arrival of a team of 
six researchers (physicians, nurses, a nutritionist, and a 
physiologist) who arrived in September to Bagram. Currently, Major 
Candy Wilson, a Ph.D. prepared nurse, from the 59th Clinical Research 
Squadron at Lackland AFB, Texas is at Bagram. In August 2009, the JC2RT 
Headquarters office moved from Ibn Sina, Iraq to Bagram, Afghanistan. 
In October 2009, Lieutenant Colonel Kevin Bohan from the Graduate 
School of Nursing, Uniformed Services University of the Health Sciences 
along with SGT Andrew Coggins, a Army laboratory services NCO, 
established an office in Kandahar to expand the research program. The 
nurse researchers assigned to the DC2RT identified the following major 
areas for research: mild traumatic brain injury, management of complex 
orthopedic trauma, pain management across the continuum of care, and 
integration of information from the Level II medical facilities and the 
en-route phase of care, both medical evacuation and aeromedical 
evacuation.
    The teams provide guidance and review for all research conducted in 
Afghanistan, Iraq and Kuwait. The Ph.D. prepared nurses provide 
leadership and guidance on scientific merit, design and methodology of 
research. Each team member is involved in collecting data for a variety 
of research protocols focusing on combat casualty care. Over 150 
research studies have been conducted or are being planned as a result 
of the JC2RT's efforts. More than 20,000 subjects have been enrolled in 
research studies. Areas of research conducted by the U.S. military in 
Afghanistan and Iraq have led to advancements in combat casualty 
medical care and therapies to include tourniquet application, combat 
gauze, life saving interventions, en-route care, resuscitation, blood 
product administration, burns, wound care, post traumatic stress 
disorder (PTSD), traumatic brain injury, and infectious diseases.
    Colonel Bridges, as the first research nurse in Bagram, 
Afghanistan, from April to August 2009, received Tri-Service Nursing 
Research Program (TSNRP) funding for a functional hemo-dynamic study in 
Afghanistan. Since 2006, 34 nursing research protocols have been 
approved with U.S. Air Force nurse researchers being principal 
investigators in five of those studies. The overall nursing research 
themes include warrior care, healthcare delivery, trauma, behavioral 
health, and nursing/healthcare professional issues. Nursing principal 
investigators have investigated pain management, functional hemo-
dynamics, and StO2 monitor for occult hypo-perfusion, carbon monoxide 
exposure, women's health, sleep disturbances in soldiers, oral care in 
the critically ill, retention, recruitment, PTSD, burnout, compassion 
fatigue, and moral distress in nursing personnel. To date, three Air 
Force led nursing research protocols are in the final stages of 
approval by the institutional review board, which researchers by law 
must submit their research proposal to receive approval before 
beginning a research study.
    As a member of the Joint Combat Casualty Research Team, Major 
Wilson augmented the Combined Joint Special Operation Forces to provide 
healthcare for local men, women, children and the Afghanistan National 
Army. During visits to the villages, Maj. Wilson, a nurse practitioner, 
along with other healthcare professionals, provided medical care for 
over 10,000 patients during a 6-day period. The rugged and austere 
healthcare delivery conditions required medical diagnoses to be made 
based on patient presentation, without the aid of laboratory or 
radiology analyses. In addition to the direct benefits of the care 
provided, valuable and actionable intelligence was gathered on these 
missions that resulted in improved situational awareness by U.S. forces 
and directly resulted in saving lives of service members.
    The TSNRP Executive Director position transitioned to Colonel Marla 
DeJong in 2009, the second Air Force nurse researcher to hold this 
position. The TSNRP is the only program with the primary mission of 
funding military unique and military relevant nursing research. Colonel 
DeJong is responsible for facilitating tri-service nursing research to 
optimize the health of military members and their beneficiaries. The 
goal of military nursing research is to produce knowledge that further 
enhances clinical practice, the delivery of healthcare, nursing 
education, and nursing management. Since its inception in 1992, the 
TSNRP has funded more than 300 military nursing research studies and 
several evidenced-based practice projects. Ultimately, application of 
this new knowledge improves the quality and delivery of nursing 
practice, promotes the best possible outcomes for patients and 
families, and informs healthcare policy decisionmakers. With the 
support of TSNRP funding, the pocket guide, Battlefield and Disaster 
Nursing Pocket Guide, which I shared during last year's testimony, has 
been distributed to 15,000 Air Force military nurses and medics to 
augment readiness preparation.
    During 2009, military nurse leaders, researchers, and stakeholders 
of the TSNRP revised the mission and research priorities to ensure the 
funding clearly reflects the mission and research vision of military 
nurses. The current TSNRP research priorities are (1) force health 
protection, (2) nursing competencies and practice, and (3) leadership, 
ethics, and mentoring. The TSNRP sponsors Grant Writing Workshops for 
novice and experienced researchers to learn how to design studies and 
write high-quality applications that will be competitive for funding. 
Annually, the TSNRP conducts a Post-Award Management Workshop to inform 
grant recipients of Federal, Department of Defense, and TSNRP 
management policies and guidance on grant execution.
    Results from TSNRP-funded research impacts nursing clinical 
practice in deployment resilience, retention, methods to reduce 
ventilator-associated pneumonia, health disparities, and women's health 
during deployments. For example, Major Jennifer Hatzfeld who defended 
her dissertation in 2009, ``Assessing Health Disparities in the Air 
Force'' documented the prevalence of health disparities according to 
race or ethnicity for chronic diseases such as hypertension, high 
cholesterol, and diabetes among adult Active Duty Air Force members; 
however, she found no evidence of disparities in the treatment outcomes 
of patients with these conditions, indicating patients received 
appropriate medical care.
    Numerous mission-relevant studies are in progress. Colonel Bridges' 
study is designed to evaluate new methods of monitoring patients after 
hemorrhage on the battlefield. Colonel Penny Pierce, a retired Air 
Force nurse reservist, and her colleagues have systematically collected 
comprehensive survey data from deploying troops beginning with the 
Persian Gulf War and continuing through OEF and OIF. The initial 
studies focused primarily on military women due to the sociopolitical 
concerns raised by deployment of large numbers of women, reservists, 
and mothers of dependent children. Later studies included men and women 
from the Air Force and Army, enabling researchers to compare findings 
by gender, military service, and deployed locations. Data collection 
pertained to physical, mental, and gender-specific health issues. 
Junior enlisted women and families experiencing economic hardships were 
particularly vulnerable to work-family conflict. Further, individuals 
with work-family conflict were at high risk to develop post-traumatic 
stress disorder. Stressors such as family conflict and organizational 
issues influenced the physical and mental health of military members 
and impacted retention. Importantly, these stressors are potentially 
modifiable. Work is underway to identify interventions that will 
benefit individuals, families, and the uniformed services.
    TSNRP-funded researchers continue to disseminate the results of 
their studies through peer-reviewed publications and numerous 
presentations at nursing and medical conferences. The TSNRP co-
sponsored the Karen A. Rieder Nursing Research Poster Session at the 
115th annual meeting of the Association of Military Surgeons of the 
United States. Air Force nurses presented 29 of the 90 posters which 
summarized the results of recent studies, evidence-based practice 
projects, and process improvement activities. Colonel Bridges, for 
example, recommended interventions to prevent complications during en-
route care of casualties transported by Critical Care Air Transport 
Team during OEF and OIF.
    In addition to her duties as TSNRP program director, Colonel DeJong 
is assigned to the DOD Blast Injury Research Program Coordinating 
Office. She organized and hosted an international, state-of-the-science 
meeting on blast-related mild traumatic brain injury. The meeting 
resulted in a thorough assessment of knowledge about TBI and identified 
the gaps necessary to shape future research. Colonel DeJong also co-
chaired the Joint Program Committee for Battle Injury Prevention 
Research and helped execute the $247 million Battle Casualty and 
Psychological Health Research Program.
    Colonel Karen Weis, another one of our Ph.D.-prepared nurses, co-
authored Psychosocial Adaptation to Pregnancy: Seven Dimensions of 
Maternal Role Development. Colonel Weis also authored a nurse-physician 
communication assessment tool used in several military treatment 
facilities, as well as the Methodist health system in Houston, Texas. 
The instrument assesses perceived barriers to physician-nurse 
communication enabling focused attention for improved staffing 
effectiveness.
    Colonel John Murray just completed a chapter entitled, ``The U.S. 
military health system: Meeting healthcare needs in wartime and 
peacetime'', to be included in Policy & Politics in Nursing and Health 
Care. As the Director of Education, Training & Research, Joint Task 
Force, National Capital Region--Medical, he developed Joint-level DOD 
Assurance and Issuing authority for research within the National 
Capital Region. Colonel Murray is a member of the Department of 
Veterans Affairs (VA) National Research Advisory Council and the VA 
workgroup for Research on Educational Interventions for Health 
Professionals.
    Lieutenant Colonels Patricia Bradshaw and Karen O'Connell, and 
Majors Susan Dukes, Brenda Morgan, and Antoinette Shin are near 
completion of their Ph.D. program. These nurses will be deliberately 
placed as the Nurse Corps builds research specific locations or 
``cells''.
    We recently developed a nursing research fellowship and the first 
candidate will begin this spring. This 1-year pre-doctoral research 
fellowship will focus on clinical and operational sustainment 
platforms. The intent of this program is for the fellow to develop a 
foundation in nursing research and ultimately pursue a Ph.D.
    The desire for evidence-based nursing care is at the forefront of 
the nursing staff at the 59th Medical Wing, Wilford Hall Medical 
Center, San Antonio, Texas. Newly hired nurses are oriented to the 
benefits of nursing research and evidence-based practice during nursing 
orientation. The deliberate promotion of nursing research has resulted 
in three nurses developing protocols for funding from TSNRP.
    Nursing staff from the 88th Medical Group, Wright-Patterson AFB, 
Ohio, have submitted three research grants this year and are 
participating in two nursing studies. Major Bonnie Stiffler, the 
primary investigator for the study, ``Barriers to Screening Mammography 
for Medical Treatment Facility Enrolled Beneficiaries,'' is conducting 
telephone interviews to identify barriers to obtaining provider 
recommended mammography. The goal is to identify barriers to care and 
then develop methods to minimize or eliminate the barriers. Colonel 
Robie Hughes is the primary investigator for a funded multi-site study 
titled, ``Air Force Nurse Transition Program Student Quantitative 
Medical Simulation Performance''. This study will be the first formal 
study conducted at the nine Nurse Transition Program sites during a 
simulated medical scenario evaluating nurse performance from this 
established 11-week training program.
                       strategies for the future
    I am proud to report that we have created a Master's Degree in 
Flight Nursing with an Adult Clinical Nurse Specialist focus and 
concentration in Disaster Preparedness. This program, the first of its 
kind in the country, was designed and ready for students in just 3 
months. We partnered with Wright State University-Miami Valley College 
of Nursing, Dayton, Ohio and the Health and National Center for Medical 
Readiness Tactical Laboratory at Calamityville. Graduates from this 
program will gain expertise in Flight Nursing as well as emergency and 
disaster preparedness from military and civilian perspectives. Our 
first candidate will begin in the spring. The unique and diverse 
curriculum will meet Homeland Security Presidential Directive #21 and 
include advanced clinical courses in acute and chronic health issues 
for the adult population with an emphasis in flight and disaster 
nursing. The Flight Nursing component will address symptom management 
and stabilization during air transport. In addition to the classroom 
training, students will be connected with a preceptor in an active 
flight nursing setting with both fixed and rotary aircraft at the 
375th, Scott AFB, Illinois and Care Flight at Miami Valley Hospital, 
Dayton, Ohio. Students will be exposed to tragic scenarios to 
illustrate the impact disasters place on the health and safety of 
individuals and families. A former 54-acre cement plant in Ohio is 
being developed into an all-hazards disaster and training facility. 
This site will be incorporated into joint civilian and military 
training programs to provide a realistic venue to simulate natural and 
man-made disasters. Upon completion of this rigorous program, graduates 
will be eligible to take the Adult Health CNS and American Nurse 
Credentialing Center certification exams.
    The Graduate School of Nursing at the Uniformed Services University 
Health Sciences (USUHS) continues to provide cutting-edge academic 
programs to prepare nurses with military unique clinical and research 
skills in support of delivery of patient care during peace, war, 
disaster, and other contingencies. As they move toward their vision of 
being a nationally recognized academic leader, while on the forefront 
of a nurse and nurse educator shortage, the Graduate School of Nursing 
was asked to collaborate with the Federal Nursing Service Chiefs to 
increase the cadre of baccalaureate-prepared military nurses, through 
creative partnerships with existing schools of nursing. One of 
Uniformed Services University Health Sciences' top initiatives is to 
work with civilian nursing institutions to address the military nursing 
shortage and assist the Department of Defense to identify strategies to 
encourage and incentivize potential applicants to enroll in 
baccalaureate nursing programs. USUHS plans to develop and deploy a 
comprehensive survey to assess the willingness of potential student 
populations to consider accepting an undergraduate nursing education in 
return for a commission as a Nurse Corps officer in the Armed Forces 
with a subsequent service obligation. The targeted populations will 
include students in nursing school programs, qualified applicants who 
are not accepted for admission to nursing school due to space 
limitations, associate-degreed registered nurses, second career nurses, 
and enlisted service members with a desire to be commissioned as a 
nurse corps officer. Data from these surveys will be analyzed to 
identify and quantify perceptions of potential nurse applicants towards 
military service.
    As I reported last year, we developed Master Clinician roles to 
afford our most clinically experienced senior nurses with advanced 
academic preparation to remain at the bedside without sacrificing 
promotion opportunities. We have 20 Colonel positions identified across 
our military treatment facilities and are diligently working to fill 
these authorizations in fiscal year 2010.
                               way ahead
    Nursing, the essential healthcare profession, is highly valued for 
providing skilled, evidence-based quality care to Airmen and their 
families. We continue to arm our nursing service personnel with the 
necessary skill sets through education, training, and research to meet 
the challenges of operating in the ever changing global environments.
    Nurse recruitment and retention continues to be our focus as we 
develop academic partnerships, sustain our accession programs, reward 
clinical practice through incentive specialty pay, and enhance nursing 
capabilities through advanced academic preparation such as the Masters 
Degree in Flight Nursing and our DNP implementation plan.
    We look forward to the future. By being actively engaged in nursing 
research, we are generating the knowledge necessary to guide Air Force 
and Joint nursing operations. Through the synergy of our AD, ANG, AFRC, 
civilian, and contract forces, coupled with the collaborative 
relationships of our sister Services and civilian partners, we are 
prepared to meet emerging challenges with strength and confidence. Air 
Force Nursing stands ready today to embrace the challenges of tomorrow 
as we lead, partner, and care, every time, everywhere.
    Mister Chairman and distinguished members of the Committee, it is 
my honor to be here with you today representing a dedicated, strong 
Total Nursing Force of nearly 18,000 men and women. We sincerely thank 
you for your tremendous support for Air Force Nursing.

                  CARING FOR WOUNDED, ILL AND INJURED

    General Horoho. Sir, I absolutely believe Army nurses are 
prepared for those types of injuries. But, it has proven a 
challenge. You know, years ago, if you asked whether or not 
Army nursing provided rehabilitative nursing, we didn't. Post-
9/11, absolutely. That's one of our core competencies. And 
we've worked hand in hand--when we talk about Army nursing, we 
talk about our Active component, our Reserve component, our 
National Guard, our medics, and our civilians. All three of 
those are critical to ensuring that we're being able to meet 
the needs of our patients on the battlefield in--both in our 
stateside facilities.
    So, when you talk about whether you have the capabilities, 
every single one of our medics are highly trained, and that's 
where we've got that life-sustaining care that's given at the 
point of injury, and then they're immediately evacuated back 
either for our forward surgical teams or back to our combat 
support hospitals. And then, in 36 hours, those critically 
injured patients will be seen at Landstuhl Regional Medical 
Command, and then further evacuated to our major--our nine 
other major medical centers.
    And so, we've spent the very first year, in 2008, of really 
looking at every single competency needed to be able to support 
an expeditionary force, and then we've spent this past year 
changing the way that we leader-develop, changing our 
competencies, and actually changing how we assign our nurses. 
So, instead of assigning based on authorizations, we actually 
assign based on capabilities, so we know where the needs are, 
what type of capabilities are needed, and then we make those 
assignments across the Army Nurse Corps.
    Chairman Inouye. Admiral.
    Admiral Flaherty. Yes, sir.
    The Navy Nurse Corps has added a number of programs to keep 
our staff well trained. As the war began, we saw new injuries 
and new types of injuries that perhaps we had not cared for 
before.
    We also have a workforce that had been deployed and had 
been at war, and come back with significant skills. So they are 
part of the training pipeline. They are training each other 
about what they saw, what they've been able to care for, and 
what now is needed.
    We've partnered with our civilian organizations to get our 
nurses to some intensive intensive care unit (ICU) care and 
also some emergency medicine care, because we know they--the 
corpsmen on the battlefield--are the ones who are providing 
that wonderful support for that young marine or that young 
sailor or that young soldier.
    So, do we have all the answers? No, sir. Are we well 
prepared and well positioned to go forward with the future of 
what we see in the injuries? Yes, sir. We have training 
dollars, we have people in the pipeline for master's programs, 
and we are doing all that we can to make sure that that's 
shaped appropriately.
    Chairman Inouye. General.
    General Siniscalchi. Senator Inouye, thank you for your 
question.
    Sir, our focus has been on lifelong training, starting from 
novice through expert. Our nurse transition programs provide us 
an opportunity to take nurses, right from their bachelor of 
science degree program, into a transition program that focuses 
on building clinical competency. And as they progress 
throughout the professional continuum, we have very robust 
programs for skill sustainment, for just-in-time training. 
We've partnered with our sister services on developing critical 
care, trauma, and emergency room fellowships. It's a 12-year--
or, a 12-month fellowship that prepares our critical-care 
nurses to go into intensive-care settings in the deployed--in 
deployed operations, and have the advanced skills that they 
need to take care of our wounded who have traumatic injuries.
    We're focusing on mental health specialties. We are in the 
process of developing a Mental Health Training Program, at 
Travis Air Force Base in California, which will help us to grow 
our own. As we recognize the increased need for behavioral 
health, we can take our clinical nurses and put them through 
this educational program, at Travis, which will help to grow 
mental-health nurses. USUHS has developed a Mental Health Nurse 
Practitioner Program, and they have a unique focus in preparing 
mental-health nurse practitioners with the skill set they need 
to meet the challenges with our wounded warriors and their 
families.
    Our critical care educational programs, our Nurse 
Anesthetist Program, our nurse practitioner programs, are very, 
very robust, and our focus has been on developing partnerships 
with civilian universities and with USUHS so that, throughout 
the continuum, we can allow our nurses--afford our nurses the 
opportunity for advanced clinical preparation and training. I 
had testified last year that we had started a new role for 
master clinicians, and this role allows us to grow clinical 
experts with advanced experience and advanced academic 
preparation, and allow them to continue to compete for 
promotion and function at the bedside as true clinical leaders 
and clinical experts.
    We realize the increased challenges our flight nurses face 
with critical-care--movement of critical-care patients. And so, 
we've recently partnered with Wright State University, in 
Dayton, Ohio, to establish the first of its kind master's 
program in flight nursing, with a focus on adult health 
clinical specialists and homeland defense and disaster 
preparedness. And we are proud to say that our first student 
begins this fall.
    Chairman Inouye. Thank you very much.
    All of you heard Senator Murray set forth a few numbers. 
The suicide rate among service personnel is the highest in 28 
years--about 35 percent higher than the general population of 
the United States. And, surprisingly, over one-third have never 
been deployed. It was assumed that they were afraid of combat, 
but over one-third, never been deployed.
    As I pointed out, nurses spend more time with their 
patients than doctors because of the nature of their work, but 
do you believe that our program to attack this problem is 
adequate? Suicides.

                           SUICIDE PREVENTION

    General Horoho. Yes, Mr. Chairman.
    One of the things that, when we've looked at the 
psychological health in suicide prevention is, we really looked 
at it through the lenses of each member of the team, because 
each healthcare provider and ancillary support provides a 
critical skill set when they're interacting with our patients; 
and not just our patients, but also with their family members.
    We've taken the focus of looking at a holistic, kind of, 
comprehensive view. The Army has been very much engaged, over 
this past year, of looking at a behavioral health system of 
care that looks at taking that capability and, How do we surge 
that across Army medicine, push that into theater by using the 
electronic virtual behavioral health, so that we establish that 
relationship while your warriors are deployed?
    We also have very robust behavioral health and 
psychological support for the family members. One of the 
examples that we're doing right now is with the family members 
of 5-2 that are deployed. In preparation for them redeploying 
back, we have already partnered with TriWest, as well as with 
the local civilian communities and our military health 
providers, to start providing that support with the 
reintegration process now, in dealing with issues now, before 
waiting for those families to reintegrate together.
    So, it's really looking at a comprehensive piece of all of 
our clinical assets, to be able to impact patient outcomes. We 
have a long way to go, but I believe with the partnering that 
we've established with our civilian community leaders in 
healthcare, as well as with our sister services, so that we 
ensure that we are looking at this from a comprehensive 
perspective.
    Chairman Inouye. Admiral.
    Admiral Flaherty. Thank you. As we look at suicides, we 
look at both the Navy and Marine Corps numbers, and Navy 
medicine and Navy nursing are playing a key supporting role to 
our line colleagues. The line runs our program, and we are 
there in a supporting role. And as our Surgeon General talked 
about, often it's relationship--fractured-relationship issues 
that happen either at home or with a girlfriend, a boyfriend, 
et cetera--or partners.
    So, we need to pay attention to that, and we believe the 
core component of our programs really rests on resiliency. And 
how do we build internal resiliency for young men and women 
who, quite honestly, are quite strong, the military families 
are very resilient, but it's the stresses of the deployments 
that often can cause that fracture--so, how do we have our eyes 
on that? How do we care for each other? And it is, as the SG 
talked about, it is that shipmate. And I see you today, and I 
know that you're not the same as you were yesterday; you're not 
as funny as you were yesterday, perhaps. What's going on? That 
should be the first red flag to ask the question, ``How are you 
doing?''
    When people are uncomfortable about asking specific 
intrusive questions, you can ask, ``How are you sleeping?'' 
Because someone's sleep patterns and their sleep behavior often 
is a predictor of stress. So, getting our arms around the 
stress and understanding that.
    I believe we don't need a specialist to have that 
conversation. I believe the Navy nurse has every single skill 
that they need to have those conversations with people to talk 
about how well they're doing. What are their relationships? How 
are they feeling? And that is the backbone of some of the 
programs that we've put in place.
    So, it's resiliency, sir. It's operational stress control. 
For the Navy, we talk about ``staying in the green.'' We travel 
into--we look at a stoplight; green, yellow, orange, and red. 
Red means that I'm fractured and I need, probably, some 
intervention and support. I want to stay in the green; I want 
to be healthy, I want to eat right, I want to feel well, and I 
want to be able to do all the things that matter or are 
important. And we, as Navy support colleagues, try to help 
people stay in the green.
    If you get to the yellow, we can get you back to the green. 
If you get to the orange, we can still get you back to the 
green. We want to keep you there, so that you stay well and 
healthy.
    Chairman Inouye. General.
    General Siniscalchi. Sir, prevention of suicide begins with 
building a strong wingman culture. Resiliency is key to 
prevention of suicide. And in February, our Air Force senior 
leadership supported Lieutenant General Green's plans for 
providing targeted, tiered, resiliency training for our high-
risk groups.
    And as we look at the tiered resiliency training, the focus 
is on instilling resiliency and building that wingman culture 
throughout an entire career. It begins with foundational 
training and it continues throughout a career, focusing on 
groups that are identified as high risk. And as we identify 
groups that are high risk for risk of suicide, then we 
implement face-to-face training, increased interaction from the 
Commander, from the front line supervisor, so that we are doing 
training and instilling resiliency and building that wingman 
culture in building that team.
    Our focus for suicide prevention is on our total force. 
We're looking across our Active Duty, our Guard, our Reserve, 
and our civilian force for suicide prevention.
    Chairman Inouye. To close this hearing, may I call upon the 
nurses, if they so feel, to make their statements.
    General Horoho.
STATEMENT OF MAJOR GENERAL PATRICIA HOROHO, CHIEF, ARMY 
            NURSE CORPS, DEPARTMENT OF THE ARMY
    General Horoho. Mr. Chairman, distinguished members of the 
subcommittee, it is an honor and a great privilege to speak 
before you today on behalf of the nearly 40,000 Active 
component, Reserve component, National Guard officers, 
noncommissioned officers, enlisted, and civilians that are Army 
nursing.
    It has been your continued tremendous support that has 
enabled Army nursing, in support of Army medicine, to provide 
the highest quality of care to those that are entrusted to our 
care.
    Last year, I promised you an update on the Army Nurse Corps 
campaign plan that we began in October 2008. Leader development 
has always been one of the Army Nurse Corps' foundations, but 
as we move the Corps forward, we realize the need to develop a 
strategy to provide overarching, longitudinal training programs 
to ensure that we are building leaders for the future. A major 
initiative is the Leader Academy, a virtual construct designed 
to facilitate and enhance adaptive, full-spectrum Army Nurse 
Corps leaders.
    We also determined that there were nurses that needed a 
standardized clinical transition program to ensure success as 
they move from academics to nursing practice. In October 2008, 
the Army Medical Command formally fielded the Brigadier General 
Retired Anna Mae Hay Clinical Transition Program, named in 
honor of our 13th Corps Chief and the first female officer in 
the Army across nine medical centers. During fiscal year 2009, 
364 new graduate Army nurses completed the program, and so far 
this year over 270 have completed this program.
    The program is designed to ensure that we develop and 
foster critical thinking, communication, multidisciplinary 
teambuilding, and deployment skills. The first training and 
educational platform that we realigned to support our 
transformation was a head nurse course, and we named it the 
Clinical Nurse OIC and NCOIC Leader Development Course, as a 
result of recognizing the critical relationship that exists 
between the clinical nurse, the officer in charge, and the 
noncommissioned officer (NCO) in charge. The course provides 
our mid-level managers the opportunity to learn the essential 
skills to execute sound clinical and business practices.
    We are equally committed to the growth and the development 
of our NCOs and soldiers. In fiscal year 2011, we'll fund two 
senior NCOs to obtain their master's in healthcare 
administration, to ensure that we continue to meet the needs of 
the 21st century.
    We are also developing an intensive care course for our 
licensed practical nurses that will give Commanders the 
flexibility to use LPNs for transport of critical patients, 
standardized knowledge, and expand practice opportunities.
    Finally, the Leader Academy facilitates enhanced, care-long 
development through the level of our regional nurse executives. 
We adopted the American Organization of Nurse Executive 
Competencies to ensure the RNE has the knowledge, skills, and 
expertise to help manage their region's system of health. We're 
transforming Army nursing through the development of a nursing 
care delivery system, in order to perfect nursing care at the 
bedside. The patient and the family centered system of care 
has, at its cornerstone, standardized nursing practice. The 
standardized system of care will enable us to increase quality 
of care, reduce resources, and ensure standardization and 
stability of providing quality patient care. This is in 
support, and will allow the surgeon general's intent to improve 
healthcare delivery through standardization from the point of 
injury through evaluation and return to duty.
    The system of care will not only standardize nursing 
practice, but will also enable, for the first time, 
comprehensive measurements and improvement of nurse-sensitive 
patient outcomes, while leveraging evidence-based care and 
practices. Our efforts to transform Army nursing mirror the 
national initiatives to improve nursing practice in support of 
healthcare reform.
    In January 2009, we piloted elements of the system of care 
at Blanchfield Army Community Hospital at Fort Campbell, 
Kentucky. After 6 months of monitoring this program, the 
outcome measures showed an increase in nurse and patient 
satisfaction, an increase in critical lab reporting and pain 
reassessment, a decrease in nurse turnover, and a decrease in 
patients that left without being seen in our emergency room, as 
well as decreases in medication errors and risk management 
events.
    Select elements of the system of care are initially being 
implemented at three of our medical centers. For example, 
Tripler Army Medical Center has been using healing hours as a 
goal to promote rest and increase healing through consolidation 
of patient-care activities and then tailoring the provision of 
care for each of our individual patients.
    The Army Nurse Corps is aligned with our seven other Corps 
within the Army in support of Army medicine to foster evidence-
based practice. At every patient touch-point, we're ensuring 
that evidence-based practice is the foundation that supports 
the delivery of care. We're aggressively realigning expert 
clinical capability to surge as a bridge between research and 
clinical practice.
    In February 2009, the Tri-Service Nursing Research Program 
(TSNRP) invited nurse scientists from all services to meet and 
to determine new priorities for TSNRP. Not surprisingly, force 
health protection was recognized as the number one priority.
    Deployment research is designed to ask critical questions 
that cannot be answered other than on the battlefield, and Army 
nurses are leading the way. There have been 34 nursing-led 
protocols; 27 of those are from Army Nurse Corps researchers 
and one joint Army-Air Force protocol. The focus has been on 
warrior care, soldier health, trauma care, and behavioral 
health.
    We also rely on the Uniform Services University Graduate 
School of Nursing as the strongest educational platform to 
develop clinical talent.
    There has been great momentum since I've had the honor of 
introducing the Army Nurse Corps campaign plan to you last 
year. Our collective success has been the result of compassion, 
commitment, and dedication. I'm inspired by the pride, 
enthusiasm, and openness to change that I see across the Army 
Nurse Corps.
    We continue to experience amazing progress in each one of 
our strategic imperatives, and we're ensuring that the Army 
Nurse Corps remains relevant and a force multiplier for the 
Army medicine, the Army, Department of Defense, and our Nation.
    I continue to envision an Army Nurse Corps in 2012 that 
will leave its mark on military nursing and will be a leader of 
nursing practice reform at the national level. Our priority 
remains the patients and their families, and our common purpose 
is to support and maintain a system of health. In order to 
achieve this common purpose, we will let nothing hinder those 
who wear the cloth of our Nation, and those who took the oath 
to forever save, protect, and heal.
    The Army Nurse Corps is committed to embracing the past, 
engaging the present, and collectively, continuing to work to 
envision our future.
    On behalf of the entire Army Nurse Corps serving both home 
and abroad, I would like to thank you for your unwavering 
support and the entire subcommittee's unwavering support, and I 
look forward to continuing to work with you.
    Thank you, sir.
    Chairman Inouye. Thank you very much, General Horoho.
    Now may I call upon Admiral Flaherty.
STATEMENT OF REAR ADMIRAL KAREN FLAHERTY, DIRECTOR, 
            NAVY NURSE CORPS, DEPARTMENT OF THE NAVY
    Admiral Flaherty. Yes, sir. Thank you Chairman Inouye.
    And thank you for the opportunity today to highlight the 
accomplishments and opportunities facing the Navy Nurse Corps 
in 2010 as we care for the health of our force.
    Our Navy Nurse Corps, comprised of Active, Reserve, and 
Federal civilian nurses--many are here today in the room--are 
5,500 strong. My priorities, as Director, have been focused in 
three areas: people, practice, and leadership.
    Our Active component is manned at 91 percent, with 2,837 
nurses currently serving around the world, and we have already 
achieved our recruiting goal for 2010. The top three direct 
accession influences that are favorably impacting our 
recruiting efforts include the nurse accession bonus, Health 
Professions Loan Repayment Program, and the Nurse Candidate 
Program.
    Today, the Reserve component is 83 percent manned, with 
1,112 nurses. Last year, the Navy Nurse Corps Reserve component 
met 87 percent of their goal. Over 48 percent of those 
accessions were nurses coming to the Reserve component from 
Active Duty.
    We are continuing to focus closely on all the many pathways 
to achieve this goal. Leveraging current technology, the Nurse 
Corps recruitment liaison officer offers a combination of 
social networking media tools, including Facebook and Twitter 
and online discussion forums, to reach students at colleges and 
high schools, encouraging them to consider a career in Navy 
nursing. We have found that students have many thoughts, they 
have questions, and starting this discussion early is 
essential.
    Retaining Navy nurses is my top priority. Key efforts have 
positively impacted retention, including the registered nurse 
incentive specialty pay, a targeted bonus program for 
undermanned clinical and nursing specialties and our highly 
deployed nurse practitioners. My goal for this year is to 
increase retention by 50 percent in the Active Duty component 
for those with less than 10 years of service, and to retain the 
appropriate number in each officer rank in the Reserve 
component. We want our nurses to accept orders to a second and 
a third duty station, and begin early planning for their long 
career.
    I believe it is our responsibility, as Nurse Corps leaders, 
to fully understand all of the retention issues. In 2009, we 
commissioned the Center for Naval Analysis to conduct a survey 
and hold focus groups to help us understand factors that 
influence career satisfaction and dissatisfaction within our 
Nurse Corps. Our nurses told us they wanted us to be more 
understanding of family needs, career moves, and clinical 
advancement. We also learned that deployments were 
professionally fulfilling. We will do all that we can to make 
the required changes to impact this retention.
    Clinical excellence is one of the main tenets of the Nurse 
Corps clinical leadership model. In 2009, we developed and 
implemented standardized orientation in nursing competencies 
across all of our nursing specialties. Over the past several 
years, the Nurse Corps identified eight critical wartime 
specialties and developed our manning, training, and bonus 
structures to incentivize nurses to practice within those 
specialties. Each nursing specialty has an assigned specialty 
leader who is a clinical expert and understands the nursing 
practice within each community. We work closely together to 
embrace practice trends and future requirements.
    Understanding the deployments and type of care needed by 
our patients was essential when developing our nurses. To 
accomplish this goal, the specialty leaders work with senior 
nurse leaders at the military treatment facilities to create, 
again, the partnerships with our local civilian hospitals. Our 
military nurses are cross-trained in local emergency 
departments, as I mentioned, and in intensive care units. This 
is just one example of what is possible.
    We know that the wars have created both visible and 
invisible wounds, and our warriors and our families have 
experienced stress. To support the behavioral health needs of 
our warriors and their families, the Nurse Corps has increased 
its inventory of psychiatric and mental health clinical nurse 
specialists and nurse practitioners. This growth will also 
support the projected expansion of our Marine Corps. I believe 
that every nurse, as I've stated, has the ability to understand 
the unique needs of their patients, and offer support and 
guidance at every encounter.
    I am a fervent supporter of graduate nursing education, 
research, and professional growth of my nurses, and am 
committed to the sustainment and growth of the Tri-Service 
Nursing Research Program. Each year, approximately 73 Nurse 
Corps officers are selected for duty under instruction or 
graduate education program. Fields of study include behavioral 
health, anesthesia, family practice, research, and critical 
care.
    The American Association of Colleges of Nursing has made 
the decision to move the current level of preparation necessary 
for advanced nursing practice from the master's degree to the 
doctoral level by 2015. The Navy Nurse Corps supports a phased 
approach toward adopting the doctorate nursing practice (DNP), 
and will utilize a combination of short- and long-term steps to 
incorporate this degree at options part of our education 
strategy.
    Using existing funds, three nurses will graduate with a DNP 
in 2012, and the DNP degree will be incorporated into the Nurse 
Corps training plan. As we make the transition to a greater 
number of DNPs, additional education funding will be required.
    To expand this clinical leadership model that we have so 
well achieved over the last number of years to our Federal 
civilian registered nurses, we launched the Navy Graduate 
Program for Federal Civilian Registered Nurses, the first of 
its kind in the uniformed services. We expect that this new 
program will retain our current civilian nurses, incentivize 
new nurses to consider entry into Federal service, and sustain 
military treatment facilities with clinical experts, when our 
military nurses are deployed.
    We have funded five competitively selected Federal civilian 
registered nurses to pursue their master's of science in 
nursing. We are currently receiving applications to select our 
next class of candidates for the fall 2010.
    Navy nurses at our military treatment facilities in the 
United States and abroad passionately support the professional 
development of America's future nursing workforce by serving as 
preceptors, teachers, mentors for local colleges and 
universities, as well as entire health systems.
    Navy nurses deployed to Afghanistan in embedded training 
teams are teaching culturally and linguistically appropriate 
public health measures. In response to the news of H1N1 
outbreaks throughout the world, those nurses prepared emergency 
response plans and training for local forward operating bases 
and regional hospitals in eastern Afghanistan, well in advance 
of the cases appearing in theater. And they deployed critical 
counterinsurgency tactics by performing village medical 
outreaches to the local community members in Afghanistan.
    I believe that leadership at all organizational levels is 
responsible for ensuring that personnel under their charge are 
healthy and productive. My nursing leaders have developed and 
are implementing an interactive career-planning guide, useful 
for mentoring seniors and subordinates at every stage of their 
careers, because we do ask people to change and move into 
different jobs.
    A key role of these leaders is to know their people and 
help them develop the resiliency to be able to handle stressors 
and life events. Navy medicine's Operational Stress Control and 
Care for the Caregiver Programs have a direct impact on the 
health and well-being of the force, deployment readiness, and 
our retention. We know that caring for service members and 
their families and experiencing their trauma and stress can 
impact our medical staff. We must be prepared to care for 
ourselves, to be able to care for others.
    Chairman Inouye, thank you. Thank you, again, for the 
opportunity--providing me this opportunity to share with you 
the remarkable accomplishments of our Navy Nurse Corps and our 
continuing efforts to meet Navy medicine's mission.
    On behalf of the outstanding men and women of the Navy 
Nurse Corps and their families who so faithfully support them, 
I want to extend my sincere appreciation for your unwavering 
support.
    Thank you.
    Chairman Inouye. Thank you, Admiral.
    Admiral Flaherty. Yes, sir.
    Chairman Inouye. And now, may I call upon General 
Siniscalchi.
STATEMENT OF MAJOR GENERAL KIMBERLY SINISCALCHI, 
            ASSISTANT SURGEON GENERAL FOR NURSING 
            SERVICES, AIR FORCE NURSE CORPS, DEPARTMENT 
            OF THE AIR FORCE
    General Siniscalchi. Chairman Inouye and distinguished 
members, it is an honor to represent the Air Force Nurse Corps.
    Our total nursing force is comprised of Active Duty, Air 
National Guard, and Air Force Reserve officer and enlisted 
nursing personnel.
    It is a pleasure to serve alongside my senior advisors: 
Brigadier General Catherine Lutz, Air National Guard; Colonel 
Ann Manley, Air Force Reserve; and Chief Master Sergeant Joseph 
Potts, our Active Duty enlisted career field manager. Together, 
we lead a total force team delivering evidence-based, patient-
centered care to meet global operations.
    On behalf of our total nursing force, sir, thank you for 
your outstanding support. Your unwavering commitment to our 
Tri-Service Nursing Research Program, and your continued 
support of our Nurse Corps Incentive Special Pay Program is 
genuinely appreciated.
    Nursing is integral to the support of global operations. 
Day after day, our nurses and technicians provide care to our 
Nation's heroes at home and abroad. Operational capability is 
the foundation and moral fiber of Air Force nursing.
    As an example, Lieutenant Colonel Zierold, from Salt Lake 
City, Utah, led a trauma team at Bagram, Afghanistan. In his 
words, ``Over a period of 6 months, we took care of more than 
1,000 traumas and countless medical admissions. The acuity was 
high and the injuries were horrendous, but we safely returned 
550 injured U.S. servicemembers to their families, children, 
and spouses. We forever changed the lives of 450 devastated 
Afghan nationals, and we won their hearts. And the kids; we 
will never forget the kids. At the time of their discharge, 
they reached out their little hands and smiled, as if to say, 
`Thank you. I'll be okay.' ''
    On this side of the globe, no one could have anticipated 
the total devastation that took place on January 12, when our 
Haitian neighbors experienced the massive earthquake. Special 
Operations surgical teams and critical-care evacuation teams 
deployed with the initial response aircraft, and were the first 
military medical teams on the ground. Our critical-care nurses 
worked around the clock, providing casualty evacuation of 
patients in and out of theater, as well as pre- and 
postoperative surgical and intensive care. Our anesthetists 
assisted in lifesaving surgeries and augmented the surgical and 
critical care teams.
    The vital link, sir, to saving lives, is our aeromedical 
evacuation capability. These critical missions sustain world-
class care across the continuum. Since operations began in 
2001, over 197,000 patients have been air-evac'd. In 2009 
alone, we moved 21,500 patients globally. Our superb flight 
nurses, technicians in critical care air transports teams have 
rightfully earned the title, ``Angels of the Battlefield.'' One 
such Battlefield Angel, Captain Jack Solgen, of Ballston Spa, 
New York, and his team successfully coordinated with the United 
Kingdom Aeromedical Evacuation Control Center for the transport 
of the British soldier with a traumatic pneumonectomy that 
Lieutenant General Green had mentioned.
    Two weeks ago, I had the opportunity to personally meet the 
lung team based at Ramstein Air Base, Germany. They 
passionately shared their experience of the emergency use of 
cutting-edge lung-support technology in saving the British 
soldier's life. This success story demonstrates a multinational 
effort of over 1,000 aircrew, ground, and medical personnel.
    The flexibility and responsiveness of today's aeromedical 
evacuation system demands educated and experienced flight 
nurses with enhanced clinical capability and disaster 
management expertise. I am proud to report that we created a 
master's degree in flight nursing with adult clinical nurse 
specialist focused in concentration in disaster management. 
This program--first of its kind--was designed and ready for 
students in less than 6 months. We partnered with Wright State 
University, in Dayton, Ohio, to strategically develop this 
program, and, as I mentioned earlier, our first student will 
begin this fall.
    We continue our commitment to provide the best care 
possible to our men and women in harm's way. It's imperative to 
advance operational medicine through research. Doctorally 
prepared nurses are integral to advancing multidisciplinary 
research. In March 2009, the Department of Defense Medical 
Research Program was initiated in Afghanistan, under the 
direction of Colonel Elizabeth Bridges, Air Force Reserve, 
Seattle, Washington, while Lieutenant Colonel Teresa Ryan, Air 
Reserve, Biloxi, Mississippi, was a senior nurse researcher in 
Iraq. Research conducted in Afghanistan and Iraq has led to 
important advancements in combat casualty medical care and 
therapies. Our nurse researchers provide leadership and 
guidance on scientific merit, design, and methodology.
    I am pleased to report that we developed a nursing research 
fellowship. Our first candidate will begin this spring. This 1-
year predoctoral fellowship focuses on clinical and operational 
research.
    One of our valuable skill sustainment programs is the 
Critical Care Emergency Nursing Fellowship. Our graduates 
provide the highest quality of care, both stateside and in the 
deployed environment, saving lives on a daily basis.
    To mitigate the increased demands on mental health nurses, 
we continue to recruit, educate, and train internally. 
Currently, 93 percent of our mental health nurse practitioners 
are Air Force Institute of Technology graduates. A formal 
mental health nurse training program is being developed at 
David Grant Medical Center, at Travis Air Force Base in 
California, to help train clinical nurses to become mental 
health nurses.
    Increasing our advanced life-support footprint, we have 
started several--we have started training several of our 
aerospace medical service technicians at the National Registry 
of Emergency Medical Technician Paramedic level. The inaugural 
class started and graduated 19 students, and we are programming 
for 50 students annually.
    A robust recruiting program is essential to keep our Nurse 
Corps healthy and ready to meet future challenges. While we 
have executed incentive programs to address the nursing 
shortage, we still have shortfalls. In 2009, we assessed 284 
nurses against our total accession goal of 350, for an overall 
81 percent.
    Our Nurse Enlisted Commissioning Program continues to be a 
reliable platform to assess nurses. In 2009, fully--40 
qualified candidates were selected. In 2010, we will meet our 
steady-state goal of 50 quotas annually. Assessing fully 
qualified nurses continues to be challenging. While the 
recruitment of novice nurses is going well, the limiting factor 
is their depth of clinical expertise. Our Nurse Transition 
Program advances the clinical skills of these new nurses 
through direct patient care under the supervision of seasoned 
nurse preceptors. The transition program continues to be one of 
our many successes, with eight military and two civilian 
locations. We graduated 158 nurses in 2009.
    Last year, I reported that a civilian partnership with 
Scottsdale Healthcare System in Arizona was on the horizon. 
This past December, I had the honor to deliver the commencement 
address for the second graduating class. Air Force nurses are 
gaining unprecedented clinical opportunities as a result of our 
transition programs.
    As we strive to meet our recruiting goals, we continue to 
focus on the retention of our experienced nurses. In its second 
year of execution, the Incentive Special Pay Program is 
positively impacting retention. Seventy-eight percent of our 
nurses accepted a single- or multiyear contract. With a $3.3 
million increase, this year's focus is to improve retention by 
recognizing advanced academic preparation certification and 
experience.
    Through the Tri-Service Nursing Research Program, my 
colleagues and I commissioned the first-of-its-kind joint 
research study designed to quantify factors impacting 
recruitment and retention. An associate investigator for each 
service will ensure service-specific and across-service 
initiatives are identified and validated for use in shaping 
future strategies.
    A number of scientific, societal, and professional 
developments stimulated a major change in requirements for 
licensed practitioners. The American Association of Colleges of 
Nursing endorsed the position statement on the doctorate in 
nursing practice. This decision moves the level of preparation 
for advanced practice from the master's degree to the doctorate 
level by 2015.
    With Lieutenant General Green's full support, we developed 
a phased implementation plan, starting in 2010. As I reported 
last year, we developed master clinician roles to afford our 
most clinically experienced senior nurses with advanced 
academic preparation, to remain at the bedside, without 
sacrificing promotion. We are diligently working to retain and 
field these authorizations.
    As we reflect, sir, on the achievements of the past, and 
the challenges of the present, we look forward to the future. 
By being actively engaged in education, training, and research, 
we are generating new knowledge and advancing evidence-based 
care necessary to enhance interoperability in nursing 
operations across our services.
    Through the synergy of our Active, Guard, Reserve, 
civilian, and contract forces, coupled with the collaborative 
relationships with our sister services and civilian colleagues, 
we are prepared to meet emerging challenges with strength and 
confidence.
    Air Force nursing stands ready today to embrace the 
challenges of tomorrow, as we lead, partner, and care, every 
time, everywhere.
    Mr. Chairman and distinguished members, it is my honor to 
be here with you today, representing a dedicated, strong, total 
nursing force of nearly 18,000 men and women.
    Thank you, sir.
    Chairman Inouye. I thank you very much, General.

                     ADDITIONAL COMMITTEE QUESTIONS

    General Horoho, Admiral Flaherty, and General Siniscalchi, 
on behalf of the subcommittee, thank you very much for your 
testimony, and especially for your service to our Nation. And, 
through you, the subcommittee wishes to thank those under your 
command for their unselfish service.
    Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
       Questions Submitted to Vice Admiral Adam M. Robinson, Jr.
            Questions Submitted by Chairman Daniel K. Inouye
                    o-7 and o-8 nurse corps billets
    Question. RADM Robinson, what mechanisms are in place to ensure the 
continuation of both an O-7 and O-8 billet for the Navy Nurse Corps?
    Answer. Currently Navy Medicine has two designated billets for Navy 
Nurse Corps, one for an O-7 (Rear Admiral Lower Half) and one for an O-
8 (Rear Admiral Upper Half). Our practice has been to have both of 
these billets manned. Currently, Rear Admiral (lower half) Elizabeth 
Niemeyer holds the O-7 billet and Rear Admiral (upper half) Christine 
Bruzek-Kohler holds the O-8 billet. RADM Bruzek-Kohler has plans to 
retire in the Fall of 2010. At the time of the 2010 DOD Congressional 
Testimony, results of the fiscal year 2010 O-8 Selection Board have not 
yet been released.
                                  cboc
    Question. Admiral Robinson, the Army is planning to open 22 
Community Based Primary Care Clinics in 14 different market areas to 
provide better access for the thousands of beneficiaries who live off 
post. Have you looked into a similar concept for the Navy and do you 
plan to promote the Army clinics to Navy personnel and their families 
serving near them?
    Answer. A number of primary care practice models, including those 
from the Federal and private healthcare sectors, were evaluated as Navy 
Medicine developed the Navy Primary Care Model called Medical HomePort. 
Navy Medicine is launching a phased implementation of Medical HomePort 
across the enterprise as the practice standard for primary care. The 
initial phase will include NNMC Bethesda, NMC Portsmouth, NMC San 
Diego, NH Bremerton, NH Jacksonville, NH Lejeune, NH Pendleton and NH 
Pensacola. NHC Quantico will also be part of the first phase during 
fiscal year 2010.
    Medical HomePort utilizes a dedicated team of medical providers and 
support staff designed to increase access to care. The increased access 
aims to provide continuity for beneficiaries with their provider team, 
and we expect will improve the health of enrolled patients through 
preventive health practices, integrated mental healthcare and chronic 
disease management. We plan to closely monitor the Healthcare 
Effectiveness and Data Information Set (HEDIS) outcomes for the sites 
selected for implementation.
    In addition, this program will allow enrolled patients to access to 
their healthcare team 24/7 through secure messaging, schedule 
appointments through patient-preferred modes, and tailored education to 
their learning style.
    Navy personnel and their family members who reside within the 
catchment areas for the Army Community Based Primary Care Clinics would 
be notified of their enrollment options for those facilities via the 
Tricare Managed Care Support Contractor (if a Navy medical facility is 
not available within the area).
             dcoe chain of command for installation repairs
    Question. Admiral Robinson, I am very interested in the growing 
number of medically focused centers of excellence in the military and 
how the Department intends to ensure the appropriate level of attention 
and allocation of resources are devoted to the issues we are faced with 
today and also those we might encounter in the future. The current 
centers are focused around known critical areas of concern that impact 
both the Department of Defense and the Department of Veteran's Affairs: 
hearing loss, vision, extremity injury, traumatic brain injury and 
psychological health. Some of these centers will be located on the 
Walter Reed National Military Medical Center Campus. What will be the 
chain of command for responding to each Center's needs like fixing 
medical equipment or fixing a leaky roof? Will it be the medical 
center's responsibility or Naval Installation Command?
    Answer. Any Center of Excellence located on the Walter Reed 
National Military Medical Center Campus will fall under the control of 
the Medical Center Commanding Officer and his or her chain of command. 
Center of Excellence facility repairs will be the responsibility of the 
Medical Center Commanding Officer and will be resourced through the 
Defense Health Program (DHP).
               navy medicine interaction with safe harbor
    Question. Admiral Robinson, a tremendous amount of attention has 
been devoted to the care of our wounded warriors. The two main Navy 
programs designed to meet the needs of wounded service members are the 
Navy's Safe Harbor and the Marine Corps' Wounded Warrior Regiment. Navy 
Medicine works cooperatively with these programs to develop 
comprehensive recovery plans. How are the Services interacting with 
private sector care providers to ensure they have the necessary 
information on those Service programs relevant to their patients?
    Answer. Navy's Safe Harbor and the Marine Corps' Wounded Warrior 
Regiment were designed to take care of the non-medical needs of our 
wounded Sailors, Marines and Coast Guardsmen. Their role is to provide 
information and assist with access to the resources necessary to 
support the non-medical needs of our wounded warriors as they recover, 
rehabilitate, and reintegrate. Coordination of care when individuals 
transition from military treatment facilities to civilian care is 
accomplished through the Medical Care Case Managers (MCCMs) and the 
clinicians caring for the patients. Exchange of medical information 
occurs through provider to provider communication. Assistance in 
transition of medical care to the private sector is provided by the 
MCCM who remains engaged with the patient until they successfully 
establish a new care provider. Understanding the unique needs of the 
Reserve Component with regards to transition of care, especially 
transition of mental healthcare, Navy Medicine established the 
Psychological Health Outreach Program. This program is specifically 
designed to provide an additional layer of support to Reservists making 
their transition to private sector or VA care.
                     funding a world class facility
    Question. Admiral Robinson, there is a tremendous amount of focus 
on the establishment of the new Walter Reed National Military Medical 
Center at Bethesda. One of the latest developments is the effort to 
make it a ``World Class'' Facility and to produce a master plan for the 
campus to accommodate those changes. While Congress anxiously awaits 
the delivery of the master plan later this month, I am very concerned 
over the expected price tag for these additional projects that haven't 
been budgeted. As I understand it, this could cost upwards of $800 
million from operation and maintenance and millions more in military 
construction. As these projects are being evaluated by the Department, 
are they also determining how these projects will be funded and by 
which Service?
    Answer. To carry out the 2005 BRAC law, JTF CAPMED was established 
to oversee the realignment of Walter Reed Army Medical Center to the 
new Walter Reed National Military Medical Center in Bethesda and Fort 
Belvoir Community Hospital. JTF CAPMED reports to the Secretary of 
Defense through the Deputy Secretary of Defense. Due to the alignment 
of JTF CAPMED as an independent DOD entity, Navy Medicine does not 
direct JTF CAPMED on construction or other priorities, nor are we 
planning for future operation and maintenance requirements, since that 
by definition belongs to JTF CAPMED. These emerging priorities and 
requirements are driven by many things, all of which are outside Navy 
Medicine's budget process. As part of our mission to ensure that our 
Wounded Warriors receive the care they need and deserve, Navy Medicine 
is in regular communication with JTF CAPMED and continues to provide 
support as necessary. Because of this regular communication Navy 
Medicine is aware of the unique challenges facing JTF CAPMED, to 
include the projected increase of financial requirements. However, 
specific details of these challenges or the financial requirements 
cannot be defined or defended by Navy Medicine.
                      recruiting for the reserves
    Question. Admiral Robinson, each Service faces unique medical 
personnel recruiting challenges but it appears all are having 
significant difficulties in the reserve component. Could you explain 
what this is attributable to and what efforts are underway to improve 
recruitment and retention for the reserves?
    Answer. Length and frequency of mobilizations are main reasons 
given for recruiting challenges.
    The financial and professional implications of being absent from a 
medical/dental practice, individual or group, for a period of time, are 
significant. Loss of patient base, medical staff, and support staff all 
contribute to these difficulties. The benefits and compensation for 
service do not adequately compensate for these losses.
    Initiatives currently underway are specific to Corps and specialty.
    Medical Corps.--Recruiting is focused on Critical Wartime 
Specialties (CWS) that are currently manned below 80 percent. In 
addition to a Loan Repayment Program and stipend, physicians who meet 
the CWS criteria are offered a bonus of $25,000 per year, for a maximum 
of 3 years. Prior service physicians who do not meet the CWS criteria 
may receive a $10,000 lump sum bonus for a 3 year drill obligation. 
However, this has not attracted enough applicants to alleviate 
shortfalls. We're currently considering establishing an accession bonus 
for Non-CWS Direct Commissioned Officers which could potentially 
attract eligible candidates.
    Dental Corps.--Reserve Dental Corps has a $10,000 lump sum 
affiliation bonus for prior service General Dentists for a 3 year drill 
obligation. Overall manning in this community is at 100 percent; 
however, oral surgeons are in high demand and are manned at only 43 
percent. Dentists who are interested in serving in the Navy as maxillo-
facial surgeons can qualify for a Loan Repayment Program, stipend, and 
a CWS bonus of $25,000 per year, for a maximum of 3 years. However, 
this has not attracted enough applicants to alleviate shortfalls. We're 
currently considering establishing an accession bonus for Non-CWS 
Direct Commissioned Officers which could potentially attract eligible 
candidates.
    Medical Service Corps.--Current recruiting incentives for clinical 
psychologists, physician assistants, and environmental health officers 
include the Loan Repayment Program, stipend, and a CWS bonus. Navy 
veterans (NAVETS) may be eligible for an affiliation bonus of $10,000.
    Nurse Corps.--Current recruiting incentives for Nurse Corps 
officers in CWS include stipend, Loan Repayment Programs, or CWS 
bonuses for the following communities: Psychiatric Care, Perioperative, 
Certified Registered Nurse Anesthetists and Mental Health Nurse 
Practitioners. An affiliation bonus of $10,000 is available to Navy 
veterans for all sub specialty programs. In February 2010, we began 
offering a $10,000 accession bonus for direct commission officers for 
medical-surgical, maternal infant, critical care, and neonatal 
intensive care unit nurses.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                            nurse recruiting
    Question. Nurses significantly contribute to the healthcare of our 
service members and their families. It is important that we maintain 
appropriate levels of highly trained nurses capable of performing a 
wide range of healthcare functions.
    a. With the maintained high operations tempo of combat in Iraq and 
Afghanistan, and the increasing requirements for healthcare for the 
service member and their families, are you able to maintain the 
required level of nurses?
    b. Are there enough nurses entering the military to ensure quality 
of care for the service members and to maintain the legacy of superb 
leadership in the future?
    c. What are you doing to prepare nurses for senior leadership roles 
and responsibilities?
    Answer. a. Retaining Navy Nurses is one of my top priorities. We 
remain committed to providing a total force of Navy Nurses, balanced in 
terms of seniority, experience, and skills, to provide the very best 
care to Sailors, Marines and their families. Key efforts have 
positively impacted retention, including the Registered Nurse Incentive 
Specialty Pay, a targeted bonus program for undermanned clinical 
nursing specialties and highly deployed Nurse Practitioners. Our nurses 
are enriched by being able to practice in both deployed and garrison 
care settings. My goal for this year is to increase retention by 50 
percent in the Active Component (AC) for those with less than 10 years 
of service, and to retain the appropriate numbers in each officer rank 
in the Reserve Component (RC).
    b. Nurse Corps AC manning is 91 percent, with 2,837 nurses in 
inventory. We have already achieved the Nurse Corps AC recruiting goal 
for fiscal year 2010, marking the fourth consecutive year we have met 
our accession goal. Nurse Corps RC manning is 83.6 percent, with 1,112 
nurses in inventory. As of late March 2010, we have met 25 percent of 
the RC fiscal year 2010 mission of 165 nurses, and we remain focused on 
this area. I attribute our recruiting successes to the continued 
funding support for our accession programs, the local recruiting 
activities of Navy Recruiters and Navy Nurses, and the continued 
positive public perception of service to our country. A recruiting 
initiative targeting direct accessions will offer entry grade credit 
for advanced education and work experience among the critical wartime 
specialties of Certified Registered Nurse Anesthetists (CRNAs), 
psychiatric/mental health, emergency room, and perioperative nursing. 
These initiatives will be expanded to include medical-surgical nurses 
and critical care nurses as well.
    c. In addition to sequential assignments to clinical and 
administrative leadership roles with increasing scope and 
responsibility, Navy Nurses are eligible and encouraged to pursue 
leadership training at all stages of their career. Leadership education 
starts with a 5-week long Basic Officer Development School (ODS) at 
Newport, Rhode Island before the officer receives their first military 
assignment. At the mid-grade career level, nurses are encouraged to 
complete the Basic Medical Department Officer Course (BMDOC), followed 
by the Advanced Medical Department Officer Course (AMDOC). Subsequent 
to completing these two courses, Nurse Corps officers are highly 
competitive for nominative assignments to the Interagency Institute for 
Federal Health Care Executives, MedXellence, and Capstone Courses. 
Nurse Corps officers interested in senior leadership and executive 
medicine positions are encouraged to obtain their Executive Medicine 
Additional Qualification Designation (AQD) through the Joint Medical 
Executive Skills Institute (JMESI). Mid and senior-level Nurse Corps 
officers compete for opportunities to attend the Navy War College 
through distance learning programs or residence assignments.
                        mental health awareness
    Question. The Army has partnered with the National Institute of 
Mental Health (NIMH) to conduct a long-term study of risk and 
protective factors to inform health promotion and suicide prevention 
efforts in late 2008.
    What is the Navy doing to promote mental health awareness?
    Answer. The Navy Operational Stress Control (OSC) program and USMC 
Combat Operational Stress Control (COSC) programs are working together 
to provide Sailors, Marines and their families increased education and 
awareness to early recognition of those in distress, to mitigate the 
stigma associated with seeking psychological care and to promote a 
culture of psychological wellness/health (vice the old paradigm of 
focusing on mental illness). These programs are Line-led and owned 
programs, supported by Navy Medicine, designed to provide leaders with 
tools they can use to recognize and act on early indicators of stress 
and to understand and use appropriate support resources, including 
medical and mental health treatment. The end state is a more resilient 
force. Navy Medicine has developed the Caregiver Occupational Stress 
Control (CgOSC) program to specifically address our caregivers who are 
often more prone to adhering to a ``code of silence'' pertaining to 
acknowledging personal stress-related issues. A multimedia (print, 
digital and social media) marketing campaign is underway to further 
mitigate stigma and increase awareness to resources. Additional mental 
health awareness initiatives include Project Focus--Family's Overcoming 
Under Stress; Combat and Operational Stress First Aid (COSFA); BUMED/
Navy Chaplain Corps annual Professional Development Training Seminar's 
on Combat and Operational Stress Control for deploying Sailors/Marines 
as well as a family-focused seminar; and Navy Returning Warrior 
Workshop's.
    Question. Is the Navy conducting long-term studies similar to that 
of the Army and NIMH?
    Answer. Navy Medicine is conducting a number of studies to 
investigate the longitudinal health experience of deployed military 
personnel. The Naval Health Research Center (NHRC) in San Diego, 
California, is the lead agency for the Millennium Cohort Study, which 
is the largest prospective health project in military history. It is 
designed to evaluate the long-term health effects of military service, 
including deployments. The study, which was launched in 2001, currently 
includes almost 150,000 participants and has already documented a 
number of risk factors for PTSD and depression following deployments. 
Other studies are focused on specific Navy and Marine Corps subgroups. 
For example, the Marine Resiliency Study is a collaboration between 
NHRC, the San Diego VA, Headquarters Marine Corps, and the National 
Center for PTSD, is collecting psychological and physiological data on 
Marine Corps Infantry personnel before and after combat deployments to 
identify both subtle and overt indices of combat stress. The Marine 
Resiliency Study documents the incidence of combat-related 
psychological disorders as well as risk factors for disorders. NHRC is 
also collecting longitudinal data on Navy and Marine Corps personnel 
before and after separation from military service. The goal of this 
effort is to identify factors associated with successful readjustment 
of Veterans to civilian life. In another effort, the Behavioral Health 
Needs Assessment Survey (BHNAS) is an ongoing series of surveys and 
focus groups conducted with Sailors in combat zones to identify rates 
and causes of psychological problems.
             mental health assets and services for families
    Question. Family Readiness and support is crucial for the health of 
the services. The health, mental health, and welfare of military 
families, especially the children has been a concern of mine for many 
years. This also includes education, living conditions, and available 
healthcare.
    Are you meeting the increased demand for healthcare and mental 
health professionals to support these families? If not, where are the 
shortfalls?
    What improvements have been made with respect to the children of 
soldiers and meeting their special requirements? What programs have you 
implemented to assist the children with coping with frequent 
deployments, re-integration, and other stresses of military families?
    Answer. Since the beginning of Overseas Contingency Operations, 
Navy Medicine has increased mental health assets across the enterprise 
to meet the increasing needs of service members and their families.
    To meet the specific needs of families, we have implemented several 
programs targeted at the types of challenges families face as a result 
of deployments and injuries to the service member.
    Examples of these programs include:
  --FOCUS (Families Over Coming Under Stress) is a family-centered 
        resiliency training program based on evidenced-based 
        interventions that enhance understanding, psychological health 
        and developmental outcomes for highly stressed children and 
        families. FOCUS has been adapted for military families facing 
        multiple deployments, combat operational stress and physical 
        injuries in a family member. FOCUS has demonstrated that a 
        strength-based approach to building child and family resiliency 
        skills is well received by service members and their family 
        members reflected in high satisfaction ratings. Notably, 
        program participation has resulted in statistically significant 
        increases in family and child positive coping and significant 
        reductions in parent and child distress over time, suggesting 
        longer-term benefits for military family wellness. In June 
        2009, the Office of the Secretary of Defense Child and Family 
        Policy determined FOCUS as a best practice program and 
        requested the support of BUMED to expand to select Army and Air 
        Force sites for services. To date over 97,000 service members, 
        spouses, children and community providers have received 
        services on FOCUS.
  --Navy Fleet and Family Support Centers (FFSCs) offer a wide-range of 
        services to families to include pre- and post-deployment 
        programs.
  --Ombudsmen/Navy Regional Family Support Liaison; Navy Expeditionary 
        Combat Readiness Center's (ECRC) Individual Augmentee (IA) 
        Family Readiness Program.
  --The Reserve Psychological Health Outreach creates a Psychological 
        health ``safety net'' for Navy and Marine Corps Reservists and 
        their families. It improves the overall Psychological Health 
        and resiliency of Reservists and their families, and identifies 
        long-term strategies to improve Psychological Health support 
        services. In addition, Psychological health Outreach Teams have 
        been in place at Navy Reserve Component Commands since fiscal 
        year 2008.
  --Returning Warrior Workshops provides 2 day workshops designed to 
        support reintegration of deployed Reservists and their family 
        using a weekend-formatted program that includes assisting 
        families in identifying issues during post-deployment, 
        providing resources for issues resolution, sharing common 
        experiences in a comfortable setting, honoring sacrifices 
        endured, and engaging family members and service members with 
        process improvement.
                transition of wounded warriors to the va
    Question. In the recently released Department of Defense budget 
guidance, it states that ``caring for our wounded warriors is our 
highest priority: through improving health benefits, establishing 
centers of excellence, and wounded warrior initiatives.''
    What system do you have to ensure the transition of wounded 
warriors from Department of Defense to the Department of Veterans 
Affairs is completed without any unnecessary problems?
    Answer. To ensure the transition of Wounded Warriors from 
Department of Defense to the Department of Veterans Affairs is 
completed without any unnecessary problems, Navy Case Management (both 
medical and non-medical) work collaboratively with Federal agencies 
including the VA. This collaboration includes multi-disciplinary team 
meetings with Navy and USMC Recovery Care Coordinators, Federal 
Recovery Coordinators, Non-Medical Care Managers, Medical Care Managers 
and VA Liaisons, patients and their families in developing Recovery 
Care Plans.
    Question. What do you consider a successful transition and do you 
follow-up with the service members to ensure there are no problems even 
after they have been released from Active Duty?
    Answer. A successful transition is one that results in the service 
member and his/her family's needs being met to their satisfaction. Navy 
Medicine Medical Care Managers provide a warm hand off of the medical 
case management of an individual to VA Medical Care Managers when an 
individual transitions from Active Duty to Veteran status. This hand 
off ensures smooth transition of the medical needs of the Sailor/
Marine. Navy Safe Harbor and Wounded Warrior Regiment Recovery Care 
Coordinators and the Federal Recovery Coordinators assigned to these 
wounded warriors, provide a lifetime of individually tailored 
assistance designed to optimize the success of the injured service 
member's recovery, rehabilitation and reintegration activities. Their 
involvement with the individual continues through and beyond the 
transition period.
                          mental health stigma
    Question. General Casey recently stated that the number of Army 
soldiers who feel there is a stigma for seeking mental healthcare has 
been reduced from 80 to 50 percent. This is a significant improvement, 
but there is much more work to be done.
    Despite the reduced number of soldiers who feel there is a stigma, 
are more service members coming forward to seek treatment?
    Answer. Yes, Navy Medicine has experienced a 30 percent increase in 
outpatient mental health encounters for Sailors and Marines over the 
past 2 years. Greater data analysis is required in order to correlate 
the impact of reduced stigma and increases in demand.
    Question. What actions are the services taking to continue to 
reduce the stigma and encourage service members to seek treatment?
    Answer. Prior Navy Medicine ``innovations'' that have now become 
the norm include operationally embedded mental health providers, 
integration of Mental Health Care into primary care, Psychological 
Health Outreach Coordinators and use of our Deployment Health Centers 
as destigmatizing portals of care. Navy Medicine has also developed the 
Caregiver Occupational Stress Control (CgOSC) program to specifically 
address our caregivers who are often more prone to adhere to a ``code 
of silence'' pertaining to acknowledging personal stress-related 
issues. Another innovative program is the multidisciplinary team 
assessment of every patient that is medically evacuated from theater to 
identify potential cognitive and psychological health issues. Access is 
increased in a non-stigmatizing manner by providing this assessment to 
all patients without need for consult or self-referral. Follow on care 
is provided as indicated utilizing all members of the multidisciplinary 
team. The Navy Operational Stress Control (OSC) program and USMC Combat 
Operational Stress Control (COSC) programs are working together to 
provide Sailors, Marines and their families increased education and 
awareness to facilitate early recognition of those in distress and to 
help combat the stigma associated with seeking psychological care. A 
multimedia (print, digital and social media) marketing campaign is also 
underway to further mitigate stigma and increase awareness to 
resources.
    Question. Does your plan include the mental health of families, and 
if so what is that plan?
    Answer. Yes, Navy medical care is ``patient and family centered 
care''. The psychological health of our families is crucial in 
maintaining a health fighting force. Navy Operational Stress Control 
(OSC) is developing specific Family OSC curriculum in collaboration 
with our life educators from Fleet and Family Support Centers. Project 
FOCUS (Families Over Coming Under Stress) is a family-centered 
resiliency training program based on evidenced-based interventions that 
enhance understanding, psychological health and developmental outcomes 
for highly stressed children and families. Navy Medicine has partnered 
with the Navy and Marine Corps Public Health Center and USMC COSC to 
develop and pilot a Family component to the USMC Operational Stress 
Control and Readiness (OSCAR) program.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                     navy medicine use of software
    Question. DOD renewed its contract with a Vermont medical firm, 
Problem-Knowledge Couplers (PKC), last fall. DOD licenses 95 standard 
PKC tools and six custom tools used for deployment and readiness 
medical processes. PKC is presently including the six custom tools into 
a single ``CHART'' smart-questionnaire, migrating these tools from a 
Windows to a web-based interface, and preparing a set of web-based 
medical history questionnaires for patients to complete online prior to 
the medical encounter.
    DOD has not yet issued a Department-wide policy on how the Services 
are to employ the CHART tool. How does your Service plan to use CHART? 
Will you issue a policy directing how it is to be used, since employing 
it will substantially change the workflows of Service medical 
practitioners?
    As for the medical history questionnaires, the use of this tool by 
the Services will put DOD in the very forefront of medical information 
technology innovation. Can each of you describe how your Service will 
direct the use of these questionnaires, educate your medical 
professionals about their existence and value, and track and oversee 
their full integration into patient contact processes?
    Answer. PKC couplers in their current configuration are in use at a 
limited number of locations for routine screenings such as the annual 
Periodic Health Screening. The current version of the tool does not 
represent an ideal configuration for efficient use with our current 
systems.
    CHART is currently undergoing testing for use with our current 
systems. Once the testing is complete the tool can be examined for 
routine use as a screening tool by both clinical and technical experts. 
Once the technical examination is complete, Navy Medicine will consider 
how CHART can be best utilized.
    Once Navy Medicine decides how CHART may be used, web based 
training as well as live training at our individual treatment 
facilities can be utilized to train the healthcare team.
                     defense centers of excellence
    Question. Would you each describe the relationship of your Services 
to the Defense Centers of Excellence for Psychological Health and 
Traumatic Brain Injury? How do you share and receive information and 
support from these Centers? How timely are they in responding to 
requests from support from your Services?
    What is the relationship between your Services and the centers of 
excellence directed by the 2008 and 2009 National Defense Authorization 
Acts related to hearing loss and auditory system injuries, military eye 
injuries, and traumatic extremity injuries and amputations? How mature 
are these organizations, at what level are they staffed, and do you 
find that those staffing levels are sufficient to support the needs of 
your Service in each medical area?
    Answer. Navy Medicine works collaboratively with the Defense 
Centers of Excellence for Psychological Health and Traumatic Brain 
Injury and its component centers: Defense and Veterans Brain Injury 
Center (DVBIC); Center for the Study of Traumatic Stress (CSTS); Center 
for Deployment Psychology (CDP); Deployment Health Clinical Center 
(DHCC); National Center for Telehealth and Technology (T\2\); and the 
National Intrepid Center of Excellence (NICoE). Navy Medicine provides 
staffing to the DCoE, but also has been working to ensure that Navy 
Medicine professionals--clinicians, researchers, educators and program 
managers--are working collaboratively with the DCoE staff to improve 
their important research, education and outreach efforts. We are 
encouraged by the work of the DCoE and look forward to working with ASD 
(HA) and the other services to determine the best organizational 
structure and way forward. Preliminary work is underway in support of 
the ASD (HA) plan to designate each of the Services with lead 
operational support responsibilities for one of these Centers: Navy--
Vision Center of Excellence; Army--Center of Excellence for Traumatic 
Extremities and Amputations; and Air Force--Hearing Center of 
Excellence. ASD (HA), along with the Services' Surgeons General, are in 
the process of evaluating organizational models to best support the 
DCoE mission.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                      mental health professionals
    Question. DOD has a critical shortage of mental healthcare 
professionals. During review of the Fort Hood incident where the 
alleged gunman, Major Hasad, U.S. Army psychologist, is charged with 
the deaths of 13 victims, reports show discrepancies in documentation 
and counseling as it related to his professional abilities and 
behavior. Suggestions were made that he was kept on active duty with no 
negative reprimands because he had diversity as a Muslim to our 
nation's service despite his failure to perform. What is DOD doing to 
recruit more mental health workers and to ensure they are quality 
healthcare professionals?
    What are the roadblocks to meeting the shortage of mental health 
professional?
    Answer. Navy Medicine has been successful in hiring civilian and 
contract mental health providers. The difficulty is the long training 
pipelines required to access and train our military mental health 
providers. The majority of our military mental providers are either 
trained in-house, through student pipelines or both. For example a 
Psychiatrist training pipeline includes 4 years of medical school, 1 
year of internship and a 3 year Psychiatry residency. These long 
training timelines impact our ability to replace and increase our 
inventory of military Psychiatrists with any expediency. Clinical 
Psychologists and Social Workers were recently approved by Navy for 
accession bonuses beginning in February 2010. We believe these new 
bonuses will impact direct accession of fully trained Clinical 
Psychologists and Social Workers.
    Question. What is being done to reduce the stigma and provide 
enough care givers so soldier and their families do not suffer in 
silence?
    Answer. Navy Medicine has focused much attention on reducing stigma 
and ensuring that an adequate number of mental health professionals are 
available to care for our beneficiaries. Mental health providers are 
routinely embedded with our operational units, both ashore and afloat. 
Seventeen Deployment Health Centers (DHCs) were established in fiscal 
year 2006 as non-stigmatizing portals of care in high Fleet and Marine 
Corps concentration areas. The DHCs augment existing MTF resources with 
an additional 170 multi-disciplinary contract positions, including 
psychiatrists, psychologists, and social workers, and provide a robust 
capability to screen, evaluate, and treat Service members for 
deployment related health concerns. In a major initiative, efforts are 
underway to integrate mental health providers into our Primary Care 
Clinics, further improving access and reducing stigma. Additional 
mental health providers have been hired in recent years to support a 
host of other programs, including psychological health outreach and 
family support and counseling. The Navy Operational Stress Control 
(OSC) program and USMC Combat Operational Stress Control (COSC) 
programs are working together to provide Sailors, Marines and their 
families increased education and awareness to facilitate early 
recognition of those in distress and to help combat the stigma 
associated with seeking psychological care. Navy Medicine has developed 
the Caregiver Occupational Stress Control (CgOSC) program to 
specifically address stress in our caregivers.
    Question. How is Navy Medicine integrated into the suicide 
prevention programs to ensure mental health services are getting to 
those who need it before it is too late?
    Answer. Navy Medicine personnel (military and civilian) are 
required to receive annual awareness training to improve ability to 
recognize risk factors, warning signs, and protective factors related 
to suicide and know how to assist someone in need to get care. Medical 
facilities and all Navy commands must have written crisis response 
plans with consideration of safely reaching, engaging and transporting 
an individual in acute risk to care. Navy suicide prevention is part of 
a comprehensive effort in the Navy to educate Sailors, families, and 
leaders to recognize and act on early indicators of stress and to 
understand and use appropriate support resources, including medical and 
mental health treatment.
                    women's health: cervical cancer
    Question. Cervical Cancer is preventable. In 2009 over 11,000 
American women were expected to be diagnosed with cervical cancer and 
over 4,000 women were expected to die from the disease. More than one-
half of women who die from cervical cancer have never been screened or 
have not been screened in the past 5 years.
    Human Papillomavirus (HPV) testing is an approved and widely 
accepted test to search for cells that have the potential of turning 
cancerous. Research has proven that when performed together with 
cytology screening, it increases detection of abnormal cell changes by 
30 percent. National medical organizations and insurance companies have 
determined screening of HPV testing and cytology screening at the same 
time as the standard of care, however Tricare has deemed HPV testing 
authorized only after a negative cytology exam.
    What is Navy medicine doing to ensure its female patients are 
receiving the highest quality of cervical cancer screening available?
    a. What is the percentage of female patients who receive current 
standards of screening within the required timeframes?
    b. Is HPV tests available at all Navy MTFs?
    c. What is Navy medicine doing to increase prevention efforts of 
their female patients from developing cervical cancer?
    Answer. Navy Medicine is dedicated to ensuring that all patients 
receive the highest quality of care. All female patients who present 
for care have the opportunity to be screened for cervical cancer, 
following the guidelines of the USPSTF (United States Preventive 
Services Task Force).
    (a) The percentage of female patients who are screened is 85.9 
percent (December 2009--the most current data from the Population 
Health Navigator). To put this figure into context, the civilian HEDIS 
Benchmark for 75th percentile is 84.6 percent and for 90th percentile 
is 87.8 percent, so we fit in with national norms. Our true measure for 
cervical cancer screening is actually a little higher, as our current 
data systems are not able to exclude women who have had a hysterectomy 
and no longer need to be screened. All active duty patients are 
screened according to guidelines; however, for our family members and 
other non-active duty beneficiaries, we can screen only those who 
present for care.
    (b) Yes. HPV testing and vaccinations are available through all 
Navy MTFs.
    (c) Navy Medicine is very proactive in providing patient education 
regarding cervical cancer through both patient/physician discussions 
and community public health outreach efforts via various media formats. 
The HPV vaccine is available for all beneficiaries in accordance with 
recommended guidelines.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                         va sharing agreements
    Question. Admiral Robinson, the Department of Defense and the 
Department of Veterans Affairs are establishing joint ventures in 
hospitals that are co-located around the country, in hopes to achieve 
efficiencies with combined personnel and shared resources, thus 
eliminating duplication. Currently, as you know, the Navy and the VA 
are working on a joint venture in North Chicago, where the plan is to 
operate the facility with a single civilian staff under the VA, 
operating out of one combined facility.
    The Air Force and the VA are also working toward a joint-venture 
between Keesler and Biloxi, but have adopted a different model than the 
North Chicago model. I understand the Air Force has stated that not 
every joint venture will be applicable to every location, and thus the 
Air Force is not inclined to follow the North Chicago model. One of 
these reasons might be due to the different mission focus between the 
two locales. For example, the North Chicago facility supports mostly 
non-deployable personnel (Navy recruits) and serves as a schoolhouse 
for medical trainees. In Keesler, many of the medical Airmen deploy in 
their respective Air Expeditionary Force rotations (AEF) and for 
humanitarian missions, as needed.
    Admiral, what are your thoughts regarding the joint venture in 
North Chicago? In your opinion, is total consolidation between the Navy 
and the VA the best answer for meeting the Navy mission at Great Lakes?
    Finally, do you believe this is the model of the future for other 
Navy-VA joint ventures? Or will the Navy look at other models of 
implementation, depending upon the mission at that location?
    Answer. The total consolidation between the Navy and the VA in 
North Chicago will allow Navy Medicine to meet our mission in Great 
Lakes. The fully integrated joint venture in North Chicago is a model 
that has evolved over 10 years of expanding and developing extensive 
resource sharing between the two Departments.
    Prior to plans for consolidation in North Chicago, the Navy was 
moving forward with programmed replacement ambulatory care center to 
replace the aging Navy hospital. Simultaneously, discussions were 
taking place within the VA to close their North Chicago facility and 
reassign the workload to both Milwaukee and Chicago Veterans facility. 
A decision was made to explore a joint Federal solution to combine both 
the Navy-VA healthcare missions, which would provide a more cost 
effective solution to meet the healthcare needs of a wide array of 
active duty, veterans, and dependent beneficiary populations. This 
combined healthcare project is in its 10th year of evolving from 
planning to operational status with many of the integration challenges 
having been addressed such as the reconciliation process and the IT 
solutions for interoperability.
    The current demonstration project will commence October 1, 2010 and 
is expected to extend efficiencies gained through local consolidation 
and use of a single chain of command, as well as single systems for 
personnel, logistics, and financial management. The Department of 
Veterans Affairs, North Chicago will be the lead executive department. 
Following review of the financial and personnel systems, workload and 
patient satisfaction surveys, this fully integrated facility may become 
the model for future DOD and VA operations where appropriate. Navy 
Medicine, the Department of Defense and the Department of Veterans 
Affairs are already establishing joint ventures with the goal of 
eliminating duplication.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
                             chiropractors
    Question. I'm pleased that TRICARE has worked over the past few 
years to expand chiropractic care for service members. Indeed, I have 
heard one of the top complaints of returning soldiers has been the type 
of neck and back pain that chiropractic care would seemingly address. 
Given the strains placed upon our soldiers in theater, what 
consideration (if any) has been given to commissioning chiropractors, 
such that they can be deployed and provide care for our soldiers 
abroad? Are there any obstacles currently in place that would prevent 
you from doing so?
    Answer. Approximately 25 percent of entrants to the Navy Medical 
Corps currently have the Doctor of Osteopathy degree. The manipulation 
skill set is available in this group of physicians who are widely 
deployed in support of theater operations. More importantly, these 
physicians along with orthopedic surgeons and sports medicine 
physicians are more versatile in their use in theater and at home.
    Additionally, physical therapists, now doctorally prepared, also 
have the skill set necessary to address neck and back pain as well as 
the full spectrum of other musculoskeletal complaints widely 
experienced by deploying service members. Physical therapists are 
deploying with service members, and there is a desire to expand this 
availability.
    The Navy Medical Department prefers to use full spectrum physicians 
and physical therapists rather than limited spectrum providers to meet 
the needs of its beneficiaries.
                         chiropractors at mtfs
    Question. In fiscal year 2009, Congress required that 11 new 
Military Treatment Facilities be staffed with chiropractors by the end 
of last fiscal year. I have listed the specific locations of those 
positions that were announced below. To my knowledge only 4 have opened 
up--what is the status of each of those 11 new positions?
Air Force
    1st Special Operations Medical Group, Hurlburt Field, Florida.
Army
    Irwin Army Community Hospital, Fort Riley, Kansas.
    Lyster Army Health Clinic, Fort Rucker, Alabama.
    Bayne-Jones Army Community Hospital, Fort Polk, Louisiana.
    Bassett Army Community Hospital, Fort Wainwright, Alaska.
    Landstuhl Regional Medical Center, Germany.
    Grafenwoehr Army Health Clinic, Germany.
Navy
    Naval Health Clinic Quantico, Virginia.
    Naval Branch Health Clinic Groton, Connecticut.
    Naval Hospital Lemoore, California.
    U.S. Naval Hospital, Okinawa, Japan.
    Answer. Navy Medicine currently has contract chiropractors at NHC 
Quantico, NBHC Groton, and NH Lemoore. NH Okinawa presently does not 
have a chiropractor. Additionally Navy Medicine has contract 
chiropractors at NH 29 Palms, NH Beaufort, NH Bremerton, NH Camp 
Lejeune, NH Camp Pendleton, NH Pensacola, NHC Cherry Point, NHC Great 
Lakes, NHC Hawaii, NMC Portsmouth, NMC San Diego and NNMC Bethesda.
                                 ______
                                 
      Questions Submitted to Lieutenant General Eric B. Schoomaker
             Questions Submitted by Senator Byron L. Dorgan
    Question. My staff has made repeated requests for this report. In 
response I have received a letter acknowledging my request, and 
repeated assurances that the review is in process.
    Does the Department of Defense intend to complete a review of 
TRICARE standards for residential treatment centers, including the 24 
hour nursing requirement? When will the report be complete?
    Answer. Yes, the review has been completed and TRICARE is working 
to modify certain requirements related to the certification of 
residential treatment centers, including those setting standards for 
overnight medical care in such settings. However, to fulfill the 
requirements of the report, the Department must change our regulation 
on standards. The timeline for the report is predicated on how soon the 
regulation can be changed. As soon as the report is completed, it will 
be sent to all the appropriate Committees.
    Question. On March 17, 2009, the Federal Register published a final 
rule on the inclusion of the TRICARE retail pharmacy program as part of 
the DOD for the purpose of the procurement of pharmaceuticals by 
Federal agencies. This program requires pharmaceutical manufacturers to 
provide, at minimum, a 24 percent discount on prescription drugs. The 
final rule estimated the resulting savings to the Department of Defense 
would be over $12 billion in fiscal years 2010-2015.
    Is DOD on track to obtain the estimated savings? Are all drug 
manufacturers complying with the requirements? If not, what steps are 
being undertaken to ensure that the Federal pricing is obtained?
    Answer. Yes, the Department is on track to obtain savings on 
prescription drugs. However, the initial Independent Government Cost 
Estimate (IGCE) done in 2008, relied on 2007 data from Pharmacy Data 
Transaction Service. The IGCE also based several significant 
assumptions on data published by CBO that was from 2002 and 2003, a 
period which experienced higher inflation and price changes than what 
was seen in 2006 and going forward. Therefore, the IGCE based on these 
assumptions and data available at that time and calculated a initial 
savings rate of 35 percent. This calculation of 35 percent was proved 
incorrect due to the inaccurate data used.
    In order to have an accurate calculation of the savings, in 
February 2010, the Pharmacy Operations Directorate (POD) provided 
information to OMB Budget Officials concerning differences between the 
projected savings of the Federal Ceiling Price (FCP) program and our 
recalculations of projected savings based on actual refund data to 
date. The corrected calculations, provided by the POD in February 2010 
using actual data, yielded a rate of 28 percent. It is anticipated that 
our FCP refund estimates will continue to be refined as we have more 
experience with the program, receive additional quarters worth of 
refunds, and develop more precise methodologies for determining future 
refunds. As of August 27, 2010, fiscal year 2010 total collections 
(DHP/Non-DOD/MERHCF) for pharmacy rebates were $664 million.
    Yes, almost all manufacturers have opted in for all of their drugs 
for purposes of preserving preferred uniform formulary status and no 
manufacturer has opted out of the program. If that were to occur, the 
most likely outcome would be to switch to another drug in the drug 
class. In the unlikely event that this would not be medically 
sufficient, DOD could use the preauthorization, transition, and waiver/
compromise processes under the Final Rule to ensure that patient needs 
are met.
                                 ______
                                 
       Questions Submitted to Lieutenant General Charles B. Green
            Questions Submitted by Chairman Daniel K. Inouye
                  community based primary care clinics
    Question. General Green, over the years the Air Force has 
transformed its medical care more toward clinic based rather than large 
military treatment facilities. Are there lessons learned from your 
experience providing care in a clinic setting that the Army would find 
beneficial as they plan to open 22 Community Based Primary Care 
Clinics?
    Answer. A solid business plan is required to ensure long term 
viability of the clinic. Enrollment based clinics drive different 
practice than a fee for service clinic that requires many procedures to 
cover the operating costs. Most medical care is provided in the 
outpatient arena, which meets the majority of our beneficiaries' needs. 
We have learned the importance, particularly in free-standing 
outpatient clinics, of providing patients a Medical Home with good 
access to their provider, continuity of care and a relationship with a 
Family Health Team. Family Health providers require specialty care 
resources to complete the spectrum of healthcare delivered for patients 
with disease and injury. Specialty consultation can sometimes result in 
fractionated care, particularly when it requires referral outside the 
medical treatment facility. The central tenet of the Air Force Medical 
Service's Medical Home is a focus on referral management, disease 
management, and a team approach to healthcare to ensure coordinated 
care that anticipates each patient's needs over time. We are also 
working to expedite the flow of relevant research information from the 
medical journals to our providers' desktops to improve medical 
management.
    Another important effort is that the Air Force has hired 32 full-
time behavioral health providers to embed in our primary care clinics 
to facilitate mental health treatment in the primary care setting. 
Research shows that over 70 percent of physical complaints have a 
psychological component and the vast majority of psychotropics are 
prescribed in primary care. Via this program, mental health providers 
are embedded in Primary Cares to provide consultation and brief 
intervention to our beneficiaries, who often do not seek or follow 
through with specialty care. This program streamlines the process for 
beneficiaries, providing brief mental health intervention when and 
where needed.
                      hearing center of excellence
    Question. General Green, I am very interested in the growing number 
of medically focused centers of excellence in the military and how the 
Department intends to ensure the appropriate level of attention and 
allocation of resources are devoted to the issues we are faced with 
today and also those we might encounter in the future. The current 
centers are focused around known critical areas of concern that impact 
both the Department of Defense and the Department of Veterans Affairs: 
hearing loss, vision, extremity injury, traumatic brain injury and 
psychological health. Since the Air Force will likely be the executive 
agent for the Hearing Center of Excellence, can you detail the role you 
believe the Air Force should play in developing the operational and 
research requirements as well as resourcing the Center to meet those 
needs?
    Answer. The establishment of a Hearing Center of Excellence is well 
underway. The Hearing Center of Excellence is positioned to roll out 
the necessary programs to connect, coordinate and focus the Department 
of Defense (DOD) and Veterans Affairs (VA) tracking, clinical care and 
research efforts for each injured military member and our expanding 
population of auditory disabled veterans.
    In October 2009, the Air Force was designated as the lead component 
and is standing up the Hearing Center of Excellence in partnership with 
the VA, Navy, and Army. The Executive hub will be located in San 
Antonio at Wilford Hall Medical Center within the 59th Medical Wing.
    The Hearing Center of Excellence office will be comprised of a lean 
cadre of staff working as an administrative hub leveraging technology 
to create and sustain a network of regional treatment facilities. This 
network will provide coordinated research and treatment. The Center 
staff will include a cadre of otolaryngology, speech and audiology 
professionals from within DOD, VA, and civilian settings. Wilford Hall 
Medical Center is an ideal site for the Hearing Center of Excellence 
hub. With ten Air Force, and five Army otolaryngologists and nine 
audiologists, Wilford Hall is the most robust clinical otolaryngology 
and audiology department in the DOD and VA systems.
    Wilford Hall is integrated with Brooke Army Medical Center in 
Graduate Medical Education in otolaryngology and audiology. The Wilford 
Hall/Brooke Army Medical Center partnership provides support for the 
Audie Murphy and Central Texas VA hospitals, and provides didactic and 
surgical training support for the University of Texas at San Antonio 
Medical School. This local support underpinning the Hearing Center of 
Excellence hub will ensure success as links with regional DOD and VA 
facilities are developed. The BRAC-directed coalescence to the San 
Antonio Military Medical Center construct will provide convenient, top-
quality platforms that are critical for focused clinical and research 
activities.
    The Wilford Hall otolaryngology department has a strong legacy and 
understanding of deployment medicine supporting special operations, 
aeromedical evacuation, and humanitarian roles and is keenly aware of 
the ongoing dichotomy faced by our troops between hearing protection 
and the essential need for optimal situational awareness and 
communication. Wilford Hall audiology has a solid deployment and 
research foundation and a working relationship with the Army medical 
facilities, the VA system, and the Institute for Surgical Research. 
They have established collaborative teaching and research ties with the 
Navy, acclaimed universities, and national and international industry 
leaders. The San Antonio military medical community supports Fort Hood, 
the Army's largest armored post, the Center for the Intrepid, all Air 
Force entry-level enlisted training and the new Medical Education and 
Training Campus on Fort Sam Houston.
    Since the designation of the Air Force as lead component for the 
Hearing Center of Excellence, the Interim Director has worked with the 
tri-service/VA working group to draft the concept of operations and to 
direct and define the functional needs for the hearing loss and 
auditory injury registry. The lead component structure is supporting 
cross-talk between the DOD Centers of Excellence and will lead to well 
coordinated efficiency of operations by sharing many functions.
                          wilford hall closure
    Question. General Green, you are dealing with the closure of 
Wilford Hall in San Antonio, Texas resulting in a combined medical 
facility with the Army. Please detail for the subcommittee how each 
Service is integrating and coordinating the various approaches to 
military medicine and serving their unique populations?
    Answer. The Base Realignment and Closure (BRAC) 2005 Law, Business 
Plan 172, states that we are to ``realign [not close] Lackland Air 
Force Base, Texas, by relocating the inpatient medical function of the 
59th Medical Wing to the Brooke Army Medical Center, Fort Sam Houston, 
establishing it as the San Antonio Military Medical Center and 
converting Wilford Hall Medical Center to an Ambulatory Care Clinic.'' 
With your support, we are on track to meet the BRAC deadline to 
transition all inpatient care to the Brooke Army Medical Center and 
establish a combined San Antonio Military Medical Center. The 59th 
Medical Wing's Ambulatory Care Clinic is also a critical component of 
this integrated military health system in San Antonio. To ensure we 
appropriately realign and integrate clinical operations, the Military 
Health System is modernizing these key facilities. The result will be 
the efficient and effective provision of world-class military medicine 
within the greater San Antonio area.
    We are capitalizing on prior collaboration and expanding new 
agreements. To ensure integration manner we are mixing resources at the 
market level to provide best value military healthcare for San Antonio. 
Examples are integration of graduate medical education under the San 
Antonio Uniformed Services Healthcare Education Consortium; fully 
integrated department leaders; collaborative basic and clinical 
biomedical research; and a San Antonio Healthcare Advisory Group to 
facilitate privileging, clinical business operations, healthcare 
management, and strategic planning. Efforts are ongoing with regard to 
governance structure, but our vision is a Service lead of the joint 
hospital and the joint ambulatory surgery facility, each staffed by 
both Army and Air Force personnel, similar to the Landstuhl Regional 
Medical Center model.
    The Army and the Air Force have worked diligently to integrate 
operations and improve military medicine delivery, while meeting the 
needs of each Service's beneficiary population and sustaining the 
readiness skills and focus of the military's medical force.
                 health professions scholarship program
    Question. General Green, the Health Professions Scholarship Program 
is one of the best mechanisms to recruit medical personnel into the 
Services. This program provides 4 years of tuition, books, and a 
monthly stipend, yet only 25 percent of all graduates of this program 
stay in the Service after the initial 4 year commitment. After spending 
hundreds of thousands of dollars training these medical professionals, 
how can we do a better job of retaining them in either the Active 
component or in the Reserves?
    Answer. Retaining healthcare professionals beyond completion of 
their initial Health Professions Scholarship Program obligation is both 
multi-faceted and complex. Although the current economic climate may 
assist in some regards to some specialties, data from ``exit surveys'' 
consistently indicates that the prolonged war efforts in Afghanistan 
and Iraq and the associated requirement for more frequent and/or 
extended deployments plays a significant role in influencing whether a 
service member will remain in uniform beyond his/her initial service 
commitment. We continue to seek mechanisms to create more pay equity 
with private sector salaries. New authorities for special pays are 
helping.
    To assist in retention of personnel, we also perform active 
mentorship with the Developmental Team of each Corps. Considering the 
member's professional experience, clinical expertise, and preferences 
for education/training and future assignments, the Corps leadership is 
able to evaluate their potential as leaders and clinicians and to guide 
them to future success as a valued Air Force officer and skilled member 
of the medical team.
                         nurse corps promotions
    Question. LTG Green, what are the potential adverse effects of the 
Nurse Corps Chief's non-sequential promotion from O-6 to O-8? What 
actions have been considered to mitigate these effects on the Chief of 
the Nurse Corps? Has any consideration been given to the possibility of 
allocating an O-7 billet to the Nurse Corps to ensure that the Corps 
Chief is afforded the opportunity to properly transition to the rank of 
Major General?
    Answer. Force developing our colonels and considering only those 
colonels with 26-29 years of service provides a more seasoned senior 
officer and decreases the potential for transition challenges. However, 
we would certainly welcome the opportunity for another pinnacle 
position for Nurse Corps force development and transition to the second 
star.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
               recruitment of mental health professionals
    Question. DOD has a critical shortage of mental healthcare 
professionals. During review of the Fort Hood incident where the 
alleged gunman, Major Hasad, U.S. Army psychologist, is charged with 
the deaths of 13 victims, reports show discrepancies in documentation 
and counseling as it related to his professional abilities and 
behavior. Suggestions were made that he was kept on active duty with no 
negative reprimands because he had diversity as a Muslim to our 
nation's service despite his failure to perform.
    What is DOD doing to recruit more mental health workers and to 
ensure they are quality healthcare professionals? What are the 
roadblocks to meeting the shortage of mental health professional?
    Answer. We are currently assessing new and emerging mental health 
requirements and determining the best mix and number of mental health 
providers required to meet future needs. As recruiting fully qualified 
psychologists, psychiatrists and mental health nurses remains 
challenging, the Air Force has focused on developing our own pool of 
mental health professionals. In addition to highly regarded social 
worker, psychology and psychiatry residencies, we are proposing to 
establish a mental health nurse training program at Travis Air Force 
Base, California. Additionally, the Air Force has consolidated our 
special pay programs to optimize accession and retention incentives.
    Question. What is being done to reduce the stigma and provide 
enough care givers so Airmen and their families do not suffer in 
silence?
    Answer. The effort to reduce stigma has been part of the suicide 
prevention program since the program's inception in 1997. We have 
shown, and spread the word, that 95 percent of patients self-referring 
to mental health treatment experience no adverse impact on career or 
military status such as occupational restrictions or discharge actions 
based on fitness for duty or security concerns. The numbers of mental 
health visits have increased steadily over the last 5 years, suggesting 
a greater willingness for individuals to seek care.
    In addition, the Air Force has leveraged several resources for non-
medical counseling in order to decrease stigma and ease an Airman's 
access into less formal counseling settings. Examples include:
  --Airman and Family Readiness Centers across the Air Force use 
        Military Family Life Counselors, who can see individuals or 
        couples with ``mild'' problems without the need to document or 
        come in to a clinic.
  --TRICARE Assistance Program is a pilot project of online counseling 
        available to adult family members and Airmen.
  --Military OneSource counselors are available for non-medical 
        counseling by self-referral through a toll-free number, also 
        without medical documentation.
  --In a growing number of Air Force Medical Treatment Facilities, 
        mental health providers are available in primary care to see 
        patients who may not otherwise seek mental healthcare or for 
        those with minor problems such as sleep difficulties which may 
        not require formal mental healthcare.
    Question. How is Air Force medicine integrated into the suicide 
prevention programs to ensure mental health services are getting to 
those who need it before it's too late?
    Answer. The Air Force Suicide Prevention Program Manager falls 
under the Surgeon General's office ensuring full engagement of the 
medical resources in preventing suicide within the service.
    The Air Force has integrated behavioral health providers within our 
primary care clinics, allowing our members to access initial mental 
health services without a separate appointment in a mental health 
clinic. For many Airmen these initial behavioral health interventions 
within primary care may be sufficient to address their needs. For 
others who may require more sustained treatment, initial contacts 
within primary care serve to ease their concerns and facilitate the 
transition to traditional mental healthcare.
    When a suicide does occur, medical providers review all care 
provided to the individual to look for potential improvements in the 
Air Force medical system that may prevent similar incidents in the 
future.
    Within our primary care system our Airmen complete annual personal 
health assessments, in addition to health assessments triggered by 
deployments. The assessments provide an opportunity for our medical 
providers to identify possible mental health concerns and risk for 
suicide and refer to mental health services as necessary.
                            cervical cancer
    Question. Cervical Cancer is preventable. In 2009 over 11,000 
American women were expected to be diagnosed with cervical cancer and 
over 4,000 women were expected to die from the disease. More than one-
half of women who die from cervical cancer have never been screened or 
have not been screened in the past 5 years.
    Human Papillomavirus (HPV) testing is an approved and widely 
accepted test to search for cells that have the potential of turning 
cancerous. Research has proven that when performed together with 
cytology screening, it increases detection of abnormal cell changes by 
30 percent. National medical organizations and insurance companies have 
determined screening of HPV testing and cytology screening at the same 
time as the standard of care, however TRICARE has deemed HPV testing 
authorized only after a negative cytology exam.
    What is Air Force medicine doing to ensure its female patients are 
receiving the highest quality of cervical cancer screening available?
    What is the percentage of female patients who receive current 
standards of screening within the required timeframes?
    Are HPV tests available at all Air Force military treatment 
facilities?
    What is Air Force medicine doing to increase prevention efforts of 
their female patients from developing cervical cancer?
    Answers: Just to clarify TRICARE does cover the assessment of women 
with Atypical Squamous Cells of Undetermined Significance cells 
detected upon initial pap smear (Source: ``Tricare Policy Manual 
Pathology and Laboratory Chapter 6 Section 1.1. E. Human Papillomavirus 
testing'' (CPT1 procedure codes 87620-87622)). TRICARE states that 
human papillomavirus (HPV) testing is authorized after a positive 
cytology exam.
    As of December 2009, 81.99 percent of women 24-64 years old 
(continuously enrolled in a military treatment facility (MTF)) have 
completed cervical cancer screening in accordance with Healthcare 
Effectiveness Data and Information Set methodology and the minimum 
screening recommendations from the American Academy of Family 
Physicians and the U.S. Preventive Services Task Force. The National 
Committee for Quality Assurance median score is 82 percent. The U.S. 
Preventive Services Task Force (USPSTF) concludes that the evidence is 
insufficient to recommend for or against the routine use of HPV testing 
as a primary screening test for cervical cancer. Rationale: The USPSTF 
found poor evidence to determine the benefits and potential harms of 
HPV screening as an adjunct or alternative to regular pap smear 
screening. Trials are underway that should soon clarify the role of HPV 
testing in cervical cancer screening.
    Cervical cancer screening is available at all Air Force medical 
treatment facilities and all Air Force medical facilities send 
specimens to Wilford Hall for routine screening. HPV testing 
capabilities includes Reflex HPV testing for specimens showing atypical 
cells, i.e., ``ASCUS PAP,'' and direct HPV testing of specimens when 
ordered by a provider.
    The Air Force Medical Service utilizes a multi-pronged approach for 
cervical cancer prevention. HPV vaccination is available to all 
eligible patients according to Food and Drug Administration guidelines. 
Health risk assessments (Web HA) are completed as part of the 
Preventive Health Assessment for Active Duty personnel. The tool 
identifies individuals at potential risk for sexually transmitted 
infections (e.g., HPV) and provides risk-reduction messaging ``alerts'' 
to patients and healthcare teams. Education and questionnaires on risk 
factors are addressed during routine clinical visits for all patients. 
Cervical cancer screening is a focus metric of Air Force Surgeon 
General Executive Global Look. Cervical cancer screening surveillance/
outreach is provided with use of the Military Health System Population 
Health Portal and provides MTFs provider level reports for cervical 
cancer screening rates and women overdue. MTFs are able to use this 
data to encourage patients to remain current on screening guidelines. 
Cervical cancer screening with availability of HPV testing is available 
at all MTFs.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                        mental health awareness
    Question. The Army has partnered with the National Institutes of 
Mental Health (NIMH) to conduct long-term study of risk and protective 
factors to inform health promotion and suicide prevention efforts in 
late 2008.
    What is the Air Force doing to promote mental health awareness?
    Answer. The Air Force has implemented wide-ranging efforts to 
promote mental health awareness and decrease stigma in our service. 
Many of these efforts have roots in our suicide prevention program, 
which was launched in 1996. At this time, we marshaled the capabilities 
of all our helping agencies, mental health, family advocacy, chaplains, 
family support centers and others within what we called an Integrated 
Delivery System (IDS). The goal continues to be to provide 
comprehensive efforts at the base level to meet the needs of our 
communities. Our suicide prevention program created a way for these IDS 
members to get into our units and talk about issues that stress the 
force. By bringing these discussions to the units and focusing 
community efforts in reducing stressors we enhanced awareness of these 
issues. We integrated suicide prevention within our professional 
military education to help leaders understand the mental health factors 
that may contribute and leaders' roles in addressing these. We have 
continued to build on these efforts with our personal health 
assessments, which regularly ask our Airmen about potential mental 
health needs, and we review responses that indicate risk and make 
appropriate referrals for care as necessary.
    The Air Force has published a Leaders' Guide for Managing Personnel 
in Distress, which provides straightforward guidance to supervisors and 
other leaders how to assist their subordinates in accessing the 
appropriate services. This tool helps leaders see their role in helping 
to manage the personal needs of their subordinates, and to discuss 
these issues in a productive manner.
    We have also developed specific programs for Airmen throughout 
their careers. The Air Force Landing Gear Program was designed to help 
Airmen cope with the stressors of deployment and redeployment. This 
program, which is currently being revised to encompass enhancing 
resilience for all our Airmen, has been complemented by the creation of 
Deployment Transition Programs to facilitate the smooth reintegration 
of our Airmen who have experienced the most stressful deployment 
experiences. Air Force leadership continues to explore new ways to 
ensure our Airmen understand that their mental health is as vital to 
the success of our mission as their physical health.
    Question. Is the Air Force conducting long-term studies similar to 
that of the Army and NIMH?
    Answer. The Air Force has been conducting research on suicide 
prevention for many years. When the Air Force initiated its 
comprehensive suicide prevention program in 1996, we partnered with the 
University of Rochester and Dr. Kerry Knox to carry out research on the 
effectiveness of these efforts. The first findings of this project were 
published in the British Medical Journal in 2003 and showed the 
effectiveness of our suicide prevention initiatives. The results 
demonstrated that our broad community-based efforts were not only 
associated with a 33 percent decrease in suicides, but also with 
decreases in a wide range of other problematic behaviors such as 
domestic violence, accidental death and homicide. This research led to 
the AF program being included in the Substance Abuse and Mental Health 
Services Administration's list of the only 10 Evidence Based Practices 
for the prevention of suicide.
    The Air Force suicide prevention program has continued this 
partnership with Dr. Knox, who has another study in press that will 
show continued compliance with the Air Force suicide prevention 
program, is associated with continued lower rates of suicide.
    The Air Force Suicide Prevention Program is also engaged in a 
number of other studies with researchers at the Uniformed Services 
University of the Health Sciences to examine case data on past 
suicides, including data collected through our Suicide Event 
Surveillance System, and the Department of Defense Suicide Event Report 
and Personal Health Assessment data to look for factors that may allow 
us to better identify those at risk for suicide. Recent efforts in this 
area have allowed us to identify career fields that appear to be at 
greater risk for suicide, allowing leadership to target additional 
prevention efforts at these groups.
    The Air Force has also been collecting data on new recruits 
entering the Air Force regarding their past behavioral history. This 
appears to show promise in allowing us to identify, from a recruit's 
earliest days in the Air Force, those Airmen who may be at higher risk 
for a variety of problems. The Air Force is now exploring ways to reach 
out to these Airmen to improve their ability to cope with the rigors of 
military life.
    Finally, the Air Force is in discussion with the Army and National 
Institutes of Mental Health to see how the Air Force may be able 
participate in this important study as it moves forward.
                      family readiness and support
    Question. Family Readiness and support is crucial for the health of 
the Services. The health, mental health, and welfare of military 
families, especially the children, has been a concern on mine for many 
years. This also includes education, living conditions, and available 
healthcare.
    Are you meeting the increased demand for healthcare and mental 
health professionals to support these families? If not, where are the 
shortfalls?
    Answer. The Air Force has had an increase in utilization of mental 
health services over the past 5 years both at the military treatment 
facilities and through the TRICARE network. In response to this growing 
use of mental health services, Military and Family Life Consultants 
were added at the Airmen and Family Readiness Centers to provide 
additional non-medical counseling resources for Airmen and their 
families to address issues such as stress management and relationship 
issues. In addition, the Air Force added 97 clinical mental health 
billets to perform clinical duties under the Director of Psychological 
Health. The Air Force also has hired 32 full time Behavioral Health 
providers to embed in primary care clinics to facilitate mental health 
treatment in the primary care setting.
    Question. What improvements have been made with respect to the 
children of Airmen and meeting their special requirements?
    Answer. In fiscal year 2009, 1,926 Air Force families received 
Family Advocacy Strength-Based Therapy Service (FAST Service). FAST is 
a family maltreatment prevention service for families who do not have a 
maltreatment incident but have risk factors for domestic/child 
maltreatment. Also, the New Parent Support Program (NPSP) services 
focus on providing education and support to military families related 
to pregnancy, infant/toddler care, growth and development, and safety. 
Guidance in the areas of parenting, couple communication and conflict 
management are provided. Emphasis is placed on assisting families with 
young children to deal with military lifestyle challenges, with 
particular emphasis on support before, during and after deployment. The 
Air Force NPSP screened 13,766 military families for risk of child and/
or partner maltreatment in fiscal year 2009. During fiscal year 2008, 
13,561 families were screened. During 2009, 18,608 home visits by 
Registered Nurses and Medical Social Workers were provided to NPSP 
families, an increase from the 17,470 home visits provided during 
fiscal year 2008. Services are provided with the goal of preventing 
child and partner maltreatment. In 2009, 97 percent of families who 
were at high risk for family maltreatment and received home visitation 
services did not have a substantiated child maltreatment case in the 
year following closure.
    The Air Force Medical Operations Agency is in the process of 
standing up a cell to coordinate medical support to families with 
special needs across the Air Force. The Special Needs Cell will track 
families with special needs and focus on their medical support during 
permanent change of station moves.
    Question. What programs have you implemented to assist the children 
with coping with frequent deployments, re-integration, and other 
stresses of military families?
    Answer. Air Force Family Readiness Centers provide assistance to 
families before, during and after deployments. The programs include 
advice for parents on talking to their children about deployment and 
anticipating the concerns of children during deployment. The centers 
also provide video communication with deployed family members and other 
support services. The three Services have established the Uniformed 
Services Chapter of the American Academy of Pediatrics (AAP). Their 
website contains an entire section devoted to support of military 
families. The AAP Military Youth Deployment Support Website has been 
designed to support military youth, families, and the youth-serving 
professionals caring for this population (http://www.aap.org/sections/
uniformedservices/deployment/index.html). Videos, patient handouts, 
provider information, blogging website and many more resources are 
devoted to this area. There are many additional websites and services 
helpful to military families. A short list is provided below.
    Resources for Parents include the following Web Sites: Military 
OneSource, National Military Family Association, Military Homefront, 
Military Child Education Coalition, Zero to Three Organization, 
Hooh4Health, USA4militaryfamilies.org, and Stompproject.org.
                          wounded warrior care
    Question. In the recently released Department of Defense budget 
guidance, it states that ``caring for our wounded warriors is our 
highest priority: through improving health benefits, establishing 
centers of excellence, and wounded warrior initiatives.''
    What systems do you have to ensure the transition of wounded 
warriors from Department of Defense to the Department of Veterans 
Affairs is completed without unnecessary problems?
    Answer. The Air Force has created the Warrior and Survivor Care 
office which oversees the Air Force Survivor Assistance Program, the 
Air Force Recovery Coordination Program, and the Air Force Wounded 
Warrior program in order to maintain continual contact with the 
wounded, ill or injured Airman and his or her family throughout the 
entire recovery, rehabilitation, and reintegration process. 
Professional staff from these programs provides oversight during the 
member's transition to ensure the recovering service member receives 
all military and external agencies' benefits and entitlements. The Air 
Force Survivor Assistance Program (AFSAP) is designed to marshal all 
available resources in support of family needs when an Airman becomes 
seriously wounded, ill or injured, or when an Airman dies while on 
active duty.
    At the same time, the AFSAP also provides a systematic structure 
through which offers of assistance, information and support are made 
available on the family's terms. The Recovery Coordination Program was 
designed to address reforms to existing processes within the Department 
of Defense and the Department of Veterans Affairs (VA). It improves the 
uniformity and effectiveness of care, management and transition across 
the Military Departments, as well as transfers to VA Medical Centers, 
Polytrauma Rehabilitation Centers and civilian providers, through the 
use of standardized policies, processes, personnel programs and tools.
    The Air Force Wounded Warrior Program, through the base-level 
Airman and Family Readiness Centers, provide enhanced transition 
assistance services that include one-on-one pre-separation counseling, 
one-on-one VA benefits and Disabled Transition Assistance Program, and 
personal assistance in completing and submitting a VA disability claim. 
Approximately 70 percent of our Air Force Wounded Warrior Program 
participants suffer from post traumatic stress disorder or other mental 
health conditions. Many of them also have residual physical problems. 
We provide ongoing needs assessments pre and post separation to ensure 
they receive the benefits, entitlements and care they earned. An 
Information Sharing Initiative is being designed for the sole purpose 
of ensuring flawless transition and exchange of data between DOD 
entities and the VA. The DOD-mandated working group is in the early 
stages of requirements development, and will provide a significant 
improvement to the Air Forces tracking of wounded, ill, and injured 
service members. This will result in a refined and simplified 
transition with uninterrupted medical and non-medical care and support 
to our Airmen and their families.
    Question. What do you consider a successful transition and do you 
follow-up with the Service members to ensure there are no problems even 
after they have been released from Active Duty?
    Answer. We consider a successful transition when several factors 
converge to stabilize the wounded, ill or injured Airman and his or her 
family. This includes continuum of medical care for the member, with no 
interruptions in care, including continuation of medication; 
stabilization of family finances, to include receipt of Department of 
Veterans Affairs disability compensation, military retired pay if 
retired, or accurate severance pay, if separated. Awareness of benefits 
and entitlements, and timely and accurate receipt of those benefits 
plays a big role in the psychological health and perception of the 
member and his or her family.
    Transition is also considered successful when the member and family 
receive and act on the information provided to meet their personal 
goals, whether it is to continue working or pursue higher education. We 
believe that the most successful transitions start at the beginning of 
the Medical Evaluation Board process and continue through the 
transition process. The key factor is to keep the member and family 
informed of what to expect and to normalize their experiences as much 
as possible. Family integration into the transition process is an 
important ingredient for a successful transition.
    The Air Force Wounded Warrior Program staff is in continual contact 
with Airmen and their families during the entire process. During the 
transition process, the wounded warrior counselors coordinate all 
transition actions between the Air Force and the Department of Veterans 
Affairs, including disability compensation. Ongoing contacts with the 
member and family provide the counselors with needs reassessments to 
ensure all benefits and entitlements are on track even after discharge.
                           reserve components
    Question. The Reserves and particularly the National Guard have 
unique concerns while deployed. It would seem as though there are no 
near term plans to discontinue the use of our Reserve Component in Iraq 
and Afghanistan.
    How are you determining budget requirements to accommodate the 
Reserve Component as they need Department of Defense healthcare well 
into the future?
    Answer. Medical care for deployed personnel, to include Reserve 
Component members, is a joint effort, and the Total Force receives the 
full spectrum of care to ensure members remain healthy and resilient. 
As a part of the Joint Team, the Air Force contributes comprehensive 
medical capabilities at both home station and in the deployed 
environment. Defense Health Program budget requirements for the Air 
Force Medical Service are coordinated with and resourced by the TRICARE 
Management Activity. Key drivers for resourcing include population 
projections and expected workload. Healthcare workload attributed to 
Reserve Component members and dependents is accounted for by the Air 
Force Medical Service. In addition, the fiscal year 2010 President's 
budget and fiscal year 2011 President's budget requests provided 
additional resources for wounded, ill, and injured and other enduring 
healthcare requirements resulting from Overseas Contingency Operations.
                           mental health care
    Question. General Casey recently stated the number of Army soldiers 
who feel there is a stigma for seeking mental healthcare has been 
reduced from 80 to 50 percent. This is a significant improvement, but 
there is more work to be done.
    Despite the reduced number of those who feel there is a stigma, are 
more service members coming forward to seek treatment?
    Answer. The Air Force believes that we have seen some success in 
efforts to decrease the stigma of seeking mental health services. 
Despite a slight decrease in the strength of our force since 2003 the 
Air Force has seen a steady increase in the utilization of our of 
uniformed mental health services. Since 2003 the number of active duty 
visits to our mental health clinics has increased from 226,000 visits 
to over 300,000 visits annually. While some of these visits may be 
associated with screenings for activities such as deployments and 
security or special duty clearances, the overall trend indicates a 
greater willingness in our Airmen to seek mental healthcare within our 
system.
    Question. What actions are the Services taking to continue to 
reduce the stigma and encourage Service members to seek treatment?
    Answer. Major steps the Air Force has taken include:
    Actively working to decrease stigma through statements from senior 
leaders encouraging all Airmen to seek help when needed and through 
efforts to counter myths related to mental health treatment within the 
Air Force. As part of the annual suicide prevention training, Airmen 
are presented with data showing that the vast majority of those who 
self-refer to mental health experience no adverse outcome and their 
confidentiality is maintained. This is presented to encourage Airmen to 
seek help early before stress or mental health problems increase to the 
point that a command directed referral maybe necessary.
    Conducting an annual ``Wingman Day'' at each base. These activities 
focus on the role all Airmen play in being a Wingman, that is, caring 
for their fellow Airmen. Wingman day is an opportunity to review the 
importance of teamwork and helping fellow Airmen perform their best. 
This includes helping Airmen realize when they may need help and 
facilitating access to that care.
    Integrating behavioral health providers within our primary care 
clinics, allowing our members to access initial mental health services 
without a separate appointment in a mental health clinic. For many 
Airmen, these initial behavioral health interventions within primary 
care may be sufficient to address their needs. For others who may 
require more sustained treatment, initial contacts within primary care 
serve to ease their concerns and facilitate the transition to 
traditional mental healthcare.
    Publishing a Leaders' Guide for Managing Personnel in Distress 
provides straightforward guidance to supervisors and other leaders on 
how to assist their subordinates in accessing the appropriate services.
    Establishing Directors of Psychological Health at each base to 
serve as a consultant to leaders at the base level in addressing the 
mental health needs present in the community.
    Establishing policy to provide greater confidentiality to those 
Airmen under investigation who are also at risk for suicide. This 
limited privilege suicide prevention program ensures Airmen under 
investigation and deemed to be at risk for suicide are protected from 
information shared in the context of their mental health treatment 
being used against them in court or in the characterization of 
discharge.
    Question. Does your plan include the mental health of families, and 
if so what is that plan?
    Answer. The mental health of families is of significant concern to 
the Air Force as family support is essential for effective functioning 
of our service members. In response to this need for family services, 
the Air Force added Military and Family Life Consultants at the Airmen 
and Family Readiness Centers to provide additional non-medical 
counseling resources for Airmen and their families to address issues 
such as stress management and relationship issues.
    In addition, the Air Force added 97 clinical mental health billets 
to perform clinical duties under the Director of Psychological Health 
allowing increased access to care services at the military treatment 
facilities. The Air Force has also hired 32 full-time behavioral health 
providers to embed in primary care clinics to facilitate mental health 
treatment in the primary care setting. In addition to traditional 
mental health clinic services, the Air Force Family Advocacy program 
offers Family Advocacy Strength-Based Therapy Service (FAST Service). 
FAST is a family maltreatment prevention service for families who do 
not have a maltreatment incident but have risk factors for domestic/
child maltreatment. Also in Family Advocacy, the New Parent Support 
Program services focus on providing education and support to military 
families related to pregnancy, infant/toddler care, growth and 
development, and safety.
    Guidance is provided in the areas of parenting, couple 
communication and conflict management. Emphasis is placed on assisting 
families with young children to deal with military life-style 
challenges, with particular emphasis on support before, during and 
after deployment. Military One Source and the Web-based TRICARE 
Assistance Program are also available for families to utilize for 
support.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
              joint venture keesler-biloxi medical system
    Question. General Green, the Department of Defense and the 
Department of Veterans Affairs are establishing joint ventures in 
hospitals that are co-located around the country, in hopes to achieve 
efficiencies with combined personnel and shared resources, thus 
eliminating duplication. Currently, as you know, the Navy and the VA 
are working on a joint venture in North Chicago, where the plan is to 
operate the facility with a single civilian staff under the VA, 
operating out of one combined facility.
    The Air Force and the VA are also working toward a joint-venture 
between Keesler and Biloxi, but have adopted a different model than the 
North Chicago model. I understand the Air Force has stated that not 
every joint venture will be applicable to every location, and thus the 
Air Force is not inclined to follow the North Chicago model. One of 
these reasons might be due to the different mission focus between the 
two locales. For example, the North Chicago facility supports mostly 
non-deployable personnel (Navy recruits) and serves as a schoolhouse 
for medical trainees. In Keesler, many of the medical Airmen deploy in 
their respective Air Expeditionary Force rotations (AEF) and for 
humanitarian missions, as needed.
    General, can you please give your thoughts on the other reasons as 
to why the current model at Keesler-Biloxi has been so successful and 
why it is the best model for the Gulf Coast region? Also, are there 
other Air Force-VA joint venture locations where you think this model 
is more applicable to improve treatment efficiency and provide quality 
care?
    Answer. The joint venture between the 81st Medical Group, Keesler 
AFB, Mississippi, and the Gulf Coast Veteran Affairs Health Care 
System, Biloxi, Mississippi, is relatively new and not yet complete, so 
assessing their successes at this time is difficult. However, despite 
the fact they are still in the process of integrating and moving some 
services, their centers of excellence model is already showing signs of 
success. Success for this joint venture, as well as any other joint 
venture model, is largely based on a willingness to work together to 
ensure the organization keeps the patient's needs as priority one. 
Communication and commitment to success is essential at all levels of 
the organization, especially with senior leadership. This commitment is 
very obvious at the Keesler/Biloxi joint venture as the leaders from 
both sites are very involved in the operation of the joint venture. 
Another key factor to success is a commitment to provide services for 
the other partner that they need for their patient population in the 
facility vice sending them out to the network--this is true for all 
partners in the joint venture. An excellent example is the Department 
of Veterans Affairs providing inpatient mental health services for 
Department of Defense beneficiaries, and Department of Defense 
providing women's health services for Department of Veterans Affairs' 
beneficiaries.
                                 ______
                                 
            Question Submitted by Senator Robert F. Bennett
                           chiropractic care
    Question. I'm pleased that TRICARE has worked over the past few 
years to expand chiropractic care for service members. Indeed, I have 
heard one of the top complaints of returning soldiers has been the type 
of neck and back pain chiropractic care would seemingly address. 
Unfortunately, our servicemen and women from Utah (particularly Hill 
AFB) are not able to receive this beneficial service that they have 
been promised because of the lack of approved providers.
    Shouldn't all soldiers have an opportunity to receive promised 
care? What alternatives for chiropractic care are available to airmen 
and soldiers, such as allowing them to receive private care, the cost 
of which would be reimbursed for those who are not within 50 miles of 
such a center, or are unable to be seen within 30 days?
    Answer. The Chiropractic Health Care Program is available to Active 
Duty service members (including activated National Guard and Reserve 
members) at designated military treatment facilities (MTFs) throughout 
the United States. This program is currently offered at 60 designated 
MTFs throughout the United States. There is currently no expansion set 
for 2010. The Department of Defense considers this program fully 
implemented, however, if directed to expand by Congress, the Air Force 
would certainly consider places such as Hill AFB, Utah.
    Alternatives to chiropractic care are non-chiropractic healthcare 
services in the Military Health System (e.g., physical therapy or 
orthopedics), referred care when care not available in a timely fashion 
at the MTF, or to seek chiropractic care in the local community at 
their own expense. Chiropractic care received outside of the designated 
locations is not covered under the Chiropractic Health Care Program. 
Major Air Force locations offering chiropractic care are listed below:

Andrews Air Force Base
Barksdale Air Force Base
Davis-Monthan Air Force Base
Eglin Air Force Base
Elmendorf Air Force Base
Hurlburt Field
Keesler Air Force Base
Kirtland Air Force Base
Lackland Air Force Base
Langley Air Force Base
Luke Air Force Base
MacDill Air Force Base
Maxwell Air Force Base
McGuire Air Force Base
Offutt Air Force Base
Scott Air Force Base
Tinker Air Force Base
Travis Air Force Base
U.S. Air Force Academy
Wright Patterson Air Force Base
                                 ______
                                 
           Questions Submitted to Rear Admiral Karen Flaherty
            Questions Submitted by Chairman Daniel K. Inouye
                      behavioral health providers
    Question. Admiral Flaherty, what innovative, multidisciplinary 
efforts has the Navy implemented to increase access to behavioral 
health providers?
    Answer. Increasing access to care for Behavioral Health remains a 
top priority for Navy Medicine. Prior ``innovations'' that have now 
become the norm include operationally embedded mental health providers, 
integration of Mental Health Care into primary care, Psychological 
Health Outreach Coordinators and use of our Deployment Health Centers 
as destigmatizing portals of care. Current innovation efforts are 
focusing on the use of intensive, outpatient, multidisciplinary group 
sessions for the treatment of Post Traumatic Stress Disorder (PTSD) and 
combat related mental health issues. One example of this type of 
innovative program is the ``Back on Track'' program at Naval Hospital 
Camp Lejeune. This 2 week program is built on the foundation of our 
Operational Stress Control (OSC) curriculum and outcome measures from 
the program are demonstrating statistically significant decreases in 
depression symptoms. Another innovative program is the 
multidisciplinary team assessment of every patient that is medically 
evacuated from theater to identify potential cognitive and mental 
health issues. Access is increased in a non-stigmatizing manner by 
providing this assessment to all patients without need for consult or 
self-referral. Follow on care is provided as indicated utilizing all 
members of the multidisciplinary team.
                department-wide nurse residency program
    Question. Admiral Flaherty, I understand that the civilian nursing 
community has established nurse residency programs in order to better 
prepare new graduates and novice nurses to care for more complex 
patients. I am also aware that each military service has implemented 
similar nurse intern and transition programs. Has there been any 
consideration on the development of a Department wide Nurse Residency 
Program?
    Answer. The Navy Nurse Corps has Nurse Intern Programs designed to 
mentor and train new graduates at our three largest medical centers 
(Naval Medical Center Portsmouth, Naval Medical Center San Diego, and 
the National Naval Medical Center) and at Naval Hospital Jacksonville. 
These programs are designed to orient recent graduate and registered 
nurses with limited clinical experience to the role of professional 
nursing. Training consists of classroom lectures, simulation lab, 
seminars, and hands on clinical experience. Classroom subject matter 
includes physical assessment, pathophysiology, diagnosis, nursing 
interventions, and general military training. Participants have direct 
patient care contact in the hospital setting. As medical treatment 
facilities within DOD merge, I think it is wise for the services to 
compare core curriculum and outcomes of their programs and blend best 
practice into a standardized program across the Department of Defense, 
while allowing for local leeway of program specifics based on 
individual needs of the local facility.
                     navy nurse challenges at fhcc
    Question. Admiral Flaherty, what are the major challenges facing 
Navy nurses as we move to a joint medical facility with the VA in 
Chicago, Illinois and how are the two Departments coordinating efforts 
to eliminate them before this facility becomes operation in the fall of 
2010?
    Answer. The nursing leadership in both communities has held 
multiple joint meetings over the past 18 months to communicate 
information and ideas on issues surrounding the Veteran's 
Administration (VA)--Navy merge of the joint facility in Chicago, 
Illinois. Action items have focused on credentialing and privileging, 
the setting of nursing standards, and staff education and training. We 
are educating the VA about the skill set of Hospital Corpsman and have 
joined each other's Executive Committee of the Nursing Staff (ECONS), 
and are merging toward a joint committee. Last, we are merging the Plan 
for Provision of Nursing Care between the VA's plan while adding Navy 
specific components. We are excited about the future possibilities and 
look forward to sharing our success with others.
                    navy nurse recruiting mechanisms
    Question. Admiral Flaherty, what are some of the best mechanisms 
that the Navy has instituted for recruitment and retention that might 
be beneficial for all services?
    Answer. Retaining Navy Nurses is one of my top priorities. Key 
efforts that have positively impacted retention include the Registered 
Nurse Incentive Specialty Pay (RN-ISP), a targeted bonus program for 
undermanned clinical nursing specialties and highly deployed Nurse 
Practitioners, graduate education programs through Duty Under 
Instruction (DUINS), and the Health Professions Loan Repayment Program 
(HPLRP) for baccalaureate nursing education, which assists nurses in 
reducing their student loan debt.
    The Navy Nurse Corps includes both uniformed and civilian 
professionals. In recent years, we have implemented two very exciting 
programs to incentivize our civilian nurses to work and stay working as 
Navy Nurses. Civilian nurses are now allowed to attend the 
Perioperative Nurse Training Program which will train them for a new 
career as Operating Room Nurses. We also introduced the Graduate 
Program for Federal Civilian Registered Nurses. This program provides 
opportunities for civilian nurses to obtain a graduate degree in 
nursing while receiving full pay and benefits of their permanent 
nursing position. Nurses selected for this program must have served at 
least 3 years in the Federal civilian service at a Navy Medicine 
activity prior to applying. While in graduate school they work a 
compressed work schedule while participating in full-time graduate 
education. We are confident that these two innovative programs will 
work to both recruit and incentivize civilian nurses to stay employed 
as Navy Nurses.
                 navy nurse corps collaboration with va
    Question. Admiral Flaherty, has the Navy Nurse Corps engaged in any 
collaborative nursing research efforts with the Veteran's 
Administration?
    Answer. Yes, one of my Nurse Researchers, Captain Patricia Kelley, 
is the Principal Investigator on a study titled ``Clinical Knowledge 
Development: Continuity of Care for War Injured Service Member.'' The 
purpose of this research study is to gather first person accounts of 
how nurses learn to care for wounded service members along with service 
members' memories of their care. This study will obtain interviews from 
over 250 nurses and 50 injured service members at military hospitals 
and Veterans Administration Medical Centers. From this study we hope to 
expand the nurse's understanding of care for the wounded warrior. I am 
pleased to report that this study was funded by the TriService Nursing 
Research Program (TSNRP).
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                        resiliency in the force
    Question. Admiral Flaherty, the Navy is in the process of 
``rebalancing'' the force to reduce battle fatigue from multiple 
deployments and give service members a chance to ``reset'' mentally and 
physically in a time of high operational tempo. Specific programs 
within the Navy include ``FIT'' for right-sizing the force and the 
Operational Stress Control Program.
    These programs require a great deal of support from medical units 
within each respective Service. The concern is that while implementing 
these programs, the high demand, low density medical career fields will 
remain stressed and unable to reset, as well.
    Admiral, can you please comment on if these programs have increased 
the demand on your nursing corps? Can you also comment on if these same 
programs are effective in helping medical personnel reset, also?
    Answer. The Navy's Operational Stress Control (OSC) program and the 
United States Marine Corps Combat Operational Stress Control (COSC) 
programs are line-owned and line-led programs. They focus on leader's 
responsibilities for building resilient Sailors, Marines, units, and 
facilities, mitigating the stigma association with seeking 
psychological healthcare, and promote early recognition of troublesome 
stress reactions before they develop into stress injuries or illness. 
Navy Medicine, to include the Navy Nurse Corps, plays a supporting 
role. Both programs are built on the time-proven leadership continuum 
and have formal curriculum being delivered at various points throughout 
a Sailor's or Marine's career. Navy Fleet and Family Support Centers 
and Marine Corps Community Services are contributing heavily to the 
Family OSC/COSC modules.
    Stress unique to our caregivers, such as compassion fatigue and 
burnout, requires a more dedicated approach. Navy Medicine has 
developed the Caregiver Occupational Stress Control (CgOSC) program 
with the core objectives of early recognition of caregivers in 
distress; breaking the code of silence related to occupational stress 
reactions and injuries, and engaging caregivers in early help as needed 
to maintain mission and personal readiness. The concept of 
``caregiver'' in this context refers to medical personnel (from 
corpsmen to physicians), clinically and non-clinically trained 
chaplains, religious program specialists, and family service 
professionals working within Navy Medicine. The Navy OSC, COSC and 
CgOSC programs actually enhance Navy Nurses as clinical leaders by 
leveraging a common framework for recognizing and responding to 
operational and occupational stress injuries. The increased demand by 
these programs on the Navy Nurse Corps is negligible because of the 
foundation of patient and staff education that is a core competency for 
all Navy Nurses. Anecdotally, we have seen our mid-grade nurses and 
Hospital Corpsmen rapidly integrate the principles of stress first-aid 
into their cores skills in a way that enhances their ability to address 
patient, family, and peer psychological distress. Their increased 
competency and skill used when providing complex and challenging care 
contributes to compassion satisfaction which buffers the adverse 
effects of compassion, fatigue and burnout.
                                 ______
                                 
       Questions Submitted to Major General Kimberly Siniscalchi
            Questions Submitted by Chairman Daniel K. Inouye
                    o-7 air force nurse corps billet
    Question. Major General Siniscalchi, how would the addition of a O-
7 billet benefit the Air Force Nurse Corps?
    Answer. It would provide an additional force development 
opportunity for the Air Force Nurse Corps. However, all five Corps 
within the Air Force Medical Service have general officer billets for 
force development. An added star for the Nurse Corps should not be at 
the expense of another Corps.
                            nurse resiliency
    Question. Major General Siniscalchi, as nurses continue to deploy 
in support of service members world-wide, what efforts has the Nurse 
Corps made to ensure that we are also caring for our caregivers and 
instilling resiliency in our nurses?
    Answer. The Air Force has continued to monitor the well-being of 
all Airmen through multiple measures. Among these measures are our 
Post-Deployment Health Assessments (PDHAs) and Post-Deployment Health 
Reassessments (PDHRAs) administered following a deployment. Medical 
career groups (including nurses) are among the top three career groups 
for self-reported symptoms of post-traumatic stress on PDHA/PDHRA. Air 
Force leadership supported Lt. Gen. Green's plans to provide targeted, 
tiered Resiliency Training for higher-risk career groups including the 
formation of a Deployment Transition Center (DTC) in United States Air 
Forces in Europe. The DTC is a 2-day resiliency training and 
decompression stop on a deploying Airman's way home. Included in the 2-
day training are JET Airmen and other medics who participate in 
``outside-the-wire'' missions. In addition to the DTC, plans are 
underway for enhanced pre and post deployment resiliency training for 
these groups and targeted interventions for high risk groups, with 
enhanced small group or face to face training. Finally, medics at both 
Bagram and Balad have a high exposure rate to injury and death, and 
plans are to implement a resiliency program based on the mortuary 
affairs model at Dover Air Force Base, Delaware integrating physical, 
spiritual, social, and psychological resiliency across their 
deployment.
                   civilian nurse transition programs
    Question. Major General Siniscalchi, I understand that the Air 
Force has established collaborative agreements with several civilian 
nurse transitions programs. Has any consideration been given to 
partnering with the Army or Navy Transition programs?
    Answer. Consideration has been given; however, we have not 
``formally'' partnered with the Army or Navy nurse residency/transition 
programs. We have chartered a working group to evaluate our Air Force 
Nurse Transition Program platform and compare and contrast our program 
with the Army, Navy and civilian nurse residencies/transition programs. 
We have an ongoing study to evaluate the performance and effectiveness 
of our Nurse Transition Programs and to identify potential 
opportunities for Tri-Service nurse training consolidation efforts.
                         joint medical policies
    Question. Major General Siniscalchi, as the military moves toward 
more joint medical treatment facilities among the tri-services and the 
Department of Veterans Affairs, do you see a future in merging Nurse 
Corps policies for governance, education, training, and the provision 
of nursing care?
    Answer. At those locations that have tri-service and Department of 
Veterans Affairs nursing, there are opportunities to establish tri-
service/Veterans Affairs nursing teams to collaborate efforts for 
governance, policy development, education and training and the plan for 
the provision of nursing care. It is, as always, important to note that 
patient care and advocating for the patient and their family remain a 
key nursing focus in whatever uniform or setting. There are many 
similarities in providing nursing care and the emphasis the Services 
place on the use of Professional Organization policies, education/
training and nursing care guidance is a key link to those similarities. 
Currently we have tri-service teams in Joint Task Force National 
Capital Region Medical which are working toward a collaborative 
approach in providing standardized orientation, education and training 
of our enlisted medics.
                         nurse corps retention
    Question. Major General Siniscalchi, despite well known shortages 
in the nursing profession, I see that all three corps expects to meet 
or exceed their recruiting goals this year. How does the Air Force plan 
to retain these nurses for follow on tours as the economy improves?
    Answer. For those nurses joining the Air Force due to the current 
economy, we are confident the reasons that made the Air Force an 
attractive option will also be the reasons they would continue to serve 
as the economy improves. Initial accessions for fiscal year 2010 
consistently speak in positive terms about the benefits of funded 
graduate education opportunities, professional and collegial 
relationships within the healthcare team, retirement pension, and 
continuity for seniority with assignment moves, opportunity for travel 
and the Air Force as great way of life for their families and children. 
As we look at retention of our current Air Force nurses, the number of 
nurses leaving the Air Force in 2009 was the lowest since 2002. 
Additionally, of the nurses who separate from the Air Force, over one-
half are separating to retire after reaching retirement eligibility. In 
2009, 59 percent of the nurses who left active duty did so after 
serving at least 20 years in uniform. With special pay programs such as 
the Nurse Corps Incentive Special Pay started in fiscal year 2009 to 
recognize advanced clinical and educational preparation, we hope to see 
an added benefit of increased retention.
                 air force nursing research initiatives
    Question. Major General Siniscalchi, what are some of the Air Force 
Nursing Research Initiatives that focus on the specific needs of combat 
veterans?
    Answer. Areas of research conducted by the U.S. military in 
Afghanistan and Iraq have led to advancements in combat casualty 
medical care and therapies to include tourniquet application, combat 
gauze, life-saving interventions, en-route care, resuscitation, blood 
product administration, burns, wound care, post traumatic stress 
disorder, traumatic brain injury and infectious diseases.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                       nurse corps contributions
    Question. Nurses significantly contribute to the healthcare of our 
Service members and their families. It is important that we maintain 
appropriate levels of highly trained nurses capable of performing a 
wide range of healthcare functions.
    With the maintained high operations tempo of combat in Iraq and 
Afghanistan, and the increasing requirements for healthcare for the 
Service member and their families, are you able to maintain the 
required level of nurses?
    Answer. Recruiting fully qualified nurses continues to be a 
challenge. Historical and current statistics tell us this will be an 
issue for years to come. In fiscal year 2009, we accessed 284 nurses 
against our total accession goal of 350 (81 percent), down 12 percent 
from what I reported the previous year. Currently, the recruiting of 
novice nurses has been successful. At present our recruitment of novice 
nurses is at 166 percent of our projected fiscal year 2010 goal. While 
the recruitment of novice nurses is going well, the limiting factor is 
their depth of clinical experience. Our Nurse Transition Program 
advances the clinical skills of these new nurses through direct patient 
care under the supervision of seasoned nurse preceptors.
    Question. Are there enough nurses entering the military to ensure 
quality of care for the Service members and to maintain the legacy of 
superb leadership in the future?
    Answer. Recruiting fully qualified nurses continues to be a 
challenge. Historical and current statistics tell us this will be an 
issue for years to come. In fiscal year 2009, we accessed 284 nurses 
against our total accession goal of 350 (81 percent), down 12 percent 
from what I reported the previous year. Currently, the recruiting of 
novice nurses has been successful. At present our recruitment of novice 
nurses is at 166 percent of our projected fiscal year 2010 goal. While 
the recruitment of novice nurses is going well, the limiting factor is 
their depth of clinical experience. Our Nurse Transition Program 
advances the clinical skills of these new nurses through direct patient 
care under the supervision of seasoned nurse preceptors.
    Question. What are you doing to prepare nurses for senior 
leadership roles and responsibilities?
    Answer. We grow our future leaders through professional military 
education, encouraging certification in clinical specialties, advanced 
academic preparation and deliberate force development.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                        resiliency of the force
    Question. General Siniscalchi, the Air Force continues to 
``rebalance'' the force to reduce battle fatigue from multiple 
deployments and give service members a chance to ``reset'' mentally and 
physically in a time of high operational tempo.
    The Air Force continues to work toward Total Force Integration 
(TFI) to provide the best support possible in a variety of missions 
world-wide. Multiple deployments, however, do increase the mental and 
physical stress on the Airman, and many programs have been created in a 
short time to address these concerns.
    However, these programs require a great deal of support from 
medical units within each respective Service. The concern is that while 
implementing these programs, the high demand, low density medical 
career fields will remain stressed and unable to reset, as well.
    General Siniscalchi, can you please comment on if these programs 
have increased the demand on your nursing corps? Can you also comment 
on if these same programs are effective in helping medical personnel 
reset, also?
    Answer. At this time we have not experienced an increased demand on 
the Air Force Nurse Corps as a result of current programs. However, we 
will continue to assess requirements as new initiatives such as 
Deployment Transition Centers come to fruition.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. Our next hearing of the Defense 
Appropriations Subcommittee will be on Wednesday, March 17, at 
10:30 a.m., and at that time we'll receive testimony from the 
Navy and Marine Corps.
    And we'll stand in recess.
    [Whereupon, at 12:18 p.m., Wednesday, March 10, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 17.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:28 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Kohl, Cochran, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. The hearing will come to order.
    The subcommittee meets this morning to receive testimony on 
the fiscal year 2011 budget request for the U.S. Navy and 
Marine Corps.
    And I'm pleased to welcome the Secretary of the Navy, Mr. 
Ray Mabus, the Chief of Naval Operations (CNO), Admiral Gary 
Roughead, and the Commandant of the Marine Corps, General James 
Conway. And I look forward to their testimony.
    The President's request includes $160.6 billion to pay for 
the personnel, operation and maintenance, and acquisition 
programs of the Navy and Marine Corps. The request also 
includes $18.5 billion to pay for operations in Iraq and 
Afghanistan in 2011, and $3.8 billion to cover the additional 
costs of the surge in Afghanistan this year. The subcommittee 
will hold a separate hearing on March 25 to examine the 2010 
surge supplemental request in more detail.
    The Navy and Marine Corps continue to be standard-bearers 
in this country's ability to project power and maintain 
regional stability. Today, sailors and marines are serving on 
the front lines in Iraq and Afghanistan. Every day, these men 
and women are working to support our troops in harm's way, 
train foreign security forces, and carry out dangerous combat 
missions.
    In addition, our forward presence in the Asia Pacific, the 
Middle East, and Caribbean and elsewhere, serves to assure our 
friends and our allies, as well as deter possible adversaries. 
Our forward bases and ships at sea keep trade routes secure, 
ease regional tensions, and respond to humanitarian 
emergencies.
    I particularly commend the lifesaving efforts of our 
military personnel after the devastating earthquake in Haiti.
    As the subcommittee reviews the fiscal year 2011 budget 
request, it is clear that the Navy and Marine Corps will 
continue to deal with a number of challenges, particularly with 
the expensive acquisition programs. Delays in programs like the 
Joint Strike Fighter (JSF), the CH-53K helicopter, and the 
expeditionary fighting vehicle can force modernization funds to 
be used for sustaining older capabilities, in addition to the 
increased development and procurement costs. Congress will 
continue to exercise close oversight on balancing the 
investment in future capabilities with the demand to sustain 
current equipment.
    The subcommittee will also have important questions about 
the plans for shipbuilding. The Navy has initiated work on the 
next-generation ballistic missile submarine, which includes a 
major research and development program and a per-ship cost of 
approximately $7 billion. But, long-range estimates of the 
shipbuilding budget expect it to average $16 billion over the 
next 30 years. Many are concerned about the pressure the 
submarine will place on shipbuilding budgets beginning 10 years 
from now.
    Also in shipbuilding, the Navy is committed to a new 
acquisition strategy for the littoral combat ship (LCS) that 
emphasizes competition to bring down costs while providing the 
best capability. With all the recent criticism of earmarks in 
the newspapers, it is important to know that the Navy would not 
be able to pursue the new acquisition strategy this year if the 
Appropriations Committee had not added $60 million in 
unauthorized funds to last year's budget. I believe, when the 
history of this program is written, these additional funds by 
Congress will result in substantial savings to the U.S. 
taxpayer.
    Finally, I'd like to commend the witnesses on their 
commitment to supporting the needs of sailors and marines who 
serve our country. Both the Navy and Marine Corps are 
experiencing very strong rates of recruiting and retention, and 
I would hope that our witnesses will elaborate, in their 
opening statement, on the initiatives to take care of our men 
and our women in uniform.
    And the full statements of each of the witnesses will be 
made part of the official record.
    And now, I am pleased and honored to turn to the vice 
chairman of the subcommittee, Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I'm pleased to join you in welcoming this distinguished 
panel of witnesses to discuss the budget request for the U.S. 
Navy and Marine Corps in the next fiscal year.
    It's particularly good to see my friend Secretary Ray 
Mabus, Secretary of the Navy, who is serving with distinction 
in that capacity and served as our Governor of Mississippi and 
is a good friend. We're glad to see him in this very important 
position.
    And we look forward to hearing your testimony and assure 
you that we want to do what we need to do here to provide the 
funding so that we maintain a strong, mobile, and effective 
Navy and Marine Corps team to protect the security interests of 
our great country.
    Chairman Inouye. Senator Bond, would you care to read a 
statement?

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman, Senator 
Cochran.
    And thank you, Mr. Chairman, for your concise description 
of how this subcommittee has provided vitally needed assistance 
to all branches of the service; and without it we'd have had 
many shortfalls.
    But, we welcome Secretary Mabus, Admiral Roughead, General 
Conway, for appearing before this subcommittee today.
    I'm particularly interested in our Nation's carrier fleet, 
the backbone of our military's ability to project power and 
peace around the world. As we all know, the F/A-18 Hornets and 
Super Hornets are the backbone of the carrier-based strike 
fighter aviation fleet. These aircraft are providing support 
for our warfighters, to close air-support mission, to ground 
forces, with an unmatched deterrent capability. The F/A-18 
continues to be the Navy's only strike fighter with advanced 
air-to-ground and air-to-air operational capability; and the 
continued procurement of these aircraft is, I believe, very 
necessary to address the Navy shortfall.
    In other words, to apply Secretary Gates's statement, I 
think procuring F/A-18s is absolutely necessary. Secretary 
Gates said that he was ``advocating a shift away from 99 
percent exclusive service-centric platforms that are so costly 
and so complex that they take forever to build, and only then, 
in very limited quantities. With the pace of technological and 
geopolitical change and the range of possible contingencies, we 
must look more to the 80 percent solution, a multiservice 
solution that can be produced in time, on budget, and in 
significant numbers. As Stalin once said, `quantity has a 
quality all of its own' ''.
    I think Secretary Gates has hit it on the head. Keeping 
Americans, whether our troops fighting overseas or our families 
at home, safe from current and emerging threats is a difficult 
challenge in an uncertain and dangerous world. America must 
have the right tools to meet this challenge. And I believe 
having a Super Hornet in our arsenal is an important part of 
the strategy.
    I applaud the efforts of the Department of the Navy for 
considering a multiyear procurement. This prudent move would 
prevent the Navy from having empty carrier decks, save hundreds 
of millions of valuable taxpayer dollars, and maintain the 
strength of the United States industrial defense base, a very 
important objective for the Navy, for the marines, and for the 
peace and security that this Nation advocates and promotes, 
here and abroad.
    Thank you, Mr. Chairman.
    Chairman Inouye. I thank you very much.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I'll be brief.
    I ask that my written statement be made part of the record.
    Chairman Inouye. Without----
    Senator Shelby. And, Secretary----
    Chairman Inouye [continuing]. Objection.
    Senator Shelby. Thank you.
    Secretary Mabus, General Conway, Admiral Roughead, we look 
forward to being with you this morning and hearing your 
testimony and also have a chance to question you on some very 
important issues.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Kohl. No statement.
    Chairman Inouye. Then I'll begin with the questioning, if I 
may.
    But, first, we'll call upon the Secretary.

                  SUMMARY STATEMENT OF HON. RAY MABUS

    Mr. Mabus. Mr. Chairman, Mr. Vice Chairman, members of the 
subcommittee, it's a real pleasure to be here with you today. 
The CNO, the Commandant, and I are particularly grateful to the 
commitment that the members of this subcommittee have shown to 
our men and women in uniform in the Navy and the Marine Corps. 
We're exceptionally proud to be representing the sailors, 
marines, civilians, and their families that are with the 
Department of the Navy.
    The Navy and the Marine Corps remain the most formidable 
expeditionary fighting force in the world, capable of global 
operations across the entire spectrum of warfare. Today, 40 
percent of our forces are deployed and over one-half of our 
fleet is at sea.
    In Helmand Province, Afghanistan, more the 16,000 marines 
are engaged in major combat, counterinsurgency, and engagement 
operations. They're supported there by naval aircraft flying 
close air support from Eisenhower and from our forward-deployed 
expeditionary aviation assets. A total of 12,000 sailors are on 
the ground in Iraq, Afghanistan, and across the greater Middle 
East, and another 9,000 sailors and marines are embarked on our 
ships at sea.
    Off the coast of Africa, our ships are protecting 
international commerce and operating as a partnership station 
with regional allies. Off the coast of South America, other 
ships are stemming the flow of illegal narcotics into the 
United States.
    Our ballistic missile defense forces are ready to defend 
against any threat to international peace in Europe, the Middle 
East, and the Pacific Rim. Our forward-deployed forces continue 
their role as a strategic buffer and deterrent against rogue 
regimes and potential competitors, alike. In Haiti, as the 
chairman mentioned, the Bataan and 1,000 marines from the 22d 
Marine Expeditionary Unit continue to provide humanitarian aid, 
medical assistance, and disaster relief.
    The Navy and Marine Corps are flexible, responsive, and 
everywhere our Nation's interests are at stake. Our global 
presence reduces instability, deters aggression, and allows us 
to rapidly respond to any crisis that borders the sea.
    I believe that the President's fiscal year 2011 budget for 
the Department of the Navy is a carefully considered request 
that gives us the resources we need to conduct effective 
operations and meet all the missions we have been assigned.
    Our shipbuilding and aviation requests concur with the 
findings of the Quadrennial Defense Review (QDR) and its 
objective of prevailing in today's wars, preventing conflict, 
preparing for future wars, and preserving the force. With this 
budget, the Navy and Marine Corps will continue to maintain the 
maritime superiority of our forces, sustain a strong American 
shipbuilding industrial base, and ensure our capacity for rapid 
global response.
    Across the Future Years Defense Program (FYDP), we've 
requested funds to build an average of 10 ships per year, 
including 1 carrier, 1 big deck amphibious ship, 10 Virginia-
class submarines, and 17 littoral combat ships.
    We'll leverage the technologies captured from canceled 
programs like the CG(X) and the truncated DDG 1000 program into 
what will become our Flight III Burke-class DDGs. These 
technologies include SPY-3 and the air and missile defense 
radar. Through the submitted shipbuilding plan, we will 
increase the size of our fleet to approximately 320 ships by 
2024.
    In our shipbuilding program, I think we've made the most 
cost-effective decisions to achieve the most capable force, one 
that achieves equal flexibility to confront missions, across 
the spectrum of conflict, from the technologically complex, 
like ballistic missile defense and integrated air defense, to 
low-intensity humanitarian response and regional engagement.
    In aircraft procurement, we've requested just over 1,000 
aircraft across the FYDP, including both fixed and rotary wing.
    Over the next year, the Navy and Marine Corps will continue 
to move ahead with changes to our acquisitions process. In 
compliance with the Weapons Systems Acquisitions Reform Act, we 
are aggressively developing our acquisition strategies to 
ensure that on-time and on-budget is the standard for Navy and 
Marine Corps programs.
    I'm grateful for the support of this subcommittee for the 
decision to recompete the LCS Program when it failed to meet 
program standards. I assure you that we will not hesitate to 
recompete or cancel other programs whenever substandard 
performance demands change.
    Change is also required to address the way in which the 
Navy and Marine Corps use and produce energy. Energy reform is 
an issue of national security, and it's essential to 
maintaining our strategic advantage, warfighting readiness, and 
tactical edge. By 2020, I've committed the Navy to generate 
over one-half the energy we use from alternative sources. This 
is an ambitious goal, but one which can be met.
    Forty years ago, I stood watch on the deck of the U.S.S. 
Little Rock as a young junior officer. Today, I have the solemn 
privilege of standing watch on behalf of our Navy and Marine 
Corps in a time of war. I am honored by the trust the President 
and the Congress have placed in me, and fully recognize the 
solemn obligation I have to those who defend us.
    I, along with the CNO and the Commandant, look forward to 
hearing your thoughts and answering any questions you may have 
concerning this budget, any specific programs or policies.

                           PREPARED STATEMENT

    I also look forward to working with you as we move forward 
to sustain the Navy and Marine Corps as the most formidable 
expeditionary fighting force in the world.
    Thank you.
    Chairman Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]
                  Prepared Statement of Hon. Ray Mabus
    Chairman Inouye and Senator Cochran, it is a pleasure to be here 
today with the House Armed Services Committee as the representative of 
the nearly 900,000 Sailors, Marines, and civilians that make up the 
Department of the Navy. The Chief of Naval Operations, the Commandant 
of the Marine Corps and I are privileged to lead some of the best men 
and women in the country, who are selflessly serving the United States 
all around the world in support of our safety, our security, and our 
national interests.
    The Navy and Marine Corps remain the most formidable expeditionary 
fighting force in the world. We are America's ``Away Team''. The 
mission and experience of our team is well matched to the multiple and 
varied challenges that threaten our nation's security and global 
stability.
    Today the Navy and Marine Corps are conducting operations across 
the spectrum of military operations, from major combat and ballistic 
missile defense to humanitarian assistance and disaster relief.
    Fifteen thousand Marines are at the forefront of our nation's 
defense, serving in and around Helmand Province, Afghanistan. By spring 
this number will grow to almost 20,000. It is a testament to the 
responsiveness and combat capability of the Marine Corps that the first 
troops to depart for Afghanistan in the wake of the President's 
December 1 announcement were 1,500 Marines from Camp Lejuene, North 
Carolina. The new arrivals, who deployed before the end of last year, 
joined the Second Marine Expeditionary Brigade already in place. 
Together they are taking the fight to the Taliban and al-Qaeda in their 
sector and assisting the Afghan Provincial Government in reestablishing 
control. General Conway describes their capability as a ``two-fisted 
fighter,'' capable of simultaneously combating an adaptive and 
insidious insurgency among the Afghan civilians while maintaining the 
skill set to conduct major combat operations.
    The Navy in Afghanistan is contributing Special Operations Forces, 
Explosive Ordnance Disposal Teams, Seabee civil engineering assets, all 
of the airborne expeditionary tactical Electronic Warfare capability, 
medical and intelligence professionals, and logistical support. From 
our carriers operating in the Indian Ocean, we are launching a 
significant percentage of the close air support that watches over our 
Marines and Soldiers on the ground. The Navy has over 12,000 Sailors on 
the ground in Central Command supporting joint and coalition efforts in 
both Iraq and Afghanistan and another 9,000 Sailors at sea supporting 
combat operations.
    The Navy and Marine Corps today are globally engaged in a host of 
other security and stability operations. In our cruisers and 
destroyers, the Navy has built a strong ballistic missile defense 
force. These multi-mission ships routinely deploy to the Mediterranean, 
the Arabian Gulf, and the Western Pacific and extend an umbrella of 
deterrence. Across the Future Years' Defense Program we will expand 
this mission and operationally implement the President's decision in 
September 2009 to focus on sea-based ballistic missile defense.
    That capability is complemented by the continued preeminence of the 
ballistic missile submarines in our strategic deterrent force, who 
operate quietly and stealthily on station every day of the year.
    In the Gulf of Aden and Western Indian Ocean, Combined Task Force 
151 is leading the international effort to combat piracy in the Gulf of 
Aden. They are coordinating their operations with forces from the 
European Union, NATO, and a total of 24 nations contributing ships, 
aircraft, and staff personnel as well as operational and intelligence 
support.
    Our ships and maritime patrol aircraft in the Caribbean and off 
South America are working with the Coast Guard-led Joint Interagency 
Task Force--South, which ties together information and forces from 13 
nations to stem the flow of illegal narcotics into the United States. 
In 2009 alone they contributed to the seizure or disruption of almost 
220,000 kilograms of cocaine with a street value of over $4 billion.
    Both the Navy and Marine Corps routinely conduct training exercises 
and multi-lateral operations with nations all around the world to 
solidify our relationships with traditional allies and forge 
partnerships with new friends. Global Partnership Stations in Africa, 
South America, and the Pacific are training hundreds of Sailors, 
Marines, and Coast Guardsmen from dozens of nations and are supporting 
regional diplomatic and humanitarian engagement efforts, like those of 
the hospital ship USNS Comfort and the Fleet Auxiliary USNS Richard E. 
Byrd in the summer of 2009. The two ships together treated over 110,000 
patients in the Caribbean, South America, and Oceania, and the USNS 
Comfort furthered an existing partnership with numerous civilian aid 
organizations.
    The Navy-Marine Corps team remains on the front-line of response to 
natural disasters. In 2009 we provided humanitarian assistance to 
Indonesia, the Philippines, and American Samoa, and delivered thousands 
of tons of food, water, and medical supplies to those affected by 
devastation. After the January 12 earthquake in Haiti, the Navy and 
Marine Corps responded immediately. Within a week of the earthquake, 11 
Navy ships, including the carrier U.S.S. Carl Vinson, the big-deck 
amphibious ship U.S.S. Bataan, and the hospital ship USNS Comfort were 
on station off the coast of Haiti. These ships embarked 41 Navy and 
Marine Corps helicopters and approximately 2,000 Marines of the 22nd 
Marine Expeditionary Unit. On station, our units treated patients, 
provided helicopter lift capability, and delivered hundreds of tons of 
relief aid. Additional personnel and capabilities continued to flow in 
over the next weeks. Our mission there will continue as long as 
required.
    The Navy and Marine Corps are flexible, responsive, and everywhere 
that our nation's interests are at stake. The Navy and Marine Corps' 
global presence reduces instability, deters aggression, and allows for 
rapid response to a wide range of contingencies.
    In order to ensure our continued global mobility, the Department of 
the Navy strongly supports accession to the Law of the Sea Convention 
(UNCLOS). The United States must continue to take maximum advantage of 
the navigational rights contained in the Convention. Ratification would 
enhance stability for international maritime rules and ensure our 
access to critical air and sea lines of communication.
    I have now been the Secretary of the Navy for 9 months, and in that 
short period of time I have met thousands of our Sailors and Marines 
serving on the front lines at sea and ashore. I have been constantly 
inspired by the high morale, courage, and commitment to serving our 
country displayed by every one of them as they conduct our missions. In 
return, I have continually expressed to them the appreciation of the 
American people for the sacrifices they and their families are making 
every day.
    I have met our operational commanders and seen first-hand the 
warfighting readiness of our Fleet and our Marine Forces. I have 
inspected the facilities of our industry partners who are building the 
Navy and Marine Corps of tomorrow. With the advice and support of my 
leadership team, I have made some initial decisions to better prepare 
the Navy and Marine Corps for the challenges of the future. These 
observations and our initial actions have given me a good picture of 
the Navy and Marine Corps, and from this vantage I can report to 
Congress and the President the current state of the Services, the 
budgetary requirements we need to successfully perform our mission, and 
the future direction I believe we must take.
    The Department of the Navy's fiscal year 2011 budget request 
reflects the President's priorities, Secretary Gates' strategic and 
fiscal guidance, and fundamentally aligns with the 2010 Quadrennial 
Defense Review (QDR) priorities: Prevailing in today's wars; preventing 
and deterring conflict; preparing for a wide range of future 
contingencies; and preserving and enhancing the All-Volunteer Force.
    This budget request of $160.7 billion will maintain across the 
Future Years' Defense Program our commitment to a strong industrial 
base. The fiscal year 2011 request of $18.5 billion for contingency 
operations includes incremental costs to sustain operations, manpower, 
equipment and infrastructure repair as well as equipment replacement to 
support our focus on increasing threats in Afghanistan and elsewhere.
    In the fiscal year 2011 budget request, we have included funds for 
9 ships, including 2 additional Virginia class submarines, 2 destroyers 
in the restarted Arleigh Burke line, a lower-cost commercial variant of 
the Mobile Landing Platform, the multi-role Landing Helicopter Assault 
Replacement, a Joint High Speed Vessel and 2 Littoral Combat Ships, 
which will be constructed under the terms of the down-select we will 
conduct this fiscal year. In aviation, we have requested 206 aircraft 
in fiscal year 2011, including 20 F-35 Joint Strike Fighters for both 
the Navy and Marine Corps, 24 MH-60R and 7 P-8As to begin replacing our 
aging ASW and maritime patrol squadrons, 18 MH-60S for logistics 
support, 28 H-1 variant helicopters and 30 MV-22 for the Marine Corps, 
22 F/A-18E/F and 12 F/A-18G to continue replacing the EA-6B. For Marine 
Corps ground operations, we have requested funding for an additional 
564 LVSR and HMMWV tactical vehicles. The fiscal year 2011 budget 
request also contains development funding for the Navy Unmanned Combat 
Aerial System and continues development of the Broad Area Maritime 
Surveillance UAV. And we have continued our support of the Naval 
Expeditionary Combat Command, including funding for a fourth Riverine 
Squadron.
    The Department's long-range shipbuilding and aviation intentions 
are designed to sustain our naval superiority and they achieve a 
balance of capability and affordability that both wins today's wars 
even while preparing for the challenges of the future.
    There are four strategic, tactical, and personnel management 
imperatives I believe the Department of the Navy must also address to 
maintain preeminence as a fighting force and successfully address 
whatever comes in the future. These four areas reinforce the strategic 
framework of the QDR and address the areas of risk it identifies. They 
are: Taking care of our Sailors, Marines, Civilians, and their 
Families; treating energy in the Department of the Navy as an issue of 
national security; creating acquisitions excellence; and optimizing 
unmanned systems.
    They underpin the development of our fiscal year 2011 budget 
request, execute Presidential policy, and comply with and respond to 
Congressional direction.
     taking care of sailors, marines, civilians, and their families
    Sailors and Marines are the fundamental source of our success. They 
are our most important asset, and they must always come first in our 
minds and in our actions. One of my most important responsibilities as 
Secretary is to ensure adequate compensation, medical care, and family 
support services are provided to our Sailors, Marines, civilians, and 
their families.
    The Navy and Marine Corps will continue to recruit and retain the 
same high quality individuals we brought into and kept in the service 
in 2009. We remain committed to providing a competitive pay and 
benefits package to aid recruiting. The package includes not only basic 
pay and housing allowances, but also provides incentives for critical 
specialties in healthcare, explosive ordnance disposal, and nuclear 
propulsion.
    Beyond compensation, we recognize that quality of life programs are 
crucial to retention and the military mission. We are providing 
expanded career opportunities, opportunities for life-long learning, 
and a continuum of care and family support. The Department continues to 
support a wide array of readiness programs, including deployment 
support services, morale and welfare services, and child and teen 
programs. Our innovative personnel management and human resource 
programs were in fact recognized by civilian experts as among the best 
in the country when, in October 2009, the Navy was named by Workforce 
Management Magazine as the winner of the Optimas Award for General 
Excellence.
    Since the attacks of September 11, 2001, over 10,000 Marines and 
Sailors have been wounded in action. Their service has been exemplary 
and unselfish, and in their sacrifice they have given so much of 
themselves for our country. The Department of the Navy, through the 
Wounded Warrior Regiment and the Navy Safe Harbor Program, provides 
support and assistance to our wounded, ill, and injured service members 
and their families throughout recovery, rehabilitation, and 
reintegration. And we continue to provide encouragement and support for 
wounded Sailors and Marines, in partnership with the Department of 
Veterans Affairs, long after they have left the Service.
    Our medical community has continued to strive for excellence in the 
care of our Sailors and Marines. Navy Medicine has reached out to its 
civilian colleagues, and we have established partnerships with civilian 
hospitals to improve our understanding and care for those affected by 
traumatic brain injuries, mental health issues, amputation, and 
disfiguring injuries. I had the opportunity last fall to see this 
first-hand, when I witnessed groundbreaking pro-bono work in 
reconstructive surgery on behalf of Wounded Warriors at the UCLA 
Medical Center.
    We will continue to aggressively address the issues of sexual 
assault prevention and response. Sexual assault is a criminal act that 
is corrosive to the readiness and morale of a professional military 
organization. In the fiscal year 2011 budget request, we have requested 
funds to support a reinvigorated program under the supervision of a new 
Office of Sexual Assault Prevention and Response, which I created 
within the Secretariat to focus attention on the issue, develop 
effective training, and coordinate prevention and response programs 
across the Navy and Marine Corps.
    In 2010, the Department will move forward on expanding the 
opportunities for women in the Navy. We will establish a process to 
integrate women into the submarine force, beginning with nuclear-
trained and Supply Corps officers on our ballistic and guided missile 
submarines.
    After 8 years of continuous combat operations, the Navy and Marine 
Corps' people remain strong, and the CNO, CMC, and I are very focused 
on maintaining the overall health of the force. The fiscal year 2011 
budget request reinforces these goals and is designed to provide the 
fiscal support necessary to sustain the force. The visible support of 
Congress to our personnel programs is deeply appreciated and has been 
vital in maintaining overall readiness.
                             energy reform
    The way in which we use and produce energy is an issue of national 
security and is essential to maintaining our warfighting capabilities. 
At present, we simply rely too much on fossil fuels, which are 
susceptible to both price and supply shocks caused by events in 
volatile areas of the world largely outside the scope of our control. 
Those potential shocks have, in turn, strategic, operational, and 
tactical effects upon our forces. In addition, fossil fuel emissions 
are the root cause of many of the impending security challenges of 
tomorrow, and the QDR has correctly identified that climate change and 
its effects: rising sea levels, pressure on natural resources, and 
changes to the polar regions, will increasingly affect our force 
structure and the global security environment as the 21st century 
progresses. In order to improve our long-term strategic and fiscal 
position, I have set the Navy and Marine Corps on a path to change the 
way in which we use and produce energy.
    In October 2009, I issued five energy targets. They are ambitious 
in their scope, but I firmly believe that little will be accomplished 
without bold, innovative, and timely action. The most important of the 
targets commits the Navy and Marine Corps to generating half of all the 
energy we use, including that used by the operational fleet, from 
alternative sources by 2020. I have also committed the Navy and Marine 
Corps to consider energy as a mandatory evaluation factor in 
contracting, and to consider as an additional factor in our business 
dealings, the energy footprint of the companies that sell to the Navy 
and Marine Corps.
    America is a world leader precisely because of our willingness to 
not just embrace change, but to create it. The U.S. Navy has always 
been a technological leader. We moved from wind to coal in the 19th 
century, coal to oil early in the 20th century, and to nuclear power in 
mid-century. In every transition there were opponents to change, but in 
every case the strategic and tactical position of naval forces 
improved. In this century, I have asked the Navy to lead again by 
pioneering technological change through use of alternative energy. But 
I want to reiterate that every action and program we undertake must and 
will have as an effect improved warfighting capability. And we will 
strive in every case to improve energy efficiency and reach cost-
neutrality over the life of the program.
    Many of our initiatives are already doing this. We conducted a 
ground test of an F/A-18 Hornet jet engine this fall running on a 
biofuel blend and we intend to conduct an airborne test of the ``Green 
Hornet'' later this year. In late 2010, the Navy will also conduct 
tests of a more efficient F/A-18 engine, which will increase the 
aircraft's range. Afloat, the U.S.S. Makin Island, the first ship 
constructed with a hybrid-electric drive that dramatically lowers fuel 
consumption at lower speeds, saved approximately $2 million in a single 
transit to her new homeport in San Diego. Over the life of the ship, we 
estimate the savings will be up to $250 million using today's fuel 
prices. Writ large across the Navy, as we begin to retrofit our DDG 
fleet with similar propulsion systems, the potential fuel savings will 
only grow.
    In addition to these tactical applications, we have implemented a 
number of energy projects at our facilities ashore, and numerous other 
efficiency initiatives throughout the Fleet. As the President clearly 
stated in Copenhagen, changing the way we use and produce energy is a 
national security imperative.
                         acquisition excellence
    The ships and aircraft of the Navy and Marine Corps are unmatched 
at sea and over land. Our precision munitions, networked targeting 
systems, armored vehicles, stealth technology, and unmanned vehicles 
are advanced systems that define the leading edge of warfare in all 
domains.
    These truths have been brought home to me during my visits with the 
defense industry. I have had the opportunity to visit shipyards, 
aircraft manufacturers, factories, and depots; and I applaud the hard 
work and dedication of this country's skilled workforce--Americans who 
take as much pride in their patriotism as they do in their 
craftsmanship.
    The issue before us all, however, is affordability. Acquisition 
costs are rising faster than our budget's top-line, and without 
deliberate, sustained action to reverse this trend, we put the size and 
capability of the future force at risk. In accordance with the Weapons 
System Acquisition Reform Act passed by Congress in 2009, the Navy and 
Marine Corps will aggressively pursue additional ways to make the 
acquisitions process more rigorous; we will prudently safeguard the 
resources entrusted to us by the American taxpayer, and we will fully 
meet the obligation we hold to our Sailors and Marines.
    This requires close examination of the way we do business in our 
policies, practices, priorities, and organization, with a clear focus 
on controlling cost. The Navy and Marine Corps will continue 
initiatives to raise standards, to improve processes, to instill 
discipline in procurement, and to strengthen the professional corps 
that manages our major defense acquisition programs.
    We are pressing forward with key initiatives that promise to 
improve our ability to affordably deliver combat capability to the 
fleet.
    We are improving the quality of our cost estimates, which underpin 
our investment decisions. We are strengthening our cost estimating 
group, requiring independent cost estimates, and incorporating 
Departmental best practices in the formulation of our Service Cost 
Position for all major programs. We are using these realistic cost and 
schedule estimates to drive difficult decisions at the front end of the 
requirements process.
    We are developing our acquisition strategies with the intent of 
expanding the use of fixed price contracts, leveraging competition, and 
tightening up on the use of incentive and award fees to ensure quality 
systems are delivered consistently on budget and on time to our Sailors 
and Marines. When we could not achieve these objectives this past year 
on the Littoral Combat Ship program, we rewrote the program's 
acquisition strategy to improve performance through competition. I 
thank the Committee for its strong support of this revised strategy, 
and I assure you that I will not hesitate to re-compete or cancel 
programs when sub-standard performance demands change.
    We are demanding strict discipline in the execution of our 
contracts. Before commencing production on new start ship programs, I 
have reported to you the results of reviews conducted to ensure that 
designs are mature. We are specifically clamping down on contract 
changes, the most-often cited reason for cost growth, through improved 
policies and increased oversight.
    Our goals for modernizing today's force and recapitalizing the 
fleet affordably cannot be accomplished without a healthy industrial 
base and strong performance by our industry partners. We have worked 
hard to procure our ships, aircraft, and weapon systems at a rate 
intended to bring stability to the industrial base and enable efficient 
production. The Navy's long-range shipbuilding plan was developed with 
particular regard for maintaining the unique characteristics and 
strength of the base and our efforts support the QDR's emphasis on 
maintaining the defense industrial base with appropriate levels of 
competition, innovation, and capacity. The Future Years' Defense 
Program outlines construction of a balanced force of 50 ships, an 
average of 10 ships per year, which requires the full breadth of 
capabilities and services provided by our major shipbuilders and 
vendors.
    In the end, industry must perform. We will work with our shipyards, 
aircraft manufacturers, and weapon systems providers to benchmark 
performance, to identify where improvements are necessary, to provide 
the proper incentives for capital investments where warranted, and to 
reward strong performance with terms and conditions that reflect our 
desire for a strong government-industry partnership.
    To meet our objectives, we must be smart buyers. The acquisition 
workforce has been downsized over the past 15 years and in truth our 
professional acquisition corps has been stretched too thin. 
Accordingly, and with your strong support, we are rebuilding the 
acquisition workforce through a number of parallel efforts. We must 
both increase the number of acquisition workers and restore to the 
government the core competencies inherent to their profession. The 
Department has added 800 acquisition professionals in the last year 
towards the goal of increasing the community by 5,000 over the Future 
Years' Defense Program. This represents a 12 percent growth in our 
workforce.
                            unmanned systems
    The complex nature of today's security environment, as well as 
current and future anti-access threats faced by the United States 
require that the Navy and Marine Corps investigate the contributions 
unmanned systems can make to warfighting capability. Unmanned systems 
are unobtrusive, versatile, persistent, and they reduce the exposure of 
our Sailors and Marines to unnecessary threats. They perform a vast 
array of tasks such as intelligence collection, precision target 
designation, oceanographic reconnaissance, and mine detection, and that 
array will grow exponentially year to year.
    Navy and Marine Corps unmanned systems have already made key 
contributions to operations in Afghanistan, Iraq, and in the counter-
piracy effort off the coast of Africa. Unmanned aircraft systems have 
flown thousands of flight hours in support of Operation Iraqi Freedom 
and Operation Enduring Freedom. Unmanned ground vehicles employed by 
the Marine Corps have conducted thousands of missions detecting and/or 
neutralizing improvised explosive devices. And unmanned maritime 
systems have provided improved port security.
    We continue to support research and development activities to 
improve these capabilities and increase the level of autonomy in 
unmanned systems. Over the Future Years' Defense Program we will 
continue to focus on transitioning from research and development and 
limited deployments, through test and evaluation, to full fleet 
integration and operations. In order to best direct our research and 
harness the capabilities of unmanned systems, I am tasking the 
Department to develop a comprehensive roadmap for unmanned system 
development, to include a coordinated strategy for air, ground, 
surface, and subsurface systems focused on integration and 
interoperability with our existing platforms and capabilities.
    The initiatives and investments contained in the fiscal year 2011 
budget request will move us onto this path. I look forward to reporting 
continued progress throughout the year.
                                closing
    In this statement, I have discussed the strategic and tactical 
imperatives that guide the Department and influence the future 
decisions we will make. Specific programmatic requests are reflected in 
the fiscal year 2011 budget request, which I believe incorporates the 
difficult trade-offs and disciplined decisionmaking that you and the 
American taxpayer expect of us. We have carefully weighed risks and 
made proposals to you that will ensure we retain a ready and agile 
force capable of conducting the full range of military operations. And 
we will continue to work hard to be effective stewards of the resources 
you allocate to us.
    Forty years ago I stood watch on the deck of the U.S.S. Little Rock 
as a young junior officer. Today I have the solemn privilege of 
standing watch on behalf of our Navy and Marine Corps in a time of war 
and national challenge. I am honored by the trust the President and 
Congress have placed in me and I fully recognize the solemn obligation 
I have to those who defend us.
    That obligation fueled my desire to observe our people up close in 
their varied and often dangerous jobs. I've seen first hand the courage 
of our young Marines in Helmand, the determination of a wounded SEAL to 
walk despite losing two legs, the pride of a young Sailor in a hot 
engine room, the selfless dedication of corpsmen, nurses and doctors 
caring for the fallen.
    Sacrifice and service created and preserve the freedom and 
opportunity that we enjoy as Americans. Although we aspire to create a 
world in which violence and aggression have been eliminated, we 
understand that peace and stability are often secured only when strong 
nations and good people are willing and prepared to use decisive force 
against those who threaten it. The Navy and Marine Corps stand ready to 
do so.
    Your commitment to the service of our country and your recognition 
of the sacrifice of our Sailors, Marines, civilians and their families 
has been steadfast and is fully reflected in the support of this 
Committee for our key programs and our people.
    I, along with my partners, the Chief of Naval Operations, Admiral 
Roughead, and the Commandant of the Marine Corps, General Conway, look 
forward to hearing your thoughts and answering any questions you may 
have about our budget request or specific programs of interest. I also 
look forward to working closely with Congress as we move forward to 
sustain the Navy and Marine Corps as the most formidable expeditionary 
fighting force in the world.
    Thank you and Godspeed.

    Chairman Inouye. And now, may I call upon the Chief of 
Naval Operations, Admiral Roughead?
STATEMENT OF ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL 
            OPERATIONS
    Admiral Roughead. Chairman Inouye, Senator Cochran, and 
members of the subcommittee, it's my honor to appear before you 
again today, representing more than 600,000 sailors and Navy 
civilians and our families. Sixty-five thousand of them are 
deployed, 12,000 on land in the Central Command area of 
operations, and 55 percent of our fleet is underway, carrying 
out our maritime strategy, a prescient precursor to the 2010 
Quadrennial Defense Review. They are projecting power into 
Afghanistan, building partnerships in Africa, delivering relief 
in Haiti, and providing ballistic missile defense in the 
Arabian Gulf and the eastern Mediterranean, with pride and 
determination.
    They're even deployed in the first littoral combat ship, 2 
years ahead of schedule. And in the first weeks of that ship's 
deployment, they've already seized approximately 4 tons of 
cocaine with a street value of $89 million.
    It is our sailors and Navy civilians who make all things 
possible; and thanks to your support, we've made important 
progress in building tomorrow's Navy, remaining ready to fight 
today, and supporting our sailors, Navy civilians, and families 
this year. This year's budget submission will take us even 
further.
    As the high demand for our Navy continues apace, we have 
stabilized end strength, and the tone of the force remains 
positive. We will continue to aggressively improve wellness 
programs and medical and social services for our wounded 
warriors; indeed, all who serve.
    Our fleet, unlike other services, is a continuously 
deployed force that we reset in stride. Conducting routine, 
indeed regular, maintenance and training is how our ships and 
aircraft reach their expected service lives. We increased our 
base budget and overseas contingency operation, or OCO, funding 
requests for operation and maintenance in fiscal year 2011 over 
our levels of last year. Our operation and maintenance requests 
are focused tightly on meeting increased OPTEMPO requirements, 
sustaining ships and aircraft to reach expected service lives, 
sustaining flying-hour readiness requirements, and funding 
price increases. I strongly request your support for full 
funding of our operation and maintenance accounts.
    While we reset, we must also procure ships and aircraft to 
reach our requirement of more the 313 ships. Last year, we 
commissioned 9 ships, and over the next decade our plan 
procures an average of 10 ships per year; significant growth 
for the near term. For aviation, I remain committed to bringing 
new capabilities online--the Joint Strike Fighter and unmanned 
aircraft--and to maintaining the readiness of our current Naval 
Air Force, all of which give our Nation flexibility and 
response unencumbered by overseas basing.
    Affordability for all our plans will remain fundamental to 
our decisions. The effectiveness of our unmanned systems, 
ships, and aircraft is a feature of the systems which connect 
them. Last year, I brought information capabilities and 
resources under a single information dominance directorate 
within the Navy staff, and commissioned Fleet Cyber Command/
10th Fleet. I see the benefits of this already.
    I'm proud of our Navy's accomplishments last year, and I'm 
confident we can achieve even more with this year's budget 
submission. Our risk continues to trend toward significant, and 
achieving the right balance within and across my priorities 
remains critical to mitigating it. But, I remain optimistic 
because of our outstanding sailors and Navy civilians and the 
spirit of our Nation. We have seen more challenging times, and 
have emerged prosperous, secure, and free.

                           PREPARED STATEMENT

    I ask that you support our fiscal year 2011 budget request, 
and I thank you for all you do to make the United States Navy a 
global force for good, today and into the future.
    Thank you, sir.
    Chairman Inouye. I thank you very much, Admiral Roughead.
    [The statement follows:]
              Prepared Statement of Admiral Gary Roughead
    Chairman Inouye, Senator Cochran, and members of the Committee, it 
is my honor and pleasure to appear before you, once again, representing 
the more than 600,000 Sailors and civilians of the United States Navy. 
Every day, our dedicated Navy men and women are forward deployed 
protecting the global commons in every domain: sea, land, air, space, 
and cyberspace. I appreciate your continued support for them as our 
Navy protects our Nation and our national interests.
    When I signed our Maritime Strategy with General Conway and Admiral 
Allen more than 2 years ago, I was confident that the strategy would 
prepare us well for the current and future security environments. Since 
then, it has guided our operations and investments, and I am further 
convinced of its relevance to our operations today and of its enduring 
attributes. The 2010 Quadrennial Defense Review (QDR) validated the 
underlying principle articulated in the Maritime Strategy that 
preventing wars is as important as winning wars. The QDR also declared 
that U.S. security and prosperity are connected to that of the 
international system, that deterrence is a fundamental military 
function, and that partnerships are key to U.S. strategy and essential 
to the stability of global systems. These themes reinforce the tenets 
of our Maritime Strategy and the six core capabilities it identified 
for our maritime Services: forward presence, deterrence, sea control, 
power projection, maritime security, and humanitarian assistance and 
disaster response (HA/DR).
    My priorities for the Navy remain unchanged: to build tomorrow's 
Navy, to remain ready to fight today, and to develop and support our 
Sailors, Navy civilians, and their families. We are making progress in 
these areas thanks to your continued support. Some highlights follow.
    We added nine new ships to our Fleet in 2009, including U.S.S. 
Freedom (LCS 1), currently on its first deployment, and U.S.S. 
Independence (LCS 2), our second Littoral Combat Ship. We delivered 
three DDG 51 destroyers and restarted the DDG 51 line to increase 
surface combatant capacity for maritime security, deterrence, and anti-
submarine warfare. We are adapting our force to meet the President's 
demand for sea-based ballistic missile defense (BMD) of Europe while 
sustaining our current BMD missions in the Arabian Gulf and Western 
Pacific. Our Virginia class submarine program continues to excel with 
the delivery of U.S.S. New Mexico (SSN 779) 4 months ahead of schedule. 
We rolled out our first carrier variant of Joint Strike Fighter (F-35C) 
aircraft, the timely delivery of which remains essential to fulfilling 
our strike fighter requirements. We are conducting the first deployment 
of our Vertical Take Off and Landing Unmanned Aerial Vehicle (VTUAV) 
and we expect the first test flight of our Navy Unmanned Combat Aerial 
System demonstrator this year.
    In the information and cyberspace domain, I established Fleet Cyber 
Command/U.S. Tenth Fleet as the global operator of Navy's cyber, 
networks, cryptology/signals intelligence, information, electronic 
warfare, and space operations. I restructured the Navy staff to bring 
all Navy information capabilities and resources under our new 
Information Dominance Deputy Chief of Naval Operations and created the 
Navy Information Dominance Corps, integrating more than 45,000 Sailors 
and civilians from our existing intelligence, information professional, 
information warfare, meteorology/oceanography, and space communities. 
About 1,400 of these Sailors are deployed globally as individual 
augmentees (IAs) today, most supporting operations in the Central 
Command (CENTCOM) area of responsibility.
    More than 40 percent of our Fleet is underway daily, globally 
present and persistently engaged. Our forward presence enabled the 
rapid response of our aircraft carrier U.S.S. Carl Vinson and numerous 
other surface and USNS ships, helicopters, and personnel to Haiti to 
provide humanitarian aid after the devastating earthquake in January. 
We remain engaged in operations in Afghanistan and in the drawdown of 
U.S. forces in Iraq. Navy has more than 21,000 active and reserve 
Sailors on the ground and at sea in CENTCOM. This includes a doubling 
of our construction battalion (SEABEE) presence in Afghanistan and 
ongoing IA support to both operations. I recently issued our Navy 
Vision for Confronting Irregular Challenges to shape how our Navy will 
plan for, resource, and deliver a wide range of capabilities to 
confront irregular challenges associated with regional instability, 
insurgency, crime, and violent extremism at sea, in the littorals, and 
on shore.
    Our Navy continues to support our people and their families. We are 
in the process of expanding opportunities for service at sea to women 
in the Navy by opening to them assignments on submarines for the first 
time in history. Our Navy has received 19 national awards in the past 
18 months for its workforce planning, life-work integration, diversity, 
and training initiatives. Most notably, Workforce Management magazine 
awarded Navy the 2009 Optimas Award for General Excellence, which 
recognized the U.S. Navy as an employer of choice among the ranks of 
previous distinguished recipients such as Google, Intel, and Hewlett-
Packard. We have met or exceeded overall officer and enlisted (active 
and reserve) recruiting goals for 2009 and we are on track to achieve 
similar success in 2010. I appreciate the support of Congress for our 
Fleet and its dedicated Sailors, Navy civilians, and their families 
that serve our nation every day.
    I continue to focus on ensuring our Navy is properly balanced to 
answer the call now and in the decades to come. Last year, I stated our 
risk was moderate trending toward significant because of the challenges 
associated with Fleet capacity, increasing operational requirements, 
and growing manpower, maintenance, and infrastructure costs. This risk 
has increased over the last year as trends in each of these areas have 
continued. We are able to meet the most critical Combatant Commander 
demands today, but I am increasingly concerned about our ability to 
meet any additional demands while sustaining the health of the force, 
conducting essential maintenance and modernization to ensure units 
reach full service life, and procuring our future Navy so we are 
prepared to meet the challenges of tomorrow.
    The costs to own and operate our Fleet continue to rise due to 
increasing operational demands, higher maintenance requirements, and 
growing manpower costs. Over the last decade, the overall size of our 
active Fleet decreased by more than 30 ships, about 10 percent, and our 
active duty end strength decreased by about 13 percent, while 
operational demands globally have grown. Our Navy's high tempo of 
operations has placed additional stress on our smaller Fleet of 
Sailors, ships, and aircraft and we are consuming the service life of 
our Fleet at a higher than expected rate. We are implementing force 
management measures in the near term to stretch the capacity of our 
286-ship force to meet increasing global requirements. Through our 
Fleet Response Plan, we are tailoring our training and maintenance 
cycles to generate ready forces, allowing us to meet the most critical 
Combatant Commander requirements today. The impact of these measures on 
our Fleet has been felt in longer deployments and shorter dwell times, 
which increase stress on our Sailors and drive up maintenance 
requirements and costs for our ships and aircraft. Regular maintenance 
of our ships and aircraft, and training and certification of our crews 
between deployments, is essential to our ability to sustain our force. 
It is how we reset. This ``reset in stride'' is different from other 
Services. It ensures our ships and aircraft maintain the required 
continuous forward presence whether supporting coalition troops in 
Afghanistan, deterring North Korea and Iran, or providing humanitarian 
aid in Haiti. For our Navy, continuous reset translates into decades of 
service for each ship and aircraft, a significant return on investment.
    Our reset and readiness are tied directly to our operations and 
maintenance (O&M) funding. Over the last decade, we have relied upon a 
combination of base budget and overseas contingency operations (OCO) 
funding to operate and maintain our Navy. Our fiscal year 2011 OCO 
request for O&M is tightly focused on supporting our ongoing and 
increased operations in CENTCOM. Our fiscal year 2011 base budget 
request for O&M is focused on properly sustaining our ships and 
aircraft so they reach their expected service life; funding enduring 
readiness requirements, particularly in aviation; and funding price 
increases, most notably in fuel, to support our enduring operations. 
Together, our OCO and base budget O&M requests reflect our commitment 
to resource current operations while preserving our Fleet for future 
operations. I ask for your full support of this year's O&M request.
    Our fiscal year 2011 budget request achieves the optimal balance 
among my priorities to build tomorrow's Navy, to remain ready to fight 
today, and to develop and support our Sailors, Navy civilians, and 
their families. It supports our Maritime Strategy and the 2010 QDR and 
continues us on the path we started in fiscal year 2010 to support our 
forces forward, take care of our people, continue rebalancing our force 
to meet current and future challenges, and reform how and what we buy. 
Highlights follow.
                         build tomorrow's navy
    Since the release of our Maritime Strategy, I have stated that our 
Navy requires a minimum of 313 ships to meet operational requirements 
globally. This minimum, a product of our 2005 force structure analysis, 
remains valid. We are adjusting our requirement to address increased 
operational demands and expanding requirements, as outlined in the QDR, 
for ballistic missile defense, intra-theater lift, and forces capable 
of confronting irregular challenges. Our shipbuilding plan addresses 
these operational needs by growing our Fleet to 315 ships in 2020 and 
peaking at 320 ships in 2024. Per the President's direction, we will 
improve our capacity to conduct sea-based ballistic missile defense of 
Europe by increasing our inventory of Aegis-capable ships through our 
restarted DDG 51 production line and modernization of our existing 
cruisers and destroyers. The funding for these upgrades will deliver 
the capability and capacity of ships required to perform this mission 
while maintaining sustainable deployment ratios for our Sailors. To 
fulfill Combatant Commander requirements for intra-theater lift, we 
will increase the number of Joint High Speed Vessels (JHSV) in our 
Fleet; the large payload bays, speed, and shallow draft of these 
versatile ships make them capable of supporting a wide range of naval 
missions, including security cooperation, security force assistance, 
and logistics support. To provide forces capable of confronting 
irregular challenges, we will continue to pursue the planned number of 
Littoral Combat Ships, providing a flexible and modular ship optimized 
for operations close to shore. We are moving from developing a Maritime 
Prepositioning Force (Future) squadron optimized for high-end, forcible 
entry operations to augmenting our three existing Maritime 
Prepositioning Squadrons (MPS) with enhanced sea basing capabilities 
that are useful across a wide range of military operations. The 
augmented MPS will support our amphibious warfare force, which we will 
build to a minimum of 33 ships to increase our capacity to conduct 
theater security cooperation, sustain combat and assistance operations 
from the sea, and hedge against future conflict.
    We have improved the balance among capability, capacity, 
affordability, and executabilty in our procurement plans by developing 
a shipbuilding plan that procures our most needed capabilities, 
increases Fleet capacity in the near-to-mid-term, and is fiscally 
executable within the FYDP. It carefully manages increasing levels of 
operational and institutional risk, recognizing that, for as much as 
our Navy does to protect our national security and prosperity, the 
overall economy of our nation undoubtedly does more. I am confident our 
near-term plan provides the capability and capacity we need to conduct 
contingency operations and build partner capacity while retaining our 
ability to deter aggressors, assure allies, and defeat adversaries. 
Beyond 2024, I am concerned about the decrease in Fleet capacity that 
will occur as our legacy cruisers, destroyers, submarines, and 
amphibious ships reach the end of their service lives. Many of these 
ships were brought into service during the 1980s, when we procured some 
ship classes at a rate of four to five ships per year. While economic 
and security conditions are sure to change between now and then, it 
takes 10 to 15 years to design and build our ships, which then remain 
in service for 20 to 50 years. A long view is necessary to ensure our 
Navy has sufficient capacity to protect America's global national 
interests in the future.
    As directed by the QDR, we are working with the Air Force and 
Marine Corps on an Air Sea Battle concept that will identify the 
doctrine, procedures, training, organization, and equipment needed for 
our Navy to counter growing military threats to our freedom of action. 
This joint effort will help us inform investments and identify future 
opportunities to better integrate naval and air forces across the 
entire range of operations. We are already moving forward with the Air 
Force to streamline capabilities, manpower, and resources related to 
our unmanned aviation systems. We continue to pursue our unique 
maritime aviation capabilities in carrier-based strike, anti-submarine 
warfare, and naval special warfare missions.
    Underpinning the capacity and capability of our Fleet is a highly 
technical and specialized industrial base. A strategic national asset, 
our shipbuilding and aviation industrial base is essential to 
sustaining our global Fleet and remains a significant contributor to 
our nation's economic prosperity. Our shipbuilding industrial base 
directly supports more than 97,000 uniquely-skilled American jobs and 
indirectly supports thousands more through second and third tier 
suppliers. The highly specialized skills in our shipbuilding base take 
years to develop and, if lost, cannot be easily or quickly replaced. 
Level loading and predictable ship procurement allow industry to 
stabilize its workforce and retain the critical skills essential to our 
national security.
    I am committed to reducing the total ownership cost of our Fleet so 
that what we buy today does not pressurize our ability to operate 
tomorrow. Significant cost drivers for our Fleet include increasing 
technical and design complexity, changes in requirements, reductions in 
the number of ships procured, and higher labor costs. To reduce these 
costs, we are pursuing common hull forms and components, open 
architecture for hardware and software, and increased modularity. 
Moreover, we are considering total ownership costs in procurement 
decisions. We are exploring new ways to design our ships with greater 
affordability throughout their lives, including reducing costs of fuel 
consumption, maintenance, and manpower and by increasing the efficiency 
of our maintenance and support processes and organizations. We are 
leveraging open production lines to deliver proven and required 
capabilities, such as in our DDG 51 and EA-18G programs. We are 
promoting longer production runs with our Virginia class SSNs, EA-18G 
and F/A-18E/F, P-8A, BAMS, and DDG 51 programs. We are capitalizing on 
repeat builds to control requirements creep and increase predictability 
with our aircraft carrier, destroyer, and submarine programs. Finally, 
we are pursuing evolutionary instead of revolutionary designs to 
deliver required future capabilities. Our future missile defense 
capable ship, for example, will be developed by spiraling capability 
into our DDG 51 class ships, instead of designing and building a new 
cruiser from the keel up.
    I remain committed to delivering a balanced and capable Fleet that 
will meet our national security requirements. I seek your support for 
the following initiatives and programs:
                           aviation programs
Aircraft Carrier Force Structure
    The Navy remains firmly committed to maintaining a force of 11 
carriers for the next three decades. With the commissioning of U.S.S. 
George H.W. Bush (CVN 77) and inactivation of the 48-year-old U.S.S. 
Kitty Hawk (CV 63), our last conventionally powered aircraft carrier, 
we now have an all nuclear-powered carrier force. Our carriers enable 
our nation to respond rapidly, decisively, and globally to project 
power, as we have done in Iraq and Afghanistan, or to deliver 
humanitarian assistance, as we have done in Haiti, while operating from 
a small, yet persistent, footprint that does not impose unnecessary 
political or logistic burdens on other nations. Our carriers remain a 
great investment for our nation.
    Our eleven-carrier force structure is based on worldwide presence 
and surge requirements, while also taking into account training and 
maintenance needs. I thank Congress for granting us a waiver to 
temporarily reduce our force to ten carriers for the period between the 
inactivation of U.S.S. Enterprise (CVN 65) and the delivery of Gerald 
R. Ford (CVN 78). We will continue to meet operational commitments 
during this 33-month period by managing carefully carrier deployment 
and maintenance cycles. After the delivery of CVN 78, we will maintain 
an eleven-carrier force through the continued refueling program for 
Nimitz class ships and the delivery of our Ford class carriers at 5-
year intervals starting in 2020.
    CVN 78 is the lead ship of our first new class of aircraft carriers 
in nearly 40 years. Ford class carriers will be our nation's premier 
forward-deployed asset capable of responding to crises or delivering 
early decisive striking power in a major combat operation. These new 
carriers incorporate an innovative new flight deck design that provides 
greater operational flexibility, reduced manning requirements, and the 
ability to operate current and future naval aircraft from its deck. 
Among the new technologies being integrated in these ships is the 
Electromagnetic Aircraft Launch System (EMALS), which will enable the 
carrier's increased sortie generation rate and lower total ownership 
costs. EMALS is on track for an aircraft demonstration later this year 
and is on schedule to support delivery of CVN 78 in September 2015.
Strike Fighter Capacity: Joint Strike Fighter and F/A-18 E/F
    Our Navy remains committed to the Joint Strike Fighter (JSF) 
program. The timely delivery of the F-35C carrier variant remains 
critical to our future carrier airwing strike fighter capacity. Our 
Navy has the necessary tactical aircraft capacity in the near term to 
support our nation's strategic demands; however, a January 2010 
assessment forecasts a decrease in our carrier-based strike fighter 
capacity that peaks in 2018. We have a plan to address this capacity 
decrease that involves several management and investment measures.
    Our force management measures are targeted at preserving the 
service life of our existing legacy strike fighter aircraft (F/A-18A-
D). We will reduce the number of aircraft available in our squadrons 
during non-deployed phases to the minimum required. We will reduce our 
Unit Deployed squadrons (UDP) from twelve aircraft to ten aircraft per 
squadron to match the corresponding decrease in Marine Corps 
expeditionary squadrons. We are accelerating the transition of five 
legacy F/A-18C squadrons to F/A-18 E/F Super Hornets using available F/
A-18E/F aircraft and will transition two additional legacy squadrons 
using Super Hornet attrition reserve aircraft. These measures make our 
legacy strike fighter aircraft available for High Flight Hour (HFH) 
inspections and our Service Life Extension Program, which together will 
extend their service life and manage to some extent the decrease in our 
carrier-based strike fighter capacity through 2018. These measures 
expend the service life of our Super Hornets earlier than programmed, 
so we are refining our depot level production processes to maximize 
throughput and return legacy strike fighter aircraft to the Fleet 
expeditiously. Our fiscal year 2011 budget procures 22 additional F/A-
18E/F aircraft.
    Our investment measures are targeted at extending the service life 
of our F/A-18A-D aircraft and procuring Joint Strike Fighter (JSF). HFH 
inspections, which have been in place for 2 years, provide the ability 
to extend the service life of our legacy F/A-18A-D aircraft to 8,600 
flight hours, while engineering analysis is underway to determine the 
SLEP requirements necessary to reach the service life extension goal of 
10,000 flight hours. The HFH and SLEP programs increase our 
institutional risk by diverting investment and maintenance funds from 
other accounts, but they are necessary measures to address our strike 
fighter decrease while preserving our investment in JSF.
    I remain committed to the JSF program because of the advanced 
sensor, precision strike, firepower, and stealth capabilities JSF will 
bring to our Fleet. While the overall system demonstration and 
development schedule for JSF has slipped, we still plan for our 
squadrons to receive their first JSF airplanes in 2014 and we have not 
reduced the total number of airplanes we plan to buy. We are monitoring 
the JSF program closely and managing our existing strike fighter 
capacity to meet power projection demands until JSF is delivered. 
Procurement of an alternate engine for JSF increases our risk in this 
program. The Navy does not have a requirement for an alternate engine, 
and its additional costs threaten our ability to fund currently planned 
aircraft procurement quantities, which would exacerbate our anticipated 
decrease in strike fighter capacity. Our fiscal year 2011 budget 
request procures seven F-35C aircraft.
EA-18G Growler
    The proliferation of technology has allowed state and non-state 
actors to use the electromagnetic spectrum with increasing 
sophistication. Airborne Electronic Attack (AEA) provides one of the 
most flexible offensive capabilities available to the joint warfighter 
and it remains in high demand in traditional, irregular, and hybrid 
conflicts. The Navy continues to provide extensive AEA support from our 
carriers afloat and from our expeditionary EA-6B Prowler squadrons 
deployed currently to Iraq and Afghanistan.
    We are leveraging the mature and proven F/A-18E/F airframe 
production line to recapitalize our aging EA-6B aircraft with the EA-
18G Growler. As directed in the QDR, we are planning to procure an 
additional 26 EA-18G Growler aircraft across the FYDP to increase joint 
force capacity to conduct expeditionary electronic attack. Our program 
of record will buy 114 total EA-18G aircraft, recapitalizing 10 Fleet 
EA-6B squadrons and four expeditionary squadrons. The program continues 
to deliver as scheduled. In September, our first EA-18G transition 
squadron, based at NAS Whidbey Island, reached Initial Operational 
Capability and it will deploy as an expeditionary squadron later this 
year. Our fiscal year 2011 budget requests funding for 12 EA-18Gs.
P-3 Orion and P-8A Poseidon Multi-Mission Maritime Aircraft
    Your continued support of the P-3 and P-8A force remains essential 
and is appreciated greatly. Our P-3 Orion roadmap focuses on 
sustainment and selected modernization until it is replaced by the P-8A 
Poseidon. These aircraft provide capabilities ideally suited for 
regional and littoral crises and conflict, and are our pre-eminent 
airborne capability against submarine threats. Our P-3s are in high 
demand today for the time-critical intelligence, surveillance and 
reconnaissance they provide to the joint force on the ground in CENTCOM 
and for their direct contributions to our maritime domain awareness in 
key regions across the globe.
    P-3 Zone 5 wing fatigue has resulted in the unplanned grounding of 
49 aircraft between 2007 and 2009, with more expected. Mitigation 
measures include a combination of targeted Zone 5 modifications and 
outer wing replacements. As of December, we have returned 12 aircraft 
to service after completing Zone 5 modification and 32 aircraft are 
currently being repaired. As part of our sustainment program, we have 
included $39.6 million in our fiscal year 2011 budget request to 
conduct outer wing installations on nine of our P-3 aircraft. P-3 
sustainment and modernization programs are critical to ensuring 
successful transition to the P-8A, while preserving essential maritime 
and overland battle space awareness.
    The P-8A completed it's first Navy test flight this past October 
and will resume integrated flight testing in March of this year. The P-
8A will achieve initial operating capability and begin replacing our 
aging P-3 aircraft in 2013. Our fiscal year 2011 budget request 
procures seven P-8A aircraft.
MH-60R/S Multi-Mission Helicopter
    The MH-60R and MH-60S successfully completed their first deployment 
together this past summer with the U.S.S. John C. Stennis carrier 
strike group. The MH-60R multi-mission helicopter replaces the surface 
combatant-based SH-60B and carrier-based SH-60F with a newly 
manufactured airframe and enhanced mission systems. With these systems, 
the MH-60R provides focused surface warfare and anti-submarine warfare 
capabilities for our strike groups and individual ships. Our fiscal 
year 2011 budget request procures 24 MH-60R helicopters. The MH-60S 
supports surface warfare, combat logistics, vertical replenishment, 
search and rescue, air ambulance, airborne mine counter-measures, and 
naval special warfare mission areas. Our fiscal year 2011 budget 
request procures 18 MH-60S helicopters.
                         surface ship programs
Littoral Combat Ship (LCS)
    LCS is a fast, agile, networked surface combatant that is optimized 
to support naval and joint force operations in the littorals and 
capable of supporting open-ocean operations. It will operate with 
tailored-mission packages to counter quiet diesel submarines, mines, 
and fast surface craft. The modular and open architecture design of the 
seaframe and mission modules provides the inherent flexibility to adapt 
or add capabilities beyond the current Anti-Submarine, Mine 
Countermeasures, and Surface Warfare missions. These ships will employ 
a combination of manned helicopters and unmanned aerial, surface, and 
undersea vehicles.
    U.S.S. Freedom (LCS 1) has completed her post-delivery testing, 
trial, and shakedown periods and commenced her maiden deployment in 
February to Southern Command and Pacific Command. Her deployment 2 
years ahead of schedule will allow us to incorporate operational 
lessons more quickly and effectively as we integrate these ships into 
our Fleet. U.S.S. Independence (LCS 2) completed builder's trials in 
October 2009 and acceptance trials in November 2009. We accepted 
delivery of Independence on December 18, 2009, and commissioned her 
January 16, 2010. In March 2009, fixed price contracts were awarded for 
U.S.S. Fort Worth (LCS 3) and U.S.S. Coronado (LCS 4) which are now 
under construction by Lockheed Martin and General Dynamics 
respectively.
    I am impressed and satisfied with the capabilities of both LCS 
designs and am committed to procuring 55 of these ships. Affordability 
remains the key factor in acquiring LCS in the quantities we require. 
After careful review of the fiscal year 2010 industry proposals, 
consideration of total program costs, and ongoing discussions with 
Congress, we made the decision to cancel for affordability reasons the 
Phase II requests for proposals for three fiscal year 2010 LCS ships 
and adjust our acquisition strategy. In fiscal year 2010, we will 
conduct a competition among the existing LCS industry participants to 
down-select to a single LCS design. The winner of the down-select will 
be awarded a block buy contract for up to 10 ships, to be procured from 
fiscal year 2010 through fiscal year 2014 at a rate of two ships per 
year, built in one shipyard. To sustain competition and increase 
capacity, the winner of the down-select will be required to deliver a 
Technical Data Package to the Navy to support competition for a second 
contract source. We plan to award up to five ships to a second source 
beginning in fiscal year 2012 with one ship and continuing with an 
additional two ships per year through fiscal year 2014. The winner of 
the down-select will provide combat systems equipment, up to 15 ship 
sets, for the ships built by the two contract sources: 10 sets for the 
10 ships under contract with the winner of the down-select and up to 
five additional sets for the five ships being procured by the second 
contract source. The five additional sets will later be provided as 
government-furnished equipment to support the second source LCS 
contract. We intend to procure all future LCS ships within the fiscal 
year 2010 National Defense Authorization Act (NDAA) revised cost cap. 
Our down-select strategy leverages competition to the maximum extent 
practical, provides for economic procurement quantities, improves 
learning curve and commonality opportunities, and ultimately provides 
for program stability. We recently issued the requests for proposals 
for this contract and expect industry bids in March of this year.
    Consistent with our new strategy, our fiscal year 2011 budget 
requests two LCS seaframes and an additional $278 million to secure an 
LCS block buy, which is essential to lowering unit costs. I request 
your support as we acquire LCS in the most cost-effective manner and 
deliver its innovative capability in sufficient capacity to our Fleet.
Integrated Air and Missile Defense (IAMD)
    Integrated Air and Missile Defense (IAMD) incorporates all aspects 
of air defense against ballistic, anti-ship, and overland cruise 
missiles. IAMD is vital to the protection of our force, and it is an 
integral part of our core capability to deter aggression through 
conventional means. The demand for sea-based ballistic missile defense 
(BMD) is increasing significantly. The Navy's mature and successfully 
demonstrated maritime BMD capability will play a primary role in the 
first phase of our nation's plan to provide for the missile defense of 
Europe. Aegis BMD counters short, medium, and some intermediate range 
ballistic missiles through active defense and is able to pass target 
information to other BMD systems, thereby expanding the BMD battlespace 
and support of homeland defense. Currently, 20 ships (four cruisers and 
16 destroyers) have this capability and are being used to perform 
maritime BMD. All of the Arleigh Burke class destroyers and nine of the 
Ticonderoga class cruisers are planned to receive BMD capability 
through our modernization program.
DDG 51 Restart and Future Surface Combatant
    To address the rapid proliferation of ballistic and anti-ship 
missiles and deep-water submarine threats, as well as increase the 
capacity of our multipurpose surface ships, we restarted production of 
our DDG 51 Arleigh Burke class destroyers (Flight IIA series). These 
ships will be the first constructed with IAMD, providing much-needed 
Ballistic Missile Defense (BMD) capacity to the Fleet, and they will 
incorporate the hull, mechanical, and electrical alterations associated 
with our mature DDG modernization program. We will spiral DDG 51 
production to incorporate future integrated air and missile defense 
capabilities.
    We are well underway with restarting DDG 51 production. We awarded 
advance procurement (AP) contracts for DDG 113 and 114, and expect to 
award an AP contract for DDG 115 in the coming months, to support the 
long lead items necessary for production of these ships. I thank 
Congress for supporting our fiscal year 2010 budget, which funded 
construction of DDG 113. We anticipate a contract award for DDG 113 
production this Spring. Our fiscal year 2011 budget requests funding 
for the construction of DDG 114 and DDG 115 as part of our plan to 
build a total of eight DDG 51 ships through the FYDP.
    The Navy, in consultation with the Office of the Secretary of 
Defense, conducted a Radar/Hull Study for future surface combatants 
that analyzed the total ship system solution necessary to meet our IAMD 
requirements while balancing affordability and capacity in our surface 
Fleet. The study concluded that Navy should integrate the Air and 
Missile Defense Radar program S Band radar (AMDR-S), SPY-3 (X Band 
radar), and Aegis Advanced Capability Build (ACB) combat system into a 
DDG 51 hull. While our Radar/Hull Study indicated that both DDG 51 and 
DDG 1000 were able to support our preferred radar systems, leveraging 
the DDG 51 hull was the most affordable option. Accordingly, our fiscal 
year 2011 budget cancels the next generation cruiser program due to 
projected high cost and risk in technology and design of this ship. I 
request your support as we invest in spiraling the capabilities of our 
DDG 51 class from our Flight IIA Arleigh Burke ships to Flight III 
ships, which will be our future IAMD-capable surface combatant. We will 
procure the first Flight III ship in fiscal year 2016.
Modernization
    As threats evolve, we must modernize our existing ships with 
updated capabilities that sustain our combat effectiveness and enable 
our ships to reach their expected service life, which in the case of 
our destroyers and cruisers, is more than three decades. Our destroyer 
and cruiser modernization program includes advances in standard 
missiles, integrated air and missile defense, open architecture, and 
essential hull, mechanical and electrical (HM&E) upgrades. Maintaining 
the stability of the cruiser and destroyer modernization program is 
critical to achieving relevant future Navy capability and capacity.
    Our Navy plans to conduct DDG modernization in two 6-month 
availabilities. The first availability is focused on HM&E 
modifications, while the second availability, conducted 2 years later, 
is focused on combat systems modernization. The program will commence 
in fiscal year 2010 and focuses on the Flight I and II DDG 51 ships 
(hulls 51-78). All ships of the class will be modernized at midlife. 
Key tenets of the DDG modernization program include: an upgrade of the 
Aegis Weapons System to include an Open Architecture (OA) computing 
environment, an upgrade of the SPY radar signal processor, the addition 
of Ballistic Missile Defense capability, installation of the Evolved 
Sea Sparrow Missile (ESSM), an upgraded SQQ-89A(V)15 anti-submarine 
warfare system, integration with the SM-6 Missile, and improved air 
dominance with processing upgrades and Naval Integrated Fire Control-
Counter Air capability.
    The Cruiser Modernization Program will modernize all remaining 
cruisers (Baseline 2, 3, and 4). The first fully modernized cruiser, 
U.S.S. Bunker Hill (CG 52), was completed in June 2009. The key aspects 
of the CG modernization program include: an upgrade to the Aegis 
weapons system to include an OA computing environment, installation of 
an SPQ-9B radar, addition of the Evolved Sea Sparrow Missile (ESSM), an 
upgrade to Close In Weapon System (CIWS) Block 1B, an upgraded SQQ-
89A(V)15 anti-submarine warfare system, and improved air dominance with 
processing upgrades and Naval Integrated Fire Control-Counter Air 
capability. Six Baseline 4 cruisers will receive the Ballistic Missile 
Defense upgrade.
    Our fiscal year 2011 budget requests funding for the modernization 
of three cruisers and three destroyers.
DDG 1000
    The DDG 1000 Zumwalt guided missile destroyer will be an optimally 
crewed, multi-mission surface combatant designed to fulfill long-range 
precision land attack requirements. In addition to providing offensive, 
distributed and precision fires in support of forces ashore, these 
ships will serve as test-beds for advanced technology, such as 
integrated power systems, dual band radars, and advanced survivability 
features, which can be incorporated into our other ship classes. The 
first DDG 1000 is under construction and approximately 20 percent 
complete. We recently notified Congress of a Nunn-McCurdy breach in 
this program as a result of our decision to reduce the number of DDG 
1000s in the original program. DDG 1000 will be a three-ship class. It 
is scheduled to deliver in fiscal year 2013 with an initial operating 
capability in fiscal year 2015.
Joint High Speed Vessel (JHSV)
    Intra-theater lift is key to enabling the United States to rapidly 
project, maneuver, and sustain military forces in distant, overseas 
operations. The Joint High Speed Vessel (JHSV) program is an Army and 
Navy joint program that will deliver a high-speed, shallow draft 
surface ship capable of rapid transport of medium payloads of cargo and 
personnel within a theater to austere ports without reliance on port 
infrastructure for load/offload. In addition, the Navy JHSV will be 
capable of supporting extensive Security Force Assistance and Theater 
Security Cooperation operations, including the hosting of small craft 
for training. A JHSV Production Readiness Review was completed in 
October 2009 and the first vessel construction began this past December 
with an anticipated delivery to the Army in fiscal year 2012. The 
second ship, a Navy vessel, is scheduled to be delivered in 2013. Our 
fiscal year 2011 budget includes funds for the construction of Navy's 
third JHSV. Navy continues oversight of JHSV procurement for the five 
Army-funded vessels in this program. The Army assumes full 
responsibility for these five vessels following acquisition.
                           submarine programs
Virginia Class SSN
    The Virginia class submarine is a multi-mission submarine that 
dominates in the littorals and open oceans. Now in its 13th year of 
construction, the Virginia program is demonstrating that this critical 
undersea capability can be delivered affordably and on time. Thanks to 
Congress, these ships will begin construction at a rate of two a year 
in 2011, with two ship deliveries per year beginning in 2017. The Navy 
continues to realize a return from investments in the Virginia cost 
reduction program and construction process improvements through 
enhanced shipbuilder performance on each successive ship. These 
submarines are under budget and ahead of schedule, and their 
performance continues to exceed expectations with every ship delivered. 
Three of the five commissioned ships completed initial deployments 
prior to their Post Shakedown Availabilities, a first for the Navy. I 
am pleased with the accomplishments of the combined Navy-Industry team 
and look forward to even greater success as we ramp up production to 
two submarines next year.
SSGN
    Our Navy has four guided missile submarines that provide high-
volume strike and irregular warfare capabilities in support of 
operations and missions across the broad spectrum of conflict. SSGNs 
are performing well on deployment, and we are learning valuable lessons 
from each mission. Combatant Commanders value the long-range strike 
capability they provide and we are investigating options to sustain 
this capability in the most operationally and cost effective manner, to 
include options for expanding the long-range strike capacity of the 
submarine fleet.
SSBN and OHIO Replacement
    Our Navy supports the nation's nuclear deterrence capability with a 
credible and survivable fleet of 14 Ohio class ballistic missile 
submarines (SSBN). Originally designed for a 30-year service life, this 
class will start retiring in 2027 after more than 42 years of service.
    The United States needs a reliable and survivable sea-based 
strategic deterrent for the foreseeable future. To ensure there is no 
gap in this critical capability, our fiscal year 2011 budget requests 
research and development funds for the Ohio Replacement to support the 
start of construction of the first ship in fiscal year 2019. The Ohio 
Replacement will be a strategic, national asset with the endurance and 
stealth to enable our Navy to provide continuous, survivable strategic 
deterrence into the 2080s. Appropriate R&D investment is essential to 
design a reliable, survivable, and adaptable submarine capable of 
deterring all potential adversaries. We completed our Analysis of 
Alternatives study in 2009, and Milestone A is planned for April 2010. 
The Ohio replacement program will leverage the many successes of the 
Virginia SSN program to achieve acquisition and total ownership cost 
goals. The United States will realize significant program benefits as a 
result of our close partnership with the United Kingdom's Vanguard SSBN 
replacement program, particularly in the design and construction of a 
common missile compartment. Our cooperation with the U.K. mitigates 
technical risk and shares design costs.
                        amphibious warfare ships
    Our amphibious warfare ships provide essential capabilities for the 
full range of military operations, including theater security 
cooperation, humanitarian assistance, conventional deterrence, and 
forcible entry as part of major combat operations. With the unique 
capability to move hundreds of personnel and substantial material 
through complementary surface and air capabilities, these ships are key 
to our ability to overcome geographic, political, and infrastructure 
impediments to access. The Commandant of the Marine Corps and I have 
determined that a minimum of 33 amphibious assault ships represents the 
limit of acceptable risk in meeting the 38-ship requirement for 
supporting a forcible entry operation conducted by an assault echelon 
of two Marine Expeditionary Brigades (MEB). Our 33-ship force would be 
comprised of 11 LHA/D amphibious assault ships and a mix of 11 LPD 17 
amphibious transport dock ships and 11 LSD dock landing ships. At this 
capacity, we are accepting risk in the speed of arrival of the combat 
support elements of the MEB. The QDR and our 30-Year Shipbuilding Plan 
account for 29-31 amphibious warfare ships within the FYDP. We plan to 
procure the 11th LPD 17 in 2012, which will allow us to realize a 33-
ship minimum amphibious force in about fiscal year 2016. We continue to 
review options to achieve and sustain the minimum 33 amphibious ship 
assault echelon force.
LPD 17 Class Amphibious Warfare Ship
    The LPD 17 class amphibious warfare ships represent the Navy and 
Marine Corps commitment to an expeditionary Fleet capable of power 
projection, security force assistance, and theater security cooperation 
in diverse operating environments. These ships have a 40-year expected 
service life and will replace four classes of older ships: the LKA, 
LST, LSD 36, and the LPD 4. Two LPD 17 class ships have completed their 
initial deployments, and U.S.S. New York (LPD 21), forged with steel 
from the World Trade Center, delivered in November 2009. We continue to 
apply the lessons learned during construction and initial operation of 
the early ships to those under construction. Quality is improving with 
each ship delivered as we continue to work closely with the shipbuilder 
to address cost, schedule, and performance concerns.
LHA Replacement (LHA(R))
    LHA(R) is the replacement for our aging Tarawa class ships, which 
will reach the end of their already extended service life between 2011-
2015. LHA(R) will provide us flexible, multi-mission amphibious 
capabilities by leveraging the LHD 8 design and increasing aviation 
capacity to better accommodate the Joint Strike Fighter, MV-22, and 
other aircraft that comprise the future Marine Corps Air Combat 
Element. We laid the keel of the lead ship, U.S.S. America (LHA 6), in 
April 2009 and our fiscal year 2011 budget includes one LHA(R) which is 
split-funded in fiscal year 2011 and fiscal year 2012.
Mobile Landing Platform (MLP) and Future Maritime Preposition Force 
        (MPF(F))
    The MPF(F) program was envisioned as a forward-deployed squadron of 
ships capable of at-sea assembly and rapid employment of forces in an 
area of interest during a crisis. Our requirement for amphibious and 
joint forcible entry operations was reevaluated during the QDR and, as 
a result, we have adjusted our approach to augment our three existing 
Maritime Prepositioning Squadrons (MPS) instead of developing an MPF(F) 
squadron. MPF(F) was optimized for high-end, forcible entry operations, 
while the augmented MPS will provide enhanced sea basing capabilities 
across a wide range of contingency operations. Each existing MPS will 
be augmented by one Large Medium-Speed Roll-on/Roll-off (LMSR) cargo 
ship (transferred from the Army), a T-AKE combat logistics ship, and a 
new Mobile Landing Platform (MLP). The MLP will be based on existing 
designs for commercial ocean-going tankers and will meet most of the 
mission requirements envisioned for the original MLP design. The three 
augmented MPS reflect the QDR's emphasis on day-to-day deterrence and 
partner capacity building, while continuing to meet forcible entry 
needs. Our fiscal year 2011 budget request procures one MLP.
                     information dominance programs
Unmanned Aircraft Systems (UAS)
    We are investing in unmanned aircraft to meet an increasing 
warfighter demand for Intelligence, Surveillance and Reconnaissance 
(ISR), and we are making technology investments to expand UAS 
operations to other mission areas. The Broad Area Maritime Surveillance 
(BAMS) UAS will enhance our situational awareness and shorten the 
sensor-to-shooter kill chain by providing persistent, multiple-sensor 
capabilities to Fleet and Joint Commanders. The Vertical Take-off and 
Landing Tactical Unmanned Air Vehicle (VTUAV) Fire Scout is on its 
first deployment aboard the U.S.S. McInerney (FFG 8). We are developing 
a medium endurance maritime-based UAS and a Small Tactical Unmanned 
Aerial System (STUAS) that will support a variety of ships, Naval 
Special Warfare and Navy Expeditionary Combat Command units, and Marine 
Corps elements.
    The Navy Unmanned Combat Aircraft System demonstration (UCAS-D) is 
designed to prove carrier suitability of an autonomous, unmanned, low 
observable, carrier-based aircraft. This effort includes maturing 
technologies for aircraft carrier catapult launches and arrested 
landings, as well integration into carrier-controlled airspace. Initial 
flight tests to demonstrate carrier suitability are scheduled to start 
later this year and autonomous aerial refueling demonstrations are 
planned for 2013. We will leverage the lessons learned from operating 
the demonstrator in developing a low-observable unmanned carrier-
launched airborne strike and surveillance system.
Mobile User Objective System (MUOS)
    Our Maritime Strategy demands a flexible, interoperable, and secure 
global communications capability that can support the command and 
control requirements of highly mobile and distributed U.S. and 
coalition forces. Satellite communications give deployed forces a 
decisive military advantage and often offer the only communication 
means to support on-going operations. Rapidly expanding joint demand 
for more access at ever-higher data rates requires moving beyond our 
current legacy Ultra High Frequency (UHF) satellite capabilities. The 
Mobile User Objective System (MUOS) will satisfy those demands when 
initial operational capability is reached in fiscal year 2012. I 
request your continued support of MUOS and the critical UHF satellite 
communication capability it will provide to the joint warfighter as the 
aging UHF Follow-On (UFO) constellation degrades.
Next Generation Enterprise Network (NGEN)
    The Navy is continuing its transition from disparate independent 
computer networks to a single secure network environment. We are 
currently evolving our ashore network from the Navy Marine Corps 
Intranet (NMCI), the largest intranet in the world, to the Next 
Generation Enterprise Network (NGEN). NGEN Increment 1 is the follow-on 
to the existing NMCI contract, which expires at the end of fiscal year 
2010. NGEN will sustain the services currently provided by NMCI, while 
increasing government command and control of our network and enabling 
secure, reliable, and adaptable global information exchange. Future 
NGEN increments will expand on services currently provided by NMCI and 
support seamless transition between afloat and ashore environments. A 
continuity of services contract is expected to be awarded this spring 
and NGEN Initial Operating Capability is scheduled for the summer of 
2012.
E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye aircraft, which replaces the E-2C, will 
improve nearly every facet of tactical air operations and add overland 
and littoral surveillance to support theater Integrated Air and Missile 
Defense against air threats in high clutter, complex electro-magnetic 
and jamming environments. The airborne radar on the E-2D, with its 
improved surveillance capability, is a key pillar of the Navy 
Integrated Fire Control concept. The E-2D is scheduled to begin 
operational test and evaluation in 2012. The first Fleet squadron 
transition is planned for 2013, with deployment planned for October 
2014. Our fiscal year 2011 budget requests four E-2D Hawkeye aircraft.
                      remain ready to fight today
    Our Navy continues to operate at a high tempo. We are filling new 
Combatant Commander requirements for ballistic missile defense, 
electronic attack, intelligence, surveillance, and reconnaissance 
(ISR), combat support, combat service support, and maritime security 
force assistance, in addition to conducting ongoing deployments in 
support of our maritime and national strategies.
    In CENTCOM alone, we have more than 9,000 Sailors at sea, including 
a U.S. Navy aircraft carrier and air wing dedicated to providing 24/7 
air support to U.S. and coalition forces on the ground. Navy Riverine 
forces are on their sixth deployment to Iraq, conducting interdiction 
patrols and training their Iraqi counterparts. Our surface ships in the 
region are providing ballistic missile defense and conducting counter-
terrorism, counter-piracy, maritime security, theater security 
cooperation, and security force assistance operations. On the ground in 
CENTCOM, we have more than 12,000 active and reserve Sailors supporting 
Navy, joint force, and coalition operations. Navy Commanders lead seven 
of the 13 U.S.-led Provincial Reconstruction Teams in Afghanistan. We 
have doubled our construction battalions (SEABEEs) in Afghanistan, 
increasing our capacity to build forward bases for U.S. forces and 
improve critical infrastructure in that country. Our Naval Special 
Warfare Teams continue to be engaged heavily in direct combat 
operations and our Explosive Ordnance Disposal teams continue to 
conduct life-saving counter-Improvised Explosive Device operations on a 
daily basis. As we shift our effort from Iraq to Afghanistan, demand 
for Navy individual augmentees (IAs) has grown. We are providing IAs to 
support the increase of U.S. forces in Afghanistan while our IAs in 
Iraq remain at current levels to support the withdrawal of U.S. combat 
troops, maintain detention facilities and critical infrastructure, and 
assist coalition efforts until they can be turned over to Iraqi forces. 
During my recent trip to CENTCOM, I met with many of our dedicated Navy 
men and women supporting these efforts and I could not be more proud of 
their contributions. Their expert skill, ingenuity, competence, and 
drive are impressive and unmatched.
    Our high tempo will likely continue as combat forces draw down in 
Iraq and Afghanistan. Navy enabling forces will remain in CENTCOM to 
provide protection, ISR, and logistics support to our troops and 
partner forces in the region, while we will continue to maintain a 
forward-deployed presence of about 100 ships around the world to 
prevent conflict, increase interoperability with our allies, enhance 
the maritime security and capacity of our traditional and emerging 
partners, and respond to crises. Global demand for Navy forces remains 
high and continues to rise because of the unequalled and unique ability 
of our naval forces to overcome diplomatic, geographic, and military 
impediments to access while bringing the persistence, flexibility, and 
agility to conduct operations from the sea.
    Reset in stride is how our Navy prepares our Fleet to deploy again. 
Lifecycle maintenance and training between deployments is essential to 
our reset and to the ability of our ships and aircraft to reach their 
expected service lives. Although we are on pace to grow our Fleet for 
the next 10 years, our Fleet reduced in size over the past decade. As a 
result, while we continue to maintain the same number of ships at sea 
assigned to Combatant Commanders, we have a historically low number of 
ships available for at-sea training, exercises, and surge operations. 
Our fiscal year 2011 budget request balances the need to meet 
increasing operational requirements, sustain our Sailors' proficiency, 
and conduct the maintenance required to ensure our ships and aircraft 
reach their full service lives. Highlights follow of initiatives that 
ensure our Navy remains ready to fight today.
Depot Level Maintenance
    Our ships and aircraft are capital assets that operate in 
challenging physical and security environments. Keeping these assets in 
acceptable operating condition is vital to their ability to accomplish 
assigned missions and to reach their expected service lives. Timely 
depot level maintenance, performed in a cycle determined by an 
engineered assessment of expected material durability and scoped by 
actual physical condition, will preserve our existing force structure 
and ensure it can meet assigned tasking. Continued investment in depot 
level maintenance is essential to our efforts to achieve and sustain 
the force structure required to implement the Maritime Strategy.
    Last year, I established the Surface Ship Life Cycle Management 
(SSLCM) Activity to address deficiencies in our ship class maintenance 
plans that could prevent our ships from reaching their full service 
life. SSLCM has established an engineered approach to surface ship 
maintenance that optimizes existing maintenance availability work 
packages and better tracks ship material condition through robust 
inspections and corrosion control tasks. We accelerated our review of 
the requirements for certain ship classes, significantly improving the 
accuracy of our surface ship maintenance requirements in fiscal year 
2011 over prior years. We are committed to a full review of all surface 
ship class maintenance plans, which will take several years. The value 
of investing in an engineered approach to maintenance is evident in our 
submarine force, where we have successfully extended the time between 
scheduled availabilities based on demonstrated material conditions and 
verification of engineering analysis. Because we have invested in this 
engineering and planning effort, we have been able to safely recover 
additional operational availability and reduce the overall depot level 
maintenance requirement for our submarines. This significant step has 
provided some of the resources needed to make additional investments in 
surface ship maintenance.
    Our combined fiscal year 2011 budget funds 99 percent of the 
projected depot ship maintenance requirements necessary to sustain our 
Navy's global presence. Our budget funds aviation depot maintenance to 
provide 100 percent of the airframes for deployed squadrons and 96 
percent of the non-deployed airframes. I request that you fully support 
our baseline and contingency funding requests for operations and 
maintenance to ensure the effectiveness of our force, safety of our 
Sailors, and longevity of our ships and aircraft.
Shore Readiness
    Our shore infrastructure is a fundamental enabler of our 
operational and combat readiness and is essential to the quality of 
life and quality of work for our Sailors, Navy civilians, and their 
families. As I described last year, rising manpower costs and growing 
operational demands on our aging Fleet have led our Navy to take risk 
in shore readiness. This risk increases our maintenance, sustainment, 
restoration, and modernization requirements and continues our reliance 
on old and less efficient energy systems. These factors increase the 
cost of ownership of our shore infrastructure and outpace our efforts 
to reduce costs through facilities improvements and energy upgrades. At 
our current investment levels, our future shore readiness, particularly 
the recapitalization of our facilities infrastructure, is at risk.
    To manage our risk in shore infrastructure, our fiscal year 2011 
budget request prioritizes funding for our most critical needs, 
including Navy and Joint mission readiness, nuclear weapons security 
and safety, and improving our bachelor quarters through sustained 
funding for our Homeport Ashore initiative. To guide investment in 
other areas ashore, we continue to pursue our capabilities-based Shore 
Investment Strategy, which targets our investment in shore 
infrastructure to where it will produce the highest return on 
investment and have the greatest impact on achieving our strategic and 
operational objectives, such as in areas that enable critical 
warfighting capabilities, improve quality of life, and fulfill Joint 
requirements.
    We have made essential progress and improvements in nuclear weapons 
security, child care facilities, and bachelor's quarters. Thank you for 
funding all our requested military construction projects in 2010, as 
well as 19 additional projects and our Reserve program. Your support 
allowed us to address ship, aircraft, systems, infrastructure, and 
training requirements, while enhancing the quality of life and quality 
of service for our Sailors and their families. Your similar support and 
assistance through the American Recovery and Reinvestment Act of 2009 
was also very helpful. As you requested, we identified Military 
Construction projects for Child Development Centers and barracks and 
prioritized them according to operational need and the ability to 
obligate funds quickly. We selected infrastructure and energy projects 
based on mission requirements, quality of life impact, environmental 
planning status, and our ability to execute quickly. Our aggressive 
execution schedule is on track; we have awarded all but one of our 85 
initial projects and construction outlays are ramping up swiftly.
Training Readiness
    Our Fleet Synthetic Training (FST) program provides realistic 
operational training with seamless integration of geographically 
dispersed Navy, Joint, Interagency and Coalition forces. Using virtual 
and constructive training environments has allowed us to reduce our 
energy consumption and greenhouse gas emissions while providing the 
level of sophistication necessary to prepare our Sailors for 
operational and tactical mission proficiency. We continue to evolve FST 
to provide our Sailors with exposure to a multitude of warfare areas. 
Last year, we conducted our first BMD Fleet Synthetic Training event, 
proving the viability and effectiveness of integrated Navy, Joint and 
partner-nation BMD training.
    The proliferation of advanced, stealthy, nuclear and non-nuclear 
submarines continues to challenge our Navy's ability to guarantee the 
access and safety of joint forces. Effective Anti-Submarine Warfare 
(ASW) training with active sonar systems is vital to meeting potential 
threats. The Navy remains a world leader in marine mammal research and 
we will continue our robust investment in this research in fiscal year 
2011 and beyond. Through such efforts, and in full consultation and 
cooperation with other Federal agencies, Navy has developed effective 
measures that protect marine mammals and the ocean environment from 
adverse impacts of mid-frequency active (MFA) sonar while not impeding 
vital Navy training. We continue to work closely with our interagency 
partners to further refine our protective measures as scientific 
knowledge evolves. It is vitally important that any such measures 
ensure the continued flexibility necessary to respond to future, 
potentially unforeseen national security requirements.
    Over the last year, we completed environmental planning for seven 
existing and proposed at-sea training and combat certification areas. 
We expect to complete planning for another six areas by the end of 2010 
as we continue to balance our responsibility to prepare naval forces 
for deployment and combat operations with our responsibility to be good 
stewards of the marine environment.
    Conducting night and day field carrier landing practice (FCLP) 
prior to at-sea carrier qualifications is a critical training 
requirement for our fixed-wing carrier-based pilots, who must develop 
and maintain proficiency in the fundamentals necessary to conduct safe 
carrier-based flight operations. We continue to seek additional 
airfield capacity in the form of an outlying landing field (OLF) that 
will enhance our ability to support FCLP training for fixed-wing, 
carrier pilots operating from Naval Air Station Oceana and Naval 
Station Norfolk. The additional OLF will allow Navy to meet training 
requirements and overcome challenges related to capacity limits, urban 
encroachment, and impacts from adverse weather conditions at existing 
East Coast facilities. In August 2009, the Navy announced that the 
release of the draft environmental impact statement (EIS) for 
construction and operation of an OLF would be delayed. This delay was 
necessary to ensure Joint Strike Fighter noise analysis is included in 
the OLF draft EIS. The Navy is committed to developing, with local, 
state, and Federal leaders, a plan to ensure the OLF provides positive 
benefits to local communities while addressing Navy training 
shortfalls.
Energy and Climate
    Energy reform is a strategic imperative. The Secretary of the Navy 
and I are committed to changing the way we do business to realize an 
energy-secure future. In alignment with the Secretary of the Navy's 
five goals, our priorities are to advance energy security by improving 
combat capability, assuring mobility, ``lightening the load'', and 
greening our footprint. We will achieve these goals through energy 
efficiency improvements, consumption reduction initiatives, and 
adoption of alternative energy and fuels. Reducing our reliance on 
fossil fuels will improve our combat capability by increasing time on 
station, reducing time spent alongside replenishment ships, and 
producing more effective and powerful future weapons. Most of our 
projects remain in the demonstration phase; however, we are making good 
progress in the form of hybrid-electric drive, delivered last year on 
the U.S.S. Makin Island (LHD 8), bio-fuel engines, advanced hull and 
propeller coatings, solid state lighting, and policies that encourage 
Sailors to reduce their consumption through simple changes in behavior.
    Thanks to your support, the American Reinvestment and Recovery Act 
(ARRA) funded Navy energy conservation and renewable energy investment 
in 11 tactical and 42 shore-based projects totaling $455 million. 
Tactical projects included alternative fuel, drive, and power systems, 
while ashore projects included alternative energy (wind, solar and 
geothermal) investments in ten states and the installation of advance 
metering infrastructure in three regions. Our fiscal year 2011 budget 
continues to invest in tactical and ashore energy initiatives, 
requesting $128 million for these efforts.
    In our Maritime Strategy we addressed maritime operations in an era 
of climate change, especially in the ice diminished Arctic. In May 
2009, I established the Navy's Task Force on Climate Change (TFCC) to 
develop policy, investment, and force-structure recommendations 
regarding climate change in the Arctic and globally over the long-term. 
Our focus will be to ensure Navy readiness and capability in a changing 
global environment.
Second East Coast Carrier-capable Port
    Hampton Roads is the only nuclear carrier capable port on the East 
Coast. A catastrophic event in the Hampton Roads Area affecting port 
facilities, shipping channels, supporting maintenance or training 
infrastructure, or the surrounding community has the potential to 
severely limit East Coast Carrier operations, even if the ships 
themselves are not affected. Consistent with today's dispersal of West 
Coast aircraft carriers between California and Washington State, the 
QDR direction to make Naval Station Mayport a nuclear carrier-capable 
homeport addresses the Navy's requirement for a capable facility to 
maintain aircraft carriers in the event that a natural or manmade 
disaster makes the Hampton Roads area inaccessible. While there is an 
upfront cost to upgrade Naval Station Mayport to support our nuclear 
aircraft carriers, Mayport has been a carrier homeport since 1952 and 
is the most cost-effective means to achieve strategic dispersal on the 
East Coast. The national security benefits of this additional homeport 
far outweigh those costs.
United Nations Convention on the Law of the Sea
    The Law of the Sea Convention codifies navigation and overflight 
rights and high seas freedoms that are essential for the global 
mobility of our armed forces. It directly supports our national 
security interests. Not being a party to this Convention constrains 
efforts to develop enduring maritime partnerships, inhibits efforts to 
expand the Proliferation Security Initiative, and elevates the level of 
risk for our Sailors as they undertake operations to preserve 
navigation rights and freedoms, particularly in areas such as the 
Strait of Hormuz and Arabian Gulf, and the East and South China Seas. 
By becoming a party to the Convention, the United States will be able 
to expand its sovereign rights to the increasingly accessible outer 
continental shelf areas of the resource rich environment of the Arctic, 
as well as in other locations where technological advances are opening 
up previously unobtainable resources. Accession to the Law of the Sea 
Convention remains a priority for our Navy.
   develop and support our sailors, navy civilians and their families
    Our Sailors, Navy civilians, and their families underpin our 
Maritime Strategy and are the foundation of our nation's global force 
for good. We have great ships, aircraft, weapons, and systems, but it 
is our skilled and innovative Sailors who turn these ships, aircraft, 
and technologies into capabilities that can prevent conflict and win 
wars. In January 2010, we released the Navy Total Force Vision for the 
21st century to guide our efforts to attract, recruit, develop, assign, 
and retain a highly-skilled workforce and reaffirm our commitment to 
supporting our uniformed and civilian people wherever they serve and 
live.
    We have transitioned from reducing end strength to stabilizing our 
force through a series of performance-based measures. Our stabilization 
efforts remain focused on maintaining a balanced force in terms of 
seniority, experience, and skills while supporting growth in high-
demand areas such as cyber and special operations. We recognize the 
importance of retaining the talent and experience of our Sailors after 
they complete their active duty obligation so we are actively removing 
barriers associated with the transition between active and reserve 
careers to allow for a continuum of service over a lifetime. Our fiscal 
year 2011 budget requests authorization and funding for 328,700 active 
end strength and 65,500 reserve end strength. We continue to request 
OCO funding for our individual augmentees that are performing non-core 
Navy missions in support of contingency operations in Iraq and 
Afghanistan. OCO funding remains critical to our ability to meet these 
missions without adversely impacting Fleet readiness or Sailor dwell 
time.
    We continue to provide support to our Sailors and their families, 
including those who are wounded, ill and injured, through expanded 
Fleet and Family Support services, Navy Safe Harbor, and our 
Operational Stress Control program. We are addressing aggressively the 
recent rise in suicide rates by implementing new training and outreach 
programs for Fleet commanders, Sailors, and Navy families to increase 
suicide awareness and prevention. We are focused on reducing sexual 
assaults in our Navy through our new Sexual Assault Prevention and 
Response Office and initiatives that emphasize our intolerance for 
sexual assault and related behavior in our Navy. We remain committed to 
helping our Sailors balance work and family commitments through 
initiatives such as 12-month operational deferments for new mothers 
(the most comprehensive policy of all military services), 21 days of 
administrative leave for adoptive parents, 10 days of paternity leave, 
a Career Intermission pilot program, and flexible work options. I 
continue to emphasize diversity outreach and mentorship to ensure we 
attract, leverage, and retain the diverse talent of our nation. 
Diversity among U.S. Naval Academy and Navy Reserve Officer Training 
Corps (NROTC) applicants and graduates continues to grow each year. 
Through our Naval War College and Naval Postgraduate School, we are 
providing Joint Professional Military Education and world-class higher 
education and training to our Sailors. We continue to build our Foreign 
Area Officer program to strengthen existing and emerging international 
partnerships.
    Our fiscal year 2011 budget request represents a balanced approach 
to supporting our Sailors and their families, sustaining the high tempo 
of current operations, and preserving Fleet and family readiness. I 
request the continued support of Congress for our fiscal year 2011 
manpower and personnel initiatives.
Recruiting and Retention
    Our Navy has attracted, recruited and retained a highly-skilled 
workforce over the past several years, and we expect this success to 
continue into fiscal year 2011. Fiscal year 2009 marked the second 
consecutive year Navy achieved its aggregate officer and enlisted 
recruiting goals in both the active and reserve components. At the 
forefront of this effort is our highly trained and professional 
recruiting force, which has postured us to respond to changing trends. 
We continue to attract the highest quality enlisted recruits in our 
history. We are exceeding DOD and Navy standards for the percentage of 
non-prior service enlisted recruits who have earned a high school 
diploma and whose test scores are in the upper mental group category. 
We met the Navy standard of 95 percent of recruits with a high school 
diploma in fiscal year 2009 and are currently at 96 percent this fiscal 
year. We exceeded the Navy standard of 70 percent of recruits in the 
upper mental group category in fiscal year 2009 (77 percent tested into 
this group) and we are currently at 78 percent this fiscal year.
    Navy will remain competitive in the employment market through the 
disciplined use of monetary and non-monetary incentives. Using a 
targeted approach, we will continue our recruiting and retention 
initiatives to attract and retain our best Sailors, especially those 
within high-demand, critical skill areas that remain insulated from 
economic conditions. Judicious use of special and incentive pays 
remains essential to recruiting and retaining these professionals in 
the current economic environment, and will increase in importance as 
the economic recovery continues. Our goal remains to maintain a 
balanced force, in which seniority, experience, and skills are matched 
to requirements.
Diversity
    Our Navy draws its strength and innovation from the diversity of 
our nation. We continue to aggressively expand our diversity. We are 
committed to implementing policies and programs that foster a Navy 
Total Force composition that reflects America's diversity. We have 
increased diverse accessions through targeted recruiting in diverse 
markets, developed relationships with key influencers in the top 
diverse metropolitan markets, and are aligning all Navy assets and 
related organizations to maximize our connection with educators, 
business leaders and government officials to increase our influencer 
base. Recruiting and retaining a diverse workforce, reflective of the 
nation's demographics at all levels of the chain of command, is a 
strategic imperative, critical to mission accomplishment, and remains 
focus area for leaders throughout our Navy.
    We continue to expand our relationships with key influencers and 
science, technology, engineering, and mathematics (STEM)-based affinity 
groups to inform our nation's youth about the unique opportunities 
available in our Navy. To increase our accessibility to diverse 
markets, we established NROTC units at Arizona State University and 
Tuskegee University. Tuskegee University accepted students in the fall 
of 2009, and ASU will accept students in the fall of 2010. Our 
diversity outreach efforts have contributed to our 2013 U.S. Naval 
Academy and NROTC classes being the most diverse student bodies in our 
history. In the years ahead, we will continue to focus our efforts on 
retaining this talent by building and sustaining a continuum of 
mentorship approach that reaches out and engages Sailors throughout 
their career. This approaches includes social networking, strong 
relationships with affinity groups, and various programs offered by our 
Sailors' immediate commands and associated leadership in addition to 
their respective enterprises and communities.
Women on Submarines
    The Secretary of the Navy and I are in the process of changing the 
Navy policy that restricts women from serving aboard our submarines. 
This move will enable our Navy and, specifically, our submarine force 
to leverage the tremendous talent and potential of our female officers 
and enlisted personnel. Initial integration will include female 
officers assigned to ballistic missile (SSBN) and guided missile (SSGN) 
submarines, since officer accommodations on these submarines have more 
available space and appear to require less modification. The plan also 
integrates female supply corps officers onto SSBNs and SSGNs at the 
department head level. We are planning the first female submarine 
officer candidate accessions into the standard nuclear training and 
submarine training pipelines this year, making it possible to assign 
the first women to submarines as early as fiscal year 2012. Integration 
of enlisted females on SSBNs and SSGNs and integration of officer and 
enlisted female personnel on attack submarines (SSNs) will occur later, 
once the extent of necessary modifications is determined. This 
initiative has my personal attention and I will continue to keep you 
informed as we integrate these highly motivated and capable officers 
into our submarine force.
Sailor and Family Continuum of Care
    We remain committed to providing our Sailors and their families a 
comprehensive continuum of care that addresses all aspects of medical, 
physical, psychological, and family readiness. Our fiscal year 2011 
budget request expands this network of services and caregivers to 
ensure that all Sailors and their families receive the highest quality 
healthcare available. Navy Safe Harbor, Navy's Operational Stress 
Control Program, Reserve Psychological Health Outreach Program, Warrior 
Transition Program, and Returning Warrior Workshop are critical 
elements of this continuum.
    Navy Safe Harbor continues to provide non-medical support for all 
seriously wounded, ill, and injured Sailors, Coast Guardsmen, and their 
families through a network of Recovery Care Coordinators and non-
medical Care Managers at 16 locations across the country. Over the past 
year, Safe Harbor's enrollment has grown from 387 to 542. Over 84,000 
Sailors have participated in Operational Stress Control (OSC) training, 
which is providing a comprehensive approach designed to actively 
promote the psychological health of Sailors and their families 
throughout their careers while reducing the traditional stigma 
associated with seeking help. The Warrior Transition Program (WTP) and 
Returning Warrior Workshops (RWW) are essential to post-deployment 
reintegration efforts. WTP, established in Kuwait and expanded via 
Mobile Care Teams to Iraq and Afghanistan, provides a place and time 
for individual augmentees to decompress and transition from life in a 
war zone to resumption of life at home. The RWW identifies problems, 
encourages Sailors to share their experiences, refers family members to 
essential resources, and facilitates the demobilization process.
Stress on the Force
    As we continue to operate at a high operational tempo to meet our 
nation's demands in the Middle East and around the world, the tone of 
the force remains positive. We continue to monitor the health of the 
force by tracking statistics on personal and family-related indicators 
such as stress, financial well-being and command climate, as well as 
Sailor and family satisfaction with the Navy. Recent results indicate 
that Sailors and their families remain satisfied with command morale, 
the quality of leadership, education benefits, healthcare, and 
compensation.
    Suicide affects individuals, commands and families. We continue 
efforts at suicide prevention through a multi-faceted approach of 
communication, training, and command support designed to foster 
resilience and promote psychological health among Sailors. Navy's 
calendar year 2009 suicide rate of 13.8 per 100,000 Sailors represents 
an increase from the previous year rate of 11.6 per 100,000 Sailors. 
Although this is below the national rate of 19.0 per 100,000 
individuals for the same age and gender demographic, any loss of life 
as a result of suicide is unacceptable. We remain committed to creating 
an environment in which stress and other suicide-related factors are 
more openly recognized, discussed, and addressed. We continue to 
develop and enhance programs designed to mitigate suicide risk factors 
and improve the resilience of the force. These programs focus on 
substance abuse prevention, financial management, positive family 
relationships, physical readiness, and family support, with the goal of 
reducing individual stress. We continue to work towards a greater 
understanding of the issues surrounding suicide to ensure that our 
policies, training, interventions, and communication efforts are 
meeting their intended objectives.
    Sexual assault is incompatible with our Navy core values, high 
standards of professionalism, and personal discipline. We have 
reorganized our efforts in this critical area under the Navy Sexual 
Assault Prevention and Response (SAPR) program, which takes a multi-
faceted approach to raise awareness of effective prevention methods, 
victim response and offender accountability. Recent program reviews 
undertaken by the Government Accountability Office, the Defense Task 
Force on Sexual Assault in the Military Services, and the Navy 
Inspector General will help us to identify program gaps and refine our 
program so we can continue to promote a culture that is intolerant of 
sexual assault.
Learning and Development
    Education and training are strategic investments that give us an 
asymmetric advantage over our adversaries. To develop the highly-
skilled, combat-ready force necessary to meet the demands of the 
Maritime Strategy and the Joint Force, we have 15 learning centers 
around the country providing top-notch training to our Sailors and Navy 
civilians. We continue to leverage civilian credentialing programs to 
bolster the professional qualifications of Sailors in all ratings and 
increase Sailor equity in their own professional advancement. We are 
balancing existing education and training requirements with growth in 
important mission areas such as cyber warfare, missile defense, and 
anti-submarine warfare. Cultural, historical, and linguistic expertise 
remain essential to the Navy's global mission, and our budget request 
supports expansion of the Language, Regional Expertise, and Culture 
(LREC) program for NROTC midshipmen, as well as implementation of the 
AF-PAK Hands Program. We recognize the importance of providing our 
people meaningful and relevant education, particularly Joint 
Professional Military Education (JPME), which develops leaders who are 
strategically-minded, capable of critical thinking, and adept in naval 
and joint warfare. Our resident courses at Naval War College, non-
resident courses at Naval Postgraduate School and Fleet Seminar 
program, and distance offerings provide ample opportunity for 
achievement of this vital education. I appreciate the support of 
Congress in the recent post-9/11 GI Bill. We have led DOD in 
implementing this vital education benefit and continue to carefully 
balance our voluntary education investments to further develop our 
force.
                               conclusion
    Our Sailors are performing brilliantly, providing incredible 
service in the maritime, land, air, space, and cyberspace domains 
around the world today. I am optimistic about our future and the global 
leadership opportunities that our Navy provides for our nation. Our 
fiscal year 2011 budget request continues the progress we started in 
fiscal year 2010 to increase Fleet capacity, maintain our warfighting 
readiness, and develop and enhance the Navy Total Force. I ask for your 
strong support of our fiscal year 2011 budget request and my identified 
priorities. Thank you for your unwavering commitment to our Sailors, 
Navy civilians, and their families, and for all you do to make our 
United States Navy an effective and enduring global force for good.

    Chairman Inouye. Now, may I call upon the Commandant of the 
Marine Corps, General Conway.
STATEMENT OF GENERAL JAMES T. CONWAY, COMMANDANT, 
            MARINE CORPS
    General Conway. Mr. Chairman, Senator Cochran, and 
distinguished members of the subcommittee, thank you for the 
opportunity to report to you on the posture of your Marine 
Corps. My pledge, as it has been over the years, is to provide 
you, today, with a candid and honest assessment.
    Having recently returned from a trip to theater, I'm 
pleased to report to you on the magnificent performance of 
marines and sailors in combat. If you count a 4-year enlistment 
as a generation of marines, we are now experiencing our third 
generation of great young patriots since our Nation was 
provoked on 9/11. The first generation broke trail, leading the 
strikes into Afghanistan and Iraq. The second generation 
quelled a once-volatile province of Anbar. Today, there are 
less than 130 marines in Iraq, but our third generation has 
more than 16,000 serving in Afghanistan. Your marines are 
fighting a skilled and determined enemy, but, with the Afghan 
Security Forces, they are once again proving that they are the 
strongest tribe in the Taliban stronghold of Helmand. Let me 
assure you from what the sergeant major and I witnessed 
firsthand, the highest morale in the Corps resides in those 
units posted in Afghanistan.
    My written statement to the subcommittee provides a 
snapshot of the Corps and describes our near-term focus, long-
term priorities, and our vision of the future. That vision 
matches closely the results of the Quadrennial Defense Review. 
The Secretary of Defense seeks to create a U.S. Military more 
closely focused on hybrid threats, yet capable of responding to 
a major-level contingency. That combination essentially 
describes the Marine Corps that we have built today, a Corps we 
call a ``two-fisted fighter,'' able to perform equally well in 
a counterinsurgency or in a high-intensity combined-arms fight.
    Our resource expenditures, moreover, reflect our dual or 
swing capacity. That is to say that 100 percent of our Marine 
Corps equipment can be used in a hybrid conflict or in a major 
fight.
    Equipment procurement is, indeed, our primary concern, as 
we look at the fiscal year 2011 budget and beyond. Our 
requirements for equipment density in Afghanistan and our 
resolve to reestablish our maritime pre-positioned squadrons 
have driven equipment stocks to an all-time low in our 
operating forces at home station. The ability to properly train 
for deployment, and certainly the ability to respond to an 
unexpected contingency, is at significant risk, based on this 
increasing shortfall.
    Congress has promised us resources for reset and 
reconstitution. But, increasingly, we cannot wait for the guns 
to fall silent in Afghanistan for such an effort to begin. We 
ask for your help in this critical area.
    Our military construction accounts in the fiscal year 2011 
budget and the FYDP are sufficient to help maintain a promise 
we have made to our marines, that they will have quality living 
spaces while they're home between deployments. One need only 
visit some of our major bases and stations to realize that we 
waited too long to begin this effort.
    Similarly, we believe that, even in wartime, we must 
continue a heavy emphasis on education of our officers and our 
staff noncommissioned officers. A strong reservoir of strategic 
and operational thinkers is a must on sophisticated joint and 
combined battlefields. Therefore, a quality Marine Corps 
university with facilities to match our already world-class 
student body, faculty, and curriculum is a major priority. We 
trust we will receive your full support on our military 
construction investments that will repay huge dividends in the 
years to come.
    Ladies and gentlemen of the subcommittee, I must admit my 
own surprise that our Marine Corps and their families have 
remained so resilient over these 9 years of conflict. They have 
been incredibly determined, loyal, and courageous in an effort 
to see these two wars to a successful close. Much of the credit 
goes to you, in the Congress, for providing them with the 
finest, in terms of equipment, warrior care, quality of life 
for families, and compensation. The number one question in the 
minds of our troops is always, Is the country behind us? The 
Members of Congress have answered that question in spades, both 
by your apportionment of the Nation's precious resources, but 
also through personal efforts to visit both troops in theater 
and our wounded at Bethesda and Walter Reed.
    As a result of all the above and the natural tendency of 
marines to stick around for a fight, our recruitment and 
retention are at all-time highs. I predict that, for the second 
year in a row, we will close out reenlistment for both the 
first-term and career force halfway through the fiscal year. 
Clearly, such a phenomenon would not be possible if marines and 
their families were not happy in the service of their country.
    One day this long war with terrorists and Islamic 
extremists will be over. Your Marine Corps will cease being a 
second land army and will gladly rejoin our Navy brothers 
aboard amphibious ships in order to project America's global 
presence, demonstrate American goodwill, and, if need be, 
protect America's vital interests.
    Until that day comes, however, your Corps will continue, as 
we say, ``to do windows.'' That is, we will continue to take 
aboard the indomitable youth of America and make them marines, 
with the absolute conviction that, as a result, they will one 
day be better citizens. We will be trained and equally as 
prepared to route Taliban fighters in Marjah as we are to feed 
beleaguered Haitians outside Port-au-Prince. With your 
continued support, and that of our loyal countrymen, we will do 
whatever the Nation asks us to do, and do it exceedingly well.

                           PREPARED STATEMENT

    Thank you, sir, and I look forward to your questions.
    Chairman Inouye. I thank you very much, General.
    [The statement follows:]
             Prepared Statement of General James T. Conway
    Chairman Inouye, Senator Cochran, Members of the Subcommittee, 
thank you for the opportunity to provide a written report for the 
record on the current posture of the Marine Corps. My pledge, as 
always, is to provide you with a candid and honest assessment. On 
behalf of all Marines, their families, and our civilian employees, I 
want to thank you for your concern and continued support.
    This brief statement contains a summary of our near-term focus and 
enduring priorities, an update on your Marine Corps today, a discussion 
of the challenges we see ahead, and our vision of the future. In 
addition to any testimony you wish to receive from me, I have directed 
the Deputy Commandants of the Marine Corps to meet with you as 
individuals and members of your respective subcommittees, and to 
provide you any other information you require. Our liaison officers 
will also deliver copies of 2010 U.S. Marine Corps Concepts and 
Programs to the offices of each member of the committee. This almanac 
and reference book contains detailed descriptions of all our major 
programs and initiatives. We hope you will find it useful.
                           your marine corps
    We believe that Americans expect their Marines to be ready to 
respond when our country is threatened; to arrive on the scene on short 
notice anywhere in the world via the amphibious ships of the United 
States Navy, as was necessary when a disastrous earthquake recently 
struck Haiti; and to fight and win our Nation's battles. The public 
invests greatly in the Marine Corps. In turn, our commitment is to 
uphold their special trust and confidence and provide them the best 
return on their investment.
    Characteristics.--Your Marine Corps is a young force that provides 
great value to the Nation.
  --The average age of a Marine is 25 years old.
  --Almost half of the enlisted force--84,830 Marines--is between the 
        ranks of private and lance corporal (pay grades E1-E3).\1\
---------------------------------------------------------------------------
    \1\ As of December 23, 2009.
---------------------------------------------------------------------------
  --Almost 70 percent of your Marines are on their first enlistment, 
        and some 30,000 have been in uniform for less than 1 year.\2\
---------------------------------------------------------------------------
    \2\ As of December 1, 2009, the percentage of Marines on their 
first enlistment was 68.6 percent, and the number of Marines with less 
than 1 year on active duty is 29,032.
---------------------------------------------------------------------------
  --The ratio of officers to enlisted Marines is 1:9--the lowest of all 
        the services.\3\
---------------------------------------------------------------------------
    \3\ Authorized endstrength of 202,000 equals 21,000 officers plus 
181,000 enlisted Marines equals 1:9.
---------------------------------------------------------------------------
  --More than 136,000 Marines (67 percent) are in deploying units--what 
        we call the Operating Forces. Nearly 30,000 Marines are forward 
        deployed, forward based, or on training exercises around the 
        world.
  --For 6.5 percent \4\ of the baseline 2010 Defense budget, the Marine 
        Corps provides: 17 percent of the Nation's active ground combat 
        maneuver units; 12 percent of the Nation's fixed wing tactical 
        aircraft; and 19 percent of the Nation's attack helicopters.
---------------------------------------------------------------------------
    \4\ 6.5 percent of DOD budget represents fiscal year 2010 USMC 
Green dollars and Direct Blue (Navy) dollars.
---------------------------------------------------------------------------
    Expeditionary.--The Marine Corps is the Nation's naval 
expeditionary, combined-arms force-in-readiness. To Marines, 
expeditionary connotes fast, austere, and lethal.
  --Expeditionary means rapid deployment by air or sea to respond to 
        crises of temporary duration. For example, within 24 hours of 
        the speech by the President of the United States in December 
        announcing the current strategy in Afghanistan, the lead 
        elements of 1st Battalion, 6th Marines from Camp Lejeune, North 
        Carolina were en route to Afghanistan.
  --Expeditionary means being efficient and effective while operating 
        in an austere environment--a task-organized force that is 
        manned and equipped no larger or heavier than necessary to 
        accomplish the mission.
  --Expeditionary means being prepared for decisive action--to be 
        lethal, if necessary--but also possessing the lesser-included 
        capabilities for security cooperation, humanitarian assistance, 
        or disaster relief.
  --In summary, the term expeditionary to Marines goes to the very 
        heart of our service culture, core values, and warrior ethos. 
        Service as part of an expeditionary force means embracing a 
        Spartan way of life and regular deployments on foreign soil in 
        furtherance of our Nation's interests.\5\
---------------------------------------------------------------------------
    \5\ This is consistent with the official Defense Department 
definition of an expeditionary force: ``An armed force organized to 
accomplish a specific objective in a foreign country.'' Joint Pub 1-02 
Department of Defense Dictionary of Military and Associated Terms 
(Washington, D.C.: 2001, as amended through August 31, 2005), p. 193.
---------------------------------------------------------------------------
    Organization.--The Marine Corps is the only general-purpose force 
in the Department of Defense that is trained and equipped as the 
Nation's first responders.
  --We organize in Marine Air-Ground Task Forces (MAGTFs). Under a 
        single command element, the MAGTF integrates three major 
        subordinate elements: (1) Ground Combat Element, (2) Aviation 
        Combat Element, (3) Logistics Combat Element. Each element of 
        the MAGTF is complementary, and Marine Corps forces are most 
        effective and best employed as MAGTFs within the joint or 
        multinational command structure.
  --MAGTFs are adaptive, general-purpose rapid response forces. They 
        are multi-capable, transitioning seamlessly from fighting 
        conventional and hybrid threats to promoting stability and 
        mitigating conditions that lead to conflict. For example, in 
        2003, after completing a conventional, 350-mile attack over 
        land from Kuwait to Baghdad, I Marine Expeditionary Force--a 
        60,000 Marine-plus MAGTF--was able to transition quickly to 
        security and stability operations.
    Near-Term Focus.--We understand the economic challenges facing our 
country and the hard decisions Congress must make. We thank you for 
your unwavering support. This report discusses the near-term focus of 
the Marine Corps:
  --The current fight in Afghanistan and the responsible drawdown in 
        Iraq.
  --Readiness and reset of equipment.
  --Modernization of the MAGTF.
  --Preparing for the next contingency and the uncertainties of the 
        future.
    Enduring Priorities.--Through the future years defense plan and 
beyond, we are focused on:
  --Providing the Nation a naval expeditionary force fully prepared for 
        employment as a MAGTF across the spectrum of operations.
  --Remaining the most ready when our Nation is least ready.
  --Providing for our Marines and their families.
                          iraq and afghanistan
    Operation Iraqi Freedom.--Since testimony before your committee 
last year, the Marine Corps has transferred authority for Anbar 
Province to the U.S. Army and is near completion of a responsible 
drawdown from Iraq.
  --From 2003-2009, our force levels in Iraq averaged 25,000 Marines.
  --As of February 19, 2010, there were 159 Marines in Iraq. By spring 
        of this year, our mission in Iraq will be complete and your 
        Marines will redeploy.
    Operation Enduring Freedom.--In Afghanistan, the mission has 
expanded.
  --As of September 23, 2009, there were more Marines in Afghanistan 
        than in Iraq.
  --By March 2010, there will be more than 18,500 Marines in 
        Afghanistan, and by mid-April, that number will grow to a 
        robust MAGTF of 19,400 personnel with equipment, and will be 
        commanded by a Marine two-star general.
  --Your Marines have already had success and have made a difference in 
        some of the toughest regions of Afghanistan, primarily Helmand 
        Province in the South--formerly a Taliban stronghold, and the 
        source of the highest volume of opium production in the world. 
        However, more work remains to be done.
Summary
    Operations in Iraq and Afghanistan have required the Marine Corps 
to fight as a second land army. Although we have been successful in our 
assigned missions in Iraq and Afghanistan, that success has come at the 
price of degraded readiness for our designed missions. The Marine Corps 
will always do whatever the Nation requires. But, as Congress has 
authorized and resourced, the Marine Corps is trained, organized, and 
equipped for our primary mission as a force in readiness.
    The harsh environments and tempo of operations in Iraq and 
Afghanistan through 8 years of combat have accelerated wear and tear on 
our equipment. The enemy's weapon of choice--the improvised explosive 
device or IED--has forced us to increase the weight of our personal 
protective equipment and the armor on our vehicles.
    The distributed nature of operations has shown us that our legacy 
tables of equipment were inadequate. The required type and number of 
ground vehicles, radios, and other major end items of equipment have 
significantly increased. In our infantry battalions, for example, the 
number of tactical vehicles has almost doubled while the number of 
radio sets has grown sevenfold. Our preliminary estimates indicate that 
the cost of restructuring the Marine Corps' tables of equipment would 
be $5 billion over fiscal year 2012 through fiscal year 2015.
    The amount of equipment that has been damaged, destroyed, or has 
reached the end of service life from accelerated use has increased, and 
the cost associated with fixing or replacing this equipment has 
increased significantly.
    Based upon the Marine Corps current analysis, our estimated reset 
cost is $8 billion. The $8 billion consists of $3 billion requested in 
the fiscal year 2011 OCO and an additional long term reset liability of 
$5 billion upon termination of the conflict.
    Equipment on hand at home station to support training has been 
serious degraded. Particularly worrisome is our capacity to respond to 
other contingencies.
    We are institutionalizing the lessons learned in Iraq and 
Afghanistan in training, education, organization, doctrine, and 
capability development. One of the ways we are doing this is through 
the Marine Corps Center for Lessons Learned.
    The current operating environment in Iraq and Afghanistan has led 
to an exponentially increased need for intelligence collection assets 
down to lower levels of command. The Marine Corps Intelligence, 
Surveillance, and Reconnaissance Enterprise (MCISR-E) provides support 
to the MAGTF in this operating environment by organizing all of the 
intelligence disciplines, sensors, and equipment and communication 
architecture into a single capability that is integrated and networked 
across all echelons.
                               readiness
Personnel Readiness
    Our people--the brave men and women who wear our uniform and the 
spouses, children, and the parents who support them--are our most 
valuable resource. In 2009, your Corps lost 65 Marines to enemy action 
in combat. We also lost 52 Marines who died by suicide--this serious 
issue, which will be discussed later in this report, has my personal 
attention.
    Endstrength.--Current authorized endstrength is 202,100 Marines in 
the active component and 39,600 Marines in the Selected Reserve.
  --During fiscal year 2007, the Marine Corps requested and received 
        authorization to grow 27,000 additional personnel by the end of 
        fiscal year 2011.
  --We completed our growth during fiscal year 2009--2 years ahead of 
        schedule. We attribute this to four factors: quality 
        recruiting, exceptional retention, reduced personnel attrition, 
        and a great young generation of Americans who want to serve 
        their country during wartime.
  --With this personnel increase, we will improve training, upgrade 
        readiness, and enhance the quality of life for all personnel 
        and their families. The goal is to build the equivalent 
        capacity of three Marine Expeditionary Forces--the largest 
        MAGTF and principal Marine Corps warfighting organization.
  --We are continuing to shape the Marine Corps with the right mix of 
        units, grades, and occupational specialties.
            Quality
    Recruiting.--In fiscal year 2009, we exceeded goals in numbers and 
standards for the active component and the Selected Reserve. The active 
component accessed 31,413 personnel, and the Selected Reserve accessed 
9,627 personnel. In fiscal year 2010, our goal is to access 27,500 
enlisted personnel in the active component and commission 1,800 new 
officers.
    Enlistment Standards.--One of the Department of Defense standards 
for new recruits is that at least 90 percent will possess a high school 
diploma. The Marine Corps has chosen to maintain a higher standard; our 
goal is a high school graduation rate of 95 percent. In fiscal year 
2009, for our combined active and reserve components, the high school 
graduation rate of our recruits exceeded 98 percent.
    First Term Reenlistments.--In fiscal year 2009, 8,011 first-term 
Marines reenlisted, meeting 109.2 percent of our goal. This represented 
a retention rate of 33.7 percent, exceeding our traditional retention 
rate of 24 percent. In the first quarter of fiscal year 2010, 5,194 
first-term Marines have already reenlisted--77 percent of the goal for 
the entire year.
    Subsequent Term Reenlistments.--In fiscal year 2009, 7,985 Marines 
who had completed at least two enlistment contracts chose to reenlist 
again. This number represented 107 percent of our goal and a 78.6 
retention rate--the highest in history. In the first quarter of fiscal 
year 2010, 5,685 Marines who had completed at least two enlistment 
contracts chose to reenlist again--82 percent of the goal for the 
entire year.
    Officers.--The quality of officers accessed and retained remains 
high. In one example, the share of Marine-option United States Naval 
Academy candidates in the top third of their graduating class greatly 
exceeded representative levels in 2008. The number of Naval Academy 
graduates who chose to become Marine Corps officers last year was 270--
the highest number in history for the second year in a row.
    In fiscal year 2009, our officer retention rate was 93 percent and 
during fiscal year 2010, we expect officer retention to remain stable.
    Reservists.--The Marine Corps Reserve is a full partner in the 
total force. As of January 2010, there were 39,164 Marines in the 
Selected Reserve and another 55,233 in the Inactive Ready Reserve. 
Marine Forces Reserve includes 183 training centers in 48 states, the 
District of Columbia, and Puerto Rico.
  --The extensive contributions of the Reserve have reduced deployment 
        requirements for the active component, thereby improving the 
        health of the total force. More than 54,000 Marines from the 
        Selected Reserve and the Inactive Ready Reserve have mobilized 
        and deployed in support of Operations Iraqi Freedom, Enduring 
        Freedom, or other operational commitments around the globe.\6\
---------------------------------------------------------------------------
    \6\ As of January 3, 2010.
---------------------------------------------------------------------------
    ``Every Marine into the Fight''.--The majority of your Marines 
joined the Corps after our Nation was already at war. They expect to 
train, deploy, and fight because that is what they believe Marines are 
supposed to do. As such, the 2007 ``Every Marine into the Fight'' 
initiative adjusted personnel assignment policies so Marines serving in 
non-deploying units or the supporting establishment would have the 
opportunity to deploy. At the same time, we monitor carefully the 
frequency and duration that units and individual personnel spend 
deployed.
  --To date, 73 percent of the available Marines have deployed in 
        support of Operations Iraqi Freedom and Enduring Freedom, or 
        other operational commitments around the globe.
  --Individual Deployment Tempo.--We measure individual deployment 
        tempo on a 2-year sliding scale--the number of days deployed 
        out of the previous 730 days. In the last 7 years, we have seen 
        a twentyfold increase in the individual deployment tempo of 
        Marines in the active component. In October 2002, the number of 
        Marines who deployed for at least 120 consecutive days in a 2-
        year period was 4,845. As of January 2010, 100,760 Marines had 
        deployed for at least 120 consecutive days.
  --Unit Operational Tempo.--The metric we use to measure unit 
        operational tempo is the ratio of ``deployment to dwell''--
        months deployed to months at home station. We limit the 
        duration of deployments for units and individual Marines to no 
        more than seven months for battalions and squadrons. Higher 
        headquarters units deploy for 1 year.
  --Our goal is to achieve a 1:2 deployment to dwell ratio in the 
        active component and a 1:5 ratio in the reserve component. Our 
        reserve units are currently operating at a ratio that more 
        closely approximates a ratio of 1:4, while many of our active 
        component units, on average, are nearing the goal of 1:2 (see 
        Table 1).

           TABLE 1.--MAGTF UNIT DEPLOYMENT TO DWELL RATIOS \1\
------------------------------------------------------------------------
                                                          Average Ratio
                                                             (Months
                     MAGTF Element                       Deployed:Months
                                                          Home Station)
------------------------------------------------------------------------
Command Element........................................           1:1.43
Ground Combat Element..................................           1:2.08
Aviation Combat Element................................           1:2.11
Logistics Combat Element...............................           1:1.79
------------------------------------------------------------------------
\1\ As of November 18, 2009.

  --The subordinate units most frequently deployed are Intelligence 
        Battalions, 1:1.01 (Command Element); Infantry Battalions, 
        1:1.78 (Ground Combat Element); VMU Squadrons, 1:1.10, and 
        Attack Helicopter Squadrons, 1:1.28 (Aviation Combat Element); 
        and Explosive Ordnance Disposal Companies 1:1.30 (Logistics 
        Combat Element).
    Suicide Prevention.--The number of Marines who have died by suicide 
in recent years is shocking and unacceptable. This issue has my 
personal attention, and we have multiple programs at work to reverse 
this trend.
  --Causes.--Our studies have shown that regardless of duty station, 
        deployment, or duty status, the primary stressors associated 
        with Marine suicides are problems in romantic relationships, 
        physical health, work-related issues, such as poor performance 
        and job dissatisfaction, and pending legal or administrative 
        action. Multiple stressors are typically present in a suicide. 
        This is consistent with the findings of the other services and 
        civilian agencies.
  --Deployments.--We analyze suicides monthly and annually for combat-
        related trends such as the number of deployments and dwell 
        time. Although it is reasonable to assume that one or more 
        deployments may cause an increase in suicides, to date, we have 
        been unable to establish a direct correlation between 
        deployments and suicides.
    Sexual Assault Prevention and Answer.--Sexual assault is a crime, 
and it tears at the very fabric of our ethos. We continue to train and 
educate all Marines on the warning signs and the situations that lead 
to sexual assault. To our commanders, we have reinforced their 
responsibility to investigate all allegations of sexual assault and 
take the appropriate actions consistent with their findings. Finally, 
we continue to take aggressive strides toward improving our Sexual 
Assault Prevention and Response Program.
    Civilian Employees.--Civilian employees are a vital part of the 
Marine Corps. In fiscal year 2010, civilian Federal employees will 
number more than 25,000. Through initiatives in management and career 
development, the Marine Corps is dedicated to maintaining a civilian 
workforce with the leadership skills and technical competencies 
necessary to meet the challenges of today as well as those of the 
future.
  --Traditionally, civilian employees have served primarily in the 
        supporting establishment. Now, more than ever before, they are 
        deploying with the operating forces and serving in positions 
        traditionally occupied by active duty Marines. For example, we 
        are in the process of hiring more than 260 tactical safety 
        specialists, who will each rotate on deployments with the 
        operating forces. We are also participating in DOD's program to 
        build a deployable Civilian Expeditionary Workforce.
    Families.--While we recruit Marines, we retain families. More than 
45 percent of your Marines are married, and we believe that investing 
in military families is critical to the long-term health of the 
institution. When Marines know that their loved ones at home station 
have access to quality housing, healthcare, child development services, 
and education, they are better prepared to face the rigors of 
deployment and more inclined to stay in uniform when they return home.
  --Family Readiness Programs.--Our baseline budget in fiscal years 
        2010 and 2011 for family programs is $399 million per year. We 
        have reformed our family readiness programs at every level of 
        command at all of our installations. As an example, we have 
        created more than 400 full-time positions for family readiness 
        officers down to the battalion and squadron level.
  --Child Care.--Today, we are currently meeting 64 percent of 
        potential need for child care spaces. To meet the DOD standard 
        of 80 percent of potential need based on the current 
        population, we would require approximately 3,000 additional 
        spaces. With your support, we have programmed an additional 
        2,615 spaces that will open over the next 18-24 months.
  --Families with Special Needs.--With an increase of $11 million for 
        the Exceptional Family Member Program in this year's baseline 
        budget, we have made great strides improving the programs that 
        support special needs family members. Enrollment is now 
        mandatory and more than 8,900 exceptional family members are in 
        the program. The Marine Corps assigns a caseworker to each 
        family, who assists during relocation, deployment, and life 
        events. In addition, the Marine Corps now underwrites the cost 
        of up to 40 hours of respite care per month for families in the 
        program. To date, the Marine Corps has provided more than 
        250,000 hours of respite care.
    Wounded Warriors.--About 9,000 Marines have been injured or fallen 
seriously ill while serving in support of Operations Iraqi Freedom or 
Enduring Freedom. We are deeply committed to their care as well as the 
welfare of their families. Since activation in April 2007, the Wounded 
Warrior Regiment has provided a wide range of non-medical care for the 
injured and ill. The Marine Corps now also has wounded warrior 
battalions at Camp Pendleton and Camp Lejeune.
  --Infrastructure.--The Marine Corps is investing $50 million from the 
        2009 Overseas Contingency Operations supplemental for the 
        construction of resource and recovery centers at Camp Pendleton 
        and Camp Lejeune. These recovery centers will provide spaces 
        for counseling, physical therapy, employment support, financial 
        management, and other training and outreach programs in support 
        of our wounded.
  --Outreach.--With a 24-hour call center for wounded Marines and their 
        families, the Wounded Warrior Regiment has contacted 99.4 
        percent of all Marines (7,654 out of 7,703) who were wounded 
        since the beginning of Operations Iraqi Freedom and Enduring 
        Freedom, in order to determine their health status. We also 
        maintain a toll-free number to the medical center in Landstuhl, 
        Germany for families to contact their loved ones who have been 
        wounded.
  --Recovery Care.--The Marine Corps has 42 recovery care coordinators, 
        who coordinate non-medical services for Marines and their 
        families during recovery, rehabilitation, and transition.
            Mental Health
    Traumatic Brain Injury.--Naval medicine remains at the forefront of 
researching and implementing pioneering techniques to treat traumatic 
brain injury. One technique, Hyperbaric Oxygen Treatment, is showing 
great promise. We anticipate a study to begin this spring that tests 
the efficacy of this revolutionary treatment. The Marine Corps has a 
formal screening protocol for Marines who suffer concussions or who are 
exposed to blast events in theater.
  --Post-Traumatic Stress Disorder (PTSD).--We are attentive to the 
        mental health of our warriors and we are dedicated to ensuring 
        that all Marines and family members who bear the invisible 
        wounds caused by stress receive the best help possible. We 
        developed the Combat Operational Stress Control (COSC) program 
        to prevent, identify, and holistically treat mental injuries 
        caused by combat or other operations.
  --With the increased workload, we do have concerns about the capacity 
        of mental healthcare in military medicine. Operational support 
        and current treatment facility demands continue to stretch our 
        mental health professional communities, even though DOD has 
        taken many steps to increase mental health services. Our 
        shortages of mental health professionals are a reflection of 
        Nation-wide shortages of this specialty. We are actively 
        engaged in discussions about possible solutions.
Equipment Readiness
    We have sourced equipment globally, taking from non-deployed units 
and strategic programs to support our forces in theater. As a result, 
the amount of equipment remaining for non-deployed units to use for 
training and other potential contingencies is seriously deficient.
  --For example, while the overall supply rating of Marine Corps units 
        in Afghanistan is near 100 percent, the supply rating of units 
        at home station is less than 60 percent.
  --Additional equipment is being procured with supplemental funds, but 
        the production rates are too slow to meet our requirements for 
        new equipment orders.
    Equipment Reset.--As mentioned previously, the distributed and 
decentralized nature of operations in Iraq and Afghanistan has shown us 
that our legacy, 20th century tables of equipment are significantly 
inadequate. Moreover, the tempo of operations has accelerated the wear 
and tear on equipment. Also, the diversion of equipment in theater from 
Iraq to Afghanistan has delayed reset actions at our logistics depots 
in the United States.
  --Our preliminary estimates indicate that the cost of restructuring 
        the Marine Corps' tables of equipment would be $5 billion over 
        fiscal year 2012 through fiscal year 2015.
  --In light of the continued high tempo of operations in Afghanistan, 
        and the delay in reset actions due to the diversion of 
        equipment in theater, we estimate the cost of reset for the 
        Marine Corps to be $8 billion ($3 billion requested in the 
        fiscal year 2011 OCO and an additional $5 billion reset 
        liability upon termination of the conflict).
    Aviation Readiness.--All Marine Corps aircraft in support of 
overseas contingency operations are exceeding programmed rates, and are 
thus consuming service life at a rate sometimes three times higher than 
that scheduled for the lifetime of the aircraft. (See Table 2.) This 
will eventually result in compressed time lines between rework and, 
ultimately, earlier retirement of the aircraft than originally 
programmed.
  --It is critical that our aviation modernization programs, discussed 
        in the next section of this report, continue to receive the 
        support of Congress.
  --The majority of our legacy platforms are at the end of their 
        service life and most of the production lines are closed.

           TABLE 2.--FISCAL YEAR 2009 USMC AIRCRAFT UTILIZATION RATES--OVERSEAS CONTINGENCY OPERATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                Programmed
                                                                      Average      Rates    OCO Rates   OCO Life
                              Aircraft                                  Age       (Hours/    (Hours/     Usage
                                                                      (Years)     Month)      Month)
----------------------------------------------------------------------------------------------------------------
AH-1W..............................................................         19        19.5       32.7       1.7x
UH-1N..............................................................         35        21.7       30.0       1.4x
CH-46E.............................................................         41        13.6       31.1       2.3x
CH-53D.............................................................         40        23.8       50.3       2.1x
CH-53E.............................................................         21        19.2       33.6       1.8x
MV-22B.............................................................          3        20.9       29.4       1.4x
AV-8B..............................................................         13        20.9       24.1       1.2x
F/A-18A............................................................         23        25.5       72.5       2.9x
F/A-18C............................................................         16        23.9       65.5       2.7x
EA-6B..............................................................         27        26.4       66.0       2.5x
----------------------------------------------------------------------------------------------------------------
Note: Programmed rates are defined in the Weapon System Planning Document and are based on the projected dates
  an aircraft will be replaced by a new platform or reworked to extend its service life. Programmed rates
  include monthly flight hours and the associated logistical support required for each aircraft.

            Strategic Prepositioning Programs
    Marine Corps prepositioning programs trace their origins back 30 
years, when the Iranian revolution, the Soviet invasion of Afghanistan, 
the Iraqi attack on Iran, and the deepening civil war in Lebanon 
collectively brought to the forefront the limitations of strategic 
airlift to respond to no-notice contingencies. The solution--the 
Secretary of Defense testified in 1980, and Congress agreed--was 
prepositioned combat equipment, ammunition, and supplies afloat on 
commercial vessels underway or docked in strategic locations. The 
Marine Corps developed three squadrons of maritime prepositioned ships 
and, in 1982, began prepositioning equipment and ammunition underground 
in Norway.
    The first real test for these programs was in 1991, during 
Operation Desert Shield. In 2003, in Kuwait, the Marine Corps 
downloaded 11 vessels from all three prepositioned squadrons and moved 
648 principal end items from Norway in preparation for Operation Iraqi 
Freedom. Without this capacity, the Marine Corps would not have been 
able to move half of the entire operating forces--more than 60,000 
fully equipped Marines--halfway around the world for a 350-mile attack 
on Baghdad.
    When completely loaded, Marine Corps prepositioning vessels today 
carry more than 26,000 pieces of major equipment including tanks, 
wheeled tactical vehicles, and howitzers, as well as the necessary 
supplies to support the force.
    When measured against authorized allowances, the percentage of 
major item equipment (Class VII) currently present in the prepositioned 
fleet is 94 percent; the percentage of supplies currently present is in 
excess of 99 percent.\7\
---------------------------------------------------------------------------
    \7\ Data as of February 18, 2010. To clarify any misperceptions, 
these are not the formal readiness percentages the Marine Corps uses in 
separate reports to Joint Chiefs of Staff, the Office of the Secretary 
of Defense, and Congress. The readiness percentages in those reports 
are a measurement against MARES reportable items, a more select range 
of equipment.
---------------------------------------------------------------------------
    In Norway, the current percentage of on-hand major end item 
equipment (Class VII) measured against authorized allowances is 47 
percent; the percentage of on-hand supplies is 78 percent.\8\
---------------------------------------------------------------------------
    \8\ Data as of February 18, 2010.
---------------------------------------------------------------------------
    It is important to note that these programs are not just a 
strategic war reserve. Marine Corps prepositioning programs support 
forward-deployed training exercises and, along with the amphibious 
ships of the U.S. Navy, the steady state requirements of the combatant 
commanders. For example, using the equipment positioned in Norway, the 
Marine Corps provides security force assistance to partner nations in 
U.S. European Command and U.S. Africa Command.
    In summary, Marine Corps prepositioning programs are vital to the 
Nation and they require the continued funding and support of Congress.
Infrastructure
    Bachelor Housing.--Our number one priority in military construction 
is barracks. In years past, due to fiscal constraints, we had focused 
on operational concerns. We now have a program under way that will 
provide adequate bachelor housing for our entire force by 2014. Table 3 
depicts Marine Corps fiscal year 2011 investment in new barracks.

          TABLE 3.--USMC FISCAL YEAR 2011 BARRACKS CONSTRUCTION
                          [Dollars in millions]
------------------------------------------------------------------------
                                                Fiscal Year      New
                   Location                         2011       Barracks
                                                 Investment     Spaces
------------------------------------------------------------------------
Twentynine Palms, CA..........................        $53.2          384
Camp Lejeune, NC..............................        326.6        2,794
Cherry Point, NC..............................         42.5          464
Camp Pendleton, CA............................         79.9          860
MCB Hawaii, HI................................         90.5          214
MCB Quantico, VA..............................         37.8          300
                                               -------------------------
      Total...................................        630.5        5,016
------------------------------------------------------------------------

  --The Marine Corps is committed to funding the replacement of 
        barracks furnishings on a 7-year cycle and to funding the 
        repair and maintenance of existing barracks to improve the 
        quality of life of Marines.
            Summary
    Our equipment shortfalls are serious and the impacts on readiness 
have been significant. Our non-deployed units do not have the required 
amount of equipment they need to train or support other contingencies. 
Moreover, the harsh environments of Iraq and Afghanistan, the tempo of 
operations, and our employment as a second land army since 2004 has 
accelerated wear and tear on our equipment and delayed the reset 
activities necessary to prepare for the next contingency.
    We estimate that the cost of restructuring the Marine Corps' tables 
of equipment from fiscal year 2012 through fiscal year 2015 would be $5 
billion and the cost to reset for the Marine Corps will be $8 billion 
($3 billion requested in fiscal year11 OCO and an additional $5 billion 
reset liability upon termination of the conflict).
    Iraq and Afghanistan have not adversely affected personnel 
readiness or the resiliency of the force. The Marine Corps continues to 
recruit and retain the highest quality people. Your Marines want to 
make a difference; they understand being a Marine means deploying and 
fighting our Nation's battles. Indeed, the Marines with the highest 
morale are those currently in Afghanistan.
    The Marine Corps has achieved its goal of 202,000 active duty 
personnel and has done so with no compromise in quality. However, the 
Marine Corps has not achieved the correct mix of skills and pay grades. 
Continued funding will be needed to balance the force correctly.
    Our personnel growth has outpaced our growth in infrastructure, and 
your continued support is needed to provide the additional barracks, 
messing, and office spaces required.
                       modernization of the magtf
    Our modernization effort is not merely a collection of programs but 
a means of aligning the core capabilities of the MAGTF across the 
spectrum of present and future security challenges. All of our 
procurement programs are designed to support the full range of military 
operations.
    The Individual Marine.--Marines are the heart and soul of your 
Corps. The trained, educated, and physically fit Marine enables the 
Corps to operate in urban areas, mountains, deserts, or jungles. 
However, we are concerned about weight. Depending on the enemy 
situation, and including helmet, body armor, individual weapon, water, 
ammunition, and batteries, the weight of gear for a Marine on foot-
patrol in Afghanistan can average 90 pounds. There is a delicate 
balance between weight and protection, and we continue to pursue the 
latest in technology to provide Marines with scalable protection based 
on the mission and threat.
    Tactical Vehicles.--The Marine Corps currently has a total ground 
tactical vehicle quantity of nearly 47,500. Over the next 10 years, we 
plan to replace about 50 percent of that total.
  --We are planning, programming, and budgeting toward a balanced fleet 
        of vehicles. Our chief considerations are mobility, 
        survivability, payload, transportability, and sustainability. 
        Our goal is a portfolio of vehicles that is able to support 
        amphibious operations, irregular warfare, and operations ashore 
        across the range of military operations. We envision a blend of 
        Expeditionary Fighting Vehicles, Marine Personnel Carriers, 
        Mine Resistant Ambush Protected vehicles (MRAPs), and 
        replacements for our High Mobility Multipurpose Wheeled 
        Vehicles (HMMWVs).
  --The Expeditionary Fighting Vehicle (EFV) is the number one 
        modernization program in the ground combat element of the 
        MAGTF. The requirements of the current and future security 
        environment have driven the research and development of the 
        critical capabilities associated with the EFV. The Marine Corps 
        has not taken a myopic view of the EFV; we are well aware of 
        the fiscal realities and developmental challenges associated 
        with such a revolutionary vehicle. We are, however, convinced 
        that national security demands the capabilities of the EFV and 
        justifies the costs. This vehicle will save lives and enable 
        mission success across an extremely wide, and highly probable, 
        range of operational scenarios.
    Fire Support.--We are modernizing Marine Corps land-based fire 
support through a triad of weapons systems--a new and more capable 155 
mm howitzer, a system of land-based rockets, and a helicopter-
transportable 120 mm mortar. Each of these is extremely accurate. This 
accuracy is critical in counterinsurgency operations and irregular 
warfare because accuracy reduces the instances of civilian casualties 
and collateral damage to local infrastructure.
  --The Lightweight 155 mm Towed Howitzer (M777) weighs about half of 
        the cannon it is replacing and fires projectiles to a range of 
        15-19 miles. Our Marine Expeditionary Brigade in Afghanistan 
        has 15 of these howitzers at three different locations, which 
        have collectively fired more than 600 rounds since April 2009.
  --The High Mobility Artillery Rocket System (M142 HIMARS) provides 
        high-value rocket and missile fire in support of ground forces. 
        Each system carries six rockets or one missile. Like our new 
        lightweight howitzer, HIMARS has proven itself over the past 
        year in Afghanistan, delivering long-range precision fires.
  --The Expeditionary Fire Support System is a rifled 120 mm mortar, 
        internally transportable 110 nautical miles by both the MV-22 
        Osprey and the CH-53E helicopter. This will be the primary 
        indirect fire-support system for helicopter-transported 
        elements of the ground combat element. A platoon equipped with 
        these new mortars recently deployed with the 24th Marine 
        Expeditionary Unit.
    Marine Aviation.--Marine pilots are naval aviators; they are 
trained to fly from the ships of the U.S. Navy or from expeditionary 
airfields ashore in support of Marines on the ground. We are in the 
midst of an unprecedented modernization effort. By 2020, we will have:
  --Transitioned more than 50 percent of our aviation squadrons to new 
        aircraft.
  --Added 5 more operational squadrons and almost 100 more aircraft to 
        our inventory.
  --Completed fielding of the tilt-rotor MV-22 Osprey and the upgraded 
        Huey (UH-1Y) utility helicopter.
  --Updated our entire fleet of aerial refuelers to the KC-130J model.
  --Fielded the upgraded Cobra (AH-1Z) attack helicopter and the Joint 
        Strike Fighter (F-35B).
  --Fielded an entirely new family of Unmanned Aircraft Systems (UAS).
  --Introduced a new model of the heavy-lift CH-53 cargo helicopter.
    The Joint Strike Fighter.--The Marine Corps is on track to activate 
the Department of Defense's first operational Joint Strike Fighter 
squadron in 2012. Although our investment in this program may seem 
high, it is important to note that the Marine Corps has not bought a 
fixed-wing tactical aircraft in 11 years, and that the Joint Strike 
Fighter will ultimately replace three different types of aircraft 
currently in our inventory.
  --The short takeoff and vertical landing (STOVL) variant (F-35B) of 
        the Joint Strike Fighter will be transportable aboard the 
        amphibious ships of the U.S. Navy; it will be able to operate 
        under the same austere conditions as does the AV-8 Harrier; it 
        will be able to carry more bombs and loiter overhead longer 
        than does the F/A-18 Hornet; and it will be a better electronic 
        warfare platform than our legacy EA-6 Prowler.
    The Osprey.--We are very pleased with the performance of the tilt-
rotor MV-22 Osprey. The Osprey provides greater speed, more range, and 
enhanced survivability compared to other rotary wing platforms. It 
flies more than twice as fast and carries three times the payload at 
more than six times the range of the medium-lift helicopter it is 
replacing.
  --Osprey squadrons have completed three successful deployments to 
        Iraq and one aboard ship. One squadron is currently in 
        Afghanistan. We are nearing delivery of our 100th operational 
        aircraft, and at a current build of 30 Ospreys per year, we are 
        replacing our CH-46E medium-lift helicopter squadrons at a rate 
        of two squadrons per year.
    Logistics Command and Control.--Global Combat Service Support 
System--Marine Corps is the cornerstone of our logistics modernization 
strategy.
  --The program is a portfolio of information technology systems that 
        will support logistics command and control, joint logistics 
        interoperability, secure access to information, and overall 
        visibility of logistics data. It will align Marine Corps 
        logistics with real-world challenges, where speed and 
        information have replaced mass and footprint as the foremost 
        attributes of combat operations; it will replace 30-year old 
        legacy supply and maintenance information technology systems; 
        and it will provide the backbone for all logistics information 
        for the MAGTF.
                                 vision
    The current transnational struggle against violent extremism will 
not end anytime soon. Other threats--conventional and irregular--will 
continue to emerge and the complexity of the future operating 
environment will only increase. As we look to the future, we believe we 
must refocus on our core competencies, especially combined-arms 
training and operations at sea with the United States Navy.
    2010 Quadrennial Defense Review.--We believe the report from the 
Quadrennial Defense Review offers an accurate and informed analysis of 
the challenges in the future security environment, particularly with 
respect to growing complexity of hybrid threats and the spread of 
advanced anti-access capabilities.
  --We concur with the overarching need for a comprehensive and 
        balanced approach to national security--a whole of government 
        approach.
  --We agree with the need for a U.S. military that is balanced in 
        capabilities for irregular warfare and conventional conflict. 
        For the Marine Corps, we have always believed in such a 
        balance. Our equipment and major programs, and our means of 
        employment as an integrated MAGTF, reflect our commitment to be 
        flexible in the face of uncertainty. One hundred percent of our 
        procurement can be employed either in a hybrid conflict or in 
        conventional combat.
  --Finally, while our current focus is rightly on today's fights, we 
        believe it is critical that we do not underestimate the need to 
        maintain the ability to gain access in any contested region of 
        the world.
    Seabasing and the Navy-Marine Corps Team.--With oceans comprising 
about 70 percent of the earth's surface and the world's populations 
located primarily on the coasts, seabasing allows our Nation to conduct 
crucial joint operations from the sea.
  --Seabasing is a capability and a concept. It is the establishment of 
        a mobile port, airfield, and replenishment capability at sea 
        that supports operations ashore. In effect, seabasing moves 
        traditional land-based logistics functions offshore.
  --From the sea, U.S. forces will be able to conduct the full range of 
        military operations, from disaster relief and humanitarian 
        assistance to irregular warfare and major combat operations. 
        Sea-based logistics, sea-based fire support, and the use of the 
        ocean as a medium for tactical and operational maneuver permit 
        U.S. forces to move directly from sea to objectives ashore.
  --There are misperceptions that the United States has not conducted 
        an amphibious operation since Inchon during the Korean War in 
        1950. Since 1982, our Nation has conducted more than 100 
        amphibious operations. For example, the Navy-Marine Corps Team 
        has been on the scene in Bangladesh (1991), the Philippines 
        (1991), Liberia (1996), and East Timor (1999).
    --After 9/11, U.S. amphibious forces, from a seabase, led the first 
            conventional strikes against the Taliban in Afghanistan.
    --In 2004, the 15th Marine Expeditionary Unit was on station in 
            Southeast Asia to support the relief efforts after the 
            Tsunami.
    --In 2005, from a seabase in the Gulf of Mexico, the Navy and 
            Marine Corps supported recovery efforts after Hurricane 
            Katrina.
    --In 2009, off the coast of Somalia, when pirates boarded the 
            Maersk Alabama, the 13th Marine Expeditionary Unit and the 
            U.S.S. Boxer were on station to support the counterpiracy 
            operations.
  --Last month, with Haiti's airfield overwhelmed and their seaport 
        disabled by wreckage following the earthquake, the U.S.S. 
        Bataan Amphibious Ready Group and the 22nd Marine Expeditionary 
        Unit provided a significant and sustainable delivery of food, 
        water, and other supplies without the logistical burden ashore.
Seabasing--Maritime Prepositioning Force (MPF) Enhancements
    Critical to seabasing are the logistics vessels of the Maritime 
Prepositioning Force. As discussed in the Long-Range Plan for Naval 
Vessels, we have restructured our Maritime Prepositioned Force (Future) 
program and will enhance the current capabilities of each of our three 
existing Maritime Preposition Force Squadrons.
    One mobile landing platform (MLP), one Large Medium-Speed Roll-on/
Roll-off (LMSR) ship, and one Lewis and Clark class (T-AKE) cargo ship 
will be added to each squadron of the MPF.
    The MLP will interface with the LMSRs, which are being added to 
each MPF squadron from fiscal year 2009-11, thus providing the 
capability to transfer cargo while at sea and making each MPF squadron 
highly responsive to demands across the full-spectrum of operations.
    In summary, as the security environment grows more complex, so does 
the value of amphibious forces.
    Expeditionary Operations in the Littoral Domain.--The littoral 
domain is where the land and sea meet. This is where seaborne commerce 
originates and where most of the world lives. Littorals include 
straits--strategic chokepoints that offer potential control of the 
world's sea lanes of communication. The Navy-Marine Corps team and the 
vitality of the amphibious fleet is critical to overcoming anti-access 
challenges in locations along the coastlines of the world where there 
are no American military forces or basing agreements.
  --The QDR emphasized the need for U.S. naval forces to be capable of 
        robust forward presence and power projection operations, while 
        adding capability and capacity for working with a wide range of 
        partner navies. Amphibious forces are perfectly suited for 
        engagement and security force assistance missions, as well as 
        humanitarian missions such as are ongoing in Haiti. In short, 
        the strategic rebalancing directed in the QDR places high 
        demands on our amphibious forces.
  --Given the fiscal constraints facing the Department of the Navy, the 
        Secretary of the Navy, Chief of Naval Operations, and I agreed 
        that 33 amphibious ships represents the limit of acceptable 
        risk in meeting the 38-ship requirement we established in a 
        letter to the committee on January 7, 2009.
  --We currently have a 31-ship force in the U.S. amphibious fleet. The 
        Long-Range Plan for Naval Vessels projects a 33 ship amphibious 
        inventory in the near-term.
  --With a robust inventory of amphibious ships the Navy-Marine Corps 
        team will be able to:
    --Better address the growing steady state combatant commander 
            requirement for theater security cooperation, forward 
            presence, and crisis response.
    --Strengthen our Nation's relations with allied and partner 
            countries through peacetime engagement and training 
            exercises.
    --Better ensure our Nation is ready to respond with humanitarian 
            assistance when disaster strikes anywhere around the globe.
    --In the event of major conflict, improve our response time to gain 
            theater access with combat forces without having to rely on 
            basing agreements with foreign governments.
  --Finally, to clarify any misperceptions about the numbers of 
        amphibious ships cited in the 2010 QDR Report, those numbers of 
        ships are neither shipbuilding requirements nor targets; they 
        are simply statements of the amphibious ship numbers across the 
        fiscal year 2011-2015 future years defense program.\9\
---------------------------------------------------------------------------
    \9\ Department of Defense, Quadrennial Defense Review (QDR Report) 
(Washington, DC: Feb. 2010), p. xvi, 46.
---------------------------------------------------------------------------
Training, Education, and Professional Development
    ``Two-Fisted Fighters''.--The QDR Report calls for increased 
counterinsurgency capacity in the general purpose forces of the United 
States.\10\ The Marine Corps has long recognized the special skills 
required to operate with host nation forces and among local 
populations. Evidence of this dates back to the Marine Corps 
publications of Small Wars Operations (1935) and the Small Wars Manual 
(1940), both comprehensive texts on counterinsurgency operations and 
irregular warfare. Today, through standing Marine Corps organizations 
such as the Center for Advanced Operational Culture Learning and the 
Center for Irregular Warfare, and programs such as the International 
Affairs Officers Program, we continue to build capacity in foreign 
language, and regional and cultural skills.\11\
---------------------------------------------------------------------------
    \10\ Department of Defense, Quadrennial Defense Review (QDR Report) 
(Washington, DC: Feb. 2010), pp. 20-26.
    \11\ Each year, the Marine Corps selects officers for the 
International Affairs Officer Program, which consists of two 
professional tracks: Foreign Area Officer (FAO), and Regional Area 
Officer (RAO). The International Affairs Officer Program provides 
graduate-level study and language training for nine geographic areas. 
There are 329 international affairs officers on active duty (262 FAOs, 
67 RAOs). The officers in this program possess advanced knowledge and 
expertise in the language, culture, and political-military affairs of a 
given region. Since 2008, the Marine Corps has doubled the number of 
accessions in the FAO program, and accessions will continue to increase 
through 2015. Moreover, the Marine Corps provides mid-grade officers 
(major--lieutenant colonel) for the Afghanistan-Pakistan (AFPAK) Hands 
Program. Our current requirement is to provide 63 officers--three 
cohorts of 21 officers each.
---------------------------------------------------------------------------
    Leadership Development.--We recognize the need for a diversity of 
skills and specialties, and our standing guidance to promotion, 
command, and special selection boards is to give due consideration to 
personnel with special skills and non-traditional career patterns.
    Marine Corps University.--Annually, a percentage of Marine Corps 
officers from the rank of captain through colonel attend year-long 
resident courses in professional military education at Marine Corps 
University in Quantico. The Marine Corps University is regionally 
accredited to award postgraduate degrees and, in 2009 alone, University 
schools awarded 200 master's degrees.\12\
---------------------------------------------------------------------------
    \12\ The Marine Corps also has a separate, voluntary graduate 
education program, through which officers attend Naval Postgraduate 
School and other secondary institutions to obtain advanced degrees. 
There are 300 officer billets in the Marine Corps that require master's 
degrees. The Marine Corps also maintains an active fellowship program.
---------------------------------------------------------------------------
  --Facilities are an integral part of supporting professional military 
        education. To that end, the Marine Corps fiscal year 2011 
        military construction budget request includes funding for 
        additions in Quantico to the General Alfred M. Gray Research 
        Center and the Staff NCO Academy. These projects will support 
        our plan to upgrade the infrastructure of the Marine Corps 
        University.
    Acquisition Professionals.--The Marine Corps has an active 
acquisition professional program in place to meet the need identified 
in the QDR ``for technically trained personnel--cost estimators, 
systems engineers, and acquisition managers--to conduct effective 
oversight.'' \13\ There are about 520 acquisition billets in the Marine 
Corps--400 are entry and mid-level positions filled by enlisted Marines 
and officers, and 120 are senior-level acquisition professional 
positions filled by field grade officers who oversee our major ground 
and aviation programs. Our acquisition professional officers are 
members of the Defense Acquisition Community; they possess Level II 
certification, four years of acquisition experience, at least 24 
undergraduate credit hours in business.
---------------------------------------------------------------------------
    \13\ DOD, QDR, p. 76.
---------------------------------------------------------------------------
    Future Realignment of Marine Forces in the Pacific.--The 
governments of the United States and Japan have agreed to invest in a 
realignment of forces that will result in Marine Corps forces postured 
in the Pacific for a long-term presence on Japan, Guam, and Hawaii. 
Critical requisites to the implementation of this realignment are:
  --Japanese construction of a replacement for Marine Corps Air Station 
        Futenma that meets both operational and safety requirements.
  --An appropriate force laydown that supports the operational 
        requirements of the Commander, U.S. Pacific Command.
  --Adequate available airlift and sealift within theater to transport 
        Marines to training areas and partner countries.
  --Adequate training areas and ranges in Guam and the Northern Mariana 
        Islands that can maintain readiness as well as support security 
        cooperation with our regional partners.
  --An enduring, sustainable ``live where you work,'' base on Guam that 
        maximizes operational effectiveness, minimizes encroachment, 
        accommodates future development, and provides a quality of life 
        on Guam commensurate with any other U.S. base.
  --Continued political and financial support by the governments of the 
        United States and Japan.
    Refined planning and staff interaction processes within the 
Department of Defense have made significant contributions to our 
efforts to align these requirements. Planned and executed properly, 
this realignment effort will result in an enduring solution that 
provides forward deployed combat ready Marine forces to uphold our 
Nation's commitment to the security and stability of the Pacific 
region.
    Energy and Water Initiatives.--We believe energy and water are two 
of our Nation's most valuable resources. We are focused on improving 
our stewardship at our installations and on the battlefield.
  --Our Installations.--We have already gained efficiencies and 
        achieved savings at all our major installations. We have three 
        major goals:
    --From 2003-2015, reduce energy consumption by 30 percent.
    --Through 2020, reduce water consumption by 2 percent per year.
    --By 2020, increase the use of alternative energy at our 
            installations to 50 percent of the total energy consumed.
  --On the Battlefield.--Operations in Afghanistan have forced us to 
        reevaluate energy and water distribution and usage in 
        expeditionary environments. We believe the future security 
        environment will again require the Marine Corps to operate over 
        long distances in austere environments, and we are actively 
        pursuing a wide range of solutions to:
    --Lighten the combat load of our Marines and Sailors.
    --Reduce our overall footprint in current and future expeditionary 
            operations.
    --Lessen energy consumption and dependence on fossil fuels.
    --Achieve resource self-sufficiency in expeditionary environments.
                               conclusion
    As a naval expeditionary force in the form of an elite air-ground 
team, the Marine Corps is ready and willing to go into harm's way on 
short notice and do what is necessary to make our country safe. America 
expects this of her Marines. In the complex and dangerous security 
environment of the future, the Marine Corps stands ready for the 
challenges ahead. We appreciate the continued support of Congress. 
Thank you again for this opportunity to report on the posture of your 
Marine Corps.

                       PRESIDENT'S BUDGET REQUEST

    Chairman Inouye. I will be submitting questions of a 
technical nature on weapons systems and ships, but I'd like to 
ask some broad questions.
    Mr. Secretary, you spoke very generously on the good things 
that we are providing, but I'm certain you have challenges. I'd 
like to know if you're really satisfied with the budget 
request.
    Mr. Mabus. Mr. Chairman, we are exceptionally satisfied 
with this budget request. We believe that the budget that has 
been submitted will allow us to do all the missions that we 
have been tasked to do. It will allow us to buy the equipment 
that we need for those missions. It will allow us to maintain 
the equipment that we have today, to make sure that it reaches 
the end of its lifecycle.
    The budget request that we have in, over the next 5 years, 
will buy, as the CNO said, an average of 10 ships per year, 
beginning to move our fleet toward the level that we believe it 
needs to be. In aircraft procurement, a little over 1,000 
aircraft over the 5 years to meet those requirements. In terms 
of people, this budget meets the needs for taking care of our 
sailors and marines, both in terms of deployed missions and 
also in terms of their families at home station. It also takes 
care of the research and development needs that we have to 
pursue to make sure that we continue to be at the forefront of 
new technologies and emerging weapon systems.
    So, we believe this is a very good budget. We believe that 
it will allow us to do everything that we need to do, and we 
believe that it was constructed using--making some hard 
choices, but making them in a way that ranked priorities and 
that all our high priorities have been met.
    Chairman Inouye. I'm pleased to listen to your response. It 
makes us feel better.

                               SHIP COUNT

    But, if I may ask the Admiral--I come from a State 
surrounded by the ocean, so Navy has been part of my life. And 
I recall, not too long ago--that about 25, 30 years ago--we 
were speaking of a 600-ship Navy. Now you have a 313 ship-for-
tomorrow's Navy. But, the Navy is all over the globe. In fact, 
just a few weeks ago, I was in Afghanistan, and there I saw 
Navy personnel--sailors and officers--right in the middle of 
Afghanistan, running a hospital, training troops.
    Do we have enough ships? Do we have enough equipment for 
all of these activities all over the world?
    Admiral Roughead. Thank you, Senator.
    And, as you pointed out, the objective that we have for the 
fleet size is of what I call the ``floor'' of 313 ships. Right 
now, we have 286. The shipbuilding program puts us on the 
trajectory to get to that 313 ship floor that is--that 
addresses the many needs that our Navy has around the globe. If 
we meet that floor of 313, I'm comfortable that we will be able 
to address the Nation's requirements.
    That said, that 313 ship floor must be of the proper 
balance to be able to meet the mission requirements, not just 
with the largest capital ships, such as our aircraft carriers, 
but the value that our submarine force provides is 
extraordinarily important. The amphibious ships that support 
our marines in their operations, that can also be used for some 
humanitarian activity, when we're called upon to do so, as we 
have been, seemingly, every year in the last decade. But, it's 
important to get to 313 ships. That will give us the capacity 
we need, but the balance must be right, to give us the 
capabilities that we need.

                                SUICIDES

    Chairman Inouye. The subcommittee's very impressed by your 
recruiting and retention numbers, but I must say, honestly, 
that we were set back a little when we read the numbers on 
suicides. Do you have anything to tell us about that?
    Admiral Roughead. Yes, sir. Suicide is a problem that all 
the services deal with. Indeed, I think society deals with.
    While it's too early, I think, to call it a trend, as a 
result of some of the programs that we have put in place, the 
engagement with leadership over the past few months, starting 
in January, we've seen some very encouraging signs, as suicide 
numbers in the Navy are not replicating what we had last year. 
In January, in our Active Force, we did not have a suicide. 
February--we are down from February of a year ago, and I can 
say the same for this year. But, it is something that requires 
a great deal of attention.
    The Navy's demographic is somewhat different, in that our 
suicides tend to be more senior. But, they have a common 
thread, for the most part: personal problems, personal issues. 
Mix the use of alcohol in with that and a firearm, and you have 
homed in on about 74 percent of our suicides. We are going to 
be relentless in getting at this problem. But, I do see some 
encouraging signs in where we have gone in the last few months 
in the Navy.
    Chairman Inouye. So, the suicide rates are not necessarily 
based upon deployment.
    Admiral Roughead. No, sir. And in our case, they are not 
necessarily driven by deployments. We've been looking for 
various correlations. As I mentioned, our demographic of 
suicides seem--they seem to be more senior, not necessarily 
deployment driven. However, if there is a suicide relative to a 
deployment, it--a higher probability occurs within 6 months of 
return. But, for the most part, ours are not a function of 
deployments. In many instances, we have young men and women who 
take their lives who have not deployed. So, we're looking at 
all the possible drivers and methods to get at this issue.

                 MARINE CORPS RECRUITING AND RETENTION

    Chairman Inouye. Thank you very much, Admiral.
    And, General, if I may. We're very much impressed by the 
activities of the Marine Corps. You're all over the globe.
    General Conway. Yes, sir.
    Chairman Inouye. You're in Haiti, you're in Afghanistan. 
But, yet, you're having no problems with recruiting and 
retaining. What's your secret?
    General Conway. Sir, I think there's a culture there that 
we provide to some very incredible young men and women in our 
country that simply makes them want to become marines.
    I--as I mentioned in my opening statement, the biggest 
problem I have, as the Commandant, is trying to find a way to 
get about 190,000 other marines who want to go to Afghanistan, 
to Afghanistan. And those are the nature of the people that we 
seem to attract.
    We work hard at it. I'll say that. We've got some 
tremendous recruiters in the field. I would in no way discount 
their efforts. We're tied into a very good advertising agency 
in New York City that's been with us now for, I guess, close to 
60 years.
    But, I just have to think, sir, that there's a great young 
strain of Americans out there that see the need to defend their 
country's vital interests, and are more than willing to step up 
to do so.

                   MARINE CORPS RESET/RECONSTITUTION

    Chairman Inouye. I note that, in your resetting and 
reconstituting of the Marine Corps, it's getting bigger, for 
one thing, and having different missions. Are you having 
problems with that change?
    General Conway. Sir, to the extent that we're not staying 
up with our equipment, we are. As I referenced in my opening 
statement, we have what I would call a ``rolling requirement.'' 
In other words, every day that we're in a fight in Afghanistan 
now, we're going to have equipment damaged, equipment that is 
undergoing some tremendous usage rates and those manner of 
things. There's equipment density there that we just have not 
seen before in previous conflict, based upon what we now would 
call our ``distributed operations'' that we're conducting today 
over large areas of landmass.
    Those marines at the point of the spear will have 
everything they need. But, in the process, the bill payers, 
which, for the most part, are our base and station units at 
home, are starting to see some real concerns with regard to the 
readiness rates.
    Congress has been, I think, generous in the past, it's fair 
to say. We were kept at about 75 percent of that requirement 
over the previous years. Today we're only at about 50 percent. 
Congress has told us that, when we are finished with that fight 
in Afghanistan, and, God forbid, any others, that there will be 
a 2- or a 3-year period where we can get healthy again, both 
the Army and the Marine Corps, principally, with regard to our 
equipment sets.
    But, I'll paraphrase my Secretary and say that I think our 
Nation is going to face hard choices at that point, based upon 
the national fiscal picture. And I would advocate, sir, that, 
before that time, starting as soon as possible, that we try to 
get caught up again and essentially do in-stride kinds of reset 
and reconstitution of our equipment sets.
    Chairman Inouye. Well, thank you very much.
    Senator Cochran.

                               TECHNOLOGY

    Senator Cochran. Mr. Chairman, thank you.
    Mr. Secretary, there is a lot of pressure on the budget, 
because of modernization efforts and things that are being 
planned to make our Navy and Marine Corps team more 
sophisticated, with newer component parts and advanced systems 
for both reconnaissance and combat activities that may be 
required of these services. What is the status of some of our 
efforts to take advantage of new technologies, like composites 
and polymer science initiatives, that provide us with more 
modern coatings for ships, and efficient operations? Is this 
something that is a part of our R&D effort that's funded in 
this budget? Or is more money needed to be appropriated for 
these kinds of activities to make us more modern and capable?
    Mr. Mabus. Senator, this--those kinds of activities are 
funded in this budget, and I'll give you some--a few specific 
examples of that.
    One is on energy savings, energy efficiency. We've done a 
lot of work and are continuing to do work on hull coatings and 
hull technologies, and particularly in the polymer area. When 
you combine that with some stern flaps and missions planning 
tools, you can cut down the use of fuel on our ships pretty 
substantially. The DDG 1000 program has a completely composite 
superstructure, for example. We're looking at other ways to use 
those sorts of technologies.
    The move toward polymers, toward different sorts of 
materials that are stronger, more resilient, that can withstand 
different sorts of pressures, is one of the focuses of what we 
are doing. It is--as always, the challenge is to make those 
requirements come into the budget and to--and one of the ways 
we're trying to do that is--as new technologies such as this 
come forward--is to incorporate them into existing designs, 
into existing hull forms, so that we don't have new ship 
classes coming out with the resultant more expensive first and 
second ships in the class.
    But, to finish the answer, things like new advances in 
polymers, and all across the spectrum of science, are something 
that we're focused on. We're asking for a little over $17 
billion in fiscal year 2011 to continue the R&D in all sorts of 
areas, but polymers is certainly one of those.
    Senator Cochran. General Conway, I recently had an 
opportunity to be briefed and see a--some demonstration 
techniques of new bullet-resistant vests and body armor, I 
guess you could call it. It didn't look like old-timey armor. 
You didn't--you couldn't tell by looking at the material that 
it had the capability of resisting injury from fired weapons. 
Is this something the Marine Corps is involved in? And to what 
extent are our troops benefiting from research and development 
of new capabilities for defense of this kind?
    General Conway. Sir, the short answer to your question is 
that we're heavily involved in it. And as an adjunct to, again, 
the Secretary's answer, we are branching out, as it pertains to 
our equipment, to try to accomplish better sets of gear through 
advanced technology. And I'll give you two or three examples.
    We have endeavored to find a helmet, since I've been the 
Commandant, that will stop 7.62 caliber rounds, which is the 
enemy's primary rifle bullet. We're close, but we're not there 
yet. And yet, it is, in many regards, my number one procurement 
priority. It's simply a matter of technology and industry being 
able to put the polymers together, we think, and make it work.
    Now, to your point on protection in vests. We have, now, 
what we call ``small arms protective insert (SAPI) plates.'' 
There's an enhanced SAPI plate, and there's even an X-SAPI out 
there that will stop, supposedly, Chinese ceramic bullets. 
Well, sir, I've never seen a Chinese ceramic bullet, and we're 
not willing to forego the weight that that extra plate would 
create. So, we're looking for lightweight kinds of 
technological advancement that will, ideally, be flexible and 
give us the same level of protection that we have today in 
these fairly heavy and very rigid plates.
    Another area is the joint light tactical vehicle. It was 
going to be light because it was going to have new age armor, 
as opposed to plated steel. And yet, again, for all of the 
expense and resources that we apply against it, industry tells 
us that we're probably still 5 years away from that type of 
development.
    So, sir, we're pushing hard for those things that we think 
will enhance the force, but in some ways, the science is just 
not there.
    Senator Cochran. Well, we don't want to drop the ball here 
on this side of the table, either. If we need additional 
funding or some priority readjustments, we hope you'll 
communicate that with us in the appropriate way.
    General Conway. Thank you, sir.

                    SHIP COUNT/MISSION REQUIREMENTS

    Senator Cochran. Admiral Roughead, you had experienced that 
on the Mississippi gulf coast, I know, when you were commanding 
officer of a ship that was built at Ingalls, when we first got 
to meet you, and we appreciate your distinguished service as 
Chief of Naval Operations.
    Now, what is the status of the readiness of our ship -- the 
obligations and needs of our Navy vessels? Do we have enough 
ships? Is our construction schedule sufficient to enable us to 
carry out our responsibilities around the world?
    Admiral Roughead. Thank you, Senator.
    And I would say that, until we get to the floor of 313 
ships, we're going to be pressing the fleet that we have today 
pretty hard, as we currently are doing. But, the shipbuilding 
program that we have presented to this subcommittee puts us on 
that proper trajectory.
    I would say that there are two elements in there that are 
key to the future. One is the restart of the DDG 51 class 
destroyer. That allows us to address the ballistic missile 
threats that are proliferating around the world, as well as the 
more advanced cruise missiles. The restart of that class of 
ship gives us the capabilities we need, and then it allows us 
to backfit that rather large class. So, now we have the 
capacity that is so very important, and then--and we have the 
capability that's there.
    The other element that's going to be extremely important is 
that we get to a good, quick, clean down-select, so that we can 
begin to produce littoral combat ships in the numbers that we 
need to meet the obligations that we have around the world. 
That ship, whatever design it may be, is going to be a 
workhorse for us, and it will generate the numbers that we 
need.
    I'm also very pleased that this year's budget starts the 
production of two Virginia class submarines a year. Submarines 
remain in great demand. Submarines are a capability that gives 
us a cutting edge in naval warfare, and the Virginia class 
submarine that we're building now is an extraordinary 
submarine.
    But, I would also say there's something more that gets to 
force structure, and that is our operation and maintenance 
account. It's all very interesting to look at how many ships 
we're buying and building a year, but if we do not maintain the 
fleet that we have today, then those numbers will be 
disappearing from the books faster than we expected, and our 
fleet size will begin to drop off. And that's why it's 
important that we properly fund the fleet that we have today, 
with our operation and maintenance accounts.
    I'm a fleet sailor, and I have paid a great deal of 
attention, since becoming the CNO on what does it cost to 
maintain the fleet that we have today, to get the life we need, 
to get the readiness that we need, and not put work on the 
backs of our sailors because we're not properly funding 
shipyard maintenance. And so, this year's budget has a 
significant increase in it. That increase is the cost that we 
need to maintain the fleet that we have today. And that is 
something that I ask for your strong support in, sir.
    Senator Cochran. Well, thank you very much for your 
leadership and your response to our questions.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Bond.

                                AVIATION

    Senator Bond. Thank you very much, Mr. Chairman.
    Mr. Secretary, I applaud your statement about demanding on-
time, on-budget acquisition, that you would terminate a program 
that was substandard or with a cost escalation, much as I said 
in my opening statement, quoting the Secretary of Defense. I 
trust that you either watch or read the transcript of the F-35 
hearing held last Thursday. Stated many times by witnesses 
that, best-case scenario, ``if everything goes perfect,'' the 
Navy's JSF will be in initial operating capability, IOC, in 
2016. It was also stated that the Navy Strike Fighter shortfall 
of 100 is no longer accurate, since the JSF restructuring plan. 
And as far as budget--cost escalation, I believe an accurate 
cost accounting would show that the JSF not only has breached 
the initial threshold of Nunn-McCurdy, but will have gone past 
it. If it hasn't, it will be soon. When you're taking 
production dollars to go into continued testing, something is 
very wrong. And knowing these facts, do you think the Navy need 
only purchase F/A-18s on a year-by-year, case-by-case basis, or 
would it better to enter into a multiyear contract which would 
save hundreds of millions of dollars for American taxpayers?
    Mr. Mabus. Thank you, Senator.
    Because of the--what Congress has provided to the Navy in 
fiscal year 2010, in terms of F/A-18s, both E, Fs, and Gs, and 
our budget request, which, counting fiscal year 2010, is for 
124 F/A-18 E, F, and Gs, we received, the last week of 
February, a proposal from the contractor for a multiyear 
procurement. Congress had allowed us to look at a multiyear 
procurement on the F/A-18. That proposal, on its face, met the 
10-percent savings requirement for a multiyear, but it is, 
right now, in--looking at the details to make sure that the 
requirements are met, it's with the Cost Analysis and Program 
Evaluation Office in DOD. Assuming that those thresholds for a 
multiyear procurement are met, we would be very eager to enter 
into a multiyear, and we'll be coming back to Congress to ask 
for permission to do that, assuming those thresholds are met.
    Senator Bond. Thank you very much, Mr. Secretary.
    I think the only requirement that Congress would put on you 
is substantial savings. I don't know--I believe that 10 percent 
is a figure that the Defense Department has come up with; I 
don't think it is a statutory requirement. But, in any event, 
so long as you would see a substantial savings, I would think 
it would be a good investment.
    Admiral, given the conditions of last year and the TACAIR 
shortfall, if you don't continue, with major purchases of the 
F/A-18s, to address the shortfall, what will the shortfall for 
the Navy's carriers be by about 2015 or some period along in 
there? Do you have that information?
    Admiral Roughead. Yes, sir. We're still looking at the 
shortfall of being in that area, around 100. And the reason I 
say that is that, even though we have slipped the JSF in what 
appears to be a calendar slip of 2 years--2014 to 2016--it 
really looks to be about 13 months, because we're going from 
December 2014 to January 2016. That still allows us to deploy 
the Joint Strike Fighter in 2016, as we planned. It deploys 
first on one of our Pacific Fleet carriers. But, we're 
continuing to look at the Joint Strike Fighter production.
    We, in the Navy, have somewhat of an advantage, because 
we're the third service in line to get it. So, a lot of the 
testing that will go forward early on Joint Strike Fighter, 
we'll be benefiting from that. And we're looking at getting the 
IOC in January 2016.
    Senator Bond. It's interesting you say that, because last 
year at Souda Bay, I talked with a master chief petty officer 
who was very familiar with it, and he thought that the JSF will 
never operate off of a carrier, because of the backblast and a 
lack of operating--of area to service the airplane. So, I think 
the testing is continuing, but I think there's a final question 
of whether it will work on shipboard.
    Now, I know that there's been a proposal for service-life 
extension. And are you considering that? I gather it will add 
only about 1,400 hours to an older Hornet, which is at $26--
$18--$12 to $26 million, it would be about one-half of a Super 
Hornet. If you're considering a service life extension program 
(SLEP), isn't a purchase of a new aircraft a better option, 
better bargain for the taxpayers?
    Admiral Roughead. Senator, if I could just touch on the--
comment on the Joint Strike Fighter on the carrier. Our 
carrier--the carrier variant of the Joint Strike Fighter is 
compatible with carrier operations. I think the chief may have 
been talking about the short takeoff and landing aircraft. But, 
our carrier variant is compatible. We may have to make some 
adjustments to the jet-blast deflector that we use in the 
launch of the airplane, but it's compatible.
    With regard to the Service Life Extension Program, as we go 
into the 2012 budget, we're going to be taking a very, very 
close look at the--managing the strike fighters that we have. 
SLEP is where I'm going to be looking, because I can generate 
more strike fighters at less cost for a period of time to do 
that. And that's something that we're going to be getting into 
in the 2012 budget.
    Senator Bond. Well, we appreciate that you're looking at 
that.
    And, Mr. Chairman, I'd like to submit for the record, a 
letter I have written to the Secretary of Defense today which 
addresses these issues that I have raised.
    And I thank you very much.
    Chairman Inouye. So ordered.
    Senator Bond. Thank our witnesses very much.
    [The information follows:]
                                                    March 17, 2010.
The Honorable Robert M. Gates,
Secretary of Defense, The Pentagon,
Washington, D.C. 20301-1000.
    Dear Mr. Secretary: On February 26, 2010, the Department of Defense 
(DOD) wrote to the Senate Appropriations Defense Subcommittee its 
intentions to explore a multi-year procurement agreement for the 
purchase of F/A-18 series aircraft for fiscal years 2010 through 2013. 
I applaud the Department of the Navy for considering a multi-year 
procurement, a prudent move that would prevent the Navy from having 
empty carrier decks, save hundreds of millions in valuable taxpayer 
dollars, and maintain the strength of the United States defense 
industrial base.
    As you know, the F/A-18 Hornets and Super Hornets are the backbone 
of the carrier-based strike fighter aviation fleet. These aircraft are 
providing support for our warfighters through close air support 
missions to ground forces with an unmatched deterrent capability. The 
F/A-18 aircraft continues to be the Navy's only strike fighter with 
advanced air-to-ground and air-to-air operational capability. The 
continued procurement of these aircraft is necessary to continue the 
Navy's warfighting operations.
    The majority of the F/A-18 Super Hornet aircraft have been 
purchased under two, multi-year procurements this past decade. With 
significant savings achieved from long-lead production and higher 
procurement rates, these agreements saved hundreds of millions of 
taxpayer dollars compared to more costly single-year procurements. The 
Navy's own estimate stated that the multi-year procurements from fiscal 
year 2000 through fiscal year 2009 resulted in over $1.8 billion in 
savings. A third multi-year procurement agreement could save hundreds 
of millions more in taxpayer dollars, all of which could be applied to 
other pressing defense requirements.
    A third multi-year procurement for the F/A-18 Super Hornet aircraft 
also would ensure that the defense industrial base for tactical 
aviation is maintained through at least fiscal year 2013. In order for 
the United States military to maintain its current air dominance, the 
skills and experience of the aviation manufacturing sector must be 
protected for as long as possible into the future rather than 
curtailed.
    I strongly urge that you and the Department of the Navy take 
aggressive steps to enter into a multi-year procurement for the F/A-18 
Super Hornet aircraft. I stand ready to assist you in that effort.
            Sincerely,
                                               Christopher S. Bond.

    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                          LITTORAL COMBAT SHIP

    Mr. Secretary, I'm going to get into the littoral combat 
ship that the Admiral alluded to. A lot of us are concerned, 
Mr. Secretary, that the pending request for proposal for the 
next 10 littoral combat ships does not appear to take 
capability and lifecycle costs into consideration. The upfront 
acquisition price of the LCS, I believe, must be balanced 
against total ownership expenditures, and neglecting to 
evaluate these criteria may result in an inaccurate picture of 
the total costs associated with each ship.
    I'm concerned, Mr. Secretary, about fuel efficiency, which 
is a big cost--you mentioned this earlier, over in the Armed 
Services Committee--being a critical factor of competitive cost 
evaluation. The two LCS designs are dramatically different in 
this respect, as you well know.
    Now, it's my understanding--if the request for proposal is 
not amended, it would appear that the acquisition would go 
forward in a direct contradiction to the statement that you 
made before the Senate Armed Services Committee on February 25 
that said, and I'll quote your words, ``I have also committed 
the Navy and Marine Corps to consider energy as a mandatory 
evaluation factor in contracting.'' I'd like to see the request 
for proposal (RFP) amended, if it needs to be, to include an 
evaluation factor that provides for the consideration, as you 
mentioned, of energy consumption costs in the valuation and the 
source selection decision.
    As my letter to you on March 12 of this year stated, I've 
asked the Congressional Budget Office to review and to address 
the total lifecycle costs of the LCS Program. We haven't gotten 
a response yet. Would you consider extending the April 12 
submission date, considering your statement to the Armed 
Services Committee and our request to the Congressional Budget 
Office regarding this? Because, what we want is the best vessel 
for the Navy. Isn't that right? And you have to consider all 
costs.
    Mr. Mabus. Thank you, Senator. Yes, sir, in terms of total 
ownership cost, the entire LCS was designed with that in mind. 
And we believe that the current RFP addresses the need for the 
Navy to get the best ship possible. Either variant, either LCS 
1 or LCS 2, meets all the requirements that the Navy has, in 
terms of operation. And in terms of total ownership cost, if 
you look at everything, from the manning of the vessel, which, 
as you know, is about 40 sailors for the core crew, and the 
other things that go into total ownership cost, if you look 
also at the way these ships are to be used--at the profile the 
speeds that they will be used at while they're at sea--where 
the fuel savings diverge is only at the very upper end of the 
speed of these ships.
    Senator Shelby. But, that could be a lot of money, could it 
not?
    Mr. Mabus. Well, the profile that we've developed for these 
ships is that they would be used very infrequently at such high 
speeds. And so, I think that the current RFP, which stresses 
the cost to purchase the ship so that we can get enough of 
these ships--and both variants, we believe, meet every 
requirement that we have, not only operationally, but also in 
terms of lifecycle costs, going forward.
    Senator Shelby. Mr. Secretary, where, in the request for 
proposal for the year 2010 LCS procurement, does the Navy 
consider the fuel differential in dollars between the two 
competing designs over the expected life of the program? Can 
you furnish this to me and for the subcommittee?
    Mr. Mabus. I'll be happy to furnish you the technical 
aspects of that RFP.
    [The information follows:]

    The request for proposal (RFP) for the littoral combat ship 
(LCS) fiscal year 2010 block buy procurement does not 
specifically consider the fuel differential in dollars between 
the two competing designs.
    The RFP includes an evaluation factor under the technical/
management category for Life Cycle Cost Reduction Initiatives. 
Since the inception of the LCS program, the Navy has focused on 
reducing both acquisition cost and life cycle cost in LCS class 
ships. In this regard, lifecycle cost considerations are 
emphasized in both designs through the Navy's requirements for 
reduced manning, open architecture and missing package 
modularity that have been key design parameters since the 
inception of the program. Total Ownership considers research 
and development costs, investment costs, disposal costs, and 
operating and support costs including maintenance, manning, 
training, fuel, and infrastructure support. Fuel costs are an 
important contributor to the estimated life cycle cost for each 
ship design, but are also highly dependent on the speed-time 
profile assumed for the LCS mission.

    Senator Shelby. That would be very interesting to get, 
because we're interested in the total lifecycle cost. And you 
stand by your words, do you not, before the Armed Services 
Committee?
    Mr. Mabus. Yes, sir.
    Senator Shelby. Okay.
    Mr. Mabus. And not only total lifecycle cost, in terms of 
manufacturing, but also what energy requirements the shipyards 
themselves use. That was the import of my words----
    Senator Shelby. Okay.
    Mr. Mabus [continuing]. Before the Armed Services 
Committee.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Kohl.
    Senator Kohl. Thank you very much, Mr. Chairman.
    Mr. Secretary and Admiral Roughead and General Conway, we 
thank you all for being here today.
    I'd like to congratulate the Navy on the successes the 
Marinette-built littoral combat ship, U.S.S. Freedom, has had 
in the Caribbean. It's already making a great contribution to 
the war on drugs, and you should be very proud; I know 
everybody in Wisconsin is.
    Just to review the previous questioning, Mr. Secretary, 
there are a lot of concerns being raised about the total 
ownership costs of the two competing LCS designs. And that, of 
course, is a fair thing to do, because we all want taxpayer 
dollars to be spent wisely. But, aren't long-term costs already 
a part of the criteria that you will be using to evaluate these 
designs, which does include fuel consumption? I think you 
responded to the previous question that way.
    Mr. Mabus. Yes, sir, that's correct.
    Senator Kohl. As far as fuel efficiency goes, don't you now 
have real data on the first LCS, Freedom, and its fuel 
consumption, not just estimates? Is the ship's fuel consumption 
about what you expected?
    Mr. Mabus. Yes, sir.
    Senator Kohl. Mr. Secretary, one of the concerns, as well, 
has been the experimental nature of the Austal ship design and 
use of aluminum as a building material. Aluminum is not 
traditional for Navy ships; it wears differently, and it melts, 
as we know, at lower temperatures. Compared to steel 
construction, how much experience does the Navy have estimating 
the maintenance costs, over decades, of aluminum ships? How 
much experience do you have evaluating the maintenance 
requirements Trimaran vessels?
    Mr. Mabus. In terms of aluminum, Senator, other ship types 
have been made out of aluminum for many years now. And looking 
at other ships that have been made this way, we have been able, 
we think, to look at what that will--what sort of maintenance 
will be required over time. And it's because of things like 
that that we think that either variant of these--of the LCS 
will meet all our requirements, both in terms, as I said, of 
operations and in terms of lifecycle costs and maintenance, as 
we go forward. We don't foresee any significant issues for 
either variant.
    And as the CNO said, and I want to echo this, it's crucial 
to us to get the cost of these ships down so that we can buy 
the numbers that we need. We, over the 30-year shipbuilding 
plan, propose to buy 55 of these. They have become one of the 
backbones of the fleet. And we're taking this exceptionally 
seriously, and we will pick the best ship for the Navy today 
and the Navy of the future.
    Senator Kohl. Thank you.
    Aren't aluminum ships, Mr. Secretary, more expensive to 
fix, in part because not all shipyards have welders, or enough 
welders, trained to work on aluminum?
    Mr. Mabus. My understanding, Senator, is that welding for 
aluminum and welding for steel are very similar, and that the 
training required to do aluminum could be done in a normal 
course of events.
    Senator Kohl. Finally, I'd like to say, in closing, that 
this is an argument, as we know, about cost, but one of these 
ships, because of its radical design and nontraditional 
material, I believe, makes it riskier and harder to determine 
the long-term costs. It seems, in a very real sense, that we're 
comparing apples and oranges.
    But, I thank you for your testimony. I thank you for your 
frankness and your interest and your concern in making the 
correct decision.
    Thank you, Mr. Chairman.
    Mr. Mabus. Thank you, Senator.

                          WOMEN ON SUBMARINES

    Chairman Inouye. Thank you very much.
    I have one further question.
    I participated in an ancient war many years ago, and in 
that war, the women I saw were nurses, far away from the combat 
zone. But, today we have women in all branches, in all areas, 
and I commend the Department of Defense for that decision. 
However, recently, I've been receiving e-mail and letters on 
the decision to assign women on submarines. May I have your 
thoughts on that, sir? Admiral?
    Admiral Roughead. Yes, sir. I believe that the initiative 
that we have put forth, and have made notification to the 
Congress, that it's our intent to incorporate women into our 
submarine force, is exactly the right thing to do. The young 
women who serve in the Navy today are absolutely extraordinary. 
There is great interest among the young women who serve, in 
joining our submarine force.
    In fact, just this past weekend, I was at a function, and a 
young woman came up and thanked the leadership for moving 
forward, and that she was putting in her papers to join.
    We have a very good plan to incorporate women into our 
submarine force, starting with our ballistic missile submarines 
and our guided missile submarines, the SSBNs and the SSGNs. The 
young women will begin in the officer ranks, attend nuclear 
power school, submarine school, and the plan has the first 
women coming aboard in 2011.
    The skill, the competence, the drive, the focus, and the 
dedication of the young women who serve today, I believe that 
this will enhance the capabilities of the force, and I look 
forward to being able to have this implemented before the end 
of 2011.
    Chairman Inouye. I thank you very much, and I congratulate 
you on your decision.
    Admiral Roughead. Thank you, sir.
    Chairman Inouye. Any further questions?

                     ADDITIONAL COMMITTEE QUESTIONS

    If not, Secretary Mabus, Admiral Roughead, General Conway, 
the subcommittee thanks you for your testimony today, and we 
thank you for your service to our country. And if we may, 
through you, thank the men and women in uniform who are willing 
to stand in harm's way in behalf of us.
    Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Ray Mabus
            Questions Submitted by Chairman Daniel K. Inouye
    Question. This year, the Navy began a major development effort on a 
new ballistic missile submarine to replace the aging Ohio-class. Nearly 
$6 billion is committed to designing the submarine over the next 5 
years, and the cost of each submarine is expected to be $7 billion.
    Secretary Mabus, the Navy's 30 Year Shipbuilding Plan projects an 
average of $15.9 billion in shipbuilding costs over the next three 
decades. What steps are being taken to insure that the new ballistic 
missile submarine will be affordable?
    Answer. Fiscal year 2011 funding continues the major U.S. 
investment in the Ohio-class replacement submarine started in fiscal 
year 2010. The key to an affordable future sea-based strategic 
deterrence fleet is the proper level of investment now in early design 
work and up-front critical research and development.
    Current efforts leverage a United Kingdom (U.K.) investment of $288 
million (fiscal year 2008-fiscal year 2010), and synchronize with the 
U.K. efforts to develop a Common Missile Compartment (CMC). Cooperation 
with the U.K. mitigates technical risk and contributes to reducing 
acquisition cost.
    The Ohio Replacement Program will also leverage design and 
construction lessons learned and ongoing cost reduction initiatives 
from the Virginia Class Submarine Program.
    The Navy is managing the shipbuilding portfolio as a business unit 
and is looking for ways to better leverage its buying power, such as:
  --Leverage cost savings and value creation on basis of broader 
        business arrangements across contracts and shipyards.
  --Evaluate each ship class and identify cost reduction opportunities 
        while balancing warfighting requirements, costs, and industrial 
        base realities.
  --Incorporate open architecture for hardware and software systems and 
        increase the use of systems modularity.
  --Emphasize repeat builds of ships, commonality, cross-program buys, 
        and design re-use to drive down costs.
  --Use contract incentives, such as multi-year procurements, fixed 
        price contracts, and other mechanisms to increase competition 
        at the vendor level.
    Question. Secretary Mabus, as you know, the Subcommittee has 
supported the Navy's decision to end procurement of the DDG 1000 
program and restart the DDG 51 program. I understand that in addition 
to restarting the DDG 51 program, the Navy now proposes to terminate 
the next generation cruiser in order to build an improved version of 
the DDG 51, the so-called Flight III.
    What are the industrial-base consequences of canceling the cruiser 
and instead building improved DDG-51's?
    Answer. The President's budget for fiscal year 2011 includes eight 
DDG 51 class ships, to be procured between 2011 and 2015. This 
shipbuilding plan, combined with the continued technology development 
of the Air and Missile Defense Radar (AMDR), offsets the industrial 
base consequences of canceling the next generation cruiser CG(X) and 
ensures stability for the industrial base in procuring future Navy 
surface combatants. CG(X) was envisioned to fulfill a critical role in 
Integrated Air and Missile Defense (IAMD). However, due to the ship's 
projected high cost and the immaturity of its combat systems technology 
and still evolving joint Ballistic Missile Defense (BMD) architecture, 
the Navy determined that it is not feasible to continue to pursue a 
new-design CG(X) procurement program at this time. The increased 
demands for additional capability and capacity in IAMD make it critical 
to pursue the technology development and combat system design for 
application on a future combatant.
    Question. Secretary Mabus, you listed alternative energy as one of 
your top priorities upon taking office. This Committee has added more 
than $54 million over the past 3 years to Navy alternative energy 
initiatives and similar amounts to the other Services as well. This 
does not even begin to count the many dozens of alternative energy and 
energy efficiency earmarks the Congress has approved in the same 
period, or the substantial amounts of alternative energy funding 
contained in the stimulus bill.
    Could you please describe to the Committee your top energy 
initiatives, and how the fiscal year 2011 budget supports your plan?
    Answer. In October 2009, I established five energy goals within the 
Department of Navy (DON) that would aggressively reduce the amount of 
foreign oil consumed by DON:
  --1. Acquisition Process Reform.--Evaluation factors when awarding 
        contracts for platforms, weapons systems, and facilities will 
        include lifecycle energy costs, fully-burdened cost of fuel, 
        and contractors' energy footprint;
  --2. Sail the ``Great Green Fleet''.--Demonstrate a Green Strike 
        Group in local operations by 2012 and sail it in 2016. The 
        Strike Group will be made up of nuclear vessels, surface 
        combatant ships using biofuels and hybrid electric propulsion 
        systems, and aircraft flying on biofuels;
  --3. Reduce Petroleum Use in Non-Tactical Vehicles.--By 2015, reduce 
        petroleum use by 50 percent in commercial fleet through use of 
        flex fuel vehicles, hybrid electric vehicles, and neighborhood 
        electric vehicles;
  --4. Increase Alternative Energy use Ashore.--By 2020, produce at 
        least 50 percent of shore-based requirements from alternative 
        resources and 50 percent of all Naval installations will be Net 
        Zero energy consumers;
  --5. Increase Alternative Energy Use Department Wide.--By 2020, 50 
        percent of total energy consumption will come from alternative 
        resources.
    The President's fiscal year 2011 budget request includes an 
additional $174 million to support these goals. The following describes 
this investment in detail:
Research, Development, Testing and Evaluation--$40.9 million
    $7 million supports the Naval variable cycle engine technology 
program, which is focused on optimizing aviation engine performance at 
all operational conditions. This energy efficiency effort supports 
goals 2 and 5.
    $13.6 million for the Hybrid Electric Drive. The operating 
efficiency/fuel savings for DDG 51 class ships will be achieved by 
employing fewer gas turbines for propulsion and ship service power 
generation while also loading gas turbines to their optimal operating 
condition. The Hybrid Electric Drive supports goal 2.
    $20.3 million will fund various energy conservation programs in 
support of goals 2 and 5:
    --$1 million to establish an Incentivized-Energy Conservation (I-
            ENCON) for aviation programs.
    --$1.2 million to support a fleet scheduler plan in the Naval Ship 
            Incentivized-Energy Conservation (I-ENCON).
    --$8 million to enhance F414 Engine Efficiency.
    --$3 million supports Aircraft Energy Efficiency Conservation R&D, 
            including:
      -- T-56 turbine, compressor, and inlet housing upgrades;
      -- Development and testing of F/A-18 E/F flight management 
            system.
    --$2 million supports the F/A-18 Bring Back Weight initiative to 
            certify F/A-18E/F & E/A-18G aircraft structures to increase 
            carrier bring back weight.
    --$2.9 million supports high energy efficient HVAC systems.
    --$2.2 million supports improvements to the LCAC hovercraft.
    In addition to the $40.9 million outlined above, the Office of 
Naval Research will invest $136 million in fiscal year 2011 for power 
and energy programs that directly and indirectly support my energy 
initiatives, including a PB 2011 energy initiative focused primarily on 
alternative energy and biofuels. This investment will support goals 2, 
3, 4, and 5.
Procurement--$4.2 million
    $2.1 million for Navy variant Environmental Control Units (ECUs) to 
provide improved generator capabilities (to reduce log tail in 
theater).
    $2.1 million for Onboard Vehicle Power capability to use vehicles' 
internal combustion engine to provide power for communication and 
auxiliary systems, situational awareness devices, environmental 
control, and other electric powered accessories.
    These efforts support goals 3 and 5.
Operation and Maintenance--$96 million
    Will fund advanced metering efforts, facilities energy efficiency 
upgrades, and continue energy audits, all in support of goals 4 and 5.
National Defense Sealift Fund--$3.3 million
    Includes Military Sealift Command's initiatives to include Energy 
Audits and evaluation of other technology currently being used by the 
shipping industry to more efficiently plan routes, monitor energy 
usage, realize cost savings for fuel burned reaching ships in theater. 
These efforts support goals 2, 4, and 5.
Military Construction--$30 million
    Three $10 million solar arrays will be constructed at MCRD San 
Diego, California; MCB Camp Pendleton, California; and MCB Camp 
Lejeune, North Carolina. These projects support goals 4 and 5.
    Question. Secretary Mabus, are there enough engineers and tradesmen 
trained in ``green collar jobs'' to support your goals for increasing 
energy efficiency and research into alternative power sources?
    Answer. Yes, I do believe there will be enough engineers and 
tradesmen trained in ``green collar jobs'' to support the ambitious 
goals I have announced within the Department of the Navy. Our Navy 
engineers and architects have years of experience incorporating 
sustainable principles such as the Leadership in Energy and 
Environmental Design (LEED) Green Building Rating System. As this new 
economy emerges, the Department of Labor is providing over $500 million 
in grants, as part of the American Recovery and Reinvestment Act 
initiative, to fund workforce development projects that promote 
economic growth by preparing workers for careers in the energy 
efficiency and renewable energy industries. Additionally at the 
Department of Veterans Affairs, a new program called Veterans Green 
Jobs (VGJ) is teaching returning veterans to become leaders in creating 
a more secure and sustainable future for the United States.
    All across the United States universities, community colleges, and 
vocational technical institutions, are developing curriculum to address 
this new and exciting field. This emphasis on Green Collar Jobs is 
being embraced in both the public and private sector. Businesses see an 
improvement in their bottom line, through energy cost savings and by 
going green, which causes a ripple effect throughout the supply system. 
By working together, and with the Department of the Navy taking the 
lead, the United States will move away from dependence on fossil fuels 
and move toward a more secure energy future.
    Question. Secretary Mabus, last year the Congress approved multi-
year procurement authority for the F/A-18 aircraft. What is Navy doing 
to follow up on that course of action?
    Answer. The Navy is actively working with the prime contractor and 
OSD to determine if sufficient savings are available through a multi-
year acquisition contract.
    As described in the February 26, 2010, letter from Deputy Secretary 
of Defense to the committees, within the last few months, the 
Department's procurement profile for the F/A-18 increased by 35 
aircraft and extended the final year of procurement from 2012 to 2013. 
The prime contractor provided a viable offer committing to a multi-year 
procurement on February 22, 2010. The Director, Cost Analysis and 
Program Evaluation (CAPE), is currently conducting a cost analysis of 
the potential savings of a multi-year versus single year procurement, 
as required by statute.
    If sufficient savings are identified, the Secretary of the Defense 
will certify to Congress the amount of savings and notify Congress of 
its intent to enter into a multi-year procurement (MYP). In addition, 
Navy is working with the committee staffs for legislative relief to 
fiscal year 2010 MYP language in National Defense Authorization Act and 
Defense Appropriations Bills.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. Secretary Mabus, there has been some advocacy for 
additional funding outside the normal shipbuilding budget to fund a new 
ballistic missile submarine fleet. If the Navy does not receive 
additional funding for the project in the coming years, do you foresee 
the $80 billion or more cost of the program forcing big shipbuilding 
cuts and triggering industry consolidations?
    Answer. Recapitalizing the SSBN force with funding from the SCN 
core budget will impact the Navy shipbuilding programs (fiscal year 
2019-fiscal year 2033). In total, the Department of the Navy's annual 
SCN and NDSF budgets average approximately $15.9 billion per year 
(fiscal year 2010 dollars) throughout the period of the fiscal year 
2011 Annual Long-Range Plan for Construction of Naval Vessels.
    Because of the expected costs for these important national assets, 
annual SCN budgets during the mid-term planning period (fiscal year 
2021-fiscal year 2030) will average about $17.9 billion (fiscal year 
2010 dollars) per year, or about $2 billion more than the steady-state 
30-year average. Even at this funding level, the total number of ships 
built per year will inevitably fall because of the percentage of the 
shipbuilding account which must be allocated for the procurement of the 
SSBN.
    As a result of the limited shipbuilding and the rapid retirement of 
ships built in the 1980s, after peaking at 320 ships in fiscal year 
2024, the overall size of the battle force is forecast to gradually 
fall, reaching 288 ships in fiscal year 2032.
    In the far-term planning period (fiscal year 2031-fiscal year 
2040), average SCN budgets return to about $15.3 billion (fiscal year 
2010 dollars) average per year. After the final order for Ohio class 
replacement in fiscal year 2033, the average inventory per year begins 
to rebound from a low of 288 ships in fiscal year 2032 to 301 ships in 
fiscal year 2040.
    The need to fund SSBN recapitalization will result in some risk to 
the Navy's shipbuilding plan. Given the expected challenges of the mid 
and far term periods, significant consideration must be given to 
ascertain the way ahead for the Navy. DON will have to consider 
operational demands that could change force structure requirements as 
well as inherent technology requirements of future platforms and the 
effect they have on platform cost. Additionally, we will need to 
complete an analysis of force structure requirements over the next 
decade as we get a better understanding of what threats and obstacles 
lie in front of us to determine what the complexion of the 2040 force 
ought to look like and the efficacy of the planned force in meeting 
those challenges.
    The Navy recognizes that stabilizing ship procurement to help 
sustain minimum employment levels and skill retention promotes a 
healthy U.S. shipbuilding industrial base.
    The Navy also recognizes that building the required force structure 
will largely depend on controlling shipbuilding costs (including combat 
systems) within an affordable range. The Navy is committed to 
maintaining stability in requirements, funding and profiles in an 
effort to control costs. This will require the combined efforts of the 
Navy and the shipbuilding and combat systems industries. Working in 
conjunction with Congress, the Navy will procure and sustain the force 
structure necessary to deliver the capabilities required of United 
States naval forces.
                                 ______
                                 
              Questions Submitted to Admiral Gary Roughead
            Questions Submitted by Chairman Daniel K. Inouye
    Question. Admiral Roughead, in December, the Congressional Research 
Service reported that the Department of the Navy will have a shortfall 
of 243 strike fighters in 2018. The Navy today is projecting a 
shortfall of about 100 aircraft toward the end of the decade. That 100-
aircraft shortfall assessment was made prior to the recent grounding of 
104 F/A-18s due to structural cracks. Could you address the steps that 
the Navy is taking to reduce the shortfall and the risks associated 
with that plan?
    Answer. The Navy is today projecting a shortfall of about 100 
strike fighters in the 2018 timeframe. Anticipating a shortfall, the 
DON continues to identify further opportunities to reduce its impact. 
The strike fighter shortfall can be mitigated through the application 
of the near and long term management actions. Examples are--the Marine 
Corps modifying it's F-35 transition plan by transitioning some Hornet 
squadrons earlier and leveraging the service life remaining in the AV-
8B fleet, the Navy accelerating the transition of five legacy F/A-18C 
squadrons to F/A-18 E/F and transitioning two additional F/A-18C 
squadrons to F/A-18E/F using the remaining attrition F/A-18E/F reserve 
aircraft, and reducing the Navy Unit Deployment Program (UDP) and USMC 
Expeditionary F/A-18A+/C/D squadrons from 12 to 10 aircraft per 
squadron. Although global demand may challenge implementation of some 
of these actions in the near term, changes in the operational 
environment in the future may allow additional flexibility in their 
implementation. As we go forward, we are considering all options to 
manage our inventory and balance risk, including SLEP to some number of 
F/A-18 (A-D) aircraft to extend their service life to 10,000 flight 
hours and optimizing depot efficiencies. SLEP analysis continues and 
will be addressed in the fiscal year 12 budget process.
    The Department of the Navy continues to rigorously manage the 
service life and warfighting effectiveness of each of our legacy 
Hornets, Harriers, and Super Hornets to ensure the maximum contribution 
to the nation's security for the taxpayer dollars invested.
    Question. This year, the Navy began a major development effort on a 
new ballistic missile submarine to replace the aging Ohio-class. Nearly 
$6 billion is committed to designing the submarine over the next 5 
years, and the cost of each submarine is expected to be $7 billion.
    Admiral Roughead, the Navy is working with Strategic Command to 
refine key decisions about SSBN-X. What have we learned about the 
needed capabilities of the submarine as a result of those reviews?
    Answer. The Ohio replacement will be a strategic, national asset 
whose endurance and stealth will enable the Navy and Nation to provide 
continuous, survivable strategic deterrence into the 2080s. Our Initial 
Capabilities Document (ICD) for our Ohio replacement identified several 
key attributes the submarine must have, including improved stealth, 
survivability, reliability, endurance, tailorability, and adaptability. 
To ensure there is no gap in our future strategic deterrent capability, 
the design process for the Ohio replacement started in fiscal year 2010 
to ensure sufficiently developed technologies and a mature design are 
in place to support lead ship authorization in fiscal year 2019.
    Question. Admiral Roughead, the Navy has historically assumed some 
risk in ship depot maintenance, while balancing resources and 
requirements across the Department's readiness portfolio. For the past 
8 years, the Navy has requested an average of 96 percent of the 
projected ship depot maintenance costs in any given year. However, in 
fiscal year 2011, the request level has jumped to 99 percent. 
Considering the limited resources available in all readiness accounts, 
please explain the Navy's decision to make ship depot maintenance a 
priority in fiscal year 2011, and whether the Navy will continue to 
fund it at the higher level in the future.
    Answer. Continued investment in depot level maintenance is 
essential in achieving and sustaining the force structure required to 
meet our global security interests. Our ships are capital assets that 
operate in challenging physical and security environments. Almost 
three-quarters of our current Fleet will still be in service in 2020. 
As a result of increased technical assessment, we have raised the 
priority of ship's depot maintenance, keeping the Fleet in satisfactory 
operating condition to preserve our ability to accomplish assigned 
missions and for the ships and aircraft to reach expected service 
lives.
    In May 2009, Navy established the Surface Ship Life Cycle 
Maintenance (SSLCM) Activity to provide timely depot-level maintenance 
determined by an engineered assessment of expected material durability 
and scoped by actual, not estimated, physical condition. The SSLCM 
Activity's engineering assessments of maintenance requirements for DDG 
51 and LSD 41/49 provided the technical foundation for our decision to 
increase maintenance funding in our fiscal year 2011 budget request. 
The SSLCM Activity is in the process of completing engineering 
assessment of maintenance requirements for the remainder of surface 
ship classes in the near term.
    Question. Admiral Roughead, what kind of actions is the Navy 
undertaking to reduce the reliance on supplemental funding for ship and 
aircraft depot maintenance?
    Answer. The Navy is currently engaged with the Office of the 
Secretary of Defense, Cost Assessment and Program Evaluation (OSD CAPE) 
to assess Navy's base and overseas contingency operations (OCO) funding 
needs as they relate to future requirements. Findings from this effort 
will serve as the basis for establishing a more refined apportionment 
between baseline and OCO funding requests for ship and aircraft depot 
maintenance.
    Question. Admiral Roughead, as you know, the Subcommittee has 
supported the Navy's decision to end procurement of the DDG 1000 
program and restart the DDG 51 program. I understand that in addition 
to restarting the DDG 51 program, the Navy now proposes to terminate 
the next generation cruiser in order to build an improved version of 
the DDG 51, the so-called Flight III.
    Could you give us an update on the status of the DDG 51 restart, 
explain why building an improved version of the DDG 51 is an adequate 
substitute for the cruiser, and why it is the right ship for the fleet 
in the future?
    Answer. We are well underway with restarting DDG 51 production and 
the restart is on schedule and on budget. A total of nine DDG 51 
restart hulls will be procured from fiscal year 2010 through fiscal 
year 2015, alternating between one per year and two per year beginning 
in fiscal year 2010. Our fiscal year 2011 budget requests funding for 
the construction of two ships: DDG 114 and 115. We are also in the 
process of conducting a full and open competition for the Main 
Reduction Gears (MRG) to be installed on DDG 113 and follow on ships. 
Source selection is in progress, and the contract award is projected 
for Spring 2010. The MRGs are being procured using a firm, fixed-price 
contract and will be provided to the shipbuilders as Government 
Furnished Equipment.
    Our DDG 51 restart ships (Flight IIA) will be the first constructed 
with Integrated Air and Missile Defense (IAMD), providing much-needed 
Ballistic Missile Defense (BMD) capacity to the Fleet, and they will 
incorporate the hull, mechanical, and electrical alterations associated 
with our mature DDG modernization program. We will spiral DDG 51 
production to incorporate future IAMD capabilities.
    In consultation with the Office of the Secretary of Defense, Navy 
conducted a Radar/Hull Study for future surface combatants that 
analyzed the total ship system solution necessary to meet our IAMD 
requirements while balancing affordability and capacity in our surface 
Fleet. The study concluded that the most cost-effective, total-ship 
solution to Fleet air and missile defense requirements over the near- 
to mid-term is a DDG 51 hull with a new Air and Missile Defense Radar 
(AMDR), coupled to the Aegis Advanced Capability Build (ACB) combat 
system. This combination of ship, sensor, and combat system will 
provide our Fleet with the capabilities needed for future mission 
success with less risk and cost than a new start cruiser program. The 
first of these ships, designated as DDG 51 Flight IIIs, will be 
procured in fiscal year 2016.
    Question. Admiral Roughead, what are the potential operational 
impacts to the fleet of building improved DDG 51's instead of the next-
generation cruiser?
    Answer. Restart of the DDG 51 class, and the spiraling of air and 
missile defense capabilities into the DDG 51 Flight III, will deliver 
required Integrated Air and Missile Defense (IAMD) capability and 
capacity into the Fleet sooner, at a more affordable cost, and with 
less risk than pursuing a new start cruiser program at this time.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Admiral Roughead, the Navy has cancelled plans to replace 
EP-3 airborne reconnaissance aircraft. This decision raises the 
question about the replacement strategy for the Navy's Special Projects 
Aircraft. How long does the Navy intend to maintain and operate the EP-
3 and Special Projects Aircraft, and considering the work these 
aircraft do, have you considered continued investment to improve the 
capabilities of these aircraft until a replacement airframe is 
selected?
    Answer. Navy continues to sustain the operations and maintenance of 
our EP-3 and Special Project Aircraft. We are evaluating several 
options for our future airborne SIGINT capability, including 
accelerating the Initial Operating Capability (IOC) of the Broad Area 
Maritime Surveillance (BAMS) Spiral 3, which is SIGINT-equipped; 
equipping a Medium Range Ship-Based UAV with SIGINT payloads with an 
IOC in about 2016-2017; and outfitting a modest number of manned 
platforms initially with remote SIGINT sensors.
    Question. Admiral Roughead, the Navy is beginning design work on a 
new submarine to replace the aging Ohio-class ballistic missile 
submarine fleet. The cost estimate to design and build 12 submarines 
under this program is staggering, $80 billion or more. This creates a 
concern as to whether the Navy can afford these new submarines without 
curtailing or giving up other shipbuilding efforts. Under the current 
shipbuilding plan and funding profile, what is your assessment of the 
impact this costly program will have on the industrial base and overall 
ship force structure level?
    Answer. The battle force inventory presented in our 30-year 
shipbuilding plan provides the global reach, persistent presence, and 
strategic, operational, and tactical effects required of our naval 
forces within reasonable levels of funding. On balance, the force 
structure represented by our 30-year shipbuilding plan maintains our 
ability to project power across the spectrum of challenges we are 
likely to face throughout the time period of the report, albeit with 
prudent risk where appropriate. One of the plan's three basic precepts 
is the importance of maintaining an adequate national shipbuilding 
design and industrial base necessary to build and sustain tomorrow's 
Navy. The shipbuilding plan aims to maintain that base.
    The SSBN(X) procurement will begin to constrain our shipbuilding 
plan in the latter part of this decade because recapitalization of our 
SSBNs will occur at the same time our SSN 688 submarines, CG 47 class 
guided missile cruisers, DDG 51 class guided missile destroyers, and 
LSD 41/49 class dock landing ships reach end-of-service-life. During 
the years in which the new submarine is being procured, the procurement 
of other ship types will be reduced, resulting in force level and 
industrial base impacts. Even under these constraints, our shipbuilding 
plan still achieves a peak battle force inventory of 320 ships in 
fiscal year 2024 and averages about 303 ships between fiscal year 2020 
and fiscal year 2040.
                                 ______
                                 
             Questions Submitted to General James T. Conway
            Questions Submitted by Chairman Daniel K. Inouye
    Question. General Conway, in December 2009, a key deadline passed 
without a decision by the Japanese Government regarding the realignment 
of U.S. forces on Japan and the movement of Marines to Guam. This move 
includes the closure of Futenma and the expanded land return to the 
people of Okinawa. The Government of Japan is now saying they will have 
a decision in May, but some are concerned that this decision may be 
delayed until after the July election. Can you please share with us the 
impact of further delays in a decision on the future force structure 
and the overall political relationship between Japan and the United 
States?
    Answer. It would be imprudent to alter the force laydown, to 
include moving any forces to Guam, until the Futenma issue is 
adequately resolved. The realignments of U.S. forces on Japan and the 
relocation to Guam are capabilities issues, not basing issues, and we 
have a responsibility to provide ready and able forces in support of 
the Combatant Commander. We need to look at future force laydown in the 
Pacific in total, and central to this are aviation capabilities on 
Okinawa.
    The Marine Corps requires that an aviation capability must remain 
on Okinawa to support the rest of the Marine Air Ground Task Force 
there. We currently have that capability at Futenma. If a replacement 
facility were delayed, untenable or unresolved for whatever reason, we 
would maintain our current force structure and continue to operate out 
of Futenma.
    In the context of the overall political relationship, we understand 
that the U.S.-Japan negotiated agreements were a comprehensive set of 
realignment initiatives designed to meet the strategic needs for both 
allies. We understand that the Government of Japan is taking a hard 
look at options however, we are confident that they realize the 
strategic value of having Marines on Okinawa for their own defense and 
for security in the region.
    Question. General Conway, please lay out the current plan to 
realign 8,000 Marines and their dependents to Guam. What are your 
biggest concerns with the plans?
    Answer. Based on the Agreed Implementation Plan, the units 
relocating to Guam will be the headquarters elements of the III Marine 
Expeditionary Force, including 1st Marine Air Wing, 3rd Marine 
Division, and 3rd Marine Logistics Group.
    With a move of this size and scope, there are inherent concerns. We 
must ensure that our distribution of forces in the Pacific will provide 
an enduring USMC presence in the region with ready and able forces, 
while ensuring the quality of life for our Marines and their families.
    We must balance our commitment to Japan to reduce our force 
structure in Okinawa, while ensuring that our force laydown in the 
Pacific remains responsive to the Nation's and the combatant 
commander's needs. A balanced Marine Air-Ground Task Force capability 
in the Pacific--on Okinawa, on Guam, and on Hawaii--is an essential 
ingredient in our ongoing analysis.
    We must ensure we have the right force laydown. Through the 
Quadrennial Defense Review, the Marine Corps analyzed refinements to 
the AIP that enhance operational capabilities. The AIP laydown was 
based on a 2006 force structure that had approximately 28,000 Marines 
and Sailors assigned to III MEF. Since 2006 the Marine Corps has been 
authorized to grow to 202,000 Marines With todays force structure, that 
number would be closer to 31,000. On Okinawa, the corresponding units 
under the AIP would account for nearly 11,000 Marines, exceeding the 
personnel strength provided for in the current agreement. We are 
examining alternatives that remain within the 10,000 Marine cap on 
Okinawa.
    Question. The Expeditionary Fighting Vehicle has been in 
development for more than a decade, and many questions have been asked 
about its ability to protect Marines from roadside bombs. If the 
program can overcome its development challenges, it has been proposed 
that after the EFV travels from the sea to take a beach, additional 
armor could be then be added to afford greater protection to its crew 
before they continue inland.
    General Conway, what is your response to those who might question 
this strategy as having to manage the tradeoffs of speed in amphibious 
operations against the protection of Marines?
    Answer. Each of the Services is organized differently to achieve 
different missions. The Navy, Army, and Air Force are organized to 
dominate their respective domains (sea, land, and air) while the Marine 
Corps--a rapid-response, general-purpose air-ground task force--
operates across all domains. In the case of the Expeditionary Fighting 
Vehicle (EFV) and amphibious operations, a balance of speed and force 
protection is essential during movement from ship to shore, and 
subsequent movement on land. The increased range, speed, mobility, and 
firepower of the EFV generates a high degree of force protection and 
allows our forces to maintain the initiative while keeping the enemy 
off balance.
    If the situation becomes static, like in Iraq or Afghanistan, the 
application of modular armor for the EFV would offer greater force 
protection for our troops against the most likely threat. There would 
likely be some trade-off under that configuration with regards to speed 
and mobility--but the added protection brings the vehicle to MRAP-like 
survivability. Moreover, our lessons learned over the past several 
years have shown us speed is not necessarily a plus where the enemy can 
plot--then lay Improvised Explosive Devices against--movement patterns.
    In summary, we are committed to providing our Marines the best 
vehicle possible to meet all mission requirements while providing the 
greatest levels of force protection. We will do all that while acting 
as responsible stewards of the nation's precious resources.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. General Conway, when requirements for amphibious ships 
are determined and validated, is consideration given to the demand 
signal from geographic Combatant Commanders for amphibious ship 
capabilities and support. If so, could you share with the subcommittee 
what the aggregate demand from Combatant Commanders is for amphibious 
ships?
    Answer. The Department took into consideration what had been 
historically sourced in order to meet Combatant Commanders (CCDRs) 
missions when the CNO and CMC developed the requirement for amphibious 
ships. However, the primary driver for the Navy's requirement was 
Marine Expeditionary Brigade (MEB) Assault Echelon lift, and 38 ships 
fiscally constrained to 33 ship force that supports a 2.0 MEB lift. 
Assessment of CCDR steady state demand and demand registered in the 
Global Force Management and Joint Capabilities Requirements Manager 
since fiscal year 2008 requires not less than an inventory of 50 
amphibious ships to meet the stated needs of the CCDRs.
    Aggregate CCDR demand for amphibious ships in fiscal year 2010 was 
for 4.3 ARG/MEUs and 3.8 independently deploying amphibious ships. 
Sourcing that demand, using OPNAV rotation rates, would require a force 
structure of 58 ships.
    Question. General Conway, based on current major contingency plans 
what is the requirement for amphibious ships, and how can these plans 
be conducted with the current number of amphibious ships? What is your 
personal opinion concerning the amount of risk being accepted in 
maintaining only 29 to 31 amphibious ships to support warfighting plans 
for which the Marine Corps has been tasked to be prepared?
    Answer. The requirement for 38 amphibious ships to conduct 2.0 MEB 
forcible entry operations has been fully analyzed and agreed to, in 
writing, within the Department of the Navy. Given the fiscal 
constraints facing the Department of the Navy, the Secretary of the 
Navy, Chief of Naval Operations, and I agreed that 33 amphibious ships 
in the assault echelon represents the limit of acceptable risk in 
meeting the 38-ship requirement we established in a letter to your 
committee on January 7, 2009. This 33-ship force accepts risk in the 
arrival of combat and combat service support elements of the MEB, and 
represents a trade off to preserve the Sea Shield.
    The 29-31 ship inventories during the future years defense plan 
(FYDP) does present risk in our Nation's ability to overcome anti-
access challenges in locations along the ``arc of instability,'' where 
there are no American military forces or basing agreements. Moreover, 
with the current inventory of 31 amphibious ships, we are unable to 
meet all of the steady state combatant commander demands for theater 
security cooperation, forward presence, and crisis response.
    The Long-Range Plan for Naval Vessels projects an effort to build 
toward the 38 amphibious ship requirement. However, the closest the 
plan comes to achieving the requirement is 36 amphibious ships in 
fiscal year 2026.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will stand in recess 
until March 24--Wednesday--at which time we will receive 
testimony from the National Guard and Reserves.
    The subcommittee is in recess.
    [Whereupon, at 11:35 a.m., Wednesday, March 17, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, MARCH 24, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Murray, Cochran, Bond, and 
Brownback.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF GENERAL CRAIG R. McKINLEY, CHIEF, NATIONAL 
            GUARD BUREAU
ACCOMPANIED BY:
        MAJOR GENERAL RAYMOND W. CARPENTER, ACTING DIRECTOR, ARMY 
            NATIONAL GUARD
        LIEUTENANT GENERAL HARRY M. WYATT III, DIRECTOR, AIR NATIONAL 
            GUARD

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, the subcommittee meets to 
receive testimony on the fiscal year 2011 budget of the 
National Guard and the Reserve components.
    And from the National Guard, we are pleased to have the 
Chief of the National Guard Bureau, General Craig McKinley; the 
Director of the Army National Guard, General Raymond Carpenter, 
who is testifying with us for the first time; and the Director 
of the Air National Guard, General Harry Wyatt.
    And from the Reserves, we welcome the Chief of the Army 
Reserve, General Jack Stultz; the Chief of the Naval Reserve, 
Admiral Dirk Debbink; the Commander of the Marine Corps 
Reserve, General John Kelly, who is also appearing before this 
subcommittee for the first time; and the Chief of the Air Force 
Reserve, General Charles Stenner.
    And I thank all of you for joining us today, and the 
subcommittee reviews fiscal year 2011 budget.
    Over the last several years, the Guard and Reserves have 
made important changes as they transition from a strategic to 
an operational reserve. The Department has improved its 
resourcing of the Guard and Reserve, and the services have made 
significant strides in integrating the Reserve components in an 
effort to create one total force.
    The Guard and Reserve have also recovered from the 
recruiting and retention difficulties they confronted over the 
last several years. Although retaining personnel in certain 
high-demand career fields remain a challenge, the significant 
personnel shortages seen in years ago have been eliminated, and 
the Reserve components now have the opportunity to focus on 
refining their personnel mix to get the right person in the 
right position.
    And I wish to congratulate all of you.
    However, many challenges remain. The Guard and Reserve must 
continue to improve reintegration and family support programs. 
Suicide, divorce, and substance abuse are on the rise in the 
military, and the Reserve components are no exception. 
Reservists and their families lack the support network provided 
at Active Duty installations, so it is essential that we do 
everything we can to support Reserve families during 
deployments and as the reservists transition back to civilian 
life.
    Your Yellow Ribbon Program is a step in the right 
direction, but I encourage you to continue improving the 
program to better fit the needs of our servicemembers. And I 
look forward to hearing, today, what each component is doing to 
improve support to our Reserve families.
    The Guard and Reserves still face significant equipment 
shortfalls. For this reason, last year Congress provided $950 
million for the National Guard and Reserve equipment account to 
allow the Reserve components to purchase the additional 
equipment they need for predeployment training and operations 
at home and abroad. Congress has provided additional equipment 
funding for the Guard and Reserve in each of the last 30 years, 
because, year after year, the President's budget fails to 
sufficiently fund the Reserve components. Some critics decry 
the additional funds by this subcommittee as unnecessary 
earmarks, but I'm certain that the witnesses here today agree 
that, without this additional funding, our Reserve components 
would be woefully equipped.
    The success of the Guard and Reserve depends on the support 
of Reserve employers. The weak economy is placing additional 
strain on the employers, who must fill the jobs left by 
reservists when they deploy. As many reservists face their 
second, or even third, deployment, we must ask whether the 
current operational tempo is sustainable and what more we can 
do to ensure that we maintain the support of our business 
community in hiring and supporting Reserves.
    So, gentlemen, I look forward to the hearing, to hearing 
your perspective on these issues, and working with you this 
year in support of our guardsmen and reservists. And I thank 
you for your testimony this morning.
    And may I say that your full statements will be made part 
of the record.
    We'll begin our hearings with the panel from the National 
Guard, but first I'll turn it over to my vice chairman, Senator 
Cochran, for an opening remark he may wish to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I'm pleased to join you in welcoming this distinguished 
panel of witnesses before our subcommittee. And we look forward 
to working with them to identify ways we can make sure that the 
Guard and Reserve programs are funded at appropriate levels, 
and that they're able to carry out their duties and 
responsibilities under the law. Very important role. Gets more 
important as time has gone on. And Guard and Reserve personnel 
and leadership are depended on more and more to help protect 
the security interests of our great country.
    Chairman Inouye. Senator Bond, would you care to make your 
remarks?

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. And I join 
with you and the ranking member, Senator Cochran, in welcoming 
the leadership of the National Guard today.
    And on behalf of the National Guard Caucus, Senator Leahy 
and I thank you for this tremendous support you've provided the 
Guard over the years.
    As you have indicated, had the subcommittee simply rubber-
stamped the budget proposed over the last few decades, the 
National Guard today would be a hollow force, if it were still 
a force. Instead, this subcommittee and the Congress, as a 
whole, have chosen, many times, to make up the shortfall in 
equipment budgets and manpower so that the Guard could continue 
to perform its missions. By investing in the Guard, we serve 
the national security interests of the country, ensure the 
protection of the homeland, at a fraction of the cost of the 
Active Duty, leveraging the incredible skills and experience of 
our citizen-soldiers and airmen.
    I will ask that--submit for the record a letter that 
Senator Leahy and I have prepared on behalf of the National 
Guard Caucus, asking the Secretary of the Air Force to 
reconsider the decision made with respect to the C-130 aircraft 
and they made--a decision made without consultation with the 
Guard.
    And I thank you very much.
    Chairman Inouye. Without objection, so ordered.
    Senator Bond. Thank you, sir.
    [The information follows:]
                                      United States Senate,
                                    Washington, DC, March 24, 2010.
The Honorable Michael B. Donley,
Secretary of the Air Force,
Washington, DC 20330-1670.
    Dear Secretary Donley: On behalf of the 96 member strong Senate 
National Guard Caucus, we are concerned and oppose the force structure 
cuts to the Air National Guard C-130 fleet. We are seriously troubled 
that the Air Force would consider taking aircraft from the Air National 
Guard to fill gaps in the Active Component. This most recent 
announcement is a troubling move in what appears to be a consistent 
trend since the 2005 BRAC to reduce the number of aircraft from the Air 
National Guard without substantive or even any consultation with Air 
National Guard leadership.
    The most disconcerting cuts come from the drawdown based on the 
Mobility Capabilities and Requirements Study 2016 (MCRS 16), which at 
the time of budget decisions, was still being developed. The 
programmatic decision resulting in these cuts was based from a draft 
study which now reflects what the budget had already announced. In a 
time of economic downturn and smaller defense budgets, we encourage the 
Department of Defense and the Air Force to adopt structures such as 
active associate wings to leverage the Air National Guard's lower 
operating and infrastructure costs and more experienced civilian 
airmen.
    We urge you to reconsider the C-130 Force Structure changes and 
seriously review alternative courses of action that will preserve our 
mobility capability for both of the Air National Guard's Federal and 
State missions.
            Sincerely,
                                     Senator Patrick Leahy,
                            Co-Chair, Senate National Guard Caucus.
                               Senator Christopher S. Bond,
                            Co-Chair, Senate National Guard Caucus.

    Chairman Inouye. This morning, we have two panels. The 
first panel consists of the Chief of the National Guard Bureau, 
the Director of the Army National Guard, and the Director of 
the Air National Guard.
    So, I'll call upon, first, General Craig McKinley.
    General McKinley.

            SUMMARY STATEMENT OF GENERAL CRAIG R. MC KINLEY

    General McKinley. Chairman Inouye, Vice Chairman Cochran, 
Senator Bond, it's an honor and privilege to be here today.
    I guess we won the coin toss, so the Guard goes first this 
year. We've kind of alternated the 4 years I've been here, so I 
think we'll try not to run out the clock on the Reserve Chiefs, 
who are really strong colleagues of ours. We operate as seven 
very close representatives representing the Reserve component 
force and the National Guard, and it's an honor to be here with 
you today.
    We've got about 460,000 members of the Army and the Air 
National Guard. And, as you said, Mr. Chairman, our strength is 
good, and our retention is even better.
    On my right, your left, is Bud Wyatt--Lieutenant General 
Bud Wyatt. Bud joined our team a year ago. He was former 
adjutant general in Oklahoma, so he knows not only the Federal 
piece of our business, but he has represented the State of 
Oklahoma exceedingly well.
    And on my left, your right, is Major General Ray Carpenter. 
Ray has been just a stalwart in standing in for the retirement 
of our former Director of the Army National Guard, Lieutenant 
General Clyde Vaughn. And, for almost a year now, Ray has 
managed the day-to-day operation of the Army Guard, working 
with United States Army. So, it's a pleasure for me to be ably 
assisted by these two fine gentlemen.
    The Department, for your interest, sir, is moving forward 
to identify a nominee for the position of the Director of the 
Army National Guard. It's a critical billet, and we have had 
the board--names have been recommended to both General Casey 
and Secretary McHugh. And so, they will be considering that. We 
hope, obviously, that that name gets over here and we move to 
confirm as quickly as possible.
    Senator Leahy, how are you, sir?
    We've submitted a copy of our posture statement to the 
subcommittee, and offer that as our formal testimony for the 
record. General Wyatt and General Carpenter will speak, in 
detail, about the budget request for the Army and the Air 
National Guard, as they work with our parent services in the 
budget process.
    As United States Armed Forces continue to conduct 
operations in Iraq, Afghanistan, and elsewhere around the 
world, units of the Army and Air National Guard are 
participating as total force partners in that effort. The 
National Guard has repeatedly proven itself to be a ready, 
accessible force. We have validated the total force concept by 
showing that the men and women in our formations are ready to 
answer the call, to be mobilized, to deploy overseas, return 
home, and then become prepared to do it again and again.
    The citizen-soldiers and airmen of your National Guard are 
adding value to America every day that they serve. The 
capabilities they bring to bear would not have been possible 
without the strong support of this subcommittee, and we thank 
you all very much for that support.
    The most critical part of that proven capability, however, 
is our National Guard men and women. Today's men and women 
volunteer to join, or stay, in the National Guard fully 
expecting to be deployed. This shift in expectation is a 
central aspect of the National Guard shift to being a fully 
operational force and no longer merely a strategic Reserve. 
Indeed, the soldiers and airmen of your National Guard now 
serve with that expectation, and are proud of it. They want to 
remain central players in the Nation's defense, and would 
indeed be resistant to any move to return to a role limited to 
strictly strategic Reserve.
    Overall, we can say that the budget request for fiscal year 
2011 meets the critical needs of the Army and Air National 
Guard in this era of persistent conflict overseas and ongoing 
threats to American lives and property here in the homeland.
    Of particular importance to us is the request for 
operations and maintenance funds. This money is critical. We 
use it to buy the fuel, the spare parts, building maintenance, 
and other things essential to being effective Reserve 
components of the Army and the Air Force, and we ask the 
subcommittee to fully fund that request.
    All of us in the National Guard are highly mindful and 
deeply grateful for the strong support of the National Guard 
which this subcommittee has shown to us in the past. In return, 
we try to be good stewards of the funds you appropriate for us, 
and use that money to make your National Guard as strong as it 
can be. We're particularly grateful for the additional funds 
which this subcommittee has provided through the National Guard 
and Reserve equipment account. We have used those funds to fill 
critical shortages in the Army National Guard and to provide 
technological modernization in our Air National Guard 
capabilities.
    We are especially grateful for the flexibility in which 
those funds are provided to us, allowing us to apply that money 
to our most critical equipment needs. And, as my predecessor 
Steve Blum was fond to say, ``Every dollar that is funded 
through the National Guard and Reserve equipment account is 
spent in that area.''
    One of the longest-running joint programs in the National 
Guard, one which employs both Army and Air National Guard 
capabilities, is the National Guard Counterdrug Program. This 
unique program provides a mechanism under which National Guard 
military experience can be employed to assist civilian law 
enforcement agencies to fight the corrosive effect of illegal 
drugs in American society. Funding for this program is included 
in the fiscal year 2011 budget request, and we ask for your 
full support of that request.
    As we've seen, parenthetically, with recent incidents along 
our Southwest border, the scourge of drugs migrating across 
that border creates a lot more concern on our part that this 
program still fills a very vital need.
    We are well aware that last year, as it has done in 
previous years, this subcommittee provided significant 
additional funds for that counterdrug program to fund 
capability enhancements. Nearly one-quarter of the capability 
of the National Guard Counterdrug Program exists today because 
of the additional funding provided in the past by Congress.
    In order to move quickly to your questions, I would now 
like to ask my Directors of the Air and Army National Guard to 
provide their perspectives. But, before I do that, I would just 
like to personally thank Senator Bond for his years of service 
to the Senate Guard Caucus.

                           PREPARED STATEMENT

    We can't thank you, sir, enough, and your staff, for being 
there, for listening to us, and for providing that great 
leadership. And we wish you a great deal of well-being back in 
the State of Missouri when this run is over. Thank you, Senator 
Bond.
    Bud?
    [The statement follows:]
            Prepared Statement of General Craig R. McKinley
                  introduction and executive overview
    About 400 years ago, a few hardy souls boarded tall ships from the 
shores of their comfortable European homeland to travel to a North 
American wilderness. They risked their lives on the treacherous waters 
of the North Atlantic for a new land and a better life.
    Immediately, homeland security became a concern for these early 
settlers. In times of need, volunteers from tiny hamlets and towns 
picked up their muskets to rush to the defense of their homes and 
families.
    Out of this necessity, the first militia was organized in the 
Massachusetts Bay Colony in 1636. About 140 years later, these Citizen-
Soldiers had become a formidable force. At the Battle of Concord in 
1775, outnumbered musket-wielding militia defeated an ``invincible'' 
British force and the enduring reality of the Minuteman was born.
    The Minuteman image was immortalized in the statue that stands 
today by the North Bridge, which spans the Concord River. The Minuteman 
was sculpted in traditional militia mufti with one hand on the plow and 
the other grasping a musket. The Citizen is ready at a moment's notice 
to become the Soldier.
    That ethos continues, ever stronger today, abroad and at home. Our 
Citizen-Soldiers and Airmen are adding value to America.
                            rapid evolution
The National Guard Abroad
    The depth provided by the National Guard is no longer the ``once in 
a lifetime'' use of a strategic reserve as envisioned during the Cold 
War. The National Guard has become an operational force that is an 
integral part of the Army and Air Force. It is populated by seasoned 
veterans with multiple deployments in support of operations in Iraq, 
Afghanistan, the Balkans, and many other locations around the world.
    Our most precious assets flow from our communities. At this time, 
nearly 60,000 Citizen-Soldiers and Airmen are deployed in support of 
overseas operations in Iraq, Afghanistan, the Balkans, and the Sinai.
    The National Guard has maintained a high operational tempo for more 
than 8 years in support of the operations in Iraq and Afghanistan. 
Through the admirable service of thousands of Guardsmen we have 
provided essential combat, logistics, and other support capabilities to 
these operations.
    Most recently, the National Guard provided critical Humanitarian 
Relief and Disaster Response support following the massive earthquake 
of January 2010 in Haiti. From providing initial medical evacuation to 
sustained logistics support and airborne communications, National Guard 
Soldiers and Airmen quickly delivered the specialized expertise 
required to support the Haitian people in their hour of need.
The National Guard at Home
    In addition to the thousands of National Guard Soldiers and Airmen 
currently activated for ongoing Federal missions overseas, the National 
Guard provides significant response to unexpected contingencies at 
home.
    On average, on any given day, 17 U.S. Governors call out their 
National Guard to help citizens in need. We responded in 2009 as we 
always have--immediately, effectively, appropriately, and in force. 
There's no reason to believe 2010 will be any different.
    Three significant events in 2009 were the record floods in North 
Dakota, the incredibly devastating ice storms in Kentucky, and the aid 
Hawaii quickly delivered to American Samoa after a tsunami smashed into 
the island.
    Rapid and full emergency response is another service that our 
Citizen-Soldiers and Airmen do well.
    At the peak of flood fighting efforts, the North Dakota Guard 
responded with more than 2,400 Citizen-Soldiers and Airmen aided by 
Guardsmen from six other states including Minnesota, Wisconsin, South 
Dakota, Montana, Missouri, and Iowa.
    The Guard assisted with levee patrols, evacuating residents, and 
sandbag operations. Our Soldiers and Airmen also provided traffic 
control points and presence patrols. They flew aviation support 
missions, including reconnaissance and ice salting to promote melting. 
They also delivered and operated water pumps, broke up ice jams, and 
performed other missions as required.
    In Kentucky, the entire Kentucky Army National Guard plus Guardsmen 
from Florida, Indiana, Ohio, Tennessee, and Wisconsin were called to 
duty, removing debris and running communications sites in addition to 
delivering essential supplies.
    Restoration of electric power to water plants, communications 
facilities, home generator support, operation of shelters in 24 
armories, and removing downed trees were the top priorities. Troops 
worked with state and local crews clearing roads and gaining access to 
damaged power transmission lines. Our National Guard men and women 
delivered more than 285,000 meals and a half million bottles of water 
every day to needy communities.
    An 8.4 magnitude earthquake struck the Samoa Islands region on 
September 29, which resulted in a destructive tsunami with 15-20 foot 
waves impacting the east side of American Samoa. Buildings suffered 
damage; up to 6,000 people were without power; there were 1,912 refuges 
in 14 shelters; and 32 confirmed fatalities.
    Within 24 hours, about 90 National Guard personnel from Hawaii's 
Civil Support Team and CBRNE Enhanced Response Force Package, a command 
and control element, and a mortuary affairs team flew to American Samoa 
to help in the recovery efforts.
    The National Guard is located in more than 3,300 communities around 
the nation providing an indispensable link between the military and the 
citizens of our great nation. We may be the only military that some of 
our citizens ever see.
    At the same time, more than 4,600 personnel are on duty in our 
daily ongoing domestic operations--state active duty, and Counterdrug 
and Air Sovereignty Alert missions. More than 390,000 are available to 
respond to any situation.
                               readiness
Personnel
    Despite all the nation has asked of them in the overseas warfight 
as well as here at home, we are recruiting and retaining National Guard 
members in impressive numbers and with higher quality marks. Americans 
join and stay in the National Guard. But as successful as we have been 
to date, we need continued support for recruiting and retention 
efforts.
Equipment
    The National Guard must have modern equipment if we are to remain 
successful as defenders of the homeland at home and abroad. Army 
National Guard (ARNG) units deployed overseas have the most up-to-date 
equipment available and are second to none.
    However, a significant amount of equipment is currently unavailable 
to the ARNG due to continuing rotational deployments and emerging 
modernization requirements. Many states have expressed concern about 
the resulting shortfalls of equipment for training as well as for 
domestic emergency response operations.
    The Army has programmed $20.9 billion for ARNG equipment for fiscal 
year 2009 through fiscal year 2013 to procure new equipment and 
modernize equipment currently on hand. We appreciate that support and 
also the strong interest of Congress and Department of Defense (DOD) in 
closing the gap between our domestic requirements and the available 
equipment in our armories and motor pools.
    The Air Force is in the midst of modernizing and recapitalizing its 
major weapons platforms, and the Air National Guard (ANG) must be 
concurrently and proportionally recapitalized, particularly in order to 
avoid the near to mid-term ``age-out'' of the majority of its fighter 
force.
    Our primary concern is that 80 percent of our F-16s, the backbone 
of our Air Sovereignty Alert force, will begin reaching the end of 
their service life in 7 years.
    To that end, we support the Air Force's recapitalization plan, and 
believe that all roadmaps should be inclusive of the ANG as a hedge 
against this ``age-out.''
    We shouldn't be relegated to obsolete and incompatible equipment 
like we were during the Cold War. We have proven that the old way of 
doing business does not work in today's environment. The National Guard 
must remain an operational force, indeed a strategic force, and must be 
resourced as such, so we can assist the Army and Air Force as much as 
possible.
National Guard and Reserve Equipment Appropriation (NGREA)
    A significant success story over the past few years is how NGREA 
funding has helped the Guard fill equipment shortages. This is 
particularly true for shortages involving Critical Dual-Use (CDU) 
equipment, which are items that the Guard uses in both Federal and 
state missions. The equipment purchased through NGREA includes CDU, 
however no equipment is purchased solely for domestic use by the 
states. The use of NGREA has been instrumental in providing for the 
quality and quantity of ARNG equipment. It has also enabled the ANG to 
both support Overseas Contingency Operations (OCO) and to also provide 
assistance to domestic response.
    An important benefit of NGREA funding is transparency in 
accounting. In fact, every dollar can be tracked and accounted for in 
the process. With NGREA, we are able to show Congress exactly what 
equipment the Guard received for the money spent and where that 
equipment is located.
Training
    Along with preparations for Federal service, the National Guard 
prepares for possible use in domestic operations. To that end, in 
fiscal year 2009 the National Guard conducted four regional Vigilant 
Guard exercises and three combatant command/national level exercises to 
facilitate unity of effort. In fiscal year 2010, the NGB is building 
local, state, and national level exercise capability to support the 54 
states, territories, and the District of Columbia in preparing for 
larger scale exercises, National Special Security Events (NSSE), and 
real world events.
Agribusiness Development Teams
    Nowhere does today's 21st century Minuteman embody the Citizen-
Soldier promise better than in our Agribusiness Development Teams 
(ADTs) in Afghanistan, where it is so needed after 40 years of constant 
turmoil and war.
    We send Guardsmen, whose skills and livelihood are earned in 
agribusiness in the United States, to this war-torn country to help 
better their farming industry.
    The first team deployed from Missouri in 2007. Today, eight teams 
are dispersed throughout Afghanistan, doing incredible work promoting 
sustainable farming practices and stimulating Afghan agriculture.
    For the Guardsmen, that means engaging with local farmers and 
helping them address many of their challenges, such as water and 
infrastructure issues.
    Eighty percent of Afghanis depend on agriculture for their 
livelihood, so it's incredibly important that if we're going to attack 
all the challenges and ills that hinder Afghanistan, we help stabilize 
their agribusiness economy.
    The goal is not to teach how to farm but to expand those skills 
that Afghan farmers already have. They know how to farm. They need 
someone to help them with the more scientific aspects of agriculture.
    Before those crops get to market they need to be harvested or 
processed. Texas and Missouri ADTs developed clean and sanitary meat 
processing facilities powered by renewable energy sources. Also, 
mechanical engineers in the Guard were able to teach the Afghans how to 
build wind turbines and help produce power for these facilities. In the 
end, that's the goal--to find simple solutions to the challenges faced 
by Afghan farmers.
    Because of the ADTs, Afghanistan has entered into a bilateral 
relationship with Nebraska. There is a large Afghan population in 
Nebraska, and the University of Nebraska has a cultural center that has 
built a relationship that has endured for decades.
                        ngb as a joint activity
    In 2009, the National Guard made great progress in supporting DOD's 
efforts to both manage the Reserve Components as an operational force 
and establish the National Guard Bureau as a joint activity. The NGB, 
as part of the total operational force, has a greater role and 
increased responsibility for shaping the discussion and recommendations 
within DOD for issues related to Homeland Defense and Defense Support 
to Civilian Authorities.
    The National Guard has always recognized its unique role as 
America's first military responder. In the continued quest for serving 
our citizens, we have leveraged the concept of the Joint Staff, both at 
the national and at the state level, to ensure rapid, effective, 
coordinated responses to domestic emergencies. This capability is 
modular, scalable, and can maximize effectiveness by employing Army and 
Air Guard capabilities into a true joint response. This supports the 
Adjutants General with single procedures for communication, 
coordination, collaboration, and employment.
State Partnership Program
    The National Guard State Partnership Program (SPP) establishes 
enduring and mutually beneficial partnerships between foreign countries 
and American states through the National Guard. This program is an 
important component of the Defense Department's security cooperation 
strategy, the geographic combatant commanders' theater engagement 
programs, and U.S. Ambassadors' Mission Strategic Plans.
    A primary aim is to promote partnership among the many nations 
working with us to advance security, stability, and prosperity around 
the globe.
    Today, American states are partnered with more than 60 foreign 
nations to focus on military-to-military, military-to-civilian, and 
civil security activities.
    Created in 1993, the SPP has helped the United States, European, 
African, Southern, Pacific, and Central Commands engage the defense and 
military establishments of countries in every region of the globe.
    This valuable mutual security cooperation program will continue to 
expand in size and strategic importance.
Interagency and Intergovernmental Coordination and Cooperation
    The National Guard's dual mission requires a disciplined balance 
between persistent readiness to defeat threats to our nation and its 
vital interests, and constant availability to help our communities and 
states.
    To improve efficiency for all involved in domestic operations, the 
NGB is orchestrating an effort to maximize collaboration with partner 
organizations like the U.S. Coast Guard, U.S. Army Corps of Engineers, 
and the Federal Emergency Management Agency (FEMA). By working together 
with our partners, we will provide a more coordinated response for all 
catastrophes, natural or man-made.
                        future plans--our vision
    The Guard must remain a community-based organization with a clear 
understanding of its dual role: to serve abroad in support of our 
national defense; and to serve the Governors and people of the states, 
territories, and the District of Columbia to which they belong. 
Recognizing the principles of states' rights and the tiered approach to 
domestic support to civil authorities, the Adjutants General (TAGs) 
will continue to provide a wide range of capabilities to their 
Governors and play a significant role in determining National Guard 
priorities and in shaping the future of the Guard.
    In an era of persistent conflict, we need a predictable rotational 
model and we must maintain proficiency and interoperability with the 
rest of the force. We must modernize at a proportional rate to the 
Active Component.
    At a steady state, we are going to have persistent requirements. 
There are tough resourcing decisions ahead, but I am optimistic we will 
continue our relevancy both on the domestic front and abroad while 
continuing to take the very best care of our Airmen, Soldiers, and 
their families.
    What the future holds for the National Guard Bureau is to cement 
its cross-functional relationships with other government and military 
agencies to answer any call, anywhere with the utmost collaboration and 
effectiveness. This is how we will continue adding value to America 
long into the future.
    The following pages show how the Army and Air National Guard and 
the Joint Staff are doing their part to build a balanced, flexible, and 
cohesive force for the future.
  major general raymond w. carpenter, acting director, army national 
                                 guard
                       message from the director
    Unique events, leadership transitions, and a change in vision 
defined another challenging and rewarding year for the Army National 
Guard (ARNG). The ARNG shifted its focus from quantity of assigned 
strength to quality of the force, a new vision for an experienced and 
accessible force. As a result, we have significantly increased the 
readiness of the Army National Guard. Our Soldiers are better trained 
and equipped to support overseas contingency operations and provide 
domestic support to our civilian authorities.
    The ARNG made notable progress with our Modular Force Conversion 
and Rebalance efforts. We have also implemented a number of innovative 
initiatives such as the:
  --Agribusiness Development Team;
  --Domestic All-Hazards Response Team (DART);
  --Muscatatuck Urban Training Center;
  --Battle Command Training Capability Program;
  --eXportable Combat Training Capability (XCTC);
  --Patriot Academy;
  --General Equivalency Diploma (GED) Plus;
  --Yellow Ribbon Reintegration Program; and
  --Community-Based Warrior Transition Program.
    Through these efforts, our Soldiers are educated, trained, 
equipped, and supported unlike any other time in our history. Our 
efforts to balance the lives of our operational units and individuals 
have given us the flexibility and effectiveness needed to keep America 
strong.
                               operations
    Balancing domestic and overseas operations brings out the best in 
Army National Guard integrated missions. The concepts of ``critical 
dual-use equipment'' and ``Citizen-Soldier'' merge together to meet our 
international and domestic challenges. Building on our two pillars of 
strength--personnel readiness and equipment versatility--we conduct our 
integrated missions and accomplish our Soldier-centric goals.
Overseas Contingency Operations (OCO)
    Overseas Contingency Operations have significantly increased the 
operating and deployment tempo within the Army National Guard. Nearly 
60,000 Army and Air National Guard personnel are supporting 
expeditionary operations around the world, including Operations 
Enduring Freedom and Iraqi Freedom. Since 9/11, more than 316,000 Army 
National Guard Soldiers have been mobilized for Federal (Title 10) duty 
as of December 31, 2009, to support OCO around the world.
Domestic Operations
    The Army National Guard coordinates and integrates policies, 
procedures, and capabilities to ensure critical operations continue in 
the event of an emergency, or threat of an emergency, anywhere in the 
United States and its territories.
    In January 2009, the ARNG supported Federal and state agencies 
during the most attended Presidential Inauguration in U.S. history by 
providing over 10,000 National Guard Soldiers from 14 states. The 
Soldiers supported civil authorities by providing traffic control 
points, reaction forces, and aviation support.
    The ARNG answered calls to their respective Governors for search 
and rescue, power generation, logistical support, debris clearing, 
sandbagging, security, law enforcement support, food distribution, and 
shelter construction during recovery efforts. Most notably, in March 
2009 six states sent more than 5,500 Soldiers to support North Dakota 
during the Red River flooding. During this event, the ARNG provided 13 
helicopters with crews to fill a mission assignment from the Federal 
Emergency Management Agency (FEMA).
Domestic All-Hazards Response Team
    Initiated in fiscal year 2009, the Domestic All-Hazards Response 
Team (DART) formalizes the National Guard use of the ARNG Division 
Headquarters in response to all catastrophic events. When requested by 
the Adjutant General of an affected state, the DART response is 
coordinated through the Chief, National Guard Bureau. The Army National 
Guard has eight division headquarters. Three division headquarters 
serve as the DART Headquarters on an annual rotation--two divisions 
serving in the East and West and one reinforcing both regions.
    Approximately 50,000 troops are available east of the Mississippi 
and 30,000 west of the Mississippi for activation into Title 32 Status. 
The DART works within the existing Emergency Management Assistance 
Compact framework. The DART is also divided along FEMA Region 
boundaries and is well positioned for interagency response. The DART 
maximizes the modular structure of the 21st century Army and positions 
the nation to respond to any man-made or natural disaster (or to 
mobilize in preparation for such an occurrence).
    For more details on DART, please see the information paper at: 
www.ng.mil/features/ngps.
ARNG Aviation
            Operational Support Airlift Agency (OSAA)
    The Operational Support Airlift Agency is a Department of the Army 
field operating agency under the National Guard Bureau that supports 
114 aircraft worldwide and over 700 personnel. OSAA's fleet of 80 
fixed-wing aircraft represents the single largest fixed-wing 
organization in the Army today. Both at home and abroad in 2009, these 
aircraft:
  --Flew more than 56,000 hours;
  --Completed over 26,000 missions;
  --Transported nearly 20 million pounds of cargo;
  --Carried more than 100,000 passengers; and
  --Supported the U.S. Southern Command in Colombia, the Criminal 
        Investigation Task Force, Office of Military Commissions, and 
        United States Army South at Guantanamo Bay, Cuba.
Combat Aviation Brigade (CAB)
    By virtue of its basing locations throughout the homeland, ARNG 
Aviation provides immediate responsiveness to the Governors. 
Additionally, with certain unique design and equipment differences, the 
aviation force is a critical component of Defense Support to Civil 
Authorities.
    Six of the ARNG's eight CABs have a unique security and support 
(S&S) Aviation Battalion whose primary mission is homeland support. 
Each S&S battalion is equipped with the new UH-72 light utility 
helicopter with communications and mission equipment packages that are 
optimized for coordination and interoperability with civilian police, 
fire, and emergency responders. In addition, the ARNG aviation force 
provides the Army with a NORTHCOM-dedicated Theater Aviation Brigade 
for the vital Chemical, Biological, Radiological, Nuclear, and High-
yield Explosive (CBRNE) Consequence Management Force that will respond 
to any natural or man-made disaster in the homeland. The ARNG provides 
the total Army with 43 percent of its aviation force.
    For more details about the Combat Aviation Brigade, please see the 
information paper at: www.ng.mil/features/ngps.
Light Utility Helicopter (LUH) Update
    The UH-72A ``Lakota'' Light Utility Helicopter is a state-of-the-
art aircraft with twin engine reliability, a 21st century navigation/
communication system, and a proven record of commercial aviation 
service.
    The Army developed the UH-72 Lakota to meet immediate and future 
light utility aviation needs. The ARNG now has 36 UH-72A aircraft and 
eight UH-72A MEDEVAC aircraft for a total of 44 Lakotas. The Army plans 
to field 12 UH-72As to the Army National Guard over the next several 
years with a total of 200 new UH-72s to be fielded to the National 
Guard by fiscal year 2017.
    For more details about the Light Utility Helicopter, please see the 
information paper at: www.ng.mil/features/ngps.
                        present and future value
Modular Force Conversion and Rebalance
    By the end of fiscal year 2009, the ARNG completed the most 
comprehensive force structure change in its history. This 5-year effort 
saw more than 2,800 operating force units transform into modular 
designs while deploying 43,225 Soldiers to combat and support 
operations in Iraq, Afghanistan, and Kuwait. With this transformation, 
ARNG brigade combat teams are identical to Active Component Army 
brigades so they are compatible regardless of the mission. The ARNG 
continues to grow and adapt to fulfill all levels of the Federal and 
state missions in support of Homeland Security and Homeland Defense 
(HD), which includes supporting the warfighter.
    The historic fill rate for equipment for the ARNG has been about 70 
percent. Fill rates declined to approximately 40 percent of equipment 
available to the Governors in 2006 due to cross-leveling equipment to 
support immediate deployment requirements. Seventy-seven percent of the 
ARNG's Modified Table of Organization and Equipment (MTOE) requirement 
is currently on hand (as of the end of fiscal year 2009).
    Increasing our investment in several key areas is essential to 
maintaining our forward progress.
Agribusiness Development Teams
    An Agribusiness Development Team (ADT) is a self-contained 
volunteer unit composed of 58 National Guard Soldiers with backgrounds 
and expertise in various sectors of the agribusiness field. They 
provide training and advice to Afghan universities, provincial 
ministries, and local farmers to increase stability and improve 
opportunities for Afghanistan's reemerging agribusiness sector. Since 
2007, Agribusiness Development Teams from the following states have 
deployed to Afghanistan: Missouri, Indiana, Tennessee, Kansas, 
Nebraska, Texas, California, Kentucky, Oklahoma, and South Carolina.
    For more details about ADTs, please see the information paper at: 
www.ng.mil/features/ngps.
                personnel strength and quality programs
    The overriding theme of the Army National Guard's recruiting and 
retention mission is to sustain a high quality force and continue to 
improve the quality of life for our Soldiers and their families.
    The ARNG recalibrated the fiscal year 2009 endstrength mission from 
371,000 to 358,200 resulting in a reduction of the recruiting accession 
mission to a target of 56,000. The endstrength goals focused on 
achieving historical quality marks in the military entrance exam (the 
Armed Forces Qualification Test) for high school graduates and an 
overall retention rate of 106 percent of the ARNG goal. Our sustained 
recruiting and retention successes are a testament to the outstanding 
work of our recruiting team and the inherent value of our organization.
    The ARNG is improving the quality of recruits through the Patriot 
Academy and the GED Plus programs.
Patriot Academy
    The basic concept for this program came from research that 
indicated 500,000 students dropped out of high school in 2006. Launched 
in June 2009, the Patriot Academy enables Soldiers to complete basic 
training and then perform Title 10 Active Duty for Operational Support 
while obtaining their high school diplomas, additional military 
training, and life skills training. The ARNG plans to graduate 500 
Soldiers annually.
    For more details about the Patriot Academy, please see the 
information paper at: www.ng.mil/features/ngps.
GED Plus
    The GED Plus program provides high school dropouts, 18 and older, 
basic training and a structured academic environment to earn their GED. 
To enroll, students must be fully qualified for enlistment and achieve 
the minimum Armed Forces Qualification Test score. In fiscal year 2007, 
some 700 Soldiers passed for a 73 percent success rate. In fiscal year 
2008, our success rate jumped to 95.6 percent with 2,457 students 
passing. The GED Testing team tested 2,283 GED Plus Soldiers in fiscal 
year 2009 with a passing rate of 96.6 percent. The team was noted as 
the best test site in the nation by Dantes staff. Also in fiscal year 
2009, the National Guard began construction on an $18 million GED Plus 
educational complex which will increase training capacity to more than 
7,500 students per year.
    As of May 31, 2009, the success rate continues to hover around 95 
percent, which is significantly higher than the 69 percent national 
average achieved by civilian GED programs. The improvement is due in 
part to grouping students by ability, sharing best practices, and 
implementing an instructional lab for specific student weaknesses.
    For more details on the GED Plus program, please see the 
information paper at: www.ng.mil/features/ngps.
Full-time Support
    The ARNG Full Time Support (FTS) program consists of both Active 
Guard and Reserve (AGR) Soldiers and Military Technicians and has a 
direct link to unit readiness. In this continuing era of persistent 
conflict, FTS personnel are major contributors across the full spectrum 
of ARNG missions, home and abroad, providing vital strategic depth and 
continuity of operations. The ARNG is now an Operational Force and its 
FTS is even more critical to unit readiness. Currently, there is no 
programmed growth for AGRs while Military Technicians are programmed to 
increase by 1,170 authorizations by fiscal year 2013.
    Ongoing manpower studies are determining changes in FTS 
requirements. Results will be submitted for validation and coordinated 
with the appropriate organizations for submission in the Program 
Objective Memorandum process as completed.
    For more details on FTS, please see the information paper at: 
www.ng.mil/features/ngps.
Medical Readiness
    With the Army National Guard's transition to an operational force, 
the Office of the Chief Surgeon team led medical readiness improvements 
in fiscal year 2009 by addressing its three primary goals: Support 
deployment of a healthy force; support deployment of the medical force-
units; and facilitate warriors in transition and family care-
beneficiaries.
    Medical readiness increased 13 percent between fiscal year 2008 and 
fiscal year 2009. This was a direct result of increased targeted 
funding and stronger liaison efforts between NGB and Army medical 
commands to meet funding, manning, and equipment requirements.
    Industrial Hygiene Base funding served to both identify and 
mitigate preventable health conditions prior to impacting the medical 
readiness of ARNG units by using three programs--Decade of Health, 
Hooah4Health (H4H), and blood pressure kiosks. These programs have 
yielded the following results:
  --Dental readiness increased 34 percent in fiscal year 2008 and 
        fiscal year 2009;
  --An estimated 1 million Soldiers checked their blood pressure at 
        kiosks nationwide; and
  --Over the past 5 years, more than 5,400 Soldier-students have 
        completed the Army's first interactive, web-based 
        correspondence course on the H4H site with a 97 percent pass 
        rate.
Soldier Family Support (SFS)
    The increased operating and deployment tempo of the Army National 
Guard has placed additional strain on Soldiers and their Families. In 
October 2007, the Army initiated the Army Family Covenant program and 
pledged to provide Soldiers and Families with a quality of life 
commensurate with their dedicated service and sacrifice to the nation. 
In fiscal year 2010, the ARNG received an additional $10 million to 
support and ensure long-term sustainability of SFS functions in support 
of mission requirements and our role as an operational force. The 
following SFS programs are currently well underway:
  --The Personnel Blast and Contaminant Tracker system records data for 
        all service members involved in blast incidents, even when 
        immediate physical symptoms are absent. If the exposure to a 
        blast or contaminant has long-term impacts to the service 
        member, data will be used for line-of-duty benefit evaluation. 
        The ``blast tracker'' can be expanded to all Army components as 
        well as to the other services.
  --The Resiliency Training Center, opened in Kansas in 2009, builds 
        resilience in our Soldiers and their families. The center 
        focuses on preventing high stress through proactive marriage 
        workshops and stress relief training before, during, and after 
        deployments.
  --The Community-Based Warrior Transition Units program provides high-
        quality healthcare, administrative processing, and transition 
        assistance for recuperating Reserve Component Soldiers while 
        living at home with their families. These Soldiers work at a 
        reserve center within their capabilities.
    For details about more medical programs, please see the information 
paper at: www.ng.mil/features/ngps.
                  facilities and military construction
    Army National Guard facilities are critical to the readiness and 
capability of the National Guard. These are the locations where our 
Soldiers perform administration, conduct training, and store and 
maintain equipment. Additionally, many National Guard facilities are 
critical rallying points for communities when disaster strikes. Now a 
combat-proven operational force, the Army National Guard needs adequate 
facilities to fulfill its crucial role in defending America at home and 
abroad. The ARNG has over 3,000 readiness centers nationwide. 
Approximately 1,408 readiness centers are more than 50 years old and 
are located on five acres or less. Recognized as the hometown 
``Armory,'' these essential facilities may be ``the only military 
installation for hundreds of miles.'' For fiscal year 2010, 
appropriations for Army National Guard military construction are $582 
million.
    The Army National Guard received over $1.4 billion in military 
construction funds for fiscal year 2009 which included:
  --$736 million for 54 projects for the Military Construction Army 
        National Guard program;
  --$147 million for three emerging requirements projects;
  --$470 million to construct 14 projects for the base realignment and 
        closure (BRAC) program (ARNG executed 100 percent of these BRAC 
        projects);
  --$50 million for six construction projects as part of the American 
        Recovery and Reinvestment Act; and
  --$25 million of fiscal year 2008 funds to assist Mississippi and 
        Indiana with storm damage to their facilities.
    ARNG Military Construction funding for fiscal year 2010 includes 
$30 million from the National Guard and Reserve Initiative. These funds 
are intended to address critical unfunded requirements of the ARNG.
            Environmental Program
    Recent success in the ARNG's environmental program underscores its 
mission to excel in environmental stewardship which balances community 
needs with sustaining military readiness.
    Since the Army Compatible Use Buffer (ACUB) program began in 2003, 
military funding ($17.5 million) has combined with private funding ($90 
million) to protect 40,000 military-acres from encroachment at eight 
ARNG training centers.
    For more details about environmental programs, please see the 
information paper at: www.ng.mil/features/ngps.
                          equipment readiness
Equipment On-Hand (EOH) and Equipment Availability
    At the end of fiscal year 2009, the Army National Guard had 76 
percent of its equipment on-hand. Subtracting equipment that is 
mobilized and deployed to support Federal missions, the current 
equipment-on-hand percentage falls to 63 percent of requirements 
available to the Governors. EOH levels remained fairly flat in fiscal 
year 2009 as overall requirements increased by 2 percent and equipment 
inventories rose 3 percent. In many cases, particularly with vehicles, 
new trucks replaced older legacy vehicles. This kept the EOH relatively 
constant although capabilities increased due to modernization and an 
overall decrease in the age of the fleet.
Equipment Modernization and Readiness
    Beginning in fiscal year 2006, the Army significantly increased its 
investment in ARNG equipment, allocating approximately $25.1 billion 
for new procurement and recapitalization between fiscal year 2006 and 
fiscal year 2009. As a result of this investment, the Army National 
Guard received approximately 296,000 new items in fiscal year 2008 and 
another 433,000 in fiscal year 2009 at a combined value of $10.2 
billion. Additionally, $16.9 billion is currently programmed for Army 
National Guard equipment between fiscal year 2010 and fiscal year 2015.
    Despite these successes, the Guard needs to procure and field 
leading-edge battle command equipment, and improve fill levels for a 
number of Combat Service Support items such as water purification 
systems, generators, material handling equipment, field feeding 
systems, tactical ambulances, and aviation ground equipment. In 
addition, modernization of the Guard's truck and helicopter fleets, 
while absolutely critical to long-term success, will continue to be a 
challenge well beyond fiscal year 2015.
Ground and Air Operating Tempo
            Ground Operating Tempo
    The ground operating tempo (OPTEMPO) program is one of the keys to 
equipment readiness. The program consists of two parts: direct and 
indirect. Direct ground OPTEMPO pays for petroleum, repair parts, and 
depot-level repairables. Indirect OPTEMPO pays for expenses such as 
administrative and housekeeping supplies, organizational clothing and 
equipment, medical supplies, nuclear, biological and chemical supplies 
and equipment, and inactive duty training (IDT) travel which includes 
Command Inspection, staff travel, and cost of commercial 
transportation.
            Air Operating Tempo
    The air OPTEMPO program supports the ARNG flying hour program, 
which includes petroleum-oil-lubricants, repair parts, and depot-level 
repairables for the rotary wing helicopter fleet.
    In fiscal year 2009, air OPTEMPO funding for the Army National 
Guard totaled $271 million in base appropriation plus $40 million in 
supplemental for a total of $311 million. This funding provides for 
fuel and other necessities so that 5,722 ARNG aviators can remain 
current and proficient in their go-to-war aircraft. Achieving and 
maintaining desired readiness levels will ensure aircrew proficiency 
and risk mitigation, which helps to conserve resources. ARNG aviators 
must attain platoon level proficiency to ensure that they are 
adequately trained to restore readiness and depth for future 
operations.
Reset Process
    The Department of the Army programmed the ARNG for $202 million to 
fund repair parts and the personnel required to repair equipment used 
in Overseas Contingency Operations during fiscal year 2010. The ARNG is 
planning to Reset 21 brigade-sized elements as well as many units below 
brigade level. The Reset process also provides additional training for 
National Guard Soldiers as they repair this equipment. As in previous 
years, having the ARNG perform its own Field Reset allows for equipment 
to be returned to the states' control much faster and repaired in a 
much more expeditious manner.
Logistics-Depot Maintenance
    The Depot Maintenance Program is an integral part of ARNG 
sustainment activities. This program is based on a ``repair and return 
to user'' system as opposed to the direct exchange system used by the 
active Army component. In fiscal year 2010, depot surface maintenance 
program requirements increased by 14 percent. Funding for the ARNG's 
surface depot maintenance requirement was increased by 19 percent 
because of new requirements. In fiscal year 2010 the ARNG plans to 
overhaul 2,883 pieces of combat and tactical equipment.
                        training and technology
    During fiscal year 2009, the ARNG information technology (IT) 
resources supported the implementation of network security projects, 
mobilization support, wide area network modernization and redundancy, 
and emergency response projects. This allowed continued support to each 
United States Property and Fiscal Office, Joint Forces Headquarters--
State, and Army National Guard Headquarters primarily in the National 
Capital Region.
    For more details about IT programs, please see the information 
paper at: www.ng.mil/features/ngps.
eXportable Combat Training Capability
    Soldiers and units are better prepared for mobilization due to the 
advent of the eXportable Combat Training Capability (XCTC) program. 
XCTC is an innovative training program that reduces training overhead 
without sacrificing training quality, standards, or outcomes. This pre-
mobilization training program provides tough, realistic training to 
achieve company level certification and battalion battle staff 
proficiency. XCTC builds on fundamental tactics, techniques, and 
procedures by using advanced live, virtual, and constructive training 
technologies.
    For more details about the XCTC, please see the information paper 
at: www.ng.mil/features/ngps.
Muscatatuck Training Center
    The 974-acre Muscatatuck Training Center in Indiana provides a 
realistic training environment for urban warfare, civil support 
operations, and emergency response. Trainees include Army National 
Guard troops, firefighters, police officers, and other first 
responders. The center's concentrated urban infrastructure consists of 
68 major buildings including a school, hospital, dormitories, light 
industrial structures, single-family dwellings, a dining facility, and 
administrative buildings totaling about 850,000 square feet.
  lieutenant general harry m. wyatt iii, director, air national guard
                       message from the director
               america's exceptional force, home and away
    The Air National Guard (ANG), the U.S. Air Force Reserve, and the 
Regular U.S. Air Force (RegAF) comprise our Total Air Force. The ANG 
anchors this Total Force team, providing trained and equipped units and 
personnel to protect domestic life and property; preserving peace, 
order, and public safety; and providing interoperable capabilities 
required for Overseas Contingency Operations. The ANG, therefore, is 
unique by virtue of serving as both a reserve component of the Total 
Air Force and as the air component of the National Guard.
    Upon its founding in 1947, the ANG served primarily as a strategic 
reserve for the U.S. Air Force. Increasingly and dramatically, the ANG 
has become more of an operational force, fulfilling U.S. Air Force 
routine and contingency commitments daily. Since 9/11, over 146,000 ANG 
members have deployed overseas.
    A snapshot of U.S. forces at any time shows Air Guard members in 
all corners of the globe supporting joint and coalition forces in 
mission areas such as:, Security; medical support; civil engineering; 
air refueling; strike; airlift; and intelligence, surveillance, and 
reconnaissance (ISR)
    Currently, over 7,000 ANG members are deployed in Iraq, 
Afghanistan, and other overseas regions. At 16 alert sites, three air 
defense sectors, and Northern Command, 1,200 ANG members vigilantly 
stand watch over America's skies. Amazingly, 75 percent of our deployed 
individuals are volunteers, and 60 percent are on their second or third 
rotations to combat zones. Percentages like these speak volumes about 
the quality and sense of duty of America's ANG force!
    The ANG supports state and local civil authorities with airlift, 
search and rescue, aerial firefighting, and aerial reconnaissance. In 
addition, we provide critical capabilities in medical triage and aerial 
evacuation, civil engineering, infrastructure protection, and hazardous 
materials response with our Civil Support Teams and our Chemical, 
Biological, Radiological, Nuclear, and High-yield Explosive (CBRNE) 
Enhanced Response Force Packages (CERFPs).
    In the past year, Air Guard members helped their fellow citizens 
battle floods, fight wildfires, mitigate the aftermath of ice storms, 
and provide relief from the devastating effects of a tsunami. Here are 
just a few examples of how the ANG provides exceptional expertise, 
experience, and capabilities to mitigate disasters and their 
consequences.
  --Kentucky, Arizona, and Missouri Guard members responded to 
        debilitating ice storms, which resulted in the largest National 
        Guard call-up in Kentucky's history.
  --North Dakota, South Dakota, and Minnesota ANG members provided 
        rescue relief and manpower in response to Midwest flooding.
  --The Hawaii ANG sent personnel from their CERFP, a command and 
        control element, and a mortuary affairs team to American Samoa 
        in response to an 8.4 magnitude earthquake-generated tsunami.
    Within the Total Force, the ANG provides extraordinary value in 
terms of meeting our national defense needs with cost efficiency and 
immediate availability. In our domestic role, the ANG provides 
capabilities to support local emergency responders with life and 
property saving capabilities and expertise not usually found elsewhere 
in the Total Force.
                         best value for america
Building Adaptable Airmen and Priorities for the Future
    The outstanding men and women of the ANG continue to defend 
American interests around the world. Throughout 2009, the ANG projected 
global presence in a variety of missions in regions ranging from the 
Balkans to Southwest Asia, and from Eastern Europe to Latin America. We 
have provided much more than airpower, contributing our exceptional 
capabilities in security, medical, logistics, communications, civil 
support, and engineering, in order to support our nation's national 
security.
    Our unique community-based heritage has been the foundation of our 
strength since colonial times. While the strategic environment has 
continually changed throughout history, the ANG has proven itself an 
adaptive force, able to meet any new challenges. One reason for our 
success is that our members normally live in the same communities in 
which they serve during times of natural disasters or when called upon 
to respond to national emergencies. Our Guard members know the folks 
they support very well because they work together, their children 
attend the same schools, and they shop at the same businesses. Our 
fellow citizens know the local Guard members and their contributions, 
and their appreciation has been illustrated through countless welcome 
home parades and outpouring of support over the years.
    Throughout history, many of the issues our forebears faced are 
essentially the same issues we face today: aging capabilities and 
declining budgetary resources. The ANG has consistently provided the 
answer in an efficient, cost-effective, community-based force that is 
ready and responsive to domestic and national security needs.
    Our traditional, predominantly part-time force continually adapts 
and evolves toward new missions and capabilities. As a nation, we must 
ensure America's ANG continues to be completely interoperable with the 
RegAF to meet operational and strategic reserve surge requirements. To 
continue as America's best value and to meet our national security 
objectives, the ANG focuses priorities in three areas:
  --Developing adaptable Airmen for future senior leadership roles and 
        responsibilities;
  --Modernizing and recapitalizing our warfighting capabilities to 
        ensure we remain completely interoperable with RegAF; and
  --Evolving and shaping our force to maintain our value to the Air 
        Force mission.
Best Value in Personnel, Operations, and Infrastructure
    During the past year, the ANG has deployed 18,366 service members 
to 62 countries and every continent, including Antarctica. The ANG 
provides a trained, equipped, and ready force for a fraction of the 
cost. We provide a third of Total Air Force capabilities for less than 
7 percent of the Total Force budget. In all three areas--personnel, 
operations, and facilities--the ANG provides the ``Best Value for 
America.''
    A key to ANG efficiency is our part-time/full-time force structure 
mix. Our predominantly part-time (traditional) force can mobilize 
quickly when needed for state disaster response missions, homeland 
defense, or when we need to take the fight overseas.
    We have the ability to maintain a stable force with considerably 
fewer personnel moves than the RegAF, which is a critical factor in our 
cost-effectiveness. Traditional National Guard members cost nothing, 
unless on paid-duty status. ANG efficiencies compared to regular 
military components include:
  --Fewer ``pay days'' per year;
  --Lower medical costs;
  --Significantly lower training costs beyond initial qualification 
        training;
  --Virtually no costs for moving families and household goods to new 
        duty assignments every 3 or 4 years;
  --Fewer entitlements, such as basic allowance for housing; and
  --Lower base support costs in terms of services and facilities 
        including commissaries, base housing, base exchanges, and child 
        care facilities.
    The ANG is an operational reserve with surge potential of 2,200 
mobilized and 5,700 volunteering per day. If this force were full-time 
active duty (as is the RegAF), the military personnel budget would be 
$7.62 billion. ANG military personnel pay in fiscal year 2009, 
including military technician pay, was $4.77 billion for a yearly cost 
savings of $2.85 billion, or a daily cost savings of $7.8 million.
    Whether compared to another major command (MAJCOM), the RegAF, or 
even to the militaries of other countries, the ANG is an extraordinary 
value. In direct comparison with the militaries of France and Italy, 
for example, our ANG members cost $76,961 per member, while the bills 
of those countries respectively run to $128,791 and $110,787 per 
member. Further, cost per ANG member is less than a fifth of that of 
the RegAF. Comparisons such as these illustrate well the cost savings 
realized with an operational reserve possessing surge potential.
    Operational savings are due to the ANG's experienced force and lean 
operating methods. An examination of the ANG's F-16 maintenance by Rand 
Corporation last year highlighted the ability of our maintenance 
personnel to generate double the amount of flying hours in a one-to-one 
comparison of full-time equivalents.
    Savings from ANG infrastructure start with basing at civilian 
facilities. With some ANG base leases costing as little as one dollar 
annually, the ANG is able to realize even more cost savings for the 
Total Force through our supporting infrastructure. Three-fourths of ANG 
bases are located at civilian airports. In fact, our Joint Use 
Agreements with civilian airports provide access to approximately $12 
billion in infrastructure for less than $5 million annually.
    Significantly, the ANG is a dual-use force of people and equipment. 
As indispensable as the ANG is to the Air Force, it is equally 
indispensable to the National Guard's domestic response capability. The 
ANG leverages the vast majority of its equipment in this dual role, 
from the movement of time-sensitive cargo and passengers during a 
domestic crisis to providing critical capabilities needed to support 
Total Force requirements overseas.
Recruiting and Retention
    Our ability to conduct missions important to our states and nation 
rely on our people, which requires successfully recruiting and 
retaining our members. We are fortunate that our retention numbers have 
remained strong throughout 2009, at 90.8 percent, which beat our goal 
of 90 percent. This is a testament to the outstanding work of our 
recruiting and the inherent value of our organization.
    We focus our efforts in areas where we face challenges. Officer 
recruiting and other critical areas include healthcare, engineers, 
intelligence, mobility pilots, and chaplains. During 2009, we began 
linking recruiting and retention efforts to our strategic planning 
functions. This allowed the ANG to better position our force for new 
missions and align more effectively with shifts in the Air Force 
capabilities portfolio. Those new ANG members with prior service are 
particularly valuable for the ANG and constitute more than 50 percent 
of our recruits.
Developing Future Leadership in the Total Force
    In developing adaptable Airmen, we are focusing on initiatives to 
prepare our Airmen for future Total Force leadership. Developing this 
leadership capability requires both increased in-residence 
opportunities at all Developmental Education schools and increased 
opportunities for joint service. Additionally, command opportunities 
must be afforded in theater, commensurate with the presence of all 
forces deployed to the warfight.
    One of our recent initiatives involved redesigning our statutory 
tour program to provide more opportunities for developing critical 
command and staff experiences for personnel at the National Guard 
Bureau and in the field. Through this two-way flow, we improve insights 
and perspectives that will help develop adaptable Airmen.
                      protecting america's future
Modernization and Recapitalization
    The age of the ANG fleet continues to be of grave concern. Meeting 
future challenges at home and abroad will require modernization and 
recapitalization of both aircraft and equipment in the RegAF and the 
ANG. Concurrent and proportional equipping of the ANG within the Total 
Force ensures continued interoperability with the RegAF. America cannot 
afford to fall behind in air supremacy. Continued dominance depends on 
modernizing and recapitalizing planes and equipment, and adapting to 
the strategic environment while maintaining our technological 
advantages.
    Without concurrent recapitalization, the U.S. Air Force stands to 
lose 80 percent of its current Air Sovereignty Alert force for homeland 
defense in 7 years. Similarly, even as older KC-135 air refueling 
tankers retire, we nearly double the annual flight hours for the newer 
KC-135R/T, which hastens the aging process. Without suitable 
replacements, the current Combat and Mobility Air Forces face 
increasing maintenance and safety issues over the coming years, which 
will undoubtedly affect mission execution and accomplishment.
    It is essential to concurrently and proportionally maintain 
qualified pilots in the ANG who can provide operational surge 
capability to the Total Force in times of war, and lessen the burden of 
high operations tempo faced by the RegAF.
Dual-Use Capabilities
    The ANG provides the balance at home and abroad through fielding of 
``dual-use'' capabilities, a cornerstone of the ANG's cost effective 
contribution to the Total Force. We assist the RegAF as they respond to 
the needs of the Combatant Commanders. Comparable capabilities also 
protect the homeland and defend America's skies. As part of the Total 
Force mission, the ANG requires capabilities to defend against today's 
threats, and to assist our states, territories, and the District of 
Columbia in domestic missions, such as disaster response. We also 
continue to develop ways to take advantage of the cost effectiveness 
inherent in the ANG, such as maximizing associations and community 
basing.
Total Force Integration (TFI)
    Total Force Integration is the method and process by which Air 
Force components leverage the inherent strengths of their respective 
forces and blend their equipment and capabilities to achieve maximum 
effectiveness across the full spectrum of air operations. The ANG 
provides the best value by applying its component-specific efficiencies 
to Total Force operations and by taking on missions that are 
appropriate to its cultural and operational composition.
    The cost savings offered by the ANG are not derived solely from its 
part-time force construct. Significant cost-effectiveness is realized 
in the streamlined operations and limited infrastructure costs unique 
to the ANG, as well as initiatives that combine RegAF and ANG 
personnel, equipment, and aircraft at associate units. The associate 
unit constructs increase Total Force responsiveness to national needs 
by integrating RegAF and ANG-specific mission capabilities, and by 
combining the facilities, training, combat support, and logistical 
infrastructures that maximize combat capability. Three prime examples 
of this construct are the most recently created associate wings, all of 
which perform aerial refueling missions in KC-135 Stratotankers: 126th 
Air Refueling Wing (ARW) at Scott Air Force Base, Illinois; 157 ARW at 
Pease Air National Guard Base (ANGB), New Hampshire; and 117 ARW at 
Birmingham ANGB, Alabama.
Planning for Future Missions
    The ANG is working with the Adjutants General to update and refine 
recapitalization and modernization plans through the ANG Flight Plan, a 
field-driven process in coordination with our Strategic Planning System 
(SPS) that will help position ANG units for future missions. The SPS 
enables the ANG to systematically develop plans that make sense for our 
states and the nation and position the ANG to support the Total Force 
in the future.
            Intelligence, Surveillance, and Reconnaissance (ISR)
    The ANG sees opportunities to contribute further to the Total Force 
in mission areas such as ISR. Our military's increasing focus on 
special operations and analysis are two areas in which the ANG can help 
meet increasing demand.
    One such area is addressed by the RC-26, the ANG's only dedicated, 
light-manned ISR aircraft that supports Special Operations Forces. 
Within the domestic mission, the RC-26 is the ANG's premier aircraft 
for Incident Awareness and Assessment for National Special Security 
Events, counter narcotics, homeland security, and response to natural 
or man-made disasters. The ANG continues to seek Air Force recognition 
and assignment of a Major Command for this aircraft.
    The ANG also operates Remotely Piloted Aircraft (RPA) and has been 
involved in this rapidly emerging mission area since 2004. Today, five 
states operate nine RPAs in combat air patrols in theater, and we 
anticipate even greater involvement in the future. One of these units, 
the New York ANG's 174th Fighter Wing at Hancock Field ANGB in 
Syracuse, now operates the MQ-9 Reaper in support of operations in 
Afghanistan, sending commands to the RPA through satellite networks. 
This wing, which formerly had an F-16 flying mission, is the first Air 
Guard unit to operate MQ-9s and to open the Air Force's only MQ-9 
maintenance schoolhouse this year.
            Space and Cyberspace
    As we look to the future, the ANG is well positioned to assist Air 
Force missions by virtue of the continuity and civilian skills we 
provide. For example, our Air Guard members' civilian skills are well 
suited to help the Air Force meet various mission requirements in areas 
such as cyber security, where the ANG already has eight operational 
units dedicated to deterring attacks on our nation's cyber networks.
    In space operations, Air Force Space Command looks to the ANG to 
provide support in areas such as missile operations, Distributed 
Command and Control Missions, and space launch/range operations. ANG 
efficiencies and initiatives such as TFI help the Total Force mission 
requirements in areas such as missile warning associate squadrons.
            Building Partnership Capacity
    In the emerging mission areas of Irregular Warfare/Building 
Partners/Building Partnership Capacity, the ANG seeks to enhance its 
ability to meet domestic needs, as well as sufficient force structure 
to meet the demands of steady state deployments. We are engaged in 
Light Attack and Armed Reconnaissance (LAAR) testing and numerous Agile 
Combat Support mission areas. We plan to increase tactical and direct 
support airlift capacity, such as light mobility aircraft and rotary 
wing aircraft, as well as increase our ISR capacity and LAAR 
capabilities.
            Continuing Missions
    The ANG will retain some conventional mission sets, particularly 
those associated with Global Persistent Attack. For example, the ANG is 
well suited for missions requiring surge aircraft in the early stages 
of a large conflict because of our cost-effectiveness continuity-of-
experience. The ANG must also continue to participate in missions such 
as Rapid Global Mobility, which includes: Strategic airlift (C-5, C-
17); Intra-theater or tactical airlift (C-130, C-27); and Air refueling 
(KC-135, KC-10, and future platforms).
    ANG combat aircraft (A-10, F-15, and F-16) make up a third of the 
combat capability of our nation's Air Force. Additionally, the ANG 
defends America's air space by conducting the Air Sovereignty Alert 
(ASA) mission at 14 of 16 sites throughout the country. The F-16s used 
in this critical mission will reach their service life expectancy in 7 
years. While our maintainers continue to keep our fleet mission ready 
and capable, these ``legacy'' systems should be replaced as soon as 
practical for the Air Force to remain relevant and reliable.
    The ANG will continue to retain existing missions that provide 
surge capability, such as those involved in Global Persistent Attack. 
Our nation's Air Force Reserve Components are particularly well suited 
in this role, providing unmatched cost effectiveness. Many of our 
tactical airlift missions, as well as Agile Combat Support missions, 
such as medical support, services, security forces, civil engineers, 
transportation, and logistics support, provide dual-use capabilities 
that are an extraordinary value provided only by the ANG.
    Rebalancing the force and training for new missions will directly 
impact thousands of Air Guard members nationwide. With the continued 
support of Congress, the ANG will continue to develop and field the 
most capable, cost-efficient force for fiscal year 2011 and well into 
the future. The members of America's ANG will continue to serve with 
pride and distinction at home and abroad.
    The ANG is an exceptional force, both in terms of the cost-
effectiveness and in the quality and flexibility of our force. We 
continually strive to improve our capabilities and support the Total 
Force effort. We look forward to the future with great anticipation, 
secure in the knowledge that our nation's Air National Guard provides 
unsurpassed value for America.
    major general michael h. sumrall, acting director, joint staff, 
                         national guard bureau
                       message from the director
    Today's prolonged worldwide irregular campaign against the forces 
of violent extremism requires global engagement across the spectrum of 
conflict. The challenge for the National Guard, as well as for the 
military as a whole, is to maintain the skills necessary to help 
struggling nations fight extremism while addressing the conditions that 
allow extremist groups to exist. The real challenge lies at the heart 
of what it means to be a successful, thriving democracy--the 
relationship among the populace, elected officials and government, and 
the military.
    Fortunately, the competitive advantage of the National Guard is its 
ability to build the bridges between civil and military authorities. We 
do this on a daily basis at home, and we are increasingly able to 
translate this capability to our Title 10 responsibilities abroad.
    In 2009, we made great strides in domestic planning efforts between 
U.S. Northern Command and National Guard Bureau (NGB). The National 
Guard has long been well prepared for commonly occurring natural 
disasters such as hurricanes, wildfires, winter storms, and flooding. 
Preparing for less likely but catastrophic events requires an even more 
inclusive approach to planning.
    In recent years, the National Guard has developed innovative 
capabilities such as the Weapons of Mass Destruction Civil Support 
Teams (WMD-CST) and Chemical, Biological, Radiological, Nuclear and 
High-yield Explosive (CBRNE) Enhanced Response Force Package (CERFP) to 
respond to CBRNE events.
                          domestic operations
    Here are some examples of how the National Guard adds value to 
America:
Weapons of Mass Destruction Civil Support Teams (WMD-CST)
    The National Guard will add two new WMD-CST units, bringing the 
total to 57 units. Each unit consists of 22 full-time Army and Air 
Guard personnel. WMD-CSTs help each state's civil authorities in 
identifying CBRNE agents, assessing current and projected consequences, 
advising on response measures, and assisting with appropriate requests 
for additional support.
Chemical, Biological, Radiological, Nuclear and High-yield Explosive 
        Enhanced Response Force Package (CERFP)
    Seventeen CERFPs became fully operation capable in March 2009. This 
achievement helped to bridge the gap of a needed capability for a CBRNE 
response. These professionals train with Federal, state, and local 
agencies, and include the Marine Corps Chemical Biological Incident 
Response Forces (CBIRF) and FEMA Urban Search and Rescue. In addition, 
a number of teams deployed to support national special security events 
such as the State of Union Address, Presidential Inauguration, and 
Republican/Democratic National Conventions, and will deploy to many 
others as the knowledge of this capability grows within the domestic 
operations community.
Homeland Response Force (HRF)
    The National Guard has been directed by DOD to create 10 HRFs: two 
in fiscal year 2011 and eight in fiscal year 2012. The HRF will be made 
up of those early, life-saving capabilities including Search and 
Rescue, Decontamination, Emergency Medical, Security, and Command and 
Control (C\2\), with approximately 566 personnel per HRF. The 10 HRFs, 
17 CERFPs and 57 CSTs will provide the initial military response to a 
CBRNE incident.
CBRNE Consequence Management Response Force (CCMRF)
    Whether deliberate or inadvertent, CBRNE incidents are one of the 
greatest challenges facing our nation today. Accordingly, DOD developed 
the CCMRF concept: a task force of approximately 5,200 service members 
who operate under the authority of Title 10 of the U.S. Code. The CCMRF 
is designed to augment the consequence management efforts of state and 
local first responders, conventional National Guard forces, and Federal 
agencies by providing complementary and unique capabilities when the 
effects of a CBRNE incident exceed state capabilities. Restructured 
CCMRF 1 capabilities include CBRNE assessment, search/rescue, 
decontamination, emergency medical security, logistic support, and 
C\2\. CCMRF 2 and 3 each consist of a 1,200 personnel C\2\ element to 
provide additional command and control capability if required during a 
major incident.
Critical Infrastructure Program (CIP)
    National Guard Critical Infrastructure Protection (CIP) assessment 
teams conduct all-hazard vulnerability assessments of prioritized 
Defense Industrial Base (DIB) and Department of Homeland Security (DHS) 
Tier II sites in support of the Departments of Defense and Homeland 
Security.
    DIB CIP Teams are manned by a joint team consisting of nine 
traditional Air and Army National Guard members. The team consists of a 
team leader, mission analyst, electrical specialist, transportation 
specialist, water, heating, ventilating and air conditioning 
specialist, communications specialist, a petroleum, oil, and 
lubrication specialist, and security operations and emergency 
management. These teams conduct mission assurance assessments of 
prioritized Defense Industrial Base assets. DHS CIP Teams are manned by 
a joint team consisting of three traditional Air and Army National 
Guard members. These teams conduct assessments based on Department of 
Homeland Security criteria of DHS-selected critical assets.
    In fiscal year 2009, NGB CIP teams assessed over 200 industrial 
sites and critical U.S. Government infrastructure for vulnerabilities 
to attack. The teams anticipate assessing 200 more in fiscal year 2010.
    For more details on CIP, please see the information paper at: 
www.ng.mil/features/ngps.
National Guard Reaction Force (NGRF)
    A critical element in the first line of counter-terrorism defense, 
the NGRF is designed to respond to an incident ahead of Federal assets 
with the capability to be logistically self-sustaining for up to 72 
hours. Reaction Forces provide every state with a ready combat arms 
force capable of delivering, at the request of the Governor or 
President, an initial force package of 75-125 personnel who can respond 
within 8 hours. A follow-on force of up to 375 personnel can arrive 
within 24 hours. In fiscal year 2009, states and territories used their 
NGRFs to support the Presidential Inauguration and numerous other 
events and emergencies.
    For more details about the National Guard Reaction Force, please 
see the information paper at: www.ng.mil/features/ngps.
Joint Enabling Team
    The National Guard Bureau Joint Enabling Team (JET) provides 
critical NGB Joint Staff, Army, and Air National Guard expertise to 
support the state or territory during a crisis event. In essence, when 
a disaster strikes, NGB will assist with reporting and coordination of 
NGB support. JETs will be on site within 24 hours of decision to 
execute. JETs have satellite phones, laptops and printers, cell phones, 
communications gear, and any other equipment needed to ensure a 
successful mission. The Team arrives self-sufficient and sustaining. 
NGB can field up to four JETs simultaneously.
Joint Incident Awareness and Assessment Team (JIT)
    Incident Awareness and Assessment (IAA) is a key enabler that 
leverages traditional DOD and other governmental intelligence, 
surveillance, and reconnaissance (ISR) capabilities to support domestic 
operations while strictly adhering to all applicable legal frameworks. 
The JIT, a select, highly trained, fly-away team, assists the state 
Joint Force Headquarters (JFHQ-State) in crisis response with expertise 
in IAA planning, tasking, acquisition, processing, assessment, and 
dissemination to appropriate responders during an incident.
Counterdrug Programs
    The National Guard Counterdrug Program conducts a full spectrum 
campaign that bridges the gap between the Department of Defense and 
non-DOD institutions in the effort against illicit drugs and 
transnational threats to the homeland. The Counterdrug Program supports 
all levels of government, including DOD, law enforcement and community-
based counterdrug operations to anticipate, prevent, deter and defeat 
those threats in order to enhance national security and protect our 
society.
    The National Guard Bureau Counterdrug Program is part of the 
national drug control strategy. Initially authorized by the President 
and Congress in 1989, DOD provides funds on a yearly basis to state 
Governors who submit plans specifying the usage of each state's 
National Guard to support drug interdiction and counterdrug activities.
    The National Guard brings three unique qualities to the Counterdrug 
problem: Trained Citizen-Soldiers and Airmen with unique military 
skills and equipment; legal status as a state militia (exempt from 
posse comitatus); and ties to the more than 3,200 local communities 
where National Guardsmen and women live and serve.
    In fiscal year 2009, approximately 2,600 National Guard personnel 
provided counterdrug support to law enforcement agencies in seizing 
drugs, weapons, and other contraband. During fiscal year 2009, 
counterdrug academies in Iowa, Florida, Mississippi, and Pennsylvania 
trained a total of 97,092 students which included: 4,278 military 
personnel, 23,918 community coalition members, and 68,896 law 
enforcement students.
    The National Guard's anti-drug program ``Stay-On-Track'' (SOT) has 
reached over 160,000 youth since 2006. We expect to expand SOT and 
reach out to 120,000 students in fiscal year 2010.
    For more details about the National Guard's Counterdrug program, 
please see the information paper at: www.ng.mil/features/ngps.
National Guard Prioritized Capability Gaps
    Section 351 of the National Defense Authorization Act (NDAA) for 
fiscal year 2008 directs DOD to provide an assessment of the extent to 
which the National Guard possesses the equipment required to perform 
its responsibilities in response to an emergency or major disaster. The 
assessment is to:
  --Identify any equipment shortfall that is likely to affect the 
        ability of the National Guard to perform such responsibilities.
  --Evaluate the effect of any shortfall on the capacity of the 
        National Guard to perform such responsibilities in response to 
        an emergency or major disaster.
  --Identify the requirements and investment strategies for equipment 
        provided to the National Guard by the Department of Defense 
        that are necessary to plan for a reduction or elimination of 
        any such shortfall.
    In response to this requirement, NGB developed its own Capability 
Assessment and Development Process (CADP), which is modeled after 
Chairman, Joint Chiefs of Staff processes for analyzing mission 
functions and capabilities, and determining gaps/shortfalls and 
solutions. The CADP supports NGB's ability to assess current and future 
capability needs to respond to domestic events, and to articulate those 
needs in appropriate planning, programming, and budgeting forums.
    The National Guard Bureau conducted regional scenario-based 
exercises in 2008 that provided data for the National Guard CADP. 
Subsequent analyses enabled the National Guard Bureau to identity and 
prioritize several capability gaps and develop recommendations for:
  --Improving command and control (C\2\), communications, interagency 
        information sharing, and capacity to conduct domestic 
        operations.
  --Improving National Guard Chemical, Biological, Radiological, 
        Nuclear, and high-yield Explosive (CBRNE) disaster response 
        capabilities.
  --Increasing joint and interagency training and readiness.
    The National Guard Bureau is working through appropriate plans, 
programs, and budgetary processes in order to obtain the necessary 
resources to mitigate identified National Guard capability gaps and 
improve National Guard capabilities for Homeland Defense and Civil 
Support.
                     joint and interagency training
    The NGB is leading the total force in a ``Race to the Top'' that 
postures the National Guard as the most effective joint force for 
domestic military operations. This endeavor started with a training 
transformation (T\2\) in NGB's Joint Interagency Training Capability 
(JITC) programs. NGB advanced T\2\ from a vision to reality in fiscal 
year 2009 by investing in new joint training and education, and by 
integrating joint exercises and training capabilities with interagency 
partners. T\2\ will emphasize JITC programs in fiscal year 2010 and 
beyond that produce experienced leaders and staff officers who are 
joint-minded, innovative, and who can adapt to the operational contexts 
of an event. The final objective of T\2\ is a fully joint force of 
motivated people who are well-trained, well-educated, and exercised to 
accomplish their joint mission essential tasks (JMETs).
Joint Interagency Training Capability (JITC) programs
    Since its inception, JITC has prepared the National Guard by 
providing more than 30,000 man-days of individual, staff, and 
collective training in over 800 events. NGB plans to conduct over 200 
events in fiscal year 2011. Vital JITC programs include:
            Defense Support of Civil Authorities (DSCA) Training
    DSCA training uses simulations and linked Live-Virtual-Constructive 
environments to enhance training for homeland defense and emergency 
response missions.
            Joint Task Force (JTF) Commander Training Course
    This 5-day course provides current and future JTF commanders with 
an understanding of directives, current policies, guidance, and lessons 
learned regarding the complexities of commanding a JTF.
            Joint Staff Training Course
    This 6-month course blends distance learning with face-to-face 
sessions to train joint force staff personnel in all aspects of joint 
operations, planning, and execution to prepare them to act in concert 
with other joint, interagency, and intergovernmental organizations.
            Standardized CBRNE Collective Training
    This program trains CERFP, WMD-CST, and NGRF teams to provide an 
immediate response capability to support civil and military authorities 
following a CBRNE incident by forensically identifying the 
contamination; locating, extracting, decontaminating, and medically 
treating victims; and providing responders with security.
                             vigilant guard
    Each year, the National Guard conducts four regional Vigilant Guard 
(VG) exercises to help military first-responders unify their efforts to 
support civilian authorities. In 2009, regional VG exercises were 
hosted by Iowa, Montana, New York, and Puerto Rico, with many other 
states contributing. The NGB is also building a special Vigilant Guard 
exercise to support the 54 states and territories in preparing for 
larger scale or real-world events. Implementation will begin in fiscal 
year 2011.
Emergency Response and Training
    The National Guard's Joint Incident Site Communications Capability 
(JISCC) provides communications capabilities for the National Guard 
while conducting domestic operations and providing military support to 
civil authorities. With 85 deployed systems, JISCC is available for 
utilization anytime and anywhere. It provides interoperable 
communications and emergency satellite links to command and control 
centers to share information and tools needed to support collaboration 
with other Federal, state, and local responders including FEMA, the 
Department of Homeland Security (DHS), and state emergency management 
agencies.
    The success of JISCC's anytime and anywhere communications 
capability in supporting domestic operations has received recognition 
and support from the military departments. The NGB and Army and Air 
Force are assessing it for future development as a programmed and 
funded defense communications system. The JISCC system, in conjunction 
with a web-based application (Joint Information Exchange Environment), 
and a Command and Control Coordination Center (C\4\) are known 
collectively as the Joint CONUS Communications Support Environment 
(JCCSE).
    Together, JCCSE's three elements offer the states and territories, 
Combatant Commanders, and domestic operations partners a complete 
communications package for emergency management/response: Deployable 
communication equipment; situational awareness and common operating 
picture capability; and a center for coordinating emergency operations.
    Partial funding for sustainment of the three JCCSE elements has 
been recognized in the fiscal year 2010-15 defense budget.
                  supporting the warfighter and family
Financial Management Awareness Program
    In 2009, the National Guard Bureau established the Consumer 
Education and Financial Services Program. Working with defense, 
government, and civilian agencies, the program educates members of the 
National Guard and their families on financial responsibility and 
provides them with the necessary resources available to help them make 
sound financial decisions. Financial health is essential to the 
National Guard's preparedness and is an important quality-of-life 
issue. Continued collaboration among all agencies will ensure that 
every National Guard member and each family can understand and access 
the myriad of available financial resources.
    Websites: http://www.militaryhomefront.dod.mil/; http://
www.myarmyonesource.com; and http://www.jointservicessupport.org/.
    The Yellow Ribbon Reintegration Program (YRRP) provides 
information, services, referrals, and proactive outreach to Service 
members, families and employers throughout pre-deployment, deployment, 
and post-deployment. Through May 2009, the National Guard has already 
conducted 619 events involving 47,182 service members and 58,350 family 
members.
Youth Development
    Our Citizen-Soldiers who, in their civilian lives, are influential 
across the spectrum of business, education, and government make up the 
backbone of the National Guard Youth ChalleNGe program. The award-
winning community-based program leads, trains, and mentors at-risk 
youth to become productive citizens in America's future. ChalleNGe has 
32 sites in 28 states and Puerto Rico, offering a 5-month ``quasi-
military'' residential phase and a 1-year post-residential mentoring 
phase for unemployed, crime-free high school dropouts, ages 16-18.
    Since 1993, ChalleNGe has graduated over 90,000 students. Over 67 
percent have earned a GED or high school diploma and 12 percent enter 
the military. The program pays for itself by savings realized from 
keeping young people out of jail and off public assistance rolls. Based 
on a formula from a 1998 Vanderbilt University study, ChalleNGe saves 
approximately $175 million annually in juvenile corrections costs, 
while keeping youth off of Federal assistance.
    For more details on the National Guard Youth ChalleNGe program, 
please see the information paper at: www.ng.mil/features/ngps.
DOD STARBASE Program
    Thirty-four National Guard sites host the DOD STARBASE Program 
which reaches out to at-risk 5th grade students to improve their 
knowledge and interest in the science, technology, engineering, and 
math fields. The United States faces a workforce and educational crisis 
in these fields as American 15-year-olds rank near the bottom of 30 
countries in combined science and math test scores. The program exposes 
the students to advanced technology and positive role models found on 
military bases and installations.
    For more details on the DOD STARBASE program, please see the 
information paper at: www.ng.mil/features/ngps.
A Leader in Equal Opportunity
    The NGB Office of Equal Opportunity (NGB-EO) provides direction, 
administration, management, and policy implementation of National Guard 
(NG) military Equal Opportunity (EO) and technician Equal Employment 
Opportunity (EEO) and Civil Rights programs to both Army and Air Force. 
NGB-EO ensures the effective management of NG Affirmative Action 
Programs to achieve a military and civilian workforce structure that is 
reflective of the diversification of the 54 states, territories, and 
the District of Columbia.
    NGB-EO also oversees the implementation of programs that focus on 
the special needs of employees with disabilities. People with 
disabilities can be hired through the traditional competitive hiring 
process or if they qualify, noncompetitively through the use of 
accepted service appointing authorities. NGB-EO is responsible for 
providing educational awareness about Wounded Warriors, reasonable 
accommodations, and employment opportunities through various programs. 
As an employer, the National Guard recognizes that all employees with 
disabilities and wounded service members are essential to our workforce 
and have demonstrated excellence in executive, administrative, 
managerial, and technical fields.
                        state adjutants general
Alabama: Major General Abner C. Blalock Jr.
Alaska: Brigadier General Thomas H. Katkus
Arizona: Major General (AZ) Hugo E. Salazar
Arkansas: Major General William D. Wofford
California: Brigadier General Mary J. Kight
Colorado: Major General H. Michael Edwards
Connecticut: Major General Thaddeus J. Martin
Delaware: Major General Francis D. Vavala
District of Columbia: Major General Errol R. Schwartz, Commanding 
General
Florida: Major General Douglas Burnett
Georgia: Major General William T. Nesbitt
Guam: Major General Donald J. Goldhorn
Hawaii: Major General Robert G. F. Lee
Idaho: Major General (ID) Gary L. Sayler
Illinois: Major General William L. Enyart
Indiana: Major General R. Martin Umbarger
Iowa: Brigadier General Timothy E. Orr
Kansas: Major General Tod M. Bunting
Kentucky: Major General Edward W. Tonini
Louisiana: Major General Bennett C. Landreneau
Maine: Major General (Ret) John W. Libby
Maryland: Brigadier General (MD) James A. Adkins
Massachusetts: Major General (MA) Joseph C. Carter
Michigan: Major General Thomas G. Cutler
Minnesota: Major General Larry W. Shellito
Mississippi: Major General (MS) William L. Freeman, Jr.
Missouri: Brigadier General (MO) Stephen L. Danner
Montana: Brigadier General (MT) John E. Walsh
Nebraska: Brigadier General (NE) Judd H. Lyons
Nevada: Brigadier General William R. Burks
New Hampshire: Major General (NH) William N. Reddel III
New Jersey: Major General Glenn K. Rieth
New Mexico: Major General (NM) Kenny C. Montoya
New York: Brigadier General Patrick A. Murphy
North Carolina: Major General William E. Ingram, Jr.
North Dakota: Major General David A. Sprynczynatyk
Ohio: Major General Gregory L. Wayt
Oklahoma: Major General Myles L. Deering
Oregon: Major General Raymond F. Rees
Pennsylvania: Major General Jessica L. Wright
Puerto Rico: Major General (PR) Antonio J. Vicens-Gonzalez
Rhode Island: Major General Robert T. Bray
South Carolina: Major General (Ret) Stanhope S. Spears
South Dakota: Major General Steven R. Doohen
Tennessee: Major General (TN) Terry M. Haston
Texas: Major General Jose S. Mayorga Jr.
Utah: Major General Brian L. Tarbet
Vermont: Major General Michael D. Dubie
Virginia: Major General Robert B. Newman Jr.
Virgin Islands: Brigadier General (VI) Renaldo Rivera
Washington: Major General Timothy J. Lowenberg
West Virginia: Major General Allen E. Tackett
Wisconsin: Brigadier General (WI) Donald P. Dunbar
Wyoming: Major General Edward L. Wright
                              in memoriam
    A special dedication to the men and women of the Army and the Air 
National Guard who made the ultimate sacrifice while serving the United 
States of America.
    National Guard Soldiers and Airmen lost during the attacks on 9/11, 
Operation Noble Eagle, Operation Enduring Freedom, and Operation Iraqi 
Freedom as of January 1, 2010.

SGT Christopher P. Abeyta, IL
CPT Clayton L. Adamkavicius, KY
PVT Algernon Adams, NC
SGT. Roger L. Adams Jr, NC
SGT Ryan C. Adams, WI
SFC Brent A. Adams, PA
SGT Leonard W. Adams, NC
SGT Spencer C. Akers, MI
SPC Segun F. Akintade, NY
PFC Wilson A. Algrim, MI
SPC Azhar Ali, NY
SGT Howard P. Allen, AZ
1LT Louis E. Allen, PA
SSG William A. Allers III, KY
SFC Victor A. Anderson, GA
SPC Michael Andrade, RI
SGT Jan M. Argonish, PA
SGT Travis M. Arndt, MT
SSG Daniel L. Arnold, PA
SSG Larry R. Arnold, MS
SGT Jesse A. Ault, VA
SPC Adrian L. Avila, AL
SGT Christopher J. Babin, LA
SFC Travis S. Bachman, KS
SSG Nathan J. Bailey, TN
SPC William L. Bailey, NE
SPC Ronald W. Baker, AR
SGT Sherwood R. Baker, PA
SGT Juan C. Baldeosingh, NC
MSG Scott R. Ball, PA
1LT Debra A. Banaszak, IL
SGT Derek R. Banks, VA
1LT Gerard Baptiste, NY
SGT Michael C. Barkey, OH
1LT Leevi K. Barnard, NC
1LT Christopher W. Barnett, LA
SPC Bryan E. Barron, MS
SGT Michael Barry, KS
SSG Robert J. Basham, WI
SPC Todd M. Bates, OH
SSG Mark C. Baum, PA
SSG Tane T. Baum, OR
SFC John C. Beale, GA
SPC Alan Bean Jr., VT
SGT Bobby E. Beasley, WV
SSgt Brock A. Beery, TN
CPL Joseph O. Behnke, NY
SGT Aubrey D. Bell, AL
SSG Keith A. Bennett, PA
SGT Darry Benson, NC
SPC Bradley J. Bergeron, LA
LTC Richard J. Berrettini, PA
SSG David R. Berry, KS
SSG Sean B. Berry, TX
SSG Harold D. Best, NC
SGT Robert L. Bittiker, NC
1SG John D. Blair, GA
SSG Richard A. Blakley, IN
SGT Dennis J. Boles, FL
SFC Craig A. Boling, IN
SSG Jerry L. Bonifacio Jr., CA
SSG Darryl D. Booker, VA
COL Canfield Boone, IN
SPC Christopher K. Boone, TX
CPL Samuel M. Boswell, MD
SSG Collin J. Bowen, MD
PFC Samuel R. Bowen, OH
SGT Larry Bowman, NY
SSG Hesley Box Jr., AR
SSG Stacey C. Brandon, AR
SPC Kyle A. Brinlee, OK
SSG Paul F. Brooks, MO
SSG Cory W. Brooks, SD
SFC John G. Brown, AR
SGT Lerando Brown, MS
PFC Nathan P. Brown, NY
PFC Oliver J. Brown, PA
SPC Philip D. Brown, ND
SPC Timothy D. Brown, MI
SGT Charles R. Browning, AZ
SFC Daniel A. Brozovich, PA
SSgt Andrew C. Brunn, NY
SPC Jacques E. Brunson, GA
PFC Paul J. Bueche, AL
CPL Jimmy D. Buie, AR
SSG James D. Bullard, SC
SPC Alan J. Burgess, NH
SSG Jason E. Burkholder, OH
SGT Casey. Byers, IA
SGT Charles T. Caldwell, RI
MAJ Jeffrey R. Calero, NY
SPC Norman L. Cain III, IL
SSG Joseph Camara, MA
1LT Jaime L. Campbell, WA
LTC David C. Canegata III, VI
SGT Deyson K. Cariaga, HI
SPC Frederick A. Carlson, PA
SSG Nicholas R. Carnes, KY
SPC Jocelyn L. Carrasquillo, NC
MSG Scott M. Carney, IA
SGT James D. Carroll, TN
SPC Dane O. Carver, MI
SGT Frank T. Carvill, NJ
SFC Virgil R. Case, ID
CPT Christopher S. Cash, NC
SPC Stephen W. Castner, WI
SPC George W. Cauley, MN
SPC Jessica L. Cawvey, IL
CPL Bernard L. Ceo, MD
SPC James A. Chance III, MS
SSG William D. Chaney, IL
MSG Chris S. Chapin, VT
SGT Brock H. Chavers, GA
SSG Craig W. Cherry, VA
SPC Don A. Clary, KS
MSG Herbert R. Claunch, AL
SGT James M. Clay, AR
SPC Brian Clemens, IN
SSG Thomas W. Clemons, KY
SGT Russell L. Collier, AR
SFC Kurt J. Comeaux, LA
SPC Anthony S. Cometa, NV
SGT Brian R. Conner, MD
SFC Sean M. Cooley, MS
SSG Travis S. Cooper, MS
SPC Marcelino R. Corniel, CA
SGT Alex J. Cox, TX
SFC Daniel B. Crabtree, OH
MSG Clinton W. Cubert, KY
SSG Daniel M. Cuka, SD
SPC Carl F. Curran, PA
CPT Patrick D. Damon, ME
SGT Jessie Davila, KS
SPC Daryl A. Davis, FL
SSG Kevin D. Davis, OR
SPC Raphael S. Davis, MS
SSG David F. Day, MN
PFC John W. Dearing, MI
SGT Germaine L. Debro, NE
MSG Bernard L. Deghand, KS
SGT Felix M. Del Greco, CT
SPC Daryl T. Dent, DC
SPC Daniel A. Desens, NC
CPT Bruno G. Desolenni, CA
PFC Nathaniel E. Detample, PA
CPL Scott G. Dimond, NH
SPC Joshua P. Dingler, GA
SGT Philip A. Dodson Jr., GA
SPC Ryan E. Doltz, NJ
SSgt Geronimo ``Jerome'' M. P. Dominguez, NY
1LT Mark H. Dooley, NY
SPC Thomas J. Dostie, ME
SSG George R. Draughn Jr., GA
SGT Duane J. Dreasky, MI
SPC Daniel P. Drevnik, MN
SPC Christopher M. Duffy, NJ
CPL Ciara M. Durkin, MA
SGT Arnold Duplantier II, CA
MSG Kevin A. Dupont, MA
Sgt Lance O. Eakes, NC
SPC Chad A. Edmundson, PA
SFC Amos C. Edwards Jr., GA
CW2 Corry A. Edwards, TX
SFC Mark O. Edwards, TN
2LT Michael I. Edwards, AK
SGT Michael Egan, PA
SGT Christian P. Engeldrum, NY
1LT William E. Emmert, TN
SGT Daniel M. Eshbaugh, OK
CPT Phillip T. Esposito, NY
SPC Michael S. Evans II, LA
SPC William L. Evans, PA
SSG Christopher L. Everett, TX
SGT Justin L. Eyerly, OR
SPC Huey P. Long Fassbender, LA
SGT Gregory D. Fejeran, GU
CPT Arthur L. Felder, AR
SGT Robin V. Fell, LA
SGT Christopher J. C. Fernandez, GU
SPC William V. Fernandez, PA
SPC Jon P. Fettig, ND
SGT Damien T. Ficek, WA
SGT Courtney D. Finch, KS
SGT Jeremy J. Fischer, NE
CPT Michael T. Fiscus, IN
SPC David M. Fisher, NY
SGT Paul F. Fisher, IA
CW3 William T. Flanigan, TN
CW3 John M. Flynn, NV
SSG Tommy I. Folks Jr., TX
SGT Joseph A. Ford, IN
SGT Joshua A. Ford, NE
SPC Craig S. Frank, MI
SSG Bobby C. Franklin, GA
SSG Jacob Frazier, IL
SSG Alex French IV, GA
SPC Carrie L. French, ID
SPC Armand L. Frickey, LA
SSG Joseph F. Fuerst III, FL
SFC Michael T. Fuga, AS \1\
SSG Carl R. Fuller, GA
SPC Marcus S. Futrell, GA
CSM Marilyn L. Gabbard, IA
SPC Joseph L. Gallegos, NM
SGT Jerry L. Ganey Jr., GA
SGT Seth K. Garceau, IA
SPC Tomas Garces, TX
SGT Landis W. Garrison, IL
PFC Alva L. Gaylord, MO
SGT Christopher Geiger, PA
SPC Christopher D. Gelineau, ME
SPC Mathew V. Gibbs, GA
2LT Richard B. Gienau, IL
SSG Charles C. Gillican III, GA
SGT Terrell W. Gilmore, LA
SPC Lee M. Godbolt, LA
SGT Jaime Gonzalez, TX
CPL Nathan J. Goodiron, ND
SPC Richard A. Goward, MI
SGT Shawn A. Graham, TX
SFC Alejandro Granado, VA
SGT Jamie A. Gray, VT
SPC Anthony G. Green, NC
SGT Kevin D. Grieco, IL
SPC James T. Grijalva, IL
SGT Shakere T. Guy, CA
SGT Jonathon C. Haggin, GA
SFC Peter J. Hahn, LA
CSM Roger W. Haller, MD
SSG Jeffrey J. Hansen, NE
SGT Joshua R. Hanson, MN
SGT Joshua W. Harris, IL
SSG Asbury F. Hawn II, TN
SPC Michael R. Hayes, KY
CPT Bruce E. Hays, WY
SGT Paul M. Heltzel, LA
SPC Kyle M. Hemauer, VA
1LT Robert L. Henderson II, KY
SSG Kenneth Hendrickson, ND
SFC John M. Hennen, LA
SGT Gary M. Henry, IN
SPC Michael L. Hermanson, ND
SPC Brett M. Hershey, IN
MAJ Tad T. Hervas, MN
MSG Michael T. Hiester, IN
SGT Stephen C. High, SC
CPT Raymond D. Hill II, CA
SGT Shawn F. Hill, SC
SFC Matthew L. Hilton, MI
SGT Jeremy M. Hodge, OH
PFC Derek Holland, PA
SFC Robert L. Hollar Jr., GA
SPC Eric M. Holke, CA
SPC James J. Holmes, MN
SPC Jeremiah J. Holmes, ME
SGT Manny Hornedo, NY
SPC Chester W. Hosford, MN
SGT Jessica M. Housby, IL
SPC Robert W. Hoyt, CT
SPC Jonathan A. Hughes, KY
SGT Buddy J. Hughie, OK
SGT Joseph D. Hunt, TN
MSG Julian Ingles Rios, PR
SSG Henry E. Irizarry, NY
SPC Benjamin W. Isenberg, OR
SFC Tricia L. Jameson, NE
SGT Brahim J. Jeffcoat, PA
SPC William Jeffries, IN
MAJ Kevin M. Jenrette, GA
SPC David W. Johnson, OR
SPC Issac L. Johnson, GA
SGT Joshua A. Johnson, VT
SFC Charles J. Jones, KY
SSG David R. Jones Sr., GA
SFC Michael D. Jones, ME
SGT Ryan D. Jopek, WI
SPC Jeffrey W. Jordan, GA
SGT Anthony N. Kalladeen, NY
SPC Alain L. Kamolvathin, NJ
SPC Mark J. Kasecky, PA
SSG Darrel D. Kasson, AZ
SPC Charles A. Kaufman, WI
SPC James C. Kearney, IA
SGT Michael J. Kelley, MA
SSG Dale J. Kelly, ME
COL Paul M. Kelly, VA
SSG Stephen C. Kennedy, TN
SSG Ricky A. Kieffer, MI
SSG Bradley D. King, IN
SGT James O. Kinlow, GA
PFC David M. Kirchoff, IA
SGT Timothy C. Kiser, CA
SPC Rhys W. Klasno, CA
SPC Chris Kleinwachter, ND
SGT Floyd G. Knighten Jr., LA
SPC Joshua L. Knowles, IA
SGT Brent W. Koch, MN
SSG Lance J. Koenig, ND
SGT Allen D. Kokesh Jr., SD
CW3 Patrick W. Kordsmeier, AR
SFC Edward C. Kramer, NC
SPC Kurt E. Krout, PA
SPC John Kulick, PA
SFC William W. Labadie Jr., AR
SGT Joshua S. Ladd, MS
SGT Dustin D. Laird, TN
SFC Floyd E. Lake, VI
SPC Charles R. Lamb, IL
SPC David E. Lambert, VA
SGT Denise A. Lannaman, NY
SFC Issac S. Lawson, CA
CW4 Patrick D. Leach, SC
SGT Terrance D. Lee Sr., MS
SGT David L. Leimback, SC
PFC Ken W. Leisten, OR
SSG Jerome Lemon, SC
SPC Brian S. Leon Guerrerro, GU
SPC Timothy J. Lewis, VA
SSG Nathaniel B. Lindsey, OR
SGT Jesse M. Lhotka, MN
SSG Victoir P. Lieurance, TN
SFC Daniel R. Lightner Jr., PA
SPC Justin W. Linden, OR
SSG Tommy S. Little, AL
SPC Jeremy Loveless, AL
SSG David L. Loyd, TN
CPT Ronald G. Luce Jr., NC
CPT Robert Lucero, WY
2LT Scott B. Lundell, UT
SPC Audrey D. Lunsford, MS
PFC Jonathan L. Luscher, PA
SPC Derrick J. Lutters, CO
SPC Wai Phyo Lwin, NY
CPT Sean E. Lyerly, TX
SGT Stephen R. Maddies, TN
SPC Anthony L. Mangano, NY
SSG William F. Manuel, LA
SPC Joshua S. Marcum, AR
SPC Jeremy E. Maresh, PA
PFC Adam L. Marion, NC
PV2 Taylor D. Marks, OR
PFC Ryan A. Martin, OH
Sgt Anthony L. Mason, TX
SGT Nicholas C. Mason, VA
SGT John R. Massey, AR
SGT Randy J. Matheny, NE
SGT Patrick R. McCaffrey Sr., CA
SFC Randy D. McCaulley, PA
1LT Erik S. McCrae, OR
SPC Donald R. McCune, MI
SPC Bryan T. McDonough, MN
SGT John E. McGee, GA
SPC Jeremy W. McHalffey, AR
SFC Joseph A. McKay, NY
SPC Eric S. McKinley, OR
LTC Michael E. McLaughlin, PA
SPC Scott P. McLaughlin, VT
SGM Jeffrey A. McLochlin, IN
SSG Heath A. McMillan, NY
SSG Michael J. McMullen, MD
SPC Robert A. McNail, MS
MSG Robbie D. McNary, MT
SSG Jeremiah E. McNeal, VA
SPC Curtis R. Mehrer, ND
PV2 Bobby Mejia II, MI
SPC Mark W. Melcher, PA
SPC Jacob E. Melson, AK
SSG Joshua A. Melton, IL
SPC Kenneth A. Melton, MO
SPC Jonathan D. Menke, IN
SSG Chad M. Mercer, GA
SPC Chris S. Merchant, VT
SSG Dennis P. Merck, GA
SGM Michael C. Mettille, MN
SPC Michael G. Mihalakis, CA
SSG Brian K. Miller, IN
SPC John W. Miller, IA
SGT Kyle R. Miller, MN
CPT Lowell T. Miller II, MI
SPC Marco L. Miller, FL
PFC Mykel F. Miller, AZ
SFC Troy L. Miranda, AR
SGT Ryan J. Montgomery, KY
SPC Samson A. Mora, GU
SGT Raymundo P. Morales, GA
SGT Carl J. Morgain, PA
SPC Dennis B. Morgan, NE
SGT Steve Morin Jr., TX
SGT Shawna M. Morrison, IL
SPC Clifford L. Moxley, PA
LTC Charles E. Munier, WY
SPC Warren A. Murphy, LA
SGT David J. Murray, LA
SPC Nathan W. Nakis, OR
SFC Brian Naseman, OH
SPC Creig L. Nelson, LA
SGT Paul C. Neubauer, CA
SPC Joshua M. Neusche, MO
SGT Long N. Nguyen, OR
SPC Paul A. Nicholas, CA
SFC Scott E. Nisely, IA
SGT William J. Normandy, VT
PFC Francis C. Obaji, NY
SGT John B. Ogburn III, OR
SGT Nicholas J. Olivier, LA
SSG Todd D. Olson, WI
1LT Robert C. Oneto-Sikorski, MS
1SGT Julio C Ordonez, TX
SPC Richard P. Orengo, PR
SSG Billy Joe Orton, AR
SGT Timothy R. Osbey, MS
SSG Ryan S. Ostrom, PA
SSG Michael C. Ottolini, CA
SSG Paul S. Pabla, IN
SGT Mark C. Palmateer, NY
PFC Kristian E. Parker, LA
SGT Richard K. Parker, ME
SSG Saburant Parker, MS
SGT Lawrence L. Parrish, MO
SSG Michael C. Parrott, CO
SGT Schulyer B. Patch, OK
SPC Gennaro Pellegrini Jr., PA
SGT Theodore L. Perreault, MA
SSG David S. Perry, CA
SGT Jacob L. Pfingsten, MN
SSG Joseph E. Phaneuf, CT
PFC Sammie E. Phillips, KY
SGT Edward O. Philpot, SC
SGT Ivory L. Phipps, IL
SSG Emanual Pickett, NC
CW2 Paul J. Pillen, SD
PFC Derek J. Plowman, AR
SGT Foster Pinkston, GA
SPC Matthew M. Pollini, MA
SGT Darrin K. Potter, KY
SGT Christopher S. Potts, RI
SGT Lynn R. Poulin Sr., ME
SFC Daniel J. Pratt, OH
SFC James D. Priestap, MI
2LT Mark J. Procopio, VT
SGT Joseph E. Proctor, IN
SSG Matthew A. Pucino, MD
SPC Robert S. Pugh, MS
SFC George A. Pugliese, PA
SSG Thomas D. Rabjohn, AZ
SPC Joseph A. Rahaim, MS
SPC Eric U. Ramirez, CA
PFC Brandon Ramsey, IL
SPC Christopher J. Ramsey, LA
SSG Jose C. Rangel, CA
SGT Thomas C. Ray, NC
SSG Johnathan R. Reed, LA
SSG Aaron T. Reese, OH
SGT Gary L. Reese Jr., TN
SGT Luis R. Reyes, CO
SPC Jeremy L. Ridlen, IL
SPC James D. Riekena, WA
SGT Greg N. Riewer, MN
PFC Hernando Rios, NY
SSG Milton Rivera-Vargas, PR
CPL John T. Rivero, FL
SSG William T. Robbins, AR
SSG Christopher L. Robinson, MS
CPL Jeremiah W. Robinson, AZ
SPC Simone A. Robinson, IL
SGT Nelson D. Rodriguez Ramirez, MA
SSG Alan L. Rogers, UT
SFC Daniel Romero, CO
SGT Brian M. Romines, IL
SFC Robert E. Rooney, NH
SPC David L. Roustum, NY
SGT Roger D. Rowe, TN
CW3 Brady J. Rudolf, OK
SGT David A. Ruhren, VA
CW4 William Ruth, MD
SPC Lyle W. Rymer II, AR
SPC Corey J. Rystad, MN
SSG Lukasz D. Saczek, IL
SFC Rudy A. Salcido, CA
SGT Paul A. Saylor, GA
SSG Daniel R. Scheile, CA
SPC Ronald A. Schmidt, KS
SFC Richard L. Schild, SD
SGT Jacob S. Schmuecker, NE
SPC Jeremiah W. Schmunk, WA
PFC Benjamin C. Schuster, NY
SGT Andrew Seabrooks, NY
SPC Dennis L. Sellen, CA
SGT Bernard L. Sembly, LA
SPC Daniel L. Sesker, IA
SGT Jeffrey R. Shaver, WA
SGT Kevin Sheehan, VT
SGT Ronnie L. Shelley Sr., GA
SGT James A. Sherrill, KY
1LT Andrew C. Shields, SC
SPC Bradley N. Shilling, MI
PFC Ashley Sietsema, IL
SGT Alfred B. Siler, TN
SGT Alfredo B. Silva, CA
SGT Isiah J. Sinclair, LA
SPC Roshan (Sean) R. Singh, NY
SPC Channing G. Singletary, GA
SPC Aaron J. Sissel, IA
SSG Bradley J. Skelton, MO
1LT Brian D. Slavenas, IL
SGT Eric W. Slebodnik, PA
SPC Erich S. Smallwood, AR
SGT Keith Smette, ND
CW4 Bruce A. Smith, IA
CPL Darrell L. Smith, IN
SGT Gerrick D. Smith, IL
SGT Michael A. Smith, AR
SSG Paul G. Smith, IL
SPC Norman K. Snyder, IN
SGT Mike T. Sonoda Jr., CA
Lt Col Kevin H. Sonnenberg, OH
SGT Matthew R. Soper, MI
SGT Kampha B. Sourivong, IA
1LT Jared W. Southworth, IL
SFC Theodore A. Spatol, WY
SFC William C. Spillers, MS
SSG Chris N. Staats, TX
SPC David S. Stelmat, NH
SGT Patrick D. Stewart, NV
SGT Jonnie L. Stiles, CO
SGT Michael J. Stokely, GA
Maj Gregory Stone, ID
SPC Samuel D. Stone, WA
MSG John T. Stone, VT
SPC Brandon L. Stout, MI
SPC Chrystal G. Stout, SC
2LT Matthew R. Stoval, MS
SGT Francis J. Straub Jr., PA
SGT Matthew F. Straughter, MO
SGT Scott Stream, IL
SGT Thomas J. Strickland, GA
WO1 Adrian B. Stump, OR
CW4 Milton E. Suggs, LA
SFC Severin W. Summers III, MS
SSG Daniel A. Suplee, FL
SSG Michael Sutter, IL
SGT Robert W. Sweeney III, LA
SPC Christopher M. Talbert, IL
SGT Deforest L. Talbert, WV
SFC Linda A. Tarango-Griess, NE
SPC Christopher M. Taylor, AL
SPC Deon L. Taylor, NY
CPT Michael V. Taylor, AR
SGT Shannon D. Taylor, TN
SGT Joshua A. Terando, IL
MSG Thomas R. Thigpen Sr., GA
SGT John F. Thomas, GA
MSG Sean M. Thomas, PA
SGT Paul W. Thomason III, TN
CPL Michael E. Thompson, OK
1LT Jason G. Timmerman, MN
SGT Humberto F. Timoteo, NJ
SPC Eric L. Toth, KY
SSG Robin L. Towns Sr., MD
SPC Seth R. Trahan, LA
SPC Quoc Binh Tran, CA
SSG Philip L. Travis, GA
CW4 Chester W. Troxel, AK
SGT Robert W. Tucker, TN
SGT Gregory L. Tull, IA
SPC Nicholas D. Turcotte, MN
1LT Andre D. Tyson, CA
SPC Daniel P. Unger, CA
PFC Wilfredo F. Urbina, NY
SGT Michael A. Uvanni, NY
1LT Robert Vallejo II, TX
SGT Gene Vance Jr., WV
SGT Travis A. Vanzoest, ND
SGT Daniel R. Varnado, MS
SSG Jason A. Vazquez, IL
1LT Michael W. Vega, CA
SSG David M. Veverka, PA
SPC Anthony M. K. Vinnedge, OH
SPC Chad J. Vollmer, MI
PFC Kenneth Gri Vonronn, NY
SPC Jason E. von Zerneck, NY
SSG Michael S. Voss, NC
PFC Brandon J. Wadman, FL
SSG Gregory A. Wagner, SD
SGT Andrew P. Wallace, WI
SGT Daniel W. Wallace, KY
PFC Cwislyn K. Walter, HI
SFC Charles H. Warren, GA
1SG William T. Warren, AR
SFC Mark C. Warren, OR
SPC Glenn J. Watkins, CA
MSG Davy N. Weaver, GA
SGT Matthew A. Webber, MI
SFC Kyle B. Wehrly, IL
SGT Robert M. Weinger, IL
SSG David J. Weisenburg, OR
SPC Michael J. Wendling, WI
SPC Cody Lee L. Wentz, ND
SGT Earl D. Werner, WI
SPC Jeffrey M. Wershow, FL
SPC James D. Wertish, MN
SGT Marshall A. Westbrook, NM
SPC Lee A. Wiegand, PA
SPC Carlos E. Wilcox IV, MN
LTC James L. Wiley, OR
1LT Charles L. Wilkins III, OH
SGT David B. Williams, NC
2LT Derwin I. Williams, IL
SPC Michael L. Williams, NY
SFC Christopher R. Willoughby, AL
SSG Clinton L. Wisdom, KS
SPC Robert A. Wise, FL
SPC Michelle M. Witmer, WI
SSG Delmar White, KY
SGT Elijah Tai Wah Wong, AZ
SPC John E. Wood, KS
SFC Ronald T. Wood, UT
SGT Roy A. Wood, FL
SFC William B. Woods Jr., VA
SSG James Wosika, MN
SPC Brian A. Wright, IL
SGT Thomas G. Wright, MI
SGT Joshua V. Youmans, MI
SPC Christopher D. Young, CA

    \1\ American Samoa

    Chairman Inouye. Before I call upon General Wyatt, may I 
recognize Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I will hold my time 
until the questions.
    But, I just cannot help but note what General McKinley said 
about Senator Bond. One of the great joys of the last few years 
here in the Senate has been being cochair with Senator Bond--
Governor Bond--on the National Guard Caucus. I have enjoyed our 
bipartisan cooperation, and that cooperation is one of the 
reasons why you have four stars on your shoulder, General. You 
earned them, of course, but we made it possible to have that 
slot there. Mr. Chairman, I think we have four very good 
friends sitting up here right now who are on both sides of the 
aisle.
    Kit, I know this is going to be your last hearing of this 
nature before the subcommittee, and I just wanted to say how 
much I've appreciated both the friendship and working with you.
    Chairman Inouye. I can't imagine not hearing from Senator 
Bond in years to come.
    Your voice----
    Senator Bond. I notice that's with a smile, Mr. Chairman--
you're not looking sad.
    Thank you.
    Chairman Inouye. May I now call upon General Wyatt.

       SUMMARY STATEMENT OF LIEUTENANT GENERAL HARRY M. WYATT III

    General Wyatt. Mr. Chairman, Mr. Vice Chairman, Senator 
Leahy, Senator Bond, on behalf of the 106,700 extraordinary men 
and women who serve in America's Air National Guard, thank you 
for inviting me today, and thank you for the continued strong 
support that this subcommittee has provided our servicemembers.
    Many of our folks continue to volunteer at unprecedented 
rates for worldwide contingencies and to protect our domestic 
security through air sovereignty alert missions and in 
responding to natural and manmade disasters.
    A shining example of the quality of individuals that we 
have is a young man who is seated behind me. And with the 
permission of the subcommittee, I would like to introduce to 
you Staff Sergeant Kenneth Walker.
    Sergeant Walker, if you'd please stand.
    Sergeant Walker is a tactical air control party journeyman. 
He's assigned to the 116th Air Support Operations Squadron as a 
flight supervisor at Camp Murray, Washington. He, in 1998, 
enlisted in the United States Air Force as an operations 
resource specialist, and joined the 9th Bomber Squadron in 
Abilene, Texas. In 2004, he joined the Army National Guard and 
began training with the 19th Special Forces Group in Buckley, 
Washington. In 2006, Sergeant Walker joined the Air National 
Guard at Camp Murray, Washington, and began his training as a 
tactical air control party noncommissioned officer (NCO). 
Sergeant Walker recently returned from his fifth deployment, 
this time as a tactical air controller personnel, where he 
directed close air support in support of the 3d Brigade Combat 
Team, 1st Infantry Division, Kunar Province, in Afghanistan. On 
this latest deployment his supported Army unit awarded him with 
the Army Commendation Medal with Valor Device for his 
successful efforts to save American lives under fire. He led 19 
combat air support missions for nine named operations, spent 
more than 135 hours outside the wire on combat patrol. He 
successfully prosecuted 18 precision strikes on enemy 
positions, with more than 48,000 pounds of ordnance on target. 
His courage and initiative resulted in 33 enemy casualties and 
an additional 16 enemy-wounded personnel.
    Sergeant Walker is a traditional guardsman. He is employed 
for the Oregon Youth Authority, which is a maximum security 
correctional facility for young adults who represent an 
unacceptable risk to the community.
    Sergeant Walker is one of the many 106,700 members of the 
Guard to which we take great pride.
    It's interesting that Sergeant Walker will be facing a 
decision to reenlist, here, pretty soon. In the Air National 
Guard, he is eligible for a reenlistment bonus, because of the 
fact that his job specialty is high-operations tempo and is one 
that is in great demand. He's entitled to a reenlistment bonus 
that pays him $15,000, but only if he reenlists for 6 years. 
Were he on Active Duty, he would quality for a $90,000 bonus 
and reenlist for 3 years. I say that to point out the need to 
continue our recruiting and retention budget so that we can 
continue attracting ladies and gentlemen like this young man.
    Sergeant Walker. Thanks.
    Chairman Inouye. The subcommittee thanks you and salutes 
you, Sergeant.
    General Wyatt. In order to ensure our continued success in 
our State and Federal missions, I've identified my enduring 
priorities for 2010 as, first of all, modernize our warfighting 
capabilities; second, secure the homefront and defend the 
Nation; and third, develop adaptable airmen. All equally 
important.
    In supporting these priorities, we evolve and shape our 
force and maintain our outstanding value. Our Nation's Air 
National Guard provides a trained, equipped, and ready force, 
accessible and available--that comprises about one-third of the 
total force capabilities for less than 7 percent of the total 
force budget.
    Mr. Chairman, I'm grateful to be here, and I look forward 
to answering any questions you and the subcommittee may have of 
me.
    Thank you, sir.
    Chairman Inouye. I thank you very much.
    Now may I call upon General Wyatt.

        SUMMARY STATEMENT OF MAJOR GENERAL RAYMOND W. CARPENTER

    General Carpenter. Mr. Chairman, Mr. Vice Chairman, 
Senators, it's my pleasure and honor to be here to represent 
the 360,000 soldiers in the Army National Guard today.
    And I would like to take a point of privilege and introduce 
one of those soldiers to you.
    Sergeant Campbell, would you please stand?
    He is a Maryland National Guardsman, and he is a senior 
tactical satellite communications systems specialist. He 
deployed in 2005-2006 with the 42d Infantry Division, 16th 
Armored Cavalry Brigade, and was deployed near Kirkuk, in Iraq. 
In that role, he provided the essential communication link to 
the warfighter in that area, and had a successful tour there, 
and returned home.
    He has been in the Army National Guard for 9 years. That 
means that he reenlisted about 3 years ago. When I asked him, 
``How come he reenlisted in the Army National Guard?'', he said 
because he didn't think he had any other alternative, that that 
was something that he absolutely wanted to do.
    And so, I think that it's important for us to recognize 
that Sergeant Campbell represents many of those soldiers who 
make those decisions on a daily basis, of whether they stay in 
the National Guard, or not. And to date, our reenlistment rate 
is over 120 percent, which is a huge kudo to what the soldiers 
inside of our formations see as, first of all, a patriotic, 
meaningful service, and something that they want to continue.
    And so, Sergeant Campbell is in the midst of completing his 
degree in electrical engineering, and we look forward to his 
continued service in our Army National Guard.
    Chairman Inouye. Sergeant Campbell, we thank you for your 
service, and we salute you, sir.
    General Carpenter. As I mentioned, there are over 360,000 
citizen-soldiers in our Army National Guard, as we speak today. 
And of those 360,000, over 60,000 are either mobilized, 
deployed, and on point for this Nation. The sacrifice of these 
soldiers, their families, and employers is something we must 
not only acknowledge, but certainly appreciate.
    The National Guard of today is a far cry from the one I 
joined. The last 8 years have seen the Guard transform to an 
operational force. The enablers for the Army National Guard, 
one of the greatest forces for good, in my opinion, have been 
provided and sustained by the congressional initiatives, many 
of which we will discuss today.
    They begin with incentive and soldier programs, support 
programs, that allow us to recruit and retain the best and the 
brightest, of which Sergeant Campbell represents. You have 
supported the resourcing for equipment that has supported the 
modernization of our fleets inside the Army Guard. We now have 
equipped our units to 83 percent of critical dual-use 
equipment, that being the equipment that's available for use by 
the Governors as available for use for the overseas mission. 
Sixty-six percent of that equipment inventory is now on hand, 
in the States, and available for the Governors, should they 
need or have to use it tonight.
    The National Guard and Reserve equipment account, as 
General McKinley mentioned, has been especially supportive in 
our pursuit of equipping the force. Last year, you appropriated 
almost $800 million for the Army National Guard in that 
account. And over the last 6 years, you have appropriated 
almost $5 billion for our use. Thanks to the National Guard/
Reserve equipment account, we will retire the M-35, the 
venerable ``deuce-and-a-half,'' this coming year. That truck 
has been in the inventory for almost 40 years, and we will 
replace them with the new family of modern tactical vehicles.
    Facilities and infrastructure are especially important in 
the homeland mission and supporting readiness for the overseas 
fight. We have 1,400 readiness centers, armories, that are over 
50 years old. The President's budget includes $873 million for 
construction for the Army National Guard. It is a high water 
mark in that business, as far as the President's budget is 
concerned; something we'd like to see sustained in order for us 
to do the modernization for those particular armories and 
readiness centers.
    I also want to highlight the $30 million appropriated last 
year in the Guard and Reserve initiative, a military 
construction NGREA-like account. That appropriation has already 
made a difference in construction of key facilities that we 
would not have otherwise been able to build.
    I solicit your support in the budget for the growth of the 
non-dual-status technician program. As you may know, those 
technicians are the ones that do not deploy, because they are 
not in the National Guard, and they maintain the home fires, 
they do the pay accounts, the equipment accounts, those kinds 
of things, in the absence of the dual-status technician. And, 
as General McKinley mentioned, I would also ask that the O&M 
accounts presented in the President's budget be approved, 
intact.
    Finally, I would like to acknowledge the support across the 
Army for the operational force. That support has been 
demonstrated in the budget process and programming process for 
the operational National Guard through fiscal year 2014, and 
it's actually a great story of the Army team, the Army Guard 
and the Army Reserve as one team on the battlefield, and one 
team in the budget process.
    Again, I'd like to acknowledge the critical role you all 
have played in building and sustaining the best National Guard 
in my career, and I look forward to your questions.
    Chairman Inouye. I thank you very much, General Carpenter.
    In recognition of the good work and leadership of the 
Senate National Guard Caucus, may I call upon Senator Bond 
first.
    Senator Bond. Thank you very much, Mr. Chairman.
    And thank you, General McKinley, for your very kind words.
    And, Mr. Chairman and Senator Cochran, it's been a great 
honor to work with you, but it's been a real pleasure to work 
with my friend Pat Leahy. And when we get something that is of 
importance to the Guard, I can count on Pat Leahy taking the 
leadership on his side while I try to do the same on my side. 
Of all the things I'm going to miss around here, this is one of 
them. I'd better say something about missing working with my 
chairman on the Transportation/Housing and Urban Development 
subcommittee, too. But, those things I will miss.
    But, back to the work at hand. I think we all agree with 
General McKinley's statement, and the statement of Generals 
Wyatt and Carpenter, about the importance of the men and women 
of our National Guard and Reserve. And that's why we were so 
honored to be able to recognize and thank Sergeant Walker and 
Sergeant Campbell, on behalf of all the men and women.
    You truly are, not only a vital component of our Nation's 
total force, but you are our heroes for what you do at home and 
abroad, and we offer you a heartfelt thanks.
    And now it's our job, not only to provide the support for 
you--and I think General Wyatt had a little idea how we might 
provide a little more support--but also to support, not only 
the personnel, but the equipment, to make sure that you are 
able to do the job.
    And I think one of the greatest achievements of this 
subcommittee has been its leadership in bringing about 
significant addition of dual-use equipment. At Katrina, when 
that hit--I've told the story here many times--we sent one of 
three engineer battalions to Louisiana. They said, ``They're 
doing a great job, send another one.'' I said, ``Well, we've 
had to send 'em in tennis shoes and pickup trucks, because we 
only have one of our three battalions equipped.'' But, we have 
gone from 33 percent to--according to your posture statement--
to now 76 percent for the Army Guard.
    Unfortunately, on the air side, the situation is dire. And 
I think that we ought to agree that if you call it Air Guard, 
you ought to have aircraft. Aircraft are a paramount piece of 
equipment for the Guard to fulfill its mission. But, 
unfortunately, the Air Force, under pressure from the Pentagon, 
has been pursuing a strategy that will result in a significant 
drawdown of Air Guard aircraft. Unless Congress acts, the end 
result will be the eventual decline of our air dominance and 
the evisceration of the Guard.
    And, Senator Leahy, I've submitted for the record our 
letter to Secretary Donley.
    The Air Force has stated that it is in the midst of 
modernizing and recapitalizing its weapons systems and that the 
Air Guard must be concurrently and proportionally 
recapitalized. But, the problem is, there's nothing available 
with which to be concurrent and proportional. And the even 
greater problem is that they do not seem, still, to be willing 
to consult with, and talk with, the Air Guard.
    By the time the F-35 might be ready, we will already have 
lost multiple Air Guard units. Furthermore, at well over $100 
million per plane, according to the Cost Analysis Program 
Evaluation Office, I'm concerned the F-35 will be too expensive 
to be procured in sufficient quantities to recapitalize the Air 
Force and the Air Guard.
    Now, the Air Force has signaled its willingness to drawn 
down on the lift capability of the Guard, shifting 12 C-130s 
from Air Guard bases nationwide to replace older Active 
component models. The same scheme would also eliminate the only 
flying unit in the Puerto Rican Air Guard unit. Everyone prays 
for its response to and support of Haiti. That's no way to 
thank them for their selfless service.
    I refer to this as a backdoor BRAC of the Air National 
Guard. If the Air Force would leverage further low operating 
cost, experience, and effectiveness of the Air Guard, then it 
would have more resources for a much needed recapitalization of 
the total force.
    General McKinley, recent reporting indicates that the Air 
Force fighter gap is smaller than previously identified. I'm 
concerned about what you think about the total force fighter 
gap, its impact on the ANT, and how could that fighter gap have 
been made smaller with a final admission that the Joint Strike 
Fighter--and I will omit calling it what I normally call it--
will slip, and the fact that no new fighters have been 
purchased in well over a decade.

                            ANG AGING FLEET

    General McKinley. Senator Bond, obviously, from the facts 
in your question, equipment is the lifeblood of a military 
organization--there is no doubt about it. Whether it's Army, 
Navy, Air Force, Marine Corps--for our Guard Army and Air Force 
equipment. And I've been before this subcommittee for 4 years; 
this is my fourth testimony and my first as the Chief of the 
National Guard Bureau. My perspective is that, on the Air Guard 
side--and I'll let General Wyatt comment specifically about 
what he has done within the Air Force to try to alleviate 
potential loss of aircraft from some of our units, which 
actually started in the 2005 BRAC. But, as we all know, by 
2011, those BRAC actions must be completed, and therefore, 
we're in the process of finalizing what aircraft will move and 
go to different places. But, it is creating some tension at 
those home units.
    The conditions have changed in those 4 years, Senator Bond, 
in terms of how we plan and program. I would emphasize--and I 
certainly don't need to explain to this subcommittee--that the 
services provide the equipment for the National Guard. The Air 
National Guard does not purchase aircraft; the aircraft are 
provided by the United States Air Force. And for over 60 years, 
there have been enough aircraft to flow or trickle down to the 
Air National Guard so that they can continue to maintain their 
units. And we are presently at approximately 88 flying units. 
We actually have three units that, without any kind of 
intervention, probably will not have equipment by the end of 
fiscal year 2012, which is a big concern to all of us, because 
we know the value of these units, we know the experience of the 
pilots and the maintenance people; you know those, certainly, 
better than I do.
    So, where do we stand? The Air Force and the Department has 
said that we can reevaluate the amount of flying life left on 
the legacy fighters. Those are the F-16 and F-15 aircraft. So, 
if they reevaluate it and extend the life of the aircraft, they 
can be used longer.
    They also, obviously, have invested a great deal of capital 
in the development of the F-35, and their planning assumptions 
are that they will build more F-35s--go from 48 to 80 per year 
in their budget--and that's a significant change over when I 
first talked to you about what is the Air Guard's Plan B.
    So, with that consideration, and the fact that the United 
States Air Force and the Department has not entertained any 4.5 
new aircraft, there's also a new feature on the table now that 
would allow for service-life extensions of our Block 40 and 50 
aircraft. My concern--and I've expressed this to the Chief of 
Staff of the Air Force--is that most of our units fly the Block 
30 F-16. Those are older F-16s that are very capable today, 
but, without a significant amount of modernization money, will 
become less relevant and, potentially, less safe to fly over a 
period of time.
    So, those are the new dynamics that we face as we work 
within our services to make sure we reequip the Air National 
Guard.
    Senator Bond. Let me add--because I'd like you and General 
Wyatt to comment on this--the Navy is concerned about the F-35s 
being ready and available, and even whether they can fly off of 
carriers. They are looking at purchasing some 4.5 generation. 
And while they're talking about a Service Life Extension 
Program, or SLEP, it costs almost as much as one-half of 
purchasing a new airplane to get a SLEP, and you have much less 
capability than one-half the life of a new airplane. And I am 
curious why, with the tremendous production delays, the 
performance questions, and the huge cost overrun--which can do 
nothing but continue to build--there isn't a consideration of 
getting the 4.5 or, some would say, the 4.8 generations--15s, 
16s, and 18s. And I'd appreciate it if either you or General 
Wyatt would comment on that.
    General Wyatt. Senator, I would suggest that we now have 
some information available to us that we didn't have when we 
met, 1 year ago, at this time. There have been, obviously, 
decisions made regarding the F-35 program through RMD 700.
    We continue to work with the United States Air Force on 
alternatives and options to address the fighter bathtub, which, 
unlike last year, we are now in sync with the United States Air 
Force, as far as how many jets we're talking about and the risk 
out over the next few years.
    As you're well aware, though, the risk is greater for the 
Air National Guard, because Air National Guard has a 
preponderance of the older airplanes, the F-16 pre-Block 40s, 
the Block 30s. And so, our problem is near term, especially 
when we talk about the fact that, of the 18 Air Sovereignty 
Alert sites around the country, 16 of those are manned by the 
Air National Guard. And of those 16, 9 and sometimes 10 of 
those Alert sites are manned by these older Block 30 F-16s. So, 
it is a primary concern of mine that we address a plan to make 
sure that we have the capability, in the near term, as we wait 
for the fielding of the F-35, whenever that may be.
    We continue to work options with the Air Force, but one of 
the options that the Air Force is not working, at the current 
time, is the fourth generation 4.5/4.8. That's not one of the 
options that we are considering. That's not to say that, should 
circumstances change between now and the next time we have an 
opportunity to come before this subcommittee, that that might 
not be a consideration of the Air Force, but, at the current 
time, that's not part of the plan.
    We have offered up and continue working with the Air Force 
to address this fighter bathtub, considering things such as the 
previously mentioned Service Life Extension Program. It is 
expensive. It does extend the life-frame of our Block 30s, if 
the decision were made to do that, for 4\1/2\ to 5 years. But, 
it, so far, has not been programmed to be done.
    We've talked about the concurrent--and you mentioned it 
earlier--concurrent and proportional bed-down of the F-35 in 
the Air National Guard, whenever it is eventually fielded. And 
there are some reports, that the Air Force is required to file 
here pretty soon, as a result of NDAA 2010, wherein the Air 
Force will address, specifically, the question of, What is the 
intent of the Air Force regarding concurrent and proportional 
bed-down of fifth-generation aircraft in the Air National 
Guard? Those reports have not been filed, so I don't feel at 
liberty to speculate on what they might say, but would suggest 
the subcommittee take a look at those when they come in.
    We've talked about a possibility of leveling the squadron 
size across the combat air forces--Active, Guard, and Reserve--
from 24 to 18 aircraft, and flow those legacy airplanes to the 
Guard, primarily in the form of Block 40 and 50 F-16s, some A-
10s, perhaps some F-15Es, that could result in the flow of 
about 180 jets to the Air National Guard and the Air Force 
Reserve to address the problem with the age-out of the Block 
30s.
    And we've talked about, when the F-35 is eventually 
fielded, to initially field that in numbers of 18 aircraft, as 
opposed to 24, so that you can spread the fielding out among 
all three components, and better service the United States Air 
Force.
    We continue to talk about the possible need, because of the 
delay in getting the F-35 in the inventory, of increased 
acquisition numbers, from 80 to 110; an expensive proposition, 
as you have previously pointed out.
    We also look at transitioning some of these fighter units 
to remotely piloted aircraft, and then maybe some other 
nonflying missions. But, in the end, we face that latter 
circumstance.
    Senator Bond. Well, General, I don't want to impose any 
more. I have one followup question on that. Maybe I'm getting 
old and cynical, but to think that the Air Guard is going to 
get the Joint Strike Fighter when that comes off the line--
whenever it comes off the line--at the same time the Actives 
get it, is something I just--I am from the Show Me State, and I 
will only believe it when I see it--when, very shortly, 80 
percent of the Guard's F-16s will hit the end of their service 
life. What will the total shortfall be that would have to be 
filled in with SLEPs of the existing Block 30s, with whatever 
is left over from the Active Air Force; 15s, 16s, F-4s, 
Cessnas, or whatever it is that they're going to fill it in 
with? What's the total number in that bathtub, before you start 
looking at all the options you have to pursue?
    General McKinley. Senator Bond, I asked that of the Air 
Force today. And outside this future years defense programs 
(FYDP), the Air Force is predicting 135 aircraft, a gap. That's 
outside the 2012-17 FYDP. That's from the United States Air 
Force.
    Senator Bond. All right.
    General McKinley. But, for the Air National Guard, as I 
look at our portfolio, closest wolf to the sled right now, we 
have about 10 Block 30 F-16 units. Those are the ones that will 
require attention the quickest, and will require General Wyatt, 
in the United States Air Force, to come up with a solution to 
either extend the life of those airplanes, to keep them flying 
longer, if it's relevant and safe--I'm very concerned about the 
safety of the aircrew in these older legacy fighters--or, we 
have to find alternative missions. Because the last thing that 
I want to see is a wing of aircraft leave, and leave 1,200 
people at a location with nothing to do. That's just not in the 
interest of the American citizen.
    Senator Bond. Finally, the number of Block 30s in those 10 
units, what is the number of airplanes that--and do you know 
the date--the service-life date range when they would be past 
service?
    General Wyatt. Yes, sir. Most of our Air National Guard 
wings are 18 aircraft, so those 10 wings would equate to that 
180 airplanes. And we are now in sync with the Air Force on the 
estimations of when the service life will expire, and we're 
looking at somewhere right around the 2017 timeframe when most 
of those Block 30s will hit the age out. Now, some will age out 
a little bit before then, and some will age out a little bit 
after that. But, as far as combat capability in a squadron-size 
formation, we're looking at about 10 wings.
    Senator Bond. Thank you very much.
    And, Mr. Chairman, I apologize, I have a bunch more 
questions I'll submit for the record, but I thank you very much 
for your kindness.
    Chairman Inouye. Thank you.
    Senator Leahy.

                        NATIONAL GUARD EQUIPMENT

    Senator Leahy. Well, thank you.
    And, again, I thank Senator Bond for his work all these 
years on the National Guard Caucus. I must say, Kit, as I've 
told you before, it was very helpful to have someone beside me 
who was a former Governor because you brought a perspective 
which was very, very helpful.
    General McKinley, it is nice to see you here, as always. 
I've enjoyed the times you've visited us in Vermont. And I've 
enjoyed being here with you. I was very proud to be there the 
day you were awarded your fourth star, and to be there with 
your family; a very nice family, I might add.
    What I worry about is how the Army and Air Guard still fall 
short of the equipment and the aircraft they need. I've 
introduced legislation, along with Senator Bond, to establish a 
dedicated budget line for the Army and the Air National Guard. 
Would you agree we ought to do that?
    General McKinley. In my opening comments, Senator Leahy, I 
said that we really do depend on our services for our equipment 
and our operations and maintenance, as do the other Reserve 
Chiefs; there's no doubt about it. And it's tough engagement, 
and as we build a budget, to convince the Air Force and the 
Army of our needs. I especially have found, since I've become 
the Chief of the National Guard Bureau, that many of our 
domestic requirements fall below the lines, quite frankly, on 
many of our Active Duty budgets, simply because there's not 
enough investment capital to take care of both the home game 
and away.
    My bottom line, sir, is, through the support of committees 
like this, we've been able to mitigate the effects of loss of 
purchasing power and equipage through the budgetary process. If 
it gets tighter, which everybody forecasts it to be over the 
next 3 to 5 years, with budgetary pressure, I'm afraid that 
both my colleagues on left and right are going to find it more 
difficult to equip the units in the fashion that they need to 
sustain the capability of both Army and Air Guard units.
    What that leads us to, Senator Leahy--I've got to tell you, 
I've got to stay within the Department bounds, here, but we 
will run into a budgetary crisis in reequipping the National 
Guard as soon as the budgetary pressure starts to set in. And, 
as you could tell from Senator Bond's question, we may already 
be there with the Air National Guard.
    Senator Leahy. Of course, Senator Bond and I have the 
privilege of not being within departmental guidelines and we 
can do what we want to do. We answer to the voters in our own 
State.
    I'm not trying to set up a conflict between the Guard and 
the Regular Army or Air Force. I just want less time to be 
spent on conflicts inside the Pentagon and more time spent 
concentrating on your mission.
    Senator Bond mentioned people calling for help, in Katrina 
and elsewhere. You're forced to reply, ``We're happy to send 
help, but all our equipment is overseas.'' I think there has to 
be--you understand this--a balance here. We're all aware of the 
number of people from all of the State Guards that are 
overseas, either in Iraq or Afghanistan. We have the largest 
deployment of the Vermont Guard that we've had since World War 
II. I mean, this is very, very significant--thousands of people 
from a little State like ours. We're very proud of all these 
men and women. They have been extraordinarily well trained. 
When I go to Iraq or Afghanistan, and I talk to the commanders 
on the field, they make no differentiation between the Guard 
and the Regular Army or Air Force today, because they're all 
integrated, they're all working together. And many times, I 
know, when I've gone from one part of the theater to the other, 
I'm very often on a Guard plane or helicopter.
    General Carpenter, you'd be proud of the pilots that you 
have flying those helicopters.
    But the problems at home continue just the same. God forbid 
that we have another major earthquake on the west coast, but we 
remember what happened when the major one that struck 
California. Had it not been for the Guard, that disaster could 
have been even worse than it was. Or what happens in wildfires, 
what happens in rescue missions, what happens in floods, and 
the whole litany? We know that the Guard is not just homeland 
security. And we know that, in all likelihood, they're going to 
be called up to go overseas more in the future. We have got to 
find a way to get both into the budget.
    General Carpenter, I mentioned the Army Guard equipment 
shortfall. The situation has improved, but I believe the 
Guard's at only 77 percent of equipment levels. Does the fiscal 
year 2011 budget request more? Where are we going to be over 
the next couple of years?
    General Carpenter. Sir, as I mentioned in my opening 
statement, the equipment that we have coming to the Army 
National Guard is unprecedented. The modernization piece, as I 
mentioned, is going to allow us to retire the venerable 
``deuce-and-a-half,'' this next year. And we retired the UH-1 
helicopter, here, this past year.
    And so, a couple of years ago, we started into this process 
of transparency. Prior to that point, all we saw was the 
dollars that got appropriated, and we were guessing, or hoping, 
that the equipment came out the other end and showed up in the 
vehicle storage areas.
    The Army and the Army Guard and the Army Reserve have made 
great progress in that, to the point where I think we can give 
you pretty much an 80-percent affirmative that what you 
appropriate in Congress for the Guard, as far as equipment is 
concerned, is going to show up, with a time lag, obviously, 
inside the Army National Guard.
    If the promises made to keep the Army National Guard as an 
operational force are carried out through the next POM, the 
program objective memorandum, we'll continue to improve, sir. 
But, as General McKinley mentioned, the issue here is going to 
be pressure on the budget. And as those pressures come to bear, 
those POM dollars, those projected programs, are likely to 
change; and our concern, obviously is, is that it's a 
proportional change between the Army Guard and the Army. And I 
guess that's something yet to be seen.
    Senator Leahy. I think perhaps you and I should talk 
further about this later on, but I am concerned.

                                 C-130

    And, Mr. Chairman, my last question is about a letter that 
Senator Bond and I sent this morning to Secretary Donley. I 
address this question to General McKinley. We asked Secretary 
Donley to reconsider the decision to move C-130 airframes out 
of the Air National Guard into the Active component. Of course, 
I have not yet heard back from him. I'm not asking you to 
indicate what he might say, but I worry that we are robbing 
Peter to pay Paul. It seemed like the Air Force, while they 
said they were studying the C-130 issue, offered the fiscal 
year 2011 budget that went ahead and cut Air Guard C-130 force 
structure. I hear that military airlift throughout the world is 
stretched to the maximum. Certainly, I hear that message when I 
go to other parts of the world. Were you consulted by the Air 
Force leadership before the decision was made to draw down the 
Air Guard C-130 force structure? And, if so, what did you 
recommend?
    General McKinley. I personally was not consulted. I have 
brought the matter to the Chief of Staff of the Air Force's 
attention, and he was very willing to discuss it with me. He, 
in turn, has asked his staff to revisit this issue. Not only 
did it affect our Air National Guard C-130s, General Stenner 
and some of his Air Force Reserve C-130s were included, too. 
And, Senator Leahy, as I said in my opening remarks, some of 
this is post-BRAC movement of aircraft. But, the analysis and 
the assumptions made to reduce the C-130Es, the oldest of our 
Air Force C-130s, has led some to believe, in the Air Force, 
from what I understand after I've talked to General Wyatt, that 
those aircraft need to be retired, that funds need to be used 
for other purposes.
    I certainly want to work with the United States Air Force 
to make sure that the analysis and the assumptions that they 
drew, which were part of a mobility capabilities requirements 
study (MCRS) for mobility aircraft, which included all of our 
lift aircraft, was done with the appropriate considerations to 
protecting of our homeland, for supporting our Army in direct 
support mission. And so, I'm asking the Chief of Staff to take 
a look at this slide deck.
    Senator Leahy. Well, I'm going to be very interested in 
hearing the response. I've been on more C-130s than I'd like to 
think about. As one pilot told me, ``It's the only aircraft 
pressurized to keep this noise inside.'' I can see some nodding 
heads in the back. I've been on these in all parts of the 
world; in fact, even once with Chairman Inouye. And virtually 
every time, they are being flown by a Guard unit. So, I'll be 
anxious to hear the response from the Secretary. And you and I 
will probably discuss this further.
    Thank you for your courtesy, Mr. Chairman, in giving me 
this time.
    Chairman Inouye. Thank you very much.

                                SUICIDE

    General Carpenter, I will be submitting questions on the 
upgrade of Blackhawks and your shortfall on equipment. But, may 
I ask one question? Last year, your suicide rates went up 75 
percent. And you have responded to that. Is the program 
sufficient?
    General Carpenter. Sir, we are alarmed by the suicide rates 
we're seeing inside the Army National Guard, also. January was 
the highest ever, in terms of the number of suicide rates we've 
experienced; above last year. That declined in February, to the 
point where currently we have experienced 24 suspected suicides 
in fiscal year 2010, against a number of 22 last year.
    Senator Brownback, I think, is probably very familiar with 
the initiatives that are being made by Kansas and the adjutant 
general of Kansas, in terms of the resiliency program. In 
addition to that, the Army at large is seriously engaged with 
the Vice Chief of Staff of the Army, in terms of dealing with 
the suicide rates.
    Obviously, this is for the most part, a function of stress 
on our forces. Although in the Army Guard we have a little bit 
of an anomaly, because you find that almost one-half of the 
suicides we're experiencing are from soldiers who haven't even 
deployed. And so, there's more to this than just the 
mobilization and deployment piece.
    But, the issue--the bottom line issue, as the Army has 
viewed it--and I agree with them, and I think most do--is, it 
is preparing people for situations that are almost 
overwhelming, in many cases. And we see that in our young 
people. We see that inside our soldiers. We see that in the 
families. And so, we've got to build a resiliency out there to 
be able to sustain those tough times and to be able to not look 
at suicide as a viable option.
    And so, we are engaged with the Army on their Soldier 
Fitness Program. We are engaged with Kansas and General 
Bunting, in terms of the Flash Forward Program. And, frankly, 
we are trying to gather all the resources we can find to come 
to bear on this problem. And it's very serious.
    General McKinley. Senator Inouye, I'd like to thank General 
Casey and General Chiarelli for doing so much in the United 
States Army to address this situation. I'd also like to thank 
the State of Kansas for partnering. These types of programs are 
essential so that we can continue to take care of deploying 
airmen and soldiers. I think all of us are very concerned about 
the rapid rise in suicide and attempted suicide. And only 
through resiliency dollars--and thanks to this subcommittee for 
realizing that these programs require money to be successful--
have we been able to get our arms around this very, very 
serious problem.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman.
    I am curious to know, General Carpenter, about the 
transition that is taking place into making the Army not just a 
National Guard force with traditional responsibilities, but 
actually an operational force, ready to go to the field--
possibly combat right away. How well is the Army National Guard 
adjusting, in your opinion, to this transition? Is it too much 
for you to handle? Should we take another look at this and 
maybe take a step back and modify what we're trying to do? 
What's your assessment of the success of this?
    General Carpenter. Sir, as I mentioned in my opening 
statement, the National Guard that we have right now is far 
different from the one I joined, you know, a lot of years ago. 
And as we went into the--what was then the global war on 
terrorism, after 9/11, we had soldiers who had joined the Army 
National Guard, not expecting to be deployed. And those great 
soldiers deployed, some of them being from the 155th, and they 
went and did their duty, and they were proud of what they had 
done. They came back home, and they came to grips with the idea 
that maybe that wasn't quite what they had in mind, didn't fit 
into their lifestyle; their employers and their families said, 
``You know, this isn't quite what we signed up for,'' and they 
made decisions to leave our formations. And that caused the 
recruiting crisis we saw in the Army National Guard in 2005. 
And General Vaughn, my predecessor, was key in turning that 
around.
    Since that time, we have had a different look at how we 
recruit people into the Army National Guard. The people we 
recruit in to our formations now, as was mentioned, are 
expecting to deploy. It's not if they're going to deploy, it is 
when they're going to deploy. And they have come to grips with 
that idea. And I think that, for the most part, we have an Army 
National Guard that is, at least in terms of mindset, an 
operational organization.
    What we've got to do is, we've got to make sure that we 
provide the enablers, the resourcing, for those young soldiers 
to go out and do what they're supposed to do.

                           OPERATIONAL FORCE

    Operational, at least in my definition, is manning the 
force, equipping the force, and then training the force, and 
then, finally, having access to that force. And the access 
discussion is one we have regularly in the Pentagon.
    But, my response is that we are exceeding the recruiting 
goals, we are exceeding the retention goals. We are stressed, 
we are sending soldiers more frequently than what we would 
like. But, frankly, sir, I've got to tell you, we are doing 
very well in this operational force.
    General Campbell, who's the FORSCOM Commander, his comment 
on the operational National Guard and operational Reserve is 
that it is a national treasure, one which we abandon at our own 
peril.
    So, sir, the enablers, I think, are the key piece.
    Senator Cochran. Well, that's very impressive, and we 
appreciate your leadership in helping achieve these results.
    General Wyatt, I was going to ask you the same question. 
What's your response?
    General Wyatt. Senator, the way the Air Force has used its 
Reserve component since about 1990 has been as an operational 
force. And we have been fortunate to enjoy the support of the 
United States Air Force in making sure that we train to the 
same standards, have the opportunities to deploy. And our 
deployment record speaks for itself. We are accessible, we are 
available.
    And again, the Air Guard is kind of like the Army National 
Guard; not the Air Guard that I joined, back in 1977. We've 
come a long way. But, in spite of the operations tempo, we 
continue to man our force at over 100 percent of our end 
strength. As we speak today, I believe our numbers are about 
1,400 airmen over end strength, gradually coming back down to 
our target. But, our retention rate has exceeded the 
requirements. We have the highest retention rate of any of the 
Reserve components, at close to 91 percent. People want to join 
our formations, and they want to stay in our formations.
    Our concern continues to be the modernization of our 
equipment to make sure that we provide the combat capability 
that this country needs in the Reserve component. Similar 
challenges that, I'm sure, General Stenner faces with the Air 
Force Reserve.
    But, we continue to work those issues with the Air Force. 
In those areas where we need some additional help with our 
modernization, both for the warfight and for the domestic 
mission overseas, this subcommittee has been extremely 
supportive with the NGREA accounts, and it keeps us relevant 
and in the fight.
    We do have this issue that Senator Bond has brought to the 
attention of the subcommittee today. We continue to work 
through that. But, it is a resilient force, continues to be 
available anytime we're called, and readily accessible.
    Senator Cochran. Well, we appreciate your leadership very 
much. Thank you for your service.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    And thank you, to all of you, for the service that you 
provide and for the tremendous work you're doing and all those 
who stand behind you.
    And I especially want to recognize Staff Sergeant Kenneth 
Walker, behind you there. I wasn't here when you were 
introduced earlier, because I was at a Veterans Affairs 
Committee hearing. But, we're delighted you're at Camp Murray, 
and know it's a great place, and appreciate all your service to 
our country. So, welcome to you.
    I wanted to ask, today--we all know the economy is really 
struggling, and our folks are coming home from Iraq and 
Afghanistan to a lot of hardships that make it extremely 
difficult for them. In the State of Washington, our National 
Guard unemployment is over 14 percent, versus what our State 
is, at 9\1/2\ percent unemployment. And in the last 3 years--
Senator Inouye asked about the issue of suicide--we've seen 
seven suicides, with five of those tied to the guardsmen's 
financial situation. Twenty-one hundred Washington National 
Guardsmen live at or below the poverty line, as a result of 
employment when they come home. And I am really concerned, and 
increasingly concerned, about our soldiers' mental and 
emotional well-being as they return home from their service 
into the financial instability that their families are facing, 
and wanted to ask all of you what the National Guard is doing, 
really across the country, to help these National Guard 
soldiers, and their families, when they return home from 
deployment to this financial hardship they're facing today.
    General McKinley. Senator Murray, thank you for your 
question. And I just returned from Washington State, had a 
great briefing from the adjutant general, Tom Lowenberg, about 
these very serious concerns that he has. I will tell you that 
our deploying soldiers and airmen are facing challenges that 
none of us, on this panel certainly, ever did in our military 
careers. The stresses, the strains, the financial difficulties, 
the times we live in, the stress on the family, the fact that 
we've had continuous rotations, obviously have created an 
environment where many of our young soldiers and airmen 
struggle to make ends meet.
    General Carpenter has got several programs he would like to 
cover with this, but I would like to say that we benchmarked 
off some of the other Reserve component forces. General Stultz, 
who will follow us, has done some outstanding work with the 
Army Reserve in trying to address those needs.
    But, Ray, if you'll cover the Army Guard, and, Bud, what 
you've done on the Air side, please.

                                FAMILIES

    General Carpenter. First of all, I know you know the 81st 
Brigade from Washington is back home, and they probably----
    Senator Murray. Yeah.
    General Carpenter [continuing]. Are exactly the population 
you're talking about, in terms of what they're experiencing, in 
terms of coming back off from a mobilization, and the job 
market that they face.
    As we looked at it--you are exactly on point, Senator--the 
unemployment rate for the Army National Guardsmen who come back 
is about 3 points above what we expect. As General McKinley 
mentioned, we have partnered with General Stultz in a number of 
initiatives; ``Helmets to Hardhats,'' for instance, is one that 
he has championed. He has also, and we have across the States, 
signed employment partnerships with Indiana, Chicago, 
California. And the whole effort, here, is to find guardsmen 
and reservists who are in exactly the plight that you've just 
described, and find a way for them to find a job and again 
return to some sort of meaningful lifestyle after deployment.
    It's not easy, and, frankly, the economic times have 
presented even a larger challenge than we had 3 or 4 years ago. 
But, that doesn't mean we shouldn't start into it and get about 
this business.
    Beyond that, we have a significant number of soldiers who 
are on what we call ADOS, additional duty operational support, 
which puts them on orders to support other units that are 
mobilizing and deploying. And with the qualifications of the 
soldiers you have in Washington, to the extent that they're 
willing to be part of that program, there are some 
opportunities there.
    Taking care of the soldiers is the Yellow Ribbon Program, 
which I know you're very familiar with. The State of 
Washington, and General Lowenberg and his staff out there, have 
done great work, in terms of getting to those soldiers and 
families that need help, that deserve the help.
    As I say, there's more to this war than just crossing the 
berm for Baghdad. We have soldiers who deserve care, and 
absolutely are entitled to the care, after they come home. And 
whether it happens to be emotional issues or whether it happens 
to be job issues----
    Senator Murray. Well, and we're redeploying them again. And 
are you concerned about the readiness factor, if they come 
home, they're unemployed, their families are in financial 
hardships, they get called up again? How's readiness----
    General Carpenter. Absolutely.
    Senator Murray [continuing]. Affected?
    General Carpenter. Eighty percent of our force is what we 
call a traditional Guard force. That means that they have an 
employer out there--they're doing something else besides being 
full-time in the National Guard. And if we didn't have the 
employer support that we've got out there today, we wouldn't 
have a National Guard. So, we are very mindful of that. And it 
is a readiness issue. Unlike the--our Active component 
counterparts, we have to have that support for us to be able to 
sustain and for us to ask the soldiers in the 81st Brigade to 
go back again.
    Senator Murray. Yeah.
    General Wyatt.
    General Wyatt. Senator Murray, we continue to leverage the 
strengths and the best practices, as General McKinley's 
indicated, from some of our brothers and sisters in the Reserve 
component. We enjoy the opportunity to partner with the Army 
National Guard, through the leadership of the adjutants general 
in the respective States, territories, and the District of 
Columbia, to leverage those resources that the Army National 
Guard provides, and then those that the Air National Guard 
provides.
    We have, at each of our wings--we are a wingcentric 
organization, and our outreach to our airmen is primarily 
through the wing leadership, obviously under the supervision 
and direction and command of the adjutant general. But, we have 
a wing--wing family support coordinators at each of our 88 wing 
locations. In addition to that, we're in the process of 
contracting for what we call behavioral health professionals 
that will address the mental health issues that you talked 
about just a few moments ago. These individuals will be 
provided to the adjutants general to be placed within their 
States, at his or her direction. They are also available to 
service the needs of any of the other Reserve components who 
may happen to be within the boundaries of that State. It's not 
just exclusively a service provided to the National Guard; it 
is made available to all members of the military.
    We are also embarking upon a process to make sure that the 
available resources out there are efficiently used and that the 
communication with our individual wing members is such that 
they know the programs are there, they know the avenues through 
which they can access those programs, whether they be provided 
by the National Guard, Army Reserve, Air Force Reserve, or 
Active Duty. And we are working with the Active Duty to 
strengthen the access to Active Duty programs that usually 
surface at Active Duty bases, but also being made available to 
our Air Force, Reserve, and Guardsmen.
    Senator Murray. Okay. I think we really need to focus on 
this, because I do believe it's a readiness issue, and I see 
those families struggling, and it's a tough time for everybody.

                           HEALTH ASSESSMENTS

    General McKinley, it's my understanding that some of the 
returning National Guard members are not honest on their 
postdeployment health assessments, simply because they don't 
want to be delayed going home. Totally understandable. I wanted 
to ask you if it would be beneficial to require the 
postdeployment health assessment at their home station instead 
of the demobilization site, to make sure that they can get 
assistance at home, in order to properly assess their mental 
health status.
    General McKinley. Ma'am, I think anything that we can do to 
help soldiers return home quickly, get back into their normal 
life cycle, and then give them the care that they need and 
deserve from their deployment, would be helpful.
    General Carpenter, have you heard that the Army is looking 
at doing any of this?
    General Carpenter. We have a ongoing study with the Army 
right now. Retired General Franks is looking at the Medical 
Evaluation Board process, something that hasn't been looked at 
for almost 30 years inside the Reserve component. Part of that 
has to do with how we handle soldiers as they go through the 
demobilization process. And you are, again, absolutely right on 
the money, Senator, in terms of the people who want to get home 
and be with their families, as opposed to spend time at 
whatever installation they're being----
    Senator Murray. And they're afraid----
    General Carpenter [continuing]. Processed----
    Senator Murray. And I hear it all the time, they're afraid 
to say something is wrong, because they don't want to sit 
there, miles and thousands of miles away from family. So----
    General Carpenter. Yes, Senator. And the initiative that's 
being considered, at this point, is for the soldier to be 
honest with whatever emotional or physical problems they might 
have, be allowed to go home, be with their families, and then 
allow them to return to get the necessary treatment, whether it 
happens to be at the installation or whether it happens to be 
elsewhere. Because if they don't do that, and somehow or other 
we have to treat them through other programs, they are 
disadvantaged, in terms of the benefits that they get. And so, 
we in the Army Guard, and in conjunction with the Army, are 
looking at that and trying----
    Senator Murray. Okay.
    General Carpenter [continuing]. To use that perhaps----
    Senator Murray. I think that's----
    General Carpenter [continuing]. As a solution.
    Senator Murray [continuing]. Important to do. I mean, I 
understand how much easier it is to keep track of people at one 
place, but readiness is an issue, again. And if we don't get 
them home and with their families, and get them the care they 
need, then we're going to be in trouble in the future, and 
certainly they are.
    General McKinley. Ma'am, I'll bring it up with General 
Casey when I see him later today.
    Senator Murray. Okay, very good.
    Finally, my last quick question. In the State of 
Washington, we're very interested in adding a Stryker Brigade 
Combat Team to the Army National Guard, and wanted to ask you 
how an additional Stryker brigade would be beneficial to the 
Army National Guard.
    General McKinley. Well, we certainly had great success with 
our Pennsylvania Stryker formation that went over to Iraq. 
We're very pleased at the results. Obviously, again, Ma'am, 
General Casey and his leadership team, in concert with the 
leadership team of the Army National Guard, working with the 
Governors and working with the States, will decide the future 
acquisition strategy of Stryker.
    But, if you're asking our personal opinion, I think, 
representing the organization in a whole, we would welcome the 
opportunity to see additional Stryker brigades in the National 
Guard. And I'm sure my counterparts behind me would agree, too.
    It's a great, great platform, that we have found works 
extremely successfully in the combat theater, and we think it 
has applications here at home, also.
    Senator Murray. Okay, very good, thank you.
    And thank you, again, to all of you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    And, gentlemen, I thank you very much for the testimony 
this morning. And we're grateful for your service to our 
Nation, and, through you, may we thank the men and women of 
your command for their service to our Nation. We appreciate it 
very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Craig R. McKinley
            Questions Submitted by Chairman Daniel K. Inouye
                     army and air guard--equipment
    Question. General McKinley, the equipment levels of the Army and 
Air Guard have improved significantly in the last 3 years, in large 
part due to additional equipment funding provided by Congress. The Army 
Guard now has 77 percent of its equipment requirements, up from 40 
percent in fiscal year 2006. Do you believe that the Army and Air Force 
have adequately budgeted for Guard equipment requirements through the 
remainder of the future year defense plan?
    Answer. The Army National Guard (ARNG) believes $3.5 billion to 
$4.5 billion is required each year of the future year defense plan to 
sustain at its current operational capability as an operational 
reserve. The current funding profile has a steady decline starting in 
fiscal year 2009 through fiscal year 2011. Additional funding is 
required to increase the modernization level to maintain not only 
modernization parody with the Active Component, but also to sustain and 
improve existing equipping interoperability.
    Between fiscal year 2006 and fiscal year 2010, Headquarters 
Department of the Army invested approximately $29 billion in funding 
for procurement and modernization of ARNG equipment. While overall 
growth in equipment readiness and Equipment on Hand increases have been 
modest during this period, the ARNG's ability to respond to domestic 
incidents has increased dramatically. Equipment on Hand levels for 
Critical Dual Use items improved from 66 percent in fiscal year 2007 to 
84 percent by the end of fiscal year 2009. Furthermore, the ARNG is 
projected to reach 87 percent of Critical Dual Use Equipment on Hand by 
fiscal year 2011.
    The Air Force continues to budget the Air National Guard as an 
operational force; however, the modernization and recapitalization 
challenges the Air Force is facing continues to affect equipment 
readiness across all components. We are working with the Air Force and 
its major commands to find solutions to recapitalization of the ANG's 
equipment used in domestic and overseas contingency operations. 
Equipment readiness presents greater challenges as long-term costs in 
operating and maintaining older aircraft continue to rise due to more 
frequent repairs, fluctuations in fuel prices, and manpower 
requirements. The cost of aircraft maintenance continues to rise 
significantly as we struggle to extend the life of our aging fleet. 
This infrastructure of equipment is not just fighters; it includes 
tankers, air traffic control, command and control, security, and, 
communications--the entire system supporting and protecting our 
nation's last line of defense.
    Question. General McKinley, what remaining equipment shortfalls are 
you most concerned about?
    Answer. The majority of the Army National Guard (ARNG) equipping 
shortfalls exist in modernization of Aviation platforms, Force 
Protection, Communication and Transportation equipment. Specifically 
the ARNG is concerned with the modernization of UH-60A to UH-60L 
models, the Medium Truck fleet, High Mobility Multi-purpose Wheeled 
Vehicles (or HMMWVs), Chemical Protection Shelters, and High Frequency 
Radios.
    Modernization of UH-60A to UH-60L models.--While the ARNG currently 
has sufficient quantities of UH-60 aircraft on hand, much of the fleet 
needs modernization. Failure to upgrade or replace these aircraft at a 
rate that outpaces obsolescence will degrade the ARNG's domestic and 
war fighting mission capabilities. The current UH-60 A-A-L program 
production rate is less than the established HQDA rate. This reduced 
production exacerbates the effort to modernize the existing UH-60 
fleet.
    Medium Truck Fleet.--The ARNG has an fiscal year 2016 Family Medium 
Tactical Vehicle (FMTV) requirement of 31,568 Medium Trucks with 24,417 
on-hand and only 12,009 of the 24,417 are modern. The ARNG is on path 
to divest all existing M800 Series Trucks by fiscal year 2012. Our 
legacy M939 Medium Tactical vehicles are projected to remain in the 
ARNG's inventory until fiscal year 2025. These M939 Series vehicles 
have an average age of 23 years and are becoming more difficult to 
sustain. The current Presidential budget for fiscal year 2011 will 
produce an additional 9,000 FMTVs and increase our modernization to 63 
percent.
    HMMWVs.--The ARNG has a fiscal year 2016 requirement for 44,286 
HMMWVs. After all new programmed procurement and Recapped assets are 
delivered to existing inventory, the ARNG will have 100 percent of the 
HMMWV requirement. After new production ends, the ARNG will still have 
legacy HMMWVs in the inventory that are in excess of 20 years old. It 
is estimated that 12,127 legacy HMMWVs will require Recapitalization 
before the end of their use. The programmed Recap program will update 
7,800 HMMWVs and will leave a shortfall of over 4,000 vehicles 
requiring a Recapitalization.
    Chemical Biological Protective Shelter System (CBPSS).--The ARNG 
has a fiscal year 2016 requirement for 291 systems. CBPSS is on 
contract with First Article Testing being conducted in May 2010 through 
March 2011. Pending success, full production is projected to begin in 
the second quarter of fiscal year 2011.
    High Frequency Radios.--The ARNG has a fiscal year 2016 requirement 
for 559 Global Broadcast System (GBS)/Receiver Suite: AN/TSR-8 
Satellite Communications Systems, with 35 on-hand. With projected 
fiscal year 2011 deliveries, the ARNG will have a shortfall of 515 
Global Broadcast System.
    The Air National Guard continues to face challenges within the 
Domestic Response framework with equipping Security Forces, command and 
control personnel, imagery analysts, engineers and medical personnel. 
There is a need for tactical vehicles for Security Forces to provide 
enhanced capability to conduct operations such as checkpoints, road 
closures, traffic control points, civil disturbance operations, town 
patrol, and similar ``on the street'' missions. Our security forces 
require weapons and accessories, upgraded mobility bags and enhanced 
security and traffic control kits. Direct imagery analysis suites or 
needed to provide direct imagery analysis support to first responders. 
Additional CBRNE Enhanced Response Force Packages are critical to 
support the Homeland Response Force teams. Explosive Ordnance Disposal 
(EOD) equipment is required by 17 ANG units to respond to hazardous 
chemical, biological, radiological, and nuclear incidents throughout 
the United States and abroad. We have a need for deployable power teams 
during disaster relief operations to provide stable power support, 
advice and technical assistance in all aspects of emergency electrical 
power and distribution systems. Other top equipment needs critical to 
Domestic Support are Disaster Relief Bed-down Sets, and Mobile Short 
Range Command and Control equipment.
               family support and yellow ribbon programs
    Question. General McKinley, one of the greatest priorities of this 
Committee is to ensure that service members and their families receive 
the support services they need. This is especially true for the 
families of the nearly 725,000 Guard and Reserve members that have been 
activated since September, 2001. Outreach efforts such as the Yellow 
Ribbon Reintegration Program are particularly important for guardsmen 
and families who are geographically dispersed across the country. Are 
family support programs fully funded in the fiscal year 2011 budget 
request? Are there programs, from your perspective, that could be 
improved?
    Answer. The National Guard Family Program is currently fully funded 
based on our fiscal year 2011 budget request. The National Guard Bureau 
continues to work through the Army and Air National Guard branches to 
ensure we are achieving maximum efficiencies from our funding. While we 
believe our Family Program does a very good job, we are always striving 
to do better. The continued support of Congress is greatly appreciated 
and will ensure our future success.
    Question. Gentlemen, the Yellow Ribbon Reintegration Program was 
established to provide outreach services and to support the members and 
families of the National Guard and Reserve. Can you please comment on 
the reintegration efforts for your component and whether or not your 
needs are being met?
    Answer. The National Guard has done a tremendous job ensuring that 
our service members and their Families are receiving the benefits of 
the Yellow Ribbon Reintegration Program (YRRP). From October 1, 2009 to 
September 4, 2010 the National Guard has hosted 1,298 events and 
activities in 270 different locations. These events and activities have 
supported 96,276 Army National Guard service members, 3,470 Air 
National Guard Service members, and 401 service members from other 
Reserve components. Additionally, 56,297 spouses, 9,446 parents, and 
21,391 child/youth have been supported through the National Guard 
Yellow Ribbon Reintegration Program during this period.
    As you can see from the statistics provided the National Guard has 
a robust Yellow Ribbon Reintegration Program. We are learning however, 
that in keeping with the intent of the YRRP legislation that we may 
potentially be providing the education, assistance, and resource 
information through the YRRP process too early and possibly for not 
nearly long enough. Feedback from our Commanders, program managers at 
the State level, and even some attendees at YRRP events and activities 
indicates that some of the major issues that are addressed as part of 
the YRRP process (psychological and physical issues, substance abuse, 
and possible suicide ideology, to name a few) do not actually manifest 
themselves until long after the Service member has attended their last 
YRRP event, which is currently the 90-day post deployment event.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                         military construction
    Question. Can you explain how the National Guard Bureau prioritizes 
its military construction projects both in a current budget year and in 
the Future Years Defense Plan?
    Answer. This process starts with the submission by each of the 54 
States/Territories and the District of Columbia of prioritized lists of 
major military construction (Milcon) projects. Projects with Regional 
or National significance are included in the list.
    The projects are ranked against each other according to established 
criteria related to project characteristics. Those criteria are the 
following: Support of force modernization; joint use project; resolves 
existing health and safety or environmental problem; equitable 
distribution of projects (funding not received in previous years); 
replacement of facilities in poor condition; the Adjutant General (TAG) 
priority rating.
    The criteria are reviewed annually based on National Guard Bureau 
priorities. The Army and Air National Guard projects compete with other 
Army and Air Force Projects for funding. Entry into the Future Years 
Defense Plan, (FYDP), is the goal of the Infrastructure Requirements 
Plan and the amount of funding provided from the Army and Air Force.
    Question. What direction do you provide to State Guard Bureaus as 
they prepare their lists of priorities?
    Answer. Each year the States receive a guidance memo from the 
National Guard Bureau (NGB) along with any updates to our regulation on 
program development. The criteria are reviewed annually considering 
Army and NGB priorities. Those criteria are the following: Support of 
force modernization; joint use project; resolves existing health and 
safety or environmental problem; equitable distribution of projects; 
replacement of facilities in poor condition; and the Adjutant General 
Priority Rating.
    Question. What process do you use to prioritize and rank the 
requests from State Guard Bureaus into a nationwide list of military 
construction projects?
    Answer. The Army National Guard continues to use the Infrastructure 
Requirements Plan (IRP). This process starts with the submission by 
each of the 54 States/Territories/the District of Columbia of the top 
#1 and #2 major military construction (Milcon) projects. These are 
ranked against each other according to established criteria related to 
project characteristics. Those criteria are as follows: Support of 
force modernization; joint use project; resolves existing health and 
safety or environmental problem; equitable distribution of projects; 
replacement of facilities in poor condition; and the Adjutant General 
Priority Rating.
    This National Guard project list is provided to the Army as part of 
the budget process.
    Question. When, how, and why was this process established?
    Answer. Beginning in 1996, Congress was concerned about how the 
Army National Guard prioritized their Military Construction Projects. 
The National Guard took the opportunity and did a comprehensive review 
of its planning process. As a result, now has the Infrastructure 
Requirements Plan (IRP), a process which has served well for the past 
14 years.
    Question. It is my understanding that Army National Guard 
facilities are an average of 41 years old, 24 percent are over 70 years 
old, and the military construction requirements for Army Guard 
facilities has been estimated to be around $1.5 billion per year over 
the next 20 years to bring these facilities up to current standards. Is 
the Army National Guard's request for fiscal year 2011 sufficient to 
address the Army Guard's infrastructure needs?
    Answer. The current Future Years Defense Program contains only a 
fraction of what is necessary in both military construction (Milcon) 
and Operations and Maintenance (O&M) Restoration and Modernization to 
adequately refurbish these facilities to a standard that enables a 21st 
Century Army National Guard Operational Reserve. The Army Guard's 
request for Milcon is $873 million in fiscal year 2011 decreasing to 
$354 million in fiscal year 2015.
    The Army National Guard's plant replacement value for the over 
26,000 plus facilities is estimated to be more than $40 billion where 
40 percent of ARNG Facilities are greater than 50 years old. It would 
take in excess of $16 billion over the next 10 years to recapitalize 
just the aging facilities ($1.6 billion a year). A significant portion 
of the National Guard facilities inventory is readiness centers.
    Over 3,000 readiness centers, approximately 1,247 of them are 
greater than 50 years old and most will require recapitalization in the 
next decade. We will have a better understanding of our infrastructure 
investments needs once the National Readiness center study directed by 
the Senate Report 111-201 is completed. We plan to address our critical 
readiness center requirements with the required funding and more 
importantly stop the increasing decline of our facilities inventory 
condition and deficits to continue to meet mission readiness.
    Question. What is the average age of California Army National Guard 
facilities?
    Answer. The average age of California Army National Guard 
facilities is 48 years old.
    Question. Under the current FYDP and general facility replacement 
schedules, what will the nationwide average age of a National Guard 
facility be in 2020, 2030, and 2040?
    Answer. The following criteria and assumptions are applied to 
calculate ARNG responses:
  --Start point real property inventory used was September 2010 and 
        included active, semi-active, excess, caretaker, closed, and 
        surplus status facilities.
  --Inventory excluded TBA and disposed status facilities.
  --Inventory included both DOD and State owned and leased facilities.
  --Inventory included all facilities: buildings, structures and linear 
        structures.
  --Inventory included ARNG facilities on over 100 enclaves for which 
        the ARNG is responsible.
  --Assumed that the one for one disposal to offset additional new 
        construction remains in effect through 2040. Therefore no 
        additional disposal beyond the amount constructed is 
        considered.
  --Based on sizes of new construction versus facilities being disposed 
        assumed each newly constructed building is offset by two older 
        buildings.
  --ARNG will construct about 50 new facilities each year.
  --Facilities older than 50 years are not leaving the inventory 
        because they are eligible for historic status.
  --Facilities being constructed each year are replacing facilities 
        that are 50 years old.
  --These assumptions result in the overriding assumptions that under 
        the current FYDP and general facility replacement schedules, 
        each year 50 new facilities will replace 100 buildings that are 
        50 years old. This will reduce the total number of facilities 
        by 50/year and reduce the total number of years by 5,000 each 
        year. Based on these realistic assumptions given the number of 
        facilities (over 95,000) they make no measurable difference.
    Question. Under the current FYDP and general facility replacement 
schedules, what will the average age of a California National Guard 
facility be in 2020, 2030, and 2040?
    Answer. Under the current FYDP and general facility replacement 
schedules, the average age of California Army National Guard facilities 
will be 58 years in 2020, 68 years in 2030, and 78 years in 2040.
                         blackhawk helicopters
    Question. California has a significant amount of high altitude 
terrain and heavy historical utilization of UH-60 and HH-60 Blackhawk 
helicopters in emergency response missions. What factors will the 
National Guard Bureau take into account when making the decision on 
where to assign additional modernized UH-60 L and M Blackhawk 
helicopters in the Army National Guard and HH-60 Blackhawks in the Air 
National Guard?
    Answer. Many factors are considered when stationing modernized 
helicopters in both the Army National Guard and Air National Guard. A 
major factor is the Army Force Generation Model that assigns units to 
deploy overseas for Federal missions. Other factors include 
availability of aircraft in a state and region by type and state of 
modernization, the terrain of the region and suitability of other 
ground and air assets to support operations.
    Question. Specifically, will you consider unique geographical 
constraints and historical utilization rates in emergency response 
missions when determining assignments? If not, why not?
    Answer. The National Guard does consider geography and the threat 
of natural disasters when stationing units. Historical utilization 
rates are considered and are balanced against the increased capacity of 
modernized aircraft.
    Question. What other factors will the National Guard Bureau take 
into account and how do you determine and prioritize/rank those 
factors?
    Answer. National Guard Bureau first considers the availability of a 
unit for the Warfight when fielding modernized aircraft in order to 
reduce sustainment and logistical support requirements when units that 
are stationed across multiple states merge together on a deployment. 
The next scheduled deployment is considered to ensure a unit has enough 
time to train on modernized aircraft between fielding of the equipment 
and deployment. Other factors such as terrain, availability of other 
aircraft and historical flood, fire, hurricane and other natural 
disasters is also considered.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback
    Question. Tight budgets are going to force us to make the best 
possible use of government and military facilities. Kansas recently 
announced it is closing several armories due to budget constraints, and 
several State budgets are experiencing shortfalls. The Federal budget 
for facilities also is limited and likely to shrink in the future. 
Because of these constraints, it might be useful to consider shared-use 
facilities for Guardsmen, and other public safety-related state and 
Federal personnel.
    Have you considered a shared-use facilities concept? Are you aware 
of any short-term steps that might be taken to create shared-use 
facilities or any legal or policy barriers that would need to be 
addressed to make the concept work?
    Answer. The National Guard has considered shared-use facilities and 
has constructed many installations in conjunction with State or Federal 
agencies, including other components of the Armed Forces. We are taking 
short-term steps to identify Federal shared use facilities through 
Joint Service Reserve Component Review Boards. State shared used 
facilities are presenting more of a problem, as many States lack the 
budget for major construction at this time. In addition to State-share 
requirements, incompatibility issues with Anti-Terrorism/Force 
Protection criteria and other Federal regulations make sharing 
facilities with the States difficult. We feel that the report language 
to accompany the fiscal year 2011 National Defense Authorization Act 
(NDAA) directed Readiness Center Study will illustrate additional 
opportunities for shared use facilities.
    Question. Up to now, the various resiliency programs have existed 
on seed money provided through various accounts in Congress. I am 
concerned that these programs may not survive as budgets get tighter.
    What steps are you taking to capture the best practices from the 
various resiliency programs and make them available to Guardsmen and 
women around the country, and will you be able to institutionalize 
these resiliency programs as other priorities compete for space in the 
budget?
    Answer. The National Guard Bureau continues to work to develop more 
efficient and effective resiliency programs. One major success of the 
National Guard has been the The Yellow Ribbon Reintegration Program 
(YRRP). This program has worked extremely well for the Army and Air 
National Guard. Through May 2009, the National Guard has already 
conducted 619 events involving 47,182 service members and 58,350 family 
members. These attendees have had access to information, services, 
referrals, and proactive outreach to Services members, families, and 
employers throughout pre-deployment, deployment, and post-deployment.
    The YRRP is made available to all members of the Army and Air 
National Guard when they deploy. Additionally, the National Guard makes 
every attempt to ensure that all Service branches within our States, 
Territories and the District are included, whenever possible, in our 
Yellow Ribbon Reintegration Program process throughout all phases of 
the deployment cycle.
                                 ______
                                 
      Questions Submitted to Lieutenant General Harry M. Wyatt III
            Questions Submitted by Chairman Daniel K. Inouye
                  air national guard fighter shortfall
    Question. General Wyatt, in the statement submitted for the record, 
you observed that ``80 percent of our F-16s will begin reaching the end 
of their service life in 7 years.'' Retiring these aircraft will 
significantly reduce the fighter aircraft that the Air National Guard 
has dedicated to the Combat Aviation and Air Sovereignty Alert 
missions. How serious a problem is the fighter shortfall facing the Air 
National Guard and what steps are being taken to reduce the associated 
risk?
    Answer. The ANG faces a substantial fighter force shortfall in the 
near term which becomes critical by fiscal year 2016-17. By fiscal year 
2017 up to six ANG F-16 units may reach the end of their service life. 
To address this risk, the Air Force is funding and executing full-scale 
fatigue tests on aging F-16 aircraft to determine the feasibility of a 
service life extension program (SLEP).
    Question. General Wyatt, what force management options could be 
taken if the F-16 fleet sees significant aircraft retirements before 
replacement aircraft are available?
    Answer. If recapitalization does not occur in a timely manner and 
the Air National Guard (ANG) experiences significant aircraft 
retirements without replacement, the only option available for units 
without aircraft is to retrain, relocate, or retire their experienced 
ANG personnel. A preferable alternative to ``retrain, relocate, or 
retire'' is concurrent and balanced recapitalization. Addressing the 
needs of the ANG during recapitalization efforts ensures the ANG and 
its highly efficient, knowledgeable, and cost efficient forces remain 
available for Combatant Commander tasking at Home and Abroad.
                     c-130 force structure changes
    Question. General Wyatt, in fiscal year 2011 the Air National Guard 
will lose 18 aircraft through a combination of retiring 6 C-130Es and 
transferring 12 C-130Hs to the active component. To minimize the 
adverse impact, the plan is to remove one or two aircraft from multiple 
sites and reduce the size of the squadrons. The exception is a unit in 
Puerto Rico that will lose its last C-130Es next year. What is driving 
this change in your force structure and what are the consequences for 
the Air National Guard?
    Answer. Continuing budget pressures, the rising cost of maintaining 
and operating older weapons systems and the need to recapitalize aging 
tactical airlift assets are behind the programmatic actions in the 
fiscal year 2011 budget request. The reduction in airlift assets will 
result in fewer assets available to carry out both the Federal and 
State missions in response to any event or conflict. We are working 
with the Air Force and the Adjutants General to minimize the impact of 
the force structure changes.
    Question. The Air Guard unit at the Luis Munoz International 
Airport in Puerto Rico loses its last 6 aircraft (C-130Es) in fiscal 
year 2011. The Air Force has not yet decided what new mission the unit 
will receive.
    General Wyatt, we understand that the Air Force was concerned about 
having too much of the C-130 force in the Guard and Reserves. Can you 
shed some light on the problem being solved with the proposed shift of 
aircraft to the active component?
    Answer. Recent air force studies have suggested that there is an 
issue with the ratio of C-130's in the Guard and Reserves to those 
based in active duty units. The study suggests that the ability to 
access reserve component aircraft is limited, and could be fixed by 
basing more C-130's in the Active Duty. It is my belief that the ANG C-
130 community has proven over the last decade through volunteerism and 
mobilization that access to ANG iron is not an issue. Although our 
fleet size has been reduced by 20 percent due to BRAC and Air Force 
programmatic changes, we continue to increase our level of effort to 
the total airlift requirements of our nation. This level of ANG C-130 
fleet effort cannot be measured strictly by the number of tails 
currently deployed to Afghanistan and Iraq as studies have suggested, 
but should also include the total level of effort that our ANG C-130 
fleet shoulders on a daily basis. I would remind everyone that the 
first C-130 aircraft to respond to the gulf area after Hurricane 
Katrina was an ANG C-130. This is the norm, not the exception.
    Question. General Wyatt, the Puerto Rico ANG C-130 unit is 
scheduled to lose all of its aircraft in fiscal year 2011. Have you and 
the Air Force identified a new mission for this unit?
    Answer. We continue to work with the Air Force basing process to 
identify the future mission for our outstanding unit in Puerto Rico. We 
have made a strong case that our ANG unit in Puerto Rico possesses many 
unique abilities, including language and cultural skills that should be 
leveraged by the Air Force. We also conclude that the location of 
Puerto Rico is unique and valuable as our only permanent airlift unit 
location in the Caribbean.
              air national guard--recruiting and retention
    Question. General Wyatt, in the last 4 years the Air Guard has 
undergone significant force structure adjustments. Most of these 
adjustments have been completed but there are still a few bases without 
long term missions. How has the restructuring affected recruiting and 
retention across the Guard and in particular at the units that still 
lack a future mission?
    Answer. Air National Guard recruiting and retention remains strong. 
The challenge as we move forward is to strike a delicate balance of 
remaining close to end strength while strengthening ``effective'' 
recruiting. We have been very successful with quickly matching missions 
for a majority of our units in transition and have been diligently 
working with the Air Force on the few units we have had trouble 
matching with follow-on missions.
    Question. General Wyatt, are you concerned that a decision on the 
new missions will not be reached in time to include funding in the 
fiscal year 2012 budget? What is holding up the decision?
    Answer. Our BRAC experiences have enabled us to rapidly match the 
right mission to the right unit. We will continue working with HAF to 
ensure the timely decisions and appropriate funding requests.
    The Executive Steering Group (ESG)--Strategic Basing Process is 
still a relatively new process and continues to be refined to increase 
efficiency. The ANG is fully integrated in the process and continues to 
work with HAF. While often time intensive, this deliberate process 
ensures the necessary vetting and review of basing actions.
                                 ______
                                 
              Question Submitted by Senator Sam Brownback
    Question. For the last few years, the Air National Guard has been 
working on a program to demonstrate the capabilities of the AT-6 light 
attack aircraft. During this time, the concept of a light attack 
aircraft has gained traction in various parts of the Department of 
Defense. In fact, the Air Force announced that it intends to purchase 
several light attack, armed reconnaissance (LAAR) aircraft beginning in 
fiscal year 2012.
    Has the active duty Air Force--or anyone else from across DOD, 
contacted the Air National Guard about lessons learned from the 
demonstration program? Alternatively, have you reached out to 
interested parties at DOD--to include the active duty component of the 
Air Force, the Navy, SOCOM and JFCOM--about the importance of the AT-6 
demonstration program and its relevance to the development of a LAAR-
type aircraft?
    Answer. The Air National Guard has been working closely with the 
Air Force on light attack efforts so that all involved are informed on 
the progress, results, and lessons learned from the various efforts. 
The AT-6 demonstration is a congressionally mandated demonstration that 
will provide platform-agnostic lessons learned that can be applied to 
any light attack effort or future acquisition programs. The Air Force 
has received inquiries about AT-6 Demo effort from the JFCOM/CC, EUCOM 
staff, and most recently, the Director of the Iraq Training and 
Advisory Mission. Air Guardsmen working the AT-6 demonstration at the 
ANG Test Center in Tucson and at the National Guard Bureau have 
actively kept SAF and HAF, JFCOM, and the OSD special capabilities 
office aware of program status and future plans. The first formal phase 
of the AT-6 demonstration flights in an operationally representative 
environment just started in late March and will conclude on April 22. 
We invited Navy personnel working the IMMINENT FURY program to observe 
the testing occurring at Nellis AFB April 12-22, and Air Force 
personnel will also be involved with the Nellis effort. We will 
actively share the results of that first phase, and the second phase of 
flights planned for August and September, with all organizations in DOD 
involved with Light Attack. We have also initiated contact with the 
offices at AFMC that will be responsible for any future light attack 
aircraft procurements to ensure they receive and understand the results 
of the AT-6 demonstration so they may be incorporated into any future 
full and open competitions.
                                 ______
                                 
       Questions Submitted to Major General Raymond M. Carpenter
            Questions Submitted by Chairman Daniel K. Inouye
                       uh-60 black hawk upgrades
    Question. General Carpenter, one of the Army Guard's top priorities 
is to modernize the oldest UH-60 Black Hawks to the latest 
configuration. The budget contains funds to upgrade 35 of these 
helicopters. How many of those conversions would directly benefit the 
National Guard?
    Answer. Current information indicates that 30 of the 35 A-A-L 
conversions in the budget will be coming to the Army National Guard. 
The Army UH-60 ``A to A to L'' upgrade program is a critical element 
for the timely modernization of the ARNG UH/HH-60 fleet, which 
comprises the largest and most heavily used part of the ARNG rotary-
wing inventory.
    The ARNG is quickly approaching its full authorization of 849 UH/
HH-60 aircraft. When that occurs, almost 500 of those will be the older 
and outdated ``A'' models that average over 30 years of age. At the 
presently programmed rate of future buys of ``M'' models and ``L'' 
model conversions, the Army Guard will not be able to divest of the 
final ``A'' models until well into the 2020's. Future ``A-A-L'' 
conversions are currently planned a rate of 38 per year.
    Question. General Carpenter, the dependence on helicopters in Iraq 
and Afghanistan has created a strain on our depots because of all the 
repairs needed on aircraft returning from overseas. Do you know if our 
depots have adequate capacity to accelerate the Black Hawk 
modernization program?
    Answer. These efforts are performed at the Corpus Christi Army 
Depot (CCAD). In regards to CCAD's capacity, the Depot could ``expand/
increase'' its capacity beyond the current production for the UH-60 A-
A-L RECAP of 38 aircraft per year; however, there is no existing 
requirement to do so.
    Any increase above the current requirement would entail a ramp up 
to properly set the conditions for success. Additional resources, to 
include staffing, tools, spare parts, facilities, and funding; could be 
needed depending on the number of additional aircraft to be addressed 
per year.
                                Reserves

STATEMENT OF LIEUTENANT GENERAL JACK C. STULTZ, CHIEF, 
            ARMY RESERVE
    Chairman Inouye. And now may I call upon the second panel, 
Lieutenant General Jack Stultz, Chief of the Army Reserve; Vice 
Admiral Dirk Debbink, Chief, Navy Reserve; Lieutenant General 
John F. Kelly, Commander, Marine Forces Reserve and Marine 
Forces North; Lieutenant General Charles E. Stenner, Jr., 
Chief, Air Force Reserve.
    Gentlemen, thank you for joining us this morning. And may I 
assure you that your full statements will be made part of the 
record.
    And may I now call upon General Stultz, Chief of the Army 
Reserve.
    General Stultz. Mr. Chairman and Vice Chairman Cochran, it 
is an honor to be here and, first and foremost, to say thank 
you for all of the support that you've given the well over 
207,000 soldiers that currently populate the Army Reserve.
    I know we're going to be pressed for time, and I don't want 
to take a long and drawn-out opening statement.
    I do want to recognize two soldiers that I did bring with 
me today, because I think they epitomize what Ray Carpenter 
talked about, that's referred to as a national treasure, and 
that is what we call ``warrior citizens.'' You used to be 
called ``citizen soldiers,'' and when I came into this job as 
the Chief of the Reserve, we changed the term to ``warrior 
citizen.'' And I took a little flak about that, because people 
said, ``That's a little harsh.'' And I said, ``I don't think 
so, because our soldiers, today, in uniform are warriors. They 
are an operational force. They're making, in a lot of cases, 
the ultimate sacrifice.'' We have lost a number of our Reserve 
component soldiers, sailors, airmen, and marines in combat.
    And so, these two soldiers that I want to introduce 
epitomize that national treasure that we've got. The first one 
is Second Lieutenant Rachel Milton. Second Lieutenant Milton 
joined the Army Reserve after 9/11, to serve her country, and 
she became a private in the Army Reserve. She deployed to Iraq 
as a specialist, E-4 medic, where she was working inside Abu 
Ghraib prison, treating prisoners, both inside the prison and 
in the grounds. But also, during her other time, she was out 
doing convoy security, where she was a .50 cal gunner in a 
Humvee, providing security to convoys moving in and around that 
area of Iraq. And, additionally, was part of a four-person team 
who flew back and forth into the Green Zone during the Saddam 
Hussein trial to provide medical support to him and others that 
were participating in that trial. Came back home from her 
deployment to Iraq, went back to school, got her bachelor's 
degree in nursing, became a nurse at a hospital in New York 
City; in 2 years, has already been promoted to charge nurse and 
is now getting ready to enter her master's program. That's the 
return on investment we get; where we take a young person who 
is a patriot, put them into the Army Reserve, or the other 
Reserve components, and let them develop on their own, and let 
them become leaders, and then let them go back to their 
communities and give back. So, now, here in the Army Reserve, 
I've got an officer, I've got a trained nurse, I've got a 
combat veteran standing before you. A true hero.
    The other individual is Sergeant David Foltz. Sergeant 
Foltz is an engineer. Sergeant Foltz deployed in 2003-2004, in 
support of the war, and then went back again in 2006-2007. Part 
of an engineer unit that was out in the Anbar Province during a 
very, very contested time, which I'm sure General Kelley is 
very familiar with, doing route clearance. His battalion 
clearing a number of improvised explosive devices (IEDs) that 
saved thousands of soldiers and marines' lives as they cleared 
them, but, in that battalion, lost six of their own soldiers, 
and 25 percent of their unit received the Purple Heart 
throughout that battalion. Came back home, works for me in the 
Army Reserve now as a civilian, giving back not only in terms 
of his technical skills, but giving back in terms of his 
leadership as a noncommissioned officer; that which 
distinguishes our Army from any other army in the world, the 
backbone of our Army.
    This is why I'm here today, sir, to say we need your 
continued support and the continued support of Congress, for 
these great young men and women who are in our ranks who are 
truly national treasures.
    I'll look forward to your questions, sir. Thank you.

                           PREPARED STATEMENT

    Chairman Inouye. We thank you for your service to our 
Nation, and we salute you.
    General, finish with your----
    General Stultz. Yes, sir.
    As I said, I look forward to your questions.
    [The statement follows:]
          Prepared Statement of Lieutenant General Jack Stultz
    Against the backdrop of the second longest war in our nation's 
history and the longest ever fought by an all-volunteer force, the Army 
Reserve continues to be a positive return on investment for America. 
The fiscal year 2009 $8.2 billion Army Reserve appropriation 
represented only 4 percent of the total Army budget, yet we supply the 
Army seven to eight brigade-size elements. Since September 11, 2001, 
the Army Reserve mobilized 179,782 Soldiers, and now has 29,000 
deployed in support of Army missions. We supply the Army with 87 
percent of its Civil Affairs capability, 65 percent of its 
Psychological Operations, and 59 percent of its Medical support--to 
highlight a few of our top contributing specialized functions. Compared 
to the cost of expanding the full-time force, the small investment in 
the Army Reserve provides security at home and fights terrorism abroad. 
We respond to domestic disasters and participate in security 
cooperation operations while protecting national interests around the 
globe. In support of contingency operations, we foster stability in 
underdeveloped nations where conditions are ripe for terrorists to gain 
a foothold.
    The events of September 11, 2001 forever changed the way in which 
the Army Reserve provides combat support and combat service support to 
the Army and to the Joint Forces. Operational demands for Army Reserve 
support have been heavy and enduring. Operations in Afghanistan soon 
led to urgent calls for logistical, engineer, military police, medical, 
and civil affairs capability. The Army Reserve has the largest share of 
these capabilities and was soon meeting Combatant Commanders' urgent 
requests. Theater requests have grown larger since operations began in 
Iraq in 2003. Every year through 2006, Combatant Commanders anticipated 
needing fewer troops, but mission demands forced them to keep 
requesting more troops and support capabilities. In 2007, the ``surge'' 
in Iraq reversed that country's descent into civil war, but sustaining 
that renewed commitment into 2008 represented yet further strain on the 
Army Reserve, its units and Soldiers, and their Families. As of October 
2009, the beginning of the Iraq drawdown hints there may be some 
operational relief ahead, but new requests from Afghanistan for forces 
has triggered another presidential strategic re-assessment. The reality 
is, current operations are consuming Army Reserve readiness as fast as 
we can build it, but Congress' support for the Army Reserve in recent 
years has gone far toward both meeting current demands and reshaping 
the Army Reserve for future national security requirements.
    As sustained operational demands on the Army Reserve became heavier 
after 9/11, it became ever apparent we could no longer function as a 
part-time strategic reserve. Based on the operational requirements 
outlined for the Army Reserve in the 2010 Quadrennial Defense Review, 
and while fighting two wars, we completed our transition from a 
strategic reserve to an operational force last year--to the extent we 
can--given today's resourcing and mission demands. An operational Army 
Reserve is a good return on investment for America because now we are 
in a stronger position to provide the Army with predictable, trained, 
equipped, and ready forces to meet global and contingency requirements. 
What remains is an ongoing effort to sustain an operational posture, 
with a fully functioning Army Force Generation model--that receives 
full funding.
    Thanks to Congress' leadership, we have made great progress in a 
number of initiatives required to complete Army Reserve transformation. 
We have re-organized operational commands to better support theater 
requirements, opened new training centers, and restructured training 
commands to support the total force. Through Base Realignment and 
Closure, we have closed scattered facilities in favor of more 
efficient, multi-service reserve centers. Through the Army Reserve 
Enterprise process, we are restructuring our strategic and operational 
efforts to maximize productivity, efficiency, and responsiveness in 
four Enterprise areas: Human Capital, Materiel, Readiness, and Services 
and Infrastructure.
    We have identified ``Five Imperatives'' to facilitate Army Reserve 
continued transformation to a stronger and more capable operational 
force. They are Shaping the Force, Operationalizing the Army Reserve, 
Building the Army Reserve Enterprise, Executing BRAC, and Sustaining 
the Force.
Shaping the Force
    As we look ahead, we know that building the right force is crucial 
for success. In 2010, we will leverage human capital management 
strategies to better shape the force into a more affordable and 
effective Army Reserve capable of supporting national security 
objectives and our combatant commanders' war-fighting needs. We are 
developing a more precise human capital strategy to meet our nation's 
future military needs by ensuring the right people, with the right 
skills, in the right units, are in place at the right time.
    In today's competitive recruitment environment, incentives matter 
because they allow the Army Reserve to sustain and shape the force. We 
achieved our fiscal year 2009 end strength due to the hard work and 
dedication of our recruiters and our Soldiers. We also attribute this 
success to the recruiting and retention initiatives that support the 
Army Reserve's manning strategy. These include the Army Reserve 
Recruiter Assistant Program that promotes strength from within by 
recognizing and rewarding those Soldiers, Family members, and 
Department of the Army Civilians working for the Army Reserve who bring 
talent to the team. The second is enlistment bonuses, which help us 
recruit the critically short/high demand Military Occupational 
Specialties. In fiscal year 2009, our focused incentives increased Army 
Reserve End Strength. As we met the objective, it became evident that 
not all of our new Soldiers possessed the skill sets needed to support 
the Army Reserve structure while also fulfilling our wartime 
requirements.
    Successful recruiting added an abundance of Soldiers in the lowest 
three pay grades, but recruiting new Soldiers as privates and second 
lieutenants cannot fill the thousands of mid-grade noncommissioned and 
commissioned officer vacancies that currently exist. Despite excellent 
retention results, these shortages continue.
    Our recruitment efforts will focus on more prior-service recruits 
who are slightly older and bring more experience than most first-term 
Soldiers. These experienced Soldiers can fill shortages among mid-level 
commissioned and noncommissioned officers. Targeted incentives have 
been crucial to rebuilding our end strength and addressing critical 
shortages in some grades and job specialties. Continuing these 
incentives allows the Army Reserve to shape the force to better meet 
the requirements of our national security strategy and to give 
Soldiers, Families, and Employers stability and predictability.
    Ensuring a Continuum of Service (COS) is a human capital objective 
that seeks to inspire Soldiers to a lifetime of service. Active (full-
time) and reserve (part-time) military service are two elements of 
valuable service to the nation. Continuum of Service provides Active 
and Reserve Components some of the means necessary to offer Soldiers 
career options while maintaining capability for the operational force. 
COS also recognizes the tremendous cost of accessing and training each 
service member and seeks to avoid unnecessary replication of those 
costs. To reach our objective, it is our intention to work with Army to 
propose recommended changes to current statutes and policies that will 
ease restrictions on statutes limiting Reserve Component Soldiers from 
serving on active duty.
Operationalizing the Army Reserve
    Our status as an operational force means that the Army Reserve is 
no longer a force in waiting--we are an operational force in being. We 
can continue providing that positive return on investment to the nation 
when the Army Reserve is given the proper resources to succeed.
    The Army Reserve plays a vital operational role in overseas 
contingency operations and will for the foreseeable future. 179,782 
Army Reserve Soldiers have mobilized since 9/11 in support of Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF); 45,000 have 
mobilized more than once. In 2009, the Army Reserve mobilized 34,472 
Soldiers to support Combatant Commanders' requests for forces. We 
execute a readiness strategy to deploy highly ready units and Soldiers 
to support OIF and OEF requirements. This readiness strategy 
synchronizes those strategic planning and resourcing actions necessary 
to generate sufficient manning, training, and equipping levels to meet 
combatant commander mission requirements. The Army Force Generation 
process allows for a structured progression of increased unit readiness 
over time, and provides the Army recurring access to Army Reserve 
trained, ready, and cohesive units, which translates to predictability 
for Soldiers, their Families, and Employers. In effect, ARFORGEN drives 
the battle rhythm of the Army Reserve.
    ARFORGEN works for the Army Reserve. It has enduring qualities that 
have been apparent in providing support to emergencies such as 
Hurricane Katrina and the Haiti earthquake relief efforts, for training 
Soldiers in Afghanistan, to supporting the African Contingency 
Operations Training and Assistance Program with training and equipment 
for selected militaries engaged in humanitarian or peace operations. 
The Army Reserve seeks continued support from Congress to be an 
effective responder to missions such as these.
    Within the transformation process, we realigned our force structure 
to meet the Army's global mission requirements in both the Operational 
and Generating Force categories. The Army Reserve is ready to take on 
additional missions as the Department of Defense and U.S. Army validate 
emerging requirements. Authorized growth in end strength will enable 
the Army Reserve to activate validated units to meet these emerging 
requirements and maintain the number of units we have in our ARFORGEN 
process. Plans reflect an increase of 1,000 to 206,000 spaces of 
Authorized End Strength (ESA) to provide the Army Reserve capability to 
meet emerging mission requirements within our ability to operate the 
force.
    Full-time support personnel comprise a select group of people who 
organize, administer, instruct, recruit, and train our people; and who 
maintain supplies, equipment, and aircraft. They also perform other 
functions required on a daily basis to maintain readiness in support of 
operational missions. Without these critical Soldiers and Civilians, 
the Army Reserve could not function as an operational force.
    Although resourced to the Department of the Army ``High Risk'' 
funding methodology (meets minimal acceptable risk in support of a 
strategic reserve force), it is imperative that future planning ensure 
full-time support is fully resourced as an operational reserve. 
Adequate resourcing is critical in meeting the readiness requirements 
of the Army Force Generation (ARFORGEN) model.
    The current full-time support model remains a strategic reserve 
legacy. Key legislative and policy modifications are required to change 
personnel support processes. Manpower models and programming processes 
require review and modifications to provide flexibility and rapid 
response adjusting resources amid changing priorities across the 
ARFORGEN process.
    Our Active Guard Reserve (AGR) and Military Technician (MT) 
programs provide the bulk of full-time support at the unit level. They 
provide the day-to-day operational support needed to ensure Army 
Reserve units are trained and ready to mobilize within the ARFORGEN 
process. The AGR and MT programs are vital to the successful transition 
to--and sustainment of--an operational reserve. The Army Reserve 
requires added flexibility in its hiring practices to sustain its 
commitments to ARFORGEN. We must take action to create a new category 
of Non-Dual Status Technician, which allows retention and direct hire 
of personnel from outside the Selected Reserve. This new capability 
will allow us to support non-mobilizing/deploying organizations while 
authorizing Dual Status Military Technicians to meet conditions of 
employment with a military assignment anywhere within the Selected 
Reserve. We are working with Army to relax legacy fulltime support 
policies in order to provide flexibility in the reallocation of 
resources within AFORGEN cycle.
    As an operational force, the Army Reserve must have the most 
effective and sustainable equipment for Soldiers and units at the right 
place and at the right time. The Army Reserve supports the Army 
Equipping Strategy of Cyclical Readiness, which means all units are 
equipped based on their position in the ARFORGEN process and their 
mission--regardless of Component. The Equipment Readiness levels 
increase as units move through the ARFORGEN process from the RESET to 
the Available Phase. Those units that are within the RESET phase start 
with zero readiness expectation. As the units move to the Train/Ready 
phase, they will be resourced from 80 percent growing to 90 percent; 
and once the units enter the Available Phase, they are resourced to 
ensure 90 percent plus equipment readiness. To maximize collective and 
individual training opportunities for our units in the ARFORGEN process 
on high demand/low density systems, the Army Reserve must address the 
challenge with small pools of current generation systems. Additionally, 
while the Army Reserve units in the Reset Phase should have minimal 
specific equipping expectations; the Army Reserve is identifying 
equipment requirements that a unit can properly maintain at a Reserve 
Unit Home Station while sustaining Soldiers and training readiness. We 
are thankful to Congress for helping us meet this goal with National 
Guard and Reserve Equipment Appropriation (NGREA) funding. These funds 
greatly add toward operationalizing the Army Reserve by supporting Army 
Modularity, Homeland Defense/Homeland Security, and the Army Force 
Generation cycle with a fully modern and interoperable force. With 
continued NGREA funding, we will be able to train our Soldiers on the 
latest combat equipment before they deploy into harm's way.
Enterprise Transformation
    Using an enterprise approach to managing our internal processes, we 
add value to the Army by applying a holistic approach to managing our 
resources and shape the force into what is beneficial for the Army 
Reserve and supports the needs of the Army. By ``shape the force,'' I 
mean taking a fresh approach to how we recruit and retain the best and 
brightest, and positioning them in the right place, in the right job, 
and at the right time.
    The Army Reserve Enterprise consists of four core management areas: 
Human Capital, Readiness, Materiel, and Services and Infrastructure. To 
optimize the enterprise we must: Attract and retain the very best 
Warrior Citizens to serve our nation (Human Capital), Prepare, train, 
and equip Soldiers (Readiness); provide our Soldiers with the latest 
mission ready modular force equipment, (Materiel); provide for the 
well-being of our Soldiers, Families, Army Civilians, and employers 
while providing training and unit facilities and secure, redundant 
communications (Services and Infrastructure). Working together, these 
core management areas enable the Army Reserve enterprise to realize its 
ultimate goal: predictable, trained, and ready units--the essential 
components that define CAPABILITY.
BRAC
    We have facility responsibilities at more than 1,100 Reserve 
Centers and the installations of Fort McCoy, Fort Buchanan, and Fort 
Hunter-Liggett installations. We also are responsible for significant 
training areas at Jolliet, Devens Reserve Forces Training Area, and 
Parks Reserve Forces Training Area. Moving toward completion of the 
current BRAC cycle of 2005, the Army Reserve military construction 
priority is to complete the remaining projects budgeted at $361 million 
for fiscal year 2010. Supporting the transformation of the Army Reserve 
from a Strategic Reserve to an Operational Force, we will implement 21 
construction projects at a cost of $381 million. Our construction 
effort supports the realignment of the field command organizations into 
Operational Supporting Commands. The resultant Supporting Commands 
invested $561 million in operating the facilities and some $244 million 
in repair of those facilities that allows mission accomplishment for 
the Operational Commands.
Sustaining the Force
    The Warrior-Citizens of the Army Reserve and their Families embody 
a lasting commitment to serve America. The Army Reserve recognizes the 
strain of this era of persistent conflict on Soldiers and Families. We 
know Family readiness is inextricably linked to mission readiness, 
recruitment, and retention. Operationalizing of the Army Reserve 
creates a requirement for an enduring level of support. As the Army 
Reserve transforms, so must Family Programs. Our way ahead includes 
realignment actions to: support the Army Reserve Enterprise management 
approach, sustain services to Soldiers and Families in the 
expeditionary force, standardize existing programs and services across 
the Army Reserve, and build partnerships with Army Families and 
communities. Our end state is to optimize programs and services to 
connect Soldiers and Families to the right service at the right time.
    The cornerstone of our planning effort is to ensure the integration 
of Family Support services with the ARFORGEN process. By doing so, we 
ensure that our Warrior-Citizens and their Families have solid programs 
that are ready for execution any time during the training and 
deployment cycle. Appropriate resourcing will allow us to assess 
structure requirements, staffing needs, and develop effective processes 
that ensure the consistent delivery of programs and services that meet 
the needs of ARFORGEN and especially for those of our geographically 
dispersed customers.
    The Army Reserve Family Programs Virtual Installation Program is an 
exciting new initiative that ensures the same services provided to 
active component Soldiers are available to all service members and 
their Families not living close to a military installation. Leveraging 
assets we have on hand is allowing us to test the program through a 
series of pilots located in selected communities. Funding for this 
priority will allow us to expand Virtual Installation within Army 
Strong Community Centers around the country and overseas.
    We must continue to increase the quantity and quality of support 
for Army Reserve children and youth. We can increase opportunities for 
youth to develop leadership skills and strategies for coping with 
separation. Teen panels provide forums for our youth to propose 
solutions for concerns that affect their lives during mobilization and 
deployment. Additional online teen deployment classes support youth 
living in the ``new normal'' of repetitive deployments. With additional 
resources, we will work with our community partners to expand childcare 
for geographically dispersed Families and respite care for mobilized 
Families.
    This year we provided new opportunities for children of Army 
Reserve Families to attend camps. While the Department of Defense (DOD) 
``Purple Camps'' were a great initiative, they distributed 
opportunities among all military communities in DOD. This resulted in 
fewer opportunities for Army Reserve children than needed. 
Additionally, Army Reserve children are usually unable to travel, and 
require activities located in areas near their homes. By operating our 
own camps, we increased these opportunities to Army Reserve Families in 
their communities and tailored them to our communities. The goal of the 
program is to prepare Army Reserve Soldiers and their Family members 
for mobilization, sustain Families during deployment, and reintegrate 
Soldiers with their Families, communities, and employers upon release 
from active duty. The Army Reserve Yellow Ribbon Reintegration Program 
(YRRP) provides information, services and support, referral, and 
proactive outreach to Army Reserve Soldiers and their Families through 
all phases of the deployment cycle. The program includes information on 
current benefits and resources available to help overcome the 
challenges encountered with Army Reserve mobilization and 
reintegration.
    The Army Reserve successfully launched its Yellow Ribbon 
Reintegration Program. We have coordinated with other military 
agencies, Federal/state/local government agencies, community 
organizations, and faith-based organizations to provide robust, 
preventive, proactive programs for Soldiers and their Families. 
Elements of the program include promoting preparedness through 
education, conducting effective Family outreach, leveraging available 
resources, and supporting the All-Volunteer Force. During fiscal year 
2009, the Army Reserve executed more than 250 Yellow Ribbon events, 
serving some 12,000 redeploying Soldiers and 12,000 Family members. In 
interviews conducted by the Office of the Secretary of Defense, 
Soldiers and Family members reported positive experiences with the Army 
Reserve Yellow Ribbon Reintegration Program.
    The challenge to the Army Reserve remains to develop, improve, and 
sustain the mental, spiritual, and emotional health that fosters 
resilient Soldiers and Families.
    We are moving out aggressively to mitigate the effects of 
persistent conflict and build a strong, resilient force. Multi-symptom 
conditions including those signature wounds not visibly apparent (for 
example: Post Traumatic Stress Disorder (PTSD) and Traumatic Brain 
Injury (TBI), exist for Soldiers with military service in Southwest 
Asia. We will work with Health Affairs and the other Services to 
continue to provide the care necessary for the wounds from the current 
conflicts.
    We appreciate the resources that Congress has provided to date to 
further programs such as the new GI Bill and TRICARE. The benefit of 
TRICARE Reserve Select provides our Soldiers and Families peace of mind 
knowing that if a Soldier decides to better him/herself career-wise 
with the skills gained while deployed, medical care will not be a worry 
if he or she decides to change careers.
    We are teaming with civilian industry to shape the Army Reserve 
into America's premier reservoir of shared military-civilian skills and 
capabilities through our Employer Partnerships programs. Through these 
mutually-beneficial alliances with businesses that share our valuable 
human capital, we can strengthen Soldier-employees, Families, 
employers, and communities.
    We seek to identify locations where our Soldiers can simultaneously 
add value to both the civilian workforce and the Army Reserve. This 
effort ties into our objective of achieving a continuum of service for 
Soldiers who want the option to transition from active and reserve 
components, and vice versa, to provide Soldiers flexibility with their 
career objectives, while allowing the Army Reserve to retain the best 
talent and critical skills capability.
    We are committed to minimizing turbulence to Soldiers and their 
Families while providing the most effective and efficient trained and 
ready units and forces to meet world-wide requirements. We must 
maintain current levels of predictability while making plans to 
increase it. The Army Force Generation process allows for a structured 
progression of increased unit readiness over time, and provides the 
Army recurring access to Army Reserve trained, ready, and cohesive 
units. While our commitment in Iraq may draw down, the requirement for 
forces to commit to other global missions will only increase. In 2010, 
we will work with Congress to ensure we obtain the necessary resources 
to sustain a viable Army Force Generation cycle that supports global 
commitments and new missions.
    Thank you.

    Chairman Inouye. And now, General Debbink--Vice Admiral 
Debbink.
STATEMENT OF VICE ADMIRAL DIRK J. DEBBINK, CHIEF, NAVY 
            RESERVE
    Admiral Debbink. Chairman Inouye, Vice Chairman Cochran, 
thank you for the privilege of appearing before you today.
    My force master chief, Ronnie Wright, and myself want to 
begin by expressing our appreciation for your support for the 
approximate 65,851 sailors, and their families, of your Navy 
Reserve component.
    My written testimony does go into some length describing 
the programs that we utilize to ensure the Navy Reserve is a 
ready and capable force, responsive to both the needs of the 
Navy and Marine Corps team and joint forces for both strategic 
depth and operational capabilities, while at the same time 
providing the necessary support to our sailors and their 
families and, very importantly, showing our appreciation to the 
sailors' employers.
    As I testify this morning, Navy Reserve sailors are 
operating in every corner of the world, shoulder-to-shoulder 
with Active Duty sailors and alongside soldiers, airmen, 
marines, and coastguardsmen. On any given day, more than 30 
percent of the Navy Reserve is providing support to Department 
of Defense operations. The Navy Reserve is ready now, anytime, 
anywhere, as our motto and, most importantly, our sailors 
proudly claim.
    While fully engaged in overseas contingency operations 
around the world, your Navy Reserve was also, most recently, 
involved in Operation Unified Response in Haiti. During the 
last 2 months, more than 950 Reserve sailors were proud and 
humbled to be able to provide over 21,000 man-days of support 
for the humanitarian assistance and disaster relief efforts in 
Haiti.
    Success in these operations, of course, is no accident, 
but, rather, it's a result of your sailors' can-do spirit 
combined with the support of chain of command and the proactive 
support of this Congress. Together, we seek to provide our 
sailors with the proper training, equipment, and support, both 
abroad and back home, necessary to ensure their success. And 
Congress' engagement with these efforts is greatly appreciated.
    A central focus of our manpower strategy continues to be 
the establishment of a true continuum-of-service culture that 
provides a life/work balance, which accommodates individuals' 
circumstances while at the same time allowing us to sustain the 
necessary inventory of skilled and experienced professionals to 
meet the Navy's total force requirements.
    The Chief of Naval Operations, the Chief of Naval 
Personnel, and I recently signed the Navy's Total Force Vision 
for the 21st Century, which lays the foundation for the Navy to 
succeed in delivering the human component of our maritime joint 
warfighting capabilities. Recruiting, retaining, and properly 
employing the right sailors--Active, Reserve, and civilian--in 
the service of our country is both an operational and a fiscal 
imperative for the continued success of our Navy.
    Our 2011 budget request will enable the Navy Reserve to 
continue supporting current engagements and maximizes the 
strategic value of the Navy Reserve as a relevant force, now 
and in the future; a force valued for its readiness, its 
innovation, its agility, and its accessibility. We expect the 
future will call for even greater displays of all of these 
traits.
    It is a privilege to serve during this important and 
meaningful time in our Nation's defense, especially as a Navy 
reservist.

                           PREPARED STATEMENT

    I thank you for your continued support and your 
demonstrated commitment to our Navy Reserve and the sailors in 
that Navy Reserve. I look forward to your questions.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you, Admiral.
    [The statement follows:]
           Prepared Statement of Vice Admiral Dirk J. Debbink
                              introduction
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the Senate Defense Appropriations Subcommittee, thank you for the 
opportunity to speak with you today about the capabilities, capacity, 
and readiness of the dedicated men and women who serve in our Navy's 
Reserve Component (RC). I offer my heartfelt thanks for all of the 
support you have provided these great Sailors.
    I have now had the honor of serving as the Chief of Navy Reserve 
for 20 months. In that capacity, I am privileged to work for more than 
66,500 Sailors in our Navy's RC, an elite fighting force which just 
celebrated its 95th birthday. I am continuously amazed and humbled by 
the daily sacrifices our Reserve Sailors are making for our Nation and 
our Navy. Witnessing such great deeds helps me to focus on the services 
that I can provide to each of them: to ensure they are given real and 
meaningful work every day they are on duty; to ensure that they receive 
every practical material and organizational advantage to support them 
in their work; and to provide their families and employers with the 
proper support to honor and ease their sacrifices.
    Our Navy needs, and our Sailors deserve, the best Navy Reserve 
possible, and today's Navy Reserve is as strong and as relevant as it 
has ever been. Our success is a direct result of the dedication and 
professionalism of our Sailors, which is a reflection of the tremendous 
support those Sailors receive from their families and civilian 
employers.
    Last year, the Navy Reserve adopted an official Force Motto: 
``Ready Now. Anytime, Anywhere.'' This motto is our pledge to our 
shipmates, our Navy, and our Nation and serves as the guiding principle 
of the Navy Reserve Strategic Plan. In that Plan, the mission of the 
Navy Reserve is defined: ``to provide strategic depth and deliver 
operational capabilities to our Navy and Marine Corps team, and Joint 
forces, from peace to war.'' As Chief of Navy Reserve, I can report 
without reservation that our Navy Reserve Sailors accomplish this 
mission every day.
    The Navy Total Force is aligned with and supports the six core 
capabilities articulated in the Maritime Strategy and is managed by 
Navy leadership to enable the Chief of Naval Operation's priorities: 
(1) build tomorrow's Navy; (2) remain ready to fight today; and (3) 
develop and support our Sailors, Navy civilians, and their families. 
The Navy Reserve is integral to the Navy Total Force--we stand 
shoulder-to-shoulder with our active duty component executing full 
spectrum operations that represent every facet of our Navy's Global 
Maritime Strategy. Within this Total Force framework, I would like to 
take this opportunity to update you on the programs that support the 
Chief of Naval Operations' focus areas, while also highlighting some 
key contributions from Navy Reservists in 2009.
                       care for our warrior force
    This country owes a great debt to the men and women who have gone 
in harm's way in support of contingency operations around the globe and 
it is our obligation to provide them not just with every opportunity to 
succeed while deployed, but also with the means to reintegrate once 
they return from overseas.
    Secretary of Defense Robert Gates has stated, ``apart from the wars 
in Afghanistan and Iraq, my highest priority as Secretary of Defense is 
improving the outpatient care and transition experience for troops that 
have been wounded in combat.'' The Navy Reserve takes this commitment 
to heart and is setting a higher standard every day for the care and 
well-being of our Wounded Warriors. In 2009, we completed implementing 
programs recommended in the Naval Inspector General's Navy Reserve 
Wounded Warrior Care report, highlighted by the functional stand-up of 
the Reserve Policy and Integration organization (M-10) within the 
Bureau of Medicine and Surgery (BUMED). This organization provides 
BUMED with a Reserve perspective related to medical policies and issues 
impacting the Total Force. We continue to provide exceptional service 
to Sailors assigned to the Navy's Medical Hold (MEDHOLD) units. These 
units provide necessary medical and non-medical case management to the 
Navy's RC Wounded, Ill, and Injured (WII) population. For those Sailors 
and Coast Guardsmen who are seriously wounded, ill, or injured, the 
Navy Safe Harbor program is the Navy's lead organization for 
coordinating non-medical care for the warrior and their family members. 
Through proactive leadership, MEDHOLD helps RC WII members return to 
service and their communities, and Safe Harbor provides individually 
tailored assistance designed to optimize the successful recovery, 
rehabilitation, and reintegration of our Shipmates.
    Superior care is not reserved for injured Sailors alone. Medical 
research indicates that health concerns, particularly those involving 
psychological health, are frequently identified during the months 
leading up to and following return from an operational deployment. 
Current Navy programs, such as Operational Stress Control Training, the 
Psychological Health Outreach Program, and BUMED's Wounded, Ill, and 
Injured Warrior Support, are designed to align with critical stages of 
the deployment cycle.
    An integral component of Force Health Protection calls for ensuring 
all service members are fit to deploy, and Navy has improved the 
screening procedures for mobilizing Sailors to ensure they are 
medically able to meet theater requirements. For example, the Medical 
Readiness Reporting System (MRRS) has improved tracking of each 
Sailor's suitability for Area of Responsibility-specific expeditionary 
assignments. In addition, annual Physical Health Assessments (PHA), 
coupled with the new, standardized consolidated pre-deployment 
screening and local line support will streamline screening requirements 
while maintaining fidelity on issues which impact medical readiness. 
Early screening and associated fitness determinations help alleviate 
unnecessary stress on our Sailors and provides supported commands with 
a steady stream of well-prepared and able workforce. We are also 
actively engaged in implementing the new legislation that makes 
Reservists eligible for Tricare coverage up to 180 days before a 
mobilization event. We are thankful to Congress for their work in 
providing this benefit to our mobilizing service members.
    Sailors returning from overseas mobilizations are encouraged to 
attend a Returning Warrior Workshop (RWW), which is the Navy's 
``signature event'' within the Department of Defense (DOD) Yellow 
Ribbon Reintegration Program (YRRP). In the 8 years since 9/11, the 
overwhelming majority of Reserve Sailors mobilized to active duty have 
deployed as Individual Augmentees (IAs). Deployed apart from their 
parent unit and often assigned duties which differ greatly from their 
primary specialty, these combat zone deployments can be uniquely 
stressful. The RWW is a dedicated weekend for Sailors to reconnect with 
spouses, significant others, and each other following an IA deployment. 
Staged at a high-quality location at no cost to the participants, the 
RWW employs trained facilitators to lead Warriors and their families/
guests through a series of presentations and tailored break-out group 
discussions that address post-combat stress and the challenges of 
transitioning back to civilian life. Additionally, my goal is to have a 
Navy Flag Officer in attendance at every RWW to make a visible 
statement of Department of the Navy support for this valuable program. 
A total of 43 RWWs have been held as of March 1, 2010, attended by 
3,083 military personnel and 2,329 guests/family members. The fiscal 
year 2011 budget supports another 25 events. Pioneered by the Navy 
Reserve, these workshops are now available for all Navy IAs. RWWs are a 
true success story in honoring our Sailors and their families. It is 
one of my top priorities to ensure this program continues to have both 
the full support of Navy leadership and the widest possible 
participation by all returning Sailors.
    RWWs serve as a key component of the Navy Reserve Psychological 
Health Outreach Program. Outreach teams assigned to each Navy Region 
Reserve Component Command facilitate the RWWs and engage in other 
critical aspects of the Deployment Health Assessment (DHA) process. 
DHAs are regularly scheduled encounters used to screen service members 
prior to and after deployment and to facilitate appropriate 
psychological care. The DHA process supports the DOD health protection 
strategy to deploy healthy, fit, and medically-ready forces; to 
minimize illnesses and injuries during deployments; and to evaluate and 
treat physical, psychological, and deployment-related health concerns. 
The process is designed to identify stress injuries and other health 
concerns requiring further assessment or treatment as appropriate. The 
Navy Reserve now has dedicated mental health professionals and 
associated assets available to provide psychological health services 
for the Navy and Marine Corps Reserve communities. Providing 
psychological health assessment services for deploying reservists will 
assist in identifying potential stress disorders and facilitate early 
intervention before these disorders accelerate to a more critical 
``injured or ill'' stage, keeping Navy and Marine Corps Reservists 
psychologically healthy for continued retention in the Reserves and for 
future overseas and CONUS mobilizations. Also recently established as 
part of the YRRP, the Pre-Deployment Family Readiness Conference 
(PDFRC) utilizes Psychological Health outreach teams to provide 
education and information to ensure that Sailors and their families are 
ready for the rigors of deployment and the challenges of family 
separation.
    Additionally, Navy's formalization and emphasis of the Operational 
Stress Control (OSC) Program is working to de-stigmatize psychological 
health issues, which can improve Sailors' participation in valuable 
psychological health programs for those in need. The Navy Reserve team 
is a charter member of the OSC Governance Board. The Psychological 
Health Outreach teams provide the OSC Awareness brief during periodic 
visits to Navy Operational Support Centers (NOSCs) across the country. 
As of February 1, 2010, the psychological health outreach team members 
have made 196 visits to NOSCs, providing the Operational Stress Control 
Awareness brief to over 20,200 Reservists and staff personnel.
    Finally, and although not solely related to mobilized Sailors, the 
Navy Reserve has aligned closely with the Chief of Naval Personnel on 
programs that detect and help individuals who are at risk of suicide. 
Families, often the first people to notice a desperate change in a 
Sailor, are included in programs such as the PDFRC and the RWW. A 
Suicide Event Report (SER) is completed on all actual or attempted 
suicides, regardless of duty status, which has provided a more complete 
picture of the problems afflicting all Navy Sailors. In every instance 
where the chain of command knows of a Navy Reservist who has attempted 
suicide, either in a duty or non-duty status, the Reservist is referred 
to the Navy Reserve Psychological Health Coordinators for follow-up and 
referral to the appropriate mental healthcare services. The 
aforementioned OSC Awareness briefs provided by the Psychological 
Health Outreach teams also include Suicide Prevention briefs.
                  progress in programs for our people
    The Navy Reserve Strategic Plan defines the vision for the Navy 
Reserve as follows: ``Our vision for the Navy Reserve is to be a 
provider of choice for essential naval warfighting capabilities and 
expertise, strategically aligned with mission requirements and valued 
for our readiness, innovation, and agility to respond to any 
situation.'' During the last 8 years, the Navy Reserve has demonstrated 
the ability to continue sustained and valuable contributions to the 
Total Force, in the full spectrum of missions, at home and abroad, and 
as both an operational and strategic force. We continue to forge ahead 
with ideas and programs that will allow us to continuously contribute 
to the strategic aims of the Navy and the Joint Force.
    As defined in the Strategic Plan, one of the three Focus Areas for 
the Navy Reserve is to enable the Continuum of Service (CoS). CoS 
reflects the reality of our Navy. As our Chief of Naval Operations, 
Admiral Gary Roughhead, states, ``we are one force today. One Navy, 
with an Active Component and a Reserve Component.'' CoS initiatives 
provide for seamless movement between the Active Component (AC), RC, 
and civilian service, while delivering operational flexibility and 
strategic depth at the best value for the Navy. Responding to the CoS 
philosophy, we recruit Sailors once and retain them for life through 
variable and flexible service options that provide a career continuum 
of meaningful and valued work.
    Not long ago, we spoke of creating active duty ``on ramps'' and 
``off ramps.'' Today, a better analogy is that we're all on the same 
career highway, and during our career we may wish to change lanes 
several times, moving from Active to Reserve and back. Our commitment 
to our Sailors is to make these lane changes easier and faster.
    CoS is forcing us to think differently and make big changes in the 
way we do business. Changing our culture might be the hardest part. Too 
often we think the only way to have a Navy career is by serving on 
active duty alone. Our Navy Reserve gives Navy Sailors many other 
possible ways to have a full Navy career.
    There were many important accomplishments associated with our CoS 
efforts in fiscal year 2009. Beginning last year, the Career Management 
System--Interactive Detailing (CMS/ID) allowed our AC career counselors 
to assist Sailors transitioning from active duty to consider Reserve 
units in the location where they planned to live. This is a good 
example of how an effective career development program can be a 
fantastic opportunity for Sailors to Stay Navy for Life. Additionally, 
Sailors in selected ratings and designators are informed about their 
eligibility for bonuses of up to $20,000 for affiliating with the Navy 
Reserve in the specialties we need most.
    Our Perform to Serve (PTS) program has given AC Sailors avenues for 
continued service in the AC Navy, primarily through transitions from 
overmanned rates into undermanned rates. Last fall, Navy expanded this 
program to allow AC Sailors the option to affiliate with the RC in 
their current rate to continue their Navy career. Integrating Reserve 
opportunities early into the Sailor's transition process demonstrates 
the AC's commitment to CoS initiatives.
    One of the most exciting developments supporting CoS is the new 
Career Transition Office (CTO) within Navy Personnel Command. The goal 
of the CTO is to counsel Sailors before they leave active duty and 
through the transition process in order to help them to take full 
advantage of the opportunities in the Navy Reserve. By engaging our 
fully qualified, world-wide assignable personnel before they leave 
active duty, we can turn a personnel loss into a retention transaction 
without the need to involve a Navy recruiter. We started with officers 
transitioning from AC to RC, and immediately reaped success by nearly 
doubling Navy Veteran officer affiliation rates from 28 percent to 55 
percent. We have recently expanded the program to include enlisted 
Sailors who elected the Selected Reserve (SELRES) option in PTS. In the 
future, the CTO will handle all officer and enlisted transitions from 
AC-to-RC and RC-to-AC, except mobilizations.
    Expanding our CoS efforts is one of my top priorities for fiscal 
year 2010. In the upcoming year, we will further our participation in 
the World Class Modeling initiative sponsored by the Chief of Naval 
Personnel to anticipate Navy warfighting needs, identify associated 
personnel capabilities, and recruit, develop, manage, and deploy those 
capabilities in an agile, cost-effective manner. Additionally, we will 
place Reserve information in the Navy Retention Monitoring System to 
provide enhanced reporting and analysis capabilities for retention 
metrics.
    With regard to educating a ready and accessible force, we thank 
Congress for its support of the post 9/11 GI Bill. The opportunity to 
transfer post-secondary education funds to a spouse or child is a 
significant benefit for our Sailors and their families. Since 
implementation on August 1, 2009, over 3,000 reserve members have been 
approved for transferability. We will continue to assess the impact of 
transferability on enlisted and officer retention.
    Another Focus Area for the Navy Reserve is to Deliver a Ready and 
Accessible Force. Reserve support for contingency operations in the 
Central Command Area of Responsibility (AOR) is one of the most 
critical elements in the success our forces have experienced throughout 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF). In 
fiscal year 2009, Navy Mobilization Processing Sites (NMPS) processed 
more than 7,400 Sailors for long-term active duty service. Of those 
Sailors, over 6,100 were mobilized to support Operation Iraqi Freedom 
and Operation Enduring Freedom in combat, combat support, and combat 
service support missions; the remaining 1,300 were on Active Duty for 
Special Work orders providing valued support throughout the Fleet.
    In fiscal year 2010, Navy will continue to improve advance 
notification of personnel for upcoming mobilizations, with a goal of 
consistently providing at least 180 days prior notification for all 
recurrent and rotational mobilization assignments. Further, the Navy 
Reserve will continue to leverage the already robust Total Force 
Command IA Coordinator (CIAC) program at all NOSCs in order to optimize 
the frequency, quality, and depth of communications with mobilized 
reservists and their families throughout the deployment cycle. The CIAC 
program, complemented by the extraordinary efforts of our command and 
unit leadership teams, is significantly increasing quality of life for 
our deployed warriors and their families. Also, full-time, long-term 
support of Navy and Joint Flag Officer requirements by Reservists will 
help expand the expertise and knowledge of the Navy, and I thank you 
for the increased ability for Reserve participation in those 
assignments due to the legislation passed as part of last year's 
National Defense Authorization Act (NDAA).
    The Navy Reserve executed the Navy Reserve Personnel (RPN) and 
Operations and Maintenance (OMNR) accounts, valued at $3.2 billion, at 
99.9 percent in fiscal year 2009. The force executed nearly $150 
million in discretionary Reserve Personnel funding in support of 
missions world-wide, including $98 million in Active Duty for Training 
(ADT) funding--a 32 percent increase over fiscal year 2008--
contributing 311,345 man-days of on-demand expertise to our Navy and 
Marine Corps team and Joint Forces. This operational support is a 
critical enabler to the Navy as Navy Reservists provide full-time 
excellence through part-time and full-time service. In fiscal year 
2011, the budget requests $1.94 billion in baseline RPN, to include 
$190 million in discretionary RPN, and $1.37 billion in baseline OMNR 
appropriations.
    In addition to personnel support, Navy Reserve units and hardware 
contribute to Navy's warfighting effort across multiple mediums, in 
missions ranging from combat operations or combat support operations, 
to logistics support around the globe, to training and readiness 
facilitation for soon-to-be-deploying units. The wide spectrum of 
missions that can be completed with Reserve units is in keeping with 
the third of our focus areas: Provide Valued Capabilities. Even when a 
Reserve unit itself is not mobilizing, our focus is centered on 
guaranteeing that Sailors are ready to provide necessary capabilities 
to the supported Combatant Commander.
    In fiscal year 2010, it is one of my top priorities to ensure the 
use of long-term budgeting processes to ensure sufficient Operational 
Support funding to meet Navy and Joint Force requirements. Demand for 
the services of our talented Sailors has never been greater, and we 
must solidify our access to the ADT dollars used to fund this on-demand 
expertise. Navy Reserve Sailors can be incredibly cost-effective, but 
there is a cost, and that cost must be incorporated in any long-term 
plan. This means planning and budgeting for the Navy Reserve to do the 
part-time work of the Navy.
    Some of the Navy's work is ideally suited for the RC. For example, 
billets that require specialized skill sets on a periodic and 
predictable basis are the billets where the Navy Reserve can deliver 
great value on an ongoing basis while at the same time providing 
critical strategic depth in case of emergency. By working closely with 
the Navy to identify and quantify the work for the Navy Reserve, we can 
ensure the Fleet receives the support it requires and our Sailors will 
have real and meaningful work, delivering full-time excellence through 
part-time and full-time service.
    The Office of the Secretary of Defense (OSD) designated the Navy 
Reserve as the lead agency for managing the RC Foreign Language/Culture 
Pilot Program. This exciting new program encourages our Reserve Sailors 
to take classes at institutions of higher learning to expand their 
awareness of critical foreign language and cultures. Incentivizing our 
Sailors' natural desire to learn will foster understanding across 
cultural lines which will shape our force for the better. Bonuses are 
awarded based on performance which can add up to $5,000 for strategic 
languages and cultural areas studied which are in high demand within 
DOD.
    The Navy continues to strive for ``Top 50 Employer'' recognition 
and the Navy Reserve is in lock-step with those efforts. Top 50 
organizations encourage innovation and focus on performance while 
taking care of their people through programs and policies that support 
a culture of trust, respect, communication, and collaboration. 
Maintaining a work environment that is conducive to quality work and 
leads to equal treatment of all personnel is paramount to the success 
of any organization. Sexual assault is a detractor from a healthy work 
environment, and it will not be tolerated in the Navy. The Navy Reserve 
participates in the Navy's Sexual Assault Prevention and Response 
(SAPR) Cross Functional Team to ensure compliance with the Navy's Total 
Force SAPR program instructions, policies, and procedures. Navy 
leadership continually communicates a ``Not in my Navy'' stance towards 
Sexual Assault through the ranks.
    The policies focused on enhancing the quality of life in the Navy 
have paid dividends for the Force. Fiscal year 2009 marked the second 
consecutive year Navy attained enlisted and officer recruiting goals in 
both Active and Reserve components. In the Reserve, enlisted recruiting 
was at 100.6 percent of goal; officer recruiting finished at 107.7 
percent of goal. Not only did Navy find the quantity of recruits 
necessary to meet requirements, but the measured educational 
achievement of our recruits was at the highest level in years. SELRES 
retention numbers were equally strong, with attrition rates 
approximately 20 percent improved from fiscal year 2008 totals. There 
is still room for improvement in SELRES Officer strength, and numerous 
initiatives are underway to get SELRES Officer communities ``healthy'' 
by 2014, including targeted Officer affiliation and future retention 
bonuses, the increase of accession goals, refinements in the CTO 
process, and development of retention measurements and benchmarks. The 
value of recruiting incentives and special pays has been critical to 
every success the Force has enjoyed in this arena, and I thank you for 
providing us with the tools necessary to populate the Navy Reserve in 
the right manner while working towards the fiscal year 2011 budgeted 
end-strength of 65,500. Bonuses have helped shape the ``Fit versus 
Fill'' successes of recent years; however, for certain enlisted wartime 
skills sets and in the officer inventory in general, the Navy Reserve 
requires the help bonuses provide to continue to meet recruiting and 
retention goals.
                               way ahead
    In addition to the continuing attention to the programs and 
policies listed above, there are several other topics that have 
priority status this fiscal year to enhance our force-wide 
effectiveness, make it easier for each of us to serve, and to fully 
support our deploying members and their families.
    Foremost among my list of priorities is to achieve resolution on a 
path to fielding a Total Force Future Pay and Personnel System (FPPS). 
The Navy and Navy Reserve currently have separate pay and personnel 
systems, designed and built in an era when Sailors rarely mobilized or 
transitioned between components. With the present system, it can take 
weeks to properly transition a Sailor from one pay and personnel system 
to another. This creates a barrier to realizing our CoS goals.
    FPPS would enable Sailors to transition quickly and seamlessly on 
and off active duty without the commensurate delays and confusion 
regarding pay and benefits. The Navy Total Force goal is to transition 
a Sailor from one component to another within 72 hours. Navy leadership 
understands the urgency of resolving this issue, which impacts every 
Sailor. I am confident that in fiscal year 2010, we will make 
considerable progress towards this goal.
    Another top priority this year is to ensure Navy has the funding 
allowing the RC to perform directed missions. In addition to working 
through the long-term budgeting process needed to pay for our Sailors, 
we are fully engaged in the development of Naval Aviation Plan 2030 to 
ensure that the valued capabilities delivered by the Navy Reserve are 
properly resourced.
    Navy Reserve aviation trains the Fleet, moves the Fleet, and when 
needed, surges to the fight. Twenty-eight squadrons, eight Fleet 
Replacement Squadron (FRS) Squadron Augment Units (SAUs), and 17 Chief 
of Naval Aviation and Training SAUs provided more than 70,000 flight 
hours in fiscal year 2009, including 80 percent of the Navy's direct 
and indirect Fleet operational support. Our four adversary squadrons 
provided 76 percent of Navy capacity, and the Fleet Logistics Support 
Wing provided 100 percent of the shore-based Navy Unique Fleet 
Essential Airlift (NUFEA) with an average weekly cost avoidance of 
$655,000. These assets provide strategic surge capacity and maintain 
warfighting readiness at a lower cost, both in terms of payroll and 
airframe life, than AC squadrons. Navy Reserve's lower Fatigue Life 
Expenditure (FLE) has provided Navy inventory managers increased 
options that have been a valuable part of Naval Aviation's 
recapitalization plan generally, and of P-3Cs and F/A-18s in 
particular.
    Historically, Reserve aircraft have been procured via a combination 
of routine procurement processes, the use of National Guard and Reserve 
Equipment Appropriations (NGREA), Congressional buys, and the transfer 
of aircraft from the AC to the RC as new production aircraft enter the 
Total Force inventory.
    Current aviation procurement trends will challenge RC aviation 
capabilities as the Navy Reserve continues to recapitalize assets. 
Priorities include completing the C-40A (airlift) procurement and 
recapitalizing the electronic attack capability that is fully 
integrated into the Airborne Electronic Attack (AEA) deployment plan 
that has provided 12 years of combat deployments in support of COCOM 
requirements. I am very appreciative of the Congress' support for the 
purchase of three C-40A aircraft in the last two budgets. The C-40A 
provides twice the range, twice the cargo load, and twice the Ready for 
Tasking (RFT) days of the C-9B it replaces. The overall burdened hourly 
operating cost of the C-9B is $8,147/flight hour versus the C-40A cost 
of $6,141/flight hour. As a result, a $42 million per year cost 
avoidance will be realized by completing C-40A procurement and retiring 
the 15 remaining C-9Bs.
    The fiscal year 2011 budget also supports the creation of a fourth 
Riverine Squadron for the Navy Expeditionary Combat Command (NECC). 
This additional unit was expressly addressed in the most recent 
Quadrennial Defense Review, and recognizes the unique skills and 
capabilities that the joint forces desire for current operations. NECC 
is manned equally by AC and RC personnel.
    We will continue to utilize NGREA as available to meet the needs of 
the Navy. NGREA has been a high impact capital infusion for the Navy 
Reserve since its inception in 1981, but has taken on added importance 
in recent years. While the Navy Reserve's NGREA service allocation has 
decreased from 11.3 percent in 2004 to 5 percent in 2009, the 
appropriation has been instrumental in resourcing the capability of 
NECC and has bolstered the recapitalization of critical RC equipment in 
both Naval Aviation and the Surface Navy. In fiscal year 2009, the Navy 
Reserve executed NGREA funding to equip the Maritime Expeditionary 
Support Force, Explosive Ordnance Disposal, Naval Construction Force, 
Naval Expeditionary Logistics Support Group, Naval Aviation and Surface 
Warfare units with: tactical and armored vehicles; Civil Engineering 
Support Equipment; communications equipment; Table of Allowance 
equipment; aviation modernization upgrades; and Rigid Hull Inflatable 
Boats. I am thankful for the $55 million NGREA allocated to the Navy 
Reserve for fiscal year 2010.
    Secretary of the Navy Ray Mabus has committed the Navy and Marine 
Corps to meet bold, ambitious goals to advance Navy's energy strategy. 
The Navy Reserve, in cooperation with the Naval Installations Command, 
is committed to providing the Secretary an innovative and agile RC that 
can and will be a significant force multiplier in the pursuit of these 
goals.
    Navy Reserve Military Construction and Facilities Sustainment, 
Restoration and Modernization (FSRM) projects will be stringently 
evaluated for efficient use of energy and water, use of new and 
emerging energy technologies, employment of innovative strategies and 
best practices, use of renewable energy sources, and energy-efficient 
mobility. Large-scale, comprehensive organizational efforts will be 
made in the use of energy efficiency and management tools. All Navy 
Reserve Military Construction and FSRM projects will incorporate 
conservation measures and environmental stewardship practices into 
their design and execution. The focus will be to reduce the cost and 
environmental impact of Navy Reserve construction projects by advancing 
energy efficiency and water conservation, promoting the use of 
distributed and renewable energy, and improving utility management 
decisions at all Reserve facilities.
    Additionally, these energy goals can be helpful in facilitating 
transformation of the force; for example, completion of C-40A fleet 
logistics squadron recapitalization will offer a 13.2 percent fuel 
consumption reduction over the aging C-9B. Fuel savings in excess of 
43,300 barrels per year will be realized when the C-9s are finally 
retired.
    The Navy Reserve is an agile, innovative force, and in no arena is 
that description more apt than in the realm of Information Dominance. 
Navy Reserve has engaged in a directed, efficient transition from 
legacy systems and has successfully piloted state of the art solutions 
that are currently in use and will be used by the Fleet of the future. 
Continued use of this responsive Force as the Navy's test platform is 
critical in successfully deploying the latest technology in the most 
timely and cost effective manner possible.
    The threat posed to the government from aggressive actors in the 
cyber arena grows every day, and the Navy is engaged in actions to keep 
our country's systems protected. Key to the Cyber Manpower Strategy is 
the development of an RC Surge capability. The vision is to transition 
current Cyber manpower into Reserve Cyber Units that would serve in 
this capacity. Also, an enhanced direct-commission program would allow 
for increased accession of Cyber specialists. Finally, the Navy is 
considering a Civilian Cyber Augment Force: an ``on call'' team of 
experts that can provide strategic relevance and depth to the Navy as 
the cyber environment changes and technical progress is made. Civilian 
experts and consultants can be rapidly hired under existing authorities 
to meet the emerging critical requirements of Fleet Cyber Command/
Commander Tenth Fleet. We feel this effort can open unexplored areas of 
expertise in support of Navy's Cyber vision and mission execution.
                               conclusion
    Since 9/11, more than 62,000 mobilization requirements have been 
filled by SELRES personnel, along with an additional 4,500 deployments 
by FTS Sailors in support of the on-going conflicts in Iraq, 
Afghanistan, and the Horn of Africa. On any given day, more than 20,000 
Navy Reservists, or about 31 percent of the Force, are on some type of 
orders providing support to global operational requirements of Fleet 
Commanders and COCOM global operational requirements. Our Navy Reserve 
Force--more than 66,500 Sailors--are forward deployed in support of 
Coalition forces, at their supported commands around the world, or in 
strategic reserve and ready to surge 24/7 if and when additional Navy 
Total Force requirements arise.
    I am proud to be a Navy Reservist, and I am humbled by the 
commitment of the men and women of our Navy Reserve. It is very 
rewarding and fulfilling to stand shoulder to shoulder with the Navy's 
AC as we meet our Nation's call to duty. I am honored to receive the 
support of Congress on key initiatives, such as providing TRICARE 
eligibility to ``gray area'' retirees. Although I readily admit my 
bias, there has never been a better time to be part of the Navy-Marine 
Corps team, and our Navy Reserve is clearly an integral part of the 
this hard-working, high-spirited and amazingly capable force.
    The Navy's ability to be present in support of any operation, in 
war and peace, without permanent infrastructure in the area of 
operations, is a key advantage that will become even more important in 
the future. Our Navy remains the preeminent maritime power, providing 
our Nation with a global naval expeditionary force that is committed to 
global security, while defending our homeland as well as our vital 
interests globally. The Navy Reserve's flexibility, responsiveness, and 
ability to serve across a wide spectrum of operations clearly enhances 
the Navy Total Force, acts as a true force multiplier, and provides 
unique skill sets towards fulfilling Navy's requirements in an 
increasingly uncertain world.
    On behalf of the Sailors, civilians, and contract personnel of our 
Navy Reserve, we thank you for the continued support within Congress 
and your commitment to the Navy Reserve and our Navy's Total Force.

    Chairman Inouye. General Kelly.
STATEMENT OF LIEUTENANT GENERAL JOHN F. KELLY, 
            COMMANDER, MARINE FORCES RESERVE AND MARINE 
            FORCES NORTH
    General Kelly. Mr. Chairman, Senator Cochran, like everyone 
at the table, I want to first start off by saying thank you so 
very much for all of the support you've provided the Reserve 
component for as long as I can remember, sir; and I've had a 
fair amount of experience in this city working these issues.
    There are in the neighborhood of 90,000--if you consider 
all classes of marine reservists, we're about 90,000; almost 
40,000 of them are being what we would consider to be drilling 
reservists, spread out across the country, like we all are, 183 
different locations, 48 States, Puerto Rico. The strength of 
our Marine Corps Reserve has always been, perhaps, first and 
foremost, the very, very large percentage of marines in the 
Reserve component have considerable Active Duty time--4, 6, 8, 
10 years. Not all, but a considerable number. All of the 
requirements are the same. It's a total force organization, to 
say the least. Marine reservists don't consider themselves 
part-time marines or second-tier marines. It is one very large 
Marine Corps.
    Since 9/11, of course, one of the great strengths of the 
Marine Corps Reserve is that virtually all of us--all of them--
have been involved in the fight at least once, and in many 
cases, multiple times. All of our battalions and squadrons have 
been called up or have had substantial portions activated and 
served at least once in Afghanistan or Iraq; 7,000 are 
mobilized today.
    I'm an Active Duty officer. I have used and abused 
reservists many times over my nearly 35 years in the Marine 
Corps, and I only saw one part of the Reserves. And I just 
wanted to share with you, on this issue of operational versus 
Strategic Reserve. When I took this job, in October, my 
thinking was that the natural state of a reservist, or at least 
Marine Corps reservist, is weekend--a weekend a month and 2 
weeks during the year. And that could not be--and you've heard 
that many times here this morning--could not be further from 
the truth. They see themselves as gunfighters because they are 
gunfighters. The vast majority of them have served as an 
operational Reserve since 9/11.
    And their appeal to me--and this comes from families, as 
well--is, as long as this fight is on, they want to be in it. 
And even when this fight is over, they want to continue in this 
operational Reserve mode, they don't want to be put back on the 
shelf. And we ought not to lose their services as we go into 
the future.

                           PREPARED STATEMENT

    Recruiting is good. Retention is good. The marines are 
happy. The families are happy. I look forward to your 
questions.
    [The statement follows:]
         Prepared Statement of Lieutenant General John F. Kelly
    Mr. Chairman, Senator Cochran and distinguished Members of the 
Subcommittee, it is my honor to report to you on the state of the 
Nation's Marine Corps Reserve.
    I assumed command of Marine Forces Reserve (MFR) and Marine Forces 
North in October of last year; however, these past months have by no 
means been my first experience with the Reserve Component (RC). Over my 
many years as a Marine, but particularly over the course of three tours 
totaling nearly 3 years in Iraq, I have served with and fought 
alongside Marine Reservists and know first hand the mettle of these men 
and women. My appearance here today represents my first opportunity to 
share with you my assessment of these tremendous Marines, and to 
outline my priorities for the Force going forward.
    First and foremost Marine Forces Reserve continues to be an 
integral element of the Marine Corps' ``Total Force.'' We share the 
culture of deployment and expeditionary mindset that has dominated 
Marine Corps culture, ethos and thinking since our beginning more than 
two centuries ago. All Marines stand eternally ready to answer the 
Nation's 9-1-1 call and as our charter requires, is to ``be most ready 
when the Nation is least ready.'' The Reserve Component is trained, 
organized and equipped in the same way the active forces are, and 
consequently we are interchangeable and forever leaning forward to 
deploy as the Nation requires. The Commandant of the Marine Corps 
recently stated that Marine Forces Reserve can be ``whatever the Nation 
needs it to be,'' an operational or a strategic reserve. Sustained 
combat operations and worldwide theater security cooperation and 
training commitments over the last 9 years more than suggest the 
essential need for the Reserves to continue focusing at the operational 
vice strategic end of the continuum. Indeed, in the just-published 
United States Marine Corps Service Campaign Plan 2009-2015, Marine 
Forces Reserve is tasked no less than five times to train, organize and 
equip for participation as an ``operational reserve'' within the Corps' 
Total Force. The Marines themselves, most of whom came to the Nation's 
colors after 9/11 and have deployed deep into harms way, prefer this 
model and do not desire to assume lives as so called ``weekend 
warriors.'' This high level of flexibility, responsiveness and elan is 
only possible by the ever deepening bench of combat tested and uniquely 
qualified citizen ``Soldiers of the Sea.'' I am humbled daily by my 
interactions with these magnificent young Americans. Like their active 
duty brothers and sisters they sacrifice so much of their time, and so 
much of themselves, to protect and serve this Nation. The way they 
balance their family responsibilities, and civilian lives and 
occupations--and still stay Marine--amazes me. They do it with 
humility, without fanfare, and with a sense of pride and dedication 
that is consistent with the great sacrifices of Marines of every 
generation. They continue to affirm the Commandant's conviction that 
today's Marines are cut from the same cloth as those who fought 
conspicuously upon the battlefields of our Corps' long history.
                      today's marine corps reserve
    The Commandant has said the Marine Corps Reserve will be whatever 
the Nation needs it to be. In the last decade, the nation has needed 
its Marine Reserves to be continuously engaged in combat operations in 
Iraq and Afghanistan and in regional security cooperation and crisis 
prevention activities. This tempo has built a momentum among our 
warfighters and a depth of experience throughout the ranks that is 
unprecedented in generations. The Marine Corps Service Campaign Plan 
calls for the employment of an operational reserve no less than 5 
times. Understanding that we are fighting a transnational enemy and 
that partner nations will continue to seek our training and mentoring 
capabilities, I expect our Marine Reservists to be in great demand 
during the coming years in a sustained manner. We are prepared to 
provide that persistent capacity. Our Commandant has further stated 
that Marines, Active or Reserve Component, join the Marine Corps to do 
the things they are now doing--deploying and winning our nation's 
battles. The nature of the fight in Afghanistan for instance, is 
particularly suited to our Marine Reserves. It is a thinking man's 
fight that requires solutions at the grassroots level, where our 
Marines operate best, among the population, as evidenced by our combat 
prowess in Iraq and humanitarian assistance today in Haiti. Our 
successes in Iraq were hastened by the types of individuals we have in 
our ranks, who were utilizing civilian skills in ways not necessarily 
anticipated, but ultimately pivotal to the success in Al Anbar. That 
maturity, creativity and confidence is what an Operational Reserve 
brings to the fight. Your Marine Corps Reserve is more highly trained, 
capable, and battle-tested than at any time since the Korean War. As an 
integral part of the Total Force Marine Corps, it blends seamlessly 
into the gaining force regardless of whether Marines come as individual 
augments, detachments, or as operational units.
    As of January 31, 2010, more than 54,000 Reserve Marines have 
executed over 70,000 mobilizations in support of Overseas Contingency 
Operations (OCO) since September 11, 2001. The vast majority of these 
Marines deployed to the U.S. Central Command area of responsibility. 
One hundred percent of Marine Corps Reserve units at the battalion and 
squadron level have either been activated in their entirety or 
activated task-organized detachments. Again, the vast majority deployed 
to the U.S. Central Command area of responsibility. Without going into 
too many specifics, 4,000 Marines and sailors--citizens from Texas, 
California, Missouri, Nevada, Utah, Maryland and Virginia--from the 4th 
Marine Division deployed to both war zones and went a long way to 
achieving success in al Anbar Province, Iraq and training security 
forces in Afghanistan. Thousands of other Division Marines also 
deployed in support of Combatant Commander Theater Security Cooperation 
initiatives to South America, Eastern Europe, Asia, Africa, Australia, 
and various Pacific island nations. This year will be no different with 
exercises planned for Norway, Peru, Belize, Uganda, Estonia and 
Morocco, and again in various nations in Asia and the Pacific islands.
    Our Reserve aviators of the 4th Marine Aircraft Wing are no less 
busy supporting Marine and joint training requirements here in the 
United States, as well as deploying fighter and helicopter squadrons to 
the war zones and Horn of Africa, and supporting Combatant Commander 
initiatives across the globe as well. Of particular note the Total 
Force Marine Corps has had to rely heavily on the 4th Marine Aircraft 
Wing in support of the Marine Corps Aviation Transition Strategy. 
Modernizing from, in some cases, 40 plus year-old legacy aviation 
systems, to the leap ahead capabilities inherent in the V-22 ``Osprey'' 
and the Joint Strike Fighter, we have had to temporarily transfer 
manpower, airframe, and support structure to the active component. 
Beginning in 2014, Marine Forces Reserve will commence the process of 
transitioning to the new systems and capabilities, but in the mean time 
is in total support of the overall Total Force modernization efforts.
    The third Major Subordinate Command of the Reserve Component is 4th 
Marine Logistics Group. Anyone who understands the Marine Air Ground 
Task Force (MAGTF) concept knows full well the ground fighters of the 
Division, and aviators of the Wing, go nowhere without the logistics 
professionals in the Group. In addition to service in both wars, and 
every one of the 57 events--large and small--that have contributed so 
mightily to all the Combatant Commanders' efforts across the globe, 
there were two special endeavors I want to highlight. The first was the 
command element's service as operational logistic providers in the 
Korean Theater last April during exercise KEY RESOLVE, made necessary 
by a dearth of joint logistics capability due to the demands of Iraq 
and Afghanistan, and particularly the additional expeditionary demands 
of transitioning Marine forces in large numbers out of Iraq and into 
Afghanistan. The second is the increased support provided to various 
Maritime Prepositioning Exercises, again made necessary by wartime 
demands experienced by the Total Force.
    Unique inside the Marine Corps is the Mobilization Command 
(MOBCOM), of Marine Forces Reserve. As the increased use of the 
Individual Ready Reserve (IRR) has grown over the last several years, 
so too has the workload of Mobilization Command. During the last fiscal 
year, more than 900 sets of mobilization orders were issued with a 
total of 653 IRR Marines reporting for activation. MOBCOM also 
processed more than 9,400 sets of shorter duration orders. Mobilization 
Command developed and participated in family readiness programs that 
are particularly difficult within the IRR construct. Initiatives like 
the Congressionally-mandated ``Yellow Ribbon Programs'' seek to provide 
support to families from initial call up through return and 
demobilization. Additionally, Mobilization Command conducted regional 
IRR musters, often partnering with other government agencies like the 
Department of Veterans Affairs, to maintain required annual contact 
with Marines once they have left active service but still ``owe'' the 
Nation reserve time.
    Let me touch again on one of the important planning mechanisms for 
an Operational Reserve. Our Force Generation Model, developed and 
implemented in October 2006, continues to provide long-term and 
essential predictability of future activations and deployments. The 
Model provides my Marines, their families, and just as importantly 
their employers, the capability to plan their lives five or more years 
out. It enables them to strike the critical balance between family, 
civilian career, and service to the Nation, while allowing employers 
time to manage the loss of valued employees. The Force Generation Model 
also assists service and joint force planners in maintaining a 
consistent and predictable flow of fully capable Marine Corps Reserve 
units. Internal to the Marine Corps this flow of fully trained and 
capable Reserve units has proven essential in reaching the Secretary of 
Defense established target of a 1:2 dwell for our Active Component. The 
Model is a relatively simple management tool based on 1-year 
activations, to 4-plus years in a non-activated status. This makes 
continued programmed utilization of the Reserve Component sustainable 
at 1:5 over the long term and supports the momentum about which I spoke 
in my introduction.
    Predictable activation dates, mission assignments and geographical 
destination years out now permits me to orient training on core mission 
requirements early in the dwell period, then transitioning training 
focus to specific mission tasks once the unit is 12-18 months from 
activation.
    In each of the past 3 years, between the wars in the Middle East 
and South Asia, and theater security cooperation activities to include 
mobile training teams conducting ``Phase Zero'' operations, nearly one-
third of our 39,600 Marines have deployed outside the continental 
United States both in an activated and non-activated status. In fiscal 
year 2009 alone, 7,500 Marines were activated and deployed in support 
of the war in Iraq and Afghanistan, and an additional 5,800 were sent 
overseas to many locations on several continents in support of joint 
and combined theater security cooperation exercises.
    For the second year in a row Marine Forces Reserve stateside will 
sponsor exercise ``Javelin Thrust'' in June focusing on Marine Air-
Ground Task Force (MAGTF) core competency training. The scenario of 
this year's event is tailored to the current operating environment, and 
participating units have been identified consistent with their future 
deployment schedule as defined by the Force Generation Model. The end 
state of the exercise (Javelin Thrust) is that the headquarters staffs 
of the participating organizations (regiments, aircraft groups, 
battalions, and squadrons) are prepared for activation and are provided 
an in-depth roadmap to guide future pre-activation training. 
Additionally, individuals serving on those staffs will receive training 
allowing them to take their place as individual augments on a MAGTF or 
joint staff overseas, while other individuals in those units will be 
prepared for activation and the conduct of pre-deployment training. 
Last year's Javelin Thrust was the first large scale MAGTF exercise 
involving all three Major Subordinate Commands (Division, Wing and 
Marine Logistics Group) in 6 years. The 2009 distributed operations 
Afghan scenario also allowed other Department of Defense agencies to 
participate and to test advanced technologies and transformational 
concepts. This year's exercise will also be conducted aboard 
installations throughout the Western United States with both virtual 
and real world aspects to the exercise.
                               personnel
    The Selected Marine Corps Reserve is comprised of Marines in 
reserve units, those in Active Reserve status, Individual Mobilization 
Augmentees, and those in initial training. When taken together, these 
various categories of Marines form the inventory of the 39,600 
authorized end strength in the Selected Marine Corps Reserve.
    Although we continue to enjoy strong volunteerism there has 
recently been some slight degradation in our ability to maintain 
authorized end strength. We were above 100 percent of our authorized 
end strength during fiscal years 2002-2005. There was a very slight 
drop to 99.71 percent in fiscal year 2006. In fiscal years 2007 and 
2008 percentages of authorized end strength dropped to 97.36 and 94.76 
percent--shortfalls of 1,044 and 2,077 individuals--respectively. This 
past fiscal year (2009), end strength improved to 97.25 percent. This 
is within the mandated 3 percent of authorization. When the 138 Marines 
who had served on active duty for more than 3 of the last 4 years were 
taken into account, our shortfall increased to 3.1 percent (1,228). The 
dip below authorized strength experienced in 2007 and 2008 was 
predicted at the time due in large measure to the pressure put on the 
recruiting and retention of individuals to serve in the active force as 
the Marine Corps built to 202,000 active duty Marines. Now that the 
202,000 goal has been met and surpassed well ahead of schedule, we are 
now institutionally focusing on Reserve recruiting and retention 
efforts to maintain required Reserve Component end strength. The bonus 
and incentive programs that you provide for recruiting and retention 
will remain essential tools to continue achieving this goal.
    The Total Force Marine Corps will undoubtedly continue to rely 
heavily upon augmentation and reinforcement provided by Marine Forces 
Reserve. I believe our authorized end strength of 39,600 is still an 
appropriate number and will consequently drive recruiting and 
retention. This number provides us with the Marines we require to 
support the Force, and achieve the Commandant's goal of a 1:5 
deployment-to-dwell ratio in the Selected Marine Corps Reserve.
    The Marine Corps-Navy Reserve Team is as strong as ever. In the 
past year the Navy ensured Marine Reserve units were fully manned and 
supported with Program 9 (U.S. Navy personnel in support of Marine 
Forces) and HSAP (Health Service Augmentation Program) personnel during 
all phases of the deployment (pre, operational, post). More than 500 
Navy personnel were sourced to staff Marine Forces Reserve units 
deploying to Iraq and Afghanistan, as well as numerous joint/combined 
exercises. These individuals focused almost entirely on providing 
medical, dental and religious services. The Navy Mobilization Office 
works with my headquarters, as well as with the four major subordinate 
commands, sourcing 100 percent of all requirements. As the demand 
increases throughout the forces, Program 9/HSAP support commands a high 
level of attention to fulfill not only Marine Corps missions, but Army 
and Navy missions as well. I am confident this process will continue 
ensuring Marine Forces Reserve units are supported with qualified 
Program 9 and HSAP personnel to accomplish the mission.
    The Marine Corps is unique in that all recruiting efforts--officer, 
enlisted, Active and Reserve Component, and prior-service--fall under 
the direction of the Commanding General, Marine Corps Recruiting 
Command. This approach provides tremendous flexibility and unity of 
command in annually achieving Total Force recruiting objectives. Like 
the Active Component, Marine Corps Reserve units rely primarily upon a 
first-term enlisted force. Recruiting Command achieved 100 percent of 
its recruiting goal for non-prior service recruiting (4,235) and prior 
service recruiting (4,501) in fiscal year 2008. It also exceeded its 
recruiting goal for non-prior service recruiting (5,296) and exceeded 
100 percent of its goal for enlisted prior service recruiting (3,862) 
during fiscal year 2009. As of January 31, 2010, 2,359 non-prior 
service and 1,397 enlisted prior service Marines have been accessed, 
reflecting 46 percent of the annual enlisted recruiting mission for the 
Selected Marine Corps Reserve. We fully expect to meet our Selected 
Marine Corps Reserve recruiting goals again this year.
    The Selected Marine Corps Reserve Affiliation Involuntary 
Activation Deferment Policy was implemented during June 2006. The 
policy allows a Marine who has recently completed a deployment with an 
active unit an option for a 2-year deferment from involuntary 
activation if they join a Selected Marine Corps Reserve once they leave 
active duty. The intent of the 2-year involuntary deferment is to allow 
transitioning Marines the opportunity to participate in the Selected 
Marine Corps Reserve, while at the same time giving them a break and an 
opportunity to start the process of building their new civilian career.
    Officer recruiting remains our most challenging area. Historically, 
the Active Component has been the exclusive source of lieutenants and 
captains for the Reserves. This arrangement has paid tremendous 
dividends. Responding to the critical challenge of manning the Reserves 
with quality company grade officers, we have implemented three 
commissioning initiatives that focus exclusively on officer accessions 
for the Reserve Component: Reserve Enlisted Commissioning Program 
(expanded to qualified active duty enlisted Marines as well); 
Meritorious Commissioning Program--Reserve (open to individuals of 
either component holding an Associates Degree or equivalent in semester 
hours); Officer Candidate Course--Reserve (OCC-R). Since 2004 these 
three programs have produced a total of 190 lieutenants for the 
Reserves with OCC-R being the most successful of the three, producing 
161 officers. The program focuses on ground billets with an emphasis on 
ground combat and combat service support and within specific Reserve 
units that are scheduled for mobilization. The priority to man units 
with these officers is once again tied to the Force Generation Model.
    All commanders and senior enlisted leaders across the force are 
tasked to retain quality Marines through example, information and 
retention programs, and mentoring. This takes place across the Marine 
experience and not just in the final days of a Marine's contract. For 
those approaching the end of their current contracts--Active or Reserve 
Component--they receive more focused counseling on the tangible and 
intangible aspects of remaining associated with, or joining, the 
Selected Marine Corps Reserve.
    With the Congress' help, affiliation bonuses, officer loan 
repayment and other initiatives have effectively supported our efforts 
to gain and retain the very best. The Commandant and certainly all of 
us in Marine Forces Reserve, greatly appreciate the continuance of all 
of the many programs that help us recruit and retain the best young men 
and women this nation produces.
                               equipment
    As mentioned previously we are as good today as we have been since 
at least the Korean War, if not World War II. This level of proficiency 
as warfighters is due, in large part, to the amount and frequency of 
combat the reserve forces have accumulated over the past 9 years while 
serving as an operational reserve. In addition, the quality of our 
equipment is on par with that of the active duty. Therefore, it is 
imperative we spend the relatively small amount required to maintain 
our operational reserve and provide a reasonable return on that 
investment. The end result is a better trained and more capable force 
than ever operating alongside our active duty brethren on the ground, 
in the air, and at sea. To achieve and maintain this high level of 
readiness and proficiency we have like all of DOD relied heavily on 
supplemental funding in the Overseas Contingency Operational account. 
As we move forward it is in the best interests of the nation to not 
lose these historically high levels of proficiency. The current strong 
and operationally competent Reserve Component has cost us much in lives 
and budgetary treasure to achieve over the last 9 years.
    As part of the Total Force, Marine Forces Reserve has two primary 
equipping priorities. The priority is to equip units and individuals 
set to deploy, and the second is to ensure units that are accomplishing 
normal training within the first 2-3 years of their dwell cycle have 
what they need in training allowance. We will always continue to 
provide those next into the fight all that they need in the latest 
generation of individual combat and protective equipment, and unit 
suites, to fight, accomplish the mission, and come home with the fewest 
number of casualties possible. Those not as close to deploying overseas 
to combat will also continue to be equipped with the best of everything 
and tailored specifically to whatever is next in their lives as defined 
by the Force Generation Model.
    The Marine Corps approaches equipment procurement and fielding from 
a Total Force perspective with the Reserve Component treated in exactly 
the way as the three active operational Marine Forces organizations. In 
many cases we have achieved lateral fielding when Active and Reserve 
Component organizations are receiving equipment sets simultaneously. 
Again, fielding is prioritized by who is next to the fight. If they 
need it to train with post-deployment, they have it, otherwise in some 
cases they will pick it up in theater in the normal transfer of 
equipment that has marked the way the Marine Corps has done business 
since 2003.
    The National Guard and Reserve Equipment Appropriation (NGREA) 
allows me to mitigate any equipment deficiencies here in CONUS. For 
fiscal year 2009, Marine Forces Reserve received two sources of NGREA 
funding totaling $62.4 million. By providing the flexibility to 
purchase or accelerate the fielding of mission essential equipment, our 
units are better trained during pre-deployment and integrate 
effectively once they get in theater.
    As the Commandant consistently states, our number one focus will be 
the individual Marine and Sailor in combat. Ongoing efforts to equip 
and train this most valued resource have resulted in obtaining the 
latest generation individual combat and protective equipment: M16A4 
service rifles, M4 carbines, Rifle Combat Optic scopes, Lightweight 
Helmets, enhanced Small Arms Protective Insert plates, Modular Tactical 
Vests, and the latest generation Flame Resistant Organizational Gear 
(FROG.) Every member of Marine Forces Reserve has deployed fully 
equipped with the most current authorized Individual Combat Clothing 
and Equipment to include Personal Protective Equipment. The decisions 
regarding what they deploy with are made by commanders with a great 
deal of combat experience, and nothing is left to chance. However, as 
personal protective equipment has evolved over the years of this 
conflict there is now so much equipment and it is so heavy that the way 
we fight is adversely impacted. In particular the infantrymen are so 
heavy, in some cases carrying more than 100 pounds of equipment; they 
are more beasts of burden than they are agile hunters. It is not simply 
a matter of reducing the weight of individual items as these only add 
up to marginal weight savings, but hard decisions about what they carry 
and how much they carry are essential.
    The Commandant's unit equipping priority for Marine Corps Reserve 
units inside their dwell periods is to provide sufficient equipment to 
train with, but not burden the organizations with so much gear that 
they use all of their training time or unit funds maintaining it. We 
call this a reserve unit's Training Allowance (TA.) This TA is the 
amount of equipment required by each unit to conduct home station 
training. Our goal is to ensure that the Reserve TA contains the same 
equipment utilized by the active component. It is imperative that our 
units train with the same equipment they will utilize while deployed. 
The Marine Corps Reserve maintains a training allowance at each of its 
reserve centers. As a whole, we are adequately equipped to effectively 
conduct training.
    NGREA funding from 2009 continues to be used to purchase much 
needed Light Armored Vehicles, ruggedized command and control laptops, 
aircraft systems and survivability upgrades and continued procurement 
of the Logistics Vehicle Replacement System Cargo variant.
    Marines are exceptionally good stewards of American taxpayer 
dollars, and the public property procured by those monies. In order to 
sustain an inventory of current equipment necessary to conduct home 
station training several resources and programs are utilized. The first 
is the routine preventive and corrective maintenance performed locally 
by user and organic maintenance personnel. Second, we have expanded 
ground equipment maintenance efforts, which rely largely on contracted 
services and depot-level capabilities. Third is our reliance on Marine 
Corps Logistics Command mobile maintenance teams providing preventive 
and corrective maintenance support to all 183 Marine Reserve sites 
across the nation. This partnership provides a uniquely tailored Repair 
and Return Program. Fourth, we are intimately involved in the Marine 
Corps Enterprise Lifecycle Maintenance Program rebuilding and modifying 
an array of principal end items as required. Finally, we field the 
Corrosion Prevention and Control Program. Cumulatively all of these 
initiatives have resulted in a Marine Forces Reserve ground equipment 
readiness rate of 97 percent. Our 4th Marine Aircraft Wing ``mission 
capable'' rate in 2009 was 73 percent which is consistent with recent 
year rates and with the Active Component rate of 71 through November 
2009.
                                training
    The reality today is that the Reserve Component has transitioned 
from what was considered a strategic reserve, to what is today the 
``operational reserve.'' Forever gone are the days when Reserve Marines 
were considered mere ``weekend warriors'' and held in reserve to 
reinforce the active force when it experienced catastrophic casualties 
from a World War III scenario against the former Soviet Union. For the 
last 9 years our Reserves have been a fully integrated force, routinely 
deployed to fight in Iraq and Afghanistan, and to execute theater 
cooperation engagement operations around the world at the behest of the 
combatant commanders. From all of these experiences we have captured 
important lessons that we have put to immediate use in improving every 
facet of our training. In this regard, one of the most exciting areas 
where we are continuing to transform the depth and scope of our 
training remains the cutting-edge arena of Modeling and Simulations 
Technology.
    Marine Forces Reserve is fielding several immersive complex digital 
video-based training systems, complete with the sights, sounds and 
chaos of today's battlefield environments. These systems are 
particularly important considering the limited training time and 
facilities available to our commanders. Last year we completed the 
fielding and upgrading of the Indoor Simulated Marksmanship Trainer-XP 
(ISMT). These simulators make it possible for the Marines to ``employ'' 
a variety of infantry weapons (pistols through heavy machineguns) in 
rifle squad scenarios. These simulators now serve as regional training 
centers and more are planned. The Virtual Combat Convoy Trainer-
Reconfigurable Vehicle System provides invaluable pre-deployment 
training for the drivers or all makes and models of tactical vehicles. 
The conditions of terrain, road, weather, visibility and vehicle 
condition can all be varied, as can the combat scenario (routine 
movement, ambush, IED, etc.) The simulator is a mobile, trailer-
configured platform that utilizes a HMMWV mock-up, small arms, crew-
served weapons, 360-degree visual display with after-action review/
instant replay capability. We are now preparing to accept the fourth 
generation of this system, with student throughput doubling.
    Another simulation technology being fielded is the Deployable 
Virtual Training Environment (DVTE.) The DVTE also provides small-unit 
echelons with the opportunity to continuously review and rehearse 
command and control procedures and battlefield concepts in a virtual 
environment. All of this provides individual, fire team, squad and 
platoon-level training associated with patrolling, ambushes and convoy 
operations. Additional features include supporting arms upgrades (for 
virtual combined arms indirect fire and forward air control training), 
combat engineer training, small-unit tactics training, tactical foreign 
language training and event-driven, ethics-based, decisionmaking 
training. It is important to recognize the key role Congress has played 
in the fielding these advanced training systems, all of which have been 
rapidly acquired and fielded with supplemental and NGREA funding.
                               facilities
    Marine Forces Reserve is comprised of 183 sites in 48 states, the 
District of Columbia, and Puerto Rico. These facilities consist of 32 
owned sites, 151 tenant locations, 3 family housing sites, and a Marine 
barracks. In contrast to Active Duty installations that are normally 
closed to the general public, our reserve sites are openly located 
within civilian communities. This arrangement requires close partnering 
with state and local entities nationwide. Thus, the condition and 
appearance of our facilities may directly influence the American 
people's perception of the Marine Corps and the Armed Forces.
    Department of Defense policy and the use of standardized models for 
Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) dollars have greatly improved funding profiles for 
our Reserve Facilities over the last several years. We are experiencing 
some of the best levels of facility readiness due to increased funding 
in the last 3 years, complemented by the addition of $39.9 million in 
stimulus dollars from the American Recovery and Reinvestment Act of 
2009.
    We have repaired and upgraded sites across the country with 
projects continuing to completion in 2011. Between the BRAC 2005 and 
our normal Military Construction of Naval Reserve (MCNR) Program, we 
will have replaced over 35 of our 183 Reserve Centers in the next 2 
years. This represents the largest movement and upgrade in memory for 
the Marine Corps Reserve.
    MARFORRES research and investment for the last 2 years in energy 
efficiency, sustainability, and renewable energy is coming to fruition 
this fiscal year. Every new FSRM renovation project or MILCON is 
targeted for energy efficiency and sustainability aspects in accordance 
with policy and Leadership in Energy and Environmental Design (LEED) 
guidelines. We recently commissioned our first LEED Silver building at 
Camp Lejeune (the first in the Marine Corps) and are anticipating 
completion this year of our first LEED Silver rehabilitation project 
for 4th Combat Engineer Battalion in Baltimore, Maryland (a potential 
first for the Marine Corps as well). All of our MILCON projects from 
fiscal year 2009 on will comply with directives to achieve LEED silver 
or higher as funding profiles allow. We will be conducting energy 
assessments of all our 32 owned sites this fiscal year along with 
preparation of smart metering technology for each to enhance 
conservation and management. The MARFORRES approach combines 
efficiency, conservation, and renewable aspects to achieve optimal 
return on investment. We have six active solar projects underway this 
year with all coming on line within the next 12 months. Our six wind 
turbine projects are under suitability and environmental evaluations. 
If findings support, they will start coming on line within 18 months at 
an anticipated payback of as little as 8 years. Marine Forces Reserve 
is working with the National Renewable Energy Lab to produce a sound 
renewable energy plan for all Marine Forces Reserve locations. Our 
investment and implementation of these technologies provides energy 
security, efficiency, and cost avoidance for our dispersed sites. The 
visibility of our projects in heartland of America and cities across 
the nation provides tangible evidence of our commitment to the future.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer-term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Your continued support for both the MCNR program and a 
strong FSRM program are essential to addressing the aging 
infrastructure of the Marine Corps Reserve. The MCNR program for 
exclusive Marine Corps construction must effectively target limited 
funding to address at least $132 million in deferred construction 
projects of our aging infrastructure. Increases in our baseline funding 
over the last 6 years have helped to address these deferred projects 
substantially. Over 27 percent of the reserve centers our Marines train 
in are more than 30 years old and of these, 55 percent are more than 50 
years old. Past authorizations have improved the status of facilities 
in the 30 to 50 year range and continued investment will allow for 
further modernization. The $35 million in additional MCNR funding this 
fiscal year has allowed MARFORRES to commence several additional 
projects.
    The Base Realignment and Closure (BRAC) 2005 continues to move 
forward and the Marine Corps Reserve will relocate 12 units to 
consolidated Reserve centers this fiscal year. Marine Forces Reserve is 
executing 25 of the Marines Corps' 47 BRAC directed projects to include 
the only closure; Mobilization Command in Kansas City Missouri, is 
moving to New Orleans, Louisiana. Of these 25 BRAC actions, 21 are 
linked to Army and Navy military construction projects. Our BRAC plans 
are tightly linked to those of other services and government agencies 
as we develop cooperative plans to share reserve centers and coexist in 
emergent joint bases such as Joint Base Maguire-Dix-Lakehurst. All 
remaining Marine Corps Reserve BRAC projects are on track for 
successful completion with the directed timelines for closure.
    Of special note is the movement of Headquarters, Marine Forces 
Reserve and consolidation of its major subordinate commands in New 
Orleans. This unique BRAC project, integrating state, local and Federal 
efforts, is now well underway for the new headquarters compound and 
tracking for on time completion. The state of Louisiana is providing 
construction dollars for the new headquarters facility and saving the 
Federal government more than $130 million. The Department of the Navy 
is providing the interior finishings and security infrastructure in 
accordance with the lease agreement. This building will incorporate 
multiple energy and environmentally friendly processes to meet LEED 
certifiable standards. Marine Forces Reserve is working with the 
Department of Energy's Federal Energy Management Program to maximize 
the sustainability and energy efficiencies of the buildings and 
compound. Upon completion and certification, this building and its 
surrounding acreage will become the newest Marine Corps Installation: 
Marine Corps Support Facility, New Orleans.
    Our Marine Forces Reserve Environmental Program employs the 
Environmental Management System (EMS), which uses a systematic approach 
to ensure that environmental activities are well managed and 
continuously improving. Additionally, Marine Forces Reserve has 
initiated a nationwide program to reduce hazardous waste production and 
ensure proper disposal at our centers. Our Green Box Battery Program 
was responsible in fiscal year 2009 for recycling over 2 tons of 
various types of batteries alone. MARFORRES Environmental undertook 
steps to replace the recycling equipment with completely operable, 
fully recycling systems. Through fiscal year 2009, wash rack recycling 
systems at 16 reserve center sites have been replaced. This project has 
saved over 650,000 gallons of water and cost savings of $500,000, not 
to mention the enhanced risk avoidance to our national water 
infrastructure. Marine Forces Reserve is updating all environment 
baseline surveys of our owned sites to ensure we are current in all 
aspects of caring for our nation's resources.
                            health services
    The most important part of any Marine organization is of course the 
Marines, Sailors, Civilian Marines and families who shoulder the burden 
of defending our country every day. Taking care of them is a sacred 
trust. This begins with arduous training for combat, and equipping them 
with the best equipment in the world to do the job once deployed to the 
fight. It then extends to providing the best healthcare possible to 
them and their loved ones. Our routine health services priority is to 
attain and maintain Individual Medical and Dental Readiness goals as 
set by the Department of Defense. In 2009, individual medical and 
dental readiness for our Marines and sailors was 68 percent and 77 
percent respectively. This represents a 5 percent improvement over the 
previous year.
    The Reserve Health Readiness Program (RHRP) is the cornerstone for 
individual medical readiness. This program funds contracted medical and 
dental specialists to provide healthcare services to units specifically 
to increase individual medical and dental readiness. In the near term 
Navy medicine supports through various independent contracted programs 
such as the Post Deployment Health Reassessment (PDHRA), and the 
Psychological Health Outreach Program. The first identifies health 
issues with specific emphasis on mental health concerns which may have 
emerged since returning from deployment, while the Psychological Health 
Outreach Program addresses post deployment behavioral health concerns 
through a referral and tracking process. Worthy of mention in the area 
of mental health is our full participation in a very recent initiative 
designed and ruthlessly monitored by our Commandant and Assistant 
Commandant, in an effort to get at the tragedy of suicide. Our Warrior 
Preservation Program, run by senior staff officers and non-commissioned 
officers has trained 239 instructors who will return to their home 
units and reinforce the important lessons they received. We conducted 
training for all of our personnel at each of our units and I have as 
the Commander, filmed my own message on this topic and prominently 
displayed it on our public website.
    TRICARE remains a key piece of our medical support programs, 
providing medical, dental and behavioral health services. Members of 
the Selected Reserve qualify for and may enroll in TRICARE Reserve 
Select, which provides TRICARE Standard coverage until the member is 
activated. While on military duty for 30 days or less a Reservist who 
does not choose TRICARE Reserve Select coverage is covered under Line 
of Duty care. Upon activation, and during any applicable early 
identification period, the Reservist is covered by TRICARE Prime and 
may choose to enroll eligible family members in TRICARE Prime, Prime 
Remote or Standard. When deactivated, a Reservist who mobilized in 
support of overseas contingency operations is eligible for 180 days of 
TRICARE transitional health plan options. With your support these DOD 
programs will continue to provide Reservists and their family members' 
important medical benefits as they transition on and off active duty 
status.
                            quality of life
    Our Commandant has affirmed that our Corps' commitment to Marines 
and Sailors in harm's way extends to their families at home. As part of 
Marine Corps reforms to enhance family support, we are placing full-
time Family Readiness Officers (FROs), staffed by either civilians or 
Active Duty Marines, at the battalion/squadron level and above to 
support the Commandant's family readiness mission. As you might imagine 
an organization spread across the nation and overseas has unique 
challenges, but communication technologies, improved procedures and 
processes have worked to more effectively inform and empower family 
members including spouses, children and parents who often have little 
routine contact with the Marine Corps and live far from large military 
support facilities. The installation of full-time Family Readiness 
Officers at the battalions and squadrons bridges many gaps and 
overcomes many challenges unique to the reserve component. It is a low 
cost solution with a significant return on investment and I urge the 
continued support of this critical program.
    We fully recognize the strategic role our families have in mission 
readiness, particularly with mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle by 
providing education at unit family days, pre-deployment briefs, return 
and reunion briefs, and post-deployment briefs. To better prepare our 
Marines and their families for activation, Marine Forces Reserve is 
fully engaged with OSD to implement the Yellow Ribbon Reintegration 
Program, much of which we have had in place for quite some time. We are 
particularly supportive of Military OneSource, which provides our 
reservists and their families with an around-the-clock information and 
referral service via toll-free telephone and Internet access on 
subjects such as parenting, childcare, education, finances, legal 
issues, deployment, crisis support, and relocation.
    Through the DOD contract with the Armed Services YMCA, the families 
of our deployed Reserve Marines are enjoying complimentary fitness 
memberships at participating YMCA's throughout the United States and 
Puerto Rico. Our Active Duty Marines and their families located at 
Independent Duty Stations have access to these services as well.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to service members, families, retirees, 
and civilian employees. More than 1,100 Marine Forces Reserve personnel 
(Active and Reserve) enjoyed the benefit of Tuition Assistance, 
utilizing more than $3 million that funded more than 3,900 courses 
during fiscal year 2009. The Marine Corps' partnership with the Boys 
and Girls Clubs of America (BGCA) and the National Association for 
Child Care Resources and Referral Agencies (NACCRRA) continues to 
provide a great resource for service members and their families in 
accessing affordable child care, before, during, and after a deployment 
in support of overseas contingency operations. We also partnered with 
the Early Head Start National Resource Center Zero to Three to expand 
services for family members of our Reservists who reside in isolated 
and geographically-separated areas.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. The Peacetime/Wartime Support Team and the 
support structure within the Inspector-Instructor staffs at our reserve 
sites provide families of activated and deployed Marines with 
assistance in a number of support areas. Family readiness directly 
impacts mission readiness and your continued support of these 
initiatives is deeply appreciated.
            casualty assistance and military funeral honors
    Casualty assistance remains a significant responsibility of active 
component Marines assigned to our Inspector-Instructor and Site Support 
staffs. Continued operational efforts in Afghanistan and Iraq have 
required that these Marines remain ready at all times to support the 
families of our Marines fallen in combat abroad or in unforeseen 
circumstances at home. By virtue of our geographic dispersion, Marine 
Forces Reserve personnel are best positioned to accomplish the vast 
majority of all Marine Corps casualty assistance calls and are trained 
to provide assistance to the family. Historically, Marine Forces 
Reserve personnel have been involved in approximately 90 percent of all 
Marine Corps casualty notifications and follow-on assistance calls to 
the next of kin. There is no duty to our families that we treat with 
more importance, and the responsibilities of our Casualty Assistance 
Calls Officers (CACOs) continue well beyond notification. We ensure 
that our CACOs are adequately trained, equipped, and supported by all 
levels of command. Once a CACO is designated, he or she assists the 
family members in every possible way, from planning the return of 
remains and the final rest of their Marine to advice and counsel 
regarding benefits and entitlements. In many cases, our CACOs provide a 
permanent bridge between the Marine Corps and the family, and assist 
greatly in the process of grieving. The CACO is the family's central 
point of contact and support, and is charged to serve as a 
representative or liaison to the media, funeral home, government 
agencies, or any other agency that may become involved.
    Additionally, Marine Forces Reserve units provide significant 
support for military funeral honors for our veterans. The active duty 
site support staff members, with augmentation from their Reserve 
Marines, performed more than 12,700 military funeral honors in 2009 (91 
percent of the Marine Corps total). We anticipate providing funeral 
honors to more than 13,000 Marine veterans in 2010, even as projected 
veteran deaths slowly decline. Specific authorizations to fund Reserve 
Marines in the performance of military funeral honors have greatly 
assisted us at sites such as Bridgeton, Missouri, Chicago, Illinois, 
and Fort Devens, Massachusetts, where more than 10 funerals are 
consistently supported each week. As with Casualty Assistance, we place 
enormous emphasis on providing timely and professionally executed 
military funeral honor support.
                               conclusion
    Your Marine Corps Reserve is operational and fully committed to 
train and execute the Commandant's vision for the Total Force. The 
momentum gained over the past 9 years, in Iraq, Afghanistan and in 
support of theater engagements around the globe remains sustainable 
through coordinated focus, processes and planning. In everything we do, 
we remain focused on the individual Marine and Sailor in combat. 
Supporting that individual requires realistic training, proper 
equipment, the full range of support services and professional 
opportunities for education, advancement and retention. That is our 
charge. You should know that the patriots who fill our ranks do so for 
the myriad reasons familiar to those who wear this uniform and those 
who sustain us. Yet reservists serve while balancing civilian careers 
and outside responsibilities, often at significant personal cost. Your 
continued unwavering support of the Marine Corps Reserve and associated 
programs is greatly appreciated. Semper Fidelis.

    Chairman Inouye. General Stenner.
STATEMENT OF LIEUTENANT GENERAL CHARLES E. STENNER, 
            JR., CHIEF, AIR FORCE RESERVE
    General Stenner. Chairman Inouye and Vice Chairman Cochran, 
thank you very much for the opportunity to be here today.
    And as I start, I'd like to introduce my Air Force Reserve 
Command Command Chief, Chief Master Sergeant Dwight Badgett, 
who joins me here today in representing the 71,000 Air Force 
Reserve members, the large majority of whom are our enlisted 
force and are the backbone of what we do out there every day.
    And I would like to also state, as I start, that, most 
recently, I had an opportunity to take a trip through the area 
of operations and stop at some places in both Afghanistan and 
Iraq. One of the stops I made was at Kandahar. And at Kandahar, 
we had an opportunity to talk to some of our engineers, our 
explosive ordnance disposal folks, and go through what kinds of 
things they were doing just coming back from missions, just 
going to missions.
    And, of course, along the way, we always have the 
photographers, and we take the pictures. And as I returned 
home, 3 days later I received a picture of one of the 
individuals on explosive ordnance detail (EOD) who I had just 
chatted with, along with the notice that he had been killed on 
a route patrol in clearing some of the IEDs that had been along 
the way. I will tell you, sir, that as I met his family on my 
return, that it really hits home that we have a sacred pact 
with this Nation to sustain and maintain these valuable 
resources that we have that we call citizen warriors in each 
and every one of our services.
    So, that brought home to me that I need to continue with 
all effort, along with you and your subcommittee, in making 
sure that we are ready and we are capable in the jobs that we 
have. And in the Air Force Reserve, we are part of every 
mission set in the Air Force. We share those missions with our 
Active Duty and our Guard partners.
    And in two perspectives I'd like to talk real quick about 
readiness and readiness that goes to training and equipping. 
The training piece of this readiness--and since I last talked 
to you and introduced what we called a ``Seasoning Training 
Program''--has been extremely successful. We have used some of 
the dollars that you have allocated to take our brand new folks 
who we have been recruiting, putting through tech school. After 
tech school, we take them into a continued training program, as 
opposed to a monthly program, and have, in fact, been able to, 
in most cases, reduce by 18 to 24 months the time at which they 
become combat ready and combat capable, thereby getting them to 
the fight earlier. We're going to continue in that vein with 
that Seasoning Training Program, accelerate that. And if those 
folks have the availability, I want to get them to the war, and 
they want to be there, and our retention is much higher on the 
folks who have been able to go do the things that they have 
signed up to do as those volunteer warriors.
    The other part of this readiness piece is, of course, 
equipping. And we've talked a lot about that. The National 
Guard and equipment (NGREA) dollars are extremely important to 
all of us. In our case, we've looked at the precision 
engagement equipment, we've finished our buys on some of the 
pods. Our gear gets to the fight, it's able to be used. We've 
accelerated those buys of our defensive systems on our large 
aircraft, and thereby get that equipment U.S. Central Command 
equipment to the area of responsibility (AOR), as well, much 
earlier.
    And then, along the way, we've got the irregular warfare 
fight that we are all fighting. And we're looking at the 
personal protective gear--the body armors, the helmets, and the 
goggles that go along with those. We're accelerating those and 
making sure that, as we partner with our Active Duty and Guard 
partners, that we have the same equipment, so we have it at the 
same time, so we train with the same equipment and then can 
deploy, seamlessly integrated, as you have noted, throughout 
the area of operations.
    Let me finish with what I see--again, back to my sacred 
bond with this Nation is to make sure that we sustain and 
maintain that Strategic Reserve, which I believe we are, first 
and foremost. I leverage that Strategic Reserve on a daily 
basis to provide that operational force around this world in 
every single mission set that the Air Force has. I want to be 
at every location that the Active force is. So, when somebody 
makes a life-changing decision, I can capture that talent; I 
put them to work in the Air Force Reserve. I will offer them to 
the Army Guard and the Army Reserve and our other partners up 
here, as well.
    We just need not to lose that talent when they have a 
change in their life. At that point, I want to make sure I know 
where all of our folks are. I want to make sure I know where 
all that talent is. And I need to manage that such that we can 
be sustainable and predictable. And I'm working very hard with 
our Air Force to change the way we mobilize, to streamline that 
process, to make it much more efficient and effective across 
all of the expeditionary combat support and the operational 
arms that we have, to make sure that we get to the warfighter 
that package of capability they need to continue the fight 
we've got in every combatant command in the world today.
    I am committed to doing that. I'm committed to the 
readiness of this particular Air Force Reserve. I'm committed 
to sustaining these folks at the highest state so we can 
seamlessly integrate and holistically look across our entire 
enterprise to ensure that we do sustain that force in a 
predictable fashion, taking care of the family, the member, and 
their employer at the same time.

                           PREPARED STATEMENT

    I look forward to your questions, sirs, and thank you for 
your support.
    [The statement follows:]
    Prepared Statement of Lieutenant General Charles E. Stenner, Jr.
    Mr. Chairman and distinguished members of the Committee, I 
appreciate the opportunity to appear before you today and discuss the 
state of the Air Force Reserve.
    The 21st century security environment requires military services 
that are flexible--capable of surging, refocusing, and continuously 
engaging without exhausting their resources and people. Moreover, the 
21st century fiscal environment is becoming ever-more constrained as 
threats by rising nations and pressing national interests compete for 
limited resources.
    In this challenging environment, the Air Force Reserve has never 
been more relevant. Reserve Airmen continue to support our Nation's 
needs, providing superb operational capability around the globe. We 
have sustained this operational capability for nearly 20 years--at high 
operations tempo for the past 9 years. The Air Force Reserve is 
accomplishing this while still providing a cost-effective Tier 1 ready 
force to the Nation available for strategic surge or ongoing 
operations.
    Speaking of ongoing operations, U.S. Air Force C-130 aircrews were 
among the first U.S. military to respond to the earthquake disaster in 
Haiti, on the ground in Port Au Prince within 24 hours of the 
earthquake. This quick response was not simply fortuitous, but the 
result of planning, preparedness, and readiness. This rapid-response 
capability is available 24/7, 365 days a year through Operation Coronet 
Oak.\1\
---------------------------------------------------------------------------
    \1\ In addition to Haitian relief support through Operation Coronet 
Oak, Air Force Reserve ISR personnel provided exploitation support to 
assess the damage and focus relief while Air Force Reserve airlift crew 
saved lives with much needed medical, water and food supplies flown 
into Haiti. Air Force Reserve members in fact planned, commanded and 
exploited Global Hawk derived exploitation missions in order to provide 
situational awareness on infrastructure status and guide relief efforts 
during one of the worst earthquakes to hit Haiti on over 200 years. The 
professional expertise and capabilities of these seasoned Citizen 
Airmen demonstrates the flexibility and service inherit in the men and 
women of the Air Force Reserve as they shifted from supporting combat 
operations to humanitarian relief.
---------------------------------------------------------------------------
    Since 1977, the Operation Coronet Oak mission has been manned 
primarily by Air Force Reserve and Air National Guard crews who rotate 
every 2 weeks, year-round. Crews from the Regular Air Force now perform 
about one-third of the mission. These Operation Coronet Oak crews are 
postured to respond within 3 hours of notification to any crises 
requiring airlift support within the U.S. Southern Command Area of 
Responsibility (AOR).
    This predictable-rotational mission allows Reservists to perform 
real-world operational missions and still meet their obligations to 
their full-time civilian employers. And, like Air Expeditionary Force 
(AEF) rotations, this operation leverages the Tier 1 readiness of Air 
Force Reserve Airmen in a way that works for the Combatant Commander, 
and the Reservist. Equally important, when Air Force Reserve Airmen are 
not training or performing an operational mission--they are not being 
paid; yet they remain ready to respond to any crisis within 72 hours 
should they be called upon. In this resource-constrained environment in 
which manpower costs are placing downward pressure on our budgets, I 
believe this full-time readiness/part-time cost is a great use of 
taxpayer dollars.
    This next year brings new challenges and opportunities. Air Force 
Reserve Airmen are being integrated into a wider variety of missions 
across the full spectrum of Air Force operations. Indeed, the 
Department of Defense (DOD) is considering using Reservists from all 
services to perform missions utilizing their unique civilian skill 
sets.
    The challenges we face are not unique to the Air Force Reserve or 
the Air Force as a whole. Each of the military services is being asked 
to shift capability and capacity across the spectrum of conflict--
including irregular warfare--and to resource accordingly. Each has been 
asked to shift focus away from major weapon systems acquisitions and to 
the current fight.\2\
---------------------------------------------------------------------------
    \2\ In Operations Enduring and Iraqi Freedom, Reserve C-130 crews 
flew over 9,800 hours in fiscal year 2009; Reserve F-16 and A-10 crews 
flew over 5,400 hours. The Air Force Reserve provides 24 crews and 12 
fighter aircraft to USCENTCOM in their regularly scheduled rotations 
for the close air support mission.
---------------------------------------------------------------------------
    To do so, all three components of the Air Force must continually 
strive to improve the capability provided to the warfighter. Each 
service component must examine its existing business practices and 
explore new processes to make optimal use of personnel, platforms, and 
monetary resources. The Air Force Reserve is helping lead the way in 
improving Air Force capability as we approach fiscal year 2011 and 
beyond.
    As the Nation looks for ways to strengthen its organizations and 
integrate all of the untapped resources it will need in facing the 
challenges of the 21st century, we submit that a model by which 
ordinary people, dedicated to serving their country in ways that meet 
both their needs and the needs of the Nation, is already manifest in 
the U.S. Air Force every day--in the extraordinary Americans of the Air 
Force Reserve.
    I'm proud to serve alongside these great Airmen and as Chief and 
Commander of the Air Force Reserve, I have made a promise to them that 
I will advocate on their behalf for resources and legislation that will 
allow them to serve more flexibly in peace and war with minimum impact 
to their civilian careers, their families and their employers. I will 
work to eliminate barriers to service, so that they can more easily 
serve in the status that meets their needs and those of the Air Force. 
And, I will work to efficiently and effectively manage our Air Force 
Reserve to meet the requirements of the Joint warfighter and the 
Nation.
                        recruiting and retention
    Over the last 9 years, the Air Force Reserve has exceeded its 
recruiting goals and is on track to meet fiscal year 2010 recruiting 
and end-strength goals. Our success in great part has been due to the 
accessions of experienced Active Component members upon completion of 
their active duty commitments. Indeed, recruiting highly trained 
individuals is essential to lowering the training costs for the Air 
Force Reserve. For some of our most critical specialties, affiliation 
and retention bonuses have provided a greater return on investment 
versus recruiting non-prior service Airmen. However, due to lower 
Regular Air Force attrition rates, we no longer have the luxury of 
large numbers of experienced Airmen leaving Active service.
    As the Air Force Reserve builds end strength to meet the needs of 
new and emerging missions, we are facing significant recruiting 
challenges. Not only will the Air Force Reserve have access to fewer 
prior-service Airmen; but, we will be competing with all other services 
for non-prior service (NPS) recruits. In fact, our non-prior service 
recruiting requirement has nearly doubled since the end of fiscal year 
2007. To improve our chances of success, we have increased the number 
of recruiters over the next 2 years.
    Air Force Reserve retention is solid with positive gains in all 
categories in fiscal year 2009, after rebounding from a slight annual 
drop from fiscal year 2006-fiscal year 2008. Both officer and enlisted 
retention are up; enlisted retention has returned to the fiscal year 
2006 rate. Career Airman retention is at its highest level in the last 
five years.
    Some of this success can be attributed to implementing several 
retention-focused initiatives such as developing a wing retention 
report card tool and General Officer emphasis on retention during base 
visits. With Air Force Reserve retention at its best for the last 3 
years, this renewed focus on retention is expected to ensure that rates 
continue on a positive trend.
    We can't take all the credit for this success. Congress has 
generously responded to our requests for assistance with improved 
benefits such as the post-9/11 GI Bill, inactive duty training (IDT) 
travel pay, and affordable TRICARE for members of the Selected Reserve.
    To date, under the conditions of the post-9/11 GI Bill benefit, the 
Air Force Reserve has processed over 4,400 transferability requests 
impacting nearly 7,000 dependents. Under the Individual Duty Training 
travel pay benefit, more than 5,100 Air Force Reservists have received 
this benefit. This has helped us address those critical duty areas 
where we have staffing shortages.
    Since October 2007 when the three-tier TRICARE plan was eliminated, 
the Air Force Reserve has seen an increase in covered lives from 4,541 
to 14,982 through January 31, 2010, equaling a 330 percent increase in 
program usage. The current coverage plan has made TRICARE more 
accessible and affordable for members of the Selected Reserve at a 
critical time when healthcare costs are rising. In addition to these 
new benefits, the Air Force Reserve has taken advantage of the many 
tools that you have provided us including the bonus program, the Yellow 
Ribbon Program, and our Seasoning Training program.
    The Bonus program has been pivotal to recruiting and retaining the 
right people with the right skills to meet Combatant Commander 
warfighting requirements. The Air Force Reserve uses the Bonus Program 
to fill requirements on our ``Critical Skills List.'' Those skills are 
deemed vital to Air Force Reserve mission capability. Development of 
these skills usually requires long training courses and members who 
have these skills are in high demand within the private sector. We are 
able to offer a wide menu of bonuses for enlistment, reenlistment, 
affiliation, and health professionals.
    Our Yellow Ribbon Reintegration Office is up and running and fully 
implementing Department of Defense directives. Our program strives to 
provide guidance and support to the military members and their families 
at a time when they need it the most, to ease the stress and strain of 
deployments and reintegration back to family life. Since the standup of 
our program from August 2008 to December 2009, we have hosted 113 total 
events across 39 Wings and Groups. 4,515 Reservists and 3,735 family 
members attended these events reflecting a 67 percent program usage 
rate for members deployed during this timeframe. From event exit 
surveys and through both formal and informal feedback, attendees 
indicated positive impressions, expressing comments about feeling 
``better prepared, (and) confident following events.''
    Designed to build a ``ready force,'' our Seasoning Training Program 
allows recent graduates of initial and intermediate level specialty 
training to voluntarily remain on active duty to complete upgrade 
training. The results have been a larger pool of deployable Reservists 
at an accelerated rate through this program. As a force multiplier, 
seasoning training is ensuring the Air Force Reserve maintains its 
reputation for providing combat-ready Airmen for today's joint fight. 
The Seasoning Training Program is also proving beneficial for 
recruiting, training, and retaining members in the Air Force Reserve. 
This program is a success story and one that we will build on in the 
next year.
    The Air Force Reserve is working hard to increase Reservists' 
awareness of benefits and incentives associated with their service. 
Reservists are taking advantage of these programs because they are 
having their intended effect. These programs are helping to create the 
sustainable and predictable lifestyle that our members need to continue 
to serve in the Air Force Reserve.
    I am confident that as we act on not only our Air Force Reserve 
priorities, but also on those of the Air Force and the Department of 
Defense with the continued support of this Committee and Congress, we 
will be able to continue to meet the needs of Combatant Commanders and 
the Nation with a viable operational and strategic Air Force Reserve.
 maintain a strategic reserve while providing an operational, mission 
                              ready force
    The Air Force Reserve is first and foremost a strategic reserve 
leveraged to provide an operational, mission ready force in all mission 
areas.\3\ Air Force Reserve Airmen accomplish this by training to the 
same standards and currencies as their Regular Air Force counterparts. 
As indicated at the outset, Air Force Reserve Airmen continue to 
volunteer at high levels and provide superb operational capability 
around the globe, serving side by side with the joint team. These 
Airmen provide the insurance policy the Air Force and the Nation need: 
a surge capability in times of national crises. In fact, the Air Force 
Reserve is currently mobilizing our strategic airlift resources and 
expeditionary support to assist surge requirements in Afghanistan.\4\
---------------------------------------------------------------------------
    \3\ Airmen of the Selected Reserve are mission-ready, capable of 
performing ongoing operations. Collectively, they have met the 
operational needs of the Air Force for decades--largely through 
volunteerism, but also through full-time mobilization. Between 1991 and 
2003, Reservists supported the no-fly areas of Operations Northern and 
Southern Watch. Since the attacks on September 11, 2001, 54,000 
Reservists have been mobilized to participate in Operations Enduring 
Freedom, Noble Eagle, and Operation Iraqi Freedom--6,000 remain on 
active duty status today. It is a fact that the Air Force now, more 
than any other time, relies on members of the Reserve and Guard to meet 
its operational requirements around the globe.
    The Air Force Reserve maintains 60 percent of the Air Force's total 
Aeromedical Evacuation (AE) capability. Reserve AE crews and operations 
teams provide a critical lifeline home for our injured warfighters. Our 
highly trained AE personnel fill 43 percent of each AEF rotation and 
augment existing USEUCOM and USPACOM AE forces in conducting 12 Tanker 
Airlift Control Center tasked AE channel missions each quarter--all on 
a volunteer basis.
    In 2009, the men and women of our Combat Search and Rescue (CSAR) 
forces have been heavily engaged in life saving operations at home and 
abroad. Since February, Airmen of the 920th Rescue Wing at Patrick Air 
Force Base, Florida, and their sister units in Arizona and Oregon, flew 
over 500 hours and saved more than 200 U.S. troops on HH-60 helicopter 
missions in support of U.S. Army medical evacuation operations in Iraq 
and Afghanistan. While mobilized for 14 months in support of combat 
missions abroad, the 920th continued to provide humanitarian relief in 
response to natural disasters at home, as well as provide search and 
rescue support for NASA shuttle and rocket launches. In addition, the 
39th Rescue Squadron (HC-130s), also at Patrick AFB, flew rescue 
missions in Africa and provided airborne CSAR support during the rescue 
of the Maersk Alabama's Captain from Somalian pirates.
    The Air Force Reserve provides 100 percent of the airborne weather 
reconnaissance (hurricane hunting) capability for the Department of 
Defense. Throughout the year, the Citizen Airmen of the Air Force 
Reserve's 53rd Weather Reconnaissance Squadron ``Hurricane Hunters'', a 
component of the 403rd Wing located at Keesler Air Force Base in 
Biloxi, Mississippi fly over 1,500 operational storm hours. The 
Hurricane Hunters have 10 WC-130J Super Hercules aircraft that are 
equipped with palletized meteorological data-gathering instruments. 
They fly surveillance missions of tropical storms and hurricanes in the 
Atlantic Ocean, the Caribbean Sea, the Gulf of Mexico and the central 
Pacific Ocean for the National Hurricane Center in Miami. The unit also 
flies winter storm missions off both coasts of the United States and is 
also used to perform advanced weather research missions for the DOD and 
the National Oceanic and Atmospheric Administration (NOAA). The life-
saving data collected makes possible advance warning of hurricanes and 
increases the accuracy of hurricane predictions warnings by as much as 
30 percent.
    In addition to our hurricane mission, the Air Force Reserve 
provides 100 percent of the aerial spray mission in support of the 
Federal Emergency Management Agency, the Centers for Disease Control, 
and state public health officials. Air Force Reserve aircrews and C-
130s from the 910th Airlift Wing, Youngstown Air Reserve Station, Ohio, 
sprayed more than a million storm ravaged acres of land with pesticides 
to control the spread of disease.
    Our intelligence, surveillance and reconnaissance professionals are 
providing critical information as they answer the nation's call to 
service. Since September 11, 2001, 1,079 intelligence personnel have 
deployed in support of world-wide contingency missions to include 
Afghanistan and Iraq. For the foreseeable future, Reserve intelligence 
professionals will continue to be deployed throughout the Combatant 
Command theaters, engaged in operations ranging from intelligence 
support to fighter, airlift, and tanker missions to ISR operations in 
Combined Air Operations Centers and Combined/Joint Task Forces as well 
as support to the National Command Authority, such as, Defense 
Intelligence Agency, National Security Agency and National Geospatial-
Intelligence Agency.
    These are but a few examples of the dedication and contributions 
our Air Force Reserve Airmen have made and will continue to make around 
the clock, around the world, each and every day.
    \4\ Our Reserve community continues to answer our nation's call to 
duty with large numbers of volunteer Reservists providing essential 
support to Combatant Commanders. 46 percent of the Air Force's 
strategic airlift mission and 23 percent of its tanker mission 
capability are provided by Reserve Airmen. We currently have over 450 
C-17, C-5, KC-135, and KC-10 personnel on active duty orders supporting 
the air refueling and airlift requirements.
---------------------------------------------------------------------------
    The Air Force Reserve is a repository of experience and expertise 
for the Air Force. Air Force Reserve Airmen are among the most 
experienced Airmen in the Air Force. Air Force Reserve officers average 
roughly 15 years of experience, and enlisted members average 14 years 
of experience, compared to 11 years and 9 years for Regular Air Force 
officers and enlisted, respectively. In fact, roughly 64 percent of Air 
Force Reserve Airmen have prior military experience.
    Reserve Airmen are a cost-effective force provider, comprising 
nearly 14 percent of the total Air Force authorized end-strength at 
only 5.3 percent of the military personnel budget. Put differently, Air 
Force Reserve Airmen cost per capita is 27.7 percent of that of Regular 
Air Force Airmen, or roughly 3.5 Reserve Airmen to one Regular 
Airman.\5\
---------------------------------------------------------------------------
    \5\ Fiscal year 2008 budget, figures derived from ABIDES (Automated 
Budget Interactive Data Environment System), the budget system 
currently in use by the Air Force and recognized as the official Air 
Force position with respect to the Planning, Programming and Budget 
Execution (PPBE) system. Inflation data used for any constant dollar 
calculations were based on average Consumer Price Index for All Urban 
Consumers (CPI-U) rates for the past 10 years: roughly 2.6 percent 
average annual rate of inflation. Medicare Eligible Retirement Health 
Care (MERHC) is an accrual account used to pay for health care of 
Medicare-eligible retirees (age 65 and beyond). Cost per capita figures 
were derived dividing cost of Selected Reserve program by Selected 
Reserve end-strength. When MERHC figures are included, the cost of Air 
Force Reserve Airmen to Regular Air Force Airmen increases to 30.4 
percent.
---------------------------------------------------------------------------
    However, we cannot take for granted the high level of commitment 
our Reservists have thus far demonstrated. We must do our best to 
ensure their continued service. Accordingly, we are undertaking 
enterprise-wide actions to make Air Force Reserve service more 
predictable.
    In the Air Force Reserve, we are revising our management structures 
and practices to eliminate redundancies associated with mobilizing and 
deploying Reservists to meet Combatant Commanders' requirements. The 
intent is to create an integrated process that will be more responsive 
to the needs of Reservists, provide them greater predictability, make 
participation levels more certain, and ultimately provide Combatant 
Commanders with a more sustainable operational capability. This is 
still a work in progress.
    At the Pentagon, the Air Force Reserve is examining its processes 
to improve Reserve interaction among the Air Force Headquarters staff 
to better support the Chief of Air Force Reserve, the Chief of Staff of 
the Air Force, and the Secretary of the Air Force in discharging their 
service responsibilities. Through the Air Reserve Personnel Center, the 
Air Force Reserve is also taking action to improve Reserve and Air 
National Guard personnel administrative and management capabilities. 
Collectively, these actions will contribute to the overall health of 
the strategic reserve and improve the sustainability of the Air Force 
Reserve and the Air Force operational capability required by the 
warfighters in this new century.
          preserve the care and viability of the reserve triad
    Reservists have relationships with three basic entities: family, 
civilian employer, and military employer--what I like to call ``The 
Reserve Triad.'' Helping our Airmen preserve these relationships is 
critical to our sustainability. In this Year of the Air Force Family, 
our policies and our actions must support the viability of these 
relationships--especially the one Reservists have with their families. 
Open communication about expectations, requirements, and opportunities 
will provide needed predictability and balance among all three 
commitments.
    To that end, we are now consistently and actively surveying Reserve 
and Regular Airmen to better understand why they come to serve and why 
they stay. We are continually learning and gaining a better 
understanding of attitudes toward service and issues associated with 
employers and family. From their feedback, I can better advocate for 
benefits that help us recruit and retain Airmen for the Air Force 
Reserve.
    Military services must be flexible: capable of surging, refocusing, 
and continuously engaging without exhausting resources and people. That 
is sustainability. Approaching fiscal year 2011 and beyond, it is 
imperative that we preserve the health of our strategic Reserve and 
improve our ability to sustain our operational capability. Going 
forward, we need to continuously balance capabilities and capacity 
against both near-term and long-term requirements.
    Clearly, in a time of constricted budgets and higher costs, in-
depth analysis is required to effectively prioritize our needs. We must 
understand the role we play in supporting the warfighter and 
concentrate our limited resources in areas that will give us the most 
return on our investment. Optimizing the capability we present to the 
warfighter is a top priority, but we must simultaneously support our 
Airmen, giving them the opportunity to have a predictable service 
schedule and not serve more than they can sustain.
              broaden total force initiative opportunities
    As weapons systems become increasingly expensive and more capable, 
their numbers necessarily go down. Aging platforms are being retired 
and not replaced on a one-for-one basis. The Air Force is required to 
make the most of its smaller inventory. To this end, the Air Force 
Reserve, Air National Guard, and Regular Air Force are integrating 
across the force, exploring associations wherever practical. The Air 
Force is aggressively examining all Air Force core functions for 
integration opportunities.\6\
---------------------------------------------------------------------------
    \6\ The Air Force uses three types of associations to leverage the 
combined resources and experience levels of all three components: 
``Classic Association,'' ``Active Association,'' and ``Air Reserve 
Component Association.''
    Under the ``Classic'' model, so-called because it is the first to 
be used, a Regular Air Force unit is the host unit and retains primary 
responsibility for the weapon system, and a Reserve or Guard unit is 
the tenant. This model has flourished in the Military Airlift and Air 
Mobility Commands for over 40 years. We are now beginning to use it in 
the Combat Air Forces (CAF): our first fighter aircraft ``Classic'' 
association at Hill Air Force Base, Utah, attained Initial Operational 
Capability in June of 2008. This association combined the Regular Air 
Force's 388th Fighter Wing, the Air Force's largest F-16 fleet, with 
the Air Force Reserve's 419th Fighter Wing, becoming the benchmark and 
lens through which the Air Force will look at every new mission. The 
477th Fighter Group, an F-22 unit in Elmendorf, Alaska, continues to 
mature as the first AFR F-22A associate unit. This unit also achieved 
Initial Operating Capability in 2008 and will eventually grow into a 
two-squadron association with the Regular Air Force.
    The Air Force Reserve Command is establishing its first 
Intelligence, Surveillance and Reconnaissance Group Association at 
Langley AFB, Virginia, this year. This Group and assigned Intelligence 
Squadrons of Reserve Airmen will partner with the Regular Air Force to 
provide operational command and control of units delivering real-time, 
tailored intelligence to combat forces engaged in missions in Iraq and 
Afghanistan, with data derived from theater Predator/Reapers, Global 
Hawks and U-2s, in partnership with the Total Force team. The Air Force 
has also programmed additional associate intelligence squadrons for 
Beale and Langley Air Force Bases for distributed support to global ISR 
operations to include USEUCOM, and USPACOM theaters. Once these units 
have reached full operational capability, Air Force Reserve 
exploitation and analysis surge capacity of Remove Piloted Aircraft 
(RPAs) will be approximately 10 percent of the Air Force's capability 
based on 65 orbits. Additional Command and Control Intelligence, 
Surveillance, and Reconnaissance capability is being stood up with an 
AFRC associate Air Forces Forces Command (AFFOR) unit at Beale AFB, 
California, to support USPACOM and one at Hurlburt AFB, Florida to 
support USSOCOM global Special Operations Forces. These new 
capabilities create a strategic reserve force ready to respond to the 
call of our nation, capable of being leveraged as operational crews 
ready and willing to support the Regular Air Force in everyday missions 
around the world. This model has proven itself and is the basis for the 
growth of associations over the last 5 years.
---------------------------------------------------------------------------
    Over the past 40 years, we have established a wide variety of 
associate units throughout the Air Force, combining the assets and 
manpower of all three components to establish units that capitalize on 
the strengths each component brings to the mix. We recently partnered 
with Air Mobility Command to create three more active associate flying 
squadrons in 2010 and beyond. About 500 Regular Airmen will associate 
with Air Force Reserve flying units at Keesler AFB, Mississippi (C-
130J); March Air Reserve Base, California (KC-135); and Peterson AFB, 
Colorado (C-130H) by 2012.\7\
---------------------------------------------------------------------------
    \7\ Under the ``Active'' model, the Air Force Reserve or Guard unit 
is host and has primary responsibility for the weapon system while the 
Regular Air Force provides additional aircrews to the unit. The 932nd 
Airlift Wing is the first ever Operational Support Airlift Wing in the 
Air Force Reserve with 3 C-9Cs and 3 C-40s. Additionally, the Air Force 
Reserve will take delivery of an additional C-40 in fiscal year 2011, 
appropriated in the fiscal year 2009 Consolidated Security, Disaster 
Assistance and Continuing Appropriations Act. This additional C-40 will 
help to replace the 3 C-9Cs, which are costly to maintain and fly. To 
better utilize the current fleet of C-40s at the 932nd, the Air Force 
created an Active Association. We also are benefitting from our first 
C-130 Active Association with the 440th AW at Pope AFB.
    Under the ``Air Reserve Component (ARC)'' model, now resident at 
Niagara Falls Air Reserve Station (ARS) in New York, the Air Force 
Reserve has primary responsibility for the equipment while the Guard 
shares in the operation of the equipment and works side by side with 
the Reserve to maintain the equipment. The Air National Guard has 
transitioned from the KC-135 air refueling tanker to the C-130, 
associating with the 914th Reserve Airlift Wing. The 914th added four 
additional C-130s, resulting in 12 C-130s at Niagara ARS. This ARC 
Association model provides a strategic and operational force for the 
Regular Air Force while capitalizing on the strengths of the Air 
National Guard and Air Force Reserve. Additionally, in this case it 
provides the State of New York with the needed capability to respond to 
state emergencies.
    The Air Force Reserve has 9 host units and is the tenant at 53 
locations. There are currently more than 100 integration initiatives 
being undertaken by the Air Force and Air Reserve Components.
---------------------------------------------------------------------------
    But associations are not simply about sharing equipment. The goal 
is to enhance combat capability and increase force-wide efficiency by 
leveraging the resources and strengths of the Regular Air Force, Air 
National Guard, and Air Force Reserve while respecting unique component 
cultures in the process. To better accommodate the Air Force-wide 
integration effort, the Air Force Reserve has been examining its four 
decades of association experience. With Regular Air Force and Air 
National Guard assessment teams, we have developed analytical tools to 
determine the optimal mix of Reserve, Guard, and Regular forces in any 
given mission. These tools will give the Air Force a solid business 
case for associating as we go forward.
                       air force reserve manpower
    The Air Force is balancing Reserve forces across the full spectrum 
of conflict. We are leveraging the experience of Reservists to 
alleviate stressed career fields. And we are improving our ability to 
retain experienced Airmen by providing them a means to stay in the 
service following any life-changing decisions they make regarding full-
time participation. Over the next decade, the Air Force Reserve will 
grow into many new mission areas, including nuclear enterprise, 
intelligence, surveillance, reconnaissance, unmanned aerial systems, 
space, and cyberspace.
    However, rebalancing a force can take time, and the fight is now. 
To meet the more pressing needs of the Air Force, such as easing strain 
on stressed career fields and taking on new mission sets, the Air Force 
Reserve is growing by 2,100 Airmen in fiscal year 2010. This will bring 
Air Force Reserve authorized end-strength to 69,500. By fiscal year 
2013, Air Force Reserve end-strength is planned to grow to 72,100. As 
mentioned earlier, the Air Force Reserve is truly a cost-effective 
operational force; making up nearly 14 percent of total Air Force end 
strength at a cost of just over 5 percent of the Military Personnel 
budget.
    These manpower increases are placing a premium on recruiting highly 
qualified and motivated Airmen and providing them the necessary 
training. The Air Force Reserve recruiting goal for fiscal year 2010 is 
10,500. While we met our goal of 8,800 new Airmen for fiscal year 2009 
in August, nearly 2 months before the end of the fiscal year, our 
forecast models indicate we will continue to face challenges in both 
recruiting and retention.
    Each of these measures--Total Force Integration (TFI), expanding 
into new mission areas, rebalancing of forces, and, where needed, 
increasing manpower--will help the Air Force more closely align force 
structure to current and future DOD requirements, as well as provide 
increased capability to the combatant commanders.
                    air force reserve modernization
    The Air Force Reserve is an organization of extraordinary working 
people, wedded to the fabric of our great Nation. Our Citizen Airmen 
support all Air Force mission areas in air, space, and cyberspace. They 
are trained to the same standards and readiness as their Regular 
Component peers and are among the most highly-experienced members of 
the United States Air Force.
    A number of trends continue to influence dependence on Air Force 
Reserve forces to meet the strategic and operational demands of our 
nation's defense: sustaining operations on five continents plus surge 
efforts in Iraq and Afghanistan and the resulting wear and tear on our 
aging equipment; increasing competition for defense budget resources; 
and increasing integration of the three Air Force components.
    The Air Force leverages the value of its Reserve Components through 
association constructs in which units of the three components share 
equipment and facilities around a common mission. Increasing 
integration of all three Air Force components requires a holistic 
approach be taken when modernizing. To ensure our integrated units 
achieve maximum capability, the precision attack and defensive 
equipment the Air Force Reserve employs must be interoperable not only 
with the Guard and Regular Component, but the Joint force as well.
    As Chief of the Air Force Reserve, I am dedicated to ensuring that 
Air Force Reservists have the training and equipment available to them 
required to provide for our Nation's defense. I appreciate the 
attention and resources provided to the Reserve thus far, and I ask for 
your continued support.
    The National Guard Reserve Equipment Account (NGREA) appropriation 
has resulted in an increase in readiness and combat capability for both 
the Reserve and the Guard. For fiscal year 2010, the Air Force Reserve 
Command received $55 million in NGREA appropriations. This resulted in 
the ability to purchase critical warfighting requirements for Reserve-
owned equipment including critical upgrades to targeting pods, aircraft 
defense systems for C-5s and C-130s, and personnel protective equipment 
like security forces tactical weapons. These new capabilities are 
directly tied to better air support for our Soldiers and Marines in 
Iraq and Afghanistan. NGREA funding has helped the Air Force Reserve to 
remain relevant in today's fight as well as the ability to remain ready 
and capable in future conflicts. We truly appreciate and thank you for 
your support with this critical program.
    military construction (milcon) and infrastructure modernization
    Along with challenges in modernizing our equipment, we face 
challenges modernizing our infrastructure. During the fiscal year 2011 
budget formulation, both the Regular Air Force and the Air Force 
Reserve took risk in military construction appropriation in order to 
fund higher priorities. Over time, this assumption of additional risk 
has resulted in a continuing backlog exceeding $1 billion for the Air 
Force Reserve. I would be remiss if I didn't take this opportunity to 
sincerely thank you for the $112 million that we received in last 
fiscal year's military construction appropriation. This allowed us to 
address some of the most dire needs that exist in our backlog.
    We will continue to work within the fiscal constraints and mitigate 
risk where possible to ensure our facilities are modernized to provide 
a safe and adequate working environment for all of our Airmen.
                               conclusion
    Mr. Chairman and members of this Committee, I am excited to have 
these roles as Chief of the Air Force Reserve and Commander of the Air 
Force Reserve Command. I take pride in the fact that when our Nation 
calls on the Air Force Reserve, we are trained and ready to go to the 
fight. As a strategic reserve, over 68,500 strong, we are a mission-
ready reserve force serving operationally throughout the world every 
day with little or no notice.
    As we approach fiscal year 2011 and beyond, it is clear the Air 
Force Reserve will play an increasingly vital role in meeting national 
security needs. The actions we initiated in 2009 and those we advance 
in 2010 will preserve the health of the Air Force Reserve but also help 
Congress address the more pressing issues we will face as a Nation in 
the years to come.
    I sincerely appreciate the support of this Committee for the 
appropriation and legislation it provides to our readiness and combat 
capability. I desire to continue working with each of you on the 
challenges facing the Air Force Reserve, the Air Force, and Our Nation. 
Thank you.

                        RECRUITING AND RETENTION

    Chairman Inouye. I thank you very much.
    The subcommittee is very pleased, looking over the record 
of recruiting and retention. A few years ago, it was pretty 
bad. Now all of you have improved it. Retention is good. For 
example, in the Air Force, you have 20 percent retention along 
the first-termers. And the Marines, 20 percent of your forces 
are now on deployment, and yet, they're coming in. What's your 
secret?
    General Stultz. Sir, I'll lead off. As I mentioned earlier, 
today I command almost 208,000 soldiers. I'm authorized 
205,000. That means I've got 3,000 more than I actually need in 
my ranks at this point. And the reason I have that is because 
of what you just said, the success of our recruiting and the 
success of our retention. And as people wondered about, ``Are 
we asking too much of our Reserve components?'' this 
operational tempo that we're under, with multiple deployments 
of many of our soldiers, I remind them that everyone that's in 
my ranks either enlisted or reenlisted since 9/11. They knew 
what they were getting into. They know what they're staying 
for.
    And I think, sir, that the soldiers and sailors and airmen 
and marines that we have joining our forces today are joining 
because, one, they feel a duty to their country; number two, 
they're seeking to make something of themselves that they're 
proud of; and three, they just feel good about what they're 
doing. And if we just provide them the support for them and 
their families, we provide them the support for their 
employers, as we've discussed before, so that they know they 
have a job to come back home to, and then we give 'em 
predictability, they'll stick with us.
    Chairman Inouye. Admiral.
    Admiral Debbink. Chairman Inouye, I would definitely echo 
everything that General Stultz has said, and I would just offer 
some numbers for perspective.
    In our officer ranks, our attrition has dropped from 
approximately 18 percent to less than 12 percent; in our 
enlisted ranks, from the mid-20s down to the mid-teens. And I 
do believe that the primary cause for all of this is the real 
and meaningful work that we're giving our sailors on a daily 
basis. And to the extent that we can continue doing that, which 
is not a problem in today's very operational tempo, but as we 
look past the overseas contingency operations into the future, 
and working hard to identify what we call the ``periodic and 
predictable part-time work of the Navy'' so we give these 
sailors continued access to real and meaningful work, I would 
predict that we'll continue to see this strong retention.
    Chairman Inouye. General Kelly.
    General Kelly. Sir, if I could just add, I think it's the 
product we offer, and the product we offer, regardless of what 
uniform they wear, is service to the Nation. There was a time 
when there were vastly larger numbers of young men and women 
that were willing to step forward. We don't have as many 
anymore, but we have just enough out there that come in with a 
smile on their face and want to serve. As long as, I think--and 
I'm new at this business--but, it seems to me, as long as we 
strike the right balance between deployments, family, benefits, 
predictability, and the Nation keeps faith--which, to date, 
certainly the Nation has kept faith with all of these 
warriors--as long as the Nation continues to keep faith with 
us, I don't think we'll have much in the way of problems.
    Chairman Inouye. General Stenner.
    General Stenner. Mr. Chairman, I'll just take off from that 
very last statement. If the Nation continues to keep faith, we 
will continue to be able to provide the capabilities in each of 
our services.
    I have statistics that show that we've asked the questions, 
``Why do you join?'' and then, ``Why do you stay?'' The number 
one answer on every single one of those is: patriotism. They 
want to serve their Nation, as has been said up here.
    I will add to what has been said--and I agree with 
everything that my partners have articulated--is that I think 
that we have kept faith, as a Nation, with some of the work 
that has been done to ensure we had parity of benefits. And a 
lot of that work over the last several years to ensure that the 
healthcare systems for folks who are fighting side by side, are 
equal and right and just. The GI bill, sir, has been an 
absolute huge retention-and-recruiting tool, especially when 
you can pass those benefits to families.
    Everything that has been done to make sure that all three 
components--Active, Guard, Reserve--have this kind of equality 
and fight side by side, doing the meaningful work that has been 
mentioned, they want to go. The benefits are equal. The 
patriotism piece is felt. The Nation keeps faith. And our folks 
are amazing people and will continue to serve.
    Chairman Inouye. All of you have problems with equipment 
shortfalls. But, with the Army, I note that it's about $6 
billion. And why is the Army always underfunding the Reserves? 
Is there a reason for that?
    General Stultz. Senator, I don't think it's because they 
don't like us.
    I think we face the challenge of transformation, 
modularity, and a changing enemy. And just as was given 
testimony by the previous panel about the amount of equipment 
that has been flowing in our force, you can look at it from a 
variety of numbers. You can look at it today and say, ``The 
Army Reserve is somewhere between 75 and 80 percent equipped, 
the best we've ever been.'' We've gone from somewhere in the 
range of about 61 to 62 percent, when I first got here, now to 
almost 80 percent.
    But, I can tell you, we're still short $6.7 billion in 
equipment if we're looking to the future of what the Army 
Reserve looks like by fiscal year 2016. And we're short 
somewhere to the tune of about $11 billion if you look at what 
we're short, in terms of the actual modernized equipment that 
we need by that time.
    And so, one would say, ``Well, you're getting 
shortchanged.'' And that's not exactly the case, because what's 
happening is, we're transforming.
    When I took over this position and looked at the force of 
the Army Reserve, I said, ``We don't have the operational force 
that we need for the future. We've got to transform.'' And 
within the 205,000 end strength that we had, we went in and 
converted somewhere to the tune of about 25,000 spaces into new 
capabilities. And that is, we took down the legacy structure 
that we had--a lot of administrative overhead--and we stood up 
transportation, military police, civil affairs, medical, all 
that structure, which now is coming onto the books as new 
structure within the existing 205,000, but it also comes with a 
bill for new equipment that wasn't planned in the past, because 
that structure wasn't being recognized.
    And so, I think one of the challenges we've got today is, 
we've got to continue to press for the equipment. And Congress 
and the American people have to understand it's not because 
we're wasting the money we're getting--and we appreciate 
everything we're getting--we're continuing to transform the 
Reserve into an operational force, with new capabilities, as 
the Army modernizes and modularizes. And so, that bill just 
continues to--I won't say ``grow,'' but it continues to be out 
there, because we're always trying to play catchup to the 
newest capabilities we need, and the equipment that goes with 
them.
    That being said, we have partnered very closely with the 
Army and the Army Guard to make sure that any soldier or any 
unit that goes into combat is best equipped, is best trained. 
Where we're lagging behind is, we don't have the right 
equipment back here, in all instances, to train on, for those 
soldiers back here that are getting ready to go.
    And that's our next step, and we've got to do a better job 
of getting that equipment. We've got equipment back here, in 
that 80 percent on-hand that is allowable substitute, but it's 
not that piece of equipment he's going to operate when he gets 
to Iraq or Afghanistan; it's a substitute item. What I need is 
to get the modernized item back here so that he's training on 
the same piece of equipment he's going to operate when he gets 
into theater.
    Chairman Inouye. I realize that, in the bureaucratic 
discipline, all of you are called upon to tell us that 
everything is fine, that we have all the equipment we need and 
the budget is fine. But, I, too, served in the military at one 
time, and I know what shortfalls can do. So, I'm asking all of 
you to submit to the subcommittee what you feel are shortfalls 
in equipment and what you feel is necessary for you to carry 
out your mission and improve your performance. So, I would hope 
that you could respond to that.
    [The information follows:]

    As we transition into a fully modernized operational force we 
continue to encounter and successfully tackle many challenges, among 
them equipping a modernized Army Reserve (AR). The AR's force structure 
is predominantly composed of Combat Support and Combat Service Support 
units, as such to effectively complete our mission, now and into the 
future we must not only ensure we fully equip our formations with the 
required quantities of equipment but we must also strive to equip them 
with the most modern and capable version available.
    The AR supports the Army's fiscal year 2011 President's budget 
which reflects the Army's highest priorities. In addition to the Army's 
fiscal year 2011 President's budget, the Army submitted a list of war-
related items where additional resources would enhance existing 
programs. The list, totaling $358.7 million, includes programs that 
support the AR.
  --Civil Affairs/Psychological Operations (CA/PsyOps) equipment for 
        Tactical Local Area Network (TACLAN) and peripheral systems for 
        Information operations and Irregular Warfare. 80 percent of the 
        CA units and 84 percent of the PsyOps units reside in the AR. 
        $55 million for TACLAN equipment will greatly enhance the AR 
        CA/PsyOps units' ability to perform their wartime mission.
  --NAVSTAR GPS: Defense Advanced GPS Receiver (DAGR). Of the $51.2 
        million request, $10.8 million will go toward filling 4,000 of 
        6,000 AR DAGR shortfall.
    The budget as submitted by the President will allow the Navy 
Reserve to carry out its mission as part of Navy's Total Force.

       AIR FORCE RESERVE UNFUNDED REQUIREMENTS LIST (PROCUREMENT)
------------------------------------------------------------------------
                                   Qty       Item Cost      Total Cost
------------------------------------------------------------------------
C-130 Large Aircraft Infra-Red        21      $3,000,000     $63,000,000
 Countermeasure System (LAIRCM)
A-10/F-16 Helmet Mounted              39         155,000       6,045,000
 Integrated Targeting (HMIT)...
C-130 Secure Line of Sight/           63         350,000      22,050,000
 Beynold Line of Sight (SLOS/
 BLOS).........................
C-5 Aircraft Structural Issues.        6      11,000,000      66,000,000
C-5 Large Aircraft Infra-Red           9      10,000,000      90,000,000
 Countermeasure System (LAIRCM)
F-16 Center Display Unit.......       24         208,333       5,000,000
AFRC ATP Procurement & Spiral         54       1,000,000      54,000,000
 Upgrade.......................
C-130 Aircraft Armor...........       79         200,000      15,800,000
C-130 Modular Aerial Spray       ( \2\ )         ( \2\ )      20,000,000
 System (MASS) (Request is for
 3600 Appropriation--
 Developmental) \1\............
C-130 Modular Aerial Spray             6       2,670,000      16,020,000
 System (MASS) (Follow-on
 Procurement Appropriation--
 Prior 3600 Funds Required)....
C-130 Crash Resistant                 76         250,000      19,000,000
 Loadmaster Seats..............
KC-135 Large Aircraft Infra-Red       15       1,000,000      15,000,000
 Countermeasure System (LAIRCM)
 Light.........................
C-130 NVIS Windows (Installs)..       64          15,625       1,000,000
C-17 Armor Refurbishment and          17         117,647       2,000,000
 Replacement...................
Security Forces Weapons &        ( \3\ )         ( \4\ )       5,500,000
 Tactical Equipment............
Trunked Land Mobile Radio        ( \3\ )         ( \4\ )       3,900,000
 (Carswell)....................
F-16 Simulation Training Device        2       1,100,000       2,200,000
 Upgrade.......................
F-16 Combined AIFF with Mode 5/       16         380,000       6,080,000
 S for RVSM & Autonomous ID
 capability....................
F-16 All WX A-G Precision Self-       54       2,222,222     120,000,000
 Targeting Capability..........
A-10 On Board Oxygen Generating       54         204,703      11,053,962
 System (OBOGS)................
                                ----------------------------------------
      Total....................  .......  ..............     543,648,962
------------------------------------------------------------------------
\1\ One Item Developmental Appropriation.
\2\ Not available.
\3\ Various.
\4\ Various items.

                     INTEGRATION WITH ACTIVE FORCES

    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I want to be on the record 
as seconding the motion and the suggestion that you've just 
made. And looking over the notes in preparation for the 
hearing, that was one thing that stood out. In looking at the 
management responsibilities that you gentlemen have, and the 
responsibilities that you have of transition to becoming more 
and more of an Active component of our military force 
structure, rather than a traditional Reserve component that's 
just called upon from time to time to join the force; you're in 
the force every day, in terms of training and mobilization 
plans, equipment, upgrades, on and on. And I can appreciate the 
fact that that's a tough, tough job, particularly since most 
folks think they are part-timers, in the Reserves.
    I was a Reserve officer, and, you know, I would put on the 
uniform from time to time, and go on Active Duty for a short 
period of time. One of the most enjoyable experiences was being 
an instructor at Officer Candidate School in Newport, Rhode 
Island. I thoroughly enjoyed that. I worked a good deal with 
the Navy that, during--when law school wasn't meeting, I'd get 
to go back on Active Duty and be an instructor, because it was 
building up for the Vietnam challenges and the things that were 
going on right then. That was a new program, they were trying 
to supplement their teaching complement with Reserve officers. 
Well, that was terrific for me. I didn't have to go work in a 
law firm as a clerk or something for a summer job.
    But, I wonder, are we making the adjustments? Do we need to 
do something, like provide funding specifically dedicated for 
these purposes of reorganizational changes that have to be 
made, and resetting the force, so that you can operate 
seamlessly as an Active Duty force, at a moment's notice?
    General Kelly. Well, sir, from the Marine Corps 
perspective, just talking about these reset issues and the 
equipment issues and all, I think we're unique, in that our 
Reserve units, as they're spread around the country, have a 
training allowance to work with, and that is sufficient for 
them to keep up with their training. And then, of course, as 
they get closer and closer to deploying to Afghanistan or Iraq, 
once mobilized, they get all their equipment and move to 
training sites and get ready to go. So, from my perspective, if 
the Marine Corps has got a problem, then I have the same 
problem. And, of course, the reset--Commandant, I think, has 
testified in this subcommittee, and others, that our reset and 
reconstitute bill, Marine Corps-wide, is something in the 
neighborhood of $13 billion. If you address that, you address 
my issues. But, again, I think I'm a little bit unique than the 
other services are, I believe.
    Senator Cochran. General.
    General Stenner. Senator Cochran, I will tag onto that, 
saying that we are probably also, as an Air Force, more closely 
aligned, and the equipment that we have, we share, in the 
association models. So, when the Air Force recapitalizes, all 
three components recapitalize. But, I will tell you that 
there's an awful lot of changing of mission sets right now. And 
some of the things that are going on with intelligence, 
surveillance, reconnaissance, cyberspace, space missions, the 
things that happen when you are deployed in place, so to speak, 
at home station, require a good bit of infrastructure 
modification. And in a lot of cases, with those new missions, 
and the high tech that comes with them, there comes a bill. So, 
the old facilities don't marry up. The infrastructure, the 
facilities, sustainment, restoration (FSRM) dollars that we 
need on a continuing basis to keep those facilities going, and, 
in some cases, the Milcon necessary to transition to new 
mission, are both as important to us, as an Air Force, as the 
recapitalization piece that goes into that.
    And the NGREA dollars we leverage to facilitate an 
expeditious recapitalization is also, of course, very, very 
important to us, as well.
    Senator Cochran. Admiral.
    Admiral Debbink. Senator, I would offer that, as our CNO 
has stated, we are one Navy today, with an Active component and 
a Reserve component. And that type of integration has driven us 
to the point that we work very closely with all of our 
procurement. Couple of examples might be, for example, anytime 
the Navy needs to fly logistics anywhere, it flies on Navy 
Reserve aircraft. Now, it just says ``Navy'' on the side, but 
they're actually Navy Reserve aircraft. Anytime our special 
operations forces over in Afghanistan get on a helicopter at 
night, it's a blended squadron of Active and Reserve getting 
onto those HH-60s. And so, that's a fully supported mission. We 
stood up our fourth riverine force. We're in process of doing 
so right now. And that'll be also a blended mission, Active and 
Reserve.
    I think the real key to all of these procurement accounts 
is what we list as our second strategic focus area, and that is 
to provide valued capabilities. And if we are doing that as a 
Reserve component, the resourcing will follow, to the extent 
that it can, with the overall constraints on the budget.
    Senator Cochran. General.
    General Stultz. I guess I get to be the naysayer.
    I think the challenge we face today is, we have 
operationalized the Army Reserve. We are using the Army Reserve 
as part of the total force on a repeated basis, and we have 
developed a cyclical model, called our Army Force Generation 
Model, that says--the Army is on this same model, where--1 year 
forward, 2 years back home; the Reserve is 1 year forward, 4 
years back home. And that means that you go through a cycle of 
progressive readiness, where you're building capability so 
that, when you come into that available window, you're trained, 
ready, and equipped. That means that each year in that cycle, 
you are required increased support for equipment, increased 
support for training dollars, because there's more expected of 
you to get ready.
    The problem is, our budget and our funding is based on the 
Army Reserve you came into; one weekend a month, 2 weeks in the 
summertime. It's not based on this operational model. And so, 
everything that we're funding today, in most cases, to put the 
units through that model--and we do, and we get 'em out, best 
trained, best qualified, ready to go--is based on overseas 
contingency operation dollars or supplemental dollars that 
we've gotten.
    What we have to do is, we've got to get those dollars 
identified and put them into the base budget of the Army and 
the Army Reserve as requirements for the future, because we're 
going to be in an extended period of conflict. And when we have 
put so much capability in our Reserve components today--the 
Army Reserve that I have today accounts for 60 percent of the 
Army's medical capability. Over 80 percent of its civil affairs 
capability. At least one-third or more of the engineer, 
logistics, and transportation capability. And if you combine us 
with the National Guard, 75 percent of the engineer capability 
of the Army is in the Reserve components. You cannot fight an 
extended conflict without reliance on the Reserve as part of 
that operational force. Yet, we haven't built the budget model 
to allow it to do that.
    And I think that's the challenge, as we're looking forward 
into the 2012-17 years, is that we've got to put that into the 
budget. And the Army has to figure out how to accommodate that, 
because we know we're going to be in a period of, you know, 
limited budget increases. But, we're going to have to--if we 
operationalize the Reserve--and, in my opinion, we don't have a 
choice--then we've got to put those dollars required for 
training, for equipping, all that, into the base budget. And 
that training has to be, not just at a training center 
somewhere, where you send 'em for that 2 week, 3 week, or 
whatever, period of training, it's also got to be the training 
capability when they're in their home station, that they're 
getting meaningful training.
    You know, soldiers tell me today, ``Don't waste my time. 
You know, if you're going to have me come to a weekend drill, 
make it meaningful.'' And we've got soldiers now that are 
coming back from their second and third deployment, and the 
last thing they're going to accept is for us to send 'em to a 
Reserve unit on a Saturday and sit 'em in a classroom. They 
want something meaningful. They've been there, they've done 
that. They want that piece of equipment that they've just been, 
in theater, operating; not coming back home and looking at that 
30-year-old truck that they're saying, ``We don't use that 
anymore.''
    So, that's the challenge. Yes, sir, we've got to get more 
resourcing into our budgets for the Reserve component if we're 
expected to use it as an operational force, which I think we 
don't have an option; it is part of that force.
    Senator Cochran. Thank you very much. Thank you for your 
leadership and your service.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. And we thank you very much, gentlemen, for 
your testimony this morning. And we thank you for your service 
to our Nation. And we thank the men and women of your command 
for their service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General Jack C. Stultz
            Questions Submitted by Chairman Daniel K. Inouye
                   transition to operational reserve
    Question. General Stultz, the Army Reserve continues to transition 
from a strategic to an operational reserve. Do you believe the Army is 
adequately resourcing the Reserve to make this transition?
    Answer. The Army is committed to maintaining a trained and ready 
Reserve Component force as full participants in the ARFORGEN process. 
Steady state funding to achieve this goal is a topic for our fiscal 
year 2012 budget deliberations. The Army National Guard and the Army 
Reserve, like the Active Army, currently rely on Overseas Contingency 
Operations funding to resource readiness for the current fight 
including pre-mobilization training and reintegration activities. We 
anticipate working with the Army National Guard and the Army Reserve to 
come to a consensus position on this issue.
    Question. What are the biggest challenges still remaining?
    Answer. The Army and Army Reserve is currently evaluating the 
resource requirements to achieve an ``operational reserve'' in the 
fiscal year 2012-17 POM. Decisions on fill level for full time staff, 
funded training days, and type of training will all drive the cost of 
operationalizing the reserve component. The Army has not yet validated 
the $1.5 billion training cost estimate and anticipates there are cost 
impacts beyond training that must be evaluated.
    Question. General Stultz, the transition to the operational reserve 
has increased the need for full time support personnel. The Army was 
supposed to conduct an analysis 2 years ago to reevaluate the Reserve's 
full time support requirements but, so far, these studies have failed 
to produce actionable results. What is delaying this decision?
    Answer. Creating a sustainable operational Reserve Component 
requires competition for scarce resources. The Army has validated the 
requirements reflected in the 2005 report and the optimal solution is 
100 percent manning of the validated requirement. However, given 
funding constraints and the past 8 years experience, the Army Reserve 
has proven we can provide trained and ready units, within the current 
required timeframes, with our current level of Full-Time manning 
augmented by a substantial level of Full-Time Equivalents using ADOS to 
build readiness in ARFORGEN and support RTC/CSTC requirements. That is 
why we have supported FORSCOM's operational model as the minimum 
critical requirement for the 2012-17 POM.
                                 ______
                                 
          Questions Submitted to Vice Admiral Dirk J. Debbink
            Questions Submitted by Chairman Daniel K. Inouye
                          continuum of service
    Question. Admiral Debbink, the Navy Reserve has initiated a program 
called the Continuum of Service which would allow sailors to easily 
transition between active and reserve service. This is a novel approach 
to the idea of military service. What is the status of this program and 
has it been successful so far?
    Answer. Continuum of Service (CoS) is a Total Force imperative and 
one of my three Strategic Focus Areas for the Navy Reserve. CoS 
reflects the reality of our Navy--as our Chief of Naval Operations, 
Admiral Gary Roughhead, states, ``we are one force today. One Navy, 
with an Active Component and a Reserve Component.'' This is what CoS is 
about--bringing together our active component (AC) and reserve 
component (RC) to provide an integrated and balanced Force to meet 
current and emerging challenges in the most cost-effective way 
possible, while concurrently honoring all our Sailors who desire to 
serve our country to the best of their ability.
    We have been very successful with the implementation of our CoS 
strategy since we launched it in fiscal year 2009. As barriers to 
seamless movement between the AC, the RC and civilian service are 
removed, our ability to deliver operational flexibility and strategic 
depth at the best value to the Navy increases dramatically. The CoS 
philosophy of recruiting Sailors once and retaining for life through 
variable and flexible service options is providing Sailors a career 
continuum of meaningful and valued work.
    CoS is forcing us to think differently and make major changes in 
the way we do business, including changes to regulations, policy and 
law. We now have systems and business processes in place to ease the 
transition between components. For example, AC Sailors can now choose 
to affiliate with the Selected Reserve while still on active duty, 
eliminating the requirement to be re-recruited into the RC upon leaving 
active service. At the Naval Personnel Command, a Career Transition 
Office (CTO) was established to support optimized assignment of 
personnel into available Navy active and reserve billets, decreasing 
transition processing times and error rates while increasing reserve 
Sailor transition and affiliation rates. We started with officers 
transitioning from AC to RC, and immediately realized positive results 
by nearly doubling Navy Veteran officer affiliation rates from 28 
percent to 53 percent. We have recently expanded the program to include 
enlisted Sailors transitioning from AC to RC. In the future, the CTO 
will handle all officer and enlisted transitions from AC to RC and RC 
to AC, except mobilizations.
    Foremost among my list of priorities is to field a Total Force 
Future Pay and Personnel System (FPPS). The Navy and Navy Reserve 
currently have separate pay and personnel systems, designed and built 
in an era when Sailors rarely mobilized or transitioned between 
components. FPPS would support the timely and seamless transition on 
and off active duty without the existing delays and confusion regarding 
pay and benefits. The development of FPPS is the Navy Reserve's top 
priority for 2010.
                   career intermission pilot program
    Question. Currently reservists have numerous opportunities to 
transition to active service but only a small number of active duty 
sailors, who are part of a pilot program, have opportunity to make a 
short term transition to the reserve. Do you see this pilot program 
expanding for active duty sailors?
    Answer. Our Continuum of Service (CoS) initiatives provide several 
ways for Sailors to transition back and forth between components over 
the course of a career. Navy Personnel Command's Career Transition 
Office engages Sailors nearing the end of their active service 
obligation, aiding and incentivizing them toward affiliation with the 
Reserve Component.
    Navy's Career Intermission Pilot Program, authorized by Congress in 
the fiscal year 2009 NDAA, is just one of the ways to transition 
between components. It provides a one-time temporary transition from 
active duty to the Individual Ready Reserve for up to 160 service 
members during the timeframe from 2009-2012, to pursue personal or 
professional growth outside the service while providing a mechanism for 
their seamless return to active duty. At the end of the program 
participation, the member returns to active duty service with an 
adjusted Pay Entry Base Date, or lineal number, to reflect service time 
commensurate with their peers and to ensure continued promotion 
opportunity. Based on the Congressional authorization, similar programs 
are currently being developed by the U.S. Army and the U.S. Air Force 
for summer 2010 and the Department intends to request permanent 
authority for this program in the fiscal year 2013 NDAA.
    The limited number of active duty sailors who are participating in 
the pilot program to date may reflect the current economic environment, 
as well as other factors which we are assessing. We feel it is 
important to offer our Sailors multiple avenues to transition between 
components to accommodate individual circumstances. Though any one 
program may not seem to be significant, the opportunities represented 
by the aggregate of our CoS programs are one of the main tenets of our 
``Top 50 Organization'' emphasis.
            navy and marine corps reserve officer recruiting
    Question. Admiral Debbink and General Kelly, over the last several 
years both the Navy and Marine Reserves have struggled with officer 
recruiting. The Marine Reserve is now back to its authorized end 
strength but the Navy Reserve is still facing a serious officer 
shortage, due to years of low recruiting. Have you shared strategies 
for attracting and retaining reserve officers? What measures are being 
considered by the Navy Reserve to address remaining shortages?
    Answer. Due to the different target populations for Navy Reserve 
and Marine Corps Reserve Officer Recruiting, General Kelly and I have 
not engaged in detailed strategy discussions for attracting and 
retaining reserve officers. However, the Chief of Naval Personnel and I 
have a shared vision of implementing initiatives and programs to have 
all Reserve communities ``healthy by 2014.''
    Navy Reserve Recruiting difficulties are mostly concentrated in 
recruiting personnel with highly sought-after skills--both in the 
military and in the private sector--and capturing our warfare qualified 
Navy veterans. High retention within the active component has limited 
the pool of veteran officers and has increased our reliance on Direct 
Commission Officers to meet annual recruiting goals. Over the last 
couple of years, our primary challenge has been in recruiting Reserve 
Medical Officers, where our goal increased 43 percent in fiscal year 
2010 alone. Another challenging officer community is Special Warfare/
Special Operations, a community that is in high demand supporting 
overseas contingency operations.
    Our primary recruiting challenge for fiscal years 2010 and 2011 
will be in the Navy Veteran (NAVET) market. As more Navy Officers opt 
to remain on active duty, which is truly good news for Navy, the NAVET 
goal is becoming increasingly difficult to achieve. Despite historical 
lows in RC officer attrition, increasing Reserve Component (RC) 
retention will help alleviate the some of the shortfalls in specific 
communities and pay-grades. Navy has several measures and initiatives 
in varying stages of implementation to improve RC officer manning 
including: (1) expansion of lateral transfer opportunities, (2) 
flexible mobilization policy for medical professionals, and (3) 
implementation of a RC officer retention bonus. Improving RC officer 
retention, increasing and expanding our DCO program, and capturing a 
larger percentage of the NAVET market, are all elements of our strategy 
to attract and retain officers to meet our goal of getting healthy by 
2014.
    Question. Admiral Debbink, how is the shortage of officers, 
particularly in critical specialties, affecting the readiness of the 
Naval Reserve?
    Answer. Overall, the shortage of officers in the Navy Reserve has a 
limited affect on the readiness of our Force. However, we do have 
significant shortages of officers in two major categories: Healthcare 
Professionals in Critical Wartime Specialties (to include Medical 
Corps, Dental Corps, Nurse Corps, and Medical Service Corps); and 
critical undermanned non-healthcare designators (to include SEALs, 
Civil Engineer Corps, Supply Corps and Explosive Ordinance Disposal 
(EOD) officers). Each of these communities is undermanned and faces 
possible shortfalls in meeting dwell time targets, placing those 
communities under continuous stress.
    During fiscal years 2007-2009, high mobilization demand had a 
direct (though not necessarily causal) relationship to high officer 
attrition, particularly for junior officers. The Navy is considering 
options for better managing demand for critical Reserve Component (RC) 
specialties, including adjusting Total Force deployment schedules to 
improve Reserve mobilization dwell times, and deleting or not filling 
some Overseas Contingency Operations requirements that would require 
unacceptable dwell times, resulting in additional stress on the Active 
Component as well as the Joint Force. Additionally, the use of 
incentive programs has increased Navy's ability to assess officers and 
increase retention in these stressed communities, but there are still 
projected shortfalls in some communities for several years.
                                 ______
                                 
        Questions Submitted to Lieutenant General John F. Kelly
            Questions Submitted by Chairman Daniel K. Inouye
               marine corps reserve--strain on the force
    Question. General Kelley, the Marine Corps Reserve is maintaining a 
high operational tempo with nearly one-fifth of the force mobilized 
this year. Over 20,000 Marine reservists have been deployed more than 
once since 2001. This must put a huge strain on your reservists, their 
families, and employers. How is this high operational tempo affecting 
morale?
    Answer. In my travels across the numerous sites and facilities that 
comprise MARFORRES, I routinely encounter Marines from all walks of 
life and military job specialties. For the most part, they are a well 
seasoned force of combat veterans whose pride in their accomplishments 
serving this nation may be exceeded only by the level of their morale. 
They have a strong desire to stay in the fight, to be part of the Total 
Force Marine Corps even as hostilities in the current conflicts start 
to wane. That they still are willing to stand strong while having to 
balance civilian employment in addition to family concerns is a 
testament to their patriotism and esprit de corps. We certainly 
recognize the costs associated with the current operations but have 
mitigated them to a large degree with the use of our Force Generation 
Model, which provides needed predictability for the Marines, their 
families, and their employers.
    Question. General Kelley, the active duty Marine Corps has now 
completed its end strength growth. Will this reduce the operational 
tempo for the Marine Reserve?
    Answer. The Marine Corps Total Force--Reserve and Active 
Components--are now in balance and both are approaching the 
Commandant's desired dwell time. So long as we are involved in a major 
overseas contingency operation this balance will be maintained. To the 
specific question, Yes, I expect the tempo will be reduced to the 
benefit of the Operational Reserve. This should stabilize our dwell 
time to meet or exceed the desired one to five ratio, and add to our 
already established unit deployment predictability for our Reserve 
Marines, their families, and their employers. It will allow us to 
continue to use the MARFORRES Force Generation Model to ensure our 
Reserve units are ready to answer the nations call in the face of any 
future contingency or requirement. We have achieved a very favorable 
balance with the Active Force at 202,000 and the Reserve Force at 
39,600, allowing the Operational Reserve to maintain its place as an 
integral and enduring part of the Total Force.
                                 ______
                                 
   Questions Submitted to Lieutenant General Charles E. Stenner, Jr.
            Questions Submitted by Chairman Daniel K. Inouye
                      air force reserve--retention
    Question. General Stenner, after several years of low retention, 
the Air Force Reserve has completely turned around its retention 
levels, improving retention by over 20 percent for First-Term Airmen. 
What is driving the improved retention and what are you doing to ensure 
that high retention continues?
    Answer. The Air Force Reserve's continued recruiting and retention 
success is due to a variety of factors, but one of the most concrete is 
the support we have received in recent years from the President and 
Congress. By enhancing incentives for service, they have recognized the 
critical contributions of Reservists and rewarded Reservists for that 
service. As a highly trained, experienced, and cost effective strategic 
reserve force, our members serve proudly, providing operational 
capability on a daily basis. In return, Congress (at the urging of the 
Reserve Officer Association and other support organizations) has 
provided numerous improvements in benefits our Reservists receive. 
These include flexibility in terms of service requirements, competitive 
pay, improved retirement benefits, inactive duty training (IDT) travel 
pay, Post 9/11 GI Bill education benefit, affordable TRICARE for 
members of the Selected Reserve, targeted pay for critical career 
fields, and reducing the age a retired Reservist may begin receiving 
retirement benefits based on their service participation.
    To ensure our continued retention, I frequently seek feedback on 
the issues important to Reservists and then I act to address their 
concerns. One of the methods I use to solicit feedback from our 
Reservists is a process known as the Reserve Internal Communication 
Assessment Group (RICAG). In fact, one incentive initiated based on 
information from a RICAG, the TRICARE Retired Reserve program, is 
expected to begin this fall.
    Another factor important to Reservists, their families, and 
employers is predictability. We continue to improve the predictability 
and sustainability of deployments and participation in contingency 
operations, making it easier for members to volunteer, mobilize, and 
deploy. These enhancements are important steps in maintaining the Air 
Force Reserve's high retention rates which are critical to sustaining 
our professional Reserve force.
    Question. General Stenner, the Combat Air Force restructure is just 
starting, are you concerned about its affect on retention levels?
    Answer. The Combat Air Force restructuring plan enables the Air 
Force to move manpower authorizations to emerging and priority missions 
such as manned and unmanned surveillance operations and F-35 training 
or operational missions. Within this realignment, the Air Force Reserve 
will continue to offer citizen Airmen the opportunity to serve and 
support all mission sets across the spectrum of air, space and cyber. 
In part, through normal attrition (due to separations, retirements, 
etc.) and with Air Force Reserve end-strength increasing to 
approximately 72,100 Airmen, the Air Force Reserve is putting the right 
Airmen in the right jobs to meet mission requirements. This realignment 
will not affect the overall retention for the Air Force Reserve.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Appropriations Subcommittee 
will reconvene on Wednesday, April 14, at 10:30 a.m., at which 
time we will meet in closed session to receive testimony on 
fiscal year 2011 budget request for intelligence activities.
    The subcommittee stands in recess.
    [Whereupon, at 11:54 a.m., Wednesday, March 24, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, April 14.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Feinstein, Bond, and 
Shelby.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL PATRICK J. O'REILLY, 
            DIRECTOR

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. I'm pleased to welcome Lieutenant General 
Patrick O'Reilly, Director of the Missile Defense Agency (MDA), 
before the subcommittee to discuss the fiscal year 2011 budget 
request for missile defense.
    The request before us today continues the administration's 
efforts to achieve three goals: sustaining homeland defense 
against intercontinental ballistic missiles; increasing focus 
on defense against regional threats; and procuring and fielding 
proven technologies.
    In fiscal year 2011, MDA's budget requests totaled $8.4 
billion, a $500 million increase over fiscal year 2010. And I'm 
pleased to note that the request includes increases of $300 
million for ground-based missile defense (GMD), $245 million 
for aegis ballistic missile defense, and $160 million for 
theater high altitude defense over the levels approved by 
fiscal year 2010.
    These near-term programs are providing missile defense 
assets today, a capability that this subcommittee strongly 
supported for many years. However, even these near-term 
programs have challenges. First, the GMD program had a failed 
intercept test last January that is still under review. 
Industrial-based challenges threaten the continued production 
of the ground-based interceptor missiles. And there is concern 
over whether the program has enough test articles to ensure its 
reliability out to 2032.
    Second, because of the continued success and steadfast 
progress of the aegis BMD system, the administration is now 
demanding more of the program, which presents new risks and new 
challenges. The aegis program is involved in several 
simultaneous efforts, concurrently developing multiple upgrades 
to the standard missile, upgrading ships, conducting intercept 
tests, and starting the aegis ashore program to deploy land-
based versions of the system in Europe.
    Furthermore, fiscal year 2010 is the last year of the 
standard missile block IA production, even though we have not 
yet begun to test the next block upgrade. At a time when the 
combatant commanders are clamoring for more aegis missiles on 
their deployed ships, this seems like a risky proposition. And 
it is of particular concern, considering the test's schedule 
delays of the new missile.
    Finally the terminal high altitude area defense (THAAD) 
program has demonstrated remarkable achievements over the past 
few years. Accordingly, MDA is now being called on to more 
rapidly procure and deploy THAAD batteries to the Army and 
conduct more rigorous and demanding tests of the system.
    And so, I look forward to the hearing today on the progress 
of these three programs that provide the foundation for missile 
defense for the United States and our friends and allies around 
the globe.
    In addition, MDA has many other programs that support the 
current and future missile defense architecture that we will 
discuss today.
    The vice chairman is now involved in another subcommittee, 
so may I call upon Senator Shelby. Do you have anything?
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Chairman, I appreciate this hearing that you've called. 
And I look forward to hearing from General O'Reilly.
    Chairman Inouye. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I'm not able to stay for the 
entire hearing, but I wanted to be here and welcome the 
General. And I will put my statement in the record.
    Thank you very much.
    Chairman Inouye. Your statement will be accepted for the 
record and the subcommittee has also received statements from 
Senators Cochran and Bennett which will also be included in the 
record.
    [The statements follow:]

             Prepared Statement of Senator Byron L. Dorgan

    I would like to personally thank you, Lieutenant General 
O'Reilly, for appearing before this subcommittee to discuss our 
nation's missile defense. The defense of our great nation 
against nuclear or some other type of missile attack is a very 
important mission, and you are key to executing that mission. I 
look forward to discussing this important topic with you today.
                                ------                                


               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased in joining you in welcoming 
Lieutenant General O'Reilly to testify before our subcommittee 
today.
    Providing for the Nation's defense is an important and 
basic responsibility, and a functional, capable missile defense 
system is a key component of our national defense strategy as 
adversarial nations continue to pursue the capability to launch 
mid and long range rockets and missiles.
    As Iran continues to pursue a nuclear capability, and as 
nuclear and missile technology continues to proliferate, we 
need to ensure efforts to modernize our missile defense system 
continue to address these growing threats. I am pleased to see 
that this budget recommends increased funding for missile 
defense programs, but I know there are still many challenges in 
making sure we meet the needs of the warfighter and stay one 
step ahead of emerging threats.
    General O'Reilly, I look forward to hearing your testimony 
today to help inform the subcommittee as we consider the fiscal 
year 2011 funding needs for the Department of Defense.
                                ------                                


            Prepared Statement of Senator Robert F. Bennett

    Mr. Chairman, Senator Cochran, I thank you for holding this 
hearing to examine our nation's missile defense programs, and 
appreciate the dedicated interest you direct toward this 
critical work. General O'Reilly, please accept my appreciation 
and that of my constituents for the fine work you are doing at 
the agency.
    We live at a time when there is talk of a ``potential'' or 
``growing'' missile threat from another nation almost every day 
in the news, on the Internet, and on the television. Suffice it 
to say, the MDA's mission to ``deploy . . . an effective 
National Missile Defense system capable of defending the 
territory of the United States against limited ballistic 
missile attack'' is more important now than ever.
    It's no small thing--as some have described the challenge 
of intercepting an enemy missile, to ``hit a bullet with a 
bullet.'' Doing so requires developing a smart system that can 
identify and develop technologies worthy of taxpayer funding, 
and equal to meet the high charge given to the MDA. Given the 
ever-evolving threat environment, my interest lies in seeing 
that the MDA's plans to protect our nation now and in the 
future are adequate for the demands of our national security, 
and are based in proven concepts and technologies, rather than 
theory alone or unrealistic expectations. In addition, I am 
eager to hear how the agency plans to address industrial 
concerns for the production of solid rocket motors. For better 
and worse, the Federal government (i.e. the administration), 
doesn't always act as the monolithic whole that the outside 
world often perceives. Specific agencies pursue their various 
agendas, often without realizing how their individual decisions 
will affect the condition of others. Such unintended 
consequences could be mitigated if not largely avoided if the 
administration, taking into consideration procurement at NASA, 
DOD, and MDA, would provide a comprehensive, strategic 
response.
    While I'm fully aware of the many challenges already on 
your plate, I hope that you will energetically continue to find 
solutions to all of the agencies challenges as you work to 
promote the security of our nation. I look forward to our 
discussion and hearing your testimony.

    Chairman Inouye. General, it's your show, sir.

      SUMMARY STATEMENT OF LIEUTENANT GENERAL PATRICK J. O'REILLY

    General O'Reilly. Good morning, Chairman Inouye and other 
distinguished members of the subcommittee.
    It is an honor to testify before you today on the Missile 
Defense Agency's activities to continue developing and fielding 
an integrated, layered ballistic missile defense system to 
defend the United States, its deployed forces, allies, and 
friends.
    Under the oversight and direction of the Department of 
Defense's Missile Defense Executive Board, the Missile Defense 
Agency proposes an $8.4 billion fiscal year 2011 program that 
is balanced to achieve the six policy goals in the Ballistic 
Missile Defense Review report and the combatant commanders' and 
services' missile defense needs, as stated in the latest U.S. 
Strategic Command's prioritized capabilities list.
    First, defense of the homeland against limited attack: We 
continue to upgrade the ground-based midcourse defense system 
to increase reliability, survivability, ability to leverage a 
new generation of missile defense sensors, and testing to 
accredit our simulations. Missile fields in Alaska are in an 
optimum location to intercept missiles from either northeast 
Asia or the Middle East. The purchase of five additional 
ground-based interceptors and the production of components to 
support extensive reliability testing and missile refurbishment 
will sustain our production capacity until 2016 and critical 
component manufacturing beyond 2020.
    Second, defense against regional threats: By 2015, we plan 
to buy 436 SM-3 IA and IB interceptors, 431 THAAD interceptors, 
14 AN/TPY-2 radars, 9 THAAD batteries, and have 38 ballistic 
missile defense-capable ships available.
    Our regional missile defenses are adaptable to the unique 
circumstances of each combatant command. For example, we 
determined, based on updated intelligence estimates, that our 
previous plan for the defense of Europe could be rapidly 
overwhelmed, and thus made ineffective, by the large number of 
Iranian medium-range ballistic missiles today. Additionally, 
the previous program did not cover most of southeastern Europe 
that is exposed to today's ballistic missile threats, would not 
have been available till 2017, and would have not been 
adaptable to changes in future threats to Europe.
    Therefore, we plan to deploy a larger number of 
interceptors in Europe in four phases as the missile threats 
from the Middle East evolve. The first two phases, in 2011 and 
2015, respectively, provide protection against short- and 
medium-range ballistic missiles. The third phase, in 2018, 
provides protection against intermediate ballistic missiles. 
And the fourth phase, in 2020, provides capability to intercept 
intercontinental ballistic missiles from the region in which 
they are launched.
    Third, prove the ballistic missile defense system works: We 
have submitted a comprehensive integrated master test plan, 
signed by the Director of Operational Test and Evaluation, the 
services' operational test agencies, and the Commander, U.S. 
Strategic Command, to ensure we fly our missiles before we buy 
them.
    The two greatest challenges we face in developing missile 
defense is acquiring cost-effective, reliable targets and 
improving quality control of all products. Over the past year, 
we've initiated a new target acquisition strategy to increase 
competition, improve quality control, reduce costs, and provide 
backup targets, starting in 2012.
    However, the precise performance of missile defense systems 
requires stringent manufacturing standards. Until we complete 
planned competitions, including the greater use of firm fixed-
price contracts and defect clauses, we have to motivate some 
senior industry management through intensive inspections, low 
award fees, insuring--or issuing cure notices, stopping the 
funding of new contract scope, and documenting inadequate 
quality control, to influence future contract awards.
    Fourth, hedging against threat uncertainty: In accordance 
with warfighters' priorities, we are focusing our future 
technologies to develop more accurate and faster tracking 
sensor platforms to enable early intercepts, enhance command 
and control networks to rapidly fuse sensor data to handle 
large raid sizes, develop a more agile SM-3 interceptor to 
destroy long-range missiles, to enhance discrimination of 
reentry vehicles from other objects, and to develop high-energy 
laser technologies.
    Fifth, develop new fiscally sustainable capabilities over 
the long term: The Missile Defense Agency is complying with the 
Weapons System Acquisition Reform Act of 2009 by establishing 
and managing six baselines: cost, schedule, technical, tests, 
contract, and operational baselines, increasing service in 
COCOM participation and increasing emphasis on the competition 
in all phases of a program's acquisition lifecycle. We are 
reviewing over $37 billion of contracts for competition over 
the next 2 years.
    Six, expand international missile defense cooperation: We 
are currently engaged in missile defense projects, studies, and 
analysis with many countries including Japan, Poland, the Czech 
Republic, Israel, Australia, the United Kingdom, Germany, South 
Korea, NATO, the United Arab Emirates, Bahrain, Saudi Arabia, 
and Kuwait. Additionally, Poland and Romania have agreed to 
host our aegis ashore sites, and we cooperatively developed the 
SM-3 IIA interceptor with Japan.
    We also continue to support expert dialogue on cooperative 
efforts with the Russian Federation, whose surveillance radars 
would enhance our ability to monitor ballistic missile 
development and flight testing in southwest Asia.

                          THE NEW START TREATY

    Relative to the recently expired START Treaty, the new 
START Treaty actually reduces constraints on the development of 
missile defense programs. Unless they have new START-
accountable first stages, which we do not plan to use, our 
targets will no longer be subject to START constraints which 
limited our use of air-to-surface and waterborne launches of 
targets which are essential for cost-effective testing of 
missile defense interceptors against medium- and intermediate-
range ballistic targets in the Pacific area. In addition, under 
new START, we will no longer be limited to five space-launch 
facilities for target launches.
    Additionally, the new START Treaty does not constrain 
deployment of ballistic missile defense. Article V, section 3 
of the treaty prohibits the conversion of intercontinental or 
sea-based launch ballistic missiles--launchers--to missile 
defense launchers and vice versa, while grandfathering five 
former intercontinental ballistic missile (ICBM) silos at 
Vandenberg Air Force Base, already converted for ground-based 
interceptors.
    MDA never had a plan to convert additional ICBM silos at 
Vandenberg. Moreover, we determined that if more interceptors 
were to be added at Vandenberg Air Force Base, it would be less 
expensive to build a new ground-based interceptor missile 
field, which is not prohibited by the treaty.
    Regarding submarine-launched ballistic missile launchers, 
some time ago, we examined the concept of launching missile 
defense interceptors from submarines, and found it unattractive 
and an extremely expensive option. As the subcommittee knows, 
we have a very good and significantly growing capability for 
sea-based missile defense on aegis-capable ships.
    In conclusion, MDA is teamed with the combatant commanders, 
services, other DOD agencies, academia, industry, and our 
international partners to address the challenges of managing, 
developing, testing, and fielding capabilities to deter the use 
of ballistic missiles and effectively destroy them, once 
launched.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman. And I look forward to answering 
the subcommittee's questions.
    [The statement follows:]
      Prepared Statement of Lieutenant General Patrick J. O'Reilly
    Good morning, Chairman Inouye, Senator Cochran, other distinguished 
Members of the Committee. It is an honor to testify before you today on 
the Missile Defense Agency's support to the Ballistic Missile Defense 
Review (BMDR) and our $8.4 billion fiscal year 2011 budget request to 
continue our mission to develop and field an integrated, layered, 
Ballistic Missile Defense System (BMDS) to defend the United States, 
its deployed forces, allies, and friends against ballistic missiles of 
all ranges and in all phases of flight. This budget request reflects 
the strategy and policy stated in the BMDR report and the prioritized 
missile defense needs of our Combatant Commanders and the Services as 
stated in the latest U.S. Strategic Command's (USSTRATCOM) Prioritized 
Capabilities List (PCL).
    The Missile Defense Agency has been operating in accordance with 
the principles outlined in last year's Weapons System Acquisition 
Reform Act. This includes establishment of formal baselines for the 
system component managers, Service participation through the 
USSTRATCOM-led Warfighter Involvement Process, and increased emphasis 
on competition at all phases of a program's acquisition life cycle. All 
of these steps, I believe, will maximize the return on the taxpayer's 
investment dollar.
    Under the oversight and direction of the Missile Defense Executive 
Board (MDEB), chaired by the Under Secretary of Defense for 
Acquisition, Technology and Logistics (AT&L), MDA proposes a fiscal 
year 2011 program that is balanced to achieve the six strategy and 
policy goals documented in the BMDR report:
  --Defend the homeland against a limited ballistic missile attack;
  --Defend U.S. forces, allies, and partners against regional threats;
  --Deploy new systems only after effectiveness and reliability have 
        been determined through testing under realistic conditions;
  --Develop new capabilities that are fiscally sustainable over the 
        long term;
  --Develop flexible capabilities that can be adapted as threats 
        change; and
  --Expand international cooperation.
             defense of the homeland against limited attack
    The Ground-based Midcourse Defense (GMD) system forms the 
foundation of our homeland missile defense against limited ICBM attack 
today. We continue to upgrade GMD to increase reliability and 
survivability and expand the ability to leverage new BMDS sensors as 
well as test GMD to accredit our simulations. Since the beginning of 
fiscal year 2009, MDA has delivered five new GBIs, upgraded Fire 
Control and Command Launch Equipment software, completed construction 
of a second GBI missile field at Fort Greely, Alaska, and delivered a 
new silo and an additional In-Flight Interceptor Communication System 
Data Terminal at Vandenberg Air Force Base, California. Additionally, 
we are completing the missile defense upgrades to the Upgraded Early 
Warning Radar (UEWR) in Thule, Greenland, and we have transferred 
operation of the Cobra Dane Early Warning Radar and the Beale and 
Fylingdales UEWRs to the Air Force. We are continuing planning and 
design work to upgrade the Clear, Alaska Early Warning Radar.
    We are requesting $1.3 billion in fiscal year 2011 for GMD to 
continue our GBI refurbishment and reliability sustainment programs to: 
help sustain the fleet to 2032 and support a service life extension 
decision around 2027; procure an additional 5 GBIs; complete Missile 
Field 2 in a 14-silo configuration to accommodate a contingency 
deployment of eight additional GBIs; upgrade GMD Fire Control ground 
system software to ensure GMD leverages BMDS increased discrimination 
and tracking capability as sensor, data fusion and battle management 
network matures; and complete the installation of a second GMD command 
and control node at Fort Greely, Alaska. Additionally, we will continue 
operations and sustainment of the Sea-Based X-band radar (SBX) platform 
to prepare for transfer of the SBX operations to the U.S. Navy in 2012. 
Finally, we will continue development of technologies to enhance 
Standard Missile 3 (SM-3) variants to protect our homeland in the 
future by having the capability to intercept long-range ballistic 
missiles early in flight in the regions from which they were launched. 
To validate this concept, the Under Secretary of Defense (AT&L) 
requested the Defense Science Board independently assess the viability 
of developing capability for early intercept of ICBMs. Our GMD 
sustainment, refurbishment and test strategy gives us the flexibility 
to adjust to the uncertainty in the future ICBM threat. Although, we 
experienced a GBI vendor production break after the last procurement of 
GBIs in 2006, the purchase of 5 additional GBIs, and supplying 
``limited life'' GBI components for refurbishments will sustain our 
production capacity until 2016 and beyond. We will conduct stockpile 
surveillance of GBIs by testing all limited life components as GBIs are 
refurbished through 2032. Data collected from future GMD flight tests, 
results from the aging surveillance program, and future intelligence 
estimates regarding the pace of ICBM growth will inform decisions on 
the need to procure additional GBIs.
                    defense against regional threats
    Our fiscal year 2011 budget request balances the war fighter's 
needs to develop new capabilities and grow our missile defense 
capacity. An integrated deployment of Aegis BMD and Terminal High 
Altitude Area Defense (THAAD) forms an effective, layered, regional 
missile defense. The Aegis BMD is a mobile system, designed to defeat 
short- to intermediate-range missiles above the earth's atmosphere, and 
the THAAD is a rapidly deployable system, designed to engage short- to 
medium-range missiles both above and within the Earth's atmosphere. 
Aegis has more than twice the engagement range of THAAD. Additionally, 
Patriot Advanced Capability 3 can add an additional layer and point 
defense against Short Range Ballistic Missiles (SRBMs).
    We are developing regional missile defense elements that can be 
adapted to the unique circumstances of each Combatant Command region. 
For example, we plan to deploy missile defenses in Europe in four 
phases as missile threats from the Middle East evolve over time. The 
Phase 1 capability (planned to begin deployment in 2011) will provide 
initial protection for southern Europe from existing short- and medium-
range threats using sea-based interceptors and forward-based sensors. 
Phase 2 (2015) deploys the SM-3 IB interceptor at sea and at an Aegis 
Ashore/land-based SM-3 site. In collaboration with OSD Policy, 
USSTRATCOM, the Department of State, and United States European Command 
(USEUCOM), we are preparing to begin negotiations with Romania to 
locate an Aegis Ashore/land-based SM-3 site on its territory in 2015. 
Phase 3 (2018) employs SM-3 IIA on land and at sea to protect NATO 
from SRBM, MRBM, and IRBM threats. Poland has agreed to host this Aegis 
Ashore/land-based SM-3 site. The Phase 4 architecture (2020 timeframe) 
features the higher velocity land-based SM-3 IIB, a persistent sensor 
network, and enhanced command and control system to intercept large 
raids of medium- to long-range missiles from the Middle East early in 
flight.
    Since the beginning of fiscal year 2009, MDA has delivered 27 SM-3 
Block IA interceptors and upgraded 3 additional ships (for a total 
today of 20 Aegis BMD ships); upgraded the U.S.S. Lake Erie with the 
next generation BMD fire control software that increases the number of 
threat missiles that can be simultaneously engaged and more effectively 
uses data from missile defense sensors external to the ship. We have 
also delivered two THAAD batteries (the first unit is planned to be 
operationally accepted by the Army by the end of this year). We have 
separately deployed one U.S.-operated X-band AN/TPY-2 radar to Israel 
on a contingency basis. We have also installed C\2\BMC hardware and 
software upgrades at command and control nodes at U.S. Pacific Command, 
USSTRATCOM, U.S. Northern Command and USEUCOM and began C\2\BMC 
installation in the U.S. Central Command.
    We are requesting $1.6 billion for Aegis in fiscal year 2011. We 
will continue the design, qualification, and testing of the SM-3 IB 
interceptor; manufacture 30 SM-3 IB test and production verification 
interceptors (we plan to procure a total of 436 Aegis SM-3 IA and IB 
interceptors by 2015), and upgrade 3 additional Aegis BMD engagement 
ships (two Aegis BMD 3.6.1 destroyers and one 4.0.1 destroyer) for a 
total of 23 BMD capable ships by the end of fiscal year 2011 and 38 BMD 
capable ships by 2015. We will continue development and testing of the 
Aegis BMD 4.0.1 and 5.0 fire control system to launch SM-3 IB and IA 
interceptors against threat missiles when they are beyond the range of 
the ship's own radar. We also will continue the co-development of the 
SM-3 IIA interceptor with the Government of Japan to increase 
significantly the area defended by the Aegis BMD system with its 21-
inch diameter rocket motors, two-color seeker, and increased kinetic 
warhead divert capability. We also will continue to design the first 
Aegis Ashore battery that will be installed for testing at the Pacific 
Missile Range Facility in 2012.
    We are requesting $1.3 billion for THAAD in fiscal year 2011. We 
plan to deliver the second THAAD battery (we plan to procure 6 
batteries by 2015), add a second launcher platoon to each battery to 
double the firepower to 48 interceptors, procure 67 interceptors (we 
plan to procure a total of 431 interceptors by 2015), and complete 
hardware and software upgrades to the communications suite to enable 
THAAD to use fused data from all BMDS sensors.
    We are requesting $455 million for sensors in fiscal year 2011. We 
plan to upgrade the AN/TPY-2 radar software to facilitate its use as a 
surveillance radar or as a THAAD battery fire-control radar, optimize 
the radar's ability to leverage assistance by external sensors, and 
support the contingency operations of AN/TPY-2 radars deployed in Japan 
and Israel. We will continue to develop a Concurrent Test, Training and 
Operations capability to provide operational BMDS sensors (including 
the UEWRs, Cobra Dane and Sea-Based X-band radars) the capability to 
conduct training and testing while continuing to provide on-line 
missile defense, upgrade AN/TPY-2 and Sea-Based X-band radar 
discrimination and dense track management software, and conduct ground 
and flight testing to support accreditation of sensor models and 
simulations.
    We are requesting $343 million for Command and Control, Battle 
Management and Communications (C\2\BMC) in fiscal year 2011. We plan to 
provide automated planners to aid a Combatant Command's deployment of 
BMD assets according to its concept of operations and conduct ballistic 
missile defense battles according to its tactics, techniques, and 
procedures. Furthermore, we will develop and deploy an upgraded version 
of our C\2\BMC hardware and software to provide new battle management 
functions that enable shoot-look-shoot tactics between layers of U.S. 
and international partners' missile defense assets, control multiple 
BMDS radars, correlate and combine sensor data from multiple sensors 
tracking the same threat into one system track, provide real-time 
awareness of the battle as it develops in accordance with a Combatant 
Command's concept of operations, and enable engagement coordination 
among BMDS elements in accordance with regional Area Air Defense Plans. 
Additionally, C\2\BMC will participate in and analyze results of ground 
and flight tests to support accreditation of models and simulations and 
support war games and exercises.
    MDA played a significant role in the conduct of the Ballistic 
Missile Defense Review. The agency provided technical analysis and data 
as required by the leaders of the review to support their effort to 
answer the questions posed by Congress. Preliminary analytical results 
were then presented to the departmental leaders, including the 
Secretary and Chairman, who then made recommendations to the President. 
Although MDA provided these architecture assessments, it is important 
to recognize the decision to deploy the recommended European PAA 
architecture was not based solely on detailed performance predictions. 
Rather, the decision to deploy an Aegis SM-3-based architecture to 
Europe was based on the need for a flexible defense against an evolving 
threat from the Middle East. First, the previously proposed European 
missile defense architecture lacked a sufficient number of interceptors 
to defend against the current and emerging numbers of medium-range 
ballistic missiles (MRBMs) being fielded by Iran. Simply put, with a 
notional two interceptor shot doctrine, the 10 GBI interceptors 
proposed for Poland would easily be overwhelmed by a raid size of 6 
threat missiles launched towards European targets. Second, with the 
European PAA, we can deploy a missile defense capability to Europe 
earlier than the previous Program of Record, with GBIs in Poland and an 
X-Band Radar in the Czech Republic. NATO Europe is threatened by a 
short-range and medium-range ballistic missile threat now, so this was 
an important variable in the decision. Upon the completion of testing 
in 2011, we could begin the deployment of proven capabilities to defend 
against the MRBM threat. Third, by creating a re-locatable, land-based 
version of our most capable regional missile defense system, the Aegis 
Ballistic Missile Defense (BMD) system, Combatant Commanders could have 
the capability to adjust their missile defense architectures to address 
the uncertainty of future missile threats without the need to develop a 
new missile defense system. These systems can be deployed in any 
theater in a reasonably short period of time. Fourth, the increased 
defended areas and larger raid size capacity resulting from planned 
enhancements to the Aegis BMD system are expected to increase the cost-
effectiveness of a European missile defense against the growing missile 
threat over this decade. Finally, while we currently have a limited 
defense system against potential Intercontinental Ballistic Missile 
(ICBM) threats originating in the Middle East or Northeast Asia, there 
is no technical reason to indicate that this system would not be 
further enhanced by the deployments envisioned in Phase 4 of the PAA. 
It is important to note that the missile defense capability needs 
identified in the BMDR are consistent with capability needs listed in 
the recently approved, independently developed, classified USSTRATCOM 
missile defense Prioritized Capability List.
           proving the ballistic missile defense system works
    A key tenet of the BMDR is to sufficiently test the capabilities 
and limitations of a missile defense system before we begin 
procurement, or we will ``fly before we buy.'' As such, missile defense 
projects are subject to production decisions by USD (AT&L). 
Additionally, we use the Services' standard material release and 
operational certification processes that also rely on developmental and 
operational test data prior to formally fielding initial capability. 
Both THAAD and AN/TPY-2 have production decisions by USD (AT&L) and 
Army Material Review Boards planned for this year. We are requesting 
$1.1 billion in fiscal year 2011 to provide targets and support to 
missile defense projects to test new capabilities under developmental 
and operational conditions, including the use of actual threat 
missiles, to support accrediting our models and simulations and 
production decisions by USD (AT&L). In collaboration with the Services' 
Operational Test Agencies, USSTRATCOM, and the Director, Operational 
Test & Evaluation, we submitted a comprehensive Integrated Master Test 
Plan (IMTP) in March that describes our plan through fiscal year 2015 
to conduct over 150 test events to obtain specific data necessary to 
accredit our models and simulations and support operational 
assessments. The IMTP also describes our testing to support European 
PAA deployment decisions. To support a Phase 1 decision in 2011, we 
have completed 10 Aegis BMD intercept tests of short range targets. We 
will conduct an Aegis BMD test against an intermediate-range ballistic 
missile target prior to the Phase 1 deployment. Likewise, there are 
system level ground tests, exercises, and simulations to test system 
effectiveness and interoperability. The IMTP also describes our testing 
of the two-stage GBI and several GMD intercept tests against long-range 
targets. I concur with the January 2010 DOT&E January assessment that 
``if MDA can execute the IMTP as planned, successful VV&A of BMDS 
models and simulations should result, enabling quantitative and 
objective rather than subjective assessments of the BMDS capability in 
the future.'' I further agree with the DOT&E conclusion that 
``objective assessments of the BMDS capability are still a number of 
years in the future.''
    Our recent flight test results have been mixed. From October 2008 
through today MDA achieved 5 of 7 successful hit-to-kill intercepts and 
a number of ``firsts'' in BMDS testing. In December 2008, the GMD 
system engaged an IRBM target launched from Kodiak Island, Alaska, 
using a GBI launched from VAFB in the most operationally realistic test 
to date that demonstrated our ability to fuse sensor data from five on-
line sensors. Unfortunately, the target in that flight test failed to 
release countermeasures. In March 2009, with soldiers operating the 
system using tactics, techniques, and procedures developed by the U.S. 
Army, we conducted THAAD's first dual salvo endo-atmospheric engagement 
of a threat-representative separating ballistic target. The Navy 
conducted an intercept using an Aegis SM-2 Block IV (terminal defense) 
in February 2009, and we conducted an SM-3 IA intercept in July 2009. 
In October 2009, we supported Japan's intercept test of an SRBM using 
the Japanese destroyer JS MYOKO.
    Although we have had three intercepts out of three previous 
attempts using the GMD system, our newest variant of the kill vehicle, 
relying on data from the Sea-Based X-band (SBX) radar, failed to 
intercept a target in January 2010 during a flight test to measure 
GMD's performance at its maximum operational intercept range. The GBI 
launched successfully from VAFB and the newly designed LV-2 long-range 
target successfully flew for the first time out of the Reagan Test Site 
in the Kwajalein Atoll 7,500 km away. It was a very valuable test 
because we collected extensive data on the performance of the SBX and 
GBI, the advanced exo-atmospheric kill vehicle (EKV), and the target. 
We discovered new failure modes for the SBX, the EKV flew more than 
twice the distance it had flown in previous tests, and we collected 
significant new data on the EKV's ability to acquire, track, and 
discriminate the target. The failure investigation is expected to 
continue for several more months before root-cause is determined and 
verified. It is my intent to immediately correct any deficiency and 
repeat the test as soon as feasible. In contrast, the most recent 
attempt to conduct a THAAD test last December was of no value because 
of a target missile failure. The THAAD interceptor was not launched and 
the system was not exercised. Despite the cost of more than $40 million 
for that test and subsequent program delays, we gained no new 
information on the performance of the THAAD system.
    The two largest challenges to executing the U.S. missile defense 
program is acquiring a cost effective set of reliable targets and 
improving quality control. Over the past year we have initiated steps 
to acquire a new set of targets of all ranges, including Foreign 
Material Acquisitions, to verify the performance of the BMDS. Our new 
target acquisition strategy, initiated in fiscal year 2009, procures 
targets in production lots to increase competition, quality control, 
reduce costs, and ensures the availability of backup targets starting 
in 2012. For the next 3 years, we must continue to rely on an intensive 
inspection and oversight process to motivate mission assurance.
    Due to the precise nature of the operation of missile defense 
systems, very high standards of quality control and an enduring culture 
of disciplined mission assurance by the industry workforce is 
essential. We have had many successes in improving our prime contractor 
and supplier quality assurance. In each case, companies have been 
willing to identify shortfalls, invest in new capital assets and attain 
experienced leadership in changing cultures to establish the enduring 
discipline required to consistently deliver precision missile defense 
products. However, not all companies have sufficiently improved. Until 
we complete planned competitions, including the greater use of firm 
fixed price contracts, we will have to motivate greater attention by 
senior industry management through intensive government inspections, 
low award fees, the issuance of cure notices, stopping the funding of 
new contract scope, and documenting inadequate quality control 
performance to influence future contract awards by DOD.
                   hedging against threat uncertainty
    Missile defense technologies must be developed to adapt and upgrade 
our systems to counter future changing threats. In accordance with the 
PCL, we are focusing our future technologies in four areas: (1) 
developing more accurate and faster tracking sensors on platforms to 
enable early fire control solutions and intercepts; (2) developing 
enhanced command and control networks to link and rapidly fuse sensor 
data to handle large raid sizes of missile threats; (3) developing a 
faster, more agile version of our SM-3 interceptor to destroy long-
range missiles early in flight; and (4) developing discrimination 
techniques to rapidly resolve Reentry Vehicles from other nearby 
objects. Additionally, we continue to research technologies for 
destroying boosting missiles with directed energy. We are developing 
more mature technologies for mid-term deployment decisions around 2015 
and conducting science and technology experiments for far-term (around 
2020) advanced capability deployment decisions.
    One of the highest priority capabilities requested by the war 
fighter community is a persistent and precise missile tracking 
capability. We are requesting $113 million in fiscal year 2011 for the 
Space Tracking and Surveillance System (STSS) and Near Field Infra-Red 
Experiment satellite operations. This space operations work will 
demonstrate the utility of remote missile tracking from space and 
reduce the risk of integrating the remote tracking data of future 
satellites into missile defense fire control systems. MDA launched two 
STSS demonstration satellites on September 25, 2009. We continue 
testing and operating the two demonstration satellites, including 
cooperative tests with other BMDS elements, and demonstrating these 
satellites against targets of opportunity and scheduled tests involving 
targets. We are also requesting $67 million in fiscal year 2011 for a 
new program start, the Precision Tracking Space System (PTSS), 
comprised of a network of remote tracking satellites, communications, 
and ground stations. Key attributes of the PTSS are its limited 
mission, uncomplicated design, lower costs, use of mature technologies, 
and integration with legacy data management and control systems to 
provide a persistent remote missile tracking capability of the areas of 
the earth that are of most concern for missile defense. Lessons learned 
from the two STSS demonstration satellites currently on orbit will 
inform decisions on the development of a prototype PTSS capability by 
the end of 2014. After validating the prototype design in ground 
testing in 2014, we plan to fly the first prototypes while we have 
industry teams compete to produce the remaining satellite constellation 
for initial constellation operations by 2018.
    We are also requesting $112 million for fiscal year 2011 for the 
development and testing of a remotely piloted vehicle (RPV) based 
missile tracking sensor system, or Airborne Infrared (ABIR) sensor 
system, to track large raids of ballistic missiles early in flight. We 
are completing an analysis of the optimum RPV platform and sensors to 
integrate into an effective early missile tracking system.
    For fiscal year 2011, we are requesting $52 million for C\2\BMC 
enhancements to develop a net-centric, Service-oriented architecture, 
to rapidly fuse sensor data and provide data to distributed fire 
control systems to intercept enemy reentry vehicles early, optimize 
shoot-look-shoot opportunities, and economize the number of 
interceptors required to defeat a raid of threat missiles. We are 
pursuing enhanced C\2\BMC capabilities and experiments to integrate 
interceptor fire control systems with ABIR, STSS, and other new sensor 
technologies. We work closely with USSTRATCOM and the COCOMs to develop 
and deliver the optimum C\2\BMC architectures in their regions.
    We are requesting $41 million in fiscal year 2011 to develop 
components that increase the speed of our SM-3 family of interceptors 
with advanced divert capability, faster boosters, and lighter kill 
vehicles. We are studying the use of a derivative SM-3 IB kill vehicle 
and derivatives of the first and second stages of the SM-3 IIA 
interceptor as part of the development of the SM-3 IIB long-range 
missile interceptor.
    We are requesting $99 million for fiscal year 2011 to conduct 
continued research on high energy lasers. This past year we saw the 
significant accomplishments of the Airborne Laser Test Bed (ALTB) as it 
completed preparatory tests which ultimately led to two successful and 
historic experimental shoot-downs of a solid rocket on February 3, 
2010, and a boosting, liquid-fueled, Foreign Material Acquisition (FMA) 
target on February 11, 2010. We are preparing for another test against 
an FMA, at nearly twice the distance, later this spring. We will 
continue to investigate multiple high energy laser technologies to 
characterize their performance while validating the modeling and 
simulation of long range directed energy beam propagation and beam 
control. Additionally, we are currently supporting the USD (AT&L)/
Director for Development, Research and Engineering (DDR&E) 
comprehensive review of all DOD high energy laser programs to establish 
a department wide program for developing and applying high energy laser 
capabilities. We anticipate this review will define the ALTB's role in 
the future development of high energy lasers.
   develop new, fiscally sustainable capabilities over the long term
    MDA's preferred approach to developing new missile defense 
capabilities is to evolve and upgrade existing capabilities to leverage 
the cost-effectiveness of utilizing existing Service training, 
personnel and logistics infrastructures. The fiscal sustainability of 
missile defense systems is largely determined by the cost of operations 
and sustainment. Therefore, MDA executes ``hybrid management'' of 
projects with the designated lead Services by embedding ``Service 
cells'' in MDA joint project offices to make design and development 
decisions associated with Doctrine, Organization, Training, Leadership, 
Personnel and Facilities (DOTLPF) to assure MDA products efficiently 
align with Service processes and operational concepts.
    MDA has established six baselines (cost, schedule, technical, test, 
contract, and operational baselines) to plan and manage the execution 
of missile defense projects. I approve the baselines of technology 
programs, but jointly approve with lead Service Acquisition Executives 
the baselines of MDA projects in product development. These baselines 
not only assist in our cost-effective management of MDA projects, but 
also provide visibility to the MDEB and Congress on the progress of our 
execution. The baselines of all of our projects are established in 
spring and will be submitted to Congress in a Baseline Acquisition 
Report (BAR) in June. Finally, these baselines will form the basis for 
USD (AT&L) production decisions.
            expand international missile defense cooperation
    As stated in the BMDR and Quadrennial Defense Review (QDR), a key 
strategic goal is to develop the missile defense capacity of our 
international partners. We are currently engaged in missile defense 
projects, studies and analysis with over twenty countries. Our largest 
international partnership is with Japan. We are co-developing the SM-3 
IIA missile, studying future architectures, and supporting their SM-3 
IA flight test program. In Europe, we are participating in the NATO 
Active Layer Theater Ballistic Missile Defense (ALTBMD) command and 
control program and war games, continuing technology research projects 
with the Czech Republic, and planning for the European PAA deployments, 
which include the installation of Aegis Ashore sites, one each in 
Romania and Poland. Collaboration with Israel has grown to involve the 
development and deployment of the Arrow Weapon System, which is 
interoperable with the U.S. missile defense system. MDA has completed 
and the United States is now in the final negotiation of an Upper Tier 
Project Agreement with Israel for cooperative development of an exo-
atmospheric interceptor and amending the United States-Israel Arrow 
Weapon System Improvement Program agreement to extend the system's 
battle space and enhance its ability to defeat long-range ballistic 
missiles and countermeasures. MDA and Israel are also jointly 
developing the David's Sling Weapon System to defend against shorter 
range threats, to include some ranges that the PAC-3 system cannot 
engage. Additionally, MDA is active in supporting the Combatant 
Commands through international symposiums, bi-lateral and multi-lateral 
dialogs, planning, and analysis with Allies and international partners 
to help them understand the benefits of integrated missile defense in 
their regions.
                               conclusion
    Missile defense is a key part of our national security strategy 
described in the BMDR to counter the growing threat of ballistic 
missile proliferation. The New START Treaty has no constraints on 
current and future components of the BMDS development or deployment. 
Article V, Section 3 of the treaty prohibits the conversion of ICBM or 
SLBM launchers to missile defense launchers, and vice versa, while 
``grandfathering'' the five former ICBM silos at Vandenberg AFB already 
converted for Ground Based Interceptors. MDA never had a plan to 
convert additional ICBM silos at Vandenberg and intends to hedge 
against increased BMDS requirements by completing construction of 
Missile Field 2 at Fort Greely. Moreover, we determined that if more 
interceptors were to be added at Vandenberg AFB, it would be less 
expensive to build a new GBI missile field (which is not prohibited by 
the treaty). Regarding SLBM launchers, some time ago we examined the 
concept of launching missile defense interceptors from submarines and 
found it an unattractive and extremely expensive option. As the 
committee knows, we have a very good and significantly growing 
capability for sea-based missile defense on Aegis-capable ships.
    Relative to the recently expired START Treaty, the New START Treaty 
actually reduces constraints on the development of the missile defense 
program. Unless they have New START accountable first stages (which we 
do not plan to use), our targets will no longer be subject to START 
constraints, which limited our use of air-to-surface and waterborne 
launches of targets which are essential for the cost-effective testing 
of missile defense interceptors against MRBM and IRBM targets in the 
Pacific area. In addition, under New START, we will no longer be 
limited to five space launch facilities for target launches.
    MDA is working with the Combatant Commanders, Services, other DOD 
agencies, academia, industry and international partners to address the 
challenges and difficulties of managing, developing, testing and 
fielding new military capabilities to deter use of ballistic missiles 
and effectively destroy them once launched. Implementing these war 
fighter priorities takes time, since the production time for a missile 
and radar is over 2 years and establishing and training a unit to 
create and deploy a military capability takes an additional year. Our 
fiscal year 2011 budget funds the war fighters' near-term priorities 
while building the foundation of a layered defense system with our 
partners and friends that can provide an adaptive, cost-effective 
strategy to counter ballistic missile proliferation in the future.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.

    Chairman Inouye. General, last year, the President 
announced a shift in plans involving Europe and missile 
defense, and the cornerstone of this new approach is the so-
called aegis ashore program. Can you give us an update on where 
we are at this moment?

                    PHASED ADAPTIVE APPROACH--AEGIS

    General O'Reilly. Yes, sir. We have, last year, completed 
an analysis of alternatives of different ways of providing the 
type of capability that the SM-3 missile offers. It has a range 
of well over 800 kilometers, and it has a defended area that is 
quite substantial--about twice what THAAD's is. And THAAD is 
about 10 times the area of--what a Patriot unit can protect. 
So, we're looking for that type of capability, and we 
identified that by simply taking the aegis system, the combat-
proven aegis system, and moving it to the land and keeping as 
much of it as identical as possible, reducing developmental 
costs. At that point, it would give the combatant commanders 
and the Navy the opportunity to have the same system at sea as 
they have at land. They have a worldwide logistics data--or 
logistics base, training base, and the personnel to man these 
systems very quickly.
    So, we're very mature in the development of the aegis 
ashore. It has been tested and operated in a test-type 
configuration at White Sands, for shorter range, for over 10 
years. So, we're in a very good position, sir, to begin the 
integration of it and delivering the first test unit.
    Chairman Inouye. So, you're on schedule now.
    General O'Reilly. Yes, sir.

                         PARTNERSHIP WITH JAPAN

    Chairman Inouye. Now, one of our largest partners in 
defense is Japan, and you have been developing the standard 
missile block IIA upgrade with them. Can you update us on the 
status of this upgrade program and the partnership with the 
Japanese, overall?
    General O'Reilly. Sir, this program is in its fifth year of 
development. We have matured the components, both what the 
Japanese will develop and are developing and what the U.S. 
industry is developing. We have identified all of the steps 
that are necessary to have a successful integration. Our first 
flight test will be in 2014 and our first intercept will be in 
2015. We are in full agreement with the Japanese Government and 
have full support in this development. Within the next year, we 
will begin our discussions on the production arrangement 
between the United States and Japan.
    Chairman Inouye. So, the change in government there has not 
affected the progress of your partnership.
    General O'Reilly. No, sir. I have held several high-level 
reviews of this program with the Japanese Government since 
then, and they have indicated they are in full support and 
their commitments are solid.
    Chairman Inouye. I have several other questions to ask, but 
they're more technical in nature, so I will submit them to you, 
General.
    May I now call upon Senator Shelby.

                        GBI NUMBERS AND TESTING

    Senator Shelby. Thank you, Mr. Chairman.
    General O'Reilly, I have several questions for the record.
    You said that you need 52 GBI interceptors--30 in Alaska 
and 22 to be used for testing and spares. The GMD program 
manager stated that 19 of the 22 GBIs will be used in testing, 
through 2019. That will leave us with just three GBIs to 
conduct reliability flight testing through 2032--long span 
there. That would be one test every 4 years, so to speak. What 
kind of analysis have you done to the number of ground-based 
interceptors that you really need? This seems to be kind of 
stretching it.
    General O'Reilly. Sir, the--first of all, when the program 
manager made that comment, he is also referring to some 
missiles we have already procured for flight testing. But----
    Senator Shelby. Explain what you mean.
    General O'Reilly. We will procure 52 between now and the 
end of the GBI----
    Senator Shelby. Okay.
    General O'Reilly [continuing]. By the current plan--30 for 
operational capability, 4 for operational spares that--we don't 
have an exact number on those operational spares, we just use 
that as a hedge--and then 18 more will be used in testing. By 
2019, we will have tested 20 missiles, including the ones we've 
previously tested. We will have, at that point, two missiles 
plus the four operational spares. So, there's a total of six 
missiles to make a determination, over the last 10 years of the 
estimated life, if we don't extend the life.
    These--I will make the comment that these missiles were 
designed with an--a very large effort on its reliability and 
maintainability. And, just for example, those 30 missiles in 
the silos will be tested 4.3 million times over its 10-year or 
20-year period. So, we believe we have a very rigorous program 
to test the reliability, and we're going to remove the missiles 
from the silos about halfway through their life and replace 
their limited-life components, and test those. So, sir, we 
believe we're in a position to have very good insight into how 
these missiles are aging.
    Senator Shelby. You feel real comfortable with this and 
your plan?
    General O'Reilly. Yes, sir. And--but, we do have the 
procurement of five new GBIs----
    Senator Shelby. Okay.
    General O'Reilly [continuing]. Which will reopen the 
production lines, which--most of them have completed their 
previous production. So, we'll have five lines open through 
2016--will be qualified, in case we do find that there's a--
circumstances where we need to go back to the industrial base.

                       AEGIS AND GMD COMPETITION

    Senator Shelby. General O'Reilly, we all like competition, 
because out of competition, generally, comes good products. And 
I think that's best for the taxpayer and the warfighter. Why 
would you recompete the GMD program, but attempt to sole-
source, some people believe, the aegis ashore program?
    General O'Reilly. Sir, the decision----
    Senator Shelby. Is there a reason?
    General O'Reilly. Yes, sir. The decision process I have to 
go through is, Is there a competitive or alternate sources to 
produce a product whenever we're--need to acquire a new 
product? In the case of GMD, we put out a market survey, and 
the market survey indicated that there were several companies 
that were willing, and we deemed viable, to actually compete 
for GMD. In the case of aegis ashore, the concern was the 
timelines we are on to deliver the first test unit and the 
second one--the second unit, which will be the first one in 
Romania--or the one in Romania. That timeline required us to 
have--whoever the manufacturer is--to have extensive experience 
with the aegis weapon system, because we want it to be 
identical onshore as it is at sea. However, our intent is, 
after that point, to compete remaining aegis ashore sites.
    Senator Shelby. Okay.

                               SM-3 COST

    I want to get into the SM-3 with you. The 2011 budget 
provides for the procurement of--as I understand it--of eight 
SM-3 block IBs. Now, it's my further understanding that MDA is 
still working on research and development for 30 SM-3 block IBs 
for testing. But, according to the Future Years Defense Program 
(FYDP), it appears that, in 2012, MDA expects to order 66 SM-3 
block IB missiles. That appears to be a pretty aggressive 
production increase from 2011 to 2012. Have you considered 
adding further funding for missile production in 2011 to even 
out the workload and decrease the cost per missile? Because, we 
are interested in quality, but we're interested in cost, too, 
aren't we?
    General O'Reilly. Yes, sir. We have considered that. The 
decision for the current delivery of the SM-3 IA missiles was 
made in 2008, because it takes 2 years to procure--to build a 
missile. So, if we had additional funding now added to the 
budget, it would not deliver additional IAs until 2013. So, I--
we do have a recognized limitation in the number of missiles we 
have available to us. But, my ability to deliver missiles in 2 
years--by that time, as you said, sir, our plans are that we'll 
have the IB in full rate.
    On the question of rating, though--how quick we can ramp 
up--the first, second, and third stage of the SM-3 IB is 
identical to the IA.
    Senator Shelby. Okay.
    General O'Reilly. So, we are--what we're talking about is 
the front end, the kill vehicle itself. And so, we've--we do 
believe that that is achievable, given it's that one component 
of the missile which will be different.

                    START TREATY AND IRANIAN THREAT

    Senator Shelby. My last--I know my time's running out--but, 
General, a lot of us are concerned with aspects of the new 
START Treaty and its potential to limit the U.S.'s options to 
deploy missile interceptors. In addition, when the Obama 
administration decided to terminate third-site plans in Europe, 
Secretary Gates said the decision was based on intelligence 
findings that, and I'll quote, ``The threat of potential 
Iranian intercontinental ballistic missile capabilities have 
been slow to develop.''
    A new report issued just this month now states, and I'll 
quote, ``With sufficient foreign assistance, Iran could 
probably develop and test an intercontinental ballistic missile 
capable of reaching the United States by 2015.''
    With this report of Iran having an ICBM capability by 2015, 
third-site plans canceled, and a treaty that may potentially 
limit our response to attacks, How do you effectively plan to 
counter threats like this? And I'm glad that we have Senator 
Feinstein and Senator Bond on this subcommittee, because 
they're deep into the intelligence field on this.
    General O'Reilly. Yes, sir. Sir, what we recognized last 
year, going through the Ballistic Missile Defense Review, was 
the inherent uncertainty in intelligence estimates. If you go 
back over history, there is not a pattern that we can follow. 
So, our recognition was, we need, as the Secretary of Defense 
has determined, a hedge, in case we underestimate or 
overestimate the threat in, especially, the case of 
intercontinental ballistic missiles coming from countries that 
currently don't possess them. So, that is why the--we have 
proposed in this budget to continue completing missile field 
number 2 at Alaska, so we have eight additional silos than what 
I testified to last year. And we have also tested the two-stage 
GBI, or are going to test it in June. So, we're right on the 
verge of testing that missile. We have a--it's a--it's very 
close in design and--to the three-stage. So, we believe we will 
have the ability to have a second--or an additional shot 
opportunity with that missile, and additional silos, if needed, 
to replace a shot opportunity we were originally looking for in 
Europe.
    Senator Shelby. Don't you have to basically take the 
Iranian threat as real, as dangerous to this country?
    General O'Reilly. Yes, sir. We do. They're----
    Senator Shelby. Thank you, Mr. Chairman.
    General O'Reilly [continuing]. Them and other countries.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you very much.
    Senator Dorgan.

                  START TREATY AND LIMITS TO RESPONSE

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me just say, though, that I think--my reading of the 
START Treaty is one that does not impose any limitations on our 
response to attacks. I know some are raising those questions. I 
don't believe the START Treaty does that at all. And, General, 
you're welcome to respond to that, if you wish.
    General O'Reilly. Sir, I've personally not found a single 
case where it does limit, other than prohibitions against plans 
we never considered doing, like converting silos.
    Senator Dorgan. I just--I mean, that there--I know there'll 
be some disagreement on the START Treaty, and I've already seen 
some. And my colleague just referenced some of the discussion. 
But I don't believe there's any limitation in our response to 
attacks.

                         AIRBORNE LASER PROGRAM

    I want to make the point that we spend about $132 billion, 
as I understand it, on missile defense work since--I think in 
the last 25 years or so; $132 billion is a lot of money. I was 
particularly interested in the Airborne Laser Program, which I 
understand has now been descoped to a research and development 
program. Can you tell me, how much have we spent on airborne 
laser? Do we ever expect airborne laser will become a part of 
our future plans?
    General O'Reilly. Sir, we have spent over $5 billion on 
airborne laser since 2002, when it became part of the Missile 
Defense Agency. It previously was an Air Force program. We have 
successfully tested the intercept of a ballistic missile, 
earlier this year, for the first time. We accomplished many 
scientific historical breakthroughs in that work. We are 
planning to conduct another test next month, at twice the range 
of the last test. We destroyed the missile quicker than we 
calculated we would. So, everything indicates that our basic 
models, which were in debate, are fairly sound, and we will 
continue to validate our models and our simulations.
    There were operational concerns about the range of this 
particular laser and--compared to the range of surface-to-air 
missiles that we know exist around the world today. However, 
the airborne laser has proven to be a very valuable platform 
for testing this technology, because of the beam control in the 
front end of the missile and the aircraft, the way it's been 
designed to carry more than one laser. So, because of that, the 
coil laser, which is currently on board, that we tested, was a 
19--it was in the 1990s it was designed. Since then, our 
national labs have produced many compelling new technologies 
that they are demonstrating, that the Department is reviewing 
now, to also integrate onto the airborne laser for more testing 
over the next several years, to identify a laser that's got the 
standoff distances we're looking for.

                         CRUISE MISSILE DEFENSE

    Senator Dorgan. Well, let me send you some additional 
questions on that.
    Let me ask another question that has always intrigued me. 
Ballistic missile defense is important. You're working on it. 
There are several different plans for deployment. And I 
understand all that. The question is--let's assume that we get 
this up and installed, and we're going to feel safer, in terms 
of response to a ballistic missile attack. A far more likely 
attack, in my judgment, would be for a--from a cruise missile 
acquired by an adversary that--we have cruise missiles that are 
in far greater quantity than ballistic missiles. Is there a 
defense system for our country against cruise missiles? And if 
so, what is it?
    General O'Reilly. Sir, the prioritized capabilities list 
for missile defense that the Strategic Defense Command--or, the 
Strategic Command--STRATCOM--has provided, in March, to me is 
an integrated air and missile defense capabilities--prioritized 
capabilities list representing all the combatant commanders and 
the four services. And from that, they have indicated both 
needs for cruise missile, air-breathing, and missile defense. 
My charter, my responsibility is on the missile defense side. 
So, the services, right now, are doing the development for the 
cruise missile and the air-breathing threats.
    Senator Dorgan. But, isn't it the case that the ballistic 
missile defense activities have been far more robust than the--
any activities to defend against cruise missiles? And I think 
it--the likelihood is 5, 10, 15, 20 years from now, it's much 
more likely an adversary would find some kind of a truck, 
whether that vehicle be land based or sea based or air based, 
to acquire a cruise missile and deliver a cruise missile with 
terrain-following guidance at 500 feet above the ground. And 
meanwhile, we've got a big ballistic missile defense system to 
protect against intercontinental ballistic missiles that go up 
into space and come down, and somebody's threatening our 
country with a nuclear warhead on a cruise missile. Isn't it 
the case that we have a much more robust activity on the one 
than we do on the other?
    General O'Reilly. Sir, I'm not in a position to comment on 
the development of the cruise missile capability. But I will 
tell you that on the aegis system, for example, and when we 
integrate with the Army's Patriot and lower-tier systems that 
do handle cruise missiles, in both those cases, we participate 
in ensuring that our capability that we develop for missile 
defense is also being used for those other mission areas.
    Senator Dorgan. All right.
    Well, I'm going to send you some additional questions, 
General. I'm very interested in what we're developing and the 
kind of protection that it affords. All of us worry that future 
adversaries or present adversaries can acquire increasingly 
sophisticated weaponry to threaten this country; there's no 
question about that. And I think there's a wide range of 
threats to protect against.
    Let me make one final point, Mr. Chairman, and that is, all 
of this costs a lot of money, and when any of us ever talk 
about the Federal budget deficit, that's--we also have to make 
the point that all of this ought to be paid for, year by year, 
one way or another, in a budgeting process. So, this is 
expensive, but nonetheless, very important for the country and 
its protection.
    Chairman Inouye. Thank you.
    Senator Bond.

               MISSILE DEFENSE STRATEGY--EUROPEAN DEFENSE

    Senator Bond. Thank you very much, Mr. Chairman.
    And welcome, General O'Reilly. Thank you for being here to 
discuss the $8.4 million--billion missile defense budget for 
fiscal year 2011.
    In light of the significant changes made last year to our 
strategy, I'm pleased to see that the President has taken a 
serious approach to missile defense by increasing his request 
by over $500 million. Our ability to protect the American 
homeland, American troops overseas, North Atlantic Treaty 
Organization (NATO) allies, international partners, is tied 
directly to an effective global missile defense strategy. 
However, the President's announcement to alter our regional 
missile defense architecture in Europe to a phased adaptive 
approach gives me and several of my colleagues serious 
concerns. Breaking our previous missile defense treaties with 
Poland and the Czech Republic not only undermines two of our 
NATO allies, but puts at risk our ability to protect our 
friends and allies in Europe and the Middle East.
    In addition, Iran's capability to target our partners, to 
include the continental United States, with an intercontinental 
ballistic missile, or ICBM, is growing, both quantitatively and 
qualitatively. As a result, our ability to knock down a 
potential ICBM from Iran, whether aimed at the United States or 
a friend, like Israel, I'm afraid, may be degraded.
    Under the original missile defense plan in Europe, the 
third site in Poland was intended to provide a capability to 
knock down an ICBM from Iran by 2013. Now, that's subsequently 
slipped to 2017. General, in your testimony before the Armed 
Services Committee yesterday, you stated that it is reasonable 
to believe that Iran may have an ICBM by 2015. And Chair 
Feinstein and I, on the Intelligence Committee, are following 
that very closely. I won't comment on it, but that's what you 
said.
    I'm doing the math here, and it seems that the agreement to 
build, in Romania and Poland in 2015 and 2018, a new phased 
adaptive approach, weakens our missile defense strategy and our 
ability to protect our friends and allies in Europe and the 
Middle East. I'm equally uncertain that the new approach will 
provide 100-percent assurance to American families from 
continental--in the continental United States being vulnerable 
to an ICBM from Iran.
    We know that more shots at an ICM are better. So, with the 
third site in Poland gone, are you sure that that will--or, at 
least, for the near future--are you sure that that will not 
weaken our capacity to knock down an ICBM in the nearer term?
    General O'Reilly. Sir, first of all, I do recognize the 
uncertainty in the intelligence estimates that have been 
evident over the years on when ICBM capability will be 
available. As you say, sir, yesterday I said I could not deny 
that there would be a capability in 2015 if Iran is getting 
outside help and if they continue to develop that capability.
    The concern I had with the original proposal for the 
defense of Europe was, number one, the timelines haven't 
changed. I used to be responsible for delivering that--that it 
takes 5\1/2\ years, from the beginning to the end of a 
production of a missile field, another 6 months to integrate 
it. And the combatant command over there asked for another year 
to integrate that capability. So, when we were discussing, 
previously, of a 2013 capability, we were assuming a start 
years prior to where we are now, which the requirement for the 
ratification of the ballistic missile defense agreements in 
Poland and the Czech Republic were required before we could 
begin that work. So, what has happened to the delay that moved 
it to the 2017 timeframe was primarily driven by the 
ratification, which did not occur in either country.
    Second, the capability that we are developing--it became 
very evident that Iran--the concern is, number one, Will they 
have this capability? The other concern is, What quantity are 
they going to procure? And we have the capability, with 30 
operational GBIs, to handle--if you use the shot doctrine of 
two missiles against every one threat--of up to 15 being 
launched. The combatant commanders reviewed that. This was done 
with the Joint Chiefs to make an assessment on, Is that the 
right number, given the threat uncertainties at this time?
    But, as you also say, sir, we also recognize we're going to 
need, in the future, a large number of interceptors that are 
capable of intercepting ICBMs. And they found the most cost-
effective approach would be to forward-base them on our ships 
and at our aegis ashore sites, so we can put larger numbers, 
much larger than we previously proposed.
    Senator Bond. I thank you, sir.

                      RUSSIA AND THE START TREATY

    Next, I have concerns the administration will be compelled 
to slow down its phased adaptive missile approach defense in 
Europe if Russian threat--Russia threatens to pull out of the 
START agreement. In particular, as the Senate Armed Services 
Committee hearing brought out yesterday, the Russian Defense 
Minister has outlined his own interpretation of START by 
stating unequivocally that a linkage between increased missile 
defenses in Europe that impede Russia's nuclear efforts will 
shape its ability to effectuate START. To what extent we--he 
plans to modify it, we can only imagine.
    But, under the new arrangement, it seems to me that Russia 
feels it has the ability to back out of START if they don't 
like the way our missile defense architecture is growing in 
Europe.
    Given recent actions by Russia, I would change President 
Reagan's theory for dealing with Russia to ``Verify, but don't 
trust.'' And I would like to know whether you feel that this 
indication by Russia is a threat that will--that they will get 
out of the START Treaty if we carry forward with some of the 
things that we're doing.
    General O'Reilly. Sir, we believe it is in the national 
interest of the Russian Federation to complete this treaty 
agreement, and in our national interest. But, on the hand--
either side could back out, and both sides have made unilateral 
statements that they reserve that right, but that's recognized 
in the treaty.
    From a legal perspective that I rely on with the Department 
of Defense lawyers, I have no legally binding restrictions, 
under the new treaty, to curtail any of my developmental work 
in missile defenses, nor have I been given any instructions to 
even consider that.
    Senator Bond. I--the assumption that backing out of the 
treaty would not be in Russia's ``national security interest'' 
concerns me. I don't think we can afford to hedge our bets of 
what Russia, or, for that matter, Iran, China, North Korea, may 
or may not do. I think we deserve a robust missile defense 
strategy that fosters trust and security, and not shape our 
actions to please Russia, which is not, in my view, interested 
in securing our national defense. So, I would urge you to 
continue to pursue, aggressively, all of the means available to 
assure that we do have the defenses that would be necessary, in 
a timely fashion, to protect our critical allies, as well as 
our country--our continental United States.

           START TREATY--UNITED STATES AND RUSSIA COOPERATION

    And I thank you.
    Chairman Inouye. Thank you very much.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. And 
congratulations on becoming a grandfather.
    Chairman Inouye. I thank you.
    Senator Feinstein. I think that's wonderful.
    General, let me just compliment you on your testimony. You 
were very straightforward and very direct, and I just want you 
to know that it's very much appreciated.
    Just to follow up on Senator Bond's comments--and he and I 
work closely together on the Intelligence Committee--I had the 
opportunity to go to Geneva in November, with Senator Kyl, and 
to meet with both the Russian team and our team during these 
negotiations and spend some time with Ambassador Antonov. Two 
days ago, the chairman of the foreign affairs committee of the 
Federation Council, Mikhail Margelov, and also the vice 
chairman, met with me. This is the body that would ratify the 
treaty. It's the upper house. The Duma is the lower house. And 
so, it must go to the Federation Council. I had a very positive 
meeting with him, and really felt that there was a new voice in 
Russia. Now, this, of course, is the civilian voice, not the 
military voice. But, a real understanding of what was trying to 
be achieved, in terms of building trust and confidence between 
our two countries and, I think, a recognition that this is a 
different era and that all of these nuclear weapons, and the 
size of them, and the numbers of them, really do present 
jeopardy to both countries' in the long term. So, I was very 
heartened by that response.
    I have read the treaty. I have read the preamble. I have 
read our reaction to it. And just so that the record is clear, 
let me ask this question. Does anything in the proposed treaty 
interfere with your plans regarding missile defense?
    Senator Shelby. No, Senator.
    Senator Feinstein. Thank you.
    What is your interpretation of the new treaty and related 
unilateral statements made by Russia and the United States, 
with respect to missile defense? Are they similar to what was 
made before the first START Treaty?
    General O'Reilly. It is my understanding they are. As was--
has been mentioned before, that we have had similar unilateral 
presentations made by both countries in many of our previous 
treaties, such as the ABM Treaty, which we pulled out of, and 
we saw it wasn't in our national interest, because it did 
interfere with our plans to defend ourselves from the growing 
proliferation of missiles, which we saw. So, no, I don't see 
anything distinctively different.
    I do think this is an opportunity, though. As you said, 
Senator, I have said many times, in Moscow and other capitals 
around the world, with engaging with the Russians, that we do 
have opportunities to work with them, because the missile 
threat--proliferation of missiles--threatens them as it 
threatens us. And there are great opportunities for us to 
cooperate in sharing our sensor data, our future research and 
development, and our command and control activities and 
exercises, in order to build confidence, between both sides, 
that we're not threatening each other, but we are building 
ourselves a defense against the proliferation of these 
missiles.

                              START TREATY

    Senator Feinstein. What advances in missile defense 
technology do you think would prompt the Russians to threaten 
to withdraw from the treaty?
    General O'Reilly. My understanding is that they thought it 
would undermine the strategic balance between our offensive 
capability and their offensive capability.

              EUROPEAN LAND-BASED VERSUS SEA-BASED DEFENSE

    Senator Feinstein. Thank you. I think that's correct.
    Let me switch to a--different areas. A lot has been 
discussed in the media about the decision to shift the focus 
from a European land-based defense strategy to a medium-term 
sea-based strategy. Now, as a result, the Navy--our Navy--will 
assume a significant burden in providing the necessary ships, 
missiles, radars, and related components to really be a 
credible deterrent against enemy threats and to provide the 
required defense against actual attacks. Have we assumed new 
risks in continental Europe or here in the United States by 
shifting the emphasis away from a ground-based system to a sea-
based defense?
    General O'Reilly. During our review last year--and we 
worked extensively with the Navy--the Department of Defense 
made the determination that there was a need to continue a 
ground-based capability that had greater range than our mobile 
systems do, such as THAAD. And in that case, we determined the 
aegis ashore, which is taking Navy capability and putting it 
into a semi-permanent location that could be moved at a later 
date and that is flexible against threats. But, we do have that 
capability.
    On top of that, though, the Navy also agreed to be the lead 
service to man and equip and train those operations on the 
shore. That, in fact, gives the Navy greater capability, 
because, while the larger pool of common missiles for them to 
manage between sea and at land, and also for their personnel, 
who today the--most of the aegis assignments are at sea, and 
this gives the Navy leadership the opportunity to rotate 
between land assignments and sea assignments. And there's a 
tremendous economical benefit of having one capability work 
both at land and at sea.
    We're also increasing our number of aegis ships that have 
ballistic missile defense capability. Last year's budget was 
for 27 ships. This year we're proposing 38 ships to also 
address that issue.

                            LAND-BASED AEGIS

    Senator Feinstein. Thank you.
    What land-based requirements remain in Europe for the 
implementation of the new sea-based missile system?
    General O'Reilly. The countries of Poland and Romania have 
both indicated that they would be willing to host our aegis 
ashore system. So, as we increase the capability for aegis at 
sea with newer missiles that we currently have in development, 
including the one with the Japanese, we will have that 
capability on the land, and that will provide very large 
protection over Europe. We believe, with the--our estimates and 
our technical evaluations indicate, with the latest missile for 
aegis, the aegis SM-3 IIB, from those two sites alone, you can 
protect all of NATO.
    Senator Feinstein. So--and I am extrapolating here, and 
please disabuse me of the notion if it's incorrect--you are 
essentially saying that this new system offers a much better 
umbrella of protection.
    General O'Reilly. For the threats to Europe, it definitely 
provides a much greater protection. Our concern was, we--with 
the previous approach was, we would never be in a position, or 
we would not be in a position, to defend the United States, 
anyway, from Europe, because of our commitments under NATO to 
defend the European cities if they were attacked with short-
range or medium-range missiles that do exist today. We wouldn't 
have those 10 missiles available to defend the United States. 
So, we believe that the approach we have taken assures us to 
have capability to defend our homeland, but also greater 
protection over Europe, especially in southeastern Europe today 
that is under the threat of ballistic missiles from the Middle 
East.
    Senator Feinstein. Is it fair to interpret that answer as 
``yes''?
    General O'Reilly. Yes. Yes, ma'am.
    Senator Feinstein. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Inouye. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    And thank you, General O'Reilly, for your testimony. It's 
been very helpful.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Chairman Daniel K. Inouye
                   aegis standard missile acquisition
    Question. I continue to be impressed by the success of the Aegis 
missile defense program. I am concerned, however, that MDA is stopping 
production of the SM-3 Block IA missile prematurely. The Navy and the 
Combatant Commands want more of these missiles deployed, but there are 
just not enough. This Committee provided funding to buy 6 additional 
Block IA missiles in fiscal year 2010, but due to the continued delay 
in testing of the follow-on missile, there will be a production gap 
that compounds the shortage of fielded missiles. I understand that you 
are looking at alternatives for extending production of the Block IA 
missile. Can you please update us on the progress of those plans?
    Answer. In developing the fiscal year 2011 budget request, the 
Missile Defense Executive Board (MDEB) balanced the need for building 
missile inventory with continuing capability development of the next 
version of the SM-3. The SM-3 Block IA production line is in the final 
phases of production before shifting to the Block IB. The SM-3 Block IA 
unique suppliers begin going out of qualification in May/June 2010 (see 
figure 1 of attachment 1). First discussed in 2008, it was determined 
that this approach was acceptable and appropriately balanced risk.
    Discussion.--The first flight test of the SM-3 Block IB (``FTM-
16'') is in late March 2011. If a decision were made to continue SM-3 
Block IA production, there are a range of options for maintaining a 
production line and vendor base for the SM-3 missile, numbered 1 to 4 
below. These options range from buying spare parts to procuring 
additional SM-3 Block IAs.
    As of the date of this response, unique SM-3 Block IA vendors have 
not had work for over 6 months and are losing qualification. Loss of 
supplier qualification will add $53.5 million additional cost to the 
numbered options below to execute if orders are planned by the end of 
CY 2010.
  --Procure only spare parts in quantities which preserve supplier 
        qualifications, fiscal year 2010 estimated additional cost of 
        $60-70 million for 12 SM-3 Block IA ``KV kits.'' These KV kits 
        would be full ``pulse mode'' capable and could be used to swap 
        out the first eight SM-3 Block IA KVs that were limited to 
        ``sustain mode'' operation or provided to the U.S. Navy as 
        additional spares for SM-3 Block IA requalification. If 
        ordered, these additional missiles would sustain the vendor 
        base through May 2011.
  --Combine with fiscal year 2010 additional procurement funding ($57.6 
        million), procure 10-12 more SM-3 Block IA, fiscal year 1010 
        estimated additional cost of $60-80 million, plus $10 million 
        of fiscal year 1010 RDT&E to re-host Central Processing Unit 
        (CPU)2. Ordering 10-12 more missiles would sustain the vendor 
        base through May 2011.
  --Procure a mix of new missiles and KV kits to refurbish missiles; 
        fiscal year 2010 estimated additional cost of $120-150 million, 
        plus $10 million of fiscal year 2010 RDT&E to re-host CPU2. 
        This option is a hybrid of the first 2. It would sustain the 
        vendor base through October 2011.
  --Procure 36 more SM-3 Block IA missiles to keep vendors qualified 
        over a longer term; estimated additional cost of $345-375 
        million, including $15 million RDT&E fiscal year 2010 to re-
        host CPU2 and conduct design verification tests of other parts. 
        This would require a modification to our existing SM-3 Block IA 
        Justification and Authorization (J&A). This option would 
        continue SM-3 Block IA into fiscal year 2012.
               theater high altitude area defense (thaad)
    Question. I understand that there is a Failure Review Board 
investigating a faulty component on the THAAD interceptor. Due to the 
faulty part, THAAD production is on hold. What is the current impact to 
the program, and how will it affect delivery of the THAAD batteries to 
the Army?
    Answer. The THAAD program has completed the manufacturing for all 
THAAD fire control and launcher ground components for the first two 
THAAD batteries. However, THAAD production interceptor deliveries have 
been delayed.
    During November 2009, in-process test failures were experienced 
within an optical switch during production of ignition system 
components for the initial lot of THAAD tactical interceptors. A 
Failure Review Board (FRB) was convened to assess the cause of these 
failures. The FRB concluded that the current switch design is sensitive 
to contamination introduced during the manufacturing process. The 
switch vendor completed implementation of production contamination 
reduction processes and procedures and reopened the optical switch 
production line on May 11, 2010. The current production schedule for 
the first THAAD interceptor projects a first quarter fiscal year 2011 
delivery.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
    Question. What are the 2011 plans for the Airborne Laser research 
and development program? What are some of the compelling new high 
energy laser technologies that have been or may be demonstrated?
    Answer. The Airborne Laser Test Bed (ALTB) is the subject of a 
SECDEF-directed study by the Director of Defense Research and 
Engineering (DDR&E), Cost Assessment and Program Evaluation (CAPE), and 
High Energy Laser Joint Technology Office (HEL JTO) to shape the future 
of the platform. The study is due to the DEPSECDEF in June 2010 and 
will describe the best use of the ALTB in flight and ground tests to 
characterize high-energy laser beam propagation and to further 
investigate emerging high energy laser technologies in their 
implementation environment.
    Two new laser technologies are the Enhanced Track Illuminator Laser 
(ETILL) technology for kilowatt-class laser tracking, and the Diode 
Pumped Alkali Laser (DPAL) technology which has the potential for 
scaling to megawatt-class power.
    ETILL is a kilowatt class replacement for ALTB's current Track 
Illuminator Laser (TILL) for improved active tracking of targets at 
extended ranges. ETILL is 2.5 times more powerful than the TILL and has 
4-5 times better beam quality, enabling an approximate 400 percent 
increase in tracking range. ETILL is the first cryogenically cooled 
diode-pumped solid state laser designed to operate in an aircraft 
environment. The system is currently entering laser performance testing 
and could be integrated onto ALTB within 1 year.
    DPALs are a new class of lasers that combine the benefits of solid 
state and gas lasers. DPALs are electrically powered like solid state 
lasers, but have a gas lasing medium that can be flowed for scaling to 
higher power while maintaining good beam quality. Unlike the Chemical 
Oxygen Iodine Laser (COIL) High Energy Laser (HEL) currently used on 
the ALTB, the gas in a DPAL would be contained in a closed cycle so 
that no chemicals would be consumed or required for operation. DPALs 
can convert electrical energy to laser energy very efficiently. DPALs 
have been demonstrated with output powers in the hundreds of watts and 
DPAL scaling to the multi-kilowatt power level in the laboratory is 
scheduled to be demonstrated by the end of 2010 at the Lawrence 
Livermore National Laboratory. Subsequent scaling to a megawatt-class 
DPAL in the laboratory would require several more years.
    Question. What is the Department of Defense's long term strategy 
and financial budget for this platform?
    Answer. Consistent with the SECDEF's direction, the Airborne Laser 
Test Bed (ALTB) will transition to a directed energy test bed to 
conduct high energy laser experimentation. The ALTB is the subject of a 
SECDEF-directed study by the Director of Defense Research and 
Engineering (DDR&E), Cost Assessment and Program Evaluation (CAPE), and 
High Energy Laser Joint Technology Office (HEL JTO) to shape the future 
of the platform. The study is due to the DEPSECDEF in June 2010 and 
will describe the best use of the ALTB in flight and ground tests to 
characterize high-energy laser beam propagation and to further 
investigate emerging high energy laser technologies in their 
implementation environment. This report will serve as the basis for a 
long-term strategy for ALTB.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question. Who is the DOD lead for cruise missile defense? Summarize 
what is currently being done to protect our deployed forces and our 
homeland against the cruise missile threat.
    Answer. The Missile Defense Agency is chartered to develop 
ballistic missile defense capabilities. The Services are responsible 
for the development of defenses against cruise missile and air-
breathing threats. DEPSECDEF on July 22, 2008 designated USSTRATCOM as 
the Air and Missile Defense Integrating Authority.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. In an interview with Deputy Under Secretary of the Air 
Force for Space Programs Gary Payton, published in Space News on April 
19, 2010, Dep. Under Secretary Payton concluded that the President's 
new direction for NASA would have a small, but manageable, impact on 
Navy and Air Force ballistic missiles, and only a ``trivial impact'' on 
DOD space launch capacity.
    Do you share Deputy Under Secretary Payton's conclusions? What 
impacts do you believe the President's new direction for NASA has on 
the Department's space and missile programs?
    Answer. MDA is working closely with the Air Force, NASA and other 
members of the Solid Rocket Motor (SRM) Interagency Task Force (IATF) 
to develop a consolidated assessment of the impact of NASA's new 
direction on the industrial base and develop a roadmap which is due to 
Congress in June 2010.
    Question. Which major ongoing Department of Defense programs 
promote continued development of solid rocket motor development?
    Answer. For large SRM (>40 inch diameter), there are currently no 
development efforts among the Services and agencies in the FYDP. 
However, MDA is developing a 21 inch diameter (small) solid rocket 
motor for the SM3 IIB second stage and possibly third stage.
    Question. What is the long-term plan to sustain the high-tech solid 
rocket motor industrial base?
    Answer. MDA's long-term plan to sustain the high-tech Solid Rocket 
Motor (SRM) Industrial Base (IB) includes supporting the SRM IB Inter-
Agency Task Force (IATF) development of a SRM sustainment plan. MDA 
believes that we need:
  --To work with industry to ``right size'' and align capacity to 
        reality;
  --To ensure long-term viability of small and large SRMs (missile 
        defense and tactical systems);
  --To closely monitor the already fragile critical sub-tier supplier 
        base; and
  --Propose plans to retain SRM expertise and facilities for future 
        contingencies.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                  israeli cooperative program support
    Question. General O'Reilly, the United States and Israeli 
governments have been working together to develop an upper-tier 
component for the Israeli missile defense program. I understand the 
Israelis are pursuing the enhanced version of Arrow, Arrow-3, and are 
required to meet knowledge points to measure their progress. Can you 
give us an update on Israel's progress in relation to meeting those 
knowledge points?
    Answer. The Arrow-3 development program continues to make 
significant progress. Three Knowledge Points (KPs) have been 
successfully completed, two KPs have been executed and are under review 
by MDA, and three additional KPs are scheduled to be executed by the 
first quarter of fiscal year 2011. A Critical Design Review is 
currently scheduled for June 2010.
    MDA prepared a classified report on Arrow-3 Knowledge Points which 
was delivered to Congress by the Under Secretary of Defense for 
Acquisition, Technology and Logistics (AT&L) on April 12, 2010. The 
report provides detailed information on the knowledge points, schedule, 
and assessment of program milestones.
    MDA has provided a separately required Arrow-3 Knowledge Point 
Report to Congress that is currently under review within the 
Department. This report will provide the most current KP status 
information and delivery is expected by the end of June 2010.
                            sea-based assets
    Question. General O'Reilly, it appears that there is an 
insufficient inventory of Ballistic Missile Defense capable Aegis-class 
ships to implement the President's Phased Adaptive Approach strategy 
for missile defense in Europe and the Middle East and to address 
concerns in other parts of the world, including North Korea. Earlier 
this year, Admiral Walsh, the Commander of the Pacific Fleet, indicated 
that the U.S. Pacific Fleet had a decline in ship inventory due to 
supporting missions in Iraq, Africa, and battling increased incidents 
of piracy.
    General, given this decline in ship inventory in the Pacific and 
other regions and the increased demand associated with the President's 
new strategy, how has the Missile Defense Agency and the Navy been 
working to alleviate the shortfall in Ballistic Missile Defense capable 
ships? Is there any consideration being given to building or modifying 
meaningful numbers of additional Ballistic Missile Defense capable 
Destroyers to address these shortfalls in a timely fashion?
    Answer. Yes, MDA and the U.S. Navy plan to increase the number of 
BMD capable ships from 21 today to 38 by the end of 2015 as stated in 
the Additional Requirements for Investment in Aegis Ballistic Missile 
Defense Report to Congress (RTC) dated April 2010. In support of this 
plan, Navy has requested a transfer $15 million of fiscal year 2010 
funds to the Missile Defense Agency (MDA) to accelerate the number of 
Aegis BMD ships. The reprogramming package was forwarded to Congress in 
April 2010. In order to further complete these accelerated BMD ship 
upgrades the Navy has also requested the transfer of $74 million in 
President's budget 2011 from the Navy to MDA.
         nato--active layered theater ballistic missile defense
    Question. General O'Reilly, the Quadrennial Defense Review released 
earlier this year stresses a focus on building partnerships with 
overseas allies. I understand we are beginning to integrate different 
components from various NATO allies to form a tiered active ballistic 
missile defense system. Can you highlight the United States' 
contribution and cost for this effort and does it replace what we 
already have established with these allies?
    Answer. MDA has been working with NATO for more than a decade. Over 
the years, the MDA and NATO have worked collaboratively on developing 
documentation and demonstrating interoperability. This ongoing work has 
gained significant momentum since NATO established the Active Layered 
Theatre Ballistic Missile Defense Programme Office (ALTBMD PO) in 2005. 
This work is the foundation of the efforts to develop interoperable 
missile defense capabilities with our NATO allies.
    Specifics include:
  --Current MDA budget for this is fiscal year 2010: $2.75 million; 
        fiscal year 2011: $3 million; fiscal year 2012: $3 million.
  --MDA and the ALTBMD PO jointly developed Interface Control Documents 
        (ICDs) for real-time and non-real-time information exchange.
    --Real-time ICDs document the exchange of situational awareness 
            information between NATO Air Command and Control System and 
            the U.S. C\2\BMC, Aegis BMD, and Patriot systems.
    --Non-real-time ICDs document the exchange of planning and tasking 
            information between U.S. and NATO missile defense command 
            and control systems.
  --MDA and NATO have conducted bi-lateral testing of real-time 
        information exchange between C\2\BMC, Aegis BMD, and Patriot 
        systems and a prototype of the NATO Air Command and Control 
        System.
  --Non-real-time exchange of planning and tasking information has been 
        demonstrated between the U.S. C\2\BMC planner and the NATO 
        planning and tasking tool (PlaTo).
  --MDA and NATO ALTBMD PO are developing the necessary testing 
        infrastructure.
    --International Point of Presence (IPOP) laboratory serves as the 
            U.S. interface between NATO missile defense Integration 
            Test Bed in The Hague, The Netherlands and U.S. missile 
            defense laboratories.
    The United States and NATO have begun discussions for a Memorandum 
of Agreement regarding modifications at Ramstein, AFB, to be the 
operational communications interface point. Information exchange 
between U.S. Phased Adaptive Architecture systems (via C\2\BMC) and 
ALTBMD systems will occur between the U.S. teleport on Ramstein and the 
NATO General Communication System at Ramstein. The United States has 
built bi-lateral communications enclaves for several Host Nations. 
Expanded connectivity with Allies is anticipated to be via Ramstein.
    A strong foundation has been documented, built and tested for 
interoperability between U.S. and Allied forces. Our current efforts do 
not replace what we have established with our NATO allies; it leverages 
our past efforts with the existing and planned NATO command and control 
systems. Subsequent work will build upon this foundation.
                            sm-3 missile gap
    Question. General O'Reilly, I understand a major component of the 
Missile Defense Phased Adaptive Approach strategy involves the use of 
Ballistic Missile Defense-capable Aegis ships equipped with SM-3 
missiles. I have been informed that while the Missile Defense Agency 
continues developing the newest and more capable version of the SM-3 
missile, the Block IB, the main production line for the current 
version, the Block IA, is shutting down. What are the costs associated 
with restarting the production line for the updated SM-3 missile once 
the line for the old missile has been shut down, and have you or do you 
plan to budget for these additional costs?
    Answer. The overall production line for the Standard Missile-3 (SM-
3) missile will not shut down. The last SM-3 Block IA is scheduled for 
delivery in fiscal year 2012, at which time the SM-3 production line 
will transition from the Block IA configuration to the Block IB 
configuration, completing in 2013. In the interim time period, we will 
cease procuring unique Block IA parts and start buying unique Block IB 
parts. After Calendar Year 2010, the majority of Block IA unique 
suppliers will be out of qualification. The SM-3 Block IB production 
line will require some new, different test equipment and assembling 
processes.
    There is no cost to restart the SM-3 production line as work on the 
line (either production or transition) never ceases. The cost 
associated with transitioning the SM-3 production line is $55 million 
over 3 years. President's budget 2011 contains a portion of that cost.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby
    Question. General O'Reilly, at the present time, only two U.S. 
companies produce solid rocket motors for all of our nation's needs, 
and only one company manufactures their most key ingredient: the 
oxidizer. These three companies support all missile defense programs, 
plus all strategic missiles, military, and commercial space lift 
capabilities, NASA human spaceflight systems, and the entire cadre of 
tactical missiles available to today's war fighter. Since the early 
1990s, NASA has served as the anchor tenant for this industry, 
providing a stable backbone to offset the often inconsistent production 
requirements of military and commercial programs. However, demand for 
products made by the solid rocket motor industry has been in steady 
decline for many years, and is right now experiencing a further 
dramatic drop with the completion of the Minuteman III Propulsion 
Replacement Program, the retirement of the Space Shuttle, the 
termination of the Kinetic Energy Interceptor, and the production 
slowdown of Ground-based Midcourse Defense interceptors. Now, NASA has 
announced the cancellation of the Constellation program. This will have 
a significant impact on industry's ability to continue to safely, 
reliably, and affordably produce solid rocket motors to meet our 
nation's needs. What plans has the Missile Defense Agency made to 
sustain this industry, to continue to meet current deployed and future 
anticipated missile defense needs? I recognize that, in response to 
direction from the Congress last year, that the Office of the Secretary 
of Defense is developing a roadmap on how to best sustain this 
industry. What inputs have you or your agency provided to that ongoing 
study? Have you had any conversations with other government agencies, 
such as NASA, about the need to sustain this industry, and if so, 
please share with us any concerns you may have expressed about the 
impact of NASA's decision on your ability to meet current and future 
missile defense requirements?
    Answer. MDA's long-term plan to sustain the high-tech Solid Rocket 
Motor (SRM) Industrial Base (IB) includes supporting the SRM IB Inter-
Agency Task Force (IATF) development of a SRM Sustainment Plan. MDA 
believes that we need:
  --To work with industry to ``right size'' and align capacity to 
        reality;
  --To ensure long-term capability to produce small and large SRMs 
        (missile defense and tactical systems); and
  --To closely monitor the already fragile critical sub-tier supplier 
        base.
    MDA is working closely with the OSD Solid Rocket Motor (SRM) 
Industrial Base (IB) Inter-Agency Task Force (IATF) on the development 
of an integrated roadmap that includes DOD, MDA and NASA requirements. 
MDA's participation in the IATF Working Group (IWG) involves hosting 
the IWG meetings, participating in industry site visits and assessments 
and

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will stand in recess 
until Wednesday, May 12, and at that time we'll receive 
testimony from the Secretary and Chief of Staff of the Air 
Force to discuss the Air Force's fiscal year 2011 budget 
request.
    We'll be in recess.
    [Whereupon, at 11:20 a.m., Wednesday, April 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, MAY 12, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Murray, Cochran, 
Bond, Bennett, and Brownback.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. All right. First, I would like to 
apologize for our lateness. We had a few votes.
    This morning, we welcome back the Honorable Michael Donley, 
Secretary of the Air Force, and General Norton Schwartz, the 
Air Force Chief of Staff. And we thank you for being here as 
the subcommittee reviews the Air Force's budget request for 
fiscal year 2011.
    For fiscal year 2011 the Air Force is requesting $150 
billion in base budget. This funding level is an increase of 
$15.3 billion over last year's enacted budget, excluding 
funding appropriated in fiscal year 2010 supplemental.
    The Air Force is also requesting $20.8 billion for overseas 
contingency operations for fiscal year 2011, and $6.1 billion 
for the remainder of fiscal year 2010, primarily to fund the 
surge operations in Afghanistan.
    The 2010 Quadrennial Defense Review (QDR) emphasized the 
need to prevail in today's wars, while building the 
capabilities to deal with future threats. The fiscal year 2011 
budget request is consistent with these goals.
    The Air Force's budget supports its highest priorities, 
which are to strengthen air, space, and cyber capabilities to 
help win the wars in Iraq and Afghanistan. For example, the Air 
Force continues to invest in intelligence, surveillance, and 
reconnaissance (ISR) programs. These assets, such as the MC-12 
Liberty aircraft and Reapers and Predator unmanned aerial 
vehicles (UAV's) are significantly improving the situational 
awareness of our forces in the area.
    Success in getting timely information to the warfighter 
directly depends on having the manpower available to pilot the 
vehicles and to provide actionable intelligence. The Air Force 
will allocate more than 3,600 employees to support the 
processing, exploitation, and dissemination of intelligence 
collected by manned and remotely piloted vehicles by the end of 
fiscal year 2011. The Air Force will be operating 50 continuous 
combat air patrols with remotely piloted vehicles in the 
theater.
    And the subcommittee is pleased with the way the Air Force 
has rapidly increased the intelligence, surveillance, and 
reconnaissance capabilities to meet high theater demands, and 
interested in how these assets will become part of the enduring 
force structure.
    While fully engaging in the present conflicts, the Air 
Force is also aggressively addressing deficiencies in the older 
mission, the nuclear enterprise. The Air Force implemented a 
number of measures to strengthen stewardship of its nuclear 
arsenal, including the creation of Air Force Global Strike 
Command in August 2009. This action was a significant step in 
revitalizing the commitment to high safety and compliance 
standards in this critical mission.
    The budget also portrays the Air Force preparing for the 
future. Funds are requested to initiate the new tanker program 
and begin the requirements work for the new, next-generation 
bomber.
    So, too, the Joint Strike Fighter (JSF) Program is funded 
consistent with the Department's most recent cost, schedule, 
and performance assessments. These are all important 
recapitalization efforts.
    The budget also contains substantial investment in space 
and space-related systems, including both major satellite 
programs and small efforts, like the Operation Ally Responsive 
Space Program, which focuses on rapid and innovative 
technologies.
    Looking to the future, the Air Force has a number of 
challenges, from modernizing aircraft and other equipment to 
ensuring that there is adequate manning for growing missions, 
such as cybersecurity, ISR, and the acquisition workforce.
    The subcommittee is interested in understanding how the Air 
Force is addressing these challenges. Yesterday, the Air Force 
announced its force structure plans for 2011. We hope our 
witnesses will address the proposed changes and their impact on 
the force capability and readiness.
    So, gentlemen, we sincerely appreciate your service to our 
Nation, and recognize the dedication and services made dearly 
by the men and women of our Air Force. We could not be more 
grateful for what those who wear our Nation's uniform do for 
our country each and every day.
    And I look forward to our testimony this morning. And your 
full statements will be included in the record.
    And at this moment, the vice chairman is still at the 
voting chamber, so I will call upon Senator Bond, if he has any 
statement to make.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. I asked 
him to be sure and start the timer, because I've got a lot to 
say, but I join with you in welcoming Secretary Donley and 
General Schwartz. We welcome you back to the subcommittee. 
Thank you for your service.
    Mr. Secretary, I especially want to thank you for attending 
the launch of the Senate Aerospace Caucus last week with 
Senator Murray.
    We believe the American aerospace industry has made our 
Nation the global leader in the civil aviation sector, and has 
helped produce the strongest military in the world. Despite its 
importance, not only to our military and to our economy, we all 
recognize the industry faces several challenges.
    And Senator Murray and I look forward to working with you 
and the rest of the Aerospace Caucus to elevate the awareness 
about the challenges and the efforts to protect a strong and 
competitive American aerospace industrial base.
    But, in addition to that, I am very much concerned about 
the ability of the Air National Guard to continue to operate 
amid the looming shortfalls and the age of our aircraft.
    Mr. Secretary and General, let me dive right in. I am 
afraid we are looking at a backdoor base realignment and 
closure (BRAC) on the Air Guard. In my view, no progress or 
proactive steps have been taken to address, substantively, the 
looming tactical airpower (TACAIR) bathtub in the Air Guard. 
That's first.
    All I continue to hear about are plans to reduce the size 
of the Air Force and the Air Guard. The Air Guard cannot be 
expected to give up aircraft and missions in the near term, 
only to be told they will eventually be provided with new, 
still undefined missions later, or be told that the Joint 
Strike Fighter replacements are coming, when we all know they 
will not be available in time. Such a leap of faith will result 
in the atrophy of a number of Air Guard units that won't be 
able to train or recruit without viable replacement missions or 
aircraft.
    But, I'm afraid that's exactly what we are doing. That's 
why I've labeled it, I believe appropriately, as a ``backdoor 
BRAC'' of Air National Guard units. This backdoor BRAC will 
threaten our ability to police our Nation's skies, a roll of 
the dice with our national security that I'm not willing to 
take, and I don't think anybody here should.
    Further, I don't subscribe to the overall line of thinking 
that we have to accept a smaller Air Force. It's my strong view 
the falsehood is being driven by a thorough--not by a thorough 
analysis of foreseeable threats and requirements, but by self-
fulfilling Pentagon budget studies and the extreme cost 
overruns and scheduling delays of a major program like JSF.
    Delays in cost growth from the JSF are sucking all the 
oxygen and resources out of other procurement needs. That 
results in our pilots flying aircraft that are, in many 
instances, older than they are. That ought to be unacceptable 
for the world's greatest superpower.
    In addition, the threat to the Air Guard and their critical 
missions to defend our Nation's skies, going down the current 
path is a threat to our defense industrial base. The Air Force 
long-term budget contains few new programs of the kind required 
to retain engineers and designers that will preserve our air 
dominance in the years to come.
    Secretary Gates killed or scaled back almost 50 major U.S. 
defense programs last year, but still poured billions more into 
a program that has had a Nunn-McCurdy breach--a big-time 
breach, a huge cost overrun on the JSF. Without other new 
programs, aerospace engineering and design skills will atrophy. 
With the atrophy of the defense industrial base which we've 
been seeing since the 1990s, innovation will be stifled and a 
lack of competition will lead to higher price tags for new 
platforms that will be procured in smaller numbers. Does that 
sound familiar?
    With the threats to our long-term and short-term security 
emanating from all over the globe, and for places where 4.5 
aircraft could meet the needs, I think it's important to 
maintain a quantitative edge, as well as it's important to 
maintain a quality edge. As capable as an F-22 is, it cannot be 
in three places at once.
    With that, Mr. Chair, I thank you and await the questions.
    Chairman Inouye. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Well, thank you, Mr. Chairman.
    And because of the new Supreme Court nominee, I have to go 
to meet up with her. But, I am delighted to see Secretary 
Donley and General Schwartz here.
    I have some questions I will submit for the record, with 
the Chairman's----
    Chairman Inouye. It will be.
    Senator Leahy [continuing]. Permission, Mr. Secretary, on 
community basing, especially the initiative in Burlington, 
Vermont.
    I'm very interested in knowing the answers. I hope that you 
could call me with the answers, or that your staff could work 
with mine to provide a response.
    And, of course, the so-called fighter bathtub issue that's 
looming over the Guard--Senator Bond and I are cochairs of the 
Senate National Guard Caucus, and we're both concerned about 
that.
    So, with your permission, Mr. Chairman, I will submit those 
questions for the record.
    I'm delighted to see Secretary Donley here. We've had a 
chance to chat on other occasions. It's great to be here with 
him, and also with General Schwartz, who I've talked with on 
other occasions.
    Chairman Inouye. Thank you.
    Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much.
    I know that the Air Force has been through a couple of 
years of some--2 or 3 years of some real turbulence and 
difficulties and embarrassments, and so on. And I just want to 
observe that I think the Secretary and the Chief have taken 
action to provide some stability. And I think things are on 
track in the Air Force. I appreciate, very much, their 
leadership.
    And even while saying that, I don't want to cast aspersions 
on some of the others. I understand the captain of the ship is 
responsible for all that goes on in the ship, but the Air Force 
has had some good leadership over time, and I appreciate the 
willingness of the Secretary and the Chief to serve.
    Let me just say, I think the least surprising development 
in the last decade was: If you go to war and wage war for 8 
years halfway around the world, and don't pay for one penny of 
it, but just put it all on emergency spending, don't ask the 
taxpayers to pay for it; charge it all as emergency spending--
that someday you're going to run up against defense with no 
gate. And that's what Secretary Gates, I think, was saying the 
other day.
    This country can't continue to do that. Its fiscal policy 
is absurd. We know better than this. And so, it puts an 
enormous pinch on services like the Air Force.
    My colleague raised a point about the new fighter. I mean, 
I think it is the case that all of us are concerned about the 
per-unit costs of the planes we're buying. It's not just 
planes. It's every piece of equipment for the military. The 
per-unit cost continues to go up, up, and up. And that's a 
great concern.
    But, I think Secretary Gates is saying the right things 
publicly, and with some courage. We've got to address all of 
these issues. This will not be a time, going forward, like the 
time that we've just seen. And wherever--whatever someone 
needs, ``It's fine. We'll just pay for it and charge it.''
    Let me also say that I visited Creech Air Force Base last 
Friday, and had briefings on the unmanned aerial vehicles 
(UAVs). And it's very interesting to me, as it has always been, 
that that represents, in many ways, the future of the Air 
Force. I mean, we fly, as you--all of us know, fighter missions 
out of the most unusual places in this country, real time, with 
unmanned aerial vehicles, halfway around the world, with the 
most sophisticated satellite, and so on. It's pretty 
unbelievable.
    And I also think that much of what we're going to be 
discussing, going forward, is what this new paradigm--this new 
unmanned aerial vehicle system means, in terms of how we fight, 
how we train, and all of those issues.
    And I just want to say, General Schwartz, the folks that 
you have at Creech, the commander and others, are really first-
rate. And I had a chance to observe those who are flying the 
UAVs, and I came away mightily impressed, as I always do, but 
especially, I think--it's the first place where we've had these 
unmanned aerial vehicle operations, I think, starting maybe 8, 
9 years ago. But, it's an extraordinary place.
    So, I have a few questions. I'm not sure I'm going to be 
able to stay for all of it, today. But, I thank you, Mr. 
Chairman, for inviting the Secretary and the Chief.
    Chairman Inouye. Thank you.
    The vice chairman.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much for 
convening the hearing.
    I join you in welcoming our distinguished witnesses at this 
hearing. They have very important responsibilities in managing 
the Air Force and making sure that we are protecting our 
national security interests with the best there is. And we 
appreciate that very much.
    Thank you.
    Chairman Inouye. Thank you.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, thank you so much for having 
this hearing.
    And, Secretary Donley, I join with Senator Bond in thanking 
you for joining us for our first meeting of the Aerospace 
Caucus. It's extremely important that we begin to look at long-
term planning to make sure that we maintain our aerospace 
industry in this country, for all the reasons that are 
important to our military, as well as our economy and in the 
future. And I appreciate your participation in that.
    I do have a number of questions, and I will use those 
during my question time.
    And again, welcome, to both of you.
    And thank you for having this hearing.
    Chairman Inouye. Thank you.
    And now, Mr. Secretary.

              SUMMARY STATEMENT OF HON. MICHAEL B. DONLEY

    Mr. Donley. Thank you, Mr. Chairman, members of the 
subcommittee.
    It is truly an honor to be here today representing almost 
680,000 Active Duty, Guard, and Reserve airmen and Air Force 
civilians. I'm also honored to be here with General Schwartz, 
who has been a tremendous partner and a tireless public 
servant, especially over the past couple of years, in addition 
to a very long and distinguished career, prior to this 
assignment.
    I'm pleased to report, today, that America's Air Force 
continues to make progress in strengthening our contributions 
as part of the joint team and the overall excellence that is 
the hallmark of our service.
    We're requesting $150 billion in our baseline budget, and 
$20.8 billion in the overseas contingency operations 
supplemental appropriation to support this work.
    In the past year, and planning for the future, we've 
focused on balancing our resources and risk among the four 
objectives outlined by Secretary Gates in the 2010 QDR.

                      FOUR OBJECTIVES IN 2010 QDR

    First, as the chairman noted, we must prevail in today's 
wars. Your Air Force understands the gravity of the situation 
in Afghanistan. And, as we continue to responsibly draw down 
our forces in Iraq, we are committed to rapidly fielding the 
needed capabilities for the joint team, such as surging ISR 
assets into the theater and maximizing air mobility to 
accelerate the flow of forces into Afghanistan.
    Second, we must prevent and deter conflict across the 
spectrum of warfare. And as we assess potential implications of 
the Nuclear Posture Review (NPR) and the new Strategic Arms 
Reduction (START) Treaty, we continue concentrating on the 
safety, security, and sustainment of two legs of the Nation's 
nuclear arsenal.
    Last year, we stood up the Air Force Global Strike Command, 
and we now have realigned our intercontinental ballistic 
missile (ICBM) and nuclear capable bomber wings under the 
control of a single commander. We also realigned 
responsibilities to the Nuclear Weapons Center to consolidate 
the management of all our nuclear weapon sustainment 
activities.
    And to increase our engagement across the world, we're 
building partner capacity, in Afghanistan and Iraq especially, 
and developing a training framework that emphasizes light 
attack and mobility that can benefit other nations.
    Third, we must prepare to defeat adversaries and to succeed 
in a wide range of conflicts. We need to ensure we're providing 
the right capabilities with our strategic airlift and ISR 
platforms, and ensure that our space-based assets continue to 
deliver needed capabilities into the future.
    In addition, the last two decades of sustained operations 
have strained our weapons systems. We continue to determine 
which aircraft we will modernize and sustain, and which we must 
retire and recapitalize. One of our primary efforts includes 
retiring and recapitalizing many of our legacy fighters and 
tankers, and replacing them with the F-35 and the KC-X.
    These decisions require tough choices as well as the 
ability to quickly field systems that meet warfighter needs at 
an affordable price. Because acquisition underpins this effort, 
we're continuing our work to recapture excellence in this area, 
as well. And in the past year, we've made significant strides 
in reforming our internal processes. We've added more program 
executive officers and are growing our acquisition workforce by 
several thousand professionals over the next 5 years.
    Finally, we need to preserve and to enhance our All 
Volunteer Force. Airmen are our most valuable resource, and 
they have performed superbly in every mission and deployment 
they've undertaken.

                      YEAR OF THE AIR FORCE FAMILY

    With the understanding that their families serve alongside 
them, in July of last year, the Chief of Staff, the chief 
master sergeant of the Air Force, and I began a year-long focus 
on our men and women, and their families. This ``Year of the 
Air Force Family'' recognizes their sacrifices and looks to 
determine how we can better support, develop, house, and 
educate them. As this effort draws to a close later this 
summer, we're determining which programs are performing well, 
and where we can do better.
    Mr. Chairman, your Air Force is performing exceptionally 
well in supporting the current fights; responding to growing 
demands and shifting personnel priorities on short notice. But, 
we're increasingly stressed inside the continental United 
States. Rebuilding nuclear expertise will require continued 
determination and patience. And we are taking more risk in 
nondeployed force readiness. And, as you mentioned, Mr. 
Chairman, we're facing significant challenges in modernization 
and in our infrastructure.
    At the same time, however, we are developing and fielding 
new technologies and capabilities that bode very well for our 
future. I can tell you, after a recent trip to the U.S. Central 
Command area, that we are recruiting and training some 
incredible airmen. General Schwartz and I can, again, confirm 
that the Air Force is blessed with an outstanding civilian and 
military leadership team to help us address these challenges.
    Our priorities are clear. We must make the most of those 
resources available to balance capability against risk, 
balancing winning today's wars against preparing for 
tomorrow's. We need to prevail in today's fights, and we 
continue to add capability in every way possible to help ensure 
the success of ongoing conflicts. We must prevent and deter 
future conflict, where we can, and continue to be prepared for 
and succeed across this full spectrum of conflict. And finally, 
we must continue to preserve our airmen and their families, for 
they are truly our hedge against an uncertain future.

                           PREPARED STATEMENT

    We're very grateful for the subcommittee's support in this 
work, and we look forward to working with you and to answering 
your questions today.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]
              Prepared Statement of Hon. Michael B. Donley
    The Air Force Posture Statement presents our vision of Global 
Vigilance, Reach and Power as a vital component of the Joint team, 
defending our National interests, and guided by our core values of 
Integrity First, Service Before Self, and Excellence in All We Do.
                              introduction
    Today, the United States confronts a dynamic international 
environment marked by security challenges of unprecedented diversity. 
Along with our Joint partners, the Air Force will defend and advance 
the interests of the United States by providing unique capabilities to 
succeed in current conflicts while preparing to counter future threats 
to our national security. Over the last year, the Air Force made great 
strides in strengthening the precision and reliability that is our 
hallmark.
                            strategic focus
    This year offers an opportunity to fully integrate our Service 
posture with a new National Security Strategy, the Department of 
Defense Quadrennial Defense Review, and strategic reviews of the 
Nation's space, nuclear, and ballistic missile defense postures. 
Balance is the defining principle linking this budget request to our 
strategic guidance.
    In the 2010 Quadrennial Defense Review, the Secretary of Defense 
established four U.S. defense objectives to guide our current actions 
as well as to plan for the future: prevail in today's wars, prevent and 
deter conflict, prepare to defeat adversaries and succeed in a wide 
range of contingencies, and preserve and enhance the all-volunteer 
force. In accordance with this guidance, the Air Force developed the 
2011 budget request to enhance our capabilities to meet these 
objectives, while balancing risk appropriately. As the future security 
environment will require a range of agile and flexible capabilities, 
investments for today's conflict will also support our efforts to 
prepare, prevent, and prevail, and preserve well into the future.
    Prevail in Today's Wars.--Our investments in intelligence, 
surveillance, and reconnaissance, as well as airlift, command and 
control, and building partner capacity reinforce the prominence of this 
priority in our budget request. In addition, nearly 30,000 deployed 
Airmen daily provide key capabilities in direct support of combat 
operations.
    Prevent and Deter Conflict.--The Air Force made significant 
resource and cultural investments in reinvigorating our portion of the 
Nation's nuclear deterrence over the past 18 months. We are now 
institutionalizing these successes to ensure the highest standards 
across the nuclear enterprise. Our initial investments in a family of 
long-range strike capabilities mark our commitment to sustaining power 
projection capabilities for the next several decades.
    Prepare to Defeat Adversaries and Succeed in a Wide Range of 
Contingencies.--This priority directly reflects the Air Force emphasis 
on balancing our commitments to today's conflicts against preparing for 
mid- and long-term risks. Awarding a contract this year to recapitalize 
our aging tanker force is our top acquisition priority. Similarly, the 
F-35 will be the workhorse of the fighter force for decades to come. 
Our investment in this program is timed with other modernization 
initiatives and divestment plans to ensure sufficient capabilities are 
available to deter and defeat potential enemies.
    Preserve and Enhance the All-Volunteer Force.--Preserving and 
enhancing our all-volunteer force provides the foundation required for 
our flexible and agile posture. This budget reflects a commitment to 
enhancing our force through education and training, while also 
bolstering the overall quality of life of Airmen and their families.
                         strategy to resources
    As we prepared the budget request described by this Posture 
Statement, we structured our resource choices by balancing the twelve 
Air Force Core Functions across the near- and long-term. When 
considered together, the Core Functions encompass the full range of Air 
Force capabilities, and serve as the framework for this Posture 
Statement. While this document describes the core functions 
individually, we recognize their inherent interdependence within not 
just the Air Force, but also within the Joint force and the whole of 
government.
    Air Force Core Functions.--Nuclear deterrence operations; air 
superiority; space superiority; cyberspace superiority; global 
precision attack; rapid global mobility; special operations; global 
integrated ISR; command and control; personnel recovery; building 
partnerships; and agile combat support.
                     nuclear deterrence operations
    Since its inception, the Air Force has served as a proud and 
disciplined steward of a large portion of the Nation's nuclear arsenal. 
We steadfastly maintain and secure nuclear weapons to deter potential 
adversaries, and to assure our partners that we are a reliable force 
providing global stability.
    The first Air Force priority during the last 2 years has been to 
reinvigorate the stewardship, accountability, compliance, and precision 
within the nuclear enterprise. This mission demands perfection. Last 
year we reorganized our nuclear forces, consolidating responsibility 
into a clear chain of command. All nuclear operations are under the 
command of the Air Force Global Strike Command and all sustainment 
activities are controlled by the Air Force Nuclear Weapons Center. We 
also added a fourth B-52 squadron to enhance nuclear surety through 
greater mission focus. We continued these advancements in fiscal year 
2010 by reassigning Intercontinental Ballistic Missile (ICBM) and 
nuclear bomber forces to Air Force Global Strike Command as it proceeds 
toward full operational capability.
    The fiscal year 2011 budget request continues to invest in 
sustaining the Air Force's ICBM and bomber fleets. We will invest $295 
million across the FYDP to replace fuzing mechanisms, and to sustain 
test equipment and environmental control systems for the aging, but 
capable, Minuteman III ICBM weapon system.
    As we begin work to develop a future Long Range Strike capability, 
we recognize the need to continue investing in our legacy bomber 
fleets, including nearly $800 million for modernization. This budget 
request provides the B-52, initially designed in the early 1950s, with 
an internal precision-guided weapons capability, a new radar, and a 
modern and effective anti-skid system. This request funds modernization 
of B-2 analog defensive systems to ensure continued survivability 
against increasingly capable air defense systems. Additionally, the UH-
1N replacement program supporting missile launch complexes is on track 
and we anticipate initial operating capability by fiscal year 2015.
                            air superiority
    Air superiority is a necessary precondition for most U.S. military 
operations. American ground forces have operated without fear of enemy 
aircraft since 1953. Although we operate in uncontested airspace in 
current conflicts, we cannot assume this will be the case in the 
future. The emergence of modern air defenses challenges the ability of 
the Air Force to achieve air superiority. Potential adversaries are 
leveraging readily accessible technologies by modifying existing 
airframes with improved radars, sensors, jammers, and weapons. In 
addition, several nations are pursuing fifth-generation aircraft 
capable of all-aspect, low-observable signatures, and fully integrated 
avionics and sensors. Adversary nations are also turning to advanced 
surface-to-air missiles to augment or even substitute for aircraft 
modernization efforts. The proliferation of these sophisticated and 
increasingly affordable weapons presents an area denial capability that 
challenges our legacy fleet. As the range of potential threats evolves, 
the Air Force will rely on the F-22 Raptor as the workhorse of the air 
superiority fighter force for the foreseeable future. Complementing our 
187 modernized F-22s, we will continue to rely on F-15C/D aircraft to 
provide an important component of our air superiority capability.
    Our fiscal year 2010 budget included plans to accelerate the 
retirement of some legacy fighter aircraft to pave the way for a 
smaller but more capable fighter force. As we work with the Congress to 
execute this important plan, we continue to aggressively modernize our 
air superiority fleet, including upgrading fielded F-22s to ensure 
fleet commonality with current deliveries. Additionally, we began 
modernizing 176 F-15Cs with the new APG-63(v)3 Active Electronically 
Scanned Array (AESA) radar. Along with these modifications, we are 
continuing the development and procurement of the AIM-9X and AIM-120D 
air-to-air missiles.
    The fiscal year 2011 budget requests $12.5 billion in the FYDP to 
sustain America's air superiority advantage. To continue F-22 
modifications, this request includes $1.34 billion to continue fleet 
commonality upgrades, improving reliability and maintainability, and 
adding training enhancements for the fleet. Building on the multi-role 
nature of our most advanced aircraft, this request also includes $1.19 
billion to add precision attack capabilities such as the Small Diameter 
Bomb. The Air Force will also continue the development and procurement 
of air-to-air munitions and defenses for the F-22 such as the AIM-9X, 
AIM-120D, and electronic warfare capabilities. To sustain our legacy 
aircraft viability, we included $92 million to continue the upgrades 
and modifications to the new F-15 AESA radar. Recognizing that 
Electronic Warfare remains an integral part of air superiority, we 
request $251 million in fiscal year 2011 for upgrades to the EC-130H 
Compass Call fleet. This request includes the conversion of an 
additional EC-130H, as well as a combined flight deck and mission crew 
simulator to increase training capacity.
                           space superiority
    America's ability to operate across the spectrum of conflict relies 
heavily on space capabilities developed and operated by the Air Force. 
We support the Joint force by developing, integrating, and operating in 
six key mission areas: missile warning; space situational awareness 
(SSA); military satellite communications; positioning, navigation and 
timing; space access; and weather.
    To enhance space support to the Joint force, we are increasing 
communications capability in fiscal year 2010 through two satellite 
communications programs, the Wideband Global Satellite (WGS) program to 
replace the Defense Satellite Communications System (DSCS), and 
Advanced Extremely High Frequency system for protected communications. 
We launched the second and third WGS satellites in fiscal year 2010; 
each WGS satellite provides the equivalent capacity of the entire 
legacy DSCS constellation. Additionally, the second on-orbit Space-
Based Infrared System Highly Elliptical Orbit payload was fully 
certified by United States Strategic Command to perform strategic 
missile warning. Finally, spacelift remains the backbone for national 
security space with a record 64 consecutive successful missions.
    The fiscal year 2011 budget request for $10.9 billion will improve 
our stewardship of space with investment in space and space-related 
support systems. With these resources, we will field several first-of-
their-kind systems--Global Positioning System Block IIF, Space Based 
Space Surveillance System, and Advanced Extremely High Frequency 
satellite communications system. This request proposes $1.2 billion for 
the Evolved Expendable Launch Vehicle program, $1.8 billion for the 
Space Based Infrared System, and $1.3 billion for GPS. We also included 
$135 million for Joint Space Operation Center Mission System to improve 
SSA capabilities, and $94 million for the Operationally Responsive 
Space program to pursue innovative capabilities that can be rapidly 
developed and fielded in months rather than years. We request $577 
million to fully fund WGS to meet combatant commander bandwidth 
requirements. Moreover, we will continue to maintain SSA ground-based 
systems and explore space-based capabilities to ensure our continued 
freedom to operate in this domain.
                         cyberspace superiority
    Cyber threats ranging from individual hackers to criminal 
organizations to state-sponsored cyber intrusions can challenge access 
to, and use of, this domain. Although the freedom to operate in the 
cyber domain is a precondition for our increasingly networked force, 
many of our potential adversaries are similarly adopting information-
enabled technology, rendering them vulnerable to cyber attack as well. 
Threats to freedom of access to the cyber domain present both 
challenges and opportunities.
    In fiscal year 2010 we continued the development and 
institutionalization of cyberspace capabilities and integration into 
the Joint cyberspace structure. The newly activated 24th Air Force, the 
first Numbered Air Force dedicated to cyberspace operations, recently 
achieved initial operational capability and has been designated the Air 
Force component for the sub-unified U.S. Cyber Command. We are also 
focusing on cyber personnel by normalizing the cyber career path and 
adding technical education courses.
    The fiscal year 2011 budget request reflects a continued commitment 
to cyber superiority. We request $31 million for expanded rapid cyber 
acquisition capabilities to keep pace with dynamic adversaries and 
fast-paced advances in technology. In support of the national cyber 
effort, this budget request dedicates $104 million to support 
operations and leased space for headquarters staff at the sub-unified 
U.S. Cyber Command. Additionally, we propose adding $15 million and 
additional manpower over the next 5 years to increase the investigative 
and law enforcement aspects of cyberspace defense.
                        global precision attack
    Global Precision Attack is the ability to hold any target at risk, 
across the air, land, and sea domains. Many of our global precision 
attack forces are meeting the current requirements of ongoing 
contingency operations by performing precision strike and intelligence, 
surveillance, and reconnaissance (ISR) support roles. In the longer 
term, however, the proliferation of area denial and anti-access 
capabilities will challenge the ability of current fourth-generation 
fighters and legacy bombers to penetrate contested airspace.
    The Air Force budget request in fiscal year 2010 recognized these 
developments and continued improvements to aircraft and weapons 
capabilities. This year, we will take delivery of 10 F-35s for 
developmental testing and to train test pilots. We are also modernizing 
legacy fighter aircraft to maintain sufficient capability and capacity 
until the F-35 fleet is fully operational, and are continuing to 
develop programs for preferred air-to-ground weapons. Upon completion 
of the required reports to the Congress later this year, we will 
implement the planned reduction of 257 legacy fighters. We have had 
mixed results in test drops of the Massive Ordnance Penetrator; 
however, we are closely monitoring the progress of this important 
capability, and future successes likely will result in a reprogramming 
request to accelerate its development in fiscal year 2010. Finally, 
continued development of the second increment of the Small Diameter 
Bomb will give the Air Force even greater capability and flexibility.
    Our $14.4 billion Global Precision Attack request for fiscal year 
2011 reflects a balanced approach across the portfolio, prioritizing 
investment in fifth-generation aircraft while sustaining legacy 
platforms as a bridge to the F-35.
F-35 Joint Strike Fighter
    The multi-role F-35 is a critical element of the Air Force's future 
precision attack capability. In addition to complementing the F-22's 
world class air superiority capabilities, the F-35 is designed to 
penetrate air defenses and deliver a wide range of precision munitions. 
This modern, fifth-generation aircraft brings the added benefit of 
increased allied interoperability and cost-sharing across services and 
partner nations.
    Working in close collaboration with DOD, the F-35 program team 
realized a number of accomplishments over the last year, to include the 
first flight of the first optimized conventional take-off and landing 
(CTOL) Joint Strike Fighter (JSF) variant--aircraft AF-1.
    Despite these important accomplishments, the program is 
experiencing program challenges as it transitions from development to 
production. Last year, DOD conducted multiple, independent reviews to 
assess the impact of these challenges on the program's cost, schedule, 
and technical performance. The results were consistent with a previous 
fiscal year 2008 DOD independent assessment that projected a cost 
increase and schedule slip.
    The challenges being experienced are not unusual for this phase of 
a major program. However, we are disappointed by the contractor's 
failure to deliver flight test aircraft as scheduled during the past 
year. The result of the late deliveries will be a delay in the flight 
test program. Although there appear to be recent improvements, the 
contractor also has been experiencing assembly inefficiencies that must 
be corrected to support higher production rates.
    In response to the challenges still facing the program and the 
findings of the independent reviews, we have taken numerous management 
actions to reduce risk. Most significantly we have determined that it 
is prudent to adjust the schedule and funding to levels consistent with 
the most recent independent estimates. These cost and schedule 
adjustments require that we initiate the process to confirm the program 
is in breach of the Nunn-McCurdy Act criteria, and details will be 
reported later this spring.
    The F-35 is our largest and most important program and we are 
dedicated to successfully delivering these aircraft to both the United 
States and to our international partners in this effort. The Air Force 
fiscal year 2011 budget includes $5.6 billion for continued development 
and procurement of 22 CTOL production aircraft.
Long-range Strike
    Investments in our B-52 and B-2 fleets sustain nuclear deterrence 
operations as well as conventional global precision attack capabilities 
in the near-term, but we are adding research and development funds to 
accelerate development of enhanced long-range strike capabilities. 
Building upon insights developed during the Quadrennial Defense Review 
(QDR), the Secretary of Defense has ordered a follow-on study to 
determine what combination of Joint persistent surveillance, electronic 
warfare, and precision-attack capabilities will be best suited to 
support U.S. power projection operations over the next two to three 
decades. The study will examine both penetrating platforms and stand-
off weapon options. As part of this assessment, the Air Force is 
reviewing options for fielding survivable, long-range surveillance and 
strike aircraft as part of a comprehensive, phased plan to modernize 
the bomber force. Additionally, the Navy and the Air Force are 
cooperatively assessing alternatives for a new Joint cruise missile. 
Finally, the Department of Defense also plans to analyze conventional 
prompt global strike prototypes and will assess the effects that these 
systems, if deployed, might have on strategic stability.
                         rapid global mobility
    The Air Force is committed to providing unmatched airlift and air 
refueling capability to the nation. Air Force mobility forces provide 
an essential deployment and sustainment capability for the Joint force, 
delivering personnel, equipment, and supplies necessary for missions 
ranging from conflict to humanitarian relief.
    We are releasing the Request for Proposal for a KC-X replacement 
tanker in early 2010, and will aggressively work toward awarding a 
contract later this year. Additionally, we completed the successful 
operational testing of the C-5 Reliability Enhancement and Re-engine 
Program (RERP) and will induct two more C-5Bs into low-rate initial 
production. For tactical airlift, we recently concluded a test of our 
Direct Support airlift concept and continue to work with the Army to 
rapidly and smartly transfer the C-27J program to the Air Force.
    The fiscal year 2011 budget reflects a balanced approach across the 
tanker and airlift portfolios, which prioritizes recapitalization of 
the oldest aircraft while ensuring the continued viability of the 
legacy fleet. Investments in tanker capability are heavily weighted 
towards the KC-X program--our top acquisition priority--and represent 
$11.7 billion in the FYDP. However, while moving aggressively to 
recapitalize the tanker fleet, we must also ensure the continued health 
of legacy aircraft. This budget request includes $680 million in the 
FYDP for airspace access modifications and sustainment of the KC-10 and 
KC-135 fleets.
    The Air Force Airlift budget request is focused on meeting mobility 
requirements in the most cost efficient way possible, recapitalizing 
only the oldest airlift aircraft. To ensure continued access to all 
airspace, this budget continues to modernize and modify C-5s and C-
130Hs through Avionics Modernization Programs, and upgrades C-5B/Cs 
with RERP. To complete the recapitalization of C-130Es, we request $1.8 
billion over the next 5 years to procure 24 C-130Js. Additionally, in 
accordance with the preliminary results of the Mobility Capabilities 
and Requirements Study 2016, and subject to authorization by the 
Congress, we intend to retire some of the oldest, least capable C-5As 
and C-130H1s. We have also requested $38.9 million in fiscal year 2011 
to transition from C-17 procurement to sustainment.
                           special operations
    Air Force special operations capabilities play a vital role in 
supporting U.S. Special Operations Command (USSOCOM) and geographic 
combatant commanders. As the Department of Defense increasingly 
develops irregular warfare capabilities, the Air Force is investing in 
special operations airlift, close air support, foreign internal 
defense, and intelligence, surveillance, and reconnaissance 
capabilities.
    In fiscal year 2010 we focused on growing and recapitalizing the 
special operations aircraft inventory. By the end of the fiscal year, 
three MC-130W Combat Spear aircraft will be modified with the Precision 
Strike Package to provide additional armed overwatch capability for SOF 
forces. Additionally, we will deliver the 16th of 50 CV-22s.
    This fiscal year 2011 budget proposal includes $6.7 billion through 
the FYDP to continue growing and recapitalizing the Air Force Special 
Operations Command (AFSOC). In fiscal year 2011 we will procure five 
additional CV-22s and five MC-130Js for $1.1 billion. This request also 
includes $1.6 billion in the FYDP to start recapitalizing our AC-130H 
aircraft. We will rapidly recapitalize these aging aircraft through the 
procurement of 16 additional MC-130Js, modified with the proven 
Precision Strike Package. In fiscal year 2011 we will also increase 
AFSOC's manpower by 258 personnel by fiscal year 2015 to support the 
addition of 16 fixed-wing mobility and two rotary-wing aircraft.
         global intelligence, surveillance, and reconnaissance
    The Air Force continues to rapidly increase its Intelligence, 
Surveillance, and Reconnaissance (ISR) capability and capacity to 
support combat operations. Air Force ISR provides timely, fused, and 
actionable intelligence to the Joint force, from forward deployed 
locations and globally distributed centers around the globe. The 
exceptional operational value of Air Force ISR assets has led Joint 
force commanders in Iraq, Afghanistan, and the Horn of Africa to 
continually increase their requests for these forces. To help meet this 
demand, the Air Force currently has more than 90 percent of all 
available ISR assets deployed.
    In fiscal year 2010, we are quantitatively and qualitatively 
increasing aircraft, sensors, data links, ground stations, and 
personnel to address emergent requirements. Over the last 2 years, the 
Air Force increased the number of remotely piloted aircraft (RPA) 
fielded by 330 percent. We invested in a Wide Area Airborne 
Surveillance (WAAS) system for new and existing MQ-9s to provide up to 
50 video streams per sensor within a few years. By the summer of fiscal 
year 2010, a quick reaction capability version of WAAS known as Gorgon 
Stare will provide 10 video streams per MQ-9. Any ROVER-equipped ground 
force will be able to receive any of these feeds. We also added four 
RQ-4s, and graduated our first class of RPA-only pilots. Early in 
fiscal year 2010, we proposed a shift in the nomenclature from 
``unmanned aircraft systems'' (or UAS) to ``remotely piloted aircraft'' 
as part of normalizing this capability within the Air Force manpower 
structure and culture. We will also maintain our current JSTARS-based 
Ground Moving Target Indicator (GMTI) capability as we begin an 
Analysis of Alternatives to determine the future of GMTI.
    To complement remotely piloted capabilities, we are deploying MC-
12W Project Liberty aircraft to the theater as fast as they can be 
delivered from the factory. This program progressed from ``concept to 
combat'' in a record 9 months, and has a deployed maintenance 
availability rate well above 90 percent.
    Because analysis transforms data into actionable intelligence, we 
are shifting approximately 3,600 of the 4,100 manpower billets 
recaptured from the early retirement of legacy fighters to support RPA 
operations, and the processing, exploitation, and dissemination of 
intelligence collected by manned and remotely piloted aircraft. We also 
doubled the number of ISR liaison officers assigned to deployed ground 
forces to ensure the seamless integration of ISR collection and 
exploitation assets.
    Our fiscal year 2011 budget proposal reflects the Joint force 
emphasis on ISR capacity, and builds on progress made in fiscal year 
2010. The Air Force will reach 50 RPA continuous, combat air patrols 
(CAPs) in theater by the end of fiscal year 2011. The budget request 
increases MC-12W funding to normalize training and basing posture, adds 
Wide Area Airborne Surveillance capability, and increases the total 
number of our RPA platforms to enable fielding up to 65 CAPs by the end 
of fiscal year 2013. As we request additional RQ-4 Global Hawks for 
high altitude ISR, we also intend to continue operating the U-2 at 
least throughout fiscal year 2013 as a risk mitigation effort. We will 
sustain our ISR processing, exploitation, and dissemination in the 
Distributed Common Ground System, providing critical distributed 
analysis without having to forward deploy more forces.
                          command and control
    Theater-wide command and control (C\2\) enables efficient and 
effective exploitation of the air, space, and cyber domain. The Air 
Force maintains significant C\2\ capabilities at the theater level. 
However, the highly decentralized nature of irregular warfare also 
places increased demands on lower echelons of command. Matching the 
range and flexibility of air, space, and cyberspace power to 
effectively meet tactical requirements requires a linked C\2\ structure 
at all echelons.
    This year, we are expanding our efforts to provide C\2\ at the 
tactical, operational, and strategic levels. In fiscal year 2011, the 
Air Force is requesting $30 million across the FYDP to fund equipment 
and assured communications for U.S. Strategic Command's Distributed 
Command and Control Node (DC\2\N), U.S. Northern Command's National 
Capital Region--Integrated Air Defense (NCR-IADS), and U.S. Africa 
Command's expanding air operations center. Tactically, we are 
increasing training pipelines for Joint Terminal Attack Controllers 
(JTACs), establishing an Air Liaison Officer career field, fielding 
advanced video downlink capabilities, and adding airborne radio and 
datalink gateways to improve the connectivity of air support operations 
centers and JTACS.
    In fiscal year 2011, the Air Force request also includes 
modernization and sustainment of both airborne and ground-based C\2\ 
systems. For Air Force airborne C\2\, we request $275 million for the 
E-3 Block 40/45 upgrade program. This upgrade modernizes a 1970s-era 
computer network, eliminates many components that are no longer 
manufactured, and adds avionics to comply with Global Air Traffic 
Management standards. To improve ground-based tactical air control 
operations, we are increasing manpower in the control and reporting 
centers and investing $51.5 million with the U.S. Marine Corps for a 
follow-on ground-based radar capability supporting air and missile 
defense. This Three-Dimensional Expeditionary Long-Range Radar (3DELRR) 
will be the future long-range, ground-based sensor for detecting, 
identifying, tracking, and reporting aircraft and missiles.
                           personnel recovery
    Personnel recovery (PR) remains an important commitment the Air 
Force makes to the Joint force. The increased utilization of military 
and civilian personnel in support of Overseas Contingency Operations 
(OCO) has dramatically increased the number of individuals who may find 
themselves isolated. This has in-turn created an increasing demand for 
Air Force rescue forces beyond the combat search and rescue mission. 
Air Force PR forces are fully engaged in Iraq, Afghanistan, and the 
Horn of Africa, accomplishing crucial medical and casualty evacuation 
missions for U.S. and Coalition military and civilian personnel.
    This year, we will continue to surge critical personnel recovery 
capability to the field, and will start replacing the aging fleet. To 
bring the fleet back to its original size of 112 HH-60Gs, we will put 
the first four operational loss replacement aircraft on contract. 
Additionally, we will deliver the first two HC-130J tanker aircraft, 
starting the replacement of the 1960s-era HC-130P fleet.
    The fiscal year 2011 budget request continues the replacement of 
operational losses and modernization of aging equipment. This request 
funds the last eight HH-60G operational loss replacement aircraft by 
the end of fiscal year 2012. Additionally, we begin the process of 
recapitalizing the remaining fleet with the inclusion of $1.5 billion 
to procure 36 HH-60G replacement aircraft in the FYDP. We also continue 
our recapitalization of the HC-130P/N fleet with HC-130J aircraft. 
Finally, we request $553 million in funding throughout the FYDP for the 
Guardian Angel program, which will standardize and modernize mission 
essential equipment for our pararescuemen.
                         building partnerships
    The Air Force continues to seek opportunities to develop 
partnerships around the world, and to enhance long-term capabilities 
through security cooperation. In the U.S. Central Command (USCENTCOM) 
area of responsibility, deployed Airmen are working with our Afghan and 
Iraqi partners to build a new Afghan National Army Air Corps and Iraqi 
Air Force to strengthen the ability of these nations to uphold the rule 
of law and defend their territories against violent, non-state actors. 
We are also working to further partnerships with more established 
allies with programs like the Joint Strike Fighter. Similarly, the 
third and final C-17 procured under the 12-nation Strategic Airlift 
Capability program was delivered in October 2009, helping to address a 
chronic shortage of strategic airlift among our European Allies.
    In fiscal year 2011, we will expand our capabilities to conduct 
building partner capacity (BPC) operations with partner air forces. 
Past experience has shown us that we are more effective trainers when 
we operate the same platforms as our partners. To increase our 
interoperability, the Air Force requests resources to prepare to field 
the Light Mobility Aircraft (LiMA) in fiscal year 2012 and the Light 
Attack/Armed Reconnaissance (LAAR) aircraft in fiscal year 2013. These 
aircraft will provide effective and affordable capabilities in the two 
most critical mission areas for partner air forces: lower-cost airlift 
and light strike/reconnaissance training. Additionally, we will 
continue to foster BPC capability in our Contingency Response Groups. 
This request also includes $51 million to continue investing in the 
Strategic Airlift Capability program. Finally, we programmed $6.4 
million annually across the FYDP for PACIFIC ANGEL humanitarian 
assistance missions in support of U.S. Pacific Command theater 
objectives.
                          agile combat support
    Agile combat support underpins the entire Air Force, from the 
development and training of Airmen to revitalizing processes in the 
acquisition enterprise. In terms of core functions, agile combat 
support reflects the largest portion of the Air Force budget proposal, 
totaling approximately $42 billion for personnel and training, 
installation support, logistics, and acquisition.
    Airmen and Families.--Over the last year we stabilized end 
strength. Retention rates have exceeded expectations, but we continue 
to progress toward our end strength goal of 332,200 active duty Airmen. 
In addition to stabilizing our end strength, we are also modernizing 
our training programs and aircraft. To better partner with the Joint 
and Coalition team, we will provide our Airmen with cultural and 
regional expertise and appropriate levels of foreign language training. 
We are also expanding foreign language instruction for officer 
commissioning programs at the Air Force Academy and in ROTC, 
encouraging cadets to take foreign language coursework and participate 
in language immersion and study programs abroad. This expanded training 
includes enhanced expeditionary skills training to prepare Airmen for 
deployment. Finally, as part of our effort to modernize training 
systems, we have established a program office to start the process of 
replacing the T-38 trainer with an advanced trainer capable of teaching 
pilots to fly the world's most advanced fighter aircraft.
    Recognizing that family support programs must keep pace with the 
needs of Airmen and their families, we initiated the Year of the Air 
Force Family in July 2009. We plan to add enough capacity to our child 
development centers to eliminate the child care space deficit by the 
end of fiscal year 2012, provide better support to exceptional family 
member programs, and add 54 school liaison officers to Airmen and 
Family Readiness Centers to highlight and secure Air Force family needs 
with local school administrators.
    The Air Force continues to expand its efforts to improve the 
resiliency of Airmen and their families before and after deployments. 
This year we expanded deployment-related family education, coupling it 
with psychological screening and post-deployment health assessments. 
Additionally, we offer access to chaplains who provide pastoral care, 
and counselors and mental health providers trained in post-traumatic 
stress treatment at every base. We plan to further enhance support in 
2010 by promoting and encouraging mental health assistance, and by 
providing at-risk deployers with tailored and targeted resiliency 
programs. To support this increased effort, we will enhance mental 
healthcareer field recruiting and retention through special pays and 
targeted retention bonuses.
    Acquisition Excellence.--The Air Force continues to make progress 
within the Acquisition Improvement Plan. In 2009, we hired over 2,000 
personnel into the acquisition workforce and continued contractor-to-
civilian conversions. The Air Force institutionalized early 
collaboration with acquisition system stakeholders, senior acquisition 
leadership certification of requirements, cost estimation improvements, 
and an improved budgeting process to enhance the probability of program 
successes. The multi-functional independent review teams conducted over 
113 reviews, ensuring acquisition selections are correct and 
defendable. As part of our recent acquisition reorganization, we 
created 11 new program executive officer positions to reduce the span 
of control and increase their focus on program execution. These 
enhancements demonstrate our commitment to restoring the public's trust 
in the Air Force's ability to acquire the most technologically advanced 
weapon systems at a competitive cost. In the near-term, this more 
rigorous approach to acquisition is likely to identify problems and 
programmatic disconnects. In the medium- and long-term, it should yield 
significant improvements in Air Force stewardship of taxpayer 
resources.
    Energy.--As part of our institutional effort to consider energy 
management in all that we do, the Air Force requests $250 million for 
energy and water conservation projects in fiscal year 2011. This 
investment will ensure we meet the President's efficiency goals by 
2015. In fiscal year 2010, the Air Force finalized an energy plan that 
directs the development and use of reliable alternative energy 
resources, and reduces the life-cycle costs of acquisition programs. 
Additionally, the plan recognizes that aviation operations account for 
over 80 percent of the energy used by the Air Force each year, and 
directs Airmen and mission planners to continue managing aviation fuel 
as an increasingly scarce resource.
    Military Construction.--The Air Force $1.3 billion military 
construction request is austere, but provides funding for new 
construction aligned with weapon system deliveries. Additionally, the 
budget request sustains our effort to provide quality housing for 
Airmen and their families. Finally, the Air Force remains focused on 
completing its BRAC 2005 program and continuing the legacy BRAC 
programs as well as the environmental clean-up at legacy BRAC 
locations.
    Strategic Basing.--In 2009, the Air Force implemented a Strategic 
Basing Process to ensure basing decisions are made in a manner that 
supports new weapon system acquisition and delivery schedules as well 
as organization activation milestones. The newly established Strategic 
Basing Executive Steering Group directs these actions to ensure a 
standard, repeatable, and transparent process in the evaluation of Air 
Force basing opportunities. We are currently using this process to 
conduct an enterprise-wide look at F-35 basing options.
    Logistics.--Air Force requirements for weapon system sustainment 
funding continue to grow as aircraft age. In the long term, the 
increasing requirements for sustaining an aging aircraft fleet pose 
budget challenges and force trade-offs. We protected direct warfighter 
support, irregular warfare capabilities, and the nuclear enterprise. 
Since this year's budget includes a simultaneous OCO submission along 
with a base budget, the Air Force optimized its flying hour program 
funding to support only the peacetime flying hours we can fly, given 
the number of deployed Airmen and aircraft supporting Overseas 
Contingency Operations. Due to the volatile nature of fuel prices, 
reprogramming may be necessary to cover increased fuel costs. Over the 
longer term, enactment of the Department of Defense's legislative 
proposal for the Refined Petroleum Products Marginal Expense Transfer 
Account would reduce disruptions to operations and investment programs 
by providing the Department of Defense flexibility to deal with fuel 
price fluctuations in the changing economy. The Air Force maintained 
its commitment to transforming logistics business practices, including 
total asset visibility and associated information technology, by 
protecting funds associated with fielding the first increment of the 
Expeditionary Combat Support System.
                        readiness and resourcing
    Our efforts over the last year continued to stress both people and 
platforms. Nearly 40,000 of America's Airmen are deployed to 263 
locations across the globe, including 63 locations in the Middle East. 
In addition to deployed Airmen, nearly 130,000 Airmen support combatant 
commander requirements from their home station daily. These Airmen 
operate the Nation's space and missile forces, process and exploit 
remotely collected ISR, provide national intelligence support, execute 
air sovereignty alert missions, and contribute in many other ways. To 
date, the Air Force has flown over 50,000 sorties supporting Operation 
Iraqi Freedom and almost 66,000 sorties supporting Operation Enduring 
Freedom. During this time the Air Force delivered over 1.73 million 
passengers and 606,000 tons of cargo, employed almost 1,980 tons of 
munitions, and transported nearly 70,000 total patients and 13,000 
casualties from the USCENTCOM area of responsibility. In doing so, 
Airmen averaged nearly 330 sorties per day.
    To support the efforts of Airmen and to recruit and retain the 
highest quality Air Force members, this fiscal year 2011 budget request 
includes $29.3 billion in military personnel funding, to include a 1.4 
percent pay increase. Our active component end strength will grow to 
332,200 Airmen as the Reserve Component end strength increases to 
71,200, and the Air National Guard end strength remains 106,700 in 
fiscal year 2011. Our recruiting and retention is strong, but we 
request $645 million for recruiting and retention bonuses targeted at 
critical wartime skills, including command and control, public affairs, 
contracting, pararescue, security forces, civil engineering, explosive 
ordnance disposal, medical, and special investigations.
                                summary
    The Air Force's proposed fiscal year 2011 budget of $119.6 billion 
achieves the right balance between providing capabilities for today's 
commitments and posturing for future challenges. The Air Force built 
this budget to best achieve the four strategic priorities outlined in 
the 2010 Quadrennial Defense Review: (1) prevail in today's wars; (2) 
prevent and deter conflict; (3) prepare to defeat adversaries and 
succeed in a wide range of contingencies; and (4) preserve and enhance 
the All-Volunteer Force.
    Balancing requirements for today and tomorrow determined our 
recapitalization strategy. We chose to improve our existing 
capabilities whenever possible, and to pursue new systems when 
required. This recapitalization approach attempts to keep pace with 
threat developments and required capabilities, while ensuring 
stewardship of national resources. In developing this budget request, 
we also carefully preserved and enhanced our comprehensive approach to 
taking care of Airmen and Air Force families.

    Chairman Inouye. General Schwartz.
STATEMENT OF GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF
    General Schwartz. Mr. Chairman, Senator Cochran, members of 
the subcommittee, I'm proud to be here representing your Air 
Force with Secretary Donley.
    And let me begin by reaffirming that the United States Air 
Force is fully committed to effective stewardship of the 
resources that you and the Nation place in our trust. Guided by 
integrity, service, and excellence, our core values, America's 
airmen, I think, are performing courageously every day with 
precision and with reliability on behalf of the American 
people.
    And this budget request supports these airmen and our 
continuing efforts to rebalance the force, to make difficult 
decisions on what and how we buy, and to sustain our needed 
contributions to the joint team.

                       AIR FORCE FIVE PRIORITIES

    Secretary Donley and I established five priorities shortly 
after taking office to ensure that the entire force was focused 
on the right objectives. Most of our initial efforts centered 
on reaffirming our long-established standards of excellence, 
and recommitting ourselves to areas where our focus had waned. 
I am pleased to report to you today that our dedicated and 
talented airmen broadly understood our intent, and have 
delivered in meaningful fashion.
    Although these initial priorities were not designed to 
change from year to year, our progress in the nuclear 
enterprise is such that we can now shift our efforts to 
sustaining the progress that we've made. Thus, our first 
priority is to continue to strengthen excellence in our nuclear 
enterprise.
    The rigor of our nuclear surety inspections demonstrates a 
renewed commitment to the highest levels of performance. We 
must, and we will, do even more to ensure 100-percent precision 
and reliability in nuclear operations and logistics as close to 
100 percent of the time as such a human endeavor will allow.
    For our second priority--and that is partnering with the 
joint and coalition team to win today's fight--Secretary Donley 
mentioned several ways that--in which our airmen are providing 
critical air and space power for the joint and coalition team. 
Your airmen are also performing admirably wherever and whenever 
our joint teammates require, including providing battlefield 
medical support and evacuation, ordnance disposal, convoy 
security, and much more.
    Our third priority remains to develop and care for our 
airmen and their families. We initiated the ``Year of the Air 
Force Family,'' shortly after our testimony last year, in 
recognition of the vital role that our families fulfill in 
mission accomplishment. Although their sacrifice is perhaps 
less conspicuous, their efforts are certainly no less noble, 
and their contributions are no less substantial.
    Modernizing our inventories, our organizations, and our 
training--our fourth priority--is among the most difficult 
tasks that our service has undertaken in these last 18 months. 
In order to achieve the balance that Secretary Gates envisioned 
for our force, we are compelled to decision and to action. This 
budget represents a continuation of that effort. We set forth a 
plan last year to accelerate the retirement of some of the 
older fighter aircraft.
    This year we are not retiring any additional fighters, but 
we are transitioning from some of our oldest and least capable 
C-130s and C-5s. We will modernize, where we can; but, where 
modernization no longer is cost effective, we will pursue 
recapitalization. KC-X is one such example.
    With the delivery of the request for proposal (RFP), our 
top acquisition effort, to procure the next generation 
refueling aircraft, passed another significant milestone. A 
similar imperative is the F-35. I want to underscore Secretary 
Donley's comment by noting that this weapons system will be the 
workhorse driving our Air Force and our joint team forward.
    Long-range strike is the last program that I number among 
our top initiatives. The Air Force fully supports the 
development of the family of systems providing both penetrating 
and standoff capabilities for the next two or three decades, as 
described in the QDR.
    And finally, recapturing acquisition excellence--our fifth 
priority--is now only beginning to pay dividends with our 
acquisition improvement plan at the heart of our reform effort. 
While promising, the initial successes must continue for a 
number of years before we can declare victory on this front. We 
are fully aware that we must wring every bit of capability and 
value that we can from the systems that we procure; and so, 
this effort will require a sustained focus on acquisition 
excellence.
    Mr. Chairman, the Air Force will continue to provide our 
best military advice and stewardship, delivering global 
vigilance, reach, and power for America. Thank you for your 
continued support of the Air Force, and particularly for our 
airmen and their families.
    Sir, I look forward to your questions.
    Chairman Inouye. I thank you very much, General Schwartz.
    Because of the change in our time schedules, regretfully, I 
would have to impose a 5-minute rule. And I'll begin with the 
questioning.
    Mr. Secretary, because of emerging requirements on UAVs and 
cybersecurity missions, which will require thousands of trained 
personnel, how do you propose to meet this challenge of 
bringing together all these highly trained personnel?
    Mr. Donley. Mr. Chairman, this has been a tremendous 
challenge that the Air Force has stepped up to do. Our end 
strength is planned to be stable at about 330,000, but inside 
that Active Duty end strength, we are making the internal 
adjustments necessary to man the ISR systems and the 
intelligence support as it comes online.
    Most recently, we had proposed, and the Congress had 
approved last year, with some caveats, the reduction in fighter 
force structure, which we had laid on the table last year. That 
early retirement of about 250 legacy fighters allowed us to 
free up the manpower to put into the intelligence, 
surveillance, and reconnaissance area. And so, it is those 
internal adjustments, identifying career fields that are--where 
we have excess strength, and trying--and diverting that into 
areas that are growing--is a significant priority for us.
    Chairman Inouye. So, you're getting most of your personnel 
internally?
    Mr. Donley. Yes. The--we are. Of course, we continue to 
assess and recruit new airmen every year; that's part of our 
normal operation. But, we are redirecting expertise, inside the 
Air Force, to these new missions.
    Chairman Inouye. I thank you.
    If I may now ask General Schwartz: There's a growing 
concern that there'd be a lack of missile warning satellite 
coverage because of continued delays in the Space-Based 
Infrared High Program (SBIRS). And, as you know, the Air Force 
terminated the third-generation missile warning program in 
fiscal year 2011. How do you plan to mitigate this potential 
gap in coverage?

                             SBIRS PAYLOADS

    General Schwartz. Mr. Chairman, we have two SBIRS payloads 
on--that's the Space-Based Infrared System--payloads on orbit 
as we speak. And we intend to launch two more in the not-too-
distant future to address General Chilton's requirement for 
warning, and so on.
    The bottom line is that we believe we have a stable 
program, and one that will satisfy, with some margin, General 
Chilton's needs.
    Chairman Inouye. I thank you very much.
    May I now call upon Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you for your 
leadership of our subcommittee, and for convening this 
important hearing.

                    LEASING UNMANNED AERIAL VEHICLES

    Mr. Secretary, I've been informed that Australia, Germany, 
and France are leasing unmanned aerial vehicles to support 
their intelligence, surveillance, and reconnaissance mission in 
theater which continue to grow. Has the Air Force considered 
leasing, on a short-term basis, unmanned aerial vehicles to 
meet this demand, like many of our North Atlantic Treaty 
Organization (NATO) allies are doing?
    Mr. Donley. My understanding is that we have done that in 
very limited situations. Our allies took this approach for 
different reasons; in part, the urgent need that they had for 
these capabilities, and the need for them to take a bit longer 
time working through their internal defense and appropriations 
processes inside their governments. So, those were the 
motivations, as I understand it, behind their approach to 
leasing.
    Generally speaking, we prefer to buy. When one does a 
lease, a major and significant issue is indemnification for 
loss. And in our case, we had access to the manufacturers and 
the capability to buy this capability; we intend to keep this 
capability over a longer term. Generally speaking, buying, 
depending on the circumstances, tends to be less expensive than 
leasing over the long term. So, we have taken the course that 
we should buy and own these capabilities.
    Senator Cochran. Okay. Thank you.
    General Schwartz, I understand that the combatant 
commanders outside of Central Command have requirements for 
intelligence, surveillance, and reconnaissance that are not 
being met. Would the Air Force consider leasing UAVs to meet 
this demand until requirements in the Central Command area of 
operation are reduced?
    General Schwartz. Sir, we have a mandate to get to 50 24-
hour orbits by the end of 2011. And the Secretary has mandated 
that we grow to 65 at the end of 2013. That is as much as we 
can do, both from a resource, a talent, and a manpower point of 
view. And so, my recommendation would be not to pursue lease.
    We are maximizing the production, for example, of the 
Reapers. And so, that will be the backbone of our remotely 
piloted aircraft (RPA) fleet, going forward. And given that's 
the case, we think we are on, sort of, the maximum performance 
glidepath, here, to growing the capabilities so that we can 
satisfy the needs of other combatant commanders, whether that 
be in the Pacific or the Horn of Africa or elsewhere.
    Senator Cochran. General, your prepared statement indicates 
that the Air Force continues to modernize the air superiority 
fleet, including the F-15s, specifically. Could you describe 
the operational benefits of the F-15E radar modernization 
program; and tell us whether the Air Force has considered 
accelerating this effort?

                       F-15E RADAR MODERNIZATION

    General Schwartz. Sir, there are a couple of initiatives, 
both for the E-model F-15 as well as the air superiority F-15Cs 
and F-15Ds. One of the things that the reduction in the fighter 
force structure allowed us to do was to reallocate resources to 
the remaining aircraft, the so-called ``Golden Eagles,'' if you 
will, where we will modify the radars with the active 
electronically scanned array capabilities. This technology is 
clearly superior to the mechanically scanned radars that the 
airplanes currently possess--greater service volume, greater 
ability to track multiple targets, and so on. In addition, 
installing an infrared search-and-track capability on the 
Golden Eagles, which they do not currently possess, are two 
examples of how we are improving the legacy birds that will 
stay with us for a while.
    With respect to the F-15E model and its radar, its major 
mission is air-to-ground, and the electronically scanned array 
radar for that platform will not only permit better targeting 
of ground targets, but also moving targets, which is a 
significant advantage with that installation.
    Senator Cochran. Thank you very much.
    I'd ask, Mr. Chairman, that my additional questions be 
submitted to the witnesses.
    Chairman Inouye. Without objection, so ordered.
    Senator Bond.
    Senator Bond. Thank you much, Mr. Chairman.

                         4.5 GENERATION FIGHTER

    Gentlemen, following my opening comments, I believe we can 
harness savings by putting more missions, not less, into the 
cost-effective Air Guard and procuring a blend of fifth-
generation and highly capable, more affordable, and proven 4.5 
generation fighters. That would ensure our Nation has at least 
two competing production lines.
    It's obvious that the situation has only grown more dire, 
as evidenced by the Nunn-McCurdy breaches, the Government 
Accountability Office (GAO) reports, and the joint estimate 
team (JET) study findings since you last told me, at this 
subcommittee, that, ``All options are on the table,'' to 
address this shortfall.
    General Schwartz, with shortfalls growing, and the 
inordinate delays of the key JSF program, with the cost going 
from an originally projected $55 million per copy to somewhere 
between $135 and $150 million, and the situation getting worse, 
why have you taken the 4.5 generation option off the table as a 
means of addressing these shortfalls?
    General Schwartz. Sir, the simple answer is that acquiring 
a 4.5 generation capability that will last as long, in the 
force structure, as a generation-5, seems to me--not the most 
prudent way to approach this problem. We have a limited pool of 
resources. And it is our sense, sir, that we should not 
dissipate that limited pool of resources, which we would prefer 
to devote to generation-5 capability, vice purchasing 
generation-4.5 that will last just as long.
    Instead, we believe that it is more prudent to extend the 
service life of certain elements of our existing fleet at some 
10 to 15 percent of the cost of purchasing new, and maintaining 
our commitment to the F-35; which, as I suggested earlier--we 
believe will be the backbone of tactical aviation, not just for 
the Air Force, but for the Navy, Marine Corps, and our 
international partners as well.
    Senator Bond. General Schwartz, I've heard questions about 
whether the JSF can even operate off of a carrier. There is a 
need right now. We have a shortfall right now. You could get, 
perhaps, three or more 4.5 generations for replacing some of 
the F-35s you're waiting to buy, if they ever complete their 
tests. But, when you talk about service-life extension, I'm not 
willing to buy the 14th Street Bridge again.
    The P-3C life-extension program terminated due to excessive 
costs. Same for the A-63. Same for the F-14A. The SH-60R cost 
increased from $4 billion to over $12 billion. The UH-1 and the 
AH-1 cost increased from $2.78 billion to $8.78 billion. And I 
think it's far better if you need those 4.5 to need to buy 
those.
    Let me address one very urgent question that the Guard has. 
Approaching the C-130 seems to be done in a vacuum. The Air 
Force identified the mobility capabilities and requirements 
study as the reason for reduction in the tactical airlift 
aircraft. But so--like many other self-fulfilling studies, it 
ignored the homeland defense mission and the role that the 
Air--C-130s play as a key element of the strategy.
    Additionally, the Air Force has admitted the plan was to 
accelerate the early retirement of E models. My understanding--
and please correct me if I'm wrong--is that the Air Force has 
45 C-130 aircraft at Little Rock, and the Air Force has 15 C-
130 that will not have any restriction for over 3 years.
    Without prior planning, I believe the Air Force could 
recapitalize the fleet and meet all training needs for the 3 
years, without Banana Republic iron-swapping of aircraft for 
the Air Guard.
    Mr. Donley, I appreciate your reply to Senator Leahy and 
me. I believe that any temporary movement of aircraft is 
unrealistic.
    Can either of you tell me whether options like conducting 
the training at Guard C-130 units, where savings could be 
harnessed and which would take advantage of the experience of 
the Guard, were considered before making this swap that I have 
heard from so many people was unwarranted and unjustified?

                             C-130 TRAINING

    General Schwartz. Sir, perhaps the Secretary will want to 
capitalize. Let me give you a little background on this.
    The training--the way the airplanes are distributed in our 
Air Force is as follows: Those aircraft that will be staying 
with us--and that is the C-130H model--H2, H2.5, H3s--are 
predominately--in fact, 77 percent of those aircraft reside in 
the Air National Guard and the Air Force Reserve. And the 
thinking was, given that we were going to recapitalize the 
remainder of the fleet, with the J model over time, that it 
made sense for the Air National Guard to assume the training 
mission for that body of our capability--for the H-model 
capability.
    Now, I will acknowledge, sir, that we didn't do as thorough 
a job as we should have in articulating the rationale for this 
earlier on.
    We now have a solution, which the Secretary responded to 
you on, which makes the Schoolhouse mission at Little Rock Air 
Force Base an Air National Guard and Air Force Reserve combined 
mission, something for which, as you suggest, they are very 
well qualified to perform, and to do it with airplanes from a 
number of units around the country, on loan. As we 
recapitalize, we grow the Js and reduce the Hs, so that the 
need for that Schoolhouse will subside over time, and the 
aircraft will return to their host units. Importantly, it will 
be--largely, because of the way the force is distributed, it is 
the Air National Guard and Air Force Reserve that will benefit 
from this approach.
    So, sir, that is the background on this. Again, I 
acknowledge that we did not reach out as well as we should have 
to explain what the logic was to the Adjutants General and 
others. And we'll do better in that respect, sir.
    Mr. Donley. I'd just like to reinforce that, in working 
through the second round of this problem, which we did in the 
last couple of months, and which I've responded to you on in a 
letter--the Air Force Reserve and the Air National Guard led 
that work. So, they went through a number of options for how to 
best accommodate the early retirement of C-130s, to take a 
stronger role in running the Schoolhouse at Little Rock Air 
Force Base, and to do that in a way that was, we felt, least 
disruptive to the individual Air National Guard units. And I 
believe we worked through a successful conclusion on that.
    Senator Bond. Thank you.
    Mr. Donley. And we also had the benefit, in that solution, 
not only retiring the Active Duty C-130s, but being able to 
reapply the Active Duty manpower to higher priority missions, 
such as those the chairman mentioned.
    Senator Bond. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman. My apologies----
    Chairman Inouye. Senator Dorgan.
    Senator Bond [continuing]. For going over.
    Senator Dorgan. Mr. Chairman, thank you.
    General Schwartz, I noticed that Colonel Keith Zuegel is 
sitting behind you. And he's retiring this month, I believe. 
And I just wanted to say, on behalf of the subcommittee, that 
he's, I think, been the chief of your Liaison Office for some 
long while and, I think, done a great job working with the 
subcommittee.
    So, Colonel Zuegel, good luck in your retirement.
    General Schwartz. He is a great example of the talent that 
we have in our Air Force, sir.
    Senator Dorgan. Let me ask you about two things. And I'll 
just ask both of them, and then perhaps both of you could 
respond.
    One is: you're going to stand up about 25 more combat air 
patrol units across the country, for UAVs. And I notice some of 
them are going to bases that house fighters and bombers. I also 
notice that is not necessarily the requirement for a combat air 
patrol unit. Some might think, in a kind of an old-fashioned 
way, that there has to be a merger. But, we also have combat 
air patrol units in areas that don't have fighters and bombers, 
who do just as well.
    And, I guess what I would ask--and you know why I'm asking, 
because we have one--a terrific base, with substantial 
capability to house additional missions, and that's the Grand 
Forks base--that you take a look at--and you probably already 
do this, but take a look at, how do you minimize the need for 
Milcon as you place these units? Because you've got some 
capacity, particularly the Grand Forks Air Force Base, as 
you're moving tankers out; the opportunity for another combat 
air patrol unit up in that area, or two, is a great 
opportunity.
    So, that's number one. I understand why some will counsel 
you, ``Put it near fighters and bombers'' others will say, 
``Completely unnecessary.''
    Second, my colleague from Missouri asked about the Joint 
Strike Fighter, and all of us who have been so supportive of 
that are also disappointed, in the sense that--as I calculate 
it--what we were told--I was on this subcommittee in 2002, and 
we were told--I guess, 2001--that the estimated cost was going 
to be $50 million per copy. And the latest estimate--an 
independent group formed by the Pentagon estimated 80 to 95. 
Well, taking the midrange of that--this is 2002 dollars, now--
that's about a 75-percent increase in the per-unit cost for a 
Joint Strike Fighter. I mean, that's really alarming. Because 
what happens is, there's this relentless march in increased 
costs that is just going to break the back of the Air Force and 
the Pentagon if we don't get some handle on it.
    So, the simple question is: Why? What accounts for a 75-
percent projected per-unit cost of the Joint Strike Fighter? 
Because it was heralded to us as something that was 
``Nirvana,'' it was going to serve over the range of services, 
``We're going to build enough of them to have the per-unit 
costs substantially down.'' But, it turns out now, in a very 
few short years, as we're just starting to produce, that the 
cost has just climbed way beyond that which is reasonable.
    So, the question is: Why?

                    JOINT STRIKE FIGHTER UNIT COSTS

    Mr. Donley. Mainly this is time. It's a function of time.
    Senator Dorgan. Well, I'm talking about 2002 dollars, as 
estimated by the independent group----
    Mr. Donley. Yes, sir. This means there have been delays, 
internal to the program, which add years--or months and then 
years to the projected schedule of the program, which then add 
years to the end of the program. So, you carry the program 
further out.
    Senator Dorgan. And what has caused the delays?
    Mr. Donley. A variety of issues have caused that. We've had 
too many engineering hours, which have not come down as the 
manufacturer works through the transition from development to 
production. They have fallen behind in the flight testing, 
because they haven't produced the initial jets on the planned 
schedule. Then they've fallen behind on the test program, so we 
have to work through the production issues. And then we have to 
slip the test program and add money for development.
    So, this was the work that was done by the Department over 
the winter to restructure this program. It was a top-to-bottom 
scrub. It was really the product of a 2-year effort. When the 
Chief and I came in, there was already an independent estimate 
going on on this program. And Secretary Gates made the correct 
decision to make adjustments in the fiscal year 2010 program, 
adding money for development--over $400 million, as I recall, 
just in fiscal year 2010.
    By the time we got to the end of calendar year 2009, we'd 
had two rounds of independent estimates, and we stepped up to 
the fact that the program was not executing as it needed to. 
And this was, really, the strategic-level decision to 
restructure the program.
    Senator Dorgan. Did we miss some early-warning flags here 
on this subcommittee? Because I don't remember sitting and 
listening to the fact that we're going to--we may end up having 
a 75-percent increase in per-unit cost for the one--for the 
Joint Strike Fighter. I mean, is this just laid in our lap all 
at once?
    Mr. Donley. If I can be bold, here, from a staff-level 
perspective, I don't believe there were surprises. The program 
had challenges and was falling behind in some areas.
    The issue was whether or not to believe the program office 
and the contractor, that they had a fix for those shortfalls. 
And really it was just in the last 2-year period where we had 
independent eyes on it. We determined we were not going to take 
a promissory note for a ``get-well plan'' that was not 
materializing. So, we decided to make a huge adjustment in the 
program at that time.
    Senator Dorgan. Mr. Chairman, could I just--I know my time 
is expired, could I ask for a 1-minute response on the combat 
air patrol units in one of the best air bases in America, the 
Grand Fork Air Force Base?
    General Schwartz. Senator Dorgan, let me explain two 
things.
    First of all, the rationale for co-location with other 
fighter or bomber combat Air Force units. This is a human-
capital question. And the issue is, how do we groom combat 
leaders that understand both the traditional kinds of 
capabilities that we've fielded for decades, and the new? And 
how do you integrate remotely piloted and traditionally manned 
aircraft in the right kind of packages?
    This is the logic behind, fundamentally, the notion of co-
location in some locations. It is not a major point driver in 
terms of our evaluation of installations. I would argue that 
the availability of facilities is--on a point basis--a greater 
consideration. But, the logic was to give some deference to our 
need to grow airmen commanders who understand all aspects of 
our portfolio, and can apply them, as required.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    The President's budget for this year, 2011, doesn't include 
any investments in military construction at Fairchild Air Force 
Base. And I wanted to ask you why.
    I was just out at the base, Fairchild, in April; had a 
chance to tour, take a look at all that's going on there, and 
talk directly with the base community. And there are a lot of 
facilities at Fairchild that are in need of upgrades, and some 
aren't even sufficient to meet the needs of a 21st century Air 
Force.
    Can you explain, Mr. Secretary, why there's no military 
construction investment in Fairchild this year?

                    AIR FORCE MILITARY CONSTRUCTION

    Mr. Donley. Very simply, we have chosen to take risk in 
infrastructure. We have underfunded our military construction 
and facility infrastructure, for several years running now. And 
I believe our Air Force budget is--we'll get you the exact 
numbers, is less than $2 billion a year at this point.
    [The information follows:]

    Our fiscal year 2011 Air Force military construction 
(Milcon) and facility infrastructure budget is $4.6 billion 
($1.5 billion for Milcon and $3.1 billion for facility 
sustainment, restoration, and modernization).

    Mr. Donley. So, it is at low levels, and has been for 
several years. As we confront other resource challenges inside 
the budget, pressures of varying kinds--it just--it costs a 
whole lot more in the future. Do we have a long-term 
recapitalization plan for our bases?
    Mr. Donley. Ma'am, I would just say that there's a 
difference between military construction and facility 
maintenance. And we have maintained the Department standard on 
facility maintenance. Primarily, we focus the limited military 
construction dollars on a new mission. Remotely piloted 
aircraft is a case in point. And we don't have, apparently, in 
this case--and we'll confirm that--a new mission at Fairchild 
Air Force Base.
    Senator Murray. Well, let me ask directly about that. In 
the past, we've heard promises that the first KC-X tankers will 
come to Fairchild. That was walked back. The men and women who 
serve at Fairchild have a great proven track record with our 
tankers, and they're ready and willing to fly the KC-X. Have 
you yet prioritized which squadrons need to have their aircraft 
replaced first, based on their maintenance records, Mr. 
Secretary?

                              KC-X BASING

    Mr. Donley. I've not. Let us get you an answer for the 
record on this specific question.
    [The information follows:]

    Senator Murray, as you know, the Air Force now uses the 
Strategic Basing Process to make all future basing decisions. 
The result of this process will not be directly linked to the 
existing tanker inventory or any future retirements of the KC-
135 fleet. Actual basing decisions will be made in an 
incremental fashion to align with aircraft deliveries, 
typically 2 years in advance of delivery.

    Mr. Donley. In general, we have not yet had to make the 
decision on the initial beddowns for KC-X tankers. But, we did 
include, in the request for proposal (RFP) that is now out and 
a matter of public record, a representative list of bases that 
were continental U.S. bases and overseas bases to which tankers 
could be bedded down. And we did that for the purposes of the 
evaluation. And Fairchild Air Force Base is included in that 
list.
    Senator Murray. Right.
    Well, with respect to the tanker, I wanted to ask you, with 
bids not due, now, until July 9, this is starting to sound like 
a fairly compressed bid evaluation timeline for the Air Force. 
It's really important that the Air Force has enough time to 
make a full and fair assessment of the bids that come in, and 
then that that decision will be held up under scrutiny, as we 
all know.
    And I'm very concerned about this discussion of a projected 
contract start date of November 12, when there's no projected 
award date, that I know of, yet. And the entire acquisition 
process now continues to be hampered by delays.
    Mr. Secretary, how can the Air Force talk about tentative 
start dates when they haven't projected an award date yet, and 
seem sort of uncertain about when that will be?
    Mr. Donley. Based on our experience in this RFP and 
previous ones, the judgment was it's best, at this point, not 
to exactly try to pin down when the contract award would be, or 
when the source selection would be completed. We'll leave that 
to the source-selection authority. They have, I think, ample 
time to review the proposals, which are due July 9, 2010. So, 
we think there are several months for reviews. And there are, I 
would say, multiple reviews--independent reviews, as well--that 
need to be factored in.
    But, we did feel, as a matter of record for the RFP, that 
it is important to tell the contractors, all offerors, when we 
think a contract award would be made, so that they have a firm 
date at which they need to be prepared to proceed.
    Senator Murray. Well, my understanding is, November 12 is 
the contract start date, not the award date.
    Mr. Donley. Yes.
    Senator Murray. And you have not----
    Mr. Donley. That's correct.
    Senator Murray [continuing]. Given them an award date yet.
    Mr. Donley. That's correct. ``Contract start date'' was the 
term.
    Senator Murray. And you believe that that'll give you 
enough time?
    Mr. Donley. We believe so.
    Senator Murray. Okay.

         WORLD TRADE ORGANIZATION RULING IN TANKER COMPETITION

    I also wanted to ask you about the World Trade Organization 
(WTO) ruling that Airbus has received illegal trade-distorting 
subsidies, for years. And, in particular, the World Trade 
Organization found that the A-330, which is the very airframe 
that they planned to use in this tanker competition, has been 
built using illegal subsidies. Now, I continue to be very 
troubled that DOD is awarding this contract--it's taxpayer 
funded, $35 billion competition.
    Without accounting for the billions of dollars in illegal 
subsidies that Airbus has received, I want to know how you can 
assure American taxpayers that they won't be spending money now 
to support an illegally subsidized company that one part of our 
Government, the United States Trade Representative (USTR), has 
already declared harmful to American jobs.
    Mr. Donley. We have, in the Department of Defense, worked 
through this issue with the U.S. Trade Representative and the--
--
    Senator Murray. Have you been personally briefed by the 
Trade Rep?
    Mr. Donley. We've had conversations with the Trade 
Representative, yes. And the judgment inside the executive 
branch, not just the Air Force or DOD, but working with our 
interagency partners, is that it would not be appropriate for 
the Department of Defense, in a single contract action, to take 
action representative of a WTO-level decision.
    Senator Murray. If one company is bidding against a company 
that has been subsidized, our taxpayers are essentially 
fighting against a country rather than a company.
    Mr. Donley. The WTO has an appeal process, which still 
needs to play out. There is, as you know, an additional suit in 
front of the WTO that involves a countersuit. And there are 
appeal processes that are laid out in WTO procedures. As a 
Government, we need to follow those appeal processes, which 
eventually get to the point of making tradeoffs and making 
determinations on how to affect the results of the appeal 
process at the end----
    Senator Murray. Well, I understand the end result of a 
ruling. But, again, the A-330 is what they said has been 
illegally subsidized. So, I'm sure we'll----
    Mr. Donley. I understand.
    Senator Murray [continuing]. Have more conversations----
    Mr. Donley. Yes, ma'am.
    Senator Murray [continuing]. About it as we move forward.
    Thank you very much, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    And, gentlemen, welcome. Appreciate your good work.
    And you know what I'm going to talk about, which is the 
Solid Rocket Booster Program. I believe that this 
administration has made a very serious mistake in restructuring 
the National Aeronautics and Space Administration (NASA). And 
you say, ``Well, why do we care, in a defense hearing?'' It's 
because it has to do with the industrial base of solid rockets.
    And regarding the Minuteman, specifically, I'd like to know 
if the Office of the Secretary of Defense had any conversations 
with NASA, or the Air Force had any conversations with NASA, 
before the President announced his intention to shut down solid 
rocket production?

                    NASA AND SOLID ROCKET PRODUCTION

    Mr. Donley. I'm not aware that the Air Force was consulted 
specifically on the NASA decisions.
    Senator Bennett. Well, you're deliberately--you're very 
definitely affected by this. And do you have any plans to 
sustain the industry in order to continue to meet current 
deployed and future anticipated strategic spacelift and 
tactical missile needs, because you can't meet those needs with 
liquid rocket--or liquid-fueled rockets?
    Mr. Donley. We do understand the challenge. And we do not 
have an answer, at this moment, as to how we intend to proceed. 
The Air Force has had discussions, at a couple of levels, with 
the National Reconnaissance Office (NRO) and with NASA 
officials at the highest levels. I've talked to Administrator 
Bolden and I've talked to General Carlson at NRO. We have 
recognized this as something we need to work together, going 
forward. We don't have answers right now, but we have folks 
that are focused on this challenge.
    Senator Bennett. Well, both the chairman and the vice 
chairman know of my strong interest in this. I'm glad to know 
you recognize that you have a challenge, independent of what 
may happen with NASA.
    And I'm going to be working with Senator Mikulski to see 
what I can do to see to it that there is a delay in the 
decision, as far as the President is concerned, because I think 
we have to solve the question of, How does the Defense 
Department cover its needs in solid rockets if NASA goes ahead 
with what I consider to be a very ill-considered decision on 
the part of the President?
    Do you see any increased risk if the Minuteman motors--stop 
the production of Minuteman motors, 19 years short of the 
planned operational status of that particular missile?
    Mr. Donley. In general, Minuteman has been a very reliable 
system for us, and it continues to test well. But, we do know 
that we have challenges ahead with respect to maintaining a 
warm base. And we're not satisfied with the bridging solution 
that we had developed here, over the last couple of years, 
which takes us through 2011. So, we need to find a way forward 
for fiscal year 2012 and beyond on this subject.
    Senator Bennett. I agree with that, absolutely.
    And anything you can do to weigh in with the 
administration--you say you're talking to the Administrator of 
NASA, and that's fine. But, life being what it is, I don't 
think that's where the decision was made.
    Frankly, I--I won't put words into his mouth, and I won't 
give any suggestion of his intentions, but strictly my own 
opinion is that--let us say, ``a generic NASA Administrator'' 
concerned primarily for the survival of his organization would 
not have approved this. And I think it's a decision that was 
made at the Office of Management and Budget (OMB) and dictated 
to this particular NASA Administrator. So, conversations with 
the NASA Administrator may not be productive in this area.
    And I would urge you to have conversations with whatever 
``elves'' within the administration you deal with, over at OMB, 
because I think that's where the decision was made--or whoever 
the masters are. And that the NASA Administrator's being a good 
soldier--or good airmen, depending on where he went to 
college--and carrying out orders. But, this is a very serious 
kind of question.
    And I just would close, Mr. Chairman, with this 
observation. Do you know where the term ``Minuteman'' came 
from? It came from the initial rockets that were created in our 
days, race with Sputnik and afterwards, that were liquid fuel. 
And to get those things fired up, get them launched, took 
hours. And suddenly we had a ``Minuteman'' that could be fired 
within minutes, because it had a solid rocket motor, rather 
than a liquid rocket motor, and could go immediately.
    And now, we're in the process of eliminating our industrial 
base of solid rocket motors. And you may not have any Minuteman 
left over if we go back, by virtue of the decision at NASA, to 
an industrial base that is given entirely to liquid rocket 
motors.
    I've made my speech. Thank you, Mr. Chairman. I appreciate 
your indulgence.
    Chairman Inouye. Thank you very much.
    Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman.
    I'm glad to hear that history about Minuteman. I didn't 
know that piece. I wanted to go back to ``Day-man,'' I guess, 
on this----
    Senator Bennett. Six-hour-man.
    Senator Brownback. Six-hour-man.
    Secretary, I want to follow up with what Senator Murray had 
asked. This is obviously a major issue for my State and the 
tanker contract. And I've been frustrated about the lack of 
being able to consider the illegal subsidy. And we've had many 
discussions about this, you know, with Secretary Murray--or 
with Senator Murray.
    For the military, if every step of appeal were exhausted, 
and the World Trade Organization found that Airbus had 
illegally subsidized the A-330 that they had bid, and this was 
conclusive, and all the appeals are done, would you consider 
that in the bid--the base bid of the contract?

         WORLD TRADE ORGANIZATION RULING IN TANKER COMPETITION

    Mr. Donley. I wouldn't commit to that at this point, 
because I think our answer would be, we would be working with 
the U.S. Trade Representative, and he would be working--he or 
she would be working through that WTO process to arrive at the 
appropriate specific steps to be taken at the end of that 
process. And this is why the internal judgment to the 
administration is that it would premature to take any 
particular action, at this point, on this program.
    Senator Brownback. Doesn't that invite other countries to 
do very similar actions to get our military contracts, whether 
it be ships or virtually anything of a military contract?
    Mr. Donley. I wouldn't speculate on what motivations might 
be from other companies to do this. I would simply say and I 
don't know that this would completely satisfy your concern but, 
both of the offerors involved here are international companies. 
We need to think through very carefully, as a nation, how we 
operate in the WTO and in the international marketplace, with 
respect to imports and exports, and goods and services 
provided. At the same time there are concerns about bringing 
onshore competitors to U.S. industrial-base partners. We also 
have to recognize that our international companies here in the 
United States want to sell abroad----
    Senator Brownback. Well, I----
    Mr. Donley [continuing]. And we have to have doors open for 
that as well, as do----
    Senator Brownback. And can be sued under the WTO, as well, 
abroad. But, I--it seems like, to me, if you're a foreign 
country, and you're reading the tea leaves on this, and we--
frankly, I think we've bent over backwards to try to get Airbus 
to bid on this. And we've held it open extra length of time. 
And certainly citizens in my State are livid about what the 
military is doing to try to give this to Airbus, with the--you 
know, with the extra--holding it open a longer period of time, 
do all these steps.
    But, at least on this illegal-subsidy piece, if we don't 
fix that hole, I would think other countries would say, ``You 
know, the United States builds ships. Why don't we subsidize 
our way into shipbuilding. Well, let's get some of these 
contracts. These are great contracts. Why don't we do''--
there's just a whole series of ones, to the point that I think 
we should put, in statutory form, that if there is a subsidy, 
as determined by WTO, that that's considered into the base 
price of the bid. Whether it's a U.S. company or a foreign 
company that does something like that--and I'm particularly 
targeted at foreign companies--but, to give us some teeth and 
to make some clarity on a major issue that I think you're 
inviting more foreign companies, or others, to figure ways to 
subsidize to get major U.S. military contracts. And I think 
we'd be wise to just put that in statutory form.
    Mr. Donley. Without responding directly to that proposal, I 
would just offer that in the context of the KC-X RFP, our 
approach to this is to hold the U.S. taxpayers harmless from 
any penalties that might be assessed on one manufacturer or 
another as we go through this WTO process. So, if there are 
penalties somewhere along the line, that we do not pay for 
those in the KC-X program.
    General Schwartz. And, Senator, if I may, just to clarify, 
there was no change in the requirements for the platform. The 
decision to extend was, in my view, largely in the interest of 
a competitive scenario. But, I can assure you, there was no 
change in the requirements.
    Senator Brownback. Well, if you award this to Airbus, after 
this step--extraordinary step of extending the time period--and 
it's a $35 billion contract, and it's a subsidized platform, 
which we all know is a subsidized platform--I think you're 
going to have some very irritated people in the United States 
of America. So, I would hope that wouldn't be the case. And I 
hope we can give you some statutory clarity on figuring the 
subsidy price into these military contracts.
    Thank you, Chairman.
    Chairman Inouye. I thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Because of the conflict that's on our Senate schedule, 
several members have not been able to attend. And they have 
questions; they've asked me to submit them to you. And it 
should be obvious that all of us have other questions to ask.
    So, without objection, I will be submitting to you, Mr. 
Secretary and General, questions for your responses.
    And in behalf of the subcommittee, I thank you for your 
testimony this morning. And we want to thank you and the men 
and women in your command for their service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Michael B. Donley
            Questions Submitted by Chairman Daniel K. Inouye
    Question. Secretary Donley, to meet emerging requirements, the Air 
Force is quickly expanding its unmanned aerial vehicle and 
cybersecurity missions. It is adding thousands of highly trained 
personnel to these career fields in a short time. How is the Air Force 
managing the manpower challenges associated with these new missions?
    Answer. The Air Force has programmed actions to source the manpower 
required to grow its remotely piloted aircraft fleet operational 
capability to 50 combat air patrols (CAPs) by fiscal year 2011, with 
existing manpower identified in the fiscal year 2011 President's budget 
request. We are also in the process of identifying existing, lower-
priority manpower authorizations for realignment to the 65 CAP 
requirements by 2013 as part of our fiscal year 2012 budget submission. 
Specific intelligence, surveillance, and reconnaissance career field 
impacts are under study.
    In order to develop and institutionalize cyberspace capabilities 
and to better integrate them into the Joint cyberspace structure, the 
Air Force funded manpower in the fiscal year 2010 President's budget to 
establish a Cyber Numbered Air Force (24 Air Force). Furthermore, the 
fiscal year 2011 budget request reflects a continued Air Force 
commitment to cyber superiority as we sourced manpower for fiscal year 
2011 to support enhanced Network Attack capabilities.
    Question. Secretary Donley, what do you see as the role of the Air 
National Guard and Air Force Reserve in UAV and cybersecurity 
operations? Is the high operational tempo of these mission sets 
compatible with the civilian responsibilities of our Guardsmen and 
Reservists?
    Answer. Both the Air National Guard (ANG) and Air Force Reserve 
play significant roles in our ongoing overseas contingency operations 
providing critical support to our Joint Force Commanders.
    With respect to remotely piloted aircraft (RPA) operations, the ANG 
has four MQ-1 Predator squadrons providing two combat air patrols each 
and one MQ-9 Reaper squadron providing one combat air patrol in the 
U.S. Central Command theater of operations. Although each ANG unit was 
programmed to provide only a single combat air patrol (CAP), as a 
result of the increasing demand for this capability, each MQ-1 unit was 
mobilized in 2008 to provide an additional CAP. As of July 2009, the 
mobilization expired; however, the ANG voluntarily elected to maintain 
their additional CAPs allowing the active component to focus its 
efforts elsewhere, such as increasing RPA training capacity.
    In addition to the combat support each unit is providing, some 
units are providing RPA maintenance and flying training capability. The 
California ANG stood up a maintenance training unit in 2008, graduating 
approximately 600 Active, Guard and Reserve students each year and a 
flying training unit in 2009, producing approximately 40 Active, Guard 
and Reserve RPA aircrews (pilots and sensor operators) each year. The 
New York ANG provides maintenance training for the MQ-9, while the 
Nevada ANG provides both combat and flying training support by 
augmenting RPA personnel at Creech Air Force Base, Nevada.
    As we continue to expand our RPA efforts, we anticipate increased 
ANG participation within the next few years at 4-6 additional 
locations.
    The Air Force Reserve is supporting warfighter efforts with an Air 
Force Special Operations Command MQ-1 squadron at Nellis Air Force 
Base, Nevada, and we will be standing up an RQ-4 Global Hawk Reserve 
squadron at Grand Forks Air Force Base, North Dakota. We are also 
examining different possibilities for expanding Reserve participation 
in the MQ-1 and MQ-9 communities as we continue to our planned growth 
to 65 MQ-1/9 CAPs by the end of fiscal year 2013.
    With respect to cyber security operations, eight Air National Guard 
units currently provide cyber capabilities that meet combatant 
commander and Air Force requirements. For example, the 262nd Network 
Warfare Squadron of the Washington ANG provides vulnerability 
assessments of Air Force networks to bolster security and prevent 
attacks. Additionally, Air Force Reserve personnel augment several 
active duty cyber units, working in the same duty positions as their 
active duty counterparts.
    Question. Is the high operational tempo of these mission sets 
compatible with the civilian responsibilities of our Guardsmen and 
Reservists?
    Answer. Yes. For RPAs, aside from takeoff and landing, the Air 
Force operates our MQ-1/9 and RQ-4 aircraft via satellite data link 
from stateside locations. This capability has significantly reduced the 
number of personnel needed to deploy, lessening the impact on our Guard 
and Reserve forces. While the operations tempo remains high, a majority 
of our Guard and Reserve support has come from volunteerism. When the 
ANG's mobilization expired in July 2008, each of our ANG MQ-1 squadrons 
requested to maintain their surge CAP in addition to the single CAP 
they were programmed to provide. Additionally, despite being at war, 
our Guard and Reserve units conducting RPA operations have been able to 
maintain their civil support commitments during other contingency 
operations such as floods, fires and earthquakes.
    For the cyber security mission, steady-state support to the Air 
Force, as well as mobilizations--whether voluntary or involuntary--have 
historically not resulted in adverse impacts to ANG personnel or their 
ability to meet obligations to civilian employers. In addition, 
Guardsmen and Reservists are often employed by some of the most high-
tech companies in America such as Cisco, EDS, Microsoft, Siemens and 
Symantec who also engage in cybersecurity of the nation's 
infrastructure. Both the military and civilian sectors benefit by 
having these professionals work in both environments.
    Question. Secretary Donley, Lieutenant General Wyatt, the Director 
of the Air National Guard alerted us to the fact that 80 percent of its 
F-16 fighters begin reaching the end of their service life in 7 years. 
Retiring these aircraft will almost eliminate the Air National Guard 
fleet dedicated to the Combat Aviation and Air Sovereignty Alert 
missions. With delays in the F-35 program now documented, it appears 
that the Air Force is taking some risk in the size of the fighter 
inventory. How will you ensure that enough aircraft are available for 
the important homeland security mission?
    Answer. Defense of the homeland is the DOD's highest priority 
mission. The Air Force will continue to steadfastly support Operation 
Noble Eagle (ONE) through the Total Force concept as it has since 9/11. 
ONE requirements are currently driven by the April 2009 CJCS Execute 
Order (EXORD) and May 2009, U.S. Pacific Command EXORD, and are sourced 
through provisions of the Secretary of Defense approved Global Force 
Management process. While ONE is a Joint mission, the Air Force has 
historically performed the overwhelming majority of ONE fighter 
missions. The Air Force has sufficient fighter inventories to execute 
ONE based on the current requirements.
    Question. Secretary Donley, is the Air Force looking at new 
missions for the Air National Guard? Are additional association 
relationships with active Air Force units planned?
    Answer. We continually examine our force structure needs to fill 
new or emerging missions with the best Total Force solutions. The Air 
National Guard is contributing to RPA, cyber, space and other key 
mission areas. Our desired end state is a leaner, more capable and more 
efficient Air Force leveraging the strengths of both our active and 
reserve components, and we will continue to look to implement associate 
units when the business case and operational requirements support it.
    Question. Secretary Donley, there is $325 million in the fiscal 
year 2011 budget request for the NPOESS (``EN-POSE'') weather satellite 
program. As you know, the White House ended the program this fiscal 
year. What is your plan for the follow-on satellite program and the 
fiscal year 2011 funds?
    Answer. The Department of Defense (DOD) stakeholders are in the 
final stages of determining how best to proceed to meet DOD needs and 
requirements for this mission using the $325 million in research, 
development, testing, and evaluation funding in fiscal year 2011. The 
DOD restructure options are still being studied, however the budgets 
for the various options conform reasonably well to that of the Future 
Years Defense Program profile. The DOD is building acquisition 
timelines, conducting follow-on program risk assessments, assessing 
industrial base impacts, and determining the level of fiscal year 2011 
funding required, in consultation with the National Oceanic and 
Atmospheric Administration and the National Aeronautics and Space 
Administration. The DOD expects to provide a more detailed strategy by 
late-summer this year.
    Question. Last fall, the Air Force stood up the Global Strike 
Command, bringing the Air Force's intercontinental ballistic missiles 
and nuclear-capable bombers under one command for the first time since 
the days of the Strategic Air Command. This is the culminating event on 
the Nuclear Roadmap created to revitalize the nuclear enterprise. 
Secretary Donley, could you bring us up-to-date on the status of that 
initiative and tell us what is next?
    Answer. Air Force Global Strike Command (AFGSC) is on schedule to 
achieve full operational capability by September 30, 2010. The command 
assumed the ICBM mission from Air Force Space Command on December 1, 
2009 and the B-52/B-2 bomber mission from Air Combat Command on 
February 1, 2010. AFGSC has developed new command guidance/policies; is 
actively engaged in the no-notice/limited-notice nuclear surety 
inspection process, is an active participant in U.S. Strategic Command 
exercises; and is aggressively working to fill all manpower vacancies, 
particularly in the civilian workforce.
    Going forward, command priorities include implementing the 
provisions of the Nuclear Posture Review, ensuring long-term 
sustainment of the aging ICBM fleet, and reviewing implications and 
anticipated enforcement of the New Start Treaty when it is ratified.
    Question. Secretary Donley, the budget requests $66 million for a 
new program procuring 15 Light Mobility Aircraft. This new initiative 
expands your mission which, given the emphasis by Secretary Gates on 
reducing defense expenditures, appears unusual. Could you elaborate on 
the benefits of this program and why it is a wise investment now?
    Answer. LiMA will enable the United States to demonstrate, train 
and perform lower-cost airlift operations to and from austere areas, 
working in concert with Partner Nations (PN) with limited capacity and 
capability to perform aviation functions. Primary benefits from this 
approach include reduced wear and tear on larger, more expensive U.S. 
mobility aircraft, increased airlift capability in austere regions with 
sparse infrastructure, and a right-tech aircraft that represents the 
types of capabilities a PN can afford to acquire, maintain and operate. 
The result of this approach is the United States will demonstrate the 
utility of LiMA to a PN, thus facilitating Theater Strategic and 
Campaign Plan objectives and enhancing our long term capabilities 
through security cooperation.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
    Question. Air Force leadership has come out on the record opposing 
the F136 alternate engine program for the Joint Strike Fighter. Two 
aspects of sole-sourcing the F-35 engine are troubling, and DOD leaders 
have not addressed them yet.
    First, the F135 engine has never competed against the F136 engine, 
and under the current DOD plan, it never will. While the prime contract 
for the F-35 was fully and fairly competed, the sub-contract for the 
engine was selected as an element of the prime without any competition. 
Competition would determine which engine is technically superior and it 
would drive down costs, which is something this program desperately 
needs. Second, the F-35 will eventually comprise 95 percent of our 
strike aircraft fleet.
    If that doesn't qualify as a need for a redundant second engine, 
then what does? What happens to our operational flexibility if the 
fleet is grounded for engine problems? Such occurrences have happened 
before, such as with the Harrier jet. But never before have we had a 
grounding of such a broad multi-service, multinational program. Is now 
really the time to accept that kind of risk? Wouldn't the Air Force 
agree that this issue is not just a matter of trading up-front costs 
for future savings, but also a matter of operational risk and 
effectiveness?
    Answer. The Air Force supports Secretary Gates' conclusion to not 
pursue a second engine. Maintaining two engine suppliers will result in 
increased development, production, and support costs in the near term. 
The Department of Defense (DOD) consistently emphasizes its opposition 
to a second engine for the Joint Strike Fighter because continued 
funding of the F136 would divert funds from other important defense 
needs. In the middle of two wars, the DOD has higher priority uses for 
the $2.9 billion that would be required to take the F136 to full 
competition. Furthermore, there is no guarantee that having two engines 
will create enough long-term savings to outweigh the significant near-
term investment. The Air Force does not consider a single source engine 
for the F-35 to be an unacceptable increase in operational risk. The 
DOD currently maintains two tactical aircraft programs, the F-22A and 
the F-18, each of which utilize a single source engine provider. Both 
programs have solid safety records, and the DOD is satisfied with the 
engines for both programs. Over the years, significant advancements in 
engine design, testing, production, and sustaining engineering have 
enabled the DOD to manage the risks associated with single engine 
systems without having to ground an entire fleet.
    We believe any benefits that might accrue from continued funding of 
the F136 extra engine would be more than offset by excess cost, 
complexity and risk. A single source engine for the F-35 provides the 
best balance of cost and risk for the DOD's needs in the current 
resource-constrained environment.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
    Question. The USAF has developed a process for quantitative and 
qualitative analysis to determine the best bed down locations for 
future F-35 acquisitions. This process has been referred to as 
transparent, repeatable, and defendable.
    What is the process for appeal if a unit believes the score is 
inaccurate?
    Answer. As part of the process, major command staffs responded to 
the data call from the lead major command using data sources maintained 
by each installation. This data was used to create a rank-order list of 
bases. Military judgment was then applied to identify a smaller 
candidate base list.
    Typically a unit is unaware of scores derived during the basing 
process since this occurs at the Headquarters Air Force and this 
information is not shared with installation commanders. If a unit 
believes the data used and resultant scores are inaccurate, they can 
appeal through their major command to then be resolved at the 
Headquarters Air Force level.
    Question. Why, if this is a transparent process, is the USAF 
withholding the scores from public scrutiny?
    Answer. The Air Force Air Force policy throughout the basing 
process has been to provide the Members of Congress the scores for 
installations within their state as well as a relative ranking of each 
installation within the top, middle, or bottom third of the scoring 
range. Installation scores were used to create a rank-order list of 
bases. Military judgment was then applied to identify a smaller 
candidate base list. This candidate list was released to Congress on 
October 29, 2009, and briefings have been provided to congressional 
members and their staff when necessary to explain how the scores were 
derived without revealing the scores of other installations.
    Question. What role did the nations Adjutants General have in this 
process?
    Answer. The Air Force strategic basing process does not include 
direct participation of the Adjutants General. Participative and 
representational roles are reserved for the major commands, which in 
this case, includes the Air National Guard and Headquarters Air Force. 
Base specific information was obtained from major commands and unit 
records, screened by the major command and eventually incorporated into 
analysis by Air Combat Command, the lead major command for F-35A 
basing. The information was then brought to Headquarters Air Force 
senior leaders through the Strategic Basing-Executive Steering Group 
for consideration.
    Question. Were the Adjutants General given an opportunity to 
comment on quantitative scores before the USAF leadership applied 
qualitative analysis?
    Answer. No. The Air Force strategic basing process does not include 
the direct participation of the Adjutants General. Participative and 
representational roles are reserved for the major commands, which in 
this case includes the Air National Guard and Headquarters Air Force. 
The Director of the Air National Guard is fully integrated in the 
basing process and in constant communication with the Adjutants 
General. Base specific information was obtained from major commands and 
unit records, screened by the major command and eventually incorporated 
into analysis by Air Combat Command, the lead major command for F-35A 
basing. The information was then brought to Headquarters Air Force 
senior leaders for their consideration.
    Question. What role did the Director, Air National Guard (DANG) 
have in the qualitative analysis?
    Answer. Air National Guard representatives from the National Guard 
Bureau and the Air Staff participated in the deliberations of the 
Basing Request Review Panel, the first step in the Air Force Strategic 
Basing Process. The Deputy Director, Air National Guard participated in 
the Strategic Basing-Executive Steering Group as it formulated options 
for Chief of Staff and my discussion, review and decision. The 
Director, Air National Guard or his representative participated in 
discussions with us to a final decision regarding which bases were 
identified as training and operations candidate bases.
    Question. Given that he is likely in the best position to know the 
Air National Guard units and locations, was the DANG provided an 
opportunity to shape or influence the USAF leadership's best judgment?
    Answer. Yes. The Deputy Director, Air National Guard participated 
in the Strategic Basing-Executive Steering Group as it formulated 
options for the Secretary and the Chief of Staff discussion, review and 
decision. The Director, Air National Guard also participated in 
discussions with the Chief of Staff and me prior to a final decision 
regarding initial basing locations for the F-35.
    Question. The Wisconsin National Guard submitted a detailed 
analysis of the score for the 115th FW, Madison, Wisconsin, which 
outlines factual errors. This analysis was delayed as the Wisconsin 
National Guard was unable to obtain its score from the USAF through the 
NGB.
    Why did the USAF insist that the NG obtain base scores only through 
congressional delegations?
    Answer. Air Force policy throughout the basing process has been to 
provide only the Members of Congress the scores for installations 
within their state as well as a relative ranking of each installation 
within the top, middle, or bottom third of the scoring range. Base 
specific information was obtained from major command and unit records, 
screened by the major command and eventually incorporated into analysis 
by Air Combat Command, the lead major command for F-35A basing, then 
brought to the Pentagon for consideration by Headquarters Air Force 
senior leaders. Typically a unit is unaware of scores derived during 
the basing process since this occurs at Headquarters Air Force and this 
information is not shared with installation commanders (Active, Guard 
or Reserve). Briefings have been provided to congressional members and 
their staff when necessary to explain how the scores were derived 
without revealing the scores of other installations.
    Question. The WI NG requested correction in five areas amounting to 
nine points. To date, there has been no resolution--what is the current 
status?
    Answer. Although agreement was reached to revise the quantitative 
score, the score change was not enough to significantly affect the 
115th Fighter Wing's relative standing. The Air superiority alert 
mission was considered in the qualitative assessment as positive, but 
was not a driving factor that eliminated any one base as a candidate 
location.
    Question. The WI NG points out that the base score did not 
correctly identify the 115th FW as an ASA home alert location--a 
criteria identified by the USAF as probative in the qualitative 
analysis. If the quantitative score is inaccurate and qualitative 
indicators are not identified, how can the USAF be sure that this unit 
was fairly assessed?
    Answer. Although agreement was reached to revise the quantitative 
score, the score change was not enough to significantly affect the 
115th Fighter Wing's relative standing. The Air superiority alert 
mission was considered in the qualitative assessment as positive, but 
was not a driving factor that eliminated any one base as a candidate 
location.
    Question. How did ASA alert affect the final determination for 
future F-35 bed down locations?
    Answer. The air superiority alert mission was considered in the 
qualitative assessment as positive, but it was not a driving factor 
that eliminated any one base as a candidate location.
    Question. What were the qualitative scores for the other bases in 
the top third? We specifically request the full scoring sheets for 
comparative analysis.
    Answer. Air Force policy throughout the basing process has been to 
provide only the Members of Congress the scores for installations 
within their state as well as a relative ranking of each installation 
within the top, middle, or bottom third of the scoring range. Base 
specific information was obtained from major command and unit records, 
screened by the major command and eventually incorporated into analysis 
by Air Combat Command, the lead major command for F-35A basing, then 
brought to the Pentagon for consideration by Headquarters Air Force 
senior leaders. Typically a unit is unaware of scores derived during 
the basing process since this occurs at Headquarters Air Force and this 
information is not shared with installation commanders (Active, Guard 
or Reserve). Briefings have been provided to congressional members and 
their staff when necessary to explain how the scores were derived 
without revealing the scores of other installations.
    Question. Assuming that the USAF leadership moved some lower 
scoring units above units with higher scores in the basing decision, 
what was the justification for this best military judgment?
    Answer. Lower scoring units (installations) were not moved above 
higher scoring installations. The Air Force produced a rank ordered 
list of installations using quantifiable criteria. Beginning with the 
top-ranked installation, the Air Force reviewed each in rank order, 
applying military judgment to identify candidates that could meet 
mission requirements. An installation could be eliminated from 
consideration as a result of military judgment.
    There were three possible outcomes after military judgment factors 
were considered. These outcomes were: Yes--an installation is a 
candidate within timing window; not yet--an installation is not a 
candidate within timing window; no--an installation is currently 
incompatible with requirements.
    As an example, military judgment factors were developed to assist 
uniquely qualified and experienced senior Air Force leaders in 
identifying candidate installations for basing F-35A aircraft 
programmed for delivery through the fiscal year 2017 timeframe. These 
factors included: Plans and Guidance; Global Posture; Building 
Partnerships; Total Force; Beddown Timing; Force Structure; Training 
Requirements and Efficiencies; Logistics Supportability; and Resources/
Budgeting.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                      maintenance in the air force
    Question. For many of its logistics and sustainment functions 
including activities such as supply chain management, product support 
integration, and maintenance, repair and overhaul activities the 
Department of Defense can select from private sector contractors a well 
as organic public depot facilities. Please provide to the Committee a 
description of the methodology employed by the Air Force in making cost 
comparisons between organic public sector facilities and private sector 
contractor providers for the purpose of workload assignment for the 
provision of logistics and sustainment function including but not 
limited to supply chain management, product support integration, and 
maintenance, repair and overhaul work. In particular, please explain to 
the Committee what accounting systems and principles the Air Force uses 
to ensure full cost accounting for both public and private sector 
entities in making decisions regarding the assignment of this logistics 
and sustainment related work.
    Answer. The methodology employed by the Air Force in making cost 
comparisons between organic public sector facilities and private sector 
contractor providers resides as a subset of the overall decisionmaking 
tool codified in Air Force Instruction 65-509 Business Case Analysis, 
and Air Force Manual 65-510 Business Case Analysis Procedures. The 
business case method prescribed in these regulations provides a 
credible, defendable, repeatable and transparent process by which 
decision makers are supported with documented, objective analysis.
    The Air Force has a Source of Repair Assignment Process that 
includes a review of statutory compliance and requires best value 
analysis. The first consideration for workload assignment is whether 
the workload is required to be organic for purposes of meeting 10 
U.S.C. 2464, the statute which directs workload into an organic 
facility for purposes of meeting Core maintenance capability 
requirements, and/or 10 U.S.C. 2466, the statute requiring that no more 
than 50 percent of total funding allocated to depot maintenance be 
performed in the private sector. After an assessment that the workload 
is not required to meet either of these statutes, we then perform best 
value assessment. There are three fundamental factors in this best 
value assessment that are used for the basis of evaluation and eventual 
decision between organic and contract. These factors are costs, 
benefits, and risks, each supplying its own specific subset of criteria 
and variables for analysis and decisionmaking.
    For accounting, the Air Force annually publishes standard composite 
rates in Air Force Instruction 65-503 including pay and benefits for 
military and civilian personnel. The Air Force directs these rates be 
used when preparing business case analyses. Additionally, there are 
other overhead costs categories being added to these rates per 
Directive-Type Memorandum 09-007, ``Estimating and Comparing the Full 
Costs of Civilian and Military Manpower and Contract Support''.
                 f-35 aircraft for lackland afb, texas
    Question. Please explain the Air Force's F-35 stationing plan to 
the Committee. In particular, please address any plans to station F-35 
aircraft at Lackland AFB, Texas.
    Answer. The Air Force is using a repeatable, transparent Strategic 
Basing Process to identify locations for the F-35. Air Combat Command, 
as the lead major command, developed basing criteria which were 
approved by Secretary and the Chief of Staff of the Air Force and 
released to Congress in September 2009. These criteria were applied to 
determine candidate base lists for the initial increments of F-35 
training and operational bases which were provided to Congress in 
October 2009. The environmental impact analysis process is now underway 
and we anticipate releasing preferred basing alternatives in August 
2010, with a Record of Decision announced by spring 2011. Lackland AFB, 
Texas is not one of the candidate bases being considered for this round 
of F-35 basing decisions, but will be considered in future rounds of F-
35 basing.
              newer aircraft for texas air national guard
    Question. Please explain the Air Force's plan to replace the Texas 
Air National Guard's aging F-16 aircraft with newer airplanes at some 
point in the future.
    Answer. The Air Force currently has no plans to replace or retire 
the Texas Air National Guard F-16 Block 30 aircraft within the current 
Future Years Defense Program.
            long range persistent strike development program
    Question. Please explain the long range strike capability that the 
Air Force seeks to develop within its Long Range Persistent Strike 
Development Program?
    Answer. During the 2010 Quadrennial Defense Review, a Secretary of 
Defense-directed tiger team was established to complete an in-depth 
study of long-range strike--including the long range strike platform 
(LRSP) need, requirement, and technology. The team's conclusions were 
supportive of pursuing a new LRSP platform, but identified the need for 
additional analysis to explore options for reducing costs and 
accelerating fielding timelines. Based upon the need for additional 
analysis, the Secretary of Defense chartered a subsequent study to 
examine a broader array of long-range strike issues and options 
including the appropriate mix of long range strike capabilities; 
upgrades to legacy bombers; manned and unmanned force structure 
numbers; stand-off and penetrating platform ratios; stand-off cruise 
missile requirements; intelligence, surveillance, and reconnaissance 
demands; airborne electronic attack requirements; and conventional 
prompt global strike needs. The study results are expected to be 
available in the fall of 2010.
    Although the specific LRSP performance requirements are still being 
developed, a general description of the desired attributes includes:
  --Range and survivability to overcome adversary anti-access 
        strategies and persistence in denied area environments;
  --Flexible, mixed payloads to engage mobile and hard targets; and
  --Visible deterrence capability across the spectrum of conflict.
    We continue our work with the Office of the Secretary of Defense 
and the combatant commanders to define the requirements for long range 
strike and to help determine the composition of the long range strike 
family of systems that will best meet our Nation's needs for this 
critical and enduring mission.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. Considering the issue of balance, in your discussion of 
``Global Precision Attack,'' you briefly mention the DOD's plans to 
assess conventional prompt global strike prototypes which were 
referenced in the 2010 QDR. However, given the recent recession, the 
market for small turbofan engines has markedly declined, calling into 
question the long term affordability based on decreased industrial 
capacity.
    In the context of your long-range strike capabilities, what is your 
estimation of the significance of the role global strike platforms 
could play? Can you discuss what steps could/should be taken to prepare 
the way for prompt global strike initiatives in relation to this 
technology?
    Answer. Global precision strike capabilities leverage the inherent 
range, flexibility, and lethality of airpower to hold targets at risk 
around the globe. To ensure their continued viability, we will continue 
to work toward a ``family of systems'' that provides the necessary 
flexibility and agility. Non-nuclear prompt global strike is a unique 
capability that could be used against a specific set of targets in 
limited numbers. It is not intended to be a substitute for other long 
range strike capabilities but rather to complement them as one 
component in the long range strike family of systems. The 2010 Nuclear 
Posture Review highlighted the importance of developing non-nuclear 
prompt global strike capabilities that could prove valuable in 
defeating time-sensitive threats. The Department of Defense is 
currently studying the appropriate mix of long-range strike 
capabilities, including non-nuclear prompt global strike. This follow-
on analysis will build upon the capabilities identified in the 2010 
Quadrennial Defense Review and Nuclear Posture Review allowing the Air 
Force to make specific recommendations in the fiscal year 2012 
President's budget request.
    The Office of the Secretary of Defense is managing a defense-wide 
account, which includes Air Force, Army, Navy and DARPA projects, aimed 
at developing a Prompt Global Strike capability based on hypersonic 
technology. DARPA's hypersonic technology vehicle is an unmanned, 
rocket launched, maneuverable hypersonic air vehicle with no onboard 
propulsion system. Its propulsion is provided by the launch vehicle, a 
Minotaur IV Lite. The Conventional Strike Missile is an Air Force's 
concept for Prompt Global Strike based on DARPA technology development. 
This concept currently involves a strategic sized solid rocket booster 
to allow for a global range capability. The small turbofan engine was 
not a candidate in the Conventional Prompt Global Strike analysis of 
alternatives and is not likely to participate in future discussions due 
to mission range requirements.
    Question. At the present time, only two U.S. companies (ATK and 
Aerojet) produce solid rocket motors for all of our nation's needs, and 
only one company (American Pacific) manufactures their most key 
ingredient. These three companies support all strategic missiles, 
missile defense programs, military and commercial space lift 
capabilities, NASA human spaceflight systems, and the entire cadre of 
tactical missiles available to today's war fighter. However, demand for 
products made by the solid rocket motor industry has been in steady 
decline for many years, and is right now experiencing a further 
dramatic drop with the completion of the Minuteman III Propulsion 
Replacement Program (PRP), the retirement of the Space Shuttle, the 
termination of the Kinetic Energy Interceptor (KEI), the production 
slowdown of Ground-based Midcourse Defense (GMD) interceptors, and the 
Missile Defense Agency's planned transition from a proven solid rocket 
motor-based systems to an unproven liquid propulsion-based system. I 
also understand that prices across weapons systems that are designed 
around the advantages that solid rocket fuel offers--especially the 
capability to have fuel loads that will respond instantly to a launch 
command--will increase given the current course.
    What plans has the Air Force made to sustain this industry, in 
order to continue to meet current deployed and future anticipated 
strategic, space lift, and tactical missile needs? Has the Air Force 
considered the pending price impact on your widely deployed tactical 
systems? Do you know if the other services are aware of this 
approaching issue?
    Answer. The Air Force leverages research and development projects, 
joint and individual production programs, and the focused efforts of 
program managers to assist in supporting key elements of the aerospace 
industrial base needed to respond to the current and emerging global 
environment. For example, with respect to the industrial base for solid 
rocket motors, the fiscal year 2010 President's budget request calls 
for the production of nearly 700 air-to-air tactical missiles. These 
are joint programs supporting the Air Force and the Navy.
    In the case of large (greater than a 40-inch diameter) solid rocket 
motors, the Air Force has been closely monitoring this segment of the 
solid rocket motor industrial base for a number of years. This year, 
the Air Force initiated a phased study and analysis to develop a risk-
based investment strategy focused on sustaining the Minuteman III 
system through 2030. Further, an interagency task force, including 
representation from the Department of Defense (the Office of the 
Secretary of Defense, Army, Navy, Air Force, and Missile Defense 
Agency) and the National Aeronautics and Space Administration, will 
offer solid rocket motor industrial base sustainment recommendations to 
the Secretary of Defense for a subsequent report to Congress.
    At this time there is no impact to deployed tactical Air-to-Air or 
Air-to-Ground Missiles.
    Yes, other Services are aware. An interagency task force, that 
includes representation from the Department of Defense (the Office of 
the Secretary of Defense, Army, Navy, Air Force and Missile Defense 
Agency) and the National Aeronautics and Space Administration, has been 
formed to assess the solid rocket motor industrial base and provide 
recommendations to the Secretary of Defense for a subsequent report to 
Congress.
    Question. Air Force officials have testified before Congress about 
the potential concern that prices for the propulsion systems for the 
Evolved Expendable Launch Vehicle (EELV) might double in price.
    How does the Air Force plan on managing a 200 percent price 
increase to the EELV program and what impact will that have on our 
ability to meet our strategic space requirements?
    Answer. The Air Force will continue to fund EELV to meet assured 
access to space and National Space Transportation Policy requirements.
    The exact increases to EELV launch vehicle costs are not yet known. 
The Air Force has developed preliminary estimates that incorporate 
increasing subcontractor costs. The significant reduction in demand 
within the spacecraft industry has caused subcontractors to rely on the 
EELV program as their primary customer. As a result, EELV bears the 
burden for much of these key suppliers' overhead costs
    In response to these estimates, the Commander, Air Force Space 
Command and the Director, National Reconnaissance Office chartered a 
tiger team to recommend a revised way ahead for the EELV program. Among 
the items the tiger team is evaluating is a more flexible and 
transparent contract structure that increases program and industry 
stability.
    In addition, collaboration is ongoing with the Department of 
Defense, the Office of the Director, National Intelligence, the Air 
Force, and the National Aeronautics and Space Administration to explore 
synergistic community solutions where possible.
    Question. In fiscal year 2009, with much support from this 
committee, the Air Force initiated a Minuteman solid rocket motor warm 
line program, with production continuing in fiscal year 2010 and fiscal 
year 2011. However, the future years defense program (FYDP) provided 
this year shows close out of this warm line effort in fiscal year 2012. 
While the Minuteman III system is now expected to be deployed through 
2030, its solid rocket motors--produced in the early 2000s--were only 
designed to last 20 years, and actually have a maximum demonstrated 
life of only 17 years. There is no way to avoid the fact that the 
Minuteman solid rocket motors will need to be replaced prior to 2030. 
The Air Force has requested approximately $43 million in fiscal year 
2011 for ICBM procurement. However, it is my understanding that the 
funding will only purchase three solid rocket motor sets, but six are 
needed to maintain proper certification to build such systems.
    How does the Air Force plan to sustain the industrial base during 
the time until any next generation system begins development? If this 
program is to be closed out in fiscal year 2012, how does the Air Force 
plan to sustain the Minuteman system's readiness through 2030?
    Answer. The Air Force is currently reevaluating the overall 
Minuteman (MM) III Solid Rocket Motor (SRM) Warm Line concept in order 
to help sustain the strategic SRM industrial base. If the current MM 
III SRM production capability is allowed to lapse, any requirement for 
follow-on MM III SRM production would include the time and costs 
required to reinstate such a capability. The Air Force, in coordination 
with industry, has determined what those costs and timelines would be 
and would include these factors in long-range planning efforts. This 
year, the Air Force initiated a phased study and analysis to develop a 
risk-based investment strategy focused on sustaining the MM III system 
through 2030. Further, an interagency task force, including 
representation from the Department of Defense (the Office of the 
Secretary of Defense, Army, Navy, Air Force, and Missile Defense 
Agency) and the National Aeronautics and Space Administration, will 
offer solid rocket motor industrial base sustainment recommendations to 
the Secretary of Defense for a subsequent report to Congress.
    In 2009 the Air Force completed the Minuteman III Propulsion 
Replacement Program designed to extend the life of the weapon system to 
2020. The Air Force is evaluating options to ensure solid rocket motor 
reliability and supportability to 2030 in conjunction with its 
evaluation of the Minuteman III Solid Rocket Motor (SRM) Warm Line 
concept in relation to sustaining the strategic SRM industrial base. If 
the current Minuteman III SRM production capability is allowed to 
lapse, any requirement for follow-on production would include the time 
and costs required to reinstate that capability. The Air Force, in 
coordination with industry, has determined these costs and timelines 
and will include these factors in mid- to long-range planning efforts. 
Further, an interagency task force, that includes representation from 
the Department of Defense (the Office of the Secretary of Defense, 
Army, Navy, Air Force and Missile Defense Agency) and the National 
Aeronautics and Space Administration, has been formed to offer solid 
rocket motor industrial base sustainment recommendations to the 
Secretary of Defense for a subsequent report to Congress.
                                 ______
                                 
           Questions Submitted to General Norton A. Schwartz
            Questions Submitted by Chairman Daniel K. Inouye
    Question. General Schwartz, to meet emerging requirements, the Air 
Force is quickly expanding its unmanned aerial vehicle and 
cybersecurity missions. It is adding thousands of highly trained 
personnel to these career fields in a short time. These new missions 
are currently very much in demand. Are you concerned about how the high 
operational tempo is affecting the morale of the airmen in these career 
fields?
    Answer. We are always concerned about the morale and welfare of our 
Airmen operating in high operational tempo environments. With respect 
to remotely piloted aircraft (RPA), we have experienced unprecedented 
growth as a result of the increasing demand for the capability these 
systems provide. Initially we had to make some tough choices that had 
an impact on our Airmen, but recently we have implemented initiatives 
that will ``normalize'' the RPA enterprise and reduce the overall 
operational tempo. The two major initiatives are developing specific 
career fields for RPA aircrews and increasing our training capacity. 
These efforts are already mitigating the stress the high operational 
tempo has placed on our manpower infrastructure. As we continue to 
normalize RPA operations, the stresses will be reduced further.
    With respect to cyber security, last year we activated Twenty-
Fourth Air Force and aligned critical cyber capabilities under Air 
Force Space Command. These actions enhanced our capability to conduct 
the full spectrum of military cyberspace operations for U.S. Cyber 
Command and the combatant commanders, while improving our ability to 
operate and defend Air Force networks. We are not significantly 
expanding the number of Airmen performing cyber missions and current 
operational tempo is not adversely affecting morale. However, we are 
making a concerted effort to ``operationalize'' cyber by enhancing 
formal training and implementing certification processes to develop a 
corps of cyberspace professionals. These organizational and force 
development changes will greatly enhance the Air Force's cyber 
capabilities.
    Question. General Schwartz, there is growing concern that there 
could be a lack of missile warning satellite coverage due to the 
continued delays in the Space-based Infrared High program. The Air 
Force terminated the third generation missile warning satellite program 
in fiscal year 2011. What is your plan to mitigate a potential gap in 
coverage?
    Answer. The Air Force response is classified and will be provided 
under separate cover.
    Question. Over the last 2\1/2\ years, $5.3 billion has been 
provided through the Intelligence, Reconnaissance, and Reconnaissance 
Task Force to increase our knowledge of our enemies in Iraq and 
Afghanistan. The fiscal year 2011 request includes an additional $2.6 
billion for this purpose. But the President and the Secretary of 
Defense have stated that we intend to withdraw another 50,000 troops 
from Iraq by this fall and will begin drawing down our Afghanistan 
force in mid-2011.
    General Schwartz, could you explain the need for more ISR 
capability for Afghanistan while our troops are expected to begin their 
withdrawal at the same time?
    Answer. Intelligence, surveillance, and reconnaissance (ISR) has 
proven to be a critical force multiplier for our ground forces. With 
fewer eyes and ears on the ground as the combat forces are withdrawn, 
ISR will become even more important to ensure our remaining troops are 
in the right place at the right time and prepared for the threats they 
will face. Consequently, the Air Force has surged ISR to support U.S. 
Central Command requirements and will continue to adjust ISR capability 
to the theater as those requirements change.
    Additionally, the investments we have made and continue to make in 
improving our ISR capabilities are not limited strictly to operations 
within the U.S. Central Command area of operations. The funds we have 
expended, and are requesting this year, are intended to procure systems 
that can be deployed to any theater to meet warfighter ISR 
requirements.
    Question. General Schwartz, the fiscal year 2001 budget requests 
approximately $200 million for the next generation bomber, while the 
Quadrennial Defense Review states that the Air Force is reviewing 
options to modernize the bomber force. What is the status of this 
review and when will the Congress be informed of the next generation 
bomber acquisition strategy?
    Answer. The Air Force is performing analysis to ensure we fully 
understand how all potential long range strike options contribute to 
the country's future national defense and the National Military 
Strategy before significant funds are committed. During the 2010 
Quadrennial Defense Review, a Secretary of Defense-directed tiger team 
was established to complete an in-depth study of long-range strike, 
including the Long Range Strike Platform (LRSP) need, requirement, and 
technology. The team's conclusions were supportive of pursuing a new 
LRSP platform, but identified the need for additional analysis to 
explore options for reducing costs and accelerating fielding timelines. 
Based upon the need for additional analysis, the Secretary of Defense 
chartered a subsequent study to examine a broader array of long-range 
strike issues and options including the appropriate mix of long range 
strike capabilities; upgrades to legacy bombers; manned and unmanned 
force structure numbers; stand-off and penetrating platform ratios; 
stand-off cruise missile requirements; intelligence, surveillance, and 
reconnaissance demands; airborne electronic attack requirements; and 
conventional prompt global strike needs. RAND is supporting the 
analysis and the study results are expected to be available in the fall 
of 2010.
    Question. General Schwartz, the Air Force plan to cut 18 aircraft 
from the Air National Guard in fiscal year 2011 by retiring 6 C-130Es 
and transferring 12 C-130Hs to the active component raised some 
concerns. The media reported that the Air National Guard was not 
consulted on this plan. I understand that further discussions are now 
taking place within the Air Force. Could you please tell the Committee 
about the issues prompting the restructure and your current solution?
    Answer. As supported by the requirements identified in the recently 
released Mobility Capabilities and Requirements Study 2016 (MCRS 16), 
the Air Force is reducing excess mobility C-130 force structure by 
accelerating the retirement of the C-130Es and retiring some of the 
oldest C-130Hs. This created a shortfall of legacy C-130H aircraft for 
the Formal Training Unit (FTU) at Little Rock AFB, Arkansas. The fiscal 
year 2011 President's budget request proposed the transfer of 18 Air 
Reserve Component C-130Hs to the Active Duty to cover this shortfall 
and support the FTU. This plan was developed as part of the Air Force's 
Corporate Process, which included representation from the Air National 
Guard (ANG) and the Air Force Reserve (AFR). The Air Force, in close 
partnership with the ANG and the AFR, continued to analyze the best 
solution to address the FTU issue even after the fiscal year 2011 
President's budget was developed. The Air Force, including its Total 
Force partners, refined the original fiscal year 2011 President's 
budget request to meet the needs of the C-130 schoolhouse while 
factoring in state mission concerns. The new proposal would allow the 
ANG and AFR to retain ownership of the 18 C-130Hs but still support the 
training needs of the FTU--with the C-130 schoolhouse transitioning 
from an Active Duty run program to an Air Reserve Component run 
program.
    Question. General Schwartz, we understand that the Air Force was 
concerned about having too much of the C-130 force in the Guard and 
Reserves. Can you shed some light on what problem is being solved with 
the proposed shift of aircraft to the active component?
    Answer. As supported by the requirements identified in the Mobility 
Capabilities and Requirements Study 2016 (MCRS 16), the Air Force is 
reducing excess mobility C-130 force structure by accelerating the 
retirement of the C-130Es and retiring some of the oldest C-130Hs. This 
created a shortfall of legacy C-130H aircraft for the Formal Training 
Unit (FTU) at Little Rock AFB, Arkansas. The fiscal year 2011 
President's budget request proposed the transfer of 18 Air Reserve 
Component C-130Hs to the Active Duty to cover this shortfall and 
support the FTU. This plan was developed as part of the Air Force's 
Corporate Process, which included representation from the Air National 
Guard (ANG) and the Air Force Reserve (AFR). The Air Force, in close 
partnership with the ANG and the AFR, continued to analyze the best 
solution to address the FTU issue even after the fiscal year 2011 
President's budget was developed. The Air Force, including its Total 
Force partners, refined the original fiscal year 2011 President's 
budget request to meet the needs of the C-130 schoolhouse while 
factoring in state mission concerns. The new proposal would allow the 
ANG and AFR to retain ownership of the 18 C-130Hs but still support the 
training needs of the FTU--with the C-130 schoolhouse transitioning 
from an Active Duty run program to an Air Reserve Component run 
program.
    Question. General Schwartz, the Joint Cargo Aircraft program is now 
an Air Force responsibility rather than a joint Army-Air Force program. 
Along the way, the previously validated requirement of 78 aircraft 
dropped to 38 aircraft. In testimony last year, several witnesses 
suggested that the JCA requirement may get a re-look during the 
Quadrennial Defense Review. Could you tell us what has happened with 
respect to the JCA requirement?
    Answer. In April 2009, the Office of the Secretary of Defense 
transferred the Joint Cargo Aircraft program to the Air Force, set the 
C-27J buy at 38 aircraft, and directed the Air Force to assume the 
Army's time sensitive/mission critical direct support airlift mission. 
The Secretary of Defense's intent was for the Air Force to use the new 
C-27J and existing C-130 aircraft to accomplish this mission.
    The Mobility Capability Requirements Study 2016 (MCRS-16) 
established the C-130 tactical fleet size at 335 but did not assess 
fleet requirements to perform the direct support mission. Air Mobility 
Command, working with the U.S. Army and others, recently chartered a 
RAND study to better define the direct support mission and detail the 
required direct support fleet given a baseline of 38 C-27Js. Initial 
results of the RAND study are expected in the fall of 2010.
    Question. General Schwartz, what is the status of the basing plan 
for these aircraft?
    Answer. The Air Force is using a repeatable, defendable and 
transparent Strategic Basing Process to identify locations for the C-
27J. The National Guard Bureau, as the lead agency, developed training 
and operations basing criteria, which were approved by Secretary of the 
Air Force and myself and released to the Congress in April 2010. These 
criteria will be applied to create C-27J training and operations 
candidate base lists that will ultimately be approved by the Secretary 
and myself in July 2010. We anticipate releasing the preferred basing 
alternatives in December 2010 and completing the environmental impact 
assessment process by spring 2011.
    Question. The budget requests $66 million for a new program 
procuring 15 Light Mobility Aircraft. This new initiative expands your 
mission which, given the emphasis by Secretary Gates on reducing 
defense expenditures, appears unusual.
    General Schwartz, do you see any difficulty in manning new 
expeditionary units for this aircraft?
    Answer. The Air Force began deliberate planning to support the 
procurement of 15 Light Mobility Aircraft in the fiscal year 2011 
President's budget request which included adding civilian end strength 
to assist with the acquisition/procurement. The Air Force is currently 
finalizing the operations and associated military support manpower 
requirements as part of the process for building the fiscal year 2012 
defense budget utilizing existing skill sets already resident in the 
inventory.
    Question. General Schwartz, is this initiative duplicative with the 
Special Operations Command Foreign Internal Defense air advisory units?
    Answer. The Light Mobility Aircraft program is additive, not 
duplicative. It is designed to bring an aviation ``building partner 
capacity'' capability to general purpose forces. These aircraft will 
help partner nations with emerging air forces develop a basic airlift 
capability that will provide government presence, mobility, and other 
essential capabilities to the host nation. The capability to train, 
advise and equip partner nations' air forces has traditionally been a 
mission in Air Force Special Operations Command (AFSOC); specifically 
the 6th Special Operations Squadron. Although we have expanded the 
ability for this mission to be conducted in AFSOC--in past and coming 
years--we realize that the demand for this capability outpaces our 
ability to increase the mission within the special operations forces 
solely. As a result of this realization, and in compliance with the 
2010 Quadrennial Defense Review Report, we are fielding light mobility 
aircraft in general purpose force units.
    Question. General Schwartz, is there an operational role for these 
aircraft for resupplying American and coalition forces? Does this share 
a capability niche with the Joint Cargo Aircraft?
    Answer. While the LiMA and the C-27J will share some capabilities, 
including the ability to operate from short, rough, unimproved landing 
surfaces, the aircraft will perform two distinct missions. LiMA will 
primarily train Partner Nations in Air Mobility operations, while the 
C-27J will provide a dedicated airlift platform for U.S. and coalition 
forces. LiMA will enable the United States to acquire aircraft that are 
not only affordable, but also the right technology for many of our 
partner nations.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
    Question. The decision in the Air Force fiscal year 2011 budget to 
pull C-130s from the Air Guard and Reserve into the active duty Air 
Force is troubling. One explanation offered for this decision was that 
these airframes were part of a legacy air mobility fleet of the least 
capable and oldest aircraft. However, no explanation was offered as to 
why the Air Force has chosen to stock the Air Guard and Reserve with 
its oldest aircraft.
    Why aren't such airframes evenly spread across the components, 
rather than given mostly to the Guard and Reserve?
    Answer. The Air Force's original fiscal year 2011 request to move 
18 C-130s from the Air Reserve Component (ARC) to the Active Duty 
enabled retirement of the oldest C-130Es, most of which resided within 
the Active component. Since then, the Air Force and ARC have 
accelerated a previously discussed approach to pass the C-130 legacy 
training requirement to the ARC. This plan eliminates the need to 
transfer ownership of the 18 aircraft in question to the Active 
component. Finally, both the Active and Reserve components possess a 
mix of older and newer C-130s.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. General Schwartz, NASA is proposing to rely on an 
emerging commercial space sector to meet future space exploration and 
launch needs, and I am informed that the Air Force has explored 
commercial launch services in the past with mild success.
    How has the commercial industry evolved with spacelift 
capabilities? More importantly, have you looked at government test 
facilities involvement to ensure that commercial industry maintains the 
necessary level of safety and reliability in launching national 
security space assets?
    Answer. The United Launch Alliance (ULA) is currently the sole U.S. 
provider of medium-lift to heavy-lift launch vehicles through the 
Evolved Expendable Launch Vehicle (EELV) program. ULA provides the 
Atlas V and Delta IV families of launch vehicles for national security 
space payloads. While EELV initially targeted a projected large 
commercial demand, the commercial launch market did not materialize and 
now the U.S. Government is driving the market for medium-lift to heavy-
lift launch vehicles. A small number of EELVs have been procured 
commercially outside of the Air Force program office, such as the 
Intelsat-14 launch on an Atlas V on November 23, 2009, and by NASA for 
the NOAA Geostationary Operational Environmental Satellites.
    Emergent commercial launch providers for medium-class payloads, 
such as the Space X Falcon 9 and Orbital Taurus II, are receiving NASA 
funding via Commercial Orbital Transportation System contracts. The 
first launch demonstration flight for Falcon 9 was on June 4, 2010. The 
first planned launch of the Taurus II is in late June 2011.
    A number of U.S. Government test and range facilities support 
commercial space flight. The EELV program used NASA's Plum Brook 
facility for payload fairing qualification; Arnold Engineering 
Development Center for upper stage engine testing; and Edwards AFB, 
California for Delta IV main engine testing. ULA continues to use 
NASA's Stennis Space Center for main engine final assembly and test. 
Additionally, all ULA launches, government and commercial, utilize the 
Air Force spacelift range facilities at the Eastern Range (Cape 
Canaveral AFS, Florida) and the Western Range (Vandenberg AFB, 
California). The testing and qualification performed at these 
government facilities are key contributors to the proven reliability of 
the EELV launch vehicles.
    It is our understanding that Space X employs organic facilities to 
meet their test needs while Orbital plans to use the Stennis facility 
for main engine final assembly and test. To meet their launch needs, 
Space X operates at the Air Force's Eastern and Western Ranges and 
Orbital is building launch facilities at NASA's Wallops Flight 
Facility. We are not aware of any other specific plans for these 
companies to use government facilities.
                                 ______
                                 
              Question Submitted by Senator Sam Brownback
    Question. The Air Force is currently looking into the concept of 
light attack aircraft and may request funds to purchase these aircraft 
in the future. Does the Air Force plan on using light attack aircraft 
solely to train foreign militaries or are there plans for the Air Force 
to develop its own light attack fleet?
    Answer. The 15 light attack aircraft will be used for building 
partnership capacity training. A competitive acquisition strategy will 
be used to procure the 15 light attack continental U.S. based training 
aircraft in fiscal year 2012. The Air Force currently has no plans to 
develop an organic light attack fleet.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will next meet on 
Tuesday, May 18, at 10 a.m., in a closed session, at which time 
we'll be briefed on issues concerning the United States Pacific 
Command and the United States European Command.
    We will now stand in recess.
    [Whereupon, at 12:14 a.m., Wednesday, May 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, JUNE 16, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Feinstein, Murray, 
Specter, Cochran, Bond, Hutchison, and Bennett.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, the subcommittee welcomes 
Dr. Robert Gates, the Secretary of Defense, and Admiral Mike 
Mullen, the Chairman of the Joint Chiefs of Staff, to testify 
on the administration's budget for fiscal year 2011. We welcome 
you and thank you for joining us.
    The administration has requested $540 billion for base 
budget for the DOD for fiscal year 2011, an increase of $18 
billion over the amount enacted last year. Additionally, the 
administration has requested $159 billion in supplemental 
funding for overseas contingency operations in the next fiscal 
year, roughly equal to the supplemental funding requested for 
the current fiscal year.
    The base budget for DOD has nearly doubled in the last 10 
years, and since 2001, we have spent close to $1 trillion on 
post 9/11 combat operations. Those are staggering numbers, to 
say the least, and warrant some judicial scrutiny on behalf of 
both the warfighter and the taxpayer.
    Mr. Secretary, last year, you set out to reform the 
Pentagon's budget, and particularly by seeking greater balance 
in our force structure between competing requirements for 
irregular and conventional warfare. This year's budget request 
continues this effort. One key theme you have emphasized in 
recent months is the need to provide an institutional home in 
the Department for the warfighter engaged in the current fight.
    We would agree with that, but as you well know, much of the 
critical force protection equipment that is used in the theater 
today has been funded outside the regular budget and is being 
managed by newly created and ad hoc organizations that we 
understood were to be temporary in nature. Yet even after 
several years at war, these task forces still haven't 
transitioned to regular Defense Department operations. The Mine 
Resistant Ambush Protected Vehicle Task Force; the 
Intelligence, Surveillance, and Reconnaissance Task Force; the 
Joint Improvised Explosive Device Organization; and the 
Helicopter Survivability Task Force come to mind.
    Last year, you even created a senior integration group to 
oversee efforts by these task forces. These organizations are 
not only largely funded with supplemental appropriations, they 
remain apart from the regular acquisition process and enjoy 
considerable flexible authorities, some of which are being 
interpreted quite broadly, to say the least.
    Mr. Secretary, when we met last year, you indicated to us 
that some of these task forces would disappear. So we would 
appreciate an update from you with respect to the transition 
plans.
    At the same time, conventional threats to our national 
security remain. We need only look at words spoken and actions 
taken in recent weeks by North Korea, Iran, and China to be 
reminded that our national security challenges go beyond those 
of irregular warfare. There is grave concern that with the 
current emphasis on irregular warfare capability, we could be 
losing sight of the conventional threats and degrading our 
ability to counter them.
    And finally, Mr. Secretary, in light of our Nation's fiscal 
challenges, you recently stated that military spending should 
expect to receive harsher scrutiny. You mentioned large and 
small weapons systems, a review of Defense Department 
operations, and also the challenge of providing healthcare for 
our soldiers and veterans, quoting President Eisenhower's 
truism that, ``The patriot today is the fellow who can do the 
job with less money.''
    As you can imagine, those statements raise a few questions. 
So we hope you will take this opportunity to elaborate a bit 
further about what you have in mind.
    But before proceeding, Mr. Secretary, I would like to call 
upon our vice chairman for any comments he wishes to make.
    Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you.
    I am pleased to join you in welcoming our distinguished 
panel of witnesses at the hearing this morning. We are 
reviewing the Defense Department's 2011 budget request.
    Mr. Secretary, I hope you can give the subcommittee your 
assessment of the timing of when the fiscal year 2010 
supplemental appropriations will be needed to support combat 
operations. When you briefed the Senators last month, you 
suggested that the supplemental appropriations bill would be 
needed prior to Memorial Day. The Senate passed a supplemental 
appropriations bill last month. The funding level approved by 
the Senate was within the funding level requested by the 
administration.
    But we have seen no movement to enact this legislation by 
the other body, and I am concerned that we are well past 
Memorial Day, and any insights you can give us now as to what 
we face because of the lack of supplemental funding might be 
helpful and help generate a little more emphasis on the 
timeliness of the action by the Congress.
    So we thank you for being here, and we look forward to your 
testimony.
    Chairman Inouye. I thank you very much.
    The show is yours, Mr. Secretary.

               SUMMARY STATEMENT OF HON. ROBERT M. GATES

    Secretary Gates. Thank you, Mr. Chairman, Senator Cochran, 
members of the subcommittee. Thank you for the opportunity to 
appear before you to discuss the President's budget request for 
fiscal year 2011 for the Department of Defense.
    I first want to thank you, as always, for your support of 
the men and women in the U.S. military for these many years. I 
know they are uppermost in your thoughts as you deliberate on 
these budget requests.
    Our troops are part of an extraordinary generation of young 
Americans who have answered their country's call. They have 
fought our country's wars, protected our interests and allies 
around the globe, and they have demonstrated compassion and 
dedication in the face of tragedy and loss.
    The budget requests being presented today include $549 
billion for the base budget, a 3.4 percent increase over the 
last year, or 1.8 percent real growth after adjusting for 
inflation, reflecting the administration's commitment to 
modest, steady, and sustainable real growth in defense 
spending.
    The base budget request was accompanied and informed by the 
2010 Quadrennial Defense Review (QDR), which establishes 
strategic priorities and identifies key areas for needed 
investment. The 2010 QDR and fiscal year 2011 request build 
upon the substantial changes that the President made in the 
fiscal year 2010 budget to allocate defense dollars more wisely 
and reform the Department's processes.
    The base budget reflects these major institutional 
priorities. First, reaffirming and strengthening the Nation's 
commitment to care for the All-Volunteer force, our greatest 
strategic asset. Second, rebalancing America's defense posture 
by emphasizing both the capabilities needed to prevail in 
irregular conflicts and the capabilities that likely will be 
needed in the future. And third, continuing the Department's 
commitment to reform of how the Department does business, 
especially in the area of acquisition.
    Building on the reforms of last year's budget, the fiscal 
year 2011 request takes additional steps aimed at programs that 
were excess or performing poorly. They include terminating the 
Navy EPX intelligence aircraft; ending the Third Generation 
Infrared Surveillance Program; canceling the Next Generation 
CGX Cruiser; terminating the Net-Enabled and Control Program--
Command and Control Program; ending the Defense Integrated 
Military Human Resources System due to cost overruns and 
performance concerns; completing the C-17 program and closing 
the production line as multiple studies in recent years, 
including an outside study mandated by the Congress in 2008, 
show that the Air Force already has many more of these aircraft 
than it needs; and ending the second engine for the F-35 Joint 
Strike Fighter (JSF), as whatever benefits might accrue are 
more than offset by excess costs, complexity, and associated 
risks.
    Let me be very clear. I will continue to strongly recommend 
that the President veto any legislation that sustains the 
continuation of the C-17 or the F-35 extra engine.
    And given some recent commentary, let me be explicit. It 
would be a very serious mistake to believe the President would 
accept these unneeded programs simply because the authorization 
or appropriations legislation includes other provisions 
important to him and to this administration.
    These reforms all require political will and a willingness 
to make hard choices. We are already beginning the next step in 
this process of reform as we prepare the fiscal 2012 budget. 
Last month, I called on the Pentagon to take a hard, unsparing 
look at how the Department is staffed, organized, and operated. 
This initiative is not designed to reduce the defense top line. 
I believe the current top line is the minimum needed to sustain 
a military at war and to protect our interests in the years to 
come in an ever more unstable and dangerous world.
    Rather, my goal is to significantly reduce our overhead 
costs in order to free up the resources needed to sustain our 
force structure, to modernize, and to create future combat 
capabilities while living within the current top line. To this 
end, the Department has recently set a goal to find more than 
$100 billion in overhead savings over the next 5 fiscal years, 
starting in fiscal year 2012. No organization within the 
Department, including my own office, will be excluded from 
these efforts. All of the savings will be applied to fund 
personnel and units, force structure, and investment in future 
capabilities.
    As a matter of principle and political reality, the 
Department of Defense cannot come to America's elected 
representatives and ask for budget increases each year unless 
we have done a better job--indeed, done everything possible--to 
make every dollar count.
    Finally, in order to support ongoing operations, we are 
also requesting $159 billion in fiscal year 2011 to support 
overseas contingency operations (OCO), primarily in Afghanistan 
and Iraq, plus $33 billion for the remainder of this fiscal 
year to support the added financial costs of the President's 
new approach in Afghanistan.
    The commitments made and programs funded in the OCO and 
supplemental requests demonstrate this administration's 
determination to support our troops and commanders at the front 
so they can accomplish their critical missions and return home 
safely.
    I discussed the Defense Department's portion of the fiscal 
year 2010 supplemental request before this subcommittee in 
March and sought its approval by spring to prevent costly and 
counterproductive disruptions to the Department's operations. I 
am becoming increasingly concerned about the lack of progress 
on the supplemental and strongly urge Congress to complete its 
work on the request as quickly as possible.
    I appreciate the Senate's action on this request, but if 
the supplemental is not enacted by the July 4th congressional 
recess, we will have to begin planning to curtail defense 
operations. Such planning is disruptive, can be costly, and 
especially in time of war, and I ask your help in avoiding this 
action.

                           PREPARED STATEMENT

    In closing, Mr. Chairman, my thanks to you and members of 
this subcommittee again for all you have done to support our 
troops and their families, especially in light of the 
unprecedented demands that have been placed upon them. I 
believe the choices made in these budget requests reflect 
America's commitment to see that our forces have the tools they 
need to prevail in the wars we are in, while making the 
investments necessary to prepare for threats on or beyond the 
horizon.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Robert M. Gates
    Mr. Chairman, members of the committee: Thank you for the 
opportunity to appear before you to discuss the President's budget 
requests for fiscal year 2011. I first want to thank you for your 
support of the men and women of the U.S. military these many years. I 
know they will be uppermost in your thoughts as you deliberate on these 
budget requests. Our troops are part of an extraordinary generation of 
young Americans who have answered their country's call. They have 
fought this country's wars, protected our interests and allies around 
the globe, and they have demonstrated compassion and dedication in the 
face of tragedy and loss.
    The budget requests being presented today include $549 billion for 
the base budget--a 3.4 percent increase over last year, or 1.8 percent 
real growth after adjusting for inflation, reflecting this 
administration's commitment to modest, steady, and sustainable real 
growth in defense spending. The base budget request was accompanied and 
informed by the 2010 Quadrennial Defense Review, which establishes 
strategic priorities and identifies key areas for needed investment. 
The 2010 QDR and fiscal year 2011 request build upon the substantial 
changes that the President made in the fiscal year 2010 budget to 
allocate defense dollars more wisely and reform the department's 
processes.
    The base budget request reflects these major institutional 
priorities:
  --First, reaffirming and strengthening the nation's commitment to 
        care for the all-volunteer force, our greatest strategic asset;
  --Second, rebalancing America's defense posture by emphasizing both 
        the capabilities needed to prevail in irregular conflicts, and 
        the capabilities that likely will be needed in the future; and
  --Third, continuing the department's commitment to reform how DOD 
        does business, especially in the area of acquisitions.
    Building on the reforms of last year's budget, the fiscal year 2011 
request takes additional steps aimed at programs that were excess or 
performing poorly. They include: Terminating the Navy EP(X) 
intelligence aircraft; ending the Third Generation Infrared 
Surveillance program; canceling the next generation CG(X) cruiser; 
terminating the Net Enabled Command and Control program; ending the 
Defense Integrated Military Human Resources System due to cost overruns 
and performance concerns; completing the C-17 program and closing the 
production line, as multiple studies in recent years show that the Air 
Force already has more of these aircraft than it needs; and ending the 
second engine for the F-35 Joint Strike Fighter, as whatever benefits 
might accrue are more than offset by excess costs, complexity, and 
associated risks.
    Let me be very clear: I will continue to strongly recommend that 
the President veto any legislation that sustains the continuation of 
the C-17 or the F-35 extra engine. And given some recent commentary, it 
would be a serious mistake to believe the President would accept these 
unneeded programs simply because the authorization or appropriations 
legislation includes other provisions important to him and this 
administration.
    These reforms all require political will and a willingness to make 
hard choices. We are already beginning the next step in this process of 
reform as we prepare for the fiscal 2012 budget. Last month I called on 
the Pentagon to take a hard, unsparing look at how the department is 
staffed, organized and operated. This initiative is not designed to 
reduce the defense topline. I believe the current topline is the 
minimum needed to sustain a military at war and to protect our 
interests in the years to come in an even more unstable and dangerous 
world. Rather, my goal is to significantly reduce our overhead costs in 
order to free up the resources needed to sustain our force structure, 
modernization, and future combat capabilities while living within our 
current topline.
    To this end, the department has recently set a goal to find more 
than $100 billion in overhead savings over the 5 fiscal years starting 
in fiscal year 2012. No organization within the department, including 
my own office, will be excluded from these efforts. All of the savings 
will be applied to fund personnel in units, force structure, and 
investment in future capabilities. As a matter of principle and 
political reality, the Department of Defense cannot go to America's 
elected representatives and ask for budget increases each year unless 
we have done everything possible to make every dollar count.
    Finally, in order to support ongoing operations, we are also 
requesting $159 billion in fiscal year 2011 to support Overseas 
Contingency Operations, primarily in Afghanistan and Iraq, plus $33 
billion for the remainder of this fiscal year to support the added 
financial costs of the President's new approach in Afghanistan. The 
commitments made and programs funded in the OCO and supplemental 
requests demonstrate this administration's determination to support our 
troops and commanders at the front so they can accomplish their 
critical missions and return home safely.
    I discussed the Defense Department's portion of the fiscal year 
2010 supplemental request before this committee in March, and sought 
its approval by spring to prevent costly and counterproductive 
disruptions to the department's operations. I am becoming increasingly 
concerned about the lack of progress on the supplemental, and strongly 
urge Congress to complete its work on the request as quickly as 
possible. I appreciate the Senate's action on this request, but if the 
supplemental is not enacted by the July 4th Congressional recess, we 
will have to begin planning to curtail defense operations. Such 
planning is disruptive, especially in time of war, and I ask your help 
in avoiding this action.
                    care for our all-volunteer force
    The fiscal year 2011 budget request includes $138.5 billion for 
military pay and allowances, an increase of $3.6 billion--or 2.6 
percent--over last year. This includes an increase of 1.4 percent for 
military basic pay, which will keep military pay increases in line with 
those in the private sector. This amount funds bonuses and other 
incentives to meet recruiting and retention quality and quantity 
goals--especially for our most critical skills and experience levels. 
The military deserves generous pay because of the stress and danger 
these jobs entail. In recent years, the Congress has added 0.5 percent 
to the administration's requested military pay raise--an action that 
adds about $500 million a year to our budget now and in future years, 
and reduces the funds available for training and equipping the force. 
In this time of strong recruiting and retention, I urge the Congress to 
approve the full requested amount for the fiscal year 2011 military pay 
raise but not to add to the request.
Wounded, Ill, and Injured
    This budget supports the department's intense focus on care for our 
wounded, ill, and injured military members. As I've said before, aside 
from winning the wars themselves, this is my highest priority. Key 
initiatives include:
  --Achieving a seamless transition to veteran status for members 
        leaving the military and increased cooperation between the 
        Departments of Defense and Veterans Affairs;
  --Ensuring a high standard at facilities caring for wounded warriors, 
        including first-rate hospitals and the Army's Warrior 
        Transition Units;
  --Enhancing case management of individuals transitioning to civilian 
        life--especially those needing long-term care;
  --Establishing a better Disability Evaluation System--to create a 
        simpler, faster, more consistent process for determining which 
        members may continue their military service and helping them 
        become as independent and self-supporting as possible; and
  --Working with the VA to create Virtual Lifetime Electronic Records 
        to improve veteran care and services by improving the 
        availability of administrative and health information.
    The fiscal year 2011 budget request includes $2.2 billion for 
enduring programs for our wounded, ill, and injured. It also includes 
$300 million to complete the Army's Warrior Transition complexes and 
new medical facilities in the Washington, DC, capital region. The $2.2 
billion for these programs is $100 million more than the fiscal year 
2010 enacted amount and is more than double the fiscal year 2008 level 
of $1 billion.
Military Health System
    The fiscal year 2011 budget includes $50.7 billion for the Unified 
Medical Budget to support the Military Health System that serves 9.5 
million eligible beneficiaries. Over the past decade, U.S. healthcare 
costs have grown substantially, and defense health costs have been no 
exception, more than doubling between fiscal year 2001 ($19 billion) 
and fiscal year 2010 ($49 billion). These costs are expected to grow 
from 6 percent of the department's total budget in fiscal year 2001 to 
more than 10 percent in fiscal year 2015.
Military Family Support Programs
    The department remains fully committed to providing assistance to 
our troops and their families in light of the unprecedented demands 
that have been placed on them. Our men and women in uniform and their 
families have our respect, our gratitude, and our full support. The 
budget reflects the department's policy of shifting money to the base 
budget for enduring programs so that they will not disappear as war 
funding declines. The fiscal year 2011 base budget includes $8.1 
billion for a variety of family-support programs vital to the morale 
and well-being of our military members and their families--an increase 
of $450 million over last year. The OCO request includes $700 million 
for family support--bringing the total to $8.8 billion.
Build and Sustain Facilities
    The fiscal year 2011 budget includes $18.7 billion to fund critical 
military construction and family housing requirements, including 
substantial funding to recapitalize many department schools for 
children of service members.
    The fiscal year 2011 Base Realignment and Closure (BRAC) investment 
funding of $2.4 billion is less than prior years because most of the 
funding needed to implement the 2005 round of BRAC decisions has 
already been appropriated for 24 major realignments, 24 base closures, 
and 765 lesser actions--all of which must be completed by September 15, 
2011, in accordance with statute.
    We have requested $14.2 billion to modernize the department's 
facilities; to support the recently completed growth in the Army and 
Marine Corps; to support the relocation of 8,000 Marines from Okinawa 
to Guam; and to recapitalize medical facilities and schools for 
servicemembers' children.
               rebalancing the force--the wars we are in
    Achieving our objectives in Afghanistan and Iraq has moved to the 
top of the institutional military's budgeting, policy, and program 
priorities. We now recognize that America's ability to deal with 
threats for years to come will largely depend on our performance in the 
current conflicts. The fiscal year 2011 budget request took a number of 
additional steps aimed at filling persistent shortfalls that have 
plagued recent military efforts, especially in Afghanistan.
Rotary-Wing Aircraft
    To increase these capabilities, this request includes more than 
$9.6 billion for the acquisition of a variety of modern rotary-wing 
aircraft, including the creation of two Army combat aviation brigades 
by fiscal year 2014. The goal is to train 1,500 new Army helicopter 
pilots per year by 2012.
Intelligence, Surveillance, and Reconnaissance (ISR)
    The fiscal year 2011 budget request continues efforts to increase 
ISR support for our fighting forces. The ISR Task Force was formed in 
April 2008 to generate critical operational ISR capacity--primarily in 
Afghanistan and Iraq. Since then, the department has worked to secure 
substantial funding to field and sustain ISR capabilities. In the 
fiscal year 2011 budget, that includes: $2.2 billion for procurement of 
Predator-class aircraft to increase the Combat Air Patrols (CAPs) 
available to deployed forces from 37 to 65 by 2013; and doubling 
procurement of the MQ-9 Reaper over the next few years.
Electronic Warfare (EW)
    The fiscal year 2011 budget request supports the QDR's call for 
better EW capabilities for today's warfighters. The Navy procurement 
budget includes $1.1 billion in fiscal year 2011 and $2.3 billion in 
fiscal year 2012 for the addition of 36 EA-18G aircraft, with 12 
procured in fiscal year 2011 and 24 in fiscal year 2012. These 
resources and capabilities will help fill an imminent EW shortfall that 
has been consistently highlighted by the combatant commanders as one of 
their highest priorities.
Special Operations Forces (SOF)
    The fiscal year 2011 budget requests $6.3 billion for USSOCOM--
nearly 6 percent higher than in fiscal year 2010. The department plans 
to call for SOF funding to increase sharply over the next several 
years, including an increase of about 2,800 personnel in fiscal year 
2011.
            rebalancing the force--preparing for the future
    The fiscal year 2011 budget includes $189 billion for total 
procurement, research, and development. This investment reflects the 
fact that the United States needs a broad portfolio of military 
capabilities with maximum versatility across the widest possible 
spectrum of conflict, including conventional conflict with the 
technologically advanced military forces of other countries. To meet 
the potential threats to our military's ability to project power, deter 
aggression, and come to the aid of allies and partners in environments 
where access to our forces may be denied, this budget request includes 
substantial funds for conventional and strategic modernization.
Tactical Aircraft--JSF
    The fiscal year 2011 budget funds programs to develop and buy 
superior aircraft to guarantee continued air dominance over current and 
future battlefields, most importantly the F-35 Joint Strike Fighter 
(JSF). The fiscal year 2011 base budget includes $10.7 billion for 
continued development of the F-35, and for procurement of 42 aircraft. 
An additional JSF is purchased in the OCO budget.
    I know the JSF program is of great interest and concern to this 
committee. In response to what I consider to be unacceptable delays and 
cost overruns over the past year, this department has taken a number of 
steps to substantially restructure this program.
    First, the JSF program is now based on numbers--cost and schedule 
estimates--from the Joint Estimating Team (or JET), an independent body 
known for its rigorous and skeptical assessments.
    Based on the new JET estimates, we reduced the number of aircraft 
being purchased concurrent with testing and development. While delaying 
full-scale production was not a welcome development--to put it mildly--
it was important to avoid a situation where a problem discovered in 
testing would lead to expensive retrofits of aircraft, the most common 
reason for delays and cost overruns in these kinds of programs. 
Correspondingly, we have added more aircraft to the testing regime, 
which we believe will reduce the projected delay from 30 months to 13. 
These changes amount to a brutally realistic assessment of cost and 
schedule--one that I believe should stand the test of time and the 
legitimate scrutiny of the Congress and the American taxpayer.
    Furthermore, with regard to accountability, I have replaced the JSF 
program manager and elevated that position to a three-star billet while 
withholding more than $600 million in performance fees from the lead 
contractor. It is important to remember that the JSF's cost- and 
schedule-related issues--and I regard them as serious, to be sure--are 
problems primarily related to program administration and management, 
not the technology and capability of the aircraft. The Joint Strike 
Fighter will do everything the military services need it to do, and 
become the backbone of U.S. air combat for the next generation.
Mobility and Tanker Aircraft
    The fiscal year 2011 budget continues to support development of a 
new aerial refueling tanker. The KC-X, the first phase of KC-135 
recapitalization, will procure 179 commercial derivative tanker 
aircraft to replace roughly one-third of the current aerial refueling 
tanker fleet at an estimated cost of $35 billion. Contract award is 
expected in the summer of 2010 and procurement should begin in fiscal 
year 2013. To support this long-range effort, $864 million has been 
requested for research into the next-generation tanker.
    The fiscal year 2011 budget ends production of the C-17, supports 
shutdown activities for production of new aircraft, and continues the 
modification of existing C-17s. With the completion of the program, the 
United States will have 223 of these aircraft, more than enough to meet 
current and projected requirements.
Shipbuilding
    The fiscal year 2011 budget reflects the department's formulation 
of a realistic, executable shipbuilding plan through the Future Years 
Defense Program (FYDP). Overall, the fiscal year 2011 budget includes 
$25.1 billion for fiscal year 2011 procurement of new ships, equipment 
and research and development into future construction--including $15.7 
billion for Navy shipbuilding and conversion activities. It reinforces 
the ongoing transition to a naval force that can meet the needs of 
today's warfighters and reduce reliance on very costly and increasingly 
vulnerable large surface combatants in the future. The fiscal year 2011 
request and planned out-year funding would allow the department to:
  --Build a new aircraft carrier every 5 years;
  --Shift large-deck amphibious ship production to a 5-year build cycle 
        to maintain a long-term force structure of nine large-deck 
        aviation ships to support amphibious operations;
  --Stabilize near-term production quantities for the Littoral Combat 
        Ship (LCS) and the Joint High Speed Vessel (JHSV) to support 
        irregular warfare operations;
  --Produce two attack submarines per year beginning in fiscal year 
        2011 and continue development of a new strategic deterrent 
        submarine; and
  --Build three Mobile Landing Platform (MLP) ships--one ship per year 
        in fiscal year 2011, fiscal year 2013, and fiscal year 2015.
Ground Forces Modernization
    The fiscal year 2011 budget advances restructuring of the Army's 
Future Combat Systems (FCS), principally through Brigade Combat Team 
(BCT) modernization. The fiscal year 2011 request for BCTs is $3.2 
billion, mostly for research and development.
    The fiscal year 2011 budget also supports the development of a new 
ground-vehicle program to replace aging systems. The new program will 
take into account the hard battlefield lessons of recent years, 
especially with respect to threats posed by improvised explosive 
devices (IEDs), and will include a role for the MRAP and M-ATV vehicles 
that have been so important in Afghanistan and Iraq.
Space and Cyber Capabilities
    Just about all of our military forces--land, sea, and air--now 
depend on digital communications and the satellites and data networks 
that support them. The role of space and satellites has never been more 
crucial to military operations--from GPS-guided munitions and 
navigation to missile defense and communications. The fiscal year 2011 
budget continues to strengthen U.S. capabilities in space, with $599 
million allocated to procure Advanced Extremely High Frequency (AEHF) 
satellites instead of the Transformational Satellite, which was 
cancelled in the fiscal year 2010 budget.
    With cheap technology and minimal investment, adversaries operating 
in cyberspace can potentially inflict serious damage on our command and 
control, ISR, and precision strike capabilities. The fiscal year 2011 
budget continues to fund the recruiting and training of new experts in 
cyber warfare begun in fiscal year 2010, and supports the stand up of a 
new U.S. Cyber Command.
Ballistic Missile Defense
    The Department of Defense continues to pursue missile-defense 
systems that can provide real capability as soon as possible while 
taking maximum advantage of new technologies. In accordance with the 
2010 Ballistic Missile Defense Review, our goal is a missile-defense 
program that balances capabilities and risks in order to deter 
aggression; project power and protect U.S. and allied interests; and 
respond to warfighter requirements.
    This year's base budget request includes $9.9 billion total for 
missile defense--almost $700 million more than last year, mostly for 
the Missile Defense Agency.
    This includes funding for:
  --Enhanced missile defenses for deployed forces, allies, and partners 
        to defend against regional threats--including THAAD battery 
        ground components and interceptors, as well as the conversion 
        of additional Aegis ships.
  --The ``Phased Adaptive Approach'' for missile defense: a flexible, 
        scalable system to respond to developing threats. This has 
        particular applicability to Europe, where the new approach 
        allows us to adapt our systems more rapidly as new threats 
        develop and old ones recede. In the short-term, we will be able 
        to provide immediate coverage and protection by deploying 
        current and proven systems such as the Aegis and SM-3.
  --A viable homeland defense against rogue threats--including ground-
        based interceptors at Fort Greeley, Alaska, and Vandenberg AFB, 
        California.
  --Expansion of the flight-test program to test capabilities against 
        medium, intermediate, and long-range threats.
  --Investments in break-through technologies to improve our ability to 
        counter threats during the boost phase while focusing on the 
        most promising new technologies.
Nuclear Weapons
    The Nuclear Posture Review (NPR) released in April outlined the 
policy framework for achieving the President's objectives to reduce 
nuclear weapons with a long-term goal of elimination; and maintain a 
safe, secure, and effective arsenal as long as these weapons exist. It 
also provides steps to strengthen deterrence while reducing the role of 
nuclear weapons. The President's budget requests for the Defense and 
Energy departments reflect several priorities established in our 
review: Funding to sustain a nuclear triad of ICBMs, SLBMs, and heavy 
bombers under the New START Treaty; and increased National Nuclear 
Security Administration funding for infrastructure, warhead life 
extension, and science and technology.
    Maintaining an adequate stockpile of safe, secure and reliable 
nuclear warheads requires a reinvigoration of our nuclear weapons 
complex, that is, our infrastructure and our science, technology and 
engineering base. To this end, the Department of Defense is 
transferring $4.6 billion to the Department of Energy's National 
Nuclear Security Administration through fiscal year 2015. This transfer 
will assist in funding critical nuclear weapons life-extension programs 
and efforts to modernize the nuclear weapons infrastructure. The 
initial applications of this funding along with an additional $1.1 
billion being transferred for naval nuclear reactors are reflected in 
the Defense and Energy Departments' fiscal year 2011 budget request, 
which I urge the Congress to approve. These investments and the Nuclear 
Posture Review strategy for warhead life extension represent a credible 
modernization plan to sustain the nuclear infrastructure and support 
our nation's deterrent.
Building Partner Capacity
    In a world where arguably the most likely and lethal threats will 
emanate from failed and fractured states, building the security 
capacity of partners has emerged as a key capability--one that reduces 
the need for direct U.S. military intervention, with all of its 
attendant political, financial, and human costs. To provide more 
resources, predictability, and agility to this important mission, the 
department will seek an increase in Global Train and Equip authority in 
the fiscal year 2011 budget to $500 million--authority that includes 
coalition activities to support current operations.
                    reforming how dod does business
    President Obama is committed to ending unneeded and troubled 
programs and achieving a better balance between capabilities needed to 
succeed in current conflicts and capabilities needed to prepare for the 
conflicts we are most likely to see in the future.
    The fiscal year 2011 budget request builds on the reforms of last 
year by ending a number of unneeded or troubled programs:
  --Next Generation Cruiser CG(X).--Cancelled due to concerns about 
        costs and utility in future combat scenarios. Any resulting 
        capability gap will be filled by an enhanced Navy destroyer 
        program.
  --Navy Intelligence Aircraft EP(X).--This Navy-planned EP-3 
        replacement was cancelled because of cost and its redundancy 
        with other technologies and systems.
  --Third Generation Infrared Surveillance (3GIRS).--This sensor system 
        was cancelled because there are better alternatives.
  --The Defense Integrated Military Human Resources System (DIMHRS).--
        DIMHRS has been in development for over 10 years and cost $500 
        million--with little to show and limited prospects.
  --Net Enabled Command and Control (NECC).--This joint program has had 
        cost overruns and performance shortfalls.
JSF Alternate Engine
    One of the tougher decisions we faced during this budget process 
was whether or not to formally add the alternate engine to the Joint 
Strike Fighter program. It has been the position of this department 
since 2007 that adding a second JSF engine was unnecessary and too 
costly.
    Over the past year, as part of our thorough review of the overall 
JSF program, we took a fresh look to determine whether the second 
engine option had reached a point in funding and development that 
supported a different conclusion. We considered all aspects of this 
question and, in the end, concluded that the facts and analysis simply 
do not support the case for adding an alternate engine program. There 
are several rationales for this conclusion:
    First, even after factoring in Congress' additional funding, the 
engine would still require a further investment of $2.5 billion over 
the next 5 years.
    Second, the additional costs are not offset by potential savings 
generated through competition. Even optimistic analytical models 
produce essentially a break-even scenario.
    Third, the solution to understandable concern over the performance 
of the Pratt & Whitney program is not to spend yet more money to add a 
second engine. The answer is to get the first engine on track. Further, 
the alternate engine program is 3 to 4 years behind in development 
compared to the current program, and there is no guarantee that a 
second program would not face the same challenges as the current 
effort.
    Fourth, split or shared buys of items, particularly from only two 
sources, do not historically produce competitive behavior since both 
vendors are assured some share of the purchase. Another reality is that 
the JSF is designed to support a wide diversity of military customers, 
including the Navy, Marine Corps, and overseas buyers, many of whom are 
unable or unwilling to purchase from two engine manufacturers.
    For all these reasons, we are firm in our view that the interests 
of the taxpayers, our military, our partner nations, and the integrity 
of the JSF program are best served by not pursuing a second engine.
    I believe most proponents of this program are motivated by the 
genuine belief that a second engine is the right thing to do. And we 
have been engaging the Congress in this discussion and sharing with 
them our facts and analysis. However, we have reached a critical point 
in this debate where spending more money on a second engine for the JSF 
is unnecessary, wasteful, and simply diverts precious modernization 
funds from other more pressing priorities. Accordingly, should the 
Congress add more funds to continue this unneeded program, I will 
continue to strongly recommend that the President veto such 
legislation.
C-17
    The fiscal year 2011 request completes the C-17 program and begins 
shutting down the production line. At present, we have 194 C-17s (plus 
111 C-5s) in our strategic airlift fleet. By the end of this fiscal 
year, the department will have procured 223.
    Three department studies completed over the past 5 years have 
concluded that the U.S. military has more than enough strategic airlift 
capacity, and that additional C-17s are not required. Some factors to 
consider:
  --In 2004, the Air Force Fleet Viability board determined that the 
        fleet of C-5As--the oldest variant--will remain viable until at 
        least 2025. The Air Force and the manufacturer believe that the 
        C-5 fleet will remain viable until 2040. And ongoing 
        modernization and refurbishment efforts are intended to 
        increase the reliability, availability, and maintainability of 
        the C-5 fleet;
  --Despite the demands of the current military campaigns, the existing 
        C-17 fleet is not being ``burned up.'' With the exception of 
        2003--when there were only 111 aircraft in the fleet that were 
        being surged to begin the Iraq war--the annual use of the C-17 
        inventory has been within program limits; and
  --While it is true that the C-17 can land places where the C-5 
        cannot, of the 200,000 landings made by C-17s since 1997, less 
        than 4 percent were in places that were not accessible to the 
        C-5.
    In summary, for these and other reasons, the department has 
concluded that the current C-17 is more than sufficient to meet the 
military's airlift needs. Should Congress add funds to continue this 
program, I will strongly recommend a Presidential veto.
Acquisitions
    The department is implementing initiatives that will increase the 
numbers and capabilities of the acquisition workforce, improve funding 
stability, enhance the source-selection process, and improve contract 
execution. Our intent is to provide the warfighter with world-class 
capability while being good stewards of taxpayer dollars.
    To operate effectively, the acquisition system must be supported by 
an appropriately-sized cadre of acquisition professionals with the 
right skills and training to perform their jobs. To address these 
personnel deficiencies, DOD will increase the number of acquisition 
personnel by 20,000 positions--from about 127,000 in fiscal year 2010 
to about 147,000 by fiscal year 2015. We will be making significant 
increases in training and retention programs in order to bolster the 
capability and size of the acquisition workforce.
Civilian Workforce
    The fiscal year 2011 budget funds a pay raise of 1.4 percent for 
DOD civilians--the same as the military pay raise. The request includes 
funding to transition out of the National Security Personnel System 
(NSPS)--as directed by the fiscal year 2010 National Defense 
Authorization Act.
    About 225,000 DOD employees are covered by NSPS. These employees 
must convert to a successor statutory personnel system. The fiscal year 
2011 budget includes $23 million to implement NSPS transition and $239 
million for estimated higher civilian pay for employees transitioning 
out of NSPS.
    The request supports the DOD plan, announced last year, to grow its 
civilian workforce by in-sourcing--replacing contractors with DOD 
civilian employees. DOD is on track to reduce the number of support 
service contractors from the current 39 percent of our workforce to the 
pre-2001 level of 26 percent, and replace them with full-time 
government employees. DOD will hire as many as 13,400 new civil 
servants in fiscal year 2010, and another 6,000 in fiscal year 2011, to 
replace contractors and up to 33,400 new civil servants in place of 
contractors over the next 5 years. This includes 2,500 acquisition 
personnel in fiscal year 2010 and 10,000 through fiscal year 2014.
Fiscal Year 2010 Supplemental Request
    As the President stated, the goal of the United States in 
Afghanistan and Pakistan is to disrupt, dismantle, and defeat Al Qaeda 
and to prevent its resurgence in both countries. The international 
military effort to stabilize Afghanistan is necessary to achieve this 
overarching goal. Rolling back the Taliban is now necessary, even if 
not sufficient, to the ultimate defeat of Al Qaeda and its affiliates 
operating along the Afghanistan-Pakistan border. I believe the strategy 
announced by the President represents our best opportunity to achieve 
our objectives in a part of the world so critical to America's 
security.
    The fiscal year 2010 supplemental requests $33 billion to support 
the President's buildup of U.S. troops in Afghanistan for the rest of 
this fiscal year and fund other related requirements, including $1 
billion for Iraqi security forces. The Department of Defense urges the 
Congress to approve this Supplemental by July 4th for our troops in the 
field.
    The fiscal year 2010 Supplemental includes $19 billion to support 
an average troop level in Afghanistan of 84,000 U.S. troops--16,000 
higher than the 68,000 assumed in the enacted fiscal year 2010 budget. 
Troop levels are expected to reach 98,000 by September 30, 2010. The 
additional troops will consist of: Two Army counterinsurgency Brigade 
Combat Teams (BCTs); an Army Training BCT; a USMC Regimental Combat 
Team (RCT); and enablers such as Explosive Ordnance Disposal teams.
    The supplemental also includes $1.1 billion--on top of the $11.3 
billion already enacted--to field and sustain critically important 
lifesaving MRAPs and M-ATVs for troops already there and for the 
additional forces being deployed this fiscal year.
Fiscal Year 2011 Overseas Contingency Operations
    To fund military operations in Afghanistan and Iraq in fiscal year 
2011, we are requesting $159.3 billion, comprised of these major 
categories:
  --Operations ($89.4 billion).--Incremental pay for deployed troops, 
        subsistence, cost of mobilizing Reserve Component personnel, 
        and temporary wartime end-strength allowances.
  --Force Protection ($12 billion).--Body armor, protection equipment, 
        and armored vehicles to protect forces--including the rapid 
        deployment and sustainment of MRAPs and M-ATVs.
  --IED Defeat ($3.3 billion).--To develop, procure, and field measures 
        to defeat improvised explosive devices threatening U.S. and 
        coalition forces.
  --Military Intelligence ($7 billion).--To enhance U.S. intelligence 
        capabilities and operations including ISR.
  --Afghan Security Forces ($11.6 billion).--To build and support 
        military and police forces capable of conducting independent 
        operations and providing for Afghanistan's long-term security.
  --Iraqi Security Forces ($2 billion).--To continue building and 
        sustaining Iraq's efforts to defend its people and protect its 
        institutions as the United States removes troops by the end of 
        2011.
  --Coalition Support ($2 billion).--Reimbursements and logistical 
        sustainment for key cooperating nations supporting U.S. 
        military operations.
  --Commander's Emergency Response Program (CERP) ($1.3 billion).--To 
        provide flexible funds for commanders in the field to finance 
        urgent humanitarian and reconstruction needs.
  --Reconstitution/Reset ($21.3 billion).--To fund the replenishment, 
        replacement, and repair of equipment and munitions that have 
        been consumed, destroyed, or damaged due to ongoing combat 
        operations. This request includes funding to procure one Joint 
        Strike Fighter aircraft to replace the combat loss of an F-15.
  --Military Construction ($1.2 billion).--To expand the logistical 
        backbone and operational foundation for our fighting forces.
  --Temporary Military End Strength ($2.6 billion).--To support 
        temporary end-strength increases in the Army and Navy for 
        ongoing military operations.
  --Non-DOD Classified Programs ($5.6 billion).--To fund non-DOD 
        classified activities that support ongoing military 
        operations--the President's counter-terrorism strategy in 
        Afghanistan and Pakistan, and the drawdown of U.S. forces in 
        Iraq.
Iraq Force Levels
    This request supports the President's goal of a responsible 
drawdown of U.S. forces and transfer to full Iraqi responsibility and 
control. Troop levels in Iraq are projected to decrease to 50,000 by 
August 31, 2010. Further reductions will occur in accordance with the 
U.S.-Iraq Security Agreement. The projected forces levels would be: Six 
Advisory and Assistance Brigades (AABs) by August 31, 2010; and six 
AABs for the first part of fiscal year 2011, decreasing to 
approximately four AABs (approximately 35,000 personnel) in Iraq by the 
end of fiscal year 2011.
                               conclusion
    Mr. Chairman, my thanks to you and members of this committee for 
all that you have done to support our troops and their families. I 
believe the choices made and priorities set in these budget requests 
reflect America's commitment to see that our forces have the tools they 
need to prevail in the wars we are in while making the investments 
necessary to prepare for threats on or beyond the horizon.
    Thank you.
STATEMENT OF ADMIRAL MIKE MULLEN, U.S. NAVY, CHAIRMAN, 
            JOINT CHIEFS OF STAFF

                           BUDGET SUBMISSION

    Admiral Mullen. Chairman Inouye, Senator Cochran, 
distinguished members of this subcommittee, thank you for the 
chance to discuss the state of our military, as well as the 
President's fiscal year 2011 defense budget submission.
    As always, I greatly appreciate your extraordinary support 
of the men and women of the United States armed forces, their 
families, and the communities that do so much to help them. In 
particular, I thank you for your passing the fiscal year 2010 
supplemental request.
    Our men and women in uniform are well equipped, well 
trained, well paid, and receive the finest medical care in the 
world due in no small part to your dedication and stewardship. 
I am here today to secure your continued support.
    Secretary Gates has walked you through the major components 
of the budget submission, and I will not repeat them. Let me 
leave you, rather, with three thoughts worth considering as you 
prepare to debate the details.
    First, there is a real sense of urgency here as we work to 
win the wars we fight. We have more than 200,000 troops 
deployed in harm's way right now and another 150,000 or so 
deployed in support of other security commitments around the 
world.
    For the first time since 2003, we have more troops in 
Afghanistan than in Iraq, where we remain on pace to draw down 
to roughly 50,000 troops by the end of August. The bulk of the 
30,000 additional forces the President authorized for 
Afghanistan are in country, and the remainder, less than 
10,000, will arrive in the next 2 months.
    These forces are now and will continue to be focused on 
operations in the central Helmand Valley, and Marjah and 
Kandahar specifically. You have, I am sure, been keeping 
abreast of what we are trying to achieve there, but I think it 
is important here to just summarize.
    Kandahar is the birthplace of the Taliban insurgency. It is 
far--it is from there that they have tried to spread their 
influence across Afghanistan, and it is from there that they 
desire to rule once again. I think it is safe to say that they 
still believe in their cause.
    In and around Kandahar they train, equip, plan, and 
intimidate. Just the other day, in a village not far away, 
these people lynched a small boy of 7, claiming he was a spy 
for the coalition.
    I know very well that in a counterinsurgency you fight not 
for the territory, but for hearts and minds. But it is from 
Kandahar that the Taliban attempt to control the hearts and 
minds of the Afghan people. It is my belief that should they go 
unchallenged there and in the surrounding areas, they will feel 
equally unchallenged elsewhere. As goes Kandahar, so goes 
Afghanistan.

                           SECURITY OUTPOSTS

    Afghan and coalition efforts there have already begun. 
Indeed, they have been underway for several months, consisting 
primarily of what we call shaping activities--kinetic strikes 
against Taliban targets and their facilities, as well as 
meetings with tribal elders aimed at securing their support. 
You saw President Karzai down there just this past weekend, 
holding a share of his own and completing the effort of getting 
local backing.
    We turn now to the all-important task of improving 
security. With Afghans in the lead, we will bolster a police 
presence at security outposts and checkpoints in and around the 
city. We will establish freedom of movement along the Ring Road 
and build a bypass south of Kandahar. And we will better 
control access to the city itself along its main arteries.
    None of this will be easy. None of this will be bloodless, 
as events last week grimly attest. But all of it will depend 
heavily on the continued growth and development of competent 
and well-led Afghan national security forces, as well as 
tangible and achievable political outcomes. Securing Kandahar--
or rather securing the people of Kandahar--is not a military 
objective. It is a social, political, and economic objective 
for which other agencies and other nations are needed and 
through which Afghan leadership will be vital.
    I am comfortable with the progress to date and the 
sequencing that we are following. But I am also mindful of the 
need to monitor our progress continually, to stay flexible, and 
to adjust accordingly.
    That leads me to the second thing I would like you to 
consider--proper balance. Winning our current wars means 
investment in this hard-won irregular warfare expertise, a core 
competency that should be institutionalized and supported in 
coming years. But we still face traditional threats from 
regional powers who possess robust regular and in some cases 
nuclear capabilities, and so we must also maintain and sustain 
our conventional advantages.
    In the air, this means sufficient strike aircraft and 
munitions capable of assuring air superiority. At sea, it means 
having enough ships and enough sailors to stay engaged globally 
and to keep the sea lanes open. On the ground, it means 
accelerating the modernization of our combat brigades and 
regiments. On the whole, it means never having to fight a fair 
fight.
    Again, it is about balance, about deterring and winning the 
big and small wars, the conventional and the unconventional--
two challenges, one military.

                           ADVOCACY PROGRAMS

    But where balance is probably most needed is in the 
programs and policies concerning our most important resource, 
our people. And that is my final point. This budget builds upon 
the superb support you and this Department have provided our 
troops and their families, stretched and strained by nearly 
constant combat, many of them on their fifth, sixth, and some 
even their seventh deployments.
    Our men and women are, without question and almost 
inexplicably, the most resilient and battle-ready force in our 
history. We are turning away potential recruits, so good is our 
retention and so attractive are our career opportunities. Yet 
we keep seeing an alarming rise in suicides, marital problems, 
prescription drug addictions, and mental health problems within 
our ranks.
    Deborah and I meet regularly with young troops and their 
spouses. And though proud of the difference they know they are 
making, quite frankly, many of them are worried about their 
futures, their livelihoods, their children.
    And so, you will see in this budget increases for family 
support and advocacy programs, and you will see a boost in 
warfighter and family services to include counseling, military 
spouse employment, and care for our wounded, ill, and injured. 
We are also pushing to dramatically increase the number of 
mental health professionals on staff and advance our research 
in traumatic brain injuries and post traumatic stress.
    We know the strain of frequent deployments causes many 
problems. But we don't know yet fully nor understand fully how 
or to what extent. So even as we work hard to increase dwell 
time, time at home, aided in part by the additional temporary 
end strength you approved last year for the Army, we will work 
equally hard to decrease the stress of modern military service.
    Indeed, I believe, over time, when these wars are behind 
us, we will need to look closely at the competing fiscal 
pressures that will dominate discussions of proper end strength 
and weapons systems. A force well suited for long-term 
challenges and not necessarily married to any current force 
planning construct will remain vital to our national security.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman. And I look forward to your 
questions.
    [The statement follows:]
            Prepared Statement of Admiral Michael G. Mullen
    Chairman Inouye, Senator Cochran, distinguished members of the 
Committee; it is my privilege to report on the posture of the United 
States Armed Forces.
    I begin by thanking you for your support of our servicemen and 
women, their families, and the communities that do so much to help 
them. We can never repay them for their sacrifices, but we can support 
them. As leaders, we necessarily debate the best course of action to 
secure our nation in a dangerous world. But our servicemen and women do 
not hesitate. When the decision is made, they go where they are needed 
most, where dangers must be confronted and adversaries defeated. I'm 
humbled as I visit them around the world, defending our nation in very 
trying conditions. They care deeply for this country, and they care 
most that they have the nation's clear backing. The support of the 
Congress and the American people remain essential to their strength and 
resolve. I am grateful for your unwavering recognition of the service 
of our forces and their families.
    Today's Armed Forces are battle-hardened, capable, and ready to 
accomplish the nation's missions. They are the most combat experienced 
yet most compassionate force we have ever fielded, and continue to 
learn and adapt in ways that are truly remarkable. They are the best I 
have ever seen. I thank the Committee for taking the time to understand 
the stresses, strains and concerns of our service members. Your 
continuing legislative support of our Armed Forces makes all the 
difference.
                            key developments
    Over this past year, our wartime focus has shifted to Afghanistan 
and Pakistan. As I have testified before the Congress on many 
occasions, the threats to our national security from al Qaeda and 
affiliated movements based in the Afghanistan-Pakistan region remain 
real and persistent. We require a stable and reasonably secure 
Afghanistan and Pakistan--inhospitable to al Qaeda's senior leadership, 
capable of self defense against internal extremist threats, and 
contributors to regional stability.
    Our increasing focus on Afghanistan and Pakistan confirmed the 
border region to be al Qaeda's center of gravity. It also showed the 
situation to be more dire than previously understood. The Afghan-
Taliban's post-2005 resurgence produced a widespread paramilitary, 
shadow government and extra-judicial presence in a majority of 
Afghanistan's 34 provinces. The Tehrik-i-Taliban Pakistan (the Pakistan 
Taliban) showed itself to be a bold and audacious enemy of the 
Pakistani people, ruthlessly seizing control of Swat in the late spring 
of 2009 and conducting a brutal series of attacks across the nation in 
recent months. Multiple Pakistani military operations against the 
Taliban that began last year have reversed their territorial gains. 
Throughout this year, we have constantly and carefully reviewed our 
objectives for the region. The decision to authorize an additional 
21,500 American forces into Afghanistan in early 2009, followed by the 
President's commitment of 30,000 additional forces in December set 
conditions to reverse Afghan-Taliban gains. It will also enable the 
government of Afghanistan to build the security and governance 
necessary to eliminate the insurgency as a threat. With a new 
leadership team, appropriate resources, improved organization, and a 
better strategy, we are confident of success against al Qaeda and the 
Taliban. Success will not come easily or swiftly, but we will succeed. 
The hardest work to achieve our regional aims remains ahead of us, 
especially the last part of 2010 and into 2011.
    Al Qaeda's central leadership has suffered significant losses over 
the past several years, to include the likely death of one of their 
founders, Sheik Sa'id al-Masri. Though its operational capacity has 
declined, al Qaeda's senior leaders remain committed to catastrophic 
terrorist attacks against the United States and our allies, as 
evidenced by the intended attack against New York City that was 
disrupted in Denver and the recent failed attempt to detonate a 
vehicle-borne bomb in Times Square. Actions in the Pakistan-Afghanistan 
border area, in Iraq, and elsewhere have met with marked success. That 
said, al Qaeda sought new approaches to plot attacks. The failed 
Christmas Day airline bombing attempt over Detroit was crafted by and 
ordered from those in Yemen's growing safe havens. Both incidents 
demonstrate the resolve of al Qaeda and its ever-evolving strategy. 
While the danger remains real, like-minded governments and people 
around the world--including those in the Muslim community--increasingly 
reject al Qaeda, its affiliates and what they stand for. Most want a 
brighter future for their children and grandchildren, not al Qaeda's 
endless war and intolerance. They see daily evidence that al Qaeda and 
its affiliates deliberately target and kill thousands of innocent 
Muslims in cold blood. They know al Qaeda continues a ruthless and 
deadly campaign against innocent people in Iraq, Pakistan, Afghanistan, 
Saudi Arabia, Kenya, Indonesia, and elsewhere. Continued progress 
against violent extremism will require enhanced, but prudent, 
partnerships with key governments and movements, including consistent 
efforts to counter al Qaeda's bankrupt message.
    The actions of the Iranian government are of grave and growing 
concern. Tehran's leadership remains on a trajectory to acquire a 
nuclear capability--an issue of global concern--in defiance of 
international demands and despite widespread condemnation. Iran's 
government continues to support international terrorist organizations, 
and pursues a coercive and confrontational foreign policy. These 
efforts exist alongside growing divisions between elements of the 
government and between the government and the people. These events and 
conditions risk further destabilizing an already unstable region.
    Established threats also demonstrated they could flare at any 
moment, testing our resolve and dedication to long-standing allies. 
North Korea's violation of the Armistice Agreement by sinking of a 
Republic of Korea corvette illustrates the dangerous nature of that 
still ongoing conflict. We must be ready to stand shoulder-to-shoulder 
with free countries and face down aggression when the situation demands 
it.
    The unpredictable has also galvanized our military, requiring a 
significant force commitment in Haiti, making it one of our most 
significant humanitarian missions in history. Nearly 20,000 American 
troops deployed to support the Government of Haiti, the United Nations, 
USAID and over 20 American and international aid agencies from January 
through the late spring. From port openings, to security and 
distribution of supplies, U.S. Southern Command's military Joint Task 
Force performed admirably. Furthermore, your military was called on to 
help contain one of the worst environmental disasters in the history of 
the United States. From aircraft moving personnel and equipment as well 
as spraying dispersant, to imagery, sonar and communication support, 
the Department of Defense has provided whatever equipment and 
technology has been requested. Over 1,500 National Guardsmen are 
currently assisting with the oil spill, and the Administration has 
authorized up to 17,500 National Guard troops from Gulf Coast states to 
respond as needed.
    Several recent policy initiatives have provided the military with 
new direction. We concluded negotiations with Russia for a START 
follow-on treaty, which will reduce nuclear weapons stockpiles while 
maintaining U.S. deterrence. As I have testified, I strongly endorse 
this treaty and ask you to ratify it. We also completed the Nuclear 
Posture Review, with significant implications for the military's 
nuclear posture. And, as mandated by the Congress, we have reviewed 
current and future threats and developed appropriate strategies in the 
Quadrennial Defense Review, which supports the President's recently 
released National Security Strategy. This Security Strategy rightly 
sharpens our focus on countering weapons of mass destruction and 
proliferation of such weapons, particularly to terrorist groups. 
Achieving all the goals of these new policy initiatives will require 
improvement in both our conventional and nuclear forces. We look 
forward to working with the Congress to forge a common understanding of 
the threats our nation faces, and how best to counter them.
    Recent events have reminded us of the importance of sustaining 
strong alliances. Our NATO allies and other non-NATO partners expanded 
support in Afghanistan over the past year. We now work there with more 
than 40 countries and over 40,000 international troops. Although the 
world avoided a widespread economic depression in 2009, many of our 
partners remain financially challenged and may spend less on combined 
security and stabilization efforts. Our close alliance with Japan, in 
particular, suffered strain around basing rights in Okinawa, but we 
seek to move forward with them in implementing a plan. The recent DPRK 
torpedo attack reinforced the importance of a robust U.S. military 
presence on the Korean Peninsula and in the broader region. As we stand 
by our close allies, I am confident that we can work through these 
issues, but it is a reminder that we should neither take our strongest 
allies for granted, nor underestimate the persistent tensions and 
threats.
    Against this backdrop, the strategic priorities for the military 
remain unchanged from my last annual testimony before Congress: 
defending our interests in the broader Middle East and South/Central 
Asia; ensuring the health of the Force, and balancing global strategic 
risk. With your ongoing help and support, we continue to address each 
of these priorities.
 defend our interests in the broader middle east and south/central asia
    The Broader Middle East and South/Central Asia, remains the most 
dangerous region of the world.
    Our main effort within the region has changed. The government of 
Iraq is taking firm control of its own security. We have shifted our 
priority to Afghanistan and Pakistan, long under-resourced in many 
ways. That shift in focus includes the movement of some quarter of a 
million troops and their equipment in and out of the CENTCOM theater in 
the space of several months. This is a herculean logistics effort, but 
one we are successfully executing. Afghanistan is approaching parity 
with Iraq for the first time since 2003 as the location with the most 
deployed American forces.
    Despite this surge, the security situation in both Afghanistan and 
Pakistan remains serious. The Afghan-Taliban have established shadow 
governments--featuring parallel judicial, taxation and local security/
intimidation systems--in a majority of Afghanistan's 34 provinces. 
Attacks by the Taliban have become far more numerous and more 
sophisticated. We are now establishing conditions--with military forces 
and expanded civilian agency presence--to reverse the Taliban's 
momentum. Yet we face both a resilient Taliban insurgency and an Afghan 
public skeptical of their government's good will, capacity and 
capability.
    As of mid-June 2010, we have moved roughly 20,000 troops to 
Afghanistan, with the remainder of the 30,000 increase arriving as 
rapidly as possible over the summer and early fall, making a major 
contribution to reversing Taliban momentum this year. The remainder of 
these forces will join some 90,000 U.S. forces and more than 40,000 
Coalition forces already in Afghanistan--all of which have undertaken a 
fundamental shift in how they are being employed across the country. 
Our troops are now focused on protecting key population centers--
separating them from the intimidation and influence of the Taliban. 
Simultaneously, they are training and partnering with Afghan security 
forces to enable Afghans to assume lead security for their own country 
as soon as possible. The recent peace jirga was an important Afghan-led 
step in this process. The next 12 months must be the time to reverse 
insurgent momentum and assess partnership progress.
    The brave men and women we charge to implement this fundamental 
shift in Afghanistan security strategy need the strong support of this 
Congress. We need your assistance in key areas like funding for Afghan 
National Security Forces, who will ultimately bring about success and 
security. In the short term, the Commander's Emergency Response Program 
is needed to adequately protect the population, and enhanced special 
construction authorities and equipment procurement accounts will be 
critical to putting enough force on the ground to make a difference.
    The border area between Pakistan and Afghanistan is the epicenter 
of global terrorism. This is where al Qaeda plans terrorist attacks 
against the United States and our partners--and from where the Taliban 
leadership targets coalition troops in Afghanistan. Pakistan's ongoing 
military operations against extremists in these areas are critical to 
preventing al Qaeda and associated groups from gaining ground.
    In Pakistan, the extremist threat, a fractious political system, 
economic weakness and long-standing tensions with India continue to 
threaten stability. We are working to rebuild our relationship with 
Pakistan and re-establish trust lost between our two countries. We aim 
to demonstrate to Pakistan--in both our words and our actions--that we 
desire a long-term relationship. The recent Strategic Dialogue with 
Pakistan, hosted by the State Department and supported by the Defense 
Department, reflects the value both our countries place on the 
friendship and support of the other. Our recent concerns with 
Pakistan's approach to U.S. visa requests is further testimony to the 
challenges of the relationship; and, it will affect increased capacity 
for counterterrorism and counterinsurgency, to include support for 
development projects. The State Department's Pakistan Counterinsurgency 
Capability Fund and the DOD's Coalition Support Funds allocated for 
Pakistan are essential components of our support to this critical ally. 
Enhanced contact and engagement between Pakistan and the United States 
is a critical component of a maturing, long-term partnership. Thus, we 
are focusing on expanded military education exchange programs, joint 
training opportunities and especially Foreign Military Sales and 
Foreign Military Financing. The State Department budget requests 
additional funds for these critical partnership endeavors.
    South Asian security tensions and political dynamics significantly 
impact our objectives in Afghanistan and Pakistan. The longstanding 
animosity and mistrust between Pakistan and India complicates regional 
efforts. Yet India and Pakistan must both be our partners for the long 
term. Bilateral military relationships are an essential component in a 
wide array of cooperative activities. We must recognize this and 
address it as part of our policy. While we acknowledge the sovereign 
right of India and Pakistan to pursue their own foreign policies, we 
must demonstrate our desire for continued and long-term partnership 
with each, and offer our help to improve confidence and understanding 
between them in a manner that builds long-term stability across the 
wider region of South Asia. As part of our long-term regional approach, 
we should welcome all steps these important nations take to revive a 
process to resolve their differences over Kashmir.
    While Afghanistan and Pakistan remain the critical terrain, we must 
remain vigilant in denying al Qaeda unfettered physical safe havens 
elsewhere across the Broader Middle East and South Asia, including 
Northern and Eastern Africa. These efforts will not require tens of 
thousands of American troops. Instead, we can work quietly and 
persistently with regional allies and Coalition partners to deny al 
Qaeda territory from which to plot, train, and project global terror 
operations. Similarly, we continue to undertake collaborative, 
supporting efforts with like-minded governments across the broader 
Middle East. We work to help the Yemeni government build the 
information base and the military capacity necessary to combat the al 
Qaeda threat within its borders. We applaud Yemeni efforts to confront 
al Qaeda operatives, and continue to offer Sana'a the support necessary 
to achieve this aim. We have worked with the concerned neighbors of 
Somalia to contain the worst aims and objectives of the Islamic Courts 
Union and al Shabaab. This must continue. In these areas--as well as 
others including Indonesia and the Philippines--our military engages 
with willing partners in a manner detrimental to al Qaeda's 
aspirations. We undertake these partnerships in conjunction with those 
from American intelligence, diplomatic and economic organizations. I 
must stress that in today's environment, training and equipping partner 
security forces to defend and protect their own territory and coastal 
waters is a core national security objective. We appreciate Congress' 
continuing support for these important undertakings.
    The Iranian government continues to be a destabilizing force in the 
region. Tehran's leadership remains on a trajectory to acquire a 
nuclear capability, in defiance of its international obligations. 
Indeed, the United Nations just declared Iran had sufficient fissile 
material to build two nuclear devices. A nuclear Iran could spark a 
regional arms race or worse. It will be profoundly destabilizing to the 
region, with far-ranging consequences that we cannot fully predict. 
Tehran also continues to provide a range of support to militant 
organizations, including HAMAS and Hizbollah, fomenting instability 
outside its borders. Its increasingly reckless nuclear and foreign 
policy agenda is now playing out against the backdrop of a slowing 
economy and profound internal turmoil. I remain convinced that 
exhaustive--and if necessary coercive--diplomacy with Iran remains the 
preferred path to prevent these grave outcomes. Iran faces an 
increasingly clear choice--cooperate with the international community 
or face consequences. To this extent, the Joint Chiefs, Combatant 
Commanders, and I support all efforts to steer the government of Iran 
off of its hazardous course. However, as with any potential threats to 
our national security, we will have military options ready for the 
President, should he call for them.
    Iraq continues to progress, although more is needed. U.S. 
partnership with Iraqi security forces has been fundamental to this 
progress since 2005. Al Qaeda is still present and has carried out 
several large-scale attacks. Iraqi Security Forces and government 
leaders responded to them vigorously yet professionally. Further, the 
Iraqi people show no renewed appetite for the brutal tactics of Al 
Qaeda; I believe Iraqis are now more focused on developing their 
economy than domestic security threats. Politically, the March 2010 
elections were assessed as legitimate and were largely free of 
violence. Though the government transition has been drawn out beyond 
our original planning assumptions, there has been no degradation in the 
security situation.
    In turn, U.S. Forces--Iraq (USF-I) will draw down to roughly 50,000 
and end our combat mission by August 31, 2010, as highlighted by our 
recent turnover of the Green Zone to the Iraqi government. Our security 
partnership will then shift to training, advising, and supporting Iraqi 
security forces, including continued participation in NATO's Training 
Mission--Iraq. More broadly, the U.S. military will transition from a 
supported to a supporting effort in Iraq as we normalize relations. The 
State Department and other civilian agencies will increasingly be the 
face of U.S. efforts in Iraq. The U.S. military will strongly support 
their leadership. We appreciate the inclusion of the Equipment Transfer 
Provision in the 2010 National Defense Authorization Act. These 
transfers are a critical component of America's continuing actions as a 
reliable partner in Iraq's assumption of a responsible and Baghdad-led 
security future.
                          health of the force
    Our nation's security is founded upon a well-trained, well-equipped 
all volunteer force. We must care for our people and their families, 
reset and reconstitute our weapon systems, and take on new initiatives 
that increase wartime effectiveness.
Care for our People
    Our servicemen and women, their families, and their communities are 
the bedrock of our Armed Forces. Their health, resilience and well-
being are at the heart of every decision I make. Frankly, investing in 
our people remains the single greatest guarantee of a strong military. 
Competitive pay, selective bonuses, expanded access to mental 
healthcare, continued health benefits for tens of thousands of our 
Wounded Warriors--those with seen and unseen wounds--and their families 
are critical to this investment.
    Our military families and communities continue to play a unique and 
growing role in our national security fabric, one not seen in more than 
a generation. They support us and sustain us in ways we do not yet 
fully understand. They deserve the admiration and support of a grateful 
nation. My conversations with spouses and children around the world 
tell me these concerns center on caring for those affected by these 
wars, child care, education, health and employment issues.
    We remain competitive in attracting the country's best talent. For 
the first time in the history of the All Volunteer Force, the Active 
Duty, Guard and Reserve components all exceeded annual recruiting goals 
for 2009. This success was reflected in the quality of our recruits as 
well as their numbers. Ninety-six percent of our accessions earned a 
high school diploma or better. Each Service also met or exceeded its 
2009 retention goals. Our ability to recruit and retain underscores the 
fact that this is the best military I have seen in my 42-year career. 
While competitive pay is a critical factor in this success, it does not 
stand alone. Other critical ``people'' programs supported by the 
Congress--like the new GI Bill, adequate housing, access to quality 
schooling for military children, adequate child care, and attractive 
family support centers--come together to make the harsh burdens of 
military life acceptable.
    We must not forget the challenges that this excellent All Volunteer 
Force faces every day. More than 8 years of wartime operations have 
come at a cost. Most Army brigade combat teams are preparing for their 
fourth major deployment since 9/11, with some of them preparing for 
their fifth--unprecedented in our history. The Marines Corps is in the 
same boat--their deployments are shorter but more frequent, and their 
pace is grueling. Our people spend less time at home, and this shorter 
dwell time between deployments does not allow for respite or for 
training along the entire spectrum of military operations. Our 
irregular warfare expertise--hard won over the last 8\1/2\ years--has 
come at a price. Conventional war fighting skills have atrophied and 
will require attention. Yet this overdue attention will have to wait. 
The gains we anticipate from the coming draw-down in Iraq will be 
absorbed by our necessary efforts in Afghanistan for at least 2 more 
years. Resetting the force requires significant effort and sustained 
commitment now and post-conflict. We will continue to rely heavily on 
our Navy and our Air Force.
    Dwell time--the ratio of time deployed to time home--remains a 
concern, and one we must manage closely this year and into 2011. Dwell 
time for the Army is at 1:1.2 and the Marine Corps is slightly better 
at 1:1.5. We will not see significant dwell time improvements across 
all services until 2012. Deployment rates for Special Operations Forces 
(SOF) and other low-density, high-demand specialties also remain very 
high. While our force is strong and resilient, these trends cannot 
continue indefinitely.
    The challenges remain significant, but are manageable thanks to the 
support of Congress for increased end-strengths in the Army and Marine 
Corps. We are only now starting to feel the positive impact from these 
2007 authorized increases in the baseline force--stabilizing deployment 
rates and dwell times. Coupled with the additional temporary increase 
of 22,000 troops within the Army, Congressional support for our wartime 
military manning needs has been critical.
    The stresses of protracted war extend beyond the deployments 
themselves. Our number of dead and wounded continues to rise, as does 
the strain on their families and their communities. Other social costs 
of war--divorce, domestic violence, depression, and post-traumatic 
stress syndrome--are unacceptably high and continue to increase. We 
have much more to do.
    Suicide deserves special attention. Despite our best efforts, 2009 
witnessed a record level of suicides, with increases in both the Active 
and Reserve components. We have not begun to study suicides among 
family members and dependents. While there is not one cause for 
increased service-member suicides, we know enough to be certain that 
better prevention training programs for leadership, for at-risk service 
members, and robust funding and attention toward sober study of the 
problem are absolutely necessary.
    We should provide a lifetime of support to our veterans. I urge you 
to continue funding the programs supporting those that have sacrificed 
so much, including those aimed to reduce veteran homelessness and that 
focus on rural healthcare options. The demands on our active and 
veterans care services will continue to grow, and require the attention 
found in this budget. Yet we must conceive of Wounded Warrior Support 
in a manner that goes beyond the traditional institutions. Public, 
private, and individual sources of help represent a ``sea of goodwill'' 
towards our veterans. Our focus must be more on commitment than 
compensation; and more attuned to transition and ability than upon 
disability. Our veterans want the opportunity to continue to serve, and 
we should enable that opportunity.
Reset and Reconstitute
    My concerns about the health of our force go beyond our people. Our 
systems and capabilities are under extraordinary stress as well. The 
high pace of operations is consuming our capital equipment much faster 
than programmed. The Air Force and Navy have been essentially 
performing non-stop, global operations for 19 years, since Operation 
Desert Storm. The Army and Marine Corps have had the majority of their 
combat forces and equipment in the combat theater of operations for 
nearly 6 years. The unforgiving terrain of Afghanistan and Iraq causes 
extensive wear and tear, especially on our ground vehicles, 
helicopters, and supporting gear.
    The demands of the current fight mean we must increase capacity in 
several areas, including rotary wing, ISR, electronic warfare and SOF. 
We sustain necessary rotary wing capacity through the addition of two 
active Army Combat Aviation Brigades, continued production of the tilt-
rotor V-22, as well as our helicopter force, and a seventh SOF 
helicopter company. I support this budget's rebalancing in favor of 
more commercial airborne ISR capabilities for Combatant Commanders. 
This budget continues increasing the number of unmanned combat air 
patrols, coupled with the ability to fully exploit the intelligence 
coming from these platforms. We should expand current technologies to 
fill electronic warfare shortfalls and develop next-generation 
technologies for manned and unmanned aircraft.
New initiatives
    Too many of our processes and programs remain geared to a peacetime 
clock, but several new initiatives focused on supporting our war 
efforts show promise. I strongly support the Afghanistan/Pakistan Hands 
program and ongoing initiatives that increase the number and skill of 
our civil affairs and psychological operations personnel. I also 
strongly back the USAF's initiative to use light aircraft for enhanced 
capacity building of key allies and partners for light mobility and 
attack.
    Our current acquisition process remains too unwieldy and 
unresponsive. Adding 20,000 more acquisition experts by 2015 will help, 
as will increasing the rigor and efficiency of our internal processes. 
Stability in our programs, comprehensive design reviews, better cost 
estimates, more mature technology and increased competition will make 
the process more responsive. Once fielded, our systems are the finest 
in the world, because of the experienced and capable program managers 
and engineers building them. We need more of managers and engineers, 
and they need better support and leadership.
    Finally, I am growing concerned about our defense industrial base, 
particularly in ship building and space. As fiscal pressures increase, 
our ability to build future weapon systems will be impacted by 
decreasing modernization budgets as well as mergers and acquisitions. 
We properly focus now on near-term reset requirements. However, we may 
face an eroding ability to produce and support advanced technology 
systems. Left unchecked, this trend would impact war fighting 
readiness. The Department, our industry leaders, and the Congress need 
to begin considering how to equip and sustain the military we require 
after our contemporary wars come to an end.
                    balancing global strategic risk
    Balancing global risk requires sustained attention to resetting the 
force. It also means making prudent investments to meet the challenges 
of an increasingly complex and challenging worldwide security 
environment. As the President recently noted, it is the United States 
that has helped underwrite global security with the blood of our 
citizens and the strength of our military. America's interests are 
global, and our military must secure these interests. Where possible, 
we will act first to prevent or deter conflict. When necessary, we will 
defeat our enemies. And whenever able, we will work in concert with our 
many allies and partners.
    For many decades, but especially since 1989, U.S. conventional 
overmatch has guaranteed our security and prosperity, as well as that 
of our many allies and partners. We have helped protect expanding 
global commons. We have seen the likelihood of conventional war between 
states drop. And we have used the tools designed for war not against 
human adversaries, but instead to support humanitarian operations. Most 
recently in Haiti, but elsewhere over the past 60 years, the military's 
unmatched capacity to transport goods and services have provided relief 
in the face of tragic natural disasters. In short, many nations have 
benefited from an extraordinarily capable and ready U.S. military, even 
as we have defended our own interests.
    That capability must continue to span the full range of military 
operations. But in this post-Cold War era--one without a military near-
peer competitor--we should not be surprised that adversaries will 
choose asymmetric means to confront us. They will seek to use both old 
and new technology in innovative ways to defeat our advantages. 
Terrorism will remain the primary tactic of choice for actors to 
conduct warfare ``on the cheap''. Both state and non-state actors will 
seek weapons of mass destruction through proliferation. Increasingly, 
states will attempt to deny our ability to operate in key regions, 
through the development and proliferation of ballistic missile systems, 
or by exploiting space and cyberspace. Taken together, these are 
diverse threats that require a broad set of means.
    Winning our current wars means investment in our hard won irregular 
warfare expertise. That core competency must be institutionalized and 
supported in the coming years. However, we must also stay balanced and 
maintain our advantage in the conventional arena. In the air, this 
advantage requires sufficient strike aircraft and munitions capable of 
assuring air superiority and holding difficult targets at risk. At sea, 
we require sustained presence and capacity supported by a robust ship 
building program. On the ground, we must accelerate the modernization 
of our combat brigades and regiments. Without question, these are 
expensive undertakings. But our present security challenges demand 
them.
    While maintaining our conventional edge, we also must address the 
safety and surety of our nuclear forces, even as we seek to reduce 
them. Our Nuclear Posture Review provides the guidance and vision on 
how to accomplish this laudable and historic goal. We must invest in 
our nuclear infrastructure and modernization programs in order to 
ensure our smaller nuclear force is safe, secure, and reliable.
    Countering weapons of mass destruction means investing in new 
research, securing nuclear materials, and preparing a layered defense. 
Improving our ability to neutralize and render safe critical targets is 
vital. We maintain the ability to respond to their use against our 
citizens. But while improving responsiveness to the use of such weapons 
is critical, it is more important to counter their proliferation and 
deter their use. I advocate diverse investments in nuclear forensics 
and expanding our biological threat program, in addition to continuing 
investment in the highly effective counter-proliferation programs that 
are central to our success in this critical endeavor. These relatively 
small funds will have a disproportionately large positive impact on our 
security.
    The ability of potential adversaries to challenge our freedom of 
movement and the peaceful use of the global commons has grown in recent 
years. Anti access-technologies and capabilities are proliferating, 
which could prevent us from deterring conflict in some regions. We must 
preserve our ability to gain access even when political, geographical 
or operational factors try to deny us the same. This requires funding 
for improvements to our missile defense capabilities, expanded long 
range and prompt global strike systems, and hardened forward bases.
    Threats in cyberspace are increasing faster than our ability to 
adequately defend against them. Cyber attacks can cripple critical 
infrastructure, impose significant costs, and undermine operational 
capabilities. Meanwhile, space-based systems critical to our global 
awareness and connectivity are aging and have proven vulnerable. A 
determined enemy could degrade existing space systems, significantly 
impacting our strategic intelligence and warning capabilities, as well 
as global positioning and communication. I welcome your support for the 
recently stood-up U.S. Cyber-Command (CYBERCOM) and its associated 
funding.
    Rising states present both a strategic challenges as well as 
strategic opportunities. China's economic strength, military 
capability, and global influence continue to grow. While our military 
relations continue to develop, we seek much more openness and 
transparency from China regarding the pace and scope of its 
conventional and nuclear force modernization. We also believe that 
China can--and should--accept greater responsibility for and partner 
more willingly to safeguard global prosperity and security. We are 
looking to China to join us in reacting to the Cheonan sinking in ways 
that make clear to North Korea that its aggressive behavior is 
unacceptable. We seek for Beijing to work more collaboratively when 
determining fair access to transportation corridors and natural 
resources. China also should demonstrate greater clarity in its 
military investments. Absent a more forthcoming China in these critical 
areas, our military forces must prudently consider and plan based on 
known Chinese capabilities and actions, in addition to its stated 
intentions. As we work with Beijing to establish a continuous military-
to-military dialogue to reconcile uncertainties and generate 
confidence, we will pursue common interests in agreed upon areas such 
as counter-piracy, counter-proliferation, search and rescue, 
humanitarian assistance and disaster relief. As a Pacific Rim nation 
with longstanding interests throughout the area, we will continue to 
play a vigorous regional role.
    Our present dialogue with Russia is multi-faceted. It acknowledges 
points of contention as well as opportunities to ``reset'' our 
relationship on a positive trajectory. We welcome Moscow's cooperation 
in reducing the number and role of strategic nuclear weapons. These 
discussions have been constructive, and I believe the resulting treaty 
will benefit the United States, Russia, and the world. Moscow has also 
helped us establish a supplemental logistics distribution line into 
Afghanistan. Russia also helped our diplomats pressure Iran, and we 
look toward Moscow to do even more in this process. On the other hand, 
Russia continues to reassert a special sphere of influence with its 
neighbors. The Russian military is simultaneously modernizing its 
strategic forces and many conventional forces.
    North Korea continues to present a security challenge in Asia, as 
evidenced by the recent sinking of a Republic of Korea corvette. Today, 
Pyongyang continues to pursue intercontinental ballistic missile 
technologies, develop nuclear technologies, and export weapons in 
contravention of international norms on nonproliferation, and of two 
United Nations Security Council resolutions. It also maintains an 
unfortunate and threatening posture toward our ally the Republic of 
Korea, and an unhelpful disposition toward our ally Japan.
    Of course, we can best defend our interests and maintain global 
order when we partner with like-minded nations. By forging close 
military-to-military relations with an expanding number of nations--
providing training, equipment, advice, and education--we increase the 
number of states that are interested and capable of partnering with us. 
While tending to long-term allies, we should also cultivate our 
relationships with other liked-minded powers around the world. Making a 
small investment now will pay dividends in reducing our security burden 
and global risk.
    We must also continue to work with our traditional Allies. NATO 
remains the most successful alliance in history, and our NATO Allies 
serve side by side with us in Afghanistan and elsewhere. Our 
obligations under Article 5 remain clear, and our commitment to 
defending against threats--wherever they may originate--to our security 
and that of our Allies is unwavering.
    We need full funding of Defense Theater Security Cooperation 
programs, and the many security assistance programs managed by the 
Department of State, particularly the International Military Education 
and Training program. Preventative strategies require providing foreign 
partners with the capacity to promote stability and counter-terrorism. 
With your help, we have made considerable strides in adapting our tools 
for security force assistance, but more is needed. I urge your 
continued support of the Global Train and Equip initiatives (under 1206 
authorities) as well as funding for special operations to combat 
terrorism (under 1208 authorities).
    The majority of threats facing the United States require integrated 
interagency and international initiatives. Supporting interagency 
cooperation programs, to include expanding the number of exchanges 
between the Department of Defense and other Executive Agencies, will 
improve interagency capacity to meet future security threats as well. 
Please urge your colleagues who oversee the Department of State to 
fully fund Secretary Clinton's requests. I ask the Congress to promote 
legislation that increases the expeditionary capacity of non-military 
Executive Agencies. Our future security concerns require a whole of 
government effort, not just a military one.
                               conclusion
    This past year witnessed significant achievements by America's men 
and women in uniform. Their efforts and sacrifices--as part of a 
learning and adapting organization--have sustained us through more than 
8 years of continuous war. Thanks to them we are in position to finish 
well in Iraq. Thanks to them, we can begin to turn the corner in 
Afghanistan and Pakistan. In conjunction with our many partner nations, 
they've provided humanitarian relief assistance to millions, helped 
contain a threatening H1N1 pandemic, expanded support to national law 
enforcement for enhanced border security, and disrupted terrorist 
sanctuaries worldwide. And, thanks to them, we have a global presence 
protecting our national security and prosperity.
    The demands of the present remain high, and our military role in 
national security remains substantial. This will continue for the 
foreseeable future. Yet as I have testified before this body in past 
appearances, the military serves America best when we support, rather 
than lead United States foreign policy.
    On behalf of all men and women under arms, I wish to thank the 
Congress for your unwavering support for our troops in the field, their 
families at home, and our efforts to rebalance and reform the force to 
assure that we win the wars we are in and are poised to win those we 
are most likely to face in the future.

    Chairman Inouye. Thank you very much, Admiral Mullen.
    I believe you are aware that the vote has started. That is 
why some of the members have left to vote, but they will be 
back.

                          JOINT STRIKE FIGHTER

    I would like to begin, Mr. Secretary, by asking a question 
on the Joint Strike Fighter (JSF). Your projection has been 
shown to have a few predictions that are not quite correct. For 
example, the cost has increased by, I believe, $109 billion. 
Your chief weapons buyer has indicated that there are many 
problems in the Strike Fighter testing program.
    My question is, with these errors, should we still go along 
with your insistence upon no alternative engine?
    Secretary Gates. Yes, sir, I believe that is the case. In 
fact, I believe it very strongly.
    First of all, we are talking about two different subjects 
here, the fighter itself and the alternative engine. We had an 
independent estimating team in 2008 that identified some 
difficulties in the development program. I added almost $500 
million--or you added almost $500 million at my request to that 
program.
    We did another independent estimating effort last fall that 
made it clear this was more than a 1-year problem, and we have 
completely restructured the program. We fired the program 
manager, replaced him with one of the most experienced 
acquisition uniformed officers in the military.
    We withheld $600 million plus from the contractor. We 
extended the development program. We slowed the production rate 
in the early years by 122 aircraft over a 3- or 4-year period. 
So we will have more aircraft--fewer aircraft that are 
completed while the development program is continuing. We have 
added three aircraft to the development program.
    So I think that we have taken a number of steps that are 
consonant with a restructuring of the program. We believe we 
have--because of these outside estimating efforts, we think we 
have a much better fix on the nature of the problem that we 
have faced.
    I would tell you it is not particularly a good news story, 
but I would point out that both the C-17 and the F-22 also went 
through restructurings early in the program because of 
problems.
    The good news, I would say, is that there hasn't been a 
single review that has discovered any fundamental technological 
or performance problems with the aircraft. It is meeting its 
performance parameters. What we think we have endured is 
primarily management and production problems, a lack of 
adequate execution on the part of the Defense Department 
itself.
    My favorite story here is the supplier where the F-35 is 
part of their factory. They have a number of aircraft. The F-35 
occupies 6 percent of the factory floor space, and we pay 70 
percent of the overhead for the factory. So we need to be a lot 
smarter about the way we execute this program.
    So I think that we have a good independent assessment of 
where we are. I think part of the problem with this program, 
frankly, over the last several years has been too rosy an 
estimate from the production program itself about how things 
were going. And I think we have a much more realistic approach 
now.

                            ALTERNATE ENGINE

    With respect to the alternate engine, we have had this 
discussion. We believe that this program will cost at least 
another $2.9 billion to bring it to the point where it could be 
competitive. We think that the current engine that General 
Electric (GE) is offering probably does not meet the 
performance standards that are required, and the taxpayer would 
be required to pay for any enhancement that would bring it up 
to the performance standards that we require.
    And we think a situation in which both competitors are 
guaranteed a win is not competition at all. My view is a 
competition is winner take all. And I think we have had that 
competition, and it is time to move on with the program.
    Chairman Inouye. Mr. Secretary, if I may follow up, we were 
under the impression that the testing program of the F-35 would 
be completed by 2012. And now we have been advised that it is 
going to slip to 2016.
    Secretary Gates. The dates that we have, Mr. Chairman, the 
latest information that I have is, first of all, we are on 
track to have a training squadron at Eglin Air Force Base in 
2011. The Marine Corps will begin to receive their first 
aircraft in 2012, the Air Force in 2013, and the Navy in 2014.
    Full operational capability for the Air Force and the Navy 
will be in 2016. But those services will begin to receive 
aircraft earlier.
    Chairman Inouye. I thank you very much.

                         HEALTHCARE PROJECTIONS

    I would like to ask the Admiral about healthcare 
projections that you have made--and I am pleased to hear 
those--but my time will be up soon.
    As you know that the ancient war, World War II, and the 
conflict today cannot be compared. For example, in my time, in 
my combat team, 4 percent were married and had dependents, 96 
percent were single. Today, I note that the Army, nearly 70 
percent have dependents, and that produces a big problem.
    Second, survivorship is sky high now because of your 
improvement in high technology and transport. Do you think that 
we are coping with these changes?
    Admiral Mullen. Sir, as I said in my opening statement, I 
think we have got the best healthcare system in the country. 
Where I have tried to focus on in addition to care, and we 
still have some challenges, is really the cost. And the cost 
has grown from $19 billion I think in 2001 to $50 billion--over 
$50 billion in 2011. And it is going to continue over the next 
few years to grow.
    So we have got to have a balance in terms of providing this 
high-quality care and somehow containing the costs, and the 
costs continue to grow. And as you indicated very clearly, the 
requirements for our families have grown substantially over the 
many years. That said, I don't think there is any more 
important focus in our future than to make sure we get it right 
not just for our people, but also our families.
    And we still have some significant challenges internal to 
the Department in providing care. The Secretary of Defense and 
I talk about this routinely. When we are on the road, we spend 
time with spouses, and particularly spouses in deployed units, 
that medical care continues to be at the top of their list to 
get it, as good as it is.
    In recent years, we have unsuccessfully recommended that 
the copay rates, which have not increased since 1995, be looked 
at to increase. I don't see how at $19 billion in 2001, $50 
billion in 2011, $64 billion, I think the number is, in 2015, 
it is just simply not sustainable.
    So my emphasis these days, and I know the Secretary's as 
well, is how do we contain the costs?
    Senator Cochran [presiding]. Thank you very much, Admiral 
Mullen.
    Now I call on Senator Bond for any questions he has of the 
witnesses.
    Senator Bond. Thank you very much. I better turn this on. 
Thank you very much, Mr. Vice Chairman.

                            FORCE STRUCTURE

    Secretary Gates, Admiral Mullen, we appreciate your 
service. I thank you for, first of all, when you say you are 
looking for savings of $100 billion in 5 years, we would humbly 
suggest that you put more, not less, in the force structure for 
the Guard, which is a bargain for our military defense. But I 
thank you for your recent decision to move forward with the F/
A-18 multiyear. This pragmatic decision will help address 
larger fighter shortfalls in the Navy, save the taxpayer over 
$500 million.
    I believe strongly we take for granted our defense base 
will always be there, maintaining capacity and innovation to 
keep the United States and our warfighters second to none. I 
agree with the chairman that our ability to respond to current 
and emerging threats is dependent on preserving the ability to 
engineer, design, and procure both counterinsurgency 
technologies that we are employing today and technology to 
maintain our conventional military edge.
    In less than a decade, more than 50 major defense companies 
have been consolidated into only 6, and six aircraft primes 
have been narrowed to only two. After 2013, we will be down to 
one. The latest QDR has recognized and said how important and 
complex the industrial base is, but I would like to know what 
the Department of Defense and the administration are doing to 
ensure that we have the skilled workers, engineers, and 
companies both to address the threats to our Nation now and in 
the future.
    And one of the challenges of sustaining the defense base 
comes from a reduction in the overall number of programs. There 
are fewer new start programs, less investment in research and 
development, longer lifecycles, and increased cost for 
programs, especially like the JSF, that result in fewer efforts 
being underway.
    And I think a telling example is saying we shouldn't 
purchase any more C-17s. The mobility capability study will not 
address the possibility that the Nation may need to surge its 
production of airlifters in response to a national emergency or 
a humanitarian crisis like Haiti. And I question the validity 
of a single study which doesn't take into consideration the 
need of an industrial base.

                                 C-17S

    The decision on the C-17 is particularly troubling because 
there will not be a single facility in North America anywhere 
assembling large aircraft designed to military specifications, 
and many of the old C-5As are reaching the end of their service 
life. I question why it is in our Nation's interest to close 
the only active production line for long-range airlifters when 
there is no replacement that is being developed.
    And my question is what steps are being taken to protect 
the industrial base in heavy airlift, strategic airlift?
    Secretary Gates. Well, first of all, Senator, there have 
been three mobility studies done on the size of our strategic 
lift capability--one in 2005; one in 2008, sponsored and 
mandated by the Congress; and one in 2009. And those studies 
have taken into account a stressed strategic environment, as 
well as increased end strength in the military, the ability to 
carry large-scale, larger equipment such as mine resistant 
ambush protected (MRAP), and so on.
    There is the capability in the United States for wide-body 
aircraft. U.S. manufacturers make them all the time. The C-17 
will have a very long lifespan. Those that are being built now 
will probably be flying in 35 to 40 years. So we have a 
substantial capability that takes into account really all of 
the stressed environments, and I think that we do have in the 
United States a capability--an industrial base that is capable 
of building wide-body aircraft and, over the period of time 
that we are looking at, the ability to adapt whatever is needed 
to meet military specifications. But the C-17 is going to be 
with us for decades.
    Senator Bond. But the C-5A is reaching its service life, 
and we are going to need replacements, aren't we?
    Excuse me, Admiral Mullen. I didn't see you were wanting to 
speak.
    Admiral Mullen. As far as that is concerned, the studies, 
which have been extensive, look at both the C-5s and the C-17s. 
And the requirement, I cannot find a requirement for additional 
C-17s. As hard as we have looked, and quite frankly, because 
this is visited--been visited so many times, we have looked at 
it time and time again. We just don't have a requirement beyond 
the 223 C-17s, and there are some that would argue that that is 
actually too many.
    I certainly share your concern with respect to the 
industrial base, and there is no easy answer there across a 
broad set of capabilities for our country. And the only way 
that I have seen that successfully addressed in the past is a 
strategic relationship--which includes obviously the 
partnership, if you will, between the Hill, between the 
Department of Defense, and those who build it--to make sure 
that we look at meeting our requirements and our ability to 
sustain a very important industrial base at an affordable cost. 
And that then gets into acquisition and how we do things.
    So I certainly take your point, Senator, about the 
industrial base. It is critical. But I don't think from the 
standpoint of retaining it or sustaining it, one, against a 
requirement that doesn't exist anymore, and second--and doesn't 
look like it will exist for an extended period of time, and 
second, at an affordability level that we just have not seen. 
That is the concern. I just think we have to address this 
strategically in ways we haven't in the past.
    Senator Bond. Thank you very much, gentlemen. I will have 
questions I will submit to you in writing, if you don't mind.
    Thank you.
    Senator Cochran. Senator Hutchison, I think you are next, 
and then Senator Specter.
    We are going to try to recognize folks in the order in 
which they came in.
    Senator Hutchison, you may proceed.
    Senator Hutchison. Thank you.
    Senator Cochran. Then I will call on Senator Hutchison--
Senator Murray, sorry.
    Senator Hutchison. Mr. Chairman, thank you. And I want to 
thank all of you for being here.
    Mr. Secretary, we have talked about your mission to try to 
lower the defense budget and you are looking for places to cut, 
and I am hoping that I can expand on this in the near future 
with you. But here are some of the concerns that I have seen as 
the ranking member and former chairman of the Military 
Construction Subcommittee.
    We have had a strategy of after we saw the deployment 
problems that we had when we were going into Iraq out of 
Germany, and also as we were looking at the training 
constraints in Germany and other parts of the world where we 
are. So we have had a strategy, and this just gives you an idea 
of the chart on Milcon buildup in the United States, starting 
in fiscal year 2006. We built up heavily in 2009 and 2010 to 
try to bring our troops home from Germany, some from Korea, to 
be able to train and deploy where we had complete control.
    But now I am looking at the 2011 budget request for 
Germany, and it is $500 million. And of greater concern is--
this is the Milcon in Germany for the next 5 years, and we are 
looking at $3.5 billion in the next 5 years in Germany. Now I 
am concerned that we are duplicating efforts, and let me just 
give you an example in Germany.
    The European Command and the African Command are 
headquartered in Stuttgart. And yet the Army is now coming in 
to request $91 million for a SCIF facility in Wiesbaden, plus a 
new battle command center for $120 million in Wiesbaden. So the 
Army is going to a separate location, when we already seem to 
have our resources consolidated in Stuttgart.
    The German building requirements are higher, and yet 
Germany has only over the past 13 years contributed 
approximately 7 percent of the building requirements in 
Germany. And then you look at the effort that is being made by 
Germany in Afghanistan right now, approximately 4,000 troops 
out of approximately 100,000 in Afghanistan.
    And I guess I am just looking at the potential for savings 
and consolidation and efficiencies in military construction, 
and I am asking you if that has been a factor in your 
decisions, if you have looked at this plan for $3.5 billion in 
Germany, and what is the thinking behind that? And is it 
necessary to do that much when we have had the strategy of 
building up in America and deploying where we wouldn't have 
deployment problems as we saw going into Iraq?
    Secretary Gates. I will have to ask the Army to come up and 
brief you on the details and the justification of their 
specific programs. I would say more broadly that the path that 
we have been on was a path on global posture review that was 
established by the Bush administration.
    One of the outgrowths of the Quadrennial Defense Review was 
a request to revisit that issue by the Obama administration, 
and we are in the process of doing that this year in terms of 
our presence not just in Germany, but elsewhere around the 
world. And so, the conclusions of that study and whatever 
decisions the President makes on that will obviously 
significantly impact the kind of programs that you are 
describing.
    Senator Hutchison. When you are looking at budgetary 
matters and when the commanders in the field are making these 
requests, do you look at the effort made by the host country?
    I look, for instance, as a comparison to what Germany has 
done, to Japan, which has been above 90 percent in effort to 
help offset our costs. And Germany has asked us to stay, in 
many places. So is that a focus that the Department makes in 
general?
    Secretary Gates. It certainly is a consideration.
    Senator Hutchison. Well, there are also concerns that I 
have with Korea----
    Senator Cochran. Senator, your time is expired.
    Senator Hutchison. I hope to be able to give you some 
thoughts that I have and perhaps work with you to see if we can 
be more efficient with the military construction side in the 
future.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    We established, under Senator Inouye's rule, that we would 
recognize Senators in the order in which they came into the 
hearing. And this is the list that we have had.
    Senator Leahy was here early and had to leave, but he is 
back now. Senator Murray is next, Senator Dorgan, Senator 
Feinstein, Senator Specter, Senator Bennett. That is the list 
in order of the chairman.
    Senator Murray. Mr. Chairman? Mr. Chairman, I just had a 
chat with Mr. Specter, who did have another engagement. I am 
happy to go after him on that list.
    Senator Cochran. I was going to recognize Senator Leahy. 
Senator Leahy.
    And here is the real chairman, so----
    Senator Leahy. Thank you. Did you ask questions? Okay.
    Secretary and Admiral Mullen, it is always good to see you. 
I appreciate the fact that both of you have always been 
available for questions from not only myself, but other members 
of the subcommittee.

                              AFGHANISTAN

    Let me ask you a little bit about Afghanistan. We all want 
to see al-Qaeda, Taliban, defeated, but I worry about our 
clear, achievable goals there. I supported--9, 10 years ago 
now--going into Afghanistan to get Osama bin Laden. I did not 
support going into Iraq because I saw it as no threat to the 
United States.
    Secretary, you said last January we weren't trying to make 
Afghanistan a Central Asian Valhalla. But I am not sure what we 
are trying to make it. Right now, the top officials in Kabul do 
not have the confidence or respect of the Afghan people. They 
seem to be making common cause with a lot of people that we are 
fighting.
    We have committed so much, so much money here, and we have 
neglected so many things inside the borders of the United 
States. We see China and now others developing green 
technology, creating jobs, exporting it to elsewhere.
    We see a number of other things in other countries where 
they don't have the burdens of Afghanistan and Iraq. They are 
using the money to develop economic juggernauts, which could 
create huge problems for us in the future.
    We have 1,000 brave members of the Vermont National Guard 
there. And I want to thank you publicly, Admiral Mullen, for 
coming up and speaking to them. It was a highlight for them, 
the fact that you did.
    So, I mean, how do you see it? What is our end game?
    Secretary Gates. Well, first of all, I think one of the 
results of the very detailed analytical effort and policy 
consideration effort of the administration last fall was, in 
fact, to clarify our goals. And our goal is to ensure that 
Afghanistan is not a place from which attacks can be launched 
on the United States again.
    And in a nutshell, the strategy is to reverse the momentum 
of the Taliban, to deny them control of populated areas, to 
degrade their capabilities to the point where the Afghan 
security forces can take care of them.
    And the Afghans are ahead of pace, in terms of building 
both the police and the army. We still are dealing with quality 
issues, but we are making headway. We are making progress on 
trainers. The percentage of trainers to trainees has gone from 
about 1 to 80 to about 1 to 30.
    I read a lot in the press about corruption and so on and so 
forth, but the reality is there are ministers in Kabul doing 
their jobs, and there are Afghan soldiers and police out there 
who are dying in even greater numbers than we are, fighting for 
their country.
    Senator Leahy. I met a number of those ministers, and I 
have a great deal of confidence in them. But do you have 
confidence in the top leadership of the country?
    Secretary Gates. Yes, I do. First of all, from my own 
conversations with President Karzai, I think that he is 
embracing his responsibility for this conflict in his country. 
His visit to Kandahar just a few days ago that the Admiral 
referred to was very important, in terms of helping set the 
stage for the continuation of the campaign there.
    So I think that we have some clear goals. I think, frankly, 
that the narrative over the last week or so, possibly because 
of the higher casualties and other factors, has been too 
negative. I think that we are regaining the initiative. I think 
that we are making headway.
    But the thing that I would say--two other points I would 
make, Senator is, people need to remember we have only been at 
this new strategy for about 4\1/2\ months. We don't even have 
all the surge troops in Afghanistan.
    Senator Leahy. Could I ask you on this, before my time runs 
out, is the Leahy law being implemented in both Afghanistan and 
Pakistan?
    Secretary Gates. We are working to ensure that the Leahy 
law is being implemented in both places. And we could discuss 
it further with you in a closed setting.
    Senator Leahy. I suspect it will require a closed session. 
But I just mentioned that because I have discussed it with you 
privately, as with the Admiral, and it is more than just a 
talking point with me.
    Secretary Gates. Well, we understand that fully, Senator, 
and it is with us as well.
    Senator Leahy. Thank you.
    Secretary Gates. And I would just add one more point to the 
earlier point you made. There is no doubt that these wars have 
cost the United States, the American taxpayers a lot of money--
as the chairman said at the outset, close to $1 trillion.
    That said, in terms of our international competitiveness, 
in terms of our overall economy, it is worth keeping the 
perspective that, at about 4 percent to 4.5 percent of gross 
domestic product (GDP), we are spending less on defense than 
during any other war time in our history. And it is a level 
that certainly is sustainable.
    Chairman Inouye [presiding]. Thank you very much, Mr. 
Secretary.
    Senator Murray.
    Senator Murray. Mr. Chairman, Senator Specter came in while 
I was voting and does have a previous commitment, and I agreed 
that he could go ahead of me, if that is all right with you.
    Chairman Inouye. Fine. Oh, Senator Specter, yes?
    Senator Specter. Thank you, Mr. Chairman.

                     IRAN TO DEVELOP NUCLEAR WEAPON

    Secretary Gates, an article in the New York Times on April 
17 of this year quotes sources on a confidential memorandum 
written by you, according to the Times article, which broadened 
considerations on dealing with Iran's efforts to develop a 
nuclear weapon, to contain that effort.
    General John Abizaid had, some time before, talked about 
containment as an option. And I think we would all vastly 
prefer not to see Iran develop a nuclear weapon--unacceptable 
to have that country have such a weapon. But there has been 
talk about alternative courses if those efforts are not 
successful. What would the broad parameters be should the 
option be considered for a containment policy?
    Secretary Gates. First of all, Senator Specter, I would 
tell you that, contrary to the news account, the memorandum 
that I did earlier this year did not discuss, either by name or 
in concept, anything about containment. And my answer to your 
question would be is that I think we have a strategy. Our view 
is that it is unacceptable for Iran to have nuclear weapons, 
and we are proceeding on that basis.
    Senator Specter. Mr. Secretary, when you testified back on 
March 21 of this year, I propounded a series of four questions 
and asked that they be responded to for the record. And as yet, 
I have not had a response.

                      ISRAELI-PALESTINIAN CONFLICT

    Let me ask you at this time, on one of the questions which 
I propounded, and that related to a statement by General 
Petraeus to the effect that the Israeli-Palestinian conflict 
foments anti-American sentiment, due to a perception of U.S. 
favoritism toward Israel. And his comment embraced the idea 
that a failure to resolve the conflict had begun to imperil 
American lives, which is obviously a very serious consequence.
    What basis, if you know, did General Petraeus have for 
making that statement, or is there any indication that that 
statement is factually correct?
    Secretary Gates. First of all, if you haven't received the 
answers to your questions from March, I apologize for that, and 
we will find out why.
    My recollection--and I would defer to the chairman because 
he may remember better than I do--I do not think that that is, 
in fact, what General Petraeus said. I think that our view is 
it is clear that a Middle East peace settlement between Israel 
and the Palestinians would enhance our diplomatic and other 
efforts in the region and would enhance our own security 
because that dispute is used by our adversaries against us. But 
I don't know of any evidence that the failure to arrive at a 
Middle East peace solution has, in fact, put American military 
lives at risk.
    Admiral Mullen. Nor do I, Senator. I think the Secretary 
has it exactly right.
    Senator Specter. Secretary Gates, in an interview with CNN 
back on April 29, 2009, you had commented that you thought our 
policy was sometimes too arrogant. And one of the concerns that 
I have had has been in dealing with Iran, we have never been 
able to establish really a dialogue.
    For some time, a number of Senators were trying to have 
some interparliamentary exchanges. In 2007, Senators Biden, 
Hagel, Dodd, and I wrote a letter to the parliamentarians in 
Iran and got back a response--that had been discussed with 
President Bush at that time, who had no objection--got back a 
response from the Iranians that they liked the tone of our 
letter but were not yet ready to talk.
    And the question I have, in line with your comment about 
U.S. arrogance, would be is there any way we might use what 
President Bush had talked about starting his administration, a 
little more humility? And I think President Obama has certainly 
withdrawn any effort to have preconditions, like stopping the 
enrichment of uranium before you talk about the subject. Any 
way to modify our attitude in our dealings with Iran, which 
might produce some better results?
    Secretary Gates. Senator, every United States President 
since the Iranian revolution has reached out to the Iranians. I 
was present at the first outreach in--at the end of October 
1979 when Dr. Brzezinski met with the leadership of the Iranian 
Government--the prime minister, defense minister, foreign 
minister. We basically said, ``We accept your revolution. We 
are willing to work with you. We have a common foe to your 
north. We will sell you all the weapons that we had contracted 
to sell the shah.''
    And they said, ``Give us the shah.''
    Three days later after that meeting, our Embassy was 
seized. And 2 weeks later, all three of those people were out 
of power. Every subsequent President has reached out to the 
Iranians, no President more sincerely and with greater effort 
than President Obama. This is one case where I don't think--
where I think that the arrogance, frankly, has been on the 
other side of the table, not on the American side of the table.
    Senator Specter. Senator Murray, thank you for yielding.
    Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    And thanks to all of you testifying before the subcommittee 
today.
    Secretary Gates, I wanted to start with you because, as you 
well know, among many of the troops who are serving us in 
Afghanistan today, many are deployed from Fort Lewis in my home 
State. They are on the front lines with the 5/2 Stryker 
Brigade, for instance, and they have suffered tremendous losses 
this year. And with the increasing Taliban offensive operations 
every day, families across my State are picking up the paper 
almost every morning now and reading about more casualties.

                                 MARJAH

    I am committed to giving our servicemembers every resource 
they need to bring a quick and decisive end to the Taliban and 
the other insurgent forces. But I am very concerned about the 
increasing number of casualties, but also concerned about the 
reports that we haven't solidified our gains in Marjah and 
southern Afghanistan despite the tremendous sacrifice by our 
servicemembers and their families.
    And I wanted to ask you today what you can share with us to 
provide assurance that Marjah and our operations in southern 
Afghanistan are a success.
    Secretary Gates. Well, let me address it and then ask the 
chairman to do so as well. First of all, we made very clear at 
the very outset, many months ago, that this summer would see 
increased casualties.
    As our military and our coalition partners move into areas 
that have been controlled by the Taliban for the last 2 or 3 
years, it was inevitable that there would be increased 
casualties. Tragic, but inevitable. And we have warned about 
this from the very beginning.
    The reality is that the military operations in Marjah were 
successful, and a place that had been controlled by the Taliban 
for 2 years or more is no longer controlled by the Taliban. 
Getting the civilian coalition and Afghan forces in there, the 
civilian officials, building the development programs is moving 
forward, but it is moving slower than we originally 
anticipated.
    So I would say that, as I indicated earlier, I think that 
we are moving in the right direction. I just met with General 
McChrystal in Brussels last week. And I would tell you the 
general view of all of the alliance defense ministers was that 
we are moving in the right direction. We do now have all of the 
elements for success in place. This is going to be a long and a 
hard fight.
    And General McChrystal is convinced--confident--that he 
will be able to show that we got the right strategy and that we 
are making progress by the end of this year. But this is not 
something where week to week or month to month you can be able 
to say, ``We are moving the front forward.'' That is not the 
kind of fight this is.
    Admiral Mullen. Progress in Marjah, ma'am is slow and 
steady. And we see indicators all the time where bazaars are 
open where there were none before. And this, as the Secretary 
said, is a place that was run by the Taliban for the last 
several years.
    They are still there and intimidating, and they recognize 
that. Fundamentally, they have been displaced, but they 
certainly haven't been defeated in that particular area.
    We see an increase in the number of teachers who are there. 
There are some 80 plus teachers where a few months ago there 
were none. Schools are open where they weren't.
    And I don't want to paint a rosy picture here. It is a 
very, very tough fight. But we see steady progress, an increase 
in the number of local government of Afghanistan employees from 
in the 40s a few weeks ago to over 60 now.
    So we recognize the significance of it. We recognize the 
challenge of it. And it is going to take some time. We see an 
expanded rule of law taking place there. It is very gradual. 
This is a very, very tough undertaking, and it is going to take 
some time.
    And I would not----
    Senator Murray. Okay.
    Admiral Mullen [continuing]. Though, ask routinely when 
will we be successful in Marjah specifically? And it is hard to 
say that, but all the indicators are moving in the right 
direction, as tough as it is.
    Senator Murray. I have another question for Secretary 
Gates, but I think all of us are watching this very closely, 
and especially those of us who are seeing this affecting our 
home States and the servicemembers that we represent. So we 
will stay in touch with you on that as well.
    I did want to ask you, Secretary Gates, about a topic you 
and I have discussed many times, and that is the tanker 
competition. You know my concern about the fact that the World 
Trade Organization (WTO) has said that there were illegal trade 
distorting subsidies for the A330 Airbus frame. And I know we 
have had an exchange on this issue.
    But I just heard you say in your opening remarks that the 
President would veto any appropriations with the C-17 funding. 
And I am very concerned, if this is awarded to Airbus, the KC-
X, that we would have absolutely no wide-body military aircraft 
production left in our country, leaving us very vulnerable in 
the future. Does the DOD have any plans to address the 
potential loss of U.S. capability?
    Secretary Gates. First of all, as I indicated in response 
to Senator Bond earlier, we expect to have the C-17 with us for 
decades, probably 40 years or more.
    Senator Murray. In production?
    Secretary Gates. There is significant wide-body aircraft 
production capability in the United States, and we have more 
than enough time to adjust it to a military production line if 
we need to.
    Senator Murray. And the production capability and ongoing 
engineering design and manufacturing?
    Secretary Gates. Sure. I mean, if you have wide-body 
engineering and capability for civilian and commercial 
purposes, it can be adapted for military purposes.
    Senator Murray. My time is up, Mr. Chairman. Thank you.
    Chairman Inouye. Thank you.
    Senator Cochran.
    Senator Cochran. Admiral Mullen, the Defense Department, I 
understand, has suggested that continuing the DDG 1000 
destroyer program is essential to our national security 
interests. One of the reasons I understand for this is the 
determination that there is an important need in maintaining a 
national ship building capability.
    What suggestions do you have or strategies do you have that 
will address concerns about our ability to meet our current and 
a future national security needs in the area of ship building?

                             SHIPS FOR NAVY

    Admiral Mullen. Well, as I indicated in my opening 
statement, Senator Cochran, I think that being able to produce 
the number of ships that we need for our Navy is a critical 
imperative for our future security and that we have an 
industrial base that obviously supports that.
    And the only way in the many years that I have been 
involved in ship building in particular, the only way I have 
ever seen it come close to success is to reach that sort of 
strategic partnership that I indicated before between the 
industry, obviously you on the Hill, and the administration.
    And it has got to be affordable. I mean, one of the 
challenges that we had with the DDG 1000 program, like too 
many, is we started and the costs just absolutely skyrocketed, 
and it essentially does itself in. And I don't know any other 
way to get at that except that kind of strategic partnership, 
which then together addresses the major challenges, both in 
acquisition, in transition from one ship class to another, the 
challenges that obviously exist in shipyards in your home 
State, as well as where we have additional shipyards.
    How do we inject the technology over time? How do we 
sustain that capability over time in what takes a long time to 
build as well as expected to be around for 30 to 40 years, 
depending on the ship that you are talking about? I think it is 
absolutely vital that we have that base. But it has got to be 
at an affordable level.

                         NEW GOVERNMENT IN IRAQ

    Senator Cochran. Mr. Secretary, there are some political 
uncertainties surrounding the new government in Iraq. And we 
know that there has been violence, and there probably will be 
more violence.
    My question is will the delays that are being observed in 
establishing a new government affect the drawdown of U.S. 
forces? Are we going to be forced by danger signs of 
instability to change our plans and strategy of how to deal 
with the situation there?
    Secretary Gates. The short answer, Senator Cochran, is no. 
The truth of the matter is the election trajectory in Iraq is 
basically going pretty much as had been predicted. We figured 
it would take several months for them to form a government 
after the election.
    An important hurdle in terms of General Odierno's 
confidence was the certification of the election last week. The 
Council of Representatives convened this last Monday, and that 
begins the process of formation of the government.
    So the violence that we have seen has really been al-Qaeda 
in Iraq violence aimed at promoting or provoking sectarian 
conflict and sectarian violence. And one of the good news 
stories out of Iraq is that that effort on their part has 
completely failed. These guys are doing politics.
    And I would just say, coming out of the NATO summit--and I 
probably shouldn't say this--but I was intrigued with the fact 
that we have a new Dutch Government in formation, and they 
anticipate that it is going to take about 4 months to put the 
Dutch Government together. So, you know, these coalition 
governments aren't too easy even in established countries.
    Senator Cochran. Admiral Mullen, what is your assessment of 
the Iraq security forces and their capability of effectively 
managing the security challenges?
    Admiral Mullen. Maybe I could use just a vignette to speak 
to that, that recently when two of the top al-Qaeda leaders, 
al-Qaeda in Iraq leaders were killed, that is Iraqi security 
forces were very much involved in that. And every time I both 
either see or ask about this issue, they are in the lead.
    And there is a great confidence in particularly their 
ground forces. We are working to evolve their naval capability. 
We are working to evolve their aviation capability. But they 
have been particularly strong.
    What General Odierno will also speak to is he was taken 
back a little bit by the way they seized this requirement when 
we came out of the cities 1 year ago last June. Their country, 
a lot of pride in what they do, and they really have stepped up 
to it and made a difference.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Welcome.

                              SUPPLEMENTAL

    Mr. Secretary, Senator Cochran, I think, asked in his--
rhetorically in his opening statement about the supplemental. I 
think we were told earlier that the supplemental had to be 
completed by Memorial Day. It was, of course, not. I mean, the 
Senate has completed it.
    But what is the date by which you are not able to make the 
payments you need to make in terms of getting the supplemental 
done?
    Secretary Gates. I had hoped that it would be done by 
Memorial Day. We begin to have to do stupid things if the 
supplemental isn't passed by the Fourth of July recess. We will 
have to begin planning our--the money that we have in the 
overseas contingency fund for the Navy and the Marine Corps 
will begin to run out in July. We will then turn to O&M money 
in the base budget for them, causing us to disrupt other 
programs. The Army comes along a little behind that.
    And we reach a point--and so, we begin to have to do 
disruptive planning and disruptive actions beginning in July. 
We could reach a point in August, in early to mid August, where 
we actually could be in a position where the money that we have 
available to us in the base budget runs out, and we could have 
a situation where we are furloughing civilians and where we 
have active duty military we cannot pay.
    Senator Dorgan. Mr. Secretary, you mentioned a startling 
statistic. You talked about, I think, the Joint Strike Fighter 
in a plant where it was taking 7 percent of the space in the 
plant, and the Government was being charged 80 percent of the 
overhead.
    Secretary Gates. Six percent of the floor space, 70 percent 
of the overhead.
    Senator Dorgan. I am sorry, 6 percent of the floor space, 
and yet you were being charged 70 percent of the overhead. How 
does that happen?
    I mean--and by the way, I appreciate and I think all 
Members of the Senate appreciate your deciding we are going to 
make people accountable for bad management practices, and we 
are going to incentivize and laud good management. But how did 
you find that out and then check it back and find out who on 
Earth made that decision?
    Secretary Gates. Unfortunately, Senator, I think there have 
been a lot of bad decisions along these lines in terms of 
contracting and in terms of our acquisition process. And so, 
the acquisition reform bill that was passed here and that the 
President signed into law is an important asset.
    But at the end of the day, what is really required is 
people who can execute a program efficiently and with a very 
sharp pencil for the taxpayer. I don't think we have had a 
sharp enough pencil, and in some cases, I don't think we have 
had sharp enough managers.
    I think we are trying to more professionalize our 
acquisition workforce now. We are substituting career civil 
servants who have these skills for contractors who, in many 
cases, have been doing it. But we just have to be a lot smarter 
and a lot tougher and a lot more effective in our execution of 
the programs, and as you suggested, and as I believe, and hold 
people accountable.
    Senator Dorgan. The work you are doing on contracting is so 
important. I mean, it is an inelegant term, but it is just, to 
use the term ``dumb'' for anyone who would say, ``Yes, our 
program has 7 percent or 6 percent of the floor space, we are 
willing to ante up 80 percent or 70 percent of the--of the 
overhead.'' I mean, that is just dumb for somebody to do that. 
And I applaud what you are trying to do to establish 
accountability.
    I want to ask about Afghanistan because I am nervous and 
worried about that which has been written recently and I think 
also acknowledged by some--the persistent violence around 
Marjah, the issue of the Taliban in Kandahar, and General 
McChrystal saying that this is going to happen more slowly than 
we originally anticipated.
    And as I look at that, and I wonder, you know, what are the 
costs of that in terms of soldiers' lives and money and so on, 
and then I also wonder, aside from Marjah and Kandahar, do we 
ever expect to control the tribal regions of Afghanistan? I 
mean, so as I look at that, I am becoming more and more nervous 
about the July 2011 date by which the President talked about 
bringing troops out.
    So give me your assessment. We are reading these things 
that seem less optimistic and seem to suggest things aren't 
going as they expected.
    Secretary Gates. Let us both take a crack at it briefly.
    First of all, I think that we have--I think General 
McChrystal has finally put in place a strategy that can be 
successful in Afghanistan. We have the assets arriving on the 
ground that will allow us to be successful. We still have a 
third of the troops yet to arrive that are part of the surge.
    So we are only a few months into the execution of the 
President's new policy, and I must tell you, I have a certain 
sense of deja vu because I was sitting here getting the same 
kind of questions about Iraq in June 2007, when we had just 
barely gotten the surge forces into Iraq at that point. This is 
not--this is not some kind of production program or something 
where you have--you know, you are going to meet these 
particular objectives this week and next week.
    This is--as the chairman was saying, this is a process. We 
think we have the right assets, we have the right strategy, we 
have the right leadership. And most of our allies and partners 
share our view that things are heading in the right direction 
and that we will be able to show clear progress and that we are 
on the right track by the end of this year.
    But this is not something where we do ourselves any favors 
by tearing ourselves up by the roots every week to see if we 
are growing. This is a process, and it is going to be long and 
hard, but we are headed in the right direction.

                     MILITARY CAMPAIGN IN KANDAHAR

    Senator Dorgan. But, Mr. Secretary, I just wondered, I was 
actually quoting General McChrystal when he said this will 
``happen more slowly than we originally anticipated.'' So----
    Secretary Gates. Yes. And what he is talking about is the 
time, as we shape--what General McChrystal has also tried to 
make clear is this is not going to be a traditional military 
campaign in Kandahar. There is a huge political and economic 
component to this. And the shaping of the political 
environment, as they--as they had real success in doing before 
Marjah, is very important in Kandahar. And that is what he is 
talking about is going to take a little more time than he 
anticipated.
    Admiral Mullen. I would echo what the Secretary said, from 
what I have seen and certainly my interaction with General 
Petraeus and General McChrystal, Senator. And I mean, we all 
have angst about this, but we have got a tremendous leadership 
team. We have put the resources in, and it is a very, very 
difficult counterinsurgency.
    And as I said in my opening statement and I have said 
before, I think Kandahar is the center of gravity for this. I 
think we will know by the end of the year obviously where we 
are with respect to reversing the momentum, and that is one of 
the key objectives here.
    What I am concerned about, and I know people are focused on 
July 2011, we all are in a way, but we are not just not going 
to know until we get much closer to July 2011 how many troops 
and where they will come from, the pace and the place. And all 
of that is conditions based, and I think we have to remember 
that.
    Clearly, I think we will start thinning our lines, if you 
will, and moving our troops out, but we are just not going to 
know. And we haven't gotten to July 2010 yet.
    So I share the angst. There is an awful lot of people 
focused on it. And we want to be as--and nobody more so than 
General McChrystal--as transparent with what is going on as 
possible.
    But it is not just a military issue. It is the economic 
piece, the governance piece, all those things, all of which we 
are shaping right now, particularly in Kandahar.
    Senator Dorgan. I thank you very much.
    Mr. Chairman, thank you.
    Chairman Inouye. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.

                                 CHINA

    Mr. Secretary, thank you again for your service. I think 
you have been terrific, and I know how hard it is. So thank you 
very much.
    The question--I wanted to ask two, one on Afghanistan and 
one on China. Let me take the China first.
    Things back here are Euro-centric. Out West, we look West. 
And for 30 years now, I have been going back and forth to China 
and trying to do what I can to build and improve a 
relationship. I just spent the last week there meeting with a 
lot of the leadership and came away with a very different view 
of what is happening, and I wanted to talk with you about it.
    I shared with them my dismay over your being turned down to 
meet with your counterpart. And what came back were arms sales 
to Taiwan. Now the impression I had from our Government before 
I went was, well, the Chinese expect this, and they are not 
going to be very upset. In fact, they were very upset. And a 
way they have in showing it is a refusal of military-to-
military contact, in my view, at a time when the Chinese 
military is expanding strategically in a very critical and 
concerning way.
    And I think that everything we do--we subscribe to the one 
China policy. Everything we do should be to minimize conflict 
in the straits. We met with President Ma Ying-jeou. He has had 
a very constructive relationship. He is about to sign an 
economic framework agreement with the mainland. And I think 
there is the opportunity to consider where we go if this 
across-the-strait situation is stable.
    So my question to you is this. What significant action 
could China take to ease its military posture in the strait in 
a manner that was substantive enough for you to consider or 
reconsider the future arms sales to Taiwan, which are a 
substantial irritant and will continue to be a substantial 
irritant, in my view?
    Secretary Gates. First of all, Senator, one of the points 
that I made in Singapore with Chinese military leaders in the 
audience was that our arms sales to Taiwan are on the basis of 
the Taiwan Relations Act that was passed at the time of 
normalization in the late 1970s. I think that--and they have 
known that all along.
    And I was struck by an article in the local press in 
Singapore following that session. Somebody asked one of these 
Chinese generals or some Chinese general--may not have been one 
present--``You guys have known about these sales for decades. 
Why all of a sudden are you raising such a stink about them?'' 
And this general's response was, ``We had to accept it when we 
were weak. We are no longer weak.''
    And the bottom line is the decision on Taiwan arms sales is 
fundamentally a political decision. It is a decision mandated 
by the Taiwan Relations Act, and it is a presidential decision. 
So this is not a decision that is up to the Department of 
Defense. It is a decision that is up to the political 
leadership of the United States in terms of what would be 
required in order to change our approach with respect to the 
execution of that law or change that law, if it is necessary. I 
don't know whether that is required. But that is essentially a 
political decision, not one that we in DOD would take.
    But I would tell you the Chinese, even though the president 
of Taiwan has reached out and that relationship looks pretty 
stable--and we certainly applaud the growing links between 
Taiwan and the People's Republic--another piece of that is the 
extraordinary Chinese deployment of all manner of cruise and 
ballistic missiles opposite Taiwan on the Chinese side of the 
strait. So that is a reality that goes along with the growing 
other links between the two.
    But as you say, our position, and I repeated it in 
Singapore, was we are opposed to the independence of Taiwan. We 
stick with the three communiques that have guided United 
States-Chinese relationships for the last 30 plus years, and we 
need to go forward.
    Senator Feinstein. Perhaps some of this I should discuss 
with you privately, but in my meeting with some of the 
leadership, it was mentioned that China had offered to redeploy 
back. Now I understand the word ``redeploy'' isn't ``remove.'' 
And I understand the nature of what is there and the number of 
troops.
    However, I think that the most important thing we can do 
right now is establish some military-to-military contact. And I 
discussed this with Admiral Willard, as a matter of fact as 
late as yesterday, and I think he thinks this way as well.
    So I would just leave that with you. I think it is 
extraordinarily important that we find a way that our top flag 
officers can communicate with their counterparts.
    Secretary Gates. Well, I would just say, Senator, that I 
also believe those contacts are necessary, and not just sort of 
ship visits and the uniformed officers talking with one 
another, but from a policy standpoint and from a strategy 
standpoint. The point I have made, and my whole speech in 
Singapore, a good part of it, was about the importance of 
military-to-military relationships between our two countries.
    Because in my experience with the Soviet Union, I don't 
know if the strategic arms talks ever really achieved much arms 
control. But the one thing I do know is that over a 25-year 
period, we gained a very good understanding of each other's 
approach and strategy when it came to nuclear weapons, nuclear 
strategy, and so on. And I believe deeply that it helped avoid 
miscalculations and misunderstandings. I have no interest in a 
military-to-military relationship where we basically get 
together and sing ``Kumbayah.''
    Senator Feinstein. That is right.
    Secretary Gates. But I think that having a relationship 
where we can talk about things that are really potentially 
dangerous in our relationship has all kinds of merit, and I am 
a strong proponent of contacts with the Chinese military for 
that kind of a dialogue.
    Senator Feinstein. Thank you. I am pleased to hear that.
    I think my time is up. Thank you.
    Chairman Inouye. Thank you.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Secretary and Mr. Chairman, Admiral, thank you for all 
of your service and all of the good work you do and all of the 
hard work you do.

                          SOLID ROCKET MOTORS

    I have listened with great interest to the questions of my 
colleagues, and they have addressed all of the major issues. 
And so, I am going to be a little bit parochial. Senator Murray 
talked about tankers, and Senator Cochran talked about ships. 
It will come as no surprise that I am going to talk to you 
about solid rocket motors.
    And you are well aware that many of us are concerned with 
the solid rocket motor industrial base and the importance of 
sustaining that. And in the Nuclear Posture Review (NPR), I 
understand the Quadrennial Defense Review, recently published 
national security strategy, testimonies, and so on, you all 
underscored the need for the capabilities and the stability of 
systems that rely on solid rocket motors and a robust 
production industry.
    Unfortunately, the administration's budget seems determined 
to go in the other way, the other direction, and we will not 
only lose the industry, we will lose the skills that go with 
it. The industrial base is one thing, but when you really are 
talking about rocket scientists, you lose them, and they go 
elsewhere. And it would be impossible to reconstruct that.
    So, last year, the Congress directed the Department to 
review and establish a plan to sustain the solid rocket 
industrial base, and the plan was to be due June 1. June 1 has 
come and gone. I understand an interim report is still in the 
development and that the Department is working toward delivery 
of a final plan ``no earlier than the end of this fiscal 
year.''
    If I can take you to today's newspapers, they are talking 
about a continuing resolution at the end of this year, to be 
followed at some undetermined moment an omnibus bill, and this 
creates great uncertainty with respect to the solid rocket 
folks.
    So, in the absence of an official recommendation regarding 
the delivery of a solid rocket motor industrial base 
sustainment plan, do you have any recommendations that you 
could offer now or anything you could share with us as to the 
thoughts the Department may have in this area?
    Secretary Gates. Let me ask the Admiral if he has any--
anything on this. I would tell you that I am not aware of the 
status of this report and not in a position to provide any 
recommendations, frankly, because I just don't know. But I am 
happy to go find out why this report is overdue and see if we 
can't bring it to conclusion.
    Senator Bennett. I am less concerned with the June 1 date 
than I am with the idea that all we will have is an interim 
report by the end of the fiscal year. And this subcommittee is 
going to have to take action before the end of the fiscal year 
because it may very well be that the Defense appropriations 
bill becomes the only one that escapes the omnibus and passes 
on its own.
    Secretary Gates. No, I will commit to you that we will----
    Senator Bennett. I know the chairman hopes that is not the 
case and I hope it is not the case with him, but there is 
always that possibility.
    Secretary Gates. What I can commit to you is to try and get 
this report and its recommendations to you so you can make some 
timely decisions.
    Senator Bennett. Okay. Well----
    Admiral Mullen. Senator, actually, I don't--I don't have 
any more background at this point than the Secretary. I would 
have to go do some homework.
    Senator Bennett. All right. That is fine. Most disturbing 
to me and others who share my concern about this--this is not 
strictly a Utah parochial issue--is the lack of evidence--it is 
a complete lack of evidence--of any coordination between the 
National Aeronautics and Space Administration (NASA) and the 
Pentagon before undertaking the actions to basically kill this 
industry. And do you have any reaction to that statement?
    We have discussed this in hearings before, but are you 
aware of anything that has been raised with the Department of 
Defense on the part of NASA, as they have decided unilaterally 
to shut down the creation of solid rocket motors?
    Secretary Gates. I am just not aware of whether or how much 
coordination there was with us, Senator, but I can certainly 
get an answer for you.
    [The information follows:]

    In response to the Congressional direction in section 1078 
of the National Defense Authorization Act for Fiscal Year 2010, 
Public Law 111-84, the Department has reached across all SRM 
stakeholders--including NASA--to ensure all potential 
industrial base issues regarding SRMs are identified and plans 
are put in place for their resolution. To this end, the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(AT&L) established a three-tiered InterAgency Task Force 
(IATF). The IATF is co-chaired by the Department and NASA and 
has members from the Office of the Secretary of Defense (OSD), 
NASA, Missile Defense Agency, Air Force, Navy, and Army. The 
IATF has met 12 times since the first meeting on November 6, 
2009. The next meeting is scheduled for August 9, 2010. As part 
of a government-wide effort, the IATF discussed various human 
flight options NASA was considering. Representatives from NASA 
have actively participated in the IATF; attending meetings and 
contractor site visits, providing SRM presentations to team 
members, and developing a range of options for the Department 
to consider as it works to sustain the SRM industrial base.

    Senator Bennett. I think the implications for this are very 
serious. NASA, I think, is making a mistake. For NASA purposes, 
I think the absence of solid rocket motors in NASA is going to 
raise NASA's costs, going to destroy the space program in a 
number of areas where I think it is important.
    But to go ahead on that decision without even talking to 
the Pentagon, in terms of the implications for Minuteman and 
other areas in the Defense Department where you are dependent 
on a solid rocket motor, borders on the irresponsible. So 
anything you could share with us I would very much appreciate.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Feinstein.

                       NATIONAL INTERDICTION UNIT

    Senator Feinstein. Thank you very much, Mr. Chairman, for 
allowing me this extra question. I very much appreciate it.
    Secretary Gates, I am chairman of something called the 
Senate International Caucus--the Senate Caucus on International 
Drug Control. We call it the Drug Caucus. And we are about to 
put out a report on Afghanistan.
    I am very concerned that the Taliban is on its way to 
becoming a narco-cartel. And I won't go--I can make the 
argument here. I am not going to make it here. It will be in 
our report. But I want to ask you about one specific thing.
    There are specially vetted units supported by United States 
personnel that have proven to be very effective at conducting 
counternarcotics operations all around the world. At this time, 
there are only 288 members of the national interdiction unit of 
the Afghan counternarcotics police that have been vetted and 
work directly with United States personnel.
    Program managers have told the staff of our caucus that an 
additional 250 vetted officers are needed for the unit, based 
on the scope of the drug problem in Afghanistan. And this would 
maximize the ratio of United States men to Afghan officers at 
the current staffing levels.
    The contract for training the Afghan counternarcotics 
police is administered by the Department of Defense. My 
question to you is would you take a look at it and take a look 
at the possibility of adding 250 officers for this national 
interdiction unit?
    Secretary Gates. Sure, we will take a look at it.
    Senator Feinstein. I appreciate that. Thank you. That is my 
question.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    I have a question, Mr. Secretary, that has been festering 
in this body. Up until World War II, we had senior military 
officials with a full array of medals, with enemy generals and 
admirals in full array, signing documents to end a war. That is 
how we ended wars. Everything ceased. At what point could you 
say today the war is over, that we can leave?
    Secretary Gates. I think that the war in Afghanistan will 
end much as the war in Iraq has ended. And that is with a 
gradual transition from our being in the middle--our being in 
the military lead while the Iraqi security forces were growing, 
then partnering, then the Iraqis in the lead and our drawing 
back to tactical overwatch, and then strategic overwatch, and 
now an advisory and assist role, at the same time that the 
political system, starting fresh, was being created and 
maturing.

                       FOCUS ON YEMEN AND SOMALIA

    And I think what you will see is the same kind of a gradual 
transition to where the Afghans are in the lead in the security 
arena. That is what we are talking about when we talk about 
when we begin a process of transition to Afghan control in 
these provinces. We are already talking about which ones of 
those will happen, and can we do some of them beginning in--
toward the end of the year or early next year?
    So as we did it province by province in Iraq, I suspect 
that that is the way it will happen in Afghanistan as well. And 
I think however much people may debate how we got into Iraq, 
the outcome has ended up, at this point at least, being more 
positive than anybody could have dreamed 3 years ago.
    Chairman Inouye. I thank you very much.
    May I ask another question?
    Secretary Gates. I am cautioned to say the Iraq war is 
ending, not has ended.
    Chairman Inouye. I realize that no one can predict the 
signing of the document. But, Admiral Mullen, there is a place 
called Somalia that most Americans cannot point out on the map. 
However, press reports that it is becoming a safe haven for al-
Qaeda and other foreign fighters, training ground, et cetera. 
Are we going to get rid of them?
    Admiral Mullen. Chairman, for the last couple of years, I 
have talked about concerns with respect to growing safe havens 
and, in fact, an awful lot of focus on Yemen and Somalia 
specifically. And there is an al-Qaeda presence specifically in 
Yemen right now, which is very dangerous and growing and needs 
to continue to be addressed.
    There is certainly a terrorist safe haven in Somalia. And 
in terms of civility, it is a country that certainly if not a 
failed state, is borderline failed state. And in fact, there 
are camps where terrorists are trained in Somalia that we need 
to all be concerned about.
    So I am concerned about the fact that Somalia continues to 
fester, to use your word, in a very negative way, a government 
that is struggling to control it, under assault, quite frankly, 
from organizations that are terrorist based, and continue to be 
the home for the piracy network clearly, which is a challenge 
in that part of the world. So I am extremely concerned about 
that and its continued--ability to continue to grow in the 
future.
    The other place where there is longer-term potential is in 
northern Africa, in the Pan Sahel, where al-Qaeda has a very 
strong link as well. And so, while we focus on Afghanistan and 
Pakistan, which is where al-Qaeda leadership resides, it is 
really that network which is still extremely dangerous and 
intent on executing the kinds of potential attacks that we saw 
in Detroit at Christmas and recently in Times Square.
    Chairman Inouye. Senator Cochran, do you have any 
questions?
    Senator Cochran. I have no further questions.
    Chairman Inouye. Then, Mr. Secretary and Admiral Mullen, 
thank you for your testimony this morning and for your----
    Secretary Gates. Mr. Chairman?
    Chairman Inouye. Yes?
    Secretary Gates. At the risk of prolonging the hearing, 
could I take just a moment to address the two questions that 
you put to me in your opening statement very quickly?
    Chairman Inouye. Yes, sir.
    Secretary Gates. First of all, one of the frustrations that 
I have had ever since taking this job has been that the 
Department of Defense is organized and structured to plan for 
war, but not wage war. And the only way I have found that I 
have been able to get the kind of urgent action to create the 
MRAPs; to get the additional intelligence, surveillance, and 
reconnaissance work; to do the counter-improvised explosive 
device (IED) effort has been by pulling together these ad hoc 
groups, as you have described them, these task forces, where I 
chair them and essentially have all of the senior players, both 
uniformed and civilian, at the table, and to be able to force 
the kind of rapid action that has been necessary to support 
those in the field.
    In several of these areas, I think that the work has 
reached a point where I think I can begin to take actions to 
begin to return these efforts to where they would traditionally 
have a bureaucratic home. The MRAP Task Force, the ISR Task 
Force, the Counter-IED Task Force that is co-chaired by General 
Paxton and Under Secretary Carter never was intended to last 
more than another 2 or 3 months from now.
    So I think in at least three of these areas that we will be 
able to move back toward the traditional structures in the 
Department of Defense. But long term, it is a serious issue for 
the Department and, frankly, one that I have not yet found the 
answer to in terms of how to get urgent action in an area 
supporting men and women in combat today that ranges across the 
entirety of the Department, both uniformed and civilian, and 
all the different Defense agencies.
    With respect to the balance between future threats from 
near-peers and others, as opposed to our focus on irregular 
warfare, I would just remind the subcommittee that if you took 
a broad look at our budget, about 50 percent of our procurement 
budget is for what I would call long-term modernization 
programs to deal with near-peer countries, about 40 percent is 
dual purpose, like C-17s and other things we will use no matter 
what kind of conflict we are in, and about 10 percent has 
actually been for irregular or the kind of asymmetric warfare 
we have been talking about.
    So I think we have a very large number of programs in this 
budget that are aimed--and in fact, half of the procurement 
budget roughly that are aimed at the longer term, more 
sophisticated threats that this country will face in the 
future.
    Thanks for the extra couple of minutes.
    Chairman Inouye. If I may follow up Senator Feinstein? 
Press reports, as you have indicated, show that the Chinese 
have been advancing their cyber activities, their cruise 
missiles. Are we concerned?
    Secretary Gates. We are very concerned, Mr. Chairman. The 
growing capability of the Chinese with anti-ship cruise and 
ballistic missiles is a real concern for our Navy and for us. 
The cyber capability is very important. The anti-satellite 
capability and potential space-denial capabilities are of 
concern to us.
    So there are a number of areas of Chinese modernization 
that are of concern to us. And frankly, this is one of the 
reasons why I think having a strategic dialogue with them to 
try and gain some understanding and have some frank talks about 
these concerns has merit.
    Maybe the Admiral would like to add a word?
    Admiral Mullen. Well, sir, I am right there. I am 
increasingly concerned. It is increasingly opaque, and these 
dialogues are absolutely critical to try to understand each 
other. Each time--at least from my perspective, each time it 
gets turned off, it gets turned off by the Chinese, and then we 
will go through a period of time where we have no relationship.
    The Secretary talked earlier about Iran and his experience 
in 1979. And what that has led to is no relationship with a 
country for over 30 years, and look where we are. And so, if I 
use that as a model, that is certainly not one that we can 
afford as a country or as a military with China as China 
continues to grow.
    The peaceful rise of China, China as a global power, all 
those things make sense to me. What doesn't make sense to me is 
the fact that they won't engage, and specifically that their 
military won't engage.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. Well, once again, I thank you very much. 
And I thank you for your service to our Nation. And we look 
forward to working with you in the coming months as we continue 
our review of the budget.
    And as you conduct your internal analysis of military 
requirements, I would like to encourage you to share them with 
us so that we can be in step with you as we begin our work for 
the following fiscal year.
    As you know, we are having a few problems with the House on 
the supplemental, but I think we can resolve them. I hope so.
    [The following questions were not asked at the hearing, but 
were submitted to the Department of response subsequent to the 
hearing:]
                 Questions Submitted to Robert M. Gates
            Questions Submitted by Chairman Daniel K. Inouye
                                somalia
    Question. Secretary Gates, recent press reports have highlighted 
the growing presence and influence of foreign fighters and al-Qaeda in 
Somalia's Islamist al-Shabab group. How would you assess the threat 
posed by these groups to western interests in East Africa? Is Somalia 
becoming the ultimate safe haven for al-Qaeda and foreign fighters?
    Answer. Since mid-2008, several hundred of foreign fighters of 
various nationalities have entered Somalia to join al-Shabaab's ranks, 
although exact numbers and nationalities of foreign fighters in Somalia 
remain unclear. The recent June 2010 arrest of two U.S. citizens 
allegedly on their way to Somalia to join al-Shabaab, and the July 2010 
terrorist attack in Uganda for which al-Shabaab took credit further 
underscore the alarming nature of this trend. The influx of foreigners 
to Somalia could extend al-Shabaab's global reach, posing an increased 
transnational threat to U.S. and Western interests in the region. 
Moreover, cooperation between al-Shabaab and al-Qaida senior leadership 
could enhance the potential of a formal merger between the two groups, 
increasing the threat of the existing terrorist safe haven in Somalia. 
Reports indicate that al-Qaida senior leadership likely views Somalia 
as an important arena for jihad and an established safe haven from 
which to launch transnational attacks, factors likely providing al-
Qaida with motivation to strengthen its relationship with al-Shabaab. 
Moreover, public releases by al-Qaida and al-Shabaab indicate increased 
cooperation between the two groups, which al-Qaida intends to leverage 
to establish a base of operations.
    As I have remarked before, in the decades to come, the most lethal 
threats to U.S. safety and security are likely to emanate from states 
that cannot adequately govern themselves or secure their own territory. 
Dealing with such fractured or failing states, such as Somalia, is, in 
many ways, the main security challenge of our time because they can 
incubate transnational security threats. In places like Somalia, where 
al-Qaida aims to establish a foothold and a safehaven, we must confront 
it with persistent pressure and strong partnerships. The United States 
is a committed partner to the African Union Mission in Somalia and the 
Somali Transitional Federal Government in support of the Djibouti Peace 
Process. Our objective for Somalia is to work with other U.S. 
Government departments and agencies to enhance stability, peace, and 
prosperity in Somalia and, by extension, in the East Africa region.
                                 china
    Question. Secretary Gates, do you see China as a reliable partner 
in the region, and are they willing to assist us in dealing with the 
tensions on the Korean peninsula?
    Answer. We have appreciated China's willingness to cooperate and 
partner with the international community on regional security matters 
including on the Korean peninsula. For example, China supported the 
United Nations Security Council in crafting United Nations Security 
Council Resolution 1874, and China has served as the chair of the Six-
Party Talks process. We continue to urge China to work with the 
international community to address North Korea's proliferation activity 
and its provocative behavior.
                  iridium constellation replenishment
    Question. Secretary Gates, I have recently learned of the 
announcement of the intent of Iridium LLC to award a contract to the 
French satellite manufacturer Thales, to replenish its current 72 
communication satellite constellation. I am concerned over the 
potential national security issues that could result from the 
Department's continued use of a communications system that will now be 
built by a foreign supplier.
    What risk mitigation plans are in place that will ensure that U.S. 
military user locations are not compromised or communications will be 
more susceptible to intercept? What are the technology transfer issues 
associated with backward compatibility requirements with the present 
system? Has a review been conducted on the impact and implications of 
the Department's use of an Iridium satellite communications system that 
is built by a foreign source?
    Answer. The Defense Information Systems Agency's (DISA) Enhanced 
Mobile Satellite Services (EMSS) Program was established to provide 
global, secure, handheld mobile satellite communications services 
leveraging the Iridium constellation. DOD owns and operates its own 
Iridium earth station in order to ensure that U.S. military user 
locations and communications are protected. DOD would continue to 
operate this earth station as Iridium updates its constellation.
    Iridium Communications, Inc. has announced its intentions to 
develop and launch the next generation Iridium constellation called 
Iridium NEXT. The new technologies and capabilities developed in 
Iridium NEXT will include new technologies for the terrestrial 
infrastructure. The EMSS Program Management Office has requested 
capital investment funding for fiscal year 2010-15 to migrate the EMSS 
Gateway from the existing infrastructure to the Iridium NEXT 
infrastructure. As these upgrades are being executed, the DISA Field 
Security Office, working closely with the EMSS Program and EMSS Gateway 
personnel, will ensure that the existing security posture of the EMSS 
Gateway will not be compromised during the transition.
    Iridium NEXT is to be a fully backward compatible system. As the 
original constellation was commercially developed, there are no 
military unique features embedded in the existing Iridium constellation 
or in the Iridium terrestrial equipment. As a result, no technology 
transfer issues will exist in the migration of the infrastructure. The 
military unique systems that reside in the gateway will be migrated as 
required to ensure that they will continue to provide the services and 
protections that exist today, but the development of those systems 
exist outside Iridium's developmental processes.
    No formal review has been conducted on the impact and implications 
of the Department's use of a Thales constructed Iridium NEXT. The 
development of the Iridium NEXT satellites by a foreign country does 
introduce some security concerns. Currently, there are no U.S. 
Government agencies that have committed to hosting payloads on Iridium 
NEXT satellites. If the Government's investment in Iridium increases, 
the appropriate studies will be conducted by the responsible agencies.
    Iridium Communications' award to Thales requires Thales to include 
a U.S. aerospace firm to fulfill the role of the spacecraft integrator. 
All indications are that Thales will most likely partner with Ball 
Aerospace as its spacecraft integrator. Ball Aerospace, a U.S. 
aerospace firm based in Boulder, Colorado, will be responsible to 
receive, integrate, and maintain custody of any classified or ITAR-
sensitive components up to the launch of the satellite vehicles. These 
components include telemetry encryption/decryption equipment and any 
classified or sensitive hosted payload components. Ball has a long 
history of developing classified spacecraft and payloads for the U.S. 
Government and has extensive facilities capable of handling classified 
equipment.
    Additionally, key on-board processor and spacecraft software will 
be developed by U.S. firms and will likely draw on legacy software from 
the current Iridium system. The teaming arrangement with Ball as the 
spacecraft integrator as well as keeping the critical systems and 
software development within the United States will provide a program 
structure that provides the necessary level of security and mission 
assurance.
                     impact of program terminations
    Question. These are not the only examples of terminated programs 
generating new, costly follow-on programs. This year, you announced the 
termination of the Defense Integrated Military Human Resources System, 
yet the Services are already requesting over $170 million to continue 
that program.
    Mr. Secretary, what real cost savings have been generated given 
that terminated programs are being replaced by new, more costly ones?
    Answer. The Defense Integrated Military Human Resources System 
(DIMHRS) program was recommended for cancellation as part of the 
President's fiscal year 2011 budget request due to cost overruns and 
performance concerns. Over $500 million had been spent over more than 
10 years with little results. The program, however, was not recommended 
for cancellation because it was unneeded, but rather because it was 
underperforming and too costly. The requirement for modern military 
personnel and pay systems to replace over 90 legacy systems remains, 
and will be fulfilled by Service-level programs using the DIMHRS core 
software to the maximum extent practical. The Department considers 
Service-level programs, rather than a single Department-wide solution, 
to be the best balance of cost, performance, and schedule. This 
includes the Department's concern with balancing near-term needs with 
long-term costs over the lifecycle of a program.
    Reforming how and what the Department buys continues to be a 
centerpiece of our nation's defense strategy. The efficiency initiative 
the Department is pursuing, particularly the portions of that 
initiative directed at procuring more affordable products and buying 
services more efficiently, is specifically intended to ensure that 
terminated programs are not replaced by ones that are more expensive.
    Question. Mr. Secretary, a key driver of costs in major weapons 
programs is poor management of program requirements. What measures are 
you instituting to avoid requirements creep?
    Answer. In the early phases of acquisition programs, the Department 
is addressing requirement overreach by subjecting each major program to 
a Materiel Development Decision before Milestone A, which will ensure 
early on that programs are based on approved requirements and a 
rigorous assessment of alternatives. Furthermore, through competitive 
prototyping and preliminary design reviews before Milestone B, 
technical risks will be reduced before progressing to the more costly 
phases.
    Consistent with section 814 of the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009, DOD acquisition policy also 
requires the Acquisition Executive of each DOD Component to establish 
and chair a Configuration Steering Board (CSB) with broad executive 
membership from the office of the USD (Acquisition, Technology and 
Logistics) and the Joint Staff. CSB's are required to meet at least 
annually to review all requirements changes for ACAT 1 and 1A programs 
in development that have the potential to result in cost and schedule 
impacts on the program. Such changes will generally be rejected, 
deferring them to future blocks or increments. On a roughly annual 
basis, program managers and program executive offices are also required 
to identify and propose descoping options to the CSB that reduce 
program cost or moderate requirements. This policy has been actively 
implemented at the component level.
    At each stage of the acquisition process for major acquisition 
programs, requirements are reviewed by both the Joint Staff and the 
Defense Acquisition Executive to ensure that requirements creep has not 
resulted in excessive costs.
                                somalia
    Question. Secretary Gates, the conflict in Somalia has encouraged 
many foreign fighters to join the militant Islamist factions attempting 
to overthrow the internationally backed Somali Transitional Federal 
Government (TFG). These foreign fighters seem to be mostly ethnic 
Somali emigres living in Western countries, raising fears that some may 
return to their homes and carry out terrorist attacks. There are also 
public estimates of approximately 200 foreign fighters from 
Afghanistan, Pakistan, Iraq and Saudi Arabia, the most dangerous of 
whom are teaching bomb-making and other small arms tactics to recruits 
in camps across southern Somalia. Would you like to comment?
    Answer. We are concerned about the presence of foreign fighters in 
Somalia. Since mid-2008, open-source reporting reveals that foreign 
fighters of various nationalities, including individuals from European 
and North American countries, have entered Somalia to join al-Shabaab's 
ranks. Although the exact numbers and nationalities of foreign fighters 
in Somalia remain unclear, reports indicate that several hundred 
foreign recruits have come to Somalia to support al-Shabaab and other 
Islamic groups since mid-2008. Foreign fighters threaten the 
Transitional Federal Government and the African Union Mission in 
Somalia and undermine their efforts to reach out to all peaceful 
elements of Somali society and build an inclusive reconciliation 
process for a stable, peaceful, and sovereign Somalia. The prevalence 
of foreign fighters in Somalia threatens not just the Horn of Africa, 
but countries around the world, as these fighters can return to their 
home countries to radicalize and recruit others to fight in Somalia or 
engage in worldwide terrorist activities. The July 11, 2010 terrorist 
attack in Uganda, for which al-Shabaab took credit, further underscores 
this threat.
                      defense department spending
    Question. Secretary Gates, since the attacks of September 11, 2001, 
the base budget authority for the Department of Defense has nearly 
doubled. Your recent statements in the press have indicated that 
military spending should expect closer, harsher scrutiny, and that real 
reform is needed in the way the Defense Department does business and 
spends taxpayer dollars. Your fiscal year 2010 budget request began the 
reform effort by hiring more civilian government employees to replace 
full-time contractors. Aside from investment and modernization efforts, 
please explain other major reform initiatives you are now considering 
and how those will translate into lower costs for the Department of 
Defense.
    Secretary Gates, you have been quoted in recent speeches that 
overhead within the Department of Defense is ripe for scrutiny. Please 
explain specific adjustments that could be made in this area to create 
savings in the budget.
    Answer. In recognition of the nation's difficult economic 
situation, I have asked the Defense Department to take a hard, 
unsparing look at how we operate; and I am seeking to redirect the 
savings to provide the resources needed for force structure and 
modernization. I directed the Department to focus on headquarters and 
administrative functions, support activities, and other overhead 
activities. The Department should become a smarter buyer; therefore, we 
are taking a hard look at how we contract for goods and services. As I 
noted in my opening statement, I believe the current DOD topline is the 
minimum needed to sustain a military at war. What I am looking for is 
reduced costs in the ``tail'' portion of our budget in order to ensure 
that there are adequate resources in the ``tooth'' portion of the 
budget. The Department's Components are now wrestling with this 
challenge as they build their fiscal year 2012-2016 programs. You will 
see the results in the fiscal year 2012 budget request.
                         temporary task forces
    Question. It is hard to understand why we seem to be moving in the 
opposite direction of your assessment last year. What is being done to 
exercise control and limit the growth of these task forces, and to 
permanently integrate them into the Department?
    Secretary Gates, what is your view on JIEDDO undertaking long term 
development projects? Shouldn't these activities reside within the 
Military Services?
    Answer. In February 2006, the Office of the Secretary of Defense 
(OSD) transitioned the Joint Improvised Explosive Device (IED) Defeat 
Task Force by establishing the Joint IED Defeat Organization (JIEDDO) 
as an enduring, jointly manned activity within the Department of 
Defense (DOD). JIEDDO has been tasked with one critical purpose: to 
rapidly provide counter-IED (C-IED) capability in support of COCOMs to 
enable defeat of the IED as a strategic weapon of influence, and JIEDDO 
manpower resources have grown to meet this purpose.
    In order to comprehensively address the increasing significance of 
the IED as a weapon of strategic influence, JIEDDO developed tenants 
designed to address specific aspects of the threat: Attack the Network 
(AtN); Defeat the Device (DtD); and Train the Force (TtF). JIEDDO's 
personnel resources increased to drive innovation with JIEDDO partners 
and stakeholders to develop and field effective material and non-
material C-IED capabilities. The growth in personnel requirements has 
been necessary to support the development and procurement of 
technology, evolution and establishment of operational concepts, wide 
dissemination of lessons learned, and the delivery of training and 
training products in order to ensure speedy delivery of C-IED 
capabilities where it counts most--into the hands of the warfighter. 
The pace of JIEDDO organizational growth has been commensurate with the 
effort necessary to rapidly and effectively counter the substantial use 
of this weapon--rapid, effective and efficient responses have required 
increased personnel numbers to maintain the necessary speed at which 
solutions can be delivered.
    JIEDDO is currently in the process of streamlining its efforts to 
better respond to requirements for support coming from COCOMs. As 
significant force adjustments are being made across key theaters of 
operation, the use of IEDs have not waned. In fact, JIEDDO's mission 
requirements have increased in Afghanistan and JIEDDO's personnel 
levels will be a reflection of the C-IED demands coming from theater.
    We agree that long term S&T efforts should reside in the Department 
and the Military Services. JIEDDO's goal for development efforts is 24 
months. JIEDDO has reevaluated its R&D portfolio and given new guidance 
to their technical staff regarding this issue. JIEDDO's subject matter 
experts assess each new proposed effort in depth to ensure that it is 
executable in this timeframe. Subject matter experts from across DOD, 
DOE, and other research organizations provide assistance to JIEDDO as 
needed during this vetting process. If an ongoing JIEDDO effort cannot 
meet this goal then it is evaluated to determine whether it should be 
terminated or continued. This determination is based on several factors 
including: progress made, potential value added to the counter IED 
fight, probability of success, likelihood of it being deployed and 
integrated if successful, etc.
    Recently, DDR&E and JIEDDO established a Technology Focus Team 
(TFT) to coordinate counter-IED R&D efforts throughout the Department 
and develop a strategy for long term counter-IED S&T. The TFT is co-
chaired by DDR&E and JIEDDO and includes representatives from the 
Services, DARPA, and DTRA. The Department of Homeland Security also 
participates as an observer. The Military Services are responsible for 
executing the long term S&T strategy.
    JIEDDO adds value to the DOD portfolio by focusing the Department's 
efforts in solving the most urgent needs and ensuring the relevance of 
our S&T efforts to the Counter-IED fight. To do this, JIEDDO will 
maintain a cadre of scientists and engineers fully dedicated to 
understanding and countering the IED threat. This team will concentrate 
in the most immediate war fighting problems and accelerate the 
development of the most promising solutions. To facilitate cross 
pollination and engage the best and the brightest, the JIEDDO S&T team 
is augmented by scientists from across the DOD, the national labs, and 
other research organizations as needed.
                            healthcare costs
    Question. Secretary Gates, you have spoken recently about 
skyrocketing personnel costs that are ``eating us alive''. This has 
caused concern among service members and their families and several 
military and veterans advocacy groups. Could you please detail how 
healthcare costs impact the Department's budget, and how you plan to 
reduce them?
    Answer. Over the past decade, healthcare costs have grown 
substantially across the nation, and Military Health System (MHS) costs 
have been no exception. MHS costs have more than doubled between fiscal 
year 2001 ($19 billion) and fiscal year 2009 ($45 billion) and are 
projected to continue to increase 5 to 7 percent through fiscal year 
2015. At this growth rate, MHS costs will exceed $64 billion by fiscal 
year 2015.
    DOD is evaluating numerous proposals to make the system more 
efficient, from better supply management to getting better prices for 
healthcare services. In order for the Department to reduce healthcare 
costs, I believe one of the cost saving measures we need to take a 
fresh look at is the cost sharing structure for the TRICARE benefit 
plans. Enrollment fees for the TRICARE Prime program have not been 
modified since its inception in 1995. As of 2009, average out-of-pocket 
cost for a family of three covered by TRICARE Prime was $1,375 per 
year--compared to $3,430 per year on average for a family of three 
covered under the Federal Employee Health Benefit Plan's Health 
Maintenance Organization (Kaiser). I look forward to working with 
members of Congress to devise a cost sharing arrangement that is both 
fair and reasonable.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
    Question. Mr. Secretary, would you please elaborate on your vocal 
opposition to the Joint Strike Fighter alternate engine? While you have 
described this as a cost-savings issue, analyses by GAO and others show 
that either choice--to keep or get rid of the alternate engine--will 
probably be cost-neutral over the life of the F-35 program. But having 
an alternate engine will prevent a single point of failure for the F-
35, which will be very important when the plane comprises 95 percent of 
our strike aircraft fleet. Why choose to drastically increase risk for 
the F-35 for little or no money saved when all is said and done?
    Answer. The Department has consistently emphasized its opposition 
to the Joint Strike Fighter (JSF) extra engine because continued 
funding of the F136 would divert funds from important defense needs. In 
the middle of two wars, the Department has other higher priority uses 
for $2.9 billion, the amount that would be required to take the extra 
engine to full competition. Furthermore, there is no guarantee that 
having two engines will create enough long-term savings to outweigh the 
significant near-term investment.
    The Department does not consider a single source engine for the F-
35 to be a ``drastic'' increase in operational risk. The Department 
currently maintains two tactical aircraft programs, the F-22A and the 
F-18, each of which utilizes a single source engine provider. Both 
programs have enviable safety records, and the Department is satisfied 
with the engines for both programs. Over the years, significant 
advancements in engine design, testing, and production have enabled the 
Department to manage the risks associated with single engine systems 
without having to ground an entire fleet.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                   operation of firefighting aircraft
    Question. Last year, the House report accompanying the Defense 
Appropriations bill instructed your Department to analyze any 
legislative barriers that would impede the viability of expanding this 
joint operation program.
    Has your Department conducted this analysis and assessed the 
viability of expanding the joint operation of firefighting C-130 Js? Is 
your Department capable of jointly operating an additional 25 C-130s? 
Can you provide me with a date when the department expects to complete 
its analysis of expanding this program?
    Answer. As requested by House Report 111-230, which accompanied 
H.R. 3326, the Department of Defense Appropriations bill for fiscal 
year 2010, the Department of Defense (i.e., the Office of the Assistant 
Secretary of Defense for Homeland Defense and Americas' Security 
Affairs, the Department of Defense Comptroller, the Office of the 
Assistant Secretary of Defense for Reserve Affairs, the Joint Staff, 
the U.S. Air Force, the National Guard Bureau, and the Air Force 
Reserve), the U.S. Forest Service (USFS), and the Department of the 
Interior (DOI) established an Integrated Working Group (IWG) for the 
purpose of assessing the viability of joint use Federal forest 
firefighting assets. The interim report was provided to Congress in 
April 2010. The final analysis and assessment are ongoing. We 
anticipate that the final report will be provided to Congress by 
August/September 2010.
    Question. Has the U.S. Forest Service officially approached the 
Department of Defense to ask for assistance in procuring new or used C-
130 Js to help fulfill the Service's aerial firefighting needs?
    Answer. No.
    Question. What legislative, regulatory, and policy barriers 
prohibit the U.S. Forest Service from calling on the Guard's C-130 Js 
to conduct initial attack on wildfires? In other words, why are the 
Guard's C-130 Js always the last resources called upon to fight burning 
fires? Since these planes were purchased by the taxpayers, how can we 
make sure that they are used more appropriately?
    Answer. The U.S. Forest Service is one of eight Federal agencies 
(i.e., including also the Department of Defense, the Bureau of Land 
Management, the Bureau of Indian Affairs, the U.S. Fish and Wildlife 
Service, Fire and Aviation Management, the U.S. Fire Administration, 
and the National Weather Service) participating in the National 
Interagency Fire Center (NIFC). The NIFC, which is located in Boise, 
Idaho, is responsible for coordinating the mobilization of resources 
for wildland fires and ultimately makes the determination on what 
capabilities and resources to request and employ on an incident-by-
incident basis.
    The NIFC maintains a contract for commercial air tanker services. 
The intent of this contract is to provide the Federal Government with 
large fixed-wing air tanker services, including the delivery of 
approved fire suppressant or retardant material on forest and range 
fires over all types of terrain throughout the United States. According 
to interagency policy and guidance, the objective of the Modular 
Airborne Fire Fighting System (MAFFS) program is to provide an 
``emergency capability to supplement commercial air tankers on wildland 
fires'' that may be ``used as a reinforcement measure when contract air 
tankers are committed or not readily available.''
    When compared to other fixed and rotary-wing aircraft available for 
aerial fire suppression, MAFFS-equipped aircraft may not be the most 
appropriate for all contingencies that require a Federal response to 
wildfires. At the request of the NIFC, DOD has provided, on a 
reimbursable basis, a broad range of support to the NIFC over the 
years, including DOD aircraft and crews equipped with U.S. Forest 
Service-owned MAFFS; helicopters with water buckets; military ground 
firefighting crews (usually a Federal military or National Guard 
battalion); DOD civilian firefighters; engineering assets; fire 
engines; incident management team members; and incident assessment 
assets. When requested, such assets may assist in firefighting if they 
are available and not committed to executing DOD's primary mission. DOD 
evaluates each request for assistance against six criteria for 
validating Defense Support of Civil Authorities: legality, lethality, 
risk, cost, appropriateness, and impact on readiness.
    Of note, although U.S. Forest Service requests for MAFFS support 
take precedence over State or international requests, the governors of 
California, North Carolina, and Wyoming may, after notifying the U.S. 
Forest Service, activate the Air National Guard airlift wings with 
MAFFS equipment and qualified crews assigned to their respective States 
for fires under State jurisdiction.
    Question. The National Guard 146th Airlift Wing in Point Mugu, 
California has been exemplary as they carry out the Guard's 
firefighting assistance mission. It is my understanding that if they 
were provided an additional 2 to 4 C-130 Js that they would be eager to 
expand their firefighting role. I also understand that Guard wings from 
Nevada, Washington, and other States are eager to undertake this very 
important mission. Do you support the expansion of C-130 firefighting 
program in California and across the West? What can you do to help 
facilitate this expansion?
    Answer. The Federal agencies with primary responsibility for 
fighting wildfires are the U.S. Department of Agriculture and the 
Department of the Interior. The Department of Defense has a supporting 
role. In light of the need for DOD to identify over $100 billion in 
savings over the next 5 years to ensure DOD can execute its primary 
mission of protecting and defending the nation, procurement of 
additional DOD C-130s for firefighting is not a priority.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Last May, Secretary Donley testified that the Air Force 
must consider Airbus as a viable competitor for the Tanker RFP. He 
stated that despite the WTO's findings, Airbus still has the right to 
appeal WTO findings and cannot be legally excluded.
    What will be the consequences if Airbus is granted the Tanker 
contract and the WTO decision is sustained?
    Answer. The Department of Defense believes that full and open 
competition in source selection is the best way to obtain the best 
value for our military and the taxpayers. The source selection will be 
made based on the evaluation factors set forth in the RFP. Since the 
source selection process is ongoing, it would be inappropriate to 
comment on it.
    There are two WTO Panel cases. The final WTO Panel Report on the 
United States case against the European Union (EU), i.e., France, 
Germany, Spain, and the United Kingdom, was published on June 30, 2010. 
An interim WTO Panel Report on the EU case against the United States 
for a different group of alleged subsidies is anticipated in September, 
and the final report is usually issued several months later.
    We have been advised by the Office of the U.S. Trade Representative 
(OUSTR) that there is an appeal process, and that it is expected to be 
beyond 2010, before the entire WTO process for determining the legal 
issues raised by any WTO-inconsistent subsidization is complete. In the 
event that there is a ruling against either Member, and the United 
States and the EU cannot settle the matter by themselves, then the WTO 
would determine the appropriate remedy.
    OUSTR is our national advocate for matters pertaining to WTO rules 
and procedures and represents U.S. interests in prosecution of, or 
defense against, charges of violations of such rules relative to any 
other Member of the WTO.
    Further, the KC-X contract will contain a unique contract clause to 
ensure that any economic impacts to the contractor resulting from the 
decisions of the WTO and the ultimate implementation of those 
decisions, will not affect the prices paid under the tanker contract. 
In this way the U.S. taxpayer is protected.
    Question. How will the DOD account for the harm already committed 
to the U.S. Aerospace industry?
    Answer. The parties of World Trade Organization (WTO) cases are 
bound by WTO rules. Under Article 23 of the Understanding on Rules and 
Procedures Governing the Settlement of Disputes (DSU), WTO Members 
seeking redress of an alleged violation must limit their recourse to, 
and abide by, the rules and procedures of the WTO. No Member has 
unilateral authority under the WTO to take retaliatory action.
    We have been advised by the Office of the U.S. Trade Representative 
that applicable appeal processes will continue beyond 2010. The appeal 
process must be complete before the WTO determines the appropriate 
remedy for any WTO-inconsistent subsidization. WTO remedies for 
actionable subsidies are forward looking in nature and not retaliatory 
for past subsidies. The WTO, not the United States alone, will 
determine what the appropriate remedy will be in these matters in the 
event that the United States and the EU cannot settle the matter by 
themselves.
    Question. I am concerned that you advocate shutting down the C-17 
production line; however, if you award KC-X to Airbus, we would have no 
wide-body military aircraft in production in this country. How does the 
DOD plan to address this potential loss of U.S. capability?
    Answer. I share your concern with respect to future domestic 
industrial base capabilities. The Department continually assesses our 
nation's industrial capabilities to include, among other things, a 
determination of the viability of any military-unique skills, 
processes, facilities or technologies. Ending production of the C-17 
would not materially reduce the capability of the U.S. defense 
industrial base to supply future wide-body military aircraft. From a 
production standpoint, most parts of military aircraft rely on skills 
and facilities similar to those used in commercial aircraft 
manufacturing, so continued domestic production of 747, 767, 777, and 
787 aircraft by Boeing and its subcontractors will maintain that 
capability along with continued production of components on Airbus' A-
330, A-340, A-350, and A-380 by American suppliers. From a design and 
development standpoint, the C-17 is well past its intensive design 
phase, and continued production will have little effect on American 
technical capabilities. Moreover, wide-body lift aircraft involve very 
little military-unique technology. Even as the Department begins 
shutting down the C-17 production line, the technology and processes 
used by the wide-body civilian aircraft manufacturing base are readily 
available, mature, and directly applicable to those used by military 
airlift manufacturers, and American aerospace companies have access to 
engineering talent that can develop the few military-unique aspects. I 
am confident that when the time comes in the future to produce 
additional military airlift, America's aerospace industry will be able 
to respond to the need.
    Question. How is the DOD working with the VA to ensure the 
transition of servicemembers from DOD to VA is seamless and there is 
continuity of care?
    Answer. In order to ensure seamless transition of Service members 
from DOD to VA and continuity of care, DOD established the Department 
of Defense (DOD) Recovery Care Coordinators (RCCs) and a Comprehensive 
Recovery Plan for each Wounded, Ill or Injured Recovering Service 
Member (RSM) who is unable to return to duty within a time specified by 
their Military Department and may be medically separated. RCCs provide 
non-medical support and services to RSMs and their families as they 
transition through recovery, rehabilitation, return to duty or 
reintegrate into the community. The RCCs, in collaboration with the 
medical and non-medical recovery teams, assess the needs of the RSM and 
create a Recovery Plan which guides the RSM through the phases of care 
and transition. Since the RSM owns his/her Recovery Plan, it transfers 
with the Service member if he/she transitions out of the military. If 
the Service member separates from the military, the RCC coordinates 
with the VA OEF/OIF Liaisons, VA Transition Patient Advocates, and 
community programs to assist in establishing continuing non-medical 
support for the Service member and family as they reintegrate into the 
community.
    Additionally, Federal Recovery Coordinators (FRCs), established in 
2007, provide service and support for the most severely injured Service 
members who are unlikely to return to duty. The FRCs, employed by the 
Department of Veterans Affairs (VA), reside in the Military Treatment 
Facilities and VA Medical Centers and provide non-medical care to 
severely wounded, ill and injured Service members and Veterans. The 
FRCs create a Recovery Plan that matches the DOD Recovery Plan.
    To further coordinate efforts, both the FRCs and the RCCs use the 
National Resource Directory (NRD) as a source for resources and 
services. The NRD is an online partnership with Department of Labor, 
DOD, and VA to provide resources for wounded, ill and injured Service 
members, Veterans, their families and those who support them. Over 
10,000 Federal, State and local resources are included in the NRD.
    Question. What is the status of the virtual medical records?
    Answer. The Virtual Lifetime Electronic Record (VLER) is in the 
pilot test phase. In January 2010, DOD's Naval Medical Center San Diego 
and Veteran Affairs San Diego Medical Center conducted a VLER Phase 1a 
pilot and exchanged specific test patient data elements of a 
``Continuity of Care'' document. This pilot demonstrated real time 
implementation of IT standards utilizing the Federal Health 
Architecture's (FHA) Nationwide Health Information Network (NHIN). The 
project highlighted opportunities for improving those standards. The 
next phase, VLER Phase 1b, will build on the Phase 1a data set and 
expand it to additional military treatment facilities, VA Medical 
Centers, and health information exchanges in the Tidewater area in 
Virginia by the fourth quarter of fiscal year 2010 and the Spokane area 
of Washington State by the second quarter of fiscal year 2011.
    The VLER will leverage investments made in the Departments' 
existing electronic health record systems. VLER is a combined 
Department of Defense (DOD) and Department of Veterans Affairs (VA) 
initiative to integrate a portfolio of information sharing capabilities 
for the secure exchange of medical and benefits information among 
various departments of the Federal government and commercial sector 
healthcare providers.
    Question. I appreciate Secretary McHugh's quick response and 
promise to resolve the issue at hand. Unfortunately, I see this as a 
broader problem between Active components and their Reserves 
counterparts. I understand the Reserve forces have different 
requirements because of their nature, but they still deserve the same 
respect, especially since they deploy and operate in the combat zones 
on a regular rotation like their Active counterparts.
    It appears that when both components are deployed, the Active/
Reserve distinction falls away. However, this perception continues to 
remain at home. What efforts have been taken to address this perceived 
inadequate treatment?
    Answer. The DOD is aware of the perceived inequities among the 
Service components and, in the spirit of Total Force, working to reduce 
and eliminate them. Examples are Post Deployment Initiatives, Equipping 
Units and Pre Deployment Training Certifications listed below.
    Post Deployment Initiatives.--Designed to inform Reserve Component 
(RC) members how to access resources in Finance and Budgeting, 
Healthcare, Mental Health, Reintegration, Stress Relief, Counseling. 
The Yellow Ribbon Program (YRP) is a Defense-wide program which ensures 
Service members and their families are ready and resilient throughout 
the deployment cycle using information and access to local, State, and 
Federal organizations. As of April 2010, more than 135,000 Service 
members (83,000 were National Guard members) attended YRP Events.
    Equipping Units.--It is DOD policy that the Guard and Reserve will 
be equipped to accomplish all assigned missions and will have an 
equipment procurement and distribution program that is balanced, 
sustainable and responsive to mission requirements. DOD has made it a 
priority to ensure that any unit, regardless of component, is properly 
equipped for in-theatre missions and for the National Guard domestic 
missions as well.
    Pre Deployment Training Certifications.--Previously, when RC units 
were called up, they had to complete training and be certified at the 
home station, by RC reviewers. Then, just prior to deployment, they 
were required to be certified again by the Active Component (AC) 
reviewers, even though it was for the same qualification. To resolve 
the inequality, AC now accepts the certification of Guard and Reserve 
commanders.
    Of the many initiatives undertaken, these are just a few examples 
that demonstrate the DODs commitment to create a Total Force which 
should ultimately eliminate all perceived inadequacies.
    Question. Proper equipping, regular military construction projects 
and demobilization health concerns seem to remain within the Reserve 
Component. How does the Department of Defense intend to address these 
concerns?
    Answer. The Department is addressing these concerns by ensuring 
that all units are properly equipped prior to going into deployed 
situations, and that each member is supported with comprehensive health 
programs throughout their life. The proper equipping, the effective 
training and the physical-mental well being of each and every Service 
member is a priority of the Department, throughout every stage of 
deployment. This priority is applied to create the Total Force, which 
includes the Reserve Components.
    DOD will always make ensure that the men and women fighting or 
getting ready to fight in theater have the best equipment available, 
regardless of component. The Department has a thorough requirements 
process that balances current operations with future plans. While the 
Reserve Components do not have their own procurement appropriation, we 
have implemented and continue to improve upon the recommendations in 
this area from the Commission on the National Guard and Reserves and 
other stakeholders. This will give DOD and Congressional leaders 
greater visibility and an improved ability to track delivery of 
equipment through the system to the Guard and Reserve.
    There is a direct correlation between readiness and facilities, 
particularly in the Reserve Component (RC). Because the mission of the 
RC is to equip, train, and prepare for war, it is imperative that the 
RC have and maintain quality facilities to meet their operational, 
maintenance, training, and mobilization requirements.
    Post-Deployment Health Assessments are given to each Service member 
prior to redeployment or release from active duty. The assessment 
gathers information on the health concerns or problems that the Service 
member feels are related to deployment. Face-to-face health assessments 
with healthcare providers are provided to determine the need for 
referral for appropriate medical follow-up. Military and Veteran's 
Affairs (VA) providers use the jointly developed Post-Deployment Health 
Clinical Practice Guideline to focus healthcare on post deployment 
problems and concerns of the Service members returning from 
deployments. Initiatives such as Yellow Ribbon events are vital for 
post mobilization healthcare. These events are conducted during pre, 
mid and post deployment phases and are designed to inform RC members 
how to access resources in healthcare, mental health, reintegration, 
stress relief, counseling and suicide prevention.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Secretary Gates, last month the Administration sent over 
a late legislative proposal that would provide up to $205 million to 
the Israeli government for accelerated development and fielding of the 
Iron Dome defense system which is designed to counter short range 
rockets and large caliber artillery shells. The requested authorization 
stated that funding would be provided from offsets as approved by you, 
the Secretary of Defense. Can you share with the committee what 
programs you would consider cutting in fiscal year 2011 to fund this 
new initiative?
    Answer. At this time, no decision has been made as to what programs 
would be reduced to finance the Iron Dome transfer. Assuming the 
Congress provides the requested authority, we will make the specific 
program reductions during the execution of the enacted fiscal year 2011 
budget.
    Question. Secretary Gates, last spring you announced an initiative 
to replace contractors and hire more than 13,000 government civilians 
in fiscal year 2010. This initiative was expected to achieve $900 
million of savings in 2010 alone. Can you update the Committee on the 
number of positions that have been in-sourced and what savings have 
being realized?
    Answer. As of March 31, 2010 (end of the 2nd quarter), the 
Department has established approximately 15,270 new civilian 
authorizations as a result of in-sourcing contracted services. The 
Department's in-sourcing efforts to rebalance the workforce, rebuild 
critical capabilities internally, and reduce operational risk are 
focused on services being performed by the private sector that are more 
appropriately performed by DOD personnel. In-sourcing is a component of 
the Department's broader Total Force management policies, focused on 
ensuring we have the capacity, skills, and resources to carry out our 
missions and operations.
    While the fiscal year 2010 budget reflected reductions of 
approximately $900 million as a result of in-sourcing, our efforts are 
not focused on, or driven solely by, cost. More than 50 percent of the 
in-sourcing actions executed to date in fiscal year 2010 did not 
consider cost as a deciding factor but were required to return 
inherently governmental or exempt (job functions closely associated 
with inherently governmental or needed to support readiness/management 
needs) services to government performance. Due to our focus on other 
factors such as job function rather than cost alone the Department is 
not centrally tracking savings realized from individual in-sourcing 
decisions.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
    Question. In order to keep America on the cutting edge of new 
weapons and defense systems, I fail to recognize the strategic value in 
closing the only active production line for long-range strategic 
airlifters when there is no replacement being developed and as the 
operational fleet is being used up faster than expected.
    You may recall that I vocalized the point during the Defense 
Subcommittee on Appropriations hearing on the DOD budget. You responded 
by explaining that America's wide-body civilian aircraft manufacturing 
base would more than adequately supplant military aircraft 
manufacturers in the event that the nation may need to surge its 
production of military airlifters in response to a national emergency 
or even another humanitarian crisis somewhere around the world. Is this 
an accurate interpretation of your response?
    Answer. Yes. Requirements for commercial cargo aircraft continue to 
rise for outsize and heavy lift capability, including planes that can 
operate in remote and austere environments. Numerous industries--
including construction, mining, oil and gas equipment, power 
generation, railroad, and satellite companies--have requirements to 
quickly transport heavy, oversize equipment. The technology and 
processes used by the wide-body civilian aircraft manufacturing base 
are readily available, mature, and directly applicable to those used by 
military airlift manufacturers. I am confident that when the time comes 
in the future to produce additional military airlift, America's 
aerospace industry will be able to respond to the need.
    Question. If not, will you please clarify your answer that: ``There 
is significant wide-body aircraft production capability in the United 
States. And we have more than enough time to adjust it to a military 
production line if we need to.''
    Answer. The development and manufacturing know-how resident in the 
commercial aviation sector--particularly in the field of wide-body 
aircraft--can be easily adjusted to support future military airlift 
requirements that may arise. Moreover, the C-17s set to roll off the 
production line, coupled with those already in the field, will have a 
very long lifespan and provide a substantial capability to support 
strategic airlift requirements over the next 30 years.
    Question. In particular, please provide me with a better 
understanding of your basis of evidence for concluding that our 
civilian airplane manufacturers can adequately replace the expertise 
and engineering know-how of the manufacturers of military strategic 
airlifters, which require specifications not common to civilian 
aircraft.
    Answer. The Department's industrial capabilities assessments 
include, among other things, a determination of the viability of any 
essential industrial/technological capabilities. Transport airframes, 
as well as many of their high-value subsystems, are commercial, off-
the-shelf (COTS) or COTS derivative items. These high-value subsystems 
include engines, avionics, auxiliary power units, environmental control 
systems, and ground proximity warning systems. Transport airframes and 
subsystems rely heavily on commercial technologies, processes, and 
products and will be sustained by other ongoing and planned military 
and commercial aerospace programs. The non-COTS items in a military 
transport such as cargo floor reinforcement and loading systems are not 
considered essential military capabilities.
    Question. Global lift distinguishes America above all other 
militaries. How can we preserve that capability if we allow all the 
engineers' and designers' specialized skills to atrophy and then never 
recover them?
    Answer. Continued production of global lift aircraft would do 
little to stem the loss of military-unique skills, processes, 
facilities and technologies due to the high commercial off-the-shelf 
content. Military-unique aerospace design skills at risk include 
hypersonics, canopy and cockpit design and integration, stores 
management and weapons separation, aerodynamics, etc.--none of which 
would be maintained by continued production of global lift aircraft. 
From a design and development standpoint, global lift aircraft are 
based on commercial products or derivatives of commercial products and, 
therefore, should not cause any reduction in any inherent design 
capabilities. There is very little military-unique technology involved 
in developing or manufacturing airlift aircraft.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell
    Question. Last year, Fort Campbell suffered 11 soldier suicides, 
apparently one of the highest figures of any military post. Have other 
military installations, with units facing similar operational tempo as 
those housed at Fort Campbell, experienced comparable absolute numbers 
of suicides and similar rates of suicide? If not, and if the suicide 
rate at Fort Campbell is uniquely high, has the Army conducted a formal 
inquiry into the suicide rates to determine what accounts for the high 
number?
    Answer. Yes, while Fort Campbell had the highest number of suicides 
in 2009, other bases with similar populations and unit deployment 
profiles had high suicide rates as well. For all of 2009, Fort Campbell 
(21), Fort Hood (11), Fort Stewart (10), Fort Carson (9), and Schofield 
Barracks (7) accounted for 39 percent of Active Duty deaths (162). As 
of June 25, 2010, Fort Hood (11), Joint Base Lewis McChord (8), Fort 
Bragg (6), and Fort Carson (5), in the top of the list, account for 51 
percent of the 74 Active Duty suicide deaths this year. When compared 
to the same point last year (June 25), the Army had 87 suicide deaths. 
The Army's senior leadership is committed to sustaining our current 
emphasis on this problem.
    The Army sent a team from the Public Health Command to Fort 
Campbell in June 2009 to examine issues related to their suicide trend. 
This team scrutinized organizational factors such as the length of time 
small unit leaders were in their leadership position, total time each 
unit leader had in their Army career, and specific types of formal or 
informal people skills and leadership training leaders received to 
determine if any of these factors played a role. This team did not find 
any significant patterns or trends that accounted for Fort Campbell's 
rate.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                         global defense posture
    Question. I believe the GAO review of our European force structure 
plans will show the anticipated savings moving the Army from Heidelberg 
to Wiesbaden will not materialize, so I am at a loss as to why a 
component of EUCOM needs its own headquarters of the proposed 
magnitude. I hope as part of your review of reducing overhead cost and 
redundant capabilities you relook at that decision and evaluate 
Stuttgart at a consolidation location, where EUCOM, Army Europe and 
even AFRICOM can share the most technical and expensive resources. The 
Army request for a $91 million SCIF and a $120 million Command and 
Battle Center at Wiesbaden are prime examples.
    Mr. Secretary, in light of your comments on needing to reduce 
redundant capabilities and overhead cost I am interested in why you 
believe, in our current fiscal situation, we need to expend our limited 
taxpayer dollars in Europe when we can achieve the same readiness 
capabilities by stationing more of our forces in America, where we can 
provide jobs for local communities and stability and support for our 
soldiers and their families. Will you reconsider the Army's planned 
move to Wiesbaden or review the Milcon requirements at that location 
that could be shared with the facilities at Stuttgart?
    Answer. The consolidation of 7th Army Headquarters/U.S. Army Europe 
(HQ/USAREUR), along with its signal and intelligence elements, at 
Wiesbaden, Germany will allow the closure of three bases in Europe, 
resulting in a reduced footprint, while providing the facilities 
necessary to support current and future operations in the U.S. European 
Command (USEUCOM) area of responsibility (AOR). The Department is 
currently executing fiscal year 2009 funding associated with the 
Wiesbaden consolidation. Military Construction funding included in the 
fiscal year 2011 President's budget request would fund construction of 
the second increment of the Command and Battle Center, an Information 
Processing Center, and a Sensitive Compartmented Information Facility. 
The Department determined that it continues to make operational sense 
to move forward with this initiative, and that savings realized should 
equal implementation costs by fiscal year 2016.
    The Department re-examined the consolidation of 7th Army HQ/USAREUR 
at Wiesbaden in the 2010 Quadrennial Defense Review and validated the 
original decision. Consolidation at Stuttgart was not considered as 
USEUCOM, U.S. Africa Command (USAFRICOM), and other supporting elements 
are located there; we are concerned about additional stress on these 
facilities, which could overwhelm capacity. We will continue to examine 
opportunities for military construction efficiencies and shared 
facilities.
                              south korea
    Question. I am concerned about our future commitments in 2012 and 
beyond. The cost of housing, schools, hospitals, clinics, fitness 
centers, recreation facilities, child care centers, youth centers, and 
other support facilities such as commissaries and PX exchange services 
will be staggering. We have not been given any cost estimates on these 
facilities so we have no way to evaluate the total cost of a decision 
of this magnitude.
    Mr. Secretary, have you approved this new plan and can you give us 
an out-year cost we will be asked to commit the U.S. taxpayer to for a 
major shift in strategy such as this?
    Answer. I am also concerned about costs, but my true motivation is 
to support the deployed troops and their family members in a time of 
shrinking budgets and fiscal constraints. Yes, I approved a Tour 
Normalization effort that allows for command-sponsorship of 
approximately 4,900 families in South Korea by 2012. The funding for 
this requirement is contained in the President's fiscal year 2011 
budget request, which includes $536 million across fiscal year 2011-
2015 for Tour Normalization primarily to provide housing in the form of 
the Overseas Housing Allowance. As you note, these families require 
supporting infrastructure, and the intent of the Yongsan Relocation 
Plan and the Land Partnership Plan is to cover these requirements (both 
of which include cost sharing from the Republic of Korea). This covers 
the infrastructure costs for schools, hospitals, clinics, fitness 
centers, recreation facilities, child care centers, youth centers, and 
other support facilities. I will continue to closely monitor changes in 
timelines and requirements as I consider how to most cost effectively 
implement this plan. If there are additional costs, then they will be 
included in the President's fiscal year 2012 budget request after the 
Department considers all issues for the next budget submission.
                                 ______
                                 
            Questions Submitted by Senator Robert F. Bennett
    Question. For the record, Secretary Gates, was anyone at the 
Pentagon consulted about the national security implications prior to 
NASA making a decision to cancel the Constellation program? Could you 
state, for the record, what are those national security implications?
    Answer. During the Augustine Committee data collection efforts, 
research analysts working on behalf of the OSTP asked staff from the 
Office of the Under Secretary of Defense for Acquisition, Technology, 
and Logistics/Industrial Policy for a copy of the Department's most 
recent Solid Rocket Motor Industrial Capabilities Assessment report to 
Congress, which is dated April 2, 2009. Additionally, the committee 
analysts discussed the findings and results of the report with the 
Industrial Policy staff. No official interaction took place on the 
matter above the analyst and staff levels of our respective 
organizations. To the best of our knowledge, there was no other 
interaction.
    Our most complete assessment of the evident national security 
implications is captured in our June 2010 report titled, Solid Rocket 
Motor Industrial Base Interim Sustainment Plan To Congress.
    Question. Just last week, Administrator Bolden sent a letter 
notifying the Congress of the agency's intention to ``pace'' 
Constellation efforts for the remainder of this fiscal year. This 
latest action will have an immediate and devastating impact on the 
aerospace workforce, including the likely layoff of as many as 2,500 
workers from within the solid rocket motor industry alone.
    Secretary Gates, was anyone at the Pentagon consulted prior to this 
most recent decision by NASA to ``pace'' the remainder of the fiscal 
year 2010 Constellation effort?
    Answer. To the best of our knowledge, no official interaction took 
place between NASA and the DOD relative to NASA's intention to ``pace'' 
the Constellation effort.
    Question. Secretary Gates, it is extremely likely that this panel 
will have acted on the Administration's fiscal year 2011 budget submit 
long before the Department delivers its plan to sustain the solid 
rocket motor industrial base. Even in the absence of the Department's 
recommendations, this panel is being asked to make significant 
budgetary decisions that affect the future viability of this industry. 
Specifically, not yet clear is the Department's commitment to 
sustaining the Minuteman propulsion system. Also not yet clear is 
whether the Missile Defense Agency will respond to congressional 
concerns, and sustain production of the Ground-based Mid-course Defense 
missile supplier base, or sustain the SM-3 Block IA until Block IB is 
proven.
    In the absence of your Department's official recommendations via 
delivery of the solid rocket motor industrial base sustainment plan, 
what path would you suggest for this committee? What can you share with 
this panel now about the pending plan's recommendations? For example, 
will the implementation plan emphasize investment in research and 
development, continued production via essential warm line programs, or 
both? It seems only prudent that this committee recommend sustained low 
rate production for all our large solid rocket motor systems--including 
both the land-based and submarine-launched strategic deterrent 
missiles, and all our deployed missile defense boosters. These low rate 
production programs ensure that the industrial base is able to meet the 
aging and obsolescence-related needs of current deployed systems, and 
prepared to develop our next generation systems.
    Answer. The Department submitted an interim SRM Sustainment Plan in 
June 2010 that laid out the options DOD is considering as it develops 
its final sustainment plan. The Department is working aggressively to 
complete a full sustainment plan in keeping with the end of September 
deadline discussed in the preliminary plan. It is premature to provide 
the specific approach the Department will pursue as the plan will 
include resource commitments and potential policy considerations.
    As indicated in the interim plan, the Department needs to continue 
its efforts to develop an investment strategy that supports our 
strategic requirements now and well into the future, while at the same 
time motivating the suppliers to ``right-size'' the industrial capacity 
to better reflect the reality of the future needs. This investment 
strategy must include adequate basic science and technology, 
demonstration and validation programs, and production programs to 
sustain a viable, innovative, and competitive industry. The Department 
believes that the appropriate investment strategy will include elements 
of the following:
  --Funds sufficient to maintain properly qualified production 
        processes.
  --Funds sufficient to exercise production skills.
  --Funds sufficient to support aging studies, to maintain safety and 
        reliability at appropriate levels.
  --Funds sufficient to support design and development efforts directed 
        at improving and sustaining current designs.
  --Funds sufficient to support design and development efforts for a 
        successor class missile, the SRM concepts from which could be 
        employed for both Navy and Air Force needs, as well as other 
        DOD programs.
    The DOD strongly supports both investments in research and 
development and in production. The DOD is committed to supporting our 
ongoing force structure and ensuring we have a robust base in support 
of that effort. However, this does not necessarily mean we support 
continued warm-line programs on all our large SRM programs. The 
Department believes that production continuance alone, no matter where 
directed, will be insufficient to protect and/or restore critical 
technical and creative skills necessary for future missile production 
and current missile sustainment.
    The Department also believes the ``right-sizing'' process will 
likely come with a cost that will be seen both as a unit cost increase 
for DOD systems and potentially, near-term increases in facility costs.
                                 ______
                                 
            Questions Submitted to Admiral Michael G. Mullen
            Questions Submitted by Chairman Daniel K. Inouye
                                somalia
    Question. Admiral Mullen, recent press reports have highlighted the 
growing presence and influence of foreign fighters and al-Qaeda in 
Somalia's Islamist al-Shabab group. How would you assess the threat 
posed by these groups to western interests in East Africa? Is Somalia 
becoming the ultimate safe haven for al-Qaeda and foreign fighters?
    Answer. [Deleted].
    Question. Admiral Mullen, do you have sufficient resources to 
adequately focus on the situation in Somalia?
    Answer. I appreciate your support for the resources requested in 
the President's budget to support Somalia, including those for enabling 
activities, such as ISR. We are comfortable that our request will 
provide the appropriate level of resources to address challenges in 
Somalia, a complex nation that includes a transitional government 
struggling to establish itself with the support of the African Union.
    Question. Admiral Mullen, do you consider the Somali al-Shabab 
group a regionally focused threat or a direct threat to the U.S. 
homeland?
    Answer. [Deleted].
         impact of changing health benefits on service members
    Question. Admiral Mullen, this is a very different military from 
the one I joined many years ago. Today, most service members are 
married and have children. The cost of maintaining this all-volunteer 
force is much higher than in my day. As such, there is a lot of 
discussion about the rising personnel costs and finding ways to curtail 
the growth.
    What would the impact of reducing benefits be on the individual 
soldier? We're currently providing terrific healthcare coverage, so 
would a change to that break the faith with the soldier and negatively 
impact his or her willingness to serve?
    Answer. Yes, a reduction in medical benefits could break the faith 
with the soldier and negatively impact his or her willingness to serve.
    In my CJCS 2009-2010 Guidance, I reemphasized that it is our core 
responsibility to win wars while caring for our people and their 
families. I believe that as a Nation, we have the solemn obligation to 
fully support our service members and their families. I also believe 
that our culture must value and support a continuum of care that lasts 
a lifetime and encompasses military members, retirees and their 
families. In order to make this cultural shift, there must be constant 
attention and cooperation between the Joint Staff and the Chiefs, and 
close work with the Office of the Secretary of Defense and the 
Department of Veteran Affairs.
    The country faces mounting deficits and growing debt. This is going 
to require difficult budget decisions for our government. As we carry 
out our assigned missions and reset a tired force, we must guard 
against growing hollow. The quality of the force remains paramount.
    The Military Health System (MHS) portion of the Defense budget is 
steadily increasing. Currently, private sector healthcare costs are 
increasing at a rate of about 10 percent per year.
    In order to engage this issue, we have looked at implementing 
several healthcare initiatives that could generate future savings for 
the department. These initiatives include:
    Administrative.--Medicare Payment Matching Initiative/Sole 
Community Hospital; Fraud Waste and Abuse investigation and reduction; 
and Medical Supply Chain Standardization.
    Benefit.--Uniformed Services Family Health Plan (USFHP) Medical-
Eligible Initiative; TRICARE Beneficiary Fee Increase; and TRICARE 
Survey/Demonstration for Opt-Out Initiative.
    There has been no discussion of reducing the benefit to the AC and 
RC, rather we are increasing benefits in the areas of mental health and 
traumatic brain injury, and rehabilitative care while adding innovative 
programs such as medical centered home to improve continuity and 
quality while potentially decreasing long term costs. Likewise, there 
is no indication from DOD leadership that they intend to reduce the 
medical benefits to the AC and RC and their families. The wars in 
Afghanistan and Iraq will end and we must think today about how the 
U.S. military will need to adapt to future threats. The health-of-the-
force investments that we make today will pay dividends in the national 
security tomorrow and well into the next generation.
                                 china
    Question. Admiral Mullen, recent press reports have highlighted 
growing Chinese investments in their military capabilities. As we 
continue to focus our efforts on Iraq, Afghanistan, Yemen and now 
Somalia, do we have sufficient resources focused on the challenges 
posed by an increasingly capable Chinese military?
    Answer. Secretary Gates and I have placed a priority on ensuring 
that our service members have the tools they need to do their job, 
while continuing to prepare for potential contingencies across the 
spectrum of conflict. China has made significant investments in modern 
warfighting capabilities, particularly over the past two decades. While 
not directed at China specifically, it is of vital importance that the 
United States is positioned to prevail against any potential adversary, 
including those with advanced conventional and/or Anti-Access/Area 
Denial (A2/AD) capabilities. Some examples of programs in the fiscal 
year 2011 budget that sustain the United States' long-standing edge in 
conventional warfighting include:
  --Electronic Warfare.--Procurement of 12 EA-18G ``Growler'' aircraft 
        to recapitalize four expeditionary electronic attack squadrons.
  --Cyber Command.--Establishment of U.S. Cyber Command to organize and 
        standardize DOD cyber practices and operations in defense of 
        the Global Information Grid (GIG).
  --Joint Strike Fighter.--Procurement of 42 aircraft in fiscal year 
        2011. JSF will ensure continued air dominance over current--and 
        future--battlefields.
  --Shipbuilding.--Procurement of 10 ships, all of which would be 
        extremely relevant in a conventional campaign--2 Virginia-class 
        SSNs, 2 Arleigh Burke class destroyers, 2 Littoral Combat 
        Ships, 1 Landing Helicopter Assault-Replacement (LHA-R), 1 
        Mobile Landing Platform (MLP), and 2 Joint High Speed Vessels 
        (JHSVs).
    Question. Admiral Mullen, do you see a time in the near future 
where we will be able to improve our military to military ties with 
China?
    Answer. I believe there is potential for an improved military-to-
military relationship with China in the near future; however, China has 
recently been unwilling to engage with the U.S. military. While 
disagreements will exist, these must not prevent cooperation in support 
of our mutual interests and our international responsibilities. I 
believe that China's military leadership will recognize the importance 
of continuing to work together with the United States to promote 
regional stability, in spite of our differences. Therefore, my 
invitation to my counterpart, PLA Chief of General Staff, General Chen 
Bingde, remains open and I look forward to meeting him here in 
Washington, and reciprocating the visit in Beijing to discuss how we 
can better define our military-to-military relationship.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Admiral Mullen, there is a so-called ``fighter bathtub'' 
issue looming over the future of the Air National Guard. In my role as 
the Co-Chair of the Senate National Guard Caucus, I am very concerned 
that our plan for the Air Force does not fully leverage the benefit of 
the Air National Guard's greater cost-effectiveness or the greater 
experience of its pilots and maintenance crews compared to the Active 
Component.
    Can you explain your vision for the role of the Air National Guard 
in the future Air Force mission? Do you believe that the current Air 
National Guard legacy fighter fleet should be re-capitalized, or do you 
believe that as fighter wings are retired, those states' Air Guard 
units should assume new missions with smaller counter-narcotic aircraft 
or even unmanned airframes?
    Answer. The Air National Guard (ANG) and Air Force Reserve 
Component (AFRC) are full partners in the Air Force's Total Force 
Integration (TFI), providing critical capabilities for the Joint 
Warfighter across the full spectrum of conflict. The fiscal year 2011 
President's budget reflects a complete review of the Air Force fighter 
requirement which was developed based on the Secretary of Defense's 
guidance for Development of Forces, through examination of the current 
and future strategic environment, and using high fidelity campaign 
modeling.
    Today the ANG flies both the newest and some of the oldest fighter 
aircraft in the Air Force inventory. The fiscal year 2010 budget 
retired 257 of the Air Force's oldest fighter aircraft and 
recapitalized a number of ANG units with newer and more capable 4th 
generation fighters from the active inventory. In fiscal year 2011 F-
22s are being delivered to the 154th Wing in Honolulu, Hawaii, and F-22 
ANG and AFRC TFI programs presently exist at Langley, Holloman, and 
Elmendorf AFBs. As the F-35 is delivered to both the Active and Reserve 
Component, additional 4th generation aircraft will become available to 
recapitalize older ANG and AFRC fighters.
    The Air Force is refining the current TFI approach to develop a 
future TFI game plan based on strategic and operational use of the 
Active and Reserve Components. The Air Reserve Component will provide 
critical capabilities for the Joint Warfighter in fighters as well as 
new and emerging missions that capitalize on the ARC's experience, 
expertise, and expeditionary capacity.
    Question. Admiral Mullen, Senator Bond and I recently sent a letter 
to Chairman Inouye and Vice Chairman Cochran on behalf of the Senate 
National Guard Caucus requesting $870 million for the National Guard 
and Reserve Equipment Account. Even though the National Guard and 
Reserves have shouldered more than their share of the operational 
responsibilities at home and abroad, they still lag behind the Active 
Component in terms of getting the equipment they need. Why do they 
still face this shortfall, and what is the Department's long-term plan 
for fixing it?
    Answer. Over the past decade the Department of Defense has made 
tremendous strides in providing the best available equipment across all 
components. There was a time when the Reserve Components lagged 
significantly behind the Active force in both the quantity and quality 
of their equipment requirements, but in my assessment, this gap has 
closed significantly.
    Since 9/11/2001, our priority of effort has been to equip deploying 
units first. The Department has steadily improved the readiness posture 
of the Reserve Components, clearly transforming them from a Strategic 
Reserves to an Operational Force. Given the exigencies of fighting two 
simultaneous wars with all components participating, Department leaders 
realize that all of our forces need to be equipped appropriately. In 
2007, the Department issued directives to better manage the Reserve 
Components as an Operational Force. One key aspect of this shift has 
been to properly equip the Reserve Components with modern, 
interoperable equipment which has contributed to both the 
transformation and success of our national security strategy.
    The Department has also been focused on critical equipment 
requirements that sustain efforts which protect the home front. We have 
improved the percentage of National Guard Critical Dual-Use equipment 
available to the Governors by 22 percent over the last 5 years. This 
has occurred through an increase of overall Reserve Component equipment 
funding from approximately $3.3 billion in 2005 to just over $9.9 
billion in 2009, as well as additional funding from the Congress.
    The Army Equipping Strategy published in 2009 specifically 
acknowledged the need for Critical Dual-Use equipment to be filled at 
80 percent or better. While the overall on-hand rate stands at 83 
percent, due to the quantity of equipment deployed to support 
contingency requirements, only 65 percent of Critical Dual-Use 
equipment is currently available for use here at home. However, the 
Army projects being able to reach a fill rate of 87 percent by March 
2011. No unit has failed to complete any assigned homeland mission in 
the past due to equipment shortages because the risk has been mitigated 
through the use of the Emergency Management Assistance Compact between 
States.
    The Deputy Secretary of Defense, in an effort to lessen equipment 
shortages, directed implementation of a plan that has been executed 
since August 2009 that properly equips deployed units, while sustaining 
a trained and ready force. In doing so, the Department is striving to 
ensure the Reserve Components have the right equipment, available in 
the right quantities, at the right time, and at the right place to 
support the Total Force mission. As an example, the Army committed to 
resolve truck shortages--Family of Medium Tactical Vehicles (FMTVs)--
that support our ground forces. The Army's FMTV modernization plan 
projects that both the Army National Guard and Army Reserve will be 
equipped at 100 percent fill by fiscal year 2015. In the interim, the 
Army National Guard is modernizing its 900 Series trucks in order to 
maintain operational fleets.
    The Air Force has strived to place emphasis on modernizing legacy 
aircraft and associated equipment across the Total Force. As an 
example, modernization efforts of the C-5A, flown by 3 National Guard 
units, are underway with modifications to its aircraft defensive 
systems which permit operations in hostile environments. Without these 
modifications, C-5As are not permitted to enter certain airfields in 
key areas of operation. An upgrade to this system is estimated at $34 
million.
    The Department's next step is to maximize efforts to implement 
recommendations articulated in the Quadrennial Defense Review and other 
strategic planning efforts that support the nation's use of the Reserve 
Component. This is especially important as the Services address the 
long-term funding needed to reduce equipment deterioration created by 
multiple or sustained deployments. We will continue to replace aging 
and maintenance-intensive equipment across the Services and modernize 
capabilities to ensure effective inter-operability.
    Additionally, we are pressing to implement the recommendations 
outlined within the Commission on the National Guard and Reserve 
Report, many of which target the improvement of equipment readiness and 
transparency of the Reserve Components. This includes meeting funding 
requirements for Reserve Component equipment procurement as well as 
ensuring the visibility, transparency, and accountability of National 
Guard and Reserve equipment from planning, programming, and budgeting, 
through acquisition and fielding.
    We will continue to work to close the remaining equipment gaps 
between the Active and Reserve Components. Your continued support and 
programmed funding in this endeavor has been essential and greatly 
appreciated.
                                 ______
                                 
               Question Submitted by Senator Patty Murray
    Question. Still, I am still very concerned about the health and 
welfare of our service members with visible and invisible wounds. 
Recent events with the Army Warrior Transition Units have demonstrated 
that we still have a lot of work to do to ensure the health and welfare 
of the servicemembers remaining on active duty or transitioning into 
the VA system.
    Admiral Mullen, I know combat related stress is a great concern for 
you and each of the service chiefs, how is the DOD improving upon the 
existing mental health programs? Are you implementing new programs?
    Answer. A broad range of programs have been designed and 
implemented to sustain the health and well being of active and reserve 
Service members and their families before, during, and after 
deployment. There has been a series of both operational and in garrison 
programs implemented to include bolstering our Combat stress teams in 
theater; developing stress control programs to prepare Service members 
to better cope with combat and deployment stress; programs that target 
medical providers who may be experiencing provider fatigue; 
implementation of a DOD-wide Total Force Fitness program as an approach 
to strengthen resilience and enhance endurance to maintain optimal 
military force readiness; Wounded, Ill and Injured Program addressing 
reintegration needs of the wounded, ill, and injured striving to be 
responsive to the needs of our wounded warriors and their families; 
reintegration assistance programs across the DOD to assist with 
reintegration of the family. The Defense Centers of Excellence (DCoE) 
for Psychological Health and Traumatic Brain Injury (TBI) provides a 
number of education and outreach programs to include a 24/7 help-line; 
real warriors campaign multimedia public education effort which combats 
stigma associated with seeking psychological healthcare and encourages 
utilization of available psychological health resources. In addition, 
the Joint DOD and VA Health Executive Council's (HEC) Mental Health 
Working Group is an expert panel who plan and implement procedures to 
create a seamless transition of care aimed at improving the access, 
quality, effectiveness, and efficiency of mental health services for 
all Active Duty, National Guard, Reserve, Veterans, and their families.
    Although we have embarked on many programs to provide the best 
possible psychological healthcare for our warriors and family members, 
I still have concerns with the invisible wounds and we still have work 
ahead of us. The OASD-HA Office of Strategy Management recently 
conducted a Psychological Health/TBI Program Review which detected gaps 
in existing programs. Additionally, the DOD has been slow to engage in 
opportunities for collaboration with the civilian sector academia and 
pure scientific research in the area of brain mapping and psychological 
health research; the lack of comprehensive entry psychological 
evaluations is evident and we lack the resources (professional staff, 
funding and time) to conduct more detailed and comprehensive 
psychological health assessment of Service recruits and candidate prior 
to and during initial induction into the military. We as a Department 
need to stratify our outlook beyond the current issues and align our 
psychological health goals and objectives in the manner of a preemptive 
strike and not in the manner as a reaction to a strike. As I have 
stated before, how we take care of those who are wounded and their 
families, and the families of the fallen, is right at the center of my 
life. They've done exactly what we've asked them to do. They've put 
themselves in harm's way, and many of them have not come back. There 
is, in my view, no higher duty for this nation, or for those of us in 
leadership positions, than to care for those who sacrifice so much and 
who must now face lives forever changed by wounds both seen and unseen. 
I think leaders throughout the land and throughout communities in our 
country need to reach out and make sure that we are meeting the needs 
of these great, young Americans who sacrificed so much. And not just 
the military members, but their families. And while we've made a lot of 
progress in the last several years, we still have an awful long way to 
go.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Subcommittee will reconvene on 
Wednesday, June 23, at 10:30 a.m., to hear testimony from 
public witnesses. Until then, we will stand in recess.
    Thank you.
    [Whereupon, at 12:10 p.m., the subcommittee was recessed, 
to reconvene at 10:30 a.m., Wednesday, June 23.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, JUNE 23, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye and Cochran.

                       NONDEPARTMENTAL WITNESSES

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. I would like to welcome everyone to this 
hearing where we receive public testimony pertaining to various 
issues related to the fiscal year 2011 Defense appropriations 
request.
    Because we have so many witnesses today, I would like to 
remind each witness that they will be limited to no more than 4 
minutes apiece. But I can assure you that your full statements 
will be made part of the record.
    And at this point, I would like to recognize the vice 
chairman of this subcommittee, Senator Cochran of Mississippi.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much.
    I am very pleased to join you and welcome our witnesses who 
are here today to talk about their views in connection with the 
Defense Department's fiscal year 2011 budget.
    We appreciate your assistance and the time you have taken 
to prepare your remarks and to present them to us today. Thank 
you very much.
    Chairman Inouye. The subcommittee has divided the witnesses 
into four panels. And the first panel consists of Mr. H. James 
Gooden; Rear Admiral Casey Coane of the Navy, retired; Ms. 
Janet Hieshetter; and Mr. John R. Davis.
    Mr. Gooden, are you prepared?
STATEMENT OF H. JAMES GOODEN, CHAIRMAN, BOARD OF 
            DIRECTORS, AMERICAN LUNG ASSOCIATION
    Mr. Gooden. Yes, I am.
    Chairman Inouye. Please proceed.
    Mr. Gooden. Mr. Chairman, Mr. Vice Chairman, and members of 
the subcommittee, my name is Jim Gooden, and I am the chairman 
of the board of directors of the American Lung Association. I 
am honored to testify today.
    The American Lung Association was founded in 1904 to fight 
tuberculosis, and today, our mission is to save lives by 
improving lung health and preventing lung disease. We 
accomplish this through research, advocacy, and education.
    The American Lung Association wishes to call your attention 
to three issues for the Department of Defense's fiscal year 
2011 budget. Number one, the terrible burden on the military 
caused by tobacco use and the need for the Department to 
aggressively combat it by implementing recommendations from the 
Institute of Medicine. Two, the importance of restoring the 
original intent and full funding for the Peer-Reviewed Lung 
Cancer Research Program. And number three, addressing the 
health threat posed by burn pits in Iraq and Afghanistan.
    First, I would like to speak to the need for the Department 
of Defense to better combat tobacco use. Tobacco use remains a 
significant problem for the military. The Department of Defense 
has started moving in the right direction with making 
submarines smoke free, as well as other positive actions. But 
much more is needed to curb tobacco use in the military. Here 
are a few statistics to point out to what the Department of 
Defense is up against.
    While smoking rates among Active Duty personnel have 
essentially remained steady since 2002, rates among deployed 
personnel are significantly higher, and alarmingly, more than 1 
in 7, or 15 percent, of Active Duty personnel began smoking 
after joining the service. This alarming use of tobacco in the 
military has severe consequences and impacts troop readiness. 
It impairs physical capacity, vision, and hearing, and 
increases the chance of physical injury and hospitalization.
    Furthermore, the healthcare expenses associated with these 
behaviors have cost the Department of Defense billions of 
dollars. The Pentagon spends over $1.6 billion on tobacco-
related medical care, increased hospitalization, and lost days 
of work. Lost productivity costs are primarily caused by 
smoking breaks and greater absenteeism.
    Last summer, the prestigious Institute of Medicine, or IOM, 
issued a report entitled ``Combating Tobacco Use in Military 
and Veteran Populations.'' The IOM recommendations include 
common-sense approaches to eliminating the use of tobacco in 
the U.S. military. Some of the IOM's recommendations include 
tobacco-free policies should be phased in, starting with 
military academies and officer candidate training programs, 
followed by new enlisted accessions and then all Active Duty 
personnel.
    Also, end the sale of tobacco products on all military 
installations. Ensure that all DOD personnel have barrier-free 
access to tobacco cessation services and that healthcare and 
health promotion staff are trained to help tobacco users quit.
    The American Lung Association recommends that the 
Department of Defense implement all recommendations called for 
in the 2009 IOM report, and we ask for this subcommittee's 
leadership in ensuring that that happens. Second, the American 
Lung Association strongly supports the Lung Cancer Research 
Program (LCRP) in the Congressionally Directed Medical Research 
Program and its original intent to research the scope of lung 
cancer in our military.
    We urge this subcommittee to restore the funding level to 
the fiscal year 2009 level of $20 million, and we request that 
the 2011 governing language for the LCRP be returned to its 
original intent as directed by the 2009 program, which directed 
the funds to be awarded competitively and to identify, treat, 
and manage early curable lung cancer.
    We urge that the national registry be established to track 
all personnel who were exposed to burn pits while in Iraq. The 
American Lung Association also recommends that the DOD begin 
immediately to find alternatives to this method of waste 
disposal.
    Mr. Chairman, in summary, our Nation's military is the best 
in the world, and we should do whatever necessary to ensure 
that the lung health needs of our armed services are fully met.
    Thank you for this opportunity.
    Thank you very much, Mr. Chairman.
    Chairman Inouye. Just a matter of curiosity, when I was a 
young soldier, we were given K-rations for lunches, and in each 
pack, there was a little pack of cigarettes. And then you were 
able to buy cigarettes, if you wished to, for 5 cents a pack. 
When were these practices ceased?
    Mr. Gooden. To that, I will have to defer to my other 
specialists that are here with me from the American Lung 
Association, and if they cannot answer at this time, we will 
gladly be able to put that on the record.
    Chairman Inouye. Thank you very much.
    Mr. Gooden. Thank you, sir.
    [The statement follows:]
                   Prepared Statement of James Gooden
    Mr. Chairman and members of the Committee, my name is James Gooden 
and I am the Chairman of the Board of Directors of the American Lung 
Association. I am honored to testify today.
    The American Lung Association was founded in 1904 to fight 
tuberculosis and today, our mission is to save lives by improving lung 
health and preventing lung disease. We accomplish this through 
research, advocacy and education.
    The American Lung Association wishes to call your attention to 
three issues for the Department of Defense's (DOD) fiscal year 2011 
budget: the terrible burden on the military caused by tobacco use and 
the need for the Department to aggressively combat it; the importance 
of restoring funding for the Peer-Review Lung Cancer Research Program 
to $20 million; and the health threat posed by burn pits in Iraq and 
Afghanistan.
    First, the American Lung Association is concerned about the use of 
tobacco products by troops within the military. The effects of both the 
health and performance of our troops are significantly hindered by the 
prevalence of smoking and smokeless tobacco products. As a result, we 
urge the Department of Defense to immediately implement the 
recommendations in the Institute of Medicine's 2009 Report, Combating 
Tobacco Use in Military and Veteran Populations.
    Next, the American Lung Association recommends and supports 
restoring funding to $20 million for the Peer-Reviewed Lung Cancer 
Research Program (LCRP) within the Department of Defense 
Congressionally Directed Medical Research Program (CDMRP). We were 
disappointed that this critical public health research program was cut 
in fiscal year 2010 by $5 million and ask that the funding return to 
$20 million. Finally, the American Lung Association is deeply troubled 
by reports of the use of burn pits and the negative effects on lung 
health on soldiers in both Iraq and Afghanistan. Thus, we urge the DOD 
to immediately find alternatives to this method of waste disposal.
Combating Tobacco Use
    Tobacco use remains the leading cause of preventable death in the 
United States and not surprisingly, is a significant problem within the 
military as well. The DOD has started moving in the right direction 
with its recent smoking ban on submarines and other positive actions, 
but much more is needed to curb tobacco use in the military.
    The 2008 Department of Defense Survey of Health Behaviors among 
Active Duty Personnel found that smoking rates among active duty 
personnel have essentially remained steady since 2002. However, smoking 
rates among deployed personnel are significantly higher and, 
alarmingly, more than one in seven (15 percent) of active duty 
personnel begin smoking after joining the service.
    Currently, the smoking rate for active duty military is 30.5 
percent, with smoking rates highest among personnel ages 18 to 25--
especially among soldiers and Marines. The Department of Veterans 
Affairs estimates that more than 50 percent of all active duty 
personnel stationed in Iraq smoke.\1\
---------------------------------------------------------------------------
    \1\ Hamlett-Berry, KW, as cited in Beckham, JC et al. Preliminary 
findings from a clinical demonstration project for veterans returning 
from Iraq or Afghanistan. Military Medicine. May 2008; 173(5):448-51.
---------------------------------------------------------------------------
    This alarming use of tobacco in the military has severe 
consequences. First, tobacco use compromises military readiness. 
Studies have found that smoking is one of the best predictors of 
training failure and smokers also report significantly more stress from 
military duty than non-smokers. Smoking is also shown to impair a 
person's physical capacity, vision, or hearing and increase their 
chances of physical injury and hospitalization.\2\ In addition; if a 
soldier experiences nicotine withdrawal while on active duty; 
depression, anxiety, and difficulty concentrating on cogitative tasks 
can develop.\3\ All of these consequences have a negative impact on the 
performance of our men and women in our armed forces.
---------------------------------------------------------------------------
    \2\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009; 3-4.
    \3\ Institute of Medicine. Combating Tobacco Use in Military and 
Veteran Populations. 2009; 4.
---------------------------------------------------------------------------
    Furthermore, the healthcare expenses associated with these 
behaviors have cost the DOD billions of dollars. The Pentagon spends 
over $1.6 billion on tobacco-related medical care, increased 
hospitalization and lost days of work. Lost productivity costs are 
primarily caused by smoking breaks (estimated at 30 minutes over 220 
work days a year) and greater absenteeism. There are also great costs 
associated with the failure of new recruits to complete basic training. 
It is clear that more must be done to reduce smoking rates and tobacco 
use among active duty personnel.
    Last summer, the prestigious Institute of Medicine (IOM) issued a 
report entitled, Combating Tobacco Use in Military and Veterans 
Populations. The panel found ``tobacco control does not have a high 
priority in DOD or VA.'' This report, which was requested by both 
departments, issued a series of recommendations, which the American 
Lung Association fully supports and asks this Committee to ensure are 
implemented.
    The IOM recommendations include commonsense approaches to 
eliminating the use of tobacco use in the U.S. military. Some of the 
IOM's recommendations include:
  --Phase in tobacco-free policies by starting with military academies, 
        officer-candidate training programs, and university-based 
        reserve officer training corps programs. Then the IOM 
        recommends new enlisted accessions be required to be tobacco-
        free, followed by all active-duty personnel;
  --Eliminate tobacco use on military installations using a phased-in 
        approach;
  --End the sales of tobacco products on all military installations. 
        Personnel often have access to cheap tobacco products on base, 
        which can serve to start and perpetuate addictions;
  --Ensure that all DOD healthcare and health promotion staff are 
        trained in the standard cessation treatment protocols; and
  --Ensure that all DOD personnel have barrier-free access to tobacco 
        cessation services.
    According to the IOM, the authority for the implementation of all 
the recommendations should rest with the highest levels of the 
Department, including the surgeon general of each armed service and the 
individual installation commander. The American Lung Association asks 
for the Committee's leadership to ensure this occurs.
    The United States military cannot fight two wars without ready and 
healthy troops to successfully complete each mission. With tobacco use 
causing a decrease of troop readiness, performance and health, the DOD 
can no longer afford to stand idly by.
    Therefore, the American Lung Association recommends that the 
Department of Defense implement all recommendations called for in the 
2009 IOM report. The IOM has laid out a very careful, scientifically-
based road map for the DOD to follow and the American Lung Association 
strongly urges that its recommendations be implemented without delay.
Peer Reviewed Lung Cancer Research Program
    The American Lung Association strongly supports the Lung Cancer 
Research Program (LCRP) in the Congressionally Directed Medical 
Research Program (CDMRP) and its original intent to research the scope 
of lung cancer in our military. It is for that reason that we were 
deeply disappointed by changes made by Congress in fiscal year 2010 to 
the both the LCRP's governing language and funding.
    First, LCRP's funding was cut by 25 percent--$5 million--which may 
diminish the effectiveness of this crucial research. We urge this 
Committee to restore the funding level to the fiscal year 2009 level of 
$20 million.
    In addition to the reduced funding, the American Lung Association 
is troubled by the change in governance language of the LCRP authorized 
by the Congress last fiscal year. The language change not only has 
consequences for the LCRP in the future but also hampered the 
implementation of the 2009 LCRP. We request that the 2011 governing 
language for the LCRP be returned to its original intent, as directed 
by the 2009 program: ``These funds shall be for competitive research . 
. . Priority shall be given to the development of the integrated 
components to identify, treat and manage early curable lung cancer''.
Troubling Lung Health Concern in Iraq and Afghanistan
    The American Lung Association is extremely troubled by reports of 
soldiers who were exposed to burn pits in Iraq and Afghanistan, and are 
now returning home with lung illnesses including asthma, chronic 
bronchitis and sleep apnea. Civilians are also at risk.
    Emissions from burning waste contain fine particulate matter, 
sulfur oxides, carbon monoxide, volatile organic compounds, and various 
irritant gases such as nitrogen oxides that can scar the lungs. 
Emissions also contain chemicals that are known or suspected to be 
carcinogens.
    For vulnerable populations, such as people with cardiovascular 
diseases, diabetes, asthma and chronic respiratory disease, exposure to 
these burn pits is particularly harmful. Even short exposures can kill. 
However, the health impact of particle pollution is not limited to 
individuals with pre-existing conditions. Healthy, young adults who 
work outside--such as our young men and women in uniform--are also at 
higher risk.
    EPA has just concluded that particulate matter causes heart 
attacks, asthma attacks, and early death. The particles are extremely 
small and are unable to be filtered out of our respiratory system. 
Instead, these small particles end up deep in the lungs where they 
remain for months, causing structural damage and chemical changes. In 
some cases, the particles can move through the lungs and penetrate the 
bloodstream. Larger particles will end up in the upper respiratory 
system, causing coughs.
    Given what we know about the health effects of burning refuse, the 
American Lung Association recommends that the DOD begin immediately to 
find alternatives to this method of waste disposal. It is important 
that the short- and long-term consequences of exposure to these burn 
pits be monitored by DOD in conjunction with the VA. Finally, we urge 
that a national registry be established to track all personnel who were 
exposed to burn pits while in Iraq and Afghanistan.
Conclusion
    Mr. Chairman, in summary, our nation's military is the best in the 
world and we should do whatever necessary to ensure that the lung 
health needs of our armed services are fully met. We can ill afford to 
fight a third war against tobacco and unsafe air conditions with their 
severe consequences. Thank you for this opportunity.

    Chairman Inouye. Our next witness is Rear Admiral Casey 
Coane. Admiral.
STATEMENT OF REAR ADMIRAL CASEY COANE, UNITED STATES 
            NAVY (RETIRED), EXECUTIVE DIRECTOR, 
            ASSOCIATION OF THE UNITED STATES NAVY
    Admiral Coane. Mr. Chairman, Senator Cochran, the 
Association of the United States Navy is once again very 
pleased to have this opportunity to testify before you.
    Our Veterans Service Organization focuses a majority of its 
legislative activity on personnel issues and the equipment 
necessary for the Navy to carry out its missions. It is only 
through the attention of Congress and committees such as yours 
that we can be sure that the needs of our young men and women 
are being met. We are grateful to take this particular 
opportunity to speak to you about equipment.
    With the pressing personnel needs of the services, it may 
seem a bit cold for me to be here speaking about ships and 
aircraft. Nonetheless, the equipment of which I am speaking is 
vital to the conduct of this war and directly supports the 
thousands of Navy men and women serving on the ground in 
Afghanistan, Iraq, or other places in the theater, such as the 
Horn of Africa. Today, 14,000 Navy people are ashore in 
Operation Iraqi Freedom (OIF), Operation Enduring Freedom 
(OEF), including Active Duty and reservists.
    We are pleased with the increased emphasis that the House 
has recently shown toward the Navy's ship building plan in 
order to meet the Nation's maritime strategy. We urge the 
Senate to do the same.
    I invite the subcommittee's attention to the recently 
released National Guard and Reserve equipment report for fiscal 
year 2011, signed out by the Assistant Secretary of Defense for 
Reserve Affairs. In the Navy section of this report, the point 
is made that the Navy has successfully and fully integrated its 
Reserve component.
    The significance here is that all the Navy's overused and 
aging organic airlift aircraft are in the Reserve component. 
The Navy Reserves electronic attack squadron right here at 
Andrews Air Force Base is a critical and frequently deployed 
component of the Navy's arsenal and is badly in need of new F-
18G Growler aircraft to replace its aged A-6Bs.
    The Secretary's report lists aircraft as the top Navy 
equipping challenge. The aircraft programs listed are the C-40 
replacement for the C-9s, the P-8, the Growlers I mentioned, 
and the KC-130J airlifters. Our association could not agree 
more.
    The issue, as Secretary McCarthy indicates on page 14 of 
the report, is not just newer aircraft, it is that the current 
aircraft have aged and turned the maintenance expense curve to 
the extent that prudent business practices, on behalf of the 
taxpayer, dictate replacement now.
    The Navy needs six more C-40s to finish the program, and it 
needs some of them this year. The P-8 is an on-time, on-budget 
program to replace aging and grounded P-3s, the backbone of the 
Navy's overland reconnaissance effort in theater. Anything that 
this subcommittee could do to accelerate that program, perhaps 
by utilization of the NGREA account, would be most beneficial.
    The Navy and Air Force have testified to the unfunded need 
for electronic attack aircraft in fiscal year 2012 and beyond. 
Without the transition of the Navy Reserve squadron to the 
Growler, the Navy will--and I quote from the report--``lose 
critical operational and strategic Reserve airborne electronic 
attack capability and capacity.'' We urge the subcommittee to 
ensure this does not happen.
    The Navy's 30-year aircraft program, the Naval Aviation 
Plan 2030, has the requirement for the replacement of the C-
130T airlifters with the new KC-130Js. Currently, this 
essential tactical, intra-theater airlift is operating five 
aircraft short of its requirement.
    Each year that the new aircraft is delayed will force the 
Navy to spend more money to upgrade worn-out aircraft to meet 
new European aviation aircraft standards without which they 
cannot fly across Europe. We urge the subcommittee to bring the 
KC-130J forward in the future year defense plan (FYDP) or by 
adding to the NGREA account.
    Again, the Association of the United States Navy thanks the 
subcommittee for their tireless efforts on behalf of our 
services and for providing this opportunity to be heard.
    Thank you.
    Chairman Inouye. Thank you very much, Admiral.
    Do you have any questions?
    Thank you very much, sir.
    [The statement follows:]
             Prepared Statement of Rear Admiral Casey Coane
    The Association of the United States Navy (AUSN) recently changed 
its name as of May 19, 2009. The association, formerly known as the 
Naval Reserve Association, traces its roots back to 1919 and is devoted 
solely to service to the Nation, Navy, the Navy Reserve and Navy 
Reserve officers and enlisted. It is the premier national education and 
professional organization for Active Duty Navy, Navy Reserve personnel, 
Veterans of the Navy, families of the Navy, and the Association Voice 
of the Navy and Navy Reserve.
    Full membership is offered to all members of the U.S. Navy and 
Naval Reserve. Association members come from all ranks and components.
    The Association has active duty, reserve, and veterans from all 50 
states, U.S. Territories, Europe, and Asia. Forty-five percent of AUSN 
membership is active reservists, active duty, while the remaining 55 
percent are made up of retirees, veterans, and involved DOD civilians. 
The National Headquarters is located at 1619 King Street Alexandria, 
VA. 703-548-5800.
    Mister Chairman and distinguished members of the Committee, the 
Association of the United States Navy is very grateful to have the 
opportunity to testify.
    Our newly transitioned VSO-MSO association works diligently to 
educate Congress, our members, and the public on Navy equipment, force 
structure, policy issues, personnel and family issues and Navy 
veterans.
    I thank this Committee for the on-going stewardship on the 
important issues of national defense and, especially, the 
reconstitution and support of the Navy during wartime. At a time of 
war, non-partisan leadership sets the example.
    Your unwavering support for our deployed Service Members in Iraq 
and Afghanistan (of which over 14,000 Sailors are deployed at Sea in 
the AOR and over 10,000 are on the ground--Active and Reserve) and for 
the world-wide fight against terrorism is of crucial importance. 
Today's Sailors watch Congressional actions closely. AUSN would like to 
highlight some areas of emphasis.
    As a nation, we need to supply our service members with the 
critical equipment and support needed for individual training, unit 
training and combat as well as humanitarian and peacekeeping 
operations. Additionally, we must never forget the Navy families, 
reserve members and the employers of these unselfish volunteers--Active 
and Reserve.
    In recent years, the Maritime Strategy has been highlighted, 
debated and disputed. We feel this is a time where the Total Navy force 
needs to be stabilized, strengthened, and be reconstituted--because of 
the consistent, constant, and increasing National Security crisis in a 
dangerous world--
  --Piracy is on the rise in many areas of the world, and especially in 
        the 5th Fleet AOR;
  --The flow of commerce still remains a top priority for our economy;
  --Naval engagement and support on the ground, in the air, and on the 
        seas for OIF and OEF has not decreased;
  --Ever increasing Middle East instability;
  --Ballistic missile threats (N Korea-Iran) and the Navy requirement 
        to be the front line of defense for missile defense threat;
  --U.S. Navy response to natural disasters; tsunami, Haiti, Chile, and 
        possible man made disasters (oil spill support);
  --Humanitarian assistance in the Philippines, Indonesia, and American 
        Samoa; and
  --Ever increasing and changing Arctic issues.
    In addition to equipment to accomplish assigned missions, the AUSN 
believes that the Administration and Congress must make it a high 
priority to maintain, if not increase, but at least stabilize the end 
strengths of already overworked, and perhaps overstretched, military 
forces. This includes the Active Navy and the Navy Reserve. Reductions 
in manpower are generally for appropriations reasons within the 
Service, not because people are not needed and their benefits are not a 
requirement.
    Our current maritime history and strategy--requires that our nation 
must achieve the 313+ Navy Ships, not decrease them, and there should 
be a balance between personnel end-strengths and equipment.
    Carriers, submarines, and Naval Aviation are more relevant than 
ever--as proven by initial and constant actions in Iraq and Afghanistan 
and ongoing operations in OIF-OEF and throughout Southwest Asia. 
Additionally--Navy weapon systems and personnel play a critical role in 
Natural disasters around the world! Therefore, it is not a time--to cut 
back.
    We must fund the Navy for proper shipbuilding and aviation programs 
which the House this year authorized funds to accomplish.
    As you know, neither the Navy nor the Navy Reserve has ever been a 
garrisoned force--but, a deployed force. Nothing has changed in recent 
contingency operations or wars, except that the Navy's forces needs 
equipment as much as anyone.
    We recognize that there are many issues that need to be addressed 
by this Committee and this Congress. The Association of the United 
States Navy supports the Navy's fiscal year 2011 budget submission and 
the Unfunded Programs List provided by the Chief of Naval Operations 
that addressed an increased shipbuilding and increase aircraft 
procurement to relieve the documented shortages and maintenance 
requirements.
    Overwhelmingly, we have heard Service Chiefs, Reserve Chiefs and 
Senior Enlisted Advisors discuss the need and requirement for more and 
unit equipment for training in order to be ready as well as combat 
equipment in the field. Navy needs to have equipment and unit cohesion 
to keep personnel trained. This means--Navy equipment and Navy Reserve 
equipment with units.
Equipment Ownership
    Issue.--Sharing of equipment has been done in the past. However, 
nothing could be more of a personnel readiness issue and is ill 
advised. This issue needs to be addressed if the current National 
Security Strategy is to succeed.
    Position.--The overwhelming majority of Navy and Navy Reserve 
members join to have hands-on experience on equipment. The training and 
personnel readiness of members depends on constant hands-on equipment 
exposure. History shows, this can only be accomplished through 
appropriate equipment, since the training cycles are rarely if ever--
synchronized with the training or exercise times or deployment times. 
Additionally, historical records show that units with unite hardware 
maintain equipment at higher than average material and often have 
better training readiness. This is especially true with Navy Reserve 
units. Current and future war fighting requirements will need these 
highly qualified units when the Combatant Commanders require fully 
ready units.
    Navy has proven its readiness. The personnel readiness, retention, 
and training of all members will depend on them having equipment that 
they can utilize, maintain, train on, and deploy with when called upon. 
AUSN recommends the Committee strengthen the Navy equipment 
appropriation as the House has done in the fiscal year 2011 NDAA in 
order to maintain optimally qualified and trained Navy and Navy Reserve 
forces.
Pay, Promotion, and Pride
    Pay needs to be competitive. If pay is too low, or expenses too 
high, a service member knows that time may be better invested 
elsewhere. The current pay raise discussions of 1.9 percent is woefully 
inadequate when the Nation considers what service members, Navy 
members, are doing in defense of this nation. The risks and sacrifices 
of every service member, to defend this great nation, make it illogical 
to formulate a direct comparison of civil pay to military pay. It just 
does not make common sense.
    Promotions need to be fairly regular, and attainable.
    Pride is a combination of professionalism, parity and awards: doing 
the job well with requisite equipment, and being recognized for one's 
sacrifices and efforts.
    Care must be taken that the current tremendous reservoir of 
operational capability be maintained and not lost due to resource 
shortages. Officers, Chief Petty Officers, and Petty Officers need to 
exercise leadership and professional competence to maintain their 
capabilities. In the current environment of Navy Individual Augmentee 
in support of ground forces, there is a risk that Navy mid-grade 
leadership will not be able to flourish due to the extended ground war 
of OIF and OEF. Having the right equipment is critical to our Maritime 
Strategy.
    In summary, we believe the Committee needs to address the following 
issues for Navy and Navy Reserve in the best interest of our National 
Security:
  --Fund the 9 Navy Ships provided for in the House fiscal year 2011 
        NDAA.
  --Fund one C-40A for the Navy, per the past years documented request; 
        Navy must replace the C-9s and replace the C-20Gs in Hawaii and 
        Maryland.
  --Fund the FA-18 E/F and FA-18 E/F Growlers per the House fiscal year 
        2011 NDAA and include unit assets for Navy Reserve units 
        currently in EA-6B aircraft.
  --Just as other services are having difficulties with intra theater 
        C-130 assets, the Navy needs to replace their C-130 aircraft 
        with C-130J for the Navy and Navy Reserve.
  --Increase funding for Naval Reserve equipment in NGREA: Increase 
        Navy Reserve NGREA by $100 million; and Naval Expeditionary 
        Combat Equipment.
    For the foreseeable future, we must be realistic about what the 
unintended consequences are from a high rate of usage. History shows 
that an Active force and Reserve force are needed for any country to 
adequately meet its defense requirements, and to enable success in 
offensive operations. Our Active Duty Navy and the current operational 
Reserve members are pleased to be making a significant contribution to 
the nation's defense as operational forces; however, the reality is 
that the added stress on Active Navy and the Reserve could pose long 
term consequences for our country in recruiting, retention, family and 
employer support. In a time of budget cut discussions, this is not the 
time to cut end-strengths on an already stressed force. We have already 
been down this road previously. This issue deserves your attention in 
pay, maintaining end-strengths, proper equipment, Family Support 
Programs, Transition Assistance Programs and for the Employer Support 
for the Guard and Reserve programs.
    Thank you for your ongoing support of the Nation, the Armed 
Services, the United States Navy, the United States Navy Reserve, their 
families, and Navy veterans, and the fine men and women who defend our 
country.

    Chairman Inouye. Our next witness is Ms. Kathy Rentfrow. 
Ms. Rentfrow.
STATEMENT OF KATHY RENTFROW, VOLUNTEER, DYSTONIA 
            MEDICAL RESEARCH FOUNDATION
    Ms. Rentfrow. Mr. Chairman and members of the Senate 
Appropriations Defense Subcommittee, thank you for allowing me 
the opportunity to testify today.
    My name is Kathy Rentfrow, and I am a volunteer with the 
Dystonia Medical Research Foundation, or DMRF. The DMRF is a 
patient-centered, nonprofit organization dedicated to serving 
dystonia patients and their families.
    The DMRF works to advance dystonia research, increase 
dystonia awareness, and provide support for those living with 
the disorder. More importantly, I am a proud military spouse 
and the mother of a child suffering from dystonia.
    Dystonia is a neurological movement disorder that causes 
muscles to contract and spasm involuntarily. Dystonia is not 
usually fatal, but it is a chronic disorder whose symptoms vary 
in degrees of frequency, intensity, disability, and pain.
    Dystonia can be generalized, affecting all major muscle 
groups, resulting in twisting, repetitive movements, and 
abnormal postures, or focal, affecting a specific part of the 
body, such as the legs, arms, hands, neck, face, mouth, 
eyelids, or vocal cords.
    At this time, no known cure exists, and treatment is highly 
individualized. Patients frequently rely on invasive therapies 
like botulinum toxin injections or deep brain stimulation, DBS, 
to help manage their symptoms.
    At age 6, while our family was stationed in Washington, my 
daughter Melissa was diagnosed with generalized dystonia at 
Madigan Army Medical Center. What began as muscle spasms in her 
left shoulder, progressed throughout her entire arm, her right 
hand, legs, and vocal cords.
    Now, at age 15, Melissa is luckier than many dystonia 
patients, and this is in large part to the superior care she 
receives as a military dependent. Due to my husband's position 
as a permanent military professor at the United States Naval 
Academy, our daughter is able to receive care at Walter Reed 
Army Medical Center.
    Melissa responds well to treatment with medications, but 
still needs to take upwards of 20 pills per day. Unlike many 
dystonia sufferers, Melissa's extensive costs are covered by 
TRICARE. Although she does not have use of her left arm, she is 
able to walk and talk without more invasive treatments like 
botulinum toxin injections, or DBS. This not only affects 
Melissa's quality of life, but also that of our entire family.
    Dystonia is not a discriminatory condition. It affects 
people of all backgrounds, and this increasingly includes 
military personnel. Conservative estimates suggest that 
dystonia affects no less than 300,000 Americans. However, the 
incidence of dystonia has seen a noticeable increase since our 
military forces were deployed to Iraq and Afghanistan. This 
recent increase is widely considered to be the result of a 
well-documented link between head injuries, other traumatic 
injuries, and the onset of dystonia.
    Until a cure for dystonia can be discovered, it remains 
vital we learn more about the exact causes of the condition and 
develop more effective and efficient treatments. Although 
Federal dystonia research is conducted through a number of 
medical and scientific agencies, the DOD's Peer-Reviewed 
Medical Research Program remains the most essential program in 
studying dystonia in military and veteran populations.
    The DMRF has been receiving increasing reports of dystonia 
from service personnel and family members, as well as increased 
anecdotal evidence from medical professionals linking dystonia 
to traumatic brain injury, or TBI. As the subcommittee is 
aware, TBI has emerged as a trademark injury of the current war 
efforts in Iraq and Afghanistan, often sustained as the result 
of improvised explosive devices.
    More and more, TBI and other traumatic injuries are serving 
as the catalyst for the onset of dystonia. As military 
personnel remain deployed for longer periods, we can expect 
dystonia prevalence in military and veterans populations to 
increase.
    Thank you for allowing me the opportunity to address the 
subcommittee today. As the mother of a child suffering from 
dystonia and as a military spouse concerned with the well-being 
of our troops, I hope you will continue to include dystonia as 
a condition eligible for the DOD Peer-Reviewed Medical Research 
Program.
    Chairman Inouye. May I assure you that the subcommittee 
will most seriously consider your request. That, I can assure 
you.
    Ms. Rentfrow. Thank you.
    Chairman Inouye. Do you have any----
    Senator Cochran. I wish we had more time to go into 
questions and discussions, but I think you can be assured that 
we take everybody's testimony seriously. And we want you all to 
know that we appreciate your being here and keeping us up to 
date on the needs that we face through our medical programs in 
the military.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Kathy Rentfrow
    Mr. Chairman and members of the Senate Appropriations Defense 
Subcommittee, thank you for allowing me the opportunity to testify 
before you today. My name is Kathy Rentfrow, and I am a volunteer with 
the Dystonia Medical Research Foundation or ``DMRF''. The DMRF is a 
patient-centered nonprofit organization dedicated to serving dystonia 
patients and their families. The DMRF works to advance dystonia 
research, increase dystonia awareness, and provide support for those 
living with the disorder. Most importantly, I am a proud military 
spouse and the mother of a child suffering from dystonia.
    Dystonia is a neurological movement disorder that causes muscles to 
contract and spasm involuntarily. Dystonia is not usually fatal, but it 
is a chronic disorder whose symptoms vary in degrees of frequency, 
intensity, disability, and pain. Dystonia can be generalized, affecting 
all major muscle groups, and resulting in twisting repetitive movements 
and abnormal postures or focal, affecting a specific part of the body 
such as the legs, arms, hands, neck, face, mouth, eyelids, or vocal 
chords. At this time, no known cure exists and treatment is highly 
individualized. Patients frequently rely on invasive therapies like 
botulinum toxin injections or deep brain stimulation (DBS) to help 
manage their symptoms.
    At age 6, while our family was stationed in Washington State, my 
daughter Melissa was diagnosed with generalized dystonia at Madigan 
Army Medical Center. What began as muscle spasms in her left shoulder 
and progressed throughout the entire arm, her right hand, legs, and 
vocal chords. Now at age 15, Melissa is luckier than many dystonia 
patients, and this is in large part to the superior care she receives 
as a military dependent. Due to my husband's position as a permanent 
military professor at the U.S. Naval academy, our daughter is able to 
receive care at Walter Reed Army Medical Center. Melissa responds well 
to treatment with medications, but still needs to take upwards of 20 
pills per day. Unlike many dystonia sufferers, Tricare covers the 
extensive costs of her medications. Although she does not have use of 
her left arm, she is able to walk and talk without more invasive 
treatments like botulinum toxin injections or DBS. Dystonia affects not 
only Melissa's quality of life, but also that of our entire family.
    Dystonia is not a discriminatory condition, as it affects people of 
all backgrounds and this increasingly includes military personnel. 
Conservative estimates suggest that dystonia affects no less than 
300,000 Americans. However, the incidence of dystonia has seen a 
noticeable increase since our military forces were deployed to Iraq and 
Afghanistan. This recent increase is widely considered to be the result 
of a well documented link between head injuries, other traumatic 
injuries, and the onset of dystonia. Until a cure for dystonia is 
discovered, it remains vital we learn more about the exact causes of 
the condition and develop more effective and efficient treatments for 
patients.
    Although Federal dystonia research is conducted through a number of 
medical and scientific agencies, the DOD's Peer-Reviewed Medical 
Research Program remains the most essential program studying dystonia 
in military and veteran populations. The DMRF has been receiving 
increasing reports of dystonia from service personnel and family 
members, as well as increased antidotal evidence from medical 
professionals linking dystonia to traumatic brain injury or ``TBI''. As 
the committee is aware, TBI has emerged as a trademark injury of the 
current war efforts in Iraq and Afghanistan, often sustained as the 
result of improvised explosive devices. More and more, TBI and other 
traumatic injuries are serving as the catalyst for the onset of 
dystonia. As military personnel remain deployed for longer periods, we 
can expect dystonia prevalence in military and veterans populations to 
increase, particularly in combat personnel.
    Dystonia severity and symptoms can vary dramatically from person to 
person, often drastically effecting quality of life. A June 2006 
article in Military Medicine, titled Post-Traumatic Shoulder Dystonia 
in an Active Duty Soldier reported that, ``Dystonia after minor trauma 
can be as crippling as a penetrating wound, with disability that 
renders the soldier unable to perform his duties.'' The article goes on 
to say that although battlefield treatment may not be practical, 
``awareness of this disorder [dystonia] is essential to avoid 
mislabeling, and possibly mistreating, a true neurological disease.''
    The DMRF would like to thank the Subcommittee for adding dystonia 
to the list of conditions eligible for study under the DOD Peer-
Reviewed Medical Research Program in the fiscal year 2010 DOD 
Appropriations bill. Unlike other Federally funded medical research 
programs, conditions eligible for study through the Peer-Reviewed 
Medical Research Program must affect members of the armed services and 
their families. As traumatic injuries and dystonia among service 
personnel increases, it is critical that we develop a better understand 
of the mechanisms connecting TBI and dystonia. We urge Congress to 
maintain dystonia as a condition deemed eligible for study through the 
Peer-Reviewed Medical Research Program, as the number of current 
military members and veterans with dystonia swells.
    Thank you again for allowing me the opportunity to address the 
Subcommittee today. As the mother of a child suffering from dystonia, 
and as a military spouse concerned with the well-being of our troops 
and veterans, I hope you will continue to include dystonia as condition 
eligible for study under the DOD Peer-Reviewed Medical Research 
Program.

    Chairman Inouye. And now, may I recognize Mr. John Davis. 
Mr. Davis.
STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE 
            PROGRAMS, FLEET RESERVE ASSOCIATION
    Mr. Davis. Thank you, Mr. Chairman.
    My name is John Davis, and I want to thank you for the 
opportunity to express the views of the Fleet Reserve 
Association. The association appreciates the administration's 
second consecutive request for full funding of the TRICARE 
program without a fee increase.
    We believe we need to look at other cost-saving options 
first before looking at a TRICARE fee increase. Further, FRA 
believes that raising TRICARE fees during wartime would send 
the wrong message that could impact recruitment and retention. 
A recent FRA survey indicates that more than 90 percent of all 
Active Duty, retired, and veteran respondents cited healthcare 
as their top quality of life benefit.
    FRA welcomes the administration's focus on creating an 
electronic health record for service members that can follow 
them to the Department of Veterans Affairs (VA) and for the 
rest of their lives. Oversight notwithstanding, adequate 
funding for an effective delivery system between DOD and VA to 
guarantee a seamless transition and quality services for 
wounded personnel is very important to our membership.
    The association appreciates President Obama's support for 
authorizing chapter 61 retirees to receive full military 
retired pay and full veterans' disability compensation. FRA 
continues to seek authorization of funding of full concurrent 
receipt for all disabled retirees. An FRA survey indicates that 
more than 70 percent of military retirees cite concurrent 
receipt among their top priorities.
    The association strongly supports the fiscal year 2011 
budget request of $408 million to cover the first phase of the 
5-year cost of concurrent receipt for chapter 61 beneficiaries 
that are 90 percent or more disabled and supports provisions in 
the so-called ``tax extenders bill''--that is H.R. 4213--that 
expands the concurrent receipt of military retired pay and the 
VA disability compensation.
    Family support is also important and should include full 
funding for compensation, training and certification, and 
respite care for family members functioning as full-time 
caregivers for wounded warriors. The recently enacted 
Caregivers and Veterans Omnibus Health Services Act--that is S. 
1963--and parallel provision in the Senate version of the 
Defense authorization bill improves compensation, training, and 
assistance for caregivers of severely disabled Active Duty 
service members. And if authorized, FRA supports funding for 
these enhancements.
    FRA strongly supports the funding of a 1.9 percent pay 
increase, which is 0.5 percent above the administration's 
request for fiscal year 2011. Pay increases in recent years 
have helped close the pay gap and contributed to improved 
morale, readiness, and retention. Pay and benefits must reflect 
the fact that military service is very different from the work 
in the private sector.
    If authorized, FRA supports funding retroactive eligibility 
for early retirement benefits to include reservists who have 
supported contingency operations since 9/11/2001. The 2008 
Defense authorization act reduces the Reserve retirement age, 
which is age 60, by 3 months for each cumulative 90 days 
ordered to Active Duty. This applies only to servicemen after 
the effective date of legislation, which is January 28, 2008, 
and leaves out more than 600,000 reservists mobilized since 9/
11.
    Again, thank you for allowing FRA to submit its views to 
the subcommittee.
    Chairman Inouye. Mr. Davis, I can assure you that the 
subcommittee is well aware that the men and women who serve in 
uniform are all volunteers. And as far as we are concerned, 
anyone who is willing to stand in harm's way on our behalf 
deserves the very best. We give it the highest priority.
    Thank you very much.
    Senator Cochran. Thank you very much, Mr. Chairman.
    We appreciate your testimony and the reminders of the real-
life challenges that many of our servicemen and women face, and 
I hope this subcommittee can respond in a way that shows our 
concern and support for their efforts and their unselfish 
service.
    [The statement follows:]
                  Prepared Statement of John R. Davis
                                the fra
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted active duty, Reserve, retired and veterans of the Sea 
Services. The Association also sponsors a National Americanism Essay 
Program and other recognition and relief programs. In addition, the 
newly established FRA Education Foundation oversees the Association's 
scholarship program that presents awards totaling nearly $100,000 to 
deserving students each year.
    The Association is also a founding member of The Military Coalition 
(TMC), a 34-member consortium of military and veteran's organizations. 
FRA hosts most TMC meetings and members of its staff serve in a number 
of TMC leadership roles.
    FRA celebrated 85 years of service in November 2009. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, other 
members of the uniformed services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, now TRICARE, was 
an initiative of FRA, as was the Uniformed Services Survivor Benefit 
Plan (USSBP). More recently, FRA led the way in reforming the REDUX 
Retirement Plan, obtaining targeted pay increases for mid-level 
enlisted personnel, and sea pay for junior enlisted sailors. FRA also 
played a leading role in advocating recently enacted predatory lending 
protections and absentee voting reform for service members and their 
dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''
                                overview
    Mr. Chairman, the Fleet Reserve Association salutes you, members of 
the Subcommittee, and your staff for the strong and unwavering support 
of funding essential programs for active duty, Reserve Component, and 
retired members of the uniformed services, their families, and 
survivors. The Subcommittee's work in funding important programs has 
greatly enhanced care and support for our wounded warriors, improved 
military pay, eliminated out-of-pocket housing expenses, improved 
healthcare, and enhanced other personnel, retirement and survivor 
programs. This funding is critical in maintaining readiness and is 
invaluable to our Armed Forces engaged in a long and protracted two 
front war, sustaining other operational commitments and fulfilling 
commitments to those who've served in the past. But more still needs to 
be done. A constant high priority for FRA is full funding of the 
Defense Health Program (DHP) to ensure quality care for active duty, 
retirees, Reservists, and their families.
    FRA's other 2010 priorities include annual active duty pay 
increases that are at least a half percent above the Employment Cost 
Index (ECI), to help close the pay gap between active duty and private 
sector pay, full concurrent receipt of military retired pay and VA 
disability compensation, retirement credit for reservists that have 
been mobilized since September 1, 2001, enhanced family readiness via 
improved communications and awareness initiatives related to benefits 
and quality of life programs, and introduction and enactment of 
legislation to eliminate inequities in the Uniformed Service Former 
Spouses Protection Act (USFSPA).
    The Administration's fiscal year 2011 proposed budget for a second 
consecutive year fully funds the DHP budget without shifting additional 
cost burdens to military retirees. FRA appreciates this and strongly 
supports efforts to fully implement electronic health records that will 
follow service members as they transition from DOD to the VA. FRA also 
supports additional improvements in concurrent receipt to expand the 
number of disabled military retirees receiving both their full military 
retired pay and VA disability compensation. The fiscal year 2011 budget 
also calls for a 1.4-percent active duty pay increase that equals the 
Employment Cost Index (ECI). The budget further increases care for 
wounded warriors by 5.8 percent, enhances family support by 3 percent, 
adds $87 million to child development centers, and boosts family 
counseling/relocation assistance by $37 million over the current fiscal 
year 2010 budget.
    As Operation Iraqi Freedom ends and troops depart from Iraq, some 
will be urging reductions in spending, despite the need to bolster 
efforts in Afghanistan and other operational commitments around the 
world. FRA understands the budgetary concerns generated by the current 
economic slowdown and other challenges but advocates that cutting the 
DOD budget during the Global War on Terror would be short sighted and 
that America needs a defense budget that will provide adequate spending 
levels for both ``benefits and bullets.''
                              health care
    Healthcare is especially significant to all FRA Shipmates 
regardless of their status and protecting and/or enhancing this benefit 
is the Association's top legislative priority. A recently released FRA 
survey indicates that nearly 90 percent of all active duty, Reserve, 
retired, and veteran respondents cited healthcare access as a 
critically important quality-of-life benefit associated with their 
military service. From 2006-2008 retirees under age 65 were targeted by 
DOD to pay significantly higher healthcare fees. Many of these retirees 
served before the recent pay and benefit enhancements were enacted and 
receive significantly less retired pay than those serving and retiring 
in the same pay grade with the same years of service today. Promises 
were made to them about healthcare for life in return for a career in 
the military with low pay and challenging duty assignments and many 
believe they are entitled to free healthcare for life.
    Efforts to enact a national healthcare reform coupled with 
inaccurate and widespread information on the associated impact on 
retiree healthcare benefits has created unease and a sense of 
uncertainty for our members. FRA opposes any effort to integrate 
TRICARE and VA healthcare into any national healthcare program. The 
Association is concerned about proposed Medicare spending cuts 
associated with reform legislation and scheduled cuts for physician 
reimbursement rates for Medicare and TRICARE beneficiaries that could 
negatively impact availability of care, and quality of services. It's 
also important to note that healthcare costs both in the military and 
throughout society have continued to increase faster than the Consumer 
Price Index (CPI) making this a prime target for those wanting to cut 
the DOD budget.
    FRA strongly supports fully funding the TRICARE program and ``The 
Military Retirees' Health Care Protection Act'' (H.R. 816) sponsored by 
Representatives Chet Edwards (TX) and Walter Jones (NC). The 
legislation would prohibit DOD from increasing TRICARE fees, specifying 
that the authority to increase TRICARE fees exists only in Congress.
    DOD must continue to investigate and implement other TRICARE cost-
saving options as an alternative to shifting costs to retiree 
beneficiaries. FRA notes progress in this area in expanding use of the 
mail order pharmacy program, Federal pricing for prescription drugs, a 
pilot program of preventative care for TRICARE beneficiaries under age 
65, and elimination of co-pays for certain preventative services. The 
Association believes these efforts will prove beneficial in slowing 
military healthcare spending in the coming years.
                           concurrent receipt
    The Association appreciates President Obama's support for 
authorizing Chapter 61 retirees to receive their full military retired 
pay and veteran's disability compensation and continues to seek timely 
and comprehensive implementation of legislation that authorizes the 
full concurrent receipt for all disabled retirees. As with last year's 
budget, the proposed fiscal year 2011 budget does not provide funding 
or identify spending offsets for these improvements and does not comply 
with House budgeting rules. The above referenced FRA survey indicates 
that more than 70 percent of military retirees cite concurrent receipt 
among their top priorities. The Association strongly supports the 
fiscal year 2011 budget request of $408 million to cover the first 
phase of the 5-year cost for concurrent receipt for Chapter 61 
beneficiaries that are 90 percent or more disabled and supports the 
provisions in the so-called ``tax-extenders'' bill (H.R. 4213) that 
expands the concurrent receipt of military retired pay and VA 
disability compensation. The measure would authorize service members 
who are medically retired with less than 20 years of service (Chapter 
61 retirees) and have a disability rating of 90 to 100 percent to 
receive both payments, without offset, starting on January 1, 2011. The 
following year concurrent receipt would be expanded to those with 70- 
to 80-percent disability ratings.
                            wounded warriors
    FRA appreciates the substantial Wounded Warriors provisions in the 
fiscal year 2008 National Defense Authorization Act (NDAA). Despite 
jurisdictional challenges, considerable progress has been made in this 
area. However, the enactment of authorizing legislation is only the 
first step in helping wounded warriors. Sustained funding is also 
critical for successful implementation. Jurisdictional challenges 
notwithstanding adequate funding for an effective delivery system 
between DOD and VA to guarantee seamless transition and quality 
services for wounded personnel, particularly those suffering from Post 
Traumatic Stress Disorder (PTSD) and Traumatic Brain Injuries (TBI) is 
very important to our membership. Family support is also critical for 
success, and should include full funding for compensation, training, 
and certification, and respite care for family members functioning as 
full-time caregivers for wounded warriors. FRA supported the recently 
enacted ``Caregivers and Veterans Omnibus Health Services Act'' (S. 
1963), and parallel legislation included in the Senate's version of the 
fiscal year 2011 Defense Authorization bill (S. 3454) to improve 
compensation, training and assistance for caregivers of several 
disabled active-duty service members.
                    adequate personnel end strength
    Funding for adequate service end strengths is essential to success 
in Iraq and Afghanistan and to sustaining other operations vital to our 
national security. FRA notes the Marine Corps' success in attaining its 
current end strength level and strongly supports the proposed Navy end 
strength increase in 2011. A recent Navy Times story entitled ``Sailor 
shortage,'' cites too much work to do in the Navy and not enough people 
to do it--and lists the associated effects which include little time 
for rest, fewer people to maintain and repair shipboard equipment, crew 
members with valuable skills being pulled for other jobs and not 
replaced and lower material ship readiness.
    The strain of repeated deployments continues and is also related to 
the adequacy of end strengths--and FRA is tracking disturbing 
indicators of the effects which include increased prescription drug and 
alcohol use, increasing mental healthcare appointments, alarming 
suicide rates plus more military divorces. Stress on service members 
and their families was addressed during a recent Senate Personnel 
Subcommittee hearing along with serious and continuing concerns about 
associated effects which can include morale, readiness and retention 
challenges. FRA urges this distinguished Subcommittee to ensure funding 
for adequate end strengths and people programs consistent with the 
Association's DOD funding goal of at least 5 percent of the GDP.
                      active duty pay improvements
    Our Nation is at war and there is no more critical morale issue for 
active duty warriors than adequate pay. This is reflected in the more 
than 96 percent of active duty respondents to FRA's recent survey 
indicating that pay is ``very important.'' The Employment Cost Index 
for fiscal year 2011 is 1.4 percent and based on statistics from 15 
months before the effective date of the proposed active duty pay 
increase. The Association appreciates the strong support from this 
distinguished Subcommittee in funding pay increases that have reduced 
the 13.5 percent pay gap (1999) to the current level of 2.4 percent. In 
addition, FRA notes that even with a fiscal year 2011 pay increase that 
is 0.5 percent above the ECI, the result will be the smallest pay hike 
since 1958. FRA urges the Subcommittee to continue the fund pay 
increases at least 0.5 percent above the ECI until the remaining 2.4 
percent pay gap is eliminated.
                             reserve issues
    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are now increasingly 
mobilized to augment active duty components. As a result, the Reserve 
component is no longer a strategic Reserve, but is an operational 
Reserve that is an integral part of the total force. And because of 
these increasing demands, including missions abroad over longer periods 
of time, it is essential to improve compensation and benefits to retain 
currently serving personnel and attract quality recruits.
    Retirement.--If authorized, FRA supports funding retroactive 
eligibility for the early retirement benefit to include Reservists who 
have supported contingency operations since 9/11/2001 (H.R. 208/S. 831/
S.644). The fiscal year 2008 Defense Authorization Act (H.R. 4986) 
reduces the Reserve retirement age (age 60) by 3 months for each 
cumulative 90-days ordered to active duty after the effective date 
(January 28, 2008) leaving out more than 600,000 Reservists mobilized 
since 9/11 for duty in Afghanistan and Iraq.
    Family Support.--FRA supports resources to allow increased outreach 
to connect Reserve families with support programs. This includes 
increased funding for family readiness, especially for those 
geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
most Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.
                               conclusion
    FRA is grateful for the opportunity to present these funding 
recommendations to this distinguished Subcommittee. The Association 
reiterates its profound gratitude for the extraordinary progress this 
Subcommittee has made in funding a wide range of military personnel and 
retiree benefits and quality-of-life programs for all uniformed 
services personnel and their families and survivors. Thank you again 
for the opportunity to present the FRA's views on these critically 
important topics.

    Chairman Inouye. I would like to thank the first panel, and 
may I now call upon the second panel made up of Mr. Terry C. 
Wicks, Ms. Karen Mason, Ms. Katie Savant, and Dr. Dan Putka.
    Welcome, and may I first call upon Mr. Terry Wicks.
STATEMENT OF TERRY C. WICKS, CERTIFIED REGISTERED NURSE 
            ANESTHETIST, MHS, AMERICAN ASSOCIATION OF 
            NURSE ANESTHETISTS
    Mr. Wicks. Chairman Inouye, Vice Chairman Cochran, good 
morning. My name is Terry Wicks.
    Chairman Inouye. Will you put on the mike, please?
    Mr. Wicks. My name is Terry Wicks. I am past president of 
the 40,000 member American Association of Nurse Anesthetists, 
and while on Active Duty in the military, I also served as 
president of the Hawaii Association of Nurse Anesthetists.
    The quality of healthcare America provides our servicemen 
and servicewomen and their dependents has long been this 
subcommittee's high priority. Today, I report to you the 
contributions that certified registered nurse anesthetists, or 
CRNAs, make toward our services' mission, and I will also 
provide you our recommendations to further improve military 
healthcare for these challenging times.
    I also ask unanimous consent that our written statement be 
entered in the record.
    Chairman Inouye. Without objection.
    Mr. Wicks. America's CRNAs provide some 32 million 
anesthetics annually in every healthcare setting requiring 
anesthesia care, and we provide that care safely. The Institute 
of Medicine reported in 2000 that anesthesia is 50 times safer 
than it was in the early 1980s.
    For the United States armed forces, CRNAs are particularly 
critical. In 2009, over 500 Active Duty and more than 750 
reservist CRNAs provided anesthesia care indispensable to our 
armed forces' current mission.
    Not long ago, one CRNA, Major General Gale Pollock, served 
as acting Surgeon General of the United States Army. Today, 
CRNAs serve in major military hospitals, at educational 
institutions, aboard ships, and in isolated bases abroad and at 
home. And as members of forward surgical teams, they serve as 
close to the tip of the spear as they can be.
    In most of these environments, CRNAs provide anesthesia 
services alone--without anesthesiologists--enabling surgeons 
and other clinicians to safely deliver lifesaving care. But in 
recent years, the number of CRNAs in the armed forces has 
fallen below the number needed. The private market for CRNA 
services is very, very strong, and the military has struggled 
to compete.
    The services, this subcommittee, and the authorizing 
committees have responded with increased benefits to CRNAs, 
incentive specialty pay, and the Health Professions Loan 
Repayment Program, focusing on incentives for multi-year 
agreements.
    The profession of nurse anesthesia has likewise responded. 
The Counsel on Certification of Nurse Anesthetists reported 
that in 2009, our schools produced 2,228 graduates, double the 
number since 2000. And 2,386 nurse anesthetists were certified. 
That growth is expected to continue.
    The Counsel on Accreditation of Nurse Anesthesia 
Educational Programs projects that CRNA schools will produce 
over 2,400 graduates in 2010. These combined actions have 
helped strengthen the services' readiness and the quality of 
healthcare available to our servicemen and servicewomen.
    So our first recommendation to you is to extend and 
strengthen the successful ISP program for CRNAs. The 
authorizing committee has extended the ISP program. We would 
encourage this subcommittee to continue funding ISP levels 
sufficient for the services to recruit and retain the CRNAs 
needed for the mission.
    Our second recommendation is for the subcommittee to 
encourage all services to adopt a joint scope of practice. 
Standard practices across the services enhance patient safety 
and the quality of healthcare for our servicemen and women. The 
Navy, in particular, has made a great deal of progress toward 
adopting a joint scope of independent practitioners. We 
encourage its adoption in all services.
    Like our military CRNAs that serve each and every day, the 
American Association of Nurse Anesthetists stands ready to work 
with Congress to ensure that all of our military men and women 
get the care that they need and deserve.
    Thank you, and I would be happy to take any questions.
    Chairman Inouye. Thank you very much.
    I can assure that this subcommittee is well aware of the 
shortage of nurse anesthetists. We are also aware that if it 
weren't for nurse anesthetists, we won't have any anesthesia in 
rural America because 85 percent of that is administered by 
nurse anesthetists.
    Mr. Wicks. Yes, sir.
    Chairman Inouye. So we are going to do our very best.
    Mr. Wicks. Thank you.
    Chairman Inouye. Do you have any questions?
    I thank you very much, sir.
    [The statement follows:]
                  Prepared Statement of Terry C. Wicks
    Chairman Inouye, Ranking Member Cochran, and Members of the 
Subcommittee: The American Association of Nurse Anesthetists (AANA) is 
the professional association that represents over 40,000 Certified 
Registered Nurse Anesthetists (CRNAs) across the United States, 
including more than 500 active duty and over 750 reservists in the 
military reported in 2009. The AANA appreciates the opportunity to 
provide testimony regarding CRNAs in the military. We would also like 
to thank this committee for the help it has given us in assisting the 
Department of Defense (DOD) and each of the services to recruit and 
retain CRNAs.
           crnas and the armed forces: a tradition of service
    Let us begin by describing the profession of nurse anesthesia, and 
its history and role with the Armed Forces of the United States.
    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today, CRNAs administer some 30 
million anesthetics given to patients each year in the United States. 
Nurse anesthetists are also the sole anesthesia providers in the vast 
majority of rural hospitals, assuring access to surgical, obstetrical 
and other healthcare services for millions of rural Americans.
    Our tradition of service to the military and our Veterans is 
buttressed by our personal, professional commitment to patient safety, 
made evident through research into our practice. In our professional 
association, we state emphatically ``our members' only business is 
patient safety.'' Safety is assured through education, high standards 
of professional practice, and commitment to continuing education. 
Having first practiced as registered nurses, CRNAs are educated to the 
master's degree level, and some to the doctoral level, and meet the 
most stringent continuing education and recertification standards in 
the field. Thanks to this tradition of advanced education and clinical 
practice excellence, we are humbled and honored to note that anesthesia 
is 50 times safer now than in the early 1980s (National Academy of 
Sciences, 2000). Research further demonstrates that the care delivered 
by CRNAs, physician anesthesiologists, or by both working together 
yields similar patient safety outcomes. In addition to studies 
performed by the National Academy of Sciences in 1977, Forrest in 1980, 
Bechtoldt in 1981, the Minnesota Department of Health in 1994, and 
others, Dr. Michael Pine, MD, MBA, recently concluded once again that 
among CRNAs and physician anesthesiologists, ``the type of anesthesia 
provider does not affect inpatient surgical mortality'' (Pine, 2003). 
Thus, the practice of anesthesia is a recognized specialty in nursing 
and medicine. Most recently, a study published in Nursing Research 
confirmed obstetrical anesthesia services are extremely safe, and that 
there is no difference in safety between hospitals that use only CRNAs 
compared with those that use only anesthesiologists (Simonson et al, 
2007). Both CRNAs and anesthesiologists administer anesthesia for all 
types of surgical procedures from the simplest to the most complex, 
either as single providers or together.
                   nurse anesthetists in the military
    Since the mid-19th century, our profession of nurse anesthesia has 
been proud and honored to provide anesthesia care for our past and 
present military personnel and their families. From the Civil War to 
the present day, nurse anesthetists have been the principal anesthesia 
providers in combat areas of every war in which the United States has 
been engaged.
    Military nurse anesthetists have been honored and decorated by the 
U.S. and foreign governments for outstanding achievements, resulting 
from their dedication and commitment to duty and competence in managing 
seriously wounded casualties. In World War II, there were 17 nurse 
anesthetists to every one anesthesiologist. In Vietnam, the ratio of 
CRNAs to physician anesthetists was approximately 3:1. Two nurse 
anesthetists were killed in Vietnam and their names have been engraved 
on the Vietnam Memorial Wall. During the Panama strike, only CRNAs were 
sent with the fighting forces. Nurse anesthetists served with honor 
during Desert Shield and Desert Storm.
    Military CRNAs also provide critical anesthesia support to 
humanitarian missions around the globe in such places as Bosnia and 
Somalia. In May 2003, approximately 364 nurse anesthetists had been 
deployed to the Middle East for the military mission for ``Operation 
Iraqi Freedom'' and ``Operation Enduring Freedom.'' When President 
George W. Bush initiated ``Operation Enduring Freedom,'' CRNAs were 
immediately deployed. With the new special operations environment new 
training was needed to prepare our CRNAs to ensure military medical 
mobilization and readiness. Brigadier General Barbara C. Brannon, 
Assistant Surgeon General, Air Force Nursing Services, testified before 
this Senate Committee on May 8, 2002, to provide an account of CRNAs on 
the job overseas. She stated, ``Lt. Col. Beisser, a certified 
registered nurse anesthetist (CRNA) leading a Mobile Forward Surgical 
Team (MFST), recently commended the seamless interoperability he 
witnessed during treatment of trauma victims in Special Forces mass 
casualty incident.''
    Data gathered from the U.S. Armed Forces anesthesia communities 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. Military CRNAs have a long 
proud history of providing independent support and quality anesthesia 
care to military men and women, their families and to people from many 
nations who have found themselves in harms way.
    In the current mission, CRNAs are deployed all over the world, on 
land and at sea. This committee must ensure that we retain and recruit 
CRNAs for now and in the future to serve in these military deployments 
overseas. This committee must ensure that we retain and recruit CRNAs 
now and in the future to serve in these military overseas deployments 
and humanitarian efforts, and to ensure the maximum readiness of 
America's armed services.
nurse anesthesia provider supply and demand: solutions for recruitment 
                             and retention
    In all of the Services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty fell short of the number authorized by the 
Department of Defense (DOD). This is further complicated by strong 
demand for CRNAs in both the public and private sectors.
    It is essential to understand that while there is strong demand for 
CRNA services in the public and private healthcare sectors, the 
profession of nurse anesthesia is working effectively to meet this 
workforce challenge. The AANA anticipates growing demand for CRNAs. Our 
evidence suggests that while vacancies exist, the demand for anesthesia 
professionals can be met if appropriate actions are taken. As of 
January 2010, there are 108 accredited nurse anesthesia schools to 
support the profession, and the number of qualified registered nurses 
applying to these schools continues to climb. The growth in the number 
of schools, number of applicants, and production capacity has yielded 
significant growth in the number of student nurse anesthetists 
graduating and being certified into the profession. The Council on 
Certification of Nurse Anesthetists reports that in 2009 our schools 
produced 2,228 graduates, a 66 percent increase since 2003, and 2,386 
nurse anesthetists became certified. This growth is expected to 
continue. The Council on Accreditation of Nurse Anesthesia Educational 
Programs (COA) projects that the 108 CRNA schools will produce 2,430 
graduates in 2010.
    This Committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.
                    incentive special pay for nurses
    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by DOD, a large pay gap 
existed between annual civilian and military pay in 1992. This study 
concluded, ``this earnings gap is a major reason why the military has 
difficulty retaining CRNAs.'' In order to address this pay gap, in the 
fiscal year 1995 Defense Authorization bill Congress authorized the 
implementation of an increase in the annual Incentive Special Pay (ISP) 
for nurse anesthetists from $6,000 to $15,000 for those CRNAs no longer 
under service obligation to pay back their anesthesia education. Those 
CRNAs who remained obligated receive the $6,000 ISP.
    Both the House and Senate passed the fiscal year 2003 Defense 
Authorization Act conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. The AANA is requesting that 
this committee fund the ISP at $50,000 for all the branches of the 
armed services to retain and recruit CRNAs now and into the future. Per 
the testimony provided in 2006 from the three services' Nurse Corps 
leaders, the AANA is aware that there is an active effort with the 
Surgeons General to closely evaluate and adjust ISP rates and policies 
needed to support the recruitment and retention of CRNAs. In 2006, 
Major General Gale Pollock, MBA, MHA, MS, CRNA, FACHE, Deputy Surgeon 
General, Army Nurse Corps of the U.S. Army stated in testimony before 
this Subcommittee, ``I am particularly concerned about the retention of 
our certified registered nurse anesthetists (CRNAs). Our inventory of 
CRNAs is currently at 73 percent. The restructuring of the incentive 
special pay program for CRNAs last year, as well as the 180 (day)-
deployment rotation policy were good first steps in stemming the loss 
of these highly trained providers. We are working closely with the 
Surgeon General's staff to closely evaluate and adjust rates and 
policies where needed.''
    There have been positive results from the Nurse Corps and Surgeons 
General initiatives to increase incentive special pays for CRNAs. In 
testimony before the House Armed Services Committee in 2007, Gen. 
Pollock stated, ``We have . . . increased the Incentive Special Pay 
(ISP) Certified Registered Nurse Anesthetist, and expanded use of the 
Health Professions Loan Repayment Program (HPLRP). The . . . Nurse 
Anesthetist bonuses have been very successful in retaining these 
providers who are critically important to our mission on the 
battlefield.'' She also stated in that same statement, ``In 2004, we 
increased the multi-year bonuses we offer to Certified Registered Nurse 
Anesthetists with emphasis on incentives for multi-year agreements. A 
year's worth of experience indicates that this increased bonus, 180-day 
deployments, and a revamped Professional Filler system to improve 
deployment equity is helping to retain CRNAs.''
    There still continues to be high demand for CRNAs in the healthcare 
community leading to higher incomes widening the gap in pay for CRNAs 
in the civilian sector compared to the military. However, the ISP and 
other incentives the services are providing CRNAs has helped close that 
gap the past 3 years, according to the most recent AANA membership 
survey data. In civilian practice, all additional skills, experience, 
duties and responsibilities, and hours of work are compensated for 
monetarily. Additionally, training (tuition and continuing education), 
healthcare, retirement, recruitment and retention bonuses, and other 
benefits often equal or exceed those offered in the military. 
Therefore, it is vitally important that the Incentive Special Pay (ISP) 
be supported to ensure retention of CRNAs in the military.
    AANA thanks this Committee for its support of the annual ISP for 
nurse anesthetists. AANA strongly recommends the continuation in the 
annual funding for ISP at $50,000 or more for fiscal year 2011, which 
recognizes the special skills and advanced education that CRNAs bring 
to the DOD healthcare system, and supports the mission of our U.S. 
Armed Forces.
                   board certification pay for nurses
    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain clinicians who are not physicians, including advanced 
practice nurses.
    AANA is highly supportive of board certification pay for all 
advanced practice nurses. The establishment of this type of pay for 
nurses recognizes that there are levels of excellence in the profession 
of nursing that should be recognized, just as in the medical 
profession. In addition, this pay may assist in closing the earnings 
gap, which may help with retention of CRNAs.
    While many CRNAs have received board certification pay, some remain 
ineligible. Since certification to practice as a CRNA does not require 
a specific master's degree, many nurse anesthetists have chosen to 
diversify their education by pursuing an advanced degree in other 
related fields. But CRNAs with master's degrees in education, 
administration, or management are not eligible for board certification 
pay since their graduate degree is not in a clinical specialty. Many 
CRNAs who have non-clinical master's degrees either chose or were 
guided by their respective services to pursue a degree other than in a 
clinical specialty. The AANA encourages DOD and the respective services 
to reexamine the issue of restricting board certification pay only to 
CRNAs who have specific clinical master's degrees.
     dod/va resource sharing: u.s. army-va joint program in nurse 
            anesthesia, fort sam houston, san antonio, texas
    The establishment of the joint U.S. Army-VA program in nurse 
anesthesia education at the U.S. Army Graduate Program in Anesthesia 
Nursing, Fort Sam Houston, in San Antonio, Texas holds the promise of 
making significant improvements in the VA CRNA workforce, as well as 
improving retention of DOD registered nurses in a cost effective 
manner. The current program utilizes existing resources from both the 
Department of Veterans Affairs Employee Incentive Scholarship Program 
(EISP) and VA hospitals to fund tuition, books, and salary 
reimbursement for student registered nurse anesthetists (SRNAs). This 
joint program also serves the interests of the Army.
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. In the future, the program is 
granting degrees through the Northeastern University Bouve College of 
Health Sciences nurse anesthesia educational program in Boston, 
Massachusetts. At a time of increased deployments in medical military 
personnel, this type of VA-DOD partnership is a cost-effective model to 
fill these gaps in the military healthcare system. At Fort Sam Houston, 
the VA faculty director has covered her Army colleagues' didactic 
classes when they are deployed at a moments notice. This benefits both 
the VA and the DOD to ensure the nurse anesthesia students are trained 
and certified in a timely manner to meet their workforce obligation to 
the Federal government as anesthesia providers. We are pleased to note 
that the Department of Veterans' Affairs Acting Deputy Under Secretary 
for Health and the U.S. Army Surgeon General approved funding to start 
this VA nurse anesthesia school in 2004. In addition, the VA director 
has been pleased to work under the direction of the Army program 
director LTC Joseph O'Sullivan, CRNA, Ph.D., to further the continued 
success of this U.S. Army-VA partnership. With modest levels of 
additional funding in the VA EISP, this joint U.S. Army-VA nurse 
anesthesia education initiative can grow and thrive, and serve as a 
model for meeting other VA workforce needs, particularly in nursing.
                               conclusion
    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. By Congress 
supporting these efforts to recruit and retain CRNAS, the military is 
able to meet the mission to provide benefit care and deployment care--a 
mission that is unique to the military.
    The AANA would also like to thank the Surgeons General and Nurse 
Corp leadership for their support in meeting the needs of the 
profession within the military workforce. Last, we commend and thank 
this committee for their continued support for CRNAs in the military.
    Thank you. If you have further questions, please contact the AANA 
Federal Government Affairs Office at 202-484-8400.

    Chairman Inouye. And our next witness is Ms. Karen Mason.
STATEMENT OF KAREN MASON, REGISTERED NURSE, OVARIAN 
            CANCER NATIONAL ALLIANCE
    Ms. Mason. Good morning, Mr. Chairman and Mr. Vice 
Chairman. I am honored to appear before you in support of the 
Ovarian Cancer National Alliance's request of $30 million for 
the Department of Defense Ovarian Cancer Research Program.
    My name is Karen Mason, and I am an intensive care nurse 
from Pitman, New Jersey. I also serve as an integration panel 
member for the Ovarian Cancer Research Program, which I will 
refer to as the OCRP for the remainder of my testimony.
    As a 9 year survivor of late-stage ovarian cancer, I feel a 
strong sense of responsibility to my community and sit before 
you today as the voice of all women with this disease--past, 
present, and future.
    During my 9 years of survivorship, I have befriended many 
women who also had late-stage ovarian cancer. One by one, I 
have watched most of these women die. Today, in the Delaware 
Valley, I know of no other woman diagnosed at a late stage who 
has survived as long as I have.
    I still speak to women newly diagnosed to offer them hope, 
but now I must hold a piece of my heart in reserve. It is my 
hope that today I can beseech you to share this responsibility 
to fund research conducted by the OCRP to find new treatments 
and early detection for women with or at risk of ovarian 
cancer.
    This year, approximately 20,000 women will be diagnosed 
with ovarian cancer, and 15,000 women will die of this disease. 
Ovarian cancer has no test like the mammogram for breast cancer 
or the Pap test for cervical cancer. Because there is no 
reliable early detection test, women must rely on their and 
their doctor's knowledge of ovarian cancer symptoms.
    However, most women and even their physicians do not know 
the symptoms of ovarian cancer, which are often confused with 
less-threatening conditions. Even with symptom awareness, by 
the time a woman has symptoms, she will already have late-stage 
cancer. Two out of three women with ovarian cancer are 
diagnosed when their cancer is late stage as mine was.
    Current treatments are brutal and consist of long debulking 
surgeries, followed by months of chemotherapies. Even when the 
initial treatment response seems positive, around 70 to 95 
percent of women diagnosed at stages III or IV will have a 
recurrence.
    The OCRP has one bold aim--to eliminate ovarian cancer. 
Since 1997, the OCRP has funded out-of-the-box, innovative 
research focused on detection, diagnosis, prevention, and 
control of ovarian cancer. Many of the funded proposals can be 
characterized as high risk and high reward. Although we take 
risk in the research we fund, we believe that investing in 
innovative research will result in a great breakthrough in the 
fight against ovarian cancer.
    I have volunteered my time for the past 3 years to serve as 
an integration panel member for the OCRP. I work alongside 
physicians, scientists, and other patient advocates, and 
together, we select proposals that we think merit funding. This 
spring, we received approximately 350 pre-applications. Sadly, 
we will only be able to fund approximately 30 full proposals. 
We worry that the cure could be heading into the trash can.
    The ovarian cancer community was extremely disappointed 
when we found out that the OCRP funding was reduced from $20 
million in 2009 to $18.75 million in 2010. This cut is shocking 
when you consider our mortality rate has not decreased, and new 
treatments and an early detection test are still so desperately 
needed.
    By increasing the OCRP's funding to $30 million for 2011 so 
that more research can be carried out, you not only help women 
currently battling this deadly beast, but future generations of 
women at risk.
    Thank you for this opportunity, and I am happy to answer 
any questions.
    Chairman Inouye. I thank you very much for your testimony.
    This subcommittee, about 25 years ago, took a step that was 
considered rather courageous. We began the cancer research 
programs for breast cancer. And although women who wear the 
uniform are required to take physicals, and if they do have 
breast cancer, that should be somehow detected before they take 
the oath. We felt that since Defense Department had the money, 
we would begin our research programs.
    It may interest you to know that at this moment, DOD funds 
more research money than the National Institutes of Health. So 
I can assure you that your request is given our highest 
priority.
    Ms. Mason. Thank you.
    Senator Cochran. I was reminded, Mr. Chairman, that you and 
Senator Stevens led the way for this subcommittee in 
recommending these funding levels, and I am sure that we will 
continue to be guided by your good judgment and your serious 
request for continued funding.
    Chairman Inouye. Thank you very much, Ms. Mason.
    [The statement follows:]
                   Prepared Statement of Karen Mason
    Good morning, Mr. Chairman, Ranking Member and Members of the 
Subcommittee. I am honored to appear before you in support of the 
Ovarian Cancer National Alliance's request of a minimum of $30 million 
for the Department of Defense Ovarian Cancer Research Program in fiscal 
year 2011. My name is Karen Mason and I am an intensive care nurse from 
Pitman, New Jersey. I also serve as an Integration Panel member for the 
Ovarian Cancer Research Program, which I will refer to as the OCRP for 
the remainder of my testimony.
    As a 9 year survivor of late stage ovarian cancer, I feel a strong 
sense of responsibility to my community and sit before you today as the 
voice of all women with this disease, past, present and future. It is 
my hope that today I can beseech you to share this responsibility to 
fund research conducted by the OCRP that works to find new treatments 
and an early detection test for ovarian cancer.
    This year, approximately 20,000 women will be diagnosed with 
ovarian cancer and 15,000 women will die of this disease.\1\ Ovarian 
cancer has no test like the mammogram for breast cancer or pap test for 
cervical cancer. Because there is no reliable early detection test, 
women must rely on their--and their doctors'--knowledge of ovarian 
cancer symptoms.
---------------------------------------------------------------------------
    \1\ ``Ovarian Cancer.'' National Cancer Institute. May 4, 2010 
<http://www.cancer.gov/cancertopics/types/ovarian>.
---------------------------------------------------------------------------
    However, most women, and even their doctors, do not know the 
symptoms of ovarian cancer, which are bloating, pelvic or abdominal 
pain, urinary urgency or frequency, and difficulty eating or feeling 
full quickly. These symptoms are often confused with less threatening 
conditions.
    Unfortunately, even with symptom awareness, by the time a woman has 
symptoms, she will already have late stage cancer. Two out of three 
women with ovarian cancer are diagnosed when their cancer is late 
stage, as mine was.\2\ Current treatments are brutal and consist of 
long ``debulking'' surgeries followed by months of chemotherapies. Even 
when the initial treatment response seems positive, around 70-95 
percent of women diagnosed at stages 3 or 4 will have a recurrence.\3\
---------------------------------------------------------------------------
    \2\ M.J. Horner, L.A. G. Ries, M. Krapcho, N. Neyman, R. Aminou, N. 
Howlader, S.F. Altekruse, E.J. Feuer, L. Huang, A. Mariotto, B.A. 
Miller, D.R. Lewis, M.P. Eisner, D.G. Stinchcomb, E.K. Edwards, eds. 
SEER Cancer Statistics Review 1975-2006. National Cancer Institute, 
2009. http://seer.cancer.gov/csr/1975_2006.
    \3\ Armstrong, M.D., Deborah. ``Treatment of Recurrent Disease 
Q&A.'' John Hopkins Pathology. May 9, 2010 <http://
ovariancancer.jhmi.edu/recurrentqa.cfm>.
---------------------------------------------------------------------------
    During my 9 years of survivorship, I have befriended many women who 
also had late-stage ovarian cancer. One by one, I have watched most of 
these women die. Today in the Delaware Valley, I know of no other woman 
diagnosed at a late stage who has survived as long as I have. I still 
speak to woman newly diagnosed to offer them hope, but now I must hold 
a piece of my heart in reserve.
    The OCRP has one bold aim: to eliminate ovarian cancer. Since 1997, 
the OCRP has funded out of the box, innovative research focused on 
detection, diagnosis, prevention and control of ovarian cancer. Many of 
the funded proposals can be characterized as high risk and high reward. 
Although we take risks in the research we fund, we believe that 
investing in innovative research will result in great breakthroughs in 
the fight against ovarian cancer.
    An example of a scientific breakthrough that came out of the OCRP 
was the creation of the OVA1 test for risk stratification. This test 
was recently brought to the market and has received much media 
attention, most notably in the March 9 edition of the Wall Street 
Journal.\4\ In 2003, Dr. Zhen Zhang, an investigator at John Hopkins 
School of Medicine received an Idea Development Award from the OCRP in 
the amount of $563,022. Dr. Zhang's research eventually led to the 
creation of OVA1, which is a blood test that can help physicians 
determine if a woman's pelvic mass is at risk for being malignant. 
While OVA1 is not an early detection test, it is a step in the right 
direction.
---------------------------------------------------------------------------
    \4\ Johannes, Laura. ``Test to Help Determine If Ovarian Masses Are 
Cancer.'' The Wall Street Journal March 9, 2010. <http://
online.wsj.com/article/
SB10001424052748704869304575109703066893506.html>.
---------------------------------------------------------------------------
    The OCRP is also special in that it involves patient advocates at 
all levels. I have volunteered my time for the past 3 years to serve as 
an Integration Panel Member for the OCRP. I work alongside physicians, 
scientists and other patient advocates and together, we select 
proposals that we believe merit funding. Patient advocates hold equal 
weight with scientists and physicians when funding proposals and 
deciding the program's vision for the future.
    Last fall during our vision setting day, I suggested that if the 
OCRP was truly seeking innovative out of the box researchers, perhaps 
the reviewers should be blinded as to who the researchers were and what 
institutions they represent. Imagine my delight when the panel agreed. 
Because researchers and institutions were blinded to us, a relatively 
unknown researcher from a lesser institution could conceivably be 
invited to submit a full proposal based solely on his or her idea.
    However, one of my community's biggest fears is that the relatively 
low incidence of ovarian cancer (lifetime risk of developing invasive 
ovarian cancer is 1 in 71) versus other types of cancers (lifetime risk 
of developing breast cancer is 1 in 8) has resulted in a much smaller 
investment in ovarian cancer research, thus dissuading young scientists 
from studying ovarian cancer and instead choosing to head into other 
organ sites for their careers in order to secure research funding.\5\ 
\6\
---------------------------------------------------------------------------
    \5\ ``What Are the Key Statistics About Ovarian Cancer?'' American 
Cancer Society. May 2, 2010 <http://www.cancer.org/docroot/cri/content/
cri_2_4_1x_what_are_the_key_statistics_for_ovarian_cancer_33.asp>.
    \6\ ``Probability of Breast Cancer in American Women.'' American 
Cancer Society. May 3, 2010 <http://www.cancer.gov/cancertopics/
factsheet/Detection/probability-breast-cancer>.
---------------------------------------------------------------------------
    Additionally, Michael Seiden, M.D, Ph.D, President and CEO of Fox 
Chase Cancer Center and a fellow Integration Panel Member aptly stated 
that:

    ``Reducing the burden of ovarian cancer requires recruiting and, 
more importantly, mentoring a group of scientists and clinicians who 
are committed to building sustained and productive careers in ovarian 
cancer research. Few academic medical or research centers have the 
large ovarian cancer research teams and the number of junior faculty 
focused on developing careers that are supported through peer-reviewed, 
competitively funded ovarian cancer research. Often junior faculty have 
few if any peers at their research center with common interests; thus, 
this group often lacks specific mentoring and networking opportunities 
that would maximize the pace of their career development.''

    The OCRP addressed this concern last year. We voted to award 
funding for the creation of an Ovarian Cancer Academy. The Academy puts 
the African proverb ``it takes a village to raise a child'' into action 
by training the next generation of ovarian cancer researchers. This 
award will develop a unique, interactive virtual academy that will 
provide intensive mentoring, national networking, and a peer group for 
junior faculty. Under the guidance of mentors and a chosen Academy 
Dean, it is hoped that successful, highly productive ovarian cancer 
researchers will emerge.
    But in order to continue supporting innovative research, the OCRP 
needs increased funding. This spring, we received approximately 350 
pre-applications. In the end, we will only be able to fund 
approximately 30 full proposals. The ovarian cancer community worries 
that the cure could be heading to the trash can. Only with increased 
funding can the OCRP grow and continue to contribute to the fight 
against ovarian cancer.
     ovarian cancer community concerned by funding cuts to the ocrp
    The ovarian cancer community was extremely disappointed when we 
found out that OCRP funding was reduced from $20 million in 2009 to 
$18.75 in 2010. It is shocking when you consider our mortality rate has 
not decreased and new treatments and an early detection test are still 
so desperately needed.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The OCRP remains a modest program compared to the other cancer 
programs in the Congressionally-Directed Medical Research Programs, and 
yet has made vast strides in the fight against ovarian cancer with 
relatively few resources. With an increase in funding, the program can 
support more research into screening, early diagnosis and treatment of 
ovarian cancer.
    congressional support for fiscal year 2011 appropriation request
    This year, the ovarian cancer community has been proactive in 
securing support for our fiscal year 2011 appropriation request. A 
letter addressed to you in support of the $30 million appropriation for 
the OCRP was signed by Senator Robert Menendez and Senator Olympia 
Snowe, who were joined by Senators Daniel Akaka, Barbara Boxer, Sherrod 
Brown, Roland Burris, Ben Cardin, Bob Casey, Susan Collins, Chris Dodd, 
Richard Durbin, Kirsten Gillibrand, John Kerry, Kay Hagan, Ted Kaufman, 
Herb Kohl, Frank Lautenberg, Joe Lieberman, Blanche Lincoln, Jack Reed, 
Bernard Sanders, Charles Schumer, Debbie Stabenow, Sheldon Whitehouse, 
and Ron Wyden.
    A companion letter in the House supporting the $30 million request 
was sent to Chairman Dicks and Ranking Member Young from Congresswoman 
Rosa DeLauro and Congressman Dan Burton, who were joined by 84 
Representatives from both sides of the aisle: Representatives Andrews, 
Baldwin, Berkley, Berman, Blumenauer, Boswell, Boucher, Corrine Brown, 
Capuano, Carney, Carson, Castor, Cleaver, Cohen, Conyers, Crowley, 
Cummings, Susan Davis, DeGette, Delahunt, Doggett, Donna Edwards, 
Ellison, Farr, Frank, Gerlach, Gene Green, Grijalva, Gutierrez, John 
Hall, Halvorson, Hastings, Hirono, Hodes, Holt, Eddie Bernice Johnson, 
Kildee, Kilroy, Kind, Peter King, Kucinich, Lance, Levin, LoBiondo, 
Loebsack, Lynch, Maloney, Edward Markey, Marshall, McDermott, McGovern, 
Meeks, Michaud, George Miller, Brad Miller, Dennis Moore, Gwen Moore, 
Christopher Murphy, Patrick Murphy, Nadler, Norton, Oberstar, Pascrell, 
Peterson, Rahall, Richardson, Rush, Schakowsky, Bobby Scott, David 
Scott, Sestak, Shea-Porter, Snyder, Mike Thompson, Tierney, Tonko, 
Tsongas, Van Hollen, Velazquez, Walz, Wasserman Schultz, Waxman, Wu and 
Yarmuth.
               appropriation request for fiscal year 2011
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians and researchers--we greatly appreciate your 
leadership and support of Federal programs that seek to reduce and 
prevent suffering from ovarian cancer. Thank you in advance for your 
support of a minimum of $30 million in fiscal year 2011 funding for the 
Department of Defense Ovarian Cancer Research Program.

    Chairman Inouye. Our next witness, Ms. Katie Savant, Deputy 
Director of Government Relations, National Military Family 
Association.
STATEMENT OF KATIE SAVANT, GOVERNMENT RELATIONS DEPUTY 
            DIRECTOR, NATIONAL MILITARY FAMILY 
            ASSOCIATION
    Ms. Savant. Chairman Inouye, Senator Cochran, the National 
Military Family Association would like to thank you for the 
opportunity to present testimony on the quality of life of 
military families.
    Many families have faced the challenge of deployment for 8 
plus years. It is imperative that programs and services that 
provide a firm foundation for our families are fully funded.
    Programs must continue to adapt to the changing needs of 
service members and their families as they cope with multiple 
deployments, react to separations, balance reintegration, 
adjust to a wounded or ill service member, or grieve the loss 
of a fallen service member. Programs should provide for 
families in all stages of deployment and reach out to them in 
all geographical locations.
    Our association would like to thank the subcommittee for 
showing strong support for military families by funding 
essential programs that support today's dynamic and diverse 
military family, but more needs to be done. In this statement, 
our association will address areas that require additional 
funding or new funding.
    In May 2008, our association commissioned the RAND 
Corporation to conduct a longitudinal study on the deployment 
experiences of 1,500 families. The baseline findings were 
presented to Congress earlier this year. As a result of this 
research, our association believes we need dedicated resources, 
such as additional youth or teen centers, to support the needs 
of our older youth and teens during deployment.
    National Guard and Reserve component families appreciate 
the implementation of the Yellow Ribbon Program. Our 
association asked Congress to fully fund the Yellow Ribbon 
Program so it is consistent across the Nation and accessible to 
all families.
    The National Defense Authorization Act (NDAA) for Fiscal 
Year 2010 established the Office of Community Support for 
military families with special needs. The new office will go a 
long way in identifying and addressing special needs services. 
In order for this office to be successful, it will require 
funding.
    Military families place a high priority on the education of 
our military children. With States facing major budget cuts, 
Impact Aid will be a critical component to help school 
districts. We urge Congress to fully fund Impact Aid to its 
authorized levels.
    Military families are monitoring national healthcare reform 
and its potential impact in our population. We thank Congress 
for legislation that recognizes TRICARE meets minimal essential 
coverage under healthcare reform. However, we request your 
continued vigilance to ensure quality healthcare for military 
families.
    We suggest additional funding and flexibility in hiring 
practices when our military doctors deploy. We also recommend 
additional funding to DOD for possible civilian provider 
shortages due to reduced Medicare reimbursement rates and 
potential decreased provider availability due to healthcare 
reform.
    Our association applauds the recent passage of the 
Caregivers and Veterans Health Services Act. We would like to 
highlight two additional areas that will support our wounded 
service members. In last year's NDAA, it provided compensation 
for service members with assistance in everyday living. 
Unfortunately, this DOD mandate was not funded.
    For a seamless transition from Active Duty to veteran 
status, the service member's compensation amount should match 
the aid and attendance level the wounded service member would 
be eligible for by the Veterans Administration (VA). 
Additionally, current law permits the Secretary of the VA to 
provide a caregiver stipend. Caregivers have been shown to play 
an important role in maintaining the well-being of service 
members, and this provision should be funded.
    Our association has long advocated for enhanced benefits 
for survivors. Over 90 percent of families attended the 
ceremony at Dover to witness the dignified transfer of remains. 
Currently, the services are funding the travel out of pocket. 
We ask that funding be appropriated for travel costs for 
surviving family members to attend.
    Our association recognizes and appreciates the many 
resources and programs that support our military families 
during this time of war. The need will not go away when the war 
ends. We ask for you to help the Nation sustain and support our 
military families.
    Thank you.
    Chairman Inouye. I thank you very much, Ms. Savant.
    We are well aware that in World War II and Korea and 
Vietnam, the words ``military family'' were not used too often 
because when I was a little soldier, in my regiment, 4 percent 
had dependents, 96 percent were single.
    Ms. Savant. Wow.
    Chairman Inouye. Today, in a typical regiment, 70 percent 
have dependents. So we know that this is an important part of 
army life and military life. So I can assure you that if we are 
to maintain this strong military posture, we will have to look 
into military families.
    Ms. Savant. Thank you.
    Senator Cochran. Mr. Chairman, thank you for your 
leadership in providing sensitive and meaningful assistance to 
families. And I know with programs like the Yellow Ribbon 
Program and others, families are doing a great job with self 
help and contributions that are very, very important to the 
morale of our troops, men and women.
    Ms. Savant. Thank you.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
                   Prepared Statement of Katie Savant
    The National Military Family Association is the leading nonprofit 
organization committed to improving the lives of military families. Our 
40 years of accomplishments have made us a trusted resource for 
families and the Nation's leaders. We have been at the vanguard of 
promoting an appropriate quality of life for active duty, National 
Guard, Reserve, retired service members, their families and survivors 
from the seven uniformed services: Army, Navy, Air Force, Marine Corps, 
Coast Guard, Public Health Service and the National Oceanic and 
Atmospheric Administration.
    Association Representatives in military communities worldwide 
provide a direct link between military families and the Association 
staff in the Nation's capital. These volunteer Representatives are our 
``eyes and ears,'' bringing shared local concerns to national 
attention.
    The Association does not have or receive Federal grants or 
contracts.
    Our website is: www.MilitaryFamily.org.
    Chairman Inouye, Ranking Member Cochran, and Distinguished Members 
of the Subcommittee, the National Military Family Association would 
like to thank you for the opportunity to present testimony on the 
quality of life of military families--the Nation's families. As the war 
has continued, the quality of life of our service members and their 
families has been severely impacted. Your recognition of the sacrifices 
of these families and your response through legislation to the 
increased need for support have resulted in programs and policies that 
have helped sustain our families through these difficult times.
    In this statement, our Association will expand on several issues of 
importance to military families: Family Readiness, Family Health, and 
Family Transitions.
                            family readiness
    The National Military Family Association believes policies and 
programs should provide a firm foundation for families buffeted by the 
uncertainties of deployment and transformation. It is imperative full 
funding for these programs be included in the regular budget process 
and not merely added on as part of supplemental funding. We promote 
programs that expand and grow to adapt to the changing needs of service 
members and families as they cope with multiple deployments and react 
to separations, reintegration, and the situation of those returning 
with both visible and invisible wounds. Standardization in delivery, 
accessibility, and funding are essential. Programs should provide for 
families in all stages of deployment and reach out to them in all 
geographic locations. Families should be given the tools to take 
greater responsibility for their own readiness.
    We appreciate provisions in the National Defense Authorization Acts 
and Appropriations legislation in the past several years that 
recognized many of these important issues. Excellent programs exist 
across the Department of Defense (DOD) and the Services to support our 
military families. There are redundancies in some areas, times when a 
new program was initiated before looking to see if an existing program 
could be adapted to answer an evolving need. Service members and their 
families are continuously in the deployment cycle, anticipating the 
next separation, in the throes of deployment, or trying to reintegrate 
when the service member returns. Dwell times seem shorter and shorter 
as training, schools, and relocation impede on time that is spent in 
the family setting.
    ``My husband will have 3 months at home with us between deployment 
and being sent to school in January for 2 months and we will be PCSing 
soon afterwards. . . . This does not leave much time for reintegration 
and reconnection.''
    We feel that now is the time to look at best practices and at those 
programs that are truly meeting the needs of families. In this section 
we will talk about existing programs, highlight best practices and 
identify needs.
Child Care
    At every military family conference we attended last year, child 
care was in the top five issues affecting families--drop-in care being 
the most requested need. Some installations are responding to these 
needs in innovative ways. For instance, in a recent visit to Kodiak, 
Alaska, we noted the gym facility provided watch care for its patrons. 
Mom worked out on the treadmill or elliptical while her child played in 
a safe carpeted and fenced-in area right across from her. Another area 
of the gym, previously an aerobics room, had been transformed into a 
large play area for ``Mom and me'' groups to play in the frequently 
inclement weather. These solutions aren't expensive, but do require 
thinking outside the box.
    Innovative strategies are needed to address the non-availability of 
after-hours child care (before 6 a.m. and after 6 p.m.) and respite 
care. We applaud the partnership between the Services and the National 
Association of Child Care Resource and Referral Agencies (NACCRRA) that 
provides subsidized child care to families who cannot access 
installation based child development centers. Families often find it 
difficult to obtain affordable, quality care especially during hard-to-
fill hours and on weekends. Both the Navy and the Air Force have 
programs that provide 24/7 care. These innovative programs must be 
expanded to provide care to more families at the same high standard as 
the Services' traditional child development programs. The Army, as part 
of the funding attached to its Army Family Covenant, has rolled out 
more space for respite care for families of deployed soldiers. Respite 
care is needed across the board for the families of the deployed and 
the wounded, ill, and injured. We are pleased the Services have rolled 
out more respite care for special needs families, but are concerned 
when we hear that some installations are already experiencing 
shortfalls of funding for respite care early in the year.
    At our Operation Purple Healing Adventures camp for families of 
the wounded, ill, and injured, families told us there is a tremendous 
need for access to adequate child care on or near military treatment 
facilities. Families need the availability of child care in order to 
attend medical appointments, especially mental health appointments. Our 
Association encourages the creation of drop-in child care for medical 
appointments on the DOD or VA premises or partnerships with other 
organizations to provide this valuable service.
    We appreciate the requirement in the National Defense Authorization 
Act fiscal year 2010 (NDAA fiscal year 2010) calling for a report on 
financial assistance provided for child care costs across the Services 
and Components to support the families of those service members 
deployed in support of a contingency operation and we look forward to 
the results.
    Our Association urges Congress to ensure resources are available to 
meet the child care needs of military families to include hourly, drop-
in and increased respite care across all Services for families of 
deployed service members and the wounded, ill, and injured, as well as 
those family members with special needs.
Working with Youth
    Older children and teens must not be overlooked. School personnel 
need to be educated on issues affecting military students and must be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools, too. Military parents constantly seek more 
resources to assist their children in coping with military life, 
especially the challenges and stress of frequent deployments. Parents 
tell us repeatedly they want resources to ``help them help their 
children.'' Support for parents in their efforts to help children of 
all ages is increasing, but continues to be fragmented. New Federal, 
public-private initiatives, increased awareness, and support by DOD and 
civilian schools educating military children have been developed. 
However, many military parents are either not aware such programs exist 
or find the programs do not always meet their needs.
    Our Association is working to meet this pressing need through our 
Operation Purple (OPC) summer camps. Unique in its ability to reach 
out and gather military children of different age groups, Services, and 
components, our Operation Purple program provides a safe and fun 
environment in which military children feel immediately supported and 
understood. For the second year, with the support of private donors, we 
achieved our goal of sending 10,000 military children to camp in 2009. 
We also provided the camp experience to families of the wounded. This 
year, we expect to maintain those numbers by offering 92 weeks of camp 
in 40 states, Guam and Germany. In 2009, we introduced a new program 
under our Operation Purple umbrella, offering family reintegration 
retreats in the National Parks. They have been well received by our 
families and more apply than can attend. We are offering 10 retreats 
this year.
    Through our Operation Purple camps, our Association has begun to 
identify the cumulative effects multiple deployments are having on the 
emotional growth and well being of military children and the challenges 
posed to the relationship between deployed parent, caregiver, and 
children in this stressful environment. Understanding a need for 
qualitative analysis of this information, we commissioned the RAND 
Corporation to conduct a pilot study in 2007 aimed at the current 
functioning and wellness of military children attending Operation 
Purple camps and assessing the potential benefits of the OPC program in 
this environment of multiple and extended deployments.
    In May 2008, we embarked on phase two of the project--a 
longitudinal study on the experience of 1,507 families, which is a much 
larger and more diverse sample than included in our pilot study. RAND 
followed these families for 1 year, and interviewed the non-deployed 
caregiver/parent and one child per family between 11 and 17 years of 
age at three time points over a year. Recruitment of participants was 
extremely successful because families were eager to share their 
experiences. The research addressed two key questions:
    How are school-age military children faring?
    What types of issues do military children face related to 
deployment?
    In December, the baseline findings of the research were published 
in the journal Pediatrics. Findings showed:
  --As the months of parental deployment increased so did the child's 
        challenges.
  --The total number of months away mattered more than the number of 
        deployments.
  --Older children experienced more difficulties during deployment.
  --There is a direct correlation between the mental health of the 
        caregiver and the well-being of the child.
  --Girls experienced more difficulty during reintegration, the period 
        of months readjusting after the service member's homecoming.
  --About one-third of the children reported symptoms of anxiety, which 
        is somewhat higher than the percentage reported in other 
        national studies of children.
  --In these initial findings, there were no differences in results 
        between Services or Components.
    What are the implications? Families facing longer deployments need 
targeted support--especially for older teens and girls. Supports need 
to be in place across the entire deployment cycle, including 
reintegration, and some non-deployed parents may need targeted mental 
health support. One way to address these needs would be to create a 
safe, supportive environment for older youth and teens. Dedicated Youth 
Centers with activities for our older youth would go a long way to help 
with this.
    Our Association feels that more dedicated resources, such as youth 
or teen centers, would be beneficial to address the needs of our older 
youth and teens during deployment.
Families Overseas
    Families stationed overseas face increased challenges when their 
service member is deployed into theater. One such challenge we have 
heard from families stationed in European Command (EUCOM) concerns care 
for a family member, usually the spouse, who may be injured or confined 
to bed for an extended illness during deployment. Instead of pulling 
the service member back from theater, why not provide transportation 
for an extended family member or friend to come from the States to care 
for the injured or ill family member? This has been a recommendation 
from the EUCOM Quality of Life conference for several years.
National Guard and Reserve
    The National Military Family Association has long recognized the 
unique challenges our Reserve Component families face and their need 
for additional support. National Guard and Reserve families are often 
geographically dispersed, live in rural areas, and do not have the same 
family support programs as their active duty counterparts. The final 
report from the Commission on the National Guard and Reserve confirmed 
what we have always asserted: ``Reserve Component families face special 
challenges because they are often at a considerable distance from 
military facilities and lack the on-base infrastructure and assistance 
available to active duty families.''
    This is especially true when it comes to accessing the same level 
of counseling and behavioral health support as active duty families. 
However, our Association applauds the innovative counseling and 
behavioral health support to National Guard and Reserve families, in 
the form of Military OneSource counseling, the TRICARE Assistance 
Program (TRIAP), and Military Family Life Consultants (MFLC). Combined, 
these valuable resources are helping to address a critical need for our 
Reserve Component families.
    In the past several years, great strides have been made by both 
Congress and the Services to help strengthen our National Guard and 
Reserve families. Our Association wishes to thank Congress for 
authorizing these important provisions. We urge you to fully fund these 
vital quality of life programs critical to our Reserve Component 
families, who have sacrificed greatly in support of our Nation.
    In addition, our Association would like to thank Congress for the 
provisions allowing for the implementation of the Yellow Ribbon 
Program, and for including reporting requirements on the program's 
progress in the NDAA fiscal year 2010. We continue to urge Congress to 
make the funding for this program permanent. In addition, we ask that 
you conduct oversight hearings to ensure that Yellow Ribbon services 
are consistent across the nation. We also ask that the definition of 
family member be expanded to allow non-ID card holders to attend these 
important programs, in order to support their service member and gain 
valuable information.
    Our Association asks Congress to fully fund the Yellow Ribbon 
Program, and provide oversight hearings to ensure that Yellow Ribbon 
services are consistent across the nation, and are accessible to all 
Reserve Component families. We also ask for funding for those persons 
designated by the service member to attend Yellow Ribbon Program 
events.
                             family health
    Family readiness calls for access to quality healthcare and mental 
health services. Families need to know the various elements of their 
military health system are coordinated and working as a synergistic 
system. Our Association is concerned the DOD military healthcare system 
may not have all the resources it needs to meet both the military 
medical readiness mission and provide access to healthcare for all 
beneficiaries. It must be funded sufficiently, so the direct care 
system of military treatment facilities (MTF) and the purchased care 
segment of civilian providers can work in tandem to meet the 
responsibilities given under the TRICARE contracts, meet readiness 
needs, and ensure access for all military beneficiaries.
    Congress must provide timely and accurate funding for healthcare. 
DOD healthcare facilities must be funded to be ``world class,'' 
offering state-of-the-art healthcare services supported by evidence-
based research and design. Funding must also support the renovation of 
existing facilities or complete replacement of out-of-date DOD 
healthcare facilities. As we get closer to the closure of Walter Reed 
Army Medical Center and the opening of the new Fort Belvoir Community 
Hospital and the new Walter Reed National Military Medical Center, as 
part of the National Capitol Region BRAC process, we must be assured 
these projects are properly and fully funded. We encourage Congress to 
provide any additional funding recommended by the Defense Health 
Board's BRAC Subcommittee's report.
Military Health System
            Improving Access to Care
    In the question and answer period during the U.S. Senate Committee 
on Armed Services' Subcommittee on Personnel on June 3, 2009, Senator 
Lindsey Graham (R-SC) asked panel members to ``give a grade to 
TRICARE.'' Panel members rated TRICARE a ``B'' or a ``C minus.'' Our 
Association's Director of Government Relations stated it was a two part 
question and assigned the ``quality of care, B. Access to care, C 
minus.'' The panelist and Subcommittee Members discussion focused on 
access issues in the direct care system--our military hospitals and 
clinics--reinforcing what our Association has observed for years. We 
have consistently heard from families that their greatest healthcare 
challenge has been getting timely care from their local military 
hospital or clinic.
    Our Association continues to examine military families' experiences 
with accessing the Military Health System (MHS). Families' main issues 
are: access to their Primary Care Managers (PCM); getting someone to 
answer the phone at central appointments; having appointments available 
when they finally got through to central appointments; after hours 
care; getting a referral for specialty care; being able to see the same 
provider or PCM; and having appointments available 60, 90, and 120 days 
out in our MTFs. Families familiar with how the MHS referral system 
works seem better able to navigate the system. Those families who are 
unfamiliar report delays in receiving treatment or sometimes decide to 
give up on the referral process and never obtain a specialty 
appointment. Continuity of care is important to maintain quality of 
care. The MTFs are stressed from 9 years of provider deployments, 
directly affecting the quality of care and contributing to increased 
costs. Our Association thanks Congress for requiring, in the NDAA 
fiscal year 2009, a report on access to care and we look forward to the 
findings. This report must distinguish between access issues in the 
MTFs, as opposed to access in the civilian TRICARE networks.
    Our most seriously wounded, ill, and injured service members, 
veterans, and their families are assigned case managers. In fact, there 
are many different case managers: Federal Recovery Coordinators (FRC), 
Recovery Care Coordinators, coordinators from Service branch, Traumatic 
Brain Injury (TBI) care coordinators, Department of Veteran Affairs 
(VA) liaisons, et cetera. The goal is for a seamless transition of care 
between and within the two governmental agencies, DOD and the VA. 
However, with so many coordinators to choose from, families often 
wonder which one is the ``right'' case manager. We often hear from 
families, some whose service member has long been medically retired 
with a 100 percent disability rating or others with less than 1 year 
from date-of-injury, who have not yet been assigned a FRC. We need to 
look at whether the multiple, layered case managers have streamlined 
the process, or have only aggravated it. Our Association still finds 
families trying to navigate alone a variety of complex healthcare 
systems, trying to find the right combination of care. Individual 
Service wounded, ill, and injured program directors and case managers 
are often reluctant to inform families that FRCs exist or that the 
family qualifies for one. Many qualify for and use Medicare, VA, DOD's 
TRICARE direct and purchased care, private health insurance, and state 
agencies. Why can't the process be streamlined?
            Support for Special Needs Families
    Case management for military beneficiaries with special needs is 
not consistent because the coordination of the military family's care 
is being done by a non-synergistic MHS. Beneficiaries try to obtain an 
appointment and then find themselves getting partial healthcare within 
the MTF, while other healthcare is referred out into the purchased care 
network. Thus, military families end up managing their own care. 
Incongruence in the case management process becomes more apparent when 
military family members transfer from one TRICARE region to another and 
is further exacerbated when a special needs family member is involved. 
Families need a seamless transition and a warm handoff between TRICARE 
regions and a universal case management process across the MHS. The 
current case management system is under review by DOD and TRICARE 
Management Activity (TMA). Each TRICARE Managed Care Contractor has 
created different case management processes.
    We applaud Congress and DOD's desire to create robust healthcare, 
educational, and family support services for special needs children. 
But, these robust services do not follow them when they retire. We 
encourage the Services to allow these military families the opportunity 
to have their final duty station be in an area of their choice. We 
suggest the Extended Care Health Option (ECHO) be extended for 1 year 
after retirement for those already enrolled in ECHO prior to 
retirement. If the ECHO program is extended, it must be for all who are 
eligible for the program. We should not create a different benefit 
simply based on diagnosis.
    There has been discussion over the past years by Congress and 
military families regarding the ECHO program. The NDAA fiscal year 2009 
included a provision to increase the cap on certain benefits under the 
ECHO program and the NDAA fiscal year 2010 established the Office of 
Community Support for Military Families with Special Needs. The ECHO 
program was originally designed to allow military families with special 
needs to receive additional services to offset their lack of 
eligibility for state or Federally provided services impacted by 
frequent moves. We suggest that before making any more adjustments to 
the ECHO program, Congress should direct DOD to certify if the ECHO 
program is working as it was originally designed and if it has been 
effective in addressing the needs of this population. We need to make 
the right fixes so we can be assured we apply the correct solutions. 
This new office will go a long way in identifying and addressing 
special needs. However, we must remember that our special needs 
families often require medical, educational, and family support 
resources. This new office must address all these various needs in 
order to effectively implement change.
    We ask for funding for the Office of Community Support for Military 
Families with Special Needs so this important new office can begin 
helping our special needs families.
            National Guard and Reserve Member Family Health Care
    National Guard and Reserve families need increased education about 
their healthcare benefits. We also believe that paying a stipend (NDAA 
fiscal year 2008) to a mobilized National Guard or Reserve member for 
their family's coverage under their employer-sponsored insurance plan 
may prove to be more cost-effective for the government than subsidizing 
72 percent of the costs of TRICARE Reserve Select for National Guard or 
Reserve members not on active duty.
            Grey Area Reservist
    Our Association would like to thank Congress for the new TRICARE 
benefit for Grey Area Reservists. We want to make sure this benefit is 
quickly implemented and they have access to a robust network.
            TRICARE Reimbursement
    Our Association is concerned that continuing pressure to lower 
Medicare reimbursement rates will create a hollow benefit for TRICARE 
beneficiaries. As the 111th Congress takes up Medicare legislation, we 
request consideration of how this legislation will impact military 
families' healthcare, especially access to mental health services.
    National provider shortages in the psychological health field, 
especially in child and adolescent psychology, are exacerbated in many 
cases by low TRICARE reimbursement rates, TRICARE rules, or military-
unique geographic challenges--for example large populations in rural or 
traditionally underserved areas. Many psychological health providers 
are willing to see military beneficiaries on a voluntary status. 
However, these providers often tell us they will not participate in 
TRICARE because of what they believe are time-consuming requirements 
and low reimbursement rates. More must be done to persuade these 
providers to participate in TRICARE and become a resource for the 
entire system, even if that means DOD must raise reimbursement rates. 
If that is the case, DOD may need additional funding for the 
flexibility to increase provider reimbursement rates if shortages 
develop.
            Pharmacy
    We caution DOD about generalizing findings of certain beneficiary 
pharmacy behaviors and automatically applying them to our Nation's 
unique military population. We encourage Congress to require DOD to 
utilize peer-reviewed research involving beneficiaries and prescription 
drug benefit options, along with performing additional research 
involving military beneficiaries, before making any recommendations on 
prescription drug benefit changes, such as co-payment and tier 
structure changes for military service members, retirees, their 
families, and survivors.
    We appreciate the inclusion of Federal pricing for the TRICARE 
retail pharmacies in the NDAA fiscal year 2008. However, we still need 
to examine its effect on the cost of medications for both beneficiaries 
and DOD. Also, we will need to see how this potentially impacts 
Medicare, civilian private insurance, and the National Health Care 
Reform drug pricing negotiations.
    We believe it is imperative that all medications available through 
TRICARE Retail Pharmacy (TRRx) should also be made available through 
TRICARE Mail Order Pharmacy (TMOP). Medications treating chronic 
conditions, such as asthma, diabetes, and hypertension should be made 
available at the lowest level of co-payment regardless of brand or 
generic status. We agree with the recommendations of The Task Force on 
the Future of Military Health Care that over-the-counter (OTC) drugs be 
a covered pharmacy benefit without a co-payment for TMOP Tier 1 
medications.
    The new T3 TRICARE contract will provide TRICARE Managed Care 
Contractors and Express-Scripts, Inc. the ability to link pharmacy data 
with disease management. This will allow for better case management, 
increased compliance, and decreased cost, especially for our 
chronically ill beneficiaries. However, this valuable tool is currently 
unavailable because the T3 contract is partially under protest and has 
not yet been awarded.
            National Health Care
    We thank Congress for legislation that recognizes that TRICARE 
meets minimal essential coverage under National Health Care reform. 
However, we request your continued vigilance to ensure quality 
healthcare for military families. The perfect storm is brewing. TMA 
will institute the new T3 contact at the same time healthcare reform 
changes are implemented. Currently, at least one out of three TRICARE 
Managed Care Contractors could change. This means that the contracts of 
those TRICARE providers would need to be renegotiated. Healthcare 
reform and Medicare reimbursement rate changes are adding to the 
demands and uncertainty of our providers. Our Association is concerned 
that providers will be unwilling to remain in the TRICARE network and 
it will become very difficult to recruit new providers. The unintended 
consequence may be a decrease in access of care due the lack of 
available healthcare providers. DOD will need additional funding to 
increase reimbursement rates if provider shortages develop.
            DOD Must Look for Savings
    We ask Congress to establish better oversight for DOD's 
accountability in becoming more cost-efficient. We recommend:
  --Requiring the Comptroller General to audit MTFs on a random basis 
        until all have been examined for their ability to provide 
        quality healthcare in a cost-effective manner;
  --Creating an oversight committee, similar in nature to the Medicare 
        Payment Advisory Commission, which provides oversight to the 
        Medicare program and makes annual recommendations to Congress. 
        The Task Force on the Future of Military Health Care often 
        stated it was unable to address certain issues not within their 
        charter or the timeframe in which they were commissioned to 
        examine the issues. This Commission would have the time to 
        examine every issue in an unbiased manner.
  --Establishing a Unified ``Joint'' Medical Command structure, which 
        was recommended by the Defense Health Board in 2006.
    Our Association believes optimizing the capabilities of the 
facilities of the direct care system through timely replacement of 
facilities, increased funding allocations, and innovative staffing 
would allow more beneficiaries to be cared for in the MTFs, which DOD 
asserts is the most cost effective. The Task Force made recommendations 
to make the DOD MHS more cost-efficient which we support. They conclude 
the MHS must be appropriately sized, resourced, and stabilized; and 
make changes in its business and healthcare practices.
    We suggest additional funding and flexibility in hiring practices 
to address MTF provider deployments.
    We recommend additional funding to DOD for potential civilian 
provider shortages within the community due to reduced Medicare 
reimbursement rates and potential decreased provider availability due 
to healthcare reform.
    Our Association recommends a 1 year transitional active duty ECHO 
benefit for all eligible family members of service members who retire.
    We believe that Reserve Component families should be given the 
choice of a stipend to continue their employer provided care during 
deployment.
            Behavioral Health Care
    Our Nation must help returning service members and their families 
cope with the aftermath of war. DOD, VA, and State agencies must 
partner in order to address behavioral health issues early in the 
process and provide transitional mental health programs. Partnering 
will also capture the National Guard and Reserve member population, who 
often straddle these agencies' healthcare systems.
            Full Spectrum of Care
    As the war continues, families' need for a full spectrum of 
behavioral health services--from preventative care to stress reduction 
techniques, individual or family counseling, to medical mental health 
services--continues to grow. The military offers a variety of 
psychological health services, both preventative and treatment, across 
many agencies and programs. However, as service members and families 
experience numerous lengthy and dangerous deployments, we believe the 
need for confidential, preventative psychological health services will 
continue to rise. It will remain high, even after military operations 
scale down. Our study found the mental health of the caregiver directly 
affects the overall well-being of the children. Therefore, we need to 
treat the family as a unit rather than as individuals because the 
caregiver's health determines the quality of life for the children.
            Access to Behavioral Health Care
    Our Association is concerned about the overall shortage of 
psychological health providers in TRICARE's direct and purchased care 
network. DOD's Task Force on Mental Health stated timely access to the 
proper psychological health provider remains one of the greatest 
barriers to quality mental health services for service members and 
their families. The Army Family Action Plan (AFAP) identified mental 
health issues as their number three issue for 2010. While families are 
pleased more psychological health providers are available in theater to 
assist their service members, they are disappointed with the resulting 
limited access to providers at home. Families are reporting increased 
difficulty in obtaining appointments with social workers, 
psychologists, and psychiatrists at their MTFs and clinics. The 
military fuels the shortage by deploying some of its child and 
adolescent psychology providers to combat zones. Providers remaining at 
home report they are overwhelmed by treating active duty members and 
are unable to fit family members into their schedules. This can lead to 
compassion fatigue, creating burnout and exacerbating the provider 
shortage problem.
    We have seen an increase in the number of psychological health 
providers joining the purchased care side of the TRICARE network. 
However, the access standard is 7 days. We hear from military families 
after accessing the psychological health provider list on the 
contractor's websites that the provider is full and no longer taking 
patients. The list must be up-to-date in order to handle real time 
demands by families. We need to continue to recruit more psychological 
health providers to join the TRICARE network and we need to make sure 
we specifically add those in specialty behavioral healthcare areas, 
such as child and adolescence psychology and psychiatrists.
    Families must be included in mental health counseling and treatment 
programs for service members. Family members are a key component to a 
service member's psychological well-being. We recommend an extended 
outreach program to service members, veterans, and their families of 
available psychological health resources, such as DOD, VA, and State 
agencies.
    Frequent and lengthy deployments create a sharp need in 
psychological health services by family members and service members as 
they get ready to deploy and after their return. There is also an 
increase in demand in the wake of natural disasters, such as hurricanes 
and fires. We need to maintain a flexible pool of psychological health 
providers who can increase or decrease rapidly in numbers depending on 
demand by the MHS. Currently, Military Family Life Consultants and 
Military OneSource counseling are providing this type of service for 
military families on the family support side. The recently introduced 
web-based TRICARE Assistance Program (TRIAP) offers another vehicle for 
non-medical counseling, especially for those who live far from 
counselors. We need to make the Services, along with military family 
members, more aware of resources along the continuum. We need the 
flexibility of support in both the MHS and family support arenas. We 
must educate civilian network providers about our military culture. 
Communities along with nongovernment organizations (NGO) are beginning 
to fulfill this role, but more needs to be done.
            Availability of Treatment
    Do DOD, VA and State agencies have adequate psychological health 
providers, programs, outreach, and funding? Better yet, where will the 
veteran's spouse and children go for help? Many will be left alone to 
care for their loved one's invisible wounds resulting from frequent and 
long combat deployments. Who will care for them when they are no longer 
part of the DOD healthcare system?
    The Army's Mental Health Advisory Team (MHAT) IV report links 
reducing family issues to reducing stress on deployed service members. 
The team found the top non-combat stressors were deployment length and 
family separation. They noted soldiers serving a repeat deployment 
reported higher acute stress than those on their first deployment and 
the level of combat was the major contribution for their psychological 
health status upon return. Our study, along with other research, on the 
impact of deployment on caregivers and children found it was the 
cumulative time deployed that caused increased stress. These reports 
demonstrate the amount of stress being placed on our troops and their 
families.
    Our Association is especially concerned with the scarcity of 
services available to the families as they leave the military following 
the end of their activation or enlistment. Due to the service member's 
separation, the families find themselves ineligible for TRICARE, 
Military OneSource, and are very rarely eligible for healthcare through 
the VA. Many will choose to locate in rural areas lacking available 
psychological health providers. We need to address the distance issues 
families face in finding psychological health resources and obtaining 
appropriate care. Isolated service members, veterans, and their 
families do not have the benefit of the safety net of services and 
programs provided by MTFs, VA facilities, Community-Based Outpatient 
Centers and Vet Centers. We recommend:
  --using and funding alternative treatment methods, such as telemental 
        health;
  --modifying licensing requirements in order to remove geographic 
        practice barriers that prevent psychological health providers 
        from participating in telemental health services outside of a 
        VA facility;
  --educating civilian network psychological health providers about our 
        military culture as the VA incorporates Project Hero; and
  --encouraging DOD and VA to work together to provide a seamless 
        ``warm hand-off'' for families, as well as service members 
        transitioning from active duty to veteran status and funding 
        additional transitional support programs if necessary.
            National Guard and Reserve Members
    The National Military Family Association is especially concerned 
about fewer mental healthcare services available for the families of 
returning National Guard and Reserve members as well as service members 
who leave the military following the end of their enlistment. They are 
eligible for TRICARE Reserve Select, but as we know, National Guard and 
Reserve members are often located in rural areas where there may be no 
mental health providers available. Policy makers need to address the 
distance issues that families face in linking with military mental 
health resources and obtaining appropriate care. Isolated National 
Guard and Reserve families do not have the benefit of the safety net of 
services provided by MTFs and installation family support programs. 
Families want to be able to access care with a provider who understands 
or is sympathetic to the issues they face. We recommend the use of 
alternative treatment methods, such as telemental health; increasing 
mental health reimbursement rates for rural areas; modifying licensing 
requirements in order to remove geographic practice barriers that 
prevent mental health providers from participating in telemental health 
services; and educating civilian network mental health providers about 
our military culture. We hear the National Guard Bureau's Psychological 
Health Services (PHS) is not working as designed to address their 
mental health issues. This program needs to be re-evaluated to 
determine its effectiveness.
            Children
    Our Association is concerned about the impact deployment and/or the 
injury of the service member is having on our most vulnerable 
population, children of our military and veterans. Our study on the 
impact of the war on caregivers and children found deployments are 
creating layers of stressors, which families are experiencing at 
different stages. Teens especially carry a burden of care they are 
reluctant to share with the non-deployed parent in order to not ``rock 
the boat.'' They are often encumbered by the feeling of trying to keep 
the family going, along with anger over changes in their schedules, 
increased responsibility, and fear for their deployed parent. Children 
of the National Guard and Reserve members face unique challenges since 
there are no military installations for them to utilize. They find 
themselves ``suddenly military'' without resources to support them. 
School systems are generally unaware of this change in focus within 
these family units and are ill prepared to lookout for potential 
problems caused by these deployments or when an injury occurs. Also 
vulnerable, are children who have disabilities that are further 
complicated by deployment and subsequent injury of the service members. 
Their families find stress can be overwhelming, but are afraid to reach 
out for assistance for fear of retribution to the service member's 
career. They often choose not to seek care for themselves or their 
families. We appreciate the inclusion of a study on the mental health 
needs of our children in the NDAA fiscal year 2010 and hope the 
research we commissioned will provide useful information as the study 
is designed.
    The impact of the wounded, ill, and injured on children is often 
overlooked and underestimated. Military children experience a 
metaphorical death of the parent they once knew and must make many 
adjustments as their parent recovers. Many families relocate to be near 
the treating MTF or the VA Polytrauma Center in order to make the 
rehabilitation process more successful. As the spouse focuses on the 
rehabilitation and recovery, older children take on new roles. They may 
become the caregivers for other siblings, as well as for the wounded 
parent. Many spouses send their children to stay with neighbors or 
extended family members, as they tend to their wounded, ill, and 
injured spouse. Children get shuffled from place to place until they 
can be reunited with their parents. Once reunited, they must adapt to 
the parent's new injury and living with the ``new normal.'' We 
appreciate the inclusion of a study to assess the impact on children of 
the severely wounded in the NDAA fiscal year 2010.
    We encourage partnerships between government agencies, DOD, VA and 
State agencies and recommend they reach out to those private and NGOs 
who are experts on children and adolescents. They could identify and 
incorporate best practices in the prevention and treatment of mental 
health issues affecting our military children. We must remember to 
focus on preventative care upstream, while still in the active duty 
phase, in order to have a solid family unit as they head into the 
veteran phase of their lives. School systems must become more involved 
in establishing and providing supportive services for our nation's 
children.
            Caregiver Burnout
    In the ninth year of war, care for the caregivers must become a 
priority. There are several levels of caregivers. Our Association hears 
from the senior officer and enlisted spouses who are so often called 
upon to be the strength for others. We hear from the healthcare 
providers, educators, chaplains, and counselors who are working long 
hours to assist service members and their families. They tell us they 
are overburdened, burnt out, and need time to recharge so they can 
continue to serve these families. These caregivers must be afforded 
respite care, given emotional support through their command structure, 
and be provided effective family programs.
            Education
    The DOD, VA, and State agencies must educate their healthcare and 
mental health professionals of the effects of mild Traumatic Brain 
Injury (mTBI) in order to help accurately diagnose and treat the 
service member's condition. They must be able to deal with polytrauma--
Post-Traumatic Stress Disorder (PTSD) in combination with multiple 
physical injuries. We need more education for civilian healthcare 
providers on how to identify signs and symptoms of mild TBI and PTSD.
    The families of service members and veterans must be educated about 
the effects of mTBI and PTSD in order to help accurately diagnose and 
treat the service member/veteran's condition. These families are on the 
``sharp end of the spear'' and are more likely to pick up on changes 
attributed to either condition and relay this information to their 
healthcare providers. Programs are being developed by each Service. 
However, they are narrow in focus targeting line leaders and healthcare 
providers, but not broad enough to capture our military family members 
and the communities they live in.
            Reintegration Programs
    Reintegration programs become a key ingredient in the family's 
success. Our Association believes we need to focus on treating the 
whole family with programs offering readjustment information; education 
on identifying mental health, substance abuse, suicide, and TBI; and 
encouraging them to seek assistance when having financial, 
relationship, legal, and occupational difficulties. We appreciate the 
inclusion in the NDAA fiscal year 2010 for education programs targeting 
pain management and substance abuse for our families. As Services roll 
out suicide prevention programs, we need to include our families, 
communities, and support personnel.
    Successful return and reunion programs will require attention and 
funding over the long term, as well as a strong partnership at all 
levels between the various mental health arms of DOD, VA, and State 
agencies. DOD and VA need to provide family and individual counseling 
to address these unique issues. Opportunities for the entire family and 
for the couple to reconnect and bond must also be provided. Our 
Association has recognized this need and successfully piloted family 
retreats in the National Parks promoting family reintegration following 
deployment.
    We recommend an extended outreach program to service members, 
veterans, and their families of available psychological health 
resources, such as DOD, VA, and State agencies.
    We encourage Congress to request DOD to include families in its 
Psychological Health Support survey; perform a pre and post-deployment 
mental health screening on family members (similar to the PDHA and 
PDHRA currently being done for service members).
    We recommend the use and funding of alternative treatment methods, 
such as telemental health; increasing mental health reimbursement rates 
for rural areas; modifying licensing requirements in order to remove 
geographic practice barriers that prevent mental health providers from 
participating in telemental health services; and educating civilian 
network mental health providers about our military culture.
    Caregivers must be afforded respite care; given emotional support 
through their command structure; and be provided effective family 
programs.
            Wounded Service Members Have Wounded Families
    Our Association asserts that behind every wounded service member 
and veteran is a wounded family. It is our belief the government, 
especially the DOD and VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured service member must also consider the 
needs of the spouse, children, parents of single service members and 
their siblings, and the caregivers. DOD and VA need to think 
proactively as a team and one system, rather than separately; and 
addressing problems and implementing initiatives upstream while the 
service member is still on active duty status.
    Reintegration programs become a key ingredient in the family's 
success. For the past 2 years, we have piloted our Operation Purple 
Healing Adventures camp to help wounded service members and their 
families learn to play again as a family. We hear from the families who 
participate in this camp, as well as others dealing with the recovery 
of their wounded service members that, even with Congressional 
intervention and implementation of the Services' programs, many issues 
still create difficulties for them well into the recovery period. 
Families find themselves having to redefine their roles following the 
injury of the service member. They must learn how to parent and become 
a spouse/lover with an injury. Each member needs to understand the 
unique aspects the injury brings to the family unit. Parenting from a 
wheelchair brings a whole new challenge, especially when dealing with 
teenagers. Parents need opportunities to get together with other 
parents who are in similar situations and share their experiences and 
successful coping methods. Our Association believes we need to focus on 
treating the whole family with DOD and VA programs offering skill based 
training for coping, intervention, resiliency, and overcoming 
adversities. Injury interrupts the normal cycle of deployment and the 
reintegration process. We must provide opportunities for the entire 
family and for the couple to reconnect and bond, especially during the 
rehabilitation and recovery phases.
    Brooke Army Medical Center (BAMC) has recognized a need to support 
these families by expanding in terms of guesthouses co-located within 
the hospital grounds and a family reintegration program for their 
Warrior Transition Unit. The on-base school system is also sensitive to 
issues surrounding these children. A warm, welcoming family support 
center located in guest housing serves as a sanctuary for family 
members. The DOD and VA could benefit from looking at successful 
programs like BAMC's which has found a way to embrace the family unit 
during this difficult time.
    The Vet Centers are an available resource for veterans' families 
providing adjustment, vocational, and family and marriage counseling. 
The VA healthcare facilities and the community-based outpatient clinics 
(CBOCs) have a ready supply of mental health providers. We recommend 
DOD partner with the VA to allow military families access to mental 
health services. We also believe Congress should require the VA, 
through its Vet Centers and healthcare facilities to develop a holistic 
approach to care by including families when providing mental health 
counseling and programs to the wounded, ill, and injured service member 
or veteran.
    The Defense Health Board has recommended DOD include military 
families in its mental health studies. We agree. We encourage Congress 
to direct DOD to include families in its Psychological Health Support 
survey and perform a pre and post-deployment mental health screening on 
family members (similar to the PDHA and PDHRA currently being done for 
service members). This recommendation will require additional funding. 
We appreciate the NDAA fiscal year 2010 report on the impact of the war 
on families and the DOD's Millennium Cohort Study including families. 
Both will help us gain a better understanding of the long-term effects 
of war on our military families.
            Transitioning for the Wounded and Their Families
    Transitions can be especially problematic for wounded, ill, and 
injured service members, veterans, and their families. The DOD and the 
VA healthcare systems, along with State agency involvement, should 
alleviate, not heighten these concerns. They should provide for 
coordination of care, starting when the family is notified that the 
service member has been wounded and ending with the DOD, VA, and State 
agencies working together, creating a seamless transition, as the 
wounded service member transfers between the two agencies' healthcare 
systems and, eventually, from active duty status to veteran status.
    Transition of healthcare coverage for our wounded, ill, and injured 
and their family members is a concern of our Association. These service 
members and families desperately need a healthcare bridge as they deal 
with the after effects of the injury and possible reduction in their 
family income. We have created two proposals. Service members who are 
medically retired and their families should be treated as active duty 
for TRICARE fee and eligibility purposes for 3 years following medical 
retirement. This proposal will allow the family not to pay premiums and 
be eligible for certain programs offered to active duty, such as ECHO 
for 3 years. Following that period, they would pay TRICARE premiums at 
the rate for retirees. Service members medically discharged from 
service and their family members should be allowed to continue for 1 
year as active duty for TRICARE and then start the Continued Health 
Care Benefit Program (CHCBP) if needed.
            Caregivers
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. Without them, the quality of life of 
the wounded service members and veterans, such as physical, psycho-
social, and mental health, would be significantly compromised. They are 
viewed as an invaluable resource to DOD and VA healthcare providers 
because they tend to the needs of the service members and the veterans 
on a regular basis. And, their daily involvement saves DOD, VA, and 
State agency healthcare dollars in the long run. Their long-term 
psychological care needs must be addressed. Caregivers of the severely 
wounded, ill, and injured service members who are now veterans have a 
long road ahead of them. In order to perform their job well, they will 
require access to mental health services and these services must be 
funded.
    The VA has made a strong effort in supporting veterans' caregivers. 
The DOD should follow suit and expand their definition. We appreciate 
the inclusion in NDAA fiscal year 2010 of compensation for service 
members with assistance in everyday living. This provision will need 
funding.
    Compensation of caregivers should be a priority for DOD and the 
Secretary of Homeland Security for our Coast Guard. Caregivers must be 
recognized for their sacrifices and the important role they play in 
maintaining the quality of life of our wounded, ill, and injured 
service members and veterans. Current law allows the Secretary of the 
VA to provide a caregiver stipend, however it is an unfunded mandate. 
Our Association strongly believes this stipend needs to be fully 
funded.
    Consideration should also be given to creating innovative ways to 
meet the healthcare and insurance needs of the caregiver, with an 
option to include their family. Current law does not include a 
``family'' option.
    There must be a provision for transition benefits for the caregiver 
if the caregiver's services are no longer needed, chooses to no longer 
participate, or is asked by the veteran to no longer provide services. 
The caregiver, once qualified, should still be able to maintain 
healthcare coverage for 1 year. Compensation would discontinue 
following the end of services/care provided by the caregiver. Our 
Association looks forward to discussing details of implementing such a 
plan with Members of this Subcommittee.
    The VA currently has eight caregiver assistance pilot programs to 
expand and improve healthcare education and provide needed training and 
resources for caregivers who assist disabled and aging veterans in 
their homes. Caregivers' responsibilities start while the service 
member is still on active duty. DOD should evaluate these pilot 
programs to determine whether to adopt them for themselves. If adopted, 
DOD will need funding for these programs.
            Relocation Allowance and Housing
    Active Duty service members and their spouses qualify through the 
DOD for military orders to move their household goods when they leave 
the military service. Medically retired service members are given a 
final PCS move. Medically retired married service members are allowed 
to move their family, however, medically retired single service members 
only qualify for moving their own personal goods.
    Our Association suggests that legislation be passed to allow 
medically retired single service members the opportunity to have their 
caregiver's household goods moved as a part of the medical retired 
single service member's PCS move. This should be allowed for the 
qualified caregiver of the wounded, ill, and injured service member and 
the caregiver's family (if warranted), such as a sibling who is married 
with children or mom and dad. This would allow for the entire 
caregiver's family to move, not just the caregiver. The reason for the 
move is to allow the medically retired single service member the 
opportunity to relocate with their caregiver to an area offering the 
best medical care, rather than the current option that only allows for 
the medically retired single service member to move their belongings to 
where the caregiver currently resides. The current option may not be 
ideal because the area in which the caregiver lives may not be able to 
provide all the healthcare services required for treating and caring 
for the medically retired service member. Instead of trying to create 
the services in the area, a better solution may be to allow the 
medically retired service member, their caregiver, and the caregiver's 
family to relocate to an area where services already exist.
    The decision on where to relocate for optimum care should be made 
with the Federal Recovery Coordinator (case manager), the service 
member's medical physician, the service member, and the caregiver. All 
aspects of care for the medically retired service member and their 
caregiver shall be considered. These include a holistic examination of 
the medically retired service member, the caregiver, and the 
caregiver's family for, but not limited to, their needs and 
opportunities for healthcare, employment, transportation, and 
education. The priority for the relocation should be where the best 
quality of services is readily available for the medically retired 
service member and his/her caregiver. This relocation provision will 
require DOD funding.
    The consideration for a temporary partial shipment of caregiver's 
household goods may also be allowed, if deemed necessary by the case 
management team.
    Provide transitioning wounded, ill, and injured service members and 
their families a bridge of extended active duty TRICARE eligibility for 
3 years, comparable to the benefit for surviving spouses.
    Service members medically discharged from service and their family 
members shall be allowed to continue for 1 year as active duty for 
TRICARE and then start the Continued Health Care Benefit Program 
(CHCBP) if needed.
    Caregivers of the wounded, ill and injured must be provided with 
opportunities for training, compensation and other support programs 
because of the important role they play in the successful 
rehabilitation and care of the service member.
    The National Military Family Association is requesting the ability 
for medically retired single service members to be allowed the 
opportunity to have their caregiver's household goods moved as a part 
of the medically retired single service member's PCS move.
            Senior Oversight Committee
    Our Association is appreciative of the provision in the NDAA fiscal 
year 2010 establishing a DOD Task Force on the Care, Management, and 
Transition of Recovery, Wounded, Ill, and Injured Members of the Armed 
Forces to access policies and programs. This Task Force will be 
independent and in a position to monitor DOD and VA's partnership 
initiatives for our wounded, ill, and injured service members and their 
families.
    The National Military Family Association encourages the all 
committees with jurisdiction over military personnel and veterans 
matters to talk on these important issues. We can no longer continue to 
create policies in a vacuum and be content on focusing on each agency 
separately because this population moves too frequently between the two 
agencies, especially our wounded, ill, and injured service members and 
their families.
                           family transitions
Survivors
    In the past year, the Services have been focusing on outreach to 
surviving families. In particular, the Army's SOS (Survivor Outreach 
Services) program makes an effort to remind these families that they 
are not forgotten. DOD and the VA must work together to ensure 
surviving spouses and their children can receive the mental health 
services they need, through all of VA's venues. New legislative 
language governing the TRICARE behavioral health benefit may also be 
needed to allow TRICARE coverage of bereavement or grief counseling. 
The goal is the right care at the right time for optimum treatment 
effect. DOD and the VA need to better coordinate their mental health 
services for survivors and their children.
    We thank Congress for extending the TRICARE Dental benefit to 
surviving children. We ask that eligibility be expanded to those active 
duty family members who had not been enrolled in the active duty 
TRICARE Dental benefit prior to the service member's death.
    Our Association recommends that eligibility be expanded to active 
duty survivors who had not been enrolled in the TRICARE Dental Program 
prior to the service member's death. We also recommend that grief 
counseling be more readily available to survivors.
    In 2009, the policy concerning the attendance of the media at the 
dignified transfer of remains at Dover AFB was changed. Primary next-
of-kin (PNOK) of the service member who dies in theater is asked to 
make a decision shortly after they are notified of the loss as to 
whether or not the media may film the dignified transfer of remains of 
their loved one during this ceremony. Family members are also given the 
option of flying to Dover themselves to witness this ceremony. In 
previous years, only about 3 percent of family members attended this 
ceremony. Since the policy change, over 90 percent of families send 
some family members to Dover to attend. The travel of up to 3 family 
members and the casualty assistance officer on a commercial carrier are 
provided for. In the NDAA fiscal year 2010, eligible family member 
travel to memorial services for a service member who dies in theater 
was authorized. This is in addition to travel to the funeral of the 
service member. None of the costs associated with this travel has been 
funded for the Services. We would ask that funds be appropriated to 
cover the costs of this extraordinary expense.
    We ask that funding be appropriated for the travel costs for 
surviving family members to attend the dignified transfer of remains in 
Dover and for eligible surviving family members to attend memorial 
services for service members who die in theater.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Each payment serves a different purpose. The DIC is a special indemnity 
(compensation or insurance) payment paid by the VA to the survivor when 
the service member's service causes his or her death. The SBP annuity, 
paid by DOD, reflects the longevity of the service of the military 
member. It is ordinarily calculated at 55 percent of retired pay. 
Military retirees who elect SBP pay a portion of their retired pay to 
ensure that their family has a guaranteed income should the retiree 
die. If that retiree dies due to a service connected disability, their 
survivor becomes eligible for DIC.
    Surviving active duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SBP is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $13,848, a significant drop in income 
from what the family had been earning while the service member was 
alive and on active duty. The percentage of loss is even greater for 
survivors whose service members served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses.
    We believe several other adjustments could be made to the Survivor 
Benefit Plan. Allowing payment of the SBP benefits into a Special Needs 
Trust in cases of disabled beneficiaries will preserve their 
eligibility for income based support programs. The government should be 
able to switch SBP payments to children if a surviving spouse is 
convicted of complicity in the member's death.
    We believe there needs to be DIC equity with other Federal survivor 
benefits. Currently, DIC is set at $1,154 monthly (43 percent of the 
Disabled Retirees Compensation). Survivors of Federal workers have 
their annuity set at 55 percent of their Disabled Retirees 
Compensation. Military survivors should receive 55 percent of VA 
Disability Compensation. We are pleased that the requirement for a 
report to assess the adequacy of DIC payments was included in the NDAA 
fiscal year 2009. We are awaiting the overdue report. We support 
raising DIC payments to 55 percent of VA Disability Compensation. When 
changes are made, ensure that DIC eligibles under the old system 
receive an equivalent increase.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career service member and spouse. We 
also request that SBP benefits be allowed to be paid to a Special Needs 
Trust in cases of disabled family members.
    We ask that DIC be increased to 55 percent of VA Disability 
Compensation.
Education of Military Children
    The National Military Family Association would like to thank 
Congress for including a ``Sense of Congress'' in regards to the 
Interstate Compact on Educational Opportunity for Military Children in 
last year's National Defense Authorization Act. The Compact has now 
been adopted in 30 states and covers over 84 percent of our military 
children. The Interstate Commission, the governing body of the Compact, 
is working to educate military families, educators, and states on the 
appropriate usage of the Compact. The adoption of the Compact is a 
tremendous victory for military families who place a high value on 
education.
    However, military families define the quality of that education 
differently than most states or districts that look only at issues 
within their boundaries. For military families, it is not enough for 
children to be doing well in their current schools, they must also be 
prepared for the next location. The same is true for children in 
underperforming school systems. Families are concerned that they will 
lag behind students in the next location. With many states cutting 
educational programs due to the economic downturn, this concern is 
growing. A prime example is Hawaii, which opted to furlough teachers on 
Fridays, cutting 17 days from the school calendar. With elementary 
schools already on a shortened schedule for Wednesday, these students 
are only getting approximately 3\1/2\ days of instruction every other 
week. In addition, the recent cuts have made it increasing hard for 
schools to meet IEP requirements for special needs students. 
Furthermore, Hawaii is requiring parents to pay more for busing, and 
the cost of school meals have gone up 76 percent. Our Association 
believes that Hawaii's cuts are just the ``tip of the iceberg'' as we 
are beginning to see other states make tough choices as well. Although 
Hawaii's educational system has long been a concern for military 
families, many of whom opt for expensive private education, Hawaii is 
not the only place where parents have concerns. The National Military 
Family Association believes that our military children deserve to have 
a good quality education wherever they may live. However, our 
Association recognizes that how that quality education is provided may 
differ in each location.
    We urge Congress to encourage solutions for the current educational 
situation across the nation and recognize that service members' lack of 
confidence that their children may receive a quality education in an 
assignment location can affect the readiness of the force in that 
location.
    While our Association remains appreciative for the additional 
funding Congress provides to civilian school districts educating 
military children, Impact Aid continues to be under-funded. We urge 
Congress to provide appropriate and timely funding of Impact Aid 
through the Department of Education. In addition, we urge Congress to 
increase DOD Impact Aid funding for schools educating large numbers of 
military children to $60 million for fiscal year 2011. We also ask 
Congress to include an additional $5 million in funding for special 
needs children. The DOD supplement to Impact Aid is critically 
important to ensure school districts provide quality education for our 
military children.
    As increased numbers of military families move into new communities 
due to Global Rebasing and BRAC, their housing needs are being met 
further and further away from the installation. Thus, military children 
may be attending school in districts whose familiarity with the 
military lifestyle may be limited. Educating large numbers of military 
children will put an added burden on schools already hard-pressed to 
meet the needs of their current populations. We urge Congress to 
authorize an increase in this level of funding until BRAC and Global 
Rebasing moves are completed.
    Once again, we thank Congress for passing the Higher Education 
Opportunity Act of 2008, which contained many new provisions affecting 
military families. Chief among them was a provision to expand in-state 
tuition eligibility for military service members and their families, 
and provide continuity of in-state rates if the service member receives 
Permanent Change of Station (PCS) orders out of state. However, family 
members have to be currently enrolled in order to be eligible for 
continuity of in-state tuition. Our Association is concerned that this 
would preclude a senior in high school from receiving in-state tuition 
rates if his or her family PCS's prior to matriculation. We urge 
Congress to amend this provision.
    We ask Congress to increase the DOD supplement to Impact Aid to $60 
million to help districts better meet the additional demands caused by 
large numbers of military children, deployment-related issues, and the 
effects of military programs and policies. We also ask Congress to 
include an additional $5 million for school districts with Special 
Needs children.
Spouse Education & Employment
    Our Association wishes to thank Congress for recent enhancement to 
spouse education opportunities. In-state tuition, Post 9/11 G.I. bill 
transferability to spouses and children, and other initiatives have 
provided spouses with more educational opportunities than previous 
years.
    Since 2004, our Association has been fortunate to sponsor our 
Joanne Holbrook Patton Military Spouse Scholarship Program, with the 
generosity of donors who wish to help military families. Our 2010 
application period closed on January 31, 2010. We saw a 33 percent 
increase in applications from previous years with more than 8,000 
military spouses applying to our program. Military spouses remain 
committed to their education and need assistance from Congress to 
fulfill their educational pursuits.
    We have heard from many military spouses who are pleased with the 
expansion of the Military Spouse Career Advancement Accounts, now 
called MyCAA. Unfortunately the abrupt halt of the program on February 
16, 2010 created a financial burden and undue stress for military 
spouses. We are pleased DOD has reinstated the program for the 136,583 
spouses enrolled in the program prior to February 16, 2010. We ask 
Congress to push DOD to fully restart this critical program for all 
eligible spouses as soon as possible. We also ask Congress to fully 
fund the MyCAA program, which is providing essential educational and 
career support to military spouses. The MyCAA program is not available 
to all military spouses. We ask Congress to work with the appropriate 
Service Secretary to expand this funding to the spouses of Coast Guard, 
the Commissioned Corps of NOAA and U.S. Public Health Service.
    Our Association thanks you for establishing a pilot program to 
secure internships for military spouses with Federal agencies. Military 
spouses look forward to enhanced career opportunities through the pilot 
program. We hope Congress will monitor the implementation of the 
program to ensure spouses are able to access the program and eligible 
spouses are able to find Federal employment after successful completion 
of the internship program.
    To further spouse employment opportunities, we recommend an 
expansion to the Workforce Opportunity Tax Credit for employers who 
hire spouses of active duty and Reserve component service members, and 
to provide tax credits to military spouses to offset the expense in 
obtaining career licenses and certifications when service members are 
relocated to a new duty station within a different state.
    The Services are experiencing a shortage of medical, mental health 
and child care providers. Many of our spouses are trained in these 
professions or would like to seek training in these professions. We 
think the Services have an opportunity to create portable career 
opportunities for spouses seeking in-demand professions. In addition to 
the MyCAA funding, what can the Services do to encourage spouse 
employment and solve provider shortages? We would like to see the 
Services reach out to military spouses and offer affordable, flexible 
training programs in high demand professions to help alleviate provider 
shortages.
    Our Association urges Congress to recognize the value of military 
spouses by fully funding the MyCAA program, and by creating training 
programs and employment opportunities for military spouses in high 
demand professions to help fill our provider shortages.
Families on the Move
    A PCS move to an overseas location can be especially stressful for 
our families. Military families are faced with the prospect of being 
thousands of miles from extended family and living in a foreign 
culture. At many overseas locations, there are insufficient numbers of 
government quarters resulting in the requirement to live on the local 
economy away from the installation. Family members in these situations 
can feel extremely isolated; for some the only connection to anything 
familiar is the local military installation. Unfortunately, current law 
permits the shipment of only one vehicle to an overseas location, 
including Alaska and Hawaii. Since most families today have two 
vehicles, they sell one of the vehicles.
    Upon arriving at the new duty station, the service member requires 
transportation to and from the place of duty leaving the military 
spouse and family members at home without transportation. This lack of 
transportation limits the ability of spouses to secure employment and 
the ability of children to participate in extracurricular activities. 
While the purchase of a second vehicle alleviates these issues, it also 
results in significant expense while the family is already absorbing 
other costs associated with a move. Simply permitting the shipment of a 
second vehicle at government expense could alleviate this expense and 
acknowledge the needs of today's military family.
    Travel allowances and reimbursement rates have not kept pace with 
the out-of-pocket costs associated with today's moves. Military 
families are authorized 10 days for a housing hunting trip, but the 
cost for trip is the responsibility of the service member. Families 
with two vehicles may ship one vehicle and travel together in the 
second vehicle. The vehicle will be shipped at the service member's 
expense and then the service member will be reimbursed funds not used 
to drive the second vehicle to help offset the cost of shipping it. Or, 
families may drive both vehicles and receive reimbursement provided by 
the Monetary Allowance in Lieu of Transportation (MALT) rate. MALT is 
not intended to reimburse for all costs of operating a car but is 
payment in lieu of transportation on a commercial carrier. Yet, a TDY 
mileage rate considers the fixed and variable costs to operate a 
vehicle. Travel allowances and reimbursement rates should be brought in 
line with the actually out-of-pocket costs borne by military families.
    Our Association requests that Congress authorize the shipment of a 
second vehicle to an overseas location (at least Alaska and Hawaii) on 
accompanied tours, and that Congress address the out-of-pocket expenses 
military families bare for government ordered moves.
Military Families--Our Nation's Families
    We thank you for your support of our service members and their 
families and we urge you to remember their service as you work to 
resolve the many issues facing our country. Military families are our 
Nation's families. They serve with pride, honor, and quiet dedication. 
Since the beginning of the war, government agencies, concerned citizens 
and private organizations have stepped in to help. This increased 
support has made a difference for many service members and families, 
yet, some of these efforts overlap while others are ineffective. In our 
testimony, we believe we have identified improvements and additions 
that can be made to already successful programs while introducing 
policy or legislative changes that address the ever changing needs of 
our military population. Working together, we can improve the quality 
of life for all these families

    Chairman Inouye. Our next witness is Dr. Dan Putka, 
American Psychological Association. Am I correct, Putka?
STATEMENT OF DAN PUTKA, Ph.D., ON BEHALF OF THE 
            AMERICAN PSYCHOLOGICAL ASSOCIATION
    Dr. Putka. Good morning, Mr. Chairman and Ranking Member 
Cochran.
    I am Dr. Dan Putka from HumRRO, the Human Resources 
Research Organization. I am submitting testimony on behalf of 
the American Psychological Association, or APA, a scientific 
and professional organization of more than 152,000 
psychologists.
    For decades, clinical and research psychologists have used 
their unique and critical expertise to meet the needs of our 
military and its personnel, playing a vital role within the 
Department of Defense. My own military-oriented research and 
consulting focus on the recruitment and retention of committed 
high-performing military personnel.
    This morning, I focus on APA's request that Congress 
reverse disturbing administration cuts to DOD's science and 
technology budget and maintain support for important behavioral 
sciences research through DOD's Minerva Initiative.
    In the President's proposed fiscal year 2011 budget, 
defense S&T would fall from the estimated fiscal year 2010 
level of $14.7 billion to $12.3 billion, a decrease of 16.3 
percent. All military labs would see cuts to their 6.2 and 6.3 
applied research accounts, with some cuts as high as 49 
percent, namely, the Army's 6.3 account.
    Defense supported basic research, the 6.1 account, would 
fare better under the President's budget, and APA supports the 
substantial increase proposed for the Defense-wide basic 
research program. But we are very concerned about the deep cuts 
to near-term research supported by the 6.2 and 6.3 program 
accounts.
    This is not the time to reduce support for research that is 
vital to our Nation's continued security in a global atmosphere 
of uncertainty and asymmetric threats. APA urges the 
subcommittee to reverse this cut to the critical defense 
science program by providing $15 billion for defense S&T in 
fiscal year 2011.
    Within the S&T program, APA encourages the subcommittee to 
follow the recommendations from the National Academies and the 
Defense Science Board to fund priority research in the 
behavioral sciences in support of national security. 
Psychological scientists supported by the military labs address 
a broad range of important issues and problems vital to our 
national defense, with expertise in modeling behavior of 
individuals and groups, understanding and optimizing cognitive 
functioning, perceptual awareness, complex decisionmaking, 
stress resilience, recruitment and retention, military family 
functioning, and human systems interactions.
    Psychological scientists also have critical expertise in 
understanding extremist ideologies, radicalization processes, 
and counterinsurgencies. And we hope you will join the House in 
renewing your strong support for the DOD Minerva Initiative to 
address these and other compelling challenges.
    As noted in a recent National Research Council report, 
people are the heart of all military efforts. People operate 
the available weaponry and technology, and they constitute a 
complex military system composed of teams and groups at 
multiple levels. Scientific research on human behavior is 
crucial to the military because it provides knowledge about how 
people work together and use weapons and technology to extend 
and amplify their forces.
    Thank you for this opportunity.
    Chairman Inouye. Doctor, as you may be well aware, it 
wasn't too long ago when DOD did not fully recognize the worth 
of psychologists. They were not considered good enough to be in 
the star rank.
    But this subcommittee took the step to give psychologists 
the recognition they deserve. And as a result, we have much 
psychological research and psychologists on our staffs. So you 
can be assured that we won't take a back seat to anything.
    Senator Cochran. Mr. Chairman, I think it is interesting to 
observe that the Minerva Initiative was established by 
Secretary Gates I think with the realization that a better 
understanding of extremist ideologies in the world today need 
the attention of the Department of Defense.
    So we have hopes that through funding programs like that, 
making sure there is enough money there to achieve our goals, 
we can improve the safety factor of service and of citizenship 
in our great country.
    Chairman Inouye. I thank you very much, and I thank the 
panel.
    [The statement follows:]
                   Prepared Statement of Dan J. Putka
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 152,000 psychologists and 
affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DOD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to counter-terrorism. More than ever before, psychologists today 
bring unique and critical expertise to meeting the needs of our 
military and its personnel. APA's testimony will focus on reversing 
Administration cuts to the overall DOD Science and Technology (S&T) 
budget and maintaining support for important behavioral sciences 
research within DOD.
                              dod research
    ``People are the heart of all military efforts. People operate the 
available weaponry and technology, and they constitute a complex 
military system composed of teams and groups at multiple levels. 
Scientific research on human behavior is crucial to the military 
because it provides knowledge about how people work together and use 
weapons and technology to extend and amplify their forces.''------Human 
Behavior in Military Contexts Report of the National Research Council, 
2008
    Just as a large number of psychologists provide high-quality 
clinical services to our military service members stateside and abroad 
(and their families), psychological scientists within DOD conduct 
cutting-edge, mission-specific research critical to national defense.
      behavioral research within the military service labs and dod
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL), with additional, smaller human 
systems research programs funded through the Office of the Secretary of 
Defense (OSD) and the Defense Advanced Research Projects Agency 
(DARPA).
    The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2) and advanced development (6.3) 
research. These three levels of research are roughly parallel to the 
military's need to win a current war (through products in advanced 
development) while concurrently preparing for the next war (with 
technology ``in the works'') and the war after next (by taking 
advantage of ideas emerging from basic research). All of the services 
fund human-related research in the broad categories of personnel, 
training and leader development; warfighter protection, sustainment and 
physical performance; and system interfaces and cognitive processing.
National Academies Report Calls for Doubling Behavioral Research
    The 2008 National Academies report on Human Behavior in Military 
Contexts recommended doubling the current budgets for basic and applied 
behavioral and social science research ``across the U.S. military 
research agencies.'' It specifically called for enhanced research in 
six areas: intercultural competence; teams in complex environments; 
technology-based training; nonverbal behavior; emotion; and behavioral 
neurophysiology.
    Behavioral and social science research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:
    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''
Defense Science Board Calls for Priority Research in Social and 
        Behavioral Sciences
    This emphasis on the importance of social and behavioral research 
within DOD is echoed by the Defense Science Board (DSB), an independent 
group of scientists and defense industry leaders whose charge is to 
advise the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on ``scientific, technical, manufacturing, acquisition process, 
and other matters of special interest to the Department of Defense.''
    In its report on 21st Century Strategic Technology Vectors, the DSB 
identified a set of four operational capabilities and the ''enabling 
technologies'' needed to accomplish major future military missions 
(analogous to winning the Cold War in previous decades). In identifying 
these capabilities, DSB specifically noted that ``the report defined 
technology broadly, to include tools enabled by the social sciences as 
well as the physical and life sciences.'' Of the four priority 
capabilities and corresponding areas of research identified by the DSB 
for priority funding from DOD, the first was defined as ``mapping the 
human terrain''--understanding the human side of warfare and national 
security.
         fiscal year 2011 dod budget for science and technology
DOD
    In terms of the overall DOD S&T budget, the President's request for 
fiscal year 2011 again represents a dramatic step backward for defense 
research. Defense S&T would fall from the estimated fiscal year 2010 
level of $14.7 billion to $12.3 billion (a decrease of 16.3 percent). 
All military labs would see cuts to their 6.2 and 6.3 research 
accounts, with some cuts as high as 49 percent (the Army's 6.3 
account). Defense-supported basic research (6.1 level accounts) would 
fare better under the President's budget, and APA supports the 
substantial increase proposed for the OSD's Defense-wide basic research 
program, but we are very concerned about the deep cuts to near-term 
research supported by the 6.2 and 6.3 program accounts.
DARPA
    DARPA's overall funding would increase only slightly in the 
President's fiscal year 2011 budget, from $3 billion to $3.1 billion. 
The agency's home for basic research, the Defense Research Sciences 
Account, however, would be strengthened significantly. APA supports 
DARPA's transformative sciences priorities for this account, which 
include research that taps ``converging technological forces and 
transformational trends in the areas of computing and the computing-
reliant subareas of social sciences, life sciences, manufacturing and 
commerce.''
                       focus for minerva research
    APA was pleased to see the House Armed Services Committee note (in 
the fiscal year 2011 National Defense Authorization Act) its support 
for ``the use of social science to support key DOD missions such as 
irregular warfare, counterinsurgency, and stability and reconstruction 
operations'' through research funded by the DOD Minerva initiative 
established by Secretary Gates. APA agrees with the House that DOD 
``has not provided enough focus for the Minerva initiative to develop a 
deep enough expertise in any of its seven topic areas,'' especially in 
``understanding the extremist ideologies that help fuel recruitment of 
terrorists.'' APA supports the fiscal year 2011 NDAA authorization of 
$96.2 million, $5 million above the President's budget request, for DOD 
to conduct Minerva initiative research to improve our understanding of 
extremist ideologies.
                                summary
    The President's budget request for basic and applied research at 
DOD in fiscal year 2011 is $12.3 billion, which represents a dramatic 
cut of $2.4 billion or 16 percent from the enacted fiscal year 2010 
level of $14.7 billion. APA urges the Subcommittee to reverse this cut 
to the critical defense science program by providing a total of $15 
billion for Defense S&T in fiscal year 2011.
    APA supports the substantial increases to DOD's and DARPA's basic 
research portfolios, but joins the Coalition for National Security 
Research in urging Congress to provide sufficient overall funding to 
reach the Pentagon's goal of investing 3 percent of DOD's total budget 
in Defense S&T.
    Within the S&T program, APA encourages the Subcommittee to follow 
recommendations from the National Academies and the Defense Science 
Board to fund priority research in the behavioral sciences in support 
of national security. Clearly, psychological scientists address a broad 
range of important issues and problems vital to our national defense, 
with expertise in modeling behavior of individuals and groups, 
understanding and optimizing cognitive functioning, perceptual 
awareness, complex decision-making, stress resilience, recruitment and 
retention, and human-systems interactions. We urge you to support the 
men and women on the front lines by reversing another round of cuts to 
the overall defense S&T account and the human-oriented research 
projects within the military laboratories.
    As our nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    Below is suggested appropriations report language for fiscal year 
2011 which would encourage the Department of Defense to fully fund its 
behavioral research programs within the military laboratories and the 
Minerva initiative:
                         department of defense
              research, development, test, and evaluation
    The Minerva Initiative and Behavioral Research in the Military 
Service Laboratories.--The Committee notes the increased demands on our 
military personnel, including high operational tempo, leadership and 
training challenges, new and ever-changing stresses on decision-making 
and cognitive readiness, and complex human-technology interactions. To 
help address these issues vital to our national security, the Committee 
has provided increased funding to reverse cuts to psychological 
research through the military research laboratories: the Air Force 
Office of Scientific Research and Air Force Research Laboratory; the 
Army Research Institute and Army Research Laboratory; and the Office of 
Naval Research. The Committee also notes the critical contributions of 
behavioral science to combating counter-insurgencies and understanding 
extremist ideologies, and renews its strong support for the DOD Minerva 
initiative.

    Chairman Inouye. And now I would like to proceed to the 
third panel, consisting of Dr. John C. Elkas, Mr. Richard 
``Rick'' A. Jones, Ms. Elizabeth Cochran, and Dr. Jonathan 
Berman.
    May I recognize Dr. John C. Elkas.
STATEMENT OF JOHN C. ELKAS, M.D., J.D., ON BEHALF OF 
            THE SOCIETY OF GYNECOLOGIC ONCOLOGISTS
    Dr. Elkas. Mr. Chairman and Vice Chairman, thank you for 
inviting me to testify at today's hearing.
    My name is Dr. John Elkas, and I am here on behalf of the 
Society of Gynecologic Oncologists. The SGO is a national 
medical specialty organization of physicians who are trained in 
the comprehensive care and management of women with gynecologic 
malignancies.
    I also practice medicine in the D.C. metropolitan area and 
am a commander in the United States Naval Reserve and an 
adjunct associate professor of obstetrics and gynecology for 
the Uniformed Services University of the Health Sciences.
    I spent 14 years in Active Duty service caring for women 
within the Department of Defense family with ovarian cancer, 
and I can speak personally to the impact that the OCRP is 
having on the care of military women with ovarian cancer.
    I am honored to be here and pleased that this subcommittee 
is focusing its attention on the OCRP. Since its inception now 
13 years ago, this DOD program has delivered benefits to 
ovarian cancer research that far exceed the annual level of 
Federal funding.
    As this subcommittee knows, ovarian cancer causes more 
deaths than any other gynecologic malignancy and is the fourth 
highest cause of cancer death among American women. One of our 
biggest challenges lie in the fact that only 20 percent of 
ovarian cancer is detected at an early stage, while most of our 
patients are diagnosed at an advanced stage, where we heard the 
5 year survival is markedly lower.
    We, the members of the SGO, along with our patients who are 
battling this disease every day, depend on the OCRP research 
funding. It is through this type of research funding that a 
screening and early detection method for ovarian cancer can be 
identified, which will allow us to save as many as 15,000 lives 
each year in the United States.
    Since its inception in fiscal year 1997, the OCRP has 
funded 209 grants, totaling more than $140 million. Much of 
this has been accomplished with the resources that we are 
talking about today.
    In Senator Mikulski's home State of Maryland, where many of 
my patients also live, the OCRP has funded research on 
important questions such as defining bio-markers that could be 
fundamental to development of a blood test for early-stage 
disease and developing and evaluating alpha target based 
approach for also treating advanced disease.
    In Senator Murray's home State of Washington, where five 
OCRP-funded grants reside, questions such as the development of 
blood tests for new small molecules in the blood that might be 
used for detection and the examination of all women--of all of 
a woman's DNA to find new genes or groups of genes that may 
cause ovarian cancer in families.
    In Senator Feinstein's home State of California, 24 grants 
have been funded by the OCRP since the program was created in 
1997, looking at questions such as inhibiting--strategies for 
targeting and inhibiting tumor growth, identification of cancer 
stem cells.
    So, as you can see, these are just a few examples of the 
209 grants that have served as a catalyst for attracting 
outstanding researchers to the field of ovarian cancer 
research. Investigators funded by the OCRP have succeeded with 
several crucial breakthroughs in bringing us closer in both the 
prevention and early detection of ovarian cancer. Were it not 
for this, many researchers might have abandoned their hopes of 
a career in basic and translational research in ovarian cancer.
    Therefore, the Society of Gynecologic Oncologists joins 
with the Ovarian Cancer National Alliance and the American 
Congress of Obstetricians and Gynecologists to urge this 
subcommittee to increase Federal funding to a minimum of $30 
million in fiscal year 2011 for the OCRP.
    Thank you, gentlemen.
    Chairman Inouye. I thank you very much, Doctor.
    On a personal note, 4 years ago, I lost my wife of 57 years 
to cancer of the liver. So this matter is a matter of personal 
interest. So I can assure you this subcommittee supports it.
    Senator Cochran. Thank you very much.
    I notice that the request is that we fund the program at 
$30 million. What is the current level of funding, do you 
recall?
    Dr. Elkas. $18.7 million, sir.
    Senator Cochran. Okay. Thank you.
    Chairman Inouye. Thank you very much, Doctor.
    [The statement follows:]
                  Prepared Statement of John C. Elkas
    Mr. Chairman, Ranking Member and members of the subcommittee, thank 
you for inviting me to testify at today's hearing. My name is Dr. John 
C. Elkas, and I am Vice Chairman of the Bylaws Committee and a former 
member of the Government Relations Committee of the Society of 
Gynecologic Oncologists (SGO). I practice medicine in the D.C.-
metropolitan area, where I am an associate clinical professor in the 
department of obstetrics and gynecology at the George Washington 
University Medical Center and in private practice in Annandale, 
Virginia. I am also a Commander in the U.S. Naval Reserve and an 
adjunct associate professor of obstetrics and gynecology for the 
Uniformed Services University of the Health Sciences in Bethesda, 
Maryland.
    I am honored to be here and pleased that this subcommittee is 
focusing attention on the Department of Defense (DOD) Congressionally 
Directed Medical Research Program in Ovarian Cancer (OCRP). Since its 
inception now 13 years ago, this DOD program has delivered benefits to 
ovarian cancer research that far exceed the annual level of Federal 
funding.
    This morning, I will try to outline some of the important 
contributions this DOD program has made to ovarian cancer research and 
the well-being of our patients. In fact, it is quite easy to 
demonstrate that this investment by the Federal government has resulted 
in substantial benefits and value to medicine, to science and most 
importantly improved patient care.
    As this subcommittee may know, ovarian cancer usually arises from 
the cells on the surface of the ovary and can be extremely difficult to 
detect. According to the American Cancer Society, in 2009, more than 
21,500 women were diagnosed with ovarian cancer and approximately 
15,000 lost their lives to this terrible disease. Ovarian cancer causes 
more deaths than all the other cancers of the female reproductive tract 
combined, and is the fourth highest cause of cancer deaths among 
American women. One of our biggest challenges lies in the fact that 
only 19 percent of all ovarian cancers are detected at a localized 
stage, when the 5-year relative survival rate approaches 93 percent. 
Unfortunately, most ovarian cancer is diagnosed at late or advanced 
stage, when the 5-year survival rate is only 31 percent.
    Nationally, biomedical research funding has grown over the last 
decade through increased funding to the National Institutes of Health, 
in no small part to the amazing efforts of members of this 
Subcommittee. Yet funding for gynecologic cancer research, especially 
for the deadliest cancer that we treat, ovarian cancer, has been 
relatively flat. Since fiscal year 2003, the funding levels for 
gynecologic cancer research and training programs at the NIH, NCI, and 
CDC have not kept pace with inflation, with the funding for ovarian 
cancer programs and research training for gynecologic oncologists 
actually suffering specific cuts in funding due to the loss of an 
ovarian cancer Specialized Project of Research Excellence (SPORE) in 
2007 that had been awarded to a partnership of DUKE and the University 
of Alabama-Birmingham. Were it not for the DOD OCRP, many researchers 
might have abandoned their hopes of a career in basic and translation 
research in ovarian cancer and our patients and the women of America 
would be waiting even longer for reliable screening tests and more 
effective therapeutic approaches.
    As a leader in the Society of Gynecologic Oncologists (SGO) and as 
a gynecologic oncologist who has provided care to women affiliated with 
the United States Navy, I believe that I bring a comprehensive 
perspective to our request for increased support. The SGO is a national 
medical specialty organization of physicians who are trained in the 
comprehensive management of women with malignancies of the reproductive 
tract. Our purpose is to improve the care of women with gynecologic 
cancer by encouraging research, disseminating knowledge which will 
raise the standards of practice in the prevention and treatment of 
gynecologic malignancies and cooperating with other organizations 
interested in women's healthcare, oncology and related fields. The 
Society's membership, totaling more than 1,300, is comprised of 
gynecologic oncologists, as well as other related women's cancer 
healthcare specialists including medical oncologists, radiation 
oncologists, nurses, social workers and pathologists. SGO members 
provide multidisciplinary cancer treatment including surgery, 
chemotherapy, radiation therapy, and supportive care. More information 
on the SGO can be found at www.sgo.org.
    We, the members of the SGO, along with our patients who are 
battling ovarian cancer every day, depend on the DOD OCRP research 
funding. It is through this type of research funding that a screening 
and early detection method for ovarian cancer can be identified which 
will allow us to save many of the 15,000 lives that are lost to this 
disease each year. Therefore, the SGO respectfully recommends that this 
Subcommittee provide the DOD OCRP with a minimum of $30 million in 
Federal funding for fiscal year 2011.
department of defense ovarian cancer research program: building an army 
                     of ovarian cancer researchers
New Investigators Join the Fight
    Since its inception in fiscal year 1997, the DOD OCRP has funded 
209 grants totaling more than $140 million in funding. The common goal 
of these research grants has been to promote innovative, integrated, 
and multidisciplinary research that will lead to prevention, early 
detection, and ultimately control of ovarian cancer. Much has been 
accomplished in the last decade to move us forward in achieving this 
goal.
    In Senator Mikulski's home state of Maryland, where many of my 
patients also live, the DOD OCRP has funded research on important 
questions such as:
  --Defining biomarkers of serous carcinoma, using molecular biologic 
        and immunologic approaches, which are critical as probes for 
        the etiology/pathogenesis of ovarian cancer. Identifying 
        biomarkers is fundamental to the development of a blood test 
        for diagnosis of early stage disease and also ovarian cancer-
        specific vaccines;
  --Developing and evaluating a targeted alpha-particle based approach 
        for treating disseminated ovarian cancer. Alpha-particles are 
        short-range, very potent emissions that kill cells by incurring 
        damage that cannot be repaired; one to three alpha-particles 
        tracking through a cell nucleus can be enough to kill a cell. 
        The tumor killing potential of alpha-particles is not subject 
        to the kind of resistance that is seen in chemotherapy; and
  --Understanding of the molecular genetic pathways involved in ovarian 
        cancer development leading to the identification of the cancer-
        causing genes (``oncogenes'') for ovarian cancer.
    In Senator Murray's home state of Washington, the DOD OCRP has 
funded five grants in the last 5 years to either the University of 
Washington or to the Fred Hutchinson Cancer Center to study research 
questions regarding:
  --The usefulness of two candidate blood-based microRNA markers for 
        ovarian cancer detection, and the identification of microRNAs 
        produced by ovarian cancer at the earliest stages, which may 
        also be the basis for future blood tests for ovarian cancer 
        detection;
  --The first application of complete human genome sequencing to the 
        identification of genes for inherited ovarian cancer. The 
        identification of new ovarian cancer genes will allow 
        prevention strategies to be extended to hundreds of families 
        for which causal ovarian cancer genes are currently unknown; 
        and
  --Proposed novel technology, stored serum samples, and ongoing 
        clinical studies, with the intend of developing a pipeline that 
        can identify biomarkers that have the greatest utility for 
        women; biomarkers that identify cancer early and work well for 
        the women in most need of early detection, that can immediately 
        be evaluated clinically.
    One of the first, and very successful, grant recipients from the 
DOD OCRP hails from the Fred Hutchinson Cancer Research Center in 
Seattle, WA, Dr. Nicole Urban. Dr. Urban has worked extensively in the 
field of ovarian cancer early detection biomarker discovery and 
validation. Her current program in translational ovarian cancer 
research was built on work funded in fiscal year 1997 by the OCRP, 
``Use of Novel Technologies to Identify and Investigate Molecular 
Markers for Ovarian Cancer Screening and Prevention.'' Working with 
Beth Karlan, M.D. at Cedars-Sinai and Leroy Hood, Ph.D., M.D. at the 
University of Washington, she identified novel ovarian cancer 
biomarkers including HE4, Mesothelin (MSLN), and SLPI using comparative 
hybridization methods. This discovery lead to funding in 1999 from the 
National Cancer Institute (NCI) for the Pacific Ovarian Cancer Research 
Consortium (POCRC) Specialized Program of Research Excellence (SPORE) 
in ovarian cancer.
    The DOD and NCI funding allowed her to develop resources for 
translational ovarian cancer research including collection, management, 
and allocation of tissue and blood samples from women with ovarian 
cancer, women with benign ovarian conditions, and women with healthy 
ovaries. The DOD grant provided the foundation for what is now a mature 
specimen repository that has accelerated the progress of scientists at 
many academic institutions and industry.
    In Senator Feinstein's home state of California, 24 grants have 
been funded by the DOD OCRP since the program was created in 1997 to 
study research questions such as:
  --Strategies for targeting and inhibiting a protein called focal 
        adhesion kinase (FAK) that promotes tumor growth-metastasis. 
        With very few viable treatment options for metastatic ovarian 
        cancer, this research could lead to drug development targeting 
        these types of proteins;
  --Developing a tumor-targeting drug delivery system using Nexil 
        nanoparticles that selectively adhere to and are ingested by 
        ovarian carcinoma cells following injection into the peritoneal 
        cavity. The hypothesis for this research is that the 
        selectivity of Nexil can be substantially further improved by 
        attaching peptides that cause the particle to bind to the 
        cancer cells and that this will further increase the 
        effectiveness of intraperitoneal therapy; and
  --Using several avenues of investigation, based on our understanding 
        of the biology of stem cells, to identify and isolate cancer 
        stem cells from epithelial ovarian cancer. This has significant 
        implications for our basic scientific understanding of ovarian 
        cancer and may drastically alter treatment strategies in the 
        near future. Therapies targeted at the cancer stem cells offer 
        the potential for long-term cures that have eluded most 
        patients with ovarian cancer.
    In Senator Hutchinson's home state of Texas, 19 grants have been 
funded since the inception of the DOD OCRP in 1997, to study research 
questions regarding:
  --Understanding the pre-treatment genomic profile of ovarian cancer 
        to then isolate the predictive response of the cancer to anti-
        vasculature treatment, possibly leading to the identification 
        of targets for novel anti-vasculature therapies;
  --Ovarian cancer development directly in the specific patient and her 
        own tumor. While this process has lagged behind in ovarian 
        cancer and improving patient outcomes, it has shown great 
        promise in other solid, tumor cancers; and
  --Identifying the earliest molecular changes associated with BRCA1- 
        and BRCA2-related and sporadic ovarian cancers, leading to 
        biomarker identification for early detection.
    As you can see from these few examples, the 209 grants have served 
as a catalyst for attracting outstanding scientists to the field of 
ovarian cancer research. In the 4 year period of fiscal year 1998-
fiscal year 2001 the OCRP enabled the recruitment of 29 new 
investigators into the area of ovarian cancer research.
Federally Funding is Leveraged Through Partnerships and Collaborations
    In addition to an increase in the number of investigators, the 
dollars appropriated over the last 13 years have been leveraged through 
partnerships and collaborations to yield even greater returns, both 
here and abroad. Past-President of the SGO, Dr. Andrew Berchuck of Duke 
University Medical Center leveraged his OCRP DOD grants to form an 
international Ovarian Cancer Association Consortium (OCAC) that is now 
comprised of over 20 groups from all across the globe. The consortium 
meets biannually and is working together to identify and validate 
single nucleotide polymorphisms (SNPs) that affect disease risk through 
both candidate gene approaches and genome-wide association studies 
(GWAS). OCAC reported last year in Nature Genetics the results of the 
first ovarian cancer GWAS, which identified a SNP in the region of the 
BNC2 gene on chromosome 9 (Nature Genetics 2009, 41:996-1000.)
    Dr. Berchuck and his colleagues in the association envision a 
future in which reduction of ovarian cancer incidence and mortality 
will be accomplished by implementation of screening and prevention 
interventions in women at moderately increased risk. Such a focused 
approach may be more feasible than population-based approaches, given 
the relative rarity of ovarian cancer.
    The DOD OCRP program also serves the purpose of strengthening U.S. 
relationships with our allies, such as Australia, the United Kingdom, 
and Canada. Dr. Peter Bowtell, from the Peter MacCallum Cancer Centre 
in Melbourne, Australia, was awarded a fiscal year 2000 Ovarian Cancer 
Research Program (OCRP) Program Project Award to study the molecular 
epidemiology of ovarian cancer. With funds from this award, he and his 
colleagues formed the Australian Ovarian Cancer Study (AOCS), a 
population-based cohort of over 2,000 women with ovarian cancer, 
including over 1,800 with invasive or borderline cancer. With a bank of 
over 1,100 fresh-frozen tumors, hundreds of formalin-fixed, paraffin-
embedded (FFPE) blocks, and very detailed clinical follow-up, AOCS has 
enabled over 60 projects since its inception, including international 
collaborative studies in the United States, United Kingdom, and Canada. 
AOCS has facilitated approximately 40 publications, most of which have 
been released in the past 2 years.
    One last important example of the value of the DOD OCRP's 
contribution to science is the program's focus on inviting proposals 
from the Historically Black Colleges and Universities and Minority-
Serving Institutions. This important effort to reach beyond established 
clinical research partnerships expands the core research infrastructure 
for these institutions which helps them to attract new investigators, 
leveraging complementary initiatives, and supporting collaborative 
ventures.
    Over the decade that the OCRP has been in existence, the 209 
grantees have used their DOD funding to establish an ovarian cancer 
research enterprise that is much greater in value than the annually 
appropriated Federal funding.
Opportunities are Lost Because of Current Level of Federal Funding
    These examples of achievement are obscured to a great degree by 
opportunities that have been missed. At this current level of funding, 
this is only a very small portion of what the DOD OCRP program could do 
as we envision a day where through prevention, early detection, and 
better treatments, ovarian cancer is a manageable and frequently 
curable disease. Consistently, the OCRP receives over 500 letters of 
intent for the annual funding cycle. Of this group, about 50 percent 
are invited to submit full proposals. Prior to fiscal year 2009, the 
OCRP was only able to fund approximately 16 grants per year, a pay line 
of less than 7 percent. With an increase in funding to $20 million in 
fiscal year 2009, the OCRP was able to fund 22 awards. However, for 
fiscal year 2010 the program was cut by $1.25 million and so the 
possibility of the OCRP being able to fund even 20 grantees is in 
jeopardy. To provide sufficient and effective funding to enable us to 
do our jobs and create an environment where our scientific research can 
succeed, we need a minimum investment of $30 million in fiscal year 
2011.
   department of defense ovarian cancer research program: exemplary 
                   execution with real world results
Integration Panel Leads to Continuous Evaluation and Greater Focus
    By using the mechanism of an Integration Panel to provide the two-
tier review process, the OCRP is able to reset the areas of research 
focus on an annual basis, thereby actively managing and evaluating the 
OCRP current grant portfolio. Gaps in ongoing research can be filled to 
complement initiatives sponsored by other agencies, and most 
importantly to fund high risk/high reward studies that take advantage 
of the newest scientific breakthroughs that can then be attributed to 
prevention, early detection and better treatments for ovarian cancer. 
An example of this happened in Senator Mikulski's and my home state of 
Maryland regarding the development of the OVA1 test, a blood test that 
can help physicians determine if a woman's pelvic mass is at risk for 
being malignant. The investigator, Zhen Zhang, Ph.D. at Johns Hopkins 
School of Medicine, received funding from an Idea Development Award in 
fiscal year 2003. Dr. Zhang discovered and validated five serum 
biomarkers for the early detection of ovarian cancer. This bench 
research was then translated and moved through clinical trials. The OVA 
test was approved by the FDA and is now available to clinicians for use 
in patient care.
More Than a Decade of Scientific Success
    The program's successes have been documented in numerous ways, 
including 469 publications in professional medical journals and books; 
576 abstracts and presentations given at professional meetings; and 24 
patents, applications and licenses granted to awardees of the program. 
Investigators funded by the OCRP have succeeded with several crucial 
breakthroughs in bringing us closer to an algorithm for use in 
prevention and early detection of ovarian cancer.
    The Society of Gynecologic Oncologists joins with the Ovarian 
Cancer National Alliance and the American Congress of Obstetricians and 
Gynecologists to urge this Subcommittee to increase Federal funding at 
a minimum to $30 million in fiscal year 2011 for the OCRP. This will 
allow for the discoveries and research breakthroughs in the first 
decade of this program to be further developed and expanded upon, 
hopefully bringing us by the end of the second decade of this program 
to our ultimate goal of prevention, early detection and finally 
elimination of ovarian cancer. I thank you for your leadership and the 
leadership of the Subcommittee on this issue.

    Chairman Inouye. Now may I recognize Mr. Richard A. Jones.
STATEMENT OF RICHARD A. JONES, LEGISLATIVE DIRECTOR, 
            NATIONAL ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Jones. Chairman Inouye, Vice Chairman Cochran, thank 
you for the opportunity to give our views on key issues under 
your consideration.
    The National Association for Uniformed Services is pleased 
with certain aspects of the President's budget, specifically 
those that laser-focus on winning the wars in Iraq and 
Afghanistan. Choosing to win these wars, however, should not 
mean we must depend on aging fleets of aircraft, ships, and 
vehicles across the services. We must continue toward 
modernization.
    One of the main messages our members want you to hear is 
really simple and direct. Anyone who goes into harm's way under 
the flag of the United States needs to be deployed with the 
best our Nation can provide, and we must never cut off or 
unnecessarily delay critical funding for our troops in the 
field.
    Regarding TRICARE, the provision of quality, timely 
healthcare is considered one of the most important earned 
benefits afforded to those who serve a career in the military. 
The TRICARE benefit reflects the commitment of a nation, and it 
deserves your wholehearted support. For those who give their 
career in uniformed service now asks you to provide full 
funding to secure their earned benefit.
    The administration recommends a 1.4 percent across-the-
board pay raise. My association asks you to seek an increase of 
0.5 percent above the administration's request, to 1.9 percent. 
We should clearly recognize the risks our men and women in 
uniform face, and we should make every effort to appropriately 
compensate them for the job they do.
    My association urges you also to provide adequate funding 
for military construction and family housing accounts. These 
funds for base allowance and housing should ensure that those 
serving in our military are able to afford to live in quality 
housing whether on or off the base.
    The long war fought by an overstretched force gives us a 
clear warning. There are simply too many missions and too few 
troops. In addition to increasing troop strength, priority must 
be given to funding for accounts to reset, recapitalize, and 
renew the force. The National Guard, for example, has virtually 
depleted its equipment inventory, causing rising concern about 
its capacity to respond to disasters at home or train for the 
missions abroad.
    Regarding Walter Reed--that is a matter of great interest 
to our members as we plan to realign our health facilities in 
the Nation's capital--we need to keep Walter Reed open as long 
as it is necessary to care for those who are at Walter Reed. We 
must not close Walter Reed prematurely.
    My association encourages the subcommittee to ensure that 
funding for Defense Department's prosthetic research is 
adequate to support the full range of programs needed to meet 
current and future health challenges facing wounded veterans.
    Traumatic brain injury is the signature injury of the Iraq 
war. We call on the subcommittee to fund a full spectrum of TBI 
care and to recognize that care is also needed for patients 
suffering from mild to moderate brain injuries. The approach to 
this problem requires resources for hiring caseworkers, 
doctors, nurses, clinicians, and general caregivers if we are 
to meet the needs of those who are wounded and their families.
    Post traumatic stress disorder (PTSD) is a very serious 
psychiatric disorder. Pre-deployment and post-deployment 
checkups are very important. Early recognition of the symptoms 
can serve a great deal toward recovery. We encourage the 
members of the subcommittee, Mr. Chairman, to provide these 
funds, to closely monitor their expenditure to ensure they are 
not directed to areas of other defense spending.
    The Armed Forces Retirement Homes are important to those 
who have served in the military at Washington, DC, and 
Gulfport, Mississippi. We look forward to the reopening of the 
Gulfport home in October, and we ask that you continue care for 
those programs.
    Mr. Chairman, Vice Chairman, thank you very much for the 
opportunity to present testimony today.
    Chairman Inouye. I thank you very much.
    This subcommittee, as some may be aware, has appropriated 
nearly $1 trillion in the last 10 years to support our efforts 
in Afghanistan and Iraq. And we have done so without hesitation 
because we want our men to return home in as good a condition 
as they were when they went in there.
    But this has been a costly activity, but we will keep on 
paying. So I can assure you that your recommendations will be 
seriously considered.
    Mr. Jones. We thank you for the supplemental speed--
supplemental bill and the speed that you handled that, sir. We 
hope that the House follows your suit.
    Senator Cochran. Mr. Chairman, I can report that the Armed 
Forces Retirement Home in Gulfport, Mississippi, is nearing 
completion of the reconstruction that has been going on, and 
they are expecting to open that home in October 2010.
    Mr. Jones. Excellent. Thank you, sir.
    Chairman Inouye. We will go to the opening.
    [The statement follows:]
                    Prepared Statement of Rick Jones
    Chairman Inouye, Ranking Member Cochran, and members of the 
Subcommittee: It is a pleasure to appear before you today to present 
the views of The National Association for Uniformed Services on the 
fiscal year 2011 Defense Appropriations Bill.
    My name is Rick Jones, Legislative Director of The National 
Association for Uniformed Services (NAUS). And for the record, NAUS has 
not received any Federal grant or contract during the current fiscal 
year or during the previous 2 fiscal years in relation to any of the 
subjects discussed today.
    As you know, the National Association for Uniformed Services, 
founded in 1968, represents all ranks, branches and components of 
uniformed services personnel, their spouses and survivors. The 
Association includes personnel of the active, retired, Reserve and 
National Guard, disabled veterans, veterans community and their 
families. We love our country and our flag, believe in a strong 
national defense, support our troops and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
government is the protection of our citizens. As we all know, we are at 
war. That is why the defense appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    Presently, we have under consideration the President's fiscal year 
2011 defense budget request of $708 billion for its discretionary and 
war funding. According to the Defense Department, this represents an 
increase of 3.4 percent from the previous year. In fact, however, 
that's about 1.8 percent real growth after inflation.
    Last year, we heard Defense Secretary Gates order the Defense 
Department to come up with $60 billion in cuts over the next 5 years. 
In fact, certain Members of Congress are calling for cuts in defense 
spending. In certain quarters of Congress, congressional leaders have 
recommended a 25 percent cut in the defense budget.
    The National Association for Uniformed Services is pleased with 
certain aspects of the President's recommendation, specifically those 
that laser focus on winning the wars in Iraq and Afghanistan. Choosing 
to win these wars, however, should not mean our country must assume 
greater risk in conventional national defense challenges or neglect to 
consider the very real emerging threats of the future.
    We simply must have a strong investment in the size and capability 
of our air, land and naval forces. And we must invest in fielding new 
weapons systems today to meet the challenges of tomorrow.
    We cannot depend on aging fleets of aircraft, ships and vehicles 
across the services. We must continue to drive towards modernization 
and make available the resources we will need to meet and defeat the 
next threats to our security.
    Our nation is protected by the finest military the world has ever 
seen. The message our members want you to hear is simple and direct: 
Any one who goes into harm's way under the flag of the United States 
needs to be deployed with the best our nation can provide. We need to 
give our brave men and women everything they need to succeed. And we 
must never cut off or unnecessarily delay critical funding for our 
troops in the field.
    The National Association for Uniformed Services is very proud of 
the job this generation of Americans is doing to defend America. Every 
day they risk their lives, half a world away from loved ones. Their 
daily sacrifice is done in today's voluntary force. What they do is 
vital to our security. And the debt we owe them is enormous.
    Our Association also carries concerns about a number of related 
matters. Among these is the provision of a proper healthcare for the 
military community and recognition of the funding requirements for 
TRICARE for retired military. Also, we will ask for adequate funding to 
improve the pay for members of our armed forces and to address a number 
of other challenges including TRICARE Reserve Select and the Survivor 
Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of Improvised Explosive Devices (IEDs).
TRICARE and Military Quality of Life: Health Care
    Quality healthcare is a strong incentive to make military service a 
career. The provision of quality, timely care is considered one of the 
most important benefits afforded the career military. The TRICARE 
benefit, earned through a career of service in the uniformed services, 
reflects the commitment of a nation, and it deserves your wholehearted 
support.
    It should also be recognized that discussions have once again begun 
on increasing the retiree-paid costs of TRICARE earned by military 
retirees and their families. We remember the outrageous statement of 
Dr. Gail Wilensky, a co-chair of the Task Force on the Future of 
Military, calling congressional passage of TRICARE for Life ``a big 
mistake.''
    And more recently, we heard Admiral Mike Mullen, the current 
Chairman of Joint Chiefs of Staff, call for increases in TRICARE fees. 
Mullen said, ``It's a given as far as I'm concerned.''
    Fortunately, President Obama has taken fee increases off the table 
this year in the Administration budget recommendation. However, with 
comments like these from those in leadership positions, there is little 
wonder that retirees and active duty personnel are concerned.
    Seldom has NAUS seen such a lowing in confidence about the 
direction of those who manage the program. Faith in our leadership 
continues, but it is a weakening faith. And unless something changes, 
it is bound to affect recruiting and retention, even in a down economy.
Criminal Activity Costs Medicare and TRICARE Billions of Dollars
    Recent testimony and studies from the Government Accountability 
Office (GAO), the investigative arm of the United States Congress, show 
us that at least $80 billion worth of Medicare money is being ripped 
off every year. Frankly, it demonstrates that criminal activity costs 
Medicare and TRICARE billions of dollars.
    Here are a couple of examples. GAO reports that one company billed 
Medicare for $170 million for HIV drugs. In truth, the company 
dispensed less than $1 million. In addition, the company billed $142 
million for nonexistent delivery of supplies and parts and medical 
equipment.
    In another example, fake Medicare providers billed Medicare for 
prosthetic arms on people who already have two arms. The fraud amounted 
to $1.4 billion of bills for people who do not need prosthetics.
    TRICARE is closely tied to Medicare and its operations are not 
immune. According to officials at the TRICARE Program Integrity Office, 
approximately 10 percent of all healthcare expenditures are fraudulent. 
With a military health system annual cost of $51 billion, fraudulent 
purchase of care in the military health system would amount to more 
than $5 billion.
    We need action to corral fraud and bring it to an end. What we've 
seen, however, is delay and second-hand attention with insufficient 
resources dedicated to TRICARE fraud conviction and recovery of money 
paid to medical care thieves. If one goes to the TRICARE Program 
Integrity Office web site, one sees a reflection of this inactivity. 
The most recent Fraud Report is dated 2008 and under ``News,'' there 
are two items for 2010 and no items for 2009. The question we hear 
continually is whether anything is going on except talk about raising 
fees and copays.
    As an example, NAUS is informed that the Department of Defense 
Inspector General reported fraud problems in the Philippines as long 
ago as 1998. Yet fraudulent payments continued for 7 years, untended, 
merely observed, until finally, more than a year ago, action was taken 
to curb the problem and order a Philippine corporation to pay back more 
than $100 million in fraudulent payments.
    Our members tire of hearing they should pay more when they hear 
stories about or see little evidence of our government doing anything 
but sitting on its hands, often taking little to no action for years on 
this type of criminal activity.
    NAUS urges the Subcommittee to challenge DOD and TRICARE 
authorities to put some guts behind efforts to drive fraud down and out 
of the system. If left unchecked, fraud will increasingly strip away 
resources from government programs like TRICARE. And unless Congress 
directs the Administration to take action, we all know who will be left 
holding the bag--the law-abiding retiree and family.
    We urge the Subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the nation's 
military uniform. Root out the corruption, fraud and waste. And confirm 
America's solemn, moral obligation to support our troops, our military 
retirees, and their families. They have kept their promise to our 
Nation, now it's time for us to keep our promise to them.
Military Quality of Life: Pay
    For fiscal year 2011, the Administration recommends a 1.4 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services calls on Members of 
Congress to put our troops and their families first. Our forces are 
stretched thin, at war, yet getting the job done. We ask you to express 
the nation's gratitude for their critical service, increase basic pay 
and drill pay one-half percent above the administration's request to 
1.9 percent.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The differential, which was as great as 14 percent in the late 1990s, 
has been reduced to just under 3 percent with the January 2010 pay 
increase.
    The National Association for Uniformed Services applauds you, Mr. 
Chairman, for the strides you have made, and we encourage you to 
continue your efforts to ensure DOD manpower policy maintains a 
compensation package that is reasonable and competitive.
    We also encourage your review of providing bonus incentives to 
entice individuals with certain needed skills into special jobs that 
help supply our manpower for critical assets. These packages can also 
attract ``old hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
Military Quality of Life: Family Housing Accounts
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our service members and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
Sept. 11, 2001, our Guardsmen and reservists have witnessed an upward 
spiral in the rate of deployment and mobilization. The mission has 
clearly changed, and we must recognize that Reserve Component Forces 
account for an increasing role in our national defense and homeland 
security responsibilities. The challenge to help them keep pace is an 
obligation we owe for their vital service.
Increase Force Readiness Funds
    The readiness of our forces is in decline. The long war fought by 
an overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
    The deficiencies in the equipment available for the National Guard 
to respond to such disasters include sufficient levels of trucks, 
tractors, communication, and miscellaneous equipment. If we have 
another overwhelming storm, hurricane or, God forbid, a large-scale 
terrorist attack, our National Guard is not going to have the basic 
level of resources to do the job right.
Walter Reed Army Medical Center
    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, MD, and the closing of the existing 
Walter Reed by 2011.
    While we herald the renewed review of the adequacy of our hospital 
facilities and the care and treatment of our wounded warriors that 
result from last year's news reports of deteriorating conditions at 
Walter Reed Army Medical Center, the National Association for Uniformed 
Services believes that Congress must continue to provide adequate 
resources for WRAMC to maintain its base operations' support and 
medical services that are required for uninterrupted care of our 
catastrophically wounded soldiers and marines as they move through this 
premier medical center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at Bethesda or Fort Belvoir are in place and ready to give 
appropriate care and treatment to the men and women wounded in armed 
service.
    Our wounded warriors deserve our nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the nation will 
continue to hold the well being of soldiers and their families as our 
number one priority.
Department of Defense, Seamless Transition Between the DOD and VA
    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services is pleased to 
receive the support of President Obama and the forward movement of 
Secretaries Gates and Shinseki toward this long-supported goal of 
providing a comprehensive e-health record.
    The National Association for Uniformed Services calls on the 
Appropriations Committee to continue the push for DOD and VA to follow 
through on establishing a bi-directional, interoperable electronic 
medical record. Since 1982, these two departments have been working on 
sharing critical medical records, yet to date neither has effectively 
come together in coordination with the other.
    Taking care of soldiers, sailors, airmen and marines is a national 
obligation, and doing it right sends a strong signal to those currently 
in military service as well as to those thinking about joining the 
military.
    DOD must be directed to adopt electronic architecture including 
software, data standards and data repositories that are compatible with 
the system used at the Department of Veterans Affairs. It makes 
absolute sense and it would lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our nation is to ensure that all troops receive timely, 
quality healthcare and other benefits earned in military service.
    To improve the DOD/VA exchange, the transfer should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.
Defense Department Force Protection
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very effective weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of our enemy and to 
decrease casualties caused by IEDs.
Defense Health Program--TRICARE Reserve Select
    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of Sept. 11, 2001. The mission 
has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a critical share of the load.
Department of Defense, Prosthetic Research
    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
Subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the Subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury (TBI)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that Traumatic Brain Injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the Subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for over 100 years under an assortment of different 
names. For example more than 60 years ago, Army psychiatrists reported, 
``That each moment of combat imposes a strain so great that . . . 
psychiatric casualties are as inevitable as gunshot and shrapnel wounds 
in warfare.''
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist service members found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the Gulf War demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however, we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the Members of the Subcommittee to provide these 
funds, to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.
Armed Forces Retirement Home
    The National Association for Uniformed Services is pleased to note 
the Subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH). We urge the Subcommittee to meet the 
challenge in providing adequate funding for the facility in Washington, 
DC, and Gulfport, Mississippi.
    And we thank the Subcommittee for the provision of funding that has 
led to the reconstruction of the Armed Forces Retirement Home in 
Gulfport, destroyed in 2005 as a result of Hurricane Katrina. And we 
look forward to the opening of the home scheduled for October 2010. 
NAUS is informed that when completed (the construction is 96 percent 
done, May 2010), the facility will provide independent living, assisted 
living and long-term care to more than 500 residents.
    The National Association for Uniformed Services also applauds the 
recognition of the Washington AFRH as a historic national treasure. And 
we look forward to working with the Subcommittee to continue providing 
a residence for and quality-of-life enhancements to these deserving 
veterans. We ask that continued care and attention be given to the 
mixed-use development to the property's southern end, as approved.
    The AFRH home is a historic national treasure, and we thank 
Congress for its oversight of this gentle program and its work to 
provide for a world-class care for military retirees.
Improved Medicine with Less Cost at Military Treatment Facilities
    The National Association for Uniformed Services is also seriously 
concerned over the consistent push to have Military Health System 
beneficiaries age of 65 and over moved into the civilian sector from 
military care. That is a very serious problem for the Graduate Medical 
Education (GME) programs in the MHS; the patients over 65 are required 
for sound GME programs, which, in turn, ensure that the military can 
retain the appropriate number of physicians who are board certified in 
their specialties.
    TRICARE/HA policies are pushing these patients out of military 
facilities and into the private sector where the cost per patient is at 
least twice as expensive as that provided within Military Treatment 
Facilities (MTFs). We understand that there are many retirees and their 
families who must use the private sector due to the distance from the 
closest MTF; however, where possible, it is best for the patients 
themselves, GME, medical readiness, and the minimizing the cost of 
TRICARE premiums if as many non-active duty beneficiaries are taken 
care of within the MTFs. As more and more MHS beneficiaries are pushed 
into the private sector, the cost of the MHS rises. The MHS can provide 
better medicine, more appreciated service and do it at improved medical 
readiness and less cost to the taxpayers.
Uniformed Services University of the Health Sciences
    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders and healthcare providers across the nation.
Joint POW/MIA Accounting Command (JPAC)
    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve.
    NAUS supports the fullest possible accounting of our missing 
servicemen. It is a duty we owe the families, to ensure that those who 
wear our country's uniform are never abandoned. We request that 
appropriate funds be provided to support the JPAC mission for fiscal 
year 2011.
Appreciation for the Opportunity to Testify
    As a staunch advocate for our uniformed service men and women, The 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, The National Association for Uniformed Services 
appreciates the Subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our nation's highest priority needs and we ask that 
they be given the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a nation for their earned 
benefits is a continuing cost of war, and it will never cost more nor 
equal the value of their service.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Chairman Inouye. Next witness, Ms. Elizabeth Cochran. Ms. 
Cochran.
STATEMENT OF ELIZABETH COCHRAN, SECRETARY, ASSOCIATIONS 
            FOR AMERICA'S DEFENSE
    Ms. Cochran. Thank you, Mr. Chairman.
    Mr. Chairman and Mr. Vice Chairman of the subcommittee, the 
Associations for America's Defense is very grateful to testify 
today. We would like to thank the subcommittee for its 
stewardship on defense issues and setting an example of your 
nonpartisan leadership.
    The Associations for America's Defense is concerned that 
U.S. defense policy is sacrificing future security for near-
term readiness. Most concerning is the vigorous pursuit to cut 
existing programs.
    Admiral Mike Mullen stated during his testimony before the 
House Armed Services Committee in February that as fiscal 
pressures increase, our ability to build future weapons systems 
will be impacted by decreasing modernization budgets, as well 
as mergers and acquisitions.
    A4AD is in agreement, and we are alarmed about the fiscal 
year 2011 unfunded program list submitted by the services, 
which continues on fiscal year 2010's list, which was 87 
percent lower than 2009's. We are more concerned that unfunded 
requests continue to be driven by budgetary factors more than 
risk assessment, which will impact national security.
    Additionally, the result of such budgetary policy could 
again lead to a hollow force whose readiness and effectiveness 
has been subsequently degraded, and lessened efficiency may not 
be immediately evident. We support increasing defense spending 
to 5 percent of the Gross Domestic Product during times of war 
to cover procurement and prevent unnecessary personnel end 
strength cuts.
    According to the Office of Management and Budget, base 
defense spending will stay relatively flat for the next 5 
years. We disagree with placing such constraints on defense 
because it could lead to readiness and effectiveness being 
degraded.
    As always, our military will do everything possible to 
accomplish its missions, but response time is measured by 
equipment readiness. Last year, due to DOD's tactical aircraft 
acquisition programs being blunted by cost and schedule 
overruns, the Air Force offered to retire 250 fighter jets, 
which the Secretary of Defense accepted.
    Until new systems are acquired in sufficient quantities to 
replace legacy fleets, these legacy systems must be sustained. 
As the military continues to become more expeditionary, more 
airlift C-17 and C-130Js will be required. Yet DOD has decided 
to shut down production of C-17s.
    Procurement needs to be accelerated, modernized, and 
mobility requirements need to be reported upon. The need for 
air refueling is utilized worldwide in DOD operations, but 
significant numbers of tankers are old and plagued with 
structural problems. The Air Force would like to retire as many 
as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade. These aircraft must be replaced.
    We also thank this subcommittee to continue to provide its 
appropriations for the National Guard and Reserve equipment 
requirements. The National Guard's goal is to make at least 
one-half the Army and Air's assets available to Governors and 
adjunct generals at any given time. Appropriating funds for the 
Guard and Reserve equipment provides Reserve chiefs and Guard 
directors with flexibility of prioritizing funding.
    Earlier this month, a sustainable defense task force 
released the report ``Debt, Deficits, and Defense: A Way 
Forward.'' We are distressed that it recommends cutting up to 
$443 billion for conventional forces, canceling several 
programs including the MV-22 Osprey, the expeditionary fighting 
vehicle, Air Force and Marine Corps F-35, reducing the size of 
the Navy to 230 ships, 8 air wings, and cutting up to 200,000 
military personnel.
    Another very worrisome aspect is the recommendation to 
revert the Reserve components back to a strategic reserve 
strictly. National security demands both an operational and a 
strategic reserve. When at war, there is an outstanding threat, 
and it is not time for a peace dividend.
    A4AD members are very concerned about planned cuts as 
proposed by DOD and this task force. We generally appreciate 
the support of the subcommittee, particularly at a time when 
there is growing pressure from other members to cut further 
programs.
    Once again, we thank you for your ongoing support of the 
Nation, the armed forces, and our fine men and women serving 
this Nation. Please contact us with any questions.
    Thank you.
    Chairman Inouye. I thank you very much, Ms. Cochran.
    An association of this nature, we would expect that a four-
star general testify. But you have done a good job.
    Thank you.
    Senator Cochran. Thank you very much for looking carefully 
at all aspects of the budget requests submitted by the 
administration. I think your testimony will be very helpful to 
the subcommittee as we continue our deliberations.
    [The statement follows:]
                Prepared Statement of Elizabeth Cochran
                   associations for america's defense
    Founded in January of 2002, the Association for America's Defense 
(A4AD) is an adhoc group of Military and Veteran Associations that have 
concerns about National Security issues that are not normally addressed 
by The Military Coalition (TMC) and the National Military Veterans 
Alliance (NMVA), but participants are members from each. Members have 
developed expertise in the various branches of the Armed Forces and 
provide input on force policy and structure. Among the issues that are 
addressed are equipment, end strength, force structure, and defense 
policy. A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.
    Participating Associations: Air Force Association; Army and Navy 
Union; Association of the U.S. Navy; Enlisted Assoc. of the National 
Guard of the U.S.; Marine Corps Reserve Association; Military Order of 
World Wars; National Assoc. for Uniformed Services; Naval Enlisted 
Reserve Association; Reserve Enlisted Association; Reserve Officers 
Association; The Flag and General Officers' Network; and The Retired 
Enlisted Association.
                              introduction
    Mister Chairman and distinguished members of the committee, the 
Associations for America's Defense (A4AD) is again very grateful for 
the invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of twelve 
military and veteran associations that have concerns about national 
security issues. Collectively, we represent armed forces members and 
their families, who are serving our nation, or who have done so in the 
past.
              current versus future: issues facing defense
    The Associations for America's Defense would like to thank this 
subcommittee for the ongoing stewardship that it has demonstrated on 
issues of defense. While in a time of war, this subcommittee's pro-
defense and non-partisan leadership continues to set an example.
Force Structure: Erosion in Capability
    The Obama Administration's 2010 Quadrennial Defense Review (QDR) 
advances two objectives: further rebalance the Armed Force's 
capabilities to prevail in today's wars while building needed 
capabilities to deal with future threats; and second, reform the 
Department of Defense's (DOD) institutions and processes to better 
support warfighters' urgent needs; purchase weapons that are usable, 
affordable, and needed; and ensure that taxpayer dollars are spent 
wisely and responsibly. The new QDR calls for DOD to continually evolve 
and adapt in response to the changing security environment.
    During his testimony before the House Armed Services Committee 
(HASC) in February, Admiral Mike Mullen stated, ``. . . I am growing 
concerned about our defense industrial base, particularly in ship 
building and space. As fiscal pressures increase, our ability to build 
future weapon systems will be impacted by decreasing modernization 
budgets as well as mergers and acquisitions.''
    In 2009 Secretary of Defense Robert Gates testified before the 
Senate Armed Services Committee (SASC) that the United States should 
focus on the wars that we are fighting today, not on future wars that 
may never occur. He also asserts that U.S. conventional capabilities 
will remain superior for another 15 years. Anthony Cordesman, a 
national security expert for the Center for Strategic and International 
Studies, says that Gates' plan should be viewed as a set of short-term 
fixes aimed at helping ``a serious cost containment problem,'' not a 
new national security policy.
    War planners are often accused of planning for the last war. 
Secretary Gates speaks to enhancing the capabilities of fighting 
today's wars. A concern arises on whether DOD's focus should be on 
irregular or conventional warfare, and whether it should be preparing 
for a full scale ``peer'' war.
Hollow Force
    A4AD could not disagree more by placing such budgetary constraints 
on defense. Member associations question the spending priorities of the 
current administration. ``Fiscal restraint for defense and fiscal 
largesse for everything else,'' commented then ranking member John 
McHugh at a HASC hearing on the defense budget in May 2009.
    The result of such a budgetary policy could again lead to a hollow 
force whose readiness and effectiveness has been subtly degraded and 
lessened efficiency will not be immediately evident. This process which 
echoes of the past, raises no red flags and sounds no alarms, and the 
damage can go unnoticed and unremedied until a crisis arises 
highlighting how much readiness decayed.
Emergent Risks
    Members of this group are concerned that U.S. defense policy is 
sacrificing future security for near term readiness. Our efforts are so 
focused to provide security and stabilization in Afghanistan and 
withdrawing from Iraq, that risk is being accepted as an element of 
future force planning. Force planning is being driven by current 
overseas contingency operations, and increasingly on budget 
limitations. Careful study is needed to make the right choice. A4AD is 
pleased that Congress and this subcommittee continue oversight in these 
decisions.
    What seems to be overlooked is that the United States is involved 
in a Cold War as well as a Hot War with two theaters as well as varying 
issues in the Middle East, North Korea, China, Russia, and Iran which 
are growing areas of risk.
Korean Peninsula
    Provocatively, North Korea successfully tested a nuclear weapon at 
full yield, unilaterally withdrew from that 1953 armistice. The 
Republic of Korea lost a navy ship sunk to a torpedo. South Korean and 
U.S. troops have been put on the highest alert level in years.
    North Korea has 1.2 million troops, with 655,000 South Korean 
soldiers and 28,500 U.S. troops stationed to the South. While not an 
immediate danger to the United States, North Korea is viewed as an 
increased threat to its neighbors, and is potentially a destabilizing 
factor in Asia. North Korea may be posturing, but it is still a failed 
state, where misinterpretation clouded by hubris could start a war. The 
North has prepositioned and could fire up to 250,000 rounds of heavy 
artillery in the first 48 hours of a war along the border and into 
Seoul.
China
    China's armed forces are the largest in the world and have 
undergone double-digit increases in military spending since the early 
90s. DOD has reported that China's actual spending on its military is 
up to 250 percent higher than figures reported by the Chinese 
government, and their cost of materials and labor is much lower. In 
2009, China's defense budget increased by almost 15 percent and further 
increased about 7.5 percent for 2010. DOD's 2009 report to Congress on 
China's military strength estimated in 2008 that its spending ranged 
from $105 and $150 billion, the second highest in the world after the 
United States. It should be noted that these dollars go further within 
the Chinese economy as well.
    China's build-up of sea and air military power appears aimed at the 
United States, according to Admiral Michael Mullen, the chairman of the 
Joint Chiefs of Staff. Furthermore China is reluctant to support 
international efforts in reproaching North Korea, which recently as 
evidenced by the sunk South Korean naval vessel.
    The U.S. military strategy cannot be held hostage by international 
debts. While China is the biggest foreign holder of U.S. Treasuries 
with $895.2 billion at the end of March, we cannot be lulled into a 
sense of complacency.
Russia
    While the Obama Administration has been working on a ``reset'' 
policy towards Russia, including a new START treaty, there are areas of 
concern. A distressing issue is their relationship with Iran which the 
United States and even the United Nations have brought sanctions 
against. Additionally Russia sells arms to countries like Syria and 
Venezuela that also have ties to Iran.
    Prime Minister Vladimir Putin stated recently that, ``Despite the 
difficult environment in which we are today, we still found a way to 
not only maintain but also increase the total amount of state defense 
order.'' Russia's defense budget rose by 34 percent in 2009, as 
reported by the International Institute of Strategic Study in an annual 
report.
Iran
    While Iran lobs petulant rhetoric towards the United States, the 
real international tension is between Israel and Iran. Israel views 
Tehran's atomic work as a threat, and would consider military action 
against Iran as it has threatened to ``eliminate Israel.'' Israeli 
leadership has warned Iran that any attack on Israel would result in 
the ``destruction of the Iranian nation.'' Israel is believed to have 
between 75 to 200 nuclear warheads with a megaton capacity.
Funding for the Future
    Since Secretary Gates initiated the practice of reviewing all the 
services' unfunded requirements lists prior to testifying before 
Congress the result has been in fiscal restraint. The unfunded lists 
have shown a dramatic reduction from $33.3 billion for fiscal year 2008 
and $31 billion for fiscal year 2009 to $3.8 billion for fiscal year 
2010 and $2.6 billion for fiscal year 2011. Most notable is that the 
Air Force in prior years represented about 50 percent of the total 
unfunded requirements list and is now proportionate to the other 
services.
    In 2009 Secretary Gates told SASC, ``It is simply not reasonable to 
expect the defense budget to continue increasing at the same rate it 
has over the last number of years.'' He went further saying, ``We 
should be able to secure our nation with a base budget of more than 
half a trillion dollars.'' Following through on these statements the 
Secretary has instituted a plan to save $100 billion over 5 years. Two-
thirds of the savings are supposed to come from decreasing overhead and 
one-third from cuts in weapons systems and force structure, meaning 
less people. For the 2012 budget, the military services and defense 
agencies have been asked to find $7 billion in savings.
    These impending cuts are in addition to weapon systems cuts from 
last year which amounted to about $300 billion. Despite the great need 
to manage budgets in light of the financial situation that the United 
States faces, we are still conducting two theaters in a war, and should 
be prepared to fight if another threat challenges U.S. National 
Security.
Defense as a Factor of GDP
    Secretary Gates has warned that each defense budget decision is 
``zero sum,'' providing money for one program will take money away from 
another. A4AD encourages the appropriations subcommittee on defense to 
scrutinize the recommended spending amount for defense. Each member 
association supports increasing defense spending to 5 percent of Gross 
Domestic Product during times of war to cover procurement and prevent 
unnecessary personnel end strength cuts.
A Changing Manpower Structure
    The 2010 QDR recommends incremental reductions in force structure 
shrinking the fleet to about 250 to 260 ships, reducing the number of 
active Army brigade combat teams to 45 and Air Force tactical fighter 
wings to 17, while maintaining the 202,100 Marine Corps active manpower 
level. The Heritage Foundation projects there will be a 5 percent 
decrease in manpower over the next 5 years.
    A4AD supports a moratorium on further cuts including the National 
Guard and other military Reserve. We further suggest that a Zero Based 
Review (ZBR) be performed to evaluate the current manning requirements. 
Additionally, as the active force is cut, these manpower and equipment 
assets should remain in the Reserve Components.
Maintaining a Surge Capability
    The Armed Forces need to provide critical surge capacity for 
homeland security, domestic and expeditionary support to national 
security and defense, and response to domestic disasters, both natural 
and man-made that goes beyond operational forces. A strategic surge 
construct includes manpower, airlift and air refueling, sealift 
inventory, logistics, and communications to provide a surge-to-demand 
operation. This requires funding for training, equipping and 
maintenance of a mission-ready strategic reserve composed of active and 
reserve units. An additional requirement is excess infrastructure which 
would permit the housing of additional forces that are called-up beyond 
the normal operational force.
Dependence on Foreign Partnership
    Part of the U.S. military strategy is to rely on long-term 
alliances to augment U.S. forces. As stated in a DOD progress report. 
``Our strategy emphasizes the capacities of a broad spectrum of 
partners . . . We must also seek to strengthen the resiliency of the 
international system . . . helping others to police themselves and 
their regions.'' The fiscal year 2011 budget request included an 
increase from $350 to $500 million for the Global Train and Equip 
authority that helps build capabilities of key partners.
    The risk of basing a national security policy on foreign interests 
and good world citizenship is increasingly uncertain because the United 
States does not necessarily control our foreign partners as their 
national objectives can differ from our own. Alliances should be viewed 
as a tool and a force multiplier, but not the foundation of National 
Security.
                         unfunded requirements
    The fiscal year 2011 Unfunded Program Lists submitted by the 
military services to Congress continued in fiscal year 2010's steps, 
which was 87 percent less than was requested for fiscal year 2009. A4AD 
has concerns that the unfunded requests continue to be driven more by 
budgetary factors than risk assessment which will impact national 
security. The following are lists submitted by A4AD including 
additional non-funded recommendations.
Tactical Aircraft
    DOD's efforts to recapitalize and modernize its tactical air forces 
have been blunted by cost and schedule overruns in its new tactical 
aircraft acquisition programs. For fiscal year 2010 the Air Force 
offered a plan to retire 250 fighter jets in one year alone, which 
Secretary Gates accepted.
    Yet the HASC observed after approving Navy and Marine Corps 
procurement, and research and development programs in May, that it's 
concerned about the unacceptable deficit of approximately 250 tactical 
aircraft by 2017, warning future budget requests must address this.
    Until new systems are acquired in sufficient quantities to replace 
legacy fleets, legacy systems must be sustained and kept operationally 
relevant. The risk of the older aircraft and their crews and support 
personnel being eliminated before the new aircraft are on line could 
result in a significant security shortfall.
Airlift
    Hundreds of thousands of hours have been flown, and millions of 
passengers and tons of cargo have been airlifted. Their contributions 
in moving cargo and passengers are absolutely indispensable to American 
warfighters in overseas contingencies. Both Air Force and Naval 
airframes and air crew are being stressed by these lift missions. As 
the military continues to become more expeditionary it will require 
more airlift. Procurement needs to be accelerated and modernized, and 
mobility requirements need to be reported upon.
    While DOD has decided to shut down production of C-17s, existing C-
17s are being worn out at a higher rate than anticipated. Congress 
should independently examine actual airlift needs, and plan for C-17 
modernization, a possible follow-on procurement. Given the C-5's 
advanced age, it makes more sense to retire the oldest and most worn of 
these planes and use the upgrade funds to buy more C-5s and modernize 
current C-5 aircraft. DOD should also continue with a joint multi-year 
procurement of C-130Js.
    The Navy and Marine Corps need C-40A replacements for the C-9B 
aircraft; only nine C-40s have been ordered since 1997 to replace 29 C-
9Bs. The Navy requires Navy Unique Fleet Essential Airlift. The C-40A, 
a derivative of the 737-700C a Federal Aviation Administration (FAA) 
certified, while the aging C-9 fleet is not compliant with either 
future global navigation requirements or noise abatement standards that 
restrict flights into European airfields.
    The Air Force-Navy-Marine Corps fighter inventory will decline 
steadily from 3,264 airframes in fiscal year 2011 to 2,883 in fiscal 
year 2018, at which point the air fleet is supposed to have a slow 
increase.
Tankers
    The need for air refueling is reconfirmed on a daily basis in 
worldwide DOD operations. A significant number of tankers are old and 
plagued with structural problems. The Air Force would like to retire as 
many as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade.
    DOD and Congress must work together to replace of these aircraft. A 
contract needs to be offered. A4AD thanks this committee for its 
ongoing support to resolve this issue.
NGREA
    A4AD asks this committee to continue to provide appropriations for 
unfunded National Guard and Reserve Equipment Requirements. The 
National Guard's goal is to make at least half of Army and Air assets 
(personnel and equipment) available to the Governors and Adjutants 
General at any given time. To appropriate funds to Guard and Reserve 
equipment provides Reserve Chiefs with a flexibility of prioritizing 
funding.

                     UNFUNDED EQUIPMENT REQUIREMENTS
           [The services and lists are not in priority order.]
------------------------------------------------------------------------
                                                              Amounts in
                                                               millions
------------------------------------------------------------------------
Air Force:
    C-130 Aircraft Armor (79)..............................        $15.8
    C-130 NVIS Windows (64)................................          1
    C-130 Crash Resistant Loadmaster Seat Modifications             19
     (76)..................................................
    C-17 Armor Refurbishment and Replacement (17)..........          2
Air Force Submitted Requirements:
    Weapons System Sustainment: Programmed Depot                   337.2
     Maintenance (PDMs), High Velocity Maintenance (HVM),
     Service Life Extension Program (SLEP)/Scheduled
     Structural Inspections (SSI), and engine overhauls
     [ANG & AFR included]..................................
    Theater Posture: contract maintenance of Base                   70
     Expeditionary Airfield Resources (BEAR)/War Readiness
     Material assets; procure Fuels Operational Readiness
     Capability equipment (FORCE) sets, fuel bladders/
     liners................................................
    DCGS Integrated C3 PED System..........................         55
    Battlefield Airmen Equipment/JTAC Modeling & Simulation         28.7
    Vehicle & Support Equipment Procurement................         57.1
Air Force Reserve (USAFR):
    LITENING Targeting pod (19)............................         24
    C-130 Secure Line of Sight/Beynold Line of Sight (SLOS/         22.1
     BLOS) (63)............................................
    AFRC ATP Procurement & Spiral Upgrade (54).............         54
    C-130 Aircraft Armor (79)..............................         15.8
    C-130 Crash Resistant Loadmaster Seats (76)............         19
    F-16 All WX A-G Precision Self-Targeting Capability            120
     (54)..................................................
    A-10 On Board Oxygen Generating System (OBOGS) (54)....         11.1
Air National Guard (USANG):
    F-15 Digital Video Recorder (DVR) (upgrades to ANG F-15          7
     aircraft).............................................
    C-37B (Gulf Stream) aircraft (4).......................        256
    USANG requires at Andrews AFB to replace the aging C-        1,000
     38A fleet C-17 (5 minimum)............................
    Requirement identified by NGAUS, EANGUS, AGAUS, and
     ROA:
        Security Forces Tactical Vehicles:
            HMMWVs (1,700).................................        170
            LTMVs (500)....................................        100
        Upgraded Personal Protective Equipment:
            IOTVs (4,600)..................................          3.1
            ESAPI Plates (9,200)...........................          7.5
            Concealable Body Armor (8,800).................          4.4
    Air Refueling Tanker replacements......................    ( \1\ )
Army Submitted Requirements:
    Line of Communication Bridge (LOCB)....................         15
    Light Weight Counter-Mortar Radar (LCMR)...............         47.1
    NAVSTAR GPS: Defense Advanced GPS Receiver (DAGR)......         51.2
    Civil Affairs/Psychological Operations (CA/Psy Ops)....         55
    Advanced Field Artillery Tactical Data System (AFATDS)          16.2
     Forward Entry Devices.................................
    Patriot................................................        133.6
    Test 7 Evaluation Instrumentation......................         17.7
    Army Test Range Infrastructure.........................         22.9
Army Reserve (USAR):
    Helicopter, Attack AH-64D (3)..........................         75.5
    MTV 5 Ton Cargo Truck, M108s (448).....................         57.4
    LMTV 2.5 Ton Cargo Truck, M1079 (23)...................          3.7
    HMMWVs (humvees), ARMT Carrier, M1025 (1,037)..........         78
    Night Vision Goggles, AN/PVX-7B (7,740)................         28
    Weapons:
        Machine Gun, 7.62MM, M240B (3,445).................         20.6
        Carbine Rifle, 5.56MM, M4 (6,441)..................          3.7
    Next Generation of Loudspeaker System (NGLS) Manpak,            86.7
     NGLS Vehicle (1,344)..................................
Army National Guard (USARNG):
    ATLAS (All Terrain Lifter-Army System and II), Truck             4.3
     Lift..................................................
    Chemical Decontamination (JSTDS-SS, CBPS)..............         11
    Radios, COTS Tactical Radios...........................         10
    FMTV (Truck tractor: MTV W/E, Truck Van: Expansible MTV        507
     W/E)..................................................
    Joint Assault Bridge (Carrier Bridge Launching: Joint           35
     Assault XM1074).......................................
Navy Submitted Requirements:
    Aviation Spares: T/M/S, Fleet aircraft.................        423
    Ship Depot Maintenance: deferred surface ship non-              35
     docking availabilities................................
    Aviation Depot Maintenance: deferred airframes/engines.         74
Navy Reserve (USNR):
    C-40A Combo cargo/passenger airlift aircraft (5).......         75
    EA-18G, Growler (2) Additional 3 Growlers will be              142.8
     needed in fiscal year 2012............................
    Navy Expeditionary Combat Command......................         20
    MPF Utility Boat (3)...................................          3
Marine Corps Submitted Requirements:
    CH-53 Reliability Improvements.........................         34
    Warfighter Equipment: KC-130J, UC-35ER, UC-12W.........        168
    Readiness: M88A2 Improved Recovery Vehicle, Mine Roller        131
     System, Assault Breacher Vehicle, Family of Field
     Medical Equipment.....................................
    Modernization of Child Development Center..............         18
Marine Forces Reserves (MFR):
    KC-130J Super Hercules Aircraft tankers (4)............        200
    Light Armored Vehicles (LAV)...........................          1.5
    Training Allowance (T/A) Shortfalls (To provide most up        145
     to date Individual Combat & Protective Equipment: M4
     rifles, Rifle Combat Optic (RCO) scopes, Light weight
     helmets, Small Arms Protective Insert (SAPI) plates,
     Modular Tactical Vests, Flame Resistant)..............
    Logistics Vehicle Replacement System Cargo.............    ( \1\ )
------------------------------------------------------------------------
\1\ Unkown.Note: A4AD recommends further investment in the DDG 1000 or a similar
  concept. This vessel was designed to allow expansion for future
  systems and technology. Any new construction should permit maximized
  modernization. Restarting procurement of the DDG 51 (Arleigh Burke)
  class Aegis destroyers limit the Navy with a 35 year old hull design,
  which requires 350 people to crew. While higher costs are cited,
  Congress should find ways to reduce shipbuilding, maintenance and
  manpower cost, rather than constrain technology.

Reserve Components (RCs)
    The National Guard Bureau has stated that the aggregate equipment 
shortage for the RCs is about $45 billion. Common challenges for the 
RCs are ensuring that equipment is available for pre-mobilization 
training, transparency of equipment procurement and distribution, and 
maintenance.
    One of USANG's top issues is modernizing legacy aircraft and other 
weapon systems for dual missions and combat deployments.
    USARNG equipment challenges include, but aren't limited to 
modernizing both the helicopter and Tactical Wheeled Vehicle (TWV) 
fleets, and interoperability with the active component. Additionally 
while the ARNG's total equipment on hand (EOH) is 77 percent, there's 
only 62 percent of the authorized equipment in the continental United 
States (CONUS) available to governors. The Army expects ARNG's total 
EOH will fall to 74 percent during 2010.
    The USAFR's primary obstacles are defensive systems funding 
shortfalls, and modernization of data link and secure communications.
    The USAR has concerns about the modernization of equipment and 
maintenance infrastructure to support ARFORGEN, sustainment of 
equipment to support deploying units and ARFOGEN, and increases in 
procurement funding. Additionally Lieutenant General Jack Stultz, chief 
of the Army Reserve, stated in testimony before the HASC Readiness 
subcommittee this spring that the USAR is challenged by ``still being 
budgeted as a strategic reserve.''
    USNR top equipping challenges are aircraft procurement specifically 
for C-40A, E/A-18G, P-8, and KC-130J; and equipment for civil 
engineering, material handling, and communications for OCO-related 
units.
    The USMFR is concerned about ensuring deploying members continue to 
receive up to date individual combat clothing and protective equipment 
in theater as well as maintaining the right amount of equipment on hand 
at RC units to train prior to deployment.
Active Components
    In DOD's new 30-year aircraft investment blueprint it calls for the 
Air Force to pause for at least 10 years in production of new strategic 
airlifters and long-range bombers. The plan also slows the process to 
purchase F-35s causing it to not meet its force level requirements 
until 2035.
    The Marine Expeditionary Fighting Vehicle (EFV) will be delayed for 
another year.
    The Marine Corps (USMC) face a primary challenge of having been a 
land force for the last decade. The USMC's naval character has taken a 
back seat to fighting a virulent resistance in an extended land 
campaign, and some core competencies are waning.
Family
    A consistent complaint from military families across the board is 
the lack of spaces and/or prolonged waiting lists for child care 
centers. While the military has built up child care systems, it is 
still an urgent need by many, especially those with special needs.
Retiree
    The fiscal year 2008 early retirement benefit for RC members was 
passed, but it excluded approximately 600,000 members. This law should 
be fixed so that RC members' service counts from post-September 11, 
2001 rather than from the bill enactment date in 2008.
Health Care
    As the operational tempo for our service members continues to be 
high and they persist to endure repeated deployments, it becomes ever 
more essential to provide efficient and timely health screenings for 
pre- and post-deployments.
    Achieving and maintaining individual medical readiness standards 
throughout a service member's continuum of service is necessary for the 
military services and components to meet mission requirements as an 
operational force.
Military Voting
    Congress legislatively mandated DOD to develop an Internet voting 
system for military voters, but HASC cut $25 million from DOD's Federal 
Voting Assistance Program (FVAP).
    The House stated it was concerned with the immaturity of the 
Internet voting system standards being developed by the Elections 
Assistance Commission, supported by FVAP. Denying DOD the funding could 
ensure those standards remain immature, and may compel the States to 
proceed with their own Internet voting systems without Federal voting 
standards or guidelines in place.
    As the SASC reported bill supports, the Senate Appropriations 
Committee should fully fund these important programs. Without these 
vital funds, military voters will be condemned to continued 
disenfranchisement, lost voting opportunities, and reliance on State-
run systems unsupported by Federal standards or evaluation.
                               conclusion
    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense. This testimony is an overview, and expanded data on 
information within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Chairman Inouye. Our next witness is Dr. Jonathan Berman, 
secretary-treasurer, American Society of Tropical Medicine and 
Hygiene.
STATEMENT OF JONATHAN BERMAN, M.D., Ph.D. COLONEL 
            (RETIRED), UNITED STATES ARMY MEDICAL 
            CORPS, ON BEHALF OF THE AMERICAN SOCIETY OF 
            TROPICAL MEDICINE AND HYGIENE
    Dr. Berman. Thank you, Mr. Chairman.
    I appreciate this opportunity to testify on behalf of the 
American Society of Tropical Medicine. I am Dr. Berman, 
Colonel, Medical Corps, retired from the United States Army.
    The American Society of Tropical Medicine and Hygiene is 
the principal professional membership organization in the 
United States, and actually in the world, for tropical medicine 
and global health. ASTMH represents physicians, researchers, 
epidemiologists, other health professionals dedicated to the 
prevention and control of tropical diseases.
    Because the military operates in many tropical regions, 
reducing the risk that tropical diseases present to servicemen 
and women is often critical to mission success and service 
personnel morale. Malaria and other insect-transmitted 
diseases, such as leishmaniasis and dengue, are particular 
examples.
    Antimalarial drugs have saved countless lives throughout 
the world, including U.S. troops during World War II, Korea, 
and Vietnam. The U.S. military has long taken a primary role in 
the development of antimalarial drugs and vaccines, and nearly 
all of the most used antimalarials today were developed at 
least in part by U.S. military researchers.
    Over 350 million people are at risk for leishmaniasis in 88 
countries, 12 million infected currently, 2 million new 
infections each year. Leishmaniasis was a particular problem 
for Operation Iraqi Freedom, as a result of which 700 American 
service personnel became infected. As it happens, the 
Washington Post yesterday had a large article on leishmaniasis 
built around statements from military personnel here in the 
Washington area.
    Because of leishmaniasis's prevalence in Iraq and Southwest 
Asia in general, DOD has spent large resources on this disease, 
and DOD personnel are the leaders worldwide in development of 
new anti-leishmanial drugs.
    Dengue is the leading cause of illness and death in the 
tropics and subtropics, as many as 100 million people are 
infected yearly. Although dengue rarely occurs in the United 
States, it is endemic in Puerto Rico, and periodic outbreaks 
occur in Samoa and Guam.
    The intersection of militarily important diseases and 
tropical medicine is the reason that 15 percent of ASTMH 
members are also members of the military. For this reason, we 
respectfully request that the subcommittee expand funding for 
DOD's longstanding and successful efforts to develop new drugs, 
vaccines, and diagnostics to protect service personnel from 
malaria and tropical diseases.
    Specifically, we request that in fiscal year 2011, the 
subcommittee ensure $70 million to DOD to support its ID 
research efforts through USAMRIID, WRAIR, and NMRC. Presently, 
DOD funding for this research is about $47 million. To keep up 
with biomedical inflation, fiscal year 2011 funding needs to be 
$60 million, and as said, to fill the gaps that have been 
created by underfunding, ASTMH urges Congress to fund DOD ID 
research at $70 million--70--in fiscal year 2011.
    Thank you very much, Mr. Chairman and vice chairman.
    Chairman Inouye. I thank you very much, Doctor.
    I can assure you that this subcommittee is giving this 
matter our highest priority.
    Senator Cochran. Mr. Chairman?
    Chairman Inouye. Our last panel, and I want to thank the 
panel very much.
    Senator Cochran. Mr. Chairman, could I put in a word for--
--
    Chairman Inouye. Yes.
    Senator Cochran [continuing]. The last witness? I notice in 
my notes here that the University of Mississippi has this 
Center for Natural Products Research and is doing some work in 
collaboration with Walter Reed Army Institute finding safe 
drugs to use against the parasites that cause malaria, which 
was one of the topics that you touched on.
    Is progress being made in this program? Are you familiar 
with that?
    Dr. Berman. Yes, sir, I am. There is work on 8-
aminoquinolines as replacement for our present drugs. It is an 
excellent center and really leads in this total effort.
    Senator Cochran. Thank you.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Jonathan Berman
    The American Society of Tropical Medicine and Hygiene (ASTMH) is 
the principal professional membership organization in the United 
States, and in the world, for Tropical Medicine and Global Health. 
ASTMH represents physicians, researchers, epidemiologists, and other 
health professionals dedicated to the prevention and control of 
tropical diseases. We appreciate the opportunity to submit testimony to 
the Senate Defense Appropriations Subcommittee and I request that our 
full testimony be submitted for the record.
    Because the military operates in many tropical regions, reducing 
the risk that tropical diseases present to servicemen and women is 
often critical to mission success.
    Malaria and other insect-transmitted diseases such as leishmaniasis 
and dengue are particular examples.
    Antimalarial drugs have saved countless lives throughout the world, 
including troops serving in tropical regions during WWII, the Korean 
War, and the Vietnam War. The U.S. military has long taken a primary 
role in the development of anti-malarial drugs, and nearly all of the 
most used anti-malarials were developed in part by U.S. military 
researchers.
    Over 350 million people are at risk of leishmaniasis in 88 
countries around the world. 12 million people are currently infected 
and 2 million new infections occur annually. Leishmaniasis was a 
particular problem for Operation Iraqi Freedom, as a result of which 
700 American service personnel became infected [Weina 2004]. Because of 
leishmaniasis' prevalence in Iraq and in Southwest Asia in general, the 
DOD has spent significant time and resources on this disease and DOD 
personnel are the leaders in development of new antileishmanial drugs.
    Dengue is a leading cause of illness and death in the tropics and 
subtropics. As many as 100 million people are infected yearly. Although 
dengue rarely occurs in the continental United States, it is endemic in 
Puerto Rico, and in many popular tourist destinations in Latin America 
and Southeast Asia; periodic outbreaks occur in Samoa and Guam. The DOD 
has seen about 28 cases of dengue in soldiers per year.
    The intersection of militarily-important diseases and Tropical 
medicine is the reason that 15 percent of ASTMH members are members of 
the military.
    For this reason, we respectfully request that the Subcommittee 
expand funding for the Department of Defense's longstanding and 
successful efforts to develop new drugs, vaccines, and diagnostics 
designed to protect servicemen and women from malaria and tropical 
diseases. Specifically, we request that in fiscal year 2011, the 
Subcommittee ensure $70 million to the Department of Defense (DOD) to 
support its infectious disease research efforts through the Army 
Medical Research Institute for Infectious Diseases, the Walter Reed 
Army Institute of Research, and the U.S. Naval Medical Research Center. 
Presently, DOD funding for this important research is at about $47 
million. To keep up with biomedical inflation since 2000, fiscal year 
2011 funding must be about $60 million. In order to fill the gaps that 
have been created by underfunding, ASTMH urges Congress to fund DOD 
infectious disease research at $70 million in fiscal year 2011.
    We very much appreciate the Subcommittee's consideration of our 
views, and we stand ready to work with Subcommittee members and staff 
on these and other important tropical disease matters.

    Chairman Inouye. And our final panel consists of Dr. George 
Zitnay, Major General David Bockel, Ms. Joy Simha, and Dr. John 
Boslego.
    Welcome to the subcommittee, and may I recognize Dr. George 
Zitnay.
STATEMENT OF GEORGE A. ZITNAY, Ph.D., CO-FOUNDER, 
            DEFENSE AND VETERANS BRAIN INJURY CENTER
    Dr. Zitnay. Good morning, Chairman Inouye and Vice Chairman 
Cochran. It is good to be here.
    My name is George Zitnay. I am the co-founder of the 
Defense and Brain Injury Center. And before I retired last 
year, I have spent over 40 years in the field of brain injury. 
And I have been involved, obviously, in the work of the 
Department of Defense since the Vietnam war.
    I have worked very hard on behalf of the military and for 
wounded warriors and their families, and I come before you this 
morning to urge funding for the Defense and Veterans Brain 
Injury Center at the $40 million level for 2011 and for the new 
National Intrepid Center of Excellence, $45 million.
    I am requesting specific line-item status for these 
agencies, as each is responsible for brain injury care, 
research, treatment, and training. NICoE, or the National 
Intrepid Center of Excellence, is having its ribbon-cutting 
ceremony tomorrow, and I hope that both of you will be able to 
attend that wonderful ceremony at Bethesda tomorrow.
    As you well know, the NICoE is a volunteer effort on behalf 
of Mr. Fisher and many individuals. And we are hopeful that the 
NICoE will be able to treat some 500 service members each year, 
and their families, for whom standard treatment for TBI has not 
worked. And I am hopeful that the NICoE will push the envelope 
to develop cutting-edge research and rehabilitation for 
individuals with traumatic brain injury from the mild level of 
TBI all the way through to coma.
    TBI continues to be the signature injury in the wars in 
Iraq and Afghanistan, affecting over 10 percent of all deployed 
service personnel. Blast-related injuries and extended 
deployments are contributing to an unprecedented number of 
warriors suffering from TBI, psychological conditions such as 
anxiety, depression, PTSD, and suicide. The long-term effects 
of blast injury are yet unknown, and more research is 
necessary.
    Also, we need to really make sure that standard pre-
deployment baseline measurement and assessments are being done 
consistently across the services. In addition, there needs to 
be a much greater emphasis on connecting injured warriors when 
they return home to community resources and to provide support 
and education for family members because they are the first 
people to recognize the symptoms, particularly of mild TBI and 
PTSD.
    Last year when I came before this subcommittee, I talked 
about those individuals in the vegetative state and the 
minimally conscious. I am very unhappy to report that we still 
have not provided the level of care necessary for these young 
men and women between the ages of 18 and 25.
    You know that the private sector has really moved ahead in 
this area. Bob Woodruff is a good example. Look at what ABC was 
able to do by providing him with the best care possible. There 
is new technology and new opportunities to wake these 
individuals up with deep brain stimulation and other types of 
progress. However, that has not been done. We have still not 
developed a partnership with universities and those major 
centers.
    And I want you to know that the VA has renamed the nursing 
homes that they operate for these individuals from nursing 
homes to community living centers. What a nice opportunity, 
isn't it?
    While we know many with severe TBI will not go back to 
work, I can assure you that they deserve the best. And last 
year, the late Congressman Jack Murtha brought together in 
Johnstown a large group of experts in this area and really 
wanted to have this as one of the things that he was quite 
interested in. Unfortunately, Mr. Chairman and Vice Chairman 
Cochran, this has not been done.
    And as I know, since I live in Johnstown, Mr. Murtha wanted 
this to be accomplished. He invited all of the people to come 
together, and I can assure you that a consortium composed of 
Harvard, people from MIT, from Cornell Medical Center, from St. 
Joseph's Hospital, from Rockefeller have all come together, and 
they know that what can be done to serve these individuals.
    But even though he brought them together, this has not been 
done, and it has been over a year. So I urge you to consider 
funding at the $40 million level for the Defense and Veterans 
Brain Injury Center and for those individuals who now will be 
served by the new Intrepid Center at Bethesda.
    And in closing, what I would like to suggest is that since 
this continuing war in Afghanistan and Iraq, what we have 
observed is that more and more individuals come home. They seem 
normal. But it is not until their family members really 
recognize that something is going on that they need then to 
have care.
    And quite frankly, we need to do a lot more in our 
communities all across this country, whether it is in 
Mississippi or Hawaii or wherever it is, to connect up our 
servicemen and women with the best that is possible in our 
communities.
    Thank you very much for all that you have done, and I urge 
you to support at the $40 million level for DVBIC and for the 
new NICoE Center of Excellence.
    Chairman Inouye. I can assure that we will do exactly that.
    Dr. Zitnay. Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you for the insight that you have 
given us and also for your unselfish service in trying to 
personally make a difference for a lot of servicemen and women 
who have been injured.
    Dr. Zitnay. Well, I am retired now, and I come before you 
as a volunteer because I am still most interested in what 
happens to our young men and women in the military.
    Thank you very much.
    [The statement follows:]
                 Prepared Statement of George A. Zitnay
    Dear Chairman Inouye, Ranking Member Cochran and Members of the 
Senate Appropriations Subcommittee on Defense: Thank you for this 
opportunity to submit testimony in support of funding brain injury 
programs and initiatives in the Department of Defense. I am George A. 
Zitnay, Ph.D., a neuropsychologist and co-founder of the Defense and 
Veterans Brain Injury Center (DVBIC).
    I have over 40 years of experience in the fields of brain injury, 
psychology and disability, including serving as the Executive Director 
of the Kennedy Foundation, Assistant Commissioner of Mental Retardation 
in Massachusetts, Commissioner of Mental Health, Mental Retardation and 
Corrections for the State of Maine, and a founder and Chair of the 
International Brain Injury Association and the National Brain Injury 
Research, Treatment and Training Foundation. I have served on the 
Advisory Committees to the Centers for Disease Control and Prevention 
(CDC) and the National Institutes of Health (NIH), was an Expert 
Advisor on Trauma to the Director General of the World Health 
Organization (WHO) and served as Chair of the WHO Neurotrauma 
Committee.
    In 1992, as President of the national Brain Injury Association, I 
worked with Congress and the Administration to establish what was then 
called the Defense and Veterans Head Injury Program (DVHIP) after the 
Gulf War as there was no brain injury program at the time. I have since 
worn many hats, and helped build the civilian partners to DVBIC: 
Virginia NeuroCare, Laurel Highlands, and DVBIC-Johnstown. Last year I 
retired as an advisor to the Department of Defense (DOD) regarding 
policies to improve the care and rehabilitation of wounded warriors 
sustaining brain injury.
    I am pleased that DVBIC continues to be the primary leader in DOD 
for all brain injury issues. DVBIC has come to define optimal care for 
military personnel and veterans with brain injuries. Their motto is 
``to learn as we treat.''
    The DVBIC has been proactive since its inception, and what began as 
a small research program, the DVBIC now has 19 sites,\1\ and serves as 
the key operational component for brain injury of the Defense Centers 
of Excellence for Psychological Health and Traumatic Brain Injury 
(DCoE) under DOD Health Affairs.
---------------------------------------------------------------------------
    \1\ Walter Reed Army Medical Center, Washington, DC; Landstuhl 
Regional Medical Center, Germany; National Naval Medical Center, 
Bethesda, MD; James A. Haley Veterans Hospital, Tampa, FL; Naval 
Medical Center San Diego, San Diego, CA; Camp Pendleton, San Diego, CA; 
Minneapolis Veterans Affairs Medical Center, Minneapolis, MN; Veterans 
Affairs Palo Alto Health Care System, Palo Alto, CA; Fort Bragg, NC; 
Fort Carson, CO; Fort Hood, TX; Camp Lejeune, NC; Fort Campbell, 
Kentucky; Boston VA, Massachusetts; Virginia Neurocare, Inc., 
Charlottesville, VA; Hunter McGuire Veterans Affairs Medical Center, 
Richmond, VA; Wilford Hall Medical Center, Lackland Air Force Base, TX; 
Brooks Army Medical Center, San Antonio, TX; Laurel Highlands, 
Johnstown, PA; DVBIC-Johnstown, PA.
---------------------------------------------------------------------------
    I am here today to ask for your support for $40 million for the 
DVBIC and $45 million for the National Intrepid Center of Excellence 
(NICoE) in the Defense Appropriations bill for fiscal year 2011. This 
level of funding is consistent with the request made by 30 Members of 
the Congressional Brain Injury Task Force to the House Appropriations 
Committee as well as with the President's budget request. The 
Administration requested a total of $920 million: $670 million for 
treatment and $250 million for research. Since DVBIC and NICoE provide 
both treatment and research, line items are requested for these 
individual agencies.
    As you know, traumatic brain injury (TBI) remains the ``signature 
injury'' of the conflicts in Iraq and Afghanistan, affecting over 10 
percent of all deployed service personnel. Blast-related injuries from 
improvised explosive devices and extended deployments are contributing 
to an unprecedented number of TBIs (ranging from mild, as in 
concussion, to severe, as in unresponsive states of consciousness) and 
psychological conditions such as anxiety, depression, post traumatic 
stress disorder (PTSD) and suicide. TBI-related health issues cost 
billions of dollars, not including lost productivity or diminished 
quality of life.
    For a myriad of reasons, it is in everyone's best interest--our 
wounded warriors, their families and loved ones, our national security 
and military readiness and the nation's taxpayers--to assure that 
service members with TBI are given the appropriate treatment and 
rehabilitation as soon as possible. Our country cannot afford to allow 
service members to fall through the cracks and suffer from the 
deleterious effects, sometimes life long, of TBI.
    After sustaining an initial TBI, a service member is at twice the 
risk of sustaining another TBI and compounding the injury. This can be 
particularly devastating in a combat zone especially if not removed 
from action. A 2009 Consensus group of brain injury specialists (50 
civilian and military experts), suggested that troops with mild TBI 
receive cognitive rehabilitation as soon as possible. 
(Neurorehabilitation. 2010 Jan 1; 26 (3): 239-55.
    On June 7, 2010, National Public Radio and Propublica published the 
results of an independent investigation which showed that despite the 
DOD's efforts to detect and treat TBI, a huge number remain 
undiagnosed. NPR reports that ``the nation's most senior medical 
officers are attempting to downplay the seriousness of so-called mild 
TBI. As a result, soldiers haven't been getting treatment.'' (http://
www.propublica.org/feature/brain-injuries-remain-undiagnosed-in-
thousands-of-soldiers). The report states that ``tens of thousands of 
troops with TBI have gone uncounted.''
Consistent Screening is Needed
    Four years ago, DVBIC began a comparative study on the efficacy of 
6 diagnostic screening tools but for various reasons there has been 
delay in publishing the results. Since May 2008, a pre-deployment 
cognitive test is used based on DVBIC's ANAM, but post deployment has 
been inconsistent. It is my understanding that top DOD officials fear 
that greater screening may produce false positives and follow up 
assessments and treatment will be expensive. This is unacceptable. In 
cases of positive screenings or when there is suspicion of TBI, a 
neuropsychological battery should be performed. Pending the results of 
DVBIC's study, DOD should convene a panel of outside experts to reach a 
consensus on the best post deployment screening tool which has 
demonstrated efficacy and use it consistently across the board. 
Amendments have been offered to the DOD Authorization bill currently 
under consideration that would help achieve this. Brigadier General 
Loree Sutton, head of the Defense Centers of Excellence for 
Psychological Health and TBI has repeatedly stated that her goal is to 
have ``consistent standards of excellence across the board.'' This is 
an area that desperately needs consistency.
Long Term Effects of Blast Injury Remain Unknown
    The lnstitute of Medicine's (IOM) Preliminary Assessment on the 
Readjustment Needs of Veterans, Service Members and Their Families 
(March 31, 2010) notes that there is a paucity of information on the 
lifetime needs of persons with TBI in the military and civilian sectors 
and recommends funding for additional research into protocols to manage 
the lifetime effects of TBI.
    This issue is compounded by the fact that blast injuries from IEDs 
are quite different from TBIs sustained in the civilian sector, from 
sports and car crashes. There is even less information on the long term 
effects of blasts.
    The National Defense Authorization Act for Fiscal Year 2008 
specifically directed DVBIC to conduct a 15 year study. Assuring 
funding of some $40 million specifically for DVBIC would further this 
goal.
Comorbid Conditions
    As I testified last year, the distinction between TBI and PTSD 
remains a problem. Some senior DOD medical officers continue to argue 
that symptoms can be treated without regard to the underlying problem. 
This is wrong. Treatments for PTSD are often contraindicated for TBI 
and vice versa. A service member with PTSD may be prescribed a beta 
blocker to address memory of the trauma, but it unknown how these 
treatments may affect recovery from TBI. Similarly, a stimulant may be 
prescribed for TBI to enhance certain brain activity, but stimulants 
may exacerbate certain symptoms of PTSD.
    More research must be done to develop evidence-based guidelines for 
TBI and PTSD, as well as guidelines to address the complexities of 
comorbid conditions.
Education
    The need continues for greater education and training for TBI 
specialists, particularly neurologists, physiatrists, 
neuropsychologists, cognitive rehabilitation specialists and physician 
assistants, occupational therapists, and physical therapists. For the 
past 3 years, DVBIC has held annual training sessions for some 800 
military medics. Continued funding is also needed for multi-media 
initiatives, development and dissemination of educational materials for 
providers, as well as informational tools for injured service members 
and their families and loved ones.
Outreach
    Congress should continue funding the DVBIC to improve outreach to 
service members in remote and underserved areas and follow up. Funding 
is needed to increase the number of case managers as well as expand 
DVBIC's TBI Care Coordination program to monitor the continuum of TBI 
services and connect service members with local and regional TBI-
related resources, clinical services, as well as family and patient 
support services.
    The IOM recommended that DOD and the Veterans Administration 
improve coordination and communication among the multitude of programs 
that have been created to meet the needs of returning service members 
and veterans. DVBIC coordination with civilian, private and public, 
resources and services could help fill the gaps in information and 
referral and service delivery.
    Greater effort needs to be made to create a safety net so that 
undiagnosed or misdiagnosed service members do not fall through the 
cracks. National Guard and Reserves are at particular risk as they 
often return to their civilian lives. In cases where TBI has been 
indicated, there have been reports of resistance from military 
treatment facilities in addressing their needs.
    A total of $40 million is requested for DVBIC to continue its work 
and expand and improve as necessary.
NICoE
    Scheduled to open this month, the National Intrepid Center of 
Excellence is expected to ``use an innovative holistic approach to the 
referral, assessment, diagnosis and treatment of those with complex 
psychological health and TBI disorders'' and serve as ``a global leader 
in generating, improving, and harnessing the latest advances in 
science, therapy, telehealth, education, research and technology while 
also providing compassionate family-centered care for service members 
and their loved ones throughout the recovery and community 
reintegration process.'' (Testimony of Charles L. Rice, MD, Acting 
Assistant Secretary of Defense for Health Affairs before HASC hearing 
April 13, 2010).
    NICoE is to provide neurological and psychological treatment to 
some 500 service members per year, for whom standard treatment is not 
successful. NICoE holds much promise, as clinical research can be done 
like never before. What's needed is to push the envelope and develop 
cutting edge rehabilitation efforts for various levels of TBI and then 
track long term outcomes. As a Center of Excellence, NICoE should lead 
the way in redefining the standard of care.
    It is envisioned that NICoE would develop specific treatment plan 
and then seek out community resources in an injured personnel's own 
community. However, funding is needed not only to encourage innovation 
but to assure that such treatments will be paid for when service 
members return to their communities, as new treatments will not likely 
yet be covered by Tricare.
    In order to provide intensive and innovative rehabilitation, 
research and coordination with consortia of public and private partners 
will be necessary. $30 million is needed for pilot projects to treat 
service members with various levels of TBI, including severe TBI and 
disorders of consciousness.
    A total of $45 million for NICoE is requested to be included in the 
DOD Appropriations bill for fiscal year 2011 for these purposes.
    In conclusion, DOD has made some significant strides in addressing 
the needs of service members with TBI, but more research and innovative 
treatment is needed. Your leadership and continued support for our 
wounded warriors is very much appreciated.
    Thank you for your consideration of this request to help improve 
the lives of our wounded warriors.

    Chairman Inouye. Our next witness is Major General David 
Bockel, executive director of the Reserve Officers Association 
of the United States.
STATEMENT OF MAJOR GENERAL DAVID BOCKEL, UNITED STATES 
            ARMY (RETIRED), EXECUTIVE DIRECTOR, RESERVE 
            OFFICERS ASSOCIATION
    General Bockel. Mr. Chairman, Mr. Vice Chairman, the 
Reserve Officers Association thanks you for the invitation to 
appear and give testimony.
    I am Major General David Bockel. I am the executive 
director of the Reserve Officers Association, and I am also 
authorized to speak on behalf of the Reserve Enlisted 
Association.
    A debate is going on whether the Reserve components are 
becoming too expensive and pricing themselves out of the market 
as an operational component. It is interesting to note that the 
argument about the cost of the Reserve and National Guard 
incentives, benefits, and readiness posture dates back to World 
War II. At that time, just as now, there were those who said 
that the Reserve component training, pay, and benefits would be 
unaffordable and would necessitate long-term costs.
    As both the Congress and the Pentagon are looking at 
reducing defense expenses, ROA finds itself again confronted 
with protecting one of America's greatest assets, the Reserve 
components. There are some who would take cuts from the Reserve 
rather than the Active Duty force. ROA and REA fully understand 
that when citizen warriors are used for an extended period, 
there is a substantial personnel cost. It is a cost of war.
    The statement that, while mobilized, a reservist or 
guardsman costs as much as an active component member isn't in 
dispute. On the other hand, the citizen warrior cost over a 
lifecycle, being mobilized only when needed and placed into a 
trained and ready-to-go posture when not recalled, is far less 
than the cost of an active component warrior.
    Additional cost savings are found when prior service 
training develop civilian proficiencies in badly needed 
military skill sets, are retained by having adequate number of 
Reserve billets across the spectrum of military missions.
    National Guard and Reserve members fully understand their 
duty and are proud to be serving operationally. And not only 
have they contributed to the war effort, but they have made the 
difference in maintaining an all-volunteer military force, and 
in the truest sense, the Reserve components have saved the 
country from a draft.
    Establishing parity in training, equipment, pay, and 
compensation is only fair when the young men and women in the 
Reserve components are taking their place on the front, 
assuming the same risk as the Active Duty force. Over 750,000 
men and women have left their homes, schools, and workplaces 
and have performed magnificently in the overseas operational 
contingencies in Afghanistan and Iraq.
    The condition of the Reserves and Guard today is different 
than it was 9 years ago. In ways, it is better, as almost every 
leader now is a combat-tested veteran. In other ways, however, 
the condition is worse. Equipment has been destroyed, worn out, 
or left in the theater.
    Every defense leader recognizes the need to continue to 
reset the force. ROA's written testimony includes lists of 
unfunded requirements that we hope this subcommittee will fund, 
but we also urge the subcommittee to specifically identify 
funding for both the National Guard and the Reserve components 
exclusively to train and equip the Reserve components.
    We hope, too, that this subcommittee continues to provide 
appropriations for the National Guard and Reserve equipment 
authorization. Appropriating funds to the Guard and Reserve 
equipment provides Reserve chiefs and National Guard directors 
with the flexibility of prioritizing funding. ROA and REA also 
hope that NGREA dollar levels are assessed based on mission 
contribution to make it more proportional.
    Another concern ROA and REA share is legal support for 
veterans and Guard and Reserve members returning from 
deployment to face the ever-increasing challenges of 
reemployment. On June 1, 2009, ROA established the Service 
Members Law Center.
    This is a pro bono service that provides legal advice and 
guidance to Reserve, National Guard, Active, and separated 
veterans, their families, legal counsel, and as well as 
providing information to attorneys, bar associations, 
employers, Members of Congress, and other interested parties. 
It does not provide legal representation.
    In just a year, the law center has received over 2,750 
requests for information on legal issues. Nearly 60 percent 
dealt with employment and reemployment rights. The service may 
be free, but this important service does cost money. Currently, 
with ROA's financial support, it allows the center to be 
virtually a one-man shop.
    Awareness of the service outside of ROA membership is only 
by word of mouth. This does not--there is not any outside 
promotion. With broader awareness, our vision is to grow and 
increase the staff and the services provided to our veterans 
from both Reserve and Active component communities, which will 
make more money--which will take more money. ROA would 
appreciate the opportunity to meet with your staff to discuss 
how this subcommittee can provide monetary support.
    Thank you again for your consideration of our testimony, 
and I am available to answer any questions.
    Chairman Inouye. I thank you very much, sir.
    We have got a workload. I can assure you we will do it.
    Senator Cochran. I was just curious about the law center 
that you mentioned in your testimony, whether or not there is 
pro bono legal activity. I know when I was practicing law in 
Mississippi before I came up here to serve in Congress, we had 
a volunteer legal services program for people who couldn't 
afford lawyers, the poor, and we didn't have as many built-in 
programs that provide legal services back then. But now there 
are quite a few.
    I wonder, are you getting support from local bar 
associations for this center?
    General Bockel. On a case-by-case basis. The gentleman who 
runs this law center, his name is Captain (Retired) Sam Wright, 
Navy Reserve, and he is the source authority on USERRA, Service 
Member Civil Relief Act, and military voting. When he is 
invited to speak to bar associations, if they don't offer an 
honoraria, he asks for it.
    Interestingly enough, one of our members of the Reserve 
Officers Association who is also an attorney is providing an 
amicus brief to the United States Supreme Court on a case that 
is going to be heard in the fall. And it is going to be very 
interesting because it is in I don't know how many years, it is 
the first time that a USERRA case has made it that far.
    Senator Cochran. Thank you.
    Chairman Inouye. Thank you.
    [The statement follows:]
            Prepared Statement of Major General David Bockel
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.''
    The Association's 65,000 members include Reserve and Guard 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security.
    President: Rear Admiral Paul Kayye, MC, USNR (Ret.)
    Staff Contacts:
    Executive Director: Major General David R. Bockel, USA (Ret.)
    Legislative Director, Health Care: CAPT Marshall Hanson, USNR 
        (Ret.)
    Air Force Director: Mr. David Small
    Army and Strategic Defense Education Director: Mr. ``Bob'' Feidler
    USNR, USMCR, USCGR, Retirement: CAPT Marshall Hanson, USNR (Ret.)
    The Reserve Enlisted Association is an advocate for the enlisted 
men and women of the United States Military Reserve Components in 
support of National Security and Homeland Defense, with emphasis on the 
readiness, training, and quality of life issues affecting their welfare 
and that of their families and survivors. REA is the only Joint Reserve 
association representing enlisted reservists--all ranks from all five 
branches of the military.
    Executive Director: CMSgt Lani Burnett, USAF (Ret)
                               priorities
    CY 2010 Legislative Priorities are:
  --Providing adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Reset the whole force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Support citizen warriors, families and survivors.
  --Assure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
    Issues to help Fund, Equip, and Train:
  --Advocate for adequate funding to maintain National Defense during 
        overseas contingency operations.
  --Regenerate the Reserve Components (RC) with field compatible 
        equipment.
  --Fence RC dollars for appropriated Reserve equipment.
  --Fully fund Military Pay Appropriation to guarantee a minimum of 48 
        drills and 2 weeks training.
  --Sustain authorization and appropriation to National Guard and 
        Reserve Equipment Account (NGREA) to permit flexibility for 
        Reserve Chiefs in support of mission and readiness needs.
  --Optimize funding for additional training, preparation and 
        operational support.
  --Keep Active and Reserve personnel and Operation and Maintenance 
        funding separate.
  --Equip Reserve Component members with equivalent personnel 
        protection as Active Duty.
    Issues to assist Recruiting and Retention:
  --Support continued incentives for affiliation, reenlistment, 
        retention and continuation in the Reserve Component.
    Pay and Compensation:
  --Provide permanent differential pay for Federal employees.
  --Offer Professional pay for RC medical professionals.
  --Eliminate the one-thirtieth rule for Aviation Career Incentive Pay, 
        Career Enlisted Flyers Incentive Pay, Diving Special Duty Pay, 
        and Hazardous Duty Incentive Pay.
    Education:
  --Continued funding for the GI Bill for the 21st Century.
    Health Care:
  --Provide Medical and Dental Readiness through subsidized preventive 
        healthcare.
  --Extend military coverage for restorative dental care for up to 180 
        days following deployment.
    Spouse Support:
  --Repeal the SBP-Dependency Indemnity Clause (DIC) offset.
             national guard and reserve equipment accounts
    It is important to maintain separate equipment and personnel 
accounts to allow Reserve Component Chiefs the ability to direct 
dollars to needs.
    Key Issues facing the Armed Forces concerning equipment:
  --Developing the best equipment for troops fighting in overseas 
        contingency operations.
  --Procuring new equipment for all U.S. Forces.
  --Maintaining or upgrading the equipment already in the inventory.
  --Replacing the equipment deployed from the homeland to the war.
  --Making sure new and renewed equipment gets into the right hands, 
        including the Reserve Component.
    Reserve Component Equipping Sources:
  --Procurement.
  --Cascading of equipment from Active Component.
  --Cross-leveling.
  --Recapitalization and overhaul of legacy (old) equipment.
  --Congressional adds.
  --National Guard and Reserve Appropriations (NGREA).
  --Supplemental appropriation.
                              end strength
    The ROA would like to place a moratorium on reductions to the Guard 
and Reserve manning levels. Manpower numbers need to include not only 
deployable assets, but individuals in the accession pipeline. ROA urges 
this subcommittee to fund to support:
  --Army National Guard of the United States, 358,200.
  --Army Reserve, 206,000.
  --Navy Reserve, 66,500.
  --Marine Corps Reserve, 39,600.
  --Air National Guard of the United States, 106,700.
  --Air Force Reserve, 71,200.
  --Coast Guard Reserve, 10,000
    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. We 
need to pause to permit force planning and strategy to catch-up with 
budget reductions.
               nonfunded army reserve component equipment
    The Army National Guard and Army Reserve have made significant 
contributions to ongoing military operations, but equipment shortages 
and personnel challenges continue and if left unattended, may hamper 
the Reserves' preparedness for future overseas and domestic missions. 
In order to provide deployable units, the Army National Guard and the 
Army Reserve have cross-leveled large quantities of personnel and 
equipment to deploying units, an approach that has resulted in growing 
shortages in non-deployed units.
Army Reserve Unfunded Requirements
    Since 9/11, the Army Reserve has mobilized 185,660 soldiers and 
currently has about 29,000 deployed. Shortages of equipment on-hand, 
combined with significant substitute items in the Army Reserve's 
inventory, compromise units' ability to train in support of the modular 
Army and to meet surge requirements. The Army Reserve has about 73 
percent of its required equipment on-hand, but some critical items 
remain at less than 50 percent fill. Without a higher level of funding, 
the Army Reserve is projected to reach 85 percent of its equipment 
requirements by the end of fiscal year 2015.
    The Army Reserve has a fiscal year 2015 equipment requirement of 
$22.05 billion. Under current base budgeting and additional Overseas 
Contingency Operation funding the projected programmed funds are only 
$17.76 billion. This is a shortfall of $4.29 billion for the Army 
Reserve. The minimum NGREA funding to catch-up would be $944 million. 
Unresourced equipment includes:
    Transportation:
    Family of Medium Tactical Vehicles (FMTV)--$1.03 billion
    Heavy Tactical Vehicle (HTV)--$503 million
    Heavy Expanded Mobility Tactical Truck (HEMTT-LET)--$300 million
    Stryker Nuclear Biological and Chemical Recon Vehicle (NBC-RV)--
$547 million
    C-27A Cargo Aircraft--$26 million each
  --The latest addition to the United States Army Reserve Aviation 
        fleet is the C-27J Spartan Joint Cargo Aircraft (JCA). The Army 
        Reserve will be initially receiving 16.
    Tactical Quiet Generators [TQG's] PU-807A 100kW (3,036)--$5.8 
million
  --The Army Reserve requires 8,717 TQG's to perform its wartime 
        mission as well as its HLS/HLD responsibilities, but has only 
        5,681 on-hand. Of particular concern in an unfunded shortfall 
        of 59 100kW power units (PU's) that exists within Combat 
        Support Hospitals.
Army National Guard Unfunded Equipment Requirements
    Army National Guard (ARNG) units deployed overseas have the most 
up-to-date equipment available. However, a significant amount of 
equipment is currently unavailable to the Army National Guard in the 
states due to continuing rotational deployments and emerging 
modernization requirements. Equipment is need to replace broken 
equipment and battle loses, train in pre-mob, support the TPE, and to 
substitute for equipment in transit. To support the mission the ARNG 
has cross-leveled equipment. Current equipment procurement averages $5 
billion per year. Current equipment levels as of April 2010 are 77 
percent of equipment on-hand.
    HMMWVs (humvees) (2,063)--$2.4 billion
  --ARNG is critically short on certain HMMWV configurations that are 
        essential to domestic and Overseas Contingency Operations.
    Transportation--$1.15 billion
  --FMTV/LMTV Cargo Trucks; HMMWV; HTV 88 Heavy Trucks; Tactical 
        Trailers.
    Warfighter Information Network-Tactical (WIN-T)--$1.2 billion
  --Tactical telecommunications system consisting of infrastructure and 
        network components from the maneuver battalion to the theater 
        rear boundary. The WIN-T network provides Command, Control, 
        Communications, Computers, Intelligence, Surveillance, and 
        Reconnaissance (C\4\ISR) capabilities that are mobile, secure, 
        survivable, seamless, and capable of supporting multimedia 
        tactical information systems.
    Stryker combat vehicles, battalion (1)--$1.4 billion
  --Eight-wheeled vehicle that can travel up to 62.5 mph. It comes in 
        10 variants, including an infantry-carrier vehicle, a medical 
        evacuation vehicle and a command vehicle.
    Multi-Temperature Refrigerated Container System (MTRCS)--$7.5 
million
  --The Army National Guard has no refrigerated container systems on-
        hand, creating a combat readiness issue for selected 
        quartermaster units and forcing states to lease commercial 
        systems to transport food and medical supplies during HLS/HLD 
        missions and during training. The MTRCS is the Army's new 
        refrigerated container system.
           air force reserve components equipment priorities
Air Force Reserve Unfunded Requirements
    The Air Force Reserve (AFR) mission is to be an integrated member 
of the Total Air Force to support mission requirements of the joint 
warfighter. To achieve interoperability in the future, the Air Force 
Reserve top priorities for unfunded equipment are:
    Infra-Red Counter Measures C-130 (21)--$63 million
  --The AN/AAQ-24 (V) NEMESIS is an infrared countermeasure system 
        designed to protect against man-portable (shoulder-launched) 
        infrared-guided surface-to-air missiles.
    Infra-Red Counter Measures KC-135 (15)--$15 million
  --KC-135 aircraft deployed in support for Operation Iraqi and 
        Enduring Freedom have inadequate protection against the 
        Infrared Missile threat. For the procurement and installation 
        of the Guardian AN/AAQ-24 (V) Large Aircraft Podded Infrared 
        Countermeasures (LAIRCM) system.
    Infra-Red Counter Measures C-5B/C-17s (13)--$90 million
  --For the procurement and installation of the AN/AAQ-24 V NEMESIS, an 
        infrared countermeasure system designed to protect against man-
        portable (shoulder-launched) surface-to-air missiles.
    Helmet Mounted Integrated Targeting [HMIT] (39)--$6 million
  --Upgrade and enhancement to engagement systems.
    C-5 Structural Repair (6)--$66 million
  --Stress corrosion cracking of C-5A skins and box beam fittings 
        requires fleet-wide replacement to avoid grounding and 
        restriction of outsize cargo-capable to sustain strategic 
        mobility assets.
    Security Forces Weapons & Tactical Equipment--$5.5 million
  --Also: The USAFR #1 need is MILCON dollars. Of the total fiscal year 
        2011 USAF MILCON budget, The AF Reserve was only funded with 
        $3.4 million for its top facilities project, but is underfunded 
        by $1 billion.
Air National Guard Unfunded Equipment Requirements
    Shortfalls in equipment will impact the Air National Guard's 
ability to support the National Guard's response to disasters and 
terrorist incidents in the homeland. Improved equipping strengthens 
readiness for both overseas and homeland missions and improves the ANG 
capability to train on mission-essential equipment.
    C-17 Globemaster III transport aircraft (5)--$1.3 billion
  --As highlighted as an ANG airlift requirement.
    Infra-Red Counter Measures--$238 million
  --Procure and install LAIRCM systems on C-5, C-17, C-130, 130, HC-
        130, EC-130, KC-135 a/c
    Air Defensive Systems--$49 million
  --Continue to install ADS systems onto C-5, C-17, and F-15 aircraft.
    Security Force Equipment--$79.4 million
  --Crowd control, Tasers, Protective garments, eyewear, goggles, 
        rifles, weapons accessories, traffic control kits, and night 
        vision devices.
    Helmet Mounted Cueing System (HMCS)--$30 million
  --The addition of a day/night helmet mounted cueing system (HCMS) 
        will significantly increase pilot situational awareness (SA), 
        aircraft survivability, and lethality in every mission area. 
        Needed for F-16 and A-10 aircraft.
                    navy reserve unfunded priorities
    Active Reserve Integration (ARI) aligns Active and Reserve 
component units to achieve unity of command. Navy Reservists are fully 
integrated into their Active component supported commands. Little 
distinction is drawn between Active component and Reserve component 
equipment, but unique missions remain.
    C-40 A Combo cargo/passenger Airlift (2)--$170 million
  --The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
        Aircraft. The C-40A is able to carry 121 passengers or 40,000 
        pounds of cargo, compared with 90 passengers or 30,000 pounds 
        for the C-9.
    Maritime Expeditionary Security Force--$20 million
  --Navy Expeditionary Combat Command has 17,000 Navy Reservists and 
        requires $3.1 billion in Reserve Component (Table of Allowance) 
        TOA equipment.
    KC-130J Super Hercules Aircraft tankers (2)--$168 million
  --These Aircraft are needed to fill the shortfall in Navy Unique 
        Fleet Essential Airlift (NUFEA). Procurement price close to 
        upgrading existing C-130Ts with the benefit of a long life 
        span. Twenty-four replacements required through 2030.
    C-37 B (Gulf Stream) Aircraft (1)--$64 million
  --The Navy Reserve helps maintain executive transport airlift to 
        support the Department of the Navy.
    Civil Engineering Support Equipment--Tactical Vehicles--$4.4 
million
                marine corps reserve unfunded priorities
    More than 54,000 Marine Corps Reservists have executed over 70,000 
mobilizations. Nearly one-third of the authorized 39,600 end strength 
have deployed outside the continental United States. The young men and 
women have become an experienced combat force, but are limited in their 
mission by the availability of equipment.
    KC-130J Super Hercules Aircraft tankers (4)--$200 million
            or advanced procurement--$48 million
  --These Aircraft are needed to fill the shortfall in Marine Corps 
        Essential Airlift. USMCR needs 28 airframes, and procurement 
        price close to upgrading existing C-130Ts with the benefit of a 
        longer life span. Commandant, USMC, has testified that 
        acquisition must be accelerated.
    Light Armored Vehicles--LAV--$1.5 million each
  --A shortfall in a USMCR light armor reconnaissance company, the LAV-
        25 is an all-terrain, all-weather vehicle with night 
        capabilities. It provides strategic mobility to reach and 
        engage the threat, tactical mobility for effective use of fire 
        power.
    Training Allowance (T/A) Shortfalls--$145 million
  --Shortfalls consist of over 300 items needed for individual combat 
        clothing and equipment, including protective vests, poncho, 
        liner, gloves, cold weather clothing, environmental test sets, 
        took kits, tents, camouflage netting, communications systems, 
        engineering equipment, combat and logistics vehicles and weapon 
        systems. USMCR goal is to ensure that the Reserve TA contains 
        the same equipment utilized by the active component.
    Obtain latest generation of Individual Combat and Protective 
Equipment including: M4 rifles; Rifle Combat Optic (RCO) scopes; Light 
weight helmets; Small Arms Protective Insert (SAPI) plates; Modular 
Tactical Vests; and Flame Resistant Organizational Gear.
           national guard and reserve equipment appropriation
    The Reserve components that were once held as a strategic force are 
now also being employed as an operational asset as well as a strategic 
reserve; stressing an ever greater need for procurement flexibility as 
provided by the National Guard and Reserve Equipment Appropriation 
(NGREA). Much-needed items not funded by the respective service budget 
are frequently purchased through NGREA. In some cases it is used to 
bring unit equipment readiness to a needed state for mobilization.
    The Reserve and Guard are faced with ongoing challenges on how to 
replace worn out equipment, equipment lost due to combat operations, 
legacy equipment that is becoming irrelevant or obsolete, and, in 
general, replacing that which is gone or aging through the abnormal 
wear and tear of deployment. The Reserve Components benefit greatly 
from a National Military Resource Strategy that includes a National 
Guard and Reserve Equipment Appropriation.
    ROA thanks Congress for approving $750 million for NGREA for fiscal 
year 2010, but even more dollars are needed. ROA urges Congress to 
continue the authorization and appropriate for a modern equipment 
account proportional to the missions being performed, which will enable 
the Reserve Component to meet its readiness requirements.
                       service members law center
    The Reserve Officers Association developed a Service Members Law 
Center, advising Active and Reserve servicemembers who are subject to 
legal problems that occur during deployment.
    In almost a year of operation (June 1, 2009 through May 6, 2010), 
the Service Members Law Center has advised 2,150 individuals, by 
telephone and/or e-mail, and in a few instances in person. Of those 
2,150, approximately 1,720 (80 percent) were Active or Reserve 
Component (overwhelmingly Reserve Component) members of the Armed 
Forces. Of those who have contacted us, the ROA Service Members Law 
Center has referred about 5 percent to attorneys.
    The ROA Service Members Law Center has also heard from and has 
provided information to attorneys, employers, congressional staffers, 
state legislators and staffers, reporters, and veterans who are not 
currently Active or Reserve Component members of the Armed Forces but 
have been in the past.
    The legal center helps encourage new members to join the Active, 
Guard and Reserve components by providing a non-affiliation service to 
educate prior service about the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) and Servicemember Civil Relief Act 
(SCRA) protections, and other legal issues. It helps retention as a 
member of the staff works with Active and Reserve Component members to 
counsel those who are preparing to deploy, deployed or recently 
deployed members facing legal problems.
    The Legal Center refers names of attorneys who work related legal 
issues, encouraging law firms to represent service members, and educate 
and training lawyers, especially active and reserve judge advocates on 
service member protection cases. The center is also a resource to 
Congress.
    The Supreme Court has granted a discretionary review of its first 
Supreme Court case under (USERRA). The Service Members Law Center will 
file an amicus curiae (friend of the court) brief in July.
    ROA sets aside office spaces and has already hired a lawyer to 
answer questions of serving members and veterans. The goal is to hire 
two additional staff with a paralegal and an administrative law clerk 
and provide suitable office equipment and workspace to help man the 
Service Members Law Center to expand counsel individuals and their 
legal representatives.
    Anticipated overall cost fiscal year 2011: $505,000.
                       cior/ciomr funding request
    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and the Interallied Confederation of Medical Reserve 
Officers (CIOMR) was founded in 1947. These organizations are a 
nonpolitical, independent confederation of national reserve 
associations of the signatory countries of the North Atlantic Treaty 
Organization (NATO). Presently there are 16 member nation delegations 
representing over 800,000 reserve officers. CIOR supports several 
programs to improve professional development and international 
understanding. The Reserve Officers Association of the United States 
represents the United States and is its member to CIOR.
    Military Competition.--The CIOR Military Competition is a strenuous 
3 day contest on warfighting skills among Reserve Officers teams from 
member countries. These contests emphasize combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body, operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French as specified by NATO Military Agency for Standardization, 
which affords international junior officer members the opportunity to 
become fluent in English as a second language.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops and individual countries help fund 
the events. Presently no Service has Executive Agency for CIOR so that 
these programs aren't being funded.
    Military Competition funding needs at $150,000 per fiscal year.
                               conclusion
    The impact of operations in Iraq and Afghanistan is affecting the 
very nature of the Guard and Reserve, not just the execution of Roles 
and Missions. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects close to 4 percent 
of GDP including supplemental dollars. ROA has a resolution urging that 
defense spending should be 5 percent to cover both the war and homeland 
security. While these are big dollars, the President and Congress must 
understand that this type of investment is what it will take to equip, 
train and maintain an all-volunteer force for adequate National 
Security.
    The Reserve Officers Association, again, would like to thank the 
subcommittee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Chairman Inouye. Our next witness is a member of the board 
of directors of the National Breast Cancer Coalition, Ms. Joy 
Simha.
STATEMENT OF JOY SIMHA, MEMBER, BOARD OF DIRECTORS, 
            NATIONAL BREAST CANCER COALITION AND CO-
            FOUNDER, YOUNG SURVIVAL COALITION
    Ms. Simha. Thank you.
    Thank you, Mr. Chairman and members of the Appropriations 
Defense Subcommittee for the opportunity to testify here today 
about the Department of Defense Breast Cancer Research Program. 
As successful as this competitive peer-reviewed program is, it 
warrants level funding.
    I am Joy Simha. I am a 16-year breast cancer survivor, a 
wife, a mother, and one of the co-founders of the Young 
Survival Coalition and, as you said, a board member of the 
National Breast Cancer Coalition. In addition, I sit on the 
integration panel of the Breast Cancer Research Program with 
three other survivors and about a dozen scientists.
    Chairman Inouye and Ranking Member Cochran, we truly 
appreciate your longstanding support of this innovative, 
successful program, which represents a meaningful, true way for 
women to fight breast cancer. Women and their families across 
the country are depending on this program.
    The program has a unique structure, which brings 
scientists, trained consumers, policymakers, and the Army 
together to collaborate toward ending breast cancer. There is 
no bureaucracy, and the Army is so efficient and effective in 
implementing the program. They should be applauded for using 
less than 10 percent of funds for administrative costs.
    The program is truly transparent and accountable to the 
taxpayer. The Era of Hope, which is a biennial meeting where 
scientists report back on their research results, provides 
opportunity for others to hear about and collaborate on 
innovative research results. In addition, all information about 
who gets funded can be found at the Department of Defense 
Breast Cancer Web site.
    The partnership with educated consumers, scientists, the 
Army, policymakers helps keep the science relevant to women. It 
ensures the program's sense of urgency at fulfilling its 
mission.
    This program pushes science to new levels. The focus is in 
changing the status quo by creating new models of research. The 
collaborators are not afraid to ask the very difficult, complex 
questions and fund unique models of research while maintaining 
the peer review model.
    As a true testimony to our success, the mission, the 
mechanisms, and the structure of the program have been used for 
models in other programs in other research and scientific 
research programs. This program has been applauded by the 
Institute of Medicine and others as an exemplary model of 
funding research.
    The program works. It not only saves women's lives, but it 
changes the status quo about how we do research. The Department 
of Defense Breast Cancer Research Program is a true means to an 
end. People across this country believe in the program and its 
ability to end breast cancer. I come to you as a survivor 
representing those people and the many wonderful women we have 
lost to breast cancer.
    I wish to dedicate my testimony today to two women who were 
once chairs of the integration panel who lost their lives 
recently to breast cancer--Carolina Hinestrosa, who is just 
about a 1-year--we lost her about 1 year ago, and Karin Noss. 
We continue our work to honor women as amazing as these two so 
that we can move forward and try to end breast cancer and save 
lives in the future.
    Thank you for your support and the opportunity to testify.
    Chairman Inouye. I thank you very much for your testimony. 
We will do our best.
    Senator Cochran. I want to congratulate you on the quality 
of your presentation, too. You would be a professional in many, 
many areas, but particularly the convincing way you presented 
your remarks I thought was worthy of praise.
    I noticed that in 2004, there was a report that reviewed 
this program and gave it very high marks and talked about the 
scientific breakthroughs that were occurring because of the 
things that your organization is doing. Congratulations.
    Ms. Simha. Thank you.
    [The statement follows:]
                    Prepared Statement of Joy Simha
                              introduction
    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to submit testimony today 
about a program that has made a significant difference in the lives of 
women and their families.
    I am Joy Simha, a 16-year breast cancer survivor, communications 
consultant, a wife and mother, co-founder of The Young Survival 
Coalition, and a member of the board of directors of the National 
Breast Cancer Coalition (NBCC). I am also a member of the Integration 
Panel of the Department of Defense Breast Cancer Research Program. My 
testimony represents the hundreds of member organizations and thousands 
of individual members of the Coalition. NBCC is a grassroots 
organization dedicated to ending breast cancer through action and 
advocacy. The Coalition's main goals are to increase Federal funding 
for breast cancer research and collaborate with the scientific 
community to implement new models of research; improve access to high 
quality healthcare and breast cancer clinical trials for all women; and 
expand the influence of breast cancer advocates wherever breast cancer 
decisions are made.
    Chairman Inouye and Ranking Member Cochran, we appreciate your 
longstanding support for the Department of Defense Peer Reviewed Breast 
Cancer Research Program. As you know, this program was born from a 
powerful grassroots effort led by the National Breast Cancer Coalition, 
and has become a unique partnership among consumers, scientists, 
Members of Congress and the military. You and your Committee have shown 
great determination and leadership in funding the Department of Defense 
(DOD) peer-reviewed Breast Cancer Research Program (BCRP) at a level 
that has brought us closer to eradicating this disease. I am hopeful 
that you and your Committee will continue that determination and 
leadership.
    I know you recognize the importance of this program to women and 
their families across the country, to the scientific and healthcare 
communities and to the Department of Defense. Much of the progress in 
the fight against breast cancer has been made possible by the 
Appropriations Committee's investment in breast cancer research through 
the DOD BCRP. To support this unprecedented progress moving forward, we 
ask that you support a separate $150 million appropriation, level 
funding, for fiscal year 2011. In order to continue the success of the 
Program, you must ensure that it maintain its integrity and separate 
identity, in addition to level funding. This is important not just for 
breast cancer, but for all biomedical research that has benefited from 
this incredible government program.
                           vision and mission
    The vision of the Department of Defense Breast Cancer Research 
Program is to ``eradicate breast cancer by funding innovative, high-
impact research through a partnership of scientists and consumers.'' 
The meaningful and unprecedented partnership of scientists and 
consumers has been the foundation of this model program from the very 
beginning. It is important to understand this collaboration: consumers 
and scientists working side by side, asking the difficult questions, 
bringing the vision of the program to life, challenging researchers and 
the public to do what is needed and then overseeing the process every 
step of the way to make certain it works. This unique collaboration is 
successful: every year researchers submit proposals that reach the 
highest level asked of them by the program and every year we make 
progress for women and men everywhere.
    And it owes its success to the dedication of the U.S. Army and 
their belief and support of this mission. And of course, to you. It is 
these integrated efforts that make this program unique.
    The Department of the Army must be applauded for overseeing the DOD 
BCRP which has established itself as a model medical research program, 
respected throughout the cancer and broader medical community for its 
innovative, transparent and accountable approach. This program is 
incredibly streamlined. The flexibility of the program has allowed the 
Army to administer it with unparalleled efficiency and effectiveness. 
Because there is little bureaucracy, the program is able to respond 
quickly to what is currently happening in the research community. 
Because of its specific focus on breast cancer, it is able to rapidly 
support innovative proposals that reflect the most recent discoveries 
in the field. It is responsive, not just to the scientific community, 
but also to the public. The pioneering research performed through the 
program and the unique vision it maintains has the potential to benefit 
not just breast cancer, but all cancers as well as other diseases. 
Biomedical research is literally being transformed by the DOD BCRP's 
success.
                         consumer participation
    Advocates bring a necessary perspective to the table, ensuring that 
the science funded by this program is not only meritorious, but that it 
is also meaningful and will make a difference in people's lives. The 
consumer advocates bring accountability and transparency to the 
process. They are trained in science and advocacy and work with 
scientists willing to challenge the status quo to ensure that science 
funded by the program fill important gaps not already being addressed 
by other funding agencies. Since 1992, more than 600 breast cancer 
survivors have served on the BCRP review panels.
    Last year, Carolina Hinestrosa, a breast cancer survivor and 
trained consumer advocate, chaired the Integration Panel and led the 
charge in challenging BCRP investigators to think outside the box for 
revelations about how to eradicate breast cancer. Despite the fact that 
her own disease was progressing, she remained steadfast in working 
alongside scientists and consumers to move breast cancer research in 
new directions. Unwilling to give up, she fought tirelessly until the 
end of her life for a future free of breast cancer.
    Carolina died last year from soft tissue sarcoma, a late side 
effect of the radiation that was used to treat her breast cancer. She 
once eloquently described the unique structure of the DOD BCRP:
    ``The Breast Cancer Research Program channels powerful synergy from 
the collaboration of the best and brightest in the scientific world 
with the primary stakeholder, the consumer, toward bold research 
efforts aimed at ending breast cancer.''
    No one was bolder than Carolina, who was fierce and determined in 
her work on the DOD BCRP and in all aspects of life she led as a 
dedicated breast cancer advocate, mother to a beautiful daughter, and 
dear friend to so many. Carolina's legacy reminds us that breast cancer 
is not just a struggle for scientists; it is a disease of the people. 
The consumers who sit alongside the scientists at the vision setting, 
peer review and programmatic review stages of the BCRP are there to 
ensure that no one forgets the women who have died from this disease, 
and the daughters they leave behind, and to keep the program focused on 
its vision.
    For many consumers, participation in the program is ``life 
changing'' because of their ability to be involved in the process of 
finding answers to this disease. In the words of one advocate:
    ``Participating in the peer review and programmatic review has been 
an incredible experience. Working side by side with the scientists, 
challenging the status quo and sharing excitement about new research 
ideas . . . it is a breast cancer survivor's opportunity to make a 
meaningful difference. I will be forever grateful to the advocates who 
imagined this novel paradigm for research and continue to develop new 
approaches to eradicate breast cancer in my granddaughters' 
lifetime.''------Marlene McCarthy, two-time breast cancer ``thriver'', 
Rhode Island Breast Cancer Coalition
    Scientists who participate in the Program agree that working with 
the advocates has changed the way they do science. Let me quote Greg 
Hannon, the fiscal year 3010 DOD BCRP Integration Panel Chair:
    ``The most important aspect of being a part of the BCRP, for me, 
has been the interaction with consumer advocates. They have currently 
affected the way that I think about breast cancer, but they have also 
impacted the way that I do science more generally. They are a constant 
reminder that our goal should be to impact people's lives.''------Greg 
Hannon, PhD, Cold Spring Harbor Laboratory
                            unique structure
    The DOD BCRP uses a two-tiered review process for proposal 
evaluation, with both steps including scientists as well as consumers. 
The first tier is scientific peer review in which proposals are weighed 
against established criteria for determining scientific merit. The 
second tier is programmatic review conducted by the Integration Panel 
(composed of scientists and consumers) that compares submissions across 
areas and recommends proposals for funding based on scientific merit, 
portfolio balance and relevance to program goals.
    Scientific reviewers and other professionals participating in both 
the peer review and the programmatic review process are selected for 
their subject matter expertise. Consumer participants are recommended 
by an organization and chosen on the basis of their experience, 
training and recommendations.
    The BCRP has the strictest conflict of interest policy of any 
research funding program or institute. This policy has served it well 
through the years. Its method for choosing peer and programmatic review 
panels has produced a model that has been replicated by funding 
entities around the world.
    It is important to note that the Integration Panel that designs 
this Program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists and consumers know now and the gaps in our knowledge--as 
well as the needs of the public. While this plan is mission driven, and 
helps ensure that the science keeps to that mission of eradicating 
breast cancer in mind, it does not restrict scientific freedom, 
creativity or innovation. The Integration Panel carefully allocates 
these resources, but it does not predetermine the specific research 
areas to be addressed.
                   distinctive funding opportunities
    The DOD BCRP research portfolio includes many different types of 
projects, including support for innovative individuals and ideas, 
impact on translating research from the bench to the bedside, and 
training of breast cancer researchers.
Innovation
    The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. Concept Awards support funding even earlier in the process of 
discovery. These grants have been instrumental in the development of 
promising breast cancer research by allowing scientists to explore 
beyond the realm of traditional research and unleash incredible new 
ideas. IDEA and Concept grants are uniquely designed to dramatically 
advance our knowledge in areas that offer the greatest potential. They 
are precisely the type of grants that rarely receive funding through 
more traditional programs such as the National Institutes of Health and 
private research programs. They therefore complement, and do not 
duplicate, other Federal funding programs. This is true of other DOD 
award mechanisms also.
    Innovator awards invest in world renowned, outstanding individuals 
rather than projects, by providing funding and freedom to pursue highly 
creative, potentially groundbreaking research that could ultimately 
accelerate the eradication of breast cancer. For example, in fiscal 
year 2008, Dr. Mauro Ferrari of the University of Texas Health Science 
Center at Houston was granted an Innovator Award to develop novel 
vectors for the optimal delivery of individualized breast cancer 
treatments. This is promising based on the astounding variability in 
breast cancer tumors and the challenges presented in determining which 
treatments will be most effective and how to deliver those treatments 
to each individual patient. In fiscal year 2006, Dr. Gertraud 
Maskarinec of the University of Hawaii received a synergistic IDEA 
Award to study effectiveness of the Dual Energy X-Ray Absorptiometry 
(DXA) as a method to evaluate breast cancer risks in women and young 
girls.
    The Era of Hope Scholar Award supports the formation of the next 
generation of leaders in breast cancer research, by identifying the 
best and brightest scientists early in their careers and giving them 
the necessary resources to pursue a highly innovative vision of ending 
breast cancer. Dr. Shiladitya Sengupta from Brigham and Women's 
Hospital, Harvard Medical School, received a fiscal year 2006 Era of 
Hope Scholar Award to explore new strategies in the treatment of breast 
cancer that target both the tumor and the supporting network 
surrounding it. In fiscal year 2007, Dr. Gene Bidwell of the University 
of Mississippi Medical Center received an Era of Hope Postdoctoral 
Award to study thermally targeted delivery of inhibitor peptides, which 
is an underdeveloped strategy for cancer therapy.
    One of the most promising outcomes of research funded by the DOD 
BCRP was the development of the first monoclonal antibody targeted 
therapy that prolongs the lives of women with a particularly aggressive 
type of advanced breast cancer. Researchers found that over-expression 
of HER-2/neu in breast cancer cells results in very aggressive biologic 
behavior. The same researchers demonstrated that an antibody directed 
against HER-2/neu could slow the growth of the cancer cells that over-
expressed the gene. This research, which led to the development of the 
targeted therapy, was made possible in part by a DOD BCRP-funded 
infrastructure grant. Other researchers funded by the DOD BCRP are 
identifying similar targets that are involved in the initiation and 
progression of cancer.
    These are just a few examples of innovative funding opportunities 
at the DOD BCRP that are filling gaps in breast cancer research.
Translational Research
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. DOD BCRP awards are designed to fill niches that are not 
addressed by other Federal agencies. The BCRP considers translational 
research to be the process by which the application of well-founded 
laboratory or other pre-clinical insight result in a clinical trial. To 
enhance this critical area of research, several research opportunities 
have been offered. Clinical Translational Research Awards have been 
awarded for investigator-initiated projects that involve a clinical 
trial within the lifetime of the award. The BCRP has expanded its 
emphasis on translational research by also offering five different 
types of awards that support work at the critical juncture between 
laboratory research and bedside applications.
    The Multi Team Award mechanism brings together the world's most 
highly qualified individuals and institutions to address a major 
overarching question in breast cancer research that could make a 
significant contribution toward the eradication of breast cancer. Many 
of these Teams are working on questions that will translate into direct 
clinical applications. These Teams include the expertise of basic, 
epidemiology and clinical researchers, as well as consumer advocates.
Training
    The DOD BCRP is also cognizant of the need to invest in tomorrow's 
breast cancer researchers. Dr. J. Chuck Harrell, Ph.D. at the 
University of Colorado, Denver and the University of North Carolina at 
Chapel Hill, for example, received a Predoctoral Traineeship Award to 
investigate hormonal regulation of lymph node metastasis, the majority 
of which retain estrogen receptors (ER) and/or progesterone receptors. 
Through his research, Dr. Harrell determined that lymph node 
microenvironment alters ER expression and function in the lymph nodes, 
effecting tumor growth. These findings led Dr. Harrell to conduct 
further research in the field of breast metastasis during his 
postdoctoral work. Jim Hongjun of the Battelle Memorial Institute 
received a postdoctoral award for the early detection of breast cancer 
using post-translationally modified biomarkers.
    Dr. John Niederhuber, now the Director of the National Cancer 
Institute (NCI), said the following about the Program when he was 
Director of the University of Wisconsin Comprehensive Cancer Center in 
April, 1999:
    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''
    Scientists and consumers agree that it is vital that these grants 
continue to support breast cancer research. To sustain the Program's 
momentum, $150 million for peer-reviewed research is needed in fiscal 
year 2011.
                  outcomes and reviews of the dod bcrp
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
12,241 publications in scientific journals, more than 12,000 abstracts 
and nearly 550 patents/licensure applications. The American public can 
truly be proud of its investment in the DOD BCRP. Scientific 
achievements that are the direct result of the DOD BCRP grants are 
undoubtedly moving us closer to eradicating breast cancer.
    The success of the DOD peer-reviewed Breast Cancer Research Program 
has been illustrated by several unique assessments of the Program. The 
IOM, which originally recommended the structure for the Program, 
independently re-examined the Program in a report published in 1997. 
They published another report on the Program in 2004. Their findings 
overwhelmingly encouraged the continuation of the Program and offered 
guidance for program implementation improvements.
    The 1997 IOM review of the DOD peer-reviewed Breast Cancer Research 
Program commended the Program, stating, ``the Program fills a unique 
niche among public and private funding sources for cancer research. It 
is not duplicative of other programs and is a promising vehicle for 
forging new ideas and scientific breakthroughs in the nation's fight 
against breast cancer.'' The 2004 report spoke to the importance of the 
program and the need for its continuation.
    The DOD peer-reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people every 
2 to 3 years at a public meeting called the Era of Hope. The 1997 
meeting was the first time a federally funded program reported back to 
the public in detail not only on the funds used, but also on the 
research undertaken, the knowledge gained from that research and future 
directions to be pursued.
    Sixteen hundred consumers and researchers met for the fifth Era of 
Hope meeting in June, 2008. As MSNBC.com's Bob Bazell wrote, this 
meeting ``brought together many of the most committed breast cancer 
activists with some of the nation's top cancer scientists. The 
conference's directive is to push researchers to think `out of the box' 
for potential treatments, methods of detection and prevention . . .'' 
He went on to say ``the program . . . has racked up some impressive 
accomplishments in high-risk research projects . . .''
    One of the topics reported on at the meeting was the development of 
more effective breast imaging methods. An example of the important work 
that is coming out of the DOD BCRP includes a new screening method, 
molecular breast imaging, which helps detect breast cancer in women 
with dense breasts--which can be difficult using a mammogram alone. I 
invite you to log on to NBCC's website http://
influence.stopbreastcancer.org/ to learn more about the exciting 
research reported at the 2008 Era of Hope. The next Era of Hope meeting 
is being planned for 2011.
    The DOD peer-reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and facilitated new thinking in breast cancer 
research and research in general. A report on all research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the Department of Defense website and look at the 
abstracts for each proposal at http://cdmrp.army.mil/bcrp/.
           commitment of the national breast cancer coalition
    The National Breast Cancer Coalition is strongly committed to the 
DOD BCRP in every aspect, as we truly believe it is one of our best 
chances for finding causes of, cures for, and ways to prevent breast 
cancer. The Coalition and its members are dedicated to working with you 
to ensure the continuation of funding for this Program at a level that 
allows this research to forge ahead. From 1992, with the launch of our 
``300 Million More Campaign'' that formed the basis of this Program, 
until now, NBCC advocates have appreciated your support.
    Over the years, our members have shown their continuing support for 
this Program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    Consumer advocates have worked hard over the years to keep this 
program free of political influence. Often, specific institutions or 
disgruntled scientists try to change the program though legislation, 
pushing for funding for their specific research or institution, or try 
to change the program in other ways, because they did not receive 
funding through the process, one that is fair, transparent and 
successful. The DOD BCRP has been successful for so many years because 
of the experience and expertise of consumer involvement, and because of 
the unique peer review and programmatic structure of the program. We 
urge this Committee to protect the integrity of the important model 
this program has become.
    There are 3 million women living with breast cancer in this country 
today. This year, more than 40,000 will die of the disease and more 
than 240,000 will be diagnosed. We still do not know how to prevent 
breast cancer, how to diagnose it in a way to make a real difference or 
how to cure it. It is an incredibly complex disease. We simply cannot 
afford to walk away from this program.
    Since the very beginning of this Program in 1992, Congress has 
stood with us in support of this important approach in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Cochran, you and this entire Committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. We 
ask you now to continue your leadership and fund the Program at $150 
million and maintain its integrity. This is research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 3 
million women in the United States living with breast cancer and all 
those who share in the mission to end breast cancer.

    Chairman Inouye. Our final witness represents the Program 
for Appropriate Technology in Health, Dr. John W. Boslego.
STATEMENT OF JOHN W. BOSLEGO, M.D., DIRECTOR, VACCINE 
            DEVELOPMENT GLOBAL PROGRAM, PROGRAM FOR 
            APPROPRIATE TECHNOLOGY IN HEALTH
    Dr. Boslego. Good morning. My name is John Boslego. I am 
the director of the Vaccine Development Global Program at PATH.
    I would like to begin by thanking Chairman Inouye and 
Ranking Member Cochran. I would also like to thank Senators 
Patty Murray and Dick Durbin for their ongoing championship of 
global health, and Senator Brownback for his leadership in 
ensuring access for lifesaving tools for neglected diseases in 
low-income countries.
    PATH is an international nonprofit organization that 
creates sustainable, culturally relevant solutions, enabling 
communities worldwide to break longstanding cycles of poor 
health. By collaborating with diverse public and private sector 
partners, we help provide appropriate health technologies and 
vital strategies that change the way people think and act.
    We wish to take this opportunity to recognize the specific 
and unique areas of expertise that the Department of Defense 
brings to bear in advancing innovation that ensures that people 
in low-resource settings have access to lifesaving 
interventions and technologies.
    The global health research effort of DOD responds to 
diseases many Americans may never see up close, but which 
military personnel stationed in the developing world experience 
alongside local communities. PATH requests that in fiscal year 
2011 the subcommittee provide robust support for DOD research 
and development programs aimed at addressing health challenges, 
particularly for military malaria vaccine research, as well as 
research at the Defense Advanced Research Project Agency, or 
DARPA.
    For malaria vaccine, more than one-third of the world's 
population is at risk of malaria, with approximately 250 
million cases occurring every year. And most of the nearly 1 
million deaths from malaria are among children in Africa under 
the age of 5.
    According to a 2006 IOM report, malaria has affected almost 
all military deployments since the American civil war and 
remains a severe ongoing threat. The same report noted that a 
vaccine would be the best method of averting the threat of 
malaria, given the likely increasing number of deployments to 
high-risk areas.
    Military researchers within the Military Infectious Disease 
Research Program are at the forefront of efforts to develop a 
malaria vaccine. One example of DOD's impact in malaria 
research is the most promising vaccine candidate in existence 
today, RTS,S. Research at the Walter Reed Army Institute of 
Research contributed to the development of the vaccine 
candidate, and early testing of RTS,S--created by 
GlaxoSmithKline--was done in collaboration with the U.S. 
military.
    Today, thanks to an innovative partnership between GSK Bio 
and PATH Malaria Vaccine Initiative--a PATH program that works 
to accelerate development of malaria vaccines and ensure their 
availability and accessibility in the developing world--RTS,S 
is now in a large-scale phase 3 trial, typically the last stage 
of testing prior to licensure. The U.S. Army is assisting in 
this trial by supporting one of the field sites in Kenya.
    Unfortunately, current funding levels are nowhere near what 
is needed to develop urgently needed countermeasures against 
malaria. PATH recommends $31.1 million in malaria R&D funding 
for DOD in fiscal year 2011.
    Another program making great contributions to health 
research and development is DARPA. DARPA has identified as a 
priority the development of health technologies that can help 
both the U.S. military and be of use in DOD-sponsored 
humanitarian and relief operations in regions emerging from 
conflict.
    One of the technologies pioneered by DARPA has led to 
electrochemical generators of chlorine. PATH has partnered with 
Cascade Design, Inc., on a new generation of smart 
electrochlorinators that inactivates bacteria, viruses, and 
some protozoa to create safe drinking water. The generators can 
be powered by solar-charged batteries, making them accessible 
to communities that do not have electricity infrastructure.
    In conclusion, in light of the critical role that DOD plays 
in global health research and development, we respectfully 
request the subcommittee provide the resources to maintain this 
important core capacity, including $31.1 million in malaria R&D 
funding.
    We thank you.
    Chairman Inouye. I thank you very much, Doctor, and you may 
be assured we will seriously consider your request.
    Senator Cochran. Thank you very much.
    I think malaria is one of those diseases that worldwide is 
probably the most aggressive and probably causes more deaths 
and illnesses than any other one malady. Is that right? Is that 
an accurate assessment?
    Dr. Boslego. Certainly, it is among the top killers, 
particularly in Africa.
    Senator Cochran. Well, thank you very much for reminding us 
of this and your assistance to the subcommittee.
    [The statement follows:]
                 Prepared Statement of John W. Boslego
    PATH appreciates the opportunity to submit written testimony 
regarding fiscal year 2011 funding for global health research and 
development to the Senate Defense Appropriations Subcommittee. PATH is 
an international nonprofit organization that creates sustainable, 
culturally relevant solutions, enabling communities worldwide to break 
longstanding cycles of poor health. By collaborating with diverse 
public- and private-sector partners, we help provide appropriate health 
technologies and vital strategies that change the way people think and 
act.
    We wish to take this opportunity to recognize the specific and 
unique areas of expertise that the Department of Defense (DOD) brings 
to bear in advancing innovation that ensures that people in low-
resource settings have access to life-saving interventions and 
technologies. Through DOD, the U.S. Government is able to apply this 
core capacity to improving health throughout the world.
    The global health research efforts of DOD respond to diseases many 
Americans may never see up close, but which military personnel 
stationed in the developing world experience alongside local 
communities. Medicines, vaccines, and diagnostics for health threats 
that disproportionately affect the developing world are critical for 
their protection. Health is also an important factor in global 
stability and security. The heavy burden of disease in the developing 
world hinders economic and social development, which in turn 
perpetuates conditions that breed political instability. DOD health 
research therefore benefits not only the U.S. military but also has the 
potential to reduce this health burden, and by doing so, reduce the 
likelihood of physical conflict.
    PATH requests that in fiscal year 2011, the Subcommittee provide 
robust support for DOD research and development programs aimed at 
addressing these health challenges, particularly two important 
programs. First, we request that the Subcommittee provide increased 
support for military malaria vaccine development efforts. Second, we 
request that the Subcommittee support research at the Defense Advanced 
Research and Projects Agency (DARPA) aimed at delivering healthcare to 
military personnel and civilians in remote, resource-poor, and unstable 
locations. PATH also requests that no funding cuts be made to DOD 
research and development.
Malaria and Vaccines
    Malaria is a parasitic infection transmitted by mosquitoes. More 
than one-third of the world's population is at risk of malaria, with 
approximately 250 million cases occurring every year. Most of the 
nearly 1 million annual deaths from malaria are among children in 
Africa under the age of five. A malaria vaccine is desperately needed 
to help prevent these deaths. While consistent use of effective 
insecticides, insecticide-treated nets, and malaria medicines saves 
lives, eradicating or even significantly reducing the impact of malaria 
will require additional interventions, including vaccines. Immunization 
is one of the most effective health interventions available. Just as it 
was necessary to use vaccines to control polio and measles in the 
United States, vaccines are needed as part of an effective control 
strategy for malaria. Furthermore, vaccines are typically the most 
efficient means of protecting military personnel from disease threats. 
When troops are deployed, and particularly under combat conditions, 
compliance with drug regimens or other disease-protection protocols can 
be difficult, if not impossible. Vaccination, in contrast, can be 
performed prior to deployment, and allows deployed personnel to remain 
focused on mission success, rather than chemoprophylaxis, bed nets, or 
insecticide application.
Malaria and the U.S. Military
    A 2006 Institute of Medicine (IOM) report \1\ found that ``malaria 
has affected almost all military deployments since the American Civil 
War and remains a severe and ongoing threat.'' For this reason, the 
military has historically taken an active and leading role in the 
development of health technologies to protect military personnel from 
malaria, or to treat them if they become infected with the disease. 
This work includes a robust, cutting-edge program aimed at developing a 
highly-efficacious malaria vaccine, suitable for use by military 
personnel. The aforementioned IOM study noted ``the fact that a vaccine 
would be the best method of averting the threat of malaria given the 
likely increasing number of deployments to high-risk areas.'' An 
effective vaccine would provide unparalleled protection to servicemen 
and women serving in malaria-endemic countries and regions, and would 
significantly reduce the impact of noncompliance, drug resistance, and 
other significant obstacles that currently limit the military's ability 
to provide protection from malaria. Military researchers within the 
Military Infectious Disease Research Program, including the U.S. Army 
Medical Research Institute of Infectious Diseases, U.S. Naval Medical 
Research Center, and the Walter Reed Army Institute of Research 
(WRAIR), are at the forefront of efforts to develop a malaria vaccine.
---------------------------------------------------------------------------
    \1\ Battling Malaria--Strengthening the U.S. Military Malaria 
Vaccine Program. National Academy of Sciences Press, Washington, D.C. 
2006.
---------------------------------------------------------------------------
    Research at WRAIR, for example, contributed to the development of 
the most promising vaccine candidate in existence today, RTS,S. Early 
testing of RTS,S--created by GlaxoSmithKline Biologicals (GSK Bio)--was 
done in collaboration with the U.S. military. Today, thanks to an 
innovative partnership between GSK Bio and the PATH Malaria Vaccine 
Initiative (MVI)--a PATH program that works to accelerate the 
development of malaria vaccines and ensure their availability and 
accessibility in the developing world--RTS,S is now in a large-scale 
Phase 3 trial, typically the last stage of testing prior to licensure. 
Although the efficacy of RTS,S is unlikely to prove adequate for 
military purposes--despite its potential benefit to young children in 
Africa--it has shown that developing a vaccine against malaria is 
possible and paved the way for other development efforts that could 
ultimately allow the military to vaccinate men and women against 
malaria before deploying them to endemic regions. Since its 
establishment in 1999, MVI has partnered with the military in a number 
of malaria vaccine development projects, including the preclinical 
development of an adenovirus-vectored malaria vaccine candidate 
developed by GenVec, Inc. that used a modified common cold virus to 
deliver multiple malaria antigens.
    Unfortunately, DOD spending on malaria research has been declining 
for several years from levels that were already comparatively small 
given the historic impact of malaria on overseas deployments. PATH 
requests that the Subcommittee reverse this trend, and provide the 
resources needed to develop the necessary tools--including vaccines--to 
protect soldiers, sailors, airmen, and marines from this deadly and 
debilitating disease threat. This would make possible a continuation of 
the kind of collaboration--characterized by joint funding--that 
currently exists between MVI and the U.S. Military Malaria Vaccine 
Program. In particular, PATH recommends $31.1 million in malaria R&D 
funding for DOD in fiscal year 2011.
DARPA and DTRA
    The Defense Advanced Research Projects Agency (DARPA) is DOD's 
primary research and development component and performs work on the 
cutting edge of multiple scientific disciplines, providing a wide range 
of critical new technologies and products for use by the military. 
DARPA has made and could make additional contributions in one area it 
has identified as a priority: developing health technologies that can 
both help the U.S. military, and be of use in DOD-sponsored 
humanitarian relief operations in regions emerging from conflict. 
Military personnel operating in developing countries face many of the 
same challenges to healthcare delivery as do the residents of those 
countries: electricity and transportation interruptions that can 
threaten the integrity of temperature-sensitive medicines and vaccines; 
lack of access to trained medical personnel and facilities; and an 
absence of infrastructures and technologies that allow for the rapid 
manufacture and delivery of medicines and vaccines for the treatment of 
unexpected infectious disease threats. Increased support for this 
research would help the United States to more effectively assist 
developing countries that need vaccines and other basic health 
technologies, while ensuring that health products are delivered as 
efficiently as possible.
    DARPA's investments in austere healthcare delivery systems--through 
their focus on disaster medicine in projects such as ``Real World,'' 
``Rapid Altitude Climatization,'' and ``SAVE II Ventilators''--
represent a commitment to interventions that could have positive and 
profound health implications for populations in low-resource settings. 
For example, DARPA pioneered technology that has led to electrochemical 
generators of chlorine that may be able to fulfill a community's needs 
for effective disinfectants for water or surfaces by using just salt 
water and a simple battery source, such as a car or motorcycle battery.
    The Smart Electrochlorinator provides a chlorine solution used to 
treat water from a variety of sources, bringing safe water into small-
community households. The devices effectively inactivate bacteria, 
viruses, and some protozoa to create safe drinking water. Since the 
generators can be powered by solar-charged batteries, they are 
accessible to communities that do not have an electricity 
infrastructure. The only resources required are 75 g of table salt and 
0.1 kWh per person per year, both potentially renewable. These costs 
are significantly less than required for the current large-scale 
community systems, resulting in break-even points that are within reach 
of very poor, small communities. PATH has partnered with Cascade 
Designs, Inc. on a new generation of smart electrochlorinator that has 
the potential to expand the project initiated by DARPA to broader 
community reach for both military and civilian benefit.
    The Defense Threat Reduction Agency (DTRA) is also doing 
groundbreaking work as it investigates innovations in vaccine and 
chemical reagent thermo-stabilization and point of care diagnostic 
tests for infectious diseases that has positive implications for global 
health and U.S. military support in low-resource settings. Such 
technologies will enable rapid pathogen identification in the field and 
threat zone to more rapidly enlist targeted interventions. PATH 
requests that the Subcommittee maintain funding for the DARPA and DTRA 
research aimed at developing solutions to these and other health 
challenges.
Conclusion
    In light of the critical role that at DOD plays in global health 
research and development, and the fact that investments in this area 
have been falling, we respectfully request that the Subcommittee 
provide the resources to maintain this important core capacity. We 
thank you for your consideration, and hope that you will consider PATH 
as a resource and partner on this issue.

                    ADDITIONAL SUBMITTED STATEMENTS

    Chairman Inouye. On behalf of the subcommittee, I would 
like to thank all of you, the witnesses, for the testimony 
today.
    The subcommittee has received some additional statements 
which will be inserted into the record at this point.
    [The statements follow:]
      Prepared Statement of the American Museum of Natural History
Overview
    Recognizing its potential to aid the Department of Defense in its 
goal to support research to prepare for and respond to the full range 
of threats, the American Museum of Natural History seeks in $3.5 
million in fiscal year 2011 to contribute its unique resources to the 
advancement of research in areas of science closely aligned with DOD's 
research priorities and to extend the research effort with an 
associated STEM (science, technology, engineering, mathematics) 
education component, to help build a workforce adequate to meet the 
nation's security needs.
About the American Museum of Natural History
    The American Museum of Natural History (AMNH) is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' The AMNH research staff numbers over 200, 
with tenure track faculty carrying out cutting-edge research in fields 
ranging from molecular biology and genome science to earth and space 
science, anthropology, and astrophysics. Museum scientists publish 
nearly 450 scientific articles each year and enjoy a success rate in 
competitive (peer reviewed) scientific grants that is approximately 
double the national average. The work of its scientists forms the basis 
for all the Museum's activities that seek to explain complex issues and 
help people to understand the events and processes that created and 
continue to shape the Earth, life and civilization on this planet, and 
the universe beyond.
Advancing Research Aligned With National Security Goals
    The Department of Defense (DOD) ensures the nation's security and 
its capacity to understand and respond to threats in this new era of 
complex defense challenges. DOD is committed to the research, tools, 
and technology that will achieve these goals, and to ensuring that the 
nation's 21st century science, technology, engineering, and mathematics 
(STEM) workforce is prepared to meet U.S. preparedness and security 
needs.
    The American Museum of Natural History (AMNH), in turn, is a 
preeminent research and public education institution, home to leading 
research programs in biocomputation, comparative genomics, and the 
life, physical, environmental, and social sciences--programs that are 
positioned to advance the Nation's capacity to prepare for and respond 
to security threats. AMNH is also a recognized leader in STEM 
education--in both out-of-school settings and with formal education 
partners--with local, regional, and national reach, and, with the 
recently launched Richard Gilder Graduate School, became the first 
American museum authorized to grant the Ph.D. degree.
    In fiscal year 2005, AMNH and DOD launched a multi-faceted research 
partnership via DARPA that leverages the Museum's unique expertise and 
capacity. Since that time, AMNH has been carrying out research that 
directly relates to DARPA goals by increasing our capacity to predict 
where disease outbreaks might occur and to effectively monitor disease-
causing agents and their global spread. This research project has been 
centered on the development of a computational system to rapidly 
compare genetic sequences of pathogens, and, utilizing the 
computational system, generating a global map showing the spread of 
disease-causing viruses over time and place.
    Throughout this partnership, DARPA program managers have supported 
AMNH's work, have made the research known to other DOD-supported 
scientists, and have invited AMNH scientists to participate in DARPA 
conferences. With DARPA support to date, the project has: advanced 
understanding of emerging infectious disease through the analysis of 
the origins and genomic evolution of SARS coronavirus; studied re-
assortment and drug resistance among influenza strains; and developed 
methods for mapping the spread of pathogens over time and geography. We 
are now able to track global evolution of pathogenic viruses such as 
avian influenza, and can identify, for any geographic region, the major 
and minor sources of pathogenic viruses. The research has investigated 
progressively more complex systems, moving from viruses to the study of 
bacteria, including ecological data into the realm of biogeographical 
and host-pathogen research.
    In fiscal year 2011, the Museum seeks DARPA support to advance its 
research in this and other high-priority areas for the Agency, and to 
enhance the research program with an associated STEM education 
component, providing diverse urban students with science content, 
research experiences, and mentoring in the project's STEM areas. In so 
doing, AMNH hopes to help meet the need for a well-educated population 
of college-level graduates in STEM fields. With this support, which 
AMNH will leverage with funds from non-Federal and Federal sources, 
AMNH will be able to continue to draw on its unique research, training, 
and education capabilities to advance goals critical to DOD and our 
national preparedness and security.
                                 ______
                                 
             Prepared Statement of Florida State University
    Summary: Florida State University is requesting $5,500,000 from the 
Research, Development, Test and Evaluation, Navy, Force Protection 
Applied Research (PE# 0602123N, Line 5) for the Integration of Electo-
kinetic Weapons into the Next Generation Navy Ships Program; $4,000,000 
from the Defense, Research, Development, Test and Evaluation, Defense-
wide, Government/Industry Co-Sponsorship of University Research (PE# 
0601111D8Z, Line 3) for the Integrated Cryo-cooled High Power Density 
Systems; $3,800,000 from the Research, Development, Test and 
Evaluation, Navy, Defense Research Sciences (PE# 0601153N, Line 3), for 
the Jet Engine Noise: Understanding and Reduction program, and 
$4,500,000 from the Research, Development, Test and Evaluation, Army 
University and Industry Research Centers Program (PE# 0601104A, Line 4) 
for the Nanotubes Optimized for Lightweight Exceptional Strength 
(NOLES)/Composite Material Program.
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $200 
million this past year in sponsored research awards.
    Florida State University attracts students from every state in the 
nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, Rhodes and Goldwater Scholars, as well as students with 
superior creative talent. Since 2005, FSU students have won more than 
30 nationally competitive scholarships and fellowships including 3 
Rhodes Scholarships, 2 Truman Scholarships, Goldwater, and 18 Fulbright 
Fellowships.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
research universities. Our new President, Dr. Eric Barron, will lead 
FSU to new heights during his tenure.
    Mr. Chairman, let me summarize our primary interest today. The 
first project involves improving our nation's fighting capabilities and 
is called the Integration of Electro-kinetic Weapons into the Next 
Generation Navy Ships Project.
    The U.S. Navy is developing the next-generation integrated power 
system (NGIPS) for future war ships that have an all-electric platform 
of propulsion and weapon loads and electric power systems with rapid 
reconfigurable distribution systems for integrated fight-through power 
(IFTPS). On-demand delivery of the large amounts of energy needed to 
operate these types of nonlinear dynamic loads raises issues that must 
be addressed including the appropriate topology for the ship electric 
distribution system for rapid reconfiguration to battle readiness and 
the energy supply technology for the various nonlinear dynamic load 
systems. The goal of this initiative is to investigate the energy 
delivery technologies for nonlinear dynamic loads, such as electro-
kinetic weapons systems, and investigate the integration and interface 
issues of these loads on the ship NGIPS through system simulations and 
prototype tests using power hardware-in-the loop strategies. To meet 
these research goals, the FSU facilities will be expanded with a 5 MW 
MVDC power converter and upgrade of the large scale real-time 
simulator. The results of this effort will provide the Navy's ship-
builders with vital information to design and de-risk deployable ship 
NGIPS and load power supplies.
    With significant support from the Office of Naval Research (ONR), 
FSU has established the Center for Advanced Power Systems (CAPS), which 
has integrated a real time digital power system simulation and modeling 
capability and hardware test-bed, capable of testing IPS power system 
components at ratings up to 5MW, offering unique hardware-in-the-loop 
simulation capabilities unavailable anywhere in the world. FSU is 
partnering with Florida Atlantic University, Florida International 
University, and General Atomics to combine the best talents for 
modeling and simulation of ship power systems, hardware-in-the-loop 
testing, power supplies for present and future electro-kinetic systems, 
and interfacing of the weapon to a ship power system. General Atomics 
will provide the power requirements for the weapons interface to the 
shipboard power distribution system. The National High Magnetic Field 
Laboratory (NHMFL) will utilize its research expertise and 
infrastructure for the proposed development. NAVSEA will be an advisor 
to the project for weapon system integration. We are requesting 
$5,500,000 for this important program.
    Our second project is also important to our nation's defense and 
involves our Integrated Cryo-cooled High Power Density Systems program. 
The objective of this program is to approach the goal of achieving high 
power densities through systems integration, management of heat 
generation and removal in the electrical system and minimize energy 
consumption and capital expenditures of large scale advanced power 
systems through cryo-cooled superconducting systems. The research 
activities are as follows:
    Systems Analysis.--Extensive system modeling and simulation of the 
integrated electrical and thermal systems to understand dynamic 
performance under normal and adverse conditions is necessary to achieve 
an optimal system configuration. Develop prototypes of key technologies 
and test in hardware-in-the-loop simulations at levels of several 
megawatts (MW) to validate and demonstrate the advanced technologies.
    Materials--Advanced Conductors, Semi-conductors and Insulation.--
Characterization of conductor materials (both normal and 
superconducting), semi-conductors (for use in power electronic 
components) and insulating materials (both thermal and electrical) at 
cryogenic temperatures to obtain the data needed to model system 
performance and design components for medium voltage dc (MVDC).
    Cryo-thermal Systems.--Optimize thermal system options, including 
conductive heat transfer and gas phase and fluid phase heat transfer 
systems. Modeling to understand effects from heat leaks from the 
ambient to the low temperature environment and internal heat generation 
are critical to successful performance. Adaptability to economical 
fabrication technologies is a major issue for investigation.
    System Components.--Consider new concepts for design of system 
components and interfaces to achieve optimum system integration. A 30 
meter, 10KV DC cable based on 2G HTS wire will be designed, fabricated 
and tested to prove the concept of a MVDC superconducting shipboard 
power distribution system and provide validated design parameters to 
the Navy. NAVSEA will be a scientific adviser to the project.
    We are seeking $4,000,000 for this important program in fiscal year 
2011.
    Third, I would like to tell you about our Jet Engine Noise: 
Understanding and Reduction Program. Engine noise from most modern 
tactical aircraft is dominated by the jet noise due to the exhaust of 
very high-speed (supersonic in most cases) gases from the jet engines; 
this portion of the noise is often referred to as jet noise. Noise 
levels in the vicinities of these aircraft are extremely high--often as 
high as 150 dB. This poses considerable risk to the health and safety 
of the personnel on carrier decks or near aircraft runways. These very 
high noise levels are also a problem due to their impact on the 
communities near military bases. If not properly addressed, the jet 
noise issue will continue to worsen since the noise footprint of future 
aircraft will likely be much higher due to higher exhaust velocities 
from their engines. Recently, the Naval Research Advisory Committee 
(NARC) released a report identifying aircraft exhaust noise as a major 
problem that requires immediate attention.
    Under this proposal, FSU proposes a comprehensive program with the 
short- and long-term goals of (a) developing jet noise suppression 
technologies that can be retrofitted in the current aircraft fleet; (b) 
undertaking a sustained research effort to better understanding the jet 
noise sources and fundamentals which will lead to the development of 
reduction capacities; and (c) to improve noise suppression technologies 
that will become an integral part of the propulsion systems in future 
aircraft.
    This will be achieved by leveraging our significant and unique 
resources and expertise in the study of jet noise and control. 
Leveraging resources provided by this program by the State of Florida, 
FSU will make appropriate improvements to our test and diagnostic 
facilities to provide the needed fundamental understanding for 
controlling jet noise. We will use our considerable expertise in Active 
Flow and Noise Control to rapidly develop and test many of the 
promising noise control concepts; maturing, then transitioning to the 
field, the most practical and promising ones. Our team has significant 
expertise in both the study and control of jet noise and collectively 
represents some of the best scientists and engineers presently working 
in this area. Given the interdisciplinary nature of this problem, we 
are ideally suited to making a notable impact in solving the jet noise 
suppression problem. We are asking for $3,800,000 to initiate this 
vital program.
    Our final project involves Nanotubes Optimized for Lightweight 
Exceptional Strength (NOLES) Composite Materials. The U.S. Army's 
objective of developing effective personnel protection and a lighter, 
stronger fleet of fighting vehicles may be achieved through the 
diminutive nanotubes that (1) are the strongest fiber known, (2) have a 
thermal conductivity two times higher than pure diamond, and (3) have 
unique electrical conductivity properties and an ultra-high current 
carrying capacity. For producing lightweight multifunctional 
composites, resins impregnated with nanotubes hold the promise of 
creating structures, which will be the strongest ever known, and hence 
offer maximum personnel and vehicle protection. Benefits are apparent 
not only to defense, but also throughout the commercial world.
    Partnered with the Army Research Laboratory, FSU's team of multi-
disciplinary faculty and students has developed unique design, 
characterization and rapid prototyping capabilities in the field of 
nano-composite research, leading to vital defense applications. The 
NOLES research team is developing high performance thermal management 
materials utilizing nanotubes. The NOLES team is using nanotube 
composites for shielding against electromagnetic interference. Also, 
FSU's composites are being tested for missile wings, UAVs and missile 
guidance systems by various defense contractors.
    Three core programs are envisioned for fiscal year 2011: (1) 
innovative lightweight personnel protection based on integrating 
cutting-edge technology and commercially available, proven materials 
for enhanced safety and security of war fighters; (2) developing 
nanotubes as a material platform and supporting manufacturing processes 
for a new generation of devices and structures, giving special 
attention to the design and demonstration for Army and defense 
applications; and (3) utilizing nanotube buckypaper and optically 
transparent nanotube thin films initially for liquid crystal display 
backlighting and eventually for flexible displays. We are seeking 
$4,500,000 to continue this program in fiscal year 2011.
    Mr. Chairman, we believe this research is vitally important to our 
country and would greatly appreciate your support.
                                 ______
                                 
      Prepared Statement of the Interstitial Cystitis Association
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the Subcommittee, thank you for the opportunity to discuss 
Interstitial Cystitis (IC) and to share my story to the Subcommittee. 
My name is Lauren Snyder, and I am a 29-year-old special needs teacher 
from Haddon Township, New Jersey. I am also a volunteer with the 
Interstitial Cystitis Association (ICA), the nation's foremost 
nonprofit organization dedicated to improving the quality of life for 
people living with IC. The ICA provides advocacy, research funding, and 
education to ensure early diagnosis and optimal care with dignity for 
people affected by IC. Until the biomedical research community 
discovers a cure for IC, our primary goal remains the discovery of more 
efficient and effective treatments to help patients live with the 
disease.
    IC is a chronic condition characterized by recurring pain, 
pressure, and discomfort in the bladder and pelvic region. The 
condition is often associated with urinary frequency and urgency, 
although this is not a universal symptom. The cause of IC is unknown. 
Diagnosis is made only after excluding other urinary and bladder 
conditions, possibly causing one or more years delay between onset of 
symptoms and treatment. Men suffering from IC are often misdiagnosed 
with bladder infections and chronic prostatitis. Women are frequently 
misdiagnosed with endometriosis, inflammatory bowel disease (IBD), 
irritable bowel syndrome (IBS), vulvodynia, and fibromyalgia, which 
commonly co-occur with IC. When healthcare providers are not properly 
educated about IC, patients may suffer for years before receiving an 
accurate diagnosis and appropriate treatment.
    Although IC is considered a ``women's disease'', scientific 
evidence shows that all demographic groups are affected by IC. Women, 
men, and children of all ages, ethnicities, and socioeconomic 
backgrounds develop IC, although it is most commonly found in women. 
Recent prevalence data reports that 3 to 8 million American women and 1 
to 4 million American men suffer from IC. Using the most conservative 
estimates, at least one out of every 77 Americans suffer from IC, and 
further study may indicate prevalence rates as high as 1 out of every 
28 people. Based on this information, IC affects more people than 
breast cancer, Alzheimer's diseases, and autism combined.
    The effects of IC are pervasive and insidious, damaging work life 
and productivity, psychological well-being, personal relationships, and 
general health. Quality of life (QoL) studies have found that the 
impact of IC can equal the severity of rheumatoid arthritis and end-
stage renal disease. Health-related QoL in women with IC is worse than 
in women with endometriosis, vulvodynia, or overactive bladder alone. 
IC patients have significantly more sleep dysfunction, higher rates of 
depression, increased catastrophizing, anxiety and sexual dysfunction.
    After sustaining permanent damage to my gastrointestinal tract as 
the result of salmonella poisoning and developing pelvic floor 
dysfunction, I underwent a number of surgical procedures that revealed 
the extent of damage to my bladder. After other conditions were ruled 
out, I finally received the diagnosis of IC and was able to begin 
meaning and appropriate treatment. In addition to medications, I 
receive Botox injections into my pelvic floor, as well as bladder 
instillations. In my case, these treatments, as well as the multiple 
surgeries I have undergone, require general anesthesia, 
hospitalization, and extended recovery time, causing me to miss work 
and other activities. As a person living with a disability, my work 
with special needs children is particularly rewarding. Unfortunately, 
my job requires bending, lifting, and repositioning my students, which 
is painful and challenging with my IC symptoms. In addition to 
teaching, I am also a swimming coach, but I have had to reduce my hours 
as extended exposure to the chlorine in the pool aggravates my bladder.
    Although IC research is currently conducted through a number of 
Federal entities, including the National Institutes of Health (NIH) and 
the Centers for Disease Control and Prevention (CDC), the DOD's Peer-
Reviewed Medical Research Program (PRMRP) remains essential. The PRMRP 
is an indispensable resource for studying emerging areas in IC 
research, such as prevalence in men, the role of environmental 
conditions such as diet in development and diagnosis, barriers to 
treatment, and IC awareness within the medical military community. 
Specifically, IC education and awareness among military medical 
professionals takes on heightened importance, as the President's fiscal 
year 2011 budget request does not include renewed funding for the CDC's 
IC Education and Awareness Program.
    On behalf of the ICA, and as an IC patient, I would like to thank 
the Subcommittee for including IC as a condition eligible for study 
under the DOD's PRMRP in the fiscal year 2010 DOD Appropriations bill. 
The scientific community showed great interest in the program, 
responding to the initial grant announcement with an immense outpouring 
of proposals. We urge Congress to maintain IC's eligibility in the 
PRMRP in the fiscal year 2011 DOD Appropriations bill, as the number of 
current military members, family members, and veterans affected by IC 
increases alongside the general population.

                         CONCLUSION OF HEARINGS

    Chairman Inouye. This subcommittee will take these issues 
under serious consideration as we develop our fiscal year 2011 
Defense appropriations bill, and this concludes our scheduled 
hearings for the fiscal year 2011 defense budget.
    And accordingly, the subcommittee will stand in recess, 
subject to the call of the Chair.
    [Whereupon, at 11:56 a.m., Wednesday, June 23, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

American Museum of Natural History, Prepared Statement of the....   566

Bennett, Senator Robert F., U.S. Senator From Utah:
    Prepared Statement of........................................   339
    Questions Submitted by...........................155, 166, 401, 466
Berman, Colonel Jonathan (Retired), M.D., Ph.D., United States 
  Army Medical Corps, on behalf of the American Society of 
  Tropical Medicine and Hygiene..................................   541
    Prepared Statement of........................................   543
Bockel, Major General David, United States Army (Retired), 
  Executive Director, Reserve Officers Association...............   548
    Prepared Statement of........................................   550
Bond, Senator Christopher S., U.S. Senator From Missouri:
    Questions Submitted by......................................62, 464
    Statements of.........................................175, 237, 367
Boslego, John W., M.D., Director, Vaccine Development Global 
  Program, Program for Appropriate Technology in Health..........   562
    Prepared Statement of........................................   564
Brownback, Senator Sam, U.S. Senator From Kansas:
    Prepared Statement of........................................    29
    Questions Submitted by............................56, 286, 288, 407

Carpenter, Major General Raymond W., Acting Director, Army 
  National Guard, Department of Defense........................235, 244
    Questions Submitted to.......................................   289
    Summary Statement of.........................................   266
Casey, General George W., Chief of Staff, Office of the 
  Secretary, Department of the Army, Department of Defense.......     1
    Prepared Statement of........................................     4
    Questions Submitted to.......................................    57
    Summary Statement of.........................................    26
Coane, Rear Admiral Casey, United States Navy (Retired), 
  Executive Director, Association of the United States Navy......   478
    Prepared Statement of........................................   479
Cochran, Elizabeth, Secretary, Associations for America's Defense   533
    Prepared Statement of........................................   534
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statement of........................................   338
    Questions Submitted by.......................................   51,
                        60, 165, 168, 171, 229, 232, 234, 362, 407, 463
    Statements of...............................174, 237, 370, 410, 473
Conway, General James T., Commandant, Marine Corps, Office of the 
  Secretary, Department of the Navy, Department of Defense.......   201
    Prepared Statement of........................................   203
    Questions Submitted to.......................................   232

Davis, John R., Director, Legislative Programs, Fleet Reserve 
  Association....................................................   484
    Prepared Statement of........................................   485
Debbink, Vice Admiral Dirk J., Chief, Navy Reserve, Department of 
  Defense........................................................   297
    Prepared Statement of........................................   298
    Questions Submitted to.......................................   331
Donley, Hon. Michael B., Secretary, Office of the Secretary, 
  Department of the Air Force, Department of Defense.............   365
    Prepared Statement of........................................   372
    Questions Submitted to.......................................   395
    Summary Statement of.........................................   370
Dorgan, Senator Byron L., U.S. Senator From North Dakota:
    Prepared Statement of........................................   338
    Questions Submitted by.....................................156, 360
    Statement of.................................................   368

Elkas, John C., M.D., J.D., on behalf of the Society of 
  Gynecologic Oncolo- 
  gists..........................................................   520
    Prepared Statement of........................................   521

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by..................................284, 361, 459
Flaherty, Rear Admiral Karen, Director, Navy Nurse Corps, 
  Department of the Navy, Medical Health Programs, Department of 
  Defense........................................................   140
    Prepared Statement of........................................   119
    Questions Submitted to.......................................   166
Florida State University, Prepared Statement of..................   567

Gates, Hon. Robert M., Secretary of Defense, Office of the 
  Secretary, Department of Defense...............................   409
    Prepared Statement of........................................   413
    Questions Submitted to.......................................   455
    Summary Statement of.........................................   411
Gooden, H. James, Chairman, Board of Directors, American Lung 
  Association....................................................   473
    Prepared Statement of........................................   475
Green, Lieutenant General (Dr.) Charles B., Surgeon General, 
  Department of the Air Force, Medical Health Programs, 
  Department of Defense..........................................    84
    Prepared Statement of........................................    86
    Questions Submitted to.......................................   156

Horoho, Major General Patricia, Chief, Army Nurse Corps, 
  Department of the Army, Medical Health Programs, Department of 
  Defense........................................................   138
    Prepared Statement of........................................   110
Hutchison, Senator Kay Bailey, U.S. Senator From Texas, Questions 
  Submitted by.................................................400, 465

Inouye, Chairman Daniel K., U.S. Senator From Hawaii:
    Opening Statements of...........1, 65, 173, 235, 337, 365, 409, 473
    Questions Submitted by.......................................   43,
  57, 146, 156, 166, 169, 227, 230, 232, 282, 287, 289, 331, 333, 334, 
                                                359, 395, 404, 455, 468
Interstitial Cystitis Association, Prepared Statement of the.....   570

Jones, Richard A., Legislative Director, National Association for 
  Uniformed Services.............................................   525
    Prepared Statement of........................................   527

Kelly, Lieutenant General John F., Commander, Marine Forces 
  Reserve and Marine Forces North, Department of Defense.........   305
    Prepared Statement of........................................   306
    Questions Submitted to.......................................   333
Kohl, Senator Herb, U.S. Senator From Wisconsin, Questions 
  Submitted by...................................................   398

Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Questions Submitted by..............46, 57, 152, 397, 406, 459, 469
    Statement of.................................................   368

Mabus, Hon. Ray, Secretary of the Navy, Office of the Secretary, 
  Department of the Navy, Department of Defense..................   173
    Prepared Statement of........................................   178
    Questions Submitted to.......................................   227
    Summary Statement of.........................................   176
Mason, Karen, Registered Nurse, Ovarian Cancer National Alliance.   494
    Prepared Statement of........................................   495
McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by..................................................53, 465
McHugh, Hon. John M., Secretary, Office of the Secretary, 
  Department of the Army, Department of Defense..................     1
    Prepared Statement of........................................     4
    Questions Submitted to.......................................    43
    Summary Statement of.........................................     3
McKinley, General Craig R., Chief, National Guard Bureau, 
  Department of Defense..........................................   235
    Prepared Statement of........................................   240
    Questions Submitted to.......................................   282
    Summary Statement of.........................................   238
Mikulski, Senator Barbara A., U.S. Senator From Maryland, 
  Questions Submitted by.......................................153, 159
Mullen, Admiral Mike, U.S. Navy, Chairman, Joint Chiefs of Staff, 
  Department of Defense..........................................   409
    Prepared Statement of........................................   423
    Questions Submitted to.......................................   468
Murray, Senator Patty, U.S. Senator From Washington:
    Questions Submitted by..............47, 58, 148, 161, 170, 461, 471
    Statement of.................................................   370

O'Reilly, Lieutenant General Patrick J., Director, Missile 
  Defense Agency, Department of Defense..........................   337
    Prepared Statement of........................................   342
    Summary Statement of.........................................   339

Putka, Dan, Ph.D., on behalf of the American Psychological 
  Association....................................................   516
    Prepared Statement of........................................   517

Rentfrow, Kathy, Volunteer, Dystonia Medical Research Foundation.   481
    Prepared Statement of........................................   483
Robinson, Vice Admiral Adam M., Jr., Surgeon General, Department 
  of the Navy, Medical Health Programs, Department of Defense....    65
    Prepared Statement of........................................    69
    Questions Submitted to.......................................   146
    Summary Statement of.........................................    66
Roughead, Admiral Gary, Chief of Naval Operations, Office of the 
  Secretary, Department of the Navy, Department of Defense.......   183
    Prepared Statement of........................................   185
    Questions Submitted to.......................................   230

Savant, Katie, Government Relations Deputy Director, National 
  Military Family Association....................................   498
    Prepared Statement of........................................   500
Schoomaker, Lieutenant General Eric B., M.D., Ph.D., Surgeon 
  General; and Commander, U.S. Army Medical Command, Department 
  of the Army, Medical Health Programs, Department of Defense....    76
    Prepared Statement of........................................    78
    Questions Submitted to.......................................   156
Schwartz, General Norton A., Chief of Staff, Department of 
  Defense........................................................   381
    Questions Submitted to.......................................   404
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Question Submitted by........................................   363
    Statement of.................................................     3
Simha, Joy, Member, Board of Directors, National Breast Cancer 
  Coalition and Co-Founder, Young Survival Coalition.............   556
    Prepared Statement of........................................   557
Siniscalchi, Major General Kimberly, Assistant Surgeon General 
  for Nursing Services, Air Force Nurse Corps, Department of the 
  Air Force, Medical Health Programs, Department of Defense......   143
    Prepared Statement of........................................   123
    Questions Submitted to.......................................   169
Stenner, Lieutenant General Charles E., Jr., Chief, Air Force 
  Reserve, Department of Defense.................................   315
    Prepared Statement of........................................   317
    Questions Submitted to.......................................   334
Stultz, Lieutenant General Jack C., Chief, Army Reserve, 
  Department of Defense..........................................   291
    Prepared Statement of........................................   292
    Questions Submitted to.......................................   331
Sumrall, Major General Michael H., Acting Director, Joint Staff, 
  National Guard Bureau, Department of Defense...................   254

Wicks, Terry C., Certified Registered Nurse Anesthetist, MHS, 
  American Association of Nurse Anesthetists.....................   489
    Prepared Statement of........................................   490
Wyatt, Lieutenant General Harry M., III, Director, Air National 
  Guard, Department of Defense.................................235, 250
    Questions Submitted to.......................................   287
    Summary Statement of.........................................   265

Zitnay, George A., Ph.D., Co-Founder, Defense and Veterans Brain 
  Injury Center..................................................   544
    Prepared Statement of........................................   545

 
                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

                                                                   Page

Additional Committee Questions...................................   395
Agile Combat Support.............................................   379
Air Force:
    Five Priorities..............................................   381
    Military Construction........................................   389
Air Superiority..................................................   374
Building Partnerships............................................   378
Command and Control..............................................   378
Cyberspace Superiority...........................................   375
C-130 Training...................................................   386
4.5 Generation Fighter...........................................   385
Four Objectives in 2010 QDR......................................   370
F-15E Radar Modernization........................................   384
F-35 Aircraft for Lackland AFB, Texas............................   401
Global:
    Intelligence, Surveillance, and Reconnaissance...............   377
    Precision Attack.............................................   375
Joint Strike Fighter Unit Costs..................................   388
KC-X Basing......................................................   390
Leasing Unmanned Aerial Vehicles.................................   383
Long Range Persistent Strike Development Program.................   401
Maintenance in the Air Force.....................................   400
NASA and Solid Rocket Production.................................   392
Newer Aircraft for Texas Air National Guard......................   401
Nuclear Deterrence Operations....................................   373
Personnel Recovery...............................................   378
Rapid Global Mobility............................................   376
Readiness and Resourcing.........................................   380
SBIRS Payloads...................................................   383
Space Superiority................................................   374
Special Operations...............................................   377
Strategic Focus..................................................   372
Strategy to Resources............................................   373
Summary..........................................................   380
World Trade Organization Ruling in Tanker Competition..........391, 393
Year of the Air Force Family.....................................   371

                         Department of the Army

                        Office of the Secretary

Additional Committee Questions...................................    43
America's Army--The Strength of the Nation.......................    15
Armed:
    Aerial Scout Helicopter......................................    44
    Scout Helicopter.............................................    51
Army:
    Funds Running Out in Fiscal Year 2010........................    45
    Guard and Reserve Equipment..................................    46
    Unmanned Aerial Vehicles.....................................    60
Bad Contracts....................................................    41
Behavioral Health................................................    30
Blue Grass Army Depot............................................    56
Brigade Combat Team..............................................    55
    Modernization............................................43, 52, 61
Character of Conflict in the 21st Century........................     6
Comprehensive Soldier Fitness and Mental Health..................    58
Contracting Capability...........................................    42
Counseling Services..............................................    54
Director of the Army Guard.......................................    46
Duplication of System............................................    39
Equipment in Theater.............................................    57
Families.........................................................    49
Future Role of MRAP Vehicles.....................................    44
Global Trends....................................................     5
Homeland Response Force..........................................    46
Hospital.........................................................    54
Housing Barracks.................................................    55
Joint Cargo Aircraft.............................................    45
Mental Health....................................................    58
Mi-17 Helicopter.................................................    35
Military Construction............................................    63
Mine Resistant Ambush Protected (MRAP) Vehicles..................53, 61
Modernize the Force..............................................    62
Modernizing......................................................    28
Modularity and Rebalance.........................................    27
National Guard and Reserves......................................    47
New Military/VA Hospital.........................................    38
PTSD/TBI.........................................................    55
Persistent Conflict..............................................     5
Recapitalization.................................................    57
Recruitment......................................................    32
Reset of Army Equipment..........................................    61
Resiliency of the Force..........................................51, 61
Response to Bad Contracts........................................    42
Restoring Balance/Risk...........................................    60
Restoring Balance: The Army's Four Imperatives...................     7
Roles of Land Forces.............................................     6
Schools..........................................................    56
Setting Conditions for the Future................................    10
Stewardship and Innovation.......................................    14
Strategic Context................................................     5
Stress on the Force..............................................    30
Stryker..........................................................32, 33
    V Hulls......................................................    59
Suicide..........................................................    31
    Prevention...................................................    38
Suicides.........................................................    53
Tactical Radios..................................................    45
Title 32 Line Item...............................................    47
Transients, Trainees, Holdees and Students (TTHS) Account........    63
Two Critical Challenges..........................................     7
Unmanned Aerial Vehicles.........................................    35

                         Department of the Navy

                        Office of the Secretary

Acquisition Excellence...........................................   181
Additional Committee Questions...................................   226
Amphibious Warfare Ships.........................................   193
Aviation.........................................................   221
    Programs.....................................................   188
Build Tomorrow's Navy............................................   187
Develop and Support our Sailors, Navy Civilians and their 
  Families.......................................................   198
Energy Reform....................................................   181
Information Dominance Programs...................................   194
Iraq and Afghanistan.............................................   205
Littoral Combat Ship.............................................   223
Marine Corps:
    Recruiting and Retention.....................................   217
    Reset/Reconstitution.........................................   217
Modernization of the MAGTF.......................................   211
President's Budget Request.......................................   215
Readiness........................................................   205
Remain Ready to Fight Today......................................   195
Ship Count.......................................................   216
    Mission Requirements.........................................   220
Submarine Programs...............................................   192
Suicides.........................................................   216
Surface Ship Programs............................................   190
Taking Care of Sailors, Marines, Civilians, and their Families...   180
Technology.......................................................   218
Unmanned Systems.................................................   182
Vision...........................................................   212
Women on Submarines..............................................   226
Your Marine Corps................................................   203

                        Medical Health Programs

Additional Committee Questions...................................   146
Air Force Nursing Research Initiatives...........................   170
Behavioral Health Providers......................................   166
Build Patient-Centered Care and Focus on Prevention to Optimize 
  Health.........................................................    88
CBOC.............................................................   146
Caring for:
    Our Heroes...................................................    71
    Wounded, Ill and Injured.....................................   134
Cervical Cancer..................................................   160
Chiropractic Care................................................   166
Chiropractors....................................................   155
    At MTFs......................................................   155
Civilian Nurse Transition Programs...............................   169
Community Based Primary Care Clinics.............................   156
Concept of Care..................................................    71
Critical Warfighting-skill Bonuses...............................    92
Defense Centers of Excellence....................................   152
    Chain of Command for Installation Repairs....................   147
Department-Wide Nurse Residency Program..........................   167
Evidence-based Practice: Optimize Performance....................   114
Excellence in Research and Development (R&D).....................    74
Expeditionary:
    Medicine and Humanitarian Assistance.........................    87
    Nursing......................................................   124
Family Readiness and Support.....................................   162
Force Health Protection..........................................    70
Funding a World Class Facility...................................   147
Health Professions Scholarship Program...........................   158
Hearing Center of Excellence.....................................   157
Human Capital: Portfolio of Talent...............................   116
Humanitarian.....................................................   126
    Assistance and Disaster Response.............................    70
Information Management/Information Technology....................    87
Investing in Our People: Education, Training, and Research.......    90
Joint:
    Medical Policies.............................................   169
    Venture Keesler-Biloxi Medical System........................   165
Leader Development: Build our Bench..............................   111
Mental Health:
    Assets and Services for Families.............................   150
    Awareness.............................................106, 149, 161
    Care.........................................................   164
    Professionals................................................   153
    Stigma.......................................................   151
Mental Healthcare for Reserve Component..........................   103
National Guard and Reserves......................................   104
Navy:
    Medicine:
        Interaction with Safe Harbor.............................   147
        Use of Software..........................................   152
    Nurse:
        Challenges at FHCC.......................................   167
        Corps Collaboration with VA..............................   168
        Recruiting Mechanisms....................................   167
Nurse:
    Corps:
        Contributions............................................   170
        Promotions...............................................   159
        Retention................................................   170
    Recruiting...................................................   148
    Resiliency...................................................   169
Operational Currency.............................................   127
Organizational Structure.........................................   130
Our:
    Leadership...................................................   123
    People.......................................................   119
    Practice.....................................................   121
O-7:
    Air Force Nurse Corps Billet.................................   169
    And O-8 Nurse Corps Billets..................................   146
Partnerships and Collaboration...................................    74
Psychological Health and Post-Traumatic Stress...................    72
Recruiting:
    And Retaining Officers.......................................   101
    And Retention................................................   127
    Bonuses......................................................    92
    Civilian Providers...........................................    99
    For the Reserves.............................................   148
Recruitment of Mental Health Professionals.......................   159
Rehabilitation for Wounded Warriors..............................    93
Research.........................................................   130
Reserve Components...............................................   164
Resiliency in the Force........................................168, 171
Skills Sustainment...............................................   129
Strategies for the Future........................................   133
Suicide Prevention.............................................105, 136
Supporting Families and Children.................................   108
The Navy Medicine Team...........................................    74
The Way Forward..................................................    75
Transforming Expeditionary Medicine and Aeromedical Evacuation 
  Capabilities...................................................    87
Transition of Wounded Warriors to the VA.........................   151
Traumatic Brain Injury...........................................    73
VA Sharing Agreements............................................   154
Value of Combat Medics...........................................   100
Walter Reed National Military Medical Center.....................    94
Warrior Care: Back to Basics.....................................   112
Way Ahead........................................................   134
Wilford Hall Closure.............................................   158
Women's Health: Cervical Cancer..................................   153
Wounded Warrior Care.............................................   163
Year of the Air Force Family.....................................    90

                         Missile Defense Agency

Additional Committee Questions...................................   358
Aegis:
    And GMD Competition..........................................   350
    Standard Missile Acquisition.................................   359
Airborne Laser Program...........................................   352
Cruise Missile Defense...........................................   353
Defense Against Regional Threats.................................   343
Defense of the Homeland Against Limited Attack...................   342
Develop New, Fiscally Sustainable Capabilities Over the Long Term   347
European Land-based versus Sea-based Defense.....................   357
Expand International Missile Defense Cooperation.................   347
GBI Numbers and Testing..........................................   349
Hedging Against Threat Uncertainty...............................   346
Israeli Cooperative Program Support..............................   362
Land-based Aegis.................................................   358
Missile Defense Strategy--European Defense.......................   354
NATO--Active Layered Theater Ballistic Missile Defense...........   362
Partnership With Japan...........................................   349
Phased Adaptive Approach--Aegis..................................   348
Proving the Ballistic Missile Defense System Works...............   345
Russia and the START Treaty......................................   355
SM-3:
    Cost.........................................................   350
    Missile Gap..................................................   363
START Treaty.....................................................   357
    And:
        Iranian Threat...........................................   351
        Limits to Response.......................................   352
    United States and Russia Cooperation.........................   356
Sea-based Assets.................................................   362
The New START Treaty.............................................   341
Theater High Altitude Area Defense (THAAD).......................   359

                             National Guard

Additional Committee Questions...................................   282
Air National Guard:
    Aging Fleet..................................................   269
    Fighter Shortfall............................................   287
    Recruiting and Retention.....................................   288
America's Exceptional Force, Home and Away.......................   250
Army and Air Guard--Equipment....................................   282
Best Value for America...........................................   250
Blackhawk Helicopters............................................   286
C-130............................................................   275
    Force Structure Changes......................................   287
Domestic Operations..............................................   254
Equipment Readiness..............................................   248
Facilities and Military Construction.............................   248
Families.........................................................   279
Family Support and Yellow Ribbon Programs........................   283
Future Plans--Our Vision.........................................   243
Health Assessments...............................................   280
In Memoriam......................................................   259
Introduction and Executive Overview..............................   240
Joint and Interagency Training...................................   257
Message from the Director.................................244, 250, 254
Military Construction............................................   284
NGB as a Joint Activity..........................................   243
National Guard Equipment.........................................   272
Operational Force................................................   277
Operations.......................................................   244
Personnel Strength and Quality Programs..........................   246
Present and Future Value.........................................   246
Protecting America's Future......................................   252
Rapid Evolution..................................................   240
Readiness........................................................   241
State Adjutants General..........................................   259
Suicide..........................................................   275
Supporting the Warfighter and Family.............................   258
Training and Technology..........................................   249
UH-60 Black Hawk Upgrades........................................   289
Vigilant Guard...................................................   257

                        Office of the Secretary

Additional Committee Questions...................................   454
Advocacy Programs................................................   423
Afghanistan......................................................   437
Alternate Engine.................................................   433
Balancing Global Strategic Risk..................................   429
Budget Submission................................................   421
Care for Our All-Volunteer Force.................................   414
China.....................................................447, 455, 469
C-17s............................................................   435
Defend our Interests in the Broader Middle East and South/Central 
  Asia...........................................................   425
Defense Department Spending......................................   457
Focus on Yemen and Somalia.......................................   452
Force Structure..................................................   434
Global Defense Posture...........................................   465
Health of the Force..............................................   427
Healthcare:
    Costs........................................................   459
    Projections..................................................   433
Impact of:
    Changing Health Benefits on Service Members..................   468
    Program Terminations.........................................   456
Iran to Develop Nuclear Weapon...................................   439
Iridium Constellation Replenishment..............................   455
Israeli-Palestinian Conflict.....................................   440
Joint Strike Fighter.............................................   432
Key Developments.................................................   424
Marjah...........................................................   441
Military Campaign in Kandahar....................................   446
National Interdiction Unit.......................................   451
New Government in Iraq...........................................   443
Rebalancing the Force:
    Preparing for the Future.....................................   416
    The Wars We Are In...........................................   415
Reforming How DOD Does Business..................................   418
Security Outposts................................................   422
Ships for Navy...................................................   443
Solid Rocket Motors..............................................   449
Somalia...................................................455, 457, 468
South Korea......................................................   466
Supplemental.....................................................   444
Temporary Task Forces............................................   458

                                Reserves

Additional Committee Questions...................................   330
Air Force Reserve:
    Manpower.....................................................   323
    Modernization................................................   323
    Retention....................................................   334
Broaden Total Force Initiative Opportunities.....................   322
Care for our Warrior Force.......................................   299
Career Intermission Pilot Program................................   332
Casualty Assistance and Military Funeral Honors..................   315
Continuum of Service.............................................   331
Equipment........................................................   310
Facilities.......................................................   312
Health Services..................................................   313
Integration With Active Forces...................................   328
Maintain a Strategic Reserve While Providing an Operational, 
  Mission Ready Force............................................   320
Marine Corps Reserve--Strain on the Force........................   333
Military Construction (Milcon) and Infrastructure Modernization..   324
Navy and Marine Corps Reserve Officer Recruiting.................   332
Personnel........................................................   308
Preserve the Care and Viability of the Reserve Triad.............   321
Progress in Programs for our People..............................   300
Quality of Life..................................................   314
Recruiting and Retention.......................................318, 324
Today's Marine Corps Reserve.....................................   307
Training.........................................................   311
Transition to Operational Reserve................................   331
Way Ahead........................................................   303

                                   - 

</pre></body></html>
